U.S. Department of Justice
Office of the Inspector General




            A Review of 

     Federal Prison Industries’ 

Electronic-Waste Recycling Program





                             Appendix – Volume I


                                      Office of the Inspector General
                                      Oversight and Review Division
                                                        October 2010
       This appendix presents reports that the OIG technical team members (FOH, NIOSH, and
OSHA) prepared following field work at the BOP institutions where UNICOR recycled e-waste. To
consolidate this information, the OIG requested that FOH compile and analyze the agencies'
findings, as well as information from OIG interviews and documents, address any discrepancies, and
provide the OIG with comprehensive health, safety, and environmental reports on conditions from
2003 to 2009 for each of the eight U NICOR e-waste recycling factories that had ongoing operations
during the OIG's investigation. These eight FOH reports are presented below and attach reports
from OSHA, NIOSH, and u.S. EPA. Each FOH report was peer reviewed by OSHA and NIOSH. u.S.
EPA provided comments on the FOH reports for FCls Elkton and Texarkana, institutions where EPA
conducted site inspections.
                         TABLE OF CONTENTS
VOLUME 1

    1.     USP ATWATER

    2.     FCI ELKTON

    3.     FCI FT. DIX

    4.     USP LEAVENWORTH

VOLUME 2

    5.     USP LEWISBURG

    6.     FCI MARIANNA

    7.     FCI TEXARKANA

    8.     FCC TUCSON
USPATWATER 

/'''''::&
(' ~              DEPARTMENT OF HEALTH & HUMAN SERVICES         Program Support Cente r
                                                                u .S. Public Health Serv ice
.,.~~
  "......I<I t.   	                                             Fede ra l O ccupationa l Hea lth Servi ce




                  EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                    HEALTH INFORMATION RELATED TO UNICOR 

                      E-WASTE RECYCLING OPERATIONS AT 

                                 USPATWATER 


                  PREPARED FOR THE UNITED STATES DEPARTMENT OF mSTICE
                            OFFICE OF THE INSPECTOR GENERAL




             Submitted to:

                               Oversight and Review Division
                               Office ofthe Inspector General
                               US. Department of Justice



             Submitted by: 	   Mr. George Bearer, CIH
                               FOH Safety and Health Investigation Team
                               Program Support Center
                               US. Public Health Service
                               Federal Occupational Health Service


                                            May 12, 2010
                                                     Table of Contents

1.0 	 INTRODUCTION ..................................................................................................... 4 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT USP 

      ATWATER ................................................................................................................ 5 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      USP ATWATER ...................................................................................................... 11 

      3.1 	 Safety and Health Practices and Procedures to Control Toxic Metals Exposure 

            ......................................................................................................................... 12 

      3.2 	 Safety and Health Practices and Procedures to Control Noise Exposure ....... 16 

      3.3 	 Other Safety and Health Practices and Procedures ......................................... 16 

4.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ............................. 17 

      4.1 	 Investigations for Exposure to Toxic Metals .................................................. 19 

            4.1.1 	 UNICOR and UNICOR Consultant Monitoring from 2002 through 

                        2005 ..................................................................................................... 19 

                        4.1.1.1 Exposure Evaluations between May 2002 and December 2002 

                                    ................................................................................................. 20 

                        4.1.1.2 Exposure Evaluations between December 2002 and June 2003 

                                    ................................................................................................. 23 

                        4.1.1.3 Exposure Evaluations between June 2003 and March 2005 ... 27 

                        4.1.1.4 Summary ofUNICOR and Consultant Evaluations-2002 

                                    through 2005 ........................................................................... 30 

            4.1.2 	 OSHA Complaints, Inquiries, and Inspection of2003 - 2005 ............ 32 

            4.1.3 	 NIOSHIDART and FOH Evaluation of April 2007 ........................... 35 

            4.1.4 	 UNICOR Consultant Exposure Evaluation of 2009 ........................... 37 

      4.2 	 Assessment of the Medical Surveillance Program .......................................... 40 

      4.3 	 Investigations for Noise Exposure .................................................................. 41 

      4.4 	 Environmental Issues ...................................................................................... 43 

      4.5 	 Summary ......................................................................................................... 46 

5.0 	 CONCLUSIONS...................................................................................................... 47 

      5.1 	 Heavy Metals Exposures ................................................................................. 47 

      5.2 	 Noise Exposure and Other Hazards ................................................................ 50 

      5.3 	 Health and Safety Programs, Plans, and Practices .......................................... 51 

      5.4 	 Health and Safety Regulatory Compliance ..................................................... 53 

      5.5 	 Environmental Compliance ............................................................................ 55 

6.0 	 RECOMMENDATIONS ......................................................................................... 55 

      6.1 	 Heavy Metals Exposures ................................................................................. 56 

      6.2 	 Noise Exposure and Other Hazards ................................................................ 59 

      6.3 	 Safety and Health Programs, Practices, and Plans .......................................... 59 

      6.4 	 Health and Safety Regulatory Compliance ..................................................... 61 

      6.5 	 Environmental Compliance ............................................................................ 62 

7.0 	 REFERENCES ........................................................................................................ 62 





                                                                   2

                                      Fignres

Figure 1:     USP Atwater UNICOR Factory Floor Plan Showing Sample Locations
Figure 2:     USP Atwater UNICOR Warehouse Floor Plan Showing Sample Locations


                                      Tables

Table 1:      Occupational Exposure Limits
Table 2:      Exposures Above the Action Level or Permissible Exposure Limit at USP
              Atwater as Determined by BOP and UNICOR Consultants and Industrial
              Hygienists
Table 3:      Maximum Concentration of Selected Contaminants for the Toxicity
              Characteristic


                                      Images

Image   1:    Below the Mezzanine Area in the Penitentiary Factory
Image   2:    Glass Breaking Area below the Mezzanine
Image   3:    Glass Filtration Booth
Image   4:    Booth in Room Adjacent to Loading Dock
Image   5:    CRT Glass Breaking
Image   6:    Peneteniary Demanufacturing Area
Image   7:    Camp Warehouse Demanufacturing Area
Image   8:    Inmate's Changing Room and Bins for Soiled Coveralls
Image   9:    UNICOR Food Service Area
Image   10:   UNICOR's Food Service Serving Line


                                     Appendix

Appendix:     Guidance for Evaluating Surface Samples


                                   Attachments

Attachment 1: NIOSHIDART Report - Walk-Through Survey Report: Electronic
              Recycling Operation
Attachment 2: Bulk Dust and Wipe Samples Collected by NIOSH and FOH
Attachment 3: NIOSH/HETAB Report - Findings and Recommendations from
              Evaluation ofUSP Atwater
Attachment 4: Department of Energy. Stop Work Policy December 18, 2009




                                         3

1.0       INTRODUCTION

At the request of the u.s. Department of Justice (DOJ) Office of the Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistle blower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR).l The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e., e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report consolidates and presents the findings of technical assessments
performed at UNICOR's e-waste recycling operations at the United States Penitentiary
(USP) in Atwater, California by industrial hygienists and other environmental and safety
and health specialists representing federal agencies including FOH; the Centers for
Disease Control and PreventionlNational Institute for Occupational Safety and Health
(CDCINIOSH) Division of Applied Research and Technology (DART); and NIOSH
Division of Surveillance Hazard Evaluation and Field Studies/Hazard Evaluations and
Technical Assistance Branch (DSHEFS/HETAB). Reports and field data from these
agencies are presented in the attachments to this report (see references for these reports in
Section 7.0). The primary objectives of these assessments were to characterize current
UNICOR operations and working conditions at USP Atwater in light of the
whistleblower allegations and to identify where worker exposures, environmental
contamination/degradation, and violations of governmental regulations and BOP policies
may still exist so that prompt corrective actions may be taken where appropriate. In
addition, this FOH report also relies upon information from documents assembled by the
OIG which were developed by various consultants, regulatory agencies, the BOP and
UNICOR staff.

The overall purpose of this report is to characterize current operations and working
conditions at USP Atwater (i.e., 2003 to present) especially with respect to the potential
for inmate and staff exposures 3 that may result from present day e-waste recycling
activities as well as from legacy contamination on building components from e-waste

           1 FPI, (cornrnonlyreferred to by its trade name UNICOR) is a wholly-owned, Government corporation that

operates factories and employs inmates at federal correctional institutions.
           2 E-waste is defined as a waste type consisting of any broken or llllwanted electrical or electronic device or
component.
           3 In this report, the term "exposure" refers to the airborne concentration of a contaminant (e.g., lead or
cadmium) that is measured in the breathing zone of a worker but outside of any respiratory protection devices used.
Unless otherwise noted, "exposure" should not be confused with the ingestion, inhalation, absorption, or other bodily
uptake of a contaminant. Concentrations reported and discussed in this report are not adjusted based on respirator
protection factors. However, when reported, it is indicated whether the exposure was within the protective capacity of
the respirator.



                                                            4

recycling operations which took place in the past. This report consolidates findings from
those contributing to the OIG investigation and evaluates additional assembled
information regarding BOP and UNICOR recycling operations (e.g., consultant reports,
programs and procedures, and various records and documents). Conclusions and
recommendations presented in this report are based on the entire body of available
reports, data, documents, interviews, and other information.

USP Atwater is one of seven BOP institutions that have ongoing e-waste recycling
operations for which an assessment report has been prepared by FOR. On October 10,
2008, FOR issued a separate report entitled "Evaluation ofEnvironmental, Safety, and
Health Information Related to Current UNICOR E-Waste Recycling Operations at FCI
Elkton" [FOR 2008a] detailing current exposure conditions at FCI Elkton. The FOR
report for FCI Elkton should be reviewed for a more comprehensive discussion of the
hazardous components found in waste electronics, pertinent regulatory requirements, and
other information that provides additional context to this report on USP Atwater. The
FOR report on USP Atwater is the last of eight comprehensive assessments that FOR has
prepared on individual UNICOR e-waste factories.

Currently, e-waste recycling operations at USP Atwater involve receipt of waste
electronics from various locations around the country, disassembly and sorting activities
(,breakdown'), and the associated material handling and facilities maintenance required
to support these operations. Glass breaking had been performed in the past at USP
Atwater but was discontinued in March 2005. In addition, glass breaking was suspended
UNICOR-wide in June 2009. USP Atwater facilities and processes are further discussed
in Section 2.0, below.


2.0 	   UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
        USPATWATER

The UNICOR e-waste recycling program began at USP Atwater in April 2002. Glass
breaking was started in the penitentiary factory in a mezzanine area under UNICOR's
administrative offices with limited and ineffective hazard controls as part of the initial
recycling operations in April 2002. As personal monitoring data were collected showing
elevated exposures, additional control measures were slowly implemented that included
PPE, respiratory protection, a progression of engineering controls, and relocation of glass
breaking operations (GBOs) to a room near the factory loading dock area. These
additional control measures were not fully effective in maintaining exposures below
occupational exposure limits until after February 2004, nearly two years after start-up.
Glass breaking was stopped at USP Atwater in March 2005.

As part of the OIG investigation, NIOSR/RETAB performed a medical surveillance
assessment at USP Atwater in October 2008. Glass breaking operations as they occurred
from April 2002 to March 2005 were described in the NIOSR/RETAB report (see
Attachment 3). In addition, NIOSR/DART with assistance from FOR conducted an on­
site industrial hygiene evaluation in April 2007 and prepared a report also describing



                                             5

facilities and operations (see Attachment 1). Based on these reports and other
infonnation gathered from the OIG investigation, the glass breaking operations are
summarized below.

In April 2002, glass breaking was initiated below the mezzanine area in the penitentiary
factory (see Image 1, below) without the benefit of proper respiratory protection or local
exhaust ventilation (LEV, an engineering control to prevent or reduce levels of airborne
metal dusts from entering the breathing zone of workers). In May 2002, a "3-stage
powder booth" (i.e., paint spray booth) was installed and modified by UNICOR staff for
CRT glass breaking (see Images 2, 3, and 4). Also, the GBO inmate workers were
provided dust masks described by the recycling factory Production Controller at that time
as being the "flimsy paper kind and not the N95 type". These dust masks would
therefore not have been adequate for the levels of toxic metals exposures found. Also, in
May 2002, fit testing of workers or other requirements of the OSHA respiratory
protection standard (e.g., medical qualification, training) had not been instituted. GBO
continued for about two months and then was suspended pending biological monitoring
results for lead and cadmium. Respirator fit testing was conducted in mid-July 2002, and
respirators were used for GBO after this time.

A UNICOR consultant developed a written lead and cadmium compliance plan in August
2002, after repeated exposure monitoring indicated exposures above OSHA pennissible
exposure limits (PEL) for lead and cadmium (exposures also exceeded the protection
factor of the respirators in use). However, according to the recycling factory Production
Controller at that time, this compliance plan was never implemented due to management
concerns over increased costs were they to do so. In December 2002, UNICOR installed
what it tenned a "ventilation system that exceeded OSHA standards." Although
exposures were reduced from levels found in 2002, cadmium exposures remained above
the OSHA PELs in early 2003. In June 2003, a glass breaking booth (retrofitted paint
spray booth) and GBO were relocated from the main factory into a room near an adjacent
loading dock (see Image 5). The exhaust air from the booth was vented to the outdoors.
This system was another attempt to improve engineering controls to lower exposures (the
third system attempted). The last exposure shown to be above the PEL was for cadmium
in February 2004. Glass breaking was stopped in March 2005 although other e-waste
disassembly (demanufacturing) operations continued (see Images 6 and 7). Section 4.0
provides additional details on the progression ofGBO, associated hazard controls, and
exposures. Also see the NIOSH/HETAB report (Attachment 3) for additional
infonnation.

Also as part of the OIG investigation, NIOSHIDART, with assistance from FOH,
perfonned an on-site industrial hygiene evaluation in April 2007. Glass breaking had
been stopped by this time. Other electronics recycling operations were underway,
including disassembly and related activities. The facilities and operations in place during
the NIOSHIDART and FOH site visit are described below (see NIOSHIDART report,
Attachment 1).




                                             6

The recycling of electronic components at USP Atwater is done in two separate
buildings: the main factory located within the penitentiary; and the warehouse located
approximately a cp.1arter mile a\Vay on the same property. Diagrams of these work areas
are ~0\Vl1 in Figures 1 and 2, respectively. These figures provide a general visual
description of the layout of the work process, although workers often moved throughout
their respective areas in the performance of their ta~s. In 2007, the population of the
UNICOR facility was apJXoximately 68 workers in the penitentiary factory with an
additional 28 in the camp warehouse.

The recycling of electronic components (not including glass breaking) can be organized
into three production processes: receiving and sorting; disassembly, and packaging and
shipping. In addition to these processes, ancillary facilities which supported the
UNICOR operations at the penitentiary factory were in place over various periods oftime
including a nearby clothing change room for inmate e-waste recycling workers, an eating
area, and a food service line (see Images 8, 9, and 10). Incoming materials to be recycled
are received at a warehouse where they are examined and sorted. During the 2007
evaluation by NIOSHIDART and FOH, it appeared that the bulk of the materials received
were computers, either de~top or notebooks, or related devices such as printers. Some
items, notably notebook computers, are upgraded and resold. These items are sorted for
that task.


Figure 1:   USP Atwater Penitentiary Factory Floor Plan Showing Sample Locations


                                            ATW'ATER - urHCDR 

                                                W'AREHDUSE 


                                                   lr----..,                                r-------,
                                   10......11"1.             ' ••LH """
                                                    L _ _ _ _ .J
                                                                                                 • •.1.H "'"
                                                                                            L- _ _ _ _ _ --l
            ~<IT",.                I.IGHI          S===='~:::;::E
               .....~ ""'"     ~":
                                               2                 .0 ;~ iii i iI
                                                                 ••                I        I

              l1li "
                   • .   -
                      iiiW.                                      '0
                                                                 •     I~.' ' I'
                                                                              1\ ,' I,
                                                                                   I
                                                                 :• •          :   I   ;,   I
             ......,.T..'.__   I-----I                           'IDII !': ~~: I
                                                    I              I I  L __ J I
                                                    I              I I ~~.!.   I
                                                    I              ------ I
                                                    II           1 ,--,,,,         r-,
                                                    II               ~J-'-},-,-.J
                                                                              I
                                                         I           'a~~i---I
                                                         I           I    ~~~ i
                               I                    I'               L~_~ - - I
                               I                    II:                                      I
                               L                   ~I                I    ~~                 I
                                                                          ~~                 I
                  ..,
                                    -----                I           :
                "''''''''
                :':~                                                 I    ~~                 I                            ..." """"
                                                                           .
                                       1----
                                       I                             ,I   ~~                 I
                                       I                                                     I
                                                                     L. _ ._
                                                                                            ,                             ''''''   [J' r>::[



                                                                     DOCK                                      ~T   OOA\II"J TO SCI<.L[
                                                                                                               P£ V - I




                                                                         7

Figure 2:        USP Atwater Warehouse Floor Plan Showing Sample Locations



                                   ATVIATER -   UNICDR
                                                                   x




                                                                                      ,~,



                                                                                      "~.




                                                                             3:
                                                                             f'l
                                                                             N
                                                                             N
                                                                             D
                                                                             Z
                                                                             Z
                                                                             rl
                                                                             D

                                                                             '"<
                                                                             D

                                                                             f'l       <

                                  . . I   I
                                  ·· 1 1
                                      1)1
                                     1 ... 1
                                     :.~~ .:


                                                                       NOT DRAWl TO SCALE 

  IH\rIAT£R CUSP) FLOOR   PLA~l                                        REV - 1 





Image I: Below the mezzanine area in the         Image 2: Glass breaking area below the mezzanine
penitentiary factory [circa 2007]                (view from the main floor). [circa 2002]




                                                 8

Image 3: Glass filtration booth (view from                 Image 4: Booth in room adjacent to loading dock.
back wall of glass breaking area).                         [circa 2003]
[circa 2002]




                                                           Image 6: Peneteniary demanufacturing area.
                                                           [circa 2002]




Image 7: Camp warehouse demanufacturing area.              Image 8: Inmate's changing room and bins for
[circa 2007]                                               soiled coveralls (looking from the food service area).
                                                           [circa 2007]




4 The CRT is held over the grating of the breaking table and dropped onto the grating. The panel glass breaks away
from the frit and falls through the grating into the panel glass box. (Note: According to UNICOR, this 2002 image was
being staged and no glass was actually being broken; consequently PPE was not being worn).


                                                          9

Image 9: UNICOR food service area (looking    Image 10: UNICOR's food service serving line. 

from the changing room).                       [circa 2003] 

[circa 2007] 





After electronic memory devices (e.g., hard drives and discs) are removed and degaussed
or destroyed, computer central processing units (CPUs), servers, and similar devices are
sent for disassembly. Monitors and other devices (e.g., televisions) that contain cathode
ray tubes (CRTs), when processed at Atwater, were separated and also sent for
disassembly and removal ofthe CRT. Printers, copy machines, and any devices that
potentially contain toner, ink, or other expendables are segregated, and those expendables
are removed prior to the device being sent to the disassembly area.

In the disassembly process, external cabinets, usually plastic, are removed from all
devices and segregated. Valuable materials such as copper wiring and aluminum framing
are removed and sorted by grade for further treatment, if necessary. Components such as
circuit boards or chips that could contain precious metals (e.g., gold or silver) or have
value are removed and sorted. With few exceptions, each ofthe workers in the factory
performs all tasks associated with the disassembly of a piece of equipment into the
aforementioned components using powered and un-powered hand tools (primarily
screwdrivers and wrenches). A few workers collect the various parts and place them into
the proper collection bin. Work tasks include removing screws and other fasteners from
cabinets, unplugging or clipping off electrical cables, removing circuit boards, and using
whatever other methods are necessary to break these devices into their component parts.
Virtually all components are sold for some type of recycling.

The third process, packing and shipping, involves returning the various materials
segregated during the disassembly process to the warehouse where they are packaged and
sent to contracted purchasers ofthose individual materials. To facilitate shipment, some
bulky components such as plastic cabinets or metal frames are placed in a hydraulic baler
to be compacted for easier shipping. Other materials are boxed or containerized and
removed for subsequent sale to a recycling operation.

Glass breaking was not being done at USP Atwater at the time ofthe NIOSHIDART,
NIOSHIHETAB, and FOH evaluations. However, two areas in the penitentiary factory
where glass breaking had been performed in the past were observed by NIOSHIDART,



                                             10 

NIOSH/HETAB, and FOH. According to sources within the BOP, UNICOR does not 

plan to resume glass breaking at this facility, and in June 2009, UNICOR suspended glass 

breaking at all UNICOR factories. Instead, for a period of time in 2009, CRTs were sent 

by UNICOR to an e-waste recycling company in Mexico where they were processed. 

Currently, the handling of equipment containing CRTs at Atwater is in transition. 

Atwater is transitioning from sending whole monitors and TVs to an offsite recycler to, 

instead, a process that is more consistent with other UNICOR recycling factories. Thus, 

soon, Atwater will be dismantling all of its monitors and TV s to produce whole, bare 

CRT tubes, which will then be sent to an off-site recycler for further processing. 


The NIOSHIDART and NIOSH/HETAB reports (Attachments I and 3) present details on 

personal protective equipment (PPE), respiratory protection, engineering controls, and 

work practices used for USP Atwater recycling activities. These controls are summarized 

in Sections 3.0 and 4.0 of this report. 



3.0 	   BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT USP ATWATER

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H policy entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNICOR's compliance with this policy will be evaluated in the OIG's final report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples potentially applicable to
UNICOR's e-waste recycling activities performed at USP Atwater particularly include:

    • 	 29 CFR 1910.1025: Lead requires a written lead compliance plan;
    • 	 29 CFR 1910.1027: Cadmium requires a written cadmium compliance plan;
    • 	 29 CFR 1910.134: Respiratory Protection requires a written respiratory protection
        program; and
    • 	 29 CFR 1910.95: Occupational Noise Exposure requires a written hearing 

        conservation program. 


In addition to the specific OSHA standards listed above, another hazard that could be
associated with USP Atwater recycling operations is heat exposure. Although OSHA
does not have a specific standard for heat exposure, it can regulate this hazard under its
"General Duty Clause" [OSHA 1970] that requires employers to furnish a workplace that
is free from recognized hazards that are causing or are likely to cause death or serious
physical harm to employees.




                                            11 

A good practice approach also warrants that an overall safety and health plan should be in
place to identify workplace hazards and specify appropriate hazard controls and safe
work practices. Such a plan would apply to the factory as a whole.

UNICOR's ES&H practices and programs associated with the e-waste recycling activities
conducted at USP Atwater are discussed below.

3.1   Safety and Health Practices and Procedures to Control Toxic Metals
Exposure

UNICOR at USP Atwater has several documents that describe safety and health practices
and requirements for e-waste recycling activities and define the measures to be taken to
control toxic metal exposures. These documents include the following:

   •	  Work Instructions - Glass Breaking Procedures;
   •	  Glass Breaking Area - General Procedures;
   •	  UNICOR Glass Department - Glass Department Procedures;
   •	  Cathode Ray Tube (CRT) Processing Procedures;
   •	  Cathode Ray Tube Recycling & Quality Assurance Procedures for Atwater,
       California;
   • 	 Cadmium and Lead Compliance Program Plan; and
   • 	 Computer Monitors (CRT's) Operating Procedures.

These documents are discussed below, along with other documents for related activities
such as respiratory protection and job orientation. Overall, while these documents were
worthwhile in documenting important policies and procedures, they contained numerous
redundancies and were in some respects inconsistent. This was a likely source of
confusion which contributed to a lack of proper implementation of requirements by
management and supervision.

The Work Instruction entitled "Glass Breaking Procedures" applies to the breaking of
CRT glass and support activities in and around the glass breaking room. This document
describes mandatory safety equipment (i.e., PPE); practices for removing PPE; hygiene
practices; end-of-shift clean-up procedures; respirator cleaning, inspection, and storage
procedures; clean-up procedures for accidental CRT breakage; and booth clean-up
practices. Staff and inmate workers inside the glass breaking room are required to wear a
"reverse air flow hood and HEP A filter system" (presumably a powered-air purifying
respirator, PAPR), leatherlKevlar® work gloves, long sleeves, safety boots, and jumpsuit.
The type of jumpsuit is not further described. Outside assistants are required to wear
safety glasses, leatherlKevlar® work gloves, safety boots and jumpsuits. PAPRs or other
respirators are not required for these workers. The use of wet methods and HEP A
vacuums is emphasized for clean-up and PPElrespirator decontamination processes, as is
hand washing. As discussed further below, FOH notes that the type of respiratory
protection reportedly used during glass breaking at this factory (i.e., April 2002 to March
2005) was not consistent with this procedure.



                                            12
The Glass Breaking Area General Procedures is a compilation of procedures for glass
breaking. The specific procedures include Cathode Ray Tube (CRT) Breaking
Procedures, Glass Removal and Handling Procedures, Personal Hygiene/Cleanup
Procedures, Mandatory Safety Equipment, and Respirator Cleaning and Storage
Procedures. The General Procedures document requires that all staff and inmate
personnel working in the glass breaking area read and comply with the specific
procedures listed above. Combined, these specific procedures define work practices for
glass breaking, handling and cleaning procedures using wet methods and HEP A
vacuums, hygiene practices including PPE, HEP A vacuuming and hand/skin washing for
breaks and lunch and end-of-shift, and respiratory protection use. The types of
respiratory protection required in these procedures are a full facepiece respirator inside
the booth and a full facepiece or half facepiece respirator outside the booth, which are
different from the P APR specified in the glass breaking procedure discussed above.
Respirator cleaning procedures are included, but the type of respirator cartridge is not
defined. Other PPE for workers in the glass booth is specified as leather work gloves,
Kevlar® sleeves, safety boots, ear protection, and two jumpsuits. PPE outside the booth
includes safety glasses, leather or Kevlar® gloves, Kevlar® sleeves, safety boots, and
hearing protection.

The UNICOR Glass Department - Glass Department Procedures for USP Atwater
defines medical clearance requirements, safety equipment, the progression of the glass
booth design including ventilation and LEV systems, and monitor breaking procedures,
among other items. It also incorporates some of the same specific procedures described
above for cleaning, hygiene, and respirator practices. Medical clearance calls for blood
testing and respirator fit testing, but does not provide details on the content of the medical
surveillance program. Safety equipment specified is consistent with that defined in the
Glass Breaking Area General Procedures, described above. The fabrication of the glass
breaking booth and ventilation/LEV systems is described along with upgrades over time.
Various drawings and photographs of the booth, LEV systems, and work surfaces are
also provided.

The Cathode Ray Tube (CRT) Processing Procedure provides regulatory requirements for
the medical surveillance program; a general description of parameters for engineering
controls including the glass booth ventilation/LEV system; PPE requirements;
operational requirements for the work shift, PPE, hygiene, and cleaning; and testing and
monitoring requirements, among others. The specific procedures of the Glass Breaking
Area General Procedures are also included. PPE requirements are consistent with the
requirements described above. Monitoring and testing includes initial and periodic
exposure monitoring, ventilation assessment, and surface wipe sampling. Biological
monitoring for lead and cadmium is also further described. Work practices for
dismantling and breaking monitors are detailed in this document.

Cathode Ray Tube Recycling & Quality Assurance Procedures for Atwater, California
provides recycling procedures for monochrome and color CRTs. This document is a
quality assurance procedure and does not focus on safety and health issues. An appendix
to this procedure addresses cleanup procedures for accidental CRT breakage.



                                              13 

The Cadmium and Lead Compliance Program Plan dated August 7, 2002 provides
information to control cadmium and lead exposures to the "lowest practical levels" and
below the OSHA PELs and action levels. The program states that "at no time should any
worker be exposed to any chemical above the OSHA Permissible Exposure Limit (PEL)
or Action Level" and provides an appropriate hierarchy of controls that include
engineering, administrative, and personal protective equipment controls. The program
calls for PPE consistent with other procedures (and specifies the type of respirator
cartridge), change rooms, showers, housekeeping, prohibiting food and drink in the work
place, and waste disposal using TCLP testing criteria. LEV testing and maintenance,
exposure monitoring, medical surveillance, and worker training are also addressed,
among other content. The plan calls for an annual review and update as necessary.
[Note: The OIG found no evidence that this plan was ever purposefully implemented.
Exposures to cadmium and/or lead remained above the PEL, at times, through February
2004, about 18 months after this program stated that this level of exposure should occur
at no time.]

Correspondence dated February 6,2003 from the Associate Warden to the Recycling
Foreman and titled Computer Monitors (CRTs) Operating Procedures provided
information regarding improvements to the recycling operations, directed various actions
to be implemented, and attached procedures with which inmates must comply. The
correspondence mentioned that analytical data "shows that recent progressive
engineering control measures implemented were effective in lowering the exposure to
lead, cadmium, barium, beryllium, mercury, brominated flame retardants, hexavalent
chromium, and plastics below regulatory limits." The Assistant Warden directed that air
monitoring be conducted every six months, the performance of frequent and regular
inspections, and the implementation of the "new" Monitor Breaking Work Procedures.
These procedures included the Monitor Breaking Procedures, Glass Removal and
Handling Procedures, Hygiene Procedures, Housekeeping Procedures, and Personal
Protective Equipment. [Note: Despite the exposure reduction claimed in this
correspondence, personal or area air samples were above the cadmium PEL and/or action
level both before and after this correspondence in January and February 2003. In
addition, the LEV system was shown to exhaust elevated cadmium levels on January 21,
2003 when it was operated without filters (see Section 4.1).]

Since UNICOR at USP Atwater required use of respiratory protection during glass
breaking, a written respiratory protection program is required by OSHA. The procedure
entitled Occupational Safety and Environmental Health, ATW 1600.08C, dated June 14,
2003 contains a Respiratory Protection Program chapter. This chapter specifies that "full
face and half face air purifying respirators with HEPA filters" are required for GBO. Fit
testing and medical clearance is addressed. Another document entitled Self-contained
Breathing Apparatus and Negative Air Purifying Respirators, dated 111112000 was also
reviewed. This document generally addresses fit testing, training, and medical clearance.
In its assessment of the USP Atwater medical surveillance program, NIOSH/HETAB
found that inmates did not receive medical clearance to wear a respirator. This finding
indicates deficiencies with the implementation of the respiratory protection program(s),
as written and as required by the OSHA respiratory protection standard.



                                           14 

When asked about documents that describe safety and health practices on the general
factory floor, such as disassembly and material handling, the USP Atwater Factory
Manager provided FOH with the FPI Recycling Business Group Pre-Industrial Manual,
dated October 15, 2008. This manual is used for job orientation and addresses general
rules of the factory, PPE in general terms, hazard communication, hazardous materials,
safety overviews for certain subject matter such as lockout/tagout and flammable and
combustible materials, safe operations of certain equipment such as balers and forklifts,
and glass breaking procedures. This document is similar to the Pre-Industrial Manual
described in FOH reports for other factories. Although useful for job orientation, this
document lacks the specific details that describe the safety and health requirements and
work practices at the USP Atwater e-waste recycling factory.

For general activities conducted on the factory floor (i.e., disassembly and materials
handling), a written safety and health document to define existing workplace hazards and
control measures is not in place for UNICOR e-waste recycling conducted specifically at
USP Atwater for its recycling activities. The Pre- Industrial Manual provides some
information as described above, and a procedure entitled Occupational Safety and
Environmental Health, ATW 1600.08C, dated June 14,2003 contains various ES&H
information for the facility as a whole, but neither document details safety and health
practices in the recycling factory at USP Atwater. As a "good practice" approach, such a
document should be developed and implemented to concisely define the safety and health
practices and requirements specific to USP Atwater recycling. The document should
address PPE requirements or voluntary use, hygiene (e.g., hand washing) practices, daily
and periodic housekeeping and cleaning practices, special training requirements for any
hazardous equipment use or other hazard controls, and other practices essential to
conduct work safely. Non-routine or periodic work activities should also be addressed in
the document, particularly those that potentially disturb dusts such as cleaning and
handling/disposing of wastes from HEPA vacuums or containers. The document could
also specify requirements for periodic site assessments, hazard analyses, inspections,
actions for new or changed work activities, monitoring, and regulatory compliance
reviews.

In summary, the seven glass breaking documents described above define various work
practices, testing requirements, and hazard control measures. The documents are
redundant in many ways and are inconsistent in other important respects, such as the type
of respiratory protection to be used. In addition, requirements specified in the documents
were not promptly implemented, such as the requirement for medical clearance for
respirator use and the statements that occupational exposure limits shall not be exceeded
or that exposures have been controlled. The redundancies and inconsistencies among the
documents are a source of potential confusion to management, oversight staff, ES&H
support staff, and staff/workers responsible for implementing, enforcing, assessing,
and/or complying with requirements and practices. UNICOR should implement a
document control system to eliminate redundancies and inconsistencies, clearly show the
status of documents (e.g., operable, superseded, or expired), define required review dates,




                                            15 

and issue revisions when needed. UNICOR should also implement a system to verify
effective implementation of document requirements and objectives.

3.2    Safety and Health Practices and Procedures to Control Noise Exposure

Two noise surveys were conducted for USP Atwater's recycling operations in 2009.
Both studies also included ventilation testing and one included a lighting evaluation.
Findings are discussed below regarding the need for a hearing conservation program.

The first survey was conducted on March 25, 2009 by a BOP consultant. Numerous
"instantaneous" noise measurements were taken throughout the penitentiary, but most
were not associated with UNICOR operations. No UNICOR readings were found to
exceed the OSHA PEL or action level. The consultant stated that based on levels not
exceeding 85 dBA, the areas surveyed were not subject to a hearing conservation
program. The Factory Manager and Safety Specialist confirmed that a hearing
conservation program is not required nor in place, but also stated that hearing protection
is required and made available as an added precaution. The consultant readings were
very limited with respect to UNICOR operations (see Section 4.3) and did not represent a
complete survey.

In April 2009, a UNICOR consultant conducted noise dosimetry as part ofUNICOR's
recently implemented annual monitoring program at all UNICOR factories. This
consultant found that the metal baling operation resulted in exposures above the OSHA
action level and that a hearing conservation program is required for inmates performing
this activity. UNICOR has not been in compliance with 29 CFR 1910.95, Occupational
noise exposure for this operation, because it does not have a hearing conservation
program at USP Atwater.

UNICOR should have performed a hazard evaluation for noise exposure at USP Atwater
much earlier than 2009. Noise monitoring at UNICOR e-waste recycling factories and,
in addition, at other UNICOR factories have shown levels above the OSHA action level
andlor PEL for such operations as baling, glass breaking, pallet manufacturing, sanding,
and use of other powered tools, among others. This is further indication that UNICOR
does not apply results and lessons learned from specific factories to others on a
UNICOR-wide basis. See Section 4.3 for additional details on these two surveys and
NIOSHIDART noise monitoring results.

3.3    Other Safety and Health Practices and Procedures

UNICOR has prepared a document titled "Heat Stress Program" dated 09/26/2008. The
USP Atwater Factory Manager stated that UNICOR is reviewing this procedure at this
time. A heat hazard evaluation has not been performed to date, but the Factory Manager
stated that work is not performed if conditions are too hot.

As part of an overall safety and health program, UNICOR should develop a thorough
hazard analysis program. This program should include baseline hazard analysis for



                                            16 

current operations and job (activity-specific) hazard analyses for routine activities,
activities performed under an operations and maintenance (O&M) plan, non-routine
activities, and new or modified activities. This applies to all UNICOR recycling
factories.


4.0      FIELD INVESTIGATIONS AND MONITORING RESULTS

Several field investigations ofUSP Atwater e-waste recycling operations have been
conducted since 2002. These investigations are listed below:

      • 	 UNICOR consulting firms and a BOP industrial hygienist conducted a series of
          exposure monitoring episodes from 2002 through 2005. Personal breathing zone,
          area air samples, and surface wipe samples were collected. These results are
          discussed in Section 4.l.l.

      • 	 OSHA received complaints regarding UNICOR's e-waste recycling operations at
          USP Atwater in 2003 and 2005 and made inquiries regarding these complaints.
          OSHA conducted an inspection ofUSP Atwater's recycling operations in March
          2005. The results are discussed in Section 4.l.2.

      • 	 NIOSHIDART with the assistance of FOH conducted an industrial hygiene
          evaluation in April 2007. This was a qualitative survey and not a comprehensive
          evaluation. Observations were made regarding work practices and hazard
          controls related to metals exposure and surface contamination. The
          NIOSHIDART survey report is provided as Attachment 1, additional data are
          provided as Attachment 2, and all data are discussed in Section 4.l.3.

      • 	 As part of a recently initiated annual monitoring program at all factories, a
          UNICOR consultant performed air monitoring and surface sampling for lead,
          cadmium, and beryllium; a noise survey; and a limited ventilation evaluation in
          2009. This work was performed during general disassembly operations (all glass
          breaking operations had been previously discontinued in 2005). Results are
          discussed in Section 4.1.4.

      • 	 Also, as part of the DO] OIG investigation, NIOSH/HETAB conducted an
          assessment of the medical surveillance program in October 2008.
          NIOSH/HET AB also reviewed past exposure monitoring reports prepared by
          UNICOR consultants and a BOP industrial hygienist. The NIOSH/HET AB report
          is provided as Attachment 3 and discussed in Section 4.2.




                                             17 

Results of the UNICOR consultant studies, BOP industrial hygienist studies, OSHA
inspection, NIOSHIDART and FOH evaluation, and NIOSH/HETAB medical
                                                                     5
surveillance assessment are summarized and discussed in this section

Toxic metals of greatest interest for occupational exposures related to e-waste recycling
include lead, cadmium, and barium. Beryllium can also be associated with e-waste
materials and is also of interest because of its adverse health effects and low exposure
limit. These metals were the focus of the field investigations. See the FCI Elkton report
referenced in Section 1.0 for details regarding e-waste hazards.

Results of monitoring for airborne exposures are compared to permissible exposure limits
(PELs) and action levels established by OSHA. In addition, non-mandatory ACGIH
Threshold Limit Values (TLV s, an exposure limit guideline) and NIOSH recommended
exposure limits (RELs) are also available for reference. Permissible exposure limits are
often based on 8-hour time weighted average (TWA) exposures and the TWAs are
applicable to the exposures discussed in this report. Table 1 provides exposure limits for
lead, cadmium, barium, and beryllium. PELs, action levels, and TLV s for other hazards
can be found in OSHA standards (29 CFR 1910) and the 2009 ACGIH TLVs. [ACGIH
2009]


                                                Table 1 

                                      Occupational Exposure Limits! 


                                               LEAD                    CADMIUM           BARIUM           BERYLLIUM
                                                        3                        3                3               3
                                               (flgim       )           (flgim       )   (flgim       )     (flg/m )
OSHA PEL                                         50                       5.0              500                2'
OSHA ACTION LEVEL'                               30                       2.5             NiA                NiA
                                                                                                                    4
ACGIH TL V (Total Exposure)                      50                      10.0              500               0.05

ACGIH TL V (Respirable Fraction)                NiA                       2.0             NiA                NiA

NIOSHREL                                         50                       Ca 3             500                0.5
Notes:
         1. 	 All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
              such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TL V 2009 adoption.
         5. 	 OSHA also has 5 flgim 3 ceiling and 25 flg/m 3 peak exposure limits.


5 Given the many variables that may impact air sampling and exposure monitoring, testing data and
findings can vary from one period to the next. Also, the findings, interpretations, conclusions and
recommendations in this report may in part be based on representations by others which have not been
independently verified by FOH.


                                                                18 

PELs, TLVs, and RELs are used to evaluate airborne exposures (inhalation) as
detennined through air sampling. Test results from surface samples (i.e., wipe and bulk
samples) are also used to assess potential exposures. Wipe and bulk samples are
collected and analyzed for toxic metals to provide insight into the potential for ingestion
as a route of exposure and also as a measure of the potential for settled dusts to contribute
to inhalation exposures if dusts are disturbed and become airborne. In addition, surface
testing provides insight into the effectiveness of dust capture and filtration mechanisms,
as well as other engineering controls such as containment structures. Results of surface
sample tests conducted by NIOSHIDART and FOH are also summarized and discussed
below. See the Appendix for 'Guidance for Evaluating Surface Samples'.

Exposure standards for noise and heat are discussed in the sections below where results
of the investigations are presented.

4.1     Investigations for Exposure to Toxic Metals

Given the various materials and components in e-waste, recycling activities have the
potential to result in worker exposure to toxic metals including, in particular, lead and
cadmium. The magnitude and potential health consequences of exposures are dependent
on a number of factors such as workplace ventilation, work practices, protective
equipment utilized (e.g., respirators, protective clothing, gloves, etc.), duration of
exposures, and others. The FOH report for FCI Elkton should be reviewed for a more
comprehensive discussion of the hazardous components found in waste electronics, their
relative toxicities, pertinent regulatory requirements, and other infonnation.

Investigations that included evaluation of toxic metals exposure during USP Atwater's e­
waste recycling operations are discussed below in chronological order of the studies.
These investigations were conducted by UNICOR consultants, a UNICOR industrial
hygienist, and NIOSHIDART with support from FOH. As part of the OIG investigation,
FOH and NIOSH/HETAB reviewed and evaluated UNICOR consultant reports.
Commentary provided on these reports in Sections 4.1.1 consolidates both FOH and
NIOSH/HET AB reviews.

4.1.1   UNICOR and UNICOR Consultant Monitoring from 2002 through 2005

UNICOR consulting finns and a BOP industrial hygienist conducted evaluations for
worker exposure to metals during glass breaking and other recycling operations at USP
Atwater e-waste recycling facilities from 2002 through 2005. FOH and NIOSH/HETAB
reviewed 13 evaluation reports prepared during this period. Two evaluations were
conducted by a BOP industrial hygienist and 11 were conducted by UNICOR
consultants. This section consolidates commentary from both the FOH and
NIOSH/HET AB reviews (also see Attachment 3 for the NIOSH/HETAB report for
additional analysis of these evaluations and reports).

Much of the exposure monitoring evaluations were for glass breaking operations. The
following provides infonnation regarding the evolution of glass breaking operations at



                                             19 

USP Atwater, which is summarized from the NIOSH/HETAB report (Attachment 3).
This information provides pertinent context within which to evaluate the 13 exposure
monitoring episodes.

   • 	 April 2002: Recycling begins with little or no hazard controls;

   • 	 May 2002: Glass breaking is conducted using a "3-stage powder booth," but is
       suspended after two months for a brief period pending results of biological testing
       for lead, cadmium, and barium. Glass breaking then continues;

   • 	 August 2002: A consultant prepares a written lead and cadmium compliance plan
       because air sampling indicates that lead and cadmium exposures exceed OSHA
       PELs, but this plan is not implemented;

   • 	 December 2002: Glass breaking is conducted using what UNICOR termed a
       "ventilation system that exceeded OSHA standards." In January 2003, this
       system is operated for at least five days without the filters in place that are
       essential to capture lead and cadmium dusts;

   • 	 June 2003: The glass breaking booth is relocated to a room near the loading dock
       area and GBO is resumed with the booth air now exhausted to the outside; GBO
       continue until March 2005 with the exception of several periods of reported
       suspensIOn;

   • 	 March 2005: All glass breaking operations are stopped;

   • 	 Present Day: Disassembly and related recycling activities continue, but glass
       breaking had not resumed.

Discussion of the UNICOR and UNICOR consultant exposure evaluations are organized
below within the time periods shown above.

4.1.1.1 Exposure Evaluations between May 2002 and December 2002

From the start of glass breaking in April 2002 up to the implementation of the
"improved" ventilation system in December 2002, UNICOR consultants performed three
exposure evaluations, and the BOP industrial hygienist performed one study. Personal
exposure monitoring and area air sampling were performed during glass breaking.
Samples were analyzed for lead and cadmium. Some studies also included additional
metals analyses, dust analyses, and surface wipe testing. Results are summarized below.

   • 	 June 20, 2002: A UNICOR consultant found that personal breathing zone
       exposure to cadmium was 50 Ilglm3 for a 65 minute sample and stated that if
       representative of the 8-hour period, then the 8-hour TWA exposure would be
       same. If the result represents an 8-hour TWA, then it is 10 times the OSHA
       cadmium PEL of 5 Ilg/m3 Lead exposure was 99 Ilglm3 which is almost twice


                                            20 

   the OSHA PEL of 50 Ilglm3 The consultant recommended that respiratory
   protection be provided to inmates performing glass breaking until exposures are
   reduced to below the action levels. The consultant also recommended the review
   of personal hygiene procedures related to hand washing. NIOSH/HETAB
   observed that "the report contains no other information regarding the work
   environment, work practices, engineering controls, or personal protective
   equipment." FOH also notes that no mention is made of the requirements of the
   OSHA lead and cadmium standards when exposures exceed the action levels
   and/or PELs. Most importantly, the OSHA standards require control oflead and
   cadmium at levels below the PELs through the use of engineering and work
   practice controls, not simply respiratory protection.

• 	 July 24, 2002: The same UNICOR consultant collected seven full-shift
    (approximately 6.5 hours) personal breathing zone samples. Cadmium exposure
    was reported to be "270 Ilglm3 or less" (i.e., as high as 270 Ilg/m3). This is up to
    54 times higher than the OSHA PEL. The consultant stated that four personal
    samples exceeded the cadmium PEL, and that five exceeded the action level.
    Lead was as high as 58 Ilglm3, which is above the OSHA PEL of 50 Ilg/m3 The
    consultant reported that one personal sample exceeded the lead PEL, with three
    exceeding the action level. The report does not state whether results are for the
    sampling period or as 8-hour TWAs. Results for surface wipe and skin wipe
    samples were also reported, but the consultant did not offer any interpretation of
    the results. The consultant again recommended that respiratory protection should
    be provided, but did not indicate whether it was in use based on the
    recommendation of June 2002, and no mention of work practices or hazard
    controls was made. The consultant also recommended that material handling and
    personal hygiene procedures be reviewed and incorporated into a "Lead and
    Cadmium Exposure Control Plan," but again did not mention the importance on
    controlling lead and cadmium hazards through the use of engineering and work
    practice controls, as required by OSHA.

• 	 September 4-5, 2002: A BOP industrial hygienist conducted a technical
    assistance visit that included an evaluation of the glass breaking operations
    including exposure monitoring and other testing. This study included evaluating
    two scenarios of work practices/engineering controls involving various misting
    practices and worker positioning during glass breaking to determine if these
    measures would be effective in reducing exposures. Of 11 breathing zone
    samples, five exceeded the cadmium PEL as 8-hour TWAs, with the highest at
    90.8 Ilglm3 (18 times higher than the PEL). One other sample exceeded the
    cadmium action level, but not the PEL. Of the six samples that did not exceed the
    cadmium PEL, five were collected outside the glass breaking booth. One of 11
    samples exceeded the lead PEL with a result of 89.1 Ilglm3 versus the PEL of 50
    Ilg/m3 Two other samples exceeded the lead action level but not the PEL. [Note:
    The highest result for both lead and cadmium was for "breaking panel glass about
    5 feet outside the booth." According to the BOP industrial hygienist, this
    operation was within the area partially contained by strip curtains, but FOH notes



                                         21 

       that the existing exhaust system would likely not be as effective in capturing dust
       generated in this location since it was outside the confines of the booth. The
       industrial hygienist noted that the panel glass operation is "exceptionally high for
       cadmium and lead exposure" and concluded that "neither misting nor
       repositioning workers and operations in the booth were effective in lowering
       exposures below regulatory limits." Recommendations included adopting less
       aggressive glass breaking techniques, reconfiguring work stations, misting,
       creating a vented box for electron gun breaking, and HEP A vacuum cleaning.
       This study was an improvement over previous consultant studies since it
       evaluated and recommended possible control measures including engineering and
       work practice controls. Nevertheless, this study did not seem to contribute to a
       reduction in exposures, work was allowed to proceed, and key information was
       lacking in the report such as information on any PPE (including respiratory
       protection) that was used. [Note: Other documents indicate that halffacepiece
       APRs with HEP A filters were used after mid-July 2002. These respirators have a
       protection factor of 10; therefore, some cadmium exposures were beyond the
       protective capacity of this type of respirator.]

   • 	 November 4,2002: The UNICOR consultant collected six full-shift (about 6
       hours) personal breathing zone samples during glass breaking. Five of the six
       exceeded the cadmium PEL, with the highest exposure at 300 Ilg/m3 (60 times the
       cadmium PEL of 5 Ilg/m3). Two personal samples exceeded the lead PEL, with
       the highest exposure at 210 Ilg/m3 (over four times the lead PEL of 50 Ilglm\
       The narrative report does not mention the use of respirators, but the sample data
       sheets state that "half-faced HEP A respirators" were worn (i. e., half facepiece
       APRs with HEP A cartridges). As reported by NIOSH/HET AB, both glass
       breakers were exposed to cadmium at levels that greatly exceeded the assigned
       protection factor of 10 for these respirators. The consultant's report made no
       mention of this exceedance and did not provide any recommendations. Again, no
       mention was made of the fact that OSHA lead and cadmium standards require the
       control of lead and cadmium to levels at or below the PEL through the use of
       engineering and work practice controls.

In summary, the results between May 2002 and November 2002 prior to the
implementation of "improved" glass breaking ventilation (as stated by UNICOR),
showed that inmates were exposed to cadmium and lead during glass breaking at levels
that exceeded OSHA PELs. Every sampling episode showed elevated exposures;
therefore, it is likely that these levels of exposure were typical of daily glass breaking
operations. NIOSH/HET AB reports that "it appears that inmates worked without
adequate respiratory protection from April 2002 until July 2002." FOH concurs with this
statement and adds that even through November 2002, exposure monitoring indicates that
the type of respirators worn were not adequate to protect workers against the level of
cadmium exposures found.

During this period, engineering and work practice controls were not adequate to maintain
exposures at or below the OSHA lead and cadmium PELs. OSHA standards explicitly



                                            22 

require that lead aud cadmium exposure be controlled using engineering aud work
practice controls.

Given both the frequency and magnitude oflead and cadmium exposures, UNICOR
should have taken prompt aud effective action to remedy these conditions and implement
effective controls for glass breaking not only at USP Atwater, but at all other UNICOR
factories performing glass breaking. These actions should have included stoppage of
glass breaking work at USP Atwater and other factories by July 2002 until additional
monitoring could be completed; official notification of other factories of these exposures
with directives for aualysis aud corrective action at all applicable factories; retaining
qualified professionals such as industrial ventilation engineers and certified industrial
hygienists to design and assist in implementation and verification of effective engineering
and work practice controls; and, after implementation of controls, restarting GBO with
appropriate ES&H oversight, monitoring, aud other support until verification of effective
exposure control. In general, over the course of e-waste recycling operations from start­
up to the present, UNICOR communication aud information sharing with other factories
was lacking or not effective based on exposures also found at other factories such as FCI
Elkton [FOH 2008al and FCI Texarkana [FOH 2009cl. In addition, UNICOR appeared
to slowly implement hazard control and improvement measures at USP Atwater more
through a process of "trial and error" rather than a systematic process of hazard analysis,
work plauning with hazard control design and implementation, and work performance
with hazard control verification. Support of qualified ES&H professionals should have
been applied at all stages.

In correspondence dated July 19, 2002, the USP Atwater Safety Mauager informed the
Associate Warden of elevated personal exposure results and hazardous waste disposal
issues, and provided a "roadmap" to address these issues. The Safety Manager stated that
at least four other UNICOR factories have similar activities, but have not conducted
hazard/risk analyses. BOP aud UNICOR did not implement prompt hazard aualyses aud
corrective actions at the other factories based on the USP Atwater findings and
deficiencies.

UNICOR consultant reports stated that OSHA PELs were exceeded, but did not provide
appropriate recommendations to reduce these exposures that are consistent with OSHA
lead and cadmium standards. For instance, one consultant recommended respiratory
protection, hygiene practices, aud some other actions, but did not provide
recommendations for engineering and work practice controls to reduce exposures, as
required by OSHA. Other importaut information was not provided in consultant reports,
such as alerting UNICOR to the fact that cadmium exposures exceeded the protective
capacity of the respirators in use.

4.1.1.2 Exposure Evaluations between December 2002 and June 2003

Between December 2002 and June 2003, glass breaking was conducted using what
UNICOR termed as a "ventilation system that exceeded OSHA staudards." Two
episodes of personal exposure monitoring and area air sampling were performed during



                                            23 

glass breaking in January and February 2003. Samples were analyzed for lead, cadmium,
barium, and beryllium. Surface wipe testing was also performed. During late January
2003, the LEV system was reported by the USP Atwater Safety Manager to be operating
without filters in place. Results from the consultant reports and information regarding the
LEV system are summarized below for this period.

   • 	 January 21, 2003: The UNICOR consultant reported that three personal breathing
       zone samples exceeded the cadmium action level, but not the PEL. The highest
       cadmium exposure result was 3.7 Ilglm3 relative to the PEL of 5 Ilglm3 and action
       level of 2.5 Ilg/m3 None of the personal exposures to lead exceeded the PEL or
       action level. Barium was very low and beryllium was not detected. The report
       states that the airborne concentration near the "exhaust outlet of the booth"
       exceeded the cadmium PEL. This cadmium area result was 8.8 Ilglm3 The
       report does not describe the location of the outlet. NIOSH/HETAB reports that
       skin wipe samples were reported incorrectly for barium and beryllium (see
       Attachment 3).

   • 	 January 2003: During late January 2003, the USP Atwater Safety Manager wrote
       memoranda documenting discussions with BOP and UNICOR management and
       staff regarding operation of the LEV system for at least five days during glass
       breaking without filters that are essential for trapping lead and cadmium
       contaminated dust emissions. According to these documents, the Safety Manager
       directed that glass breaking cease when he identified this condition, but it
       apparently continued without the Safety Manager's authorization.

   • 	 January 2003: Based on the elevated LEV exhaust level found by the consultant
       on January 21,2003, this sampling episode apparently confirms that the LEV
       system was not operating adequately (i.e., the LEV filters were not in place to
       scrub metal dusts from the air). Although personal exposures for glass breakers
       were below the PEL, but above the action level, the LEV system was simply
       redistributing cadmium-bearing dusts from the immediate breathing zone of glass
       breakers to other areas of the GBO and/or factory. The Safety Manager's
       memorandum of January 28, 2003 mentioned that UNICOR staff asked whether
       the consultant's monitoring results (presumably the January 21,2003 results)
       were received. The Safety Manager reiterated that glass breaking should be
       suspended. UNICOR should not have needed the consultant's results to
       determine that work should be stopped when an engineering control is not
       operating as designed. Work stoppage followed by corrective action should not
       have been delayed pending receipt of sampling results.

   • 	 February 27,2003: During this sampling, the LEV filters were presumably in
       place. The UNICOR consultant found that one glass breaker personal exposure
       exceeded the cadmium PEL with a result of 8.7 Ilglm3, and the other exceeded the
       cadmium action level. Lead exposures were less than the PEL and action level.
       One personal beryllium exposure also exceeded the PEL. This exposure was
       reported as 2.2 Ilglm3 versus a 2003 OSHA PEL of 2 Ilglm3. NIOSH/HET AB



                                            24 

        questioned this beryllium result stating that no supporting documentation such as
        laboratory analysis reports was provided to substantiate the finding.
        NIOSH/HET AB noted that NIOSHIDART data at other UNICOR facilities do not
        show significant beryllium exposures, and that some data errors were found in
        previous UNICOR consultant reports (see Attachment 3). At this time, sample
        data sheets identified respiratory protection as "full-faced HEPA respirators" (i.e.,
        full facepiece APRs with HEP A cartridges). These respirators have an assigned
        protection factor of 50. As in previous consultant reports, no recommendations
        were provided.

In summary, the results between December 2002 and June 2003 after the implementation
of "improved" glass breaking ventilation (as stated by UNICOR) and before relocating
the glass breaking booth and operations to a room near the outside loading dock, showed
that inmates were still exposed to cadmium during glass breaking at levels that exceeded
the OSHA PEL and/or action level. Both sampling episodes during this period showed
either elevated personal exposures to cadmium or elevated area levels near the LEV
exhaust. Although the January 21,2003 data was representative of the LEV system being
operated without filters in place, the February data still showed one of two cadmium
exposures for glass breakers above the PEL even with the LEV filters in place.

During this period, respirators were upgraded to full facepiece APRs with an assigned
protection factor of 50, and exposures were reduced below those reported in 2002.
Therefore, exposures for glass breakers were within the protective capacity of the
respirators worn. Nevertheless, OSHA requires that exposures be maintained at levels at
or below the lead and cadmium PELs through the use of engineering and work practice
controls. UNICOR was not in compliance with this requirement.

The same deficiencies as described in Section 4.l.l.1, above for 2002 applied to
UNICOR during 2003. These included failure to take prompt and effective action, failure
to bring in ES&H and industrial engineering experts to evaluate hazards and design and
implement effective controls, use of trial and error approaches rather than systematic
hazard analysis and control processes, lack of communication across factories, and
others.

Critical programmatic deficiencies were also evident when the LEV system was operated
without necessary filters. Specifically, BOP policy PS 1600.08 grants the Safety Manager
stop-work authority when conditions or practices exist that could reasonably be expected
to cause death or serious physical harm (i.e., create an "imminent hazard."). 6 The policy
also states that "reactivation of the work or process shall be contingent upon the Safety
Manager's re-inspection and written approval." The USP Atwater Safety Manager
ordered work stopped upon identifying the LEV filter deficiency, but UNICOR




6This stop-work authority also exists in the October 2007 revision of this document (i.e., PS 1600.09,
Occupational Safety, Environmental Compliance, and Fire Protection).


                                                    25
apparently continued work without installing the filters and without the Safety Manager's
re-inspection and written approval. 7

In addition to this instance where operations continued without the LEV filters, according
to OIG interviews, the Safety Manager indicated that he invoked his authority to shut
down operations several times in 2002-2003 following tests showing excessive
contamination only to find that the operation had restarted several days or weeks later
without his permission. In this regard, UNICOR violated BOP policy.


7 It is the opinion of FOH and the other agencies that assisted the OIG with health and safety issues (i.e., the technical
team) that the Safety Manager was correct to attempt to shut down glass breaking operations once he learned that they
were being conducted without the LEV filters, and that BOP stop-work policies should have been in place to clearly
provide him authority to do so. FOH recognizes that the Inuninent Hazard section of Program Statement 1600.08 may
not have technically provided this authority since, although the deficiency was serious, the criteria referenced by the
policy may not have been satisfied. However, in general, whenever a necessary primary hazard control such as an
engineering control is not used properly or is not being operated as designed, it is appropriate and essential to stop work
lllltil operability is restored. The continuation of operations absent installation of the :filters and without the Safety
Manager's approval appears to be a violation of OSHA regulations (e.g., 1910.1027 (k) states that "all surfaces shall be
maintained as free as practicable of accumulations of cadmium") in-so-far as it allowed the llllcontrolled release oflead
and cadmium-laden dusts into the glass breaking area as well as the general factory environment. The Safety Manager
did not authorize the continuation of the operation and FOH is not aware of any SOlllld, documented rationale used by
UNICOR management at the time to contravene the Safety Manager's decision. The lack of LEV filtration could
reasonably be expected by the Safety Manager to result in, at a minimum, elevated exposures at the time (if not cause
"serious physical harm" as required by the BOP Inuninent Hazard policy) based on a number of factors including the
visually apparent release of dust; the fact that the dust was known to contain significant concentrations oftoxic metals,
including cadmium, a carcinogen; the knowledge that the OSHA PEL for cadmium had been exceeded in the past when
glass breaking operations were performed without the benefit of adequate engineering controls; and the realization that
general factory workers were not protected by respirators. Unlike the Inuninent Danger section in the current (revised)
Program Statement, 1600.09, the language in 1600.08 did not require an immediacy of adverse health effects and did
not specify that the Chief of the OSHA Area Office be consulted should there be technical disagreements associated
with inuninent hazard determinations. Moreover, the revision to 1600.08 that the BOP made in 1600.09, which we
believe reflected BOP's prior interpretation of 1600.08, was detrimental to worker safety in that it further restricted the
circumstances in which the Safety Manager could halt work to those situations where the harm from the hazardous
condition itself was ''inuninent.'' The BOP's revision therefore deprives the Safety Managers of authority to stop work
where a latency period may exist for the harm to become apparent. In addition, FOH notes that the definition of
"emergency situation" in the OSHA respiratory protection standard (29 CFR 1910.134) can be interpreted as pertaining
to ''running the booth without the filters". According to the OSHA definition, an 'emergency situation' means any
occurrence such as, but not limited to, equipment failure, rupture of containers, or failure of control equipment that may
or does result in an llllcontrolled significant release of an airborne contaminant. As such, the BOP stop work policy
would not cover all "emergency situations."

VVhile there may be some disagreement among safety and health professionals about to what extent the missing filters
could result in worker exposures to toxic metals that could ''reasonably be expected to cause death or serious physical
harm" on an inunediate (''inuninent'') basis, the OIG technical team finds that the Safety Manager was in the best
position to make these determinations and should not have been second-guessed by UNICOR management.
Furthermore, according to FOH's discussions with representatives of OSHA's Office of Federal Agency Programs,
Division of Enforcement and Technical Guidance, it cannot be ruled out that the occurrence would have qualified as an
"Inuninent Danger" as defined by OSHA (see Section 13a of the OSH Act of 1970), however a lack of exposure data
precludes a definitive determination at this time. Included in the OSHA definition of Inuninent Hazard is the
requirement that "For a health hazard there must be a reasonable expectation that toxic substances or other health
hazards are present and exposure to them will shorten life or cause substantial reduction in physical or mental
efficiency. The harm caused by the health hazard does not have to happen inunediately." See the Conclusions and
Recommendations sections of this report for additional considerations. Additional discussion of the ineffectiveness of
the BOP 'stop-work' policy and apparent violation of the Inuninent Hazard section of Program Statement 1600.08 will
be fOlllld in the OIG report.




                                                           26 

As in 2002, the UNICOR consultant reports stated exposure status versus OSHA PELs,
but did not provide recommendations to reduce these exposures that are consistent with
OSHA lead and cadmium standards. No mention was made that UNICOR was not in
compliance with these standards. Even though a sample was taken at the exhaust of the
LEV system, no mention was made of the status of the LEV system; that is, were filters
in place as required or not. The consultant did not provide recommendations regarding
the result that showed that cadmium dusts were distributed from the LEV exhaust to
occupied areas of the GBO and/or factory.

4.1.1.3 Exposure Evaluations between June 2003 and March 2005

The glass breaking booth and operations were relocated in June 2003 to a room adjacent
to the outside loading dock. Operations continued in that area until March 2005 with the
exception of several periods of reported suspensions. All glass breaking operations were
permanently stopped in March 2005. During this time period, six evaluations were
performed by a second UNICOR consultant. Also, the BOP industrial hygienist
performed one evaluation. Personal exposure monitoring and area air sampling were
conducted and samples were analyzed for lead, cadmium, barium, and beryllium.
Surface wipe sampling and other testing were also performed during some of these
evaluations. Results are summarized below.

   • 	 January 7, 2004: The consultant collected five personal exposure samples, with
       three for glass breakers. All results were below the lead and cadmium PELs and
       action levels. Breaker cadmium exposures ranged from <0.4 Ilg/m3 to 0.93
       Ilg/m3, and breaker lead exposures were all less than the limit of detection (LOD).
       Curiously, the only personal sample with detectable lead exposure (2 Ilglm3) was
       an inmate on "kitchen duty" near the on-going glass breaking operations. All
       beryllium results were also less than the limit of detection (LOD), and barium
       exposures were low (well below the PEL). No information was provided
       regarding work practices and hazard controls, and no recommendations were
       provided.

   • 	 February 9, 2004: The consultant collected five personal exposure samples, with
       three for glass breakers. The panel glass breaker had an exposure to cadmium at
       17 Ilglm3 as an 8-hour TWA (assuming no exposure for the remainder of the work
       shift). This exposure is 3.4 times the PEL for cadmium. His lead exposure was
        l.9 Ilg/m3, well below the lead PEL and action level. The cadmium exposure of
       the funnel glass breaker was 0.73 Ilglm3 and lead exposure was 0.6 Ilg/m3, both
       well below the PELs and action levels. A worker supporting glass breaking had
       cadmium and lead exposures less than the LOD. The feeder had cadmium
       exposure less than the LOD and lead exposure at 0.4 Ilg/m3 The "kitchen helper"
       also had cadmium and lead exposures less than the LOD. All beryllium results
       were also less than the LOD, and barium exposures were low (well below the
       PEL).




                                           27 

   The consultant issued three reports for this sampling episode, with dates of
   February 17, February 23, and March 23, 2004. The first report was a cover letter
   with the data which pointed out the one elevated cadmium exposure, but also
   stated that "full-face negative pressure respirators and HEPA filters" were used,
   and that "therefore the PEL for cadmium has been increased to 250." This is an
   erroneous statement in that the protection factor of a respirator does not increase
   the PEL, and it is inaccurate to suggest that the PEL was not exceeded for the
   cadmium exposure. The second report pointed out the one cadmium exposure
   above the PEL, but did not describe PPE or respiratory protection or other hazard
   controls and work practices that were employed. No context or explanation for
   the exposure was discussed, and no possible causes or corrective actions were
   provided. The consultant did recommend "that the panel breaking activity be re­
   evaluated for any deviations or changes in the activity." Follow-up monitoring
   was also recommended. In the third report, the consultant added information that
   described the PPE as disposable suits and full-face respirators with HEPA filters
   and stated that the protection factor for this respirator is 50 and that the maximum
   use level (MUL) for cadmium is 250 Ilglm3 In discussing these reports,
   NIOSH/HET AB mentions that "the erroneous statements in the report are another
   example of incorrect or incomplete information that has been provided to
   UNICOR by environmental consultants." (See Attachment 3.)

• 	 March 10 and 18, 2004: The UNICOR consultant collected four personal
    exposure samples on both March 10 and 18, 2004 for inmate workers performing
    glass breaking or supporting activities. On March 10, all exposure results were
    below the LOD. On March 18, cadmium exposures ranged from <0.4 Ilglm3 to
     l.4 Ilg/m3, which are below the OSHA PEL and action level. As opposed to the
    February 2004 result, the panel glass exposure was less than the LOD while the
    funnel glass exposure was higher at l.4 Ilg/m3 The consultant reported that
    similar PPE and respiratory protection were worn as in February 2004. The
    consultant's report offered no explanation for the reduced cadmium exposure
    from its monitoring episode in February 2004. The only recommendations were
    to periodically re-evaluate activities and to re-evaluate exposures if any changes
    are implemented.

• 	 September 28-30, 2004: The BOP industrial hygienist performed a technical
    assistance visit to conduct testing and evaluation for general factory activities, not
    including glass breaking. Personal exposure monitoring and area air sampling
    were performed for disassembly and related activities. All 17 personal and area
    air samples were below the LOD for lead, cadmium, barium, and beryllium.
    Eighteen surface wipe and 10 hand wipe samples were also collected. Lead
    concentrations for three work table top samples collected in factory areas ranged
    from 2,200 Ilglft2 to 3,760 Ilg/ft2 These samples show significant contamination,
    and the industrial hygienist recommended measures to prevent and control dust
    accumulation, including using disposable surface covers and HEP A vacuuming,
    as well as glove use and hand washing by inmates to prevent skin contamination
    and possible ingestion. Although at much lower levels than the factory area, lead,



                                          28 

       cadmium, aud barium were detected in the food service area. The industrial
       hygienist recommended that based on these "low levels" the food service area
       should be isolated from the factory area via physical separation (e.g., addition of
       walls, doors, aud ceilings), including isolation of the ventilation systems.

   • 	 March 18 aud 28,2005: The UNICOR consultant performed exposure
       monitoring and surface wipe sampling on both dates, aud a ventilation assessment
       on March 18. Six personal samples were collected for breakers and assistants
       during GBO. All were below the OSHA PELs and action levels for cadmium and
       lead. All barium and beryllium results were below the LOD. The most notable
       result was for a glass breaking assistant on March 18, whose exposure to
       cadmium was 3 Ilglm3 during a 206 minute sampling period (1.3 Ilglm3 as an 8­
       hour TWA assuming no exposure for the remainder of the shift). This is still less
       than the cadmium action level as an 8-hour TW A. All five personal samples for
       inmates performing disassembly activities in the factory area (not glass breaking)
       were all well below the lead and cadmium action levels, with many below the
       LOD. Surface wipe sample results were difficult to understand as reported.
       Results were reported in quautifiable micrograms (Ilg), but then converted to
       Ilg/cm2, most of which were reported as "<" (less than) results. Generally, these
       results seemed far lower than typical results from other UNICOR factories aud far
       lower than results obtained by the BOP industrial hygienist in September 2004.
       The consultant offered no interpretation of these data. Regarding the ventilation
       evaluation, the consultaut concluded "that the ventilation system is more thau
       adequate to trap the heavy metals evolving from the glass breaking operations."
       Overall, the consultaut concluded that exposures "are below auy level that could
       be considered significant on an occupational level." Recommendations were not
       provided.

In summary, the 2004 aud 2005 studies after relocating the glass breaking operations to a
paint spray booth in a room located adjacent to the loading dock showed that exposures
were much better controlled. With the one exception for cadmium on February 9,2004,
all personal breaking zone samples were less than the cadmium and lead PELs and action
levels. Inmates performing glass breaking wore full facepiece APRs with a protection
factor of 50, and more importantly, since February 2004, exposures were controlled
through the use of engineering and work practice controls as required by the OSHA lead
and cadmium standards. Exposures for disassembly and related activities in the factory
(not including glass breaking) were all well below OSHA lead and cadmium action
levels.

UNICOR consultant reports stated exposure status versus OSHA PELs and, after
February 2004, the reports documented the PPE and respiratory protection used. The
studies did not include a critical evaluation of work practices and did not provide
recommendations for continued improvement.




                                            29 

4.1.1.4 Summary of UNICOR and Consultant Evaluations-2002 through 2005

A summary of exposures found to be above the action level or PEL at USP Atwater as
determined by BOP and UNICOR consultants and industrial hygienists is provided in
Table 2.

                                       Table 2 

    Exposures Above the Action Level or Permissible Exposure Limit at USP Atwater 

      as Determined by BOP and UNICOR Consultants and Industrial Hygienists* 

                      Time Period: 2002 through February 2004 


                                                                                         Exposure as 8­
  Date of
                Tester        Parameter                    Description                    hour TWA
   Test
                                                                                             (~/m')
 June 2002    Consultant    Cadmium          Personal Sample in Glass Breaking Booth    6.8 to 41 **
                            Lead             Personal Sample in Glass Breaking Booth    13 to 80**
 July 2002    Consultant    Cadmium          7 Personal Samples in Glass Breaking       Up to 270 [4 of
                                             Booth                                      7 >PEL; 5 of7
                                                                                        >ALl
                            Lead             7 Personal Samples in Glass Breaking       Up to 58 [1 of7
                                             Booth                                      >PEL; 3 of7
                                                                                        >AL]
 Sept 2002    BOPIH         Cadmium          Warker Breaking Panel Glass                6.63
                            Lead             Warker Breaking Panel Glass                43.3
                            Cadmium          Warker Breaking Funnel Glass               17.7
                            Cadmium          Warker Breaking Panel Glass                90.8
                            Lead             Warker Breaking Panel Glass                89.1
                            Cadmium          Warker in Glass Breaking Booth             34.0
                            Lead             Warker in Glass Breaking Booth             38.2
                            Cadmium          Warker Breaking off Electron Guns          5.79
                            Cadmium          Warker Loading Monitars to Electron        2.98
                                             Gun Breaking Table, Outside of Booth
 Nov 2002 Consultant        Cadmium          5 Personal Samples in Glass Breaking        14 to 300
                                             Booth
                            Lead              2 Personal Samples in Glass Breaking       130 and 210
                                             Booth
                            Cadmium           1 Personal Sample in Glass Breaking        2.8
                                             Booth
 Jan 2003     Consultant    Cadmium          3 Personal Samples in Glass Breaking        Upt03.7[3
                                             Booth                                       samples>AL]
 Feb 2003     Consultant    Cadmium           Sample in Glass Breaking Booth             8.7
                            Cadmium           Sample in Glass Breaking Booth             4
                            Beryllium        Personal Sample in Glass Breaking Booth 2.2
 Feb 2004     Consultant    Cadmium          Warker Breaking Glass                       17
*The OSHA ActlOn Level and PEL far CadmIum are 2.5 fig/m' and 5.0 fig/m', respecllvely. The OSHA 

Action Level and PEL far Lead are 30 fig/m' and 50 fig/m', respectively. The OSHA PEL far Beryllium is 

2 fig/m'. 

** Larger value assumes 6.5 hours of work; smaller value based on 65 minute sampling duration. 


FOH and NIOSH/HETAB findings concerning these elevated exposure results as well as
regarding others characterizations performed from June 2002 through March 2005 are



                                                  30 

summarized below along with conclusions regarding UNICOR's work practices and
responses to the exposure results.

   • 	 Inmate workers were routinely exposed to cadmium above the OSHA PELs
       during glass breaking in 2002 and early 2003 and to lead above the OSHA PEL in
       2002.

   • 	 UNICOR did not have effective engineering and work practice controls in place
       during 2002 and 2003 as required by OSHA. In addition, UNICOR allowed
       inmates to perform glass breaking operation without adequate respiratory
       protection in 2002.

   • 	 UNICOR conducted exposure monitoring associated with glass breaking
       operations from 2002 to 2005, but was slow to take action as required by OSHA
       to reduce employee exposures to levels at or below the lead and cadmium PELs.
       Exposures were above the cadmium PEL for almost two years before UNICOR
       was finally successful in maintaining exposures below those levels. Lead
       exposures were above the PEL throughout most of2002.

   • 	 UNICOR exhibited numerous systemic deficiencies in its failure to promptly
       evaluate and control exposures during glass breaking at USP Atwater and other
       recycling factories. Work planning with appropriate hazard analysis, control
       design, and control implementation with control verification were lacking. Work
       was not stopped at USP Atwater and other factories when elevated exposures
       were repeatedly identified. Elevated exposure results were not shared with other
       factories, and instructions to stop work pending evaluation and control of
       exposures at all factories were not provided. ES&H experts were not retained to
       evaluate hazards and controls, design engineering and work practice controls,
       assist in implementation of controls, and verify effectiveness of controls. It
       appeared that UNICOR took a "trial and error" approach to hazard analysis and
       control that took nearly two years before effective exposure control was achieved.

   • 	 A clear indication ofUNICOR's lack of hazard analysis and implementation of
       controls is the 2002 glass breaking operations where UNICOR failed to initially
       implement effective engineering, work practice, and respiratory protection
       controls, and then later in 2002 implemented inadequate respiratory protection
       controls.

   • 	 The January 2003 incident ofUNICOR operating the LEV system without the
       necessary filters exemplified UNICOR's slowness to respond to known hazards
       and slowness to correct failed engineering controls. As discussed above in an
       earlier section of this report, FOH believes that the BOP and UNICOR violated
       the BOP stop-work policy (PS 1600.08) by continuing work in contravention of
       the Safety Manager's instructions.




                                           31 

   • 	 With the exception of one cadmium exposure, worker exposures to lead and
       cadmium in 2004 and 2005 were reduced to below the OSHA PELs through the
       use of engineering and work practice controls, as required by OSHA. In addition,
       adequate respiratory protection was provided during this period to achieve further
       worker protection.

   • 	 The usefulness of many consultant evaluations was limited by the lack of analysis
       and discussion of work practices and hazard controls, along with the lack of
       substantive conclusions and recommendations that could have contributed to
       reductions in exposures. In addition, some reports contained erroneous
       information or statements.

   • 	 Discussion of the significance of surface contamination results was particularly
       lacking in consultant reports.

   • 	 The reports prepared by the BOP industrial hygienist were more substantive and
       contained recommendations for exposure and contaminant control.

UNICOR should ensure that as part of exposure monitoring episodes, its consultants also
evaluate and report on work practices and hazard controls and provide appropriate
conclusions and recommendations related to the findings. UNICOR should implement an
effective and pro-active approach to hazard analysis and controls utilizing ES&H experts,
as appropriate, to evaluate hazards, design controls, and support their effective
implementation.

4.1.2   OSHA Complaints, Inquiries, and Inspection of 2003 - 2005

FOH reviewed a series of documents dealing with complaints made to OSHA of worker
safety and health violations associated with e-waste recycling operations at USP Atwater.
The documents included two "OSHA Notice of Alleged Safety or Health Hazard" that
described the complaints; one dated April 14, 2003 and the other dated January 24,2005.
In addition, FOH reviewed an OSHA inspection report for a March 2005 inspection
pertaining to the January 2005 complaint, as well as various related emails and
correspondence.

The first complaint was documented by correspondence from Director of Enforcement
and Investigations, OSHA-Honolulu, to the USP Atwater Safety Manager,_.
The complaint alleged that USP Atwater inmates involved in UNICOR e-waste
disassembly operations were being exposed to known carcinogenic heavy metals without
protective clothing or respirators and that several correctional officers refused to go back
to work after high levels of cadmium were detected in their blood. The complaint also
alleged that inmates were not being tested for cadmium or lead poisoning despite
continuing exposures. In addition, the complaint alleged that workers were being x-rayed
daily upon leaving the UNICOR facility posing a health concern due to excessive
radiation exposure. Other than this OSHA correspondence, no other documents related to
these 2003 allegations were available for FOH review.


                                            32
In 2005, a second complaint was documented in correspondence to USP Atwater from
OSHA-San Francisco. In the "Notice of Alleged Safety or Health Hazard," seven alleged
OSHA violations were described in the UNICOR warehouse where e-waste recycling
operations occurred. A summary of these allegations is provided below.

   • 	 Staff members and inmate employees are required to consume food in a
       contaminated lunchroom area that is not sealed off from the workroom area.
       [1910.141(g)(2)]

   • 	 Food service operations are not being conducted in a hygienic manner in-so-far as
       food is being contaminated with toxic metals resulting from activities like the use
       of compressed air for cleaning of surfaces in the e-waste factory. [1910.141(h)]

   • 	 Warehouse work and storage areas are not being kept adequately clean resulting
       in contaminated surfaces. Use of compressed air exacerbates the spread of this
       contamination. [1910. 141(a)(3)(i)]

   • 	 Exposed staff members and inmate employees are experiencing skin and eye
       irritation and have not been provided the PPE previously identified in the
       UNICOR hazard assessment. [1910.132(d)(l)(i)]

   • 	 Workers are exposed to compressed air utilized for cleaning that exceeds 30
       pounds per square inch. [1910.242(b)]

   • 	 Staff members and inmate employees have not received training on cadmium and
       barium as required by hazard communication regulations. [1910.1200(h)(2) and
       (3)]

   • 	 Staff members and inmate employees have not been informed about the existence,
       location, and availability or records such as air/wipe sampling tests nor of their
       right to access these records. [1910.1020(g)(l)]

In response to these allegations, a letter signed by the USP Atwater warden was issued on
February 11, 2005 which outlined USP Atwater's investigation into the allegations and
provided details about any workplace modifications or corrective actions which had been
instituted as a result. The letter indicated that USP Atwater's review of each complaint
found that operations were currently in compliance with all referenced regulatory
requirements and pointed to a number of considerations to justify this position, including
the following:

   • 	 Low or non-existent contamination on dining area surfaces and workers hands, as
       reflected by wipe samples collected by USP Atwater in September 2004;

   • 	 Delivery of food to the factory in enclosed containers which do not allow 

       contamination by dusts; 



                                           33 

   • 	 Thorough cleaning of the dining area and food service equipment on a daily basis;

   • 	 On-going cleaning and maintenance of the computer recycling factory and 

       warehouse; 


   • 	 Completion by USP Atwater of a PPE assessment which reflected that appropriate
       PPE (safety glasses, work gloves, safety shoes) is being used by inmate workers
       who disassemble computers;

   • 	 Lack of medical or industrial hygiene information to support the contention that
       exposure to lead, cadmium and barium is causing eye and skin irritations; and

   • 	 The results of a UNICOR review which indicated that staff and inmates receive
       adequate work place training on lead, cadmium, and barium.

In addition, the warden's letter indicated that a number of new policies or workplace
modifications had been or will be implemented, including:

   • 	 Adoption of a new policy prohibiting the use of compressed air for cleaning
       purposes in the computer recycling factory and warehouse;

   • 	 Adoption of a new policy whereby the Factory Manager will ensure that staff and
       inmates are initially and annually notified of the existence, location, and
       availability of any records pertaining to workplace exposures via inmate
       orientations, staff-issued packets, etc.

Following receipt of the warden's February II, 2005 letter, OSHA deployed inspectors to
USP Atwater on March 29-30, 2005 to assess exposures at the UNICOR e-waste
recycling operations. As described in a report dated April II, 2005, OSHA performed
walkthrough inspections of operations including warehouse receiving operations, e-waste
disassembly, and CRT glass breaking being performed in an area equipped with a
commercial spray paint booth as an engineering control. Based on sampling strategies
formulated during the first day of the site visit, area air sampling and wipe sampling were
conducted to determine the extent of exposure in these work areas. In addition, a
qualitative assessment of the commercial spray paint booth ventilation system was
performed.

On March 30, 2005, OSHA collected air samples from three factory locations in the
penitentiary where e-waste disassembly occurred to assess air exposures for 13 metals,
including lead, cadmium, and beryllium. In addition, area samples were collected from
inside the glass breaking area and in the warehouse. All area air samples were described
as 'negative' with the exception of three air samples collected inside the glass breaking
booth (i.e., the converted spray paint booth). These three samples showed cadmium air
concentrations approaching but not exceeding 50% of the OSHA PEL for cadmium (the
action level). The report indicated that all three workers in the glass breaking booth were


                                            34 

fitted with full face piece negative pressure respirators. In addition to the area samples,
OSHA collected one personal sample from the breathing zone of a guard monitoring the
glass breaking activities who was stationed on the loading dock outside the glass
breaking room. This sample was described as 'negative'. No information was provided
regarding the numbers or types of CRTs being broken during the sampling.

In addition to the air samples, OSHA collected wipe and surface samples throughout the
UNICOR work areas (factory management areas/disassembly tables, glass breaking area,
and warehouse) to identify the presence of dusts containing metal contamination.
According to OSHA's report, "assessment of exposure to toxic heavy metals such as lead
and cadmium must also consider surface and skin contamination because ingestion or re­
entrainment of dusts from clothing can be a major source of exposure." Based on data
collected from a portable x-ray fluorescence analyzer, the OSHA report indicated that
"some" lead contamination was found on various building surfaces inside the
disassembly factory and on a disassembly table which was "probably from the solder
used in the electronic boards." In addition, the report indicated that lead and barium
contamination was found on working surfaces inside the glass breaking room and that
this was "not surprising". Wipe samples from the hands of inmate employees working in
the glass breaking room showed "appreciable" amounts cadmium contamination which,
on at least one glass breaker, was not effectively removed through hand washing (based
on a post-hand washing sample). The amount oflead contamination was reported to be
similar on the hands of glass breaking workers as compared to factory floor inmate
workers.

Overall, the OSHA report concluded that area air sampling data indicated that aerosols
generated by the glass breaking operations were adequately contained inside the
enclosure and that the modified spray paint booth provided sufficient negative air
movement. The report also concluded that, in general, work practices and ventilation
design provided good control of potential exposures to heavy metal contamination but
that wipe samples indicated the need to improve hand washing/hygiene practices.

Following the completion of the March 2005 OSHA inspection at USP Atwater, the
Director of Enforcement and Investigations for OSHA-San Francisco provided identical
letters to USP Atwater's Safety M a n a g e r , _ and the UNICOR Recycling
Business Group in which each of the seve~mplaints (summarized above) were
addressed in light of the inspection's findings. In this letter, dated May 23, 2005, OSHA
indicated that it was unable to substantiate any of the complaints. Furthermore, OSHA
indicated that no violations of other OSHA safety and health standards were identified
based on a review of work practices, industrial hygiene sampling, assessment of the
ventilation system, and evaluation of the Safety and Health Program.

4.1.3   NIOSHIDART and FOH Evaluation of April 2007

In April 2007, NIOSHIDART with assistance from FOH conducted an industrial hygiene
evaluation at USP Atwater to evaluate exposures to metals and other occupational
hazards associated with the recycling of electronic components. This evaluation was a



                                             35 

qualitative assessment with some surface sampling, but was not a comprehensive
evaluation. Operations conducted at the time of this evaluation included receiving and
sorting, disassembly, and packaging and shipping. Glass breaking was stopped in March
2005 and was, therefore, not part of the NIOSHIDART evaluation. The NIOSHIDART
evaluation included observations of work practices and PPE use, surface wipe and bulk
dust sampling and analysis, and limited noise monitoring. The bulk dust and surface
wipe samples were analyzed for lead, cadmium, barium, beryllium, and nickel. Personal
exposure monitoring was not performed. Results of the evaluation are summarized
below and are provided in detail in Attachments 1 and 2. Also see the Appendix for
guidance to assist in evaluating surface wipe and bulk dust samples.

   • 	 Wipe samples were collected from 26 work area surfaces (see Attachment 2a for
       results). Most samples were below the 200 Ilglft2 OSHA guideline for lead that
       applies to clean areas such as change rooms, but not active lead work areas.
       Therefore, most surfaces were adequately clean. Three surface samples that were
       above the 200 Ilglft2 OSHA lead guideline for clean areas were from two wooden
       table tops (240 and 420 Ilg/ft2 lead) and the top of an electrical power box (350
       Ilg/ft2 lead). The top of the power box had the highest cadmium contamination at
       330 Ilglft2 Consistent with other UNICOR factories, this sample indicates that
       metal dusts can accumulate on non-work surfaces that are not subject to regular
       cleaning. Nevertheless, these levels were less than other surface criteria that
       apply to work areas such as the Lange guidance that was developed for
       commercial buildings. [Lange 2001] Overall, the data showed that factory areas
       were kept reasonably clean.

   • 	 The highest lead measurement of 850 Ilg/ft2 was collected on a surface inside the
       exhaust hood that served the former GBO. Cadmium was present at 84 Ilglft2 on
       this surface. This result indicates that systems associated with the former GBO
       should be tested and decontaminated.

   • 	 Beryllium was not detected on the surfaces tested.

   • 	 Seven bulk dust samples were collected; three from the warehouse and four from
       the UNICOR recycling factory at the penitentiary (see Attachment 2b for results).
       Three of the four factory samples had the highest levels oflead and cadmium
       ranging from 1,100 Ilglg to 9,100 Ilglg lead and llO Ilg/g to 810 Ilglg cadmium.
       Two of these samples were floor sweepings and the other was from the top of the
       former GBO exhaust system. The latter result again indicates the need to
       decontaminate systems and areas associated with the former GBO. Dust samples
       from warehouse disassembly tables ranged from 150 Ilglg to 430 Ilglg for lead
       and from II Ilg/g to llO Ilg/g for cadmium.

   • 	 Seven additional bulk samples were collected in the factory from the top of the
       ventilation duct and other high horizontal surfaces (see Attachment 2c). These
       samples showed lead contamination in the range of 44 Ilglg to 1,100 Ilg/g and
       cadmium in the range of 12 Ilg/g to 250 Ilglg. [Note: These samples were


                                           36 

        collected by FOH and are not presented in the NIOSHIDART report in
        Attachment l.]

   • 	 NIOSHIDART noted that the work areas were kept reasonably clean, primarily by
       the use of brooms and brushes. NIOSH/DART also stated that these cleaning
       techniques are a potential source of airborne metal dust and the use of HEP A
       vacuums and wet cleaning are better techniques to clean dust contamination from
       surfaces. FOH also notes that dry sweeping and brushing is explicitly prohibited
       by OSHA lead and cadmium standards.

   • 	 Regarding PPE, NIOSHIDART reported that safety glasses were used in most
       operations, hearing protection was available where needed (primarily near the
       baler) and disposable respirators were available for voluntary use.

   • 	 Spot noise measurements were taken in the warehouse using a sound pressure
       meter. Noise measurements were not taken in the USP factory because work was
       not being conducted due to a lockdown. Occasional transient noise measurements
       up to 90 dBA were found in the warehouse, but most were well below that level.
       NIOSHIDART was of the opinion that occupational noise exposures were below
       the OSHA 90 dBA PEL and NIOSH 85 dBA criteria (which is also the OSHA
       action level that triggers the need for a hearing conservation program). However,
       NIOSHIDART recommended that further noise evaluations be conducted. The
       NIOSHIDART readings were limited and were not intended to represent a
       complete noise survey of all noise producing sources.

NIOSHIDART provided several recommendations including training in the use ofPPE
and dust suppression techniques, evaluation of hazards associated with tasks that are
biomechanically taxing, evaluation of the heat stress hazard during summer months,
performance of health and safety evaluations, vigilance in hygiene practices including
hand washing, use of HEP A vacuuming and wet cleaning methods for surface
decontamination, and performance of a noise survey (see Attachment 1).

4.1.4   UNICOR Consultant Exposure Evaluation of2009

In April, 2009, a UNICOR consultant performed air monitoring, ventilation testing,
surface sampling, and noise monitoring of e-waste recycling operations at USP Atwater.
The consultant evaluated disassembly and materials handling operations at the
penitentiary factory and warehouse. As stated in the consultant's report, the purposes of
this evaluation were to determine worker exposures to lead, cadmium, beryllium, and
noise during the recycling operations underway at the time; to evaluate lead, cadmium,
and beryllium surface concentrations; and to determine the necessity of additional
controls and/or work practices. These evaluations were conducted as part ofUNICOR's
annual monitoring program implemented in 2009 for its factories. This monitoring did
not include an evaluation of glass breaking, because all GBO at USP Atwater were
suspended in 2005.




                                            37 

At the disassembly factory in the penitentiary, air monitoring consisted of the collection
of 10 personal samples for workers involved with various e-waste disassembly operations
being performed on factory tables. At the outside camp, the consultant collected an
additional seven personal air samples for workers stationed at disassembly tables and at
the baler. The consultant's report stated that no lead, cadmium, or beryllium was found
in any of the 17 air samples, and that worker exposures were all below well below
allowable OSHA limits.

The consultant also measured the volumetric air flow of the disassembly factory's swamp
coolers used for air conditioning. Testing was performed using a velometer and smoke
tubes. The consultant reported that at the time of the testing, only one of the four swamp
coolers was running due to cooler outdoor temperatures and indicated that the "amount of
flow per swamp cooler averaged 1,852 cubic feet per minute." Regarding the camp, the
report indicated that no ventilation system was present with the exception of local floor
fans. No conclusions or recommendations were provided concerning the ventilation
evaluations at the two locations. [Note: FOH notes that OSHA issued a citation to
UNICOR at USP Lewisburg, in part, for using pedestal fans that can disturb surface
contamination and increase inhalation exposures in disassembly areas. UNICOR should
evaluate the fan types and their locations relative to the USP Lewisburg violation and
determine if the fans are appropriate for use.]

Based on these evaluations, the consultant recommended that several types of disposable
dust masks (N-95 or better) be made available to workers based on their personal
preference, and that Appendix D of the OSHA Respiratory Protection standard be
provided to the workers voluntarily using the masks. The consultant further
recommended that use of the dust masks should not be made mandatory and advised that
the results of his testing be communicated to workers within 15 days of receipt. No
comments were provided dealing with the use or effectiveness of other PPE (e.g., gloves,
eye protection, and protective footwear) or other controls such as to limit ingestion as a
route of exposure, ergonomic hazards, or heat stress exposures during hot weather.

The consultant also performed surface wipe sampling in the disassembly factory
(penitentiary) and camp. At the disassembly factory, samples were collected from 13
surfaces including floors, beams, ventilation ducts, table tops, and walls. All 13 were
analyzed for lead, while four samples were analyzed for cadmium and beryllium. Seven
of the 13 lead measurements exceeded the OSHA guidance level for clean areas (i.e., 200
Ilglft2 for clean areas such as lunch room and change rooms but not active work areas, see
Appendix for more information), although only one of these samples was taken from a
work surface. The other six lead results, ranging from 588 to 2,890 Ilglft2, were from
factory beams and ventilation ducts. Of the four samples tested for cadmium, two had
detectible concentrations (i.e., 482 and 544 Ilg/ft2 taken from a beam and ventilation duct,
respectively). The consultant's report notes that these cadmium surface concentrations
exceeded the U.S. EPA's Health Benchmark for cadmium of 1441lglft2established as a
guidance level for residential dust clean-up following the September 11, 2001 attacks. In
addition, the report indicates that OSHA requires that surfaces be maintained "as free as
practicable" of cadmium contamination. The remaining two samples (from a floor



                                            38 

surface and a table top) showed no cadmium contamination. None of the four surfaces
tested had detectible beryllium contamination.

At the camp, 10 surface wipe samples were collected from floors, tables, a beam, and the
top of a locker. All 10 were tested for lead and four were tested for cadmium and
beryllium. Of the 10 locations tested for lead, four (three table samples and one floor
sample) exceeded the OSHA guidance level for lead of200 Ilglft2 for clean areas. Of the
four samples tested for cadmium, one floor sample slightly exceeded the EPA Health
Benchmark for residences. None of the four samples had detectible beryllium surface
contamination.

Overall, based on the evaluations performed, the consultant's report concluded that dust
on beams, lights, and ventilation ducting does not appear to contribute significantly to
employee exposure and that although UNICOR personnel were vigilant about cleaning
their workstations, "more will need to be done in light of wipe sample results reported for
work surfaces." The consultant recommended that that floors be HEPA vacuumed and
mopped, that workstations be HEP A vacuumed and wet wiped more frequently, and that
dry sweeping in the disassembly factories be limited to the collection of larger parts.
[Note: In other reports, NIOSH/HETAB recommended use of wet misting and squeegees
for clean-up oflarger debris.] No recommendations were provided dealing with the
contamination on the elevated surfaces.

Other than indicating some "variability in the use of dust masks", the consultant did not
provide additional documentation of PPE or work practices. The consultant conducted
noise monitoring, and these results are reported in Section 4.3.

In summary, the 2009 consultant report provided certain conclusions and
recommendations regarding current operations and facilities and was an improvement
over previous evaluations. However, the report did not provide an interpretation of the
ventilation measurements and was not comprehensive in terms of documenting existing
work practices and controls or determining the necessity for worker protection
improvements as originally stated in the purposes of his report. In addition, given the
limited numbers of samples collected, the surface sampling performed should not be
construed as a comprehensive delineation of contamination such as would be the basis for
a detailed operations and maintenance plan to control exposures to contamination on
various factory surfaces. That is, unless a suspect surface, building component, or piece
of equipment is assumed to be contaminated and treated as such, sampling should be
performed to ascertain its status. This may require multiple samples from dispersed
locations and sampling in hidden or inaccessible locations (that may be accessed at times
by workers or otherwise contribute to personal exposures or environmental releases). It
is recommended that UNICOR utilize sampling regimens that are informed by guidance
documents such as the U.S. EPA's Lead Sampling Technician Field Guide [EPA 2000]
and Managing Asbestos in Place, A Building Owners Guide to Operations and
Maintenance Programs for Asbestos-Containing Buildings [EPA 1990].




                                            39 

FOH recommends that UNICOR discontinue use of dry sweeping and develop an
operations and maintenance plan to deal with contamination on elevated and other
surfaces not subject to regular cleaning. FOH also recommends that UNICOR evaluate
the appropriateness of the factory fans relative to the USP Lewisburg OSHA violation for
pedestal fan use. OSHA issued this violation for both dry sweeping and pedestal fan use
in the disassembly areas even though exposures were less than the action levels.

4.2      Assessment of the Medical Surveillance Program

As part of the DOJ/OIG investigation, NIOSH/HETAB assessed the existing medical
surveillance program for inmates and staff exposed to lead and cadmium during e-waste
recycling at USP Atwater. NIOSH/HETAB conducted a site visit in October 2008 to
conduct this assessment. Results are summarized below and are presented in detail in the
NIOSH/HETAB report provided in Attachment 3.

      • 	 NIOSH/HET AB reported that inmates were exposed to cadmium and lead above
          occupational exposure limits during glass breaking from 2002 to 2003. During
          this period, it appears that inmates worked without adequate respiratory protection
          from April 2002 to July 2002. Exposures seemed to have been better controlled
          with the relocation of the GBO to the spray booth, however, one exposure
          monitoring result showed significant exposure to cadmium.

      • 	 Biological monitoring is performed by the USP clinic and consists of blood lead
          levels (BLL), blood cadmium (CdB), urine cadmium (CdU), urine beta-2­
          micro globulin (B-2-M), and serum barium. Not all tests are done for each inmate.
          The tests are reviewed by a physician. Paper copies of results are maintained in
          the inmate's personal medical record. No physical examinations are performed
          and inmates did not receive medical clearance to wear a respirator.

      • 	 Preplacement test results from March 2002 were available for 10 inmates who
          performed glass breaking. These 10 inmates were retested in early July 2002
          prior to respirator use but about one week after temporary shutdown of the GBO.
          The BLLs of these 10 inmates increased. In July, the mean BLL was 4.6 Ilg/dL
          (range of2-9 Ilg/dL). In March, the BLLs ranged from below the LOD of2
          Ilgl dL for six inmates to 3 Ilgl dL. In contrast, CdBs decreased for these 10
          inmates in July relative to March 2002. Mean serum barium in May was 76.3
          IlgiL and was 105.5 Ilg/L in July. NIOSH/HETAB noted that these test results are
          the best indication of inmate exposure during the time frame when glass breaking
          was performed without controls or respiratory protection. NIOSH/HETAB
          concluded that the slightly increased BLLs indicate exposure to lead, and the
          decreased CdB results likely represent an inability to leave the work area to
          smoke (smoking is known to increase CdB levels, sometimes dramatically).

      • 	 In July 2002, an additional eight inmates were tested for the first time. The mean
          BLL was 3.8 Ilg/dL (range of 2-8 IlgldL), comparable to but slightly lower than




                                              40 

         the previously discussed 10 inmates. CdB levels were below the LOD for four
         inmates and the mean was 1.4 Ilg/L for the other four.

      • 	 Ten inmates were tested between one and four times from May 2003 to
          November 2004. NIOSH/HETAB found that biological monitoring results were
          unremarkable with regard to potential for occupational exposure to lead,
          cadmium, and barium (see Attachment 3 for the results and discussion).

      • 	 Records were reviewed from seven staff members who filed workers'
          compensation claims for exposures from recycling. These staff members were
          seen by an occupational medicine physician and a toxicologist. Two reported no
          symptoms and five reported cough and nasal problems. Biological monitoring
          and other medical tests were performed for these staff members. The toxicologist
          determined that none of the individuals evaluated had any occupational medical
          problems. (See Attachment 3 for further details.)

      • 	 NIOSH/HET AB also reviewed results of medical surveillance that 10 UNICOR
          staff received from private physicians between 2007 and 2008. Eight BLLs were
          all below the LOD. Of nine CdBs, eight were below the LOD and one was 0.8
          IlgiL. Of nine CdUs, six were below the LOD and three ranged from 0.3 to 0.4
          IlgiL. Eight B-2-M results were within the normal range.

Overall, NIOSH/HETAB concluded that the results of biological monitoring for both
staff and inmates were unremarkable with regard to potential occupational exposure to
lead, cadmium, and barium. No inmates or employees had blood or urine levels oflead
or cadmium which exceeded occupational standards. NIOSH/HET AB also concluded
that medical surveillance was not in compliance with the OSHA lead and cadmium
standards, and medical clearance was not performed for respirator use in the GBO which
is a violation of the OSHA respiratory protection standard. NIOSH/HETAB stated that
there is no need to perform any further medical surveillance if the GBO remains closed.

4.3      Investigations for Noise Exposure

In April 2007, NIOSHIDART took a limited number of spot measurements for noise in
the camp warehouse only, because the penitentiary factory was not operating at the time
of the evaluation. NIOSHIDART did not find exposures likely to be above the OSHA
action level as 8-hour TWAs (see Section 4.l.3), but NIOSHIDART recommended that a
complete noise survey be performed for all operations that could potentially have a noise
exposure. BOP and UNICOR consultants performed two noise surveys in 2009, as
reported below.

A BOP consultant conducted a noise survey at USP Atwater in March 2009.
"Instantaneous" noise measurements were taken throughout the penitentiary, including
many areas not associated with UNICOR operations, such as housing units. These
"instantaneous" types of readings are point-in-time readings rather than dosimetry that




                                             41 

measures exposures as 8-hour TWAs, which can then be compared to OSHA exposure
limits.

Over 200 noise readings were taken, but only nine were in UNICOR areas. Of the nine,
only three were in potentially noise producing areas, which were identified as
demanufacturing areas and a drilling area. None of the three readings were found to
exceed the OSHA PEL or action level. The consultant survey is very limited relative to
UNICOR e-waste recycling. The consultant report does not mention if specific
areas/activities of potential noise sources were monitored, except for one "drilling"
reading (e.g., areas and activities involving balers, powered hand tools, or other powered
tools and equipment were apparently not tested). FOH notes that other UNICOR
disassembly factories showed noise exposures above the OSHA action level and/or PEL
for a limited number of specific activities and areas.

The consultant stated that based on levels not exceeding 85 dBA (the OSHA action
level), areas surveyed are not subject to a hearing conservation program. The Factory
Manager and Safety Specialist confirmed that a hearing conservation program is not
required nor in place, but also stated that hearing protection is required and made
available as an added precaution.

In April 2009, a UNICOR consultant conducted personal noise dosimetry to evaluate
noise exposures during various e-waste recycling operations taking place at USP Atwater.
This work was performed as part ofUNICOR's annual monitoring program implemented
in 2009 for its factories and was conducted at both the penitentiary disassembly factory
and camp.

Noise doses were obtained over monitoring periods of approximately two to seven hours
from 10 different workers involved in various activities judged by the consultant to have
the potential to exceed OSHA action levels. Work activities included disassembly,
copper recovery, breaking up of microwaves, and operating balers. Calculated as 8-hour
TW As, doses ranged from 13 to 53% of the OSHA PEL with only one worker recording
a dose in excess of the OSHA hearing conservation action level (i.e., 50 percent of the
PEL or 85 dBA as an 8-hour TWA). The worker whose exposure (53%) exceeded the
OSHA hearing conservation action level was described as operating a baler located
outdoors at the camp. Based on these results, the consultant recommended that all balers
be included in a hearing conservation program following OSHA requirements of 29 CFR
1910.95, Occupational noise exposure, and including annual training and audiometric
testing.

In summary, the limited amount of noise monitoring for the e-waste recycling operations
conducted in March 2009 was not adequate to properly determine noise exposures. The
April 2009 survey applied proper techniques. UNICOR should have performed a hazard
analysis of its recycling activities at USP Atwater, including noise hazard evaluations,
prior to and then shortly after start-up of recycling activities in 2002. Additional noise
surveys should have been performed as activities were planned and initiated or modified
over time. Inmates performing baling should have been enrolled in a hearing



                                            42 

conservation program at the start of baling operations. This is further indication that
UNICOR lacks an effective hazard analysis program for its recycling factories.

4.4    Environmental Issues

FOR conducted a review of available documents pertaining to environmental issues
associated with e-waste recycling operations conducted by UNICOR at USP Atwater
since 2002. Most notable were documents which reflected how, despite
recommendations from the Safety Manager at USP Atwater, wastes generated by the
UNICOR glass breaking operations (GBO) were not initially characterized in accordance
with governmental regulations and that, as a result, GBO-related wastes (e.g., air filters)
were not initially disposed of in an appropriate manner (i.e., as hazardous waste). In
addition, documents pertaining to a fire at the USP Atwater e-waste facilities reflected a
lack of preparedness and communication which likely contributed to an uncontrolled
release of hazardous materials.

Overall, the reviewed documents reflect that, from the standpoint of compliance with
environmental regulations, USP Atwater and BOP had not adequately prepared for
initiating e-waste recycling operations, and even after being advised of the need for
necessary testing and other actions, prompt implementation of these recommendations
did not occur. Also, important information and lessons learned were not effectively
communicated to other e-waste recycling operations at other BOP institutions.

FOR reviewed correspondence regarding concerns that the Safety Manager raised shortly
before and soon after recycling was initiated at USP Atwater. These concerns included
the need for CRT glass and other wastes to be analyzed to determine whether the
materials would be required to be treated as hazardous waste. In a memo to the Associate
Warden dated March 2002 (one month before computer recycling operations began at
USP Atwater), the Safety Manager indicated that Toxicity Characteristic Leaching
Procedure (TCLP) tests needed to be performed on the CRT glass "to identify the
material content as hazardous or non-hazardous for shipping, handling and recycling
purposes" and to "ensure that lead, cadmium, and barium levels are below the EPA
hazardous waste guidelines" (see Table 3, Maximum Concentration of Selected
Contaminants for the Toxicity Characteristic).

The need for an environmental risk/health assessment for the e-waste recycling
operations had been previously identified in a November 28,2001 memo from the Safety
Manager to the Factory Manager.




                                             43 

                                      Table 3 

                    Maximum Concentration of Selected Contaminants 

                           for the Toxicity Characteristic! 


                        Contaminant              TCLP Regulatory Level
                            Arsenic                      5.0 mg/L
                            Barium                      100.0 mg/L
                          Cadmium                        l.0 mg/L
                          Chromium                       5.0 mg/L
                             Lead                        5.0 mg/L
                           Mercury                       0.2mg/L
                  [40 CFR 261.24]

In June 2002, three months after the start ofGBO at USP Atwater, TCLP testing of
exhaust air filters from the glass breaking area was performed. Test results identified
concentrations of lead which, according to a July 1, 2002 memorandum from the Safety
Manager, "far exceeded" EPA Resource Conservation and Recovery Act (RCRA)
standards. Based on these results, the Safety Manager indicated that, effective
immediately, the glass breaking primary and secondary exhaust filters will need to be
removed and handled as hazardous waste. The memo also specified a number of other
requirements that needed to be fulfilled including: provide 40-hour HAZWOPER
training to UNICOR staff; provide staff and inmates proper procedures and PPE for
replacing, handling and disposing the filters; identify the temporary satellite storage site
for the hazardous waste; and identify a certified hazardous waste disposal company.
According to OIG interviews ofUSP Atwater inmates and staff, no special precautions
were initially afforded these filters and they were disposed of in unlabeled plastic bags
(i.e., not as hazardous waste).

Later in July 2002, a memo by the Warden to the BOP Regional Director reflected "deep
concerns" about the UNICOR computer recycling program in regard to hazardous metals.
The memo pointed to two main issues: that the residual metals collected in the air
filtering system were not handled and disposed as hazardous waste in accordance with
EPA standards; and that the glass breaking operation resulted in the release of hazardous
metals into the air, exposing staff and inmates to "higher than allowed levels of lead,
cadmium, barium and other dangerous metals." The memo pointed out the broader
implication that four similar glass breaking operations were underway in the BOP which
have not conducted any initial hazard assessments and also outlined a number of
corrective measures that USP Atwater would be taking to further characterize and control
risks. The memo concludes by stating that the UNICOR glass breaking operation at USP
Atwater has been temporarily suspended pending the implementation of the corrective
measures, and by recommending that UNICOR should be responsible for funding and
developing a lead management plan so that operations Bureau-wide can meet
governmental requirements. Subsequent to this memo, a "Cadmium and Lead
Compliance Program Plan" dated August 7, 2002 was prepared for USP Atwater by a
consultant which detailed a number of safety and health measures and identified wastes


                                             44 

from the glass breaking area, including air filters, as hazardous waste. However, the OIG
found no evidence that this plan was ever put into practice as intended.

In addition to learning that its glass booth filters could constitute hazardous waste,
UNICOR also was aware from dealing with California regulators that its glass booth
emissions could subject it to California EP A air regulations. In a letter dated June 2,
2003, USP Atwater's Associate Warden of Industries requested a permit waiver from the
San Joaquin Central Valley Air Pollution Control District in order that reprocessed air
from the CRT glass breaking booth could be vented to the outside. The letter explained
that the CRT glass breaking booth, which had been in operation since April 1, 2002, had
previously vented its filtered air back into the inside of the factory work area but that it
had been recently shut down as a precautionary measure pending relocation to another
location where air could be vented to the outside. The letter indicated that based on the
design ventilation rating of the booth (i.e., 8000 cubic feet per minute), quantitative
                                                                             3
measurements of respirable dust in the CRT breaking area (i.e., 1.3 mg/m ) and a 'worst
case' shift duration (6.5 hours), a maximum theoretical total of 0.250 pounds of
particulates per day would be released, not factoring in the filtering processes being
employed (which was described as having a manufacturer rating of 100% for particles
down to 2 microns in size). The letter was accompanied by a San Joaquin Valley Air
Pollution Control District Permit Application for Authority to Construct a New Emission
Unit and a Supplemental Application Form describing the baghouse/dust collector being
proposed to collect materials described as containing "lead, cadmium, barium and
beryllium". Ultimately, it was determined that UNICOR qualified for an exemption from
air permitting requirements.

Environmental issues at USP Atwater also were raised in the context of a fire which
occurred at USP Atwater on November 10, 2003. The fire reportedly involved about
1,000 televisions and computer monitors stacked outside the warehouse and awaiting
processing at the UNICOR e-waste recycling factory. Due to the presence of heavy
metals in the materials, a hazardous waste contractor was immediately called in to
contain the contamination. As a follow-up to the containment, local environmental
regulators expressed the immediate need for further remediation (i.e., removal of debris
and underlying soil) before forecast rain showers occurred. Correspondence a week after
the fire occurred (i.e., November 17, 2003) from the BOP Central Office reflected that
remediation had still not occurred and that officials were concerned over the fire's
ramifications in light of hazardous waste, clean air, and clean water regulations and
possible regulatory fines.

Environmental reports and correspondence were reviewed dealing with the 2005 testing
ofUNICOR roof filters which constitute part of the factory's general air ventilation
system (as opposed to the LEV filters associated directly with the GBO). Specifically, a
cover memo from the Safety Manager at that time indicated that all "TCLP and RCRA
13" tests showed data "below the EPA hazardous waste reporting requirements" (i.e., the
filters would not be considered hazardous waste based on EPA criteria). The memo goes
on to indicate that "all 250 filters on the UNICOR roof will need to be changed out every
90 days to stay below the EPA threshold," and makes the suggestion to place this task on



                                             45 

the facility's computerized maintenance tracking system. However, a memo dated
November 9, 2005 from the Acting BOP National Safety Administrator indicated that
although the EPA toxic characteristic threshold was not reached, the California hazardous
waste regulations are more stringent, and two additional analytical tests were required: a
Waste Extraction Test (WET); and a 'total metal concentration' determination. The
memo indicated that a WET analysis of the filters would "almost certainly" yield a
sample result exceeding the 250 mg/l California hazardous waste limit for soluble zinc
and recommended that the filters be stored, manifested and disposed as California non­
RCRA hazardous waste. Based on the Acting BOP National Safety Administrator's
memo, correspondence was sent on November 10, 2005 to all recycling group factory
managers requiring that baseline testing of recycling factory ventilation air filters be done
and results evaluated in accordance with the various state hazardous waste regulations.
FOH found no evidence that this baseline testing of recycling factory general ventilation
air filters was done at other UNICOR e-waste recycling facilities until USP Lewisburg
performed very limited air filter testing in April 2006 (one sample was tested and found
not to exceed the RCRA limit for lead). HV AC filters from other UNICOR e-waste
recycling factories (FCI Elkton, FCI Ft. Dix) were not analyzed until tested in
conjunction with the OIG investigation (i.e., 2007) at which time at least some samples
were found to contain accumulated dust with high lead and/or cadmium levels which
failed or would be expected to fail the TCLP RCRA limit for lead. 8

Regarding the current environmental status of e-waste recycling operations at USP
Atwater, based on discussions held in August 2009 with the current UNICOR Factory
Manager and Safety Manager, these filters are currently being changed on an annual
basis. The Factory Manager also confirmed that the CRT glass breaking had been halted,
was not expected to re-start, and the current e-waste recycling operations at USP Atwater
are not currently subject to any special environmental permits dealing with air emissions
or hazardous waste.

4.5         Summary

Overall, documents from the start-up and initial operation of the UNICOR electronics
recycling activities at USP Atwater reflect that, despite the Safety Manager's
recommendations to better characterize wastes and airborne dust concentrations and
temporarily suspend glass breaking operations until corrective measures could be
completed, hazardous waste (e.g., filters) was not properly identified, handled, or
disposed and airborne releases within the factory occurred which resulted in hazardous
personal exposures. Also, it is evident that similar issues should have been addressed at
other UNICOR facilities involved in e-waste recycling operations at the time (e.g., FCI
Elkton, FCI Texarkana), and that communication between these organizations was
lacking. The documents reviewed concerning the fire which occurred in 2003 reflect a
lack of prompt notification of appropriate BOP and UNICOR decision-makers, and a
need for more effective emergency action plans and contingencies.


8            .   ..     ...                       ..         .
    See FOH mdiVIdual InshtutIon reports for additIonal detalls.




                                                            46 

5.0        CONCLUSIONS

Conclusions concerning safety, health, and environmental aspects ofUNICOR's e-waste
recycling operations at USP Atwater are provided below under the following subsections:

      •	   Heavy Metals Exposures;
      •	   Noise Exposure and Other Hazards;
      •	   Health and Safety Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

Various conclusions may be applicable to all UNICOR recycling factories with similar
operations and activities. These conclusions are supported by the results, findings, and
analyses presented and discussed in Sections 3.0 and 4.0 of this report, as well as the
documents assembled by the OIG. These conclusions, in part, are consolidated from the
various federal agency reports, and are also supplemented by FOH based on the entire
body of information assembled and reviewed. See Attachments 1 and 3 for additional
conclusions from the individual contributing federal agencies, NIOSH/DART and
NIOSH/HET AB, respectively.

5.1        Heavy Metals Exposures

      1. 	 Based on monitoring results from 2002 through 2003 performed by UNICOR
           consultants and a BOP industrial hygienist, NIOSH/HETAB concluded that some
           inmates were exposed to cadmium and lead above occupational exposure limits
           during glass breaking occurring over this period of time [Note: GBO was
           conducted in the penitentiary factory at this time]. Also, during this period,
           NIOSH/HET AB concluded that it appears that inmates worked without adequate
           respiratory protection from April 2002 to July 2002. FOH adds that respiratory
           protection was also not adequate at least through November 2002, based on some
           exposures being above the protection factor of respirators in use between July and
           December 2002. Exposures were better controlled as a result of the relocation of
           the GBO to the paint spray booth in 2004; however, one exposure monitoring
           result showed exposure to cadmium above the PEL in 2004.

      2. 	 In January 2003, glass breaking was conducted for approximately a week without
           the LEV system filters in place. These filters are essential for the removal of
           metal containing dusts from the air. The LEV system was therefore ineffective in
           controlling exposures during this period, and UNICOR operated this crucial
           system outside of its design and operating parameters. The system simply
           redistributed metal contamination to areas of the factory where the system was
           exhausted. Visible dust emissions were observed during this period according to
           the USP Atwater Safety Manager and UNICOR staff. BOP and UNICOR did not
           take prompt corrective action despite a stop-work order by the Safety Manager,
           and continued work contrary to the Safety Manager's instructions in violation we
           believe of the BOP's stop-work policy.


                                              47
3. 	 Personal exposures for glass breakers were repeatedly found to be above the
     cadmium PEL during repeated exposure monitoring episodes from startup of the
     GBO in mid-2002 through early to mid 2003, and above the lead PEL through
     2002. During this period, cadmium exposures for glass breakers from 10 to 60
     times higher than the cadmium PEL were not unusual. The last personal exposure
     above the PEL was for cadmium in February 2004 (3.4 times higher than the
     PEL). For a period of 22 months, UNICOR at USP Atwater did not control
     inmate worker exposure to levels at or below the cadmium and/or lead PELs
     through the use of engineering and work practice controls, as required by the
     OSHA lead and cadmium standards. Based on exposures above the PEL for
     almost two years, UNICOR was slow to bring exposures into compliance with
     OSHA lead and cadmium standards. In addition, UNICOR did not take positive
     actions at its other glass breaking operations, based on the USP Atwater findings,
     experiences, and deficiencies.

4. 	 During glass breaking, the last exposure above the PEL was found in February
     2004 for cadmium. Since that time, breaker and feeder exposure monitoring
     during glass breaking operations showed that lead, cadmium, and other metals
     exposures were below the OSHA PELs and action levels when calculated as 8­
     hour TWA exposures.

5. 	 Given both the frequency and extent oflead and cadmium exposures, UNICOR
   did not take prompt and effective action to remedy these conditions and
   implement effective controls for glass breaking not only at USP Atwater, but at all
   other UNICOR factories performing glass breaking. UNICOR should have taken
   the following actions: stoppage of glass breaking work at USP Atwater and all
   other glass breaking factories by July 2002; official notification of other factories
   ofUSP Atwater exposures with instructions for analysis and corrective actions at
   each factory; retaining qualified professionals such as industrial ventilation
   engineers and certified industrial hygienists to design and assist in implementation
   and verification of effective engineering and work practice controls; and, after
   implementation of controls, restarting GBO with appropriate ES&H oversight,
   monitoring, and other support until verification of effective exposure control.

6. 	 UNICOR communication and information sharing with other factories was
     lacking or not effective based on exposures also found at other factories such as
     FCI Elkton [FOH 2008al and FCI Texarkana [FOH 2009cl. This lack of
     information sharing was evident despite the USP Atwater Safety Manager
     notifying the Assistant Warden in 2002 that at least four other factories had not
     performed hazard analysis for similar operations. In addition, UNICOR appeared
     to slowly implement control and improvement measures at USP Atwater more
     through a process of "trial and error" and use of make-shift systems rather than a
     systematic process of hazard analysis, work planning that includes hazard control
     design and implementation, and work performance with hazard control
     verification. Support of qualified ES&H professionals should have been applied



                                        48 

   at all stages not just to take exposure samples, but to contribute to design,
   implementation, and verification of controls.

7. 	 Monitoring of operations on the general factory floor (e.g., disassembly, not
     including glass breaking) was conducted in 2004. Based on these results,
     exposures were maintained below the lead and cadmium PELs and action levels,
     which is consistent with results from other UNICOR factories. From March 2005
     to April 2009, no exposure monitoring was performed. In April 2009, UNICOR
     resumed exposure monitoring at USP Atwater as part of its recently implemented
     annual monitoring program. Current routine e-waste recycling operations
     conducted in the general factory areas have minimal inhalation exposure potential
     to lead, cadmium, and other metals. Lead and cadmium exposures were well
     below OSHA action levels.

8. 	 While glass breaking was performed, exposure monitoring was not conducted for
     the cleaning and change-out of LEV systems and HEPA filters. These activities
     have potential for higher lead and cadmium exposures.

9. 	 During an inspection in 2005, OSHA could not substantiate any of the complaints
     of violation that it received in both 2003 and 2005. During glass breaking, OSHA
     found cadmium exposures near but below the OSHA action level. By this time,
     UNICOR had achieved exposure control during glass breaking (i.e., the last
     exposure recorded above the cadmium PEL was in February 2004). UNICOR
     shut down glass breaking at USP Atwater shortly after the OSHA inspection.

10. NIOSHIDART found that surfaces associated with past GBO, such as inside an
    exhaust duct and at the top of the former GBO exhaust system, were contaminated
    with lead and cadmium. Further testing and decontamination should be
    performed as part of the decommissioning of former GBO systems and areas.

1l. NIOSHIDART found that most samples from other surfaces were below the
    OSHA lead guideline for "clean" areas. Three samples above the criteria were
    from wooden table tops and the top of an electrical power box.

12. Surface testing results at USP Atwater as well as other UNICOR factories show
    that disassembly activities result in metal dust contamination of work surfaces, as
    well as elevated or other surfaces that are not subject to regular cleaning. In
    addition to existing and improved housekeeping practices, implementation of an
    operations and maintenance (O&M) plan will serve to control potential exposure
    from existing and recurring contamination. An element of the O&M plan could
    include periodic clean-up of surfaces (such as elevated or other surfaces not
    subject to regular cleaning) by inmate workers; however, this would have to be
    performed using proper hazard controls, work practices, and training.

13. NIOSHIDART noted that the work areas were kept reasonably clean, primarily by
    the use of brooms and brushes. NIOSH/DART also stated that these cleaning



                                         49 

         techniques are a potential source of airborne dust, and the use of HEP A vacuums
         and wet cleaning are better techniques to clean dust contamination from surfaces.
         FOH also notes that dry sweeping and brushing is explicitly prohibited by OSHA
         lead and cadmium standards. OSHA issued a violation to UNICOR at USP
         Lewisburg for dry sweeping in 2007.

      14. NIOSH/HETAB concluded that the results of biological monitoring for both staff
          and inmates were unremarkable with regard to potential occupational exposure to
          lead, cadmium, and barium. No inmates or employees had blood or urine levels
          oflead or cadmium which exceeded occupational standards. NIOSH/HET AB
          also concluded that medical surveillance was not in compliance with the OSHA
          lead and cadmium standards, and medical clearance was not performed for
          respirator use which is a violation of the OSHA respiratory protection standard.
          NIOSH/HET AB stated that there is no need to perform any further medical
          surveillance if the GBO remains closed.

      15. FOH considers the performance of initial and follow-up exposure monitoring
          conducted between 2002 and 2005 at USP Atwater to be important in establishing
          exposure levels and indicating where continuing improvements are needed to
          reduce exposures. FOH encourages continuation of this practice even for general
          factory operations, not including glass breaking. However, in reviewing
          UNICOR consultant exposure assessment reports during this period for USP
          Atwater, both FOH and NIOSH/HET AB found that the reports lacked substantive
          evaluation of work practices and hazard controls. Interpretation, perspective, and
          analysis of results were often lacking. In addition, recommendations were
          generally not provided to contribute to continuing improvement of work processes
          and reduction in personal exposures. An important example is that no
          recommendations were provided when January 2003 results showed that
          cadmium dusts from the LEV system were being distributed to the factory area,
          because LEV filters were not in place. This is in contrast to the noteworthy
          practice found to be in place at USP Lewisburg that provided for comprehensive
          annual exposure assessments that included critical review, assessment, and
          recommendations.

      16. The UNICOR consultant evaluation of 2009 was an improvement over the reports
         of the 2002 through 2005 period. However, some useful information was lacking,
         such as the type of PPE used during disassembly and whether hearing protection
         was in use for the noise exposure. In addition, the consultant did not address all
         the stated objectives for the evaluation.

5.2      Noise Exposure and Other Hazards

      17. NIOSHIDART took a limited number of "spot" sound pressure readings in the
          warehouse in April 2007 and was of the opinion that noise exposures were below
          the OSHA 90 dBA PEL and NIOSH 85 dBA criteria. The penitentiary factory
          was not tested because work was not being conducted at the time. Based on the



                                             50 

         limitations of these spot readings and no factory testing, NIOSH recommended
         further noise evaluations (see Attachment 1).

      18. UNICOR did not conduct a noise survey at USP Atwater until March 2009.
          Results of the March 2009 survey showed noise exposures below the OSHA PEL
          and action level. The Factory Manager stated that a hearing conservation
          program is not required based on these results. However, only three
          "instantaneous" readings were taken in UNICOR "demanufacturing" and
          "drilling" areas. These limited tests do not represent a complete noise survey.

      19. In April 2009, a UNICOR consultant found that inmates performing baling were
          exposed to noise above the OSHA action level that requires a hearing
          conservation program. UNICOR at USP Atwater has not implemented a hearing
          conservation program, as required by 29 CFR 1910.95, Occupational noise
          exposure.

      20. The long period of time from start-up of operations at USP Atwater to the
          performance of a noise survey showing that a hearing conservation program is
          required for certain operations is further indication that UNICOR has been
          deficient in its hazard analysis practices.

      2l. A heat exposure assessment has not yet been performed at USP Atwater.

      22. Although not specifically reviewed at USP Atwater, tasks that are potentially
          biomechanically taxing were observed by NIOSH at other UNICOR factories.
          Similar tasks are performed at USP Atwater.

5.3      Health and Safety Programs, Plans, and Practices

      23. UNICOR's work instructions, procedures, and cadmium and lead compliance
          plan for glass breaking and CRT processing contain worker protection practices
          and requirements to control lead and cadmium hazards, such as PPE, respiratory
          protection, and cleaning practices, among others. The written documents
          generally reflect the controls and practices implemented during the work
          processes; however, aspects of the worker protection requirements are not
          consistent between the documents and actual work practices. Redundancies also
          exist. In other cases, the documents do not provide specific information on the
          type of PPE used. Even though glass breaking is no longer performed at USP
          Atwater, UNICOR should ensure that safety and health and work control
          documents reflect actual practice and are consistent with each other in all
          respects. Redundant documents should be consolidated (also see Conclusion 24).

      24. The Cadmium and Lead Compliance Plan dated August 7, 2002 states that lead
          and cadmium exposures are to be controlled to the "lowest practical levels" and
          that "at no time should any worker be exposed to any chemical above the OSHA
          Permissible Exposure Limit (PEL or Action Level)." Cadmium and/or lead



                                             51 

   worker exposures associated with glass breaking were found to be above the PELs
   through February 2004,18 months after the effective date of this plan. According
   to the recycling factory Production Controller at that time, this compliance plan
   was never implemented due to management concerns over increased costs were
   they to do so. UNICOR was slow to implement necessary engineering and work
   practice controls as specified in its programs, procedures, and practices to achieve
   exposure levels at or below the lead and cadmium PELs.

25. In February 2003, correspondence from the Associate Warden stated that "recent
    progressive engineering control measures implemented were effective in lowering
    the exposure" to lead and cadmium. Although exposures were lower than in
    2002, monitoring results immediately before and after the date of this
    correspondence showed various cadmium personal exposures and area exhaust
    levels to above the PEL and/or action level. Exposures were not demonstrated to
    be consistently below the cadmium PEL until March 2004. This correspondence
    incorrectly implied effective exposure control practices. [Note: FOH noted the
    same correspondence issued at another factory.]

26. UNICOR at USP Atwater has a written respiratory protection program and this
    program is supplemented by practices specified in glass breaking procedures and
    instructions. However, NIOSH/HETAB found that medical clearance for use of
    respirators was not performed, even though it was required by UNICOR programs
    and procedures. This brings into question the effectiveness of implementation of
    other written respiratory protection practices and requirements.

27. For general activities conducted on the factory floor (i.e., disassembly and
    materials handling), a written safety and health document to define existing
    workplace hazards and control measures is not in place for UNICOR recycling
    conducted specifically at USP Atwater. As a "good practice" approach, such a
    document should be developed and implemented and would serve to concisely
    define the safety and health practices and requirements specific to USP Atwater
    recycling, such as PPE requirements or voluntary use, hygiene (e.g., hand
    washing) practices, daily and periodic housekeeping and cleaning practices,
    special training requirements for any hazardous equipment use or other hazard
    controls, and other practices essential to conduct work safely. Non-routine or
    periodic work activities should also be addressed in the document, particularly
    those that potentially disturb dusts such as cleaning and handling/disposing of
    wastes from HEP A vacuums or containers. The document could also specify
    requirements for periodic site assessments, hazard analyses, inspections, actions
    for new or changed processes, and regulatory compliance reviews.

28. At USP Atwater, UNICOR had seven documents that addressed glass breaking
    work instructions, procedures, and plans. Based on the numerous glass breaking
    documents, including both their redundancies and inconsistencies, UNICOR does
    not have an effective document control system to prevent document redundancies




                                        52 

         and conflicts and to provide review and revision cycles for work instructions and
         procedures.

      29. The frequent and recurring elevated exposures to cadmium and lead from April
          2002 thru February 2004 and the slow and ineffective action taken to control
          these exposures indicate a number of systemic deficiencies in UNICOR
          operations including: lack of work planning and hazard analysis; failure to retain
          qualified professionals to design, assist in implementation, and verify adequacy of
          engineering and work practice controls; lack of information sharing,
          communication, notification, and lessons learned processes across recycling
          factories; and lack of a clearly defined stop-work policy which also requires
          follow-up assessment and corrective action prior to restart.

      30. In January 2003, the USP Atwater Safety Manager exercised his stop-work
          authority for glass breaking because essential LEV system filters were not in
          place. UNICOR continued glass breaking without the required Safety Manager's
          re-inspection and written authorization in apparent violation of the BOP stop­
          work policy in PS 1600.08. According to the Safety Manager, BOP's stop-work
          policy was repeatedly ignored at other times as well in the 2002-2003 time period.

      3l. UNICOR has not implemented a hearing conservation program as required by 29
          CFR 1910.95, Occupational noise exposure. A recent 2009 consultant evaluation
          found that this program is required for the baling activity based on exposures.
          UNICOR has operated without such a program since the start of its operations at
          USP Atwater in 2002.

      32. UNICOR does not have an adequate hazard analysis program in place at USP
          Atwater and many of its other factories.

5.4      Health and Safety Regulatory Compliance

      33. From the start of glass breaking operations in April 2002 through February of
          2004, UNICOR was not in compliance with the OSHA lead and cadmium
          standards. Exposures were consistently above the cadmium and lead PEL in 2002
          and frequently above the cadmium PEL through February 2004. Exposures were
          not reduced below the cadmium PEL through the use of engineering and work
          practice controls throughout this period, and even with the implementation of
          respiratory protection (halffacepiece APRs in mid to late 2002), exposures were,
          at times, above the protective capacity of the respirators used in 2002. UNICOR
          was not in compliance with 29 CFR 1910.1025, Lead; 29 CFR 1910.1027,
          Cadmium; and 29 CFR 1910.134, Respiratory protection.




                                              53 

34. The LEV system (an engineering control) that is essential to control lead and
    cadmium exposures was operated for about a week in January 2003 without the
    filters in place which are essential to remove dust emissions, despite a stop-work
    order by the USP Atwater Safety Manager. According to memoranda of the
    Safety Manager, BOP and UNICOR management and staff were aware of this
    unacceptable condition.

35. Between March 2004 and suspension of glass breaking in March 2005, personal
    exposures during glass breaking operations were maintained at levels less than the
    OSHA lead and cadmium PELs as 8-hour TWAs; therefore, USP Atwater
    operations for glass breaking were in compliance during this period with the
    aspect of the OSHA lead and cadmium standards regarding control of employee
    exposure below the PELs.

36. NIOSH/HET AB found that medical clearance for respirator use during glass
    breaking was not performed as required by the OSHA respiratory protection
    standard.

37. NIOSH/HETAB found that UNICOR glass breaking operations at USP Atwater
    were not in compliance with OSHA lead and cadmium standards regarding
    medical surveillance.

38. Based on available monitoring data, personal exposures to lead and cadmium for
    general recycling operations on the factory floor, such as disassembly and
    associated activities (not including glass breaking), have been maintained at levels
    below the OSHA PELs and action levels. However, exposure monitoring was not
    performed to verify this between March 2005 and April 2009.

39. NIOSHIDART reported cleaning practices involved use of brooms and brushes.
    Dry sweeping is explicitly prohibited by OSHA lead and cadmium standards, and
    was performed despite the OSHA violation issued for dry sweeping to USP
    Lewisburg in 2007. In 2009, the UNICOR consultant reported the continued use
    of dry sweeping during disassembly and related activities.

40. The combination of dry sweeping and use of pedestal fans was the cause of the
    OSHA violation issued to UNICOR at USP Lewisburg in 2007. UNICOR
    performs dry sweeping and uses fans located at the working level at USP Atwater.

41. UNICOR did not conduct an adequate noise survey until April 2009, even though
    noise sources are present that have potential for exposure above the OSHA action
    level. In 2009, the UNICOR consultant found exposure during baling to be above
    the OSHA action level that triggers the requirement for a hearing conservation
    program. Past operations such as glass breaking have also been shown to be
    above the noise action level at other UNICOR factories. The Factory Manager
    stated that UNICOR does not have a hearing conservation program in place at




                                        54 

          USP Atwater. UNICOR has not been in compliance with 29 CFR 1910.95,
          Occupational noise exposure at USP Atwater.

5.5       Environmental Compliance

      42. Experiences at USP Atwater concerning both its GBO and general factory
          (rooftop) air filters put UNICOR on notice that these filters could be subject to
          hazardous waste regulations. Contrary to the 2005 memo to all recycling group
          factory managers requiring that baseline testing of recycling factory ventilation air
          filters be performed and evaluated in accordance with the varying state hazardous
          waste regulations, this testing was not done in a prompt or sufficient manner.

      43. Despite the Safety Manager's recommendations to better characterize wastes and
          airborne dust concentrations and temporarily suspend glass breaking operations
          until corrective measures could be completed, hazardous waste (e.g., air filters)
          was not properly identified, handled, or disposed at the outset of operations.

      44. It is evident that similar environmental issues associated with contaminated air
          filters should have been addressed at other the UNICOR facilities involved in e­
          waste recycling operations at the time (e.g., FCI Elkton, FCI Texarkana), and that
          communication between these organizations was significantly lacking.


6.0       RECOMMENDATIONS

Recommendations concerning safety, health, and environmental aspects ofUNICOR's e­
waste recycling operations at USP Atwater are provided below under the following
subdivisions:

      •   Heavy Metals Exposures;
      •   Noise Exposure and Other Hazards;
      •   Health and Safety Programs, Practices, and Plans;
      •   Health and Safety Regulatory Compliance; and
      •   Environmental Compliance.

These recommendations relate to the conclusions presented in Section 5.0, above. Some
recommendations are taken from supporting documents, including the NIOSH/DART
and NIOSH/HETAB reports (Attachments 1 and 3, respectively). See these reports for
additional recommendations. Other recommendations are developed by FOH from the
body of data and documents reviewed to prepare this report. Various recommendations
may apply to all UNICOR recycling factories where similar e-waste recycling activities
are performed.

Glass breaking operations were permanently suspended at USP Atwater in March 2005,
and glass breaking at other UNICOR factories was suspended in June 2009, pending a




                                               55 

status review later in 2009. Therefore, recommendations that apply to glass breaking in
this report are only provided for future reference.

As a global recommendation, BOP and UNICOR should ensure that it has and allocates
the appropriate level of staff as well as other personnel and material resources in order to
effectively implement these recommendations and sustain an effective ES&H program
overtime.

6.1      Heavy Metals Exposures

      l. 	 UNICOR should operate its recycling factories in an integrated fashion. Across
           its factories, UNICOR should share information such as exposure data, controls,
           corrective actions, accidents and incidents, regulatory violations, successes,
           adverse events, lessons learned, and stop-work directives. UNICOR should
           accompany any directed actions that are required across the factories with
           commensurate opportunities for sharing information related to their
           implementation. UNICOR should develop management systems to address this
           recommendation.

      2. 	 BOP and UNICOR should clarify its stop-work policy and lessen the technical
           threshold for its use (see Section 6.3). In particular, FOH recommends that stop­
           work authority under BOP and UNICOR policies not be reserved for just
           "imminent hazards that could reasonably and immediately be expected to cause
           death or serious physical harm" but relaxed somewhat to allow for an expanded
           applicability to "emergency situations" as defined in OSHA's respiratory
           protection standard (29 CFR 1910.134) and other safety and health hazards that,
           although significant, may fall short of the "imminent hazard" definition. Also,
           stop-work authority should be expanded to others besides just the Occupational
           Safety staff members. For example, another federal organization has adopted
           stop-work policies (see Attachment 4) to ensure that 'all employees are given the
           responsibility and authority to stop work when employees believe that a situation
           exists that places them, their coworker(s), contracted personnel, or the public at
           risk or in danger; could adversely affect the safe operation or cause damage to the
           facility; or result in a release of chemicals to the environment above regulatory
           requirements or approvals; and provides a method to resolve the issue ... ' In
           general, potential ambiguities in any stop-work policy should be clarified so that
           terms like 'imminent,' 'danger,' and 'serious physical harm' can be properly and
           consistently understood in the context of the UNICOR work environment (see
           Section 6.3).

      3. 	 UNICOR should conduct an exposure monitoring program at USP Atwater and
           other factories even if glass breaking remains suspended. This monitoring will
           serve to document continued control of the lead and cadmium hazards for
           disassembly and related activities, as well as glass breaking if resumed. This
           recommendation, which goes beyond the requirements of the OSHA lead and
           cadmium standards, would provide important documentation to establish



                                               56 

   consistently low exposures and provide benchmarks for continued improvements.
   Also see Recommendations 1 and 2 of the NIOSH/HETAB report in Attachment
   3.

4. 	 UNICOR should ensure that non-routine practices are included as part of its
     monitoring program. These non-routine practices could include maintenance
     activities and cleaning performed under an O&M plan, among others.

5. 	 As required by OSHA lead and cadmium standards, UNICOR should promptly
     conduct exposure monitoring for any future changes that could result in an
     increased level of exposure, such as changes in work operations, work
     processes/practices, quantities or types of materials processed, new activities, and
     non-routine activities. Periodic monitoring should be conducted to evaluate any
     existing or newly developed engineering controls to make sure that the controls
     are operating at the design parameters.

6. 	 In addition to personal exposure monitoring, the UNICOR exposure assessment
     program should continue to evaluate surface contamination levels. UNICOR
     should establish surface contamination criteria that it intends to use to evaluate
     results and plan any clean-up or O&M actions.

7. 	 UNICOR should scope the work activities of its exposure assessment consultants
     to include a critical review and evaluation of work practices and hazard controls.
     The consultants should evaluate exposure results in the context of its evaluation of
     such practices and controls and provide recommendations for continued
     improvements. For example, as consultants provide data and results regarding
     metal exposures, noise exposures, effectiveness of engineering controls, and
     surface contamination levels, they should also offer expert interpretation of results
     with any recommendations for improvements of controls, practices, and systems.
     [Note: Recent consultant reports for USP Lewisburg could serve as an example
     of the scope of the consultants' evaluations and content of reports.]

8. 	 Based on a limited number of bulk dust samples collected by NIOSHIDART and
     FOH from areas in proximity to where CRT glass had been broken in the past
     (e.g., the warehouse and GBO-associated exhaust systems), UNICOR should
     further delineate contamination in these former GBO locations and compare
     results with applicable surface contamination assessment guidelines and criteria.
     UNICOR should address any contamination found through an O&M plan, clean­
     up, and/or remediation activities, depending on the results of the evaluation.
     UNICOR should ensure that the work is performed with the benefit of sound
     planning, hazard analysis, training, preparation, development and implementation
     of effective work practices and hazard controls, exposure monitoring, hazardous
     waste testing and disposal, and clearance sampling. Depending upon the results
     of the hazard analysis, this work could be performed by a remediation contractor
     or inmate workers under an O&M plan. If the latter option is chosen, UNICOR




                                         57 

   should ensure the preparations described above are in place and that inmate
   workers are trained and qualified to perform their assigned duties.

9. 	 UNICOR should develop and implement an operations and maintenance (O&M)
     plan to ensure that surface contamination is minimized and that existing
     contamination is not released that could result in inhalation or ingestion
     exposures. Elements of this plan could include:

   • 	 Identification of activities that could disturb contamination (e.g., RVAC
       maintenance, periodic or non-routine cleaning of elevated or other surfaces,
       access to areas where significant levels of surface contamination are present,
       and various building maintenance functions);

   • 	 Processes to identify and control hazards for routine and non-routine activities
       (e.g., job hazard analysis process prior to conducting certain work activities
       with identification of mitigating actions);

   • 	 Mitigating techniques and procedures during activities of concern (e.g., dust
       suppression and/or clean-up and capture, filter removal and bagging
       processes, and use ofPPE and respiratory protection);

   • 	 Training and hazard communication;

   • 	 Disposal of cleanup debris and other contaminated materials based on testing
       data such as TCLP tests; and

   • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
       appropriate. Exposure monitoring is particularly recommended for activities
       that can disturb surface dust. [Note: Follow-up surface sampling is important
       to ensure that surface contamination does not build up and to take preventive
       and corrective action, if it does.]

   At UNICOR's discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate or other workers; that is, surfaces that are not subject to
   routine clean-up and housekeeping activities. If this element were adopted,
   however, UNICOR should ensure that practices to control exposures are included
   in the plan and implemented, such as appropriate worker training, PPE,
   respiratory protection, exposure monitoring, clean-up methods (e.g., REP A
   vacuuming and wet methods), waste disposal, hygiene practices, and others
   deemed appropriate by UNICOR. Initial exposure monitoring should be
   conducted to determine whether exposure during clean-up is above the action
   levels for lead and cadmium. TCLP testing should also be conducted on waste
   materials generated to ensure proper disposal. Controls for future clean-up
   activities should then be based on exposure results. [Note: See FOR report for
   USP Lewisburg [FOR 2009a] that describes the preparation, hazard analysis,
   training, controls, work practices, and performance of a clean-up activity


                                        58 

         conducted for warehouse elevated surfaces. This is a noteworthy practice that
         could serve as a model for other activities conducted under an O&M plan.]

      10. As prohibited by the OSHA lead and cadmium standards and per NIOSHIDART
          recommendations, UNICOR should discontinue dry sweeping and brushing.
          NIOSHIDART recommends the use of wet methods and HEPA vacuums. (See
          NIOSHIDART report in Attachment 1, Recommendation 6.) For larger debris co­
          located with contaminated dusts, NIOSH/HETAB recommends the use of wet
          misting and squeegees. Also see Section 6.4 regarding use of dry sweeping and
          fans.

      1l. NIOSH/HET AB states that there is no need to perform any further medical
          surveillance if the GBO remains closed.

6.2      Noise Exposure and Other Hazards

      12. UNICOR should implement a hearing conservation program for inmates
          performing baling operations, based on consultant evaluations that demonstrate
          this program is required. Baling operations have been shown to have noise
          exposures at levels that require a hearing conservation program at other UNICOR
          factories, as well. In addition to USP Atwater, all inmates performing baling
          operations, particularly metal baling, at all UNICOR factories should enrolled in a
          hearing conservation program.

      13. UNICOR should ensure that USP Atwater has implemented heat exposure 

          assessments and controls as required by the UNICOR heat stress program. 


      14. UNICOR should also ensure that other hazards are evaluated and controlled such
          as tasks that are potentially biomechanically taxing (e.g., lifting and repetitive
          stress).

6.3      Safety and Health Programs, Practices, and Plans

      15. For all factories performing glass breaking (if resumed), UNICOR should
          standardize its work instructions and procedures regarding work practices, hazard
          controls, and other safety and health practices. The standardized documents could
          then be tailored, if required, for individual factories where modifications are
          necessary for any site-specific conditions.

      16. For all its factories, UNICOR should revise its work instructions, process
          descriptions, respiratory protection program and other documentation to ensure
          consistency in work practice and hazard control content among the documents
          and to ensure all written documents are consistent with actual work practices and
          processes.




                                              59 

17. As a "good practice" approach, UNICOR should prepare a concise written safety
    and health document specifically for its recycling operations at USP Atwater as
    well as for each of its other recycling factories that lack such a document. Such a
    document should be developed and implemented to define the safety and health
    requirements and practices for recycling activities. A written safety and health
    document would ensure that practices are consistent with written requirements
    and would benefit verification processes. Additionally, the document should
    prescribe inspection, verification, assessment, and hazard analysis processes.
    This document should address both routine and non-routine activities.

18. UNICOR should implement a document control system to clearly delineate the
    status of existing work instructions, procedures, and safety and health
    programs/plans and other documents. Such a system should clearly define the
    status of the document (e.g., operational, expired, superseded, revised, etc.).
    Review and revision cycles and dates should be established. Redundant and
    inconsistent work instructions, procedures, and other documents should be
    corrected, consolidated and avoided through document control.

19. UNICOR should develop and implement a hazard analysis program that includes
    baseline hazard analysis for current operations and also job (activity-specific)
    hazard analysis (JHA) for both routine and non-routine activities. UNICOR and
    USP Atwater should conduct JHAs for any new, modified, or non-routine work
    activity prior to the work being conducted. It should also conduct hazard analyses
    of existing processes that have not had such an analysis. The JHA process is
    intended to identify potential hazards and implement controls for the specific
    work activity prior to starting the work. For instance, the JHA process should be
    integral to an effective O&M plan, as described in Section 6.l. (Also see
    NIOSH/HET AB report, Attachment 3, Recommendation 5.)

20. BOP, UNICOR, and USP Atwater should ensure that staff and consultants
    conducting ES&H assessments, evaluations, inspections, and monitoring activities
    are qualified for their assigned tasks and led by certified or highly qualified
    professionals. One benchmark for vetting individuals performing industrial
    hygiene services is to ensure certification in the practice of industrial hygiene
    (CIH) by the American Board ofIndustrial Hygienists (ABIH). (Also see the
    NIOSH/HET AB report, Attachment 4, Recommendation 3.)

2l. BOP and UNICOR should implement a system to list, track, and document
    closure of any identified deficiencies or recommendations, regardless of the
    source. Closure of deficiencies and recommendations with documentation of
    those accepted and implementation details, along with those not accepted or
    pending (and why) is important to document improvement actions. This
    recommendation applies to all UNICOR recycling factories.

22. BOP should modify, clarify, and expand its stop-work policy when unsafe work
    conditions are identified and prepare implementation guidance to detail the stop­



                                        60 

         work and restart process. BOP and UNICOR should clearly communicate this
         policy to its staff and ensure compliance with the policy. This policy and
         associated implementing guidance should clearly establish the general conditions
         under which it is the "responsibility" of authorized personnel to stop work, define
         stop-work authority, identify personnel/positions with stop-work authority, detail
         the methods to achieve immediate but safe shutdown of work, describe the
         process for follow-up analyses and corrective action processes after work is
         stopped, and describe the verification and authorization processes for work start­
         up. Stop-work actions should always be communicated to all factories as lessons
         learned information along with any associated UNICOR-wide directives. BOP
         and UNICOR should expand authority to stop work to more personnel than just
         the safety staff. In many work settings, all staff, particularly supervisors, have the
         responsibility to stop work when conditions are identified that could cause
         excessive exposure to hazards, injuries, death, or significant risk outside the
         established safe work parameters. Conditions permitting stop-work authorities to
         be exercised should be expanded to include any work or condition that is outside
         of established safe work parameters, which would include work being conducted
         with a failed or improperly operated engineering control. The means for inmates
         and other workers to promptly communicate unsafe conditions to appropriate staff
         should be established in policy and procedures and effectively communicated to
         all. An example Stop Work policy is provided as Attachment 4.

      23. UNICOR should develop other essential management systems for information
          sharing, lessons learned, and factory-wide directives. BOP and UNICOR should
          ensure that staff responsibilities for verifying and enforcing hazard controls are
          established and carried out.

      24. See Sections 6.2 and 6.4 regarding requirements for a hearing conservation
          program.

6.4      Health and Safety Regulatory Compliance

      25. UNICOR should discontinue dry brushing and dry sweeping of lead and cadmium
          contaminated dusts. Use HEPA vacuuming and wet methods instead (see
          NIOSHIDART Recommendation 6 in Attachment I). For larger debris, use wet
          misting and squeegees per NIOSH/HET AB recommendations.

      26. UNICOR should evaluate whether the fans used at the working level (height)
          constitute a similar violation as issued by OSHA to UNICOR at USP Lewisburg.
          UNICOR should implement alternate methods of ventilation and cooling if these
          fans have potential to disturb, re-suspend, and redistribute surface contamination
          or contamination that could be released from equipment being recycled. [Note:
          OSHA issued a violation for pedestal fan use at USP Lewisburg even though
          exposures were less than the action levels.]




                                              61 

      27. UNICOR should implement a hearing conservation program (see Section 6.2,
          Noise Exposure and Other Hazards), and enforce use of hearing protection for
          baling operations.

      28. UNICOR should ensure the evaluation of heat exposures and implement hazard
          controls accordingly.

      29. UNICOR should evaluate and appropriately control ergonomic hazards.

      30. Also see hazard analysis recommendations in Section 6.3.

6.5      Environmental Compliance

      3l. UNICOR should ensure proper management of its hazardous wastes (tracking
          volumes, labeling, characterization, etc.) in light of all applicable regulatory
          requirements (federal, state and local).

      32. UNICOR should share salient lessons learned regarding the environmental
          aspects of its e-waste operations among all its recycling facilities (e.g., waste
          characterization testing results, compliance strategies, etc.)


7.0      REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference of Governmental
Industrial Hygienists.

AIHA [2007]. AIHA-ANSI Z9. Health and safety standards for ventilation systems.
Z9 Accredited Standards Committee. Available
at: http ://www.aiha.org/ContentiInsideAIHAIStandards/z9.htm

BOP [2007]. Program Statement PI600.09. Occupational Safety, Environmental
Compliance, & Fire Protection. U.S. Department of Justice, Bureau of Prisons, October
2007.

CFR [24 CFR 35]. HUD Lead safe housing rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

CFR [29 CFR 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.



                                                62
CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR 1910.95]. Occupational safety and health standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR, Part 1960]. Basic program elements for Federal employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR, Part 1926.62]. Safety and health regulations for construction. Lead. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [40 CFR 26l.24]. Protection of environment. Identification and listing of hazardous
waste. Toxicity characteristic. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

DOE [1999]. Chronic beryllium disease prevention program. 10 CFR Part 850 [Docket
No. EH-RM-98-BRYLM] RIN 1901-AA75. Office of Environment, Safety, and Health,
Department of Energy. Final Rule. Federal Register, Vol. 64, No. 235, Wednesday,
December 8, 1999, Rules and Regulations, pp. 69954-68914.

DOE [2009]. Stop work.: revision l. DOE-0343. Washington, DC: U.S. Department of
Energy. December 18, 2009.

e-CFR [40 CFR 745.65]. Lead-based paint poisoning prevention in certain residential
structures. Lead-based paint hazards. Electronic Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

EPA [n.d.]. Test methods for evaluating solid waste, physical/chemical methods. SW­
846. Washington, DC: U.S. Environmental Protection Agency. Available
at: http ://www.epa.gov/epawastelhazard/testmethodslindex.htm

EPA [1990]. Managing asbestos in place. A building owner's guide to operations and
maintenance programs for asbestos-containing materials. Washington, DC: U.S.
Environmental Protection Agency. Pesticides and Toxic Substances (TS-799).
Publication No. 20T-2003. July 1990.

EP A [2000]. Lead sampling technician field guide. Washington, DC: U. S. Environmental
Protection Agency. Office of Pollution Prevention and Toxics. Publication No. EPA 747­
B-00-004. August 2000. Available at: http ://player-care.com/lead handbk-2a.pdf




                                          63 

EP A [2009]. Resource conservation & recovery act compliance evaluation inspection
report for Texarkana Federal Correctional Institution, Texarkana, TX. u.s.
Environmental Protection Agency. January 23, 2009.

FOH [2007]. Worker heat stress measurements - FCI Marianna. Memo from Capt. Paul
Pryor, Federal Occupational Health Service                   September 17, 2007.

FOH [2008a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at FCI Elkton. U. S. Department of Health
and Human Services, FOH Safety and Health Investigation Team, Program Support
Center, U.S. Public Health Service, Federal Occupational Health Service. October 10,
2008

FOH [2008b]. Review of 'heat stress procedures' and' operational requirements'
documents associated with electronics recycling operations at FCI Marianna, U.S.
Department of Health and Human Services, FOH Safety and Health Investigation Team,
Program Support Center, U.S. Public Health Service, Federal Occupational Health
Service. May IS, 2008.

FOH [2009a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at USP Lewisburg. U.S. Department of
Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service. May 9,
2009.

FOH [2009b]. Evaluation of environmental, safety, and health information related to
UNICOR e-waste recycling operations at FCI Marianna. U.S. Department of Health and
Human Services, FOH Safety and Health Investigation Team, Program Support Center,
U.S. Public Health Service, Federal Occupational Health Service. August 2009.

FOH [2009c]. Evaluation of environmental, safety, and health information related to
UNICOR e-waste recycling operations at FCI Texarkana. U.S. Department of Health and
Human Services, FOH Safety and Health Investigation Team, Program Support Center,
U.S. Public Health Service, Federal Occupational Health Service. September 2009.

Lange, JH [200 I]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-5\.

NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.




                                           64 

NIOSH [2008a]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Elkton Federal Correctional Institution, Elkton, Ohio. Cincinnati,
OH: u.s. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH).Publication No. EPHB 326-12a.

NIOSH [2008b]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Marianna Federal Correctional Institution, Marianna, Florida.
Cincinnati, OH: U. S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) Publication No. EPHB 326-15a.

NIOSH [2009]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, United States Penitentiary, Lewisburg. Lewisburg, Pennsylvania.
Cincinnati, OH: U. S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) File No. EPHB 326-17a.

NIOSHIDART [2009]. Walk-through survey report: electronic recycling operation,
United States Penitentiary, Atwater. Atwater, California. Cincinnati, OH: U.S.
Department of Health and Human Services, Public Health Service, Centers for Disease
Control, National Institute for Occupational Safety and Health DHHS (NIOSH), Division
of Applied Research and Technology. File No. 326-17a.

NIOSH/HETAB [2009]. Letterto _ _ Findings and recommendations
from evaluation ofUSP Atwater, ~a. Cincinnati, OH: U.S. Department
of Health and Human Services, Public Health Service, Centers for Disease Control,
National Institute for Occupational Safety and Health DHHS (NIOSH), Hazard
Evaluations and Technical Assistance Branch. HETA 2008-0055.

OSHA [1970]. Occupational Safety and Health Act of 1970. Public Law 91-596. Sec.
5(a)(l). Washington, DC: U.S. Department of Labor, Occupational Safety and Health
Administration. Available
at: http://www.osha.gov/pls/oshaweb/owadisp.show document?p tab le ~OS HACT&p id
~3359


OSHA [2006]. OSHA inspection report no. 310028832, Federal Correctional Institute,
Marianna, FL. Washington, DC: U.S. Department of Labor, Occupational Safety and
Health Administration.

Pettersson-Julander A, van Bavel B, Engwall M, Westberg H [2004]. Personal air
sampling and analysis of polybrominated diphenyl ethers and other bromine containing
compounds at an electronic recycling facility in Sweden. J Environ Monit. 6:874-880.
Epub 2004 Oct 21.




                                          65
Thuresson, K [2004]. Occupational exposure to brominated flame retardants with
emphasis on polybrominated diphenyl ethers. Doctoral Thesis. Department of
Environmental Chemistry, Stockholm University.




                                         66 

                                     APPENDIX

                      Guidance for Evaluating Surface Samples


As part of the OIG investigation, NIOSHIDART, FOH and others have conducted bulk
dust and surface wipe sampling at UPS Atwater in areas where e-waste recycling is
performed. Samples were analyzed for total lead, cadmium, and other toxic metals.
Available criteria and guidance to evaluate surface sample results are discussed below.

Federal standards or other definitive criteria or guidelines have not been developed for
acceptable levels of lead or cadmium surface contamination or dust concentrations in
industrial areas where activities are performed involving lead and/or cadmium bearing
materials. However, several recommendations or guidelines, primarily for lead, provide
points of reference to subjectively evaluate the significance of surface contamination.
Some guidelines are available and are noted below (see the NIOSHIDART Elkton report
for a more detailed discussion of guidelines):

   • 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
       OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
       can be summarized and/or interpreted as follows: all surfaces shall be maintained
       as 'free as practicable' of accumulations oflead; the employer shall provide clean
       change areas for employees whose airborne exposure to lead is above the PEL;
       and the employer shall assure that lunchroom facilities or eating areas are as free
       as practicable from lead contamination. The OSHA Compliance Directive for the
       Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of the
       Department of Housing and Urban Development's (HUD) initially proposed
       decontamination criteria of 200 Ilglft2 for floors in evaluating the cleanliness of
       change areas, storage facilities, and lunchrooms/eating areas. In situations where
       employees are in direct contact with lead-contaminated surfaces, such as working
       surfaces or floors in change rooms, storage facilities, and lunchroom and eating
       facilities, OSHA has stated that the Agency would not expect surfaces to be any
                                   2
       cleaner than the 200 Ilglft level.

   • 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
       are actively processed), OSHA has indicated that no specific level can be set to
       define how "clean is clean" nor what level oflead contamination meets the
       definition of "practicable." Specifically addressing contaminated surfaces on
       rafters, OSHA has indicated that they must be cleaned (or alternative methods
       used such as sealing the lead in place), as necessary to mitigate lead exposures.
       OSHA has indicated that the intent of this provision is to ensure that employers
       regularly clean and conduct housekeeping activities to prevent avoidable lead
       exposure, such as would potentially be caused by re-entrained lead dust. Overall,
       the intent of the "as-free-as-practicable" requirement is to ensure that
       accumulation of lead dust does not become a source of employee lead exposures.
   OSHA [29 CFR, Part 1910.1025] has stated that any method that achieves this
   end is acceptable.

• 	 Lange [2001] proposed a clearance level of 1,000 llg/ft2 for floors of non-lead
    free commercial buildings and 1,100 Ilg/ft2 for lead-free buildings. These
    proposed clearance levels are based on calculations that make a number of
    intentionally conservative assumptions.

• 	 HUD [24 CFR 35] has established clearance levels for lead on surfaces after lead
    abatement. These levels range from 40 to 800 llg/ft2, depending on the type of
    surface. The level of 200 llg/ft2 is most commonly used. These levels, however,
    apply to occupied living areas where children reside, and are not intended for
    industrial operations.

• 	 Regarding lead in bulk dust or soil samples, the U.S. EPA [EPA n.d.] has
    proposed standards for residential soil-lead levels. The level of concern requiring
    some degree of risk reduction is 400 ppm (mg/kg), and the level requiring
    permanent abatement is 2,000 ppm (mg/kg). Again these levels are residential
    criteria, rather than for industrial settings.

• 	 There is no quantitative guidance for surface cadmium concentrations. OSHA [40
    CFR 745.65]states that surfaces shall be as free as practicable of accumulations of
    cadmium, all spills and sudden releases of cadmium material shall be cleaned as
    soon as possible, and that surfaces contaminated with cadmium shall be cleaned
    by vacuuming or other methods that minimize the likelihood of cadmium
    becoming airborne.
ATTACHMENT 1 

         W ALK- THROUGH SURVEY REPORT: 

        ELECTRONIC RECYCLING OPERATION 


                            At 


           UNITED STATES PENETENTIARY 

              ATWATER, CALIFORNIA 




                 PRINCIPAL AUTHOR: 

           G. Edward Burroughs, Ph.D., CIH, CSP




                     REPORT DATE: 

                      February 2009 





                        FILENO.: 

                      EPHB 326-l7a 





U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES 

          Centers for Disease Control and Prevention 

     National Institute for Occupational Safety and Health 

        Division of Applied Research and Technology 

                    4676 Columbia Parkway 

                    Cincinnati, Ohio 45226 

SITES SURVEYED:        UNICOR                         Recycling Operations
Federal                                             Penitentiary
Atwater,                                             CA

NAICS: 562920

SURVEY DATE:                                April 24 - 25, 2007

SURVEY CONDUCTED BY:                        Edward Burroughs, PhD, CIH. CSP (NIOSR)
  Paul                                          Pryor, MS, CIH (FOR)




"The findings and conclusions in this report have not beenformally disseminated by the
National Institute for Occupational Safety and Health and should not be construed to
represent any agency determination or policy. "




                                             2

                                       DISCLAIMER 


Mention of company names or products does not constitute endorsement by the Centers for
Disease Control and Prevention.

The findings and conclusions in this report do not necessarily reflect the views of the
National Institute for Occupational Safety and Health.




                                               3

                                     INTRODUCTION 


On April 24 - 25, 2007 a researcher from the National Institute for Occupational Safety and
Health (NIOSH) and a representative from Federal Occupational Health (FOH),
accompanied by representatives from Federal Prison Industries (aka, UNICOR) conducted a
walk-through evaluation of exposures to metals and other occupational hazards associated
with the recycling of electronic components at the UNICOR facility in the United States
Penitentiary (USP) complex, Atwater, CA. The principal objectives of this study were:
a.      To observe potential exposures to metals including barium (Ba), beryllium (Be),
cadmium (Cd), lead (Pb) and nickel (Ni).
b.      To evaluate contamination of surfaces in the work areas that could create dermal
exposures or allow re-entrainment of metals into the air.
c.      To identify and describe the control technology and work practices used in operations
associated with occupational exposures to toxic substances, and to determine additional
controls, work practices, substitute materials, or technology that can further reduce these
exposures.
d.      To evaluate the use of personal protective equipment in operations involved in the
recycling of electronic components.

PROCESS DESCRIPTION
The recycling of electronic components at USP Atwater is done in two separate buildings: 1)
the main factory located within the penitentiary; and 2) the warehouse located approximately
a quarter mile away on the same property. Diagrams of these work areas are shown in
Figures I and II, respectively. These figures provide a general visual description of the
layout of the work process, although workers often moved throughout their respective areas
in the performance of their tasks. The population of the UNICOR facility was approximately
68 workers in the Penitentiary factory with an additional 28 in the camp warehouse.

The recycling of electronic components at this facility can be organized into three production
processes: a) receiving and sorting, b) disassembly, and c) packaging and shipping.
Incoming materials to be recycled are received at a warehouse where they are examined and
sorted. During this evaluation it appeared that the bulk of the materials received were
computers, either desktop or notebooks, or related devices such as printers. Some items,
notably notebook computers, could be upgraded and resold, and these items were sorted out
for that task.

 After electronic memory devices (e.g., hard drives, discs, etc.) were removed and degaussed
or destroyed, computers' central processing units (CPUs), servers and similar devices were
sent for disassembly; monitors and other devices (e.g., televisions) that contain cathode ray
tubes (CRTs) were separated and sent for disassembly and removal of the CRT. Printers,
copy machines and any device that could potentially contain toner, ink, or other expendables
were segregated and those expendables were removed prior to the device being sent to the
disassembly area.

In the disassembly process external cabinets, usually plastic, were removed from all devices
and segregated. Valuable materials such as copper wiring and aluminum framing were
removed and sorted by grade for further treatment if necessary. Components such as circuit
boards or chips that may have value or may contain precious metals such as gold or silver


                                              4

were removed and sorted. With few exceptions each of the workers in the main factory will
perform all tasks associated with the disassembly of a piece of equipment into the mentioned
components with the use of powered and un-powered hand tools (primarily screwdrivers and
wrenches), with a few workers collecting the various parts and placing them into the proper
collection bin. Work tasks included removing screws and other fasteners from cabinets,
unplugging or clipping electrical cables, removing circuit boards, and using whatever other
methods necessary to break these devices into their component parts. Essentially all
components currently are sold for some type of recycling.

The final process, packing and shipping, returned the various materials segregated during the
disassembly process to the warehouse to be sent to contracted purchasers of those individual
materials. To facilitate shipment some bulky components such as plastic cabinets or metal
frames were placed in a hydraulic bailer to be compacted for easier shipping. Other materials
were boxed or containerized and removed for subsequent sale to a recycling operation.

 A fourth production process, the glass breaking operation (GBO) where CRTs from
computer monitors and TV s were sent for processing, was not currently being done at
Atwater. Glass breaking had been done there in the past, and areas where this had occurred
were observed, but according to sources within the Bureau of Prisons plans do not call for the
resumption of glass breaking at this facility. CRTs are shipped, unbroken, from Atwater to
other locations for breaking and recycling. This process was observed and evaluated at other
UNICOR facilities as part of this research and those reports are available.

POTENTIAL HAZARDS
Computers and their components contain a number of hazardous substances. Among these
are "platinum in circuit boards, copper in transformers, nickel and cobalt in disk drives,
barium and cadmium coatings on computer glass, and lead solder on circuit boards and video
screens" [Chepesiuk 1999]. The Environmental Protection Agency (EPA) notes that "In
addition to lead, electronics can contain chromium, cadmium, mercury, beryllium, nickel,
zinc, and brominated flame retardants" [EPA 2008]. Schmidt [2002] linked these and other
substances to their use and location in the "typical" computer: Pb used to join metals (solder)
and for radiation protection, is present in the cathode ray tube (CRT) and printed wiring
board (PWB). Aluminum, used in structural components and for its conductivity, is present
in the housing, CRT, PWB, and connectors. Gallium is used in semiconductors; it is present
in the PWB. Ni is used in structural components and for its magnetivity; it is found in steel
housing, CRT and PWB. Vanadium functions as a red-phosphor emitter; it is used in the
CRT. Be, used for its thermal conductivity, is found in the PWB and in connectors.
Chromium, which has decorative and hardening properties, may be a component of steel
used in the housing. Cd, used in Ni-Cad batteries and as a blue-green phosphor emitter, may
be found in the housing, PWB and CRT. Cui and Forssberg [2003] note that Cd is present in
components like SMD chip resistors, semiconductors, and infrared detectors. Mercury may
be present in batteries and switches, thermostats, sensors and relays [Schmidt 2002, Cui and
Forssberg 2003], found in the housing and PWB. Arsenic, which is used in doping agents in
transistors, may be found in the PWB [Schmidt 2002].




                                               5

                              EVALUATION TECHNIQUES 


Observations regarding work practices and use of personal protective equipment were
recorded. Information was obtained from conversations with the workers and management
to confirm this was a typical workday to help place conclusions in proper perspective.

Bulk material samples were collected by gathering a few grams of settled dust or material of
interest and transferring this to a glass bottle for storage and shipment. These samples were
analyzed for metals using NIOSH Method 7300 [NIOSH 1994] modified for bulk digestion.

Surface wipe samples were collected using Ghost™ Wipes for metals (Environmental
Express, Mt. Pleasant, SC) to evaluate surface contamination. These wipe samples were
collected in accordance with ASTM Method D 6966-03 [ASTM 2002], with a disposable
paper template with a 12 inch by 12 inch square opening. The templates were held in place
by hand or taped in place to prevent movement during sampling. Wipes were placed in
sealable test tube containers for storage and then sent to the laboratory to be analyzed for
metals according to NIOSH Method 7303 [NIOSH 1994].

An assessment of noise levels in various locations was made in the warehouse using a hand
held sound level meter (Model 2400, Quest Technologies, Oconomowoc, WI) calibrated on­
site prior to use with a llO dB source. No noise measurements were made in the penitentiary
since the evaluation team was not on the floor during operations.

                       MEASUREMENTS AND OBSERVATIONS

The measurements and observations described here were made in April, 2007 at the
UNICOR recycling operation at USP Atwater. During this visit, surface wipe and bulk dust
samples were collected in locations where the electronics recycling operations were taking
place or had taken place in the past. The primary purpose of this evaluation was to estimate
the potential for exposures of inmates and staff to toxic substances encountered during the
recycling of electronic components. Results of surface wipe samples are presented in Table
1, and bulk material sample results are shown in Table 2 for the metals of primary interest.
Observations are presented below.

Four of the 26 surfaces tested for Pb indicated levels exceeding the OSHA recommended 200
/-lg/sq ft [Fairfax 2003]. The highest measurement (850 /-lg/sq ft, sample # APMWW -16)
made on a surface inside the exhaust hood that had formerly been used to ventilate the GBO
before that procedure was discontinued. The other Pb measurements above 200 /-lg/sq ft
were wood table tops (2) and the top of an electrical power box, samples APMWW -11, 13
and 2, all from the penitentiary. Additionally, the 200 /-lg/sq ft recommendation applies to
clean areas such as lunch areas, changes, and storage areas, rather than work areas where lead
containing materials are actively processed.

One of the Cd surface measurements (APMWW-13) was 330 /-lglsq ft., 11 measurements
were between 10 and 90, with the remaining 14 below 10 /-lg/sq ft. Although there are no
published criteria for use in evaluating wipe samples, the OSHA Cd standard [29 CFR
1910.1027] mandates that "All surfaces shall be maintained as free as practicable of



                                              6

accumulations of cadmium," that, "all spills and sudden releases of material containing
cadmium shall be cleaned up as soon as possible," and that, "surfaces contaminated with
cadmium shall, wherever possible, be cleaned by vacuuming or other methods that minimize
the likelihood of cadmium becoming airborne."

Ni surface contamination also reached a high of 330 /-lg/sq f1. in sample A WMTW -2, with
seven measurements ranging from 100 to 200, and the remaining 18 were below 100 /-lglsq ft.
Like Cd, there are no published criteria for use in evaluating wipe samples for Ni. While the
toxicity of this metal is somewhat dependent on species, no compound identification was
conducted.

Wipe samples did not indicate levels of Ba on work surfaces at levels of concern, with the
highest Ba concentration (AWMTW-I) at 450 /-lg/sq ft. All other Ba measurements were 200
/-lg/sq ft or below. There are no published criteria for use in evaluating wipe samples for Ba.

No Be was detected in samples from either the Atwater penitentiary or the warehouse above
the limit of detection of 0.03 /-lg/sq ft.

Of the seven bulk samples collected, the three with the most Pb, Cd and Ni were from the
penitentiary, suggesting that the dust in the warehouse in general has a lower level of toxic
metals. The reason for this may be that the warehouse is a more open building with a greater
chance for ambient dust to enter and dilute the metal levels.

Operations at USP Atwater (penitentiary and warehouse) were similar to procedures
observed at other UNICOR recycling facilities where exposures have been evaluated and at
which there were few significant exposures in the receiving and sorting, disassembly, and
packaging and shipping processes.

No local exhaust ventilation systems were in use in either the penitentiary or warehouse
location nor were any needed since the GBO was not being done. Work areas were kept
reasonably clean, primarily by the use of brooms and brushes, and while these procedures are
good for removal of large particles they are also a potential source of airborne dust, so the
use of HEP A vacuums and wet mopping are better techniques to clean dust contamination
from surfaces. Care must be taken when using wet methods to assure no electrical or other
safety hazard is introduced.

Safety glasses were used in most operations. Hearing protection was available where needed
(primarily near the bailer) and disposable respirators were available to workers who chose to
use them although respirators were not required at this facility.

Spot measurements of noise made in the warehouse with a hand-held sound pressure meter
suggested there was no need for a more comprehensive noise study there. Occasional
transient measurements up to 90 dBA were made, but most measurements in the warehouse
area were well below this level. Based on this data, investigators believe occupational noise
exposures in the warehouse were below both the OSHA 90 dBA and the NIOSH 85 dBA
criteria [29 CFR 1910.95, NIOSH 1998]. Noise levels were not measured in the USP factory




                                              7

area since work was not being conducted, but based on measurements made in similar
facilities it is recommended that this area be evaluated for noise exposures.

Maximum ambient outdoor temperatures for the two days of this study were 72 and 79 of,
with corresponding relative humidity of 35% and 24%. Indoor temperatures in the work
areas were not measured but were not considered greatly different than outdoor temperatures.

                    CONCLUSIONS AND RECOMMENDATIONS

Based on measurements and observations presented, the following recommendations are
made.

   1. 	 Training of workers should be scheduled and documented in the use of techniques for
        dust suppression, personal protection equipment (e.g., coveralls, respirators, gloves)
        and hazard communication. Additional training, recordkeeping and other restrictions
        apply if a formal respiratory protection program is implemented.
   2. 	 Frequently while conducting the on-site work, NIOSH researchers observed tasks
        (such as lifting and using screwdrivers) being conducted in an awkward manner
        which could produce repetitive stress injuries. Tasks should be evaluated to
        determine if they are biomechanically taxing and if modifications in procedures or
        equipment would provide benefit to this workplace.
   3. 	 Ambient temperature measurements and climate history did not indicate the need for
        concern regarding heat stress during the moderate seasons. However, during the
        summer the need for an evaluation of heat stress should be considered.
   4. 	 A program should be established within the Bureau of Prisons to assure that all
        UNICOR operations, including but not limited to recycling, should be evaluated from
        the perspective of health, safety and the environment in the near future. This program
        should be overseen by competent, trained and certified individuals.
   5. 	 Due to the levels of surface contamination oflead measured in the recycling facility,
        workers should wash their hands before eating, drinking, or smoking.
   6. 	 Daily and weekly cleaning of work areas by HEPA-vacuuming and wet mopping
        should be conducted, taking care to assure no electrical or other safety hazard is
        introduced.
   7. 	 Noise levels in the USP recycling factory should be measured during normal
        operations to evaluate the potential for occupational exposures in this area.




                                              8

                                       REFERENCES 


ASTM [2002]. Standard practice for collection of settled dust samples using wipe sampling
methods for subsequent determination of metals. West Conshohocken, P A: ASTM
International.

CFR. Code of Federal regulations. Washington, DC: U.S. Government Printing Office,
Office of the Federal Register.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor
industry. Environ Health Perspect. 107:A452-A457.

Cui J, Forssberg E [2003]. Mechanical recycling of waste electric and electronic equipment:
a review. J Hazard Mater. 99:243-263.

EPA [2008]. eCycling. Available on-line at http://www.epa.gov/ecycling!. Accessed
June 3, 2008.

Fairfax RE [2003]. Letter of January 13, 2003 from RE Fairfax, Director, Directorate
of Compliance Programs, OSHA, to Frank White, Vice President, Organization
Resource Counselors, Inc. Available at
http://www.osha.gov/pls/oshaweb/owadisp.show_ document?p _table~INTERPRETA
TIONS&p_id~25617. Accessed May 12, 2008


Schmidt CW [2002]. e-Junk explosion. Environ Health Perspect. 110:AI88-AI94.

NIOSH [1994]. NIOSH Manual of Analytical Methods (NMAM®), 4th ed. Schlecht, P.C. &
O'Connor, P.F. eds. Cincinnati,OH: U.S. Department of Health and Human Services,
Centers for Disease Control and Prevention, National Institute for Occupational Safety and
Health, DHHS (NIOSH) Publication 94-ll3 (August, 1994), 1st Supplement Publication 96­
135, 2nd Supplement Publication 98-119, 3rd Supplement 2003-154.

NIOSH [1998]. NIOSH criteria for a recommended standard: occupational noise exposure.
Revised criteria 1998. Cincinnati, OH: U. S. Department of Health and Human Services,
Public Health Service, Centers for Disease Control and Prevention, National Institute for
Occupational Safety and Health. DHHS(NIOSH) Publication No. 98-126.




                                             9

                                                          Table 1.
                                             ATWATER WIPE SAMPLES'



 Diagram
L ocatIon**        I ID
              S ample       Bu ild·m~                      DescrtptlOll                     ~Il    ~!l     ~!l       ~!l     11~!l


    A         AWMTW1      Warehouse      Work surface on west table in disassembly area.     450   <0.03         8     61       150
                                         Work surface on second table in disassembly
    BAW         MTW2      Warehouse      area. 33                                                  <0.03         4     62      330

    C         AWMTW3      Warehouse      Work surface on third table in disassembly area.     27   <0.03     22        48        43
                                         Work surface on fourth table in disassembly
    DAW         MTW4      Warehouse      area. 34                                                  <0.03         7     77        63

    E    AWMTW5           Warehouse      Work surface on fifth table in disassembly area.     37   <0.03       6        56       56
    F    AWMTW6           Warehouse      Table top in testing area                            35   <0.03       1      9.4        40
    G    AWMTW7           Warehouse      Table Top in E-bay test area                          9   <0.03       1       5.3        6
    HAW    MTW8           Warehouse      Table top in monitor testing area                    17   <0.03       1        12        4
    I    AWMTW9           Warehouse      Side of plastic bailer near metal bailer             17   <0.03       3        18       19
    J    APMWW1           Penitentiary   Metal work surface                                    5   <0.03       3        51       18
    KAPM    WW2           Penitentiary   Wood table top                                      140   <0.03      13      240       130
    L    APMWW3           Penitentiary   Metal work surface                                  100   <0.03       2        64        9
    MAPM    WW4           Penitentiary   Wood table top                                       30   <0.03       9      100        46
    N    APMWW5           Penitentiary   Metal work surface                                    3   <0.03     0.4       5.9        5
    0    APMWW6           Penitentiary   Metal work surface                                  130   <0.03      19      120       160
    P    APMWW7           Penitentiary   Metal work surface                                  llO   <0.03     39       180       140
    Q    APMWW8           Penitentiary   Metal work surface                                   16   <0.03       6        59       16


                                                             10 

     RAPM    WW9             Penitentiary   Wood table top                                 21   <0.03     5    34    33
     S    APMWWlO            Penitentiary   Metal work surface                             96   <0.03    23   150   160
     TAPM    WWll            Penitentiary   Wood table top                                150   <0.03    21   420   130
     U    APMWW12            Penitentiary   Top of change room                             83   <0.03    74   160    92
     V    APMWW13            Penitentiary   Top of power box BIEHP 1 in mechanical room   160   <0.03   330   350   160
     W APlvI       WW14      Penitentiary   Top of cabinet in food area                   67    <0.03    16    67   46
     XAPM          WW15      Penitentiary   Inside locker in change room                  26    <0.03    16    48   26

     Y         APMWW16       Penitentiary   Work surface inside hood in last GBO area     200   <0.03    84   850    52
     Z         APMWW17       Penitentiary   Left side of ventilation system, last GBO     llO   <0.03    51   180   67


* WIPE SAMPLES: (All wipe samples were 1 sq ft area)
** Location identifiers correlate with Figures I and II.




                                                                 11 

                                                                 Table 2. 

                                                      ATWATER BULK SAMPLES 



Diagram                                                                              Ba         Be        Cd             Pb        Ni
Location"       Sample ID      Bnildin2        Description                          J.I.l!/2   J.l.2/2   J.I.l!/2       J.l.2/2   J.I.l!/2
    1           AWMTBI         Warehouse       From Near Disassembly Tables           390         <0.2         II           150      68
    2           AWMTB2         Warehouse       From Near Disassembly Tables           400         <0.2        16            430     430
    3           AWMTB3         Warehouse       From Near Disassembly Tables           160         <0.2      110             190     llO
    4           APMWBl         Penitentiary    Floor Sweepings, cage 1               2000         <0.2      230          9100      2600
    5           APMWB2         Penitentiary    Floor Sweepings, cage 2                490         <0.2      llO           llOO     7600
                                               Dust from around Elec Conduit on
       6APM W           BlO Penitentiary       wall near food area.                    250      <0.2                3        9          10
                                               From top of exhaust system in last
       7 APM W          Bll    Penitentiary    GBO 1400                                         <0.2         810         1500        740


*   Location identifiers correlate with Figures I and II.




                                                                    12 

       Figure I   USP Atwater UNICOR Factory floor H an ShoWIng Sampl e Locations




                             ATW'ATER -         UrHCDR



                  -_.                            ................................................. _..........•




            !"
            !                                                                                                     ,"
                                                                                                                  N
                                                                                                                  N



                                                                                                                  ,-
                                                                                                                  >
                                                                                                                  Z
                                                                                                                  Z



~,------­                                                                                                         >
                                                                                                                  >

     !!                                                                                                           D
                                                                                                                  ,<        <

                                                                  -------­

 --­
                  .~­

 """ "'T,


                                                                                                      ~'(] T   DRAIiM TO SCAl.£
                                                                                                      R[V -      !




                                         13 

   Figure II        Atw<ter UNICOR Warehous e Floor Han Shomng S<rnple Locations




                                  AT W' ATER - UrHCDR
                                        W'AREHDUSE

                                       lr----..,              r-------,·
                                        e __
                                          ""-L.(' _
                                                                  PILL.(' . , , '
                                                             _L...=----....l:
                                                                                           :


.....m: ",,,'"
                                       --­
                                        c



                   r-----_
 ........ " _    .. 1                   1
       '"'                              I
                                        I                                                      "'"~ IRM: \/I....

                                        I
                        .,.  .. ."'.
                              ~
                                        I'                                                     ...." "'.,"""
                                        "
                                                                                                ""m "-'"'"
                   I          "         "

                                                                                                " "'" "Co......
                   IL _____ ~,"I
                                                     ~~
                                                     """                            ~.




                                                     .'
                         1---­                                                      m","

                         I
                         I
                                                     ", ,
                                                    L __ J

        --~>---<------,c>~~-=DCDCCCk----->--~>---~~;:;~~m~"~'~~,'- 1
                                                                                     R[V - 1




                                             14 

ATTACHMENTS 2a, 2b, and 2c 

                                              Attachment 2a 

                                   ATWATER WIPE SAMPLES * 


Diagram                                                                       Ba       Be       Cd       Pb      Ni 

Location**    SampleJD        Building              Description             Ilgiff   Ilgiff   Ilgiff   Ilgiff   Ilgiff 


                                           Work surface on west table in
    A         AWMTWI        Warehouse      disassernbl y area.                450    <0.03        8       61      150

                                           Work surface on second table
    B         AWMTW2        Warehouse      in disassembly area.                33    <0.03        4       62      330

                                           Work surface on third table
    C         AWMTW3        Warehouse      in disassembly area.                27    <0.03       22       48       43

                                           Work surface on fourth table
    D         AWMTW4        Warehouse      in disassembly area.                34    <0.03        7       77       63
                                           Work surface on fifth table in
    E         AWMTW5        Warehouse      disassernbl y area.                 37    <0.03        6       56       56
    F         AWMTW6        Warehouse      Table top in testing area           35    <0.03        I      9.4       40
    G         AWMTW7        Warehouse      Table Top in E-baytest area          9    <0.03        I      5.3        6
                                           Table top in monitor testing
    H         AWMTW8        Warehouse      area                                17    <0.03        I       12        4
                                           Side of plastic baler near
     I        AWMTW9        Warehouse      metal baler                         17    <0.03        3       18       19
     J        AFMWWI        Penitentiary   Metal work surface                   5    <0.03        3       51       18
    K         AFMWW2        Penitentiary   Wood table top                     140    <0.03       13      240      130
    L         AFMWW3        Penitentiary   Metal work surface                 100    <0.03        2       64        9
    M         AFMWW4        Penitentiary   Wood table top                      30    <0.03        9      100       46
    N         AFMWW5        Penitentiary   Metal work surface                   3    <0.03      0.4      5.9        5
    0         AFMWW6        Penitentiary   Metal work surface                 130    <0.03       19      120      160
    P         AFMWW7        Penitentiary   Metal work surface                 110    <0.03       39      180      140
    Q         AFMWW8        Penitentiary   Metal work surface                  16    <0.03        6       59       16
    R         AFMWW9        Penitentiary   Wood table top                      21    <0.03        5       34       33
     S        AFMWWIO       Penitentiary   Metal work surface                  96    <0.03       23      150      160
    T         AFMWWII       Penitentiary   Wood table top                     150    <0.03       21      420      130
    U         AFMWWl2       Penitentiary   Top of change room                  83    <0.03       74      160       92
                                           Top of power box BIEHPI in
    V         AFMWWl3       Penitentiary   mechanical room                    160    <0.03      330      350      160
    W         AFMWWl4       Penitentiary   Top of cabinet in food area         67    <0.03       16       67       46
    X         AFMWWl5       Penitentiary   Inside locker in change room        26    <0.03       16       48       26
                                           Work surface inside hood in
    y         AFMWWl6       Penitentiary   last GBO area                      200    <0.03       84      850       52
                                           Left side of ventilation
    Z         AFMWWl7       Penitentiary   system, last GBO                   110    <0.03       51      180       67

* WIPE SAMPLES: (All wipe samples were from I sq. ft.     area)
** Location identifiers correlate with Figures 1 and 2.
                                               Attachment 2b 

                                   ATWATER BULK SAMPLES 



Diagram                                                                         Be
Location*    SampleJD     Building       Description                Ba I'Wg    I'Wg     Cdl'Wg    Pb I'Wg      Ni I'Wg
                                         From near disassembly
    I        AWMTBI       Warehouse      tables                         390    <0.2         II          150            68
                                         From near disassembly
    2        AWMTB2       Warehouse      tables                         400    <0.2         16          430           430
                                         From near disassembly
    3        AWMTB3       Warehouse      tables                         160    <0.2        110          190           110
                                         Floor sweepings, cage
    4        APMWBI       Penitentiary   I                             2000    <0.2        230         9100       2600
                                         Floor sweepings, cage
    5        APMWB2       Penitentiary   2                              490    <0.2        110         1100       7600
                                         Dust from arOlllld
                                         electric conduit on wall
    6        APMWBIO      Penitentiary   near food area.                250    <0.2          3            9            10
                                         From top of exhaust
    7        APMWBII      Penitentiary   system in last GBO            1400    <0.2        810         1500           740
*LocatlOn IdentIfIers correlate wIth FIgures 1 and 2.




                                               Attachment 2c 

             ATWATER BULK SAMPLES FROM ELEVATED SURFACES 

                                           Collected 4/25/2007 


  SampleJD           Building                                                                  Pb               Cd
                                                         Description                         (m!\,kg)         (m!\,kg)
                                      From top of vent duct and other high horizontal
  APMWB3            Penitentiary      surfaces                                                   500            180
                                      From top of vent duct and other high horizontal
  APMWB4            Penitentiary      surfaces                                                   52              15
                                      From top of vent duct and other high horizontal
  APMWB5            Penitentiary      surfaces                                                   580            250
                                      From top of vent duct and other high horizontal
  APMWB6            Penitentiary      surfaces                                                   110            25
                                      From top of vent duct and other high horizontal
  APMWB7            Penitentiary      surfaces                                                   170            82
                                      From top of vent duct and other high horizontal
  APMWB8            Penitentiary      surfaces                                                   44              13
                                      From top of vent duct and other high horizontal
  APMWB9            Penitentiary      surfaces                                                   44              12
ATTACHMENT 3 

     DEPARTMENT OF HEALTH AND HUMAN SERVICES                                    Public Health Service


                                                                                National Institute for Occupational
                                                                                 Safety and Health
                                                                                Robert A. Taft Laboratories
                                                                                4676 Columbia Parkway
                                                                                Cincinnati OH 45226-1998



                                                                                    June 25, 2009

                                                                               HETA 2008-0055




Investigative COlmsel

Oversight and Review Division

Office of the Inspector General

United States Department of Justice, Suite 13100

Washington nc. 20530




On November 27, 2007, the National Institute for Occupational Safety and Health (NIOSH)

received your request for technical assistance in your health and safety investigation ofthe

Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons

(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to

assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in

assessing the existing medical surveillance program for inmates and staff exposed to lead and

cadmium during electronics recycling, and to make recommendations for future surveillance. In
Page 2

addition, you asked us to assess past exposures to lead and cadmium, and to investigate the

potential for "take home" exposure. You later asked us to perform a similar evaluation for the

BOP institution in Marianna, Florida. We conducted a site visit at the Atwater BOP institution on

October 15, 2008. This interim letter summarizes our findings and provides recommendations to

improve the safety and health of the inmates and staff at the United States Penitentiary (USP) in

Atwater, California. These findings will be included in a final report that will summarize the

evaluations at all four institutions we evaluated.



Inmates were exposed to cadmium and lead above occupational exposure limits during the glass

breaking operation (GBO) from 2002-2003. It appears that inmates worked without adequate

respiratory protection from April 2002 until July 2002. Exposures seem to have been better

controlled with the relocation of the GBO to the spray booth, however, one sample taken after

the relocation demonstrated significant cadmium exposure.


Background


The USP in Atwater, California, is a high security facility housing adult male offenders. The

institution also includes a minimum security satellite camp. Information provided to us indicates

that the UNICOR computer recycling program began at USP Atwater in April 2002. In May

2002, a "3-stage powder booth" was installed for the GBO. Glass breaking continued for 2

months before being suspended pending the results of biological testing for lead, cadmium, and

barium. It appears that respirator fit testing was conducted at about the time when glass breaking

resumed in mid to late July 2002. An environmental consultant to UNICOR developed a written

cadmium and lead compliance plan in August 2002, after air sampling indicated that airborne

lead and cadmium concentrations exceeded Occupational Safety and Health Administration
Page 3

(OSHA) pennissible exposure limits (PELs). Glass breaking continued, and in December 2002,

UNICOR installed what they tenned a "ventilation system that exceeded OSHA standards." In

June 2003, the GBO was relocated to take advantage of an existing spray booth on a loading

dock. With the exception of several periods when glass breaking was reportedly suspended, glass

breaking continued until March 2005 when all glass breaking operations ceased. Throughout this

period, UNICOR provided biological monitoring, air sampling, and respirator fit-testing.



Assessment



We reviewed the following documents:



   • 	 Results of biological monitoring perfonned between 2002 and 2008 (provided by your

         office, the USP clinic, and the factory manager).

   • 	 Medical records from seven staff members (provided by your office).

   • 	 Work instructions for the GBO and maintenance.

   • 	 Rosters for inmates working in the GBO (provided by the factory manager).

   • 	 DOJ interviews with staff and inmates.

   • 	 Results of industrial hygiene sampling perfonned by a consultant to UNICOR.



During the site visit on October 15, 2008, we held an opening conference with USP and

UNICOR management, American Federation of Government Employees (AFGE)

representatives, and the UNICOR factory manager. After the conference we toured the fonner

recycling location in the USP. We met with two inmates individually who had worked in the

GBO from its inception to do medical interviews. We spoke to the laundry manager who was
Page 4

concerned about exposures to his staff. We ended the site visit with a closing conference where

we presented our initial findings and recommendations.


Results and Discussion 1


Medical surveillance


Inmates



Biological monitoring is performed by the USP clinic and consists of blood lead levels (BLLs),

blood cadmium (CdB), urine cadmium (CdU), urine beta-2-microglobulin (B-2-M), and serum

barium. Not all tests were done for each inmate. The test results are reviewed by a physician.

Paper copies oftest results are maintained in the inmate's personal medical record but not with

UNICOR management. No physical examinations are performed and inmates did not receive

medical clearance to wear a respirator. Each inmate's medical records are transferred with them;

no medical records are retained at Atwater after an inmate is transferred or released. The time line

provided states that blood testing for inmates working in the GBO began in July 2002; however,

a handwritten list oftest results done in July 2002 had prior test results noted in parentheses. The

Health Services Administrator from that time frame reported that tests noted in parentheses were

from March 2002 for inmates in the GBO. There was also a typed list of seven inmates' CdB and

CdU results dated March 31, 2003. No units of measurement were given on this list, but

reference ranges for CdB were given in micrograms per liter (llglL). The remainder of the

biological monitoring results reviewed was provided on the actual laboratory reports. The results

of the available inmate biological monitoring are summarized in the following sections.


1   See Occupational exposure limits and health effects in Appendix.
PageS



Preplacement test results from March 2002 were available for 10 inmates who performed glass

breaking. All had BLLs, CdB, and serum barium testing. The BLL was below the limit of

detection (LOD) of2 micrograms per deciliter of whole blood (llgldL) for six inmates, 2 IlgidL

for two inmates, and 3 IlgidL for two inmates. CdB was below the LOD of 0.5 IlgiL for the one

inmate documented to be a nonsmoker. The mean CdB for the remaining inmates was 1.4 Ilg/L

(range: 0.7-2.3 IlglL). Three inmates noted to be smokers had CdBs of l.7, 2.0, and 2.3 IlgiL.

Smoking is known to increase CdB levels, sometimes drastically. The mean CdB for the six

remaining inmates, for whom smoking status was unknown, was l.0 Ilg/L (range: 0.6-2.1 IlglL).

No CdU testing was documented. The mean serum barium level was 76.4 IlgiL (range: 59-116

Ilg/L). The reference range provided by the laboratory for serum barium was 0-400 Ilg/L.



Results were available for 18 inmates who had biological monitoring performed in early July

2002, prior to respirator use but about a week after the temporary shutdown of the GBO. The 10

inmates tested in March 2002 were retested along with eight other inmates who were tested for

the first time. The BLLs of the 10 inmates previously tested increased, with all BLLS being

above the LOD in July 2002. The mean BLL for these 10 inmates was 4.6 Ilg/dL (range: 2-9

Ilg/dL). In contrast, CdBs decreased. The nonsmoking inmate with a nondetectable CdB in

March 2002 remained below the LOD. Three others dropped below the LOD of o. 5 IlglL, as

well. The remainder had a mean CdB of l.3 Ilg/L (range: 0.6-l.8 IlglL). No CdU testing was

documented, and mean serum barium was 105.5 IlgiL (range: 78-150 Ilg/L). These test results

are the best indication of inmate exposure during the time frame when glass breaking was

occurring without controls or respiratory protection. The slightly increased BLLs indicate
Page 6

exposure to lead, however, the decreased CdB results likely represent an inability to leave the

work area to smoke.



The eight inmates tested for the first time in July 2002 had a mean BLL of 3. 8 Ilg/dL (range: 2-8

Ilg/dL). CdB results were below the LOD for four inmates; one nonsmoker, one smoker, and two

whose smoking status was unknown. The mean for the other four was l.41lglL (range: 0.7-2.2

Ilg/L). Two were smokers, one was a nonsmoker, and the status of the other is unknown. No

CdU testing was documented, and mean serum barium was 103.1 IlgiL (range: 66-240 IlglL).

The value of 240 was an outlier, with the next highest value being 96 Ilg/L.



Ten inmates were tested between one and four times each between March 2003 and November

2004. Thirteen BLLs were available. Four BLLs were below the LOD of2 IlgidL. The mean of

the other nine BLLs was 3.6 Ilg/dL (range 2-6 IlgldL). Seventeen CdB were available. Three

were below the LOD of of 0.5 Ilg/L. The mean of the remaining 14 CdB was l.8 IlgiL (range

0.6-4.0 IlglL). Seven inmates known to be smokers had a mean CdB of l.8 Ilg/L (range: 0.9-4.0

Ilg/L). Four inmates were documented nonsmokers: two had CdB below the LOD and two had

CdB of 0.6 IlgiL. Smoking status of the remaining six inmates was not known. Fourteen CdU

test results were available. Five were noted to be "negative" and three were below the LOD of

l.0 Ilg/L. Three CdU concentrations were quantified at 0.6, l.2, and l.3 micrograms per gram of

creatinine (llglglCr). Another three were noted to be l.2, l.8, and 2.8 but no units of

measurement were provided. There were 11 serum barium levels, with a mean concentration of

122.2 IlgiL (range: 47-385 IlglL). There were three urinary B-2-Ms, all of which were normal,

and no zinc protoporphyrins (ZPP).
Page 7

UNICOR Staff



Records were reviewed from seven staff members who filed workers' compensation claims for

exposures from recycling. These seven were seen by an occupational medicine physician and a

toxicologist. Two reported no symptoms; five reported cough productive of brown sputum and

brown nasal discharge. They had biological monitoring for lead and cadmium; chest x-rays;

spirometry; complete blood counts; blood chemistries; blood beryllium, barium, cobalt, arsenic,

mercury, and zinc; erythrocyte sedimentation rate; sputum culture and sensitivity; prothrombin

time and partial prothrombin time; and electrocardiograms and a variety of other tests performed.

Test results were available for eight staff members (the safety manager was also tested during

this time frame), each of whom was tested one to four times between February 2003 and

December 2004. Ten BLLs were available. Two were above the LOD, both in the same

individual, and measured 3.5 and 5 IlgidL. The LOD varied, and was either 2, 3 or 5 IlgidL.

Twelve CdB were available, and six were below the LOD of 0.5 IlgiL. The remainder ranged

from 0.5-0.9 IlgiL. The highest was in a smoker. Nine CdU results were available, and six were

below the LOD of 0.5 Ilg/L. Two were 0.1-0.3 Ilg/g/Cr, and one was 0.7IlglL. There were five

zpp results and seven B-2-M results; all were within the normal range. There were seven serum

beryllium test results and all were below the LOD. Eight serum barium levels were available.

The mean concentration was 43.4llg/L (range: 3.1-86 Ilg/L). In addition, blood arsenic, mercury,

cobalt, and zinc levels were done. These tests are not based upon occupational exposures, but

were noted to be normal. The remainder of the tests was unremarkable and did not suggest an

occupational hazard. The toxicologist determined that none of the individuals evaluated had any

occupational medical problems.
Page 8

Results of medical surveillance that 10 UNICOR staff received from private physicians between

2007 and 2008 were available. There were eight BLLs, all below the LOD, and nine CdBs, eight

of which were below the LOD and one that was 0.8 IlgiL. There were nine CdU results; six were

below the LOD of 0.5 Ilg/L and the other three ranged from 0.3-0.4llg/L. Eight B-2-M results

were within the normal range. The mean of nine serum barium levels was 30.9 IlgiL (range: 17­

47IlglL).



Finally, five laundry staff had biological monitoring done once each at the USP clinic during

2003. Two BLLS were below the LOD, the others ranged from 2-3 IlgidL. Four CdBs from

nonsmokers were below the LOD. One smoker had a CdB of l.3 Ilg/L. All five CdUs were

reported as 0.0 IlgiL. B-2-M measurements were normal, and mean serum barium was 56.2 IlgiL

(range:42-68 IlglL).



In summary, results of biological monitoring of both staff and inmates were unremarkable with

regards to potential occupational exposure to lead, cadmium, and barium.




Interviews with Inmates



Neither inmate reported medical issues related to work in recycling.


Industrial Hygiene


Records Review
Page 9

The OIG provided 13 reports of occupational exposure assessments of glass breaking operations

performed at USP Atwater between June 2002 and March 2005. Eleven reports were prepared by

consultants to UNICOR, and two by the BOP industrial hygienist.



2002

A consultant conducted the first exposure assessment on June 20, 2002. During this visit, the

consultant collected one 65-minute personal breathing zone (PBZ) sample that indicated an

airborne cadmium concentration of 50 micrograms per cubic meter of air (llglm3) in glass

breaking. (The OSHA PEL for cadmium is 5 Ilglm3 as an 8-hour time-weighted average

[TWAD. The airborne lead concentration was reported to be 99 Ilg/m3 (the PEL for lead is an 8­

hour TWA concentration of 50 Ilg/m3). The consultant recommended that respiratory protection

be provided and that "personal hygiene procedures" be reviewed. The report contained no other

information regarding the work environment, work practices, engineering controls, or personal

protective equipment (PPE).



The consultant returned on July 24, 2002, and collected seven full-shift PBZ samples for

cadmium and lead. The consultant reported that four samples exceeded the cadmium PEL and

two other samples exceeded the cadmium action level (AL) of2.5 Ilglm3 Cadmium

concentrations were reported to be as high as 270 Ilglm3; however, the report did not state the

results for the individual samples. The lead PEL was exceeded in one sample; the lead AL (30

Ilg/m3) was exceeded in two other samples. The report does not indicate if the results were

reported for the sampling period (approximately 6Yz hours) or calculated as an 8-hour TWA.

Cadmium and lead were detected in each of eight surface wipe samples collected on this date.

The highest concentrations were found on surfaces in the glass breaking area; lower
Page 10

concentrations were reported on inmate workers' skin and on surfaces in the food service area.

The report repeated the recommendations presented in the previous report.



On September 4-5, 2002, the BOP industrial hygienist conducted a technical assistance visit. He

conducted PBZ exposure monitoring in and around the GBO. Five of 11 PBZ samples indicated

8-hour TW A concentrations exceeding the cadmium PEL; one worker was exposed to lead

above the PEL. The panel breaker's exposure to cadmium exceeded the PEL on both dates. The

panel breaker's exposure to cadmium was an 8-hour TWA concentration of 90 Ilglm3 (18 times

the PEL) while breaking glass outside of the booth under the mezzanine. Of the six samples that

did not indicate overexposure to airborne cadmium, five were collected outside the glass

breaking area. Shoveling and sweeping of floor debris, and an "aggressive" glass breaking

technique were reported as factors contributing to excessive airborne dust concentrations.

Recommendations for changing the glass breaking technique, and changing glass breakers'

locations relative to the ventilation system were made.



The consultant returned on November 4, 2002, and collected six surface wipe samples, and six

full-shift PBZ samples in the GBO. The sampling period was approximately 6 hours. Five of the

six samples exceeded the cadmium PEL; one exceeded the lead PEL. PPE worn by workers

included half-face piece air purifying respirators fitted with high efficiency particulate air

(HEP A) filter cartridges. Both glass breakers were exposed to airborne cadmium concentrations

that greatly exceeded the assigned protection factor of 10 for the half-face piece respirators. One

glass breaker's lead exposure exceeded the PEL. Lead and cadmium were present in all wipe

samples. No recommendations were provided in the report.
Page 11

2003



On January 21 and February 27, 2003, the consultant assessed worker exposures to barium,

beryllium, cadmium, and lead. The report for January 21, 2003, indicates that four of eight PBZ

samples exceeded the PEL for cadmium; none were reported to exceed the PEL for lead. Barium

concentrations were reported to be very low (beryllium was not detected). The report states that

the airborne cadmium concentration near the "exhaust outlet of the booth" exceeded the PEL;

however, the report does not describe the location of the outlet, i.e., indoors, outdoors, or

proximity to workers. (It is our understanding that the ventilation system used at this time

exhausted indoors.) Values reported for barium and beryllium in skin wipe samples were

incorrectly interchanged in the report, i.e, the consultant reported beryllium in all wipes samples,

while the laboratory analysis report for this visit clearly indicates that beryllium was below the

LOD in all wipe samples.



Three PBZ and one area air sample were collected on February 27,2003. Barium and lead

exposures were below PELs; cadmium exposures exceeded the PEL and AL. One PBZ exposure

reportedly exceeded the PEL and ACGIH Threshold Limit Value® (TLV) for beryllium;

however no supporting documentation (e.g., laboratory analysis reports) was provided to

substantiate this finding. In 2003, the PEL and TL V for an eight-hour TW A exposure to

beryllium were 0.002 mg/m 3 Given the low beryllium concentrations found in relatively few air

samples collected by NIOSH Division of Applied Research Technology (DART) investigators at

other UNICOR recycling facilities, the incompleteness of data provided for this visit, and the

error in the January report, it is uncertain whether an overexposure to beryllium occurred on this

date.
Page 12



Neither of the reports for 2003 contained recommendations, or provided additional information

regarding the work environment, work practices, engineering controls, or PPE.



2004



UNICOR used a different consultant starting in 2004. Another change appears to be the location

of the GBO; it is our understanding that in June 2003 the GBO moved from beneath a mezzanine

to an existing spray booth on a loading dock, which we toured during our October 2008 site visit.



The consultant conducted four exposure assessments from January through March 2004. During

these visits, the consultant collected 18 PBZ and six area air samples that were analyzed for

barium, beryllium, cadmium, and lead. With one exception, air sampling indicated airborne

concentrations below the LOD and/or occupational exposure limits. The exception was a PBZ

sample collected at panel glass breaking on February 9, 2004, which indicated an airborne

cadmium concentration of 28 Ilglm3 during a 287 minute sampling period (17 Ilglm3 as an 8­

hour TWA, assuming no additional cadmium exposure during the unsampled time). No

explanation for this singular overexposure was given in the report or in either of the two

subsequent reports for 2004. We noted that two reports were written for the February 9,2004,

visit, the first of which suggested that the panel breaker had not been overexposed to cadmium

because the worker had been wearing a full-face piece respirator. The transmittal memo for the

first report erroneously stated that because a full-face piece respirator was worn, " ... the PEL for

cadmium has been increased to 250." It appears that the second report for this visit was provided

a month later in order to correct the errors contained in the initial report; however, the second
Page 13

report merely omitted the errors, and did not provide a correction, per se. We mention the

erroneous statements in the report as another example of incorrect or incomplete information that

has been provided to UNICOR by environmental consultants.



Reports for the latter three consultant visits in 2004 state that workers wore disposable suits and

full-face piece respirators (presumably air-purifying, not powered air-purifying) while breaking

cathode ray tubes (CRTs).



On September 28-30, 2004, the BOP industrial hygienist assessed exposure to metals while

workers handled computer monitors in the UNICOR factory and warehouse; the purpose of this

visit was not to assess exposure during glass breaking. All air sampling results (barium,

beryllium, cadmium, lead) were below the LODs and PELs. Air sampling where six monitors

were broken in a Gaylord box produced results below the OSHA PELs for the four elements.

Wipe samples were collected from workers' hands, table tops in the production area, and in the

food service/dining area located in the corner of the UNICOR factory. Metals were reported in

wipe samples obtained from table tops in production areas. Wipe samples from workers' hands

were generally below the LOD; however, barium and lead were detected in some samples.

Cadmium was detected in one hand wipe sample. Barium and cadmium were detected in a

sample from a dining room table top that was reportedly used and cleaned each day. Barium,

cadmium, and lead were detected in a wipe sample from the top of cabinet in the dining area.

The report recommended using butcher paper or other disposable covering on dining tables, wet

wiping or HEP A vacuuming surfaces, and wearing disposable gloves to prevent contamination

of workers' skin.
Page 14

2005



Reports were provided to us for two consultant visits conducted in March 2005. Six PBZ and one

area air sample were collected. Air samples during these visits indicated concentrations that were

low or below the LOD. The most notable result was a PBZ sample on a glass breaker assistant

that indicated a cadmium exposure of 3 Ilgim3 during a 206 minute sampling period (an 8-hour

TW A of 1.3 Ilglm3 assuming no cadmium exposure during the unsampled period). Low

concentrations of cadmium and lead were detected in wipe samples. The report for the first

March visit correctly noted that PELs are applied without regard for PPE. Worker exposures

were described as insignificant.



No other reports of exposure assessments were provided to us.




Conclusions



Inmates were exposed to cadmium and lead above occupational exposure limits during glass

breaking from 2002-2003. It appears that inmates worked without adequate respiratory

protection from April 2002 until July 2002. Exposures seem to have been better controlled with

the relocation of the GBO to the spray booth, however, one sample taken after the relocation

demonstrated significant airborne cadmium exposure. No inmates or employees had blood or

urine levels of lead or cadmium which exceeded occupational standards. Medical surveillance

was not in compliance with the OSHA lead and cadmium standards, and medical clearance was

not performed for respirator use, a violation of the OSHA respiratory protection standard. If the
Page 15

GBO reopens, UNICOR should thoroughly characterize exposures to lead and cadmium, and

perform medical surveillance in compliance with the applicable OSHA standards until it is

documented that exposures are controlled below the OELs. There is no need to perform any

surveillance if the GBO remains closed. It is unclear ifthere was exposure to beryllium. The

industrial hygiene reports often lacked information needed to interpret findings.


Recommendations



The following recommendations are provided to improve the safety and health of the staff and

inmates involved with electronics recycling at the USP Atwater.



1. Although engineering controls and work practices in the GBO generally appear to provide

effective control of worker exposure to cadmium and lead based upon review of industrial

hygiene sampling, exposures should be better characterized if the GBO reopens. UNICOR needs

to maintain an ongoing program of environmental monitoring to confirm that engineering and

work practice controls are sufficiently protective. Environmental monitoring also provides data

needed to determine which provisions of the OSHA cadmium and lead standards should be

applied to the GBO.



3. Ensure full compliance with all applicable OSHA standards, including the General Industry

Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard

Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29

CFR 1910.134]. This includes record keeping requirements, hazard communication

requirements, compliance plans, and medical surveillance. In addition to the OSHA
Page 16

requirements, we recommend that the preplacement examination for cadmium exposure be

identical to the periodic examinations so that baseline health status may be obtained prior to

exposure. We also strongly recommend UNICOR to voluntarily follow the more protective

guidelines for lead exposure and BLLs set forth by the expert panel, [Kosnett et al. 2007], that is

outlined in the appendix to this letter.



4. Carefully evaluate the qualifications and expertise of consultants who are hired to assess

occupational or environmental health and safety issues. One useful benchmark for vetting

individuals who provide industrial hygiene services is the designation of Certified Industrial

Hygienist (CIH). Certification by the American Board ofIndustrial Hygiene (ABIH) ensures that

prospective consultants have met ABIH standards for education, ongoing training, and

experience, and have passed a rigorous ABIH certification examination. The UNICOR and/or

BOP industrial hygienists can assist in the selection of your consultants.



5. Perform a detailed job hazard analysis prior to beginning any new operation or before making

changes to existing operations. This will allow UNICOR and BOP to identify potential hazards

prior to exposing staff or inmates, and to identify appropriate controls and PPE. Involve the

UNICOR and/or BOP industrial hygienists in these job hazard analyses. If medical surveillance

is needed then UNICOR and BOP should perform pre-placement evaluations of exposed staff

and inmates. This medical surveillance should be overseen by an occupational medicine

physician.



6. Appoint a union safety and health representative. This individual should be a regular

participant on the joint labor-management safety committee that meets quarterly. Since inmates
Page 17

do not have a mechanism for representation on this committee, ensure that they are informed of

its proceedings and that they have a way to voice their concerns about and ideas for improving

workplace safety and health.



This interim letter will be part of the final report that will include evaluations at three other BOP

facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and

inmates. Thank you for your cooperation with this evaluation. If you have any questions, please

do not hesitate to contact us at (513) 841-4382.



                                               Sincerely yours,




                                               Elena H. Page, M.D., M.P.H.

                                               Medical Officer




                                               David Sylvain, M.S., C.I.H.
Page 18

                                           Regional Industrial Hygienist

                                           Hazard Evaluations and Technical

                                            Assistance Branch

                                           Division of Surveillance, Hazard

                                            Evaluations and Field Studies



cc: 


Paul Laird, Assistant Director, UNICOR 


                      AFGE Local 1242

                Associate Warden ofIndustries and Education
Page 19




Appendix


Occupational Exposure Limits and Health Effects



In evaluating the hazards posed by workplace exposures, NIOSH investigators use both

mandatory (legally enforceable) and recommended occupational exposure limits (OELs) for

chemical, physical, and biological agents as a guide for making recommendations. OELs have

been developed by Federal agencies and safety and health organizations to prevent the

occurrence of adverse health effects from workplace exposures. Generally, OELs suggest levels

of exposure to which most workers may be exposed up to 10 hours per day, 40 hours per week

for a working lifetime without experiencing adverse health effects. However, not all workers will

be protected from adverse health effects even if their exposures are maintained below these

levels. A small percentage may experience adverse health effects because of individual

susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy). In addition,

some hazardous substances may act in combination with other workplace exposures, the general

environment, or with medications or personal habits of the worker to produce health effects even

if the occupational exposures are controlled at the level set by the exposure limit. Also, some

substances can be absorbed by direct contact with the skin and mucous membranes in addition to

being inhaled, which contributes to the individual's overall exposure.



Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the

average exposure during a normal 8- to 10-hour workday. Some chemical substances and
Page 20

physical agents have recommended short-term exposure limit (STEL) or ceiling values where

health effects are caused by exposures over a short-period. Unless otherwise noted, the STEL is a

IS-minute TWA exposure that should not be exceeded at any time during a workday, and the

ceiling limit is an exposure that should not be exceeded at any time.



In the U.S., OELs have been established by Federal agencies, professional organizations, state

and local governments, and other entities. Some OELs are legally enforceable limits, while

others are recommendations. The U.S. Department of Labor Occupational Safety and Health

Administration's (OSHA) permissible exposure limits (PELs) (29 CFR 1910 [general industry];

29 CFR 1926 [construction industry]; and 29 CFR 1917 [maritime industry]) are legal limits

enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH

recommended exposure levels (RELs) are recommendations based on a critical review of the

scientific and technical information available on a given hazard and the adequacy of methods to

identify and control the hazard. NIOSH RELs can be found in the NIOSH Pocket Guide to

Chemical Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management

practices (e.g., engineering controls, safe work practices, worker education/training, personal

protective equipment, and exposure and medical monitoring) to minimize the risk of exposure

and adverse health effects from these hazards. Other OELs that are commonly used and cited in

the U.S. include the threshold limit values (TLVs) recommended by the American Conference of

Governmental Industrial Hygienists® (ACGIH), a professional organization, and the Workplace

environmental exposure limits (WEELs) recommended by the American Industrial Hygiene

Association, another professional organization. ACGIH TLVs are considered voluntary exposure

guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
Page 21

control of health hazards" [ACGIH 2009]. WEELs have been established for some chemicals

"when no other legal or authoritative limits exist" [AIHA 2009].



Outside the U.S., OELs have been established by various agencies and organizations and include

both legal and recommended limits. Since 2006, the Berufsgenossenschaftlichen Institut fUr

Arbeitsschutz (German Institute for Occupational Safety and Health) has maintained a database

of international OELs from European Union member states, Canada (Quebec), Japan,

Switzerland, and the U.S. [www.hvbg.de/e/bia/gestis/limit_valueslindex.html]. The database

contains international limits for over 1250 hazardous substances and is updated annually.



Employers should understand that not all hazardous chemicals have specific OSHA PELs, and

for some agents the legally enforceable and recommended limits may not reflect current health­

based information. However, an employer is still required by OSHA to protect its employees

from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to

furnish employees a place of employment free from recognized hazards that cause or are likely

to cause death or serious physical harm [Occupational Safety and Health Act of 1970 (Public

Law 91-596, sec. 5(a)(l))]. Thus, NIOSH investigators encourage employers to make use of

other OELs when making risk assessment and risk management decisions to best protect the

health of their employees. NIOSH investigators also encourage the use of the traditional

hierarchy of controls approach to eliminate or minimize identified workplace hazards. This

includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,

(2) engineering controls (e.g., local exhaust ventilation, process enclosure, dilution ventilation),

(3) administrative controls (e.g., limiting time of exposure, employee training, work practice

changes, medical surveillance), and (4) personal protective equipment (e.g., respiratory
Page 22

protection, gloves, eye protection, hearing protection). Control banding, a qualitative risk

assessment and risk management tool, is a complementary approach to protecting worker health

that focuses resources on exposure controls by describing how a risk needs to be managed

[http://www.cdc.gov/nioshitopics/ctribandingl].This approach can be applied in situations where

OELs have not been established or can be used to supplement the OELs, when available.




Lead



Occupational exposure to inorganic lead occurs via inhalation of lead-containing dust and fume

and ingestion oflead particles from contact with lead-contaminated surfaces. In cases where

careful attention to hygiene (for example, handwashing) is not practiced, smoking cigarettes or

eating may represent another route of exposure among workers who handle lead and then

transfer it to their mouth through hand contamination. Industrial settings associated with

exposure to lead and lead compounds include smelting and refining, scrap metal recovery,

automobile radiator repair, construction and demolition (including abrasive blasting), and firing

range operations [ACGIH 2007]. Occupational exposures also occur among workers who apply

and/or remove lead-based paint or among welders who burn or torch-cut metal structures.




Acute lead poisoning, caused by intense occupational exposure to lead over a brief period of time

can cause a syndrome of abdominal pain, fatigue, constipation, and in some cases alteration of

central nervous system function [Moline and Landrigan 2005]. Symptoms of chronic lead

poisoning include headache, joint and muscle aches, weakness, fatigue, irritability, depression,

constipation, anorexia, and abdominal discomfort [Moline and Landrigan 2005]. These
Page 23

symptoms usually do not develop until the blood lead level (BLL) reaches at least 30-40

micrograms per deciliter of whole blood (llg/dL) [Moline and Landrigan 2005]. Psychiatric

symptoms such as depression, anxiety and irritability appear to be related to high levels of

current lead exposure, while decrements in cognitive function are related to both recent and

cumulative dose [Schwartz and Stewart 2007]. One study documented a significant positive

relationship between white matter lesion of the brain noted on magnetic resonance imaging

(MRI) and tibia lead levels in former organolead workers [Stewart et al. 2006]. However, the

strongest predictors of white matter lesions are sex, age, blood pressure, education, smoking

history, alcohol consumption, and ApoE genotype [Stewart et al. 2006]. Overexposure to lead

may result in damage to the kidneys, anemia, high blood pressure, impotence, and infertility and

reduced sex drive in both sexes. Studies have shown subclinical effects on heme synthesis, renal

function, and cognition at BLLs <10 IlgidL [ATSDR 2007a]. Inorganic lead is reasonably

anticipated to cause cancer in humans [ATSDR 2007a].


In most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life

(the time interval it takes for the quantity in the body to be reduced by half its initial value) of 1­

2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005]. The majority of

lead in the body is stored in the bones, with a half-life of years to decades. Bone lead can be

measured using K-shell x-ray fluorescence instruments, but these are primarily research based

and are not widely available. Elevated zinc protoporphyrin (ZPP) levels have also been used as

an indicator of chronic lead intoxication, however, other factors, such as iron deficiency, can

cause an elevated ZPP level, so the BLL is a more specific test for evaluating occupational lead

exposure.
Page 24

The NIOSH REL for inorganic lead is 50 micrograms per cubic meter of air (llglm3) as an 8-hour

TW A. This REL is consistent with the OSHA PEL, which is intended to maintain worker BLLs

below 40 IlgldL; medical removal is required when an employee has a BLL of 60 IlgldL, or the

average of the last 3 tests at 50 IlgidL or higher [29 CFR 1910.1025; 29 CFR 1962.62]. This is

intended to prevent overt symptoms oflead poisoning, but is not sufficient to protect workers

from more subtle adverse health effects like hypertension, renal dysfunction, and reproductive

and cognitive effects [Schwartz and Stewart 2007; Schwartz and Hu 2007; Brown-Williams et al.

2009]. Adverse effects on the adult reproductive, cardiovascular, and hematologic systems, and

on the development of children of exposed workers, can occur at BLLs as low as 10 IlgidL

[SussellI998]. At BLLs below 40 IlgldL, many of the health effects would not necessarily be

evident by routine physical examinations but represent early stages in the development oflead

toxicity. In recognition of this, voluntary standards and public health goals have established

lower exposure limits to protect workers and their children. The ACGIH TLV for lead in air is 50

Ilg/m3 as an 8-hour TWA, with worker BLLs to be controlled to S 30 Ilg/dL [ACGIH 2009]. A

national health goal is to eliminate all occupational exposures that result in BLLs >25 Ilg/dL

[DHHS 2000]. A panel of experts recently published guidelines for the management of adult lead

exposure intended to prevent both acute and chronic effects oflead poisoning [Kosnett et al.

2007]. They recommended that an employee be removed from exposure if a single BLL exceeds

30 IlgldL, or if two measurements taken over 4 weeks exceed 20 IlgidL. Removal should be

considered if control measures over an extended period do not decrease BLLs to < 10 Ilg/dL. The

panel also recommended quarterly BLL testing if the BLL is between 10-19 IlgldL, and

semiannual testing if the BLL is < 10 IlgidL. Pregnant women should avoid BLLs > 5 Ilgldl. The

Third National Report on Human Exposure to Environmental Chemicals (TNRHEEC) found the

geometric mean blood lead among non-institutionalized, civilian males in 2001-2002 was 1.78
Page2S

Ilg/dL [NCEH 2005]. However, widespread contamination of the environment from leaded

gasoline in the past led to significant lead exposure among the general population. This

contamination peaked between 1950 and the early 1970s. The average blood lead in Americans

in 1965 was over 20 IlgidL [Patterson 1965]. Therefore, persons born prior to the 1970s may

have substantial body burdens oflead.



OSHA requires medical surveillance on any employee who is or may be exposed to an airborne

concentration of lead at or above the action level, which is 30 Ilglm3 as an 8-hour TWA ,for

more than 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at

least every 6 months, and more frequently for employees whose blood leads exceed certain

levels. In addition, a medical examination must be done prior to assignment to the area, and

should include detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and

hematocrit, red cell indices, and peripheral smear, blood urea nitrogen (BUN), creatinine, and a

urinalysis. Additional medical exams and biological monitoring depend upon the circumstances,

for example, if the blood lead exceeds a certain level.




Cadmium



Cadmium is a metal that has many industrial uses, such as in batteries, pigments, plastic

stabilizers, metal coatings, and television phosphors [ACGIH 2007]. Workers may inhale

cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­

containing paints [ACGIH 2007]. Exposure to cadmium fume may occur when materials

containing cadmium are heated to high temperatures, such as during welding and torching
Page 26

operations; cadmium-containing solder and welding rods are also sources of cadmium fume. In

addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of

cadmium exposure include cigarette smoke and dietary intake [ACGIH 2007]. Early symptoms

of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of

constriction of the throat, a metallic taste and/or cough. Short-term exposure effects of cadmium

inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness [Thun et

al. 1991]. Short-term exposure effects of ingestion may include nausea, vomiting, diarrhea, and

abdominal cramps [Thun et al. 1991]. Long-term exposure effects of cadmium may include loss

of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an

increased risk of cancer of the lung, and possibly of the prostate [ATSDR 1999].



The OSHA PEL for cadmium is 5 Ilg/m3 as an 8-hour TWA [29 CFR 1910.1027]. The ACGIH

has a TLV for total cadmium of 10 Ilglm3 (8-hour TWA), with worker cadmium blood level to be

controlled at or below 5 micrograms per liter (llglL) and urine level to be below 5 micrograms

per gram creatinine (Ilg/g/Cr), and designation of cadmium as a suspected human carcinogen

[ACGIH 2009]. NIOSH recommends that cadmium be treated as a potential occupational

carcinogen and that exposures be reduced to the lowest feasible concentration [NIOSH 1984].



Blood cadmium levels measured while exposure is ongoing reflect fairly recent exposure (in the

past few months). The half-life is biphasic, with rapid elimination (half-life approximately 100

days) in the first phase, but much slower elimination in the second phase (half-life of several

years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of

body burden and have a very long half-life of 10-20 years [Lauwerys and Hoet 2001].
Page27_

OSHA requires medical surveillauce on auy employee who is or may be exposed to an airborne

concentration of cadmium at or above the action level, which is 2.5 Ilg/m3 as au 8-hour TWA,

for more thau 30 days per year [29 CFR 1910.1027]. A preplacement examination must be

provided, and shall include a detailed history, aud biological monitoring for urine cadmium

(CdU) and beta-2-microglobulin (B-2-M), both standardized to grams of creatinine (g/Cr), and

blood cadmium (CdB), standardized to liters of whole blood. OSHA defines acceptable CdB

levels as < 5 IlglL, CdU as < 3 IlglglCr, aud B-2-M as < 300 Ilg/g/Cr. TNRHEEC found

geometric mean CdB of 0.4 IlgiL among men in 1999-2000. Smokers can have CdB levels much

higher than nonsmokers, with levels up to 6.1 IlgiL [Martin et al. 2009]. The geometric mean

CdU for men in 2001-2002 was 0.2 IlglglCr in TNRHEEC. Periodic surveillauce is also required

one year after the initial exam and at least biennially after that. Periodic surveillauce shall

include the biological monitoring, history aud physical examination, a chest x-ray (frequency to

be determined by the physician after the initial x-ray), pulmonary function tests, blood tests for

BUN, complete blood count, aud Cr, and a urinalysis. Men over 40 years of age require a

prostate examination as well. The frequency of periodic surveillance is determined by the results

of biological monitoring and medical examinations. Biological monitoring is required annually,

either as part of the periodic surveillance or on its own. We recommend that the preplacement

examination be identical to the periodic examinations so that baseline health status may be

obtained prior to exposure. Termination of employment examinations, identical to the periodic

examinations, are also required. The employer is required to provide the employee with a copy

of the physician's written opinion from these exams aud a copy of biological monitoring results

within 2 weeks of receipt.
Page2S

Biological monitoring is also required for all employees who may have been exposed at or above

the action level unless the employer can demonstrate that the exposure totaled less than 60

months. In this case it must also be conducted one year after the initial testing. The need for

further monitoring for previously exposed employees is then determined by the results of the

biological monitoring.




Barium



Barium is a silver-white metal found in the earth's crust [ATSDR 2007b; NCEH 2005]. It binds

with a variety of chemicals to form barium salts. About half of these salts (including barium

oxide) are soluble in water, and the other half are not (i.e. barium sulfate used in medical

procedures). Barium can be found in food and water, and can be released into the air during

mining and certain industrial processes. It is used to make drilling muds, paints, bricks, tiles,

ceramics, insect and rat poisons, and a variety of other products. Barium oxide is incorporated

into the glass of CRT monitors. Ingestion of large amounts of soluble barium compounds leads

to numbness around the mouth, diarrhea, vomiting, weakness or paralysis, and cardiac rhythm

disruption [ATSDR 2007b; NCEH 2005]. These symptoms are due to hypokalemia, or low blood

potassium levels. Studies of humans or animals exposed to barium compounds in the air are

conflicting. Some workers have developed baritosis, a benign lung condition that shows x-ray

changes but does not cause abnormal lung function. No routine medical tests are available to

determine exposure to barium, and barium levels in blood or urine cannot determine the level of

exposure or whether health effects will occur [ATSDR 2007b]. TNRHEEC found geometric

mean urine barium levels of l.32 Ilg/g/Cr among men in 2001-2002.
Page 29



The OSHA PEL and the NIOSH REL for soluble barium compounds (except barium sulfate) is

0.5 mglm 3 as an 8-hour TWA.


References




ACGIH [2007]. 2007 Documentation of the threshold limit values and biological exposure

indices. Cincinnati, OH: American Conference of Governmental Industrial

Hygienists.



ACGIH [2009]. 2009 TLVs® and BEIs®: threshold limit values for chemical substances and

physical agents and biological exposure indices. Cincinnati, OH: American Conference of

Governmental Industrial Hygienists.



AIHA [2009]. 2009 Emergency response planning guidelines (ERPG) & workplace

environmental exposure levels (WEEL) handbook. Fairfax, V A: American Industrial Hygiene

Association.



ATSDR [1999]. Toxicological profile for cadmium. Atlanta, GA: U.S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.



ATSDR [2007a]. Toxicological profile for lead. Atlanta, GA: U.S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.
Page 30

ATSDR [2007b]. Toxicological profile for barium. Atlanta, GA: U. S. Department of Health and

Human Services. Agency for Toxic Substances and Disease Registry.


Brown-Williams H, Lichterman J, Kosnett M [2009]. Indecent exposure: lead puts workers and

families at risk. Health Research in Action, University of California, Berkeley. Perspectives

4(1)1-9.



CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office

of the Federal Register.



DHHS [2000]. Healthy people 2010: understanding and improving health. 2nd ed. Washington,

DC: U.S. Department of Health and Human Services.

[www.health.gov/healthypeople/Document/default.htm]. Date accessed: March 2009.



Franzblau A [2005]. Cadmium. Chapter 39.4. In: Textbook of clinical occupational and
                                                                                           nd
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2            ed.

Philadelphia, PA: Elsevier Saunders, pp. 955-958.



Kosnett MJ, Wedeen RP, Rothenberg SJ, Hipkins KL, Materna BL, Schwartz BS, Hu H, Woolf

A [2007]. Recommendations for medical management of adult blood lead exposure. Environ

Health Perspect 115(3):463-47l.
Page 31

Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and

organometallic substances. In: Industrial chemical exposure: guidelines for biological

monitoring. 3rd ed. Boca Raton, FL: CRC Press, LLC, pp. 21-180.



Martin CJ, Antonini JM, Doney BC [2009]. A case report of elevated blood cadmium. Occup

Med 59(2): 130-132.



Moline JM, Landrigan PJ [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and

environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.

Philadelphia, PA: Elsevier Saunders, pp. 967-979.



NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,

GA: U.S. Department of Health and Human Services, Centers for Disease Control and

Prevention. National Center for Environmental Health Publication number 05-0570.



NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati, OH: U.S. Department

of Health and Human Services, Centers for Disease Control and Prevention, National Institute

for Occupational Safety and Health, DHHS (NIOSH)IDOL (OSHA) Publication No.84-116.



NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of

Health and Human Services, Centers for Disease Control and Prevention, National Institute for

Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149.

[www.cdc.gov/niosh/npg/]. Date accessed: March 2009.
Page 32

Patterson CC [1965]. Contaminated and natural lead environments of man. Arch Environ Health

11:344-360.



Schwartz BS, Hu H [2007]. Adult lead exposure: time for change. Environ Health Perspect

115(3):451-454.



Schwartz BS, Stewart WF [2007]. Lead and cognitive function in adults: A question and answers

approach to a review of the evidence for cause, treatment, and prevention. lnt Rev Psychiatry

19(6):671-692.



Stewart WF, Schwartz BS, Davatzikos C, Shen D, Liu D, Wu X, Todd AC, Shi W, Bassett S,

Youssem D [2006]. Past adult lead exposure is linked to neurodegeneration measured by brain

MRI. Neurology 66(10): 1476-1484.



Sussell A [1998]. Protecting workers exposed to lead-based paint hazards: a report to congress.

Cincinnati, OH: U. S. Department of Health and Human Services, Centers for Disease Control

and Prevention, National Institute for Occupational Safety and Health, DHHS (NlOSH)

Publication No. 98-112.



Thun MJ, Elinder C, Friberg L [1991]. Scientific basis for an occupational standard for

cadmium. Am J Ind Med 20(5):629-642.
Page 33


bcc:

B. Bernard (electronic copy)
N. Burton (electronic copy
E. Page (electronic copy)
D. Sylvain (electronic copy)
J. Riley (electronic copy) 

HETAB file room, HETA 2008-0055 (paper copy) 

ATTACHMENT 4 

      Stop Work


            DOE-0343 





            Revision 1 





Effective Date: December 18, 2009




 Approved for Public Release; 

  Further Dissemination Unlimited 





            Cover Page 1 of 1 

                                            Stop Work
DOE-0343, Rev 1                     Effective Date: December 18, 2009 	                    Pase 1 of6


1.0      PURPOSE

The purpose of this procedure is to ensure that all employees are given the responsibility and
authority to stop work when employees believe that a situation exists that places them, their
coworker(s), contracted personnel, or the public at risk or in danger; could adversely affect the
safe operation or cause damage to the facility; or result in a release of radiological or chemical
effiuents to the environment above regulatory requirements or approvals; and provides a method
to resolve the issue. Maintaining a diligent questioning attitude is vital to safe execution of work­
scope and is a cornerstone to effective Conduct of Operations and Integrated Safety
Management.

Portions of this procedure implement requirements of the Worker Safety and Health Program
Plan for compliance to 10 Code ofFederal Regulations (CFR) 851, "Worker Safety and Health
Program" and are bracketed in the text. This procedure also implements the "Stop Work and
Shutdown Authorization" clause included in section H of each of DOE's Prime Contracts (see
Appendix B).

This procedure extends the authority to stop work to situations where an employee believes there
is a need to clarify work instructions; or to propose additional controls.

2.0      SCOPE

This procedure is applicable to all contractors and subcontract personnel working at the Hanford
site.

3.0      RESPONSIBILITIES

3.1      Employees

In supporting safe execution of work, all personnel, have the following responsibilities [10 CFR
851.AI]:

      • 	 The responsibility and authority to stop work or decline to perform an assigned task
          without fear of reprisal, to discuss and resolve work and safety concerns. The Stop Work
          may include discussions with co-workers, supervision, or safety representative to resolve
          work related issues, address potential unsafe conditions, clarify work instructions,
          propose additional controls, etc.
      • 	 The responsibility and authority to initiate a Stop Work IMMEDIATELY, without fear of
          reprisal, when the employee believes a situation exists which places himself/herself, a
          coworker( s), or the environment in danger or at risk.
      • 	 The responsibility to report any activity or condition the employee believes is unsafe or
          for which they have initiated a Stop Work. Notification should be made to the affected
          worker(s) and to the supervisor or their supervisor's designee at the location where the
          activity or condition exists.
      • 	 The responsibility to notify their supervisor if a raised Stop Work issue has not been
          resolved to their satisfaction through established channels prior to the resumption of
                                            Stop Work
DOE-0343, Rev 1                     Effective Date: December 18, 2009 	                     PaBe2of6


          work. Alternatively, contact the employer's Employee Concerns Program or the DOE
          Employee Concerns Program.
      •   Employee can contact their safety representative or union safety representative with a
          concern or to initiate a stop work, if the employee prefers to remain anonymous.

3.2       Management/Supervisor/Person in Charge (PIC)/ Field Work Supervisor (FWS)

Management and supervision are committed to promptly resolve issues resulting from an
employee-raised Stop Work [10 CFR 85l.20]. Management (e.g., Directors, Managers,
Supervisors) responsibilities are to:

      • 	 Resolve any issues that have resulted in an individual stopping a specific task(s) or
          activity.
      • 	 Provide feedback to individual/s and the affected work group who have exercised their
          Stop Work responsibility on the resolution of their concern prior to resuming work. If the
          employee that issued a stop work is not available due to reasons such as vacation, PTB,
          PTO, shift change, or training then the supervisor provides the feedback to the safety
          representative and union safety representative, prior to resuming work.
      • 	 Notify the employer's Safety Representative or the Union Safety Representative, when
          bargaining unit personnel are affected, if a raised stop work issue has not been resolved.
      • 	 Notify the DOE Facility Representative if the Contractor's Stop Work action meets the
          Stop Work Criteria defined in Appendix B.
      • 	 Ensure no actions are taken as reprisal or retribution against individuals who raise safety
          concerns or stop an activity they believe is unsafe.
      • 	 If a stop work is not brought up by a bargaining unit employee, but does impact 

          bargaining unit personnel, then also notify the union safety representative. 


3.3       Safety Representatives(s) and Union Safety Representative(s) are Responsible to:

      • 	 Assist employees, supervision and management in the resolution of safety issues and
          concerns.
      • 	 Immediately contact management and work to resolve issues when an employee has
          called a situation to their attention that has not been resolved.
      • 	 Discuss resolution with employees involved in a work stoppage where resolution was
          completed after their shift or when they were unavailable, or where he/she acted as their
          representative in reaching resolution.
      • 	 Work as the agent of an employee that prefers to remain anonymous to work directly in
          the resolution of the stop work.
4.0       IMPLEMENTATION

Effective immediately.
                                           Stop Work
DOE-0343, Rev 1                   Effective Date: December 18, 2009 	                      Pase30f6




5.0 PROCESS

Actionee          Step 	                                      Action
Employee            l. 	 Stop work if an activity or condition is believed to be unsafe, such as:

                           a. 	   A situation exists that places them, their coworker( s), contracted
                                  personnel, or the public at risk or in danger;

                           b. 	   A situation could adversely affect the safe operation or cause
                                  damage to the facility; or

                           c. 	   A situation could result in a release of radiological or chemical
                                  effiuents to the environment above regulatory requirements or
                                  approvals.

                           d. 	   To clarify work instructions or to propose additional controls

                    2. 	 Ensure the work/activity is in, or placed in a safe condition and
                         immediately notify supervision/management and affected workers
                         when you stop work or decline to perform an activity.

Manager/            3. 	 Resolve any issues that have resulted in an employee stopping work
Supervisor/PIC/          or an activity.
FWS
                           Involve individuals who initiated the Stop Work or their appropriate
                           safety representatives if the individual is not available, in reaching
                           mutual agreement on the resolution or proposed actions necessary to
                           return to work.

                           Be sure any necessary corrective or compensatory actions are taken
                           before resuming an activity and are documented* in accordance with
                           Contractor procedures (logbook or other established method of
                           reporting/tracking/communicating safety issues and corrective action
                           management).

                           Notify senior management, and the DOE Facility Representative if the
                           Stop Work meets the Stop Work Criteria defined in Contract Section
                           H "Stop-Work and Shutdown Authorization" (Appendix B), Report in
                           accordance with established notification processes (e.g., occurrence
                           reporting).
                                          Stop Work
DOE-0343, Rev 1                   Effective Date: December 18, 2009 	                  Pase 4 of6


Actionee           Step 	                                     Action
                     4. 	 If a Stop Work has not been resolved to the mutual agreement of
                          manager and employee, then the stop work remains in place and the
                          SupervisoriPIC/FWS will notifY the appropriate company
                          management, safety representative and union safety representative.
                          Resolution of the stop work resides with the union safety
                          representative and company management to resolve and/or propose
                          actions necessary to return to work. Work may be resumed when
                          union safety representation and management agree that the issue has
                          been resolved. The objective is to reach resolution at the lowest
                          levels of engagement.

                            Notify the DOE Facility Representative that a Stop Work has resulted
                            in an unresolved issue.

                            "NOTE: For resumption of radiological work, consult the
                             Radiological Control Manual for additional approval requirement.




5.0        REFERENCES

Hanford Site Stop Work Policy
10 CFR 830, "Nuclear Safety Management," Code ofFederal Regulations
10 CFR 851, "Worker Safety and Health Program," Code ofFederal Regulations
10 CFR 835, "Occupational Radiation Protection," Code ofFederal Regulations *
DOE-STD-1098-2008, Department of Energy (DOE) Radiological Control Standard
                                           Stop Work
DOE-0343, Rev 1                    Effective Date: December 18, 2009 	                       Pase 5 of6


                                             Appendix A 

                                          Stop Work Policy 



Stop Work Responsibility: Every Hanford site employee, regardless of employer, has the
responsibility and authority to stop work IMMEDIATELY, without fear of reprisal, when the
employee is convinced:

1. 	 Conditions exist that pose a danger to the health and safety of workers or the public; or

2. 	 Conditions exist, that if allowed to continue, could adversely affect the safe operation of, or
     could cause serious damage to, a facility; or

3. 	 Conditions exist, that if allowed to continue, could result in the release from the facility to the
     environment of radiological or chemical effiuents that exceed applicable regulatory
     requirements or approvals.

Reporting Unsafe Conditions: Employees are expected to report any activity or condition which
he/she believes is unsafe. Notification should be made to the affected worker(s) and then to the
supervisor or designee at the location where the activity or condition exists. Following
notification, resolution of the issue resides with the responsible supervisor.

Right to a Safe Workplace: Any employee who reasonably believes that an activity or condition
is unsafe is expected to stop or refuse work without fear of reprisal by management or coworkers
and is entitled to have the safety concern addressed prior to participating in the work.

Stop Work Resolution: If you have a "stop work" issue that has not been resolved through
established channels, immediately contact your employer's Safety Representative or your Union
Safety Representative. Alternatively, you may contact the employer's Employee Concerns
Program or the DOE Employee Concerns Program.
                                           Stop Work
DOE-0343, Rev 1                    Effective Date: December 18, 2009 	                       Pase 6 of6


                                         Appendix B 

                  DOE Facility Representative (FR) Notification Requirements 



If any of the following criteria is met or notification of facility management is required for the
issue, the Supervisor/Manager will notify the FR on a 24 hour real time basis.

Stop Work Criteria:

1. 	 Conditions exist that pose an imminent danger to the health and safety of workers or the
     public; or

2. 	 Conditions exist, that if allowed to continue, could adversely affect the safe operation of, or
     could cause serious damage to, the facility; or

3. 	 Conditions exist, that if allowed to continue, could result in the release from the facility to the
     environment of radiological or chemical effiuents that exceed applicable regulatory
     requirements or approvals.

The following definitions shall be used in conjunction with the above stated criteria:

Imminent Danger: Any condition or practice such that a hazard exists that could reasonably be
expected to cause death, serious physical harm, or other serious hazard to employees, unless
immediate actions are taken to mitigate the effects of the hazard and/or remove employees from
the hazard.

Adversely Affects Safe Operation of Facility or Serious Facility Damage: A condition, situation,
or activity that if not terminated or mitigated could reasonably be expected to result in: nuclear
criticality; facility fire/explosion; major facility or equipment damage or loss; or, a facility
evacuation response.
FCI ELKTON 

(J-
....." ..~ "



.;::'j
~
               ."<.

                      DEPARTMENTOFHEALTII&HUMANSERVICES            Program Support Center
                                                                   U.S. Public Health Service
                                                                   Federal Occupational Health Service




                      EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                       HEALTH INFORMATION RELATED TO CURRENT 

                        UNICOR E-WASTE RECYCLING OPERATIONS 

                                    AT FCI ELKTON 


                      PREPARED FOR THE UNITED STATES DEPARTMENT OF mSTICE
                                OFFICE OF THE INSPECTOR GENERAL




               Submitted to:

                                 Oversight and Review Division
                                 Office ofthe Inspector General
                                 U.S. Department of Justice



               Submitted by: 	   Mr. George Bearer, CIH 

                                 FOH Safety and Health Investigation Team 

                                 Program Support Center 

                                 U.S. Public Health Service
                                 Federal Occupational Health Service


                                               April 23, 2010
                                                              Table of Contents

1.0. INTRODUCTION.................................................................................... ........................ ................... 1 

2.0 	 BACKGROUND.................................................................................... ........................ ..................... 7 

        2.1 	 Whistleblower Allegations and Referral to DOJ OIG ........................... ................................ 7 

        2.2 	 Coordination of Federal Agency Responses ............................... ........................ ................... 9 

        2.3 	 Findings Incorporated into this Report ................................................................................ 10 

        2.4. 	 Hazards in E-Waste .............................................................................................................. 13 

3.0 	 ENVIRONMENTAL, SAFETY, AND HEALTH LAWS AND REGULATIONS APPLICABLE 

      TO E-WASTE RECyCLING ........................................................................................................... 16 

        3.1 	 OSHA Standards and Other Guidelines ...................................... ........................ ................. 16 

                3.1.1 	 Lead and Cadmium Standards ................................................. ............................. 18 

                3.1.2 	 Air Contaminant Standards for Other Metals ....................................................... 18 

                3.1.3 	 OSHA General Duty Clause ................................................................................. 19 

                3.1.4 	 Basic Program Elements for Federal Employees ....... ......................... ................. 19 

                3.1.5 	 Other OSHA Standards ........................................................................................ 19 

        3.2 	 U.S. EPA Regulations .......................................................................................................... 19 

4.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI ELKTON ......... 20 

        4.1 	 Current Routine Glass Breaking Operations ........................................................................ 26 

        4.2 	 Current Periodic or Non-Routine Activities in Support of Glass Breaking ....... .................. 27 

        4.3 	 Past Chip Recovery Project .................................................................................................. 28 

5.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ....................................................... 29 

        5.1 	 NIOSHIDART Personal Exposure Monitoring for Toxic Metals and Noise ....................... 30 

        5.2 	 FOH Dust and Wipe Sampling for Lead and Cadmium ...................................................... 35 

        5.3 	 FOH Ambient Air, Particulate, Skin Wipe, and Other Exposure Monitoring ..................... 39 

        5.4 NIOSHIDSHEFSIHETAB Medical Surveillance Assessment and Industrial Hygiene 

        Survey ............................................................................................................................................ 42 

                5.4.1 	 NIOSHIDSHEFSIHETAB Medical Surveillance Assessment Results ............... .43 

                5.4.2 	 NIOSHIDSHEFSIHETAB Industrial Hygiene Survey and Records Review 

                             Results.................................................................................................................. 46 

        5.5 	 OSHA Inspection ................................................................................................................. 48 

        5.6 	 U.S. EPA Region 5 Multi-Media Environmental Compliance Inspection .......................... .48 

6.0 	 REGULATORY COMPLIANCE EVALUATION .......................................................................... 50 

        6.1 	 Analysis of Occupational Exposure to Lead and Cadmium. ......................................... ....... 50 

                6.1.1 	 Lead and Cadmium Exposures and Controls for Current Practices ..................... 51 

                             6.1.1.1 Glass Breaking Area ............................................................................. 51 

                             6.1.1.2 Weekly Glass Breaking Room Cleaning Activity ............................... 53 

                             6.1.1.3 LEV HEPA Filter Change-out Activity ............................................... 54 

                             6.1.1.4 Other FCI Elkton Recycling Areas ....................................................... 55 

                6.1.2 	 Evaluation of Current Exposure Potential from Legacy Lead and Cadmium 

                             Surface Contamination ........................................................................................ 56 

        6.2 	 Compliance with the Lead and Cadmium Standards ........................................................... 57 

                6.2.1 	 Exposure Monitoring ............................................................................................ 57 

                6.2.2 	 Methods of Compliance........................................................................................ 59 

                6.2.3 	 Protective Work Clothing and Equipment and Respiratory Protection ................ 61 

                6.2.4 	 Housekeeping ....................................................................................................... 61 

                6.2.5 	 Hygiene Facilities and Practices ........................................................................... 62 

                6.2.6 	 Medical Surveillance and Removal Protection ........... ......................... ................. 62 

                6.2.7 	 Employee Information and Training ........................... ......................... ................ 63 

             6.2.8 Recordkeeping ............................................................. ........................ ................. 63 

          6.3
           Air Contaminants other than Lead and Cadmiuffi. ...... ............... ........................ .................. 63 

          6.4
           OSHA "General Duty Clause" ................................................... ........................ .................. 65 

             6.4.1 Heat Stress ............................... ........................ ........................ ............................. 65 

             6.4.2 Ergonomic Hazards ............................................................................. ................. 65 

       6.5 Other OSHA Standards ............................................................................ ............................ 65 

       6.6 29 CFR 1960 Basic Program Elements for Federal Employees .......................................... 67 

       6.7 Environmental Compliance ............................................................................... ................... 67 

7.0   CONCLUSIONS ........................................................................... ........................ ............................ 67 

       7.1 Heavy Metals Exposures ............................................................. ......................... ................ 67 

       7.2 Medical Surveillance for Lead and Cadmiuffi. ................ ........................ ............................. 69 

       7.3 Health and Safety Regulatory Compliance .......................................................................... 70 

       7.4 Hazard Analysis and Hazard Controls ................................................................................. 71 

       7.5 Environmental Compliance ................................ ......................... ........................ ................. 71 

       7.6 Exposures to Other Hazards ........ ........................ ......................... ........................ ................ 72 

8.0   RECOMMENDATIONS .............................................................. ........................ ............................ 72 

       8.1 Heavy Metals Exposures ...................................................................................................... 72 

       8.2 Medical Surveillance for Lead and CadmiUffi. ..................................................................... 76 

       8.3 Health and Safety Regulatory Compliance .................................. ........................ ................ 77 

       8.4 Hazard Analysis and Hazard Controls ................. ........................ ......................... ............... 79 

       8.5 Environmental Compliance ............................... ........................ ......................... .................. 80 

       8.6 Exposures to Other Hazards ........ ......................................................................................... 80 

9.0   REFERENCES .................................................................................................................................. 81 



                                                                   Figures

Figure I            OSC Identified Defects in the BOP's Investigation
Figure 2            Objectives of ESH Investigative Team
Figure 3            Summary of Key Federal Agency Reports
Figure 4            Toxic Materials in Computer Components
Figure 5            CRT Components
Figure 6            Diagram of the UNICOR factory located within the FCI main compound
Figure 7            Diagram of the UNICOR facility in the Federal Satellite Low (FSL)
Figure 8            Diagram of the warehouse handling electronics recycling operations
Figure 9            Diagram of the glass breaking area within the FCI

                                                                    Tables

Table I             Occupational Exposure Limits
Table 2             Personal Exposure Monitoring Results NIOSH/DART
Table 3             FOH Surface WipelBulk Dust Sample Data
Table 4             Summary of Air Sampling Results, FOH
Table 5             Elton Hand Wipe Data Table, FOH
Table 6             Blood Lead Levels of Inmates Doing Glass Breaking, By Year; HETA
                    2008-0055, Federal Bureau of Prisons, FCI Elkton, OH
                                            Attachments

Attachment 1 	 NIOSH, Control Technology aod Exposure Assessment for Electronic Recycling
                Operations, Elkton Federal Correctional Institution, July 2008
Attaclnnent 2 	 FOH, Summary of Findings and Recommendations Pertaining to Air/wipe/BulklTCLP
                Sampling Data from Electronics Recycling Facilities, FCI Elkton, November 15, 2007
Attachment 3 	 NIOSH, Interim letter report assessing the existing medical surveillance program for
                inmates aod staff exposed to lead and cadmium during electronics recycling at FCI
                Elkton, July 16,2008
Attaclnnent 4 	 Letter Report of OSHA Compliaoce Inspection and Citations, February 27, 2006
Attachment 5 	 U.S. EPA, Multimedia Inspection Report, April 23, 2008
Attaclnnent 6 	 Assessment ofUNICOR Electronics Recycling Operations, Senior Environmental
                Scientist, Office of Solid       U.S. Environmental Protection Agency (Email
                correspondence                        DOJ OIG, February 8, 2007
1.0.     INTRODUCTION

At the request of the U.S. Department of Justice (DOJ) Office ofthe Inspector General (orG),
the Federal Occupational Health Service (FOH) coordinated environmental, safety and health
(ES&H) assessments of electronics equipment recycling operations conducted by the Federal
Bureau of Prisons (BOP) at the Elkton Federal Correctional Institution (FCI) located at 8730
Scroggs Road, Elkton, Ohio. The assessments were conducted as a result of whistleblower
allegations that inmate workers and civilian staff members were being exposed to toxic
materials, including lead, cadmium, barium, and beryllium, at electronics recycling operations
overseen by Federal Prison Industries (UNICOR) at a number of BOP facilities around the
country. 1 The allegations stated that these exposures were occurring from the breaking of
cathode ray tubes (CRTs) and other activities associated with the handling, disassembly,
recovery, and recycling of electronic components found in equipment such as computers and
televisions (i.e. e-waste). 2 It was further alleged that appropriate corrective actions had not yet
been taken by BOP and UNICOR officials and that significant risks to human health and the
environment remained.
                      3
This FOH report consolidates and presents the findings of multiple technical assessments
recently performed on UNICOR' s e-waste recycling operations at FCI Elkton by industrial
hygienists, occupational physicians, and environmental specialists representing several federal
agencies including, FOH, the Centers for Disease Control and PreventionlNational Institute for
Occupational Safety and Health (CDCINIOSH), the Occupational Safety and Health
Administration (OSHA), and the United States Environmental Protection Agency (U.S. EPA).
Reports from each of these agencies are presented in Attachments 1-5 (see references for these
reports in Section 9.0). The primary objectives ofthese assessments were to characterize current
UNICOR operations and working conditions at FCI Elkton (i.e. 2003 to present) in light of the
whistleblower allegations and to identify where exposures, environmental
contamination/degradation, and violations of governmental regulations and BOP policies may
still exist so that prompt corrective actions may be taken where appropriate.

FCI Elkton is one of eight BOP institutions that have ongoing e-waste recycling operations.
FOH will issue separate reports detailing current exposure conditions for each of the seven other
institutions upon completion of the relevant ES&H assessments. FOH's assessment of historical
conditions at FCI Elkton and the other UNICOR e-waste recycling locations will be presented in
a subsequent OIG report.




         1   FPI, (commonly referred to by its trade name UNICOR) is a wholly-owned, Government corporation that
operates factories and employs inmates at federal correctional institutions.
         2 E-Waste is defined as a waste type consisting of any broken or unwanted electrical or electronic device or
component.
         3 FOH prepared this report in October 2008 and its findings and conclusions address e-waste recycling
conditions known to FOH at that time. FOH provided the report to the OIG, which shared it with the BOP and
sought feedback on it. The BOP and UNICOR later provided their comments to FOH about the report's contents,
which resulted in FOH making limited changes to some text and figures, as reflected herein.

                                                          1
This report is comprised of the following sections:

    • 	 BACKGROUND (Section 2.0) provides additional information about the nature ofthe
        whistleblower allegations, summaries of reports provided by the federal agencies that the
        OIG requested to evaluate the allegations, the scope ofthe various site visits performed
        by the federal agencies involved, the resulting federal agency reports upon which this
        report is based, and the hazards associated with e-waste recycling.

    • 	 ENVIRONMENTAL, SAFETY, AND HEALTH LAWS AND REGULATIONS
        APPLICABLE TO E-WASTE RECYCLING (Section 3.0) summarizes the various
        applicable requirements and standards of care which were used by the investigators to
        characterize the operations and conditions.

    • 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI
        ELKTON (Section 4.0) provides an overview ofthe electronics recycling facilities at FCI
        Elkton and the operations which were characterized from an ES&H perspective.

    • 	 FIELD INVESTIGATIONS AND MONITORING RESULTS (Section 5.0) details the
        findings ofthe field investigations as derived from the inspections performed and the
        testing data obtained.

    • 	 REGULATORY COMPLIANCE EVALUATION (Section 6.0) provides an assessment
        ofthe current facilities and operations based on pertinent regulations, requirements and
        policies, and establishes the technical basis for the conclusions and recommendations
        offered.

    • 	 CONCLUSIONS (Section 7.0) summarizes the overall findings ofthe FCI Elkton 

        assessments and provides technical conclusions. 


    • 	 RECOMMENDATIONS (Section 8.0) provides recommendations for corrective actions
        which are deemed necessary to protect human health and the environment and ensure
        BOP's compliance with ES&H regulations applicable to electronics recycling operations.

Overall, we have determined that current e-waste recycling operations at FCI Elkton have the
                                       4
potential to create personal exposures to lead and cadmium from routine glass breaking
operations as well as cleaning and filter maintenance activities related to glass breaking;
however, we found that UNICOR has implemented measures to control these exposures. Since
2003, UNICOR has made major improvements in engineering controls and its policies regarding
the usage of personal protective equipment (PPE). Additional improvements are recommended


          4 Regarding inhalation exposure, it is important to emphasize that as used in this report the term "exposure"
refers to the airborne concentration of a contaminant (e.g., lead or cadmium) that is measured in the breathing zone
of a worker but outside of any respiratory protection devices used. Unless otherwise noted, "exposure" should not be
confused with the ingestion, inhalation, absorption, or other bodily uptake of a contaminant. Concentrations
reported and discussed in this report are not adjusted based on respirator protection factors. However, when
reported, it is noted whether the exposure was within the protective capacity of the respirator.


                                                          2
in this report to further reduce and consistently maintain exposures below exposure limits and to 

achieve full compliance with applicable regulations and standards. 


More specifically, we have concluded in part as follows: 


Heavy Metals Exposures 


       • 	 Exposures were evaluated for 31 toxic metals. Only lead and cadmium exposures
           have the potential, at times, to be above the action levels or PELs for routine glass
           breaking operations and weekly glass breaking room cleaning, when conducted in the
           manner evaluated at the time ofthis investigation. Exposures to the other metals
           were well below the PELs.

       • 	 Current lead and cadmium exposures were minimal (far below action levels) for work
           activities conducted on the general factory floor outside of the glass breaking room,
           and in other FCr Elkton recycling areas. Minimal and limited exposure potential
           exists outside the glass breaking room.

       • 	 A non-routine activity involving the HEPA filter change-out demonstrated potential
           for very high lead and cadmium exposures without effective and consistent
           implementation ofthe improved work practice modifications evaluated in December
           2007. Prior to the implementation of improved work practices, yttrium exposure was
           also above the PEL, but within the protective capacity of respirators in use. The
           improved work practices dramatically reduced these exposures, although further
           improvements in controls for this activity are desirable.

       • 	 Two periodic or non-routine activities, weekly cleaning activities in the glass
           breaking room and the HEPA filter change-out, also demonstrated potential exposure
           for lead and cadmium at levels above the action limits or PELs. The latter has the
           potential for very high exposures without effective and consistent implementation of
           the recently improved work practice modifications. Further improvements in controls
           for this activity are desirable.

       • 	 Surface lead and cadmium contamination in various areas throughout the recycling
           facilities is elevated. In addition, past UNrCOR testing of air filters used in the
           buildings ' HVAC (general ventilation) systems serving the electronics factory
           workspaces have shown significant levels oflead and cadmium. TCLP analyses have
           shown that these filters exceeded EPA criteria for lead and cadmium and, therefore,
           must be treated as hazardous waste. These findings support the conclusion that
           uncontrolled releases oflead and cadmium occurred from past glass breaking and de­
           soldering operations. For current operations, this legacy contamination is not
           contributing significantly to staff and inmate exposures. Contractor activities are
           pending to remediate this legacy contamination.

       • 	 SkinJhand wipe samples showed some potential for exposure to lead and cadmium via
           the ingestion route (e.g., from hand to mouth contact). Better and more consistent

                                                3
         and thorough hand washing by inmate workers is needed. Some contamination of
         inmate housing and staff vehicles is also occurring, but is minimal.

      • 	 Particle size determinations found that dusts released from the glass breaking
          activities were sufficiently small to have significant potential for release to the
          ambient air and breathing zone of workers.

      • 	 The current local exhaust ventilation (LEV) system in the glass breaking room
          appears to be generally effective in capturing emissions from the glass breaking
          activity, however, in certain areas, some emissions escape capture. Improvement of
          this system could further reduce lead and cadmium exposures and is needed to
          comply with OSHA requirements for mechanical ventilation under the lead standard.

      • 	 Since 2003, UNICOR has made progress in controlling exposure to lead and
          cadmium. Positive actions include installation of the enclosed glass breaking room,
          installation of LEV in the glass breaking room, implementation of work practice
          controls, use of personal protective equipment and hooded powered air purifying
          respiratory protection for glass breaking workers, implementation of housekeeping
          measures, and provision of a change room. Nevertheless, at times, exposures in the
          glass breaking room have exceeded action levels and PELs, particularly for cadmium,
          between 2003 and 2007. Although respiratory protection is used to control these
          exposures, OSHA requires the use of engineering and work practice controls. Further
          improvements in controls are, therefore, necessary.

Medical Surveillance for Lead and Cadmium

      • 	 The highest aunual mean BLL for inmates doing glass breaking was measured at 5.6
          /lgidL in 2003. These biological monitoring results indicate some bodily uptake of
          lead. These BLLs are well below levels that would warrant medical removal
          protection under the OSHA standard, however, subclinical adverse health effects at
          BLLs of <10 /lg/dL have been reported in the literature (see Attachment 3). The
          BLLs have generally declined over time from 2003 - 2007, indicating that exposures
          have likely similarly decreased. The blood and urine cadmium results from 2003 ­
          2007 were well below levels that would warrant medical removal protection under the
          OSHA standard. No biological monitoring results were available for inmates doing
          glass breaking from 1997 - 2003, when exposures were likely higher.

      • 	 Medical surveillance provided to inmates and staff involved with glass breaking
          operations is not in compliance with OSHA standards. For instance, no medical
          exams (including physical examination) are performed on inmates; staff receive
          inconsistent examinations and biological monitoring by their personal physicians;
          biological monitoring for lead is not conducted at the prescribed six month intervals;
          and results have not been consistently communicated to workers. In addition,
          inappropriate biological monitoring tests have been performed. Records of medical
          surveillance are not maintained by UNICOR or FCI Elkton for the appropriate length
          oftime.

                                                4
      • 	 The only persons with current potential for exposure to either lead or cadmium over
          the action levels are inmates who perform glass breaking, cleaning in the glass
          breaking room, or monthly filter change-outs. These inmates require continued
          medical surveillance. Medical surveillance can be discontinued for all other inmates
          and staff, although some former inmates and/or staff may require continued
          surveillance under the OSHA cadmium standard because of potential past exposures.

      • 	 Exposure to lead from the past chip recovery process cannot be conclusively
          determined because ofthe lack of biological monitoring and exposure data.

Health and Safety Regulatory Compliance

      • 	 Beginning for the most part in 2003 and continuing through the time ofthis
          investigation, UNICOR at FCI Elkton has implemented engineering controls, work
          practices, personal protective equipment, respiratory protection, housekeeping, and
          other measures to mitigate inmate and staff exposures to lead and cadmium during
          glass breaking. These actions are partially consistent with the OSHA lead and
          cadmium standards which require that engineering and work practice controls be
          implemented to maintain exposures at or below the PELs. However, engineering
          controls (i.e., the LEV mechanical ventilation system) are not designed or tested in
          compliance with OSHA standards. At times since 2003, exposure excursions above
          the PEL for cadmium have occurred, which indicates that further improvements in
          engineering and work practice controls are required.

      • 	 The use of respiratory protection between 2004 and present has been adequate to
          protect workers against the exposure excursions above the action levels and PELs
          during routine glass breaking. OSHA standards, however, require that routine
          exposures above the PEL (i.e., over 30 days per year) be controlled by the use of
          engineering and work practice controls, regardless of whether respiratory protection
          is used.

      • 	 UNICOR's response to elevated exposures is unclear. UNICOR has made continued
          improvements in exposure controls since 2003. However, when exposures exceed the
          PEL, OSHA requires that actions be detailed to reduce exposures to below the PEL.
          Past monitoring results showing elevated exposures cannot be clearly linked to
          subsequent improved control actions. UNICOR lacks a compliant exposure
          monitoring program that is followed by improved exposure controls should results so
          warrant. Control actions are not documented in a written compliance program for
          lead and cadmium.

      • 	 UNICOR has not conducted exposure monitoring consistent with OSHA lead and
          cadmium standards that require initial monitoring and follow-up monitoring at a
          frequency that is based on results and exposure potential or changes in process and
          controls.



                                              5
       • 	 Past UNICOR recycling practices at FCI Elkton were likely to have produced
           uncontrolled or poorly controlled releases oflead and cadmium dusts.

Hazard Analysis and Hazard Controls

       • 	 Prior to the DOJ orG's investigation, neither UNICOR nor FCI Elkton had
           implemented effective hazard analysis processes to proactively identify hazards and
           degrees of exposure and ensure adequate control measures. This is evidenced by the
           various findings of this report, including failure to recognize, evaluate, or control the
           extent ofthe filter maintenance exposure, deficient exposure monitoring, deficient
           medical surveillance, OSHA non-compliances, and others.

Environmental Compliance

       • 	 UNICOR and FCI Elkton have not adequately evaluated their wastewater, air
           emissions, and hazard waste streams for compliance with applicable environmental
           standards. BOP and UNICOR need to better coordinate their environmental control
           efforts.

Exposures to Other Hazards

       • 	 Noise exposure during glass breaking was above the level that requires the
           implementation of a Hearing Conservation Program. Potential hazards from
           excessive heat and from lifting/twisting also exist.

We also found that UNICOR has been responsive to recommendations made by the various
federal agencies during the course of our assessments at FCI Elkton. In particular, it has
effectively implemented several protective controls to mitigate elevated exposures identified
during a non-routine operation (i.e., filter change-out maintenance in the CRT glass breaking
area), and will be remediating legacy contamination from early recycling operations and the chip
removal project as identified in our earlier interim report concerning FCI Elkton (see FOH report
in Attachment 2). BOP also has retained a board-certified occupational physician who will be
stationed at BOP headquarters and provide medical consultation to improve the medical
surveillance program at FCI Elkton and other institutions where electronic recycling is
performed.

We further believe that it is worth noting that our investigation has revealed that UNICOR's e­
waste recycling operations provide meaningful employment for BOP inmates and staff and make
important environmental contributions that should be recognized. For example, during fiscal
years 2003 to 2005, UNICOR processed more than 120 million pounds of e-waste. UNICOR's
recycling factories, including FCI Elkton, also have obtained ISO 9000 certification from the
National Standards Authority ofIreland, demonstrating UNICOR's commitment to institute
quality controls to meet customer and regulatory requirements. We also acknowledge the views
of U.S. EPA Senior Scientist, Robert Tonetti, an internationally recognized expert on e-waste
recycling. In February 2007, Mr. Tonetti advised FOH and the orG of his positive opinion of
UNICOR's e-waste recycling operations. Mr. Tonetti's opinion is provided as Attachment 6 to

                                                 6

this report. However, despite UNICOR's recycling achievements, its past e-waste recycling
operations are a major concern and are part of an ongoing assessment that is not yet concluded.
As explained by NIOSH, electronics recycling at FCI Elkton appears to have been performed
from 1997 until May 2003 without adequate engineering controls, respiratory protection, medical
surveillance, or industrial hygiene monitoring (see Section 5.4). Also, while the current
operations reflect a significant improvement, further ES&H enhancements are recommended in
order to limit personal exposures, prevent uncontrolled migration oflead and cadmium-laden
dust, implement a more effective medical surveillance program, and, overall, fully comply with
current regulatory requirements and 'good practice' standards.

Lastly, aside from UNICOR's recycling operations, we are concerned about the limited amount
of research that has been conducted on the health effects of e-waste recycling. We found few
peer-reviewed studies dealing with the recognition, evaluation, and control of occupational
hazards associated with the de-manufacturing of waste electronic equipment and the recovery
and recycling of its toxic components. This information deficit is one that the industrial hygiene
community should address given the increasing importance of e-waste recycling and predictions
regarding the large volumes of e-waste that will be generated in the future. 5


2.0      BACKGROUND

2.1      Whistleblower Allegations and Referral to DOJ OIG

In March 2004, Mr. LeRoy Smith, BOP Safety Manager at the United States Penitentiary (USP)
in Atwater, California alleged to the U.S. Office of Special Counsel (OSC) that UNICOR inmate
workers and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at USP Atwater and other BOP institutions as a result ofthe
breaking of CRTs during computer recycling operations. Mr. Smith stated that air quality testing
conducted on multiple occasions from 2002-2004 at USP Atwater repeatedly revealed elevated
levels of airborne lead and cadmium in the UNICOR recycling facility. According to Mr. Sruith,
after each such test he would direct the suspension of operations and recommend additional
safety precautions, but management personnel at the BOP and UNICOR repeatedly abused their
authority by ordering the reactivation of operations without implementing his recommended
safety measures and without the written approval ofthe Atwater Safety Department. In addition,
Mr. Smith disclosed that BOP and UNICOR located a food service area in the recycling facility
at USP Atwater despite the fact that, according to Mr. Sruith, it was exposed to toxic releases.
Finally, Mr. Smith disclosed that in the course of his attempts to address his safety concerns, he
learned that similar alleged dangers existed in the recycling facilities located at several other
BOP institutions throughout the country.

On November 15, 2004, OSC referred Mr. Sruith's allegations to the Attorney General for
investigation by the U.S. DOJ. Attorney General Ashcroft delegated responsibility for the


         5 For example, even prior to the initiation of the demanufacturing process, contamination from incoming

waste electronics is also possible as a result of CRT breakage during shipment in trailers, and other factors. While it
was beyond the scope of this investigation to evaluate the exposure potential associated with the initial receipt and
handling of these materials, this should be further investigated by UNICOR.

                                                           7
investigation to the Director ofthe BOP. The BOP subsequently produced a report and an
addendum in June and August 2005 respectively that substantiated some ofMr. Smith's
allegations but ultimately concluded that "BOP, [UNICOR] and Safety Staff appeared to have
adequately addressed" the safety concerns raised in Mr. Smith's disclosures. According to the
BOP, BOP and UNICOR took "appropriate steps to ensure factories were operating properly."
Mr. Smith vigorously disputed these findings and according to OSC provided it with
documentary evidence to support his claims. Mr. Smith stated that BOP investigators failed to
interview witnesses with relevant information and maintained that "[UNICOR] officials
knowingly and willfully violated OSHA guidelines" and that BOP's investigation "was not
impartial or comprehensive."

In a letter to DOJ dated April 3, 2006, OSC indicated that it had reviewed the BOP's reports and
Mr. Smith' s comments. OSC determined that while the BOP's reports contained all of the
information required by statute, its findings were "unreasonable" and "inconsistent" with the
documentary evidence provided by Mr. Smith. In particular, OSC indicated that the BOP's
reports made little effort to explain why the documentary evidence furnished by Mr. Smith was
unreliable or how it could be reconciled with the conclusions of the BOP investigation. OSC
listed four specific defects in the BOP's reports, as presented in Figure I which follows.


                                       Figure 1 

                    OSC Identified Defects in the BOP's Investigation 



       1. 	 The BOP failed to address the extensive body of countervailing evidence furnished by Mr.
            Smith.
       2. 	 The BOP's investigation into allegations that hazardous conditions existed in recycling
            facilities located at BOP institutions other that USP Atwater is cursory and does not appear to
            have sought evidence from staff members who have relevant knowledge about these facilities.
            In particular, the BOP failed to address conditions in the recycling facility at FCI Mariana
            despite the concerns raised by Mr. Smith regarding this facility.
       3. 	 BOP's contention that OSHA regulations only prohibit the consumption offood in areas
            exposed to excessive levels of airborne heavy metals is disingenuous in light of the regulatory
            definitions concerning 'recognized hazards.'
       4. 	 BOP wrongly excuses the conduct ofUNICOR and BOP staff on the grounds that exposures
            were not "imminently dangerous, as no immediate threat of death or serious physical harm
            occurred" whereas the BOP program statement actually requires only that conditions "could
            reasonably be expected to cause death or serious physical harm" in order to trigger the safety
            manager's authority to shut down operations.




As a result of these perceived defects, OSC concurred with Mr. Smith's recommendation that an
investigation be conducted by independent parties not subject to the supervision of BOP
management. According to OSC, the investigation should "reliably ascertain the scope ofthe
past and present dangers in [UNICOR's] computer recycling facilities and determine appropriate



                                                    8
remedial measures for staff and inmate workers who may have been exposed to toxic materials
in those facilities."

OSC conveyed its findings to the DOJ in April 2006. DOJ subsequently requested that the orG
oversee an independent investigation following a request for the same from the Director of the
BOP.

2.2      Coordination of Federal Agency Responses

In May 2006, the orG requested that FOH, NIOSH, and OSHA provide assistance with its
investigation ofMr. Smith's allegations and participate in the collection of data, provide
technical advice, and analyze various safety and health issues concerning BOP e-waste recycling
facilities across the U.S. Later in 2007, following several site visits to FCI Elkton, the OIG
requested the assistance of subject matter experts from the U.S. EPA to evaluate possible
environmental concerns associated with the recycling operations there. Figure 2, Objectives of
ESH Investigation, provides a listing of the team's overall objectives as specified by the OIG.

                                               Figure 2 

                                   Objectives of ESH Investigation 



      1. 	 Render independent judgments and opinions to the orG concerning the BOP's current and
             past compliance with ESH regulations applicable to electronics (computer) recycling
             operations, especially as concerns improper exposure to toxic materials.
      2. 	   Address Mr. Smith's allegations that the BOP has not taken adequate precautions to ensure
             employee and inmate safety and health at its electronics recycling facilities.
      3. 	   In support of objectives I and 2, conduct interviews, document reviews, and site visits, and
             collect industrial hygiene samples, as necessary.
      4. 	   Address the perceived 'defects' identified by the OSC in the report concerning the BOP's
             evaluation of its recycling activities at United States Penitentiary Atwater (USP Atwater)
             (see Figure I).
      5. 	   Provide recommendations for corrective actions to ensure the BOP's compliance with ESH
             regulations applicable to electronics recycling operations.
      6. 	   IdentifY for the BOP's consideration industry-accepted ESH best management practices for
             electronics recycling that would benefit the BOP's recycling operations.




Each federal agency had its own distinct responsibilities. FOH provided senior technical and
managerial staff to coordinate the federal response, provided administrative support, and
integrated findings into cohesive reports. NIOSH ' s Division of Applied Research and
Technology (DART), Engineering and Physical Hazards Branch focused on characterizing
current exposures from an industrial hygiene standpoint and provided information on the latest
research dealing with substance toxicities and exposure limits and other worker protection issues.
NIOSH's Division of Surveillance Hazard Evaluation and Field Studies/Hazard Evaluations and
Technical Assistance Branch (DSHEFS/HETAB) evaluated current and past exposures from a
medical perspective. OSHA helped determine the status of current operations with respect to

                                                       9

compliance with pertinent OSHA regulations. U.S. EPA Region 5 performed an environmental
audit to determine current regulatory compliance with existing federal environmental regulations
and rules. Lastly, scientists from U.S. EPA's Headquarters Office of Solid Waste (OSW)
provided guidance on various environmental-related technical issues pertaining to electronics
recycling operations in the United States and around the world.

In general, the focus of the investigation at FCI Elkton, as described in this report, involved the
inspection ofUNICOR's current e-waste recycling facilities and operations; interviews of staff
and inmate personnel; and reviews of salient documents such as recent internal workplace
inspection records, recycling production reports, and medical records. These activities were
sequenced in a logical fashion. First, an evaluation of personal exposures to toxic materials was
performed along with limited testing of building surfaces in order to ascertain the degree and
locations of exiting surface contamination from past operations (i.e., legacy contamination).
Then, based on concerns identified from these initial assessments, the scope ofthe investigation
was expanded to include an assessment ofthe medical surveillance program, an environmental
audit to better identify and understand the nature of various waste streams associated with the
recycling operations, and additional personal exposure monitoring and surface wipe sampling.
Various samples and measurements were collected, including:

      •   Personal breathing zone and workplace area air quality samples;
      •   Wipe samples (walls, floors and other building components);
      •   Hand/skin wipe samples;
      •   Dust samples;
      •   Waste glass samples;
      •   Mop rinseate samples;
      •   Noise measurements (area and personal dosimeter); and
      •   Local exhaust ventilation (LEV) qualitative testing.

In all cases, samples were collected using calibrated equipment in strict accordance with
standardized and accepted methodologies. Similarly, sample analyses were performed by
accredited laboratories using approved methodologies.

2.3       Findings Incorporated into this Report

The evaluation of current ES&H controls as they relate to worker and environmental protection
together with the professional opinions offered in this report stem from the various site visits
performed at FCI Elkton primarily during 2007 and 2008. A summary of the key work products
that have been incorporated into this report is provided below in Figure 3, Summary ofKey
Federal Agency Reports and Activities. In addition, a variety of other sources of information
was used as identified in the attached reference lists.

In summary, it is the overall objective ofthis report to accurately reflect the key findings,
conclusions and recommendations provided by the various federal agencies. This report also
provides additional conclusions and recommendations based upon the integrated findings ofthe
various reports. Where judged appropriate, the sources of information relied upon for specific
statements made in this report have been carefully cited.

                                                 10
                                      Figure 3 

                 Summary of Key Federal Agency Reports and Activities 

Report                              Organization      Visit Dates   Summary
 "Control Technology and            NIOSH DART/EPHB   February      Provides an in-depth evaluation of
 Exposure Assessment for                              26­           exposures to metals and other
 Electronic Recycling Operations,                     March 2,      occupational hazards as well as
 Elkton Federal Correctional                          2007          changes made in selected activities as
 Institution" July 2008                               December      a result of initial recommendations.
 (Attaclnnent 1)                                      11 - 13,      Additional testing for noise showed
                                                      2007          that some exposures were in excess of
                                                                    action levels. Numerous
                                                                    recommendations are provided.

"Summary of Findings and            FOHEHS            February      Provides interim findings from initial
Recommendations Pertaining to                         26 - March    on-site assessments and includes data
AirlWipeffiulklTCLP Sampling                          2, 2007       from a variety of testing methods
Data from Electronics Recycling                                     utilized in each of the three buildings
Facilities, FCI Elkton"                                             where e-waste recycling operations
November 15, 2007                                                   were conducted. Elevated levels of
(Attaclnnent 2)                                                     lead and cadmium contamination
                                                                    were identified on various surfaces of
                                                                    each building consistent with the
                                                                    premise that dust particles from past
                                                                    glass breaking operations and fumes
                                                                    from past chip recovery operations
                                                                    were released into the general factory
                                                                    environment and not effectively
                                                                    addressed via engineering controls.
                                                                    Surface contamination detected in
                                                                    change rooms and other surfaces
                                                                    showed that some migration from
                                                                    current operations is occurring. Air
                                                                    sampling showed that current
                                                                    exposures from routine operations
                                                                    (glass breaking and others) are within
                                                                    acceptable limits while excessive
                                                                    exposures were identified during filter
                                                                    change-out operations in the glass
                                                                    breaking area. Testing of rinse water
                                                                    from floor mopping activities showed
                                                                    that the rinseate is not a hazardous
                                                                    waste. Recommendations provided
                                                                    for additional exposure
                                                                    characterizations and the immediate
                                                                    implementation of an operations and
                                                                    maintenance plan to protect building
                                                                    occupants from surface
                                                                    contamination.
Interim letter report assessing the   NIOSHIDSHEFSfHET AB    February    Provides a summary of findings and
existing medical surveillance                                21-22,      recommendations relative to the
program for inmates and staff                                2008        existing medical surveillance program
exposed to lead and cadmium                                  and         for workers involved in e-waste
during electronics recycling at                              March 25,   recycling operations as based on a
FCI Elkton                                                   2008        review of medical surveillance and
July 16, 2008                                                            blood/urine monitoring results,
(Attachment 3)                                                           industrial hygiene assessments,
                                                                         interviews, and other information.
                                                                         Also provides an industrial hygiene
                                                                         evaluation. Findings indicated that
                                                                         from 1997 to 2003 inadequate
                                                                         engineering controls were utilized and
                                                                         that respiratory protection, medical
                                                                         surveillance, and industrial hygiene
                                                                         monitoring were also not sufficient.
                                                                         Testing showed that contamination of
                                                                         inmate housing and staff vehicles is
                                                                         occurring but is minimal, and while
                                                                         some take-home contamination occurs
                                                                         it does not pose a health threat at this
                                                                         time. NIOSH further concluded that
                                                                         the only persons with the current
                                                                         potential for exposure to either lead or
                                                                         cadmium over the action levels are the
                                                                         imuates who perform glass breaking
                                                                         or the monthly filter change-out and
                                                                         that medical surveillance can be
                                                                         discontinued for all other inmates and
                                                                         staff. Numerous recommendations
                                                                         are provided.
Letter Report of OSHA                 OSHA (Cleveland Area   August 24   Provides [mdings from multiple
Compliance Inspection and             Office)                -           OSHA site visits conducted during the
Citations                                                    November    latter part of 2005. Sampling to
February 27,2006                                             29,2005     detennine lead and cadmium
(Attachment 4)                                                           exposures among UNICOR imuates
                                                                         working in the CRT glass breaking
                                                                         area showed that the OSHA
                                                                         Permissible Exposure Limit for
                                                                         cadmium was exceeded. Also, OSHA
                                                                         Action Levels were exceeded for both
                                                                         lead and cadmium. As a result, OSHA
                                                                         issued a Notice of Unsafe or
                                                                         Unhealthful Working Conditions
                                                                         which included two "serious" citation
                                                                         items.
"Multimedia Inspection Report"        U.S. EPA Region V      December    Provides the findings from a multi­
April 23, 2008                                               10-13,      media compliance investigation
(Attachment 5)                                               2007        encompassing wastewater, storm
                                                                         water, air, and hazardous waste
                                                                         regulations. According to U.S. EPA,
                                                                         storage of some e-waste materials
                                                                         where stormwater is generated outside
                                                                         the warehouse building may
                                                                         necessitate UNICOR or FCI Elkton to
                                                                         apply to Ohio EPA for a NPDES
                                                                      permit or a "no exposure permit
                                                                      exemption." One currently active air
                                                                      emission source was identified (glass
                                                                      breaking operation) which may
                                                                      require a state permit to install and/or
                                                                      operate unless it can be demonstrated
                                                                      that an exemption to these permitting
                                                                      requirements is applicable. In
                                                                      addition, a number of potential
                                                                      hazardous waste-related regulatory
                                                                      violations were identified dealing
                                                                      with, for example, leaking boxes of
                                                                      contaminated waste air filters,
                                                                      incorrect RCRA identification
                                                                      numbers, inaccurate waste shipment
                                                                      logs, etc.


2.4.       Hazards in E-Waste

Electronic equipment such as televisions, monitors, CRTs, personal computers, and
peripherals are known to contain various toxic materials that pose a potential worker and
environmental hazard. More specifically, different toxic materials are associated with the
various individual components ofthe equipment. When these components are processed
for recycling or disposed in a landfill, toxic materials may be released which can
adversely impact human health and the environment.

The personal computer is comprised of the main machine (central processing unit
(CPU», a monitor, and a keyboard. Various peripheral devices also can be added,
including printers and external hard drives. As indicated in Figure 4 a number oftoxic
materials are present within the various components used to manufacture these devices.

                                         Figure 4 

                        Toxic Materials in Computer Components 


                                Toxic Materials                                      Reference

       •   Nickel and cobalt in disk drives                                      Chepesiuk
       •   Barium and cadmium coatings on computer glass                         [1999]
       •   Lead solder on circuit boards and video screens


       •   Lead used to join metals (solder) and for radiation protection is     Schmidt
           present in the CRT and printed wiring board (PWB).                    [2002]
       •   Gallium is used in semiconductors; it is present in the PWB.
       •   Nickel is used in structural components and for its magnetivity;
           it is found in steel housing, CRT and PWB.
       •   Vanadium and yttrium function as red-phosphor emitters and
           are used in the CRT.
                                Toxic Materials                                          Reference
    •      Beryllium, used for its thermal conductivity, is fOlmd in the
           PWB and in connectors.
    •      Chromium, which has decorative and hardening properties, may
           be a component of steel used in the housing.
    •      Cadmium, used in Ni-Cad batteries and as a blue-green
           phosphor emitter, may be found in the housing, PWB and CRT.


    •      Cadmium is present in components like surface mount device                 Cui and
           (SMD) chip resistors, semiconductors, and infrared detectors.              Forssberg
                                                                                      [2003]

    •      Arsenic, which is used in doping agents in transistors, may be             Schmidt
           found in the PWB                                                           [2002]


Furthermore, as illustrated in Figure 5, the CRT of a color monitor is comprised of the
"panel glass (faceplate), shadow mask (aperture), electronic gun (mount), funnel glass
and deflection yoke.

                                                                  Figure 5 

                                                               CRT Components 



                                    UPf".I'vertical
                                   def\eC1ior> plata

    E~troo   gun
     (~alhO\lIl)          r'',/,
                                       I


                   E"ctroo
                   "',m
                 Floofescenl laye,
              lin ing inside of SCI.....,


             Cross ·sec t iona l raprase nt atlon of a ca thode ray lu be




SOlrrce: Maxfield, 0\1 , & Brown, A. DIY Calculator. The origin of the computer console/
display/screen/monitor. Retrieved July 30, 2008 from: http://www.diycalculator.comlsp-console.shbnl; and
ICER. [2003]. New Approach to Cathode Ray Tube (CRT) Recycling. Report prepared for DTI. GW­
12.10-130.

The degree of hazard posed by the toxic materials present in CRTs and other electronics
components is a function of a number of factors. First, the amount (i.e., weight,
concentration) of a given toxic material can directly impact how hazardous that
component can be to workers who handle it or to the propensity for it to cause
environmental degradation in a landfill. For example, references note that face plate
(panel) glass has a high barium concentration (up to 13%) for radiation protection and a
low concentration oflead oxide while the funnel glass has a higher amount oflead oxide
(up to 20%) and a lower barium concentration. Analysis of a typical14-in Philips color
monitor showed that the panel contained silicon, oxygen, potassium, barium and
aluminum in concentrations greater than 5% by weight, and titanium, sodium, cerium,
lead, zinc, yttrium, and sulfur in amounts less than 5% by weight. Analysis of the funnel
glass revealed greater than 5% silicon, oxygen, iron and lead by weight, and less than 5%
by weight potassium, sodium, barium, cerium, and carbon. [Lee, et aI., 2004]

Second, different materials have different occupational exposure limits (OELs). For
example, the OSHA airborne permissible exposure limits (PELs) for cadmium is 0.005
      3                                    3                               3
mg/m , while lead has a PEL ofO.05mg/m and barium has a PEL 0.5 mg/m (for barium
sulfate, as barium).

Finally, from a worker exposure perspective, hazards are also a function ofthe types of
activities performed with the component and the protective controls employed. For
example, the CRT recycling process at FCr Elkton involves breaking the CRT glass with
a hammer. This releases fine dust particles which can contribute to the spread of
contamination and inhalation hazards due to lead, cadmium, and other toxic materials.
However, this can be dramatically mitigated, if not eliminated, by process modifications
and the use of effective engineering controls (e.g., local exhaust ventilation) and personal
protection equipment such as respirators.

Overall, not all ofthe toxic materials found in the electronics equipment being recycled at
FCr Elkton were judged to warrant investigation from a hazardous exposure viewpoint.
The elements deemed to be the most important include lead, cadmium, beryllium,
barium, nickel, chromium, zinc, and arsenic. Other materials were considered less
hazardous due to their relative amounts, toxicities, and based on the premise that the
protective controls utilized for the more hazardous materials would be adequately
protective for them as well. These and other considerations dealing with the hazards in
electronics equipment are discussed in greater detail and referenced in the NrOSH/DART
report, Attachment 1.

Finally, based on the literature reviews conducted as a part of this investigation, it is
apparent that there is currently a dearth of information regarding the industrial hygiene
aspects of electronics recycling operations. While there is much published dealing with
the environmental consequences of disposing of 50 million tons annually of electronics
waste worldwide [DataChem, 2008], few peer-reviewed studies were found dealing with
the recognition, evaluation, and control of occupational hazards associated with the de­
manufacturing of waste electronic equipment and the recovery and recycling of its toxic
components. This information deficit is one that the industrial hygiene community
should address given the increasing importance of e-waste recycling and predictions
regarding the large volumes of e-waste that will be generated in the future.
3.0 	   ENVIRONMENTAL, SAFETY, AND HEALTH LAWS AND
        REGULATIONS APPLICABLE TO E-WASTE RECYCLING

OSHA regulates occupational exposure to air contaminants such as lead, cadmium, and
other toxic metals, as well as other workplace hazards such as noise. The U.S. EPA
regulates environmental hazards such as air emissions, wastewater discharges, and
hazardous waste storage and disposal. Laws, regulations, and other standards that apply
to FCI Elkton electronics recycling operations are discussed in this section.

3.1 	   OSHA Standards and Other Guidelines

In order to regulate occupational exposures to air contaminants, such as toxic metals and
physical hazards such as noise, OSHA establishes permissible exposure limits (PELs),
that are generally specified as time weighted average (TWA) concentrations that cannot
be exceeded over an 8 hour work day. For some hazards, OSHA also establishes an
acceptable ceiling (C) concentration or short term exposure limit (STEL) that cannot be
exceeded at any time (or over a specified short period oftime) during the work shift.
When these exposure limits are exceeded, the employer must take action to reduce and
maintain the exposures to at or below the exposure limits. [Note: STEL and C limits are
not applicable to lead or cadmium.]

In general and whenever feasible, OSHA requires the use of engineering and work
practice controls to correct any overexposure, rather than use of personal protective
equipment or respiratory protection as the primary means of exposure control. In
addition, certain substance specific OSHA standards contain specific requirements for
engineering and work practice controls, such as the lead and cadmium standards.

In addition to the PELs, OSHA also establishes action levels (ALs) that are generally half
or approximately half ofthe PEL. When action levels are exceeded, OSHA standards
often mandate actions that the employer must take to control exposures, such as exposure
monitoring, training, engineering and work practice controls, and medical surveillance.

Aside from regulatory requirements, the American Conference of Governmental
Industrial Hygienists (ACGIH) establishes and publishes non-binding Threshold Limit
Values (TLV s) for many air contaminants and other hazards. These TLV s are not
mandated by regulation, but provide a good practice standard based on current and peer
reviewed information. They are more regularly updated than OSHA PELs. Similar to
the PELs, the TLV s are specified as TWAs over an 8 hour work shift and 40 hour work
week, and/or as a STEL that usually refers to a 15 minute duration. Many government
and industry organizations, by internal policy, use the lower of the OSHA PEL or
ACGIH TLV to evaluate and control exposures, but this approach is not a requirement.

NIOSH also establishes non-binding "recommended exposure limits" (RELs). The RELs
are also not mandated, but provide an additional source of information to evaluate
workplace exposures.
OSHA, ACGIH, and NIOSH exposure limits are listed in Table I for select hazards,
including lead, cadmium, and noise.




                                             Table 1 

                                   Occupational Exposure Limits! 

                                               LEAD            CADMIUM            BARIUM          BERYLLIUM
                                                                                    (llg/m 3)
                                                       3                  3                                    3
                                              (llg/m       )     (llg/m       )                       (llg/m       )


OSHA PEL                                         50                 5.0               500                25
OSHA ACTION LEVEL'                               30                 2.5               N/A               N/A
ACGIH TLV (T otal Exposure)                      50                10.0               500              0.05 4
ACGIH TLV (Respirable Fraction)                 N/A                 2.0               N/A               N/A
NIOSHREL                                         50                Ca 3               500               0.5
Notes:
         1.   All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
              such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TLV 2009 adoption.
         5. 	 OSHA also has 5 Ilg/m 3 ceiling and 25 llg/m3 peak exposure limits.




In addition to establishing exposure limits, many OSHA standards contain a regimen of
requirements that the employer must implement to address such issues as exposure
control, employee training, employee notification and communication, hazard analysis,
record keeping, compliance, and many others. These requirements are often quite
specific and prescriptive in nature. To achieve compliance with OSHA standards, the
employer must implement many additional measures than simply controlling exposures
to below the PEL.

As discussed in Section 2.0, Background, the literature and other information sources
identify the presence of lead, cadmium, and other toxic metals in the types of electronic
equipment that are recycled at FCI Elkton. These toxic metals represent potential
employee exposures. Other types of hazards such as noise are also factors.
Key OSHA standards and requirements that apply to FCr Elkton electronic equipment
recycling are listed below.

   • 	 29 CFR 1910.1025, Lead - delineates exposure limits, control actions, and other
       actions required when workers are exposed to lead.

   • 	 29 CFR 1910.1027, Cadmium - delineates exposure limits, control actions, and
       other actions required when workers are exposed to cadmium.

   • 	 29 CFR 1910.1000, Air Contaminants, Tables Z-l, Z-2, and Z-3 lists perruissible
       exposure limits (PELs) for air contaminants.

   • 	 Occupational Safety and Health Act of 1970, Public Law 91-596, sec. 5(a)(1),
       commonly referred to as the OSHA General Duty Clause defines the employer' s
       obligation to provide for a workplace that is free from recognized hazards that are
       causing or are likely to cause death or serious physical harm. This clause applies
       to all workplace hazards, even those that are not specifically regulated by a
       substance specific standard.

   • 	 29 CFR 1960, Basic Program Elements for Federal Employees requires Federal
       agencies to establish and maintain an effective and comprehensive occupational
       safety and health program. BOP has developed an ES&H program entitled
       Occupational Safety, Environmental Compliance, and Fire Protection, 1600.9.
       The policies established in this program statement apply to FCr Elkton and other
       UNrCOR facilities.

   • 	 Other OSHA standards also apply such as standards for noise, hazard
       communication, respiratory protection, personal protective equipment, and hazard
       analysis.

Each of these OSHA standards is summarized or referenced below.

3.1.1   Lead and Cadmium Standards

The OSHA Lead and Cadmium standards apply to all occupational exposures to lead and
cadmium. These standards mandate exposure limits, engineering and work practice
controls, development of a compliance plan to reduce exposures to at or below the PELs,
training, exposure monitoring, medical surveillance, personal and respiratory protective
equipment, hygiene practices and facilities, record keeping, reporting, and other controls
and actions.

3.1.2   Air Contaminant Standards for Other Metals

The Air Contaminant Tables Z-l and Z-2 provide PELs for various metals (other than
lead and cadruium). Examples include beryllium and barium. ACGIH TLV s supplement
the PELs with more frequently updated, good practice exposure levels. In some cases,
such as for strontium, no PEL or TLV has been established. In these cases control of
coincident metals such as lead and cadmium would have the practical benefit of
controlling other metals such as strontium.

Personal exposures to the hazards must be maintained at levels below the PEL. Should
the PEL be exceeded, exposure controls shall be implemented. If feasible, engineering,
work practice, and/or administrative controls are to be implemented preferentially over
personal protection and respiratory protection controls.

3.1.3   OSHA General Duty Clause

The OSHA General Duty Clause requires an employer to furnish employees a place of
employment that is free from recognized hazards that are causing or are likely to cause
death or serious physical harm [Occupational Safety and Health Act of 1970, Public Law
91-596, sec. 5(a)(1)]. This clause essentially addresses the employer obligation to
control worker exposure to hazards even if they are not covered by specific OSHA
standards. In the case ofFCI Elkton, this could include exposure to excessive heat,
ergonomic hazards, or toxic metals for which no exposure limit has been established.
The primary emphasis of this report is to address potential employee exposure to toxic
metals; however, certain other potential hazards are discussed.

3.1.4   Basic Program Elements for Federal Employees

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. The BOP has established an ES&H program entitled
Occupational Safety, Environmental Compliance, and Fire Protection, (BOP Program
Statement 1600.09). This policy provides general requirements for implementation of
safety and health practices, but lacks details for implementing ES&H practices or OSHA
requirements in the field.

3.1.5   Other OSHA Standards

Many other OSHA standards apply to e-waste recycling operations at FCI Elkton, such as
noise, hazard communication, respiratory protection, personal protective equipment, and
hazard analysis. It is beyond the scope ofthis report to provide a comprehensive review
of all applicable standards. However, Section 6.5 references and discusses certain of
these other applicable standards, as they apply to UNICOR and FCI Elkton.

3.2     U.S. EPA Regulations

As identified in the U.S. EPA's Multimedia Inspection Report (Attachment 5),
environmental laws and regulations that apply to UNICOR' s e-waste recycling operations
at FCI Elkton include the following:
    • 	 Clean Water Act and its implementing regulations govern discharges to navigable
        waters. Lead and cadmium are potential hazardous materials in wastewater and
        storm water discharges.

    • 	 Clean Air Act and its implementing regulations govern emissions of pollutants to
        the ambient air. Lead and cadmium, among other hazardous materials and
        substances can be found in emissions from recycling operations.

    • 	 Resource Conservation and Recovery Act (RCRA) and its implementing
        regulations, govern the storage and disposal of hazardous wastes. Wastes that
        contain lead, cadmium, and other metals can be regulated under RCRA.


4.0 	   UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
        FCIELKTON

The NrOSH/DART and NrOSHIDSHEFS/HETAB reports provide a description of
UNrCOR's e-waste recycling facilities, operations, and activities at FCr Elkton. These
reports are referenced in Section 9.0 and provided as Attachments 1 and 3 to this report.
This section consolidates information from these NrOSH reports. Floor plans for FCr
Elkton' s e-waste recycling operations are shown in Figures 6-9.

Fcr Elkton opened in 1996, and began electronics recycling in early 1997. The recycling
of electronic equipment components is performed in three buildings: the main factory
located within the FCr main compound (referred to as the factory in this report); the
Federal Satellite Low (FSL); and the warehouse. Diagrams ofthese work areas are also
provided in the NrOSHIDART report (Attachment 1).
                                Figw-e 6
Diagram ofthe UN ICOR Factory Located within the PCI Main Compound
       (See Figure 9 for more detail of Glass B reaking Operation)



                                                             i
                                                             •

                                                          .II1 


                                -
                                   --­
                                                 - ~~ 

                  I
                     0               ~

                  I
               ---

                                                        1H 

         -
                                              II iI
                          Figure ? 

Diagram of the UNlCOR Facility in the Federal Satellite Low (FSL) 





               I

              I
              I


                             :d
                              I •




               rI
               8
 1

                  I

                FSL ELKTON
   --~
  ---.­                                           _ _ "XU
                          Figure 8 

Diagram of the Warehouse for Electronics Recycling Operat ions 





 ~f--1                                 :, -
       :        1   -­                                      ,1
       -
       ••
       __ J
                I
                                       I
                                       I     -
                                                             •
                              ___ _ L _
      f------­
                                             --­
                                           f- ­ - - ­     --­



           ,!                       -­.­                    -
                                                            ,n

           !
                         I,
                                   t
       ._­          -    ,
                         I         .

                                   I          G
                                  n          n
                    Fer ELKTON 

                        \JAREHOUS E 

 ---
  ------
  -
 --.....,
           --7

  ----------
 ...... ""'"
      ~.
                                                    tell CM...rn 10 ::COlE
                     Figure 9 

Diagram of the Glass Breaking Area within the Fer 




                     ~-



               IT                       0


                                            I

     ~
     ~
                         ~~
                         ~
                                .­
                                ~
                                                ."
          [:ti.l:[        c   '7~        "'l:\~



                                        ~ ~

        "--::::.:::                                     ~ ~"""'OIT

                                    ~CHNrlGING
                                                            -~.

           mAN,... ROOM             o   """"

                     A
                                                B
             I I I I
                              A - 0 - AREAS OF THE ROOM
                              .-u - CURTAINS


     Fel ELKTON
GLASS BREAKING ROOM
    FLOOR PLAN                                      REV~'

                                        NOT DRAWfoi TO SCALE
The electronics recycling operations can be organized into four production processes:
receiving and sorting; disassembly; glass breaking operations; and packaging and
shipping. Each ofthese processes is described below as they were conducted at the time
ofthe FOHINIOSH site visits.

Incoming materials to be recycled are received at the warehouse where they are examined
and sorted. After electronic memory devices (e.g., hard drives, discs, etc.) are removed
and degaussed or shredded, computer central processing units (CPUs), servers and
similar devices are sent for disassembly Monitors and other devices (e.g., televisions)
that contain CRTs are separated and sent for disassembly and removal of the CRT.
Printers, copy machines, and any device that could potentially contain toner, ink, or other
expendables are segregated and inks and toners are removed prior to being sent to the
disassembly area.




           Image I View ofFCI Elkton Recycling Factory Disassembly Area

In the disassembly process, external cabinets, usually plastic or metal, are removed from
all devices and segregated. Valuable materials such as copper wiring and aluminum
framing are removed and sorted by grade for further treatment if necessary. Components
such as circuit boards or chips that may have value or may contain precious metals such
as gold or silver are removed and sorted. With few exceptions each ofthe approximately
85 workers in the main factory performs all tasks associated with the disassembly of a
piece of equipment.

In the glass breaking room, CRTs from computer monitors and TVs are processed for
recycling. This is the only process where local exhaust ventilation (LEV) is utilized or
where respiratory protection is in universal use. The LEV system consisted of a large
walk-in hood, approximately 8 ft high, 16 ft wide, and 6 ft deep, with 2 or 3 workers
positioned toward the front. Air is pulled from behind the workers, past the work area
where contaminants are released, and through a filtration system. The filtration system
consists of a blanket filter, a bank of pocket filters, and a high efficiency particulate air
(HEP A) filter to remove progressively smaller particles from the air before exhausting
into a storage area behind the hood. Finally, materials processed for recycling, disposal,
or sale are packaged and prepared for shipment.




              Image 2. Electron Gun Removal in Glass Breaking Operation

The operations/activities of greatest potential metals exposure are the routine glass
breaking operation conducted daily in the glass breaking room and two periodic or non­
routine activities that support glass breaking: weekly cleaning ofthe glass booth and
monthly LEV HEP A filter maintenance. In addition, past operations involved a chip
recovery and de-soldering process which also had potential for exposure to metals. These
operations/activities are discussed in greater detail below.

4.1    Current Routine Glass Breaking Operations

Glass breaking operations are currently conducted only in the factory ' s glass breaking
room, which was readied for use in April 2003. This room serves to isolate the glass
breaking operation from the other operations in the factory by enclosing the room and
equipping the operation with local exhaust ventilation. CRTs from computer monitors or
televisions are processed for recycling in this area of the factory. The glass breaking
room is divided into four areas by vinyl strip curtains hanging from the ceiling. The four
areas include an entry area, the glass breaking work stations, the ventilation discharge
area, and the "clean area" where inmates don and doff coveralls and other personal
protective equipment (PPE). A walk-off mat is located immediately outside the entrance
to the room to reduce dust carryout on shoes.

A LEV system adapted from a spray painting operation is installed in the room. Two
inmate glass breakers, who stand facing each other at the ends of a rectangular grated
work surface (table), are oriented at 90 degrees to the LEV airflow entering the prefilter.
Each workstation has two small rectangular hoods and fans mounted behind and just
below the work surface that are intended to capture airborne dust above the Gaylord
boxes containing broken CRT glass. The fanslhoods are not ducted, but discharge, after
HEP A filtration, into the work area approximately 2 Y, to 3 feet from the face ofthe
retrofitted spray painting LEV system. The discharge is directed toward the face ofthe
LEV system.

An inmate receives large open-top wooden and cardboard boxes with CRTs, and stages
the boxes outside the glass breaking room. Periodically, the inmate uses a manual pallet
jack to roll the boxes through the strip curtain into the area where the operation actually
occurs and to remove Gaylord boxes of broken glass from the room.

Inmates who perform the glass breaking ("glass breakers") enter the clean area where
they don cloth and/or Tyvek coveralls, gloves, and a hooded powered air purifying
respirator (PAPR), and then enter the glass breaking area. CRTs are placed on the grate
where they are manually shattered with hammers. The glass breakers reach through a
strip curtain at opposite ends ofthe grate to break funnel glass at one work station, and
panel glass at the other. Broken glass falls into Gaylord boxes positioned below the
grate. When inmates finish breaking glass, they return to the clean area in their coveralls
and PAPR, use a HEPA filtered vacuum on their coveralls before removing them, then
remove their PPE and leave the area. Staff members enter the room only when there is
no glass breaking underway to put away tools and search the area. Otherwise they
observe the inmates in the glass breaking room through the window or vinyl curtains.

4.2    Current Periodic or Non-Routine Activities in Support of Glass Breaking

Periodic or non-routine activities are conducted in the factory to support the routine glass
breaking operations conducted on a daily basis. These activities include weekly clean-up
ofthe glass breaking room and monthly replacement or cleaning of filters associated with
the LEV system.

Daily housekeeping is a routine activity of all production processes; however, a weekly
extensive cleaning is conducted in the glass breaking area. During that operation no
production takes place. All workers in this area remove settled dust by vacuuming and
wet mopping. All surfaces, including walls, equipment, and floors are cleaned. The
blanket pre-filter on the LEV system is vacuumed using the HEPA vacuum cleaner.

At approximately monthly intervals, the filters in the LEV system are removed and either
cleaned or replaced. Prior to and during the evaluation by FOH and NIOSH in March
2007, filters were removed and cleaned by vacumning, shaking, or banging on the floor
to shake out dust. This took most of the work shift and reportedly created a thick cloud
of dust within the enclosed glass breaking room. This process as conducted was not
consistent with -written procedures, and apparently UNICOR staff did not provide
adequate supervision and oversight to ensme proper work practices. This process was
changed after the FOIDNIOSH evaluation. Work practices now include a wetting
process where the filters are wetted, removed, and bagged for disposal, and new filters
are used as replacements.

4.3    Past Chip Recovery Project

A chip recovery and de-soldering program began at the FSL in October 2005, and ended
in October 2006. Inmates removed computer chips from the mother board by holding the
mother board over either a lead solder pot or a lead solder wave fmmtain. Although the
solder temperature was supposed to be maintained just above the melting point
(reportedly 400 to 600 degrees F), staff reported that the solder temperature was set
subjectively (i.e., the temperature was not measured), which may have resulted in
overheating, producing lead fmne. There was no LEV for the first several months of this
operation until what was described by staff as a "make-shift PVC system" was installed.
This LEV system was replaced with another LEV system that appeared to be better
designed. Despite the use of LEV at chip recovery stations, staff described a visible haze
in the FSL, and expressed concern about exposure to lead fume from this operation.




          Images 3 and 4. Chip recovery stations showing use of LEV and PPE

PPE worn dming this past operation included half facepiece air pmifying respirators
(APRs) for those working at pots and fountains and disposable dust masks for others.
Inmates reported that filters for the APRs were not regularly changed, and that previously
used dust masks were re-used at times.
                                                                  062473
         Image 5. LEV hoods and ductwork where chip recovery was performed


5.0     FIELD INVESTIGATIONS AND MONITORING RESULTS

FOR. NIOSHIDART. NIOSHIDSHEFSIHETAB. and U.S. EPA Region 5 conducted
field investigations ofUNICOR's e-waste recycling operations at Fer Elkton between
February 2007 and March 2008. These investigations were coordinated efforts conducted
at the request of the DOJ OIG. These investigations included personal exposure
monitoring, surface wipe and bulk dust sampling, ambient area air monitoring, skin wipe
sampling, exposure controls evaluation, work practices and facilities evaluations, and
other field activities. These field investigations are listed in Figure 3 and are discussed in
Section 2.3 of this report.

In addition, separate from the field activities described above, OSHA conducted an
inspection ofFer Elkton starting in August 2005.
A summary of the field investigations and other contributions is provided below.

      • 	 NrOSH/DART performed personal exposure monitoring to determine exposures
         to toxic metals, surface wipe and bulk dust sampling, and particle size
         determinations. Controls to mitigate exposures were also reviewed. Noise
         exposures were evaluated. An initial site visit was performed in November 2006,
         and field work was conducted in February and March 2007. Follow-up field work
         was performed in December 2007.

      • 	 FOH conducted bulk dust and surface wipe sampling to determine levels of toxic
          metals contamination and the potential contribution to exposures. After an initial
          site visit in November 2006, this field work was conducted in February and
          March 2007.

      • 	 FOH followed up the dust and wipe sampling with area air monitoring for lead
          and cadmium, area particulate monitoring, personal monitoring in general work
          areas, and skin wipe analysis. This work was conducted in December 2007.

      • 	 NrOSH/DSHEFS/HETAB medical and industrial hygiene personnel evaluated
         FCr Elkton' s lead and cadmium medical surveillance program relative to the
         OSHA lead, cadmium, and respiratory protection standards. They also evaluated
         the potential to spread contamination from work areas to homes or other areas of
         general occupancy. These investigations were performed in February and March
         2008.

      • 	 OSHA conducted an on-site inspection, including lead and cadmium exposure
          monitoring, ofUNrCOR's recycling operations at FCr Elkton in August ­
          November 2005.

      • 	 U.S. EPA Region 5 conducted a multi-media evaluation (i.e., wastewater
          discharges, air emissions, and hazardous waste storage and disposal) in December
          2007 to determine compliance with environmental regulations.

Results for each ofthese evaluations are summarized in the subsections that follow.
Complete reports for these evaluations are listed in Section 9.0, References, and are
provided in Attachments 1 - 5.

5.1      NIOSHIDART Personal Exposure Monitoring for Toxic Metals and Noise

NrOSH/DART conducted a field investigation of the FCr Elkton electronic equipment
recycling facilities to assess worker exposure to toxic metals and noise (see Attachment
1). Following an initial site visit in November 2006, the study was conducted from
February 26 to March 2, 2007 with a follow-up survey conducted in December 2007.
Personal exposure monitoring was conducted for 31 metals. Lead and cadmium were
found to be the more significant exposures, but were generally maintained below the
action levels and PELs ofthe lead and cadmium standards, with the exception of weekly
glass breaking room cleaning and non-routine HEPA filter change-out activities. Yttrium
was also initially found above the action level and PEL for the non-routine filter change­
out activity. Exposure results for other metals were uuremarkable (e.g., generally less
than 10% ofthe applicable exposure limit). Exposure monitoring results from the
NIOSH study are summarized below:

   • 	 All exposures for all metals monitored in locations outside the enclosed glass
       breaking room were well below the OSHA action levels and PELs.

   • 	 All exposures for all metals except lead and cadmium during routine glass
       breaking operations were well below OSHA PELs and/or below limits of
       detection (LOD).

   • 	 Lead and cadmium exposures during routine glass breaking operations were
       maintained below the action levels and PELs, but did indicate a potential for lead
       and cadmium exposure. The highest ex~osure result for lead was 18 /lglm 3 as
       compared to the action level of30 /lglm and the PEL of 50 /lglm 3 The highest
                                                 3
       exposure result for cadmium was 1 /lglm as compared to the action level of 2.5
            3
       /lglm and the PEL of 5 /lg/m3. As time weighted average (TWA) exposures,
       these levels were less than 20% of the lead and cadmium PELs. Respiratory
       protection was used during these operations and the above exposures are not
       adjusted based on the respiratory protection factor of25.

   • 	 Cadmium exposure for a weekly glass breaking room cleaning activity was as
       high as 23 /lg/m3 for a 79 minute sample. This calculates to an 8-hour time
       weighted average (TWA) of3.8 /lglm , assuming that no additional exposure
       occurred for the work shift. [Note: This assumption is appropriate because glass
       breaking activities are not conducted on clean-up day.] This exposure is above
                                                                       3
       the action level of2.5 /lg/m3 and is 76% ofthe PEL of5 /lglm Respiratory
       protection with the appropriate protective capacity was in use.

   • 	 Lead and cadmium exposures detected in March 2007 during a non-routine
       maintenance activity (performed approximately monthly) that involved the
       change-out of HEP A filters associated with the glass breaking room's local
       exhaust ventilation (LEV) system (glass breaking booth) were far above the
       action levels and PELs. For lead, time weighted average (TWA) exposures were
       as high as 860 /lglm 3 For cadmium, TWA exposures were as high as 760 /lg/m3
       These exposures are in the range of one to over two orders of magnitude higher
       than the PELs (up to 450 times the PEL (see Attachment 1). These levels of
       exposure far exceeded the protective capacity of the respiratory protection in use.
       Based on these results, UNICOR modified this procedure and follow-up
       monitoring conducted in December 2007 showed effective reduction and control
       ofthe lead and cadmium exposures. Although one cadmium result was still
       somewhat above the PEL as a TWA and another was above the action level, the
       exposures were well within the protective capacity ofthe respiratory protection in
       use. See Section 6.0. This maintenance activity is conducted approximately
   monthly and is about two to three hours in duration. Sample times were for the
   duration ofthe activity. In March 2007, UNICOR had a written procedure for this
   activity that apparently was not followed, but the procedure was not adequate and
   UNICOR staff did not provide adequate supervision and oversight to enforce
   proper work practices during the initial NIOSH monitoring episode.

• 	 Based on one of the samples for airborne metals collected during the March 2007
    non-routine filter change-out activity, Yttrium exposure was 76% ofthe PEL of
    1,000 /lg/m 3 as an 8-hour TWA. In addition, one personal impactor sample
    showed yttrium exposure to be 4,500 /lglm 3 for a five hour duration which
    corresponds to almost three times the PEL as an 8-hour TWA. These levels of
    exposure were well within the protective capacity ofthe respiratory protection
    used. Yttrium exposures in December 2007 after work practice improvements
    were implemented for the activity were less than 10% ofthe PEL as an 8-hour
    TWA. This indicates that work practice improvements effectively reduced and
    controlled yttrium exposure for this activity.

• 	 Beryllium exposures during routine glass breaking operations were consistently
    below the limit of detection (LOD) or very close to the LOD and well below
    exposure limits. Beryllium exposures were also below the LOD during the non­
    routine HEP A filter change-out activities associated with the glass booth.

• 	 Barium exposures during routine glass breaking operations were well below
    exposure limits and at uuremarkable levels for all routine FCI Elkton activities.
    For the non-routine filter change-out activity, barium exposures ranged from 1 to
    460 /lg/m 3 The highest exposure was very close to the PEL of 500 /lglm 3
    Implementation of modified work practices reduced barium exposure to below the
    LOD for this activity.

• 	 Dust samples from various surfaces near recycling operations in both the main
    factory and warehouse were evaluated for particle size. All samples showed 90%
    of particles below 10 /lm in diameter and 40% were in the 1 /lID - 2 /lID range.
    Particles in this range remain airborne for relatively long periods oftime and can
    travel long distances, eventually being deposited as contamination on surfaces
    some distance from the point of generation. This finding supports the FOH
    results in Section 5.2 which show extensive surface contamination on structures at
    elevated heights and long distances from glass breaking. Small particles also
    have potential for penetration deeper into the pulmonary system and for greater
    absorption into the body. Smaller ("respirable") particles are of particular
    importance for cadmium and lead exposure.

• 	 NIOSH/DART also conducted noise dosimetry during its studies in 2007.
   Inmates working in the glass breaking room and disassembly areas were
   monitored. Several noise exposure measurements in the glass breaking area were
   above 85 dBA as a TWA. This is the level above which OSHA requires workers
   be placed into a hearing conservation program. This level is also the ACGIH
       TLV. The OSHA PEL is 90 dBA. One of several measurements approached this
       level at 82% of the allowable dose, and one exceeded this level at 137% of the
       allowable dose.

NrOSH/DART also evaluated the air flow in the glass breaking room that is served by a
local exhaust ventilation (LEV) system designed to capture toxic metals emissions.
Personal protective equipment is also used for glass breaking activities. Results and
information include:

   • 	 Qualitative smoke tests indicated that the LEV system was generally effective in
       capturing airborne emissions; however, one area was noted to be less than
       completely efficient. The right side ofthe booth exhibited some back flow within
       the booth when smoke was released at the level of the grille. A small portion of
       the smoke was seen to travel to areas where inmate workers were present.

   • 	 Workers performing glass breaking wore hooded powered air-purifying
       respirators (PAPRs) with a protection factor of25 (i.e., the assigned protection
       factor of a respirator reflects the level of protection that a properly functioning
       respirator would be expected to provide to a population of properly fitted and
       trained users. [Note: OSHA requires that many controls and other actions be
       taken based on exposures regardless of respiratory protection.]

Based on these results, it is apparent that lead and cadmium represent potential exposures
to staff and inmates during normal glass breaking, weekly glass breaking room cleaning,
and non-routine filter maintenance. The high levels oflead and cadmium on the LEV
HEP A filters serving the glass breaking booth indicates extensive release of airborne lead
and cadmium during glass breaking and, therefore, potential exposure that requires
effective hazard controls and on-going evaluation through exposure monitoring to verify
the effectiveness of control measures.

Routine activities conducted outside ofthe glass breaking room did not demonstrate
potential for lead or cadmium exposures above the action levels or PELs.

Except for the weekly glass breaking room cleaning and monthly HEPA filter change-out
procedure, the results also show that FCr Elkton is controlling exposures below the
OSHA action level and PEL which is the objective of control actions. However, these
limited monitoring episodes are not sufficient to confirm consistent exposure control over
time. Also see results discussed in Section 5.4 regarding FCr Elkton's past exposure
monitoring reviewed by NrOSH/DSHEFS/HETAB and Section 5.5 regarding compliance
exposure monitoring conducted by OSHA. These exposure monitoring episodes show
that, at times, exposures are above the action levels and! or PELs for lead and cadmium
since the glass breaking room has been in operation. Section 6.2.1 discusses the types
and frequency of exposure monitoring that is required by the OSHA lead and cadmium
standards to verify that exposures are consistently controlled.
A partial summary of exposure monitoring results is shown in Table 2. This table lists
only lead and cadmium exposure results for glass breaking, cleaning ofthe glass breaking
room, and HEPA filter change-out.
                                    Table 2
                      Personal Exposure Monitoring Results
                                 NIOSH/DART

      GLASS              DATE        DESCRIPTION          SAMPLE           LEAD      CADMIUM
                                                                                3           3
   BREAKING                                              DURATION         (flg/m )    (flg/m )
ROOM ACTIVITY                                              (MIN)
Glass Breaking            2/27/07      Area Sample              420              1          <0.1
ECMTFT 12
Glass Breaking            2/28/07     Glass Breaker                208         9.5           0.2
ECMWFTl
Glass Breaking            2/28/07     Glass Breaker                305         8.9           0.6
ECMWFT2
Glass Breaking            2/28/07         Feeder                   258         7.5           0.3
ECMWFT3
Glass Breaking            2/28/07     Glass Breaking               412        18.0           0.8
ECMWFT4                                Coordinator
Cleaning - Weekly          3/1/07      GBOWorker                     79        5.7          23.3
ECMHFI
Cleaning - Weekly          3/1/07      GBOWorker                     72       2.02           4.7
ECMHF2
LEV Filter Change          3/2/07   Worker Changing                  91         25            18
ECMFF04B                                  Filter
LEV Filter Change          3/2/07   Worker Changing                128       2,700         2,400
ECMFF03A                                  Filter
LEV Filter Change          3/2/07   Worker Changing                  90        760          650
ECMFF03B                                  Filter
LEV Filter Change          3/2/07       Working                    114         890          690
ECMFF04A                             Changing Filter
LEV Filter Change        12/13/07     Filter change                215        0.31          7.83
E2CMHT-02                           revised practice
LEV Filter Change        12/13/07     Filter change                225        0.31         12.93
E2CMHT-03                           revised practice
LEV Filter Change        12/13/07     Filter change                220        0.31         <0.04
E2CMHR-03                           revised practice
LEV Filter Change        12/13/07     Filter change                229        0.31          0.11
E2CMHR-04                           revised practice
Notes:
    1.These are select results from the NIOSHIDART report. See Attachment 1 for complete
      results.
   2. Results are for the duration of the sample and are not presented as 8-hour TWA
         exposures.
5.2      FOH Dust and Wipe Sampling for Lead and Cadmium

The FOR Investigative Team collected bulk dust and surface wipe samples from FCr
Elkton electronic equipment recycling facilities in early 2007 to help determine potential
exposure to toxic metals and determine the need for decontamination. This investigation
supplemented the NrOSR/DART investigation by providing more comprehensive
sampling across multiple facilities and facility components such as ventilation systems,
roof areas, beams, and working areas. This study considered contamination from both
current operations and legacy operations that have been discontinued.

These samples were analyzed for lead and cadmium, along with other metals. Wipe
samples were analyzed for total lead and cadmium. Bulk dust samples were analyzed for
total lead and cadmium and/or Toxic Characteristic Leaching Procedure (TCLP) lead and
cadmium. Data indicated the presence of significant lead and cadmium on many surfaces
ofthe FCr Elkton recycling factory and associated facilities. FOR issued an interim
report to present and discuss the results, recommend interim measures to prevent
exposure to the contamination, and recommend clean-up and decontamination guidelines
(see Attachment 2).

Results from the FOR study are summarized as follows for the FCr Elkton recycling
factory:

      • 	 Significant lead and cadmium contamination was found on surfaces inside the
          ventilation systems near 20' high ceilings and on elevated and non-elevated
          building surfaces. It is likely that this contamination emanated from CRT glass
          breaking operations that were performed in unenclosed locations on the factory
          floor in past years.

      • 	 The contamination was found at distances well away from current and former
          glass breaking areas, which indicates extensive migration of hazardous dusts.
          Levels were well above non-regulatory surface contamination guidelines for lead.
          See the FOR report, Attachment 2, for a discussion of surface contamination
          guidelines.

      • 	 Surface contamination inside the current glass breaking area was also high. Even
          with the current engineering controls, it is apparent that metals dusts are
          distributed within the currently enclosed glass breaking area. Periodic
          housekeeping measures are used to clean up this contamination.

      • 	 Some contamination oflesser amounts was found outside the current glass
          breaking area on workbenches and in the change rooms. This indicates that some
          migration of metals dusts occurs from the enclosed area. This also indicates that
          the current LEV system and change areas should be improved to further contain
          lead and cadmium dusts generated during glass breaking. Routine cleaning helps
          keep these contamination levels in check.
   • 	 Bulk samples of settled dust from various locations outside the current glass
       breaking area (e.g., ductwork, rooftop near air handler) contained significant lead
       and cadmium.

Results from other FCI Elkton facilities associated with the recycling operations are as
follows:

   • 	 The Warehouse had surface lead and cadmium contamination in the area
       designated "Warehouse Sorting Area." Reportedly, some glass breaking was
       performed in this area starting 1998; therefore, this contamination may be due to
       legacy activities. Warehouse contamination away from the sorting area had much
       less contamination.

   • 	 The FSL samples showed lead contamination on various surfaces and, to a lesser
       extent, some cadmium. Surfaces in or near the former chip recovery/de-soldering
       area had extremely high concentrations oflead. Other surfaces within offices on
       the opposite end of the building were low. Inner surfaces of LEV ducts and
       dampers showed extremely high concentrations oflead, which indicates lead
       releases during legacy de-soldering operations. Surfaces of existing exhaust
       dampers also showed high lead contamination, which indicates that airborne lead
       was previously exhausted to outdoor areas. Floors, work tables, and machines
       had some, but lower lead levels which indicates some but limited contribution to
       exposure and also suggests that current housekeeping helps keep these levels in
       check.

The bulk dust and wipe samples indicate that existing lead and cadmium contamination
represents a potential exposure concern should the contamination become airborne or
result in ingestion (e.g., through hand-to-mouth contact). Metals dusts from past glass
breaking operations and de-soldering operations were apparently not effectively captured
or mitigated through the use of engineering controls. Current glass breaking operations
benefit from the use of LEV, but still have the potential for some but limited lead and
cadmium migration outside the enclosed area.

In addition to FOH surface wipe and bulk dust sampling, past UNICOR testing of air
filters used in the buildings' HVAC (general ventilation) systems serving the electronics
factory workspaces have shown high levels oflead and cadmium. In addition TCLP
analyses have shown that these filters exceeded EPA criteria for lead and cadmium and,
therefore, must be treated as hazardous waste. This provides further indications that past
uncontrolled releases of lead and cadmium dust had occurred from past recycling
activities.

In light ofthese findings, the BOP has retained a contractor to remediate legacy
contamination from past FCI Elkton recycling activities. Activities that could disturb
existing contamination have been suspended pending decontamination work. In addition,
these results indicate the importance of applying lead and cadmium controls and
complying with the requirements of the OSHA standards.
Select data from the FOR study is compiled in Table 3. This partial data set is provided
to show relative contamination levels in various areas.

                                           Table 3 

                            FOR Surface WipelBulk Dust Sample Data 

                            Sample                                                                         Lead                 Cadmium
                Date &       Type
      Sample                           Building                    Elevation
R,w              Wh,        W-Wipe                Surface! Item                 Descdption                    mg'kg
        #
                            B- Bulk
                                        Name                         (feet)                     l-Ig/ft2              I-Ig/tf        mg&g
               Collected
                             Tell'
                                                  Top of           ~20 (~2'
               2127/20rn                                                       Black dust
1     J-Ell                   W                   Fluorescent      from                         3,120                 3,120
               (FOR)                  Warehouse
                                                  Li ht Fixture    ceili~g)    quite evident
                                                                   ~17'H'
               2127/20r:n                         Top ofGlld                   Black dust
2     2-ELK                   W       Warehouse                    fr,m                         4,220                 4,180
               (FOR)                              Water Pipe
                                                                   ceili~g)    quite evident
                                                                               Top surface of
               21n!20rn                           Top of Return    ~20'
3     3-ELK                   W       Warehouse                                duct by          3.460                 3,740
               (FOR)                              Duct
                                                                               ceiling
                                                                               Ledge with
                                                  Ledge above
               2127/20r:n                                          ~    10'    cOp1ous                        410
4     4-ELK                   B       Warehouse   middle bay                                                                         580
               (FOR)                                                           amolUlts of
                                                  doo,
                                                                               dust! articles
                                                  Floor at base
               2i27/20rn
5     6-ELK                   W       Warehouse   of steel         0                            220                   13
               (FOR)
                                                  whmm

               ~~~O07
                                                                               From comer
6     7-ELK                   W       Warehouse   Floor            0                            377                   106
                                                                               tmder stairs
                                                  On 3" steel
               2127/20rn                                           8.5'
7     8-ELK                   B       Warehouse   ledge tmder                                                 300                    380
               (FOR)
                                                  top of stairs
                                                  Stair rise
               2127/20rn                                           6'
8     9-ELK                   W       Warehouse   (underside) by                                440                   80
               (FOR)
                                                  w.l
                                                                               From angle
                                                  Beam support
               2127/20r:n                                          ~20'        iron support
9     lO-ELK                  W       FSL         at co IUIm top                                2;WO                  73
               (FOR)                                                           running ; ~ 4'
                                                                               from ceiling

                                                  Ledge of
                                                                               Be'
               2127/20r:n                                          ~    17'    debris/dust
10    II-ELK                  B       FSL         cinder block                                                910                    98
               (FOR)                                                           from comer
                                                  w.l
                                                                               ledge
                                                                               Notch formed
                                                                               by the
               2127/20r:n                                          ~    5'     abutting
11    12-ELK                  W       FSL         Wall notch                                    720                   5
               (FOR)                                                           "'~OO
                                                                               concrete
                                                                               sections
12    13-ELK   ~~~007         W       FSL
                                                  Floor at base
                                                  of column 1
                                                                   0                            14                    1
                                                                               Ledge
                                                                               midway
                                                                               between coL 1
               2127/20r:n                                          15'         and coL A
13    14-ELK                  W       FSL         Wall                                          309                   3
               (FOR)                                                           between
                                                                               "'~OO
                                                                               concrete
                                                                               sections
                                                  B~by
               2127/20r:n                                          ~20'        Top surface of
14    IS-ELK                  W       FSL         column A at                                   3S,SOO                127
               (FOR)                                                           beam at wall
                                                  w.l
               ~~~Or:n
                                                                   ~    15'    Ledge on
15    16-ELK                  W       FSL         Ledge                                         33,000                57
                                                                               cinder block
                                                                               Ledge
               2127/20r:n                                          5'          between
16    17-ELK                  W       FSL         Ledge on wall                                 5,760                 9
               (FOR)                                                           concrete slabs
                                                                               fonning wall

               2127/20r:n                         Floor at base
17    IS-ELK                  W       FSL                          0                            11,700                17
               (FOR)                              of column A

                                                  Steel support
               2127/20r:n                                          ~20'
18    19-ELK                  W       FSL         beam along                                    124,000               96
               (FOR)
                                                  w.l
               2127/20r:n                                          ~    11'    Top surface of
19    20-ELK                  W       FSL         Ledge on wall                                 3;!60                 58
               (FOR)                                                           channel
                                                                               Ledge where
               2127/20r:n                                          ~    5'     "'~OO
20    21-ELK                  W       FSL         Ledge on wall                                 370,000               64
               (FOR)                                                           concrete
                                                                               sections about
                            Sample                                                                         L"d                    Cad mium
                 Date &      Type
      Sample                           Building                    Elevation
Row               Who       W-Wipe                Surface! Item                 Descdption                   mg'kg
        #
                            B- Bulk
                                        Name                         (feet)                     l-Ig/ft2               I-Ig/ft'        mg&g
                Collected
                             Tell'
                2127!20rn                                                      At base of
21    22-ELK                  W       FSL         Floor            0                            9,110                  18
                (FOR)                                                          colurm 2
                                                  Beam at
                2127!20rn                         ceiling (in      ~20'
22    23-ELK                  W       FSL                                                       1,250                  33
                (FOR)
                                                  ~~~~;e of
                                                  Top of return
                2127!20rn                                          ~20'
23    24 -ELK                 W       FSL         air duct at                                   2,110                  31
                (FOR)
                                                  ceilini1:
                                                  Steel support
                2127!20rn                                          ~20'
24    25-ELK                  W       FSL         beam at wall                                  18,800                 269
                (FOR)
                                                  by co!. 3
                                                  Surface of
                2127!20rn                         beam on wall     3'
25    27-ELK                  W       FSL                                                       2,540                  19
                (FOR)                             ~ 4' from co!.
                                                  2 bv door

                ~~~orn
                                                                               Base of
26    28-ELK                  W       FSL         Floor            0                            10,100                 21
                                                                               colurm 3

                ~~~orn                            Beam at          ~20'        Near column
27    29-ELK                  W       FSL                                                       4,4 60                 T1
                                                  ceilini1:                    B

                ~~~orn
                                                  Floor by base
28    30-ELK                  W       FSL                          0                            43,200                 34
                                                  of column B
                2127!20rn                         Bookshelfby      2'          Wooden
29    31-ELK                  W       FSL                                                       56                     5
                (FOR)                             columnB                      shelves
                2127!20rn                         Steel Beam by    ~20'
30    32-ELK                  W       FSL                                                       30,200                 36
                (FOR)                             column C
                2127!20rn                         Beam'ceihng      ~20'
31    33-ELK                  W       FSL                                                       20,700                 27
                (FOR)                             by ColumnD
                2127!20rn                                                      Base at
32    34-ELK                  W       FSL         Floor            0                            480                    80
                (FOR)                                                          colurm C
                2127!20rn                         Floor base of
33    35-ELK                  W       FSL                          0                            453                    69
                (FOR)                             column D
                2127!20rn                         Beam! ceiling    ~20'
34    36-ELK                  W       FSL                                                       1,830                  30
                (FOR)                             columnE
                2127!20rn                         Floor by
35    37-ELK                  W       FSL                          0                            807                    48
                (FOR)                             columnE
                                                  Top surface of               Between
                2127!20rn                                          ~    18'
36    38-ELK                  W       FSL         supply duct                  Column E and     240,000                31
                (FOR)
                                                  diffuser                     Column 4
                                                  Steel bam
                2127!20rn                                          ~    18'
37    39-ELK                  W       FSL         support on                                    23,700                 80
                (FOR)
                                                  w.1
                2127!2007                         Top of old       ~    15'    By column 4
38    40-ELK                  W       FSL                                                       5,520                  24
                (FOR)                             exhaust duct
                2127!20rn                                          ~    3'
39    41-ELK                  W       FSL         Beam on wall                                  1,170                  12
                (FOR)
                2127!20rn                         Floor by
40    42-ELK                  W       FSL                          0                            98,200                 39
                (FOR)                             column 4

                2127!20rn                         Beam! ceiling    ~20'
41    43-ELK                  W       FSL                                                       400                    35
                (FOR)                             by column F

                2127!20rn                         B1w
42    44 -ELK                 W       FSL                                                       <10                    <1
                (FOR)
                                                  Beamon far
                2127!20rn                                          8'
43    45-ELK                  W       FSL         wall by bay                                   640                    116
                (FOR)
                                                  doo,
                                                  Inside surface
                                                  of discarded     None
                2127!20rn
44    46-ELK                  W       FSL         duct opening     glYen                        219,000                21
                (FOR)
                                                  with air
                                                  d_,
                                                  Inside surface
                                                  of discarded     None
                2127!20rn
45    47-ELK                  W       FSL         duct opening     glYen                        120,000                28
                (FOR)
                                                  in hood with
                                                  air damper
                                                                               Whcre
                                                  Discarded
                2127!20rn                                          None        exhaust duct
46    48-ELK                  W       FSL         duct opening                                  32,400                 54
                (FOR)                                              glYen       le aves top of
                                                                               hood
                                                  Top surface of
                2127!20rn                                          2'
47    49-ELK                  W       FSL         1" pipe in                   In office 103    178                    14
                (FOR)
                                                  office
                                                                               Behind office
                2127!20rn                         Floor
48    50-ELK                  W       FSL                          0           door office      120                    9
                (FOR)
                                                                               103

                2127!20rn                         Ledge of                     Inmate cletk
49    51-ELK                  W       FSL                          3                            288                    28
                (FOR)                             window sill                  office area

                                                  Scraped from
                                                                                                                                       38
                2127!20rn                         floor amun:!
50    52-ELK                  B       FSL                          0                                         160,000
                (FOR)                             column 3 at
                                                  doo,
                              Sample                                                                         L"d                  Cad mium
                  Date &       Type
       Sample                            Building                    Elevation
Row                Who        W-Wipe                Surface! Item                 Descdption                   mg'kg
         #                    B- Bulk
                                          Name                         (feet)                     l-Ig/ft2             I-Ig/ft'        mg&g
                 Collected
                               Tell'
                                                    Topside of
                 2128/20r:n             Recycling   blade of fan     ~    18'
51     55-ELK                   W                                                                 10,100               2,350
                 i)'DH)                 Factory     inside exhaust
                                                    duct
52     57-ELK    ~~~Or:n        B
                                        Recycling
                                        Factory .
                                                    Top of return
                                                    air duct
                                                                     ~20'                                      3,600                   6,000
                                                    Top of return
                                                                                 Return air
                                                    air duct over    ~20'
                 2128/20r:n             Recycling                                duct in NE
53     58-ELK                   W                   material                                      30,800               12,800
                 i)'DH)                 Factory                                  comer of
                                                    disassembly
                                                                                 ,oom
                                                    ~~

                                                    Top of return
                                                    air duct over    ~20'
                 2128/20r:n             Recycling
54     59-ELK                   W                   shipment area                                 123,000              3,770
                 i)'DH)                 Factory
                                                    (near bay
                                                    door)
                                        Recycling
                 2128/20r:n                         Beam by          ~20'        Onplatfonn
55     6O-ELK                   W       Factory                                                   28,500               735
                 i)'DH)                             window                       above gb area
                                        ('000
                                                    In stone
                                                    (ballast)
                 2128/20r:n             Recycling   directly                     On SW comer
56     61-ELK                   B                                    Roof                                      8,800                   900
                 i)'DH)                 Factory     broe'"                       of exhaust fan
                                                    exhaust fan on
                                                    rogf
                                                                                 2" x 3" filter
                 2128/20r:n             Recycling   Filter           None        sectionHV5                                            140
57     62-ELK                   B                                                                              370
                 i)'DH)                 Factory                      gwen        south part of
                                                                                 Roof
                                                    Top of                       Onplatfonn
                 2128/20r:n             Recycling                    ~    18'
58     63-ELK                   W                   electrical                   on SW side of    12,400               173
                 i)'DH)                 Factory
                                                    inverter                     factory floor
                                                                                 Whcre
                                                    Louver on
                 2128/20r:n                                          ~    11"    fOlUltains
59     64 -ELK                  W       FSL         exterior of                                   64,000               21
                 i)'DH)                                                          were vented
                                                    building
                                                                                 to exterior
                                                    Inside duct
                                                    behind                       Where pots
                 2128/20r:n
60     65-ELK                   W       FSL         louvers on       5'          were vented      403,000              202
                 i)'DH)
                                                    exterior of                  to exterior
                                                    building




5.3       FOH Ambient Air, Particulate, Skin Wipe, and Other Exposure Monitoring

FOR followed-up bulk dust and surface wipe sampling with additional sampling in
December 2007 to determine whether the legacy contamination in the recycling area was
contributing to lead and cadmium exposures on the general factory floor and adjacent
work areas. Potential exposures from both the inhalation route and the ingestion route
(i.e., hand-to-mouth contact) were also evaluated. This sampling included:

      • 	 General area air sampling (lead and cadmium) in locations where legacy
          contamination had been previously found (Electronics Recycling Factory, FSL,
          and Warehouse);

      • 	 Personal breathing zone air sampling (lead and cadmium) of workers engaged in
          work activities (e.g., electronics disassembly, material handling, etc. and not glass
          breaking) on the general factory floors (Electronics Recycling Factory,
          Warehouse);

      • 	 Airborne particulate concentration monitoring using a real time, direct reading
          instrument; and
   • 	 Skin wipe sampling (lead and cadmium) of workers' hands involved in various
       electronics recycling activities.

Partial results from this follow-up investigation are summarized as follows and in Tables
4 and 5:

   • 	 All area air samples and personal exposure monitoring samples were well below
       PELs for lead and cadmium. Only one personal sample was above the LOD and
       it was approximately 100 times less than the PELs.

   • 	 Air monitoring for total dust using a real-time, direct reading instrument showed
       that no significant dust concentrations were being released to the general
       environment from the forced air ventilation systems (i.e., heating, ventilating, and
       air conditioning, (HVAC) systems) or the various operations and activities
       monitored.

   • 	 Area air and personal monitoring data showed that inhalation was not a significant
       route of exposure among workers performing normal duties on the general factory
       floors (recycling factory and warehouse) and FSL.

   • 	 Area air and personal monitoring data showed that routine recycling activities do
       not create an airborne exposure hazard by disturbing legacy contamination.

   • 	 Hand (skin) wipe samples collected during the work shift from inmates
       performing tasks in the warehouse and factory found that the highest levels of
       contamination were not excessively high and most were rather low. However, the
       results indicated that the hand-to-mouth route of exposure through ingestion could
       contribute to total exposure for at least some workers.
                                     Table 4 

                       Summary of Air Sampling Results, FOR 

Sample      Date        Building            Sample         Air      Sample     Lead     Cadmium
     #     Collected                   Information      Volume      Duration   Mg/m3      Mg/m3
                                        (Location;      Collected    (min.)
                                         activities       (L)
                                     performed, etc.)
(6          12110107   Warehouse    Various workers     435-489     146-240    AIIND    AlIND
samples)                            and areas

(7          12111/07      FSL       Area: Various       1067­       226-378    AIIND    AlIND
samples)                            areas               1145

(5          12112/07       E-       Personal: Various   727-927     244-309    0.0006   0.0001
samples)                recycling   workers                                    (One)    (One)
                         Factory                                               All      All others
                                                                               others   ND
                                                                               ND
(5          12112/07       E-       Area: Various       509-1190    168-385    AIIND    AlIND
samples)                recycling   areas
                         Factory

Notes:
    1. 	 Warehouse samples were collected during afternoon shift only (after lunch).
   2. 	 FSL samples collected during period of building vacancy-- no work was taking place due
         to halted operations; However, forced air ventilation was on (i.e., heated air was being
         provided to spaces via ceiling ductwork).
   3. 	 E-Recycling Factory samples were collected on a day when it was reported that 265
         CRTs were broken in the morning. CRT breaking was halted in the afternoon to allow
         for the NIOSH-requested clean-up. All samples ran during both morning and afternoon
         shifts, although the personal samples (only) were turned off far -1.5 hours while inmates
         went to lunch. Personal samples were left running during 15 minute breaks (morning and
         afternoon). Bay door were kept closed in the morning but were left open about 1/4 time
         in the afternoon.
   4. 	 Detection limits: 'NO' denotes 'None detected' or <0.2 flg Pb/sample (equivalent to
         0.0004 mg/m3 based on 500 liters of air sampled) and <0.04 flglsample Cd (equivalent to
         0.00008 mg/m3 based on 500 liters of air sampled).
                                        Table 5 

                            Elkton Hand Wipe Data Table, FOH 


Sample         Date
                         Sample Type     Building      Lead       Cadmium              Notes:
   #         Collected
                           H~Hand                       Ilg/         Ilg/
                            Wipe                    Both Hands   Both Hands
   2        1211012007       H          Warehouse        1.5          0.1          General duties
                                                                               throughout Warehouse
                                                                                   recycling areas
   3        1211012007        H         Warehouse       0.4           0.1          General duties
                                                                               throughout Warehouse
                                                                                   recycling areas
   4        1211012007        H         Warehouse       0.8           0.4          General duties
                                                                               throughout Warehouse
                                                                                   recycling areas
   5        12110/2007        H         Warehouse        1.8          0.0          General duties
                                                                               throughout Warehouse
                                                                                   recycling areas
   I        1211212007        H         Recycling       38.7          6.4      Breakdown area. Only
                                         Factory                                one work glove was
                                                                                 consistently worn.
   2        1211212007        H         Recycling       3.4           0.2      BreakdO\vn area. Two
                                         Factory                                gloves consistently
                                                                               worn (but occasionally
                                                                                     only one).
   3        1211212007        H         Recycling        1.5          0.1        Clerk station. No
                                         Factory                                    gloves worn.

   4        1211212007        H         Recycling       3.4           0.2       Gloves worn all day.
                                         Factory
   5        1211212007        H         Recycling       34.7         27.0      Breakdown area. Work
                                         Factory                                gloves worn most of
                                                                                 the day (but not all
                                                                                        dav).

Notes:
       1. 	 Hand (skin) wipe samples were collected from selected inmates working in the E­
            Recycling Factory and the Warehouse (the FSL was unoccupied since work operations
            had been halted -July 2007).
       2. 	 Sampling was conducted for both right and left hands individually, but only the total
            results for both hands are provided in this table.


5.4 	     NIOSHIDSHEFS/HETAB Medical Surveillance Assessment and Industrial
          Hygiene Survey

After receiving preliminary findings ofNrOSH/DART and FOH, as well as the results of
an interim report on exposure monitoring and surface contamination levels at FCr Elkton
(see Sections 5.1 and 5.2), the orG requested that NrOSH's Division of Hazard
Evaluations and Field Studies/Hazard Evaluations and Technical Assistance Branch
(DSHEFS/HETAB) conduct an assessment ofFCr Elkton's medical surveillance
program. In February and March 2007, NIOSHIDSHEFS/HETAB conducted site visits
to assess FCI Elkton' s medical surveillance program for staff and inmates exposed to
lead and cadmium during electronics recycling. As part ofthis assessment,
NIOSH/DSHEFS/HETAB conducted an industrial hygiene survey to further evaluate the
extent of migration oflead and cadmium containing dusts, which included collecting
evidence of any "take-home" contamination to inmate housing and privately owned staff
vehicles. This information complements the body of industrial hygiene data collected
previously by FOH and NIOSH/DART. Results for the medical surveillance assessment
and industrial hygiene survey are summarized below and detailed in the
NIOSH/DSHEFS/HETAB report (see Attachment 3).

5.4.1   NIOSHIDSHEFS/HETAB Medical Surveillance Assessment Results

FCI Elkton and UNICOR did not provide occupational medical surveillance for UNICOR
personnel and inmates between 1997 and March 2003. Occupational medical
surveillance started in March 2003 for inmates performing glass breaking and
disassembly and for staff. This was immediately prior to the installation ofthe glass
breaking room. A summary ofNIOSH/DSHEFS/HETAB assessment results follows:

   • 	 FCI Elkton' s occupational medical surveillance is performed annually and
       includes limited biological monitoring but no physical examination. This is not
       consistent with the OSHA lead and cadmium standards.

   • 	 FCI Elkton performs biological monitoring for various staff and inmates. 

       Determination of who receives monitoring does not appear to be based on 

       exposure results. 


   • 	 Biological monitoring consists of blood lead levels (BLL), blood cadmium (CdB),
       urine cadmium (CdU), and urine beta-2-microglobulin (B-2-M). Not all inmates
       involved in glass breaking and disassembly received all ofthese tests. In
       addition, some inmates had other tests, none of which seem to have been based
       upon work exposures or indicated by work history.

   • 	 Recordkeeping and employee notification of results is not consistent with 

       requirements ofthe OSHA lead and cadmium standards. 


   • 	 Although start dates were not available for all inmates working in the glass
       breaking room, it does not appear that any inmate had biological monitoring
       performed pre-placement, as required by OSHA. Inmates in the glass breaking
       room have been shown to have exposures above the action levels for lead and
       cadmium; therefore, pre-placement biological monitoring is needed, especially for
       cadmium.

   • 	 In general BLLs for inmates working in the glass breaking area declined over
       time (2003 - 2007). Mean BLLs declined progressively from 5.6 /lgidL in 2003
       to 1.7 /lg/dL in 2007. The March and April 2003 results may reflect lead
   exposures prior to installation ofthe glass breaking room, but do not reflect
   exposures prior to the installation of the "saw dust ventilation system" in 2001
   and the use of some type of respiratory protection also in 2001. See Table 6.

                             Table 6 

    Blood Lead Levels ofInmates Doing Glass Breaking, By Year 

            Federal Bureau of Prisons, Fer Elkton, OR 


 Year            MeanBLL           MedianBLL              Range            Number
                  (flg/dL)          (flg/dL)             (flg/dL)          sampled
 2003                5.6               4.5                  3-9               7
 2004                3.7               3.0                  2-7               7
 2005                3.7               3.9                 2-10               12
 2006                2.3               2.0                  1-5               13
 2007                1.7               1.5                  1-4               10


• 	 CdB, CdU, and B-2-M results for inmates working in the glass breaking area were
    relatively low and were well below the levels that would trigger the requirement
    for a full medical examination or medical removal. Of 50 CdB tests, 27 were
    below the limit of detection (LOD) and the others ranged from 0.5 - 1.2 /lgiL. Of
    28 CdU measurements, 23 were below the LOD, with the remainder from 0.5 ­
    1.0 /lglglCr. June 2003 results for CdB reflect cadmium exposures prior to the
    installation ofthe glass breaking room, but do not reflect exposures prior to the
    installation ofthe saw dust ventilation system in 2001 and the use of some type of
    respiratory protection also in 2001.

• 	 An inmate performing cleaning and filter change-outs in the glass breaking room
    from 2003 - 2007 had BLLs with a progressive decline over time (10 - 4 /lg/dL).
    CdB and CdU levels were relatively low and undetectable, respectively.

• 	 One staff member showed a BLL at 10 /lgldL, which was one ofthe higher levels
    measured, but still well below OSHA medical removal criteria. In addition, the
    cadmium indicator, B-2-M, was elevated during the same monitoring episode.
    All biological monitoring results for the same staff member that were taken both
    before and after this single episode were low. The data from the single sample set
    is, therefore, inconclusive and unconfirmed. Laboratory error can not be ruled
    out.

• 	 Because UNrCOR only started biological monitoring in 2003, more than five
    years after recycling operations commenced at FCr Elkton, results from that blood
    lead and blood cadmium monitoring cannot be used to determine lead or cadmium
    exposures from early e-waste recycling activities (e.g., prior to the installation of
    the "saw dust ventilation system" and some form of respiratory protection in
    2001). The retention ofthese metals in blood is too short to draw any such
       conclusions (i.e., 1 - 2 month half-life for lead and 100 days for the first cadmium
       half-life, after which halflifes grow longer]. Cadmium urine measurements do
       integrate exposure over time because the half-life of cadmium in urine is years to
       decades. However, only one ofthe inmates monitored worked in glass breaking
       operations prior to May 2001 and his CdU was less than 1 /lg/L. (See the Results
       and Discussion Section and the Appendix in the NIOSH/DSHEFS/HETAB report,
       Attachment 3, for further information on half-lifes and health effects associated
       with lead and cadmium exposure).

   • 	 Biological monitoring results for staff and inmates not involved in glass breaking
       and for staff are detailed in the NIOSH/DSHEFS/HETAB report. Review of
       these results, records, and current operations indicates that medical surveillance
       can be discontinued for inmates who do not perform glass breaking, as well as
       staff. Some former inmates and! or staff may require surveillance under the
       OSHA cadmium standard.

The highest annual mean BLL for inmates doing glass breaking was measured at 5.6
/lgidL in 2003. These biological monitoring results indicate some bodily uptake oflead.
These BLLs are well below levels that would warrant medical removal protection under
the OSHA standard, however, subclinical adverse health effects at BLLs of <10 /lgidL
have been reported in the literature (see Attachment 3). The BLLs have generally
declined over time from 2003 - 2007, indicating that exposures have likely similarly
decreased. The blood and urine cadmium results from 2003 - 2007 were well below
levels that would warrant medical removal protection under the OSHA standard. No
biological monitoring results were available for inmates doing glass breaking from 1997
- 2003, when exposures were likely higher. The NIOSH/DSHEFS/HETAB report
provides an Appendix with detailed information on lead and cadmium occupational
exposure limits and health effects (see Attachment 3).

In summary, UNICOR's and the BOP' s medical surveillance at FCI Elkton has not
complied with OSHA standards in the past and is not currently in compliance (see
Section 6.2.2 for details). At present, only inmates performing glass breaking have the
potential for exposure above the lead and cadmium action levels, and these inmates
require continued and compliant medical surveillance. Biological monitoring records
indicate that glass breaking operations prior to the installation ofthe glass breaking booth
produced exposures at greater levels than current operations. However, blood lead has a
relatively short half-life, therefore, exposure levels much before than March 2003 cannot
be estimated.

An appendix entitled "Occupational Exposure Limits and Health Effects" is included in
the NIOSHIDSHEFS/HETAB's report and provides additional information regarding
health effects related to exposures, half-life of biological levels, background levels,
contributing life style contributions to exposure such as smoking, and other factors.
5.4.2 	 NIOSHIDSHEFS/HETAB Industrial Hygiene Survey and Records Review
        Results

NIOSH/DSHEFS/HETAB reviewed records from past consultant reports and monitoring
studies. [Note: Exposure monitoring conducted by consultants after installation ofthe
glass breaking room in 2003 is considered to be reflective of current exposure potential.]
In addition, NIOSHIDSHEFS/HETAB performed surface wipe, dust, skin wipe, and area
air sampling to determine the migration of contamination from existing operations to
adj acent and living areas. Results are summarized below and detailed in the
NIOSH/DSHEFS/HETAB report (see Attachment 3).

   • 	 Laboratory reports from 2001 and 2003 sampling episodes were so incomplete
       that they are of little if any value to indicate employee exposures during these
       periods.

   • 	 Consultant reports from 2004 showed that personal breathing zone samples
       collected on June 2 for three glass breakers and one feeder as well as four area
       samples were below the action level for lead and cadmium. Breathing zone
       samples collected on June 18 were reported as "no overexposure;" however,
       results in the sample summary sheet showed that a breathing zone cadmium
                                                                 3
       exposure for one ofthree glass breakers was at 7.99 /lglm for the 283 minute
       sampling duration. When calculated as an 8-hour TWA, the result was 4.7 /lglm 3 ,
       slightly below the OSHA PEL of 5 /lglm 3 . A cadmium area sample was also
                           3
       measured at 5 /lg/m The report did not indicate that the action level of2.5
             3
       /lglm was exceeded and did not indicate if further exposure during the shift could
       have occurred that would have added to the measured exposure and resulted in
       exposure above the cadmium PEL. This report also had other deficiencies.

   • 	 An OSHA inspection conducted in 2005 found cadmium exposure to be above the
       action level and PEL for one glass breaker and the lead exposure to be above the
       action level but below the PEL (see Section 5.5, below for further information on
       this OSHA inspection).

   • 	 Consultant reports from 2006 and 2007 varied in their quality and usefulness. For
       instance, some reports from 2006 showed that cadmium action levels and/or PELs
       were exceeded, but did not provide guidance or information on actions or
       requirements that these levels trigger under the OSHA standards. In addition,
       workers identified as "handlers" or "floor workers" who worked in the glass
       breaking booth often had higher exposures than glass breakers. The reports
       provided no discussion ofthe cause for this, did not recommend corrective
       actions, and did not document respiratory protection measures. In contrast, a
       2007 report, showed cadmium exposure in the glass breaking room to be above
       the action level and nearly above the PEL. The report contained numerous
       recommendations to repair and maintain the LEV and improve work practices and
       PPE. A later 2007 report showed that exposures were then below action levels
       and PELs.
   •	    In combination, the exposure monitoring results from consultant monitoring
        episodes showed that glass breaking conducted in the glass breaking room has the
        potential to exceed the OSHA action levels and/or PELs for lead and/or cadmium
        at times. Some exposures are below these levels, while, at times, exposures
        approach or exceed these levels. (See the NIOSH/DSHEFS/HETAB report,
        Attachment 3, for further details on personal exposure, wipe, and surface samples
        collected by consultants since 2001).

   • 	 Surface wipe and bulk dust samples were collected by NIOSH/DSHEFS/HETAB
       in various locations, such as HVAC systems and components, air handlers,
       ledges, and roofs. These data are consistent with the FOH data discussed in
       Section 5.2. This contamination is most likely associated with glass breaking and
       chip recovery practices prior to the implementation of the glass breaking room
       and other engineering controls.

   • 	 Hand wipe samples collected after hand washing by inmates showed lead
       contamination ranging from 1.5 to 130 /lg/wipe. These data demonstrate the need
       for improvements in hand washing.

   • 	 Some lead and cadmium was found on the floor of inmate cubicles where shoes
       are kept and on the soles of shoes, which indicates that some lead and cadmium is
       being tracked out of the glass breaking room.

   • 	 Lead and cadmium contamination in two staff personal vehicles was generally
       below the limits of detection; however, some lead contamination was detected on
       one steering wheel. This indicates a potential for take-home contamination, but
       the concentration is minimal.

   • 	 Area air samples collected at locations outside of the glass breaking room were
       found to be at low, trace, or undetectable levels for lead and cadmium. This is
       consistent with FOH results discussed in Section 5.3.

Based on prior exposure monitoring performed by consultants at FCI Elkton,
NIOSH/DSHEFS/HETAB found that current glass breaking operations have the potential
to exceed the OSHA lead and cadmium action levels and possibly PELs at times.
However, UNICOR's use of respiratory protection for routine glass breaking at FCI
Elkton is sufficient to protect against the excursions above the PEL. OSHA requires
UNICOR to implement or improve engineering controls and work practices to maintain
exposures below the PEL and also requires that UNICOR provide (to workers) a
description ofthe corrective action to be taken.

NIOSH/DSHEFS/HETAB further determined that the exposure monitoring performed by
the BOP's consultants has varied in quality. While more recent reports have improved,
other reports have not adequately presented and described results and have not
recommended corrective actions when action levels or PELs have been exceeded.
NIOSH/DSHEFS/HETAB also noted that contamination of inmate housing and staff
vehicles occurs, but is minimal. Hand washing practices should be improved.

5.5      OSHA Inspection

In the year prior to and separate from the initiation of the DOJ/OIG investigation,
OSHA' s Cleveland Area Office conducted on-site inspections ofFCI Elkton's recycling
facilities between August and November 2005 (see Attachment 4). One of two samples
taken for glass breakers showed lead exposure above the action level and cadmium
exposure above both the action level and PEL. OSHA issued a citation to FCI Elkton in
December 2005 identifying the cadmium overexposure and lack of adequate engineering
and work practice controls to reduce and maintain the exposure at or below the PEL.

FCI Elkton provided a response to the citation in February 2006 stating that the inmate
glass breaker had used inappropriate practices by pushing plastic barriers aside during the
OSHA monitoring. FCI Elkton also stated the glass breakers were given additional and
documented training to ensure that engineering controls are in place and used
appropriately. In addition, FCI Elkton stated that some additional adjustments to work
practices and engineering controls were implemented.

After receiving the response, OSHA closed its file and stated that no further action was
anticipated at that time, while leaving open the possibility of a follow-up inspection.

5.6      U.S. EPA Region 5 Multi-Media Environmental Compliance Inspection

At the request ofDOJ OIG, U.S. EPA Region 5 conducted a Multimedia Inspection at
FCI Elkton on December 10 - 13, 2007 (see Attachment 5). The specific objective of the
investigation was to determine compliance with:

      • 	 NPDES Permit requirements under the Clean Water Act;

      • 	 Air Pollution Control regulations under the Clean Air Act (CAA) and the 

          Federally approved portions ofthe Ohio's State Implementation Plan; and 


      • 	 Hazardous waste management regulations under the Resource Conservation and
          Recovery Act (RCRA) and Rules adopted under the State of Ohio's hazardous
          waste program.

U.S. EPA's inspection and sampling results from wastewater and storm water sources are
summarized as follows:

      • 	 Wastewater samples from mopping of floor and equipment surfaces inside the
          glass breaking booth revealed high concentrations of total lead (14.0 - 33.1 mg/l),
          total cadmium (1.30 - 2.43 mg/l), and total zinc (17.7 - 40.3 mg/l). When
          analyzed for Toxic Characteristic Leaching Procedure (TCLP) metals, the
       samples indicate that lead and cadmium are below detection levels, and all metals
       are below RCRA regulatory levels.

   • 	 Electronic waste materials stored outdoors near the warehouse building can create
       storm water discharges associated with industrial activity. The storm water
       generated in this area may require UNICOR or FCI Elkton to apply to Ohio EPA
       for a NPDES permit or a "no exposure permit exemption." No permit has been
       applied for nor has one been issued.

U.S. EPA inspection results regarding air emissions under the Clean Air Act include:

   • 	 UNICOR was not able to demonstrate notification to authorities of past or present
       air emission sources. Permits for air emission sources are not currently in place
       and have not been in place for past operations. Exemptions from permits have not
       been demonstrated.

   • 	 A UNICORresponse to U.S. EPA's Clean Air Act 114 request may be inaccurate.

U.S. EPA RCRA inspection results are summarized as follows:

   • 	 The trailer where boxes of waste filters from the glass breaking booth were being
       stored was observed to be leaking. Rain water and snow melt water were found in
       the trailer during the inspection. The filters have been tested by UNICOR and the
       TCLP value is above the RCRA regulatory level for lead.

   • 	 Wastewater being generated at the glass breaking booth by mopping operations
       indicated that the TCLP metals results were below the RCRA regulatory limit for
       lead and cadmium.

   • 	 Currently UNICOR is using a RCRA ID number issued to FCI Elkton to ship
       hazardous waste off-site. Since UNICOR operates as a separate agency, it may
       need its own RCRA ID, if required for waste shipments based upon its generator
       status.

   • 	 Wastes generated at FCI Elkton may need to be characterized. Under both federal
       and state law, all wastes generated in Ohio must be evaluated to determine if it is
       a hazardous waste.

   • 	 BOP personnel were unable to detail how used fluorescent light bulbs are being
       disposed or who has responsibility for the fluorescent light bulbs at the site.

   • 	 The manifests used to ship waste glass booth filters from UNICOR to a disposal
       site in Michigan were reviewed. All ofthe manifests included a RCRA ID
       number that was incorrect.

Overall, U.S. EPA's inspection determined that FCI Elkton had not adequately evaluated
its wastewater, air emissions, and hazardous waste streams for compliance with
applicable environmental standards, and that the BOP and UNICOR may need to better
coordinate their environmental control efforts.

In 2008 subsequent to the U.S. EPA inspection, the BOP provided the orG with a
description of the actions it intends to take to correct the deficiencies identified during
U.S. EPA's investigation.

6.0       REGULATORY COMPLIANCE EVALUATION

This Section provides an analysis of exposure results and an evaluation of compliance
status with various OSHA and EPA regulations for FCI Elkton's e-waste equipment
recycling operations. This evaluation is largely based on the status of operations as
reviewed by the various federal agencies assisting the OIG, including FOH,
NIOSHIDART, NIOSHIDSHEFS/HETAB, OSHA, and U.S. EPA Region 5 during
calendar years 2007 and 2008. This evaluation primarily addresses current recycling
conditions at FCI Elkton. Because the OIG's investigation is ongoing, this assessment is
not final.

Exposure results and/or compliance status are discussed for the following hazards,
standards, and regulations

      •   Occupational Exposure to Lead and Cadmium;

      •   OSHA Lead and Cadmium Standards;

      •   Occupational Exposure to Air Contaminants other than Lead and Cadmium;

      •   OSHA General Duty Clause;

      •   Other OSHA Standards;

      •   Basic Program Elements for Federal Employees; and

      •   Water, Air, and Hazardous Waste Regulations.

6.1       Analysis of Occupational Exposure to Lead and Cadmium

Occupational exposures to lead and cadmium are evaluated in this section for current
UNICOR recycling operations at FCI Elkton. Glass breaking operations that have been
conducted utilizing the existing, enclosed glass breaking room and LEV system are
considered to be representative of current operations. Therefore, exposures are evaluated
from early 2003 (date of glass breaking room implementation) through the 2007/2008
period when the field activities associated with the OIG investigation were conducted.
The analysis of exposure is presented in two subsections below:

   • 	 Section 6.1.1 analyzes exposures for current practices that results from releases of
       lead and cadmium during glass breaking and associated activities; and

   • 	 Section 6.1.2 analyzes the contribution (if any) of legacy lead and cadmium
       surface and building system contamination to current exposures.

Exposures from past operations prior to early 2003 are not evaluated in this report. The
OIG' s final report will address this issue.

6.1.1   Lead and Cadmium Exposures and Controls for Current Practices

The analysis of potential occupational exposures to lead and cadmium for FCI Elkton' s
current recycling operations is discussed by specific operation or activity. This exposure
analysis is broken down and presented as follows:

   • 	 Glass breaking in the glass breaking room, conducted daily: This operation is
       expected to have the highest exposure potential to lead and cadmium for a routine
       operation.

   • 	 Glass breaking room cleaning activity conducted weekly: Performed in the glass
       breaking room, this activity also has the potential for exposure to lead and
       cadmium above the action levels and/or PELs.

   • 	 LEV HEP A filter change-out activity conducted monthly: This non-routine
       maintenance activity includes cleaning the LEV filters where accumulations of
       lead and cadmium contamination are collected. Exposure potential at levels well
       above the lead and cadmium PELs exists for this activity.

   • 	 Routine activities in other recycling areas that are conducted daily, but where
       glass breaking is not performed: Routine support and demanufacturing activities
       such as sorting, material and equipment handling disassembly, and material
       staging do not involve significant disruption of electronic components, therefore,
       release of contamination and resultant exposures would be expected to be
       relatively low.

A discussion of exposures for each of the above operations and activities follows.

6.1.1.1 Glass Breaking Area

With respect to routine, daily operations and activities, the CRT glass breaking operations
conducted in the enclosed glass breaking room have the greatest potential to generate
exposures to lead and cadmium. The enclosed glass breaking room and LEV system
were implemented starting in April 2003. NIOSH/DSHEFS/HETAB evaluated available
reports for exposure monitoring in the glass breaking area since 2001 (see Section 5.4.2
and Attachment 3). The results are presented below. The 2001 results are not listed, due
to incompleteness and because they do not reflect current exposure conditions.

   • 	 2003: A FCr Elkton consultant report contained insufficient information to
       conclusively determine exposure. For instance, sampling times and flow rates
       were omitted. NrOSH/DSHEFS/HETAB concluded that exposures could have
       been above or below the PELs, depending on sampling times, sampling rates, and
       other factors.

   • 	 2004: One FCr consultant report showed exposures below the action levels, while
       a second report showed some cadmium exposures to be at the PEL.

   • 	 2005: OSHA Cleveland Area Office measured exposures and issued a citation for
       cadmium exposure above the PEL. Lead exposure was above the action level for
       one oftwo samples.

   • 	 2006: Ofthree FCr Elkton consultant reports, two showed cadmium exposures
       below the action level and one showed cadmium exposure above the action level
       and/or above the PEL.

   • 	 2007: FCr Elkton consultant reports showed some cadmium exposures to be
       either approaching or above the action level, but below the PELs.

   • 	 2007: NrOSH/DART found that exposures were below the action levels as
       TWAs during routine activities.

These exposure monitoring results indicate that even with the current glass breaking
room and LEV system, lead and particularly cadmium exposures during routine glass
breaking have the potential to exceed the action levels and/or possibly PELs, when the
use of respiratory protection is not considered. UNrCOR provides and requires hooded
powered air purifying respirators (P APRs) in the glass breaking room. These respirators
have a protection factor of25. These respirators are capable of protecting against all of
the exposure excursions above the PEL that were reviewed between 2003 and 2007.

OSHA, however, requires that lead and cadmium exposures for routine operations be
controlled and maintained below the PELs through the use of engineering controls (i.e.,
the LEV system) and work practices. Therefore, implementation of improvements in FCr
Elkton's engineering controls and/or work practice controls are required. See Section
8.0, Recommendations.

All lead and cadmium exposures determined in 2007 by FCr Elkton consultants and
NrOSH/DART were less than the PELs during routine activities. This represents a
notable improvement over past years, but additional monitoring episodes are necessary to
determine conclusively whether this is a consistent condition that is maintained over
time.
The NrOSH/DART exposure monitoring conducted in 2007 represents the most
extensive set of data generated. Exposures as determined by NrOSH/DART for routine
glass breaking were below the OSHA PELs and action levels. During glass breaking, the
highest exposures measured by NrOSHIDART were 36% of the PEL for lead and 20% of
the PEL for cadmium (assuming equivalent exposure over a ful18-hour work shift).
These exposures are somewhat lower (and below the action levels) as TWAs because less
than an 8-hour shift was worked. These results indicate that lead and cadmium exposures
are fairly well controlled through use ofthe LEV system (an engineering control). Work
practices, housekeeping, personal protective equipment, and respiratory protection are
additional and necessary controls implemented by FCr Elkton to mitigate exposure.

Although NrOSHIDART results showed lead and cadmium exposures below the PELs,
exposures were significant enough to indicate that without the use of the LEV system, it
is likely that exposures would exceed the PELs. This is supported by past FCr Elkton
and OSHA monitoring results. In addition, although effective, it is clear that the LEV
system is not fully efficient in capturing lead and cadmium dusts or in preventing dusts
from entering the breathing zone of workers. LEV smoke tests conducted by
NrOSH/DART and glass breaking room surface contamination support this conclusion.
FCr Elkton' s use of the other control measures, therefore, is important to ensure worker
protection.

Exposures measured during the NrOSH/DART investigation represent only the
conditions at the time ofthis monitoring. Consistency of exposures over time cannot be
estimated based on the NrOSH/DART monitoring alone, but past exposure results from
FCr Elkton consultants and OSHA indicate variable exposure potential with excursions
above the PEL. Exposures could vary based on quantity of materials processed, pace of
work, consistency of work practices, efficiency of housekeeping practices, maintenance
status ofthe LEV system, types ofCRTs processed, variations in CRT compositions over
time, and certain human factors such as body position and degree of care.

The exposures measured and the potential for variable exposures point to the importance
of generating exposure monitoring data over time to ensure that exposures are
consistently controlled and maintained below the PELs. It is important for FCr Elkton to
implement a regular exposure monitoring program for glass breaking operations. rf
exposures are demonstrated to be consistently below PELs and action levels, then the
frequency of monitoring could be decreased. See Section 6.2.1 for details on
requirements for an exposure monitoring program.

6.1.1.2 Weekly Glass Breaking Room Cleaning Activity

Cadmium exposure for a weekly glass breaking room cleaning activity assessed in March
2007 was as high as 23 /lglm 3 for a 79 minute sample. This calculates to an 8-hour time
weighted average (TWA) exposure of 3.8 /lglm 3 assuming no additional exposure
occurred for the work shift (this is likely because all glass breaking is suspended on the
clean-up day). This exposure is above the action level of2.5 /lglm 3 and is 76% of the
PEL of 5 /lglm 3 . Respiratory protection was worn during this activity and had an
appropriate protection factor to control the exposure up to 25 times the PEL.

With the exposures up to 76% of the PEL, the potential for exposure above the PEL, at
times, cannot be ruled out. Any variation in work practice, clean-up technique, or clean­
up duration, could impact exposure levels. UNICOR should conduct additional exposure
monitoring ofthis activity. Any lead or cadmium exposure above the PEL for more than
30 days per year should be controlled using engineering and work practice controls,
regardless of respiratory protection.

6.1.1.3 LEV HEPA Filter Change-out Activity

In March 2007, NIOSH/DART observed a non-routine maintenance activity involving
the change-out of HEPA filters from the LEV system. Exposure monitoring was
conducted for the activity (see Attachment 1). Exposures were far above the action levels
and PELs for both lead and cadmium. Time weighted average (TWA) exposures were in
the range of one to over two orders of magnitude higher than the PELs (see Section 5.1).
Although respirators were used, they did not have adequate protection factors to properly
protect workers against exposure.

Based on these results, work practices were modified to include wetting the filter prior to
change-out, as well as other improvements. NIOSH conducted follow-up monitoring of
the activity in December 2007. Monitoring results for the revised activity showed
dramatic reduction of the lead and cadmium exposures. Lead exposure was reduced to
well below the PEL. One personal cadmium exposure result was still somewhat above
                                       3                           3
the PEL as an 8-hour TWA (6.1 /lglm versus the PEL of 5.0 /lg/m ) Another cadmium
result was above the action level but below the PEL. The respiratory protection used was
adequate to control these levels of exposure, including even the cadmium exposure that
exceeded the PEL.

Engineering, work practice, and! or administrative controls are the primary and preferred
means that should be used to control lead and cadmium exposures. UNICOR should
attempt further refinements and improvements in work practices or engineering controls
at FCI Elkton to reduce cadmium to below the PEL, regardless of respiratory protection.
However, because this activity is not conducted for more than 30 days per year, OSHA
standards allow for the use of respiratory protection to control any incremental exposures
above the PEL should additional engineering and work practice controls not be feasible
to implement for this non-routine maintenance activity.

Future exposure monitoring ofthe filter change-out activity is essential to ensure that
controls remain effective and continue to limit or further reduce exposures. UNICOR
should conduct exposure monitoring every time this activity is conducted until it is
satisfied and can conclusively demonstrate that work practices and controls are
consistently effective.
Several points can be taken away from this filter change-out experience:

   • 	 Initial exposures were unacceptably high. However the response action to bring
       exposures within levels to ensure worker protection was highly successful.

   • 	 The approach of exposure monitoring followed by implementation of additional
       control actions, as warranted, should be applied on an on-going basis, especially
       for non-routine or new activities, or when changes in work processes occur. This
       approach is consistent with OSHA standards.

   • 	 Non-routine activities often pose different hazards or different degrees of hazards
       than routine operations. Work for these non-routine activities should be planned
       in a manner that anticipates hazards and potential exposures. Controls should
       then be specified and implemented prior to beginning work. Monitoring should
       be used to verify the adequacy of controls. Future control modifications should
       be made, if warranted (i.e., either strengthening or relaxing of control measures
       based on results). When process changes occur, a similar approach should be
       taken.

   • 	 Exposure monitoring is fundamental to a successful lead and cadmium control
       program. It is reasonable to assume that without the FOHINIOSH investigation
       and exposure monitoring, FCI Elkton would not be aware that exposures were
       extremely high, and corrective work practices would not have been implemented.
       The high exposures would likely still be occurring.

   • 	 UNICOR officials stated that, although not adequate, a procedure was in place for
       this activity that specified gentle handling ofthe filters, that training was provided
       in the procedure, and that workers did not properly follow the procedure during
       the March 2, 2007 monitoring episode. However, FOH notes that proper
       supervision and oversight for hazardous, non-routine activities are essential to
       ensure safe work practices, and apparently UNICOR staff did not effectively
       conduct oversight and supervision and did not enforce the use of proper work
       practices during the initial filter change-out monitored by NIOSHIDART.

Based on the results of the December 2007 filter change-out results, FCI Elkton's current
approach to this activity is effective in protecting workers against exposure to lead and
cadmium. Because past exposures for this activity were excessive, confirmation ofthe
current more controlled exposures is necessary by conducting exposure monitoring
during future filter change-out activities. Additional improvements in controls to reduce
cadmium exposure should also be implemented.

6.1.1.4 Other Fer Elkton Recycling Areas

Lead and cadmium exposures were measured in other areas ofthe FCI Elkton recycling
facilities including the FSL Building and the Warehouse.
    • 	 In the FSL buildin~, cadmium exposure ranged from 0.1 to 0.5 /lg/m , and lead
                                                                               3

        was below 1 /lg!m .

    • 	 In the Warehouse cadmium ranged from <0.1 to 0.4 /lg!m 3, and lead was at or
        below the limit of detection (LOD).
                                                  3                                3
When compared to the cadmium PEL of 5 /lg!m and the lead PEL of 50 /lg!m , it is
apparent that these exposures were uuremarkable.


6.1.2 	 Evaluation of Current Exposure Potential from Legacy Lead and Cadmium
        Surface Contamination

Bulk dust and surface wipe samples collected by FOH in early 2007 showed that
significant lead and cadmium contamination is present on various building surfaces
including walls, floors, inner and outer surfaces of ductwork, and equipment (see
Attachment 2). This contamination is widely distributed throughout various FCI Elkton
recycling areas and associated facilities. The source of much ofthe contamination is
legacy glass breaking and chip removal/de-soldering activities that in past years produced
uncontrolled or poorly controlled emissions oflead and cadmium dusts and fumes.
Section 5.0 summarizes these results.

FOH followed-up bulk dust and surface wipe sampling with additional sampling in
December 2007 to determine whether this legacy contamination is currently contributing
to significant lead and cadmium exposures on the general factory floor and adj acent work
areas. Potential exposures from both the inhalation route and the ingestion route (i.e.,
hand-to-mouth contact) were evaluated. These data provide information to evaluate
whether staff and inmates have a potential risk of exposure from existing contamination
that remains from legacy activities.

As noted in Section 5.1, particle sizes of surface dusts are small and are of the size to be
distributed for some distances and remain airborne for relatively long periods of time.
Therefore, should these dusts be disturbed and re-suspended into the air, potential exists
for personal exposure in work areas.

FOH found that no significant dust concentrations were being released to the general
environment from the forced air ventilation (i.e., HVAC) systems or the various
operations and activities monitored. Lead and cadmium dust inhalation was not a
significant route of exposure among workers performing normal duties on the general
factory floors (recycling factory and warehouse) and FSL. The ingestion route of
exposure from hand-to-mouth contact could contribute to total exposure for some
workers; however, measures such as regular hand washing would be effective in
mitigating this potential exposure route.

Normal activities do not create an airborne exposure hazard by disturbing legacy
contamination. However, non-routine activities that may dislodge legacy surface
contamination and create airborne releases should be avoided, unless appropriate control
measures are applied that contain any potential releases. FOH did not conduct
monitoring of non-routine activities.

Even though the legacy contamination was shown not to be an immediate risk to staff and
inmates performing routine activities on the factory floors, disturbances of existing bulk
and surface dust have the potential to create airborne releases and inhalation hazards, as
well as skin contact and ingestion hazards. Clean-up of this legacy contamination is the
ultimate solution that will result in eliminating the lead and cadmium contamination from
past practices. Planning is underway for facility decontamination, which according to the
BOP will commence in October 2008.

Based on the FOH sampling results, continued occupancy and the performance of normal
work activities under current UNICOR controls and work practices do not present a
significant exposure hazard to lead and cadmium. FCI Elkton should implement
measures to ensure continued control oflegacy contamination and should specifically
control any non-routine activities that could disturb legacy contamination, pending
completion of decontamination activities. The FOH report in Attachment 2 contains
guidance for the implementation of an operations and maintenance (O&M) plan designed
to control exposure to legacy contamination prior to the ultimate clean-up of this
contamination.

6.2     Compliance with the Lead and Cadmium Standards

Exposure monitoring data, bulk dust and surface wipe sampling data, MSDSs, other
information sheets, and industrial hygiene literature clearly indicate the importance and
necessity to implement and comply with the OSHA lead and cadmium standards.
Important elements ofthese standards along with UNICOR's compliance status are
discussed below. Elements included in this discussion are not intended to be all-inclusive
ofthe standards' requirements. These issues will be discussed more fully in the OIG's
final investigative report.

The OSHA lead and cadmium standards, 29 CFR 1910.1025, Lead and 29
CFR.19I0.I027, Cadmium, are similar in their requirements. Exposure limits vary, but
the essence of requirements for evaluating and controlling hazards are similar.

6.2.1   Exposure Monitoring

Exposure monitoring is required under the lead and cadmium standards. "Initial"
monitoring is required for any workplace or operation covered by the standard to
determine if exposures are at or above the action level or PEL. Depending on results and
consistency of operations, quarterly, semi-annual, additional, and/or periodic monitoring
may be required.

Employees monitored and all employees with representative exposures must be notified
of monitoring results. If exposures exceed the PEL (without regard to respiratory
protection) then the notification must include a statement describing actions to be taken
to reduce the exposure to below the PEL.

Although some monitoring has been performed by FCI Elkton consultants, UNICOR has
not performed exposure monitoring consistent with the standards' requirements 6 Several
deficiencies are noted as follows:

    • 	 The OSHA standards require that an "initial" monitoring be conducted to
        determine if exposures are above the action levels or PELs. "Additional"
        monitoring is also required when there is a production, process, or control change
        that could affect exposure. UNICOR did not conduct initial monitoring ofFCI
        Elkton' factory operations when recycling began in 1997. UNICOR conducted a
        monitoring episode in 2001 and another in 2003 that could be considered as either
        "initial" monitoring or "additional" monitoring based on a process and control
        change in June 2003 shortly after the implementation of the glass breaking room
        and LEV system. NIOSH/DSHEFS/HETAB reviewed these results. These
        reports were so incomplete that NIOSH/DSHEFS/HETAB could not conclusively
        determine exposures from the reports (see Section 5.4.2 and Attachment 3).
        Based on necessary assumptions made by NIOSH/DSHEFS/HETAB, exposure
        measured in 2003 could have been above or below the PELs. Based on the
        quality of this report, FCI Elkton could not have determined the actual exposure
        and could not have implemented corrective actions, if warranted.

    • 	 The OSHA standards require that if PELs are exceeded based on initial,
        additional, or other monitoring, then monitoring shall be repeated on a quarterly
        basis, until two consecutive monitoring episodes show exposures to be below the
        PELs. If quarterly monitoring shows exposures to be reduced to below the PEL
        but above the action levels, then monitoring can be reduced to a frequency of
        every six months. If quarterly monitoring shows exposures to be below the action
        levels for two consecutive episodes, then monitoring can be discontinued, unless
        "additional" monitoring is required based on process or other changes. FCI
        Elkton or OSHA monitoring conducted in 2004,2005,2006, and 2007 showed
        exposures to be at or above the action levels and/or PELs for lead and/or
        cadmium. However, FCI Elkton did not follow up these results with monitoring
        performed at the prescribed quarterly or semi-annual frequency. Any corrective
        actions taken based on the results were generally not apparent.

    • 	 As of December 2007, UNICOR has not performed exposure monitoring for the
        weekly glass breaking room cleaning activity or the monthly non-routine HEP A
        filter change-out activity. NIOSH/DART exposure monitoring showed exposures

         6   UNICOR retained a consulting finn to conduct exposure monitoring at FCI Englewood in 1997.
This monitoring call1lot be considered as initial monitoring under the OSHA lead and cadmium standards
and is not considered to be representative of personal exposures during e-waste recycling for the follO\ving
reasons, among others. The work was staged. It was not representative of recycling work as conducted at
FCr Englewood or FCr Elkton. Key information was not recorded, such as work practices, work
environment, PPE, and ventilation. The number of samples was very limited. Although portrayed as worst
case exposure, this statement is highly questionable.
        above the PEL for both ofthese activities, and far above the PEL for the filter
        change-out activity prior to the implementation of work practice modifications.
        Even after modification, NIOSH/DART found cadmium exposure to be above the
        PEL. Periodic or non-routine activities with potential for exposure, such as these
        activities, should be a priority for hazard analysis, exposure monitoring, and
        exposure control. FCI Elkton did not conduct initial, additional, or periodic
        monitoring for these activities.

   • 	 The OSHA standards require that UNICOR notify workers (and all workers with
       representative exposure) ofthe exposure results within 15 working days after
       receipt of results. In addition, the notification must include a description of
       corrective actions when the PEL is exceeded. UNICOR has not consistently
       complied with these requirements.

UNICOR's deficiencies in exposure monitoring have resulted in elevated exposures to
lead and cadmium, such as during the filter change-out activity. Correction of exposure
monitoring deficiencies is a priority. UNICOR and FCI Elkton should not rely on the
NIOSH/DART monitoring to fulfill any aspect of its monitoring requirements.
NIOSH/DART results provide UNICOR with useful information for a point in time, but
UNICOR and FCI Elkton should implement an exposure monitoring program to fully
evaluate and control exposures.

The OSHA inspection (see Section 5.5) further demonstrates the potential for exposure to
lead and/or cadmium above the action levels and/or PELs. Furthermore, as reported
above in Section 5.4.2, FCI Elkton consultant exposure monitoring in 2006 (after FCI
Elkton's implementation of actions resulting from the OSHA inspection) also showed
elevated exposures for cadmium. These 2005 and 2006 exposure monitoring episodes
conclusively demonstrate the need for an exposure monitoring program with documented
corrective actions to ensure that exposures are consistently controlled at levels below the
PEL.

6.2.2   Methods of Compliance

The OSHA standards (29 CFR 1910.1025, Lead and 29 CFR 1910.1027, Cadmium) state
that when employee exposures are above the PEL for more than 30 days per year,
implementation of engineering and work practice controls are required to reduce
exposures. Examples of such controls include LEV systems, barriers and containments,
isolation areas or devices, defined work procedures and practices, defined tools and their
use, and many others. [Note: UNICOR should presume that glass breaking activities
would be above the PEL for more than 30 days per year if the current LEV system were
not in place, therefore, engineering and work practice controls are required for FCI
Elkton recycling.]

UNICOR has implemented engineering and work practice controls for current, routine
glass breaking activities at FCI Elkton. These include the LEV system with HEP A
filtration, plastic curtains placed between the worker and the glass breaking surface,
housekeeping and cleaning requirements, glass breaking instructions, defined use of
tools, sequencing of work, and others. Despite these controls, UNICOR consultants have
determined that exposures have been above PELs at times from 2004 through 2007 (see
discussion of consultant report in Sections 5.4.2, 6,1,1, 6.2.1, and the
NIOSH/DSHEFS/HETAB report, Attachment 3).

Based upon past exceedances ofthe action levels and PELs, UNICOR is not consistently
in compliance with OSHA ' s requirement that exposures be maintained at or below the
PELs through the implementation of engineering controls and work practices. Therefore,
UNICOR must implement refinements and improvements to its engineering and work
practice controls. (See Section 8.0, Recommendations for a discussion ofthese possible
improvements). As improvements are made, UNICOR must conduct exposure
monitoring to verify that the corrective action is successful and/or to implement further
corrective actions.

In addition, the current LEV system does not fully meet OSHA requirements, and
UNICOR does not conduct test measurements in a manner that demonstrates the
effectiveness in controlling exposure. OSHA' s lead standard, for instance, requires that
measurements of mechanical ventilation systems be taken every three months to
demonstrate effectiveness (and within five days of any production or process change).
These measurements could include such items as capture velocity, duct velocity, and/or
static pressure. Also, when air is recirculated into the workplace, the OSHA lead
standard requires certain design features, lead monitoring of return air, and by-pass
systems in case offailure. (See 29 CFR 19 10. 1025(e)(4)(i)(ii) for details).

The OSHA standards also require that respiratory protection must be provided to
supplement engineering and work practice controls when the PEL may still be exceeded.
UNICOR requires respiratory protection in the glass breaking room and makes it
available in certain other areas. The type of respiratory protection and the protection
factors are adequate to control normal glass breaking exposures even when PELs are
exceeded as determined by past monitoring. Even though effective respiratory protection
is used, UNICOR must improve engineering and work practice controls to reduce and
maintain exposures below the PEL, without consideration ofthe protection factor ofthe
respiratory protection.

A somewhat different exposure control and compliance approach to the LEV HEP A filter
change-out activity can be implemented because of its non-routine nature. To recap,
initial NIOSH monitoring showed lead and cadmium levels well above the OSHA PELs.
A work practice change was implemented and this greatly reduced exposure, but
cadmium was still somewhat above the PEL. Respiratory protection, however, was
adequate to control the level of exposure above the PEL. Therefore, even though
exposures were initially very high, this monitoring and corrective action process is an
example of a successful corrective action. For this non-routine activity, conducted less
than 30 days per year, respiratory protection can be relied upon to supplement
engineering and work practice controls and achieve compliance with exposure limits.
Therefore, the latest modified approach to this activity that combines improved work
practices, engineering controls, and respiratory protection is in compliance with OSHA
standards. However, UNICOR must conduct exposure monitoring to verify that controls
are and continue to be adequate for this non-routine activity. FCI Elkton is encouraged to
implement additional engineering controls and work practice improvements to reduce
exposures, if feasible.

OSHA standards also require a written compliance program to establish the means to
reduce and maintain exposures below the PEL. This program is to include engineering
and work practice controls, exposure monitoring, and other control information. See lead
(29 CFR 1910.1025) and cadmium (29 CFR 1910.1027) standards for details. The
compliance program should be modified to reflect any changes or improvements in
control actions. UNICOR has not developed a written compliance program to address the
exposure exceedances and necessary controls actions described in this report. This
deficiency can be addressed by writing a program based on current practices and adding
any additional actions required to address any deficiencies or newly adopted corrective
measures.

6.2.3   Protective Work Clothing and Equipment and Respiratory Protection

OSHA standards require that employees be provided with personal protective equipment,
such as coveralls, gloves, hats, shoes, shoe coverings, face shields, goggles, hearing
protection, and others as appropriate. Cleaning, replacement, and laundering must also
be provided. Employees must be provided with respiratory protection when requested
and/or when engineering and work practice controls do not adequately control exposures.
A respiratory protection program including training, fit testing, medical examination, and
maintenance must be established.

UNICOR provides employees at FCI Elkton with personal protective equipment and
respiratory protection. The adequacy ofthis equipment seems to be satisfactory. [Note:
The type of respiratory protection used during the LEV HEP A filter change-out activity
was not adequate as originally evaluated by NIOSH/DART in March 2007.
Modifications to the controls for this activity were implemented. The respiratory
protection was then adequate to protect workers from the resultant reduced exposures.]
UNICOR, however, has not specified the prescribed equipment into a written compliance
program, as described above. The OIG's final report will more fully address UNICOR's
respiratory protection program.

6.2.4   Housekeeping

OSHA standards require that surfaces must be maintained as free as practicable oflead
and cadmium contamination. UNICOR has implemented housekeeping procedures
inside and outside of the glass breaking area. Some migration oflead and cadmium
contamination occurs from the glass breaking area to other areas. Although minimal, this
contamination should be reduced as much as reasonably feasible. Recommendations to
reduce the migration of contamination are provided in Section 8.0.
6.2.5   Hygiene Facilities and Practices

OSHA standards require that hygiene facilities be provided to include change rooms,
showers, lunchrooms, and lavatories. Food and beverage consumption and tobacco and
cosmetic use are not allowed in work areas, except for change rooms and lunchrooms.

OSHA standards also require that showers be provided and that showering must be
conducted at the end ofthe work shift when the PEL is exceeded, without regard to
respiratory protection. FCI Elkton does not provide showers in the work area. Although
this is not specifically required, OSHA does require that workers do not leave the work
area wearing any clothing or equipment that was worn during the work shift. Except for
the filter change-out activity, NIOSH monitoring data did not show exceedance ofthe
PEL for glass breaking activities; however, NIOSH/DSHEFS/HETAB reported that some
past consultant monitoring data for glass breaking activities has shown exposures to be
above the PELs. Showering after the filter change-out activity and possibly weekly glass
breaking room cleaning is necessary for compliance. Regarding routine glass breaking
activities, UNICOR needs to conduct additional monitoring to determine if the showering
requirement is necessary for compliance with the standard.

Positive pressure lunchrooms with a filtered air supply are required when the PEL is
exceeded. Change rooms must be designed to separate street clothing from protective
work clothing to avoid cross-contamination. FCI Elkton has lunchrooms and change
rooms available to employees. As UNICOR implements recommendations in this report
regarding exposure monitoring and engineering controls, UNICOR should evaluate its
change rooms and lunch rooms relative to the OSHA lead and cadmium standards to
determine whether improvements are required.

6.2.6   Medical Surveillance and Removal Protection

OSHA standards require that a medical surveillance program be provided to all
employees who are or may be exposed above the action level for more than 30 days per
year. This program includes biological monitoring as prescribed by the standards to be
conducted at appropriate intervals, depending on exposures and test results. It also
includes thorough medical examinations.

As identified by NIOSH/DSHEFS/HETAB, the medical surveillance that FCI Elkton
provides to inmates and staff is not in compliance with the OSHA lead and cadmium
standard (see Attachment 3). No medical exams (including physical examinations) are
done on inmates, as required by OSHA standards. Staff members receive inconsistent
examinations and biological monitoring by their personal physicians. Biological
monitoring for lead is not done at established six month intervals required by OSHA
standards, and results are not consistently communicated to the inmates. Inappropriate
biological monitoring tests have been done. Records of medical surveillance are not
maintained by the employer for the appropriate length oftime.
6.2.7    Employee Information and Training

OSHA standards require that training be provided to workers exposed to lead or cadmium
at any level. Training is to be provided at least annually. Other information such as
warning signage is also required. Training information will be provided in the OIG's
final report.

6.2.8    Recordkeeping

OSHA standards require that records be maintained regarding employee exposure
monitoring, medical surveillance, and other information.

As reported by NIOSH/DSHEFS/HETAB medical surveillance records are not
maintained for the appropriate length of time and could not be readily located by FCI
Elkton personnel. (See Attachment 3).

6.3      Air Contaminants other than Lead and Cadmium

Exposure standards for substances other than lead and cadmium are provided in 29 CFR
1910.1000, Air Contaminants, Tables Z-l, Z-2, and Z-3. These standards are
supplemented by good practice ACGIH TLV s which provide exposure limits that are
regularly updated and peer reviewed based on current information and other factors.

As part ofthe investigation, NIOSH/DART performed exposure monitoring of
UNICOR's e-waste recycling operations at FCI Elkton and analyzed the samples for 29
metals in addition to lead and cadmium. Results are detailed in the referenced
NIOSH/DART report (see Attachment 1). These exposure monitoring results are
discussed in Section 5.0 ofthis report. An analysis of these results and compliance with
the OSHA air contaminant standards is provided below for metals other than lead and
cadmium.

      • 	 For routine glass breaking and weekly cleaning, the remaining 29 metals (i.e.,
          excluding lead and cadmium) were found at levels below the OSHA PEL and
          ACGIH TLV, with a large number being either non-detectable or well below the
          PELITLV. Except for yttrium, the same exposure findings apply to the other
          metals during the non-routine HEPA filter change-out activity.

      • 	 Yttrium exposures were uuremarkable during routine recycling activities. During
          the non-routine HEP A filter change-out activity, yttrium exposure was up to
          almost three times the PEL prior to implementation of improved work practices.
          This level was still within the protective capacity of the respirators used. Work
          practice improvements were effective in reducing yttrium exposures to less than
          10% ofthe PEL. Assuming continued and effective implementation of improved
          work practices, yttrium exposure should be well controlled.
   •   Beryllium is not a component of CRTs, but can be found in other types of
       electronic components. Beryllium was of particular importance to evaluate
       because of its high toxicity, serious adverse health effects, and very low
       PELITLV. Only one of 25 monitoring results during normal operations was
       above the limit of detection (LOD), and this result was well below the PELlTLV
       and only barely above the LOD. Bulk dust and surface wipe samples showed
       beryllium levels below the LOD. This would indicate that past operations did not
       release beryllium to the air. These data provide conclusive evidence that
       beryllium is not a hazard of concern or a compliance issue at FCr Elkton.

   •   Barium was one of the metals reported in the literature as a significant component
       ofCRTs (see Section 2.0). Bulk dust and surface wipe samples also showed the
       presence of barium. Barium monitoring results were at unremarkable levels
       during normal activities. Barium was also measured during the filter change-out
       activity and found to be between I and 460 /lglm 3. Both the PEL and TLV are
       500 /lg/m3. The highest result approached the PELITLV, but did not exceed it,
       and respirators were in use. rn addition, work practices have since been modified
       that have greatly reduced exposures during this activity. Barium does not
       represent an exposure hazard or compliance issue at FCr Elkton

   •   Zinc was found by the U.S. EPA in high concentrations in glass booth mop
       wastewater. Bulk dust and surface wipe samples also showed significant presence
       of zinc. However, elemental zinc is not considered to be a significant health
       hazard. Zinc oxide fume is typically the zinc exposure hazard of concern. This
       fume is usually generated from hot work (e.g., welding) on galvanized or other
       zinc containing metals. Zinc oxide fume is not a factor at FCr Elkton. However,
       as a point of reference, zinc exposures were well below the PELITLV for even
       zinc oxide fume. Zinc is not an exposure concern during current operations at
       FCr Elkton.

   •   Strontium was one ofthe metals reported as a significant component ofCRTs in
       the literature (see Section 2.0). The highest strontium exposure that was
       measured was only 1.63 /lglm 3 and this result was found during the filter change­
       out activity. Strontium is an example of a metal for which a PEL and TLV have
       not been established. However, the highest exposure level found is quite low as
       compared to most other metals of interest. More importantly, it is reasonable to
       conclude that effective control oflead and cadmium will also effectively control
       co-located metals such as strontium, which has no established exposure limit.

   •   All other metals were found to be at unremarkable exposure levels when
       compared to established PELs and TLVs.

rn conclusion, no OSHA compliance issues or exposure hazards were identified for
metals other than lead and cadmium.
6.4     OSHA "General Duty Clause"

The OSHA General Duty Clause requires that employers provide employees with a safe
and healthful work place that is free from recognized hazards that are causing or are
likely to cause death or serious physical harm. This clause is generally applied to ensure
that employers control hazards that are not covered by specific OSHA standards. During
the course of its investigations, the FOH Investigative Team identified that heat and
ergonomic hazards are present at BOP UNICOR facilities. These hazards are not
specifically addressed by OSHA standards, but the General Duty Clause is often used to
enforce control of the hazards. Heat and ergonomic hazards are discussed below.

6.4.1   Heat Stress

OSHA and FOH identified heat as a possible hazard, particularly at FCI Marianna. FOH
and NIOSH/DART then conducted a follow-up study ofthe heat stress hazard at FCI
Mariana. This study concluded that workers were at risk from excessive heat and a report
describing the results ofthe study and recommended actions was prepared and submitted.

The heat hazard at FCI Elkton may not be as severe as the hazard at FCI Marianna due to
ambient and indoor environmental conditions. However, use of personal protective
equipment and respiratory protection under even light to moderate workloads can present
potential heat stress hazards.

UNICOR should evaluate its operations consistent with the recommendations ofthe FOH
report for FCI Marianna and implement a heat stress program, if warranted.

6.4.2   Ergonomic Hazards

The FOH Investigative Team also observed potential ergonomic hazards during its
investigation of operations of recycling operations at FCI Elkton. Although a formal
ergonomic hazard analysis was not conducted, it was apparent that ergonomic issues
from repetitive lifting ofloads while twisting represented a potential hazard. Other
ergonomic hazards may also be present. Training in proper lifting techniques is an
example of a straight forward and effective means of mitigating the hazard oflifting
loads.

UNICOR and FCI Elkton are encouraged to evaluate their operations for ergonomic
hazards, including lifting tasks, and implement training and control actions as warranted.
See the NIOSH Revised Lifting Equation (http://www.cdc.gov/niosh/dos/94-110/) for
information on this topic.

6.5     Other OSHA Standards

Many other OSHA standards apply to UNICOR's operations at FCI Elkton, such as
noise, hazard communication, respiratory protection, personal protective equipment, and
hazard analysis. It is beyond the scope ofthis report to provide a comprehensive review
of all applicable standards; however, several pertinent observations and comments are
provided below for select OSHA standards:

   • 	 29 CFR 1910.134 Respiratory Protection: The use of respiratory protection
       requires implementation of a written respiratory protection program. UNICOR
       should ensure that its respiratory protection program at FCI Elkton is in
       compliance with OSHA respirator program requirements such as training, fit
       testing, medical surveillance, cleaning and maintenance, among others.

   • 	 29 CFR 1910.1200 Hazard Communication: Under the hazard communication
       standard, UNICOR has the obligation to transmit information to staff and inmates
       regarding chemical hazards in the workplace. The standard requires methods of
       labeling, material safety data sheets, employee training, and other means of
       warning such as signage to inform workers of hazards and proper means of hazard
       control. The OSHA lead and cadmium standards supplement the hazard
       communication standard's requirements with specific requirements for training,
       notification of monitoring results, and signage. UNICOR should ensure that the
       hazard communication program at FCI Elkton is in compliance with OSHA
       standards.

   • 	 29 CFR 1910.95 Occupational Noise Exposure: Glass breaking operations at FCI
       Elkton have potential for noise exposure that triggers the need for hearing
       protection and other requirements ofthe OSHA Hearing Conservation Program.
       NIOSH/DART conducted noise dosimetry during its studies in 2007 and found
       that several noise exposures for glass breakers were above the level that OSHA
       requires workers to be placed into a Hearing Conservation Program, and one
       measurement exceeded the PEL for noise. This program requires audiometric
       testing, hearing protection, training, and periodic exposure monitoring. FCI
       Elkton has a hearing conservation program. However, an FOH industrial
       hygienist observed, as well as was informed by certain staff and inmates, that
       hearing protection was not consistently used during glass breaking. UNICOR
       should ensure that FCI Elkton's hearing conservation program is adequate and
       effectively implemented at FCI Elkton.

   • 	 Various OSHA Standards for Hazard Analysis: An effective hazard analysis
       process is essential to identify hazards, implement appropriate controls, and
       achieve regulatory compliance. This process is fundamental to most OSHA
       standards. It is specifically required, for instance, when specifying PPE or
       respiratory protection under 29 CFR 1910 Subpart I Personal Protective
       Equipment, as well as under the lead and cadmium standards. In general,
       UNICOR at FCI Elkton has not been effective in performing hazard analyses
       followed by implementing appropriate control measures and regulatory
       compliance actions. This is evident from various situations discussed in this
       report, such as the extreme exposures during filter change-out, lack of monitoring
       during weekly glass breaking room cleaning, and failure to identify and correct
       non-compliances. An effective hazard analysis process would allow UNICOR to
           self-identify applicable hazards and requirements and ensure a safe and healthful
           workplace.

6.6 	      29 CFR 1960 Basic Program Elements for Federal Employees

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations.

The BOP has established an ES&H program entitled Occupational Safety, Environmental
Compliance, and Fire Protection (BOP Program Statement 1600.09). UNICOR's
compliance with this policy will be evaluated in the OIG's final report.

6.7 	      Environmental Compliance

U.S. EPA's inspection determined that UNICOR and FCI Elkton had not adequately
evaluated their wastewater, stormwater, air emissions, and hazard waste streams for
compliance with applicable environmental standards, and that the BOP and UNICOR
may need to better coordinate their environmental control efforts. BOP has advised the
OIG that it is committed to correcting any identified deficiencies, and has developed a
compliance plan to address the deficiencies identified in the U.S. EPA's report.


7.0 	      CONCLUSIONS

Conclusions for the studies conducted by FOH, NIOSHIDART,
NIOSH/DSHEFS/HETAB, U.S. EPA, and OSHA for the DOJ orG concerning
UNICOR's e-waste recycling operations at FCI Elkton are provided sequentially below
under the following subdivisions:

    •      Heavy Metals Exposures;
    •      Medical Surveillance for Lead and Cadmium;
    •      Health and Safety Regulatory Compliance;
    •      Hazard Analysis and Controls;
    •      Environmental Compliance; and
    •      Exposures to Other Hazards.

These conclusions are supported by the results, findings, and analyses presented and
discussed in Sections 5.0 and 6.0 of this report, as well as the reports referenced in
Section 9.0 and provided in Attachments 1 - 5.

7.1 	      Heavy Metals Exposures

    1. 	      Exposures were evaluated for 31 toxic metals. Only lead and cadmium
              exposures have the potential, at times, to be above the action levels or PELs
       for routine glass breaking operations and weekly glass breaking room
       cleaning, when conducted in the manner evaluated at the time ofthis
       investigation. Exposures to the other metals were well below the PELs.

2. 	   Current lead and cadmium exposures were minimal (far below action levels)
       for work activities conducted on the general factory floor outside ofthe glass
       breaking room, and in other FCI Elkton recycling areas. Minimal and limited
       exposure potential exists outside the glass breaking room.

3. 	   A non-routine activity involving the HEPA filter change-out demonstrated
       potential for very high lead and cadmium exposures without effective and
       consistent implementation ofthe improved work practice modifications
       evaluated in December 2007. Prior to the implementation of improved work
       practices, yttrium exposure was also above the PEL, but within the protective
       capacity of the respirators in use. The improved work practices dramatically
       reduced these exposures, although further improvements in controls for this
       activity are desirable.

4. 	   Surface lead and cadmium contamination in various areas throughout the
       recycling facilities is elevated. In addition, past UNICOR testing of air filters
       used in the buildings' HVAC (general ventilation) systems serving the
       electronics factory workspaces have shown significant levels oflead and
       cadmium. TCLP analyses have shown that these filters exceeded EPA criteria
       for lead and cadmium and, therefore, must be treated as hazardous waste.
       These findings support the conclusion that uncontrolled releases of lead and
       cadmium occurred from past glass breaking and de-soldering operations. For
       current operations, this legacy contamination is not contributing significantly
       to staff and inmate exposures. Contractor activities are pending to remediate
       this legacy contamination.

5. 	   SkinJhand wipe samples showed some potential for exposure to lead and
       cadmium via the ingestion route (e.g., from hand to mouth contact). Better
       and more consistent and thorough hand washing by inmate workers is needed.
       Some contamination of inmate housing and staff vehicles is also occurring,
       but is minimal.

6. 	   Particle size determinations found that dusts released from the glass breaking
       activities were sufficiently small to allow for their release to the ambient air
       and breathing zone of workers. This result accounts for the build-up oflegacy
       contamination that likely occurred during periods when engineering controls
       to contain emissions were not effectively applied. This also confirms the
       importance of maintaining effective engineering and work practice controls
       for current operations.

7. 	   The current LEV system in the glass breaking room appears to be generally
       effective in capturing emissions from the glass breaking activity, however, in
              certain areas, some emIssIons escape capture. Improvement of this system
              could further reduce lead and cadmium exposures and is needed to meet
              OSHA requirements for mechanical ventilation under the lead standard.

    8. 	      Since 2003, UNICOR has made progress in controlling exposure to lead and
              cadmium. Positive actions include installation ofthe enclosed glass breaking
              room, installation of LEV in the glass breaking room, implementation of work
              practice controls, use of personal protective equipment and hooded powered
              air purifying respiratory protection for glass breaking workers,
              implementation of housekeeping measures, and provision of a change room.
              Nevertheless, at times, exposures in the glass breaking room have exceeded
              action levels and PELs, particularly for cadmium, between 2003 and 2007.
              Although respiratory protection is used to control these exposures, OSHA
              requires the use of engineering and work practice controls. Further
              improvements in controls are, therefore, necessary.

7.2 	      Medical Surveillance for Lead and Cadmium

    9. 	      The highest annual mean BLL for inmates doing glass breaking was measured
              at 5.6 /lg/dL in 2003. These biological monitoring results indicate some
              bodily uptake oflead. These BLLs are well below levels that would warrant
              medical removal protection under the OSHA standard, however, subclinical
              adverse health effects at BLLs of <1 0 /lgidL have been reported in the
              literature (see Attachment 3). The BLLs have generally declined over time
              from 2003 - 2007, indicating that exposures have likely similarly decreased.
              The blood and urine cadmium results from 2003 - 2007 were well below
              levels that would warrant medical removal protection under the OSHA
              standard. No biological monitoring results were available for inmates doing
              glass breaking from 1997 - 2003, when exposures were likely higher. [Note:
              One staff member showed a single BLL at 10 /lgidL and one cadmium
              indicator was at an elevated level during the same sampling episode.
              However, results were at low levels both before and after this sampling
              episode. This single data set is inconclusive and laboratory error cannot be
              ruled out.]

    10. 	     Medical surveillance provided to inmates and staff involved with glass
              breaking operations is not in compliance with OSHA standards. For instance,
              no medical exams (including physical examination) are performed on inmates;
              staff receive inconsistent examinations and biological monitoring by their
              personal physicians; biological monitoring for lead is not conducted at the
              prescribed six month intervals; and results have not been consistently
              communicated to workers. In addition, inappropriate biological monitoring
              tests have been performed. Records of medical surveillance are not
              maintained by UNICOR or FCI Elkton for the appropriate length oftime.
    11. 	   The only persons with current potential for exposure to either lead or
            cadmium over the action levels are inmates who perform glass breaking,
            cleaning in the glass breaking room, or monthly filter change-outs. These
            inmates require continued medical surveillance. Medical surveillance can be
            discontinued for all other inmates and staff, although some former inmates
            and/or staff may require continued surveillance under the OSHA cadmium
            standard, because of potential past exposures.

    12. 	   Exposure to lead from the past chip recovery process cannot be conclusively
            determined because ofthe lack of biological monitoring and exposure data.
            Staff descriptions of work and one blood lead level taken for an inmate four
            months after the process ended indicate that exposure to lead did occur, but
            the degree of exposure cannot be estimated. No evidence was found that
            actions were taken to prevent exposure to lead at the outset of the process and
            no medical surveillance was performed until after the process ended. The
            same conclusion applies regarding lead exposures from general recycling
            activities prior to 2003.

7.3 	   Health and Safety Regulatory Compliance

    13. 	   Beginning for the most part in 2003 and continuing through the time ofthis
            investigation, UNICOR at FCI Elkton has implemented engineering controls,
            work practices, personal protective equipment, respiratory protection,
            housekeeping, and other measures to mitigate inmate and staff exposures to
            lead and cadmium during glass breaking. These actions are partially
            consistent with the OSHA lead and cadmium standards which require that
            engineering and work practice controls be implemented to maintain exposures
            at or below the PELs. However, engineering controls (i.e., the LEV
            mechanical ventilation system) are not designed or tested in compliance with
            OSHA standards. Additionally, at times since 2003, exposure excursions
            above the PEL for cadmium have occurred, which indicates that further
            improvements in engineering and work practice controls are required. During
            this period, lead was found, at times, to be above the action level, but not
            above the PEL.

    14. 	   The use of respiratory protection between 2004 and present has been adequate
            to protect workers against the exposure excursions above the action levels and
            PELs during routine glass breaking. OSHA standards, however, require that
            routine exposures above the PEL (i.e., over 30 days per year) be controlled by
            the use of engineering and work practice controls, regardless of whether
            respiratory protection is used.

    15. 	   UNICOR's response to elevated exposures is unclear. UNICORhas made
            continued improvements in exposure controls since 2003. However, when
            exposures exceed the PEL, OSHA requires that actions be detailed to reduce
            exposures to below the PEL. Past monitoring results showing elevated
            exposures cannot be clearly linked to subsequent improved control actions.
            UNICOR lacks a compliant exposure monitoring program that is followed by
            improved exposure controls should results so warrant. Control actions are not
            documented in a written compliance program for lead and cadmium.

    16. 	   UNICOR has not conducted exposure monitoring consistent with OSHA lead
            and cadmium standards that require initial monitoring and follow-up
            monitoring at a frequency that is based on results and exposure potential.
            Additional monitoring is also required, but not always performed by
            UNICOR, when new processes or changes in process, controls, or other
            factors are implemented that could affect levels of exposure.

    17. 	   The maintenance activity involving HEPA filter change-out for the glass
            breaking booth initially resulted in exposures far above the OSHA PELs for
            lead and cadmium. These exposures were beyond the protection factor
            capability of the respirators used. However, changes in work practices
            reduced this exposure to well below the PEL for lead and to only somewhat
            above for cadmium. Cadmium exposures after work practice improvements
            were, however, well within the protection factor of the respirators used. Even
            though initial exposure was unacceptably high and out of compliance, the
            exposure reduction action is considered to be a successful action consistent
            with the lead and cadmium standards. If feasible, further exposure reduction
            for cadmium is desirable using improved engineering or work practice
            controls.

    18. 	   Past UNICOR recycling practices at FCI Elkton were likely to have produced
            uncontrolled or poorly controlled releases of lead and cadmium dusts. This is
            evidenced by the bulk dust and wipe sample results collected by FOH,
            NIOSH/DART, and NIOSH/DSHEFS/HETAB. It is reasonable to presume
            that these uncontrolled emissions resulted in past exposures and broad non­
            compliance with the lead and cadmium standards.

7.4 	   Hazard Analysis and Hazard Controls

    19. 	   Prior to the DOJ orG's investigation, neither UNICOR nor FCI Elkton had
            implemented effective hazard analysis processes to proactively identify
            hazards and degrees of exposure and ensure adequate control measures. This
            is evidenced by the various findings ofthis report, including failure to
            recognize, evaluate, or control the extent of the filter maintenance exposure,
            deficient exposure monitoring, deficient medical surveillance, OSHA non­
            compliances, and others.

7.5 	   Environmental Compliance

    20. 	   UNICOR and FCI Elkton have not adequately evaluated their wastewater,
            stormwater, air emissions, and hazard waste streams for compliance with
            applicable environmental standards. BOP and UNICOR need to better
            coordinate their environmental control efforts.

7.6 	    Exposures to Other Hazards

    21. 	   Noise exposure during glass breaking is above the level that requires
            implementation of a Hearing Conservation Program that includes audiometric
            testing, hearing protection, training, and monitoring.

    22. 	   The observed recycling activities have the potential for excessive heat and
            ergonomic hazards mainly from lifting and twisting.


8.0 	    RECOMMENDATIONS

The recommendations presented in this section are compiled from the FOH,
NIOSH/DART, NIOSHIDSHEFS/HETAB, and U.S. EPA studies conducted for
UNICOR's e-waste recycling operations at FCI Elkton. In many cases, several
recommendations from these reports have been consolidated in this section. Additional
recommendations and detail are provided based on the results and findings ofthese
studies and on regulatory requirements. The recommendations are subdivided in the
same subsections as Section 7.0, Conclusions, as follows:

    •	   Heavy Metals Exposures;
    •	   Medical Surveillance for Lead and Cadmium;
    •	   Health and Safety Regulatory Compliance;
    •	   Hazard Analysis and Controls;
    •	   Environmental Compliance; and
    •	   Other Hazards.

These recommendations are supported by the results, findings, and analyses presented
and discussed in Sections 5.0 and 6.0 ofthis report, as well as the reports referenced in
Sections 9.0 and provided in Attachments I - 5.

8.1 	    Heavy Metals Exposures

    1. 	 Glass Breaking: For routine glass breaking operations, UNICOR should improve
         its engineering and work practice controls to reduce and maintain lead and
         cadmium exposures below the OSHA PELs at all times. These improvements
         should also have the benefit of reducing exposures during weekly cleaning ofthe
         glass breaking room by reducing build-up of surface contamination. Specific
         recommendations for engineering and work practice controls and verification of
         effectiveness ofthe controls follow.

            a. 	 UNICOR should extend the overhead push jet to the right ofthe existing
                 LEV system so that this jet is continuous across the front face ofthe hood.
   This may correct the backflow condition found by NIOSHIDART smoke
   tests. After extension, verify the effectiveness of emissions capture by
   quantitative air flow measurements and qualitative smoke tests or other
   means, plus exposure monitoring. If not effective, explore other means to
   correct the backflow problem. See NIOSH/DART report, Attachment 1,
   Conclusions and Recommendations.

b. 	 UNICOR should implement the mechanical ventilation design features
     and measurement methods for the LEV system as specified in the OSHA
     lead and cadmium standards. In addition, UNICOR should conduct
     periodic inspections of the LEV system to ensure that it remains in a good
     state of repair.

c. 	 UNICOR should investigate alternative methods to break CRTs, including
     systems to automate or partially automate the glass breaking process.
     NIOSH/DART describes various methods presented by Lee et aI. [2004]
     to separate panel glass from funnel glass and for removing the coatings
     from funnel glass. As described by Lee et aI., hot wire and vacuum
     suction methods, supplemented with LEV, could produce fewer airborne
     particulates than breaking glass with a hammer. (See NIOSHIDART
     report, Attachment 1, Recommendation 17).

d. 	 UNICOR should evaluate alternate LEV systems. NIOSH/DART
     Recommendation 18 in Attachment 1 references best practices from
     German authorities [BG/BIA 2001] that recommends use of a closed
     cleaning cabinet that incorporates 300 air changes per hour to control
     emissions. Many other LEV systems are also commercially available.

e. 	 FCI Elkton safety and health and supervisory personnel should regularly
     review work practices to ensure that they are properly implemented and
     that the interaction between the worker, the work piece, and the LEV
     system is consistently appropriate. Any problems should be corrected
     with pre-job and on-the-job re-enforcement of practices and with initial
     and refresher training.

f. 	 UNICOR should evaluate improvement opportunities for daily
     housekeeping and cleaning practices in the glass breaking area. An
     example includes daily periodic and end of shift HEPA vacuuming.
     Improved daily housekeeping would also serve to reduce exposures during
     the more extensive weekly clean up activity.

g. 	 Any time that a change or improvement is made to the LEV system or
     work practice that reasonably could be foreseen to change exposure
     conditions, UNICOR should perform exposure monitoring to verify that
     the desired effect is achieved.
       h. 	 If improvements in engineering and work practice controls are effective in
            maintaining exposures below lead and cadmium action levels consistently
            over time (see Recommendation 1 in Section 8.3, below), then UNICOR
            could reevaluate the level of respiratory protection needed for routine
            glass breaking operations. If considered, this action should only be taken
            with the evaluation and recommendation of a Certified Industrial
            Hygienist, after sufficient exposure monitoring data has been collected and
            documented over time.

       I. 	   UNICOR should prioritize implementation ofthe recommendations above,
              as follows: (1) improve the current LEV system and work practices; (2)
              verify effectiveness of improvements with LEV measurements, smoke
              tests, and exposure monitoring; and (3) explore alternative LEV systems,
              work practices, and automation for possible future implementation.

2. 	 Filter Maintenance: For the non-routine filter maintenance activities, UNICOR
     should adopt the exposure control improvements used in December 2007 as
     standard operating procedure, continue to improve controls, and verify continued
     effectiveness of control measures. Specific recommendations follow.

       a. 	 UNICOR should institute a standard operating procedure or revise its
            current procedure for the filter maintenance activity in a manner that
            requires: (1) immediate bagging and disposal of used filters rather than
            attempting to clean and re-use them; (2) the use of water spray to suppress
            dust during the filter change activity; (3) the use ofHEPA filtered
            vacuuming and wet mopping to remove dust from the floor and work
            surfaces; and (4) the use of defined PPE and respiratory protection. The
            procedure should also ensure proper precautions to be taken to guard
            against electrical hazards when using wet methods. (See NIOSH/DART
            report, Attachment 1, Recommendation 12).

       b. 	 UNICOR should evaluate and implement additional control measures or
            refinements to the controls used in December 2007 to further reduce
            cadmium exposures, if feasible. Examples could include: (1) refinement
            of wetting techniques, (2) use ofa portable LEV system with HEPA filters
            to draw dusts away from the workers ' breathing zones and capture dust
            emissions, and (3) further refinement and modification of work practices.

       c. 	 UNICOR should continue to require the use ofPPE and respiratory
            protection for this activity (see NIOSH/DART report, Attachment 1,
            Recommendation 14).

       d. 	 UNICOR should conduct exposure monitoring for this activity every time
            it is conducted until conclusive data is accumulated over time to
            demonstrate and document consistent control oflead and cadmium below
            the PELs (preferable) and/or at levels that are clearly within the protective
           capacity of respirators used (acceptable). (See Recommendation 1 in
           Section 8.3 regarding frequency of exposure monitoring.) [Note: Since
           this activity is conducted less than 30 days per year, respiratory protection
           is acceptable to supplement engineering and work practice controls.] See
           Section 8.3 for additional information and details on exposure monitoring.

       e. 	 If feasible, rather than changing the filters on a defined monthly basis,
            UNICOR should use an alternative method, such as static pressure drop
            measurements for the LEV system, to determine the frequency of filter
            change-out (see NIOSH/DART report, Attachment 1, Recommendation
            13). The current monthly frequency could be too frequent or not frequent
            enough. Preferably, filter change-out should be based on performance of
            the LEV system rather than an arbitrary time period. FCI Elkton should
            consult with an industrial ventilation professional on this topic and on the
            performance ofthe overall LEV system, if necessary. Improved
            measurement processes for the LEV system should also be implemented in
            a manner that complies with the OSHA requirements for mechanical
            ventilation under the lead and cadmium standards.

3. 	 Legacy Contamination: Clean-up operations to remediate lead and cadmium
     legacy contamination appear to be imminent. Prior to the implementation ofthis
     work, in order to prevent release to the air or work areas oflegacy surface
     contamination deposited on various structural and general ventilation systems,
     FCI Elkton should implement operations and maintenance (O&M) practices for
     any non-routine activities that could disturb this contamination. Such activities
     could include contractor maintenance of ventilation systems or non-routine
     internal activities. Should this contamination be disturbed for any reason, FCI
     Elkton should immediately apply clean-up practices using HEP A filtered
     vacuums, wet methods, and other remediation techniques to mitigate the release.
     (See the FOH report on bulk dust and surface contamination for details on an
     O&M plan, Attachment 2, Recommendation 4). After remediation of all legacy
     contamination is completed under contract, these O&M actions should no longer
     be necessary. At that point, current housekeeping and cleaning activities to
     control any dust migration from the glass breaking room should suffice to keep
     contamination in check.

4. 	 Exposure from Ingestion: FCI Elkton should re-enforce the importance of hand
     washing to prevent the potential for hand-to-mouth ingestion exposures. Pre-job
     briefings, end-of-shift discussions, and general supervision are opportunities to
     ensure that workers apply proper hand washing and hygiene practices. FCI
     Elkton should ensure rigorous enforcement of no eating and drinking from open
     cup restrictions in recycling areas.
8.2      Medical Surveillance for Lead and Cadmium

The medical surveillance recommendations are based on the NIOSH/DSHEFS/HETAB
report (see Attachment 3) and OSHA lead and cadmium standards.

      1. 	 For inmates engaged in glass breaking, clean-up activities in the glass breaking
           room, and filter maintenance activities (and any others found to have potential for
           exposure above the lead and cadmium action levels), FCI Elkton should improve
           its medical surveillance program as follows:

             a. 	 When conducting biological monitoring, consistently perform all tests for
                  lead and cadmium exposure, as required by the OSHA standards.

             b. 	 Perform pre-placement (i.e., baseline) biological monitoring prior to
                  assigning inmates to glass breaking work. This is particularly important
                  for cadmium.

             c. 	 Perform biological monitoring at the intervals required by the OSHA
                  standards; i.e., every six months (or more frequently should results be
                  elevated).

             d. 	 Provide other medical examinations, as specified in the OSHA standards,
                  such as a detailed work history and medical history, a thorough physical
                  examination, pulmonary status evaluations for respirator users, blood
                  pressure measurements, and laboratory and other tests that the examining
                  physician deems necessary.

      2. 	 UNICOR and FCI Elkton should consistently inform personnel of medical
           surveillance and biological monitoring results and retain and maintain records
           consistent with OSHA standards.

      3. 	 UNICOR and FCI Elkton can discontinue medical surveillance for staff and
           inmates who are not involved in glass breaking, clean-up in the glass breaking
           room, and filter change-out. An occupational physician should be retained to
           confirm this recommendation and determine whether some staff or inmates could
           require continued surveillance under the cadmium standard based on past
           exposures (see also Recommendation 4, below).

      4. 	 UNICOR or FCI Elkton should retain a board-certified, residency-trained
           occupational medical physician who is familiar with OSHA standards to oversee
           the medical surveillance program at FCI Elkton. In addition to lead and cadmium
           standards, the physician should provide oversight of medical clearance for
           respirator use.
8.3      Health and Safety Regulatory Compliance

In addition to the recommendations provided in Sections 8.1 and 8.2 regarding
engineering and work practice controls and medical surveillance, UNICOR should
implement the following actions to achieve compliance with OSHA lead and cadmium
standards and to protect staff and inmates from lead and cadmium hazards.

      1. 	 Exposure Monitoring: UNICOR should immediately develop and implement an
           exposure monitoring program at FCI Elkton consistent with OSHA standards to
           ensure that exposures are reduced and maintained below lead and cadmium action
           levels and PELs. Specific recommendations are detailed below. Because
           exposures have exceeded PELs at times since 2003, some ofthese
           recommendations go beyond minimum OSHA requirements. IfUNICOR should
           opt to implement only the minimum requirements, these are discussed in Section
           6.2.1 and the OSHA lead and cadmium standards.

             a. 	 For routine glass breaking operations and weekly cleaning in the glass
                  breaking room, UNICOR should conduct exposure monitoring on a
                  quarterly basis for a minimum of four consecutive quarters. Inmates
                  monitored should represent those conducting typical glass breaking
                  activities and should also represent those with "worst case" exposure
                  potential. Also, at least one worker with worst case exposure potential
                  should be monitored during the weekly cleaning activity. Following these
                  four monitoring episodes, UNICOR should proceed as follows.

                • 	 If any exposure is above the PEL during any ofthe initial four
                    monitoring episodes, then take corrective actions and continue
                    quarterly monitoring for an additional four quarters until four
                    consecutive quarters are below the PELs;

                • 	 If during the initial four quarters, any exposure is above any action
                    level, but below the PEL, reduce monitoring frequency to every six
                    months. Resume quarterly monitoring and take corrective actions
                    should PELs be exceeded in subsequent monitoring events.

                • 	 If exposures for any four consecutive quarterly or semi-annual
                    monitoring episodes are all below the actions levels, then conduct
                    annual monitoring and eventually discontinue monitoring if exposure
                    potential above the actions levels is conclusively mitigated through the
                    use of engineering and work practice controls. [Note: Even though
                    monitoring could be eventually discontinued if results are consistently
                    below action levels, annual monitoring is always useful to verify and
                    document continued acceptable performance.]

             b. 	 When any change (i.e., improvement, corrective action, new system, etc.)
                  is made to engineering or work practice controls that could affect
           exposures, UNICOR should conduct an additional monitoring episode to
           verify that the change has had the desired effect. This monitoring should
           be considered as an additional episode and not as a substitute for the
           quarterly or semi-annual monitoring. This would apply to changes in the
           current LEV system and work practices, as well as the implementation of
           new and improved engineering controls or automated systems as discussed
           in section 8.1, above.

       c. 	 For the non-routine HEPA filter change-out activity, UNICOR should
            perform exposure monitoring for the next four times that the activity is
            performed. Quarterly, semi-annual, or annual monitoring could then be
            implemented based on exposure results (quarterly if above any PEL, semi­
            annual if above the action level but below the PEL, and annual if below
            the action level). Additional monitoring should be performed during the
            first time that any changes to the engineering or work practice controls are
            implemented for this activity. Even if exposures are shown to be
            consistently below the action levels, it is recommended that annual
            monitoring ofthis activity be conducted at a minimum to verify and
            document sustained exposure control.

       d. 	 At UNICOR's and/or FCI Elkton's discretion, a limited amount of
            monitoring (perhaps annually at the same time as a glass breaking
            monitoring event) could be performed for select activities outside of the
            glass breaking room. This would serve to re-enforce and document that
            these exposures continue to be minimal. [Note: Based on results of this
            investigation, this monitoring is not required by OSHA standards.]

       e. 	 UNICOR should notify all workers with exposures representative ofthose
            monitored of the monitoring results within 15 working days after receipt
            of results. If PELs are exceeded, then FCI Elkton should provide the
            workers with a statement that describes the corrective actions to be taken
            to reduce exposures below the PELs.

       f. 	 UNICOR should clearly document any changes or corrective actions taken
            in response to exposure monitoring results or other exposure information
            or hazard analysis.

2. 	 Compliance Program: UNICOR should develop a written compliance program to
     define its processes and methods to control exposures at or below the PELs.
     Engineering controls, work practices, standard operating procedures, PPE and
     respiratory protection, exposure monitoring, and other elements should be
     detailed in this program. The program should be immediately updated when
     modifications to controls or practices are implemented. BOP and UNICOR
     industrial hygienists should prepare or contribute to this program and ensure its
     implementation and continued effectiveness into the future.
      3. Engineering controls: See Section 8.1.

      4. 	 Change Rooms: UNICOR should reconfigure the change room to ensure that
           glass breaking imnates do not carry cadmium or lead out ofthe glass breaking
           room. Separate storage should be provided for non-work uniforms and glass
           breaking work apparelJPPE. All potentially-contaminated work clothing and PPE
           should remain in the "dirty" chamber ofthe change room; non-work clothing
           should never come in contact with work items. As a minimum requirement,
           workers should be required to thoroughly wash hands and all potentially exposed
           skin after doffing PPE, before putting on uniforms when exiting the glass
           breaking room. Work clothes and PPE should never be worn outside of the glass
           breaking room to minimize migration of cadmium and lead dusts to other parts of
           the institution. (See NIOSH/DSHEFS/HETAB report, Attachment 3,
           Recommendations).

      5. 	 Showers: UNICOR should determine the applicability of the OSHA showering
           requirement. Showering must be conducted at the end of the work shift when the
           lead or cadmium PEL is exceeded. Through implementation ofthe exposure
           monitoring recommendations in Section 8.3, above, UNICOR will determine if
           any current activities can exceed the PEL. If any such activities are identified,
           then UNICOR should require showering after the work shift. Based on past
           exposure data, this requirement could apply to routine glass breaking, weekly
           clean-up, and/or filter change-out activities; however, UNICOR should determine
           current exposures based on its latest methods and controls. If showering is
           required, UNICOR does not necessarily have to provide showers in the work area,
           but FCI Elkton should ensure that workers do not leave the work area wearing any
           clothing or equipment worn during the work shift.

      6. 	 Respiratory Protection Program: UNICOR should self-assess and ensure that its
           respiratory protection program meets OSHA requirements for medical clearance,
           training, fit testing, cleaning and maintenance, and other items.

      7. 	 Recordkeeping: UNICOR should improve its recordkeeping for medical
           surveillance and exposure monitoring data to meet OSHA requirements for types
           of information maintained, records retention, and employee (staff and imnate)
           notification of results.

8.4      Hazard Analysis and Hazard Controls

The BOP and UNICOR should develop and implement an ongoing and pro-active hazard
analysis process to identify, evaluate, and control occupational hazards. Specific
recommendations follow.

      1. 	 The BOP and UNICOR should perform management assessments of all UNICOR
           operations, not just recycling, for compliance with applicable enviromnental,
           safety and health requirements. These assessments should be designed at the
         management level to ensure that the individual institutions have and implement
         the required ES&H programs, as well as conduct their own self-assessments to
         determine effectiveness. (See also NIOSH/DART report, Attachment I,
         Recommendation 7).

      2. 	 UNICOR should conduct self assessments at the working level to determine the
           effectiveness of its safety and health and hazard control programs. Examples
           include the hearing conservation program, respiratory protection program, lead
           and cadmium compliance program, medical surveillance program, hazard
           communication program, among others. Self-assessments can, of course, be
           conducted using safety and health contractors and/or UNICOR safety and health
           staff in support of internal safety and health staff, as desired. Any deficiencies
           should be documented and corrective actions should be implemented and
           documented to close out any deficiencies.

      3. 	 FCI Elkton should conduct activity-based job hazard analysis (JHA) for any new,
           modified, or non-routine work activity prior to the work being conducted. The
           JHA is intended to identify potential hazards and implement controls for the
           specific work activity prior to starting the work.

      4. 	 BOP and UNICOR should ensure that its staff industrial hygienists and/or
           consultants proactively perform exposure monitoring, assessment, and hazard
           analysis and control functions on an on-going basis.

8.5      Environmental Compliance

UNICOR and FCI Elkton should evaluate their wastewater, stormwater, air emissions,
and hazardous waste streams to ensure compliance with applicable environmental
requirements. The BOP and UNICOR should coordinate their environmental control
efforts.

8.6      Exposures to Other Hazards

FCI Elkton should evaluate heat stress and ergonomic hazards (specifically lifting loads
and twisting while carrying loads) and ensure that controls are implemented to mitigate
any identified hazards and comply with OSHA standards. For workers at risk for
ergonomic injury from lifting loads, FCI Elkton should implement training for lifting and
carrying techniques. Also see the NIOSH Revised Lifting Equation
(http://www.cdc.gov/niosh/dos/94-110/) for information on this topic.

To control hazards from noise exposures, the BOP should evaluate the adequacy of the
FCI Elkton hearing conservation program and ensure that it is effectively implemented.
UNICOR should ensure the proper use of hearing protection for recycling areas and
operations where it is required.
9.0    REFERENCES

ACGIH. [2007]. 2007 TLVs® and BEls®: threshold limit values for chemical substances
and physical agents and biological exposure indices. Cincinnati, OH: American
Conference of Governmental Industrial Hygienists.

CFR. [29 CFR 1910.1027]. Cadmium. Code of Federal Regulations. Washington, DC:
U.S. Government Printing Office, Office ofthe Federal Register.

CFR. [29 CFR, Part 1910.1025]. Lead. Code of Federal Regulations. Washington, DC:
U.S. Government Printing Office, Office ofthe Federal Register.

CFR. [29 CFR 1910.1000]. Table Z-l Limits for air contaminants. Code of Federal
Regulations. Washington, DC: U.S. Government Printing Office, Office of the Federal
Register.

CFR. [29 CFR, Part 1960]. Basic Program Elements for Federal Employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor
industry. Environmental Health Perspectives. 107:A452-A457.

Cui, J., & Forssberg, E. [2003]. Mechanical recycling of waste electric and electronic
equipment: A review. Journal of Hazardous Materials, 99(3), 243-263.

EPA. [2008a]. Multimedia inspection report: Federal Bureau of Prisons, Federal
Correctional Institution, FCI Elkton. Federal Prison Industries (UNICOR). April 23,
2008.

EPA. [2008b]. Multimedia inspection report: FPI action items.

FOH. [2007]. Summary of findings and recommendations pertaining to
air/wipeibulklTCLP sampling data from electronics recycling facilities, FCI Elkton (lead
and cadmium data only). U.S. Department of Health and Human Services, FOH Safety
and Health Investigation Team, Program Support Center, U.S. Public Health Service,
Federal Occupational Health Service. November 15, 2007.

FOH. [2008].Review of 'heat stress procedures' and 'operational requirements'
documents associated with electronics recycling operations at FCI Marianna. U.S.
Department of Health and Human Services, FOH Safety and Health Investigation Team,
Program Support Center, U.S. Public Health Service, Federal Occupational Health
Service. May 15,2008.

ICER. [2003]. New Approach to Cathode Ray Tube (CRT) Recycling. Report prepared
for DTI. GW-12.10-130.
Lee, C. H., Chang, C. T., Fan, K. S., & Chang, T. C. [2004]. An overview of recycling
and treatment of scrap computers. Journal of Hazardous Materials, 114(1-3),93-100.

NIOSH. [2008a]. Control technology and exposure assessment for electronic recycling
operations, FCI Elkton Federal Correctional Institution, FCI Elkton, Ohio. Cincinnati,
OH: U.S. Department of Health and Human Services, Centers for Disease Control and
Prevention, National Institute for Occupational Safety and Health, Division of Applied
Research and Technology. August 2008. NIOSH File No. EPHB 326-12a

NIOSH. [2008b]. Letter and interim report: Findings and recommendations to improve
the safety and health of the inmates and staff at the Federal Correctional Institution (FCI)
in FCI Elkton, Ohio who where exposed to lead and cadmium during electronics
recycling. Cincinnati, OH: U.S. Department of Health and Human Services, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health.
HETA 2008-0055. July 16,2008.

Tonetti, R.                     ofUNICOR electronics recycling operations. Email
                              & P. Pryor. February 8, 2007.

OSHA. [Various dates]. Correspondence between OSHA and FCI Elkton Prison.
Compliance inspection and citations. April 18, 2005 - March 8, 2006.

OSHA. [1970]. Occupational Health and Safety Act of 1970. Public Law 91-596. Sec.
5(a)(1). Washington, DC: U.S. Department of Labor, Occupational Health and Safety
Administration. Available on the Internet at:
http://www.osha.gov/pls/oshaweb/owadisp.show document?p table~OSHACT&p id~3
359

Schmidt C.W. [2002]. e-Junk explosion. Environmental Health Perspectives. 110:A188­
A194.
ATTACHMENTS 

ATTACHMENT 1 

CONTROL TECHNOLOGY AND EXPOSURE ASSESSMENT FOR 

        ELECTRONIC RECYCLING OPERATIONS 

    ELKTON FEDERAL CORRECTIONAL INSTITUTION 

                  ELKTON, OHIO 





                       REPORT DATE: 

                        August 2008 





                          FILENO.: 

                        EPHB 326-l2a 





                  PRINCIPAL AUTHORS: 

                     Dan Almaguer, MS 

             G. Edward Burroughs, PhD, CIH, CSP 

                    Alan Echt, MPH, CIH 

                       David Marlow 





  U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES 

            Centers for Disease Control and Prevention 

       National Institute for Occupational Safety and Health 

          Division of Applied Research and Technology 

                   4676 Columbia Parkway, R5 

                      Cincinnati, Ohio 45226 

SITES SURVEYED:                                Unicor Recycling Operations
                                               Federal Correctional Institution
                                               Elkton, Ohio

NAICS:                                         562920

SURVEY DATE:                                   February 26 ­ March 2, 2007
                                               December 11 - 13, 2007

SURVEY CONDUCTED BY:                           Dan Almaguer, MS
                                               Ed Burroughs, Ph.D., CIH, CSP
                                               Keith Crouch, Ph.D.
                                               Alan Echt, MPH, CIH
                                               Dave Marlow
                                               AmirKhan




"The findings and conclusions in this report have not been formally disseminated by
the National Institute for Occupational Safety and Health and should not be construed
to represent any agency determination or policy."




                                          2

                                       DISCLAIMER 


Mention of company names or products does not constitute endorsement by the Centers for
Disease Control and Prevention.

The findings and conclusions in this report do not necessarily reflect the views ofthe National
Institute for Occupational Safety and Health.




                                               3

                                     CONTENTS 


Executive Summary                                                   p6 

I. 	   Introduction                                                 p8 

II. 	  Process Description                                          p 10 

III. 	 Sampling and Analytical Methods                              p 12 

IV. 	 Occupational Exposure Limits and Health Effects               p 14 

       A. 	   Inhalation Criteria 
                                 p 16 

              Barium 
                                              p 17 

              Beryllium 
                                           p 17 

              Cadmium 
                                             p 18 

              Lead 
                                                p 19 

              Nickel 
                                              p 19 

              Dust 
                                                p 20 

              Yttrium 
                                             p 20 

       B. 	   Surface Contamination Criteria 
                      p 20 

              Lead 
                                                p 21 

              Beryllium 
                                           p 22 

              Cadmium 
                                             p 22 

              Nickel 
                                              p 22 

              Barium 
                                              p 22 

       C. 	   Noise Exposure Criteria                               p 22 

V. 	   Resultsand Discussion                                        p 23 

       A. 	   Bulk Material Sample Results                          p 23 

       B. 	   Surface Wipe Sample Results                           p24 

       C. 	   Air Sample Results                                    p24 

       D. 	   Particle Size Sample Results                          p 26 

       E. 	   Sound Level Measurements                              p 27 

       F. 	   Air Flow Observations                                 p 28 

VI. 	 Conclusions                                                   p 29 



                            Tables, Appendices and Figures
Table 1      Summary Statistics for Airborne Metal Measurements
Table 2      Airborne Metal Measurements
Table 3      Impactor Samples
Table 4      Wipe Sample Results
Table 5      Composition of Bulk Dust Samples from the Glass Breaking Operation
Table 6      Noise Exposure Measurements


Appendix A   Occupational Exposure Criteria for MetalJElements
Appendix B   Metallic Composition of Bulk Dust Samples from the Glass Breaking Operation
Appendix C   Metallic Composition of Wipe Samples
Appendix D   Metallic Composition of Filter Samples




                                           4

Figure I      Diagram of the Unicor factory located within the FCI main compound
Figure II     Diagram of the Unicor facility in the Federal Satellite Low (FSL)
Figure III    Diagram of the warehouse handling electronics recycling operations
Figure IV     Diagram of the glass breaking operation within the FCI
Figure V      Elkton Warehouse
Figure VI     Elkton Recycling Factory Disassembly Area
Figure VII    Glass Breaking Operation
Figure VIII   Filter Change Operation in Glass Breaking Operation Showing High Dust
              Levels
Figure IX     Five cut particle size distribution from impactor data
Figure X      Three cut particle size distribution from impactor data




                                            5

                                   EXECUTIVE SUMMARY 


Researchers from the National Institute for Occupational Safety and Health (NIOSH)
conducted a study ofthe recycling of electronic components at the Federal Prison Industries
facilities (aka, Unicor) in Elkton, Ohio, to assess workers ' exposures to metals and other
occupational hazards, including noise, associated with these operations. An in-depth
evaluation was conducted from February 26 to March 2, 2007, and a follow-up survey was
conducted from December 11 to 13, 2007, to evaluate changes made in selected activities as a
result of initial recommendations.

The electronics recycling operations at Elkton can be organized into four production processes:
a) receiving and sorting, b) disassembly, c) glass breaking operations, and d) packaging and
shipping. A fifth operation, cleaning and maintenance, was also addressed but is not
considered a production process per se. It is known that lead (Pb), cadmium (Cd), and other
metals are used in the manufacturing of electronic components and pose a risk to workers
involved in recycling of electronic components if the processes are not adequately controlled or
the workers are not properly trained and provided appropriate personal protective clothing and
equipment.

Methods used to assess worker exposures to metals during this evaluation included: personal
breathing zone and area sampling for airborne metals; particle size sampling; surface wipe
sampling to assess surface contamination; and bulk material samples to determine the
composition of settled dust. Samples were analyzed for up to 31 metals with five selected
elements (barium, beryllium, cadmium, lead and nickel) given emphasis. Noise exposures
were determined using personal dosimeters.

The results of air sampling conducted during the February / March visit indicated that the
highest exposures occurred to workers during the filter change-out maintenance operation.
Airborne concentrations of Cd and Pb measured during filter change-out showed an 8-hour
time weighted average of about 150 times the OSHA Permissible Exposure Limit (PEL) for Cd
and 15 times the OSHA PEL for Pb for one ofthe two workers. Air samples collected on a
second worker showed airborne concentrations of30 times the PEL for Cd and 4 times the
PEL for Pb. In both cases the results showed that the Cd concentrations exceeded the assigned
protection factor for the powered air-purifying respirator being used by the workers. An over­
exposure to Cd was also found during the weekly clean-up operation.

Although beryllium is used in consumer electronics and computer components, such as disk
drive arms (beryllium-aluminum), electrical contacts, switches, and connector plugs (copper­
beryllium) and printed wiring boards [Willis and Florig 2002, Schmidt 2002], most beryllium
"in consumer products is used in ways that are not likely to create beryllium exposures during
use and maintenance" [Willis and Florig 2002]. This may account for the fact that beryllium in
this study was measured in only two samples at levels above the detection limit of the
analytical method. The removal and sorting of components seen here is typical of a
maintenance activity (components are removed from the cases and sorted, rather than removed
and replaced). Other e-recycling activities that include further processing, such as shredding of




                                               6

the components, may produce higher exposures to beryllium but these processes are not done
at this facility.

Samples collected during routine daily glass breaking operations were less than 20% ofthe
OSHA PELs for both Cd and Pb. Samples collected on disassembly workers in the general
factory area of all three buildings ranged from non-detectable to 10% of the OSHA PEL for Cd
and ranged from non-detectable to 5% ofthe OSHA PEL for Pb. Unless specified, results of
samples presented are for duration of sample and not calculated on an 8 hour time weighted
average basis.

Lead, cadruium and other heavy metals were detected in the surface wipe and bulk dust
samples. There are few established standards available for wipe samples with which to
compare these data. Most of the surfaces tested for lead indicated levels exceeding the most
stringent criteria. The wipe sample results can not be used to deterruine when the
contamination occurred. They only represent the surface contamination present at the time the
sample was collected.

Measurement of noise levels indicated several samples exceeding the REL and TLV of 85 dBA.
One sample exceeded the PEL of90 dBA and 3 other samples exceeded 50% ofthe allowable dose
requiring that those employees be placed in a hearing conservation program.

As a result ofthe February/March 2007 survey, it was recommended that the filter change
operation be modified and that improved dust suppression methods be used to reduce airborne
concentrations. Specific recommendations (implemented prior to the second evaluation) include:
1) the use of water spray to suppress dust during the filter change-out operation; 2) the immediate
bagging and disposal of used filters rather than attempting to clean and re-use them; and 3) the
use of HEP A vacuums and wet mopping to remove dust from the floor and work surfaces.
Measurements made during the follow-up survey in December 2007 indicated significant
reductions in the levels of airborne contaminants during this modified operation although
respiratory protection during the filter change operation continues to be necessary and other
improvements are needed. These improvements are described in detail later in this report.

Recommendations resulting from this study include:
 • 	 The respiratory protection program for this facility should be evaluated for this operation in 

     order to ensure that it complies with OSHA regulations. 

 • 	 Attention should be focused on practices to prevent accidental ingestion of lead.
 • 	 Management should evaluate the feasibility of providing and laundering work clothing for 

     all workers in the recycling facility. 

 • 	 Change rooms should be equipped with separate storage facilities for work clothing and for 

     street clothes to prevent cross-contaruination. 

 • 	 A hearing conservation program must be implemented for workers in the glass breaking 

     operation. 

 • 	 All Unicor operations should be evaluated from the perspective of health, safety and the 

     environment in the near future. 

 • 	 A comprehensive program is needed within the Bureau to assure both staff and inmates a 

     safe and healthy workplace. 




                                                 7

I. INTRODUCTION

Researchers from the National Institute for Occupational Safety and Health (NIOSH)
conducted a study of exposures to metals and other occupational hazards associated with the
recycling of electronic components at the Federal Prison Industries (aka, Unicor) in Elkton,
Ohio.' The principal objectives of this study were:

1.      To measure full-shift, personal breathing zone exposures to metals including barium,
beryllium, cadmium, lead and nickel;

2.      To evaluate contamination of surfaces in the work areas that could permit skin contact
or allow re-suspension of metals into the air;

3.     To identify and describe the control technology and work practices in use in operations
associated with occupational exposures to metals, as well as to determine additional controls,
work practices, substitute materials, or technology that can further reduce occupational
exposures;

4.      To evaluate the use of personal protective equipment in operations involved in the
recycling of electronic components; and,

5.      To determine the size distribution of airborne particles for purposes oftoxicity and
control.

Other objectives such as a preliminary evaluation of noise exposures and visual observations of
undocumented hazards, were secondary to those listed above but are discussed as appropriate
in this document.

An initial walk-through evaluation was conducted on November 29, 2006, to observe processes
and conditions in order to prepare for subsequent testing. An in-depth evaluation was
conducted from February 26 to March 2, 2007, during which two full shifts of environmental
monitoring were conducted for the duration of normal plant operations. An additional two
days of monitoring were conducted during cleaning and maintenance as described later in
Section II (Process Description) and Section III (Sampling and Analytical Methods). A
follow-up survey was conducted December 11 - 13,2007, to evaluate changes made in the
cleaning and maintenance activities as a result ofthe recommendations contained in Section VI
(Conclusions and Recommendations).

Computers and their components contain a number of hazardous substances. Among these are
"platinum in circuit boards, copper in transformers, nickel and cobalt in disk drives, barium
and cadmium coatings on computer glass, and lead solder on circuit boards and video screens"
[Chepesink 1999]. The Environmental Protection Agency (EPA) notes that "In addition to
lead, electronics can contain chromium, cadmium, mercury, beryllium, nickel, zinc, and
brominated flame retardants" [EPA 2008]. Schmidt [2002] linked these and other substances

, This report documents the study conducted at Elkton, Ohio. Other NIOSH field studies were conducted at
Federal correctional facilities in Lewisburg, Pennsylvania and Marianna, Florida


                                                        8

to their use and location in the "typical" computer: lead used to join metals (solder) and for
radiation protection, is present in the cathode ray tube (CRT) and printed wiring board (PWB).
Aluminum, used in structural components and for its conductivity, is present in the housing,
CRT, PWB, and connectors. Gallium is used in semiconductors; it is present in the PWB.
Nickel is used in structural components and for its magnetivity; it is found in steel housing,
CRT and PWB. Vanadium functions as a red-phosphor emitter; it is used in the CRT.
Beryllium, used for its thermal conductivity, is found in the PWB and in connectors.
Chromium, which has decorative and hardening properties, may be a component of steel used
in the housing. Cadmium, used in Ni-Cad batteries and as a blue-green phosphor emitter, may
be found in the housing, PWB and CRT. Cui and Forssberg [2003] note that cadmium is
present in components like SMD chip resistors, semiconductors, and infrared detectors.
Mercury may be present in batteries and switches, thermostats, sensors and relays [Schmidt
2002, Cui and Forssberg 2003], found in the housing and PWB. Arsenic, which is used in
doping agents in transistors, may be found in the PWB [Schmidt 2002].

Lee et al. [2004] divided the personal computer into three components, the main machine,
monitor, and keyboard. They further divided the CRT of a color monitor into the "(1) panel
glass (faceplate), (2) shadow mask (aperture), (3) electronic gun (mount), (4) funnel glass and
(5) deflection yoke. Lee et al. [2004] note that panel glass has a high barium concentration (up
to 13%) for radiation protection and a low concentration oflead oxide. The funnel glass has a
higher amount of lead oxide (up to 20%) and a lower barium concentration. They analyzed a
14-in Philips color monitor by electron dispersive spectroscopy and reported that the panel
contained silicon, oxygen, potassium, barium and aluminum in concentrations greater than 5%
by weight, and titanium, sodium, cerium, lead, zinc, yttrium, and sulfur in amounts less than
5% by weight. Analysis ofthe funnel glass revealed greater than 5% silicon, oxygen, iron and
lead by weight, and less than 5% by weight potassium, sodium, barium, cerium, and carbon.
Finally, Lee et al. [2004] noted that the four coating layers are applied to the inside ofthe panel
glass, including a layer of three fluorescent colors (red, blue and green phosphors) that contain
various metals, and a layer of aluminum film to enhance brightness.

German investigators [BrA 2001, Berges 2008a] broke 72 cathode-ray tubes using three
techniques (pinching offthe pump port, pitching the anode with a sharp item, and knocking off
the cathode) in three experiments performed on a test bench designed to measure emissions
from the process. Neither lead nor cadmium was detected in the total dust, with one exception,
where lead was detected at a concentration of 0.05 mg/cathode ray tube during one experiment
wherein the researchers released the vacuum out of 23 TVs by pinching offthe pump port
[BIA 2001, Berges 2008b]. They described this result as "sufficiently low that a violation of
the German atmospheric limit value of 0.1 mglm3 need not generally be anticipated" [BIA
2001]. The researchers noted that "the working conditions must be organized such that skin
contact with and oral intake of the dust are excluded" [BrA 2001].

However, there are few articles documenting occupational exposures among electronics
recycling workers. Sjodin et al. [2001] and Pettersson-Julander et al. [2004] have reported
potential exposures of electronics recycling workers to flame retardants while they dismantled
electronic products, although no retardants were used in this facility. Recycling operations in
the Elkton facility are limited to disassembly and sorting tasks, with the exception of breaking



                                                9

CRTs and stripping insulation from copper wiring. Disassembly and sorting probably poses
less of a potential hazard to workers than tasks that disrupt the integrity ofthe components,
such as shredding or de soldering PWBs.

The process of greatest concern was the glass breaking operation (described below) that
releases visible emissions into the workroom atmosphere. Material safety data sheets and other
information on components of CRTs broken in this operation listed several metals, including
Pb, Cd, Be and Ni. In addition, FOR investigators expressed a particular interest in Ba.

II. PROCESS        DESCRIPTION

The recycling of electronic components at the Elkton Federal Correctional Institution (FCI) is
done in three separate buildings: 1) the main factory located within the FCI main compound; 2)
the Federal Satellite Low (FSL); and 3) the warehouse. Diagrams of these work areas are
shown in Figures I, II and III, respectively, with an enlargement of the glass breaking operation
in Figure IV. These figures provide a general visual description of the layout of the work
process, although workers often moved throughout the various areas in the performance of
their tasks. Photographs from these areas are also included and identified below.

The electronics recycling operations can be organized into four production processes: a)
receiving and sorting, b) disassembly, c) glass breaking operations, and d) packaging and
shipping. A fifth operation; cleaning and maintenance, will also be addressed but is not
considered a production process per se.

Incoming materials to be recycled are received at the warehouse (see Figure III) where they are
examined and sorted. During this evaluation it appeared that the bulk ofthe materials received
were computers, either desktop or notebooks, or related devices such as printers. Some items,
notably notebook computers, could be upgraded and resold, and these items were sorted out for
that task.

After electronic memory devices (e.g., hard drives, discs, etc.) were removed and degaussed or
shredded, computer central processing units (CPUs), servers and similar devices were sent for
disassembly; monitors and other devices (e.g., televisions) that contain CRTs were separated
and sent for disassembly and removal of the CRT. Printers, copy machines and any device that
could potentially contain toner, ink, or other expendables were segregated and inks and toners
were removed prior to being sent to the disassembly area.

In the disassembly process (see Figures I and II), external cabinets, usually plastic, were
removed from all devices and segregated. Valuable materials such as copper wiring and
aluminum framing were removed and sorted by grade for further treatment if necessary.
Components such as circuit boards or chips that may have value or may contain precious
metals such as gold or silver were removed and sorted. With few exceptions each ofthe
approximately 85 workers in the main factory will perform all tasks associated with the
disassembly of a piece of equipment into the mentioned components with the use of powered
and un-powered hand tools (primarily screwdrivers and wrenches), with a few workers
collecting the various parts and placing them into the proper collection bin. Work tasks



                                               10 

including removing screws and other fasteners from cabinets, unplugging or clipping electrical
cables, removing circuit boards, and using whatever other methods necessary to break these
devices into their component parts. Essentially all components currently are sold for some type
of recycling.

The third production process to be evaluated was the glass breaking operation where CRTs
from computer monitors and TVs were sent for processing. This was an area of primary
interest in this evaluation due to concern from staff, review of process operations and materials
involved, and observations during an initial walk-through. This was the only process where
local exhaust ventilation was utilized or where respiratory protection was in universal use.
Workers in other locations would wear eye protection and occasionally would voluntarily wear
a disposable respirator. The local exhaust ventilation system consisted of a large walk-in hood,
approximately 8 ft high and 16 ft wide and 6 ft deep, with 2 or 3 workers positioned toward the
front. Air was pulled from behind the workers, past the work area where contaminant was
released, and through a filtration system. The filtration system consisted of a blanket filter, a
bank of pocket filters, and a high efficiency particulate air (HEPA) filter to remove
progressively smaller particles from the air before exhausting into a storage area behind the
hood.

Workers in the glass breaking operation wore powered air-purifying respirators (PAPRs),
(MBI4-72 PAPR wi Super Top Hood, Woodsboro, MD, Global Secure Safety). Respirators,
work boots, gloves and coveralls were donned and doffed in the changing area of the glass
breaking room (see Figure IV) where street shoes were stored during the work day and the PPE
was stored during off time. CRTs that had been removed from their cases were brought to this
process area where they were placed on a metal grid for breaking. First the electron gun was
removed by tapping with a hammer to break it free from the tube. Then a series of hammer
blows was used to break the funnel glass and allow it to fall through the metal grid into large
Gaylord boxes (cardboard boxes approximately 3 feet tall designed to fit on a standard pallet)
positioned below the grid. Finally, any internal metal framing or lattice was removed before
the panel glass was broken with a hammer and also allowed to fall into a Gaylord box. During
the days of sampling the glass breaking operation was in "normal production" with regard to
the number ofCRTs broken. (Various sources stated that "normal" ranged from 250 to almost
800.) The count was not recorded for the March study, but during the December visit 442 and
265 monitors were broken on the two days of sampling. No count was made by the survey
team regarding the number of color vs monochrome monitors broken.

The final production process, packing and shipping, returned the various materials segregated
during the disassembly and glass breaking processes to the warehouse to be sent to contracted
purchasers ofthose individual materials. To facilitate shipment some bulky components such
as plastic cabinets or metal frames were placed in a hydraulic bailer to be compacted for easier
shipping. Other materials were boxed or containerized and removed for subsequent sale to a
recycling operation.

In addition to monitoring routine daily activities in the four production processes described
above, environmental monitoring was conducted to evaluate exposures during a weekly
cleaning operation in the glass breaking operation and during the replacement of filters in the



                                               11 

local exhaust ventilation system used for the glass breaking operation. The weekly cleaning
involves all six workers in this area to perform routine cleaning operations such as sweeping
and vacuuming. This task, done only in the glass breaking operation and taking approximately
a half day, requires that all equipment in the area is either vacuumed with a HEP A vacuum or
wiped with a wet mop. This same procedure is used for all walls, work surfaces (including the
exposed surfaces ofthe blanket filter), and floors. Any areas where dust might accumulate are
cleaned with one ofthese techniques. During the initial study dry sweeping was used to clean
floors, but it was recommended that this practice be replaced with the vacuuming or mopping
and during the second study that change was in place. Workers wore their normal work
clothing during this procedure and the local exhaust ventilation system was in operation.

The filter change operation is normally performed by two workers (three were involved during
the time of the second study because one was in training) who wear disposable Tyvek
coveralls, gloves and PAPRs while they remove all three sets of filters, clean the system, and
replace the filters. The filter change is a maintenance operation that occurs at approximately
monthly intervals during which the ventilation system is shut down and all three sets of filters
are removed and replaced (see Figure IV). Initially the blanket filter is vacuumed then
removed. Then the pocket filters that are located behind the blanket filter are removed and the
containment structure for both is vacuumed. Finally the HEPA filters, which are in a separate
structure downstream from the fan, are removed and this area is vacuumed. During the initial
sampling visit all filters were cleaned by vacuuming and/or by shaking to remove dust, and re­
installed. The practice of replacing all filters as part of this operation was implemented prior to
the second sampling visit and the entire process was wetted with a water spray prior to filter
removal. This operation was of particular interest because of concern expressed by
management and workers and anticipation of elevated exposures.

Subsequent to the initial monitoring of airborne particulate during the filter change operation,
modifications were made to the procedure used for this process. The recommended changes
included: 1) the immediate bagging and disposal of used filters rather than attempting to clean
and re-use them; 2) the use of a water spray to suppress dust during the filter change operation;
and 3) the use of HEP A vacuums and wet mopping to remove dust from the floor and work
surfaces. The procedure was modified by the addition of a "spray down" step in which all
filters were wetted with a water mist prior to removal, and the filters were then immediately
bagged in plastic for disposal rather than being cleaned for re-use.

III.   SAMPLING AND ANALYTICAL METHODS

Methods used to assess worker exposures in this workplace evaluation included: personal
breathing zone and area sampling for airborne metals; particle size sampling; surface wipe
sampling to assess surface contamination; and bulk material samples to determine the
composition of settled dust. Material safety data sheets and background information on CRTs
and other processes in this operation listed several metals, including Pb, Cd, Be and Ni.
Additionally, Federal Occupational Health (FOH) personnel expressed specific interest in Ba.

Personal breathing zone and general area airborne particulate samples were collected and
analyzed for metals and during the follow-up visit for airborne particulate. Samples were



                                                12 

collected for as much ofthe work shift as possible, at a flow rate of 3 liters/minute (Llmin)
using a calibrated battery-powered sampling pump (Model 224, SKC Inc., Eighty Four, PA)
connected via flexible tubing to a 37-mm diameter filter (0.8 /lm pore-size mixed cellulose
ester filter) in a 3-piece, clear plastic cassette sealed with a cellulose shrink band. These
samples were subsequently analyzed for metals using inductively coupled plasma spectroscopy
(ICP) according to NIOSH Method 7300 [NIOSH 1994] with modifications. It is possible to
determine both airborne particulate as well as metals on the same sample by using a pre­
weighed filter (for both respirable and total particulate samples) and then post-weighing that
filter to determine weight gain before digesting for metals analysis. This analytical technique
produces a measure for dust and a measure of 31 elements, including the five of particular
interest mentioned above, and that information is appended to this report. Because Method
7300 is an elemental analysis, the laboratory report describes the amount of the element present
in each sample (/lg/sample) as the element, regardless ofthe compound in which the element
was present in the sample.

During the follow-up visit, sampling was conducted for respirable particulates. The respirable
portion of a representative subset of samples was separated for collection using 37 mm
aluminum cyclones (Cat. 225-01-02, SKC Inc., Eighty Four, PA) at a flow rate of2.5 Llmin,
and analysis by weight, as specified in NIOSH method 0600 [NIOSH 1994]. This was done to
determine the fraction of airborne contaminant in the respirable size range. Those samples
were analyzed using NIOSH Method 7300 [NIOSH 1994] like those above.

Because there is evidence that the presence of an ultrafine component increases the toxicity for
chronic beryllium disease and possibly other toxic effects, information on the aerosol size
distribution was collected to assist in evaluation ofthe potential exposure [McCawley et al.
2001]. Personal breathing zone and general area aerosol size distributions were determined
using four-stage Sioutas Cascade Impactors (SKC, Inc., Eighty Four, PA), having nominal
50% cut points of 0.25, 0.5, 1, and 2.5 /lm aerodynamic diameter. The sampling flow rate for
these impactors was 9 Llmin, provided by a calibrated Leland LegacyTM sampling pump (SKC,
Inc., Eighty Four, PA) [Misra et al. 2002]. A 25-mm diameter, 0.8 /lm pore size PVC filter
was used on each stage of the impactor to collect particles. A 37-mm diameter, 5 /lm pore size
PVC filter was used as a backup to collect all particles that were not impacted on the previous
four stages. The impactor filters were analyzed by ICP in accordance with NIOSH Method
7300 modified for microwave digestion [NIOSH 1994]. During the follow-up study cyclones
were used rather than impactors to provide a measure of respirable fraction for metals and total
dust.

Bulk material samples were collected by gathering a few grams of settled dust or material of
interest and transferring this to a glass collection bottle for storage and shipment. These
samples were analyzed for metals using NIOSH Method 7300 [NIOSH 1994] modified for
bulk digestion.

Surface wipe samples were collected using Ghost™ Wipes for metals (Environmental Express,
Mt. Pleasant, SC) and Palintest® Dust Wipes for Be (Gateshead, United Kingdom) to evaluate
surface contamination. These wipe samples were collected in accordance with ASTM Method
D 6966-03 [ASTM 2002], with a disposable paper template with alO-cm by 10-cm square



                                               13 

opening. The templates were held in place by hand or taped in place, to prevent movement
during sampling. Wipes were placed in sealable test tube containers for storage until analysis.
Ghost Wipes™ were sent to the laboratory to be analyzed for metals according to NIOSH
Method 7303 [NIOSH 1994]. Palintest wipes were analyzed for beryllium using the Quantech
Fluorometer (Model FMI09515, Barnstead International, Dubuque, Iowa) for
spectrofluorometric analysis by NIOSH Method 9110 [NIOSH 1994].

An initial assessment of noise levels during various tasks in all operations was made during the
first in-depth study using a hand held sound level meter. This brief sound-level survey was
used to determine where to target noise dosimetry during the follow-up study. During the
follow-up study time weighted average noise exposures were determined using personal
dosimeters (Quest Technologies model Q300, Oconomowoc, WI) capable of simultaneously
logging sound pressure levels under three sets of parameters. For this evaluation data are
reported using both the OSHA and NIOSH parameters as follows:

                                OSHA               NIOSH
       Criteria (dB)             90                 85
       Exchange rate              5                  3
       Threshold                 80                  0
       Weight                     A                  A
       Time constant           Slow               Slow

All dosimeters and sound level meters were calibrated on-site prior to use with a 110 dB source
and data were downloaded to a laptop computer.

Observations regarding work practices and use of personal protective equipment were
recorded. Information was obtained from conversations with the workers and management to
determine ifthe sampling day was a typical workday to help place the sampling results in
proper perspective.

A qualitative evaluation of the glass-breaking booth ventilation system was performed during
the initial site visit. A smoke machine and smoke tubes were used to study the air flow
patterns in the glass break area. The area was separated into four areas (A, B, C and D; see
Figure VII) by transparent vinyl curtains hanging from ceiling to floor, and slit vertically at
about 6 inch intervals to permit personnel and apparatus to pass through. The ventilation
system was intended to capture any emissions of respirable dust, as well as larger airborne
debris, generated during the CRT breaking process. No workers were present in the glass
breaking operation at the time ofthis smoke study. Smoke was released in all four areas in
order to visually observe air flow patterns.

IV.    OCCUPATIONAL EXPOSURE LIMITS AND HEALTH EFFECTS

In evaluating the hazards posed by workplace exposures, NIOSH investigators use mandatory
and recommended occupational exposure limits (OELs) for specific chemical, physical, and
biological agents. Generally, OELs suggest levels of exposure to which most workers may be
exposed up to 10 hours per day, 40 hours per week for a working lifetime without experiencing



                                               14 

adverse health effects t. It is, however, important to note that not all workers will be protected
from adverse health effects even though their exposures are maintained below these levels. A
small percentage may experience adverse health effects because of individual susceptibility, a
pre-existing medical condition, and/or hypersensitivity (allergy). In addition, some hazardous
substances may act in combination with other workplace exposures, the general environment,
or with medications or personal habits ofthe worker to produce health effects even ifthe
occupational exposures are controlled at the level set by the exposure limit. Combined effects
are often not considered in the OEL. Also, some substances can be absorbed by direct contact
with the skin and mucous membranes in addition to being inhaled, thus contributing to the
overall exposure. Finally, OELs may change over the years as new information on the toxic
effects of an agent become available.

Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the
average exposure during a normal 8- to lO-hour workday!' Some chemical substances and
physical agents have recommended short-term exposure limits (STEL) or ceiling values where
there are health effects from higher exposures over the short-term. Unless otherwise noted, the
STEL is a IS-minute TWA exposure that should not be exceeded at any time during a workday,
and the ceiling limit is an exposure that should not be exceeded at any time, even
instantaneously.

In the U.S., OELs have been established by Federal agencies, professional organizations, state
and local governments, and other entities. Some OELs are mandatory, legal limits; others are
recommendations. The U.S. Department of Labor Occupational Safety and Health
Administration (OSHA) Permissible Exposure Limits (PELs) [29 CFR 1910 (general industry);
29 CFR 1926 (construction industry); and 29 CFR)915, 1917 and)918Jmaritime industry)]
are legal limits that are enforceable in workplaces covered under the Occupational Safety and
Health Act and in Federal workplaces under Executive Order 12196 [NARA 2008]. NIOSH
Recommended Exposure Limits (RELs) are recommendations that are made based on a critical
review ofthe scientific and technical information available on the prevalence of hazards, health
effects data, and the adequacy of methods to identify and control the hazards.
Recommendations made through 1992 are available in a single compendium [NIOSH 1992];
more recent recommendations are available on the NIOSH Web site
(http://www.cdc.gov/niosh). NIOSH also recommends preventive measures (e.g., engineering
controls, safe work practices, personal protective equipment, and environmental and medical
monitoring) for reducing or eliminating the adverse health effects ofthese hazards. The
NIOSH Recommendations have been developed using a weight of evidence approach and
formal peer review process. Other OELs that are commonly used and cited in the U.S. include
the Threshold Limit Values (TLV s) ® recommended by the American Conference of

t   On March 20,1991, the Supreme Court decided the case ofIntemational Union, United Automobile, Aerospace
& Agricultural Implement Workers of America, UAW v. Johnson Controls, Inc., III S. Ct. 1196,55 EPD 40,605.
It held that Title VII forbids sex-specific fetal protection policies. Both men and women must be protected
equally by the employer.
t OSHA PELs, unless otherwise noted, are TWA concentrations that must not be exceeded during any 8-hour
workshift of a 40-hour work-week [NIOSH 1997]. NIOSH RELs, unless otherwise noted, are TWA
concentrations for up to a 10-hour workday durnig a 40-hour workweek [NIOSH 1997]. ACGIW TLVs®, unless
otherwise noted, are TWA concentrations for a conventional 8-hour workday and 40-hour workweek [ACGIH
2008]


                                                      15 

Governmental Industrial Hygienists (ACGIH) ®, a professional organization [ACGIH 2008].
ACGIH® TLV s® are considered voluntary guidelines for use by industrial hygienists and others
trained in this discipline "to assist in the control of health hazards." Workplace Environmental
Exposure Levels (WEELs) are recommended 0 ELs developed by AIHA, another professional
organization. WEELs have been established for some chemicals "when no other legal or
authoritative limits exist" [AIHA 2007].

Employers should understand that not all hazardous chemicals have specific OSHA PELs and
for many agents, the legal and recommended limits mentioned above may not reflect the most
current health-based information. However, an employer is still required by OSHA to protect
their employees from hazards even in the absence of a specific OSHA PEL. In particular,
OSHA requires an employer to furnish employees a place of employment that is free from
recognized hazards that are causing or are likely to cause death or serious physical harm
[Occupational Safety and Health Act of 1970, Public Law 91-596, sec. 5(a)(1)]. Thus, NIOSH
investigators encourage employers to make use of other OELs when making risk assessment
and risk management decisions to best protect the health oftheir employees. NIOSH
investigators also encourage the use of the traditional hierarchy of controls approach to
eliminating or minimizing identified workplace hazards. This includes, in preferential order,
the use of: (1) substitution or elimination of the hazardous agent, (2) engineering controls (e.g.,
local exhaust ventilation, process enclosure, dilution ventilation) (3) administrative controls
(e.g., liruiting time of exposure, employee training, work practice changes, medical
surveillance), and (4) personal protective equipment (e.g., respiratory protection, gloves, eye
protection, hearing protection).

Both the OSHA PELs and ACGIH® TLV s® address the issue of combined effects of airborne
exposures to multiple substances [29 CFR 1910.1000(d)(1)(i), ACGIH 2008]. ACGIH® [2008]
states:

  When two or more hazardous substances have a similar toxicological effect on the same
  target organ or system, their combined effect, rather than that of either individually, should
  be given primary consideration. In the absence of information to the contrary, different
  substances should be considered as additive where the health effect and target organ or
  system is the same. That is, ifthe sum of
                               C1 C 2       Cn
                               -+-+ ... -                             Eqn.l
                               1:,   T2      Tn
  exceeds unity, the threshold liruit ofthe ruixture should be considered as being exceeded
  (where C 1 indicates the observed atmospheric concentration and Tl is the corresponding
  threshold liruit ...).

A. Exposure Criteria for Occupational Exposure to Airborne Chemical Substances

The OELs for the five primary contaminants of interest, in micrograms per cubic meter
(flg/m\ are summarized and additional information related to those exposure limits is
presented below.




                                                  16 

                                                                                 3
        Occupational Exposure Limits for Five Metals of Primary Interest (/.121m')
       Barium (Ba)       Beryllium (Be)       Cadmium (Cd)      Lead (Pb)       Nickel (Ni)
                                           Lowest Feasible
REL    SOO TWA       O.S TWA                                   SO TWA         IS TWA
                                           Concentration
                     2 TWA
                     S (30 minute ceiling)
PEL    SOOTWA                              STWA                SO TWA         1000 TWA
                     2S (peak exposure
                     never to be exceeded)
                                                                              lSOO TWA
                                                                             ( elemental)
                                                                              100 TWA
                                                                             (soluble
                                                                              .      .
                     2 TWA                 10 (total) TWA                    morgarnc
TLY    SOOTWA                                                  SO TWA
                     10 (STEL)             2 (respirable) TWA                compounds)
                                                                             200 TWA
                                                                             (insoluble
                                                                              .      .
                                                                             morgarnc
                                                                             compounds

While this subset of five metals has been selected for consideration through the body of this
report because their presence was noted on MSDSs or other information pertaining to CRTs
and other processes at this facility (beryllium, cadmium, lead and nickel) or due to the interest
expressed in barium exposures by FOH personnel, the occupational exposure limits of all 31
metals quantified in this work are listed in Appendix A. Note that these limits refer to the
contaminant as the element (e.g., the TLYs®, beryllium and compounds, as Be; cadmium and
compounds, as Cd [ACGIH 2008]). Additionally, the OELs for dust and yttrium are presented
here since these substances were found at high levels.

Occupational Exposure Criteria/or Barium (Ba)

The current OSHA PEL, NIOSH REL, and ACGIH® TLY® is O.S mg/m3 as a TWA for
airborne barium exposures (barium and soluble compounds, except barium sulfate, as barium)
[29 CFR 1910.1000, NIOSH 200S, ACGIH 2008]. There is no AIHA WEEL for barium
[AIHA 2007]. Skin contact with barium, and many of its compounds, may cause local
irritation to the eyes, nose, throat and skin, and may cause dryness and cracking ofthe skin and
skin bums after prolonged contact [Nordberg 1998].

Occupational Exposure Criteria/or Beryllium (Be)

The OSHA general industry standard sets a beryllium PEL of 2 Ilg/m3 for an 8-hour TWA, a
ceiling concentration of S Ilg/m3, not to exceed 30 minutes and a maximum peak concentration
of2S Ilg/m3, not to be exceeded for any period oftime [29 CFR 1910.1000]. The NIOSH REL
for beryllium is O.S Ilg/m3 for up to a 10-hour work day, during a 40-hour workweek [NIOSH
200S]. The current TLY® is an 8-hr TWA of2llg/m3, and a STEL of 10 llg/m3 [ACGIH
2008]. The ACGIH® published a notice of intended changes for the beryllium TLY® to O.OS
Ilg/m3 TWA and 0.2 llg/m3 STEL based upon studies investigating both chromc beryllium



                                               17 

disease and beryllium sensitization [ACGIH 2008]. There is no AIHA WEEL for beryllium
[AIHA 2007]. Beryllium has been designated a known human carcinogen by the International
Agency for Research on Cancer [IARC 1993].

Occupational Exposure Criteria/or Cadmium (Cd)
                                         3
The OSHA PEL for cadmium is 5 /lglm as a TWA [29 CFR 1910.1027]. Exposure at or
above half that value, the Action Level of 2. 5 /lglm3 TWA, requires several actions of the
employer. These include providing respiratory protection if requested [29 CFR
1910.1027(g)(1)(v)], medical surveillance if currently exposed more than 30 days per year
[1910.1027(1)(1)(i)(A)], and medical surveillance if previously exposed unless potential
aggregated cadmium exposure did not exceed 60 months [1910.1027(1)(1)(i)(b)]. Initial
examinations include a medical questionnaire and biological monitoring of cadmium in blood
(CdB), cadmium in urine (CdU), and Beta-2-microglobulin in urine (~2-M) [29 CFR
1910.1027 Appendix A]. An employee whose biological testing results during both the initial
and follow-up medical examination are elevated above the following trigger levels must be
medically removed from exposure to cadmium at or above the action level: (1) CdU level:
above 7 /lglg creatinine, or (2) CdB level: above 10 /lg/liter of whole blood, or (3) ~2-M level:
above 750 /lg/ g creatinine and (a) CdU exceeds 3 /lgl g creatinine or (b) CdB exceeds 5 /lg/liter
of whole blood [OSHA 2004].

The ACGIH® TLY® for cadmium and compounds as cadmium is 10 /lg/m3 as a TWA, and 2
/lg/m3 TWA for the respirable fraction of airborne cadmium and compounds, as cadmium
[ACGIH 2008]. The ACGIH® also published a Biological Exposure Index® that recommends
that cadmium blood level be controlled at or below 5 /lg/L and urine level to be below 5 /lg/g
creatinine [ACGIH 2008]. There is no AIHA WEEL for cadmium [AIHA 2007].

In 1976, NIOSH recommended that exposures to cadmium in any form should not exceed a
concentration greater than 40 /lglm3 as a lO-hour TWA or a concentration greater than 200
/lg/m3 for any 15-minute period, in order to protect workers against kidney damage and lung
disease. In 1984, NIOSH issued a Current Intelligence Bulletin, which recommended that
cadmium and its compounds be regarded as potential occupational carcinogens based upon
evidence oflung cancer among a cohort of workers exposed in a smelter [NIOSH 1984].
NIOSH recommends that exposures be reduced to the lowest feasible concentration [NIOSH
2005]. This NIOSH REL was developed using a previous NIOSH policy for carcinogens (29
CFR 1990.103). The current NIOSH policy for carcinogens was adopted in September 1995.
Under the previous policy, NIOSH usually recommended that exposures to carcinogens be
limited to the "lowest feasible concentration," which was a nonquantitative value. Under the
previous policy, most quantitative RELs for carcinogens were set at the limit of detection
(LOD) achievable when the REL was originally established. From a practical standpoint,
NIOSH testimony provided in 1990 on OSHA's proposed rule on occupational exposure to
cadmium noted that, "NIOSH research suggests that the use of innovative engineering and
work practice controls in new facilities or operations can effectively contain cadmium to a
level of 1 /lg/m3. Also, most existing facilities or operations can be retrofitted to contain
cadmium to a level of 5 /lg/m3 through engineering and work practice controls" [NIOSH
1990].



                                                18 

Early symptoms of cadmium exposure may include mild irritation of the upper respiratory
tract, a sensation of constriction ofthe throat, a metallic taste and/or cough. Short-term
exposure effects of cadmium inhalation include cough, chest pain, sweating, chills, shortness
of breath, and weakness. Short-term exposure effects of ingestion may include nausea,
vomiting, diarrhea, and abdominal cramps [NIOSH 1989]. Long-term exposure effects of
cadmium may include loss of the sense of smell, ulceration of the nose, emphysema, kidney
damage, mild anemia, an increased risk of cancer of the lung, and possibly of the prostate
[NIOSH 1989, Thun et al. 1991, Goyer 1991].

Occupational Exposure Criteria/or Lead (Pb)

The OSHA PEL for lead is 50 Ilg/m3 (8-hour TWA), which is intended to maintain worker
blood lead level (BLL) below 40 Ilg/deciliter (dL). Medical removal is required when an
employee's BLL reaches 50 Ilg/dL [29 CFR 1910.1025]. The NIOSH REL for lead (8-hour
TWA) is 0.050 mg/m3 ; air concentrations should be maintained so that worker blood lead
remains less than 0.060 mg Pb/IOO g of whole blood [NIOSH 2005]. At BLLs below 40
Ilg/dL, many ofthe health effects would not necessarily be evident by routine physical
examinations but represent early stages in the development of disease. In recognition ofthis,
voluntary standards and public health goals have established lower exposure limits to protect
workers and their children. The ACGIH® TLy® for lead in air is 50 Ilg/m3 as an 8-hour TWA,
with worker BLLs to be controlled to :s 30 Ilg/dL. A national health goal is to eliminate all
occupational exposures that result in BLLs >25 Ilg/dL [DHHS 2000]. There is no AIHA
WEEL for lead [AIHA 2007].

Occupational exposure to lead occurs via inhalation oflead-containing dust and fume and
ingestion from contact with lead-contaminated surfaces. Symptoms oflead poisoning include
weakness, excessive tiredness, irritability, constipation, anorexia, abdominal discomfort
(colic), fine tremors, and "wrist drop" [Saryan and Zenz 1994, Landrigan et al. 1985, Proctor et
al. 1991a]. Overexposure to lead may also result in damage to the kidneys, anemia, high blood
pressure, impotence, and infertility and reduced sex drive in both genders. In most cases, an
individual's BLL is a good indication of recent exposure to and current absorption oflead
[NIOSH 1978].

Occupational Exposure Criteria/or Nickel (Ni)

The NIOSH REL for nickel metal and other compounds (as nickel) is 15 Ilg/m3 based on its
designation as a potential occupational carcinogen [NIOSH 2005]. The ACGIH® TLy® for
insoluble inorganic compounds of nickel is 200 llg/m3 (inhalable fraction). For soluble
inorganic nickel compounds the TLy® is 100 Ilg/m3 (inhalable fraction). The TLy® for
elemental nickel is 1,500 llg/m3 (inhalable fraction) [ACGIH 2008]. The OSHA PEL for nickel
is 1,000 Ilg/m3 TWA [29 CFR 1910.1000]. Metallic nickel compounds cause allergic contact
dermatitis [Proctor et al. 1991 b]. NIOSH considers nickel a potential occupational carcinogen
[NIOSH 2005]. There is no AIHA WEEL for nickel [AIHA 2007].




                                               19 

Occupational Exposure Criteria/or Dust

The maximum allowable exposure to airborne particulate not otherwise regulated is established
                     3                    3
by OSHA at 15 mg/m for total and 5 mg/m for the respirable portion [29 CFR 1910.1000].
A more stringent recommendation of 10 mg/m3 inhalable and 3 mg/m3 respirable is presented
by the ACGIH® which feels that "even biologically inert insoluble or poorly soluble particulate
may have adverse health effects" [ACGIH 2008]. There is no AIHA WEEL for these
substances [AIHA 2007].

Occupational Exposure Criteria/or Yttrium (Y)

The NIOSH REL, OSHA PEL, and ACGIH® TLy® for yttrium and its compounds, as Y, are
all 1,000 Ilg/m3 [NIOSH 2005, 29 CFR 1910.1000, ACGIH 2008]. Yttrium is used in color
television phosphors when combined with rare earth elements [Proctor et al. 1991 c]. Exposure
occurs through inhalation [Proctor et al. 1991c]. While yttrium compounds irritate the lungs of
animals, no effects have been noted among humans [Proctor et al. 1991c]. The ACGIH®
TLy® is based upon value is intended to minimize the potential for respiratory fibrosis,
reported in rats following intratracheal administration of a single, very large dose" [ACGIH
2001]. A study of occupational exposures to yttrium europium vanadate phosphor found no
effects from exposure to the yttrium at a mean yttrium concentration of 1.4 mg/m3 [Tebrock
and Machle 1968].

B. Surface Contamination Criteria

Occupational exposure criteria have been discussed above for airborne concentrations of
several metals. Surface wipe samples can provide useful information in two circumstances;
first, when settled dust on a surface can contaminate the hands and then be ingested when
transferred from hand to mouth; and second, if the surface contaminant can be absorbed
through the skin and the skin is in frequent contact with the surface [Caplan 1993]. Although
some OSHA standards contain housekeeping provisions which address the issue of surface
contamination by mandating that surfaces be maintained as free as practicable of
accumulations of the regulated substances, there are currently no surface contamination criteria
included in OSHA standards [OSHA 2008]. The health hazard from these regulated
substances results principally from their inhalation and to a smaller extent from their ingestion;
those substances are by and large "negligibly" absorbed through the skin [Caplan 1993].
NIOSH RELs do not address surface contamination either, nor do ACGIH TLY s or AIHA
WEELs. Caplan [1993] stated that "There is no general quantitative relationship between
surface contamination and air concentrations ... " He also noted that, "Wipe samples can serve a
purpose in determining if surfaces are as 'clean as practicable'. Ordinary cleanliness would
represent totally insignificant inhalation dose; criteria should be based on surface
contamination remaining after ordinarily thorough cleaning appropriate for the contaminant
and the surface." With those caveats in mind, the following paragraphs present guidelines that
help to place the results ofthe surface sampling conducted at this facility in perspective.




                                               20 

Surface Contamination Criteria for Five Metals of Primary Interest

Sur/ace Contamination Criteria/or Lead
Federal standards have not been adopted that identify an exposure limit for lead contamination
of surfaces in the industrial workplace. However, in a letter dated January 13. 2003 [Fairfax
2003], OSHA's Directorate of Compliance Programs indicated that the requirements of
OSHA's standard for lead in the construction workplace [29 CFR 1926.62(h)(I),
1926.62(i)(2)(i) and 1926(i)(4)(ii)] interpreted the level oflead- contaminated dust allowable
on workplace surfaces as follows: a) All surfaces shall be maintained as 'free as practicable'
of accumulations oflead, b) The employer shall provide clean change areas for employees
whose airborne exposure to lead is above the permissible exposure limit, c) The employer shall
assure that lunchroom facilities or eating areas are as free as practicable from lead
contamination, d) The OSHA Compliance Directive for the Interim Standard for Lead in
Construction, CPL 2-2.58 recommends the use of HUD's acceptable decontamination level of
         2
200 flg/ft for floors in evaluating the cleanliness of change areas, storage facilities, and
lunchrooms/eating areas, e) In situations where employees are in direct contact with lead­
contaminated surfaces, such as, working surfaces or floors in change rooms, storage facilities,
lunchroom and eating facilities, OSHA has stated that the Agency would not expect surfaces to
                                 2
be any cleaner than the 200 flg/ft level, and f) For other surfaces, OSHA has indicated that no
specific level can be set to define how "clean is clean" nor what level oflead contamination
meets the definition of "practicable." OSHA notes that "the term 'practicable' was used in the
standard, as each workplace will have to address different challenges to ensure that lead­
surface contamination is kept to a minimum. It is OSHA's view that a housekeeping program
which is as rigorous as 'practicable' is necessary in many jobs to keep airborne lead levels
below permissible exposure conditions at a particular site" [Fairfax 2003]. Specifically
addressing contaminated surfaces on rafters, OSHA has indicated that they must be cleaned (or
alternative methods used such as sealing the lead in place), as necessary to mitigate lead
exposures. OSHA has indicated that the intent ofthis provision is to ensure that employers
regularly clean and conduct housekeeping activities to prevent avoidable lead exposure, such
as would potentially be caused by re-entrained lead dust. Overall, the intent ofthe "as-free-as­
practicable" requirement is to ensure that accumulation oflead dust does not become a source
of employee lead exposures. OSHA has stated that any method that achieves this end is
acceptable.

In the United States, standards for final clearance following lead abatement were established
for public housing and facilities related to children. However, no criteria have been
recommended for other types of buildings, such as commercial facilities. One author has
suggested criteria based upon lead-loading values. Lange [2001] proposed a clearance level of
1000 flg/cr for floors of non-lead free buildings and 1100 flglcr for lead-free buildings, and
states that "no increase in BLL should occur for adults associated or exposed within a
commercial structure" at the latter level. These proposed clearance levels are based on
calculations that make a number of intentionally conservative assumptions such as: a) Lead
uptake following ingestion is 35% absorption oflead in the gastrointestinal system, b) Fingers
have a total "touch" area of 10 cm2 and 100% ofthe entire presumed lead content on all 10
fingers is taken up, c) The average 'normal' environmental lead dose (from 'uncontaminated
food/water/air) is 20 flg per day, d) The weight of the exposed person is 70 kg, and e) Daily


                                               21 

lead excretion is limited to an average of 48 flg. Lange [2001] notes that "use of the proposed
values would provide a standard for non-child-related premises (e.g. commercial, industrial,
office) ..." but cautions that, "Further investigation is warranted to evaluate exposure and
subsequent dose to adults from surface lead."

Sur/ace Contamination Criteria/or Beryllium
A useful guideline is provided by the U.S. Department of Energy, where DOE and its
contractors are required to conduct routine surface sampling to determine housekeeping
conditions wherever beryllium is present in operational areas ofDOE/NNSA facilities. Those
facilities must maintain removable surface contamination levels that do not exceed 3 flgllOO
cm2 during non-operational periods. The DOE also has release criteria that must be met before
beryllium-contaminated equipment or other items can be released to the general public or
released for use in a non-beryllium area of a DOE facility. These criteria state that the
removable contamination level of equipment or item surfaces does not exceed the higher of 0.2
flg/IOO cm2 or the level of beryllium in the soil in the area of release. Removable
contamination is defined as "beryllium contamination that can be removed from surfaces by
nondestructive means, such as casual contact, wiping, brushing, or washing."

Sur/ace Contamination Criteria/or Cadmium
Like lead and beryllium, cadmium poses serious health risks from exposure. Cadmium is a
known carcinogen, is very toxic to the kidneys, and can also cause depression. However,
OSHA, NIOSH, AIHA and ACGIH® have not recommended criteria for use in evaluating wipe
samples. The OSHA Cadmium standard [29 CFR 1910.1027] mandates that "All surfaces
shall be maintained as free as practicable of accumulations of cadmium," that, "all spills and
sudden releases of material containing cadmium shall be cleaned up as soon as possible," and
that, "surfaces contaminated with cadmium shall, wherever possible, be cleaned by vacuuming
or other methods that minimize the likelihood of cadmium becoming airborne."

Sur/ace Contamination Criteria/or Nickel
NIOSH, OSHA, AIHA and ACGIH® have not established occupational exposure limits for
nickel on surfaces.

Sur/ace Contamination Criteria/or Barium
NIOSH, OSHA, AIHA and ACGIH® have not established occupational exposure limits for
barium on surfaces.

C. Noise Exposure Criteria

The OSHA standard for occupational exposure to noise [29 CFR 1910.95] specifies a
maximum PEL of90 dB(A) for a duration of8 hours per day. The regulation, in calculating
the PEL, uses a 5 dB time/intensity trading relationship, or exchange rate. This means that a
person may be exposed to noise levels of95 dB(A) for no more than 4 hours, to 100 dB(A) for
2 hours, etc. Conversely, up to 16 hours exposure to 85 dB(A) is allowed by this exchange rate.
NIOSH, in its Criteria for a Recommended Standard, proposed an REL of85 dB(A) for 8
hours, 5 dB less than the OSHA standard [NIOSH 1972]. The NIOSH 1972 criteria document
also used a 5 dB time/intensity trading relationship in calculating exposure limits. However,



                                               22 

the 1998 revised criteria recommends a 3 dB exchange rate, noting that it is more firmly
supported by scientific evidence [NIOSH 1998]. The ACGIH® also changed its TLy® in 1994
to a more protective 85 dB(A) for an 8-hour exposure, with the stipulation that a 3 dB
exchange rate be used to calculate time-varying noise exposures. Thus, a worker can be
exposed to 85 dB(A) for 8 hours, but to no more than 88 dB(A) for 4 hours or 91 dB(A) for 2
hours.

In 1983, a hearing conservation amendment to the OSHA noise standard took effect [29 CFR
1910.95(c)] that requires employers to "administer a continuing, effective hearing conservation
program" whenever employee noise exposures equal or exceed an 8-hour TWA of 85 dBA or,
equivalently, a dose of fifty percent. The requirements include noise monitoring, audiometric
testing, providing hearing protectors, training workers, and recordkeeping.

Y.     RESULTS AND DISCUSSION

The initial work described here was conducted in early 2007 at the Elkton FCI, Unicor
Recycling Factory, Federal Satellite Low (FSL) and Warehouse electronic components
recycling operations. Follow-up testing was done at the FCI Unicor Recycling Factory only in
December 2007, to evaluate the effectiveness of improvements made in response to that initial
work. During this testing, air, surface wipe, bulk dust and noise samples were collected in
locations where the various electronics recycling operations were taking place or had taken
place in the past. The primary purposes of this evaluation were to estimate the potential
exposures of inmates and/or staffto toxic substances generated during the recycling of
electronic components; and to recommend remedial measures to reduce exposures if necessary.

A statistical summary of air sampling results is presented in Table 1 and results of personal
breathing zone and area air sampling are shown in Tables 2 and 3, with the former being total
and the latter being size-selective (impactor) data; surface wipe sample results are contained in
Table 4; bulk material sample results are presented in Table 5; and noise measurements in
Table 6. As mentioned in Section III above, all samples were analyzed for 31 metals due to the
parameters of the analytical method. While the data in these tables present the results ofjust
the five metals of primary interest in this evaluation; results of all analyses are contained in the
appendices. These data indicate levels well below the occupational exposure limits ofthose
other metals, even when results for combined exposures as calculated by Equation 1 are
considered.

A. Bulk Material Sample Results

Three bulk material samples of dust from the floor ofthe glass breaking operation were
collected in February 2007 during the filter change operation. These samples were analyzed
for metals, and the composition of all three samples was similar. The results are presented in
the Table 5 for the metals of primary interest. Beyond those 5 metals, the only metal present in
these samples in significant concentration was zinc, which was approximately 1% of all three.
The entire data set (all 31 metals) is presented in Appendix B.




                                                23 

B. Surface Wipe Sample Results

The surface wipe sample results collected during both sampling visits in the electronic
recycling operations at the Elkton FCr are summarized below and in Table 4, and the entire
surface wipe sample data set is contained in Appendix C. Results of spectrofluorometric
analysis for Be confirmed rcp measurements. Wipe samples were also collected by FOH
industrial hygienists, but from different locations and for different purposes, and those data are
not included in this report.

Recycling Factory
Wipe samples collected during the February / March study indicated no beryllium (Be)
detectable in the recycling factory; the limit of detection was 0.03 /lglsq ft. Most (10 of 14) of
the surfaces tested for lead (Pb) indicated levels exceeding the OSHA recommended 200 /lglsq
ft, with five above 1,000, and one above 10,000 /lg/sq ft. The highest concentration of barium
detected in a wipe sample was 150 /lg/sq ft. Several ofthe Cd measurements were between 40
and 250 /lglsq ft. Nickel surface contamination was less than 250 /lg/sq ft in 10 of 11 samples.
Housekeeping practices that reduce surface dust levels and engineering controls that reduce
particulate release into the air should reduce these levels in the future.

Wipe sample data collected during the second visit did not appear to be different than that
discussed above. The analytical limit of detection for Be was 0.1 /lg/sq ft which did produce
detectable Be on most ofthe wipe samples during this study. (Analytical instrumentation had
been adjusted to improve sensitivity for 24 elements at the cost of eliminating measurements
for AI, Sb, Ca, Li, Mg, K and Ti.) Modifications in the procedures for changing filters in the
GBO were not expected to produce lower surface contamination, and no reduction was seen.

FSL Building
Wipe samples collected in the FSL also did not indicate metals on work surfaces at levels of
concern. No Be was detected here. All Pb samples were below the OSHA recommended
level. Surface measurements of Cd and Ni were below levels of immediate concern. No
samples were collected in the FSL during the December study.
Warehouse
Surface wipe samples were not collected in the warehouse as part ofthis work.

c. Air Sample Results
Air measurements were collected during both normal and non-routine operations in the areas
identified, including the glass breaking operation. Data presented here and in Table 2 are for
the duration of the samples rather than for an 8-hour time weighted average since the
concentrations of contaminants are so low. Measurements made during non-routine operations
showed significant exposures and are discussed below and presented at the bottom of Table 2.
The full data set of all 31 metals is presented in Appendix D.

Recycling Factory
Twenty-five samples were collected in the Unicor recycling factory for airborne metals during
the February study and an additional twenty in December, including measurements made in the



                                                24 

glass breaking operation during normal production operations. These data can be identified by
date in Table 2, but the magnitudes of the exposures were not generally different by date.
Measurements in the GBO during other operations are discussed below. Measurements during
                                                                                         3
routine operations revealed that barium concentrations ranged between 0.1 and 4.3 /lg/m and
were unremarkable. Beryllium levels also were very low, with one of25 samples being above
the LOD of 0.07 /lg/m3, and that sample was 0.08 /lg/m3 Cd and Ni, likewise, were found at
                                        3
low levels ranging up to 1 and 0.6 /lg/m , respectively. Lead was the metal found in highest
quantity, with concentrations ranging up to 18 /lg/m3, but only 5 samples were >5 /lg/m3 (10%
ofthe occupational exposure limits).

FSL Building
Airborne metal concentrations in the FSL were generally lower than those in the factory. In the
                                                               3
12 samples collected in this location, Ba ranged up to 1 /lg/m , all Be concentrations were
below 0.07 /lg/m 3, Cd ranged from 0.1 to 0.5 /lg/m3, and all Ni measurements were <1 /lg/m3
Even the lead samples were all below 1 /lg/m3 except one which the NIOSH investigator
suspected was compromised based on visual observations and analytical results. No samples
were collected in the FSL during the December study.

Warehouse
Six air samples were collected in the warehouse to measure airborne metal levels, and again,
results were unremarkable. Ba ranged from 0.1 to 0.3 /lg/m 3, all Be samples were below the
                                       3
LOD, Cd ranged from <0.1 to 0.4 /lg/m , and all Pb and Ni measurements were at or below the
LOD. No samples were collected in the warehouse during the December study.

Glass Breaking Operation- Filter Cleaning and Maintenance Operation
One non-routine operation evaluated was the weekly cleaning ofthe glass breaking operation.
During the first in-depth study one of four samples collected during this procedure indicated an
                     3
exposure to 23 /lg/m for Cd for a 79-minute sample. Assuming no additional exposure to Cd
during the shift (based on visual observations of work tasks during that time) results in an 8­
hour TWA exposure of3.8 /lg/m3 which is above the Action Level of2.5 /lg/m 3, but below the
               3
PEL of 5 /lg/m

The filter change operation in the glass breaking operation, discussed in the Process
Description (Section II), was the task of most concern regarding exposures of workers to toxic
metals. Visual observations indicated, and measurements confirmed, very high levels of
airborne dust and metals during this operation (see Figure IV). Airborne concentrations of Cd
and Pb in excess of their respective occupational criteria were documented; the amount of Cd
detected exceeded the assigned protection factor ofthe powered air purifying respirators
(PAPRs) being used by the workers (see further discussion below). Task-based airborne Ba
concentrations ranged from 1 to 460 /lg/m3 No Be was measured (LOD ~ 0.02 /lg/m3) in any
                                                             3
samples. One 128-minute sample for Ni measured 25 /lg/m , resulting in an 8-hr TWA
                       3
exposure of 6.7 /lg/m (assuming no further exposure), less than the applicable OELs. Other
Ni measurements ranged from a 113 minute area sample to a 114 minute personal sample of
0.3 to 7 /lg/m3 Ni, respectively, resulting in 8-hr TWAs of 0.07 /lg/m3 to 1.7 /lg/m3, below
relevant OELs.




                                              25 

                                                                                                  3
Lead measurements ranged up to 2,700 /lg/m3 and Cd measurements ranged up to 2,400 /lg/m ,
but when TWA exposures were calculated for these workers those exposures became 860 and
760 /lg/m3 Pb and Cd (samples ECMFF 03A&B) and 220 and 170 /lg/m3 Pb and Cd (samples
ECMFF 04A&B). These 8-hr TWA measurements indicate exposures above the REL, TLV
and PEL of 50 /lg/m3 for lead and the PEL of 5 /lglm 3 for cadmium. Both workers' 8-hr TWA
exposures to cadmium exceeded the maximum use concentration assumed for the PAPRs used
by these workers (the assigned protection factor of25 multiplied by the OSHA PEL of 5
/lg/m\ The respirators provided adequate protection against the measured exposures to lead.

Subsequent to the initial monitoring of airborne particulate during the filter change operation,
modifications (describes in Section II) were made to the procedure used for this process. The
results ofthese changes would appear to be a dramatic reduction in airborne particulate. The
last six measurements in Table 2 indicate levels ofBa, Be, Pb and Ni well below those
respective exposure limits. Eight-hour TWAs based on two task-based Cd measurements of
7.8 and 12.9 /lg/m3 were 3.5 and 6.1 /lg/m 3, respectively. The former exceeds the OSHA
Action level for cadmium of2.5 /lg/m3, while the latter exceeds the PEL of5 /lg/m3
Measurements of respirable Cd were below the TLV of2 /lg/m3 for that entity. Comparing the
geometric means ofthe 8-hour TWA personal breathing zone cadmium exposures shows the
reduction achieved by the change in work practices. The geometric mean ofthe two 8-hour
                                                               3
cadmium TWAs from the March sampling date was 357 /lglm . The geometric mean ofthe
four 8-hour cadmium TWAs from the December sampling was 0.375 /lg/m3 This indicates a
reduction of99.9%.

D. Particulate Size Sampling Results (Impactor Data)

Figures V and VI show the relative concentrations of metals in eleven sets of impactor data,
excluding the filter change operation, as a function of particle size. The first figure displays all
five particle-size cuts measured using these samples, showing the sum ofthe metals measured
for each size range for each sample. The significant information here is that the mass of metals
on the backup filters was, in most instances, greater than the sum of the metals on all stages.
The second figure is an enlargement showing just the mid-three cut points and confirming that
the mass of metals is similar regardless of particle size. Given that the mass of a particle is
proportional to the square of that particle's radius, these data would indicate a very large
portion of particles are in the small size ranges.

Impactor sampling data tend to confirm that seen with other air samples. The first two sets of
impactor data in Table 3 (ECMFF 5 & 6) were taken during the filter change operation in the
glass breaking exhaust system and correspond to the samples for total metals taken during that
procedure. These indicate airborne levels of Cd and Pb above the occupational exposure limits
with little Ba, Be, and Ni. Samples ECMFF 5(a - e) combined also indicated a total of 4,500
/lg/m3 ofY (occupational exposure limit is 1,000 /lg/m3 per Appendix I) during a five-hour
period and 19,000 /lg/m3 for metals in the air (data not shown in attached tables). Time
weighted average exposures for both Y and dust would be exceeded for this sample.

The third and fourth impactors (ECMHF 5 and 6), taken during the weekly cleaning of the
glass breaking operation, indicate generally higher levels of metals than during normal



                                                26 

operations but are in general an order of magnitude lower than the samples collected during the
filter change operation.

Impactor samples collected during the two days of normal production in February, in the glass
breaking operation and elsewhere, again tend to confirm the samples for total metals in that
there were generally measurable levels of Ba, Cd, Pb and Ni (Be was below the limit of
detection in most samples) but at levels much below the occupational exposure limits.

During the follow-up study cyclones were used rather than impactors to provide a measure of
respirable fraction for metals and total dust. These data indicate levels below all occupational
exposure limits, including respirable Cd.

E.     Sound level measurements

Spot measurements of noise made with a hand-held sound pressure meter in February 2007,
suggested the need for a more comprehensive noise study. That was done during the
December visit and is described here.

The data collected with noise dosimeters is presented in Table 6 for the 9 sets of data collected.
Five personal and 2 area samples were collected in the GBO and 2 area samples were collected
in the disassembly area where the February measurements had indicated a lower potential for
overexposure. On each day of sampling, each sample is described, and the start and stop times
are presented along with the sample duration (run time). Following that, the mean sound
pressure level for the duration ofthe run (TEST AVERAGE DB) and the time weighted
average sound pressure level for an eight hour day (TWA DB) is shown. Sound pressure levels
are in dB, A weighted, slow response and presented for both the OSHA and NIOSH criteria.
Time weighted calculations assume no exposure during the un-sampled time. For the first day
of sampling, two sets of samples are shown because the dosimeters were stopped during lunch
and restarted after lunch. This resulted in two separate samples. During the second and third
days the dosimeters were not stopped during the lunch break. The technique was modified for
the second day for the workers' convenience. Several of the noise samples exceeded the REL
and TLV of 85 dBA.

The OSHA noise standard [29 CFR 1910.95] instructs the employer to calculate the allowable
noise dose from more than one sample as follows:

  When the daily noise exposure is composed oftwo or more periods ofnoise exposure of
  different levels, their combined effect should be considered, rather than the individual
  effect of each. If the sum ofthe following fractions: C(l)/T(l) + C(2)/T(2) C(n)/T(n)
  exceeds unity, then, the mixed exposure should be considered to exceed the limit value. Cn
  indicates the total time of exposure at a specified noise level, and Tn indicates the total
  time of exposure permitted at that level.

This means that, using the OSHA exchange values, one ofthe three samples collected on
December 11, 2007 exceeded the allowable dose to document an overexposure to the PEL of
90 dBA. Using the allowable doses in Appendix B to the OSHA noise standard, and rounding,



                                               27 

sample E2CST-2 resulted in a dose of 1.37 (137% of the allowable dose)§ The other two
samples collected that day exceeded 50% oftheir allowable dose, requiring the employees
represented by that sample to be placed in a hearing conservation program."

Noise doses on the second and third days were less than 50% ofthe allowable dose, except for
sample E2CSW -2. That sample was collected on a worker breaking glass. That individual was
exposed at a level of90.6 dBA for 345 minutes of an allowable dose at 91 dB of 420 minutes,
or 82% of the allowable dose.

F.      Air Flow Observations

Smoke was released from the smoke machine in all four areas of the glass breaking operation
(see Figure VII). In area A, the staging area, all smoke released traveled through the curtain s
and was captured by the ventilation hood. Some ofthe smoke released close to area B moved
first through curtain t and room B before passing through curtain s and being captured. There
were two major recirculation zones in area A, as indicated by the circular patterns in the
diagram adjacent to the entrance jet (4 straight arrows).

In area B (changing room), all smoke released traveled through curtain s and was captured by
the ventilation system. The air flow was subjectively described as weak by visual observation
in the back of area B (nearest the door), but strong and direct near curtain s. A slight tendency
ofthe air near curtain t to flow in to area A first was noted in the back half of area B.

No smoke released in area C flowed back behind curtain s, even when the jet of smoke was
directed at the curtain from C back towards area A. The hood in this area was a walk-in type,
with three glass breaking stations. Visible airborne emissions from glass breaking were
removed quickly from the point of release by the air flow, and were apparently captured by the
booth ventilation.

Area D was normally occupied by workers only during ventilation system maintenance. No
smoke released in area D migrated to any other area, but was captured efficiently by the
ventilation system.

Smoke released in the booth confirmed the apparent capture effectiveness ofthe exhaust hood
in two of the three glass breaking stations. The station on the right side ofthe booth, however,
exhibited some back flow within the booth when smoke was released at the level ofthe grille.
Smoke released at this point traveled first toward the ventilation inlet at the back ofthe booth,
but subsequently, a small portion ofthe smoke was seen to travel back along the ceiling and
the right side wall toward and beyond the front ofthe booth. Workers would be present along
this path, both beside the breaking station (the normal work position for the glass breakers),
and in front ofthe booth, where coordinators handled full and empty Gaylord boxes.


§71 minutes at 92.5 dBAJ318 minutes allowed at 93 dBA + 179 minutes at 97.7 dBAl156 minutes allowed at 98
dBA ~ 1.37, or 137% of1he allowable dose.
" 67 min at 90.5dbAl420 minutes allowed at 91 dBA + 181 minutes at 93.4 dBAl318 minutes allowed at 93 dBA
~ 0.73, or 73% of allowable dose; and 102 minutes at 91.6 dBAl306 minutes allowed at 92 dBA + 177 minutes at
91 dBAl420 minutes allowed at 91 dBA ~ 0.75, or 75% of1he allowable dose.


                                                    28 

Only this qualitative assessment of air flow was conducted, no quantitative air flow
measurements were made.

VI.    CONCLUSIONS AND RECOMMENDATIONS

The primary purpose of sampling is to determine the extent of employee exposures and the
adequacy of protection. Sampling also permits the employer to evaluate the effectiveness of
engineering and work practice controls and informs the employer whether additional controls
need to be installed. Values that exceed OELs indicate that additional controls are necessary.
This evaluation focused on the evaluation of airborne exposures, with additional data collected
on surface contamination and noise exposures. The results of air sampling during the
February/March 2007 Elkton survey found that lead, cadmium, and other metals, such as
barium and zinc are generated and released during the recycling operations at this facility.
Exposures were found that exceeded the OSHA Action Level for cadmium during the weekly
clean-up in the glass-breaking area. In addition, 8-hr TWA measurements indicate exposures
above the REL, TLV and PEL of 50 llg/m3 for lead and the PEL of 5 Ilg/m3for cadmium for
two workers during the filter change operation. Both workers' 8-hr TWA exposures to
cadmium exceeded the maximum use concentration assumed for the PAPRs used by these
workers (the assigned protection factor of 25 multiplied by the OSHA PEL of 5 llg/m3). The
respirators provided adequate protection against the measured exposures to lead. Additional
testing in December 2007 indicated marked improvements in control and reductions in excess
of99% in airborne exposures to metals during the filter change operations in the GBO.
However, air sampling revealed exposures that exceeded the OSHA Action Level and PEL for
cadmium during the filter change operation, even after that process was modified to improve
control.

The results of air sampling clearly indicate that the highest exposures occurred among workers
involved in the glass breaking operations. These operations involve three distinct processes: the
filter change-out maintenance operation which occurs about once a month; a weekly cleaning
process, and routine glass breaking which occurs on a daily basis. The highest potential
exposures were measured among the workers involved in the filter change-out maintenance
operation. The second highest exposed group is those same workers during the routine daily
glass breaking operations. Samples collected for the routine operation showed detectable
concentrations were less than 20% ofthe OSHA PELs for both Cd and Pb.

Smoke tests indicated the ventilation system appears to capture dust before worker exposure
can occur, except possibly at the right hand breaking station. Air sampling tends to confirm
these observations. No corrective measures were attempted during this study, but it appears
that extending the overhead push jet to the right so that this jet is continuous across the front
face ofthe hood may correct the backflow condition. It appeared that dust could migrate from
the glass breaking booth to adjacent work areas and in particular to the area where workers
changed to and from protective clothing and respirators. Workers in the glass breaking
operation were also overexposed to noise.

Disassembly workers as a group, including those in the FSL, had lower potential exposures
during routine day-to-day operations as do workers in the warehouse. Samples collected on



                                                29 

 disassembly workers in the general factory area of all three buildings ranged from non­
 detectable to 10% ofthe OSHA PEL for Cd and ranged from non-detectable to 5% of the
 OSHA PEL for Pb.

The data collected during the filter change maintenance operation showed that airborne
concentrations during this once per month maintenance operation exceeded the OSHA PELs for
cadmium and lead. Although the two workers performing the filter change-out operation wore
respiratory protection, the Cd concentrations detected exceeded the assigned protection factor of
the powered air purifying respirator (P APR) being used. Modifications to the process resulted
in a reduction in exposures that exceeded 99%. There were not enough samples to test for
statistical significance.

While overexposures were documented in the filter change operation only, modifications can be
made to improve operations in general. Based on the data presented above, the following
recommendations are made. These recommendations are divided into 3 categories, described as
programmatic issues, procedural issues, and housekeeping issues.

Programmatic issues:
    1. 	 The respiratory protection program for this facility should be evaluated for this
         operation in order to ensure that it complies with OSHA regulation 1910.134.
    2. 	 Based upon the air sampling results during filter changing and weekly clean-up, a
         regulatory assessment should be performed with respect to OSHA regulations found at
         29 CFR 1910.1025 (Lead) and 29 CFR 1910.1027 (Cadmium).
    3. 	 Because ofthe noise levels found in the glass breaking operation, engineering controls
         should be designed or selected using noise reduction as a criterion.
    4. 	 Until noise in the glass breaking operation can be reduced through engineering controls,
         a hearing conservation program including noise monitoring, audiometric testing,
         providing hearing protectors, training workers, and recordkeeping must be implemented
         for workers in the glass breaking operation.
    5. 	 Training of workers should be scheduled and documented in the use of techniques for
         dust suppression, the proper use oflocal ventilation, personal protection equipment
         (e.g., coveralls, respirators, gloves) and hazard communication.
    6. 	 Frequently while conducting the on-site work, NIOSH researchers observed tasks being
         conducted in a manner which appeared to be biomechanically taxing. Tasks should be
         evaluated to determine there are excesses in repetitive stress trauma and if
         modifications in procedures or equipment would provide benefit to this workplace.
    7. 	 Heat stress should be evaluated during hot weather (e.g., the summer months). Heat
         exposures above recommended limits were measured at a similar BOP facility during
         the summer, and it is recommended that appropriate measurements be taken at Elkton
         to prevent this problem.
    8. 	 All Unicor operations, including but not limited to recycling should be evaluated from
         the perspective of health, safety and the environment in the near future.
    9. 	 A program should be established within the Bureau of Prisons to assure that these
         issues are adequately addressed by competent trained and certified individuals. While a
         written program to address these issues is necessary at each facility, adequate staffing
         with safety and health professionals is required to ensure its implementation. One



                                               30 

        indication of adequate staffing is provided by the United States Navy, which states
        "Regions/Activities with more than 400 employees shall assign, at a minimum, a full
        time safety manager and adequate clerical support" [USN 2005]. That document also
        provides recommended hazard-based staffing levels for calculating the "number of
        professional personnel needed to perform minimum functions in the safety
        organization."
   1O. 	A comprehensive program is needed within the Bureau which provides sufficient
        resources, including professional assistance, to assure each facility the assets needed to
        assure both staff and inmates a safe and healthy workplace.
   11. This facility is a Federal prison, and the workers are Federal prisoners. The Belmont
        Report [HEW 1979] notes that, " ...under prison conditions they [prisoners] may be
        subtly coerced or unduly influenced to engage in research activities for which they
        would not otherwise volunteer." Although we did not observe this, Elkton managers
        should ensure that prisoners are not unduly influenced to perform work which is
        considered unsafe or unhealthy.
Procedural issues:
   12. The modifications to the filter change-out practice should be adopted as standard
        operating procedure for this process, including: 1) the immediate bagging and disposal
        of used filters rather than attempting to clean and re-use them; 2) the use of a water
        spray to suppress dust during the filter change operation; and 3) the use of HEPA
        filtered vacuums and wet mopping to remove dust from the floor and work surfaces.
        When using wet methods to help control dust, care needs to be taken to assure that the
        wet methods do not introduce any potential electrical or other safety hazard.
   13. The use of an alternative method (e.g., static pressure drop) should be investigated to
        determine frequency of filter change. The manufacturer ofthis system may have
        guidelines in this regard.
   14. Workers performing the filter change operation must continue to utilize respiratory
        protection as part of a comprehensive respiratory protection program. The PAPRs used
        provide adequate protection for the modified filter change operation.
   15. Because the facility already provides uniforms to its workers, management should
        evaluate the feasibility of providing and laundering work clothing for all workers in the
        recycling facility, instead ofthe current practice of providing disposable clothing for
        glass breaking workers only. Contaminated work clothing must be segregated from
        other clothes and laundered in accordance with applicable regulations.
   16. Change rooms should be modified to provide separate storage facilities for protective
        work clothing and equipment and for street clothes that prevent cross-contamination.
   17. The use of alternative methods to break cathode-ray tubes should be investigated by
        Elkton management. Lee et al. [2004] present different methods to separate panel glass
        from funnel glass in CRT recycling (sec 2.1) and for removing the coatings from the
        glass (sec 2.2). The hot wire and vacuum suction methods (supplemented with local
        exhaust ventilation) described by Lee et al. may produce fewer airborne particulates
        than breaking the glass with a hammer. The authors [Lee et al. 2004] describe a
        commercially-available method in which an electrically-heated wire is either manually
        or automatically wound around the junction of the panel and funnel glass, heating the
        glass. After heating the glass for the necessary time, cool (e.g., room temperature) air
        is directed at the surface, fracturing the glass-to-glass junction using thermal shock.



                                                31 

       The separated panel and funnel glass can then be sorted by hand. They also describe a
       method wherein a vacuum-suction device is moved over the inner surface ofthe panel
       glass to remove the loose fluorescent coating [Lee et al. 2004]. The vacuum used must
       be equipped with HEPA filtration. Industrial central vacuum systems are available;
       they may cost less in the long run than portable HEP A vacuum cleaners. These
       modifications may also reduce the noise exposure to glass breakers.
   18. German authorities [BG/BIA 2001] have issued a set of best-practices for dismantling
       CRTs. Their recommendations include the use of a closed cleaning cabinet that
       incorporates 300 air changes per hour to control emissions.
Housekeeping:
   19. Due to the levels of surface contamination of lead measured in the recycling facility,
       special attention should be focused on hygiene practices to prevent accidental ingestion
       oflead. Workers should wash their hands before eating, drinking, or smoking.
   20. Given the concentrations oflead and cadmium detected in the bulk dust samples
       surface wipe samples and air measurements, periodic industrial hygiene evaluations and
       facility inspections are recommended to confirm that exposures are maintained below
       applicable occupational exposure limits.
   21. Daily and weekly cleaning of work areas by HEPA-vacuuming and wet mopping
       should be continued. The BG/BIA guidelines [2001] recommend daily cleaning of
       tables and floors with a type-H vacuum cleaner. Type H is the European equivalent of
       a HEPA vacuum, where the H class requires that the filter achieve 99.995% efficiency,
       where 90% ofthe test particles are smaller than 1.0 um and pass the assembled
       appliance test, 99.995% efficiency where 10% ofthe particles are smaller than 1.0 um,
       22% below 2.0 um, and 75% below 5.0 um. While some surface contamination was
       measured in work areas, this would be much greater if it were not for the good
       housekeeping practices in effect in all locations observed. Other practices not observed
       during the time ofthis evaluation, but which have been observed at other facilities
       should be discouraged; these include the use of compressed air to clean parts or
       working surfaces, and the consumption of food, beverage or tobacco in the workplace.

References

ACGIH [2001]. Yttrium. In: Documentation ofthe threshold limit values.    7th   ed. Cincinnati,
OH: American Conference of Governmental Industrial Hygienists.

ACGIH [2008]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference of Governmental Industrial
Hygienists.

AIHA [2007]. Workplace environmental exposure levels. Fairfax, VA: American Industrial
Hygiene Association.

ASTM [2002]. Standard practice for collection of settled dust samples using wipe sampling
methods for subsequent determination of metals. West Conshohocken, PA: ASTM
International.




                                              32 

Berges M (Markus.Berges@dguv.de)[2008a]. WG: Project-Nr. BIA3058: Dust emission
during release of vacuum from cathode-ray tubes. Private e-mail message to Alan Echt
(AEcht@cdc.gov), June 16.

Berges M (Markus.Berges@dguv.de)[2008b]. AW: BG.BIA-Empfehlungen = Uberwachung
translated. Private e-mail message to Alan Echt (AEcht@cdc.gov), June 27.

BG/BIA [2001]. Recommendations for monitoring work areas - manual disassembly of
monitors and other electrical equipment.

BIA [2001]. Project-Nr. BIA 3058 Dust emission during release of vacuum from cathode- ray
tubes. Berufsgenossenschaftliches Institut fiir Arbeitssicherheit -BIA, Berufsgenossenscheft
der Feinmechanik und Elektrtechnik. Available on-line at
http://www.hvbg.de/e/bia/pro/prol/pr3058.htrnl. Accessed June 13,2008.

Caplan KJ [1993]. The significance of wipe samples. Am Ind Hyg Assoc J 53:70-75.

CFR. Code of Federal regulations. Washington, DC: U.S. Government Printing Office, Office
ofthe Federal Register.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor industry.
Environ Health Perspect. l07:A452-A457.

Cui J, Forssberg E [2003]. Mechanical recycling of waste electric and electronic equipment: a
review. J Hazard Mater. 99:243-263.

DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2nd ed.
Washington, DC: U.S. Department of Health and Human Services. Available on the
internet at: www.health.gov/healthypeoplelDocument/default.htm

EPA [2008]. eCycling. Available on-line at http://www.epa.gov/ecyclingl. Accessed
June 3, 2008.

Fairfax RE [2003]. Letter of January 13,2003 from RE Fairfax, Director, Directorate of
Compliance Programs, OSHA, to Frank White, Vice President, Organization Resource
Counselors, Inc. Available at
http://www.osha.gov/pls/oshaweb/owadisp. show_ document?p_ table~INTERPRETATI
ONS&p_id~25617. Accessed May 12, 200

Goyer RA [1991]. Toxic effects of metals. In: Amdur ML, Doull J, Klaassen CD (eds.)
Casarett and Doul's Toxicology, pp. 623-680.

HEW [1979]. The Belmont report: ethical principles and guidelines for the protection
of human subjects of research. Washington DC: Department of Health, Education and
Welfare, Office of the Secretary, The National Commission for the Protection of
Human Subjects of Biomedical and Behavioral Research. Available on-line at



                                              33 

http://www.hhs.gov/ohrplhumansubjects/guidance/belmont.htm. Accessed June 11,
2008.

IARC [1993]. IARC monographs on the evaluation of carcinogenic risks to humans:
beryllium, cadmium, mercury, and exposures in the glass manufacturing industry. Vol.
58. Lyon, France: World Health Organization, International Agency for Research on
Cancer.

ICF [1999]. General background document on cathode ray tube glass-to-glass
recycling. Fairfax VA: ICF Incorporated. Office of Solid Waste, US Environmental
Protection Agency. May 25,1999 draft. Available on-line at
yosemite.epa.gov/ee/epa/riafile.nsf/vwAN/S99-23.pdf/$File/S99-23.pdf. Accessed
July 2. 2008.

Landrigan PJ, Froines JR, Mahaffeyet KR [1985]. Body lead burden: summary of
epidemiological data on its relation to environmental sources and toxic effects. In:
Dietary and environmental lead: human health effects. Amsterdam: Elsevier Science
Publishers.

Lange JH [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-51.

Lee C-H, Chang C-T, Fan K-S, Chang T-C [2004]. An overview of recycling and
treatment of scrap computers. J Hazard Mater. 114:93-100.

McCawley MA, Kent MS, Berakis MT [2001]. Ultrafine beryllium number
concentration as a possible metric for chronic beryllium disease risk. Appl Occup
Environ Hyg. 16:631-638.

Misra C, Singh M, Shen S, Sioutas C, Hall PM [2002]. Development and evaluation of a
personal cascade impactor sampler (PCIS). Aerosol Science 33:1027-1047.

NARA [2008]. Executive Order 12196--0ccupational safety and health programs for Federal
employees. College Park, MD:U.S. National Archives and Records Administration. Available
on-line at: http://www .archives. gov/federal-register/codification! executive-order/ 12196.html.
Accessed June 6, 2008.

NIOSH [1978]. Criteria for a recommended standard: occupational exposure to inorganic lead.
Revised criteria - 1978. Cincinnati, OH: U.S. Department of Health, Education, and Welfare,
Public Health Service, Center for Disease Control, National Institute for Occupational Safety
and Health, DHEW (NIOSH) Publication No. 78-158.

NIOSH [1984]. Current intelligence bulletin #42: Cadmium. Cincinnati, OH: U.S. Department
of Health and Human Services, Public Health Service, Centers for Disease Control, National
Institute for Occupational Safety and Health, DHHS (NIOSH) Publication No. 84-116.




                                               34 

NIOSH [1989]. Occupational health guidelines for chemical hazards. Cincinnati, OH: U.S.
Department of Health and Human Services, Public Health Service, Centers for Disease Control,
National Institute for Occupational Safety and Health, DHHS (NIOSH)/DOL (OSHA)
Publication No. 81-123 and supplements 88-118, 89-104

NIOSH [1990]. NIOSH testimony on the Occupational Safety and Health Administration's
proposed rule on occupational exposure to cadmium, July 17, 1990, OSHA Docket No. H­
057 A. NIOSH policy statements. Cincinnati, OH: U.S. Department of Health and Human
Services, Centers for Disease Control, National Institute for Occupational Safety and Health.
p.16.

NIOSH [1992]. NIOSH recommendations for occupational safety and health, compendium of 

policy documents and statements. Cincinnati,OH: U.S. Department of Health and Human 

Services, Public Health Service, Centers for Disease Control, National Institute for 

Occupational Safety and Health. DHHS(NIOSH) Publication No. 92-100. 


NIOSH [1994]. NIOSH Manual of Analytical Methods (NMAM®), 4th ed. Schlecht, P.C. & 

O'Connor, P.F. eds. Cincinnati,OH: U.S. Department of Health and Human Services, Centers 

for Disease Control and Prevention, National Institute for Occupational Safety and Health, 

DHHS (NIOSH) Publication 94-113 (August, 1994), 1st Supplement Publication 96-135, 2nd 

Supplement Publication 98-119, 3rd Supplement 2003-154. 


NIOSH [1998]. NIOSH criteria for a recommended standard: occupational noise exposure. 

Revised criteria 1998. Cincinnati, OH: U.S. Department of Health and Human Services, 

Public Health Service, Centers for Disease Control and Prevention, National Institute for 

Occupational Safety and Health. DHHS(NIOSH) Publication No. 98-126. 


NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of 

Health and Human Services, Centers for Disease Control and Prevention, National Institute for 

Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149. Available on­

line at http://www.cdc.gov/niosh/npg/. Accessed June 6, 2008. 


Nordberg G, ed. [1998]. Barium. In: Metals: chemical properties and toxicity. Chapter 63. In: 

Stellman, JM, ed. Encyclopedia of occupational health and safety. 4th ed. Vol. 2. Geneva: 

International Labor Office. Pp. 63.8-63.9. 


OSHA [2004]. Cadmium. Washington, DC: U.S. Department of Labor 

Occupational Safety and Health Administration OSHA 3136-06R. Available on-line at: 

http://www.osha.gov/Publications/osha3136.pdf. Accessed June 4, 2008. 


Pettersson-Ju1ander A, van Bave1 B, Engwall M, Westberg H [2004]. Personal air sampling 

and analysis of po1ybrominated dipheny1 ethers and other bromine containing compounds at an 

electronic recycling facility in Sweden. J Environ Monit. 6:874-880. Epub 2004 Oct 21. 





                                              35 

Proctor NH, Hughes JP, Fischman ML [1991a]. Lead. In: Chemical hazards ofthe
workplace. 3rd ed. Philadelphia, PA: J.B. Lippincott Company, Philadelphia, pp 353­
357.

Proctor NH, Hughes JP, Fischman ML [1991b]. Nickel and inorganic compounds. In:
Chemical hazards ofthe workplace. 3rd ed. Philadelphia, PA: J.B. Lippincott Company,
Philadelphia, pp 422-424.

Proctor NH, Hughes JP, Fischman ML [1991c]. Yttrium. In: Chemical hazards ofthe
workplace. 3rd ed. Philadelphia, PA: J.B. Lippincott Company, Philadelphia, pp 591.

Saryan LA, Zenz C [1994]. Lead and its compounds. In: Occupational medicine. 3rd ed.
Chicago, IL: Mosby-Year Book, Inc.

Schmidt CW [2002]. e-Junk explosion. Environ Health Perspect. 110:A188-A194.

Sjodin A, Carlsson H, Thuresson K, Sjolin S, Bergman A, Ostman C [2001]. Flame retardants
in indoor air at an electronics recycling plant and at other work environments. Environ Sci
Technol. 35:448-454.

Tebrock HE, Mach1e W [1968] Exposure to europium-activated yttrium orthovanadate: a
cathodoluminescent phosphor. J. Occup. Med. 10:692-696.

Thun MJ, Elinder CG, Friberg L [1991]. Scientific basis for an occupational standard for
cadmium. Am J Ind Med. 20:629-42.

USN [2005] Navy safety and occupational health (soh) program manual, chapter 3.
organization and staffing. Washington, DC: Department ofthe Navy, Office ofthe Chief Of
Naval Operations OPNAVINST 5100.23G. 30 DEC 2005. Available online at
http://safetycenter.navy.milJinstructions/osh/510023/5100 _ 23G_Cover_ Ch10.pdf
Accessed May 12, 2008.

Willis HH, F10rig HK [2002]. Potential exposures and risks from beryllium-containing
products. Risk Anal. 22:1019-1033.




                                              36 

                                       Table 1 

                Summary Statistics for Airborne Metal Measurements* 


Ba                            Be            Cd             Pb            Ni
               llg/ m3      llg/ m3       Ilg/m3         Ilg/m3        Ilg/m3
25 samples taken in the FCI Unicor factory
Ar. Mean            0.54          0.02          0.18            2.73       0.18
Ar. St Dey          0.90          0.02          0.19            4.13       0.15
GeoMean             0.29          0.02          0.12            1.24       0.12
GSD                 2.70          2.11          2.42            3.65       2.78


12 samples taken in the Federal Satellite Low
Ar. Mean            0.41         0.02            0.20           1.53       0.54
Ar. St Dey          0.23         0.02            0.13           3.50       0.15
GeoMean             0.36         0.01            0.16           0.59       0.52
GSD                 1.62         1.76            1.90           3.14       1.37


3 samples taken in the Warehouse
Ar. Mean            0.23       0.19              0.41           1.17       0.45
Ar. St Dey          0.06       0.55              0.54           1.20       0.39
GeoMean             0.23       0.02              0.27           0.71       0.32
GSD                 1.26       1.00              2.08           2.00       1.49


4 samples taken in the GBO during the weekly cleaning procedure; LEV was operating;

Ar. Mean            1.00         0.05            8.05           3.11       0.50
Ar. St Dey          0.58         0.00           10.37           2.06       0.00
GeoMean             0.88         0.05            2.59           2.55       0.50
GSD                 1.75         1.00           10.06           2.13       1.00


7 samples taken in the GBO during filter change operation; LEV not operating;

Ar. Mean          120.57         0.01        941.75        1177.50        10.50
Ar. St Dey        162.82         0.00       1018.46        1039.76         9.85
GeoMean            33.65         0.01        412.89         900.47         7.79
GSD                 8.79         1.00         11.42           8.93         4.72


The following samples were taken during the second site visit


                                          37
 Ba                              Be           Cd                  Pb             Ni       Particulate
                 llg/ m3       llg/ m3      Ilg/m3              Ilg/m3         Ilg/m3     Ilg/m3
10 samples taken during     normal operations
Ar. Mean           0.61              0.01         0.29               1.33          0.12           415.37
Ar. St Dev         0.57              0.00         0.36               2.59          0.05           216.oJ
GeoMean            0.30              0.01         0.10               0.40          0.11           344.83
GSD                4.30              1.22         5.33               4.11          1.70             2.10

10 samples taken during normal operation, respirable fractions
Ar. Mean           0.08        0.01           0.02            0.15                 0.04            66.49
Ar. St Dev         0.08        0.00           0.00            0.10                 0.02            31.76
GeoMean            0.04        0.01           0.02            0.13                 0.03            58.59
GSD                4.54        1.30           1.30            1.89                 1.92             1.79

3 samples taken during filter change operations
Ar. Mean           1.97          0.01           7.04                 0.31          0.17           188.27
Ar. St Dev          1.57         0.00           6.32                 0.00          0.12            44.82
GeoMean            1.32          0.01           3.35                 0.31          0.14           184.81
GSD                3.59          1.26           6.84                 1.00          2.00             1.26

3 samples taken during filter change operations, respirable fractions
Ar. Mean           0.38          0.01           0.07           0.31                0.05           173.50
Ar. St Dev         0.14          0.00           0.05           0.00                0.03            77.35
GeoMean            0.37          0.01           0.06           0.31                0.04           161.49
GSD                 1.46         1.49           2.48            1.00               1.92             1.61


*Ar. Mean ~ arithmetic mean
Ar. St Dev ~ arithmetic standard deviation
Geo Mean ~ geometric mean
GSD ~ geometric standard deviation
All "non-detected" samples were set at halfthe limit of detection for statistical calculations.




                                               38 

Table 2 -Airborne Metal Measurements

                                             Areal
                                                           Sample            Sample
  Sample ID       Building       Date      Personal       Description       Duration    BaBe                    Cd          Pb           Ni
                                                                                               3           3           3           3            3
                                                                            Minutes    flg!M       flg!M       flg!M       flg!M        flg!M
The following 25 samples were taken in the FCI Unicor factory
                                                       Worker stripping
ECMTFTl          FC!           2127/2007       A       copper                    393       0.1       <0.03        <0.6        <0.4       <0.08
                                                       Worker stripping
ECMTFT2          FC!           2127/2007       P       copper                    291       0.2       <0.05        <0.1           0.6          0.1
                                                       Monitor tear-dO\vn
ECMTFT3          FC!           2127/2007       A       between                   379
                                                       4th & 5th work
                                                       station from back                   0.2       <0.04        <0.1           0.8          0.3
                                                       Material
                                                       disassembly, front
ECMTFT4          FC!           2127/2007       A       1/2                        20      <0.5       <0.07         <1            <8           <1
ECMTFT5          FC!           212712007       P       Orderly                   281       0.3       <0.05        <0.1           1.3          0.2
                                                       Material
                                                       disassembly, 3rd
ECMTFT6          FC!           2127/2007       P       table from back           255       0.2       <0.05        <0.1           0.8          0.2
                                                       Material
                                                       disassembly, Table
ECMTFT7          FC!           2127/2007       P       7 from back               256       0.3       <0.05           0.1         1.8          0.3
                                                       Material
                                                       disassembly, Table
ECMTFT8          FC!           2127/2007       P       6 from front              164       0.2        0.08        <0.1         1.5         0.3
ECMTFTl1         FC!           212712007       P       Coordinator               423       0.4       <0.01         0.2         2.7         0.1
ECMTFTl2         FC!           212712007       A       Glass breaking            420       0.2       <0.01        <0.1           1       <0.02
ECMTFTl3         FC!           212712007       P       Intake                    238      <0.1       <0.01        <0.1        <0.1       <0.03
ECMWFTl          FC!           212812007       A       Glass breaker             208       1.4       <0.06         0.2         9.5        <0.1
ECMWFT2          FC!           212812007       P       Glass breaker             305       1.7       <0.01         0.6         8.9         0.1
                                                       Glass breaking,
ECMWFT3          FC!           212812007       P       feeder                    258       1.4       <0.01           0.3         7.5          0.2
                                                       Glass breaking,
ECMWFT4          FC!           2128/2007       P       coordinator               412       4.3       <0.01           0.8           18         0.4
                                                       Monitor
ECMWFT5          FC!           2128/2007       A       disassembly, 4th          395       0.3       <0.03           0.2         1.1          0.2

                                                                               39
                                                       bench from back

                                                       Monitor
                                                       disassembly, 8th
ECMWFT6          FCI           2128/2007       A       bench from back           400    0.2   <0.03    0.1    0.8   <0.1
                                                       Intake area, forklift
ECMWFT7          FCI           2128/2007       P       driver                    332    0.2   <0.03    0.1    0.5    0.1
                                                       Intake area, near
ECMWFT8          FCI           2128/2007       A       weigh station             408    0.2   <0.03    0.1    0.7    0.1
                                                       Copper stripping
ECMWFT9          FCI           2128/2007       A       area                      390    0.1   <0.03   <0.1    0.4   <0.1
                                                       Worker stripping
ECMWFTlO         FCI           2128/2007       P       copper                    300    0.1   <0.04   <0.1   <0.6   <0.1
                                                       Monitor
                                                       disassembly, 8th
ECMWFTll         FCI           2128/2007       P       bench from back           289    0.2   <0.05    0.1    1.2    0.2
                                                       Monitor
                                                       disassembly, 2nd
ECMWFTl2         FCI           2128/2007       P       bench from back           283    0.2   <0.05    0.1    1.1    0.1
                                                       Monitor
                                                       disassembly, 4th
ECMWFTl3         FCI           2128/2007       P       bench from back           280    0.5   <0.05    0.3    2.3    0.6
                                                       Monitor
                                                       disassembly,
ECMWFTl4         FCI           2128/2007       P       material handler          251    0.3   <0.05    0.1    1.2    0.2

The following 12 samples were taken in the Federal Satellite Low
                                                       Disassembly
ELMTF-P1         FSL           2127/2007       P       worker                    207   <0.5   <0.02    0.1    0.7    0.7
                                                       Disassembly
ELMTF-P2         FSL           2127/2007       P       worker                    203   <0.5   <0.02    0.1   <0.4    0.5
                                                       Disassembly
ELMTF-P3         FSL           2127/2007       P       worker                    198   <0.5   <0.03   <0.1    0.9    0.6
ELMTF-Tl         FSL           212712007       A       Area sample north         369   <0.5   <0.02    0.1   <0.3    0.3
ELMWF-A11        FSL           212812007       A       North FSL area            392    0.3   <0.04    0.2   <0.5    0.5
ELMWF-A12        FSL           212812007       A       Area - Central FSL        395    0.6   <0.03    0.2    0.7    0.7
                                                       Area south FSL
                                                       (suspect
ELMWF-A13        FSL           2128/2007       A       tampering)                398      1   <0.03    0.3   12.6    0.6




                                                                               40 

Table 2 -Airborne Metal Measurements (continued)

                                            Areal
                                                      Sample
Sample ID       Building     Date          Personal   Description         Ba                       Be                   Cd        Pb        Ni
                                                                                                   flg IM3         flg IM3   flg IM3   flg IM3   flg IM3
ELMWF-Pll       FSL            2128/2007      P       Bailer (metal)             187         0.5         0.07         0.3       <0.5      0.7
                                                      Bailer (plastic
ELMWF-P12       FSL            212812007      P       cardboard)                 286         0.5       <0.02          0.1       0.5       0.4
                                                      Worker on line 1
ELMWF-P13       FSL            212812007      P       (north)                   284          0.2       <0.02          0.2       0.7       0.5
                                                      Worker on central
ELMWF-P14       FSL            212812007      P       line                      287          0.5       <0.02          0.5       0.9       0.7
ELMWF-P15       FSL            212812007      P       Orderly                   280          0.3       <0.02          0.2       0.5       0.3

The following 6 samples were taken in the warehouse
EWMTF1           WHSE          212712007       P      Orderly                    253        0.2          <0.1       <0.1        <2         <1
EWMTF2           WHSE          212712007       P      General worker             247       0.13          <0.1       <0.1        <2         <1
                                                      Clean-up,
EWMWF03         WHSE           2128/2007      P       sweepmg                   307          0.2       <0.02          0.4       0.3       0.1
                                                      De-gaussing,
EWMWF04         WHS E          212812007      P       grinding                  202          0.2       <0.02          0.4     <0.3        0.2
EWMWF05         WHS E          212812007      P       Work on floor             338          0.3       <0.02          0.3      0.5        0.1
                                                      Area sample,
                                                      middle of
EWMWF06         WHS E          2128/2007      A       warehouse                 381          0.2       <0.02          0.1     <0.3        0.1

The following 4 samples were taken in the GBO during the weekly cleaning procedure; LEV was operating;
                                                      GBO worker doing
ECMHF1           FCIIGBO        311/2007      P       weekly cleaning            79        1.8        <0.1           23.3       5.7        <1
                                                      GBO worker doing
ECMHF2           FCIIGBO        31112007      P       weekly cleaning            72       0.66        <0.1            4.7      2.02        <1
                                                      In change area
                                                      during weekly
ECMHF3           FCIIGBO        31112007      A       cleaning                   67         <1        <0.1            0.1       <2         <1
                                                      In breaking area
                                                      during weekly
ECMHF4           FCIIGBO        311/2007      A       cleaning                    64        1.02       <0.1           4.1       3.7        <1
The following 7 samples were taken in the GBO during the filter change maintenance operation; LEV not operating;



                                                                               41
                                                       Worker doing
ECMFF04B        FCIIGBO         31212007       P       filter change                 91         5          <0.02      18     25        3
                                                       On computer
                                                       monitor at desk of
ECMFF07         FCIIGBO         31212007       A       clerk,                     113           1          <0.02      3        6     0.3
                                                       BZ level, near
ECMFFOI         FCIIGBO         31212007       A       HEPA filter                318          15          <0.02     31      71      0.5
                                                       BZ level in right
ECMFF02         FCIIGBO         31212007       A       GBO station                322          63          <0.02     27     360        3
                                                       Worker doing
ECMFF03A        FCIIGBO         31212007       P       filter change              128        460           <0.02   2,400   2700      25
                                                       Worker doing
ECMFF03B        FCIIGBO         31212007       P       filter change                 90       150          <0.02    650     760        7
                                                       Worker doing
ECMFF04A        FCIIGBO         31212007       P       filter change              114         150          <0.02    690     890        7
                                                       about 20 ft from
                                                       GBO

The following samples were taken during the second site visit and include measurements for airborne
particulate;

                                            Areal
                                                       Sample                                                                              Particulate
Sample ID       Building      Date         Personal    Description                            Ba      Be             Cd       Ph      Ni   *
E2CMTR-Ol       FCI           12/11/2007      P        Feeding monitors           281        0.15          <0.02   <0.03    0.31    0.02       85.6R
E2CMTR-02       FCI           12/11/2007      P        Glass breaking             286        0.22          <0.02   <0.03    0.29   <0.08       59.0R
E2CMTT-Ol       FCI           12111/2007      P        Glass breaking             267        1.02          <0.03    0.65    3.26    0.13         490
E2CHTT-02       FCI           12/11/2007      P        Feeding monitors           283        1.66          <0.02    0.98    8.17    0.17         722
E2CMTM-Ol       FCI           12111/2007      P        Moving product             285                      <0.07
E2CMTT-03       FCI           12111/2007      P        Moving product             284        0.08          <0.02   <0.05   <0.23    0.15          223
E2CMWT-Ol       FCI           1211212007      P        Moving product             237        0.08          <0.03   <0.06   <0.28    0.11          199
E2CMWT-02       FCI           1211212007      P        Moving product             224        0.99          <0.03   <0.06    0.31    0.15          467
E2CMWT-03       FCI           12112/2007      P        Feeding monitors           240        1.03          <0.03    0.64    0.31    0.21          654
E2CMWT-04       FCI           12112/2007      P        Copper stripping           239        0.04          <0.03   <0.06   <0.28   <0.14         70.3
E2CMWT-05       FCI           12112/2007      P        Glass breaking             233        0.82          <0.03    0.45    0.31   <0.14          519
E2CMWR-Ol       FCI           12112/2007      P        Feeding monitors           233        0.05          <0.02   <0.04   <0.21   <0.10       73.0R
E2CHWR-02       FCI           12112/2007      P        Feeding monitors           239        0.11          <0.02   <0.04   <0.20   <0.10       81.5 R
E2CMWR-03       FCI           1211212007      P        Moving product             231        0.04          <0.02   <0.04   <0.21   <0.10        113R
E2CMWR-04       FCI           12112/2007      P        Disassembly                240       <0.02          <0.02   <0.04   <0.20   <0.10       30.1 R


                                                                                42
E2CMWR-05         FCI        12112/2007      P       Disassembly            229   <0.02   <0.02   <0.04   <0.21    0.06   52.2R
E2CMWM-Ol         FCI        12112/2007      P       Feeding monitors       235           <0.09
E2CMWM-03         FCI        12112/2007      A       Disassembly area       162           <0.12
E2CMWT-06         FCI        12112/2007      P       Disassembly            244    0.35   <0.03   <0.05    0.31    0.15     394
E2CMWR-06         FCI        12112/2007      P       Disassembly            105   <0.01   <0.01   <0.02   <0.12    0.01   23.2R

The following 6 samples were taken during filter change operations
                                                       On top ofHEPA
E2CMHT-Ol        FCI          1211312007        A      filters              304    0.31   <0.02    0.37    0.31    0.12     179
E2CMHT-02        FCI          12113/2007        P      Filter change        215    2.19   <0.02    7.83    0.31    0.08   148.8
E2CMHT-03        FCI          12/13/2007        P      Filter change        225    3.42   <0.03   12.93    0.31    0.31   2378
                                                     Center exhaust
                                                     hood face, 6.5 Ft.
E2CMHR-02         FCI        12/13/2007      A       high                   307    0.25   <0.01    0.08    0.31    0.02    169R
E2CMHR-03         FCI        12113/2007      P       Filter change          220    0.37   <0.02   <0.04    0.31   <0.11   98.5 R
E2CMHR-04         FCI        12113/2007      P       Filter change          229    0.53   <0.02    0.11    0.31    0.07    253 R

*R indicates respirable
fraction




                                                                          43 

                                                          Table 3 -Impactor Samples
Sample ID       Description                LocationDa     te   Particle Size Ba         Be          Cd          Pb            Ni         TOTAL
 Cut                                                                point                                                               METALS
                                                                                    3           3           3           3           3            3
                                                                  (fim)       fig/m     fig/m       fig/m       fig/m       fig/m        fig/m

ECMFF 5A    Five hour personal sample on      FCI       312107    2.5           83      <0.03       388          560          3.7         7,100
ECMFF 5B    worker doing filter change                            1.0           75      <0.03       330          359          2.9         6,500
ECMFF5C     inGBO                                                 0.50           6      <0.03        13           19         <0.1           410
ECMFF 5D                                                          0.25          42      <0.03       131           96          0.8         2,900
ECMFF 5E                                                          Filter         4      <0.03         4            2          0.1         2,200
            Total metal per sample                                             210      <0.03       866         1037          7.6        19,000

ECMFF6A     Two hour personal sample on       FCI       3/2/07    2.5           22      <0.01        50          114          0.7         1,900
ECMFF6B     worker doing filter change                            1.0            2      <0.01         1            7         <0.04           82
ECMFF6C     inGBO                                                 0.50           0.3    <0.01         0.03         2         <0.04           13
ECMFF6D                                                           0.25           0.1    <0.01         0.02         0         <0.04            8
ECMFF6E                                                           Filter         0.1    <0.01         0.01        <0.1        0.01          540
            Total metal per sample                                              24      <0.01        51          123          0.8         2,500

ECMHF5A     Two hour personal sample on       FCI       3/1/07    2.5           0.5     <0.02         3           5           0.1            62
ECMHF5B     worker doing clean-up                                 1.0          <0.04    <0.02         0.1         4          <0.1            16
ECMHF5C     in glass breaking area/room                                         0.50    <0.02        <0.02       <0.02        5              <0.1
ECMHF5D                                                           0.25         <0.02    <0.02        <0.02        3          <0.1            13
ECMHF5E                                                           Filter       <0.4     <0.02        <0.02       <0.3        <0.1         1,600
            Total metal per sample                                              0       <0.02         3          16           0.1         1,700

ECMHF6A     Two hour personal sample on       FCI       311107    2.5           0.1     <0.06        <0.1        <0.8        <0.1            31
ECMHF6B     worker doing clean-up                                 1.0           0.1     <0.06         0.3        24          <0.1            59
ECMHF6C     in glass breaking area/room                                         0.50    <0.05        <0.06       <0.1         7              <0.1
ECMHF6D                                                           0.25         <0.05    <0.06        <0.1        12          <0.1            35
ECMHF6E                                                           Filter        1       <0.06        <0.1        <0.5         0.1         2,500
            Total metal per sample                                              1       <0.06         0.3        43           0.1         2,700

ECMTFS2A    On table 1, front half            FCI       2/27/07    2.5          0.3     <0.03         0.05        6           0.4            70
ECMTFS2B                                                          1.0           0.0     <0.03        <0.05       11          <0.06           27
ECMTFS2C                                                          0.50         <0.02    <0.03        <0.05        4          <0.06           17
ECMTFS2D                                                          0.25         <0.02    <0.03        <0.05        3          <0.06           13
ECMTFS2E                                                          Filter        0.3     <0.03        <0.05       <0.2         0.1         1,000
            Total metal per sample                                              1       <0.03         0.05       23           0.4         1,200




                                                                        44 

                                                      Table 3 -Impactor Samples (continued) 

SampleID Descripti                   on       LocationDa te      Particle Size Ba             Be        Cd          Pb             Ni         TOTAL 

 Cut                                                                 point                                                                   METALS 

                                                                                      3             3           3            3           3            3
                                                                   (fim)        fig/m         fig/m     fig/m       fig/m        fig/m        fig/m


ECMTFS3A             3rd funnel breaker           FCI     2127/07   2.5            2           <0.02      1          25            0.2           260
ECMTFS3B                                                            1.0            1           <0.02      0.2         6           <0.06           50
ECMTFS3C                                                            0.50           1           <0.02      0.1         5           <0.06           31
ECMTFS3D                                                            0.25           0.1         <0.02     <0.04        1           <0.06           11
ECMTFS3E                                                            Filter         1           <0.02      0.1         0.3         <0.06          840
                     Total metal per sample                                        5           <0.02      2          37            0.2         1,200

ECMTFS4A             Panel breaker                FCI     2127/07   2.5            8           <0.01     10          44            0.7           750
ECMTFS4B                                                            1.0            1           <0.01      0.1         3           <0.03           25
ECMTFS4C                                                            0.50           0.1         <0.01     <0.01        5           <0.03           11
ECMTFS4D                                                            0.25           0.1         <0.01     <0.01        4           <0.03            9
ECMTFS4E                                                            Filter        <0.02        <0.01      0.01       <0.1         <0.03          500
                     Total metal per sample                                        9           <0.01     10          56            0.7         1,300

ECMTFS6A             Intake area                  FCI     2127/07   2.5             0.1         0.01     <0.03           1          0.1          19
ECMTFS6B                                                            1.0             0.01        0.01     <0.03           1          0.03          8
ECMTFS6C                                                            0.50            0.01        0.01     <0.03           1          0.03          6
ECMTFS6D                                                            0.25            0.01        0.01     <0.03           3          0.03          9
ECMTFS6E                                                            Filter          0.1         0.01      0.01           0          0.01        630
                     Total metal per sample                                         0.2         0.07      0.01           6          0.2         670


ECMWFS7A             Area sample,                 FCI    2128/07    2.5             2.1         0.005     0.4        19             0.2         180
ECMWFS7B             glass breaking booth                           1.0             0.2         0.005    <0.001       1             0.02         12
ECMWFS7C                                                            0.50            0.1         0.005     0.01        0             0.02          8
ECMWFS7D                                                            0.25            0.03        0.005    <0.001       0             0.02          4
ECMWFS7E                                                            Filter          0.1         0.005     0.01       <0.1           0.01        350
                     Total metal per sample                                         2.5         0.02      0.4        21             0.3         550

ECMWFS8A             Glass breaker                FCI    2128/07    2.5            2.3          0.01      0.5        13             0.1         200
ECMWFS8B                                                            1.0            1.5          0.01      0.2         8             0.1         110
ECMWFS 8C                                                           0.50           0.4          0.01      0.03        1             0.03         20
ECMWFS8D                                                            0.25           0.2          0.01     <0.01        1             0.03          8
ECMWFS8E                                                            Filter         0.5          0.01      0.05        0.4           0.01        460
                     Total metal per sample                                        4.9          0.03      1          24             0.2         800




                                                                         45
                                                                    Table 3 -Impactor Samples (continued)
Sample ID                  Description                      LocationDa te      Particle Size Ba           Be                         Cd        Pb          Ni       TOTAL
 Cut                                                                               point                                                                           METALS
                                                                                 (fim)        fig/m 3     fig/m 3                    fig/m 3   fig/m 3   fig/m 3    fig/m 3


ECMWFS9A               Glass breaking feeder                     FCI      2128/07     2.5               1.2           0.01              0.2      10         0.1        97
ECMWFS9B                                                                              1.0               0.3           0.01              0.04      3        <0.03       24
ECMWFS9C                                                                              0.50              0.1           0.01             <0.01      1        <0.03        8
ECMWFS9D                                                                              0.25              0.1           0.01             <0.01      1        <0.03        6
ECMWFS9E                                                                              Filter            0.2           0.01              0.01     <0.1       0.01      560
                       Total metal per sample                                                           1.7           0.03              0.3      15         0.2       700

EWMTF3A                Area sample, warehouse,                   W        2127/07     2.5               0.2           0.01             <0.01      5        <0.03       60
EWMTF3B                location 2 (see diagram)                                       1.0               0.02          0.01             <0.01      5        <0.03       16
EWMTF3C                                                                               0.50              0.01          0.01             <0.01      3        <0.03        9
EWMTF3D                                                                               0.25              0.01          0.01             <0.01      0.3      <0.03        6
EWMTF3E                                                                               Filter            0.1           0.01             <0.01     <0.1      <0.03      490
                       Total metal per sample                                                           0.4           0.06             <0.01     14        <0.03      590

EWMTF4A                Area sample, warehouse,                   W        2127/07     2.5               0.1           0.01             <0.01      1        <0.03       28
EWMTF4B                location 1 (see diagram)                                       1.0               0.1           0.01             <0.01      1        <0.03       10
EWMTF4C                                                                               0.50              0.01          0.01             <0.01      1        <0.03        7
EWMTF4D                                                                               0.25              0.01          0.01             <0.01      1        <0.03        7
EWMTF4E                                                                               Filter            0.1           0.01             <0.01     <0.1      <0.03      560
                       Total metal per sample                                                           0.3           0.06             <0.01      4        <0.03      610


 ' Total metals per sample, and total metals per stage are sums of all 31 metals quantified rather than the five metals listed in this table




                                                                                            46 

                                                                       Table 4 -Wipe Sample Results

                                                                                                                Results in ug/sq ft
Sample ID        Location      Date          Sample description                                 Ba       Be         Cd          Pb      Ni

The following samples were taken in the FCI Unicor Factory
ECMTWI           FC!     2128/2007        On steel work bench, copper stripping                   44     <0.3       25           360    43
ECMTW2           FC!     212812007        On work bench, smooth rubber, far end                   56     <0.3       13         3,000   110
ECMTW3           FC!     212812007        On work bench, cardboard cover, far end                 17     <0.3        2           150    21
ECMTW4           FC!     2128/2007        On work bench, rough rubber, near end                  120     <0.3       56           660   260
ECMTW5           FC!     2128/2007        On work bench, smooth rubber near end                  150     <0.3       33           670   240
ECMTW6           FC!     2128/2007        On gray desk top in weigh station                        3     <0.3        2            24    <4
ECMTW7           FC!     31112007         Charger bench in change room                            72     <0.3       70         1,200     6
ECMTW8           FC!     311/2007         Outside of locker door in change room                   <0.7   <0.3       <0.7           4    <4
ECMTW9           FC!     31112007         Back of aluminum bench in change room                   <0.7   <0.3        1            11    <4
ECMTWI0          FC!     31112007         Front of aluminum bench in change room                  90     <0.3        9         1,400     7
ECMTWll          FC!     31112007         Right side ofI-beam in breaking room                   100     <0.3      350           580     7
ECMTW12          FC!     31112007         Back of inlet jet at top front of hood, right side,
                                          breaking room                                           35     <0.3       44           330   <4
ECMTW13          FC!     31112007         Floor in breaking room adjacent to change room         590     <0.3       30        10,200   66
ECMTW14          FC!     31112007         Floor, middle of entry room to glass breaking          190     <0.3       11         2,100   15

The following samples were taken in the Federal Satellite Low
ELMTF-Wl         FSL     212812007        End of shift, on Table 1 north                          12     <0.3        4            21     4
ELMTF-W2         FSL     212812007        End of shift, on Table 1 central                        28     <0.3        8            77    93
ELMTF-W3         FSL     212812007        End of shift, table 3 south                             27     <0.3       13            36    45
ELMTF-W4         FSL     212812007        Bailer 1                                               130     <0.3       17           120   160
ELMTF-W5         FSL     212812007        Bailer 2                                                55     <0.3        5           100   290
ELMWF-W11        FSL     311/2007         Bailer (metal)                                          66     <0.3       10            57   110
ELMWF-WI2        FSL     31112007         Bailer (plastic)                                        37     <0.3        4            72    40
ELMWF-W13        FSL     311/2007         Table 1, north                                          25     <0.3        8           190   200
ELMWF-WI4        FSL     311/2007         Table 1 south                                           20     <0.3        4           180   240
ELMWF-WI5        FSL     311/2007         Table 3, central                                        26     <0.3      167            86   120




                                                                                      47 

                                                              Table 4 -Wipe Sample Results (Continued)


The following samples were taken in the FeI Unicor Factory during the second site visit

Sample ID                    Date              Description                                     Ba        Be     Cd      Pb       Ni
E2CMTW-Ol                  12/1112007      ADP north end on computer desk top                  <0.2      <0.1   <0.9    <4       <3
                                           near doors to recycle operations
 E2CMTW-02                 12/1112007      ADP south end on computer desk top                   0.2       0.1    <0.9   3.6      <3
                                           near doors to recycle operations
 E2CMTW-03                 211112007       Recycle room south end work                        202.5       0.1    24.2   170.9    55.7
                                           bench top near doors to ADP
 E2CMTW-04                 12/1112007      Recycle room north end work bench top               63.2       0.2    22.3   310.3    102.2
                                           near doors to ADP
 E2CMTW-05                 12/1112007      Recycle room north end work bench                  249.0       0.1    63.2   505.4    260.1
                                           top middle of disassembly area
 E2CMTW-06                 12/1112007      Recycle room south end work bench                    4.6       0.1     3.2   22.3     15.8
                                           top middle of disassembly area
 E2CMTW-07                 12/1112007      Recycle room outside double door to glass             8.0      0.1     4.6   36.2     4.5
                                           breaking room on top of order desk
 E2CMTW-08                 12/1112007      Recycle CLERK station near                           3.3       0.1     1.8   8.4      7.7
                                           glass breaking room
 E2CMTW-09                 12/1212007      Filter room on top of HEPA filter                  193.2      <0.1   371.6   1202.1   10.2
 E2CMTW-I0                 12/1212007      Glass breaking table                               249.0      <0.1   399.5   1202.1   13.0
 E2CMTW-11                 12112/2007      Change room on top of lockers                       26.0       0.2    32.5   133.8    12.1




                                                                                   48 

                                 Table 5
       Composition of Bulk Dust Samples from the Glass Breaking Operation
                                 February 2007

  Sample                      Ba          Be          Cd           Pb    Ni

ECMFBOI                      670         <0.1         240        14000   60
ECMFB02                      650         <0.1         240        14000   40
ECMFB03                      860         <0.1         350         9100   79

The data are presented in milligram of metal per kg of dust (mg/kg).




                                           49 

                                                       Table 6
                                            Noise Exposure Measurements

Date:              12/11107
Sample I D:       E2CST- 2                  E2CST - 3                E2CST -1
Description:    Glass breaking            Glass breaking            Sweeper in GBO
Dosimeter
                                          QC90S0002                 QC9040070
serial no.      QC9040064
Test Started     9:S3:19AM                 8:S9:02AM                 9:27:3SAM

Test Stopped    11:04:47AM                                          11:10:1SAM
                                          10:06:S1AM
Test Run Time          1:11                       1:07                    1:42
                     OSHA        NIOSH          OSHA       NIOSH         OSHA     NIOSH
TEST AVG
                        92.S       9S.6           90.S       93.1          91.6      93.2
(DB)
TWA (DB)                78.8       87.3           76.4       84.6          80.4      86.S

Date:              12/11107
Sample I D:       E2CST- 2                  E2CST - 3                E2CST -1
Description:    Glass breaking            Glass breaking            Sweeper in GBO
Dosimeter
                                          QC90S0002                 QC9040070
serial no.      QC9040064
Test Started    12:S3:38PM                11:S7:06AM                 1:01:48PM

Test Stopped                               2:S8:0SPM                 3:S9:16PM
                 3:S2:S9PM
Test Run Time          2:S9                     3:01                      2:S7
                     OSHA        NIOSH         OSHA        NIOSH         OSHA     NIOSH
TEST AVG
                        97.7       99.4           93.4       96.0          91.0      92.1
(DB)
TWA (DB)                90.6       9S.1           86.3       91.8          83.9      87.8
Date:              12/12/07


                                                            SO
Sample I D:        E2CSW -2                   E2CSW -3                E2CSW -I 
                 E2CSW-4
                                            Area sample ­                                       Area sample
                                            CRT                                                 - CRT
Description:      Glass breaking            disassembly              Cleaner - GBO 
            disassembly
Dosimeter 

                                            QC9050002                QC9040070 

serial no. 
      QC9040064                                                                     QC9040061
Test Started 
     8:44:4IAM                                          8:47:IOAM                  9:17:50AM
                                             8:09:14AM
Test Stopped 
     2:30:29PM                 1:47:18PM                2:35:28PM
                                                                                                2:42:33PM
Test Run Time 
          5:45                      5:38                     5:48                      5:24
                        OSHA       NIOSH          OSHA      NIOSH          OSHA        NIOSH      OSHA     NIOSH
TEST AVG 

                           90.6      94.1           75.8      86.9            85.9       88.8         61.5    76.8
(DB) 

TWA (DB) 
                 88.3      92.6           73.3      85.4            83.6       87.4         58.7    75.1

Date: 
                12/13/07
Sample I D: 
       E2CSW - 9               E2CSW - 10
                  Area - in                 Area - in
                  GBOnear                   GBO, left
Description: 
    feed window               side of hood
Dosimeter 

                                            QC9040070
serial no. 
      QC9040064
Test Started 
     8:43:23AM                 8:49:38AM

Test Stopped 
      1:56:4IPM                2:03:22PM

Test Run Time 
          5:13                      5:14
                        OSHA       NIOSH          OSHA      NIOSH
TEST AVG 

                           67.4      79.2           68.2      77.5
(DB) 

TWA (DB) 
                 64.4      77.3           65.1      75.7



                                                             51
                                                            Appendix A
                                          Occupational Exposure Criteria for MetallElements



                      ELEMENTS     ~ I CP! :   METHOO 73010, r...... 3 , dated           t~   Maf'Cl> 2003             . P ~e8018




       ,-­
TABlEl. EXPOSURE LIM ITS, CAS III, RlECS




                                            -- ,-_.,
                                                                                     E ,.,.....~ , ~                   (Co . GO........"
       IS,.....I         ~"                 ~~                                 O~    	
                                                                                                          ~"                            ~O"

S... (.... ,             " ....22...                            •.0,(0.......... _1            .n" ....(_,                      o.,<-~

                                                                                                                                0.01 (_,..,

.......,... (.'JI
                         '''''HI''"'        .~ ~                ,.(..... ~'-'l   	             '0_....'                          'Q,.....,

                                                                                               '(""_""'1                        5_~"",


"-'""(     ....,
8 ..... (8 .'
                         , . . . . .2
                         ,........'
                                               001>5,,"=
                                               00"_ ••
                                                                --.                            2 ( . -, " '' ' '


                                                                                               ..
                                                                                               C • .002,     c.o
                                                                                                                                2 (.0., " , ,."

                                                                                                                                "".
                                                                                                                                o. 

                                                                                                                                        ~




             {lI.,       ,......'.'                 '''m, c.w,
                                                                -_.                            -_.                              ._.
                          ..... -- ....
8 ........                                     OS 115O<nl                                      000;15 , (:0                     0.00,,"<.:0 

<':O...... (Co1
                         ,.........
                         ' ....10-2
<.:o_m(CdI                                                      0.00'                          , _ ........ <.:0                D.01 (""'I). <.:0 

                                                                                                                                0.002 (_'.1,      c.o
Co""(Co!
U._ _ (C<I
                         ,
                         ,......'.' ~-
                                      ""-
                                                                    ....,-,                    ......,
                                                                                               ··1>510........)                 0.'" ' ....' ...., 


                                                                                                                                ••'(0",,_, 

-.~                      " ......... 6..,,"'=
                         ,......... 	
                                                                '(
                                                                O. '~..... '
                                                                                              .....,.....
                                                                                               '(
                                                                                               o ., ~   ..... ,                 0.2(.....,
                                                                                                                                5(fu...,

                                            ."­
                                               ~.~              ,0(d...... _1                      (               )
'"'" (F"
P.....""(KI              , ....00.'
'_..om                   ,..... '."
U ....m(l/I

                         ,.........
                         ' ........2 


""''''..... ('''111

""''''...... !'''~I

""""""..... (1.'10 1
                                --
                         ,........_ 

                         ' ......·1 	


                          .. ..
                                               ~.-




                                               ~-=
                                                                "(0""'_0_
                                                                .(.......101 


                                                                "	
                                                                  .......,
                                                                	.(
                                                                15("""""''''1
                                                                                               "'(1«"""-
                                                                                               "SnL3


                                                                                                '(0<*0"'1
                                                                                               'O(no"",'
                                                                                                                                 10~.....) " _ ' 



                                                                                                                                ~("""
                                                                                                                                ',""'''(fu...)
                                                                                                                                ·".(......101
                                                                                                                                    r.._ ...)
_     '(>01              , """
                                               m
                                               ._ ..••
                                               ~~                 	



                                                                                               ..••
                                                                                               0..'5 , <.:0                     D.' (......., 

                                                                                                                                 '(-"--~



                                                                                                                                .....
""0.,,,,.,,.. (0')       m ......                                                                                               •••
lOoO(O'bl
_(sOl
                         ",,<>m.,
                          ..
                         , """..                  ..
                                               a',""OOO
                                               ,~-                                             .."
                                               ~"- ," 	
Sol...... (S"            1782..<9·2
                                                                                               ,                                ,"
                         ,..""'...
,,,,(Sol


                                                                                                                                ..
                         '..'\.31 -5
                                               ~"-
_ m ( SrI

T.......m(T., 


T...... (TiJ
                         ,.. ~""

                         '''(>3:''''
                                               ~.-
                                               ~.-
                                                                ..                             ..
ThI..... (TI1            , .....2\1..          ~.-              0.1(_1(.....101                0.1(..... '_10'                  D.' _ ,
V...d"'O:VI              '''I>&'~              ~.~          	                                  c •.'"


-., 	
T......." 





-~,            	
                         '''1>3:1.' 	
                         ''''''''-5
                         ,.......... 

                         ,.... .,.,
                                               ,~-

                                               ,~-
                                                                •
                                                                                               ..•
                                                                                               'O(Sm. 1                         •,.,S1H)




" ""'*''"(''1 	                                m ro_ 	          •                              ',snel'.                         ~ ,sm. 'Q




                                         ""0"; .......... "' ..... _-..(>IMM~                 .......   ~_             





                                                                                                   52 

                                  Appendix B 


Metallic ComQosition of Bulk Dust SamQles from the Glass Breaking OQeration 

               Concentrations are in mg/kg (ppm by weight) 


         SamQle #:     ECMFBOI               ECMFB02     ECMFB03 

           Al           480                      480         1100
           Sb              8.8                     5.4         21
           As              <6                     <6           <6
           Ba             670                    650          860
           Be            <0.1                     <0.1         <0.1
           Cd             240                    240          350
           Ca            1100                    910         1700
           Cr               13                    14           24
           Co             <0.5                    <0.5          0.9
           Cu                15                   15           29
           Fe             2000                  2000         2500
           La                12                   16             13
           Pb            14000                 14000           9100
            Li              0.5                    0.5            1.4
           Mg              150                   150            300
           Mn                43                   43             41
           Mo               <2                    <2             <2
           Ni                60                   40             79
            P                57                   68             82
             K             460                   450            690
           Se              <10                    16            <10
           Ag             <0.2                    <0.2           <0.2
            Sr             190                   180            240
           Te                 4                   <4             15
            Tl              <4                     8.6           <4
           Sn                26                   15             18
            Ti               10                   10             13
             V            <0.3                    <0.3           <0.3
             Y            6500                  5700           3500 

            Zn           15000                 14000           9000 

            Zr              <7                     7.4            0





                                      53 

                                                           Appendix C 

                                               Metallic Composition of Wipe Samples 


                                                      Concentrations are in uglsq foot


                                                                                                                                                o




AI   320    350     33      11   44 0   430     250      270    340    270    240    190    240     4.8    1300   260    180    290    200
                                                                                                                                               i
                                                                                                                                              270
Sb    8.4     I      I      I     4.2    2.1     19       12      12    35      I      I      I      I      21     3.9     I     8.4     I      I
A,     2      2      2      2      2      2       2        2      2      2      2      2      2      2       2      2      2      2      2      2
Ba    4.7    9.7     11    3.8    63     20       6       1.8     13    48    0.33    7.7   0.08   0.08     89     3.2    1.5    51     1.7   0.41
Be   0.Q3   0.03   0.03   0.Q3   0.03   0.03   0.Q3      0.03   0.03   0.Q3   0.03   0.03   0.Q3   0.03    0.03   0.Q3   0.03   0.03   0.Q3   0.03
Cd    2.7   0.94    38     4.7    3.2    1.2    1.4      0.24      6    3.5   0.17    7.5   0.G7   0.11       6   0.18   0.09   0.33   0.G7   0.07
Ca   520    280    230    220    1100   810     520      270    600    620    290    lQl!   lQl!   300    14000   lQl!   lQl!   1700   lQl!   lQl!
C,    2.5   0.78   0.61   0.02    2.5    0.6    2.7      0.74    3.3     10   0.02    1.9   0.02   0.02      18   0.53   0.18    3.6   0.67    0.2
Co   0.27   0.06   0.06   0.06    0.1   0.06   0.35      0.06   0.22   0.58   0.06   0.06   0.06   0.06      2    0.06   0.06   0.19   0.06   0.06
Co    69     2.2    1.1   0.49     11    4.3     33       8.9    45    170     1.2    1.7    0.3   0.Q3     110    2.7    1.1    170    1.7    1.9
Fe   490    110     53     24    720    300    1100       83    590    440     47    140     3.6    0.9   5800     90     50    560     60     36
La    QJ.   QJ.    0.38    QJ.   0.73    QJ.   0.86      QJ.    0.54   0.46   QJ.     QJ.    QJ.    QJ.     3.2    QJ.    0.3    QJ.    QJ.    0.3
Pb    39    150     62     35    1100   230     320        16    71     72     2.6   130    0.47    1.2     110    3.8           8.7    1.6   0.96
Li   0.29   0.12   0.11   0.05   0.35   0.31   0.83      0.17    1.3    1.4   0.16   0.08   0.04   0.04     2.6   0.12   0.06    1.7   0.12   0.08
Mg    60     29      13    8.4    81     56     120       43    100     87     46      14    44      1    2200     38      13   500     29     32
Mn      8    2.3    1.3   0.52     12    5.6    290       8.1    92     35      2     2.1   0.68   0.04     160    2.6    1.1     11    1.1    1.2
Mo   0.39   QJ.     QJ.    QJ.    QJ.    QJ.   0.32      QJ.    0.54   0.57   QJ.     QJ.    QJ.    QJ.     3.8    QJ.    0.3   0.62    QJ.    0.3
Ni    4.6   0.76   0.78    0.4    7.1    1.6     12       2.3    28     26     0.4   0.65    0.4    0.4     31     1.1    0.4    7.6    0.4    0.4
P     30     4.9    6.5    53      17     17     12       3.4     16     1     4.7    3.3     1      1      190    7.6     12    7.3    9.3    3.1
K     76     59      13     11    160   100     120       34    110    140     58      18     15    18     1900   120    140    240    160     61
Se     I      I     2.4     I      I      I       I        I      I      I      I      I      I      I       I      I      I      I      I      I
Ag   0.17   0.04   0.02   0.02    0.1   0.11    1.7      0.47    1.1   0.83   0.Q3   0.02   0.02   0.02     2.6   0.15   0.03    2.3   0.G7   0.05
S,     2     5.1    4.3    1.6    30      13    2.6      0.69     11    3.1   0.26    2.2    !Ll   0.61     35    0.19    !Ll    3.4   0.41    !Ll
Te    0.5    0.5    0.5    0.5     0.5   0.5    0.6    0.5    0.5    0.5    0.5     0.5    0.5     0.5     1A     0.5    0.5     0.5    0.5    0.5 

Tl    lQ     lQ     lQ      lQ     lQ    lQ     lQ     lQ     lQ     lQ      lQ     lQ      lQ      lQ     lQ     lQ      lQ     lQ     lQ     lQ 

Sn    7.6     1      1       1      3     1    470     27     92     100      1      1       1        1    21      6       1     8.5     1       1

Ti     2     1.3   0.81   0.35     6.2   3.9    2.5    1A     9.2     17   0.74    0.98   0.38    0.Q7     40     1.3   0.53     9.5   0.94   0.72 

V    0.Q3   0.03   0.02   lLlll   0.15   0.1   0.29   0.05   0.15   0.17   lLlll   0.02   lLlll   .I1ll2   2.2   0.04   lLlll   0.26   0.Q3   0.03 

Y     3.5    5.3   260      35     32    7.8    5.1   0.29    4.6    2.8   OA 1     46     0.2    0.81      14   0.56   0.09    0.23   0.11   0.06 

Zn    94     22    620      98    200    47    950     72    630    1200     32    140       2        2    910    26       2    320       2      2

Z,    0.6    0.6    0.6    0.6     1.1   1.2   0.61    0.6           1.2    0.6     0.6    0.6     0.6     3.1    0.6    0.6     1.1    0.6    0.6 





Underline      <LOD (Limit of detection)




                                                                    55 

                                                       Appendix C (Continued) 

                                                Metallic Composition of Wipe Samples 


                                                   Concentrations are in uglsq foot 



                                  These samples were collected during the second site visit 




     ...,
     ~
               -

               0   ,
                          ('1
                          0   ,
                                        M
                                        0   ,         0,        on
                                                                0   ,
                                                                                  \0
                                                                                  0   ,
                                                                                             t-­
                                                                                             0   ,
                                                                                                        00
                                                                                                        0   ,
                                                                                                                    0\
                                                                                                                    0   ,       -~
                                                                                                                                0
                                                                                                                                    ,      -

                                                                                                                                           -~
                                                                                                                                            ,

     -8
      Ol
      C.
               ~
               :;s
                          ~
                          :;s
                                        ~
                                        :;s
                                                      ~
                                                      :;s
                                                                ~
                                                                :;s
                                                                                  ~
                                                                                  :;s
                                                                                             ~
                                                                                             :;s
                                                                                                        ~
                                                                                                        :;s
                                                                                                                    ~
                                                                                                                    :;s         :;s        :;s
               u          u             u             u         u                 u          u          u           u           u          u
     "
     00
               ('1
               P-I
                          ('1
                          P-I
                                        ('1
                                        P-I
                                                      ('1
                                                      P-I
                                                                ('1
                                                                P-I
                                                                                  ('1
                                                                                  P-I
                                                                                             ('1
                                                                                             P-I
                                                                                                        ('1
                                                                                                        P-I
                                                                                                                    ('1
                                                                                                                    P-I
                                                                                                                                ('1
                                                                                                                                P-I
                                                                                                                                           ('1
                                                                                                                                           P-I

As           <9        13.0            <9            <9        <9                <9         <9        11.1        15.7        13.9        <9
Ba          <0.2        0.2         201.9          63.0      248.2               4.5       8.3        3.3        192.6       248.2       25.9
Be          <0.1        0.1           0.1           0.2        0.1              0.1        0.1        0.1        <0.1        <0.1        0.2
Cd          <0.9       <0.9          24.1          22.2       63.0              3.1        4.6         1.8      370.4        398.2      32.4
Cr           0.3        0.6           14.3         43.9       69.8               8.1       3.1        2.2        23.5         21.7       6.0
Co          <0.6       <0.6           9.1           4.6       11.1               1.8      <0.6       <0.6         2.0          1.1       2.7
Cu          <0.5       <0.5          82.4         1203.8     879.7              16.7       16.7       6.0        <0.5        21.3        10.2
Fe          <60         9.3         2778.0        4352.2    10093.4            537.1      398.2      92.6       453.7       2963.2      518.6
La          <0.5       <0.5          <0.5          <0.5      <0.5              <0.5       <0.5       <0.5         6.2        <0.5        0.9
Pb           <4         3.6          170.4        309.3      503.7              22.2      36.1        8.3       1198.2      1198.2      133.3
Mn           <2         7.1          73.2          148.2     583.4              18.5       12.0       4.7         13.0       28.7        16.7
Mo           <2         <2             <2           11.1      10.2               <2         <2         <2          <2          <2         <2
Ni           <3         <3           55.6          101.9     259.3              15.7       4.4        7.7         10.2        13.0       12.0
P           <200       <200          <200         259.3     1944.6             <200       213.0      185.2      250.0        416.7      379.7




                                                                        56 

Se    <10     <10      14.8    <10       <10         <10     <10    <10      <10       <10    <10
AI:   <0.2    0.2      3.0      6.5      10.2        0.8     0.4    <0.2    <0.2       0.3    0.5
Sr    <0.3   <0.3      19.4    19.4      51.9        1.9     4.5     0.3    128.7     212.1   14.8
Te     <4     <4        <4      <4        <4         <4       <4     <4       <4        <4     <4
TI    <20     <20      <20     <20       <20         <20     <20    <20      <20       <20    <20
Sn    <20     <20     157.4   379.7     407.4        <20     <20    <20      <20       18.5   <20
V     <0.2   <0.2      0.4      1.4       1.2        0.6     0.3    <0.2    <0.2      <0.2    0.2
y      0.3    0.5      5.7     12.0      41.7        2.3     4.1     1.2   1203.8    lll1.2   86.1
Zn    <100   287.1   2092.8   2926.2   10982.4      175.9   120.4   <100   5333.8   10982.4   83.3
Zr    <20     <20      <20     <20       <20         <20     <20    <20      <20       <20    <20




                                             57 

                                                           AppendixD
                                               Metallic Coml!osition of Filter Saml!ies
<LOD        Underline                                  Concentrations are in I1g/m3
                                     ~             N             co              N              co                            on                            t"­            oo
                                                                                                               "f-<                          '0
                      ~

      8               f-<
                      ~
                                     ~

                                     f-<
                                                   ~

                                                   f-<
                                                                 ~

                                                                 f-<             f-<
                                                                                 ~
                                                                                                f-<
                                                                                                ~              ~
                                                                                                                              f-<
                                                                                                                              ~
                                                                                                                                             f-<
                                                                                                                                             ~
                                                                                                                                                            f-<
                                                                                                                                                            ~              4:f-<
                                     ~             ~             ~
       "
      "a              f-<            f-<           f-<           f-<             f-<            f-<            f-<            f-<            f-<            f-<
      §               i§             ;;:           ;;:           ;;:             i§             i§             i§             i§             i§             i§             i§
      r/J             <.tl           u             u             U               <.tl           <.tl           <.tl           <.tl           <.tl           <.tl           <.tl
                                     <.tl          <.tl          <.tl
 Al           0.93           1.50           0.35          0.26           1.521.           71           14.59          3.67           1.234.           583.           51
 Sb           0.42           0.12           0.12          0.14           0.58           0.45           8.10           0.59           0.67           0.65           1.03
 As           0.59           0.17           0.16          0.20           0.82           0.63           11.35          0.83           0.94           0.92           1.44
 Ba           0.08           0.40           0.15          0.02           0.20           0.18           0.49           0.27           0.16           0.31           0.25
 Be           0.03           0.01           0.01          0.01           0.05           0.04           0.65           0.05           0.05           0.05           0.08
 Cd           0.59           0.18           0.05          0.02           0.08           0.06           1.13           0.08           0.09           0.09           0.14
 Ca           11.85          10.73          4.20          2.37           16.36          20.64          53.48          35.47          18.77          44.49          30.95
 Cr           0.08           0.02           0.02          0.03           0.11           0.08           1.46           0.11           0.12           0.12           0.19
 Co           0.05           0.01           0.01          0.02           0.07           0.05           0.97           0.07           0.08           0.08           0.12
 Cu           0.08           0.02           0.02          0.03           0.12           0.09           1.62           0.12           0.13           0.42           0.21
 Fe           4.49           4.74           1.59          1.36           6.78           7.90           11.35          15.37          8.18           15.70          16.71
 La           0.03           0.01           0.01          0.01           0.04           0.03           0.49           0.04           0.04           0.04           0.06
 Pb           0.42           2.75           1.00          0.14           0.610.           76           8.10           1.30           0.751.           831.           47
 Li           0.85           0.25           0.23          0.29           1.17           0.90           16.21          1.18           1.34           1.31           2.06
 Mg           0.69           0.72           0.21 O.        13            0.91           1.35           6.48           2.60           1.23           3.01           1.96
 Mn           0.20           0.12           0.04 O.        03            0.20           0.25           1.13           0.46           0.28           0.51           0.68
 Mo           0.25           0.07           0.07          0.09           0.35           0.27           4.86           0.35           0.40           0.39           0.62
 Ni           0.08           0.08           0.02          0.03           0.11           0.27           1.46           0.25           0.16 O.          270.           29
 P            2.54           0.75           0.70          0.87           3.51           2.69           48.62          3.55           4.02           3.93           6.19
 K            0.85           0.85 O.         30           0.29           1.17           0.99           16.21          1.77           1.34           2.62           2.06
 Se           1.69           0.50           0.47          0.58           2.34           2.15           32.41          2.36           2.68           2.62           4.13




                                                                        58 

  Ag         0.03        0.01       0.01      0.01      0.05      0.04      0.65        0.05      0.05      0.05      0.08
   Sr        0.03        0.14       0.06      0.010.      06      0.07      0.32        0.15      0.07      0.16      0.10
   Te        0.42        0.12       0.12      0.14      0.58      0.45      8.10        0.59      0.67      0.65      1.03
   Tl        0.68        0.20       0.19      0.23      0.94      0.72      12.97       0.95      1.07      1.05      1.65
   Sn        0.76        0.22       0.21      0.26      1.05      0.81      14.59       1.06      1.21      1.18      1.86
   Ti        0.08        0.08       0.03      0.01      0.14      0.13      0.16        0.24      0.11      0.25      0.25
   v         0.03        0.01       0.01      0.01      0.04      0.03      0.49        0.04      0.04      0.04      0.06
   y         0.06        5.74       1.61      0.01      0.14      0.11      0.32        0.52      0.12      0.18      0.78
  Zn         1.35        10.73      3.50      0.40      2.10      2.60      7.94        5.79      5.50      7.72      8.25
   Zr        0.34        0.10       0.09      0.12      0.47      0.36      6.48        0.47      0.54      0.52      0.83
SampleID   ECMWFf12    ECMWFf13   ECMWFTl4 ECMWFf2 ECMWFf3      ECMWFf4 ECMWFf5       ECMWFf6   ECMWFT7 ECMWFT8 ECMWFf9       EC
   Al        3.29        8.78       2.92      4.78      5.92     10.91      3.46        2.24      2.27 I.     410.      86
   Sb        0.61        0.59       0.66      0.49      0.57      0.65      0.42        0.41      0.42      0.41      0.43
  As         0.85        0.83       0.93      0.68      0.80      0.91      0.59        0.58      0.59      0.58      0.60
  Ba         0.24        0.50       0.25      1.66      1.37      4.29      0.31        0.21      0.19      0.16      0.09
  Be         0.05        0.05       0.05      0.04      0.05      0.05      0.03        0.03      0.03      0.03      0.03
  Cd         0.15        0.30       0.09      0.58      0.32      0.82      0.15 O.      09       0.060.      07      0.06
  Ca         26.81       54.58      31.87     22.46    46.66     54.57      32.91      17.38     18.48      18.26     10.36
   Cr        0.11        0.11       0.12      0.09      0.10      0.12      0.08        0.07      0.08      0.07      0.08
  Co         0.07        0.07       0.08      0.07      0.07      0.08      0.05        0.05      0.05      0.05      0.05
  Cu         0.28        0.94       0.13      0.10      0.11      0.16 O.     17        0.08      0.08      0.08      0.09
   Fe        13.40       55.77      13.28     9.76      18.21    31.18      15.19      11.59     13.44      7.80      6.22
   La        0.04        0.06       0.04      0.03      0.03      0.04      0.03        0.02      0.03      0.02      0.03
  Pb         1.12 2.       25       1.22      8.88      7.51     18.19      1.10 O.       79      0.50 O.     67      0.43
   Li        1.22        1.19       1.33      0.98      1.14      1.30      0.84        0.83      0.84      0.83      0.86
  Mg         1.46        4.51       1.73 I.     37      2.85      3.51      2.03        1.16      1.76      1.16 O.     48
  Mn         0.44        1.54       0.42      0.21      0.44      0.84      0.50        0.41      0.40      0.23      0.24
  Mo         0.37        0.36       0.40      0.29      0.34      0.39      0.25        0.25      0.25      0.25      0.26




                                                       59 

Ni            0.11             0.63             0.19                  0.11 O.             16             0.36 o.           22           0.07        0.08 O.          13      0.08
P             3.66             3.56             3.98                  2.93               3.41            3.90         2.53              2.48        2.52            2.49     2.59
K             1.583.             80             1.59                  2.54              2.73            4.81          1.941.             32         1.341.           24 O.    95
Se            2.44             2.37             2.66                  1.95               2.28            2.60         1.69              1.66        1.68            1.66     1.73
Ag            0.05             0.05             0.05                  0.04               0.05            0.05         0.03              0.03        0.03            0.03     0.03
Sr            0.11             0.26             0.12                  0.59               0.50            1.05         0.16              0.11        0.08 O.          070.     04
Te            0.61             0.59             0.66                  0.49               0.57            0.65         0.42              0.41        0.42            0.41     0.43
Tl            0.97             0.95             1.06                  0.78               0.91            1.04         0.68              0.66        0.67            0.66     0.69
Sn            1.10             1.90             1.20                  0.88               1.02            1.17         0.76              0.75        0.76            0.75     0.78
Ti            0.19             0.38             0.23                  0.18               0.31            0.42         0.24              0.15        0.15            0.14     0.09
v             0.04             0.04             0.04                  0.03               0.03            0.04         0.03              0.02        0.03            0.02     0.03
y             0.19             0.28             0.17                  47.84             13.66           66.26         0.17              0.12        0.13            0.12     0.08
Zn        10.97                18.98            4.91                  86.90             29.59           119.53        5.15              3.56        2.69            2.57     1.55
Zr            0.49             0.47             0.53                  0.39               0.46            0.52         0.34              0.33        0.34            0.33     0.35




                       ...
                       ~
                                £!                 ~




                                                                               ,...~
                                                              N
                                           £;
                                ~          ~       ,...~      ,...~
                       '"
                       ~        ~          ~       ~          ~                ~
Al     1.68          3.97     4.10       4.25    2.53       3.79             3.07       4.60     7.06     10.71     4.76         3.82    5.04    5.26      3.60 

Sb     0.10          0.36     0.37       0.39    0.27       0.27             0.27       0.53     0.52      0.50     0.53         0.35    0.35    0.36      0.36 

As     0.34          1.20     1.24       6.44    0.90       0.90             0.90       1.77     1.72       1.67    1.76         1.16    1.17    1.20      1.20 

Ba     0.15          0.29     0.32       0.89    0.26       0.36             0.21       0.34     0.59      0.95     0.51         0.45    0.25    0.45      0.35 

Be     0.01          0.02     0.02       0.03    0.02       0.02             0.02       0.04     0.03      0.03     0.07 O.       02     0.02    0.02      0.02 

Cd     0.01          0.11     0.06 O.     04     0.06       0.08             0.08       0.19     0.24      0.27     0.26         0.09    0.18    0.50      0.16 

Ca   318.17      32.49       29.85      29.60   18.07      30.71         21.68         24.75    46.48     85.37    26.43        27.76   26.94   38.27   22.80 





                                                                                       60 

Cr     0.10       0.94         0.62   o.      71 O.     39 O.     54 O.        45 O.       72 O.     90 O.     84 O.      95 O.      64 O.     660.     610.     47
Co     0.01       0.04         0.04         0.04       0.03      0.04         0.03       0.05 O.     05       0.05      0.14       0.03       0.04     0.04     0.04
Cu     0.17       0.52   o.     72 O.        68 O.      33 O.     670.         23 O.      581.       48       1.84      0.65 O.      60 O.     59      1.20     0.59
Fe     0.68      19.25        38.56        28.31      21.68     36.13        14.45      33.59      68.86     61.94     31.71      30.07      42.17    49.04    49.20
La     0.00       0.01         0.01         0.01       0.01      0.01         0.01       0.02       0.02      0.02      0.05       0.01       0.01     0.01     0.01
Pb     0.10       0.66         0.37         0.93       0.27      0.49   o.     41        0.53       0.71     12.55      0.53       0.50 O.     670.     870.     48
Li     0.34       1.20         1.24         1.29       0.90      0.90         0.90       1.77       1.72      1.67      1.76       1.16       1.17     1.20     1.20
Mg     1.68      2.292.         242.         451.       362.      62 1.        54        1.77       3.79      7.03      2.11 2.      662.      343.     352.     04
Mn     0.01       0.43 O.       510.         53 O.      34       0.61         0.32 O.     57        1.22      1.09      0.72       0.61       0.52     0.84     0.86
Mo     0.07       0.24         0.25         0.26       0.18      0.18         0.18       0.35       0.34      0.33      0.35       0.23       0.23     0.24     0.24
Ni     0.01       0.66         0.49         0.58       0.30      0.48         0.14       0.46       0.65      0.62      0.65       0.38       0.47     0.73     0.28
 P   171.06       3.25         2.49         2.57       1.81      3.07         1.81       3.54       3.44      4.18      3.52       2.432.      342.      75     2.40
K      0.19       3.13         2.86         2.70       1.81      4.52         2.08       3.18       4.99     12.22      3.70       3.24       2.69     4.66     2.76
Se     0.24       0.84         3.23         2.83       0.63      2.26         0.63       1.24       1.292.     681.       66       0.81       0.82     0.84     1.15
Ag     0.01       0.02         0.04         0.09       0.05      0.05         0.03 O.      07 O.     07       0.13      0.07       0.06       0.04     0.10     0.07
Sr     0.19       0.26         0.35         0.40       0.31      0.56         0.26       0.51       1.31      0.80      0.39       0.38       0.36     0.73     1.32
Te     0.17       0.60         0.62         0.64       0.45      0.45         0.45       0.88       0.86      0.84      0.88       0.58       0.59     0.60     0.60
Tl     0.24       0.84         0.87         0.90       0.63      0.63         0.63       1.24       1.21      1.17      1.23       0.81       0.82     0.84     0.84
Sn     0.34       1.20         1.24         1.29       0.90      0.90         0.90       1.77       1.72     21.76      1.76       1.16       1.17     1.20     1.20
Ti     0.03       0.24         0.30         0.49       0.25      0.42         0.22       0.41       0.93      0.75      0.41       0.37       0.41     0.55     0.83
v      0.01       0.04         0.04         0.04       0.03      0.03         0.03       0.05       0.05      0.05      0.07       0.03       0.04     0.04     0.04
y      0.00 O.      01         0.01         0.03       0.03      0.03         0.02       0.07       0.07      0.40      0.11       0.05       0.02     0.04     0.05
Zn     0.07      4.81          7.09        11.33       3.70      5.33         2.35       6.54       8.61     10.88     11.10       8.67       8.67    10.05     4.08
Zr     0.14       0.48         0.50         0.51       0.36      0.36         0.36       0.71       0.69      0.741.      76       0.46       0.47     0.48     0.48




                                                                                        61 

                                                                                AppendixD 

                                                                   Metallic Composition of Filter Samples 

                                                                        C oncen t ra f IOns are III !.121m
                                                                                                        / 3

       -'"                      N
                   ~                         ~

       ~
                                                           N
                                                                           '"         ,..:.             ,..:.       ,..:.       ,..:.       ,..:.      ~
                                                                                                                                                                  ~NO
                   0            0            0             0               0
                   ~            ~            ,..:.         ,..:.           ,..:.
       Q.          f-<
                   ;;:
                                f-<
                                ;;:
                                             f-<
                                             ;;:           f-<             f-<
                                                                           ;;:        ~o                dO
                                                                                                        ;SN
                                                                                                                   dO
                                                                                                                   ;S",
                                                                                                                               dO
                                                                                                                               ;S"
                                                                                                                                           dO
                                                                                                                                           ;Son        ;S~
                                                                                                                                                       ;;:0
       8           u            u            u             0               u          u
                                                                                      N                 N          N           N           N
                                                                                                                                                       u
                                                                                                                                                       N
                                                                                                                                                                  U
                                                                                                                                                                  N
       '"
       00          N
                   <.tl
                                N
                                <.tl
                                             N
                                             <.tl
                                                           N
                                                           <.tl
                                                                           N
                                                                           <.tl       <.tl              <.tl       <.tl        <.tl        <.tl        <.tl       <.tl
Date         12/11/07     12/11/07     12/11/07      12/11/07        12111/07      12112/07          12/12/07   12112107    12112/07    12112/07    12/12/07   12112107
 AI           <0.86        <0.84        <1.26         <1.18            <1.17        <1.42             <1.51      <1.39       <1.41        <1.44      <1.04      <1.02
Sb             <0.34       <0.34        <0.50         <0.47            <0.47        <0.57             <0.60      <0.56       <0.56        <0.58      <0.42      <0.41
As             <0.60       <0.59        <0.88         <0.83            <0.82        <0.99             <1.05      <0.97       <0.98        <1.01      <0.73      <0.71
Ba             0.15         0.22          1.02          1.66           0.08          0.08              0.99        1.03       0.04        0.82        0.05       0.11
Be             <0.02       <0.02        <0.03         <0.02            <0.02        <0.03             <0.03      <0.03       <0.03        <0.03      <0.02      <0.02
Cd            <0.03        <0.03         0.65          0.98           <0.05         <0.06             <0.06        0.64      <0.06         0.45      <0.04      <0.04
Ca             5.13         3.29         10.67         14.21           15.27         14.06             16.57      23.67       5.34        18.74       3.23       4.58
Cr             <0.17       <0.17         0.34         <0.24           <0.23         <0.28             <0.30      <0.28       <0.28        <0.29      <0.21      <0.20
Co            <0.04        <0.04        <0.06         <0.06            <0.06        <0.07             <0.08      <0.07       <0.07        <0.07      <0.05      <0.05
Cu             0.04         0.08         0.19          0.20            0.11          0.18              0.18       0.35        0.11        0.19       <0.03       0.05
Fe             <1.71       <1.68         6.53          11.84           4.93          10.79             18.07      16.71       2.95        6.92       <2.09      <2.04
La            <0.009       <0.008       <0.013        <0.012          <0.012        <0.014            <0.015     <0.014      <0.014      <0.014      <0.010     <0.010
Pb             0.31         0.29         3.26          8.17           <0.23         <0.28              0.31        0.31      <0.28        0.31       <0.21      <0.20
 Li           <0.009       <0.008       <0.013        <0.012          <0.012        <0.014            <0.015     <0.014      <0.014      <0.014      <0.010     <0.010
Mg             0.28         0.16         0.67           1.11           0.80          0.50              0.66        1.39       0.31        0.88       <0.10      <0.10
Mn            <0.04         0.05         0.09          0.40            0.11          0.12              0.18        0.24      <0.07        0.14       <0.05      <0.05
Mo            <0.26        <0.25        <0.38         <0.36            <0.35        <0.43             <0.45      <0.42       <0.42        <0.43      <0.31      <0.31
 Ni            0.02        <0.08         0.13          0.17            0.15          0.11              0.15       0.21       <0.14        <0.14      <0.10      <0.10
 P            <0.86        <0.84        <1.26         <1.18            <1.17        <1.42             <1.51      <1.39       <1.41        <1.44      <1.04      <1.02
 K             0.27         0.26          1.23         2.01            0.56         <0.43               1.01       2.09      <0.42         1.44      <0.31      <0.31
 Se           <2.57        <2.53        <3.77         <3.55            <3.52        <4.26             <4.52      <4.18       <4.22        <4.32      <3.13      <3.06
Ag            <0.009       <0.008       <0.013        <0.012          <0.012        <0.014            <0.015     <0.014      <0.014      <0.014      <0.010     <0.010
Sr             0.06         0.07         0.41          0.50            0.04          0.31              0.30        0.56       0.34        0.58        0.01       0.05
Te             <0.34       <0.34        <0.50         <0.47             0.05        <0.57             <0.60      <0.56        0.47         0.83      <0.42      <0.41
 TI           <0.43        <0.42        <0.63         <0.59            <0.59        <0.71             <0.75      <0.70       <0.70        <0.72      <0.52      <0.51




                                                                                              62 

Sn   <0.60          <0.59       <0.88        <0.83       <0.82         <0.99            1.08         <0.97         <0.98         <1.01       <0.73       <0.71
Ti    0.02          <0.01        0.05         0.08       0.07           0.18            0.11          0.18          0.18          0.12       <0.01       <0.01
V    <0.02          <0.02       <0.03        <0.02       <0.02         <0.03           <0.03         <0.03         <0.03         <0.03       <0.02       <0.02
Y     0.33           0.75       40.18        59.22       0.27          0.33            28.62         20.89         <0.03         25.94        0.16        0.35
Zn     1.0            1.8        63.9         65.0        1.4           2.0             39.0          38.8           0.8         43.1          0.4         1.1
Zr   <0.09          <0.08       <0.13        <0.12       <0.12         <0.14           <0.15         <0.14         <0.14         <0.14       <0.10       <0.10

                                                             Appendix D (Continued)
                                    ..,.                                                                                                                     ..,.
            -'"
                        co                       on          ~
            ~           0           0            0           0             ~               ~
                                                                                           0
                                                                                                         N
                                                                                                         0
                                                                                                                       co
                                                                                                                       0
                                                                                                                                     N
                                                                                                                                     0
                                                                                                                                                 co
                                                                                                                                                 0           0
                                                             ,..:.
                        ~           ~            ~                         ~
                                                                                           ,..:.         ,..:.         ,..:.
            ~                                                                                                                        ~           ~           ~
            8           i§          i§           i§          ~
                                                             u             i§              '"
                                                                                           ;;:
                                                                                           u             '"
                                                                                                         ;;:
                                                                                                         u             '"
                                                                                                                       ;;:
                                                                                                                       u             i§          i§          i§
            '"
            00          N
                        <ll
                                    N
                                    <ll
                                                 N
                                                 <ll
                                                             N
                                                             <ll
                                                                           N
                                                                           <ll
                                                                                           N
                                                                                           <ll
                                                                                                         N
                                                                                                         <ll
                                                                                                                       N
                                                                                                                       <ll
                                                                                                                                     N
                                                                                                                                     <ll
                                                                                                                                                 N
                                                                                                                                                 <ll
                                                                                                                                                             N
                                                                                                                                                             <ll
     Date         12112/07    12/12/07     12/12/07    12/12/07      12112107        12113/07      12/13/07      12113/07      12113/07    12113/07    12/13/07
      AI          <1.03       <1.01        <1.04       <1.36          <0.58           <0.78         2.98           5.80        <0.54        <1.09      <1.06
     Sb            <0.41      <0.40        <0.42       <0.54          <0.23           <0.31        <0.63         <0.59         <0.22        <0.44      <0.42
     As            <0.72      <0.70        <0.73       <0.95          <0.41           <0.54        <1.10         <1.04         <0.38        <0.77      <0.74
     Ba            0.04       <0.02        <0.02         0.35         <0.01            0.31         2.19           3.42         0.25         0.37       0.53
     Be            <0.02      <0.02        <0.02       <0.03          <0.01           <0.02        <0.02         <0.03         <0.01        <0.02      <0.02
     Cd           <0.04       <0.04        <0.04       <0.05          <0.02            0.37         7.83          12.93         0.08        <0.04       0.11
     Ca            3.40        2.71         3.13        62.45         0.64            4.51         25.07          38.63         3.81        4.81        6.22
     Cr            <0.21      <0.20        <0.21       <0.27          <0.12           <0.16         0.38           0.43        <0.11        <0.22      <0.21
     Co           <0.05       <0.05        <0.05       <0.07          <0.03           <0.04        <0.08         <0.07         <0.03        <0.05      <0.05
     Cu            0.10        0.43         0.20         1.29         0.06            0.06          0.33           0.48         0.13        0.11        0.19
     Fe            <2.06      <2.01        <2.09        10.05         <1.16            2.18         12.85         26.75          1.63       <2.19      <2.11
     La           <0.010      <0.010       <0.010      <0.014        <0.006          <0.008        <0.016         0.030        <0.005      <0.011      <0.011
     Pb            <0.21      <0.20        <0.21         0.31         <0.12            0.31         0.31           0.31         0.31         0.31       0.31
      Li          <0.010      <0.010       <0.010      <0.014        <0.006          <0.008        <0.016        <0.015        <0.005      <0.011      <0.011
     Mg           <0.10       <0.10        <0.10         1.63         <0.06            0.18          1.44          2.38         0.27         0.13       0.27
     Mn           <0.05        0.71         0.20         0.26        <0.03            <0.04         0.33           0.56         0.14        <0.05      <0.05
     Mo           <0.31       <0.30        <0.31       <0.41          <0.17           <0.23        <0.47         <0.45         <0.16        <0.33      <0.32
      Ni          <0.10       <0.10         0.06         0.15          0.01            0.12         0.08           0.31         0.02        <0.11       0.07
      P           <1.03       <1.00        <1.04       <1.36          <0.58           <0.78        <1.57         49.04          <0.54       <1.09       4.64




                                                                              63 

K    <0.31    <0.30    <0.31     1.00     <0.17            0.64    4.70     5.50     0.87      0.51    1.16
Se   <3.09    <3.01    <3.13    <4.07     <1.74           <2.33   <4.70    <4.46    <1.63     <3.28   <3.17
A2   <0.010   <0.010   <0.010   <0.014   <0.006          <0.008   <0.016   <0.015   <0.005   <0.011   <0.011
Sr    0.08    <0.01     1.25     0.90     0.70             0.16     1.02     1.63    1.03     0.12     0.24
Te    <0.41   <0.40     1.31    <0.54     <0.23           <0.31   <0.63    <0.59    <0.22     <0.44   <0.42
TI   <0.52    <0.50    <0.52    <0.68     <0.29           <0.39   <0.78    <0.74    <0.27     <0.55   <0.53
Sn    <0.72   <0.70    <0.73    <0.95     <0.41           <0.54   <1.10    <1.04    <0.38     <0.77   <0.74
Ti    0.05    <0.01     0.56     0.50     <0.01            0.03     0.15     0.28    0.50     <0.01    0.02
V    <0.02    <0.02    <0.02    <0.03     <0.01           <0.02   <0.03    <0.03    <0.01     <0.02   <0.02
Y     0.39    <0.02    <0.02     0.09     <0.01            7.70   104.96   178.31    2.34      1.86    3.27
Zn     1.0     0.1       0.4     4.1       0.0             17.8    234.8    386.2     6.5      5.4      9.0
Zr    <0.10   <0.10    <0.10    <0.14     <0.06           <0.08   <0.16    <0.15    <0.05     <0.11   <0.11




                                                  64 

Figure I   Diagram of the Unicor factory located within the FeI main compound
           (See Figure IV for more detail of Glass Breaking Operation)




                                                                     ,i
                                                                 _
                                                                     !
                                                                     0



                =0=                  ClLMI_N3~
                                     IIIE FIG IV FOII.DEI"AIL
                                                                B

                 =0= 0~ --
                AWWNIJW..""",. ...




                        ­              m
                                                                     ~
                                                      --­ -     z~
                                                                ~~
                                                                     0


                                                                ~~


                           I
                                                                wz
                                                                -~

                                                                ~~
                           i                          -­-­-          ~




                                                65 

Figure n   Oiagram of die UnicOI" facility in die Fedtnl SaieUire Low (FSL)




                 I

                 I                       I

                                         Id
                                         I II

                                         I •
                                         I

                                         I




                .../       \
                           \
                                   ...   ~:
                               I         I

                               L._J 

                                         I
                           f
                 "
                 H
                                 ..
                                  : I 

                                         I       I



                               I                 , ~~

                  FSL ELKTDN
       -- ~
       ---.­           





                                               "

Figure III         Diat;ram ofdle warehouse handling electronics recycling operatioos




                                  _.-
                                 ...., """"...             :
                                                                -,
                  --1
                    -

                    -
                   ,.,", I
                   '" I
                                                           ,

                                                                                            .,"•

                  __ J                                     I
                                                           I
                                                                 _.

                                                                m _


                   ------
                                                 ____ L_ 1----­                             --
                                                                "'.,,"'" ""THO




                         ,i" 
                            --                                -

                                                                                            ,~




                         ;                                 '"
                         "

                                                                                          -"

                  --- I-I'
                                            I,
                                            I,       t

                                                      I
                                                                     G,                  ~ 

                                                    n           n
                                   Fer ELKTDN 

                                    wAREHOUSE 

         --              ~
        ..".... ""'" ' UN
         ----~
        OIITIIX'" ""'"   ,"-'W
         ----------                                                              r«l T   D~AI(N   TO X ALE
        c/,'o,'"o<:o .. """




                                                    67 

Figure IV   Diagram of the glass breaking area within the Fe!




                                    ~-

                                ~                               D

                                POCI<ETfIL1B'I_~                    ~-
                                  ~~-

                                                                    ~\

                      ~
                      ~
                                      ~~
                                      ~
                                                        .­
                                                        ~
                                                                     "


                           I~~I                     1::1
                           .~'"
                                         c
                                                '7              ~
                          ~ """"'e OOHTAJNM'''"
                                                                ~~,

                                                                                    ~-~

                                                            ~CHANGING
                               ~,                                                   .a.YlNB



                             " " " " ' " ROOM
                                                            '    """.
                                                                  ,            ,
                                                                             •,,
                                  A
                                                                     B         ,
                              I I ,I I                     "'-~"              •"
                                                    A   o • AREAS Of" Ttl!:: ROOM
                                                   .- u - CURTAINS


                      Fel ELKTON
                 GLASS BREAKING ROOM
                     FLOOR PLAN ""                                           ~,

                                                                NOT DRAWN TO SCH..E




                                             68 

Figure V Elkton Warehou.e Showing Storage Area. with Boxe, ofItem, to be
                              Recycled




    Figure VI   Overview of Elkton Recycling Factory D"a..embly Area




                                   69 

Figure VII     Electron Goo Removal in Glass Breaking Operatioo




 Figure VllI     Filter Change Operatioo in Glass Breaking Area 

               Showing Large AmOoot of Visible Dust 





                                70 

                  Figure IX - Five cut particle size distribution from impactor data
3.0000




2.5000
                                                                                                      I
2.0000                                                                            . 2.5 um     - -
                                                                                  . 1. 0 um
                                                                                    0 .50 um
                                                                                  . 0.25 um
1.5000                                                                            • Filte r    - -



1. 0000
                                                                                                      I
0.5000




0.0000
           ....         .­   IL
                                          [                   [!   11        It    ..
                                                   Sample I D



                 Figure X - Three cut particle size distribution from impactor data
0.1200




0.1000                                                             r                                  I
0.0800
                                                                                                      I
                                                                                      . 1.0 um
                                                                                      . 0.50 um
0 .0600                                                                                 0.25 um   -




0 .0 400
                                                                                                      I

0.0200                            -           ~



                                                                       .-­

0.0000
            r
           e-­
                    I                 I       I   rl . . !I ,
                                                          1             I         ~LJJ
                                                   Sample I D




                                                       71 

ATTACHMENT 2 

       DEPARTMENT OFHEALTII & HUMAN SERVICES         Program Support Center
                                                     u.s. Public Health Service
                                                     Federal Occupational Health Service




                  --Summary-­
         Findings and Recommendations 

                  Pertaining to 

   Air/Wipe/BulklTCLP Sampling Data from 

   Electronics Recycling Facilities, FCl Elkton 

         (Lead and Cadmium Data Only) 


                         November 15,2007
                             (Rev. April 2010)




Submitted to: 	   Mr. S. Randall Hunnn
                  Investigative Counsel
                  Oversigbt and Review Division
                  Office ofthe Inspector General
                  U.S. Department of Justice



Submitted by: 	   Captain Paul Pryor, CIH
                  Team Leader
                  FOH & NIOSH Safety and Health Investigation Team
I. BACKGROUND

An investigative team comprised of safety and health professionals from the Federal
Occupational Health Service (FOH) and the National Institute for Occupational Safety and
Health (NIOSH) has completed initial characterizations of airborne exposures and facilities
contamination stemming from various electronics recycling operations conducted at Federal
Correctional Institution (FCI) Elkton. Characterizations were performed in early 2007 and
involved the collection and analysis of air, wipe, bulk dusts and waste samples from the FCI
Elkton's Recycling Factory, Warehouse, and Federal Satellite Low (FSL). Samples were
collected from locations where various electronics recycling operations were currently taking
place or had taken place in the past. The overall purpose of the characterizations was to evaluate
whether inmates or staff had been or currently are at risk from elevated exposures to toxic
substances.

Information provided in this Summary is based on the analytical data compiled in the
spreadsheets entitled: "Elkton Wipe/BulklTCLP Data Table-Lead and Cadmium Only (Samples
Collected 2/27-28/07)" and "Elkton Filter Data" (Appendices I & 2).1 Also, the guidelines
referenced by the FOH and NIOSH Investigative Team to evaluate the risk posed by the various
levels of contamination found on building surfaces are found at the end of Appendix 1.

II. FINDINGS

A. 	 UNICOR Recycling Factory

    1. 	 The results of bulk and wipe samples taken from various surfaces in the Recycling
         Factory reflect that significant particulate lead and cadmium contamination currently
         exists inside the Factory's ventilation system near 20' high ceilings as well as on various
         elevated and non-elevated building surfaces (steel structural supports, on top oflight
         fixtures, on upper surfaces of ceiling-mounted ducts, etc.).
    2. 	 It is likely that this contamination originally emanated from the cathode ray tube (CRT)
         glass breaking operations which were reported to have occurred for some period oftime
         in one or more unenclosed locations on the factory floor.
    3. 	 The lead and cadmium contamination appears to be present on various elevated building
         surfaces located throughout the factory floor, even at distances well away from the
         current and former glass breaking areas. Contamination was found to be present at levels
         significantly exceeding quantitative surface contamination guidelines established for
         lead.
    4. 	 The ability ofthe dust to accumulate on surfaces near the ceiling is consistent with the
         hypotheses that significant airborne dust containing lead and cadmium was released into
         the general factory environment.
              a. 	 This supports the conclusion that dust particles were not effectively captured by
                   local filters or effectively addressed via other engineering controls. Hence,
                   especially in the absence of a stringently applied respiratory protection program

         1 Personal and area air samples, as well as wipe, bulk dusts, and waste samples were analyzed for additional
metals besides lead and cadmium. Since the data review for these other metals has not yet been completed, it is
beyond the scope of this report to address these findings.


                                                             2

                 and other exposure reduction controls, personal exposures of workers to lead and
                 cadmium were likely to have occurred especially at elevations lower than where
                 many of the surface samples were collected. That is, it is reasonable to assume
                 that greater concentrations of contaminated dusts would have been present in the
                 air and on surfaces nearer the floor ( closer to the glass breaking operations) than
                 20' overhead. Also, it is likely that particles would tend to settle on the floor and
                 lower surfaces and then become re-entrained in the air during dry sweeping,
                 walking, etc.
            b. 	 Particle sizes would be expected to be small to allow them to accumulate at -20'
                 elevations and it is likely that a significant fraction ofthe lead and cadmium-laden
                 dusts would have the increased toxicity associated with particles in the 'respirable
                 size' range.
5. 	   As would be expected, surface contamination inside the current area where CRT glass
       breaking occurs was found to be high. Engineering controls (air filtration, enclosures,
       etc.) and personal protective equipment (respirators, coveralls, etc.) are currently used to
       mitigate contamination release and exposure concerns. Wipe sample results indicate that
       lead and cadmium-laden dusts are distributed throughout the glass breaking area,
       although some surfaces appear to be effectively decontaminated during periodic (daily
       and weekly) housekeeping operations.
6. 	   Outside the enclosed glass breaking room, wipe samples taken from work benches, in the
       change room, and other 'non-control' areas associated with the current glass breaking
       operation generally reflect that these working surfaces become contaminated to some
       extent over the course of normal work activities. These data suggest that some
       contamination migration outside the enclosed 'control' area (i.e., where respirators and
       other personal protection equipment are used) does occur, although the routine cleaning
       ofthese surfaces appears to keep these contamination levels in check.
7. 	   Bulk samples of settled dust collected from various locations outside the current glass
       breaking room (e.g., from ductwork by the ceiling, from ballast on the roof beneath a
       rooftop air handler, etc.) were found to contain significant lead and cadmium
       concentrations. Testing performed on a limited number of samples showed that this
       accumulated dust contained extractible lead at levels which suggest that any clean-up of
       accumulated dusts from the factory may require these sediments to be treated as
       hazardous waste.
8. 	   It is unknown to what extent the recent (i.e., February 2007) inadvertent release of dusts
       from the ventilation ducts (reportedly due to a wiring error made during maintenance of
       an air handler) has contributed to the surface contamination found, but it is likely from
       the filter/bulk/wipe samples that at least some lead and cadmium-containing dusts remain
       inion the ducts and that these dusts may require any ducts that are discarded to be treated
       as hazardous waste.
9. 	   Testing via the EPA RCRA Toxic Characteristic Leaching Procedure (TCLP) showed
       that mop wash water from floor cleaning operations performed inside the current CRT
       glass breaking operations does not need to be handled as hazardous waste with respect to
       lead and cadmium. Further testing of this waste water may be necessary to determine if it
       can be discharged to the drain(s) inside the recycling factory.
10.    TCLP testing of samples collected from gaylord boxes labeled "Broken Funnel Glass"
       and "Mixed Waste" showed that these waste streams would be considered "hazardous



                                                  3

       waste" per the EPA RCRA TCLP criteria for lead if the waste was not recycled or
       otherwise did not meet new (effective Jan 29, 2007) requirements pertinent to "used and
       broken CRTs." Samples identified as "Broken Glass from Panel Box" and "Dust from
       Gaylord box labeled monochrome waste" reflect that these wastes would not be
       considered hazardous waste.
   11. Results of air sampling in all but the glass breaking area ofthe Recycling Factory
       indicated that during the two days of operations when tests were conducted, exposures to
       lead and cadmium were well within recommended levels (generally 10 to 100 times
       below the permissible limits).
   12. Measurements of airborne lead and cadmium during two days of glass breaking
       operations showed that exposures were less than half of the permissible levels. This
       reflects that the local exhaust ventilation in the back ofthe glass breaking booth is
       successfully keeping exposures low. For additional protection, it should be noted that
       workers in this area also wear respirators, gloves and coveralls.
   13. Air monitoring performed in the glass breaking area during the filter change-out
       operations, however, showed concentrations that exceeded the OSHA Permissible
       Exposure Limit (PEL) by a factor of over 450 times for cadmium and over 50 times the
       PEL for lead. This operation was characterized by excessive visible dust caused by
       activities such as removing dust-laden filters and banging them together to knock the
       particulates off.

B. 	 Warehouse

   1. 	 The results ofthe bulk and wipe sampling performed in the Warehouse show that
        particulate lead and cadmium contamination currently exists on the various surfaces
        tested (on elevated horizontal surfaces of light fixtures, pipes, etc.). Significant deposits
        of visible black dust were observed on all these surfaces. Based on the limited sampling
        regimen, it appears that the contamination is focused primarily on surfaces in proximity
        to an area currently designated as the "Warehouse Sorting Area." This open area
        reportedly had been where some CRT glass breaking originally occurred in 1998.
   2. 	 Surface contamination appears to be much less in Warehouse areas that are located away
        from the 'Sorting Area' (i.e., the former glass breaking area) and, overall, much less
        concentrated as compared to that found on surfaces in the Recycling Factory. These
        results are consistent with the premise that the contamination originally emanated from
        the reported CRT glass breaking operations but that the operation was smaller in scope
        and/or duration (or had better engineering controls) than that which took place in the
        Recycling Factory.
   3. 	 The presence ofthe surface contamination in the Warehouse suggests that some degree of
        personal lead/cadmium exposure occurred in the past through inhalation and/or ingestion
        and may still be occurring today to a much lesser degree (i.e., through workers
        breathing/ingestion ofre-entrained dust, touching dust-contaminated surfaces, etc.).
   4. 	 Three personal air samples and one area air sample were collected in the Elkton
        Warehouse during one day of electronics recycling operations in this facility. Only one
        lead sample was above the limit of detection for the analytical method, that one being
        approximately 1% ofthe permissible limit for lead. Cadmium was measured in all four
        samples, but never in concentrations above 10% of the limit.



                                                 4

C. FSL 

  1. 	 The results ofthe bulk and wipe sampling performed at the FSL show that particulate
       lead contamination currently exists on the various surfaces tested. Some cadmium
       contamination was also present on the surfaces tested, but to a much lesser extent.
  2. 	 Surfaces located in or near where the former chip recovery/de-soldering area was
       previously located showed the presence of extremely high concentrations of lead while
       other surfaces such as those within walled offices and on the opposite end of the building
       were low.
  3. 	 Inner surfaces oflocal exhaust ventilation ducts and dampers (either currently in-place or
       removed and discarded) showed extremely high concentrations. This reflects that this
       ventilation system once removed FSL air containing significant quantities oflead
       produced by the de-soldering operations. The data also suggests that, should these de­
       soldering operations have been conducted without the benefit (i.e., prior to) the
       installation ofthe local exhaust system, significant airborne concentrations, and personal
       exposures, would have resulted.
  4. 	 Surfaces on in-place exhaust dampers ofthe FSL's exterior wall by where the former
       chip recovery/de-soldering operations were located had high concentrations oflead. This
       indicates that airborne lead contamination was exhausted into the outdoor environment.
  5. 	 Surfaces on floors, work tables, and routinely used machines showed the presence of
       some contamination. Therefore, these surfaces (with which current workers routinely
       come into contact) have potential to contribute to lead exposure (e.g., via hand-to-mouth,
       ingestion). However, concentrations on these surfaces were found to be generally low
       suggesting that existing cleaning and end-of-shift housekeeping are currently successful
       in keeping levels in check.
  6. 	 Two days of air sampling during electronics recycling operations at the FSL showed no
       airborne lead or cadmium concentrations exceeding permissible limits. More
       specifically, no airborne lead levels were measured above 2% ofthe most stringent
       criteria (excluding one sample with which tampering was suspected). No cadmium
       measurements were found above 10% ofthe adopted criteria for that metal.

III. RECOMMENDATIONS

  1. 	 Air monitoring in the general factory work areas of each ofthe three buildings indicates
       that the presence of surface contamination containing lead and cadmium is not posing an
       imminent inhalation threat that requires immediate evacuation and remediation but rather
       one that can be responded to in a prompt but well-coordinated manner. Assuming that
       the industrial hygiene assessment and the ongoing monitoring of conditions (see
       Recommendation #8, below) are favorable and do not show that degradation or other
       factors are resulting in increased exposure potential, some flexibility in scheduling the
       clean-up activities is deemed acceptable. However, it is recommended that cleanup
       activities should be completed in accordance with approved project specifications within
       three years. As such, abatement activities may be coordinated with and integrated into
       other building upgrade plans (e.g., ventilation retrofits, rooftop filter cleaning and/or
       replacement, expansion operations, etc.).




                                               5

2. 	 While air samples taken on the general factory floor in the Recycling Factory,
     Warehouse, and FSL did not show airborne exposures of concern during typical, day-to­
     day operations, the data from the 'filter change-out' operation showed that airborne
     exposures can exceed by a factor of over 450 times the concentration adopted by OSHA
     as the Permissible Exposure Limit (PEL) for cadmium and over 50 times the PEL for
     lead. Even though the workers performing this operation wore respiratory protection
     (i.e., powered air purifying respirators-PAPRs), these excessive exposures well exceed
     the Protection Factor afforded by this type of respirator. Hence, this operation should be
     immediately discontinued until improved dust suppression and engineering controls can
     be identified, instituted, and confirmed as effective. Note: It should be noted that OSHA
     regulations mandate a number of specific requirements for whenever exposures to lead
     and/or cadmium exceed their respective action levels or PELs. Requirements may
     include provisions for instituting medical surveillance, enhanced engineering controls, air
     monitoring, special worker notifications, showers, laundering of contaminated work
     clothes, etc. Since it is apparent that action levels and PELs can be exceeded during the
     filter change-out operation, it is recommended that a comprehensive regulatory
     assessment be performed with respect to OSHA regulations found at 29 CFR 1910.1025
     (Lead) and 29 CFR 1910.1027 (Cadmium).
3. 	 Based on the elevated air monitoring results obtained during the filter change-out
     operations, it is strongly recommended that Elkton's Respiratory Protection Program be
     re-evaluated for this operation in order to comply with OSHA regulation 1910.134.
     Specifically, the use ofPAPRs must comply with 1910.134 (d) (3) (i) (A) concerning
     Assigned Protection Factors as they relate to the exposure conditions found during this
     operation.
4. 	 An operations and maintenance (O&M) plan should be immediately developed and
     implemented in order to protect staff, inmates, contractors, and the environment from
     lead and cadmium residues found on various surfaces throughout the Recycling Factory,
     Warehouse and FSL. The O&M plan should identify policies and procedures for
     minimizing personal exposures and the spread of contamination during any activities
     which might result in the disturbance of or contact with contaminated building surfaces
     and components. Given the very high concentrations oflead and cadmium found in
     many dust deposits, special emphasis should be on preventing re-entrainment and release
     to the workplace air or exposure via ingestion. Elements ofthe O&M plan should
     include:
          • 	 Specific identification of activities and operations which may disturb the
              contamination (e.g., duct maintenance, work involving contact with structural
              supports, etc.);
          • 	 Pre-job identification, delineation and assessment of areas/surfaces of concern;
          • 	 When and how to use exposure mitigating techniques (e.g., techniques for dust
              suppression, local capture ventilation, etc.) and personal protection equipment
              (e.g., coveralls, respirators, gloves) during any activities/operations of concern;
          • 	 Training and hazard communication;
          • 	 Emergency scenario contingencies (e.g., should inadvertent release/exposures
              occur);
          • 	 Disposal of dust-contaminated materials/wastes (possibly classified as hazardous
              waste); and


                                              6

            • 	 Ongoing monitoring and evaluation of conditions (via air, skin, surface sampling);
5. 	   It is recommended that the FOH and NIOSH Investigative Team participate in the review
       ofthe O&M plans and abatement specifications, the ongoing monitoring and evaluation
       of conditions, and the oversight of any abatement actions.
6. 	   It is recommended that comprehensive plans be developed and implemented to remediate
       the contamination (inside ducts, on surfaces, etc.) in accordance with sound hazardous
       material abatement specifications (such as, for example, adaptations of specifications
       currently used to remove lead paint from residences). These plans should address
       considerations such as the containment ofthe remediation areas, method of remediation
       (removal, isolation/enclosure, encapsulation, etc.), worker protection, clearance levels to
       be achieved, disposal of hazardous wastes, etc.
7. 	   Especially in the Warehouse and FSL where some areas/surfaces were found to exist with
       little/no contamination, it may be prudent to more precisely delineate which building
       locations and components warrant clean-up and which do not.
8. 	   Given the very high concentrations of lead and cadmium in some dust samples (one
       sample from the FSL was as high as16% lead), periodic industrial hygiene evaluations
       and facility inspections are recommended to confirm that conditions remain acceptable
       until corrective actions are completed. Such evaluations (air sampling, hand wipe
       sampling, assessments of dust disturbance potential, etc.) should be performed to better
       characterize current exposures during various routine and non-routine operations and
       activities.
9. 	   Regarding the ongoing CRT glass breaking operations, although air monitoring did not
       show that workers were exposed at levels exceeding OSHA action levels or PELs, it was
       apparent that dust migrated from the control area to adjacent general work areas.
       Therefore, improvements in contamination containment (e.g., install a state-of-the-art
       three stage decontamination room(s) adjacent to the GBO) should be implemented in
       order to reduce the presence oflead and cadmium on surfaces outside the control area
       (i.e., work benches, changing room, etc.). Also, OSHA regulations (29 CFR 1910.1025
       and 29 CFR 1910.1027) may call for additional, periodic full shift exposure monitoring
       to document negative exposures (i.e., below action levels) during this operation.
10.    Based on the testing performed, bulk quantities of settled dusts originating from the glass
       breaking and de-soldering operations should be treated as hazardous waste, uuless
       additional testing permits otherwise.
11.    It is recommended that additional characterization be performed of possible
       environmental impacts from the release to the FSL building exterior oflead exhaust air
       from the de-soldering operation.




                                                7

APPENDIX 1 

                                     Appendix 1
Reference Criteria for Lead and Cadmium Utilized by FOHINIOSH to Evaluate Wipe and
                              Bulk Samples at FCI Elkton

In general, exposure standards for lead and cadmium have been established by various agencies
and organizations (e.g., OSHA, NIOSH, ACGIH, EPA, etc.) to assess particular risks in the
workplace, home, or environment. However, criteria specifically dealing with lead and cadmium
surface contamination of interior building surfaces and work areas are less evident. To address
this issue, FOH and NIOSH performed a literature search and reviewed a number of pertinent
regulations and published articles in order to identify reference criteria and guidelines for use in
determining whether the lead and cadmium contamination found on surfaces at FCI Elkton
presents an occupational hazard warranting remedial action. The results of this research are
presented below.

Lead

Federal standards have not been adopted that identify a specific limit for lead contamination of
surfaces in the industrial workplace. In residences and federally owned or assisted housing, the
U.S. Department of Housing and Urban Development (HUD) has established clearance levels for
lead on surfaces after lead abatement or interim control activities and they include: floors, 40
/lglft2; interior window sills, 250 /lg/ft2, and window wells, 800/lglft2 (Ref: http://www.
cdc.gov/ niosh/2001-113.html). Although these criteria are not strictly applicable to industrial
settings where children are not living, a review of these standards and related interpretations and
guidance provided by the federal goverrnnent, as well as articles published in peer-reviewed
technical safety and health journals, provide a basis for the FOH/NIOSH investigative team to
assess the risks associated with lead contamination on various building material surfaces at FCI
Elkton and to recommend decontamination activities as warranted. A summary of information
pertinent to lead on surfaces at FCI Elkton (i.e., in the non-residential environment) is provided
below:

OSHA - In a letter dated January 13. 2003, OSHA ' s Directorate of Compliance Programs
indicated that the requirements of OSHA' s standard for lead in the construction workplace (i.e.,
29 CFR 1926.62) can be summarized and/or interpreted as follows: a) All surfaces shall be
maintained as 'free as practicable' of accumulations oflead, b) The employer shall provide clean
change areas for employees whose airborne exposure to lead is above the permissible exposure
limit, c) The employer shall assure that lunchroom facilities or eating areas are as free as
practicable from lead contamination, d) The OSHA Compliance Directive for the Interim
Standard for Lead in Construction, CPL 2-2.58 recommends the use ofHUD's initially proposed
                                     2
decontamination criteria of200 uglft for floors in evaluating the cleanliness of change areas,
storage facilities, and lunchrooms/eating areas, e) In situations where employees are in direct
contact with lead-contaminated surfaces, such as, working surfaces or floors in change rooms,
storage facilities, lunchroom and eating facilities, OSHA has stated that the Agency would not
                                                      2
expect surfaces to be any cleaner than the 200 ug/ft level, and f) For other surfaces, OSHA has
indicated that no specific level can be set to define how "clean is clean" nor what level oflead
contamination meets the definition of "practicable." Specifically addressing contaminated
surfaces on rafters, OSHA has indicated that they must be cleaned (or alternative methods used
such as sealing the lead in place), as necessary to mitigate lead exposures. OSHA has indicated
that the intent of this provision is to ensure that employers regularly clean and conduct
housekeeping activities to prevent avoidable lead exposure, such as would potentially be caused
by re-entrained lead dust. Overall, the intent of the "as-free-as-practicable" requirement is to
                                                 3

ensure that accumulations oflead dust do not become sources of employee lead exposures.
OSHA has stated that any method that achieves this end is acceptable (Ref:
http://www.osha.gov/pls/ oshaweb/ owadisp.show_ document?p_table~ INTERPRETA TIONS..&£
id~25617).


Proposed Lead Surface Concentration Clearance Standard (Peer-reviewed technical
article) - John H. Lange proposed a clearance level of 1000 ug/ft2 for floors of non-lead free
buildings and 1100 ug/ft2 for lead-free buildings. Lange's proposed clearance levels are based
on calculations that make a number of intentionally conservative assumptions such as: a) Lead
uptake following ingestion is 35% absorption oflead in the gastrointestinal system, b) Fingers
have a total "touch" area of 10 cm2 and 100% ofthe entire presumed lead content on all 10
fingers is taken up, c) The average 'normal' environmental lead dose (from 'uncontaminated
food/water/air) is 20ug per day, d) The weight ofthe exposed person is 70 kg, and e) Daily lead
excretion is limited to an average of 48 ug. (Ref: Lange, John H., A Suggested Lead Surface
Concentration Standard for Final Clearance of Floors in Commercial and Industrial
Buildings by Indoor Built Environment 2001;10:48-51).

Note: While buildings at FCI Elkton are reported to be free oflead paint, the buildings can not
be said to be lead free due to the electronics recycling operations that are currently taking place
(or have taken place in the past). In addition, FOH testing results have confirmed the presence of
varying quantities oflead dust in many areas.

EPA - There are no Federal standards limiting soil lead contamination in the workplace.
However, the EPA has proposed standards for residential soil-lead levels, expressed as the
average total lead by weight in drip-line and mid-yard composite soil samples: 400 ppm as a
level of concern that should trigger appropriate risk reduction activities and2: 2000 ppm as a
trigger for permanent abatement of soil lead hazards. Also, EPA regulations require wastes with
extractible lead concentrations at 0.05 mg/l or greater (as determined via TCLP analysis) be
disposed of as hazardous waste under RCRA standards. As noted above, FOH's testing shows
that these limits are exceeded by bulk dust samples collected from various locations at FCI
Elkton. (Ref: http://www.cdc.gov/niosh/2001-113.html)

FOH - In addition, for relatively inaccessible or seldom accessed surfaces (e.g., surfaces of
ceiling rafters, top surfaces of elevated ducts, etc.) at FCI Elkton, and in the absence of other
established criteria, FOH proposes on an interim basis 4000 ug/ft2 as a clearance guideline. This
value was derived from HUD ' s 40 ug/ft2 criterion as discussed above multiplied by a factor of
100 to account for factors such as inaccessibility, no children, etc.

Note: This proposed value is based on the assumption that an effective Operations and
Maintenance Plan would be instituted such that any personnel coming into contact with these
inaccessible/limited access surfaces are trained in exposure mitigation techniques (e.g., dust
suppression techniques, controlled work area, decontamination procedures, etc.) and equipped
with appropriate personal protection.

 NIOSH - NIOSH has completed over 30 Health Hazard Evaluations (HHEs) from 1996 to 2006
which document hazard assessments of non-residential buildings with lead-contamination in air,
dust and/or soil. For each, NIOSH provided a Toxicity Determination of "Positive" or
"Negative" based on the conditions characterized. In general, where possible, data from multiple
sources (air samples, dust wipes, blood lead levels, soil contamination, etc.) and salient
conditions (nature of at-risk population, duration of exposures, etc.) were all factored into the
Toxicity Determination. As such, it is the FOHINIOSH Investigative Team' s position that
                                                  4
characterization of multiple media (air, surface, soil, blood) is desirable and necessary to arrive
at the most defensible conclusions and recommendations dealing with whether lead
contamination presents a risk and needs to be abated. (Ref: http://www.cdc.gov
/niosh/updates/leadhaz.html then http://www.cdc.gov/niosh!2001-113.html#manufacturing;
http://www.cdc.gov/niosh/hhe/reports/pdfs/1993-0S02-2S03.pdf.)

Note: The referenced articles should be consulted for additional assumptions, calculations and
rationale.

Cadmium

Like lead, cadmium poses serious health risks from exposure. Cadmium is a known carcinogen,
is very toxic to the kidneys, and can also cause mental depression. However, studies to date
have not identified recommended criteria for use in evaluating wipe and bulk samples. Thus,
while FOH and NIOSH do not reference such criteria, it is noteworthy that many ofthe cadmium
samples collected at Elkton showed concentrations that significantly exceeded the threshold
criteria identified for lead. FOH and NIOSH intend to refine their assessment of cadmium
exposure criteria as the review proceeds.




                                                 5

                                                  Appendix 1 

                                      Elkton FCI Wipe/Bulk/TCLP Data Table 


                Date    Sample
                  &      Type                                                                                                             Lead                         Cadmium
                Who     W=Wipe   Building                                          Elevation                                   ug/ft2     mg/kg     mgtl     uglft2     mg/kg     mgtl
R~   Sample # Collected B=Bulk     Name                Suriacelltem                  (foot)            Description                                (extrac)                       extrac)
               212712007                        Top of Fluorescent light          -20 (-2' from
1      1-ELK     [FOH]      W    Warehouse               Fixture                     ceiling)     Black dust quite evident       3,120                        3,120
               212712007                                                           -17' (-5'
2     2-ELK      [FOH]      w    Warehouse       Top of Cold Water Pipe           from ceiling)   Black dust qUite evident       4,220                        4,180
               212712007                                                                          Top surface of duct by
3      3-ELK     [FOH]      w    Warehouse            Top of Relurn Duct              - 20'               ceiling                3,450                        3,74 0
                                                                                                    Ledge with copious
               212712007                                                                                amounts of
4      4-ELK     [FOH]      B    WarehoLE!I Ledge above middle bay door               -fry             dust/particles                       410                           580
               212712007
5      S-ELK     rFOH       W    Warehouse                  Blank                                 Wipe in centrifuge tooe         <10                          <1
               212712007
6      5-ELK     [FOH]      w    Warehouse    Floor   at base of sleei colulTll         0                                         220                          13



               212712007                                                                             From Gomer under
7      7-ELK     [FOH]      w    Warehouse                  Floor                       0                 stairs                  377                          106
               212712007                       On 3" steel ledge lJIlder top
8      B-ELK     [FOH]      B    Warehouse              of stairs                     8.5'                                                  300                           380
               212712007
                 [FOH]      w                 Stair rise (underside) by wall
9      8-ELK                     Warehouse
                                                                                        "                                         440                          80

               212712007                                                                          From angle iron support
10    10-ELK     [FOH]      W       FSL       Beam support at GOlumn top              -2"         running; ­ 4' from Geiling     2,200                         73
               212712007                                                                           B Ll k debris/dust from
11    11-ELK     CO~        B       FSL        Ledge of Ginder bloGk wall             -17                Gomer ledge                        910                           98
                                                                                                    NotGh formed by the
               212712007                                                                              abutting poured
12    12-ELK     [FOH]      W       FSL                  Wall notGh                   -5'            GonGrete sections            720                           5
               212712007
13    13-ELK     [FOH       W       FSL         Floor at base of Golu llYl 1            0                                         14                            1
                                                                                                  Ledge midway between
                                                                                                     GOI. 1 and GOI. A
               212712007                                                                             between poured
14    14-ELK     [FOH       W       FSL                      Wall                      15'          GonGrete sections             309                           3
               212712007                                                                          Top surfac:e of beam    at
15    1S-ELK     [FOH]      W       FSL         Beam by Golumn A at wall              -2"                   wall                38,800                         127

16    16-ELK     [FOH       W       FSL                     Ledge                     -15'         Ledge on Ginder block        33,000                         57

               212712007                                                                          Ledge between GonGrete
17    17-ELK     CO~        W       FSL                 Ledge on wall                   5            slabs forminq wall          5,760                          9

18    18-ELK   2It:~~r      w       FSL         Floor at base of GolullYl A             0                                       11,700                         17
               212712007                        Steel su pp ort beam along
19    19-ELK     [FOH]      W       FSL                     wall                      -2"                                       124000                         96
               212712007
20    2O-ELK     [FOH]      W       FSL                 Ledge on wall                 -11'        Top surfaGe of Ghannel         3,260                         58

               212712007                                                                           Ledge wnere pO l¥ ed
21    21-ELK     [FOH]      W       FSL                 Ledge on wall                 -5'         GonGrete sections about       370,000                        64
               212712007
22    22-ELK     [FOH]      W       FSL                     Floor                       0           At base of Golumn 2          9,1 10                        18

23    23-ELK
               212712007
                 [FOH
               212712007
                            W       FSL
                                             I ~eam a     Ge~II:!jln m oole 0

                                                 Top of return air duct at
                                                                                      -2"                                        1,250                         33

24    24-ELK     [FOH]      W       FSL                   c:eiling                    -2"                                        2,110                         31
               212712007                     I;"IeeSupporl oeam al Wall oy
25    25-ELK     [FOH       W       FSL                   GOI. 3                      -2"                                       18,800                         269

26                          -­       -­                                                 -­                                         -­                           -
               212712007                      Surfac:e of beam on wall-4'
27    27-ELK     [FOH]      W       FSL            from GOI. 2 by door                  3'                                       2,540                         19
               212712007
28    28-ELK     [FOH]      W       FSL                     Flo or                      0            Base of GoilXTln 3         10,100                         21


29    29-ELK   2It:~~r      w       FSL                Beam   at   Geiling            -2"              Near Golumn B             4,460                         27

30    3D-ELK   L!t:~~t      w       FSL        Floor by base of GoilXTln B              0                                       43,200                         34
               212712007
31    31-ELK     [FOH]      W       FSL          Book shelf by Golumn B                 Z            Wooden shelves               56                            5
               212712007
32    32-ELK     [FOH       W       FSL         Steel Beam by Goi lXTl n C            -2"                                       30,200                         36
               212712007
33    33-ELK     [FOH]      W       FSL        Beam/Geiling by CoilXTln 0             -2"                                       20,700                         27
               LIt,:~~,UI
34    34-ELK                W       FSL                     Floor                       0            Base at Golumn C             480                          80
               212712007
35    35-ELK     [FOH]      W       FSL          Floor base of GolullYl 0               0                                         453                          69
               212712007
36    36-ELK     [FOH]      W       FSL          Beam / Geiling Golumn E              -2"                                        1,830                         30
               212712007
37    37-ELK     CO~        W       FSL               Floor by GolullYl E               0                                         807                          48
               212712007                       Top surfac:e of supply duct                        Between ColullYl E and
38    36-ELK     [FOH]      W       FSL                  diffuser                     -18'              CoilXTln4               240,000                        31
               212712007
39    39-ELK     [FOH]      W       FSL        Steel beam support on wall             -18'                                      23,700                         80
                                                           Appendix 1 

                                               Elkton FCI Wipe/Bulk/TCLP Data Table 


                 Date       Sample
                   &         Type                                                                                                                   Lead                              Cadmium
                Who     W=Wipe            Building                                        Elevation                                    ug/ft2       mg/kg        mgtl        uglft2    mg/kg     mgtl
R~   Sample # Collected B=Bulk              Name               Suriacelltem                 (foot)             Description                                     (extrac)                         extrac)
40    40-ELK     [FOH]         W             FSL          Top of old exhaust duct           -15'                By colu lTYl 4           5,520                                 24
                212712007
41    41-ELK     [FO H]         W            FSL                Beem on wall                 -3'                                         1,170                                 12
                212712007
42    42-ELK     [FOH]          W            FSL              Floor by coilXTln 4             0                                         98,200                                 39

                212712007
43    43 ELK     [FOH]          W            FSL         Beam / ceiling by colu lTll F       -2"                                          400                                  35
                212712007
44    44-Elk     [FOH           W            FSL                    Blank                                                                 <10                                  <1


45    4S-Elk    2!t:~~r         w            FSL        Beam on far wall by bay door          8'                                          640                                  116
                212712007                                Inside surface of discarded
46    46-ELK     CO~            W            FSL        duct opening with air dOOlper     Nme Iven                                      219, 00 0                              21
                212712007                               duct opening in hood with air
47    47-ELK     [FOH]          W            FSL                  damper                  None given                                    120, 00 0                              28

                212712007                                                                                   Where eXhaust dLL:!
48    48-ELK      rFOH          W            FSL          Discarded duct opening          Ncoo Iven         leaves top of hoed          32,4 00                                54
                212712007                                 Top sl¥face of 1" pipe in
49    49-ELK      [FOH]         W            FSL                   office                     Z                 In office 103             178                                  14
                212712007                                                                                 Behind office door office
50    SO-ELK     CO~            W            FSL                    Floor                     0                      103                  120                                   9
                212712007
51    51-ELK      [FOH]         W            FSL            ledge ofwindowsil                 3           Inmate clerk office area        288                                  28
                212712007                                Scraped from floor arolXld
52    52-ELK      rFOH          B            FSL              colu lTll 3 at door             0                                                      160, 00 0                           38




                                                                                                             Mop rinseate after
                                                                                                             ITOppng gb fioor.
                                                                                                          Mopping occurred both
                212712007                 Recycling           1000 ml collected                            in gb "..ea ood "feed"
53    53-ELK      [FOH]     ClP-Mopp       Factory                 2x500ml                                           area                                            0.04                        <0.001
                212B12007                  ecyc Ing      .t:xlerlor upper su ace 01
54    54-ELK      rFOH      ClP- Soli      Factory       lower eXhaust fan housinq           -18'                                                                   62.00                          0.40
                                          Recycling       Top side of blade of fan
55    55-ELK    2ItFBI~~r       W          Factory          inside exhaust duct              -IB                                         10,100                               2,350
                212B12007                 Recycling       Top surface of metal box                        Upp er sl¥face of top fan
56    56-ELK      [FOH]     TClP-SoIid     Factory            over eXhaust fan               -2"                   housing                                          47.00                          0.45
                212B12007                 Recycling
57    57-ELK      [FOH]         B          Factory          Top of retl¥n air duct           -2"                                                      3,600                              6000

                212B12007                 Recycling      Top ofretum air duct over                         Retum air duct in NE
58    58-ELK      [FOH]         w          Factory       material dissassembly area          -2"             corner of room             30,800                               12,800
                212B12007                 Recycling       shipment "..ea (near bay
59    59-ELK     CO~            W          Factory                 door)                     -2"                                        123, 00 0                             3,770

                212B12007                 Recycling                                                        On patform above gb
60    50-ELK      [FOH]        w         Facto~(roof}         Beem by window                 -20'                  area                 28,500                                 735

                212B12007                 Recycling       In stone (ballast) directly                         On SW comer of
61    61-ELK      [FOH]         B          Factory      beneath eXhaust fan on roof          Roof               eXhaust fan                           8,8 00                             900




                212B12007                 Recycling                                                       2" X 3" filter section HV5
62    62-EIK      [FOH]         B          Factory                   Filter               None given         south p"..t of Roof                       370                               140
                212B12007                 Recycling                                                       On platform on SW side
63    63-ELK      [FOH          W          Factory        Top of electrical inverter         -18'              of factory fioor          12,400                                173
                212B12007                                                                                  n here ountains were
64    54-ELK      [FOH]         W            FSL        louver on exterior of bui lding     -11"              vented to exterior        64 ,000                                21

                2/2812007                               Inside duct behind louvers on                     Where pots were vented
65    55-ELK     [FOH]          W            FSL              exterior of building            S                 to exterior             4 03 00 0                              202

66    66-ELK    2ItFBI~~r       W            FSL                    Blank                                                                 <10                                  <1
                212B12007                 Recycling                                                          From (JJ area from
67    67-ELK      [FOH]     TClP Solid     Factory          Broken funnel     I~,         None given            gay10rd box                                         59.00                        <0.001
                212B12007                 Recycling
68    68-ELK      [FOH]     TClP Solid     Factory      Broken glass from panel box       Nc oo    Iven        None given                                            0.05                        <0.001
                                                                                                             Mop water from
                212B12007                 Recycling                                                        mopping (JJ area (1st
69    69-ELK      [FOH]     lP -Aque       Factory            Mop rinseate                None given             bucket)                                             0.12                        <0.001
                212B12007                Warehouse         Composite of dust from
70    7D-ELK      [FOH]         W           (Old)                rafters                  None given                                       18                                  34
                                                                                                          Dust from Gaylord box
                3/212007                  Recycling                                                       lab eled ''MoDJcmom e
71    NIOSH 1   [NIOSH]       TCLP         Factory         "MonoclYome Waste"                             waste"                                                     1.40                          0.02

                                          Recycling                                                        Dust from Gaylord box
72    NIOSH 2   ~~~~~~~       TClP         Factory             "Mixed Waste"                               labeled "Mixed waste "                                   110.00                       <0.001
                                                             Appendix 1 

                                                 Elkton FCI Wipe/Bulk/TCLP Data Table 


                      u~"       I s;;:!e                                                                                                           Lead                         Cadmium
                 Who     W=Wipe            Building
                                                                                           EI~:~i)on                                lu"ft2         mg/kg    (e:~)     uglft2        mg/kg
                                                                                                                                                                                            (e';~~~)
 R~    S.mpl,' Collected B-Bulk             Name                 Suriacelltem

                                                                                                        Waili water fro~ ~~~_

                                            Fa~t~~~
                    31112007
  73     "03~   3    '''03~1      TClP                               "EeX~""                                                                                   0.04                           <0.001

                                                                                                        Wash water from mop
                                                                                                         bucket after cleaning
                                                                                                        floor ofglas8 breaking

                                            Fa~t~~~
                    31212007                                                                                area dl¥ing filter
  74     "03~        '''03~1      TClP                               "EeXF""                                   eh""Zel.                                        0.07                           <0,001

                                           R:::~g         Be',,~:,' ;C"CI G~O
                                                                                                        e',',cl,d de",,, fill"
  73    ECMFeol      ,"03HI         B
                                                                                               "          eh"", cpe';'1m                             14000                            240

                                           R:::~g         Belk,~:,';OO'C' G~O
                                                                                                           I        i ~ filter
                     [';';;~I
  76    ECMF6W                      B
                                                                                               "          change operation                           14000                            240

                                           R:~:~g
                                                          Be'kd~I'            ,                            I          i   ~filter



                    ~
                                                                lmm 11001C1 GBO                           eh.~,     coo,,11m
  77    ECMF6m                      B
                                           K;~I~_g
                                                                                               "          ccp~:,,::~,,g
                                                                                                                                                     9100                             350

  78    EC",WI       '''03~1        W       F.clc~'     10001", w~k becch                    -~3'                                        362                                   23
                                                        locwc~'
  79    EC",W'      '(~,~'~~;       W
                                           R:~:~g                                            -~3                                        2970                                   13

                    '(~,~'~~;              R:~:~g
                                                        Ion   wor,k benc:h, carcJJoard
  80    EC",W3                      W                   Icc""', I. ,cd                       -~3                                             149                                2

  81    EC",W4      '(~,~'~~;       W
                                           R:~:~g       1~~::::k~:::~:C""h                   -~3                                         660                                   56


  82    ECMTW S     '(~,~'~~;       W       F"'c~'
                                                 "
                                                        I~~:::':,:, ,cd                      -0-5'                                       669                                   33
                                                                              in weigh
  83    ECM'CW6     '(~,~'~~;       W
                                           R,"'>;,'"g
                                            F"'c~'      I".,im'                              -~3'                                            24                                 2

                                           R:::~g
                                                                            in change
  84    EC",W,      ~:~~:           W                   Imcm                                 -~3                                        1210                                   70
                                                        IOutside of locker door in
                    ~~~:~
                                           R,"'>;,'"g
  83    ECM'CW6                     W       F"'c~'      ich,"gOlc=                           -~3'                                                                         <0,


  86    ECM'CW5      '''03~1        W      R:~:~g       I~~:::'g, mc:"        b,"'"
                                                                                             -~3'                                             I'
                                                                                   ",c
  87    ECWWlO      ~:~~:~          W
                                           R:~:~g       IFmcl ",' I
                                                        leh"" m=                             -~3                                        1390
                                                          i      i    II-beam in
                    ~~~:~
                                           K:cv:'ling
  88    EC",Wl1                     W       F"'c~'      Ib';"'"g mcm                         -~3'                                        376                               353
                                                        IBack of~~.e~J~~ at top front of

  89    ECWW17
                    31112007
                     '''03~1        W      R:~:~g I~o~~' I             I,   breaking
                                                                                             -~3                                         325                                   4'

  90    EC",WI3     ~:~~:~          W
                                           R:~:~g       I:~::';~~;~~:';';'''::m              -0-3                                      10200                                   30

  91    EC",W14     ~:~~:~          W
                                           R:::~g       F'c~,m'dd',' cl,"l~      ,oom lc
                                                                                             -~3                                        2140                                   11

  92   "",FW I      '(~,~'~~;       W         FSL       IT.b', 1 c~lh                        -~3       Ecd cl,hln                            21

  93   ELM'CFWl     '(~,~'~~;       W         FSL       IT.b',' '"',,'                       -~5'      Ecd cl,hln                            77                                 8

  94   ELM'CFW3     '(~,~'~~;       W         FSL       IT.b', 3 w,h                         -~5'      Ecd cl,hln                            36                                13

  95   ELM'CFW4     '(~,~'~~;       W         FSL       IB"'" 1                              -~5'                                        121                                   17

  96   EL",FW 5     '(~,~'~~;       W         FSL       IB"'" 2                              -~3                                             102

  97                ~:~~:~          W         FSL       IBailer (metal)                      -0-3                                            57                                10

  98   FIMWFW I     ~~~:~           W         FSL       IBailer (plastic)                    -~5'                                            72

  99                ~:~~:~          W         FSL       IT.b', " corth                       -0-3                                        186

 100                ~:~~:~          W         FSL       IT.b', I, welh                       -~5'                                            177

 101                ~:~~:~          W         FSL       IT.b', 3, ,"cl,,'                    -~3                                             86                            167

Guidance for Interpretating Lead Wipe Data                                                             Guidance for Interpretating extractable Lead and Cadmium Data
1.40 ugfft2 (HUD/EPA for floors)                                                                       (per EPA RCRA Toxic Characteristic Leaching Procedure (TCLP))
2.4000 ugtft2 (Factor of 100 for above)                                                                1) EPA TCLP limit for Lead =5 mgtl
3.200 ugtft2 (Letter - OSHA Directive) for workplace surfaces                                          2) EPA TCLP limit for Cadmium =1 mgtl
4. 1000 ugtft2 (Lange study for non-lead free building's)
5. 1100 ugtft2 (Lange study for lead free building's), and
6. For general consideration - Any extreme wipe andlor bulk resuks
found in a facility would be compared to background measurements,
that is, assuming the other data is low in comparison we might consider
it as backaround and remediate to those levels
APPENDIX 2 

                                                        Appendix 2 

                                                     Elkton Filter Data 


                                                     Areal                                                                          TOTAL
                                         Date                         I                                          Cd        Pb       METALS
                                                                                                                mQ/M3     mQ/M3     mQ/M3
                                I
1                                                      P     IworKer                 I copper                  <OOOOR     <00004       0.031
                           "r   I '"
2                                                      P     IworKer          I copper                        1<0.00008   0.00061      0.043
                           "r   I '"                              i                             14th & 5th
3    ='-'IVl 1 . 1                     2/26/2007       P     Iwork station from back                           <0.00006   0.00076      0.047
                                I
4    =GM 1 . 14                        2/26/2007       P     Material      i            I front 1/2             <0.001    <0.008       0.293
                                I
5    =GIVlI . 1 ~                      2/26/2007       P     IOrderly                                          <0.00008   0.0013       0.080
                                I                                    i    i       ,I" 3rd table from
6    =GM 1 . I'                        2/26/2007       P     Iback                                             <0.00009   0.00075      0.052
                                I                             Material disassembly, Table 7 from
7                                      2/26/2007       P      back                                             0.00009    0.0018       0.096
                                I                             ",a,~, ia, disassembly, Table 6 from
8                                      2/26/2007       P     Ifront                                            <0.0001    0.0015       0.089
                                I
9                    11                2/26/2007       P     Coordinator                                       0.00018    0.0027       0.041
                                I
10                                                     P     Glass h,po"ino                                    0.00005    0.0010       0.016
                                I
11                                                     P     Intake                                           1<0.00002   <n nnn1      0.008
                                I
12                   [1                                P     IGlass breaker                                    0.00022    0.00947      0.129
                           "r   I '"
13                                                     P     IGlass breaker                                    o OOOSR    0.0089       0.198
                           "r   I '"
14                                                     P     IGlass breakinQ, feeder                           o Oom?     0.0075       0.142
                           "r   I '"
15               14                    2/27/2007       P     Glass breaking, coordinator                       0.00082     0.G18       0.330
                                I                                 i                    ",,4th bench from
16               I~                    2/27/2007       P     Iback                                             0.00015    0.00110      0.072
                                I                                 i                    ",,8th bench from
17               Ib                    2/27/2007       A     Iback                                             0.00009    0.00079      0.048
                                I
18                                     2/27/2007       P     Intake area, forklift driver                      0.00006    0.00050      0.050
                                I
19                                     2/27/2007       A     Intake area, near weigh station                   0.00007    0.00067      0.043
                                I
20                                     2/27/2007       A     ICopper      I.,.   i    area                     <0.00006   0.00043      0.031
                                I
21                   [10               2/27/2007       P      vvorKer                I copper                  <0.00008   <0.0006      0.039
                                I                             ",u"i,u,                "u,y, 8th bench tram
22                   [11                               P     Iback                                             0.00011    0.0012       0.070
                                I                             ",u,';,u,              "u,y, 2nd bench tram
23                   [12                               P     Iback                                             0.00015    0.0011       0.073
                                I                             ",u,';,u,              "u,y, 4th bench tram
24                   [13                               P     Iback                                             n nnmn     0.0023       0.167
                           "r   I '"
25    Fr.MWFT14                                        P                                                  I    0.00009    0.0012       0.073
26    ELMTF-P1             FSL                         P                  , worker                              0.00011   0.0007       0.080
27    ELMTF-P2             FSL         LILbILUU,       P                  , worker                               U.UUU1                U.101
28    EL                   FSL                         P                  , worker                              0.00004   0.0009       0.101
29    ELMTF-T1             FSL                  17     A     IArea sample north                                 0.00006                0.059
30   -§:MWF-A11            FSL                         A     I North FSL area                                   0.00019   <            0.093
31     _MWF-A1L            FSL                         A     IArea - Central FSL                                0.00024   0.0007       0.162

32   ELMWF-A13             FSL         2/27/2007       A     IArea south FLL {""npet                  i         0.00027    0.013       0.244
33   EL                    FSI                         P     I Bailer netall                                     .00026                 .10'
                                                           Appendix 2 

                                                        Elkton Filter Data 


                                                       Areal                                                                       TOTAL
                                            Date                        I                                     Cd          Pb       METALS
                                                                                                             mQ/M3      mQ/M3       mQ/M3
34   EL     1<                FSL                         P     IBailer (plastic                             0.00009    0.0005         0.090
35   EL     13                FSL                         P     IWorker on line 1 (north)                    0.00018    0.0007         0.101
36   EL     14                FSL                         P             . on central line                    0.00050    0.0009         0.127
37   ELMWF-P15                FSL        2/27/2007        P     IOrderly                                     0.00016    0.0005         0.100
38
39                  -u,j                 2/27/2007       P       Clean-up,        i                          0.00035                   0.061
40                                ,use   2/27/2007       P       De-oausino, QrindinQ                        0.00043    <0.0003        0.074
41                  -uo                                  P      IWork on floor                                0.0003                   0.078
42                  -uo           ,use   2/27/2007       A      IArea sample, middle 01          use          0.0001                   0.057
43
44
45   The        I      i   ~mples     were taken in the GBO during                     : LEV not         i
46   area                      'dusty;          use wet rag to wipe visor on PAPR to see
                            Recycling
                             Factoryl
47   ='-'IVlr   -u            GBO        3/2/2007        A     BZ level, near HEPA filter                    0.n..106    n n7 "          1.7
                                  I
                             Factoryl
48                            GBO                        A          BZ level in right GBO station              0.266     0.3641          7.1
                                  I
                             Factoryl
49                   >A
                              GBO        3/2/2007        P           Worker doing filter oh                     2.36     2.6647         23.5
                            Recycling
                             Factoryl
50   ='-'IVlr -U.50           GBO        3/2/2007        P           Worker doing filter                     0.6491      0.7637         14.2
                                  I
                             Factoryl
51                            GBO                        P           Worker doing filter oh                  nAA~ .'     n "Q ~Q        11.2
                                  I
                             Factoryl
52                            GBO        3/2/2007        P           Worker doing filter oh                  n Mil'      nn,,,a        0.696
                            Recycling
                             Factoryl                           On computer monitor at desk of clerk,
                                                                                                             0.nn.10     nnn~7
53   ='-'IVlr   -u (          GBO        3/2/2007        A              about 20 It from GBO                                           0.135

                                                                    I       n cnteri a (mg/m3)                Cd         Pb
                                                                                                   REL        na           0.05
                                                                                                   PEL         0.005       0.05
                                                                                                   TLV          0.01       0.05
ATTACHMENT 3 

     DEPARThtENT OF HEALTH AND HUMAN SERVICES                                      Public Health Service


                                                                                   National Institute for Occupational
                                                                                           and Health
                                                                                   Robert A. TaM Laboratories
                                                                                   4676 Columbia Parkway
                                                                                   Cincinnati OH 45226-1998




Dear_

                     2007, the National Institute for Occupational Safety and Health
                request for technical assistance in your health and safety investigation of the
         Prison Industries (UNICOR) electronics recycling program at                Bureau     Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You               us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG)
           the existing medical surveillance program for inmates and staff               to
                   electronics recycl ing. and to make recorrunendations for future surveillance.
addition, YOll asked us to assess past exposures to lead and cadmium. and to investigate
potential     take home exposure. This interim letter summarizes our findings and provides
                     to improve the safety and health of the inmates and staff at the
              Institution (FCI) in Elkton, Ohio. These findings will be              in a
                   findings from the evaluations at all three institutions identified in your rpn"p.,

                       at FCI Elkton appears to have been performed from 1997 until May
                               controls, respiratory protection, medical surveillance, or industrial
                      The current GBO is a significant improvement, but can
                           performing glass breaking. as well as
                         room inco other areas.



Background 


                                        electronics recycling soon
                        is     in       separate buildings: 1) the main factory loc:ate:a
                      (which wilt be referred to as the factory in this report); 2)
                      and 3)    warehouse.
      2­

The gla~s breaking operation (GBO) is         cathode ray tubes (CRTs) from
or televisions are processed. Disassembly and       breaking occurred at the factory
until early 2003 and the warehouse until              although staff at Elkton were unsure
      breaking ended a[ the                          our review of documents and
with        and inmates conducted by          by us, it appears that there was no
protection used or any type of                    in place to minimize exposures
       until about 2001. At this               collection system" was installed at
    not in the warehouse. It was                  some inmates began to use
             at this time. The type                        is unknown. In April of 2003,
construction of a glass breaking room was              in the factory.

     glass. breaking room is divided into       areas by vinyl strip curtains hanging from the
         all entry area, the GBO                       ventilation discharge area, and
       inmates don and doff coveralls and                       protective equipment (PPE).                  is a
walk-off mat immediately outside the entrance to            room to reduce dust carryout on shoes.
A tocal exhaust ventilation (LEV) system "'Y"'lJl,.,,,,, from a spray painting operation is installed
the room. Two inmate glass breakers, who stand                 each other at the ends of a rectangular
        work surface (table), are oriented at 90             to the LEV airflow entering the
      workstation has two small rectangular              and fans mounted behind and just below
                that are intended to capture             dust above the Gaylord boxes "''-',.c .... ''''"'El
broken CRT glass. The fanslhoods are not                 but discharge into the work area
approximately 2 Y2 to 3 feet from                    retrofitted spray painting LEV system.
            is directed toward the


                                                                             uses a
                                                                         operation actually occurs,          to


         who perfoon the GBO ("glass                 enter the clean area where they don cloth
           gloves, and a hooded powered                  respirator (PAPR). and then enter
          area. eRTs are placed on the                     are manually shattered with
           breakers reach through a strip         at           ends of the grate to break funnel
glass at one work station. and panel glass at the        Broken glass falls into Gaylord
positioned below the grate. When inmates finish               glass, they return to the clean area in
      coveralls and PAPR. use a                                   (HEPA) filtered vacuum on
          before removing them, then remove                 and leave the area. Staff enter          room
     when there is no glass breaking         on to            tools and search the area, "rr''''''',ll.<:P.
     observe the inmates in the glass           room through the window or vinyl curtains.

While housekeeping is a routine component of                                 processes, a weekly
         is conducted in [he glass                                that operation no production
    all workers in this area remove        dust                                     wet mopping. All
including walls. equipment, and floors are                        V","',U.n.'"", pre-filter on the LEV system is

vacuumed using the HEPA vacuum
Page3_

Additionally, at approximately monthly intervals, the filters in the LEV system are removed and
either cleaned or replaced. Prior to an evaluation by Federal Occupational Health (FOH) and the
NIOSH Division of Applied Research Technology (DART) in March 2007, filters were removed
and cleaned by vacuuming, shaking, or banging on the floor to shake dust out. This took most of
the work shift and reportedly created a thick cloud of dust within the enclosed glass breaking
room. This process was changed after the FOH-NIOSHJDART evaluation, and is reported to
now be a wet process where the filters are wetted, removed. and bagged for disposal and new
filters used as replacements.

A chip recovery program began at the FSL in October 2005, and ended in October 2006.
Computer chips were removed from the mother board by holding the mother board over either a
lead solder pot or a lead solder wave fountain, Although the solder temperature was supposed to
be maintained just above the melting point (reportedly 400 to 600 degrees F), staff reported that
the solder temperature was set subjectively (Le., the temperature was not measured), which may
have resulted in overheating, producing lead fume. There was no LEV for the first several
months of this operation until what was described by staff as a "make-shift PVC system" was
installed. This LEV system was replaced the following year with a LEV system designed by a
consultant. Despite the use of LEV at chip recovery stations. staff described a visible haze in the
FSL, and expressed concern about exposure to lead fume from this operation.


Assessment

In response to your request we reviewed the following documents: 

· Results of medical surveillance provided by your office; 

· Results of biologic monitoring provided by the medical clinic at FCI Elkton; 

· Work instructions for the GSO and maintenance; 

· Rosters for inmates working in recycling that provided location and dates of work, provided by 

  the factory manager;
· Timelines for recycling operations provided by the American Federa[ion of Government
  Employees (AFGE) Local 607;
· DOJ interviews with staff and iJunates;
· Industrial hygiene sampling performed by consultants to UNICOR;
· Findings and recommendations of industrial hygiene assessments performed by FOH; and
· Draft report of the industrial hygiene assessment perfonned by the NIOSHJDART

We conducted a site visit on February 21-22,2008 with you and a representative ofFOH .
During this site visit we held an opening conference with FCI and UNICOR management, AFGE
representatives, UNICOR recycling staff, and the health service administrators and regional
medical director. After the conference we toured the FCL including the recycling factory, the
warehouse, and the FSL We conducted informational meetings for FC! and UNICOR staff, and
inmates, We spoke to several UNICOR staff who approached us after the meetings about their
medical issues and how they might relate to exposures at the FCL We also met with the safety
manager, factory manager, and health services administrator. We ended the site visit with a
closing conference where we presented our initial impressions and recommendations.
      4_ 
         BOP has had an industrial hygienist on staff
                        one. Neither of these individuals was 1'"\""""'' '1'"1
unclear what, if any     they may have had in setting up or
program.

                      we            an industrial hygiene        to EI".r,~rrn
                    dust had migrated from the glass breaking room
                 if      was evidence of "take-home" contamination
                                The purpose of this survey was to
                              body of industrial hygiene data


                  l.n,",',","'~A,",""
                         by a brief opening meeting with
                      and UNICOR recycling staff to explain
                       we were escorted to the factory and                                  (ADP),
                area    sampling pumps to assess airborne ""w\I"""nl"<:>,nF\",, of lead, cadmium,
and other          (minerals and metals). Air samples were                            and analyzed
          to NIOSH Method 7303 [NIOSH 2003al with                               digestion.

                were collected from undisturbed dusty                          as well as at air diffusers
                    handling units serving the laundry,               room. education, chapel, ADP
                       floor mat at the entrance to the glass              room. Wipe samples were
                the floor in three inmate cubicles where                     their boots. and from
                                                                                   from personal
                                                                                were sampled by wiping
                                                                                         procedure
                                                                                             when

                                  according to
                             2003c] Hand
                 at         of the workday. All
      which were digested and analyzed for elements accord
INtOSH 2003bl with modifications for digestion. Bulk
          stone     ballast on the factory     at
          was use from 200 1 until May 2003.               were digested and analyzed
       according to NIOSH Method 7303 [NIOSH 2003nJ with modifications for digestion.
         5_ 

Results and Discussion 1

Medical surveillance


Inmates

Medical surveillance began in March 2003,                             prior to the installation of the
   ""......" ....'" room, for inmates in glass breaking      disassembly, and staff. It is performed annually
                        of limited biological monitoring but no physical examinations. Biological
                       consists of blood lead levels (BLL), blood cadmium (Cd8), urine cadmium (CdU).
                     beta-2-microglobulin (B-2-M),             not all irunates involved in G80 and
disas!i:embly received all of these tests. In addition, some irunates had urine lead, blood or urine
<>r" ... n,'r or mercury, and serum B-2-M, none            which seem to have been based upon work
                      or indicated by work history.                  test         are maintained in both
                               medical record and with UNICOR                     however, the factory
                             to locate any medical                                         inmate's
                                    with them~ no                                                an        IS
                                                    are                              of their biological
                                      are abnormal.                       were not available to us for all
                              in     GBO, it does not                 inmate had biological monitoring
                      preplacemenL Because smoking can                cadmium and lead burdens in the body,
                           to note that smoking has been banned                the FCI for inmates since 2004,
                          may smoke in designated areas. The               the available inmate biological
monitoring are summarized below by area.                        measurements on individual inmates and
            were sporadic and the number tested small, no group analyses were performed.

          Breaking Operation

                                                                          who performed glass breaking. Each
                                                                     of          Table 1 shows inmate BLLs by
                                                                             blood lead was LO microgram
                                                                            over time. Five of the seven tests
                                                                                exposures to lead prior to
                                                                                          to the installation of the
                                                                                   blood is too short.

                            tests done on inmates from                          laboratory's LOD for CdS was
                          liter (!1g/L). Twenty-seven were                    LOD; the remainder ranged from
                                   CdB were done in                                  were tested in June 2003,
                                                                               1.1 Ilg/L. These six CdB may



I   See OccupaTional expoSilre limiTS and /reallh effecls in. Appendix
Page 6­

reflect exposures to cadmium prior to installation of {he glass breaking room, but do not reflect
exposures prior to the installation of the sawdust ventilation system in 2001 because the half-life
of cadmium in blood is too short.

There were 28 CdU measurements. More than one laboratory was used for this analysis. At the
lab most commonly used the LOD was 1 Jlg/L and 23 measurements were below this LOD.
Other labs had lower LODs. If the CdU was above the LOD, then it was adjusted to the urinary
concentration of creatinine to control for the variability in urine dilution. The five that were
above the LaD ranged from 0.5 micrograms per gram of creatinine ()1gJgJCr) to 1 )1g1gJCr.
These CdU measurements do integrate exposure over time because the half-life of cadmium in
the urine is years to decades. However, only one of these inmates worked in GBO prior to May
2001; his CdU was less than 1 jJg/L. Six inmates had urinary B-2-M measured; these ranged
from less than 10 to 54 llglglCr.

Glass Breaking Room Maintenance

One inmate who perfonned cleaning and filter change-outs in the GBO was monitored for lead
and cadmium exposure from April 2003 until 2007, prior to the change in the filter change-out
process. His annua.l BLLs ranged from 10-4 JlgJdL. with a progressive decline over time. His
CdBs ranged from 0.5 to 0.8 Ilg/L. and his CdUs were less than the LOD of I jJglL Another
inmate who perfonns maintenance in !he room was monitored in 2007 and 2008. His BLL was 5
in 2007, and was not done in 2008. CdB was 0.6 jJg/L in 2007, and tess than the LOD of 0.5
)lg/L in 2008. CdUs were less than 1 11 gIL.

Chip Recovery

We reviewed biological monitoring for 14 inmates who worked in the chip recovery area; all
were tested on February 16,2007,4 months after the operation ceased. BLLs ranged from 1-5
jJgldL. CdB was below the LOD for four inmates, and the remainder ranged from 0.5-1.1 !lgldL
All but one CdU were below the LOD, and the remaining one was 0.6 !lgJg/Cr. No inmates had
urine B-2-M measured.

Factory (not GBO)

We reviewed the results of biological monitoring done in April 2007 for 14 inmates who worked
in the factory, but did not perform glass breaking. Two had BLLs less than the LaD, and the
others ranged from 1-3 IlgidL. A BLL of 8 IJgldL was found in one inmate monitored in 2003.
Seven had CdBs below the LOD, and the remainder ranged from 0.5-1.0 !Jg/L. Twelve had CdU
below the LOD of 1 )lg/L, and the other two were 0.2 and 0.6 !lgJgJCr. None had urine B-2-M
perfonned.
     7_ 

Warehouse

                   who worked in the warehouse, but did not ",,,,..f,,,,.,,,,,                           had
                        done in February 2007. almost 4
                           fromi IlgldL. Seven had CdBs
                     ).1g1L. All 14 had CdU below the LOD.




                '~"~,",'~~'
                       monitoring results for 2                                  rap1''''''''    and one from the
                     annually from 2003-2005, the                                                 There were three
               from 1 flgldL. Three of four CdBs were                                           of    ).1g1L, and one
               Two CdUs were less than the LOD of 1                                              was 40 llg/g/Cr.

Results     other tests

             biological testing results for which we were                 to determine the reason the
       was done on inmates. Two inmates had serum B-2-M                               This test is often
                  prognosis hematologic malignancies                                patients. It is difficult
             this setting because no medical history is                       addition, three irunates had
        urinary total arsenic, and one also had an elevated                         The arsenic results
were           and found to be organic arsenic, the type of                        is found in ~eafood and
is not           toxic. All other tests (urine lead, blood or
within        limits.



                             physicians
                         available medical r",r'n"""
                           B-2-M. and zinc
documented, some had urinalysis, complete blood count,                                                          J{­




                     the biological monitoring and         exams                for 10 UNICOR staff,
                 nine of 11 recycling technicians who had            in electronics recycling. Each was
           between 1 and 5 times between 2003 and                     testing was done by a number
               laboratories, and thus, the LOD and                          the tests varied. For example
                for BLL was either l or 3 f.lgldL.                 were below (he LOD, and seven
                    1     !lgldL. One employee had a              f.lgldL, however his BLLs the year
                        were below the LOD. His urine B        was elevated at 445 ).1g1g/Cr. but he had
             B-2-M levels the year before and after this test result. Standard medical practice usually
dictates that a physician repeat a lone elevated test           to determine whether the result is
               (such as from lab error) or actually               tests were not repeated at the time, so
 ':l",.,r"'I\,.\ error cannot be ruled out. Twenty-five       were done; 12 were below an LOD of 0.5
PageS_

)JglL, 2 were reported as zero, and the remainder ranged from 0.2-2.1 iJg/L Twenty-one CdU
were done; 13 were below the LOD of 1 11 gIL and {he rest ranged from 0.1-0.7 11 gIL. Eighteen
urine B- 2-M were done between 2003 and 2007, and all were normal with the exception noted
above. Twenty-two ZPPs were done between 2003 and 2007, and all were normal.


Interviews with Staff

Five staff asked to speak with us after NIOSH's public meeting with concemed Elkton staff on
Febmary 21, two of the fi ve worked in recycling. One of the recycling staff reported having been
diagnosed with iron deficiency anemia in the past year. This condition is not related to recycling
work or other occupational exposures at FCI Elkton. The other reported an increase in the blood
zinc level over the past year, however, when we reviewed this employee's biological monitoring
results, we found that it was the zpp that had risen, and that the levels were still well within
normal limits. zpp is not related to blood zinc. Of note, both staff noted these reported
conditions in the recent past, well after construction of the glass breaking room. An employee
from an adjacent area reported bipolar disorder, and one from another building reported
fransverse myelitis, neither of which can be related to this workplace. Finally, another employee
from the adjacent area reported seeing a pt"ivate physician and being tested for lead and
cadmium. and that both were below the LaD.


Industrial Hygiene
Records Review

The OIG provided consultant reports, industrial hygiene sampling results. and laboratory
analysis results for l3 surveys conducted at FCl Elkton between summer 2001 and November
2007. Twelve surveys were conducted by consultants to UNICOR. and one was conducted by
FOH in conjunction with a NIOSHIDART evaluation. Five reports contained sampling data
indicating worker exposures to cadmium at levels exceeding the OSHA action level, and two
reports documented exposures above the OSHA pennissible exposure limit (PEL) for cadmium.
One of the reports documented lead exposure above the PEL during a now-discontinued filter
change procedure.

No industrial hygiene reports, sampling data, or laboratory analysis reports were provided for the
period from 1998 until August 2001. According to infonnation provided by the 010, it appears
that there are no industrial hygiene reports for this period; thus, we have no information or data
to help us assess the potential for early exposures to lead. cadmium, and possible other agents
when glass breaking occurred in other locations without local exhaust ventilation. Assuming that
we received reports for all industrial hygiene evaluations and/or laboratory analyses conducted
from 200 I through 2007, we noted that onl y two evaluations were conducted prior to 2004. Two
surveys were perfonned in 2004; no industrial hygiene evaluations were conducted in 2005,
other than an OSHA inspection which resulted in a serious citation for exposure above the
cadmium PEL and inadequate engineering/work practice controls.
Page 9­

Our review of the consultant reports found that two consultants hired by UNICOR measured
worker exposures exceeding the OSHA action level for cadmium, but did not discuss the
findings or the implications of exceeding the action level. This omission occurred during one of
two surveys conducted in 2004, and two of five surveys in 2006. The quality of the reports, i.e.,
observations, discussion, recommendations. was greatly improved in 2007 when the most recent
consultant and FOH independently evaluated the glass breaking process, ventilation, and work
practices.

2001
A laboratory report of sample analysis, dated August 20,2001, was provided to us. This
analytical report contains no infonnation regarding the type of sample (personal sample versus
area sample), sample volume, location, the work being perionned, PPE, or exposure control
methods. Lead was measured in one of the two air samples that were analyzed for lead; cadmium
was not detected. Wipe samples indicated quantifiable amounts of lead and cadmium on
surfaces.

June 2003
A laboratory report of sample analysis, dated June 3, 2003, was provided to us. Although this
analytical report contains no infonnation regarding sample type, work processes, PPE, or
exposure control methods, the report does contain a record of sample volume along with results
for cadmium and lead. Based on an average sample volume of 744 liters, and assuming that
sampling was conducted at the usual rate of two liters per minute, the nine samples from late
May 2003 provide an estimate of airborne concentrations throughout a 370 minute sampling
period. The analytical results indicate that the airborne lead concentrations were likely below the
OSHA action level; however, airborne cadmium concentrations may have exceeded the OSHA
PEL in five of the nine samples, and may have exceeded the action level in one other sample
(range: 3-37 micrograms per cubic meter of air [~glm31). It is important to note that, at best,
these samples only provide an estimate of airborne concentrations at unknown sampling
locations under unspecified conditions. If sampling flow rates were higher or lower than the
typical rate of two liters per minute, the concentration estimates could be higher or lower than
those noted here.

2004
Consultant reports were provided for two evaluations conducted during June 2004. On June 2,
personal breathing zone (PBZ) samples were collected for three glass breakers and one feeder;
four area samples were collected on June 2. All results were below the action level for lead and
cadmium. Wipe samples determined the presence of lead and cadmium on surfaces in (he work
area. Sampling was repeated on June 18, and the consultant (eported that samples collected on
this date revealed "no overexposure;" however, results in the sample summary sheet show that a
PBZ sample collected on one of three glass breakers indicated exposure to airborne cadmium at
the OSHA PEL of 5 J.lg/m:l. Although this sample did not prove statistical exceedance of the
PEL, the report should have contained a recommendation for further evaluation, and guidance
regarding OSHA requirements for periodic air and medical monitoring where workers are
exposed above the action level. In addition, one of four area samples indicated an airborne
cadmium concentration of 5 J.lglm 3 . Wipe samples collected on June 18 indicated that surface
contamination had been reduced in locations previously sampled on June 2. Wipe sampling was
repeated on July 9: results were similar to those for the June 18 wipe samples. The consultant
PagelO _ _

                                       locations on JLIne 18 to assess the direction and velocity of    into
                                                 report did not interpret these measurements with
                                         system.


               <"",n,,,,,..,«   were provided for 2005. On September 8, 2005,
                                           that determined one of two
                                   and lead above the aClion level. UNICOR was
                                          engineering and work practice controls.


                                    consulting firm was hired to conduct
                                    in January, February, June, July and September

                      for two glass breakers and two workers outside the                      not eX(:ee:d
                              or lead on January 17. Several
                                     general ventilation is provided
                        industrial hygiene references or guidelines were
consultant's conclusion that adequate ventilation was provided.

Sampling and      velocity measurements were repeated on                                                   for
this visit        that cadmium exposures exceeded the action                     one           and one
glass          As in one of the 2004 consultant reports, this               did not note that the action


                               on June 26 and 27 to conduct air sampling and assess ventilation in the
                                Sample results indicate that a    breaker was          to cadmium
                           a handler was exposed above the action                    consultant
                             June 26 did not mention or                                       the action
                                                                                              program,
                                                                                             above the
                                                                                          lead or




          provided two laboratory reports of sample               (both reports are dated July
               appear to be for wipe samples                in          chip           during the June
                  did not find these laboratory results in     industrial          reports that were
          to liS. One report indicates small quantities of             in five samples collected from
                  rpr',\TPlr\T (less than 4.8 IJ glsample).                     of lead in the five wipe
         was much greater: 1600 l1g1sample (range 190 to 6800 l1g1sample). Small quantities of
cadmium         lead were measured in one sample collected           an inmate's hands. The other
laboratory report indicates that the average quantities of cadmium and lead in six surface wipe
         collected in the GBO was 35 !Jglsample and 290 !J                 respectively. The average
amount                   and lead in three hand wipe                  ).tg/sample for both elements.
     11 _ _

                           a July 7 survey indicates concentrations of cadmium and
                                        in     PBZ aod five area air samples. A
                                        lead were measured in five surface wipe ,,.4 .. '1-'''''''
                                                 for more thorough cleaning of

                                                   PBZ and five area
                                     three individuals (one staff, two inmates)
                                  hands.       corresponding quantities of lead
                                           average quantity of cadmium and lead
                                10 to 640 I1g), and 19,000 Ilg (range 57 to 85,000 Ilg)


                                 collected air, wipe, bulk dust, and waste samples
                               electronics recycling had been conducted the
                        sampling during two days of glass breaking indicated that
                          applicable occupational exposure limits (OELs). The
                was             controlling exposure at the GBO during
                sampling during LEV filter change-out, a maintenance function, found
cadmium              concentrations well above the PELs. This overexposure. which
            protection factor. resulted from poor change-out procedures that included                 the
dirty filters          to knock the dust off. The results of personal air             the
              and      were well below OELs. (Note: chip removal the
                in 2006.) Wipe samples in the factory, warehouse. and                                lead
                                on various surfaces. This report conduded
                                an "imminent inhalation threat," but could
                                 maruler." FOH noted that migration lead-
                                        reduced by installing a



                                                                            measurements
                    U...    "'''-'''l'i.... in    LEV system. This report             numerous
                                              repair, testing. and maintenance, as weB as
                    ........... H-',,' and use of PPE.



               6,               hygiene consultant conducted a
        Although all air sampling results were below (he action levels
results     one       breaker indicated that his exposure approached
cadmium. Wipe samples found various concentrations of lead and
               area.
HHE Sampling, March 25, 2008
Wipe sample                                               Wipe samples collected from three ceiling
ventilating                          (HV AC)                    in ADP indicated concentrations of
                                              ~                            ?
and lead                          11g1100 cm- and 49-55 11g1100 cm- respectively.               and
                                     undisturbed dust on a ledge along the north wall
                                                     of handler AH-3, which serves the factory tool room
                                      lU''-.«...... that undetennined concentrations of lead and

                                                             the HVAC system. Given the low r ...u'.rponlr'Ol'
                                                       by air sampling in 2007, it seems unlikely
                                              is occurring at this time. It is our opinion that
                                         workplace conditions, i.e., when glass breaking
                                   only a roof exhaust fan to remove airborne dust.

Wipe                                       handlers serving the laundry, education, visiting room. and
chapel                                          of lead and cadmium. Concentrations inside
handlers were                               inside AH-3 in the ADP. The route whereby
contaminants                          air handlers is not clear.

Two bulk              material beneath stone roof ballast on the factory roof at the exhaust
the sawdust collection system that was in use from 200 1 until May 2003 contained 1000
1400          million (ppm) lead (by weight), and 5000 and 7400 ppm cadmium (by weight).
                                 that glass breaking operations during the        the sawdust
                                        cadmium- and lead-bearing dust that was exhausted to
roof.

                       contamination was found on the return air damper of rooftop air handler
               I, which serves the factory. Given the low contaminant concentrations           by
                                     and     current industrial hygiene consultant, we
                                                     conditions prior to construction of the




                                 is         with sample
                                 samples W-27 and W-28).

                        following hand washing by inmate workers ....,,'..v.,.,,"
                     from approximately 1.5 (0 130 l1g1wipe. This rID •.,...,.,""1'..."


             cadmium contamination in two staff personal vehicles was
               andior quantitation: however. 3.3 I1g-1eadllOO cm 2 was
  n"""",..t,{'\n                                                                nTP<:PTl


                  in one vehicle. This indicates a potential for take-home
                 is minimaL
Page13_

Area air sampling results are shown in Table 3. One                                 a quantifiable airborne
concentration of lead and cadmium.         sample, which was                     within a few feet of the
      breaking operation (behind the strip
out areas), was well-below applicable OEls.        area
GSO entry detected a trace concentration lead and
collected in the glas~ breaking room, factory, and ADP


Conclusions



     we cannot detennine the extent of
             but descriptions of work tasks from
          frame were likely higher than current exposures.    current
improvement, but can be further enhanced to limit exposure to those
as well as limiting the migration of lead and cadmium from     room
some take-home contamination does occur, surface wipe sampling and
        that take-home contamination does not pose a health threat at this
contamination can be further reduced by changes to the GSO. work
personal hygiene as recommended below.

We cannot detennine the extent of exposure to lead that occurred in the
         of the lack of data. Descriptions of work tasks from staff, and a
inmate 4 months after the process ended indicate that exposure to lead
occur. We found no evidence that actions were taken to prevent "'A~JV"'''''''-'
the chip recovery process and found that no medical surveillance was ",,,,.rt,,,....... ,,.rl
process ended.

Medical surveillance that has been carried out among inmates and staff
OSHA standards. No medical exams (including physical
staff receive inconsistent examinations and biological monitoring by
biological monitoring for lead is not done at established standard
communicated to the inmates. Inappropriate biological monitoring tests
   medical surveillance are not maintained by the employer       the '.In'''I"'',''''''

At this time,     careful review of existing records and current
only persons with current potential for exposure to either    or
are the inmates who perfonn glass breaking or the monthly filter _......,...,_
medical surveillance can be discontinued for all other
and/or staff     require surveillance under the OSHA cadmium

Wipe and bulk sample resuits indicated that lead- and cadmium-containing
the       in the past. Low levels of lead- and cadmium-containing
and the floor mat outside the glass breaking room suggest (hat
small amounts. Contamination of inmate housing and staff
Page 14

we have no data regarding the extent of past contamination in these locations. Hand washing is
less than optimal for some individuals, including both staff and inmates. There is legacy
contamination of the factory, FSL, and warehouse, which is scheduled to be remediated. We
concur with FOH that surface contamination does not present an imminent hazard at this time,
and should be remediated in a "prompt but well~coordinated manner."


Recommendations

The following recommendations are provided to improve the safety and health of both the staff
and inmates involved with electronics recycling at the Elkton Fe!.

1. Continue to work with the current industrial hygiene consultant to increase the effectiveness of
the LEV system. Improvements in the LEV system will not only reduce worker exposure to
airborne contaminants. but will capture dust that would otherwise contribute to surface
contamination, which could lead to an ingestion hazard (hand-to-mouth) or inhalation hazard if
re-entrained. Conduct an industrial hygiene assessment to determine inmate exposure to lead and
cadmium after the LEV is modified.

2. The change-out room should be reconfigured to ensure that GBO workers do not carry
cadmium or lead out of the glass breaking room. Separate storage should be provided for non­
work unifonns and GBO work apparellPPE. All potentially-contaminated work clothing and PPE
should remain in (he "dirty" chamber of the change-out room; non-work clothing should never
come in contact with work items. As a minimum requirement, workers should be required to
wash hands and all potentially exposed skin after doffing PPE. before putting on uniforms when
exiting the GBO. Work clothes and PPE should never be worn outside of the GBO to minimize
migration of cadmium- and lead-contaminated dust to other parts of the institution. Laundry
persOlmel should be made aware of the potential exposure to lead and cadmium from work
clothes and take action to minimize exposure to themselves.

3. Ensure fun compliance with all applicable OSHA standards, including (he General Industry
Lead standard [29 CFR 1910.1025]. the Cadmium Standard [29 CFR 1910.1027]. the Hazard
Communication Standard [29 CFR 191O.1200], and the Respiratory Protection Standard [29
CFR 1910.134). This includes record keeping requirements, communication requirements,
compliance plans, and medical surveillance. In addition to the OSHA requirements, we
recommend that the preplacement ex.amination for cadmium exposure be identical to the periodic
examinations so that baseline health status may be obtained prior to exposure.

4. Contract a board-certified, residency-trained occupational medicine physician who is familiar
with OSHA regulations on exposures at the FCI to oversee the medical surveillance program.
BOP may be able to find a local physician, or contract with Federal Occupational Health. This
contractor should also oversee medical clearance for respirators.

S. Carefully evaluate the qualifications and expertise of any consultant who may be hired to
assess occupational or enviroIID1ental health and safety issues. Anyone can present himfherself as
an "industrial hygienist," regardless of education, training, or expertise. One useful benchmark
for vetting individuals who provide industrial hygiene services is the designation of Cenified
Page 15

Industrial Hygienist (CIH). Certification by the American Board of Industrial Hygiene (ABIH)
ensures that prospective consultants have met ABIH standards for education, ongoing training,
and experience, and have passed a rigorous ABIH certification examination. The UNICOR
and/or BOP industrial hygienists can assist in the selection of your consultants.

6. Perform a detailed job hazard analysis prior to beginning any new operation or before making
changes to existing operations. This will allow BOP to identify potential hazards prior to
exposing staff or inmates, and to identify appropriate controls and PPE. Involve the BOP and/or
UNICOR industrial hygienists in these job hazard analyses. If medical surveillance is needed
then BOP should perform pre-placement evaluations of exposed staff and inmates.

7. Appoint a union safety and health representative. This individual should be a regular
participant on the joint labor-management safety committee that meets quarterly. Since inmates
do not have a mechanism for representation on this committee, ensure that they are informed of
its proceedings and that they have a way to voice their concerns about and ideas for improving
workplace safety and health.

This interim letter will be included in a final report that will include visits to two other BOP
facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and
inmates. Thank you for your cooperation with this evaluation. If you have any questions, please
do not hesitate to contact us at 513-841-4382.

                                               Sincerely yours,




                                               Elena H. Page, M.D., M.P.H.
                                               Medical Officer




                                               David Sylvain, M.S., C.LH.
                                               Industrial Hygienist
                                               Hazard Evaluations and Technical
                                                Assistance Branch
                                               Division of Surveillance, Hazard
                                                Evaluations and Field Studies

cc:
             Warden, FCI Elkton
            Vice-President, AFGE Local 607
Paul Laird, Assistant Director, UNICOR
 Page 16­


 Tables


          HET A 2008-0055, Federal Bureau of                        Elkton, Elkton,


             Year
                           (lJg/dl)               (lJg/dL)                 (lJg/dL)                sampled

             2003               5.6                 4.5                         3-9                      7



             2005               3.7                 3.9                     2-10                         12

                                                                                1·5




                                                                                                                          2008-0055
 Table 2. 
                                                                                                                of
 Wipe sampling results, March 25, 2008                                                                        Fel Elkton, Elkton, OH 

                                      Approx.
 Sample                               Elevation                          Area
   ID      Location     Surface         (feet)       Description        Wiped                  Cadmium                        Lead
                                                                         em 2         I.:Ig/IN~e   J,!9I1 00 cm~   J,lWwlpe     LJW100 em'
                                                   rowADP4
                                                   above
                                                   workstation
 W·1                  HVAC diffuser     -15        C11S                  200             27              14          110             55
                                                   WoffiSlaUon
 W·2                  desktop            2V2       C116                  100             nd              ..                          .­
                                                   near center 01
                                                   (oom; Row
                                                   ADP4 above
                                                   workstalion
 W.!J        ADP      HVAC diffuser      15        C025                  200             21              11          97              49
                                                   workstalion
I W-4                 desk10p            2'.-1!    C025                  100           trace             ..           A

                                                   southwesl
                                                   comer of ADP;
                                                   RowADPl
                                                   above
                                                   workstation
 W-S                  HVAC diffuser      15        C007                  200             28              14          110             55
                                                   workstation
IW-6                  desktop            2Yz       COO7                  100             nd              ..
Page 17­


                                                                                                                   HETA 2008-0055
Table 2. (Continued)                                                                                      Federal Bureau of Prisons
           r resu 1ts. Marc h 25, 2008
W'Ipe samplnQ                                                                                                FCI Elk ton, Elk lon, OH
                                         Approx.
Sample                                   Elevation                       Area
  to      Location            Surface      (teet}     Description        WIped               Cadmium                        Lead
                                                                          em'       (.JgJwlpe   (.Jg/100 em'     IJglwlpe     IJgl100em'
                                                     ledge along
W-7                     C-beam              8        north wall           100         820           820            970             970
          Factory                                    serves offices
         Mezzanine                                   along nor1h
                                                     wall/rom
                        mixed air                    factory 1001
W-8                     plenum. AH-3        nla      room to ADP          315          70              22          430             140
         AOP                                         ledge along
W-9      Mezzanine      G-beam              8        north wall           100          53              53          55              55
                        return air
                        damper                                             not
W-10     Factory Roof   AHU-5HVl            nla                        determined    1400                          1200

         Mechanical     filter brace ­
         Room·          relum air                                          not
W-11     laundry        5-AH2               nla      serves laundry    determined     4.9                          32
         Mechanical     Mixed air
         Room -         plenum
W-12     laundry        5-AH2               nla      serves laundry       315         2.1          0.67            19              6.0
                        Outside air
         Mechanical     plenum                       serves
W-13     Room           5-AH4               nla      education            270         8.3           3.1            46              17

                        mixed air                    serves visiting
         Mechanical     plenum                       room and
W-14     Room           5-AH5               nla      chapel               100         2.7           2.7             16             16
                        floor, inmate                where shoes
W-16      CIO Unit      cubicle              0       are kept             100         0.14         0.14            nd              -­
          O·A cuba
            S1U
                        combination
                        lock on inmate                                     not
W-16                    locker              1%                         determined      13                          nd
                        floor. inmate                where shoes
W-17      C/O Unit      cubicle             0        are kept             100         0.19         1"\   It"       nd              ..
          O-A cube
             29l        combination
                        lock on inmate                                    not
W-18                    locker              lYl                        determined     0.19                         nd
                        floor, Inmate                where shoes
W-19      C/D Unit      cubicle             0        are kept             100         0.23         0.23            2.2             2.2
          D·S cube
            005         combination
                        lock on inmate                                     not
W-20                    locker              lY2                        determined    0.10                          nd
                        hands, inmale
W-21                    N1                  nla                                        28                          130
                        hands, inmate
W-22                    #2                  nla      hand wipe after                  7.2
                                                     washing hands
                        hands, Inmate                                     not
           Factory                                   at end of
W-23                    113                 nla                        determined    0.23
                                                     workday In
                        hands, inmate                glass breaking
W-24                    114                 nla                                      0.51
                        hands, inmale
W-25                    #5                  nla                                        11
        18 _ _


                                                                                                                        HET A 200B-0055
Table 2. (Continued)                                                                                                   Bureau of Prisons
Wipe    samplin~   results, March 25, 2008                                                                         Fel Elkton, Elkton, OH
                                           ApprOl(.
Sample                                     Elevation                             Area
  10        Location           Surface       (feet)      Description             Wiped              Cadmium                      Lead
                                                                                  em'                                 !.JWWlpe     ~
                                                       hand wipe after
                         hands. Inmate
                                                       washing hands
W-2S                     #5                   nla                                            11                         41
                                                       at end Of
                         hands. Inmate                 workday in                  not
W·26                     116                  n/a      glass breaking          determined    2,2                        31
                         sole 01 right                 worn !nglass                no!
W-27                     shoe. staff          nJa      breaking                determined

                         sole of                       sneaker not
          Factory        sneaker,                      lNomwhile                   n.ol
W-28      (continued)    inmate 114           n/a      working                 determined    4,3                        200
                                                       locker door In                                                             :"';
                                                                                                                                                ,:;;;,;j

                         exterior,                     glass breaking
W-29                     locker it2            6       decon area                 100       trace             _.        ne!
                                                            breaking
W-30                     ben.ch seat          11'2     decon area                 100       0,                                           g,g
                         floor mat             0       ~nlry to glass             100        3.9          3.9           490              490
                                                       U''''''''''''l,j room      100        7.2          7,2          1000              1000

            personal                                                               100                                  3,3              3.3
             vehicle                                                               not
W-4{)        (Jeep)      steering wtleel      n/a                              determined   trace
W-41                     drivers seal         n/a                                 100       Irace             ..        nd                -­
                         console-arm
W-42
            personal
                         res!                 n/a                                 100       0.14          0,14         trace              -­
             vehicle
                                                                                  not
W-43                     steering wheel       rita                             determined   0.098                       2,3
            (Mazda)
                                                       lett side at foot
W-44                     carpet               rita     rest                       100        nd               ..       trace              ..
Page19 _ _

        Table 3.                                         and cadmium

                                                                              Elkton, Elkton, OH

                                                                    Cadmium                      Lead
                                                  Volume          Concentration              Concentration
              Location           (minutes)        (liters)           (pg/ml)                    (pg/mJ ) 

        HEPA discharge 

        area behind glass; 





       "nd" (nol detected) indicates Ihal the            result is below the analytical limit 01 detection. The limns of detection IOf
       cadmium and lead are 0.02 ug/wipe and             ug/wipa, respectively.

       "trace" indicates thai the            result is between the analytical limits of deteclion and quantiiation. The limRs of qUanlilation
       for cadmium and lead are              ug/wipe and 1.9 uglwipe, respectively.

       See the             for a discussion 01 NIOSH recommended exposure limits (REls). OSHA permissible exposure limits
       (PEls).               Th(eshold Limit Values (TL Vs).

       "Ca" indicates Ihal NIOSH               cadmium as a potentia! C>!Xupalional carCinogen and thaI exposures should be reduced
       10 Ihe loweslleasible con.cel'llire




References 



                                                     Department of Health and Human
                                                           Institute for Occupational


NIOSH [2003bj,           ~'~H'~'                        Method 9
  3rd SuppL                                        Department of Health
           Control                               National In."titute for Occupational
(NIOSH) Publ,"''' .. ·.......

NIOSH                       in     wipes by chemica! spot test (colorimetric ..:rn"'F'n
                                                              ln     m
Method 91                NIOSH Manual     Analytic Methods. 4       3 Suppl.
                               Human Services, Centers for Disease             and Prevention,
                           Occupational Safety and Health. DHHS (NIOSH)                  No. 03-1
Page 20

Appendix
Occupational exposure limits and health effects

                             posed by workplace exposures, NIOSH                      use both
                       enforceable) and recommended occupational                        (OELs) for
                       and biological agents as a guide                                   OELs have
        ""VIV"''''' by                   and safety and
occurrence of             health effects from workplace ~".,~~'~.                       suggest levels
            to which most workers may be                  up to ] 0                  hours per week
                lifetime without experiencing adverse health                        not   workers will
                              health effects even if their                           below these




Most           are expressed as a time-weighted average (TWA)
                     during a normal 8- to to-hour workday.
                   have recommended short-term exposure limit                         values where
                 are caused by exposures over a short-period.                     noted, the STEL is a
              TWA             that should not be exceeded at            during a workday, and the
                               that should not be exceeded at

                                    established by Federal                       organizations, state
                                   other entities, Some                             limits, while
                                    The                                                and Health

                               industry]; and 29
enforceable in workplaces covered under the
       menoe:a exposure levels (RELs) are rPI",nrnITl
               technical information available on a
identify and control the hazard. NIOSH RELs can
            Hazards [NIOSH 2005J, NIOSH also ..."',.."''''''' .....     ,rt;:,..",.. r types of risk
                engineering controls, safe work                            educarionJtraining, personal
            equipment. and exposure and medical                       to minimize the risk of exposure
              health effects from these hazards. Other              that are commonly used and cited in
        . include the threshold limit values (TLVs)                         by the American conference of
                Industrial Hygienists (ACGIH), a nroreS:SlOI organization, and the Workplace




2 Code   oj FedeTllI Regulations. See CFR in references.
Page 21

                                                           by the American Industrial Hygiene
                                                   ,......"".... nl'·n

                                                  ACGIH TLVs are considered voluntary
                                             and others trained in this discipline "to assist in the
                                                      have been established for some chemicals
                                                    [AIHA 2007].

        the                                    by various agencies and organizations and include
both legal and                                   the Bemfsgenossenschaftlichen InstilUt fur
Arbeitsschutz                                      Safety and Health) has maintained a database
                                       Union member states, Canada (Quebec), Japan,
                            [http://www.hvbg.de/eib ia!gestisll imit_ valueslindex.h tml J. The
                                          over 1250 hazardous substances and is updated
annually,

                                       not all hazardous chemicals have specific OSHA               and
                             erulon:::eaOlC and recommended limits may not reflect current health­
                                                 is still required by OSHA to protect its
from                                     a specific OSHA PEL. OSHA requires an employer to
furnish                        employment free from recognized hazards that cause or are likely
to cause death or         physical            [Occupational Safety and Health Act of 1970 (Public
               sec. 5(a)(1»]. Thus, NIOSH investigators encourage employers to make use
other        when                assessment and risk management decisions to best protect the
health of their             NIOSH 'Uivestigators also encourage the use of the traditional
                                  to eliminate or minimize identified workplace hazards. This
                                    the use of: (1) substitution or elimination of the hazardous agent.
                                                   ventilation, process enclosure, dilution ventilation),
                                   , limiting time of exposure, employee training, work practice
                                         (4) personal protective equipment (e.g., respiratory
                                                 protection). Control banding, a qualitative .
                                      tool, is a complementary approach to protecting              health
                                        controls by describing how a risk needs to be managed
                                                       . This approach can be applied in situations where
                                                lIsed to supplement the OELs, when available.


Lead




                                        include smelting and refining,
                             construction and demolition (including
                            2001). Occupational exposures also occur
                            paint or among welders who bum or
Page 22

Acute lead poisoning, with blood lead levels (BLLs) usually over 70 micrograms per deciliter of
whole blood ().1g1dL), presents with abdominal pain, hemolytic anemia, neuropathy, and has in
very rare cases progressed to encephalopathy and coma [Moline and Landrigan 2005J.
Symptoms of chronic lead poisoning include headache, joint and muscle aches, weakness,
fatigue, irritability, depression, constipation, anorexia, and abdominal discomfon [Moline and
Landrigan 2005). Overt symptoms usually do not develop until the BLL reaches 30-40 IJ.gldL
[Moline and Landrigan 2005 J. Overexposure to Lead may also result in damage to the kidneys,
anemia, high blood pressure, impotence, and infertility and reduced sex drive in both sexes.
Studies have shown subclinical effects on heme synthesis, renal function. and cognition at BLLs
<10 IJ.gldL [ATSDR 20071. Inorganic lead is reasonably anticipated to cause cancer in humans
[ATSDR 2007].

r.n most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life
(the time interval it takes for the quantity in the body to be reduced by half its initial value) of 1­
2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005;], The majority of
lead in the body is stored in the bones, with a half~life of years to decades. Bone lead can be
measured using x-ray techniques, but these are primarily research based and are not widely
available. Elevated zinc protoporphyrin (ZPP) levels have also been used as an indicator of
chronic lead intoxication, however, other factors, such as iron deficiency, can cause an elevated
ZPP level. so the BLL is a more specific test for evaluating occupational lead exposure.

In 2000, NIOSH established an REL for inorganic lead of 50 micrograms per cubic meter of air
(llg/m3) as an 8-hour TW A. This REL is consistent with the OSHA PEL. which is intended to
maintain worker BLLs below 40 IJ.gldl; medical removal is required when an employee has a
BLL of 60 llg/dL, or the average of the last 3 tests at 50 IJ. g/dL or higher [29 CFR 1910.1025; 29
CFR 1962.62]. NIOSH has conducted a literature review of the health effects data on inorganic
lead exposure and finds evidence that some of the adverse effects on the adult reproductive,
cardiovascular, and hematologic systems, and on the development of children of exposed
workers can occur at BLLs as low as 10 )Jgldl [Sussell 1998]. At BLLs below 40 l1g1dl, many of
the health effects would not necessarily be evident by routine physical examinations but
represent early stages in the development of lead toxicity. In recognition of this, voluntary
standards and public health goals have established lower exposure limits to protect workers and
                                                               3
their children. The ACGJH TLV for lead in air is 50 jlg/m as an 8-hour TWA, with worker
BLLs to be controlled to S 30 IJ.gldL A national health goal is to eliminate all occupational
exposures that result in BLLs >25 )Jgldl [DHHS 2000). The Third National Repon on Human
Exposure to Environmental Chemicals (TNRHEEC) found the geometric mean blood lead
among non-institutionalized, civilian males in 2001-2002 was 1.78 ).1g1dL [National Center for
Environmental Health 2005].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration of lead at or above the action level, which is 30 IJ.glm 3 as an 8~hour TWA for more
than 30 days per year [29 CFR 191O.1025J. Blood lead and ZPP levels must be done at least
every 6 months, and more frequently for employees whose blood leads exceed certain levels. In
     23..­
          a medical examination must be done prior to assignment to  area,
detailed history, blood         measurement, blood lead, ZPP. hemoglobin                                      red
             and            smear, blood urea nitrogen (BUN),          and a
Additional           exams     biological monitoring depend upon the
example. if                exceeds a certain level.


Cadmium

                        has many industrial uses, such as in batteries.
                                     television phosphors [ACOrn 20011.
                                  grinding, or scraping cadmium-metal
                           2001].                       to cadmium fume may occur
                        """...,,""'"' to high temperatures, such as during
                                         solder and welding rods are also sources
                                        may be absorbed via ingestion; non-occupational sources
                                 IT"''''''''H!'' smoke and dietary intake [ACOIH 2001].
                                              mild irritation of the upper respiratory tract, a seIllSatl0n
                               """,....,,""" taste andior cough. Short-term exposure
                                                            chills, shortness of breath,
                                           ......."', . .F,, 


                                     ",,-n.I"" of ingestion may include nausea, vomiting,

                                             1]. Long-telID exposure effects of cadmium may
                                       of the nose, emphysema, kidney damage, mild
                                                    possibly of the prostate [ATSDR 1999].

     OSHA PEL              1910.1      for cadmium is 5 Ilglm3 TWA [CFR 1993].
has a      for total cadmium of 10 Ilglm3 (8-hour TWA), with worker cadmium blood
be controlled at or below 5       and urine level to be below 5 /lglg creatinine, and
of cadmium as a suspected animal carcinogen [ACOIH 20071. NIOSH recommends
cadmium                           occupational carcinogen and that exposures be
lowest feasible               [NIOSH 1984].

Blood cadmium                         exposure is ongoing reflect fairly recent           (in
past few months).             is biphasic, with rapid elimination (half-life approximately 100
days) in the first     but much         elimination in the second phase
years) [Lauwerys and       2001;            2005 J. Urinary cadmium
body                                       of 1           [Lauwerys

                                                         who is or may             to an
                                                                           3
                                                         which is 2.5 /lglm as an 8-hour
                                                  . A preplacement examination must
                                                     monitoring for urine cadmium (CdU)
                       -2-M), both standardized to grams of creatinine (gler), and
                               to liters of whole blood (lwb). OSHA defines acceptable
                       a<; < 3            and B-2-M as < 300 J-1g1g1Cr. NHANES III found
                       0.4 ~       among men in 1999-2000. The geometric mean CdU        men
                                           can have CdB levels double that of nonsmokers
Page 24

[Lauwerys and Hoet 2001]. Periodic surveillance is also required one year after the initial exam
and at least biennially after that Periodic surveillance shall include the biological monitoring,
history and physical examination, a chest x-ray (frequency to be determined by the physician
after the initial x-ray), pulmonary function tests, blood tests for BUN, complete blood count
(CBC), and Cr, and a urinalysis. Men over 40 years of age require a prostate examination as
well. The frequency of periodic surveillance is deteffilined by the results of biological monitoring
and medical examinations. Biological monitoring is required annually, either as part of the
periodic surveillance or on its own. We recommend that the preplacement examination be
identical to the periodic examinations so that baseline health status may be obtained prior to
exposure. Termination of employment examinations, identical to the periodic examinations, are
also required. The employer is required to provide the employee with a copy of the physician's
written opinion from these exams and a copy of biological monitoring results within 2 weeks of
receipt.

Biological monitoring is also required for all employees who may have been exposed at or above
the action level unless the employer can demonstrate that the exposure totaled Jess than 60
months. In this case it must also be conducted one year after the initial testing. The need for
further monitoring for previously exposed employees is then detennined by the results of the
biological monitoring.


Zinc

Zinc is a very common element in the earth·s cmst, and is found in air, soil, water, and foods. It
has many industrial uses. For example, metallic zinc is used to galvanize other metals. and zinc
compounds are used in paints, ceramics, rubber products, and in many drug products, like
ointments, sunscreen, vitamins. and shampoos. Zinc is an essential element. which means it is
required for the body to function properly. Zinc is not well absorbed through the skin, but is
absorbed through the gastrointestinal system. lnhalational exposure to high levels of zinc ox.ide
fume (generally above 75 mg/m 3) can cause metal fume fever. [ATSDR 2005]. Metal fume fever
is a syndrome of cough, shortness of breath, fever, aches, chills, and a high white blood cell
count that occurs within hours of exposure, and can last up to 4 days. Normal serum or plasma
zinc levels are about 1 mglmL lATSDR 20051. The OSHA PEL and the NIOSH REL for zinc
oxide are 5 mg/m 3 . This is 100 times higher than the PEL for lead, and reflects the relatively low
toxicity of zinc. There is no mandated medical surveillance for workers exposed to zinc.

References
ACGIH [2001]. 2001 Documentation of the threshold limit values and biological exposure
indices. Cincinnati, OH: American Conference of Governmental Industrial
Hygienists.

ACGIH [2007].2007 TLVs® and BEIs®: threshold limit values for chemical substances and
physical agents and biological exposure indices. Cincinnati, OH: American Conference of
Governmental Industrial Hygienists.
Page 25­

AIHA [2007]. 2007 Emergency response planning guidelines (ERPG) & workplace
environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene
Association.

ATSDR [1999]. Toxicological profile for Cadmium. Atlanta, GA: U.S. Department of Health
and Human Services. Public Health Service.

ATSDR [20051. Toxicological profile for Zinc. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

ATSDR [2007]. Toxicological profile for Lead. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office
of the Federal Register.

CFR [29 CFR 1910.1027 (1993)]. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR. OSHA lead standard for general industry. 29 CFR, Part 1910.1025. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR. OSHA construction industry lead standard. 29 CFR, Part 29 CFR 1926.62. Washington,
DC: U.S. Government Printing Office, Office of the Federal Register.

DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2M ed
Washington, DC: U.S. Department of Health and Human Services. Available on the
internet at: www.health. go v/hca It hypeop! eJDocu men tIde faul t. hIm

Franzblau A {2005). Cadmium. Chapter 39.4. In: Textbook of clinical occupational and
                                                                                     nd
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds .. 2 ed.
Philadelphia, PA: Elsevier Saunders, pp. 955-958.

Lange JH, [20011. A Suggested Lead Surface Concentration Standard for Final Clearance of
Floors in Commercial and Industrial Buildings; Indoor Buitt Environment 10:48-51.

Lauwerys RR, Hoet P [2001], Chapter 2. Biological monitoring of exposure to inorganic and
organometallic substances. In: Industrial chemical exposure: guidelines for biological
monitoring. 3rd ed. Boca Raton. FL: CRC Press, LLC pp. 21-180.

Moline JM, Landrigan Pl. [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and
                                                                                        nd
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2 ed.
Philadelphia, PA: Elsevier Saunders, pp. 967-979.

NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,
GA: U.S. Department of Health and Human Services. Public Health Service, Centers for Disease
Control and Prevention. NCEH Publication number 05-0570.
Page 26­

NIOSH {1978]. Occupational exposure to inorganic lead. Cincinnati. OH: U.S.
Department of Health. Education. and Welfare. Public Health Service Center for Disease
Control and Prevention, National Institute for Occupational Safety and Health, DHEW
(NIOSH) Publication No. 78-158.

NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati. OH: U.S. Department
of Health and Human Services, Public Health Service, Centers for Disease Control. National
Institute for Occupational Safety and Health, DHHS (NIOSH)IDOL (OSHA) Publication NO.84­
116.

NIOSH {200S]. NIOSH pocket guide to chemical hazards. Cincinnati. OH: U.S. Department of
Health and Human Services, Centers for Disease Control and Prevention, National Institute for
Occupational Safety and Health. DHHS (NIOSH) Publication No. 2005-149.
[hnp:llwww.cdc.gov/nioshlnpgll. Date accessed: March 2008.

Thun JM, Binder C, Friberg L \ 1991 J. Scientific basis for an occupational standard for
cadmium. American Journal of Industrial Medicine 20:629-642.

62 Fed. Reg. 206 [1997]. National Institute for Occupational Safety and Health;
occupational exposure to inorganic lead: request for comments and infonnation.
Page27 _ _


bec:

B. Bernard (electronic copy)
N. Burton (electronic copy
E. Page (electronic copy)
O. Sylvain (electronic copy)
J. Riley (electronic copy) 

HETAB file room, RETA 2008-0055 (paper copy) 

ATTACHMENT 4 

                                                                '05--""'- -'
                                                                                   Occupational
                                                                                   Safety and Health
                                                                                   Administratiorl




----------,----------------------~~.--
u.s.   De/pcu1ment of Labor
                                                                 ----,-----------------­

February 27, 2006



Fcr Elkton Prison
P. O. Box 89
Elkton, OR 44415

RE:309307023

Dear
                                           .                       ,


On August 24;, 2005, the OccupatioI1al§~f~ty~~~e,a,lt~AdtninistI'ation (OSHA) conducted an
onsite inspection at your worksite. yom'rei;p'9:p.~et9'citations issued has been received in the
Cleveland Area Office.

Based on our review of the informati{)IlPf9V~a,~4~1~?Ur·respiOnSeV~e have determined that our
file on this matter can be closed and no further . actic)J:1otl·tllisinspection is anticipated at this
time.

Please note, however, that the complain~tyvi1TaIsO'b'~ ' ~~e~'~eoppOItunity to review the
infonnation provided in your respons:.Jft~,~:Qon:tP.!~n~tdi~:e~t7s'theaccuracy of the response,
it may be necessary for OSHA toc?nta:.ti;you~or aq~i~i?!l~li~tQrIllatioI1 or documentation of
correcti ve action in order to res91vethese' i~~~e~.• ~I.ll:~some· situatioris,it may be necessary to
conduct a follow-up inspection of YOUfworkp~ace.

We appreciate your prompt response tdtl).es~citeditellls ~.ndjnyour interest in safety and health
of the workers. Please feel free to conta(~t 'ihisoffl.c:e if weca.!l beaf additional assistance to you.

Sincerely,




1240 East Ninth Street, Room 899                                                  216-615-4266    . 120334
Cleveland,Ohuo 44199                                                              216-615-4234 (lFAX)
                                                                                               O.cc:up&tionaJ,
                                                                                               s.aferv ent! H.... lth
                                                                                               Adminitlluation

                                                                                     www.OSha.gov


      U.S. Department of Labor                                                                OSHA


                OSHA SAMPLING
                   UNICOR
                    FEDERAL-      ..
               OStIA INSPECTION #30930.7023;

 WORK     TIME  SUBSTANCE
POSITION
       --~-----+----------+-----~----~~---r~
               249            Lead
 breaker

                           Cadmium                                   0.01                                               -AL
                                                                                                                        PEL

                              Lead                                  0.004          0.03
                                                                                   0.05

                           Cadmium                                 0,0018         0:0025
                                                                                   0.005

               248            Lead                                 0.0089          0.03                       NO        AL
                                                                                   0.05                       NO
                            Cadmium                                                                           NO AL
                                                                                                              NO­


WORK POSITIION       - worker and where the. worKer was located during sampling
TIME                 - total time sampted, in'rrtinutes
SUBSTANCE            - materials sampled
SAMPLES              - detected levels (mgIM3)      and
                                                    duration of
TWA                  - time weighted average;                   ,time) + ... VIl," ....JJ'U
                     diviqed by 8 hrs. or 480 min'utes[(ct) + (ct) + _,.1480
                     1910.1000; in mgIM3.         ­
ALfPEL               - Action Level CAL)
                     (lead, mgIM3) and 29                                       mgIM3)
OVEREXPOSURE? - Was worker overexposed to:the Action Lhel or




      1240 East Ninth Street, Room 899                                                        216-522-381 8
      Cleveland, Ohio 44199                                                                   216·771-6148
                                                                                            -
                                                                                           DEC 202005
                                                                                       . Elktoll, tiblo
                                               615-4234                              WARDEN'S OFFJCE




To: 

Fer Elkton 

P. O. Box 89
Elkton, OH 44415


Inspection Site:
8730               Road
Elkton.OH 44415


This Notice         Unsafe or                                 ~QnG~YQI1S (l';Jotice) (I.e.scribes violalions of the Occupational
and Health Act of 1970.                                                    .29           1960. Basic Program                for
Employee Occupational                                                                          You must abate the violations 1"1"1;''',.,....,
to in this Notice by the                                                                        weekends and Federal
your receipt of this Notice you .".",........,.
at the address shown
                                                                       .              .
Posting ~ The law                                              Notice'be'po:s,tedilTlfl!ediately in a prominent    at or near the
location of the violalion(s)                              or, jf it if opt" practicable because of the nature of the employer's
operations, where if will be readily           by . ,affec~ed e,inployees. This Notice must
the violation(s) cited herein bas (have) been abated,                 or
                                                         fO'r :3 'warRing days (exclllding weekends and
holidays), whichever is longer.

                                                                    ,viol~tion      whicti'you do not contest, you are required by
                                                                                , Dl~eciQr, of the OSHA office issuing Ihe citation
                                                                                   w.iibi.n·lO caJendar days of the abatement dale
indicated on the citation. 
                                                      qOCumtmts".(examples: photos, copies of receiprs,
training records. etc.) aernoI1lStr;!ml] 
                                 COlnplete' must' accompany the certification.           .the
ciration is classified as 
                                                  ~baterr!~nt documentation is             documents such
as those described above are 
                                                         abatement certificate. If the          indicates
                                                                                                                  for that item.




Notice of Unsafe   Of   Unh€:31thful Working                               I of 6                                       OSHA·2H(Rev. 9/93)
                                                                                                                               120338
All abatement verification documents must           contam the following information: 1) Your name and address; 2)
the inspection number (found on the front                 '3) the citation and citation item number(s) co which the
submission relates; 4) a statement thaI the                                the: signature of the employer or employer's
authorized representative; 6) the date the                                  a brief statement of how the hazard was
corrected; and 8) a statement that                                        repi:esentatives have been informed of the
abatement.

The Jaw also requires a copy of all abatement verificatjoJl (jocum!=nts, required by 29 CFR 1903.19 [0 be sent to
OSHA. also be posted at the location wh~re·the vio)ationappearea              corrective action took place.

Employer Discrimination Unlayvfw­
                                     scrlmlnal,'10n by any person against an employee
for filing a complaint or for exercising                                   ernlnl(wee·who believes that he/she has been 

discriminaced against may file a complaint                                             Area Office at the address shown 

above. 


Informal Conference - An informal                             req~ired, However;, if you wish to have such a 

conference you may request one with the                          15           days after receipt of this Notice. As 

soon as the time, dale, and place of the,                           bee!l.determined please complete the enclosed 

"Notice to Employees~ and post it                                   Duiingsuch an informal conference you may 

presem any evidence or views which you'                           an adjListmenl co the Notice. Tn addition, bring 

to the conference any and all supporting documentatiOllof existing cOnditions as well as an'y abatement steps raken 

thus far.

Inspection Activity Data - You         should be aware that               p.ublishes informJ1.tion on its inspection and
cilialion activity on the Internet under the provisioQS     the                   Freedom of Information Act. The
information related to your inspection will be' availabI~                    ~fter the Citation Issuance Date. You are
encouranged [0 review      the
                            information coneemmgy.our                        at WWW.OSHA.GOV. If you have any
dispute with the accuracy of the information displayed,




NOlice of Unsafe or Unhealthful Workmg Conditions        Page 2 of 6                                 DSHA-1H (Rev , 9193)
                                                                                                            120339
U.S. Department of Labor
Occupational Safety and Heahh




An informal conference bas                                      with the Occupational Safety


Administration (OSHA) to discusspnsafe or Unhealthful Working Conditions

(Notice) issued on 12/0712005.                                   will be held at the OSHA office located at

                 OFFICE BUILDING RM,899,                 Q40           9TH STREET, CLEVELAND,

44199-2050        OD
                       ------------ at ------------
                                                                 ,
                have a right 10 attend an informal oonf(;rerice.




Notice of Uns.a(e ()r Unhealthful Working CDndi(ions   Page 3 of 6                           OSHA·2H(Rev, 9/93)
                                                                                                   120340
                                                                                                                                                   -


U.S. Department of Labor                                                                                       309307023
Occupational Safety and Health Admlnistration                                                                        11129/2005
                                                                                                            1210712005



Company Name:                 FCI Elkwn Prison
               Site:          8730 Scroggs Road, Elkton,



                               Type of Violatiol1:

29 CFR 1910.            The employer did not                                   "'.......... ,""-   i~, "VT'I'\<"~n
cadmium in excess of five micrograms' per                                                          'as                                  average
exposure:

A breaker operator in the rube brealdng area was ex:r:,osc:a                                                          the              exposure
limit      of 0.005 milligrams per cubic meter                                                           p~r                (ug/M3); the breaker
was exposeti      249 minutes to an B-hour                                                          '(TWA) of 0.01               or      ug/M3,
approximately 14 times the PEL. Zero exposure is                                       time not sampled.


          Abatement documentation required'on




See pages I l.Iuough 3 of (his Notice ror infonnatiol1 on employer and employee figJus and resp,onslll)lhllies,

NOtice of Uns:afe   01   Unhealthful Working Conditions            Page -4 of 6                                               OSHA·2H (Rev.
                                                                                                                                     120341
                                           Administration




                                  Elkton Prison
                            8730                       Elkton,    OH 44415


                             Type of Violation:         Serious
29          1910.I027(f)(1)(i): The employer did not implement eng¢eering and work                                                     controls to reduce
and maintain                    exposure    to   cadmium at or below the

      the breaker operator in !he tube breaking area discuss~ 'in citation I. item 1

                     methods ofcontrol applicable in these ClfICUlI1S1MH::.es include, ==-=:..:;;..;;=.;;;.==""'-'= the following:

          1)                   existing exhaust system              ITl"."nIl"'"   .[0   ensure the most                                           for LIle
                    that would assist in reducing                                         below the

                          the existing work practices and/or aarrunistraLive ((onuols to ensure       placement of the
                  thal would reduce airborne particulates reaChing the            zone of the worker.


                                                                                                used by       eXJ:lost~a
                                                                                                             controls
                                                                                                                 ITEM                           DURlNG



                                          the Area Director a w.ritten plan of aOlUelneltlt                                                       for the
                                   en~~llli~ermg  andior a~minis(riltive measu~es to control
          substances            IPI'f·n....... in   c]tatlon.plan sball' ·include, at a                              mllr1trl'lUnrl,
          following               which must be consistent with the abatement dates

          I) Reevaluation of the current engineering/administrative control options;

          2)                of optimum concrol methods for't!1is               sys~rn      and completion of

          3) Procurement, installation, and operation of selected improvement measures; and

          4)              and acceptance or mod ifica (ion/redeSign of cOntrols.

          NOTE: All proposed control measures shan be ajlprovedJor each particular use
                       or other lechnically qualified                      Al.:)ateme'~t must be completed




See pages I lh!()ugh 3 of IhlS NCllice for infol'"li1.3lion on employer and employee righlS and   rr>~!\l\n'"hil 



NOlice of Unsafe or Un/leallhful Working Conditions                 Page 5 of 6                                                        OSHA·HI (Rev. 

U.S. Department. of Labor                                                      l[llS~ti(m~: Numb~r: ' ~09307023
Occupational Safety and Health Administration                                  J[liSp'~tionh~tes: Q8/24/2005 -11/29/2005
                                                                              )§suanceDate;        12/0712005

Notice of. Unsafe or Unhealthful
                              .. .
                                  Worldng .:L:'onditidns:
                                           ""       .....
                                                          ,:>·
                                                            .       :.,:,'   "':.'   ,.: ",,:,,:




Company Name:             Fe! Elkton PriSon 

Inspection Site:          8730 Scroggs Road~         Eikton, iOfl:4MT5 . 


          Step 3: Abatement shalll)f,ive peeh ·'~6,mPJgt~,d;, '~Y:)h'~\ ~mp.1erheritation of feasjble engineering andlor
          administrative controls"upon- verifibatiort "6fiiheir'eff~¢tfy~iiess )'ri :achieving "compliance. Abatement must
          be completed by February 8; 2006




                            "                                                          ""




See pages 1 through J of this Notice for infonnation on empi(lyer andemployee": rlghts and responsibilities.

Notice of Unsafe or Unhealthful Working Conditions                Page 6"of 6                                       OSHA-2H (Rev. 9/93)
                                                                                                                           120343
ATTACHMENT 5 

                    4/23/08 





                                     REPORT




       Charmagne Ackerman, US
        Duncan Campbell) USEPA
IVlark Moloney, USEPA Region 5 - RMD Cleveland Office
  Cher Salley, USEPA Region 5 - Riv1D Cleveland Office




  U.S. ENVIRONMENTAL PROTECTION AGENCY 

TABLE OF CONTENTS 



                                                                                                                              Page 

EXECUTIVE SUMMARY ............ ............ ............ ............ ............ ............ ............ ..................... 1 


INTRODUCTION........................... ............ ............ ............ ............ ............ ............ ............ ......... 2 

     Objective ................................ ............ ............ ............ ............ ............ ............ ............ ........ 2 

     Investigation Methods ......................................................................................................... 2 

     Background ........................... ........................ ......................... ........................ ...................... 2 


SUMMARY OF FINDINGS ...................................................................... ... ......... ... ......... ... ........ 7 


           Clean Water Act - National Pollutant Elimination System .............. ............ ............ ........... 7 


           Clean Air Act ................................................................................................ ....................... 8 


           Resource Conservation and Recovery Act - Hazardous Waste 

                 Management. ......................................................................... ............ ............ ........... 9 


           General Comments ............................................................................................................. 10 





                                                          LIST OF FIGURES

Figure 1               Site Diagram for the UNICOR Recycling Factory ............................ ............ ... ...... .4 

Figure 2               Site Diagram for the Warehouse Building ........................................ ... ......... ... ........ 5 

Figure 3               Site Diagram for the Federal Satellite Low (FSL) Bui1ding ............. ............. ... ....... 6 


                                                                 APPENDIX

         1.     Multimedia Inspection Photographs

TECHNICAL REPORTS

Clean Air Act Report .................................... ... ......... ... ......... ... ......... ... ......... ... ......... ... ............ Tab 1 

Multimedia Inspection Sampling Report ....... ............ ............ ............ ............ ........... .............. Tab 2 





                                                                    11 

EXECUTIVE SUMMARY 

                                         INTRODUCTION

         At the request ofthe USEPA, Region 5, Enforcement Compliance Assistance Team, the
  Cleveland Office coordinated a multimedia compliance investigation at the Electronic Recycling
  Facilities located at the Elkton Federal Correctional Institution. The facility is located at 8730
  Scroggs Road in Elkton, Ohio 44415. The multimedia inspection was conducted on December
  10 through the 13,2007. The inspection was performed by USEPA Region 5 personnel from the
  Cleveland Office, Air and Radiation Division, and the Land and Chemicals Division. The
  inspection was coordinated with a Federal Occupational Health Service (FOH) and National
  Institute for Occupational Safety and Health (NIOSH) personnel conducting a health and safety
  investigation ofthe site.

        The Federal Correction Institution (FCI) in Elkton, Ohio is a low security facility housing
  male offenders. The site has an adj acent satellite low facility that houses low and minimum
  security male offenders. Federal Prison Industries (commonly referred to as FPI or by its trade
  name UNICOR) is a wholly-owned, Government Corporation established by Congress on June
  23, 1934. Its mission is to employ and provide job skills training to the greatest practicable
  number of inmates confined within the Federal Bureau of Prisons (BOP). UNICOR currently
  operates an electronics recycling process at the FCI Elkton facility.

  Objective

         The specific objective of the investigation was to determine compliance with:

       • 	 Air Pollution Control regulations unde r t he C lean A ir A ct (CAA) and t he Federally
           approved portions of Ohio ' s State Implementation Plan

       • 	 NPDES Permit requirements under the Clean Water Act

       • 	 Hazardous waste management regulations unde r t he Resource Conservation a nd
           Recovery Act (RCRA) and Rules adopted under the S tate of Ohio's hazardous waste
           program

  Investigation Methods

  The multimedia inspection ofthe electronic recycling facilities at FCI Elkton included:

  •	   Discussion of plant operations with facility representatives
  •	   On-site examination ofthe facility's operations
  •	   Reviewing and obtaining copies of selected facility documents/records
  •	   and sample collection of solid waste, water/wastewater samples

Background

          The electronics recycling operations at FCI-Elkton are currently contained in three
  buildings at the site. These include the UNICOR Recycling Factory, the Warehouse building and
  the Federal Satellite Low (FSL) building. Recycling operations begin with receiving, testing and
  auditing obsolete electronics. The equipment is assessed to determine if it can be used for its
  original purpose by reconditioning. If reconditioning is not possible, the equipment is de­
                                                   2
manufactured for recycling. Non-functional equipment is mined for functional components such
as memory, wire, circuit boards, mice and Ethernet cards during this process. All nonfunctional
equipment is then separated into its residual material type (ferrous or nonferrous metals) and
recycled through recycling processors. The glass breaking booth is utilized to separate the panel
and funnel types of glass found in both televisions and cathode ray tubes (CRTs) of
nonfunctional equipment so that it can be recycled. After the separation process, these two
different types of glass are sent to processors to be recycled.

The total amount of obsolete electronics recycled by the UNrCOR operations at Elkton was: 

FY05: 6,799,295 pounds 

FY06: 5,997,934 pounds 

FY07: 4,454,018 pounds (YTD reported 9/21107) 


CRT glass processed within the glass breaking booth by UNrCOR Elkton was: 

FY05: 835,211 pounds 

FY06: 701,086 pounds 

FY07: 827,015 pounds (YTD reported 9/21107) 


Based upon the response to a July 27,2007 USEPA Region 5 Air Division information request
and the observations by U.S. EPA inspectors during the December 10-13,2007, multimedia
inspection, the electronic recycling facility at FCr Elkton currently has one active air emission
unit. This is a glass breaking booth that is equipped with a three stage air filtration system. The
first stage is a blanket filter that covers the entire height and width ofthe filtration system. The
second stage is a bank of 36 pocket filters. The third stage is a high efficiency particulate air
(HEP A) filtration system with a fan unit. Two exhaust fans draw air from the glass breaking
booth and subsequently vent outside the building. The glass breaking booth and air filtration
system were installed in 2003. Air pollutants of concern during glass breaking operations would
include lead and cadmium.

The FCr-Elkton electronic recycling facility also reportedly had two air emission sources which
are no longer in service. A paint booth was installed in the FSL building in September 2005.
This unit was designed to perform touch-up painting on CRT monitors that had been
reconditioned prior to packaging for resale. UNrCOR ceased utilizing this paint booth in May
2006. A circuit chip recycling operation, which utilized small fans and hoods in a de-soldering
chip pulling process, was installed in November 2005. Fans and hoods were connected to a
separate ventilation system. This system was dismantled in August 2006. The duct work is still
in place but is not operational. This process was conducted in the FSL building.

No air emission permits have been issued by Ohio EPA for past or current electronic~ng
  0cesses at the FCr-Elkton facility. A copy of  a.005            e-mail, provided b y _

I!      ofthe Department ofJustice
  ecyc ing at FCr-Elkton, did c o n t a c _ at
                                                tha
                                                      10
                                                              , UNrCOR's Factory Manager of
                                                             s Northeast District Office
regarding the installation ofthe pain~the FSL building and, according to the e-mail, was
told that it would fall under the "de minimis" air contaminant exemption (OAC 3745-15-05).

The FCr-Elkton facility is a Conditionally Exempt Small Quantity Generator (CESQG). The
RCRA ID for the FCr Elkton Site is OHROOOI03416. Expected waste streams for the glass
processing operations would include: air pollution control filters, glass breaking clean-up wastes
and worker PPE.



                                                 3
Figures 1, 2 and 3 are site diagrams for the UNICOR Recycling Factory, the Warehouse building
and the Federal Satellite Low (FSL) building.

FIGURE 1 




                                          MINTEN ...'IC( ,
                                          HATEA1/ll STQIIAG(

                                                      I       I


             A~1JI'11N1UM   PROCESSING
                                         []      tIPPER
                                         []      PI!OCCSSING             i


                                         ~
                                                                         !

                                              C/..A$S TUBE; STORAGE;




                                                          MT£R1A~
                                                          RE;C(lPT ,
                                                          lNSPrC liON




             rCI ELKTDN RECYCLING rACTDRY
                   ,
                                •




                                                                    4

FIGURE2
                                                                                                                 ,




        '--­
                                                                      I
                                                                      I
                                                                              [buy
                                                                                                           I

           Ho,,.;-l                      Ho,,-cl C'-,"e
                                         Me-die. R('MQvo.l
                                                                      I
           Drive
           \.tipe
           Coge               I                                                                      .•,
                                                                                                     a


       1---.1                                                         I       loptop
                                                                              T!;'st""9
                                                                                                  o.
                                                                                                  ••
                                                                                                  U"


       1- - - -                             -            -- - -   ~ -
                                                                              Printer   ~stin~l
                                                                                                L-a        Iii




           •rn
           0
           c
           0
           •
           ~                                                                         .
          Tool
                                                                                                 Roo ...
           •
           rn
                                                                  Sor t ing
           "3,0                                                   Areo
                                                                                                           ~




           •
           ~                                                                                    '\ 

                                                    I
                                                     I
                                                                  t                  Clerk
                                                                                                '\
                                                                                     AreQ
                                                                                                '\

                                                   •              I               ~
         Oego.,",55;"9 Gr inding




                                                              n                 n~
  --
   !""o~
               - -
           ... o ~ ~ flo .
                                   --7                                                         ~ 

   G.J'~ Io'o~"


  - - -In ......
            -
                  -
                      flo .         •
                                    -
                                                          Fer ELKTON
   e~gU/fC~~nd                0.

                                                          wox'ehouse
                                                                                      Not dr a wn to Scale




                                                                          5

:3


                                                                rN       ,
                        Ton.....
                        Rl'novo.l
                                         I
                                         I
      0
      ,•
      <
      •0
       •,                                       ,•,
      ,0
      0                                  I ­ .0
                                                                              '\
      ,•,                                I.Q,
                                           .: '5
                                             > 0
                                                                              jo
      •,                                        0

                                                                             U­
      "
                                         ill :¥2:

                                         I                                   fl- O
                                                                               ..J
                                         I;
                                             .
                                         I ~; .,cr>
                                                           •0
                                                           .'-  . 5f
                                                            ',­ ,
                                     .       0_            -"
                                         1 E5              ~, ..§                                .
     1-- .../                  \--           O~
                                                            ,
                                                           .,o ,
                                                                0            I ,.J

                           1 I                             o."'
                                                            ' 0               ;J

             0
                            L_I
         o'
         '   '                 I
                            t I
         0<




      ..
         ~~
         _ 0
         0,
         00                                           I
      ~~



                                         1            I         I        I        :J
                                I
                                I                     ,
                                                      I
                                                                '0," ,




         FSL ELKTON
     -                 -
         Inc;Of'IIng ,",o,.\< FlOw
                                     -3>                                               !@
                           -             ~
      o... t goOog "'ot'l< fle w

     -           - -In -
      C"~d/, ~nc;~d    Mu
                          -
                                                          No t dro.wn to Sco. le

                                                                                            0,




                                                                    6

   In February and March 2007 the FOR and NIOSR conducted a health and safety investigation of
   the electronic processing operations at the FCI-Elkton site. Wipe samples, bulk samples and
   filtered air samples were collected and analyzed. Elevated levels oflead and cadmium were
   found near areas where glass breaking operations and de-soldering chip pulling operations were
   preformed.

SUMMARY OF FINDINGS

The significant findings ofthis multimedia inspection are summarized as follows.

CLEAN WATER ACT

The CWA inspection consisted of a review of wastewater streams generated at the electronic
processing facilities located at FCI-Elkton. The multimedia inspection revealed the following
wastewater discharges from UNICOR operations: maintenance/cleanup wastewaters, generated
during CRT glass breaking operations; sanitary wastewater generated and discharged from the three
buildings, where recycling operations are conducted; and storm water runoff from the area around
the maintenance building where recycled e-waste was being stored outside.

   • 	 UNICOR operations at FCI-Elkton generate and discharge process wastewater from the e­
       waste glass breaking operation. These wastewaters are generated during routine mopping of
       the floor and equipment surfaces inside the glass breaking booth. The cleaning is performed
       routinely in order to reduce dust levels inside the booth. Dusts inside the booth are known to
       contain concentrations oflead and cadmium. The wastewater is dumped into a sink located
       inside the glass breaking booth at the factory building. This sink reportedly drains to the
       sanitary sewer serving the FCI Elkton facility.

       U.S. EPA personnel collected samples of the mop wastewater being discharged from the
       glass breaking booth to the sink on December 12 and 13,2007. In order to characterize this
       discharge, the wastewater was analyzed for both total metals and TCLP metals. The samples
       taken on December lih were collected while UNICOR was performing a typical weekly
       cleanup and the samples taken on December 13 th were collected while UNICOR was
       performing the monthly glass booth filter change and cleanup operation. Photograph 53
       shows the sink in the glass breaking booth, where mop water is disposed.

       Preliminary sample results indicate that the wastewater samples contain high concentrations
       oftotallead, total cadmium and total zinc. Total lead concentrations ranged from 14.0 to
       33.1 mg/l. Total cadmium concentrations ranged from 1.30 to 2.43 mg/l. Total zinc
       concentrations ranged from 17.7 to 40.3 mg/l. Preliminary sample results for TCLP metals
       indicate that concentrations of lead and cadmium are below detection levels and all metals
       are below RCRA regulatory levels.

   • 	 UNICOR operations at FCI Elkton involve the recycling of electronic waste (e.g. computers,
       printers, etc.) and the dismantling and breaking of CRTs. During this inspection USEP A
       personnel observed the storage of some e-waste materials outside near the warehouse
       building. UNICOR's operations appear to fall under SIC Code 5093 and thus is a storm
       water discharge associated with industrial activity [40 CFR § 122.26 (14) (vi)]. The storm
       water generated in this area may require UNICOR or FCI Elkton to apply to Ohio EPA for a
       NPDES permit or a "no exposure permit exemption". Neither FCI Elkton nor UNICOR has
                                                    7
       applied for or been issued a NPDES permit from the Ohio EPA for storm water discharges at
       the site. The Photographs 1 through 16 and 37 through 39 show the storage of e-waste
       materials outside ofthe warehouse building. This e-waste material is being stored by
       UNICOR prior to processing.

   CLEAN AIR ACT

A Clean Air Inspection was conducted at the electronic recycling facilities located at the FCI Elkton
and air emission sources and air pollution control equipment at the facility were inspected. In
addition, air emissions documents were reviewed during this inspection.

   • 	 U.S. EPA inspectors were unable to obtain any information which would indicate that
       UNICOR has notified the Ohio EPA or a local air agency ofthe existence ofthe air emission
       sources associated with the glass breaking operations and de-soldering operation. There is
       also is no information that would indicate that UNICOR has applied to the Ohio EPA or a
       local air agency for a permit to install (PTI) or a permit to operate (PTO) for any of the
       electronic recycling operations air emissions sources (past or present).

       Ohio Administrative Code (OAC) 3745-31-02 (A)(l) requires the following -Except as
       provided in rule 3745-31-03 ofthe Administrative Code, no person shall cause, permit, or
       allow the installation ofa new source ofair pollutants, or cause, permit or allow the
       modification ofan air contaminant source, without first obtaining a permit-to-install from
       the director.

       Ohio Administrative Code (OAC) 3745-35-02 (A) also prohibits - No person may cause,
       permit or allow the operation or other use ofany air contaminant source without applying
       for and obtaining a permit-to-operate from the director in accordance with the requirements
       ofthis rule except: .....

       While it is possible that current and past air emission sources at the electronic processing
       facilities located at the FCI Elkton could be exempt from obtaining a PTI or PTO under the
       OAC. The facility did not provide any information to demonstrate that an exemption to these
       permitting requirements is applicable. Photographs 50 through 55 show the current glass
       breaking booth in the recycling factory building. Photographs 42 through 47 show the site of
       the de-soldering operation and the paint booth located in the FSL building.

   • 	 UNICOR's September 21, 2007 response to U.S. EPA's Clean Air Act 114 request may be
       inaccurate. The response states:

       "Prior to the installation ofthe glass breaking booth, no emissions were generated
       necessitating the venting to outside air emissions. The glass breaking booth was installed to
       ensure the health and safety needs ofthe workers at this operation and to handle the
       potential increasing amounts ofe-scrap materials. "

       Based upon conversations with UNICOR staff during the multimedia inspection, glass
       breaking was conducted in the center ofthe factory building prior to the construction ofthe
       glass breaking booth. Glass breaking at this location reportedly occurred from the summer of
       2002 to May 2003, when the glass breaking booth was put into operation. Glass breaking,
       during this period, was reportedly vented directly through the roof. A vent is currently
       visible at this location and the dismantled ductwork is reportedly being stored on top ofthe
       current glass breaking booth.
                                                    8
       Photographs 60 and 61 show the vent in the center of the factory building and Photograph 56
       shows the dismantled ductwork located on top of the glass breaking booth.

       In addition prior to glass breaking being performed in the factory building it was reportedly
       performed at various locations in the warehouse building.


RESOURCE CONSERVATION AND RECOVERY ACT - HAZARDOUS WASTE

The RCRA inspection of the electronic processing facilities located at the Elkton Federal
Correctional Institution included a visual inspection ofthe waste generation points, and hazardous
waste storage areas. Hazardous waste manifests and waste analysis records were also reviewed
during the inspection.

   • 	 During the multimedia inspection the trailer where boxes of waste filters from the glass
       breaking booth were being stored was observed to be leaking. Rain water and snow melt
       water were found in the trailer during the inspection. The trailer contained a total of 14 boxes
       containing glass booth filters and was located near the warehouse building. The filters have
       been tested by UNICOR and the TCLP value is above the RCRA regulatory level for lead.
       Photographs 17 through 36 shows the trailer where boxes of waste filters are stored by
       UNICOR.

   • 	 During this multimedia inspection wastewater being generated at the glass breaking booth by
       mopping operations was discharged to a sink located in the booth. The sink reportedly drains
       to the sanitary sewer system. U.S. EPA personnel collected samples of this wastewater in
       order to characterize the waste stream. Preliminary sample results indicate that the TCLP
       metals results were below the RCRA regulatory limit for lead and cadmium.

   • 	 Currently UNICOR is using a RCRA ID number issued to FCI Elkton to ship hazardous
       waste off-site. Since UNICOR operates as a separate agency, it made need its own RCRA
       ID, if required for waste shipments based upon its generator status.

   • 	 During this inspection, the log of wastes being stored at a small Hazardous Waste storage
       building, operated by the Bureau of Prisons, was reviewed The only potential hazardous
       waste identified on this log which dated from 1997 to the present was 13 gallons of mineral
       spirits placed in the hazardous waste storage building On October 9,2007. A check ofthe
       storage building verified that this waste was still on-site. No records were available to
       indicate that hazardous waste has ever been shipped from BOP operations at the site.

       Other wastes generated at the site may need to be characterized. All wastes generated in
       Ohio must be evaluated to determine if it is a hazardous waste. Ohio Administrative Code
       rule 3745-52-11 applies regardless of how small the volume of waste or how infrequent the
       waste is generated.

   • 	 Bureau of Prisons personnel were unable to detail how used fluorescent light bulbs are being
       disposed. In addition it was not clear on who has responsibility for the fluorescent light
       bulbs at the site. We were unable to establish ifthe fluorescent lights are owned by FCI -
       Elkton and thus their waste generation. We were also unable to determine if the bulbs are
       being recycled or disposed of in a dumpster. Should the facility dispose of these units in a
       dumpster they potentially would be hazardous waste.
                                                    9
  • 	 The manifests used to ship waste glass booth filters from UNICOR to Michigan Disposal
      Waste Treatment Plant were reviewed during this inspection. These manifests included:

       Manifest #               Date            HW code        Amount 

       000195389 JJK            3/27/07         D008           4 cubic yds.   (4 boxes) 

       000195101 JJK            11121106        D008           6 cubic yds.   (6 boxes) 

       MII0028800               6/7/06          D008           7 cubic yds.   (7 boxes) 

       MII0028731               2/28/06         D008           6 cubic yds.   (6 boxes) 

       MII0028702               12/12/05        D008           3 cubic yds.   (3 boxes) 

       MI9556871                9/1105          D008           4 cubic yds.   (4 boxes) 

       MI9556868                8/3/05          D008           3 cubic yds.   (3 boxes) 


     All ofthese manifests included a RCRA ID number that was incorrect. The number included
     on the manifests was OHDOOOI05416. This manifest number matches no facilities in the
     system. The correct FCI-Elkton number should be OHROOOI03416.


GENERAL COMMENTS

  UNICOR's mission is to employ and provide job skills training to the greatest practicable
  number of inmates confined within the Federal Bureau of Prisons (BOP). Based upon the
  observations of U.S. EPA personnel at FCI Elkton there appears to be a need to assess the
  environmental impacts of business operations developed at the prison. A consistent approach is
  needed to assess the waste streams (air emissions, water discharges and solid waste streams)
  being generated by UNICOR processes; apply for and obtain the required environmental permits;
  and ensure that all federal state and local environmental standards are being achieved. Because
  process operations are routinely changed and or modified, the assessment of environmental
  impacts needs to be an on-going activity.

  There may also a need for UNICOR and Bureau of Prisons to coordinate their environmental
  control efforts. UNICOR operates a process but relies on the utility operations controlled by the
  BOP. For example, wastewater generated at UNICOR is discharged through sewers at the BOP
  site and air emissions generated by UNICOR are vented from BOP buildings. Waste generated
  by UNICOR may contaminate property owned by BOP. Since both organizations potentially
  have responsibility for environmental activities at the site, it is critical that the organizations
  coordinate these activities to prevent environmental problems from being overlooked.




                                                   10 

APPENDIX 1 - MULTIMEDIA INSPECTION PHOTOGRAPHS 

ATTACHMENT 6 

From:            tone ttj m bert@epa ma jl epa ggy
To: 
                                         pEtxgr@g;c ooy
Cc: 
            Inovicky@k:en tra l unicor gov
Subject: 
       Assessment of UNICOR Electronics Recycling Operations
Date: 
          Thursday, February 08, 200? 4:14:31 PM
Attachments: 
   Ql lideli nesS04 pdf
                 gem pc Quideljnes final pdf
                 FEe Stewardship (P nf 2 - 07 POt




Gentlemen:

I have become aware of your ongoing assessment in the course of my
frequent contacts with UNICOR recycling personnel. This correspondence
with you is completely unsolicited by UNICOR personnel. I feel
compelled, based upon my professional experience and knowledge, to let
you know of my perspectives, as well as to make sure that you have some
information about how UNICOR's recycling operations compare to those of
the private sector, in terms of safety, health and environmental
protection.

I am a senior environmental scientist here in EPA's Office of Solid
Waste. I have over 35 years of experience in the waste management and
recycling fields. My experience is not only in the public sector with
EPA, but includes experience in the waste recycling industry. I am the
author of the EPA guidelines on safe reuse and recycling of used
electronics, which were issued in 2004. I was also the author of
international guidelines on the safe reuse and recycling of computers,
which were issued by the Organization for Economic Cooperation and
Development (OECD - an organization of 30 "developed" countries) in
2003. (Both the EPA and OECD guidelines are attached.) I represent the
U.S. government in other international efforts related to safe reuse and
recycling of used electronics, such as various partnership efforts under
the Basel Convention, which is a UNEP convention including 168 nations.
All of these efforts involve development of guidelines related not only
to protection of the environment, but worker safety and public health as
well.

In my role as the lead EPA person regarding safe electronics recycling
over the last 6 years, I have visited some 40 electronics recyclers in
the U.S., Canada and Europe. Five of those recycling operations have
been UNICOR facilities (i.e., I have visited 5 of the 7 UNICOR recycling
facilities). Through the years, I have informally made several
recommendations to UNICOR personnel about improvements they could make
in environmental aspects of their operations. These were not major
deficiencies, and UNICOR personnel were extremely responsive in
implementing the improvements. (The most recent advice was less than a
month ago in relation to a new rule that EPA issued.)

Having seen so many electronics recyclers in both the u.s. and abroad, I
can tell you, unequivocally, that the UNICOR facilities are among the
best electronics recyclers in the country, and likely are among the best
in the world in some regards, such as their handling of CRT glass.
There are no operations anywhere that I am aware of that provide the
level of PPE that UNICOR provides to their inmate workers in CRT
glass-breaking operations. Yes, some private sector recyclers have
negative air flow equipment, as UNICOR has, but no one provides anywhere
near the level of PPE that UNICOR workers are provided. I am also
unaware of any other CRT glass breaking operations that have separate
rooms or partitioned areas (with clothing change-out areas) for glass
breaking that isolate the glass breaking from other worker areas.

There are numerous areas where UNICOR operations are either the best or
among the best electronic recycler workplaces in the u.s. Here is a
list of some of those areas, based upon my experience:

1. Worker protection in glass breaking operations, which includes no 

skin exposure by use of fit-tested, full-face respirators, disposable 

Tyvek coveralls and gloves which are sealed with tape to the sleeves. 

(No other domestic glass breaking operation is equal to UNICOR's level 

of personal protective equipment. And, of course, this is in addition 

to negative air flow equipment.) 

2. Health monitoring of workers, including blood testing, personal air 

monitoring and workplace area air monitoring. (A very few other 

domestic operations do similar monitoring.) 

3. Worker EH&S training. (There are probably some other electronics 

recycling operations that do comparable training.) 

4. Recordkeeping. (On an EMS audit I observed at the Texarkana 

facility, the auditor declared "I wish the private sector did it like 

this.") 

5. Maximizing reuse of used electronics through refurbishment and 

repair. (Not likely that there is any domestic operation that is equal 

to UNICOR's monitor refurbishment practices.) 

6. Maximizing material recovery. (For example, few domestic processors 

hand-dismantle equipment such as keyboards into many specific 

subcomponents, each of which is marketed to different recyclers.) 

7. Certifications. ISO 9001 and IAER EMS certifications are completed 

or in process at all 7 UNICOR facilities. ISO 14001 certification 

processes have begun. (UNICOR is among the best recyclers in the u.s. 

in terms of having various certifications.) 

8. OSHA inspections. (Very few electronics recyclers have been 

inspected for worker safety. UNICOR has invited OSHA to conduct 

inpections.) 


As recently as yesterday, I spoke at a federal agency conference (the
Federal Electronics Challenge (FEC)) regarding safe management of
obsolete electronics generated by the federal sector. I have attached
that Powerpoint presentation--slides 20-23 may be of most interest to
you. Federal government agencies are extensively using UNICOR
facilities for their electronics recycling. Personnel from numerous
agencies, often after visiting both UNICOR and private sector
facilities, have compared UNICOR operations to those in the private
sector and determined that UNICOR is their recycler of choice. As you
can see in my attached Powerpoint, the FEC (led by the White House
Office of the Federal Environmental Executive) promotes two principal
options for federal agencies to use for their electronics
recycling--UNICOR and an EPA contract called the "READ" contract, which
includes 7 prime contractors. UNICOR is actually the recycling
subcontractor for one of the READ contractors. And, UNICOR was
originally a READ prime contractor, but was later removed as a prime
contractor because they were determined to not qualify as a small
business for recycling services. But, out of 42 recyclers who bid on
the READ contract, UNICOR was judged by EPA (I was one of 3 technical
reviewers) to be among the best technically--highest consideration was
given to EH&S aspects. Of the 41 other bidders, UNICOR's worker safety
and worker training manuals were unmatched.

By the way, we are currently involved in a multistakeholder effort to
develop "best management practices" (BMPs) that would be used by
independent auditors as part of a voluntary program for the
..certification .. of electronics recyclers in the u.s. EPA is
representing the interests of the federal government in that effort, and
we are working most closely with OSHA, as the BMPs will address
environment, safety and health.

I would be happy to communicate further with you, if you believe that
would be helpful.

Thank you.

Robert Tonetti
Senior Environmental Scientist
Office of Solid Waste (5304W)
u.S. Environmental Protection Agency
Washington, D.C. 20460
Ph: 703 308-8878
Fax: 703 308-0514
tonetti.robert@epa.gov

(See attached file: guidelines504.pdf)(See attached file: oecd pc
guidelines final.pdf)(See attached file: FEC Stewardship Conf 2-07.ppt)
FCI FT. DIX 

(J-
 ....." ..~ "



""..;::::2
                ."<.

                        DEPARTMENT OFHEALTII & HUMAN SERVICES             Program Support Center
                                                                          U.S. Public Health Service
                                                                          Federal Occupational Health Service




                       EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                         HEALTH INFORMATION RELATED TO UNICOR 

                       E-WASTE RECYCLING OPERATIONS AT FCI FT. DIX 


                       PREPARED FOR THE UNITED STATES DEPARTMENT OF mSTICE
                                 OFFICE OF THE INSPECTOR GENERAL




                       Submitted to:

                                         Oversight and Review Division
                                         Office ofthe Inspector General
                                         U.S. Department of Justice



                       Submitted by: 	   Mr. George Bearer, CIH
                                         FOH Safety and Health Investigation Team
                                         Program Support Center
                                         U.S. Public Health Service
                                         Federal Occupational Health Service



                                                    April 28. 2010
                                                    Table of Contents


1.0 	 INTRODUCTION ..................................................................................................... 1 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI 

      FT.DIX ...................................................................................................................... 2 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      FT.DIX ...................................................................................................................... 5 

      3.1 Safety and Health Practices and Programs for Glass Breaking Operations ...... 6 

      3.2 Safety and Health Practices and Programs for Current Demanufacturing ....... 7 

4.0 FIELD INVESTIGATIONS AND MONITORING RESULTS ............................... 8 

      4.1 FCI Ft. Dix Industrial Hygiene Monitoring Results ......................................... 9 

          4.1.1 	 Three Phase Industrial Hygiene Study Conducted April- June 2003 10 

          4.1.2 	 Industrial Hygiene Studies Conducted in November 2003 and April 

                    2004..................................................................................................... 11 

      4.2 FOH Area and Air Monitoring Results ........................................................... 12 

          4.2.1 	 Area Air and Personal Monitoring Results .................... ............. ........ 13 

          4.2.2 	 Surface Wipe and Bulk Dust Sampling Results ............ ... .......... ........ 15 

      4.3 Legacy LEV System and Bag House ......................................... ............. ........ 18 

      4.4 Environmental Compliance and Testing ............ ............ ... ......... ............ ... ...... 19 

          4.4.1 	 Environmental Compliance ................................................................ 19 

          4.4.2 	 Air Emissions ...................................................................................... 20 

          4.4.3 	 Dust Composition from Building Ventilation System Air Filters ...... 20 

      4.5 OSHA Inquiry Regarding FCI Ft. Dix Recycling Operations ........................ 22 

5.0 CONCLUSIONS.............................................................................................. ........ 22 

      5.1 Heavy Metals Exposures ................................................. ............ .................... 23 

      5.2 Safety and Health Programs, Plans, and Practices ......... ............. ............ ........ 24 

      5.3 Health and Safety Regulatory Compliance ..................... ... ......... ... ......... ........ 25 

      5.4 Environmental Compliance ............................................ ........................ ........ 25 

6.0 RECOMMENDATIONS ......................................................... ... ......... ............ ........ 26 

      6.1 Heavy Metals Exposures ................................................. ............ .................... 26 

      6.2 Safety and Health Programs, Practices, and Plans ......... .... ......... ... ......... ........ 28 

      6.3 Health and Safety Regulatory Compliance ..................... ... ......... ... ......... ........ 29 

      6.4 Environmental Compliance ............................................ ........................ ........ 29 

7.0 REFERENCES ........................................................................................................ 29 

                                       Figures

Figure 1:     Computer Demanufacturing Factory, Building 5713, FCI Ft. Dix
Figure 2:     Schematic of Glass Breaking Work Stations and LEV


                                        Tables

Table 1:      Occupational Exposure Limits
Table 2:      Air Sampling Results
Table 3:      Surface Wipe Sample Results
Table 4:      Bulk Dust Sample Results


                                       Images

Image 1: 	    Breakdown tables in computer demanufacturing area factory, Building
              5713, FCI Ft. Dix
Image 2: 	    Current conditions at the location in where CRT glass breaking operations
              were once performed
Image 3: 	    Air filters from the general factory ventilation system, Building 5713


                                      Appendix

Appendix 1 	 Guidance for Evaluating Surface Samples


                                    Attachments

Attachment 1 FOH Data Tab1e- Air Sampling, General Factory Floor in/near Areas ofE­
               waste Recycling (January 17,2008)
Attachment 2 	 FOH Data Table, Wipe/Bulk/Air Handler Filters (January 17, 2008)
Attachment 3 	 FOH Summary Report-Analysis of Dust from HVAC Air Filters




                                          2

1.0       INTRODUCTION

At the request ofthe U.S. Department of Justice (DOJ) Office ofthe Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistleblower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR). I The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e. e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report 3 consolidates and presents the findings oftechnical assessments recently
performed on UNICOR's e-waste recycling operations at Federal Correctional Institution
(FCI) Fort Dix, Fort Dix, New Jersey. Information relied upon for this report includes
the results of FOH assessments performed on-site at FCI Ft. Dix as well as documents
assembled by the OIG which provide information from various consultants, state
regulatory agencies, BOP staff and inmates, and others. The purpose of this report is to
characterize current (i.e., 2003 to present) operations and working conditions at FCI Ft.
Dix especially with respect to the potential for inmate and staff exposures that may result
from present day e-recycling activities as well as from legacy contamination on building
components from e-recycling operations which took place in the past. 4 In light ofthe
whistleblower allegations, it is intended that this report be used by stakeholders to help
identify where exposures, environmental contamination/degradation, and violations of
goverrnnental regulations and BOP policies may still exist so that prompt corrective
actions may be taken where appropriate.


          1   FPI, (commonly referred to by its trade name UNICOR) is a wholly-owned, Goverrnnent
corporation that operates factories and employs inmates at federal correctional institutions.
         2 E-waste is defined as a waste type consisting of any broken or unwanted electrical or electronic
device or component.
         3 FOH prepared this report in December 2008 and its [mdings and conclusions address e-waste
recycling conditions known to FOH at that time. FOH provided the report to the OIG, which shared it with
the BOP and sought feedback on it. The BOP and UNICOR later provided their comments to FOH about
the report's contents, which resulted in FOH making limited changes to some text and figures, as reflected
herein.
         4 It is important to emphasize that, as used in this report, the term "exposure" refers to the airborne
concentration of a contaminant (e.g., lead or cadmium) that is measured in the breathing zone of a worker
but outside of any respiratory protection devices used. Unless otherwise noted, "exposure" should not be
confused with the ingestion, inhalation, absorption, or other bodily uptake of a contaminant.
Concentrations reported and discussed in this report are not adjusted based on respirator protection factors.
However, when reported, it is indicated whether the exposure was within the protective capacity of the
respirator .


                                                       I
FCI Ft. Dix is the second of eight BOP institutions that have ongoing e-waste recycling
operations for which, to date, an assessment report has been prepared by FOH. On
October 10,2008, FOH issued a separate report entitled "Evaluation ofEnvironmental,
Safety, and Health Information Related to Current UNICOR E-Waste Recycling
Operations at FCI Elkton" detailing current exposure conditions at FCI Elkton based on
the findings of industrial hygienists, occupational physicians, and environmental
specialists representing several federal agencies including FOH, the Centers for Disease
Control and PreventionlNational Institute for Occupational Safety and Health
(CDCINIOSH), the Occupational Safety and Health Administration (OSHA) and the
United States Environmental Protection Agency (U.S. EPA). The FOH report for FCI
Elkton should be reviewed for a more comprehensive discussion ofthe hazardous
components found in waste electronics, pertinent regulatory requirements, and other
information that provides additional context to this FCI Ft. Dix report. FOH will be
preparing assessment reports for the remaining six BOP institutions that perform
recycling upon completion of their respective ES&H assessments.

Currently, e-waste recycling operations (distinct from testing/refurbishing operations) at
FCI Ft. Dix are limited primarily to receipt of waste electronics from various locations
around the country, deconstruction and sorting activities (,breakdown' ), and the
associated material handling and facilities maintenance required to support these
operations. Demanufacturing activities are conducted in Building 5713 which is where
the discontinued CRT glass breaking operations were once performed. These facilities
are described below in Section 2.0 in greater detail.


2.0 	   UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
        FCI FT.DIX

UNICOR's recycling center at FCI Ft. Dix is a consumer electronics demanufacturing
facility located at the Ft. Dix Army Base, Building 5713 on Block 21 (Dough Boy Loop),
Lot 1, in New Hanover Township, Burlington County, New Jersey. It is a regional
recycling center that was established in 1999 to receive consumer electronics, including
computers and CRTs from businesses, consumers, and government. The recycling center
is also utilized for finished product storage and equipment storage.

E-waste is initially received and examined for contraband in Building 5735. From there
it is brought to Building 5713 where it is disassembled by prison inmates. Components
such as circuit boards and sheet metal are sorted and stored in bins pending shipment to
various facilities for reprocessing (i.e., recovery of precious metals, copper, aluminum,
etc.). Some components, such as memory boards, key boards, hard drives and cases, are
examined for functionality and, if suitable, are utilized to remanufacture a functional
computer. Printers are similarly remanufactured with toner cartridges sent away to
California for processing. Monitors, if functional, may be resold.

A photograph and diagram of the interior of Building 5713 are provided below (Image 1
and Figure 1).


                                             2
    Image 1. Breakdown tables in computer demanufacturing
    area factory, Building 5713.




                                     II




                                     11--1
                                     II
                                     II
                                     II            g

                                     II
                                          ---+
                                     II



                                     I
                                     II~I
                                     II


                                     I!        ~


                                     II        I   J
Figure 1. Computer demanufacturing factory, Building 5713, FC] Ft. Oix.



                                 3
Before the process was discontinued in 2005, CRTs recovered from monitors were
recycled in a glass breaking booth where some components were recovered and the glass
was packaged and shipped off-site for further processing.

According to current UNrCOR staff at FCr Ft. Dix, glass breaking was initiated in 2003
and performed adjacent to the breakdm.vn area (see Image 2 and Figure 1). 5 Here, CRTs
from computer monitors and TVs were processed for recycling. This involved inmate
workers manually shattering the CRT glass with hammers followed by the recovery of
certain components for recycling or discarding lUlwanted materials for disposal. A
retrofitted paint spray booth was in place in 2003 which connected to a local exhaust
ventilation (LEV) system consisting ofa "do"Wll-flow air tort machine with a 6 bag dust
capture system driven by a 15 horsepower motor" (see Figure 2). The LEV drew air
from the glass breaking booth and through a filter chamber where heavy particulates
would fall into a 35 gallon dnun while the smaller particulates were captured in the
HEPA filter bag located in a bag house outside the building.




                   Image 2. Current conditions (January 2008) at the location where
                   CRT glass breaking operations were once performed (glass breaking
                   facilities are no longer there). Note the exhaust air duct in the wall
                   (covered by mesh grille) which leads to the outside bag house as
                   well as the FOH air sampling station in foreground.


The glass breaking work area was comprised of two workstations (one for breaking
fimnel glass and the other for breaking panel glass) enclosed in a lO'xlO'xT space (i.e.,
the retrofitted paint spray booth) with three walls being metal plate and the fourth wall
consisting of a clear plastic strip curtain used as the ingress/egress to the interior of the
booth. LEV was installed such that glass breaking operations were performed under
hoods which were exhausted through pre-filters and a Torit 3DF24 bag house. For both


5 This report does not address exposure conditions prior to 2003, including any exposures generated from

the shattering of funnel glass to remove the electron gun from the CRT.

                                                     4
of the two workstations, a maximmn production rate of 50 CRTs per hour was
established due to State of New Jersey environmental considerations.




                      R~CYCUNG
                                 ~
                                 BUllOlHG
                                                                            LI
                                                                                 EXHAUSTOUCl
                                                                                   !TH, O"W


                                                                                                   Ik
                                                                                                       ,~




                                                  CO'IP"'-'H H€IIOEIt
                                                                                               TORlT eAGHO<J$~




                                  L,                                                      )
         Fl,.nR                             I      .,UER
                                                                                     "­
                  WO'U'SfATION                  W""~STAT!ON
                  Fl»IN4G1.ASS                  SCREEN GlASS



                                      "­                                      'ifM                      .w_c-.""
                                                                             <-'-­                       """'.... CT OIl"'"
                                                                                                         (UOI2H·.. n




             ~                              ,I ~~" I                                          FIGURE 3-1
                                                                             ReCYCL ING FACTORY SCHeMATIC
                                                                             UNICOR - FORT CIX, NEW JERSEY

   Figure 2. Schematic of Glass Breaking Work Stations and LEV


3.0 	   BOP/UNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT FT. DIX

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H program entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNICOR's compliance with this policy will be evaluated in the OIG's final report.

Various OSHA standards require \Vfitten programs or plans to address occupational
hazards or implement hazard control measures. Examples applicable to UNICOR's e­
waste recycling activities dating from 2003 and particularly for glass breaking include:

    • 	 29 CFR 1910.1025, Lead requires a \Vfitten lead compliance plan;
    • 	 29 CFR 1910.1027, Cadmium requires a \Vfitten cadmium compliance plan;
    • 	 29 CFR 1910.134, Respiratory Protection requires a \Vfitten respiratory protection
        program; and


                                                                        5
      • 	 29 CFR 1910.95, Occupational Noise Exposure requires a written hearing 

          conservation program. 


Even when specific hazards do not meet the exposure threshold for a written standard
specific plan/program, a good practice approach warrants that a general safety and health
plan should be in place to identify workplace hazards and specify appropriate hazard
controls and safe work practices. UNrCOR's safety and health practices and programs
for recycling conducted at FCr Ft. Dix are discussed below for glass breaking performed
between 2003 and 2005, as well as for demanufacturing activities currently performed.

3.1      Safety and Health Practices and Programs for Glass Breaking Operations

FOR reviewed FCr Ft. Dix safety and health documents for glass breaking operations
conducted between 2003 and 2005, as well as for current e-waste recycling operations
conducted on the factory floor (e.g., demanufacturing). For example, FCr Ft. Dix
described "Inmate Safety Precautions" in a two page memo from the UNrCOR Factory
Manager to "All Staff Concerned" on April 25, 2003. Among other practices, the memo
itemized the following safety precautions in use at FCr Ft. Dix:

      • 	 A local exhaust ventilation system (i.e., an engineering control) employed to
          capture airborne toxic metals emissions;
      • 	 Biological testing for lead and cadmium;
      • 	 Training in personal protective equipment (PPE) and respiratory protection usage;
      • 	 Other respiratory protection practices such as fit testing and cleaning; and
      • 	 Various safety items such as hazard communication signage, shower and eyewash
          stations, exposure monitoring and surface testing, and documentation.

UNrCOR respiratory protection records from 2003 through 2005 documented training
program content, fit testing, and a physician's acknowledgement of medical fitness to
wear respirators. Other records documented lead training and additional respiratory fit
testing. As discussed in Section 4.0 below, UNrCOR consultants performed exposure
monitoring, area air monitoring, and surface testing for lead and cadmium in 2003 and
2004 (see Section 4.1 for an evaluation of the quality and results ofthis testing). Also, a
consulting firm documented PPE used including protective clothing, respiratory
protection, eye and face protection, hand protection, hearing protection, and others.

These records document an on-going effort between 2003 and 2005 to implement safety
and health practices and hazard control measures to protect workers against exposure to
toxic metals during glass breaking operations and other e-waste recycling at FCr Ft. Dix.
These practices, however, were not captured and delineated in formal written plans, such
as a lead and cadmium compliance plan. For instance, a 2003 study conducted by a
consulting firm (see Section 4.1, below) recommended the development ofa cadmium
compliance plan based on exposure monitoring results that were above the exposure
limit. A cadmium compliance plan was not developed by UNrCOR for FCr Ft. Dix glass
breaking operations. The Factory Manager at FCr Ft. Dix confirmed that these written
programs were not developed for FCr Ft. Dix glass breaking operations. Another

                                              6

program inadequacy was that baseline biological monitoring for lead and cadmium was
apparently not conducted prior to the start of glass breaking. Records indicated that
biological monitoring was initiated in 2004, while glass breaking started in 2003.

3.2    Safety and Health Practices and Programs for Current Demanufacturing

For current demanufacturing operations and associated activities conducted at FCI Ft.
Dix on the general factory floor, exposures to lead, cadmium, and other toxic metals
would be expected to be much lower than for glass breaking. This was confirmed with
exposure monitoring performed by UNICOR consultants and FOH (see Section 4.0).
Therefore, the need for written compliance plans for lead and cadmium is not a current
requirement.

According to the Factory Manager at FCI Ft. Dix, lead and cadmium exposure
monitoring has not been performed on the general factory floor since the latest April
2004 monitoring episode conducted during glass breaking. He did mention that
UNICOR is in the process of developing an exposure monitoring regimen for all
UNICOR recycling factories. Such a program should be implemented to document
continued effective control measures and the effectiveness of other safety and health and
work practices (see Section 6.0, Recommendations).

The Factory Manager stated that respiratory protection is not required for current
operations, although nuisance dust masks are available as a precautionary measure (i.e.,
for use on a voluntary basis). He also stated that hearing protection is made available as a
precaution and that exposure monitoring has been conducted for noise with all results
below the action level and exposure limit. Based on this information a written respiratory
protection program and a written hearing conservation program are not required. If
nuisance dust masks and hearing protection are provided, however, training in their
proper use should be performed. Training for the nuisance dust respirators should, per
OSHA requirements regarding voluntary respirator use, include having inmate workers
read and sign Appendix D of 29 CFR 1910.134, and UNICOR and FCI Ft. Dix should
maintain the Appendix D signed records.

The Factory Manager at FCI Ft. Dix also stated that Material Safety Data Sheets (MSDS)
for hazardous materials are available and maintained by the Safety Department in
accordance with the OSHA Hazard Communication Standard.

FCI Ft. Dix has various written work procedures for current recycling operations. FOH
reviewed approximately 20 ofthese procedures. These procedures contain only very
limited safety and health information or precautions. For instance, the only information
provided is that, for some procedures, the "tools" sections specify the need for safety
glasses, gloves, and/or aprons.

When asked about safety and health procedures for recycling at FCI Ft. Dix, the Factory
Manager provided a document entitled UNICOR' s Inmate Pre-Industrial Manual dated
May 2005 that applies to e-waste recycling operations. Among other topics, this manual


                                             7

contains sections for general factory rules, PPE, hazard communication, hazardous
material identification, material recognition and handling, and various industrial safety
practices. It also provides a section on glass breaking procedures. This manual provides
useful general information for all factories, but does not provide facility specific
implementation details or define facility specific safety and health practices.

According to the Factory Manager, in addition to the Pre-Industrial Manual, UNICOR is
in the process of identifying and assembling applicable safety and health standards,
regulations, and requirements into a standard operating procedures (SOP) manual that is
to be implemented by the UNICOR recycling factories. UNICOR held a factory
manager's meeting with managers from all recycling factories where the draft SOP
manual was presented and discussed. When complete, these SOPs are to be implemented
at the factories, as applicable. Among other content, the Factory Manager specifically
mentioned noise, ventilation, air contaminants, training, and heat stress as elements ofthe
intended SOP manual.

Although various safety practices are applied at the FCI Ft. Dix recycling factory, a
written safety and health document to define existing workplace hazards and control
measures is not in place for UNICOR recycling activities conducted specifically at FCI
Ft. Dix. As a "good practice" approach, such a document should be developed and
implemented and would serve to concisely define the safety and health practices and
requirements specific to FCI Ft. Dix recycling, such as PPE requirements or voluntary
use, hygiene (e.g., hand washing) practices, daily and periodic housekeeping practices,
special training requirements for any hazardous equipment use or other hazard controls,
and other practices essential to conduct work safely. Such a document could also be used
as an implementing mechanism for UNICOR's safety and health SOP manual when it is
completed. See Section 6.0, Recommendations for possible content of a safety and health
practices document for FCI Ft. Dix.


4.0    FIELD INVESTIGATIONS AND MONITORING RESULTS

In 2003 and 2004, UNICOR and FCI Ft. Dix retained consulting firms to conduct various
field investigations to evaluate contamination in the recycling areas, determine personal
exposures, and study environmental emissions related to toxic metals associated with
electronic recycling activities. In 2005, the New Jersey Department of Environmental
Protection (NJDEP) performed an inspection ofthe recycling facilities as part of its
permitting process for e-waste recycling, and OSHA made an inquiry with FCI Ft. Dix
after receiving a complaint regarding alleged hazardous working conditions at the
recycling facilities. Finally, as part of the DOJ orG investigation, FOH conducted a field
investigation in 2008 to determine present-day personal exposures, area airborne lead and
cadmium concentrations, and existing surface contamination on various building
components. Results of these industrial hygiene and environmental investigations are
discussed in this section.




                                             8
Toxic metals of greatest interest for e-waste recycling include lead, cadmium, and
barium. Beryllium can also be associated with e-waste materials and is also of interest
because of its high toxicity, adverse health effects, and low exposure limit. These metals
were the focus ofthe field investigations. See generally FCI Elkton report referenced in
Section 1.0 for details regarding e-waste hazards.

Exposure monitoring results are compared to PELs established by OSHA. In addition,
non-mandatory American Conference of Governmental Industrial Hygienist (ACGIH)
threshold limit values (TLV s) and NIOSH recommended exposure limits (RELs) are also
available for reference. Personal exposure limits are often based on 8-hour time weighted
average (TWA) exposures and the TWAs are applicable to the exposures discussed in
this report. Table I provides exposure limits for the metals lead, cadmium, barium and
beryllium.


                                                Table I 

                                      Occupational Exposure Limits 1 


                                               LEAD                CADMIUM           BARIUM           BERYLLIUM
                                                       3                     3                3                  3
                                              (llg/m       )        (llg/m       )   (llg/m       )     (llg/m       )


OSHA PEL                                         50                   5.0              500                2'
OSHA ACTION LEVEL'                               30                   2.5             N/A                N/A
ACGIH TLV (T olal Exposure)                      50                  10.0              500               0.05 4
ACGIH TLV (Respirable Fraction)                 N/A                   2.0             N/A                N/A
NIOSHREL                                         50                   Ca 3             500                0.5
Notes:
         1.   All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
               such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TLV 2009 adoption.
         5. 	 OSHA also has 5 Ilg/m 3 ceiling and 25 Ilg/m 3 peak exposure limits.

4.1           FeI Ft. Dix Industrial Hygiene Monitoring Results

UNICOR and FCI Ft. Dix retained consulting firms to conduct field investigations
involving area and personal exposure monitoring and other testing services to evaluate
potential exposure to toxic metals. Testing included:

      • 	 Personal exposure monitoring for toxic metals associated with e-waste recycling,
          particularly for lead, cadmium, beryllium, and barium;



                                                               9
    • 	 Area air monitoring in various work areas where recycling activities were
        performed; and

    • 	 Surface wipe sampling in recycling areas to determine levels oftoxic metal
        contamination.

Prior to April 2003, no industrial hygiene monitoring was performed to evaluate personal
exposures to toxic metals. FCI Ft. Dix retained consulting firms to perform industrial
hygiene monitoring evaluations in 2003 and 2004, including a three phase study
conducted from April through June 2003, a study conducted in November 2003, and
another conducted in April 2004. These studies involved personal exposure monitoring,
area air (ambient) monitoring, and surface wipe sampling. Metals evaluated included
cadmium and lead, and some studies also included barium and beryllium.

Results ofthese consultant studies are discussed in Section 4.1.1 and 4.1.2, below.

4.1.1   Three Phase Industrial Hygiene Study Conducted April- June 2003

The first study conducted in 2003 involved three monitoring and sampling episodes that
were conducted by one consulting firm retained by UNICOR at FCI Ft. Dix.

Phase I was conducted on April 30, 2003 and included surface wipe samples and area air
monitoring inside and outside the glass breaking area. Two air samples were collected.
One ambient air sample was collected near the shower outside the glass breaking area.
The lead exposure was less than the detection limit and well below the lead PEL. A
second air sample was collected inside the glass breaking area, but during the lunch break
when no activity was in progress. This sample was also analyzed for lead and was below
the detection limit and well below the PEL. However, neither of these samples
represented personal exposure monitoring during glass breaking.

Phase II was conducted on June 4, 2003 and represented similar monitoring as Phase I,
but after glass breaking operations had been underway for 30 days. Again, two ambient
air samples were collected. One sample was taken inside the glass breaking room after
work was completed (i.e., no work was underway). The other was taken outside the glass
breaking room near the shower. Samples were analyzed for lead and were at non­
detectable levels well below the PELs. Cadmium results for these locations were also
below the PEL, but the limit of detection was so high that it was at or above the cadmium
action limit, indicating that these data are oflimited value. Most importantly, neither of
these samples represented personal exposure monitoring during glass breaking.

Phase III was conducted on June 25, 2003 and included personal exposure monitoring
inside and outside the glass breaking room while glass breaking was being performed.
All lead and cadmium results were reported as "low". However, the results in a data
table indicated that two exposures in the glass breaking room were 21 and 26 /lglm 3 for
cadmium which is four or five times higher than the PEL of 5 /lg/m3 These results were
for the duration sampled; therefore, it is possible that as 8-hour TWAs, these exposures

                                            10 

were less than the PEL. This possibility cannot be determined with certainty because the
report does not state whether the durations monitored were for the entirety or only a
portion of daily exposure. In addition to the report's deficiencies in describing the
results, the detection limit for some other cadmium results was more than the cadmium
PEL, which make these data oflittle value.

The conclusions drawn by FOR from reviewing this three phase study are that the first
two phases contributed nothing of value to determine personal exposures among workers
engaged in glass breaking, and the third phase represented exposures as "low" which was
not accurate. Additionally, based on these reports, UNICOR and FCI Ft. Dix were not
provided with the information necessary to evaluate personal exposures and implement
effective control measures. Strictly from these reports, UNICOR and FCI Ft. Dix could
have been under the impression that lead and cadmium personal exposures were well
controlled. Indeed, the Factory Manager at Ft. Dix stated that he was under the
impression that results were low until later informed by other UNICOR personnel that
exposures were actually elevated.

Finally, surface wipe samples were in the range ofthose found by FOR in its
investigation. See Section 5.2.2, below, for a discussion of FOR surface wipe results.

4.1.2   Industrial Hygiene Studies Conducted in November 2003 and April 2004

A different consulting firm conducted industrial hygiene monitoring studies of FCI Ft.
Dix e-waste recycling operations in November 2003 and April 2004. Again, personal
exposure monitoring, ambient air monitoring, and surface wipe sampling were
performed.

In November 2003, personal exposure monitoring was conducted in the glass breaking
room during glass breaking activities. Three persons were monitored. All three personal
exposures exceeded the PEL for cadmium with the range being from 44 /lg/m3 to 110
      3
/lglm . These were approximately six hour samples; therefore, even as 8-hour TWAs,
                                                                      3
these exposures were still well above the PEL for cadmium of 5 /lglm . The three
                                                3
personal lead exposures ranged from 7.1 /lglm to 85 /lg/m3. The higher result was above
the lead PEL of 50 /lg/m 3, while the other two were less than the PEL and action limit.
Barium and beryllium results were non-detectable or very low.

Several area air samples were also collected inside and outside the glass breaking room.
These results were less than the action limits and PELs for lead and cadmium.

The report provided a detailed description of exposures and included several general
recommendations to reduce exposures. Example recommendations included developing
a cadmium exposure control plan, implementing procedures to comply with the lead and
cadmium standards, and modifying work practices.

In April 2004, a follow up study was conducted that was similar to the study in
November 2003. Personal exposure results for this study were well below the action


                                            11 

limits and PELs for both lead and cadmium. Barium and beryllium were also non­
detectable or very low.

The consultant report does not offer an explanation or reason that exposures were lower
in April 2004 than the previous monitoring episode. For instance, the report does not
contain information regarding any work practice or exposure control improvements that
might have been implemented based on the consultant's prior recommendations. One
contributing factor to the lower exposures could be that the shift monitored in April 2004
was only about 2.5 hours in duration versus the 6 hour duration of the previous study.
This shorter shift, however, would not fully account for the lower exposure levels found
in April 2004 versus November 2003, especially since the results reported are for the
duration ofthe samples.

The Factory Manager at FCr Ft. Dix was asked about the reason for the reduced
exposures found in April 2004. He attributed the lower exposures to the placement of
plastic panels around the glass breaking area. These panels provided a barrier between
the source oflead and cadmium emissions and the breathing zone of inmate workers.

During both studies, the consultant reports noted that workers wore half-faced HEPA
respirators (i.e., air purifying respirators with HEP A cartridges). These respirators have a
protection factor of 10. Except for the highest cadmium personal exposure in the
November 2003 study, all other exposures were within the protective capacity ofthe
respirators worn. However, OSHA lead and cadmium standards require that these
exposures be controlled at or below the PELs through the use of engineering and work
practice controls. Other personal protective equipment (PPE) was also noted in the
reports and included safety goggles, face shields, hearing protection, gloves, cotton
sleeves, cloth jumpsuits, and leather aprons.

rn addition to the air sampling discussed above, both the November 2003 and the April
2004 consultant studies included limited surface testing for metals including lead and
cadmium. Wipe sampling revealed detectable levels of both lead and cadmium on
surfaces. More specifically, wipe samples collected from the floor ofthe CRT breaking
booth and nearby staging areas after these surfaces were mopped at the end ofthe day
showed surface concentrations ranging from 50 to 150 /lg/ff lead and 12 to 20
/lgltfcadmium. Other samples taken from surfaces 1 to 50 feet outside the booth showed
a range of 12-66 /lglft2 1ead and 5-35 /lg/ft2 cadmium. Two wipe samples from an
inmate's hands showed a trace oflead (i.e., 0.5 /lg /16 in2) prior to washing (cadmium
was undetectable) and no detectible lead or cadmium following the hand washing.

4.2    FOH Area and Air Monitoring Results

FOH conducted air, surface wipe, and bulk dust sampling of FCr Ft. Dix e-waste
recycling operations on January 17, 2008. Analyses were conducted for 31 metals,
including lead and cadmium. Types of samples collected included the following:




                                             12 

   • 	 Personal exposure monitoring and ambient air (area) monitoring at various
       locations on the general factory floor; and

   • 	 Surface wipe and bulk dust samples from various factory surfaces and air 

       handling units serving the factory. 


The FOR study presents exposure information for the current demanufacturing and
related factory activities. It does not assess past glass breaking activities that were
discontinued in 2005, except to the extent that those past activities could have contributed
to legacy surface contamination remaining in the factory areas. Results from these
sampling activities are presented below. (See Attachments for additional details.)

4.2.1   Area Air and Personal Monitoring Results

FOR conducted personal exposure monitoring and area air monitoring for lead and
cadmium, as well as other metals, at various locations on the general factory floor at FCr
Ft Dix where e- waste recycling operations (primarily demanufacturing) are performed.
rn addition, total airborne particulates were measured in these areas using a real-time
direct reading instrument. Results are as follows:

   • 	 Lead and cadmium results for five area samples collected on the upper and lower
       levels ofthe recycling building were all below the limit of detection (LOD).

   • 	 Cadmium exposure results for five personal samples collected during recycling
       activities were below the LOD. Lead personal exposure results were below the
       LOD for four of five samples. The one detectable personal lead exposure result
       was 1.4 /lglm 3 for the period sampled (or about 0.7 /lg/m3 as an 8-hour TWA),
       assuming no additional exposure over the work shift. This exposure is well below
       the lead PEL of 50 /lg/m3

   • 	 All other metals were found at low or non-detectable levels and were not of
       exposure concern.

   • 	 Total particulate monitoring conducted using a direct reading instrument showed
       no detectable concentrations of airborne particulates in any of the areas tested.
       The LOD is approximately 20 /lglm 3 This testing showed that no detectable
       releases of airborne dusts occurred on the general factory floor either from the
       recycling activities conducted or from dusts that were present on surfaces.

Lead and cadmium summary results for these samples are shown in Table 2. See
Attachment 1 for complete results for all samples and all metals determined during the
FOR study. Based on these results, lead and cadmium inhalation exposure on the general
factory floor and associated facilities at FCr Ft. Dix during recycling activities is
minimal.




                                            13
                                               Table 2
                         Air Sampling Results Collected January 17,2008
                      r giLab oratory M eth 0 do1ogy:
                  Sampnn                          	 NIOSH M eth 0 d 7300
                                                                Air
                                                                            Sample
                                            Sample            Volume                    Lead     Cadmium
Sample             Building                                                Duration
                                          Information         Collected                 I'g/m'    I'g/m'
  #                                                                          (min.)
                                                                (L)
API        UNICOR Electronics         Personal: Activities      589           269        ND         ND
           Recycling Building         - Breakdown table
AP2        UNICOR Electronics         Area: Maintenance          951          315        ND         ND
           Recycling Building ­       adjacent to tool
           Lower level                rOOffi- on stand
AP3        UNICOR Electronics         Area: Near office in       879          295        ND         ND
           Recycling Building ­       breakdown Line #1
           Upper level                on sign above table
AP4        UNICOR Electronics         Area: Quality              951          314        ND         ND
           Recycling Building ­       assurance - desktop
           Lower level                cleaning area - on
                                      exhaust
AP5        UNICOR Electronics         Personal: Activities       582          258        1.4        ND
           Recycling Building         - Motherboards and
                                      cards area
BPI        UNICOR Electronics         Area: Glass booth          903          304        ND         ND
           Recycling Building ­       area next to boiler
           Upper level                (compacter)
BP2        UNICOR Electronics         Personal: Activities       572          261        ND         ND
           Recycling Building         - Breakdown table
BP3        UNICOR Electronics         Area: Scrap laptops        954          317        ND         ND
           Recycling Building ­       and parts on stand
           Lower level
BP4        UNICOR Electronics         Personal: Activities       567          259        ND         ND
           Recycling Building         - Breakdown table
BP5        UNICOR Electronics         Personal: Activities       562          250        ND         ND
           Recycling Building         - Breakdown table
Notes:
    I. 	 Sampling was p erfonned t 0 characterize ai rbome 1ead an d cad mium co ncentrations a tv arious
         locations on the general factory floor inlnear recycling operations (primarily de-manufacturing).
         The purpose of this sampling was to characterize general ambient air exposures presumably from
         the dust deposits found on various surfaces.
    2. 	 Detection limits: 'ND' denotes 'None detected' or <0.2 Ilg Pb/sample (equivalent to 0.0004 mg/m'
         based on 500 liters of air sampled) and <0.04Ilg/sample Cd (equivalent to 0.00008 mg/m' based
         on 500 liters of air sampled).
    3. 	 In a ddition to t he time-weighted average data s hO\vn above, an ai rborne d ust survey was
         performed throughout the sampling day using a real-time, direct-reading instrument (HAZDUST­
         1100). The purpose of this testing was to identify whether any elevated concentrations or 'dust
         release' t rends co uld bed iscerned. Special emphasis was placed 0 n testing ai r immediately
         adjacent tot he various de-manufacturing work a ctivities being conducted i n t he building and
         during 0 ther a ctivities which might ge nerate contaminated dusts t 0 which personal may b e
         exposed. The instrument showed no detectible concentrations of any airborne particulates in any
         of the areas surveyed. The HD-ll 00 instrument identifies particulates on a semi quantitative basis
         ranging from 0.1 11m to 50 Iill1 in size (detection limit: approximately 0.02 mg/m 3).




                                                    14 

4.2.2   Surface Wipe and Bulk Dust Sampling Results

FOH collected surface wipe and bulk dust samples from various surfaces and air handling
units in the UNrCOR recycling factory at FCr Ft. Dix. Wipe samples were collected
from various factory surfaces and elevations such as floors, walls, trusses, lights, fan
blades, ducts, and pipes. Bulk dust samples were collected from surfaces where visible
accumulations of dusts were found. Locations of surface wipe and bulk samples included
areas normally out ofthe reach of workers, but these areas were indicative of the release
and accumulation of contaminants. One wipe sample was collected from worker gloves.
All samples were analyzed for total lead and total cadmium. Results are presented in
Tables 3 and 4 below and are summarized as follows:

   • 	 Lead and cadmium contamination was found at detectable levels on all surfaces
       tested. Lead results ranged from 49 /lg/if to 2,160 /lg/if. Cadmium results
       ranged from 48 /lg/ft2 to 930 /lg/fr.

   • 	 Seven bulk dust samples were collected from surfaces. These samples had
       detectable levels of lead and cadmium. Lead results ranged from 330 mg/kg to
       970 mg/kg. Cadmium results ranged from 48 mglkg to 250 mglkg.

   • 	 One wipe sample was taken from worker gloves. Lead was found at 26 /lg/wipe
       and cadmium at 2.9 /lg/wipe.

Definitive criteria have not been developed for acceptable levels of lead or cadmium
surface contamination or dust concentrations in industrial areas where activities are
performed involving lead and/or cadmium bearing materials. As points of reference,
some guidelines that are available are noted below and are further described in the
Appendix, Guidance for Evaluating Surface Samples:

   • 	 The Department of Housing and Urban Development (HUD) has established
       clearance levels for lead on surfaces after lead abatement. These levels range
       from 40 to 800 /lg/if, depending on the type of surface. These levels, however,
       apply to occupied living areas where children reside, and are not intended for
       industrial operations. HUD proposed a decontamination guideline of200 /lg/ft2
       for floors in evaluating the cleanliness of change areas, storage facilities, and
       lunchrooms/eating areas. In situations where employees are in direct contact with
       lead-contaminated surfaces, such as working surfaces or floors in change rooms,
       storage facilities, and lunchroom and eating facilities, OSHA has stated that the
       Agency would not expect surfaces to be any cleaner than the 200 /lg/ft2 Ievel.

   • 	 Lange [2001] proposed a clearance level for floors of 1,000 /lg/ft2 in non-lead free
       buildings. This level was suggested for commercial facilities occupied by adults,
       but does not consider a facility where work is routinely conducted with lead­
       bearing materials.



                                            15
    • 	 The U.S. EPA has proposed standards for residential soil-lead levels. The level of
        concern requiring some degree of risk reduction is 400 ppm (mglkg), and the level
        requiring permanent abatement is 2,000 ppm.

As noted above, none of these levels are directly applicable to UNrCOR's e-waste
recycling; however, they offer perspective for FCr Ft. Dix operations. The range oflead
surface contamination in the FCr Ft. Dix factory was 49 to 2,160 /lg/if, and the average
surface lead contamination was about 830 /lglft2 While 7 of26 samples were somewhat
above the clearance guideline suggested by Lange [2001] for commercial facilities, the
average contamination level is lower than Lange's clearance guideline of 1,000 /lg/if.
Again, this guideline is conservative in that it is for commercial facilities not associated
with work on lead-bearing materials or equipment. Also, the range oflead in bulk dusts
is generally above the U.S. EPA residential level in soil that requires some risk reduction,
but well below the level that requires remediation.

The levels oflead and cadmium contamination found at the FCr Ft. Dix recycling factory
are not judged by FOH to be significant enough to warrant remediation efforts.
Nevertheless, based on some levels above the suggested Lange and EPA guidance,
UNrCOR and FCr Ft. Dix should implement procedures to reduce the risk of exposure to
surface dusts and dust accumulations. UNrCOR and FCr Ft. Dix should implement an
operations and maintenance (O&M) plan to limit contact with existing lead and cadmium
contamination, limit its accumulation, prevent and/or control any releases ofthe
contamination to the air, and generally prevent potential for inhalation and ingestion (i.e.,
hand-to-mouth contact) exposure. With proper controls established, this plan could
include periodic clean-up of surfaces by inmate workers. Elements of an O&M plan are
discussed in Section 6.0, Recommendations.

Use of gloves and effective hand washing and hygiene practices are also important to
maintain based on the levels of surface contamination and the fact that some lead and
cadmium was found on the one pair of gloves sampled.

A point of interest in the data is that the levels of lead and cadmium in bulk dust on
surfaces are somewhat lower than, but similar to levels found on the AHU filters (also see
Section 4.4.3, below). Since filters are changed quarterly according to UNrCOR staff,
these data indicate that some degree oflead and cadmium contamination is released to the
air from current recycling activities on the factory floor. However, FOH personal and
area air monitoring results indicated that these releases are minimal from a personal
exposure (inhalation) perspective.

See Tables 3 and 4 for data on surface wipe and bulk dust results, respectively. Also see
Attachment 1 for complete data.




                                             16 

                                                                  Table 3 

                                                Surface Wipe Sample Results 

                                                 Data Collected: 01/17/2008 


Sample        Building          Surface                                                                           Nea
  •            Name              litem         Elevation                        Description                       Wiped
                                                                                                                   (Sq.
                                                                                                                            Lead     Cadmium

                                                 (feet)                                                           Inches)   IJglff    jJg/W
         UNICOR Computer
          Demanufacturing     Sheet metal                  Inside of round duct going through wall - outside
 W-1      Building (#5713)      ducting            8       glass breaking area                                      72       320       320
         UNICOR Computer
          Demanufacturing     Sheet metal                  Top of horizontal pipe right next to wall - outside
 W-2      Building (#5713)      ducting                    glass breaking area                                      60       912       288
         UNICOR Computer
          Demanufacturing     Fluorescent                  Top of fluorescent light in the center of previous
 W-3      Building (#5713)        light           13       glass breaking area                                      54      1,280      320
         UNICOR Computer
          Demanufacturing
 W-4      Building (#5713)    Exhaust fan          3       Blade of exhaust fan leading outside - clerk area        24       780       120
         UNICOR Computer
          Demanufacturing                                  Top of light fixture (incandescent) - across from
 W-5      Building (#5713)    Light fixture       14       utility closet                                           36      1,280      344
         UNICOR Computer
          Demanufacturing
 W-6      Building (#5713)     Metal pipe         12       Metal pipe over main conidor                            48       2 ,160     930
         UNICOR Computer
          Demanufacturing                                  Metal truss in front of exit door (Breakdown area
 W-7      Building (#5713)     Metal truss        13       ")                                                      48       1,800      660
         UNICOR Computer
          Demanufacturing
 W-8      Building (#5713)     Fan blade          10       Fan blade of exhaust fan over door                      40        349       115
         UNICOR Computer
          Demanufacturing
 W-9      Building (#5713)        Floor            0       Floor - in comer of former glass breaking area.         144       120       19
         UNICOR Computer
          Demanufacturing                                  Wall in former glass breaking area in comer above
W-10      Building (#5713)        Wall             5       floor sample 0N-9)                                      144       49        12
         UNICOR Computer
          Demanufacturing                                  Floor at comer directly under exhaust duct in glass
W-11      Building (#5713)        Floor            0       breaking area                                            9       1,280      384
         UNICOR Computer
          Demanufacturing                                  Metal support (horizontal surface) of boiler next to
W-12      Building (#5713)   Metal support                 exhaust fan                                              36       328       96
         UNICOR Computer
          Demanufacturing                                  Metal conduit on exterior wall next to scale ­
W-13      Building (#5713)   Metal conduit        2.5      Outside battery recycling                                12       948       132
         UNICOR Computer
          Demanufacturing
W-14      Building (#5713)      Conduit            7       Conduit over door near former glass breaking area        30       331       48
         UNICOR Computer
          Demanufacturing
W-15      Building (#5713)   Ledge of mirror       6       On top ledge of mirror above slop sink                   6       1,340      228
         UNICOR Computer
          Demanufacturing                                  Refurbishltesting area (downstairs) - top of bottom
W-16      Building (#5713)   Window panel                  window panel                                             12      408        112
         UNICOR Computer
          Demanufacturing                                  Floor corner exterior wall under window - middle of
W-17      Building (#5713)        Floor            0       facility                                                 24       600       174
         UNICOR Computer
          Demanufacturing     Cinder block
W-19      Building (#5713)       ledge             6       Top of cinder block ledge behind electrical panel B      12      1,070      516
         UN ICOR Computer
          Demanufacturing
W-20      Building (#5713)    Metal Pipes          6       Metal pipes (in between section bolts)                   9        352       96




                                                                  17 

                                                                    Table 4 

                                                         Bulk Dust Sample Results 

                                                        Data Collected: 01117/2008 


Sample         Building         Surface                                                                       lVea
      #         Name             litem          Elevation                      Description                    Wiped    Lead     Cadmium
                                                                                                               (sq.
                                                  (feet)                                                      ~ches)   mgJ1<g    mgJ1<g
          UNICOR Computer
           Demanufacturing
  B-1      Building (#5713)       Pipe             13       Pipe (high) inside blTll er glass breaking area    40       440       110
          UNICOR Computer
           Demanufacturing
  B-2      Building (#5713)   Wietaliruss          13       fv1etal truss by ceiling by small bay door         42       390       95
          UNICOR Computer
           Demanufacturing
  B-3      Building (#5713) Window ledge           11       Window ledge of side wall                          96       970       160
          UNICOR Computer
           Demanufacturing
  B-4      Building (#5713)   Wietal Pipe          12       fv1etal pipe o\er main conidor                     54       790       250
          UNICOR Computer
           Demanufacturing                                  Top pipe surface il breakdown line #1 & 2 -
  B-5      Building (#5713)   Wietal Pipe          12       across from bay door                               36       670       68
          UNICOR Computer
           Demanufacturing
  B-6      Building (#5713)  fv1etal Truss         12       fv1etal truss just oUNide office                   48       330       67
          UNICOR Computer
           Demanufacturing                                  Floor - comer of e)d'erior wall ne)d'to second
  B-7      Building (#5713)       Floor             0       boiler                                                      560       48
          UNICOR Computer
           Demanufacturing    Air handling
  F-1      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters              990       220
          UNICOR Computer
           Demanufacturing    Air handling
  F-2      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters              690       170
          UNICOR Computer
           Demanufacturing    Air handling
  F-3      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters             1100       220
          UNICOR Computer
           Demanufacturing    Air handling
  F-4      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters             1200       220
          UNICOR Computer
           Demanufacturing    Air handling
  F-5      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters             1300       220
          UNICOR Computer
           Demanufacturing    Air handling
  F-6      Building (#5713)    unit filters 1      13       Dust shaken from the air handling unit filters              980       230




4.3       Legacy LEV System and Bag House

The glass breaking operations conducted between 2003 and 2005 used a Torit LEV
system with a bag house that captured toxic metal dusts, such as lead and cadmium. This
system and bag house are still located at FCr Ft. Dix and, according to the UNrCOR
Factory Manager there, the LEV system has not been decontaminated, and filters in the
bag house have never been changed. Therefore, the system and bag house contain levels
oflead and cadmium that, if disturbed or disposed of without proper controls, have the
potential for personal exposure and environmental degradation. Glass breaking has been
permanently suspended at FCr Ft. Dix, so this system is not intended to be used by
UNrCOR at FCr Ft. Dix for e-waste recycling.

UNrCOR should decontaminate and decommission (D&D) this system and bag house.
The Factory Manager stated that this action was under consideration for 2009. Once

                                                                       18 

D&D is complete, UNICOR could then dispose of the system in any manner it deems
appropriate, such as use for other applications or facilities, disposal, recycling, or sale.
UNICOR should produce and retain all records for this process, including records
documenting that the system is free of contamination. See Section 5.0, Conclusions and
Section 6.0, Recommendations for further information on this process.

4.4     Environmental Compliance and Testing

A review was performed of available information relative to environmental compliance
and testing at the FCI Ft. Dix e-waste recycling facilities since 2003. Information is
provided below pertaining to testing of air emissions from the glass breaking LEV and
dusts from the general building ventilation system along with a review of an inspection
performed by the NJDEP.

4.4.1   Environmental Compliance

Current e-waste recycling operations at FCI Ft Dix are conducted under the authority of a
Class D permit issued by the NJDEP. This permit, issued for the period of August 8,
2005 to June 6, 2010, dictates the scope of allowable recycling operations and establishes
numerous requirements for the receipt, storage, processing, or transfer of recyclable
consumer electronics materials. The permit is limited to demanufacturing and
specifically prohibits the crushing of CRTs. Other environmental requirements are not
addressed in the permit; for example, the permit indicates that discharge of pollutants to
New Jersey waters shall not be done without prior acquisition of other necessary
approvals from the NJDEP.

FCI Ft Dix's Class D permit specifies over 60 requirements addressing such matters as
shipment routes to the factory, signage and labeling, compliance with OSHA regulations,
establishing fire-fighting and emergency contingencies, material inventories, periodic
reporting mechanisms, and approval of process modifications. In conjunction with the
issuance of the permit, NJDEP conducted a compliance inspection in November 2005.
The inspection encompassed numerous assessment elements relative to the above­
referenced permit requirements. In its final report, NJDEP indicated that no violations
were found and that the facility was in compliance with its Class D permit. In a written
summary of findings, the report indicated that:

        Work and storage ar eas were c lean andpr operly maintained and
        housekeeping w as satisfactory. Containers and palletized recyclable
        materials and residues were appr opriately labeled. Facility pe rsonnel
        continue to maintain a detailed computer database of materials received
        andpr ocessed. Noh azardous waste w as received, di scovered or
        generated at the facility.

The NJD EP report of findings went on to emphasize the importance of annual reporting
requirements and that a report was due in early 2006.



                                             19
Based on the NJDEP report, it appears that the facility was in substantial compliance with
all environmental requirements as of 2006. No additional salient information was
reviewed for subsequent years.

4.4.2   Air Emissions

Since air emissions were produced as a result of the glass breaking operations and the use
ofthe LEV discharging to the outside through an exterior bag house, NJDEP regulations
required periodic emissions testing be performed under the facilities' Preconstruction
Permit. Specifically, stack emissions testing for barium, cadmium, lead, phosphorus and
visible emissions observations was required so that comparison to New Jersey emission
limits could be performed. On August 29, 2003, the NJDEP issued UNICOR an
Administrative Order and Notice of Civil Administrative Penalty Assessment totaling
$6,000 for not submitting a stack test protocol and failing to perform stack testing within
the requisite periods. In November 2004 at the request ofUNICOR, TRC Environmental
Corporation prepared a detailed test plan for submission to the NJDEP, Bureau of
Technical Services. Although the testing was tentatively scheduled for fall 2004, it was
never performed. On June 23, 2005, glass breaking operations at FCI Ft. Dix were
suspended by UNICOR and never resumed.

Limited testing of ambient outdoor air in proximity to the bag house was performed in
June 2003. As stated in the testing firm's report, the purpose ofthe testing was to
determine whether exhaust emissions from the bag house outside Building 5713 "has any
impact on the outside environment." Two samples were collected near and downstream
from the exhaust ofthe air filtration equipment serving as the LEV for the glass breaking
operation being conducted inside the building. The samples did not show concentrations
oflead and cadmium above the analytical detection limit and the report' s stated
conclusion was that "both samples were low and did not indicate a concern for the
outside ambient air quality."

4.4.3   Dust Composition from Building Ventilation System Air Filters

Testing was performed on dusts captured by air filters from the general mechanical
ventilation system serving Building 5713 (see Image 4) to determine whether the
captured dust from the general factory air contained elevated concentrations of lead and
cadmium and therefore may contribute to exposures of building occupants. In addition, a
second test was performed to determine whether these filters should be treated as
hazardous waste.

Testing was performed on six very dusty air handling filters (size: 20"x20"xl") which
were provided to FOH on January 17, 2008 by a UNICOR supervisor at FCI Ft. Dix.
The filters were wrapped in the same plastic bag which had the label "Changed 112/08;
air handler filters". The supervisor indicated that the filters had been taken from the
different ceiling air handling units serving the e-waste breakdown area in Building 5713
on January 2, 2008. He indicated that filters from the air handling units are replaced on a



                                            20 

quarterly basis, although a UNICOR official stated that factory logs indicated that the
filters are changed 2 or 3 times annually.




                 Image 3. Air filters from the general factory ventilation system,
                 Building 5713

In order to test for total lead and cadmium in the filters' dust, each respective filter was
shaken over clean paper and the fallen deposits collected and placed in sampling
containers. As shown in Table 4, Samples FI-F6, the dust samples had concentrations of
total lead ranging from 690 to 1,300 mg/kg. Total cadmium ranged from 170 to 230
mg/kg. This suggests that dust levels in the general factory air creates some potential for
personal lead and cadmium exposures (although low) and reinforces the need for a sound
operations and maintenance plan that minimizes the disturbance of accumulated dust and
provides workers (particularly those involved in building maintenance, filter changing,
etc.) with the awareness, training, and equipment to protect against the hazards. Despite
some potential for exposure, FOR air sampling results on the general factory floor
indicate that airborne exposure in this area is minimal.

In addition to testing for total lead and cadmium, a sample of dust was analyzed for
extractible lead and cadmium via the Toxic Characteristic Leaching Procedure (TCLP)
method. A composite sample from all six samples was obtained by shaking all the filters
in the bag simultaneously and collecting the extracted dust. Testing showed that the
extractible lead concentration was 0.78 mg/l (EPA limit is 5 mg/l) and the extractable
cadmium concentration was 1.8 mg/l (EPA limit is 1 mg/l). This indicates that the dust
from the filters exceeds the cadmium limit for disposal as hazardous waste; however,
UNICOR should confirm the hazardous waste status for the dust-laden filters by testing
the filters during subsequent change-out periods. [See Attachments for additional details1




                                                 21 

4.5        OSHA Inquiry Regarding FCI Ft. Dix Recycling Operations

In response to a complaint of alleged hazardous working conditions and/or violations of
OSHA standards at UNICOR's recycling operations at FCI Ft. Dix, OSHA sent a request
for information to FCI Ft. Dix on April 15, 2005. OSHA stated that it did not intend to
conduct an inspection ofthe FCI Ft. Dix recycling facilities, but left open the option to do
so should it not receive a timely response to the allegations.

Seven allegations were listed by OSHA. A summary of the points in the allegations
included:

      • 	 Failure to provide areas for the consumption of food and beverages that are free of
          toxic metal contamination;

      • 	 Preparation of food in a manner that does not protect against contamination;

      • 	 Work being conducted in areas of toxic metal contamination and use of 

          compressed air to clean contaminated areas and surfaces; 


      • 	 Adverse health effects such as skin and eye irritation from dusts containing lead
          and cadmium; and

      • 	 Insufficient training to deal with work place hazards and lack of access to safety
          related records.

The BOP Warden at FCI Ft. Dix responded to the OSHA inquiry on April 25, 2005. The
response refuted each of the allegations and described the prevailing conditions and
practices that he claimed were maintained at the institution's recycling facilities. After
receiving the BOP's information, OSHA closed the matter.

5.0        CONCLUSIONS

Conclusions concerning safety, health, and environmental aspects ofUNICOR's e-waste
recycling operations at FCI Ft. Dix are provided below under the following subsections:

      •	   Heavy Metals Exposures;
      •	   Safety and Health Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

These conclusions are supported by the results, findings, and analyses presented and
discussed in Sections 3.0 and 4.0 ofthis report, as well as the documents assembled by
the orG.




                                              22 

5.1      Heavy Metals Exposures

      1. 	 Based on FOH monitoring results in January 2008 and on an assessment of
           monitoring information collected by UNrCOR starting in 2003, current routine e­
           waste recycling operations conducted on the FCr Ft. Dix factory floor (primarily
           demanufacturing and not including glass breaking that was discontinued in 2005),
           have minimal inhalation exposure potential to lead, cadmium, and other toxic
           metals. Lead, cadmium, and other metals exposures were either very low or non­
           detectable.

      2. 	 Current lead and cadmium surface contamination in the factory is not at levels
           that require remediation. Maintenance of existing housekeeping practices and
           implementation of an operations and maintenance (O&M) plan will suffice to
           control potential exposure from existing contamination. An element ofthe O&M
           plan could include periodic clean-up of surfaces by inmate workers; however, this
           would have to be performed using proper hazard controls.

      3. 	 According to assessments performed by UNrCOR consultants, personal exposures
           to lead and/or cadmium during glass breaking operations conducted in 2003 were
           above the action limits and PELs, at times. One cadmium exposure was elevated
           enough to where it was above the protective capacity ofthe respirator worn.
           Other cadmium and lead exposures above the PELs were within the protective
           capacity ofthe respirators in use. However, OSHA lead and cadmium standards
           require that these exposures be controlled through the implementation of work
           practice and engineering controls, rather than respiratory protection. During this
           time period, glass breaking was conducted in a glass breaking room using local
           exhaust ventilation (an engineering control) and defined work practices, but these
           controls were not adequate to consistently maintain exposures at levels below the
           PELs.

      4. 	 Personal exposures during the last episode of sampling during glass breaking
           conducted in April 2004 showed lead and cadmium exposures to be well below
           PELs. This confirmed that the improved engineering controls involving
           placement of plastic panels around the glass breaking area were effective in
           reducing personal exposures.

      5. 	 Exposure monitoring data are not available during the period 1999 through 2002.

      6. 	 The LEV system and bag house that was used at FCr Ft. Dix during glass
           breaking operations between 2003 and 2005 is still located at the facility and
           contains lead and cadmium contamination. The system does not represent an
           immediate worker exposure or environmental hazard, so long as it is not
           disturbed. However, at some point this system should be properly and safely
           decontaminated. The system represents a potential source oflead and cadmium
           hazards until decontamination is conducted.



                                              23
      7. 	 The air handling filters for the general ventilation system serving current factory
           operations contained lead and cadmium contamination. The cadmium level
           exceeded the TCLP level that defines the dusts as a hazardous waste. In addition
           to the environmental implications, this condition represents a potential for worker
           exposure during the change-out ofthese filters which is conducted on a quarterly
           basis. This filter change-out activity has not been monitored for worker exposure
           to lead and cadmium.

5.2      Safety and Health Programs, Plans, and Practices

      8. 	 Although certain safety and health practices are in place for UNrCOR's current
           recycling activities at FCr Ft. Dix, a written facility-specific safety and health
           document has not been developed to define safety and health requirements such as
           PPE requirements or voluntary use, hygiene (e.g., hand washing) practices, daily
           and periodic housekeeping practices, special training requirements for any
           hazardous equipment use or other hazard controls, and other practices essential to
           conduct work safely.

      9. 	 According to the FCr Ft. Dix Factory Manager, UNrCOR is in the process of
           identifying and assembling applicable safety and health standards and regulations
           into a standard operating procedures (SOP) manual that is to be implemented by
           the recycling factories. When complete, these SOPs are to be implemented at the
           factories, as applicable. Among other content, the Factory Manager specifically
           mentioned noise, ventilation, air contaminants, training, and heat stress as
           elements of the intended SOP manual.

      10. Based on exposures determined by FOH in January 2008, exposures during
          current e-waste recycling (mostly demanufacturing) conducted on the factory
          floor are not at the levels that require written lead and cadmium compliance plans.
          However, FOH believes that safety and health practices to ensure continued lead
          and cadmium exposure control are important to incorporate into an overall written
          facility-specific safety and health document. Controls for lead and cadmium
          hazards that should be specified in a safety and health document include any
          required personal protective equipment, housekeeping practices, hygiene
          practices, work practices to prevent uncontrolled releases, response to any
          unanticipated releases, periodic inspections and monitoring, training, and others
          as deemed appropriate by UNrCOR.

      11. For glass breaking operations conducted between 2003 and 2005, FCr Ft. Dix
          implemented engineering controls, work practices, use of personal protective
          equipment and respiratory protection, and other protective measures. These
          practices, however, were not formalized into written compliance plans or
          programs as required by various OSHA standards. Written plans for lead
          compliance and cadmium compliance were not in place. Between 1999 and 2002,
          safety and health practices were not well documented.



                                               24
5.3      Health and Safety Regulatory Compliance

      12. Current routine FCr Ft. Dix operations conducted on the factory floor (primarily
          demanufacturing and not including glass breaking that was discontinued in 2005)
          are in compliance with the OSHA lead and cadmium standards regarding control
          of employee exposure.

      13. During glass breaking operations conducted between 2003 and 2005, FCr Ft. Dix
          was in partial compliance with OSHA lead and cadmium standards and efforts to
          reduce exposures were implemented. Areas that were not in full compliance
          included (a) exposures were not consistently maintained at or below the PELs
          through the use of engineering and work practice controls, (b) written lead and
          cadmium compliance plans were not in place, (c) exposure monitoring did not
          initially include personal exposure monitoring for glass breakers during glass
          breaking, (d) change rooms were not compliant, (e) baseline biological
          monitoring for lead and cadmium was not conducted prior to start of glass
          breaking and was not conducted until approximately one year after glass breaking,
          and (f) employee notifications of exposure monitoring with intended corrective
          actions were not provided in writing.

5.4      Environmental Compliance

      14. A 2005 inspection performed by the NJDEP to evaluate the e-waste recycling
          facilities with respect to the environmental requirements associated with its Class
          D permit identified no violations. Limited outdoor air emissions testing, also
          performed in 2005, showed no measurable release oflead and cadmium dusts
          from the outside bag house used as part ofthe LEV system associated with the
          glass breaking operation.

      15. Dust deposits collected from air filters from the general air handling system
          serving the general factory floor showed the presence of some lead and cadmium
          contamination, and the dust itself exceeded the TCLP limit for cadmium.
          UNrCOR should perform further TCLP testing ofthe dust-laden filters to
          determine ifthey should be treated as hazardous waste.

      16. UNrCOR was issued citations by the NJDEP starting in 2003 for not performing
          stack testing within the period required. Prior to the completion ofthe requisite
          stack testing, glass breaking operations at FCr Ft. Dix were suspended by
          UNrCOR and never resumed.




                                              25 

6.0        RECOMMENDATIONS 


Recommendations concerning safety, health, and environmental aspects ofUNICOR's e­
waste recycling operations at FCI Ft. Dix are provided below under the following
subdivisions:

      •	   Heavy Metals Exposures;
      •	   Safety and Health Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

Recommendations are limited to current e-waste recycling (mostly demanufacturing)
conducted on the factory floor.

6.1        Heavy Metals Exposures

      1. 	 UNICOR should periodically conduct at least a limited amount of personal
           exposure monitoring that characterizes exposures resulting from current work
           activities conducted on the factory floor. This monitoring will serve to document
           continued control ofthe lead and cadmium hazards. An aunual monitoring
           program would be appropriate. Monitoring should also be performed for any
           future changes that could result in an increased level of exposure, such as changes
           in work operations, work processes/practices, or quantities or types of materials
           processed. The monitoring program should also capture non-routine activities
           with potential exposure to lead and cadmium. Given the low exposures found by
           FOH, the recommendation for annual monitoring goes beyond the requirements
           ofthe OSHA lead and cadmium standards, but would provide important
           documentation to establish consistently low exposures.

      2. 	 UNICOR should perform a hazard analysis and implement exposure appropriate
           controls (e.g., possibly PPE, dust control measures, dust clean-up measures,
           bagging techniques) for the change-out of the filters for the general ventilation
           system. FOH found that the filters provided to it for testing contained lead and
           cadmium dusts. Depending on the hazard analysis results and the duration of the
           change-out process, exposure monitoring (at least during the next initial change­
           out) should be conducted, if warranted.

      3. 	 UNICOR should develop and implement an operations and maintenance (O&M)
           plan to ensure that surface contamination is minimized and that existing
           contamination is not released that could result in inhalation or ingestion
           exposures. Elements ofthis plan could include:

           • 	 Identification of activities that could disturb contamination (e.g., HVAC
               maintenance, filter change and disposal, and various building maintenance
               functions);


                                              26
   • 	 Processes to identify and control hazards for routine and non-routine activities
       (e.g., job hazard analysis process prior to conducting certain work with
       identification of mitigating actions);

   • 	 Mitigating techniques and procedures during activities of concern (e.g., dust
       suppression and/or clean-up and capture, filter removal and bagging
       processes, and use of PPE and respiratory protection);

   • 	 Training and hazard communication;

   • 	 Disposal of contaminated materials; and

   • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
       appropriate.

   The O&M plan should also include safe work procedures and hazard controls to
   change-out the filters on the general air handling system, particularly ifthese
   filters are confirmed as needing to be treated as hazardous waste.

   At UNICOR' s discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate workers. If this element were adopted, however, UNICOR
   should ensure that practices to control exposures are included in the plan and
   implemented, such as appropriate PPE, respiratory protection, exposure
   monitoring, clean-up methods (e.g., HEP A vacuuming and wet methods), waste
   disposal, hygiene practices, and others deemed appropriate by UNICOR. Initial
   exposure monitoring should be conducted to determine whether exposure during
   clean-up is above the action limits for lead and cadmium. Controls for future
   clean-up activities should then be based on exposure results.

4. 	 UNICOR and FCI Ft. Dix should incorporate PPE requirements and practices,
     housekeeping practices (e.g., surface wet cleaning and HEPA vacuuming,
     disposal of contaminated PPE, etc.) in work areas, hygiene practices (e.g., hand
     washing), and other safe work practices that effectively control airborne, surface,
     and skin contamination into a written safety and health document (see Section 6.2
     for further information).

5. 	 UNICOR should decontaminate and decommission the Torit LEV system and
     associated bag house and filters that served the glass breaking operations
     conducted between 2003 and 2005. In performing this D&D operation, UNICOR
     should draw upon the experience and lessons learned from FCI Elkton and FCI
     Mariana regarding filter change-out and remediation processes. UNICOR should
     ensure the following:

   • 	 A written plan for worker and environmental protection should be developed
       following completion of a hazard evaluation. This plan should include
       appropriate work practices, hazard controls, and waste disposal methods.

                                         27
         • 	 Work practices should include such techniques as wet methods, HEPA
             vacuuming, containment of emissions, bagging methods, housekeeping, and
             final cleanup. UNrCOR's FCr Elkton and FCr Mariana filter change-out and
             other remediation methods should be reviewed for applicability to FCr Ft.
             Dix.

         • 	 Worker protection should include appropriate PPE, respiratory protection,
             hygiene practices, and other hazard control measures.

         • 	 Personal and area exposure monitoring should be conducted. Surface
             sampling should be used to confirm successful decontamination.

         • 	 Hazardous waste sampling should be performed to determine and implement
             proper disposal techniques, and those techniques should be applied and
             documented.

         • 	 Records should be developed and maintained to demonstrate worker
             protection, environmental compliance, and successful decontamination.

6.2      Safety and Health Programs, Practices, and Plans

      6. 	 As a "good practice" approach, UNrCOR should prepare a concise written safety
           and health document specifically for its recycling operations at FCr Ft. Dix, as
           well as for each of its other recycling factories that lack such a document. Such a
           document should be developed and implemented and would serve to concisely
           define the safety and health practices and requirements specific to FCr Ft. Dix
           recycling, such as PPE requirements or voluntary use, hygiene (e.g., hand
           washing) practices, daily and periodic housekeeping practices, special training
           requirements for any hazardous equipment use or other hazard controls, and other
           practices essential to conduct work safely, Such a document could also be used as
           an implementing mechanism for UNrCOR's safety and health SOP manual when
           it is completed. Specifically for FCr Ft. Dix, the document could specifically
           define roles and responsibilities, describe workplace hazards, provide for hazard
           analysis and control processes, establish the safety and health and hazard control
           requirements for current operations, identify which UNrCOR safety and health
           SOPs are applicable to FCr Ft. Dix based on its hazards and operations, and
           ensure implementation of applicable UNrCOR SOPs.

      7. 	 The safety and health document should also include training requirements. These
           requirements should include training for use of hearing protection and nuisance
           dust masks even if used only in a voluntary or precautionary manner. See Section
           3.2 for more details on training and documentation requirements for nuisance dust
           mask use.




                                              28
6.3      Health and Safety Regulatory Compliance

      8. 	 FCI Ft. Dix should conduct activity-based job hazard analysis (JHA) for any new,
           modified, or non-routine work activity prior to the work being conducted. The
           JHA process is intended to identify potential hazards and implement controls for
           the specific work activity prior to starting the work. For instance, the JHA
           process should be integral to an effective O&M plan, as described in Section 6.1.
           This hazard analysis process should also be specified in the written safety and
           health document recommended in Section 6.2, above.

6.4      Environmental Compliance

      9. 	 FCI Ft. Dix should conduct/continue periodic internal inspections for compliance
           with environmental regulations and, in particular, the requirements of the Class D
           permit should be performed. The report of findings issued in 2005 by the NJDEP
           provides a good listing of criteria for these assessments.

      10. UNICOR should perform TCLP analysis of the air filters from the general factory
          to determine if filters are to be treated as hazardous waste. This testing should be
          conducted after the filters are next changed to confirm the findings reported in
          Section 4.4.3 ofthis report. During the filter change-out process, appropriate
          safety and environmental precautions should be implemented to ensure that
          workers are protected against possible lead and cadmium exposure and to ensure
          that the filters are properly bagged and stored pending test results. Future filter
          change-out procedures should be developed based on the test results and these
          procedures should be incorporated into an O&M plan (also see Recommendations
          2 and 3 in Section 6.1).


7.0      REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference of Governmental
Industrial Hygienists.

AIHA [2007]. AIHA-ANSI Z9. Health and safety standards for ventilation systems.
Z9 Accredited Standards Committee. Available
at: http://www.aiha.orgiContentiInsideAIHAIStandards/z9.htm

BOP [2007]. Program Statement PI600.09. Occupational Safety, Environmental
Compliance, & Fire Protection. U.S. Department of Justice, Bureau of Prisons, October
2007.

CFR [24 CFR 35]. HUD Lead safe housing rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.


                                              29 

CFR [29 CFR 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR 1910.95]. Occupational safety and health standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR, Part 1960]. Basic program elements for Federal employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR, Part 1926.62]. Safety and health regulations for construction. Lead. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [40 CFR 261.24]. Protection of environment. Identification and listing of hazardous
waste. Toxicity characteristic. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

DOE [1999]. Chronic beryllium disease prevention program. 10 CFR Part 850 [Docket
No. EH-RM-98-BRYLM] RIN 1901-AA75. Office of Environment, Safety, and Health,
Department of Energy. Final Rule. Federal Register, Vol. 64, No. 235, Wednesday,
December 8, 1999, Rules and Regulations, pp. 69954-68914.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor
industry. Environmental Health Perspectives. 107:A452-A457.

e-CFR [40 CFR 745.65]. Lead-based paint poisoning prevention in certain residential
structures. Lead-based paint hazards. Electronic Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

EPA [n.d.]. Test methods for evaluating solid waste, physical/chemical methods. SW­
846. Washington, DC: U.S. Environmental Protection Agency. Available
at: http://www .epa. gov/ epawasteihazarditestrnethods/index.htrn

FOH. [2008]. Evaluation of Environmental, Safety, and Health Information Related to
Current UNICOR E-Waste Recycling Operations at FCI Elkton. U.S. Department of


                                          30 

Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service.
October 10,2008.

Lange, J.H. [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. 10:48-51.

NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati, OH:
U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.

Schmidt C.W. [2002]. e-Junk Explosion. Environmental Health Perspectives. 1l0:A188­
A194.




                                           31 

                                     APPENDIX

                      Guidance for Evaluating Surface Samples

Federal standards or other definitive criteria have not been developed for acceptable
levels of lead or cadmium surface contamination or dust concentrations in industrial areas
where activities are performed involving lead and/or cadmium bearing materials.
However, several recommendations or guidelines, primarily for lead, provide points of
reference to subjectively evaluate the significance of surface contamination. Some
guidelines are available and are noted below (see the NIOSH/DART Elkton report for a
more detailed discussion of guidelines):

   • 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
       OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
       can be summarized and/or interpreted as follows: all surfaces shall be maintained
       as 'free as practicable' of accumulations oflead; the employer shall provide clean
       change areas for employees whose airborne exposure to lead is above the PEL;
       and the employer shall assure that lunchroom facilities or eating areas are as free
       as practicable from lead contamination. The OSHA Compliance Directive for the
       Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of the
       Department of Housing and Urban Development' s (HUD) initially proposed a
       decontamination guideline of 200 Ilglif for floors in evaluating the cleanliness of
       change areas, storage facilities, and lunchrooms/eating areas. In situations where
       employees are in direct contact with lead-contaminated surfaces, such as working
       surfaces or floors in change rooms, storage facilities, and lunchroom and eating
       facilities, OSHA has stated that the Agency would not expect surfaces to be any
       cleaner than the 200 Ilg/ft21evel.

   • 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
       are actively processed), OSHA has indicated that no specific level can be set to
       define how "clean is clean" nor what level of lead contamination meets the
       definition of "practicable." Specifically addressing contaminated surfaces on
       rafters, OSHA has indicated that they must be cleaned (or alternative methods
       used such as sealing the lead in place), as necessary to mitigate lead exposures.
       OSHA has indicated that the intent ofthis provision is to ensure that employers
       regularly clean and conduct housekeeping activities to prevent avoidable lead
       exposure, such as would potentially be caused by re-entrained lead dust. Overall,
       the intent ofthe "as-free-as-practicable" requirement is to ensure that
       accumulation of lead dust does not become a source of employee lead exposures.
       OSHA [29 CFR, Part 1910.1025] has stated that any method that achieves this
       end is acceptable.

   • 	 Lange [2001] proposed a clearance level of 1,000 Ilg/ft2 for floors of non-lead
       free commercial buildings and 1,100 Ilglif for lead-free buildings. These
       proposed clearance levels are based on calculations that make a number of
       intentionally conservative assumptions.
• 	 HUD [24 CFR 35] has established clearance levels for lead on surfaces after lead
    abatement. These levels range from 40 to 800 /lg/if, depending on the type of
    surface. The level of200 /lg/fr is most commonly used. These levels, however,
    apply to occupied living areas where children reside, and are not intended for
    industrial operations.

• 	 Regarding lead in bulk dust or soil samples, the U.S. EPA [EPA n.d.] has
    proposed standards for residential soil-lead levels. The level of concern requiring
    some degree of risk reduction is 400 ppm (mg/kg), and the level requiring
    permanent abatement is 2,000 ppm (mg/kg). Again these levels are for residential
    settings, rather than for industrial operations.

• 	 There is no quantitative guidance for surface cadmium concentrations. OSHA [40
    CFR 745.65] states that surfaces shall be as free as practicable of accumulations
    of cadmium, all spills and sudden releases of cadmium material shall be cleaned
    as soon as possible, and that surfaces contaminated with cadmium shall be
    cleaned by vacuuming or other methods that minimize the likelihood of cadmium
    becoming airborne.
ATTACHMENTS 

                                       ATTACHMENT 1

                           AIR SAMPLING DATA TABLE
               [General Factory Floor in/near Areas ofE-waste Recycling]

Location: FCI Fort Dix, Building 5013
SamplinglLaboratory Methodology: NIOSH Method 7300

                                          Sample
                                       Information        Air
                                                                     Sample
Sample      Date                        (Location;      Volume                 Lead     Cadmium
                         Building                                   Duration
      #   Collected                      activities     Collected              mglm'     mglm'
                                                                     (min.)
                                       performed,         (L)

API        1/17108     UNICOR                             589         269       ND        ND
                       Electronics
                       Recycling
                       Building

                                      Breakdown
                                      table
AP2        1/17108     UNICOR         Area:               951         315       ND        ND
                       Electronics    Maintenance
                       Recycling      adjacent to
                       Building ­     tool rOOffi- on
                       Lower level    stand

                       Electronics
                       Recycling
                       Building ­
                       Upper level


                       Electronics    assurance ­
                       Recycling      desktop
                       Building -     cleaning area
                       Lower level    - on exhaust
AP5        1/17108     UNICOR                             582         258      0.0014     ND
                       Electronics
                       Recycling
                       Building
                                      Motherboards
                                      and cards area
BPI        1117/08 	   UNICOR         Area: Glass         903         304       ND        ND
                       Electronics    booth area
                       Recycling      next to boiler
                       Building -     (compacter)
                              level




                                      Breakdown
                                      table
                                              Sample
                                           Information         Air
                                                                           Sample
Sample          Date                        (Location;       Volume                    Lead       Cadmium
                             Building                                     Duration
      #       Collected                      activities      Collected                 mg/m'       mg/m'
                                                                           (min.)
                                           performed,          (L)

BP3            1117/08     UNICOR         Area: Scrap           954          317         ND           ND
                           Electronics    laptops and
                           Recycling      parts on stand
                           Building ­
                           Lower level
BP4            1117/08     UNICOR                               567          259         ND           ND
                           Electronics
                           Recycling
                           Building




                                          Breakdown
                                          table
Blank I        1117/08                    Field blank                                    ND           ND

Blank 2        1117/08                    Field blank                                    ND           ND


      1. 	 Sampling was p erfonned t 0 characterize ai rbome 1ead an d cad mium co ncentrations a tv arious
           locations on the general factory floor inlnear recycling operations (primarily de-manufacturing).
           The purpose of this sampling was to characterize general ambient air exposures presumably from
           the dust deposits found on various surfaces.
      2. 	 Detection limits: 'ND' denotes 'None detected' or <0.2 ug Pb/sample (equivalent to 0.0004mg/m3
           based on 500 liters of air sampled) and <0.04ug/sample Cd (equivalent to 0.00008 mg/m3 based
           on 500 liters of air sampled).
      3. 	 In a ddition to the time-weighted average data s hO\vn above, an ai rborne d ust survey was
           performed throughout the sampling day using a real-time, direct-reading instrument (HAZDUST­
           1100). The purpose of this testing was to identify whether any elevated concentrations or 'dust
           release' t rends co uld bed iscerned. Special emphasis was placed 0 n testing ai r immediately
           adjacent tot he various de-manufacturing work a ctivities being conducted i n t he building and
           during 0 ther a ctivities which might ge nerate contaminated dusts t 0 which personal may b e
           exposed. The instrument showed no detectible concentrations of any airborne particulates in any
           of the areas surveyed. The HD-ll 00 instrument identifies particulates on a semi quantitative basis
           ranging from 0.1 urn to 50 urn in size (detection limit: approximately 0.02 mg/m3).
      4. 	 NOTE: Other metals included in the lab data (besides lead and cathniurn) have not been evaluated.
                                                                            ATTACHMENT 2 


                              DATA TABl.E: Fort [lixlA/l, ,Io"."i' Handler Filten                                                                                 11/' 7/08)
        D,",

                                   Buifding
                                    Name                                                                                                                   Cadmium       INoles:
                    W~W'e;,
                    B=Bulk;
                    H=Hand
                     W'P'                                          lre,l)
                              UNICOR ~PUIeI                                 ~ipe ~igh) nside
      1,'1712008                                                            1''""~41'';' bltlakng
B-1     FOH            B       B",""O 1#5713)          P'P'         13      ,rn,                                40 1028                      144 0                 110

                              UNICOR ?=puler
      1,'1712008                                                            Metal r uss byceiling
B-2     FOH                    Building (#5713)    ~tal truss       13      bpm,1I boydpo;                      42       029                 1390                  95

                              UNICOR ~PUIeI
      1t17f.l:008              Demanufuclunng        Window                 Win dCM' ledge of side
        FOH                    Building (#5713)       ledge         11      w,1I                                96       0.67                                      160

                              UNICOR Ccmpuwr
      1,'1712008                                                            Metal       p ~e   owr main
B-4     FOH            B       B",""O (#5713)       "'., P'P"       12      ,~",o;                              54   I   0,38                1790                  250

                              UNICOR ?=puler                                Tq> p ~e surface in
      1,'1712008                                                            brnakdOlin Ilne#1 &2
B-5     FOH            B       B",Id"O (#5713)      "'., P'P"       12      OC~ ,,~ boydpo;                     36   I   025                 1670                  66

                              UNICOR ?anPJiel
      1,'17/2008
        FOH                    Building (#5713)    Metal Truss      12                                          48       0.33                1330                  67

                              UNICOR ?~PJtel
      1,'17/2008                                                                    ,          II
B-7     FOH            B       B",Id"O (#5713)         Flp~          o      ",wod bol"                          50   I   0.35                1560                  48 irkwI,,",d,                         ~
                                                                                                                                                                         I!::!:
                                                                                                                                                                            li te,
                                                                                                                                                                      •      ,wl,d I                  ,                  ,
                                                                                                                                                                         ~icatedth                          tIlearr
                                                                                                                                                                         Ih~nd. ling units In the breakdown area
                                                                                                                                                                         ~hiGh am replaced on quam ly baSIS.
                                                                                                                                                                         IT'Wei             I                      012"8
                                                                                                                                                                         I:nd the ~~g was labeled as such.
                              UNICOR ?anpulfll                                                                                                                           IReCeiYEld I     . Fillpatnck. Sample
      1,'17/2008                                   Ai r handling            Dust shaken t om fl e                                                                        ICOlleCted      F. Fitzpatrick b'J' shaking fillflr
F-1     FOH                    B",IdIPO (#5713)     unitfillflrs    13          I         II         i llflrs                                1000                  220 101lElr cean     ~perb-1 0 secon ds.
      1,'17/2008                                   Air handling
F-2     FOH                                         unitfillflrs    13                                                                       1690                  170   IS" F-1
                              UNICOR Canpulfll
      1,'17/2008                                   Air handling             Dust shaken t om fl e
F-3     FOH            B       Buil ding (#5713)    unitfillflrs    13          I         Ii         i llflrs


                              UNICOR ?anpulfll
      1,'17/2008                                   Air handling             Dust shaken t om fl e
F-4     FOH            B       Building (#5713)     unitfillflrs    13          I         II         i llflrs                                11200

                              UNICOR ?anpulfll
      1,'17/2008                                   Air handling             Dust shaken t om fl e
        FOH                    B",IdIPO (#5713)     unit~llfHl;     13          I         II         i llflrs


      1,'17/2008                                   Air handling             Dust shaken t om fl e
F-6     FOH                                         unitfillflrs    13          I         II         i llflrs                                1980


                              UNICOR ?~PUlfll                               Glows used b'J'wo ~el
      1,'17/2008                                                            I                       area'
G-1     FOH           W        B",IdIPO (#5713)                      o      w'p,d,                                               26                  2,9

                              UNICOR Compulfll
      1,'1712008
G-2     FOH           W        Buil ding (#5713)      G(MlS                 BIOPkw,p"                                           I ND   ND            ND    I ND                    I            Products 'ead \\ipes "


                              UNICOR ?=pulfll
      1,'1712008                                   Shoot metal
W-1     FOH           W        B",IdIPO (#5713)      '"ctioO                                                    72       0.50    160   320           30 1320             IColleclfld from the emaust


                              UNICOR ?=PUlfll
      1,'1712008                                   Shoot metal
W-2     FOH           W        B",IdIPO (#5713)      d"ctioO                                                    60       0.42    380   912
                                                                 ATTACHMENT 2 (Continued)

           Dat~


  ,
Sa~le    Collected!
        Collected By
                       Sa~le
                        Type
                                    Bu ld ing
                                     Name
                                                       Surface
                                                        litem        Elevat on             Descript on
                                                                                                               ",,"  Area
                                                                                                               Wiped Wiped          Lead         Cadmium   N()tes


                               UNICORComputer                                    Top ()lIluorescent light
         111712008              Demanuladuriroj      Fluorescent                 I~n thecenter ()f pre;;()us
 W~3       m~           W       Building (#5713)         light          13       glass break ng area                  0.38   <80   1,280   120     320
                                                                                                                "
         111712008
                               UNICORComputer
                                DernlnuladurirOj
                                                                                 I~ade  ()f exhflust Ian
                                                                                  leading outside - cieri.:
 W~3       m~           W       Building (#5713)     Exhaust Ian        3        area                           23    017    130   3SO     20      120

                               UNICORComputer                                    Top 01 light It<.ture
         1117!.1008             Demanuladuriro;J                                 (incandescent) - acr()Ss
 W~3       m~           W       Building (#5713)     Ughtlt<.ture       13       from utl ity closet            3B    0.25   320   1.280   8B      ~3


                               UNICORComputer
         111712008              Demanufaduriro;l                                 Metal pipe over main
 W~B       m~           W       Building (#5713)      Metal pipe        12       oorrnnr                        38    0.33   320   2,1£0   310     830

                               UNICORComputer                                    Metal truss in lront ()f
         1117!.1008             Demanuladuriroj                                  exit door (BreakdVloTl
 W~3       m~           W       Bl.Jilding (#5713)    Meta truss        13       area #1)                       38    0.33   800   1,800   220     ££0

                               UNICORComputer
         1117!.1008             Derrnnufaduriroj                                 Fan blade of exhaust fan
 W~8       m~           W       Building (#5713)      Fan blade         10       overd()()r                     30    0.28   93    339     32      m

                               UNICORComputer                                    FI()()r- in comer of
         1117!.1008             Derrnnufaduriroj                                 former glass break ng
 W~9       m~           W       Bl.Jilding (#5713)       Floor          0        area                          133    100    120   120     19      19
                                                                                 Wa l n fO'mer glass
                               UNICORComputer                                    breaking area in oomer
         111712 008             Derrnnufaduriroj                                 above noor sample CN­
W-10       m~           W       Bl.Jilding (#5713)       W",            3         91                           133    100    39     39     12      12

                               UNICORComputer                                    FI()(t at corner directly
         111712008              Derrnnufaduriroj                                 underexhoost dud in
W-11       m~           W       Bl.Jilding (#5713)       Floor          0        glass break ng area            9     0.0£   80    1,280   23      383

                               UNICORComputer                                    Metal support (horilontal
         111712008              Derrnnufaduriroj                                 surface) of boiler next to
W-12       m~           W       Bl.Jilding (#5713)   Metal support               exhaust fan                    3B    0.25   82    328     23      98

                               UNICORComputer                                    Metal cond LJ t on exter or
         111712008              Derrnnufaduriroj                                 walinexttosCClle-
           m~                                                                    Outside battery recyejing
W-13                    W       Bl.Jilding (#5713)   Metal condLJt
                                                                       "                                        12    0.08   39    938     11      132     Some ;;s lJ le dust apparent


                               UNICORComputer                                    Conduit over door near
         1117!.1008             Derrnnufaejuriroj                                former glass break ng
W-14       m~           W       Bl.Jilding (#5713)     Conduit          3        area                           30    0.21   09    331     99      38

                               UNICORComputer
         111712008              Demgnufaejuriroj       Ledge of                  On top ledge of mrror
W-15       m~           W       Bl.Jilding (#5713)      mirror          8        above slop siro.:              0     0.04   3B    1,340   90      228

                               UNICORComputer                                    RefurtJ EMesting area
         111712008              Derrnnufaejuriroj                                (downstairs) ­ top of
W-1B       m~           W       Bl.Jilding (#5713) Window panel                  bottom 'llindow panel          12    0.08   33    308     93      112

                               UNICORComputer                                    FlOCI' comer exterior wall
         111712008              Derrnnufaduriroj                                 under 'lli ndow middle 0
W-17       m~           W       Building (#5713)         Floor          0        faejlily                       23    017    100   800     29      133

                               UNICORComputer
         111712008              Derrnnufaejuriroj
           m~                                                                    Blank 'llipe (ghost ~e)                                                   "G host 'llipes· provded by NIOSH
W-18                    W       Bl.Jilding (#5713)
                                                         ""            '"                                       "" "" " "                  " "
                               UNICORComputer                                    Top of cinder block
         111712 008             Derrnnufaduriroj     Cnder block                 ledge behind electrical
W-19       m~           W       Bl.Jilding (#5713)     ledge            8        panel B                        12    0.08   89    1,070   33      >18

                               UNICORComputer
         111712008              Derrnnufaejuriroj                                Metal pipes (in between
W-20       m~           W       Bl.Jilding (#5713)   Metal Pipes        0        section bolts)                 9     0.0£   22    302      8      98
                              ATTACHMENT 2 (Continued)


Conclusions-Wipe, Bulk and Particulates from Filters from Air Handling Units:

I. 	 Detectable lead and cadmium contamination was found to exist on all surfaces tested
     and in the particulates shaken from the filters said to be taken from the air handling
     units.

2. 	 Bulk samples of dust deposit collected from various surfaces throughout the
     electronics recycling facilities showed lead concentrations ranging from 330 to 970
     mg/kg.

   These levels are not judged to be significant enough to warrant remediation, although
   steps should be implemented to limit exposures to personnel who may come in direct
   contact with this material (e.g., implementation of an operations and maintenance
   plan). Rationale for the conclusion that these levels in the settled dusts do not warrant
   remediation include the EPA criteria for lead contamination in soil. While not
   directly applicable, EPA has adopted 400 mg/kg lead in soil "where children may be
   exposed" as a level of concern that should trigger appropriate risk reduction activities
   and 2: 2000 ppm as a trigger for permanent abatement of soil lead hazards.
   (http://www.cdc.gov/nioshl2001-113.html) Cadmium concentrations ranged from 48
   to 250 mglkg (about 5x lower than lead) and, as with lead, are not judged to be
   significant enough to warrant remediation.

3. 	 Particulates shaken from air filters said to be taken from the air handling units in the
     electronics recycling building after 3 months of use all showed the presence oflead
     and cadmium.

   This is consistent with the other data gathered (i.e., for bulks and wipes) and indicates
   that lead and cadmium-containing dust exists in the area. It also indicates that lead
   and cadmium-containing dust is entering the air ducts or that the dust deposits have
   settled in the ductwork from previous operations (and are being released to the filters
   over time), or both.

4. 	 Surface wipe samples ranged from 320 to 2160 ug/ft2lead and 96 to 930 ug/ft2
     cadmium.

   These levels are not judged to be a significant enough to warrant remediation,
   although steps should be implemented to limit exposures to personnel who may come
   in direct contact with this material (e.g., implementation of an operations and
   maintenance plan). Rationale for the conclusion that these levels do not warrant
   remediation includes the proposed Lange clean-up criteria for lead in commercial
   buildings and general lack of accessibility to the surfaces. [Langel
5. 	 Wipes of work gloves said to be used by an inmate in the electronics recycling
     factory showed very little lead and cadmium contamination.

6. 	 Other metals: NOTE: Lab data for metals other than lead and cadmium have yet to
     be evaluated.
                                   ATTACHMENT 3 





                          SUMMARY REPORT 

     Analysis of Dust from Air Filters taken from Building 5713, Ft. Dix 


By:   F. Fitzpatrick, CIH; Federal Occupational Health
Date: 11116/08

~dling                   filters (size: 20"x20"xl") were provided to FOH on 1117/08 by
_ _, UNICOR, FCI Ft. Dix. The filters were all wrapidi                     in!the !
                                                                                  same
plastic bag which had the label "Changed 112/08; air handler filters".
indicated that the filters had been taken from the different ceiling air an mg umts
serving the breakdown area of the e-waste breakdown area in Building 5713 on 112/08.
He indicated that filters from the air handling units are replaced on quarterly basis.

Dust was collected from each of the six filters and analyzed for total lead and cadmium
by BV Labs. Samples were collected by shaking each respective filter over clean paper
and placing fallen deposits into a sampling container.

The dust samples showed concentrations of total lead ranging from 690 to 1300 mg/kg
Total cadmium ranged from 170 to 230 mglkg. [see "Data Table: Fort Dix WipelBulk!
Air Handler Filters (Samples Collected 1117/08)"]




In addition, sample was taken of dust obtained by shaking all the filters in the bag
simultaneously. This composite sample was prepared (extracted) using EPA method
301113015 aud analyzed for extractible seven metals, including lead and cadmium, via
EPA's TCLP method 60 I DB (preparation method) in order to determine whether these
filters may need to be treated as hazardou s waste.

Testing showed that the extractible lead concentration was 0.78 mg/I (EPA regulatory
level is 5 mg/I) and the extractable cadmiwn concentration wasl.8 mg/l (EPA regulatory
level is 1 mglm 3). Traces of barium and chromilUll were also found in the leachate but at
10-100 times below the EPA limits.

            TClP Data-- Air Filter Dust (from DataChem Laboratories




   PQL= Practical Quantitation Limit; ND= "No ne Detected"; U= ''Not detected above the minimum detection limit"


The presence of cadmium in the extracted leachate at a concentration which exceeds the
EPA TCLP regulatory level
USP LEAVENWORTH 

(-f-
.,.~'/o ~'~VI~lS_&~




<2j
                       DEPARTMENT OF HEAL TH & HUMAN SERVICES            Prog ram S upport Center
                                                                         u.s. Pu blic Health Servi ce
                                                                         Federal Occupationa l Health Service




                       EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                         HEALTH INFORMATION RELATED TO UNICOR 

                           E-WASTE RECYCLING OPERATIONS AT 

                                   USP LEAVENWORTH 




                        PREPARED FOR THE UNITED STATES DEPARTMENT OF mSTICE
                                  OFFICE OF THE INSPECTOR GENERAL




                      Submitted to:

                                        Oversight and Review Division
                                        Office ofthe Inspector General
                                        US. Department of Justice



                      Submitted by: 	   Mr. George Bearer, CIH
                                        FOH Safety and Health Investigation Team
                                        Program Support Center
                                        US. Public Health Service
                                        Federal Occupational Health Service


                                                   November 5, 2009
                                                     Table of Contents

1.0 	 INTRODUCTION ..................................................................................................... 3 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT USP 

      LEAVENWORTH ..................................................................................................... 4 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      USP LEAVENWORTH ............................................................................................. 5 

      3.1 	 Safety and Health Practices and Procedures to Control Toxic Metals Exposure 

               ........................................................................................................................... 5 

      3.2 	 Safety and Health Practices and Procedures to Control Other Hazards ........... 8 

4.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ............................... 9 

      4.1 	 UNICOR Consultant Evaluation of 2008 ....................................................... 10 

      4.2 	 UNICOR Consultant Evaluation of 2009 ....................................................... II 

      4.3 	 Investigations for Noise Exposure .................................................................. 13 

      4.4 	 Environmental Issues ...................................................................................... 13 

5.0 	 CONCLUSIONS ...................................................................................................... 13 

      5.1 Heavy Metals Exposures ................................................................................. 14 

      5.2 Noise Exposure and Other Hazards ................................................................ 15 

      5.3 Health and Safety Programs, Plans, and Practices .......................................... 15 

      5.4 Health and Safety Regulatory Compliance ..................................................... 16 

      5.5 Environmental Compliance ............................................................................ 16 

6.0 RECOMMENDATIONS ......................................................................................... 16 

      6.1 Heavy Metals Exposures ................................................................................. 17 

      6.2 Noise Exposure and Other Hazards ................................................................ 18 

      6.3 Safety and Health Programs, Practices, and Plans .......................................... 19 

      6.4 Health and Safety Regulatory Compliance ..................................................... 20 

      6.5 Environmental Compliance ............................................................................ 20 

7.0 REFERENCES ........................................................................................................ 20 





                                                               Tables

Table I:            Occupational Exposure Limits



                                                            Appendix

Criteria and Guidance for Evaluating Surface Samples




                                                                   2

1.0       INTRODUCTION

At the request of the u.s. Department of Justice (DOJ) Office of the Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistle blower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR).l The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e., e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report discusses UNICOR's e-waste recycling operations at the United States
Penitentiary, Leavenworth, Kansas (USP Leavenworth). The federal agencies that are
assisting the OIG with its investigation (FOH, the National Institute for Occupational
Safety and Health (NIOSH), and the Occupational Safety and Health Administration
(OSHA)) did not conduct on-site assessments at USP Leavenworth. To prepare this
report, FOH reviewed information assembled by the OIG, including UNICOR consultant
industrial hygiene reports, other documents related to ES&H issues at USP Leavenworth,
and an OIG interview with the Production Controller. FOH also interviewed the
Production Controller. The primary objectives and purpose of this report are to
characterize current UNICOR operations and working conditions at USP Leavenworth in
light of the whistleblower allegations and to evaluate worker protection and
environmental protection measures. This report characterizes current operations and
working conditions at USP Leavenworth (i.e., from startup in 2007 to present) especially
with respect to the potential for inmate and staff exposures 3 that may result from present
day e-recycling activities.

USP Leavenworth is last of eight BOP institutions for which an assessment report has
been prepared by FOH. On October 10, 2008, FOH issued a separate report entitled
"Evaluation ofEnvironmental, Safety, and Health Information Related to Current
UNICOR E-Waste Recycling Operations at FCI Elkton" [FOH 2008] detailing current
exposure conditions at FCI Elkton. The FOH report for FCI Elkton should be reviewed
for a more comprehensive discussion of the hazardous components found in e-waste

           1 FPI, (cornrnonlyreferred to by its trade name UNICOR) is a wholly-owned, Government corporation that

operates factories and employs inmates at federal correctional institutions.
           2 E-waste is defined as a waste type consisting of any broken or llllwanted electrical or electronic device or
component.
           3 In this report, the term "exposure" refers to the airborne concentration of a contaminant (e.g., lead or
cadmium) that is measured in the breathing zone of a worker but outside of any respiratory protection devices used.
Unless otherwise noted, "exposure" should not be confused with the ingestion, inhalation, absorption, or other bodily
uptake of a contaminant since, in part, concentrations reported and discussed in this report are not adjusted based on
respirator protection factors. However, when reported, it is indicated whether the exposure was within the protective
capacity of the respirator.



                                                             3

electronics, pertinent regulatory requirements, and other information that provides
additional context to this report for USP Leavenworth.

Currently, e-waste recycling operations at USP Leavenworth involve receipt of waste
electronics from various locations around the country, disassembly and sorting activities
Cdemanufacturing'), and the associated material handling and facilities maintenance
required to support these operations. Glass breaking operations (GBO) have never been
performed at USP Leavenworth.


2.0 	   UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
        USP LEAVENWORTH

UNICOR e-waste recycling operations commenced at USP Leavenworth in mid-2007 at
factory facilities located at a camp adjacent to the main prison. Incoming materials are
received and unloaded at the factory loading dock and processed in the factory. Materials
and equipment received for recycling include central processing units (CPUs), CRTs,
televisions, printers, copiers, and fax machines. As with other UNICOR e-waste
recycling operations, current recycling of electronic components at this facility involves
receiving and sorting, disassembly, and packaging and shipping. Cleaning and
maintenance in support of these processes are also conducted. Glass breaking and
desoldering are not performed, although inmates clean-up CRT glass that is accidentally
broken. After clipping cords, CRTs are shipped intact to FCC Tucson for removal of
their housings and for shipping to a recycling factory in Mexico. The flow of materials
and operations are described below.

The USP Leavenworth factory is a single building. Equipment for recycling is received
at the factory's loading dock and then weighed, examined, unloaded, and categorized.
CRTs are segregated and sent to a factory location where they are palletized and shipped
intact to FCC Tucson. Parts and equipment to be refurbished and disassembled are
segregated into Gaylord boxes by material type (e.g., plastics, metals, circuit boards,
wires, etc.). These materials are then moved to various work stations in the factory for
processing. Metal and plastic components are compacted using baling equipment. When
processing is complete, materials are packaged for shipment. See FOR reports for USP
Lewisburg and FCI Marianna for a more detailed description of disassembly and related
activities that generally apply to USP Leavenworth. [FOR 2009a; FOR 2009b 1

UNICOR has never performed glass breaking or plastic sanding at USP Leavenworth.
When glass is accidentally broken, inmates clean up the glass according to a UNICOR
written work instruction. A cleanup kit is on hand that includes protective equipment and
cleanup equipment to be used for this operation. Inmates also perform daily and weekly
cleaning activities to keep lead and cadmium contamination levels in check in the work
areas. See Section 3.1 for further descriptions of work practices for CRT glass cleanup
and work area cleaning activities.




                                            4

3.0 	   BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT USP LEAVENWORTH

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H policy entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
[BOP 2007] UNICOR's compliance with this policy will be evaluated in the OIG's final
report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples applicable to UNICOR's e­
waste recycling activities include:

    • 	 29 CFR 1910.1025, Lead requires a written lead compliance plan;
    • 	 29 CFR 1910.1027, Cadmium requires a written cadmium compliance plan;
    • 	 29 CFR 1910.134, Respiratory protection requires a written respiratory protection
        program; and
    • 	 29 CFR 1910.95, Occupational noise exposure requires a written hearing 

        conservation program. 


In addition to the specific OSHA standards listed above, heat exposure is another hazard
that could be associated with USP Leavenworth recycling operations. Although OSHA
does not have a specific standard for heat exposure, it can regulate this hazard under its
"General Duty Clause" [OSHA 1970] that requires employers to furnish a workplace that
is free from recognized hazards that are causing or are likely to cause death or serious
physical harm to employees.

In addition to written programs that address a specific hazard, a good practice approach
warrants that a general safety and health plan should be in place to identify workplace
hazards and specify appropriate hazard controls and safe work practices.

UNICOR's ES&H practices and programs associated with the e-waste recycling activities
conducted at USP Leavenworth are discussed below.

3.1 	   Safety and Health Practices and Procedures to Control Toxic Metals
        Exposure

According to the USP Leavenworth Production Controller, recycling is conducted in
accordance with UNICOR's standard operating procedures (SOPs), as well as two work
instructions for housekeeping and cleanup of accidental glass breakage. These
instructions and activities are discussed later in this section. The Production Controller
reported that inmate workers receive familiarization training for the work environment.
He stated that this training includes such information as hygiene practices (e.g., hand
washing) and factory rules (e.g., no eating or drinking in the work area). UNICOR does


                                             5

not have written lead and cadmium compliance programs in place at USP Leavenworth;
however, these programs are not required when worker exposures do not exceed the
OSHA lead and cadmium PELs. UNICOR consultant reports discussed in Section 4.0
confirm that lead and cadmium action levels and PELs are not exceeded for current
disassembly operations conducted at USP Leavenworth.

As with other factories, UNICOR does not have a written factory-specific safety and
health document at USP Leavenworth to define existing workplace hazards and control
measures. As a "good practice" approach, such a document should be developed and
implemented to concisely define the safety and health practices and requirements specific
to the factory. The document should address PPE requirements or voluntary use, hygiene
(e.g., hand washing) practices, daily and periodic housekeeping and cleaning practices,
special training requirements for any hazardous equipment use or other hazard controls,
and other practices essential to conduct work safely. Non-routine or periodic work
activities should also be addressed in the document, particularly those that potentially
disturb dusts such as cleaning and handling/disposing of wastes from HEPA vacuums or
containers. The approach to evaluate new or modified processes should be addressed as
well. The document could also specify requirements for periodic site assessments, hazard
analyses, inspections, monitoring, actions for new or changed processes, and regulatory
compliance reviews.

The Production Controller stated that baseline biological monitoring for lead and
cadmium was conducted for workers, and that this monitoring is to be provided on an
annual basis. Because UNICOR consultant exposure monitoring has not shown
exposures to be above the lead or cadmium action levels, the OSHA lead and cadmium
standards do not require that biological monitoring be performed. However, as
recommended by NIOSH in its reports for other UNICOR factories, UNICOR, if it so
chooses, can continue this monitoring as an additional safeguard and as reassurance to
staff and inmates.

According to the Production Controller, USP Leavenworth provides Northern Safety
Model 7000 nuisance dust masks to workers for voluntary use. A UNICOR consultant
recommended in May 2009 that only certain types of dust masks be used (e.g., equivalent
to or better than an N-95 filtering facepiece respirator). The current USP Leavenworth
dust mask does not meet this criterion. The consultant also recommended that workers
be informed of Appendix D criteria of29 CFR 1910.134, Respiratory protection,
regarding voluntary use of respirators. UNICOR at USP Leavenworth has not yet
implemented either of these recommendations, even though FOH has made this similar
recommendation in previous reports for UNICOR factories. Because it is the position of
UNICOR that respirators are only used voluntarily, UNICOR does not require a written
respiratory protection program for disassembly operations at USP Leavenworth;
however, UNICOR should ensure that disposable dust masks are properly stored, used,
replaced, and disposed of. In addition, according to its written work instruction, USP
Leavenworth requires the use of dust masks for cleanup of accidentally broken glass. A
written respiratory protection program is, therefore, required for this operation (see the
discussion of this work instruction and practice later in this section).



                                            6
For general factory operations, the Production Controller stated that PPE consists of
gloves, safety glasses, and safety shoes. Dust masks and hearing protection are provided
for voluntary use but are not required.

The Production Controller provided a work instruction for housekeeping ("Line
Housekeeping Work Instructions"). The Production Controller stated that cleaning is
performed daily using HEPA vacuuming and wet methods. For bulk debris, the material
is first wetted and then picked up. He confirmed that dry sweeping had been conducted,
but based on the May 2009 UNICOR consultant recommendations, dry sweeping has
been discontinued. The Production Controller also reported that a weekly cleanup is
being initiated in addition to the daily practice. During the weekly cleanup, a cleaning
agent formulated for lead dust cleanup is to be used to enhance cleaning effectiveness.
FOH recommends that UNICOR revise the housekeeping work instruction to clearly
prohibit dry sweeping and to include the weekly cleaning process.

The Production Controller also provided a work instruction for cleanup of broken CRT
glass ("Accidental Cathode Ray Tube Glass Breakage Cleanup"). The Production
Controller stated that inmates don Tyvek® coveralls, gloves, and dust masks. Broken
glass is cleaned up using wet methods and HEP A vacuuming. Broken glass is placed in a
Gaylord box and labeled as broken glass. The box is then sent to FCC Tucson where it is
forwarded to a recycling plant in Mexico. Contaminated PPE is placed in a container and
disposed of as hazardous waste. The work instruction is consistent with the methods
reported by the Production Controller and is appropriate for the activity. The instruction
lists use of a dust mask (type not specified) under the section titled "Mandatory
Cleanup/Safety Equipment." Because respirator use is required, a written respiratory
protection program is also required for this operation to include such elements as training,
fit testing, and medical clearance, among others (see 29 CFR 1910.134, Respiratory
protection). USP Leavenworth does not have a written respiratory protection program
and has not implemented the elements required. Also, UNICOR should upgrade its dust
masks for this operation to those recommended by the consultant (equivalent to or better
than an N-95 filtering facepiece respirator), because the recommended masks offer
protection against toxic metals dusts.

In summary, UNICOR safe work practices seem to be appropriate for the recycling
operations performed, with the exception of dry sweeping. UNICOR should ensure that
dry sweeping has been discontinued and revise work instructions to emphasize this
restriction, as well as to add the weekly cleaning practices. UNICOR should also verify
that dust masks meet the recommendation ofN-95 filtering facepiece respirator or better
that was made the UNICOR consultant, and it should implement a respiratory protection
program for inmate workers involved in the cleanup of broken CRT glass. Finally as a
good practice, UNICOR should implement a written safety and health program for USP
Leavenworth and its other factories.




                                             7

3.2    Safety and Health Practices and Procedures to Control Other Hazards

Certain disassembly operations at other UNICOR factories have been shown to produce
noise exposures above the OSHA action level that triggers the requirement for a written
hearing conservation program and implementation of such practices as hearing protection
use, audiometric testing, training, and other requirements. A UNICOR consultant
performed noise dosimetry in May 2009 and found that exposures did not exceed the
OSHA action level of 85 dBA that triggers the requirement for a written hearing
conservation program. The metal baler's exposure approached this level at 84 dBA (see
Section 4.3 for additional information on noise). FOH recommended in its USP Atwater
report that based on metal baler exposures being above the OSHA action level for noise
at many factories, UNICOR should implement a hearing conservation program for
inmates performing this operation at all UNICOR factories. [FOH 2009c 1

UNICOR has prepared a document titled "Heat Stress Program" dated September 26,
2008. The Production Controller stated that USP Leavenworth does not have a heat
stress program, but that he was aware of the heat stress issue found at FCI Marianna. He
also stated that the USP Leavenworth factory was air conditioned and that there were no
operations such as glass breaking where the type of work and the protective equipment
could lead to a heat stress hazard. He also stated that even during unloading of trucks at
the factory loading dock, workers are stationed within the air conditioned factory.

Regarding hazard analysis, the Production Controller stated that a walkthrough survey
was conducted by the Institution Safety Specialist on a monthly basis. He also stated that
UNICOR was planning a program review (in 2008), but that this review was not focused
on safety and health. He also reported that a UNICOR consultant had conducted an
industrial hygiene evaluation in 2008 and that such a survey was to be performed
annually (another was conducted in May 2009). As part of an overall safety and health
program, UNICOR should develop a thorough hazard analysis program. This program
should include baseline hazard analysis for current operations and job (activity-specific)
hazard analyses for routine activities, activities performed under an operations and
maintenance (O&M) plan, non-routine activities, and new or modified activities. Such a
program should include all potential hazards and not just lead and cadmium. This applies
to all UNICOR recycling factories.

Regarding UNICOR information sharing from other UNICOR factory experiences and
evaluations, the Production Controller appeared to be unaware of certain information
regarding recycling hazards, exposures, and violations at other factories. For instance, he
stated that he had heard of unspecified reports of problems at USP Atwater, but he also
stated that it was his understanding that these reports were unsubstantiated. He was also
aware of the FCI Marianna heat stress reports, but associated the heat issue only to glass
breaking. He did not indicate any awareness concerning OSHA violations regarding dry
sweeping in disassembly areas or potential for build-up of contaminants as a result of
disassembly. Dry sweeping was performed until a UNICOR consultant recommended
against it in May 2009. As discussed in FOH reports for other UNICOR factories, this is
further indication that UNICOR does not have an effective system to share information



                                             8

between factories to ensure implementation of improved practices and to ensure that the
same mistakes are not made among factories. The dry sweeping reported by the
UNICOR consultant in 2009 is an example of an activity that should never have been
performed given the OSHA violation issued to UNICOR at USP Lewisburg in 2007.


4.0    FIELD INVESTIGATIONS AND MONITORING RESULTS

UNICOR consultants conducted field evaluations ofUSP Leavenworth e-waste recycling
operations in 2008 and 2009. These evaluations included personal exposure monitoring,
surface sampling, and other testing and evaluation.

Metals of greatest interest for occupational exposures related to e-waste recycling include
lead, cadmium, and barium. Beryllium can also be associated with e-waste materials and
is also of interest because of its adverse health effects and low exposure limit. These
metals were the focus of the field investigations. See the FCI Elkton report referenced in
Section l.0 for details regarding e-waste hazards.

Exposure monitoring results are compared to the legally enforceable permissible
exposure limits (PELs) and action levels established by OSHA. In addition, non­
mandatory ACGIH TLVsand NIOSH recommended exposure limits (RELs) are also
provided for reference. Personal exposure limits are often based on 8-hour time weighted
average (TWA) exposures and the TWAs are applicable to the exposures discussed in
this report. Table 1 provides exposure limits for lead, cadmium, barium, and beryllium.
PELs, action levels, and TLV s for other hazards can be found in OSHA standards (29
CFR 1910) and the 2009 ACGIH TLVs. [ACGIH 2009]

Federal standards or other definitive criteria or guidelines have not been developed for
acceptable levels of lead or cadmium surface contamination or dust concentrations in
industrial areas where activities are performed involving lead and/or cadmium bearing
materials. However, several recommendations or guidelines, primarily for lead, provide
points of reference to subjectively evaluate the significance of surface contamination.
Some guidelines that are available are provided in the Appendix to this report.




                                             9

                                                Table 1 

                                      Occupational Exposure Limits! 


                                               LEAD                    CADMIUM             BARIUM      BERYLLIUM
                                                        3                          3              3               3
                                               (flg/m       )           (flg/m         )    (flg/m )     (flg/m       )


OSHA PEL                                         50                       5.0                500           2'
OSHA ACTION LEVEL'                               30                       2.5                N/A          N/A
ACGIH TL V (Total Exposure)                      50                      10.0                500          0.05 4
ACGIH TL V (Respirable Fraction)                N/A                       2.0                N/A          N/A
                                                                               3
NIOSHREL                                         50                       Ca                 500           0.5
Notes:
         1. 	 All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
              such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TL V 2009 adoption.
         5. 	 OSHA also has 5 flg/m 3 ceiling and 25 flg/m 3 peak exposure limits.

4.1        UNICOR Consultant Evaluation of 2008

A consulting finn conducted exposure monitoring and surface sampling in January 2008
for USP Leavenworth computer sorting, disassembly, and other operations. Results are
summarized below.

      • 	 Three personal breathing zone samples were collected in what the consultant
          described as an area "outside" UNICOR. Two were for personnel perfonning
          sorting of computers and one was for disassembly (teardown). All three samples
          had non-detectable levels oflead and cadmium, well below the OSHA PELs and
          action levels. The consultant did not describe PPE used during the recycling
          operations monitored, except that steel-toed shoes were listed in the data sheets of
          an Appendix to the report. For instance, the use of gloves was not mentioned.

      • 	 One personal sample was apparently taken for a worker perfonning a nearby
          operation not related to e-waste recycling (sorting clothing and hangers). This
          personal exposure was also not detectable for lead and cadmium.

      • 	 Ten surface wipe samples were collected from work areas and equipment
          including work benches/tables, floors, a filter, gloves, a baler, a vacuum, and a
          canister. All of these samples were less than the OSHA lead guideline of 200
          Ilglft2 for clean areas (such as change rooms associated with lead work areas).
          The highest lead result (113 Ilg/ft2) was from an unidentified filter #4 closest to a
          clerk's desk. The highest cadmium result (53 Ilg/ft2) was from a HEPA vacuum




                                                                10 

         handle used for broken CRT glass cleanup. The consultant offered no
         interpretation of the surface sample results.

      • 	 The surface samples as described in an Appendix of the consultant's report
          included such items and areas as: the inside surface of a canister used for disposal
          ofPPE that is worn during clean-up of broken CRT glass; gloves used to handle
          broken CRT glass; HEPA vacuum used to clean-up broken CRT glass; and a
          cardboard box used to hold broken CRT glass. The consultant's report did not
          describe PPE used during the recycling operations including glass cleanup (except
          for steel-toed shoes listed in the sampling sheets), did not describe the extent of
          broken glass handling or the clean-up processes, and did not include exposure
          monitoring for broken glass handling or clean-up.

The UNICOR consultant presented exposure results compared to OSHA PELs and action
levels, but did not provide much information regarding work activities, work practices,
and hazard controls. No recommendations were provided. UNICOR should scope
consultant activities in a manner that requires critical assessment of hazards, operations,
and controls and that also ensures expert recommendations for continuing improvements.

4.2      UNICOR Consultant Evaluation of 2009

In May 2009 as part ofUNICOR's recently implemented annual exposure monitoring
program, a consultant conducted an industrial hygiene evaluation ofUSP Leavenworth's
e-waste recycling operations. Personal exposure and surface wipe samples were
collected during disassembly and related activities. Samples were analyzed for lead,
cadmium, and beryllium. Results are presented below:

      • 	 Nine personal breathing zone samples were collected for lead analysis and four
          were collected for cadmium and beryllium analysis. The samples were collected
          for various disassembly and associated operations. All exposure results were
          reported as ND (less than the detection limit). The consultant did not quantify the
          detection limits in Ilg/m3, but FOH calculations from the report indicate that the
          detection limits were appreciably below the PELs and action levels thus
          demonstrating adequate exposure control.

      • 	 The consultant collected 21 wipe samples for lead analysis. The consultant
          reported that 10 of 21 samples were above the OSHA 200 Ilg/ft2 criterion, with
          the highest level at 849 Ilg/ft2 [Note: FOH points out that this criterion applies
          to clean areas such as change rooms or lunch areas and not active work surfaces.
          See the Appendix to this report.] Of these 10, nine were from overhead
          mechanical systems (e.g., elevated surfaces) not subject to regular cleaning. Only
          one sample above the OSHA criterion was from a work surface where inmates
          operate. This sample had 330 Ilg/ft2 lead.

      • 	 Of these 21 samples, six were also analyzed for cadmium and beryllium. All
          beryllium results were less than the limit of detection. The consultant reported


                                               II 

       that one cadmium result from an overhead beam was above the EPA guidance
       level for residential (non-workplace) cadmium (150 Ilglft2 versus EPA guidance
       of 144 Ilg/ft2). FOH emphasizes that this is a conservative level developed for
       residences and not work areas where cadmium-bearing materials are processed.

The consultant reported that site personnel were vigilant about cleaning up their
workstations. However, the consultant observed dry sweeping during the evaluation,
which is explicitly prohibited by the OSHA lead and cadmium standards. He
recommended that dry sweeping be limited to the pick-up oflarger parts, but also
recommended that HEP A vacuuming and wet wiping be "continued" and that HEP A
vacuuming be utilized "instead of' dry sweeping. [Note: In reports for other UNICOR
factories, NIOSH recommended the use of misting and squeegees for clean-up oflarger
debris.] The consultant also noted that better cleaning practices are needed based on the
one lead sample in the work area that was above the OSHA guideline for clean areas. In
a discussion with FOH, the Production Controller stated that dry sweeping has since been
discontinued and that a weekly cleaning process using a de-leading agent is being
initiated to supplement daily cleaning practices.

The consultant also recommended that several types of disposable dust masks (N-95
filtering facepiece respirator or better) be available to workers based on their preference.
This type of respirator is approved for toxic metals dusts. The consultant did not report
whether the current dust masks in use meet his recommendation, but the Production
Controller reported that Northern Safety Model 7000 nuisance dust masks are used, and
these do not meet the consultant recommendation. The consultant also mentioned that
some variability in respirator use existed ("variability" was not defined). The consultant
also properly recommended that workers be informed of Appendix D criteria as required
by 29 CFR 1910.134, Respiratory Protection, regarding voluntary use of respirators. The
consultant did not report on other types of PPE used, but inferred that he did not find any
issues with other PPE. The consultant also did not evaluate the cleanup of broken CRT
glass for which various PPE including dust masks are required.

FOH concludes from the consultant report that inhalation exposures from general factory
disassembly and related operations are well controlled below OSHA action levels and
PELs. This finding is consistent with other UNICOR disassembly factories. The finding
that elevated surfaces are higher in contamination levels than work areas is also
consistent with other UNICOR factories. The elevated surfaces are not subject to regular
clean-up activities, while work areas are regularly cleaned. Based on the suggested
Lange lead criteria of 1,000 Ilglft2 to 1,100 Ilglft2 for surface contamination in
commercial buildings [Lange 2001], these results are not excessive yet, but given that
operations have only been underway for about 18 months, the results show that
contamination can build up over time even when only disassembly is performed.
UNICOR should implement an operations and maintenance (O&M) plan to keep
contamination levels in check for these non-work areas (e.g., mechanical system
surfaces) and prevent exposure during maintenance activities that access these areas (see
Section 6.0, Recommendations). (See Appendix for information and guidance on surface
contamination. )



                                             12 

4.3       Investigations for Noise Exposure

In May 2009, a UNICOR consultant conducted noise monitoring at the USP
Leavenworth recycling factory. Five personal noise dosimetry samples were collected.
Four of five samples were well below the OSHA action level of 85 dBA that triggers the
requirement for a hearing conservation program. The metal baler operator had an
exposure of 84 dBA which is just below the OSHA action level. The consultant did not
report whether hearing protection was available and worn. According to the Production
Controller, hearing protection is provided for voluntary use, but is not required for any
operation.

FOH notes that the metal baler's exposure approaches the OSHA action level. UNICOR
should verify that the action level is not exceeded through follow-up monitoring as part
of its annual program. However, because metal baling at several other factories has been
shown to exceed the OSHA action level, UNICOR should require a hearing conservation
program for this operation at all of its factories, including USP Leavenworth, unless
UNICOR clearly demonstrates that noise exposures are consistently maintained below
the action level at a particular factory.

4.4       Environmental Issues

FOH conducted a review of available documents pertaining to environmental issues
associated with the current e-waste recycling operations conducted by UNICOR at USP
Leavenworth. UNICOR obtained a solid waste processing permit from the Kansas
Department of Health and Environment (KDHE) in mid-2007 prior to startup of
operations.

According to the Production Controller, recycling wastes that are disposed of as
hazardous waste include disposable PPE (e.g., Tyvek® coveralls, gloves), HEPA vacuum
filters and debris, and fluorescent light bulbs. The Production Controller stated that
filters from the general ventilation system are tested by the Toxic Characteristic Leaching
Procedure (TCLP) and have been found not to be hazardous waste. FOH reviewed a
report for this TCLP testing and confirmed the results.


5.0       CONCLUSIONS

Conclusions concerning environmental, safety, and health aspects ofUNICOR's e-waste
recycling operations at USP Leavenworth are provided below under the following
subsections:

      •   Heavy Metals Exposures;
      •   Noise Exposure and Other Hazards;
      •   Health and Safety Programs, Practices, and Plans;
      •   Health and Safety Regulatory Compliance; and
      •   Environmental Compliance.


                                              13 

Various conclusions may be applicable to all UNICOR recycling factories with similar
operations and activities. These conclusions are supported by the results, findings, and
analyses presented and discussed in Sections 3.0 and 4.0 of this report, as well as the
documents assembled by the OIG.

5.1      Heavy Metals Exposures

      1. 	 Based on UNICOR consultant monitoring results in 2008 and 2009, current
           routine e-waste recycling operations (disassembly and related activities)
           conducted in the general factory areas have minimal inhalation exposure potential
           to lead, cadmium, and other metals. Lead and cadmium exposures were well
           below OSHA action levels.

      2. 	 Based on consultant surface wipe samples, USP Leavenworth cleaning practices
           maintain cadmium and lead contamination in disassembly work areas at
           reasonable levels. Only one work area sample for lead was above the OSHA
           surface guideline for "clean areas." According to the Production Controller,
           cleaning enhancements are being initiated to include weekly cleaning with a de­
           leading agent in addition to the current daily cleaning process.

      3. 	 Based on consultant surface wipe samples, elevated surfaces such as mechanical
           systems have lead and cadmium contamination at higher levels than work areas.
           This indicates that disassembly operations result in build-up of contamination on
           surfaces not subject to regular cleaning. These levels are not excessive at this
           time, but disassembly at USP Leavenworth has been underway for only about 18
           months. UNICOR should control contamination build-up and possible exposure
           from this contamination through implementation of an operations and
           maintenance plan.

      4. 	 In April 2009, the UNICOR consultant reported that vigilant cleaning practices
           were used, but also reported that dry sweeping oflead and cadmium-containing
           dusts was performed. FOH notes that this practice was used despite the prior
           OSHA violation for dry sweeping issued to the USP Lewisburg recycling factory
           in 2007. Dry sweeping is explicitly prohibited by the OSHA lead and cadmium
           standards. The Production Controller stated that this practice has since been
           discontinued.

      5. 	 FOH considers the performance of annual exposure monitoring starting in 2008 at
           USP Leavenworth to be important in establishing and ensuring effective hazard
           controls and continuing improvements. FOH encourages continuation of this
           practice and encourages monitoring of non-routine or periodic activities such as
           cleanup of broken CRT glass.




                                              14 

5.2      Noise Exposure and Other Hazards

      6. 	 In 2009, a UNICOR consultant found that noise exposure was less than the OSHA
           action level that triggers the requirement for a hearing conservation program.
           However, the metal baler's exposure was near the action level with an exposure of
           84 dBA versus the 85 dBA action level. This operation has been found to exceed
           the OSHA action level for noise at other UNICOR factories, and daily variability
           factors (e.g., duration of baling) could cause higher exposures at USP
           Leavenworth.

      7. 	 According to the Production Controller, USP Leavenworth does not have a heat
           stress program, but he stated that the factory is air conditioned and protective
           clothing that can contribute to heat stress is not needed.

      8. 	 Although not specifically reviewed at USP Leavenworth, tasks that are potentially
           biomechanically taxing were observed by NIOSH at other UNICOR e-waste
           recycling factories. Similar tasks are performed at USP Leavenworth.

5.3      Health and Safety Programs, Plans, and Practices

      9. 	 The Production Controller stated that disassembly operations are conducted in
           accordance with UNICOR's standard operating procedures. Work instructions for
           housekeeping and cleanup of broken CRT glass are also in place.

      10. USP Leavenworth currently provides Northern Safety Model 7100 nuisance dust
          masks for voluntary use. In May 2009, the UNICOR consultant recommended
          that N-95 filtering facepiece respirators or better be used, which are approved for
          toxic metals. UNICOR has not implemented this recommendation, nor has it
          implemented the consultant's recommendation to inform workers of Appendix D
          information of 29 CFR 1910.134, Respiratory protection. UNICOR requires the
          use of dust masks for clean-up of broken CRT glass according to the work
          instruction. UNICOR does not have a respiratory protection program for required
          respirator use during broken glass cleanup, and apparently uses nuisance dust
          masks not approved for toxic metals.

      1l. For disassembly, materials handling, and associated activities, a USP
          Leavenworth-specific safety and health document to define existing workplace
          hazards and control measures is not in place.

      12. The Production Controller was unaware of various issues, exposures, and OSHA
          violations at other UNICOR factories. This is further indication that UNICOR
          does not have an effective system to share information and ensure corrective
          action and proper practices on a UNICOR-wide basis.




                                              15 

5.4       Health and Safety Regulatory Compliance

      13. According to the Production Controller and as recently reported by a UNICOR
          consultant, dry sweeping was conducted at USP Leavenworth recycling
          operations through mid-2009. This practice is explicitly prohibited by OSHA
          lead and cadmium standards, and was performed despite the OSHA violation
          issued for dry sweeping to UNICOR at USP Lewisburg in 2007. This practice
          has since been discontinued, based on the UNICOR consultant's
          recommendation.

      14. UNICOR is not in compliance with 29 CFR 1910.134, Respiratory protection at
          USP Leavenworth, in that it requires respirator use during cleanup of broken
          glass, but does not have a respiratory protection program (to include fit testing,
          medical clearance, and training in the use, storage, and maintenance of
          respirators, among other elements) and issues dust masks that are not approved
          for toxic metals dusts.

5.5       Environmental Compliance

      15. UNICOR appropriately obtained a solid waste processing permit from the KDHE
          in 2007, prior to startup of recycling operations.

      16. According to the Production Controller, contaminated disposable PPE and HEPA
          vacuum debris and filters are disposed of as hazardous waste. HV AC filters have
          been tested by TCLP and are not characterized as hazardous.


6.0       RECOMMENDATIONS

Recommendations concerning environmental, safety, and health aspects ofUNICOR's e­
waste recycling operations at USP Leavenworth are provided below under the following
subdivisions:

      •   Heavy Metals Exposures;
      •   Noise Exposure and Other Hazards;
      •   Health and Safety Programs, Practices, and Plans;
      •   Health and Safety Regulatory Compliance; and
      •   Environmental Compliance.

These recommendations relate to the conclusions presented above in Section 5.0. 

Various recommendations may apply to all UNICOR recycling factories where similar e­

waste recycling activities are performed. 


As a global recommendation, BOP and UNICOR should ensure that it has and allocates 

the appropriate level of staff, other personnel resources, and material resources to 




                                               16 

effectively implement these recommendations and to sustain an effective ES&H program
overtime.

6.1 Heavy Metals Exposures

   I. 	 UNICOR should continue its exposure monitoring program that has been
        conducted annually since USP Leavenworth factory startup. This monitoring will
        serve to document continued control of the lead and cadmium hazards. This
        recommendation, which goes beyond the requirements of the OSHA lead and
        cadmium standards, would provide important documentation to establish
        consistently low exposures and provide the basis for continuing improvements.
        UNICOR should ensure that as part of its monitoring program, any non-routine or
        periodic activities with potential for metals exposure are included in the
        monitoring plan. This should include monitoring during the cleanup of broken
        CRT glass, as well as daily and weekly cleaning practices. It should also ensure
        that consultants critically evaluate work practices and exposure controls and
        develop recommendations for continuing improvements.

   2. 	 In addition to personal exposure monitoring, the UNICOR exposure assessment
        program should continue to evaluate surface contamination levels. UNICOR
        should establish a surface contamination criteria that it intends to use to evaluate
        results and plan any clean-up or O&M actions. UNICOR should take preventive
        action to keep contamination of elevated surfaces (e.g., mechanical systems) from
        building up to problematic levels.

   3. 	 UNICOR should develop and implement an O&M plan to ensure that surface
        contamination is minimized and that existing contamination does not result in
        inhalation or ingestion exposures. Elements of this plan could include:

          • 	 Identification of activities that could disturb contamination (e.g., HV AC
              maintenance, periodic or non-routine cleaning of elevated or other
              surfaces, access to areas where higher levels of surface contamination are
              present, and various building maintenance functions);

          • 	 Processes to identify and control hazards for routine and non-routine
              activities (e. g., job hazard analysis process prior to conducting certain
              work with identification of mitigating actions);

          • 	 Mitigating techniques and procedures during activities of concern (e.g.,
              dust suppression and/or clean-up and capture, filter removal and bagging
              processes, and use ofPPE and respiratory protection);

          • 	 Training and hazard communication;

          • 	 Disposal of contaminated materials based on testing data such as TCLP
              tests; and


                                            17 

             • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
                 appropriate. Exposure monitoring is particularly recommended for
                 activities that can disturb surface dust. [Note: Follow-up surface
                 sampling is important to ensure that surface contamination does not build
                 up and to take preventive and corrective action, if it does.]

         At UNICOR's discretion, the O&M plan could also include periodic clean-up of
         surfaces by inmate or other workers; that is, surfaces that are not subject to
         routine clean-up and housekeeping activities. If this element were adopted,
         however, UNICOR should ensure that practices to control exposures are included
         in the plan and implemented, such as appropriate worker training, PPE,
         respiratory protection, exposure monitoring, medical surveillance (if required
         based on hazard analysis and monitoring results), clean-up methods (e.g., HEPA
         vacuuming and wet methods), waste disposal, hygiene practices, and others
         deemed appropriate by UNICOR. Initial exposure monitoring should be
         conducted to determine whether exposure during clean-up is above the action
         levels for lead and cadmium. TCLP testing should also be conducted on waste
         materials generated to ensure proper disposal. Controls for future clean-up
         activities should then be based on exposure results. [Note: See FOH report for
         USP Lewisburg [FOH 2009a] that describes the preparation, hazard analysis,
         training, controls, work practices, and performance of a clean-up activity
         conducted for warehouse elevated surfaces. This is a noteworthy practice that
         could serve as a model for other activities conducted under an O&M plan.]

      4. 	 UNICOR should verify that dry sweeping has been discontinued at USP
           Leavenworth. The UNICOR consultant recommended that only bulk materials be
           cleaned by dry sweeping. The Production Controller stated that bulk materials
           and now wetted and then picked up. In other factory reports, NIOSH
           recommends the use of wet misting and a floor squeegee to carefully collect large
           pieces of debris that cannot be effectively HEP A vacuumed from the floor. Dusts
           should be cleaned by HEP A vacuum and wet methods.

6.2      Noise Exposure and Other Hazards

      5. 	 UNICOR should implement a hearing conservation program for inmates
           performing metal baling at all factories, including USP Leavenworth, unless
           repeated exposure monitoring clearly shows that it is not required at a particular
           factory. Although the metal baler's exposure was slightly less than the OSHA
           noise action level at USP Leavenworth, monitoring was only conducted on one
           day, and this operation has been shown to exceed the action level at other
           factories. UNICOR should also repeat noise monitoring as part of its annual
           program to confirm exposure levels and determine any variability in the metal
           baler's exposure.




                                               18 

      6. 	 Although the Production Controller stated that all operations are conducted in air
           conditioned areas, UNICOR should verify that heat exposure is not a factor at
           USP Leavenworth.

      7. 	 UNICOR should also ensure that other hazards are evaluated and controlled such
           as tasks that are potentially biomechanically taxing (e.g., lifting and repetitive
           stress).

6.3      Safety and Health Programs, Practices, and Plans

      8. 	 UNICOR should revise the USP Leavenworth work instruction for housekeeping
           to emphasize the restriction on dry sweeping and to add the process for weekly
           cleaning using a de-leading agent.

      9. 	 UNICOR should develop and implement a respiratory protection program in
           accordance with 29 CFR 1910.134, Respiratory protection, for the cleanup of
           broken CRT glass. UNICOR should also upgrade respiratory protection for this
           glass cleanup operation and all other operations (e.g., disassembly) consistent
           with the N-95 or better recommendation made by its consultant. For voluntary
           respirator use, UNICOR should implement the consultant's recommendation for
           informing workers of Appendix D information in the respiratory protection
           standard. These respiratory protection recommendations for cleanup of broken
           glass and for voluntary use during disassembly apply to all UNICOR factories.

      10. As a "good practice" approach, UNICOR should prepare a concise written safety
          and health document specifically for its e-waste recycling operations at USP
          Leavenworth as well as for each of its other recycling factories that lack such a
          document. Such a document should be developed and implemented to define the
          safety and health requirements and practices for all the various recycling activities
          including general activities conducted on the factory floor (i.e., disassembly and
          materials handling). This document would serve to concisely define the safety
          and health practices and requirements specific to USP Leavenworth recycling,
          such as PPE requirements or voluntary use, hygiene (e.g., hand washing)
          practices, daily and periodic housekeeping and cleaning practices, special training
          requirements for any hazardous equipment use or other hazard controls, and other
          practices essential to conduct work safely. Non-routine or periodic work
          activities should also be addressed in the document, particularly those that
          potentially disturb dusts such as cleaning and handling! disposing of wastes from
          HEP A vacuums or containers. The document could also specify requirements for
          periodic site assessments, hazard analyses, actions for new or changed processes,
          inspections, and regulatory compliance reviews and help to ensure that practices
          are consistent with written requirements.

      II. UNICOR should develop and implement a hazard analysis program that includes
         baseline hazard analysis for current operations and also job (activity-specific)
         hazard analysis (JHA) for both routine and non-routine activities. UNICOR and



                                               19 

         USP Leavenworth should conduct JHAs for any new, modified, or non-routine
         work activity prior to the work being conducted. It should also conduct hazard
         analyses of existing processes that have not had such an analysis. The JHA
         process is intended to identify potential hazards and implement controls for the
         specific work activity prior to starting the work. For instance, the JHA process
         should be integral to an effective O&M plan, as described in Section 6.l.

      12. UNICOR should share information among its factories to ensure proper work
          practices, correction of violations, and implementation of actions for effective
          worker protection. Specific to the findings of this FOH report for USP
          Leavenworth, UNICOR should inform all factories of the respiratory protection
          recommendations above regarding cleanup of broken glass and regarding
          voluntary use during disassembly. UNICOR should also emphasize the
          prohibition on dry sweeping.

6.4      Health and Safety Regulatory Compliance

      13. UNICOR should verify that dry sweeping of lead and cadmium contaminated
          dusts has been discontinued, as well as dry sweeping of bulk materials that are co­
          located with dusts. As recommended by NIOSH, UNICOR should use wet
          misting and squeegees to pick up larger debris. Dusts should be cleaned using
          HEP A vacuums and wet methods.

      14. UNICOR should verify that heat stress is not a hazard at USP Leavenworth as
          stated by the Factory Manager.

      15. UNICOR should evaluate and appropriately control ergonomic hazards.

      16. Also see the respiratory protection and hazard analysis recommendations in
          Section 6.3.

6.5      Environmental Compliance

No recommendations are made for this topic.


7.0    REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference of Governmental
Industrial Hygienists.

BOP [2007]. Program Statement P1600.09. Occupational Safety, Environmental
Compliance, & Fire Protection. U.S. Department of Justice, Bureau of Prisons, October
2007.




                                              20 

CFR [29 CFR 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR 1910.95]. Occupational safety and health standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

FOH [2008]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at FCI Elkton. U. S. Department of Health
and Human Services, FOH Safety and Health Investigation Team, Program Support
Center, U.S. Public Health Service, Federal Occupational Health Service. October 10,
2008

FOH [2009a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at USP Lewisburg. U.S. Department of
Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service. May 9,
2009.

FOH [2009b]. Evaluation of environmental, safety, and health information related to
UNICOR e-waste recycling operations at FCI Marianna. U.S. Department of Health and
Human Services, FOH Safety and Health Investigation Team, Program Support Center,
U.S. Public Health Service, Federal Occupational Health Service. June 2009.

FOH [2009c]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at USP Atwater. U. S. Department of
Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service.,
October 2009.

Lange, JH [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 1O:48-5l.

NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati, OH:
U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.



                                           21 

OSHA [1970]. Occupational Safety and Health Act of 1970. Public Law 91-596. Sec. 

5(a)(l). Washington, DC: U.S. Department of Labor, Occupational Safety and Health 

Administration. Available at: 

http://www.osha. gov/pls/oshaweb/owadisp.show document?p table ~OSHACT&p id~3         

359




                                        22 

                                     APPENDIX

               Criteria and Guidance for Evaluating Surface Samples

Federal standards or other definitive criteria or guidelines have not been developed for
acceptable levels of lead or cadmium surface contamination or dust concentrations in
industrial areas where activities are performed involving lead and/or cadmium bearing
materials. However, several recommendations or guidelines, primarily for lead, provide
points of reference to subjectively evaluate the significance of surface contamination.
Some guidelines are available and are noted below (see the NIOSHIDART Elkton report
for a more detailed discussion of guidelines):

   • 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
       OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
       can be summarized and/or interpreted as follows: all surfaces shall be maintained
       as 'free as practicable' of accumulations oflead; the employer shall provide clean
       change areas for employees whose airborne exposure to lead is above the PEL;
       and the employer shall assure that lunchroom facilities or eating areas are as free
       as practicable from lead contamination. The OSHA Compliance Directive for the
       Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of the
       Department of Housing and Urban Development's (HUD) initially proposed
       decontamination criteria of 200 Ilglft2 for floors in evaluating the cleanliness of
       change areas, storage facilities, and lunchrooms/eating areas. In situations where
       employees are in direct contact with lead-contaminated surfaces, such as working
       surfaces or floors in change rooms, storage facilities, and lunchroom and eating
       facilities, OSHA has stated that the Agency would not expect surfaces to be any
       cleaner than the 200 Ilglft2 level.

   • 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
       are actively processed), OSHA has indicated that no specific level can be set to
       define how "clean is clean" nor what level oflead contamination meets the
       definition of "practicable." Specifically addressing contaminated surfaces on
       rafters, OSHA has indicated that they must be cleaned (or alternative methods
       used such as sealing the lead in place), as necessary to mitigate lead exposures.
       OSHA has indicated that the intent of this provision is to ensure that employers
       regularly clean and conduct housekeeping activities to prevent avoidable lead
       exposure, such as would potentially be caused by re-entrained lead dust. Overall,
       the intent of the "as-free-as-practicable" requirement is to ensure that
       accumulation of lead dust does not become a source of employee lead exposures.
       OSHA [29 CFR, Part 1910.1025] has stated that any method that achieves this
       end is acceptable.

   • 	 Lange [2001] proposed a clearance level of 1,000 Ilglft2 for floors of non-lead
       free commercial buildings and 1,100 Ilg/ft2 for lead-free buildings. These


                                           23
   proposed clearance levels are based on calculations that make a number of 

   intentionally conservative assumptions. 


• 	 HUD [24 CFR 35] has established clearance levels for lead on surfaces after lead
    abatement. These levels range from 40 to 800 llg/ft2, depending on the type of
    surface. The level of 200 llg/ft2 is most commonly used. These levels, however,
    apply to occupied living areas where children reside, and are not intended for
    industrial operations.

• 	 Regarding lead in bulk dust or soil samples, the u.s. EPA [EPA n.d.] has
    proposed standards for residential soil-lead levels. The level of concern requiring
    some degree of risk reduction is 400 ppm (mg/kg), and the level requiring
    permanent abatement is 2,000 ppm (mg/kg). Again these levels are residential
    criteria, rather than for industrial settings.

• 	 There is no quantitative guidance for surface cadmium concentrations. OSHA [40
    CFR 745.65]states that surfaces shall be as free as practicable of accumulations of
    cadmium, all spills and sudden releases of cadmium material shall be cleaned as
    soon as possible, and that surfaces contaminated with cadmium shall be cleaned
    by vacuuming or other methods that minimize the likelihood of cadmium
    becoming airborne.




                                        24 

U.S. Department of Justice
Office of the Inspector General




            A Review of 

     Federal Prison Industries’ 

Electronic-Waste Recycling Program





                            Appendix – Volume II


                                      Office of the Inspector General
                                      Oversight and Review Division
                                                        October 2010
                         TABLE OF CONTENTS
VOLUME 1

    1.     USP ATWATER

    2.     FCI ELKTON

    3.     FCI FT. DIX

    4.     USP LEAVENWORTH

VOLUME 2

    5.     USP LEWISBURG

    6.     FCI MARIANNA

    7.     FCI TEXARKANA

    8.     FCC TUCSON
USP LEWISBURG 

(+'
 #~~
      4-
  ,,~~. Vj(f.f




                  DEPARTMENT OF HEALTH & HUMAN SERVICES              Program Support Center
                                                                     u .S. Public Health Service
                                                                     Federal Occupational Health Service




                   EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                     HEALTH INFORMATION RELATED TO UNICOR 

                       E-WASTE RECYCLING OPERATIONS AT 

                                 USP LEWISBURG 


                   PREPARED FOR THE UNITED STATES DEPARTMENT OF JUSTICE
                             OFFICE OF THE INSPECTOR GENERAL




                 Submitted to:
                                   Investigative Counsel
                                   Oversight and Review Division
                                   Office of the Inspector General
                                   u.s. Department of Justice


                 Submitted by: 	   Captain Joseph Terra, eIR
                                   FOR Safety and Health Investigation Team
                                   Program Support Center
                                   U.S. Public Health Service
                                   Federal Occupational Health Service



                                                June 02, 2009
                                                        Table of Contents


1.0
2.0               E-WASTE RECYCLING FACILITIES AND OPERATIONS AT 

                       ................................................................................................................ 2 

                        SAFETY AND                                   PROCEDURES AND                                                 AT 

             LEWISBURG ........................................................................................................ 7 

                                                               """".... ,""...." to Control Toxic Metals                                  ... 8 

                  UNICOR Programs and                                          ........................................................... 11 

4.0            INVESTIGATIONS AND MONITORING RESULTS ................................. 11 

         1 Investigations for Exposure to                         Metals ........................................................ 13 

             1.1 UNICOR Consultant                                               Sampling of October                        ............. . 

             1 OSHA Inquiry and Inspection ................................................................... .. 

           4.1.3           UNICOR Consultant                                           of 2005, 2006, 2007,                               .18 

                 4.1 	 1 Consultant                                                                                                         18 

                   1                                                   2006 ........................................................ 19 

                 4.1       Consultant Evaluation 2007 ........................................................ 20 

                   1.3.4 Consultant Evaluation of
                 4.1.3.5 Summary of
           4.1.4 UNICOR Consultant
           4.1.5 NIOSHIDART Monitoring for
                    Wipe and Bulk Dust Sample
               1 Surface Wipe and Bulk Dust                                     at Current Recycling
                        and Bulk Dust Results ..................................................................... ..
                                                                                           Sources ................................. .
                                                                                2009 ................................................. .



5.0
                   Metals Exposures ....................................................................................... 41 

                        Other Hazard Exposures ...................................................................... 43 

                  and Health Programs, Plans, and Practices ................................................ 44 

                   and Safety Regulatory                                  .......................................................... . 

          HrnJ1r('\nrrlpn'tll Compliance ................................................................................. . 


6.0   RECOMMENDATIONS ...................................................... .. 

      6.1 Heavy Metals Exposures ....................................................................................... 46 

                 and Other Hazards ...................................................................................... 49 

                  and Health Programs, Practices, 

                                    Regulatory                                                                                         51 

          bn'vmlnr:nerltal Compliance ................................................................................. . 

                          ............................................................................................................53 

Figure 1:    USP Lewisburg Warehouse
Figure 2:    USP Lewisburg
Figure 3:    USP Lewisburg Warehouse
Figure 4:    USP Lewisburg Warehouse




        1:   Occupational Exposure Limits
Table        TCLP Criteria




        1:   Disassembly Area
Image 2:     Glass Breaking Area
Image 3:     Forklift emptying Gaylord boxes                               metal
             (ribbing, etc.) into roll-off container behind Camp building.
Image 4:     Debris in scrap metal roll-off container similar to sample exhibiting TCLP
             lead levels above RCRA hazardous waste limit



                                    Attachments

Attachment 1: NIOSHIDART. Control Technology and EX1DosureAs~;eSSmel!1t
              Electronic Recycling Operations, UNICOR,
              Penitentiary, 2009
Attachment 2: WipelBulkITCLP Data Tables for
Attachment 3: Various OSHA Inspection Reports and
              2005-2007
1.0      INTRODUCTION

At the request of the                             of Justice (DOJ) Office of the Inspector
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of                            of Prisons (BOP) facilities around the country. The
                                                    of whistleblower allegations that
                                                  exposed to toxic materials, including
                                            at electronics recycling operations overseen
                                               ~"""p,"""'"'' stated that these
                                            tubes (CRTs) and other activities a.~"'V"'j.a.u;'u
                                                 recycling of electronic COIn~)ne:nts
equipment                                                  (Le. e-waste).2 It was
appropriate 1""'...."'1"1~""::. actions had not yet been taken by BOP and UNICOR
that significant             to human health and the environment remained.

This FOH report                   and presents the findings of technical assessments
performed on             e-waste recycling operations at the United
in Lewisburg,                (USP Lewisburg) by industrial hygienists
environmental and       and health specialists representing federal                   including
the Centers            Control and PreventionlNational Institute for Occupational
and Health (CDCINIOSH) Division of Applied Research and Technology
Occupational Safety and Health Administration (OSHA); and FOR Data and .."'....,'"'""
from               are                        in the attachments to this report. The
objectives        assessments were to characterize current UNICOR operations and
working conditions at      Lewisburg in light of the whistleblower allegations and to
identify where                               environmental contamination/degradation, and
violations of                                      and BOP policies may still
                             appropriate. In addition, this FOH
                          ...............,.., interviews, documents assembled by
                          consultants, regulatory agencies,                   BOP and

The

inmate
from
took place in the

          1 FPI, (commonly referred to by its trade name UNICOR) is a wholly-owned, Government
corporation that            factories and employs inmates at federal correctional institutions.
         2 E-waste      defined as a waste type consisting of any broken or unwanted electrical or electronic
device or cor:npo'nerlt.
         3 In this         the term "exposure" refers to the airborne concentration of a contaminant (e.g.,
lead or cadmium) that is measured in the breathing zone of a worker but outside of any respiratory
protection devices used. Unless otherwise noted, "exposure" should not be confused with the ingestion,
inhalation, absorption, or other bodily uptake of a contaminant. Concentrations reported and discussed in
this report are not adjusted based on respirator protection factors. However, when reported, it is indicated
whether the exposure was within the protective capacity of the respirator.


                                                       1

OIG investigation, as well as serves to evaluate additional information assembled
regarding BOP and UNICOR recycling operations. Conclusions and recommendations
presented in this report are      on the       body of available reports, data, documents,
interviews, and other mIlOrnlauon.

                                             institutions that have ongoing e-waste recycling
                                                    has       or will be prepared by FOR. On
                                                                   "Evaluation ofEnvironmental,
                                     f'{el~arf~a to          UNlCOR E- Waste Recycling
                                            current exposure conditions at Federal Correctional
                                                            Elkton should be reviewed for a more
                                                      cornpc)nents found in waste electronics,
                                                       information that provides additional context
                                                 will               assessment reports for the
                                                             upon completion of their respective


Currently, e-waste
electronics                                                                              activities
                                                                                         required
                                                                   ..."". . . . . .,,,, Hl<UJUv•• HUJ""""


to support                                                                 breaking operation as it
was conducted                                                           and NIOSHIDART in
January 2008. USP
Section 2.0 in greater


2.0 	   UNICOR E-WASTE                                FACILITIES AND OPERATIONS AT
        USP LEWISBURG

UNICOR e-waste recycling                              at       Lewisburg in 2002.
Beginning in 2003,                                  in a plastic-curtained enclosure that
was served by a local exhaust                               The recycling factory was
largely refurbished over a                          2006 with completion in early 2007.
The factory improvements                                     and ceilings and installation of
new electrical and ventilation           among other           During this period, the
original glass breaking enclosure was dismantled, a new          breaking room was
constructed with three solid and one plastic-curtained walls and better entry/exit areas
were added. The same          system was               for the new glass breaking room.
Glass breaking was               early 2007                         breaking room that is
currently located and used at the                  recycling factory.

As part of the OIG investigation,        and                            performed on-site evaluations
of the recycling workplace May 2007                                     to evaluate worker exposures
to toxic metals and other                                              2008 evaluation was more
comprehensive than the May 2007 study.                      __~ ...,., was performed throughout the
January 2008 evaluation, but was not ...."".-t"r""T'n<.r!          the evaluation in May 2007. In



                                                    2

its report (see Attachment 1), NIOSHIDART described USP Lewisburg's e-waste
recycling facilities and                     of information from the NIOSHIDART
report and        sources follows.   Attachment 1 for more detailed information on
USP Lewisburg operations.




These figures provide a general visual ~~'7~~""""V"                             work process, 

although workers        moved .........."' ..........v''''.                  performance of their 

         second            located v ...u,.......                         area of the first building, 

houses e-waste baling OPf~ra{lon.s.

                                          PROCESS TRAILER
                                          STORAGE AREA




                                                              FIRE EXT.




                                                                             108~AAEA    -­




        LEWISBURG WAREHOUSE 

        DRAWING NOT TO SCALE 


  Figure 1: USP Lewisburg Warehouse                   2009]




                                                    3

                                                  DISASSEMBLY AREA


                       EXlT




GtASS SREAKING BOOTH
DRAWING NOT TO SCAlE




       2: USP Lewisburg Recycling Factory Breakdown Area [NIOSH 2009]




       3:         Lewisburg Glass Breaking                           2009]



                                             4

                           f---    -    -   -   -    - - - - 2S.-    -    - - --    - - -- - l




                                        GlASS BREAKING
                                            BOO TH




           ,..
                                                          1----- ROlLE~CONV.-----1




   GLASS BREAKING BOOTH WORK SYATION$
   DRAWING NOT TO SCALE




  Figure 4: Glass Breaking Area [NIOSH 2009]




Image 1: Disassembly area                                                Image 2: Glass breaking booth

The electronics recycling operations can be organized into four production processes :
receiving and sorting. disassembly, glass breaking operations, and packaging and
shipping. Each of these operations is discussed in this section. Cleaning and
maintenance is an associated activity that is also addressed below, and baling is
conducted in an outer building located a short distance from the factory building.

Incoming materials to be recycled are received at the warehouse (Figure 1) where they
are examined and sorted. During the FOH and NIOSHIDART on-site evaluations it


                                                                    5

appeared that the bulk of the materials received were computers, either desktop or
notebooks, or related devices such as printers. Some items, notably notebook computers
that can be upgraded and resold were sorted for that task. After electronic memory
devices (e.g., hard drives and discs) were removed and degaussed or shredded, computer
central processing units (CPUs), servers and similar devices were sent for disassembly.
Monitors and other devices (e.g., televisions) that contain CRTs were separated and sent
for disassembly and removal of the CRT. Printers, copy machines and any device that
could potentially contain toner, ink, or other expendables were segregated. Inks and
toners were removed prior to being sent to the disassembly area. In the disassembly
process (see Figures 2 and 3; Image 1), external cabinets, usually of plastic construction,
were removed from aU devices apd segregated. Valuable materials such as copper wiring
and aluminum framing were removed and sorted by grade for further treatment, if
necessary.

Components such as circuit boards or chips that may have value or may contain precious
metals such as gold or silver were removed and sorted. With few exceptions, each of the
approximately 85 workers in the main factory perfonned all tasks associated with the
disassembly of a piece of equipment into its components, using powered and non­
powered hand tools (primarily screwdrivers and wrenches). A few workers conected the
various parts and placed them into the proper collection bin. Work tasks included
removing screws and other fasteners from cabinets, unplugging or clipping electrical
cables, removing circuit boards, and using whatever other necessary methods to break
these devices into their component parts. Essentially all components are sold for some
type of recycling.

The third production process evaluated was the glass breaking operation where CRTs
from computer monitors and televisions were sent for processing. This was an area of
primary interest in this evaluation because it represents a higher potential of exposure to
toxic metals. This was the only process where local exhaust ventilation (LEV) was
utilized and where respiratory protection was in universal use (see Sections 3.0 and 4.0
for additional PPE, respiratory protection, and LEV infonnation). Glass breaking was
done in an enclosed booth (see Figure 4) located as shown in Figure 2 (also see Image 2).

CRTs that had been removed from their cases were transported to the glass breaking area
in large boxes and were fed into the glass-breaking booth through a side opening where
they were placed on a metal grid for breaking (see Figure 4). As the CRT moved from
right to left in the booth, the electron gun was removed by tapping with a hammer to
break it free from the tube. A series of hammer blows were then used to break the funnel
glass and allow it to faU through the metal grid into large Gaylord boxes (cardboard
boxes approximately three feet tall designed to fit on a standard pallet) positioned below
the grid. This was done at the first (right) station in Figure 4. The CRT was then moved
to the second (left) station where any internal metal framing or lattice was removed
before the panel glass was broken with a hammer and also allowed to fall into a Gaylord
box. During the two days of NIOSHIDART sampling in January 2008, 293 and 258
CRTs were broken. No count was made by the survey team regarding the number of
color versus monochrome monitors broken. According to the USP Lewisburg Factory



                                             6

Manager, the CRT processing rate has risen and is currently between 450 and 600 CRTs
broken per production day, which occurs on average twice per week (i.e., every 2.5 days).

The final production process, packing and shipping, involved moving the various
materials segregated during the disassembly and glass breaking processes to the loading
dock to be sent to contracted purchasers of the individual materials. To facilitate
shipment, some bulky components such as plastic cabinets or metal frames were placed
in a hydraulic baler located in a second outer building to be compacted for easier
shipping. Other materials were boxed and removed for subsequent sale to a commercial
recycling operation.

In addition to the routine daily activities in the four production processes, a LEV filter
maintenance activity is conducted at approximately monthly intervals during which the
two sets of filters in this ventilation system are removed and replaced. This activity was
of particular interest because of potential elevated exposures documented in similar
operations at other UNICOR e-waste facilities. At USP Lewisburg, two workers remove
both sets of filters, clean the system, and replace the filters. They are assisted by two
additional workers outside the glass breaking enclosure. During the filter change activity,
the LEV system is shut down and all filters are removed and replaced. Initially the
exhaust system components, including the accessible surfaces of the filters, are vacuumed
with a HEPA vacuum. The filters are then removed and bagged for disposal, and the area
inside the filter housing is vacuumed. New filters are inserted, the LEV system is
reassembled, and any residual dust is removed with a HEPA vacuum.

The NIOSHIDART report (Attachment 1) presents details on personal protective
equipment (PPE), respiratory protection, engineering controls, and work practices used
during glass breaking, filter maintenance, and other recycling activities. These controls
are summarized in Sections 3.0 and 4.0 of this report.


3.0 	   BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT USP LEWISBURG

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H policy entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNICOR's compliance with this policy will be evaluated in the OIG's final report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples applicable to UNICOR's e­
waste recycling activities performed at USP Lewisburg, particularly for glass breaking
include:

    •   29 CFR 1910.1025: Lead requires a written lead compliance plan;



                                             7

    It   29 CFR 1910.1027: Cadmium                          a written cadmium compliance plan;
    It   29 CFR 1910.134: Respiratory            t'r()te(~tlc.n requires a written respiratory protection
         program; and
    It   29 CFR 1910.95:                                           requires a written hearing
         conservation program.

In addition to the specific                               another hazard associated with
UNICOR recycling operations at                   is heat exposure, particularly when
conducting glass                                       operations        wearing PPE and
using respiratory protection.                        not       a         standard for heat
exposure, OSHA can regulate this          under its "General Duty Clause" [OSHA, 1970]
that requires employers to furnish a workplace that is free from             hazards that
are causing or are        to cause                           hann to employees.

Even when           do not meet                                                   safety and health
plan/program as required by a ".... "',...11",                                       approach
warrants that a              and                                             to identify workplace
hazards and specify                                                                   for both routine
and non-routine activities.

UNICOR's ES&H 	                                                            e-waste recycling activities


3.1 	    Safety and Health Practices and Procedures to Control Toxic Metals
         Exposure

UNICOR has a written Inmate Pre-Industrial Manual              May 2005 that is applicable
to its e-waste recycling factories, including USP                This         serves as a
training and job orientation document for                               The document
contains general rules of the factory that         some general requirements for safety
equipment (e.g., safety shoes and safety glasses),             eating     drinking
restrictions, and work performance                            protective equipment (PPE),
hazards associated with recycling, and hazard communication
general manner. Other topics addressed include
energy sources, flammable and combustible .. 'i.""......"
guarding. Safety issues are also addressed
jack operations, baler operations, and forklift operations,
provided that list mandatory safety equipment               and
personal hygiene and clean-up, and encl-O][-SI111I
up procedures. This manual provides a
One deficiency is that the respirators identified for use during glass breaking are not those
that are employed. This deficiency              found at other           recycling facilities,
as well.

In addition to the Pre-Industrial n ....,Uu'a.L,
documents under its International


                                                      8

As provided by the Production Controller, these documents include ProductionlQA
Procedure Training Instructions for Glass Breaking; ProductionlQA Procedure Work
Instructions for Glass Breaking; ProductionlQA Procedure Training Instructions for
Respirator Cleaning, Inspection, and Storage; ProductionlQA Procedure Training
Instructions for Nuisance Dust Mask and Ear Plugs; and instructions for operating
equipment such as the baler and air compressor.

UNICOR has implemented requirements for lead and cadmium compliance for its current
glass breaking operations. These requirements include engineering controls such as the
glass booth containment and LEV system, work practices to minimize exposures,
respiratory protection and personal protective equipment, and housekeeping and hygiene
practices. The UNICOR Pre-Industrial Manual briefly addresses some of the hazard
controls in place, and USP Lewisburg's ISO 9000 documents provide training procedures
and work/safety procedures that address lead and cadmium hazards and controls. These
documents provide much of the information required for a lead and cadmium compliance
plan under the OSHA lead and cadmium standards. UNICOR should improve these lead
and cadmium compliance documents at USP Lewisburg by (a) making the Pre-Industrial
Manual and the ISO 9000 documents fully consistent, such as for PPE, respiratory
protection, equipment operation, (b) adding a procedure/instruction to describe the
engineering controls (e.g., LEV and containment), including operating parameters and
maintenance requirements; and (c) specifically specifying the type of protective clothing
and respiratory protection to be used. In its reports of 2006 and 2007, UNICOR's
consultant also recommended that UNICOR verify and document current glass breaking
work practices, procedures, and control measures (see Section 4.1.2). UNICOR and USP
Lewisburg documents should address inspection and verification processes.

NIOSHJDART reported on the types of PPE and respiratory protection that were worn by
breakers and feeders during glass breaking operations. The PPE was generally consistent
with the requirements of the UNICOR Pre-Industrial Manual and ISO 9000 documents;
however, both the Pre-Industrial Manual and ISO 9000 documents are vague in some
ways. For instance, the Pre-Industrial Manual specifies use of jumpsuits for glass
breaking but does not defme a jumpsuit, and the ISO 9000 glass breaking training
instruction and procedure specifies use of disposable protective jump-suits but does not
define the type. The Production Controller stated that glass breaking is now performed
using "breathable," disposable protection clothing, and that other factory work is
conducted using launderable coveralls provided by a supplier. These specifics should be
reflected in UNICOR and USP Lewisburg documents and procedures. Also, the
respiratory protection used by breakers consisted of hooded powered air purifying
respirators (PAPRs), which is different from the full face-piece air purifying respirators
(APRs) specified in the Pre-Industrial Manual. Although protection factors are similar
for these respirators, cleaning and inspection ofrespirators in the Pre-Industrial Manual
apply to APRs and are not relevant to PAPRs. ISO 9000 documents indicate different
respiratory protection and associated procedures. UNICOR should ensure that its written
requirements and current practices are consistent.




                                            9

Since UNICOR at USP Lewisburg requires use of respiratory protection during glass
breaking, non-routine maintenance of LEV HEPA filters, non-routine cleaning activities,
and other cleaning activities, a written respiratory protection program is required by
OSHA under the respiratory protection standard (29 CFR 1910.134) and the lead and
cadmium standards (29 CFR 1910.1025 and 1027, respectively). A Respiratory
Protection Program dated April 2008 is in place for USP Lewisburg that applies to all
operations conducted at the penitentiary. This is a general program that does not
specifically address UNICOR recycling, but provides the overall requirements for using
respirators. UNICOR has supplemented this overall program with its recycling-specific
ISO 9000 procedures regarding respirator use, inspecti~n, and storage. Documentation is
also available for inmate worker medical clearance to wear respiratory protection, and for
voluntary use of disposable dust masks per Appendix D of the OSHA respiratory
protection standard, 29 CFR 1910.134. The latter has been found to be deficient at some
other UNICOR factories. UNICOR should share the USP Lewisburg approach to meet
Appendix D requirements with its other facilities.

UNICOR has not conducted a complete noise survey at USP Lewisburg, although one
has been recommended by a UNICOR consultant (see Section 4.1.2). USP Lewisburg
does not have a written hearing conservation program for its recycling activities. The
USP Lewisburg Production Controller provided FOH with a limited noise survey
conducted by the USP Lewisburg Safety Department for baling operations. This study
found that noise levels were below the levels that would require a hearing conservation
program under the OSHA noise standard (see Section 4.5 for a discussion of this noise
study). However, based on more comprehensive NIOSHIDART noise dosimetry (see
Section 4.5 and Attachment 1), some recycling activities at USP Lewisburg (e.g., glass
breaking and baling) have noise exposures at levels that require a hearing conservation
program in accordance with the OSHA noise standard. UNICOR should conduct a
complete noise survey for its recycling operations at USP Lewisburg and implement a
hearing conservation program, accordingly.

Safety practices and procedures are applied at the USP Lewisburg recycling factory.
Written safety and health documents to define these practices include the Pre-Industrial
Manual and the ISO 9000 documents. USP Lewisburg also developed specific written
practices for non-routine cleaning of elevated surfaces conducted in 2009 (see Section 4.4
for further information). In addition to the recommended improvements that were
discussed above for lead and cadmium control, this documentation could be further
improved by specifying requirements for periodic site assessments, hazard analyses,
inspections and verifications as recommended by UNICOR's consultant, and regulatory
compliance reviews. UNICOR should review the USP Lewisburg ISO 9000 documents
and supplement this information, as appropriate, with a written, site-specific safety and
health document for the general factory operations, including both routine and non­
routine activities. Additionally, consolidation of various safety and health practices into
an overall site-specific safety and health document would benefit understanding,
implementation, and verification of requirements. See Section 6.0, Recommendations,
for opportunities to improve safety and health documentation.




                                            10 

3.2       Other UNICOR Programs and Procedures

UNICOR has developed a heat stress program. This program will be evaluated and
discussed in the final OIG report. According to UNICOR Factory Managers, UNICOR
has drafted a set of standard operating procedures (SOPs) that will serve to define
practices and measures for lead, cadmium, and other hazard controls. These SOPs have
not been reviewed by FOH to date. This set of SOPs will be reviewed and discussed
prior to the completion of the OIG investigation. Environmental issues are discussed in
Section 4.7.

4.0      FIELD INVESTIGATIONS AND MONITORING RESULTS

Several field investigations of USP Lewisburg e-waste recycling operations have been
conducted since 2003. These investigations are listed below:

      .. 	 A UNICOR consulting firm performed personal and area air monitoring and
           surface sampling in July/August 2003 for routine recycling activities. This
           sampling was very basic. Other than sample data tables, no discussion or
           information regarding the meaning of the results or recommendations were
           provided.

      • 	 OSHA notified USP Lewisburg of safety-related allegations that OSHA received
          in 2005 and required a response regarding these allegations. In April 2007,
          OSHA conducted an inspection of UNICOR e-waste recycling operations at USP
          Lewisburg (see Attachment 3).

      .. 	 Two other consultants performed more comprehensive industrial hygiene (IH)
           evaluations of the recycling operations in April 2005, April 2006, March 2007,
           and March 2008. These evaluations included personal and area exposure
           monitoring, surface sampling, and a review of operations. Findings and results
           were presented and discussed and recommendations were provided.

      .. 	 As part of the DOJ OIG investigation, NIOSHIDART and FOH conducted an
           initial field investigation in May 2007 and a more detailed field investigation in
           January 2008 to determine personal exposures to toxic metals, noise, and heat, as
           well as existing toxic metal surface contamination on various building
           components. NIOSHIDART prepared a report of its study to assess worker
           exposures to metals and other occupational hazards (see Attachment 1). FOH
           sampling results and observations are provided in this report and Attachment 2.

      • 	 A UNICOR consultant also performed two studies of targeted scope in September
          2008; one involving mercury vapor screening and another involving a protective
          coverall performance evaluation during glass breaking operations.

      .. 	 Finally in March 2009, a UNICOR consultant provided services including worker
           training, hazard control development, and exposure monitoring in support of a


                                               11 

            non-routine activity to decontaminate elevated surfaces of dusts containing toxic
            metals.

Results of the OSHA, UNICOR consultant studies, NIOSHJDART, and FOH studies are
discussed in this section4 , in the following order:

    • 	 Section 4.1 addresses OSHA, UNICOR consultant, and NIOSHJDART and FOH
        investigations to evaluate exposure to toxic metals from recycling operations;

    • 	 Section 4.2 addresses surface contamination and bulk dust sampling results and
        the implications for potential worker exposure;

    • 	 Section 4.3 addresses FOH observations for two specific activities that have
        potential for toxic metals exposures (Le., the dumping of metal masking and
        banding into roll-off containers, and accessing the area above the factory ceiling
        where surface contamination is present;

    III 	   Section 4.4 addresses a non-routine UNICOR and USP Lewisburg activity that
            was conducted to decontaminate elevated surfaces in the warehouse;

    III 	   Section 4.5 addresses noise exposures;

    • 	 Section 4.6 addresses other exposure hazards such as heat and ergonomic issues;
        and

    • 	 Section 4.7 addresses environmental issues resulting from the investigations.

Toxic metals of greatest interest for e-waste recycling include lead, cadmium, and
barium. Beryllium can also be associated with e-waste materials and is also of interest
because of its high toxicity, adverse health effects, and low exposure limit. These metals
were the focus of the field investigations. See the FCI Elkton report referenced in
Section 1.0 for additional details regarding e-waste hazards.

Exposure monitoring results are compared to permissible exposure limits (PELs) and
action levels (ALs) established by OSHA. In addition, non-mandatory Acorn TLVs and
NIOSH recommended exposure limits (RELs) are also available for reference. Personal
exposure limits are often based on 8-hour time weighted average (TWA) exposures and
the TWAs are applicable to the exposures discussed in this report.

Table 1 provides exposure limits for lead, cadmium, barium, and beryllium. PELs and
TLVs, as well as action levels, for other hazards can be found in OSHA standards (29
CFR 1910) and the 2009 ACGIH TLVs. [ACOrn 2009]

4 Given the many variables that may impact air sampling and exposure monitoring, testing data and
findings can vary from one period to the next. Also, the findings, interpretations, conclusions and
recommendations in this report may in part be based on representations by others which have not been
independently verified by FOH.


                                                   12 

                                                                                              BERYLLIUM

OSHA PEL                                                                                              2

OSHA ACTION                          30                                                 N/A        N/A
LEVEL2
                                                                                        500       0.05

ACGIHTLV                            N/A                                                 N/A        N/A
(Res irable Fraction)
NIOSHREL                             50                                                 500           0.5
NOTES;
    1.     All limits are based on an 8-hour time           average (TWA) exposure. NIOSH RELs are
           based on 1WA concentrations of up to a 10-hour workday during a 40-hour workweek.
      2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
           such as controls, monitoring, and/or medical surveillance under various OSHA standards.
      3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for                    are based on lowest
           levels that can be feasibly achieved through the use of             controls and measured by
           analytical techniques. [NIOSH 2005]
      4. 	 ACGIH TLV 2009 adoption.

Exposure standards for noise are discussed in the "............ v'. .                           are
presented.

4.1      Investigations for Exposure to Toxic Metals

Given the various materials and components
potential to result in worker exposure to toxic un,...."'"       U.'-' . .",UJJUJ;:;,

cadmium. The magnitUde and potential health COIlse~Que~nCles
on a number of factors such as workplace ventilation
work practices, protective equipment ... L<J'U"....u
gloves, etc.), duration of exposures, and
be reviewed for a more comprehensive discussion of the
waste electronics, their relative toxicities, pertinent
information.

A        of investigations that ...,.·...ns,.,....
Lewisburg's e-waste recycling operations have
investigations are discussed below.




                                                     13 

4.1.1   UNICOR Consultant Monitoring and Sampling of October 2003

A UNICOR consulting firm conducted a limited amount of sampling for routine
operations at USP Lewisburg e-waste recycling facilities on July 31 and August 1, 2003.
This sampling included personal and area exposure monitoring and surface wipe
sampling. Samples were analyzed for lead, cadmium, barium, and beryllium. Results are
summarized below.

    • 	 On July 31, 2003, a personal air sample collected in the glass breaking booth, an
        exhaust sample from the glass breaking booth's LEV, and an area sample outside
        the glass breaking booth were all below the limit of detection (LOD) for the four
        metals analyzed. The detection limits were appropriately well below the OSHA
        PELs and action levels.

   .. 	 Also on J ul y 31, two samples were taken of PPE; that is, one glove/sleeve and one
        Tyvek collar. The results are reported in mglkg units which suggests that these
        are not wipe samples from the clothing, but rather a total amount of contamination
        that was digested from a bulk patch or piece of clothing. Only lead was detected
        at 2.80 mglkg and 4.71 mglkg. The significance of these results was not
        discussed in the report.

   .. 	 On August 1, 2003, three surface wipe samples were collected and analyzed. A
        wall inside the glass breaking enclosure had low levels of contamination. For
        instance, surface lead was not detectable and cadmium was 1.91 Ilglft2. A
        conveyer face inside the enclosure had lead at 591 Ilglft2 and cadmium at 139
        ).tglft2. A wall outside the enclosure had lead at 19.8 ).tglft2 which is less than the
        OSHA criteria for clean areas. Cadmium was at 2.55 ).tglfe. See Section 4.2 for a
        discussion of surface contamination criteria and other surface monitoring results.

This report was very basic and simply provided sample locations, sample types, and
results. No evaluation of the significance of the results was provided. No information or
observations were provided regarding the work practices or hazard controls, and no
conclusions or recommendations were provided. The only description of work activities
was that about 170 "tubes" were processed on each day of sampling.

4.1.2   OSHA Inquiry and Inspection

On April 19, 2005, OSHA received a report of alleged hazardous working conditions at
UNICOR's USP Lewisburg e-waste recycling facility from a source that requested to
remain anonymous. Seven specific issues were alleged that involved such items as
inadequate eating areas, consumption of food and beverages in contaminated areas;
processing of food in a manner that does not protect against contamination; use of
compressed air to clean contaminated surfaces and clothing; skin and eye irritation from
exposure to toxic metals dusts; and lack of effective hazard communication information
and training.



                                              14 

On April 20, 2005, OSHA infonned the Safety Manager at USP Lewisburg of these
allegations in writing. OSHA decided not to conduct an inspection at that time, but
required a written response to the allegations within 30 days. The USP Lewisburg
Warden responded to OSHA on April 26, 2005. The Warden rebutted each of the seven
allegations as inaccurate or not applicable and summarized USP Lewisburg's practices
for each item. He also summarized some additional practices that were to be
implemented regarding hazard communication (see Attachment 3 for the OSHA letter to
USP Lewisburg and the USP Lewisburg response to OSHA).

On October 10, 2006, OSHA generated a "Referral Report" following meetings with the
DOJ OIG that identified a hazard involving employee exposure to "heavy metals,
including lead, cadmium, and beryllium from the breaking and/or recycling of cathode
ray tubes (CRTs)." This report stated that engineering controls, PPE, housekeeping, and
medical programs may be deficient, and that maintenance workers may also be
potentially exposed to heavy metals. This Referral Report was followed by OSHA
inspections conducted by the local area office that were initiated on October 18,2006 and
completed with an inspection on April 10, 2007. The lapse oftime between the Referral
Report and the April 10, 2007 inspection was the result of the recycling factory being
refurbished starting in mid-2006 with completion in early 2007.

A Referral Narrative Report was prepared by OSHA for this inspection (#310227467),
and this report was followed by a report of violation on July 20, 2007. Results of the
inspection are summarized below, and the OSHA reports and documentation for the
referral and inspection are provided in Attachment 3:

   • 	 In the report of violation, OSHA cited one "serious" violation under the lead
       standard, 29 CFR 1910.1025 (h)(1), that requires that "all surfaces shall be
       maintained as free as practicable of accumulations of lead." Personal exposure
       monitoring perfonned by OSHA found inhalation exposures to lead on the
       general factory floor that, although below the PEL and action level, were
       produced by inappropriate actions such as dry broom cleaning, high volume
       pedestal fans, and tracking of dust from the glass breaking booth to the general
       disassembly area.

   • 	 Also in the report of violation, OSHA provided abatement notes (Le., abatement
       actions) that are to be implemented to correct the violation. These actions
       included (a) prohibiting dry sweeping and instead perfonning cleaning using
       HEPA vacuums and wet methods with suitable liquid agents; (b) removing
       pedestal fans while allowing slow speed ceiling fans, if desired; and (c) using tack
       floor mats at the open edge of the CRT breaking booth and other areas to prevent
       tracking of dust from the glass breaking booth.

   • 	 OSHA conducted personal exposure monitoring of a CRT breaker while
       conducting glass breaking in the first part of the shift and then while conducting
       general factory (e.g., disassembly) operations in the second part of the shift.
       Interestingly, OSHA found that the entirety of the detectable inhalation exposure



                                            15 

        occurred during the disassembly operations, not glass breaking; however, the
        exposures were still well below the PELs and action levels. The lead exposure in
        the disassembly area was 6.19 Ilfm3, and the cadmium exposure in the
        disassembly area was 0.68 Ilg/m . Lead and cadmium exposures were below the
        limit of detection during glass breaking. [Note: This fmding was somewhat
        different from UNICOR consultants and NIOSHJDART results which showed
        lead and cadmium exposures for disassembly area activities to be lower or not
        detectable, while glass breaking exposures were higher, but still below the PELs
        and actions levels. See Sections 4.1.2, 4.1.3, and 4.1.5 for results.]

   (8   In its narrative, OSHA reported that noticeable dust was observed during general
        disassembly when CRTs were removed from their cabinetry. This observation
        supports the disassembly exposure results discussed above. The report provided
        additional information on the broom cleaning, tracking of dust from the glass
        breaking booth, and the use of pedestal fans that OSHA discussed in its report to
        support the violation issued.

   (8   The narrative also discussed improving the ventilation system in the glass
        breaking booth, specifically by creating a "negative pressure" condition in the
        glass breaking booth and by achieving air exchanges and cooling through the
        introduction of an HVAC system. The report expressed concern for a heat stress
        hazard under the conditions that existed at the time of the inspection.

   (8   In a separate correspondence of August 3, 2007, OSHA further informed the USP
        Lewisburg Safety Manager of the potential heat stress hazard in the glass breaking
        booth (see Attachment 3). OSHA chose not to issue a citation under Section
        5(a)(1), the general duty clause of the Occupational Safety and Health Act, but
        suggested that UNICOR add a ventilation system to the glass breaking booth to
        provide air conditioning and achieve a negative pressure relative to the general
        factory. Other general suggestions for this system are discussed by OSHA in the
        report provided in Attachment 3.

   (8   Another subject raised by the OSHA inspection was that an unapproved
        replacement part was used for a PAPR that voided its certification (Le., PAPR
        effectiveness can not be assured). A citation was not issued, but OSHA noted that
        only original manufacturer parts should be used to maintain respirator equipment.
        The Production Controller stated that only proper parts are now used. He also
        stated that current PAPRs are no longer made and that new PAPRs will have to be
        purchased and used when replacement parts can no longer be obtained.

The OSHA report of violation required that UNICOR or USP Lewisburg provide
"abatement certification and documentation" to OSHA that demonstrates corrective
action for the violation. In response to the OSHA reports and violation, UNICOR and
USP Lewisburg implemented corrective actions, and the USP Lewisburg Warden issued
a written correspondence to OSHA documenting the abatement actions (see Attachment




                                            16 

3). The following actions were taken to address the OSHA violation as stated in the
correspondence to OSHA and as described by the Production Controller:

    • 	 Dry sweeping is prohibited and signage is in place to communicate this
        restriction. Misting is required before any sweeping of bulk materials such as
        pieces of wire or other bulk debris. Training is provided in hygiene,
        housekeeping, and cleaning practices and workers sign a document to
        acknowledge receipt of training.

    • 	 Pedestal fans have been removed from the disassembly area. The area is now air
        conditioned.

    • 	 Tack mats have been placed at the entrance/exit of the glass breaking room.
        Cleaning practices are implemented for equipment that is taken from the glass
        breaking room.

UNICOR and USP Lewisburg have also taken some action to address the ventilation of
the glass breaking room and potential heat stress issue. According to the Production
Controller, air conditioning is now provided to the general factory area within which the
glass breaking room is housed. Direct ventilation is not provided to the room, but some
migration of tempered factory air could occur through the plastic curtain wall. According
to the Production Controller, USP Lewisburg also submitted a proposal to UNICOR
Headquarters to create a negative pressure condition within the glass breaking room, but
UNICOR did not accept this proposed action to create the negative pressure condition,
even though this improvement has been suggested by its consultant, OSHA, and
NIOSHIDART. [Note: In January 2008, NIOSHIDART found that the booth is not
operated at negative pressure. See Section 4.1.5 for further information.] Finally, the
Production Controller stated that "breathable," disposable protective coveralls are now
used in the glass breaking room which serve to reduce heat exposure.

The condition regarding broom, brush, or other dry cleaning at USP Lewisburg that was
in part responsible for the OSHA violation was also found at FCr Tucson, which used dry
cleaning methods into 2009, two years after the USP Lewisburg OSHA violation. This
indicates that UNICOR is not effectively communicating, alerting, and directing its
recycling factories as a whole to correct OSHA violations or other deficiencies that are
found at the individual facilities. UNICOR should ensure that all of its recycling
factories are aware of deficiencies and violations, and ensure that corrective actions are
made at all applicable factories. UNICOR should ensure that it has proper staffing levels
and management systems to achieve improvements in information sharing and corrective
action tracking, among other management and ES&H functions.

A "lessons learned" issue that UNICOR should understand from the citation and share
with all of its factories is that many OSHA standards require more than controlling
exposures to levels below the PEL. Many standards, including lead and cadmium
standards, require various specific actions to limit exposure (e.g., use of engineering and
work practice controls over respiratory protection to control exposure, prohibiting dry



                                             17 

sweeping, implementing housekeeping and hygiene practices, and worker training,
among others).

4.1.3   Annual UNICOR Consultant Evaluations of 2005,2006,2007, and 2008

Beginning in 2005 and continuing to the present time, two other consultants conducted
more thorough annual industrial hygiene evaluations of USP Lewisburg e-waste
recycling operations in April 2005, April 2006, March 2007, and March 2008. Since
2006, all studies were conducted by the same consultant. In addition to personal
exposure monitoring, area air monitoring and surface wipe sampling, these studies also
evaluated work processes and hazard controls. As opposed to the 2003 study, findings
were presented and discussed and recommendations were provided.

4.1.3.1 Consultant Evaluation of 2005

In April 2005, only one personal sample for a glass breaker was taken, along with three
area air samples. Six wipe samples were also collected from some work surfaces and
worker PPE and hands. Results are as follows.

   .. 	 Air sample results showed the §lass breaker's lead exposure at 18 ~glm3 and
        cadmium exposure at 0.5 ~glm . The consultant reported that if a maximum shift
        of five hours was worked with this exposure, then the lead result would calculate
        to 22% of the PEL and 38% of the action level as an 8-hour TWA.

   .. 	 Outside the enclosure, an area air sample showed all metals results to be below
        the limit of detection (LOD). Inside the enclosure, an area sample near the left
        wall also showed all results to be below the LOD. A sample behind the right
        HEPA unit was reported to be 14% of the PEL for lead and 6% of the PEL for
        cadmium as an 8-hour TWA.

   .. 	 Three surface wipe samples were collected from an enclosure wall, pallet jack,
        and floor outside the enclosure. The hir,est surface level found was on the floor
        outside the enclosure and had 316 Ilglft lead and 123 ~glft2 cadmium. The
        consultant did not make a definitive conclusion regarding these levels. See
        Section 4.2 for additional information on surface contamination levels.

   .. 	 Wipe samples of workers' hands found cadmium contamination, but no lead. The
        consultant stated that these samples were of most concern.

   .. 	 Smoke tests and face velocity measurements of the LEV system showed that the
        system was adequate for the capture of light dust.

[Note: There were some data inaccuracies in Table 1 of the consultant's report regarding
presentation of an 8-hour TWA for lead and transposing another lead result from the
laboratory report. However, the consultant's interpretation of the results is accurate and
the errors do not detract from the accuracy of the findings.]


                                            18 

The consultant concluded that all air samples were below applicable limits and no
changes were needed in operations. Recommendations included maintaining the air
handling system, maintaining regular housekeeping, continuing use of respiratory
protection, training of workers in the lead and cadmium hazards as required by the OSHA
lead and cadmium standards, re-enforcing personal hygiene practices (hand cleaning),
improving contamination control when exiting the glass breaking area, improving floor
cleaning, and performing additional exposure monitoring.

4.1.3.2 Consultant Evaluation of 2006

In April 2006, another IH professional conducted a similar industrial hygiene evaluation.
The personal exposure monitoring and surface wipe sampling was more intensive in this
study. Results are summarized below.

   • 	 Five personal exposure monitoring samples were collected, two breakers inside
       the glass breaking booth, one "runner" outside the booth (Le., presumably a
       feeder), and two inmate workers performing "teardown" (i.e., disassembly)
       activities on the factory floor. As would be expected, the breakers had the highest
       exposures, but all exposures were only small fractions of the PELs. For instance,
       the highest lead exposure was 8.2% of the PEL for the duration sampled, and
       3.3% as an 8-hour TWA. The highest cadmium exposure was 16% of the PEL for
       the duration sampled and 6.4% as an 8-hour TWA. The feeder/runner cadmium
       exposure was less than 8% of the PEL (less than the LaD) and the lead exposure
       was 1.4% of the PEL as an 8-hour TWA. Inmate worker exposures conducting
       disassembly activities outside the booth were less than 4% of the cadmium PEL
       (less than the LaD), and the highest lead exposure was 1.9% of the PEL as an 8­
       hour TWA.

   • 	 Area samples inside and outside the glass breaking booth were lower than the
       corresponding personal exposures; that is, small fractions of the PEL, if
       detectable.

   • 	 Fifteen surface wipe samples were collected from surfaces inside the glass
       breaking booth, outside the booth in disassembfy areas, from hands and PPE, and
       in change room and PPE storage areas. The consultant compared these results to
       different criteria than those cited in FOH and NIOSHIDART reports to date
       (except for beryllium). The criteria used by the consultant for lead are more
       restrictive (see Section 4.2 for a discussion of consultant and NIOSHIDART and
       FOH cited criteria), but the consultant noted that an assessment is needed to
       determine if more suitable surface contamination criteria should be used. The
       consultant found that various surface samples inside and outside the glass
       breaking booth that were analyzed for lead and cadmium exceeded the criteria
       that he applied. The consultant noted that some other metals exceeded or may
       potentially have exceeded the criteria used. Beryllium was found in some
       samples in detectable levels, but these levels were less than the Department of


                                            19 

       Energy's (DOE) standard found in its Chronic Beryllium Disease Prevention
       Program (CBDPP). [DOE 1999] See Section 4.2 for additional discussion of
       surface contamination levels and criteria cited by the consultant, NIOSHJDART
       and FOH.

The consultant recommended general actions relative to the OSHA lead and cadmium
standards, including employee information and training, PPE selection and laundering,
use of HEPA vacuums, separate change rooms and PPE storage areas, LEV and HEPA
maintenance and cleaning functions, periodic inspection of hygiene facilities and
practices, and management of worker clothing contamination. Specific recommendations
included worker notification of monitoring results; verification of training for cadmium,
lead, respirator use, and hazard communication; verification of work practices, clean-up
procedures, and handling procedures; PPE implementation improvements; verification
and documentation of various work practices, procedures, and control measures;
continuation and documentation of various inspections; and performance of various
monitoring activities. Additional monitoring recommended included screening to
detenrune if other metals or radiation should be monitored, further evaluation of
beryllium surface contamination, performance of noise dosimetry, development of a
surface testing plan for future and periodic testing, and re-monitoring for toxic metals
exposures.

4.1.3.3 Consultant Evaluation of 2007

In March 2007, the same IH professional performed a third industrial hygiene evaluation
that was similar to the evaluation in 2006. The consultant reported that CRT demolition
(breaking) and related processing had not changed since 2006, but that the factory area
had been re-constructed and re-finished to improve decontamination control. The
Production Controller confirmed that the recycling factory was funy refurbished starting
approximately in mid-2006 with completion in early 2007. Results are summarized
below.

   • 	 Eight personal samples were collected for glass breakers, feeders, and inmate
       workers performing equipment disassembly on the factory floor. Exposure results
       were similar to those found in 2006 and discussed above. Breakers had the
       highest exposures, but well below the PELs. The highest lead exposure was 9.8%
       of the PEL and the highest cadmium exposure was 5% of the PEL, both as 8-hour
       TWAs. The feeder/runner had lead exposure at 2.6% of the PEL, and cadmium
       exposure at less than 1% of the PEL, both as 8-hour TWAs. The highest
       disassembly worker exposure was 1% of the PEL for lead and less than 1% of the
       PEL for cadmium, both as 8-hour TWAs.

   • 	 Area air samples collected inside and outside the glass breaking booth were
       comparable to or much lower than personal samples taken in similar work areas.
       At the entry to the glass breaking booth, lead was found at 0.86 )lglm3 and
       cadmium was below the LOD.




                                           20 

    \II)   Over 20 surface wipe samples were conected. Where the consultant made side­
           by-side comparisons between 2006 and 2007 results, the lead contamination
           levels varied, with some higher, some lower, and some in the same range.
           Samples from the disassembly area in the factory seemed to be generally higher in
           lead levels in 2007 than 2006, although a direct comparison between these
           surfaces may not be appropriate because of varied sample locations and was not
           made by the consultant. The consultant found that cadmium and beryllium levels
           were generally lower in 2007 than in 2006. The consultant reported that many of
           the lead levels, and potentially some other metals, exceeded the criteria that he
           cited (generally more restrictive than those cited by NIOSHIDART and FOH; see
           Section 4.2 for a discussion) and recommended further sampling and more
           standardized work procedures and clean-up practices. [Note: In his
           recommendations, the consultant stated that more suitable industrial
           contamination guidelines should be identified that are more applicable to
           UNICOR recycling. See Section 4.2 for additional discussion of surface
           contamination levels and suggested criteria.]

The consultant again recommended general actions relative to the OSHA lead and
cadmium standards, including employee information and training, PPE selection and
laundering, use of HEPA vacuums, separate change rooms and PPE storage areas, LEV
and HEPA maintenance and cleaning functions, and others. Specific recommendations
included employee notification of air monitoring results, verification and documentation
of various work procedures and control practices and facilities, improvements in clean
room facilities and PPE practices, improvements in the cleaning regimen, improvements
in contamination control, and additional monitoring. The additional monitoring
recommendations included development of a surface testing plan, screening to determine
whether other metal contaminants or radiation should be monitored, performing noise
dosimetry, and conducting periodic re-monitoring for metals.

4.1.3.4 Consultant Evaluation of 2008

In March 2008, the same consultant performed another industrial hygiene evaluation that
involved an assessment of the overall factory operations similar to those in 2006 and
2007. Results are summarized as follows:

   \II)    Fourteen personal exposure monitoring samples were taken from workers,
           including breakers, feeders, a forklift operator, disassembly personnel, and
           warehouse personnel. Results were generally comparable to or somewhat less
           than results of the prior two years. Lead exposures were highest for
           breakers/feeders but were less than 10% of the PEL as an 8-hour TWA, while
           cadmium exposures were all below the LOD. Exposures for warehouse and
           factory workers were 2% or less of the lead PEL as an 8-hour TWA and less than
           the LOD for cadmium.

   \II)    Four area samples collected in the glass breaking room, "clean room," and
           recycling office were also low. The only detectable lead sample was from the



                                              21 

       glass breaking room and was 1.8 Ilglm3, and the only detectable cadmium sample
       was from the recycling office and was 0.17 Ilglm3.

   .. 	 Surface dust lead concentrations within the glass breaking room were found in
        similar concentrations as the consultant's prior surveys, and these dusts are
        contained within the enclosure. A composite sample from "teardown"
        (disassembly) benches showed "an extremely high concentration of lead (90,000
        Ilglm2)" which is about 9,000 Ilglft2. This sample included dust collected from
        within angle iron corners of monitoring room benches. The consultant noted that
        these findings indicate the need for "vigilant HEPA vacuuming practices within
        each and all work areas, before the end-of-shift, as wen as periodic inspection."
        Surface lead concentrations within the warehouse exceeded the surface criteria
        used by the consultant, but were less than the OSHA criteria of 200 Ilglft2 that is
        appropriate for "clean" areas associated with lead work (see Section 4.2 for
        further discussion of surface contamination criteria).

   .. 	 Cadmium surface contamination was found at less than the surface criteria used
        by the consultant, except for a teardown bench composite sample. Beryllium was
        not detected in most samples, and was 10.5% and 23% of the DOE Chronic
        Beryllium Disease Prevention Program (CBDPP) release criteria in two samples
        with detectable beryllium.

The consultant provided many useful conclusions and recommendations. He cited
several actions taken since 2007 related to compliance with the OSHA lead and cadmium
standards and suggested that these actions be maintained. Examples of compliance
actions included worker lead and cadmium information and training, improved PPE with
disposable and launderable protective clothing, improved cleaning practices, and
improved PPE storage and PPE procedures. Example recommendations included
improvements of the glass breaking ventilation system to include establishing a negative
pressure condition as suggested by OSHA, replacing existing glass breaking room ceiling
mounted ventilators with properly designed HEPA-filtration system (see Section 4.1.5 for
similar NIOSHIDART findings on this issue), eliminating "uncontrolled" dumping of
Gaylord bins and establish Gaylord bin cleaning practices and other control measures
(see Section 4.3 for FOH observations of a similar issue), sealing of various surfaces to
enhance cleaning efficiency, continued enhancements to cleaning practices, additional
and on-going testing and monitoring practices including worker notification of results,
various facility improvements, and various documentation and verification practices,
among others. He continued to provide and re-emphasize recommendations from prior
surveys.

4.1.3.5 Summary of Annual Consultant Evaluations-2005 through 2008

In summary, the annual UNICOR consultant industrial hygiene evaluations conducted in
2005,2006,2007, and 2008, were thorough and provided useful and practical
information and recommendations to evaluate and control hazards associated with
UNICOR's e-waste recycling operations at USP Lewisburg. Inhalation exposures were


                                            22 

consistently well below OSHA PELs for all toxic metals monitored, but improvements in
work practices, hazard controls, verification and documentation of procedures and
practices, and additional monitoring were among items recommended to further enhance
work practices and hazard control measures. Each annual evaluation built upon past
findings to focus continuing studies, evaluate existing and improved work practices and
hazard controls, and contribute to continued improvements.

FOH considers this type of annual or periodic industrial hygiene evaluation to be a
noteworthy practice that UNICOR should implement at all of its recycling facilities,
whether or not glass breaking is conducted. This type of annual or periodic evaluation
would meet several of the FOH and NIOSHIDART recommendations made in reports for
other UNICOR recycling facilities to ensure continued control of hazards, verify effective
work practices and hazard controls, and achieve continued improvements over time. To
properly implement such a monitoring program, even if performed by contractors,
UNICOR should ensure it has the proper staff and management systems to promptly
evaluate and convey results and implement any corrective action required.

According to the Production Controller, the next annual industrial hygiene evaluation of
the overall factory operations is scheduled for June 2009. Since the last evaluation in
March 2008, glass breaking production has been increased to between 450 and 600 CRTs
per day and is conducted on average every 2.5 days. The June 2009 monitoring will be
the first monitoring since production has increased. Under the lead and cadmium
standards, OSHA requires that additional monitoring be conducted when production or
other changes occur that could result in increased exposure. The June 2009 monitoring
will serve this purpose, but should have been scheduled more promptly after production
was ramped up.

FOH emphasizes that to make such evaluations effective, UNICOR should ensure that it
follows through with implementation of recommendations (see Section 6.0,
Recommendations, for information to ensure closure of recommendations made by
consultants, participants in the OIG investigation, OSHA, and other organizations). For
instance, it is apparent that UNICOR at USP Lewisburg has made continued
improvements in health and safety aspects of recycling operations over time, but the
extent of implementation of the consultant's recommendations is not completely clear.
The consultant's reports indicate implementation of some improvements, but many of the
same recommendations are repeated each year. When asked which consultant
recommendations were implemented, the USP Lewisburg Production Controller stated
that several recommendations were implemented but that some others were not because
they were not deemed feasible. The Production Controller stated that recommendations
implemented included improved cleaning practices, use of HEPA vacuum systems, use of
a service company to provide coveralls to all factory workers and to provide a laundering
service for the coveralls, facility modifications to reduce dust accumulation and enhance
effectiveness of cleaning, and follow up monitoring. These improvements demonstrate a
good faith and on-going effort to provide for continuing improvements in worker
protection.




                                           23 

An example of a recommendation              not
improvements in the glass breaking room ventilation ,,""'t....n                              introduction of
fresh air, establishment of a negative          and                              "'''''.'Ui,!". vents. Dating
from 2007 forward, OSHA, NIOSHfDART,                                                               presented
        findings and recommendations in this                    .v,.......... ~."'u Controller stated
     a           was provided for UPli;faam                                    to UNICOR
Headquarters, but that the proposal was not acc:em:ea.

Closure of recommendations with documentation of                 were accepted and
details of their implementation, along with those not        or pending (and why) is
important to demonstrate and track improvement                     UNICOR should
implement a corrective action system to                 not                  and
document corrective actions taken from various evaluations and investigations, including
those of its consultants and those of the OIG investigation. recommendations are not
accepted, UNICOR should document the reason and                any alternate actions
taken to achieve similar results. See Section 6.0,                   for further
information on tracking and closing deficiencies,                   and
recommendations.

4.1.4 UNICOR Consultant Targeted Studies of September 2008

In addition to the annual industrial hygiene evaluations "Vii... ""'''.......                  a UNICOR
consultant has performed additional targeted studies to <>r1/1 .....,.,
included two studies conducted in September 2008. One study
""'''''''''''''''t". in the recycling factory, and another
types of coveralls used during glass breaking.

Mercury vapor screening found that mercury vapor was not
appreciable concentrations within the factory
TOl"UW'U were found with detectable ......    ,HAU


                     concluded, however,
distributed within the factory environment."
difficult to clean areas, metal balers and crushers, metal lockers,
Various recommendations were made that included
monitoring, contingency clean-up preparedness, and

The study to compare relative performance of two types of coveralls under
conditions was made to determine the relative capability of alternate, breathable
to hold out particulate contamination (e.g., toxic metals dusts) with      goal of ,-,... o..''-'UJLJ;;
overall heat stress to workers. The report stated that the "results of this study are not
conclusive." Recommendations were made to repeat coverall testing using a
test approach, among others. The Production Controller stated that
currently using "breathable" disposable coveralls which have benefit         heat                       to
workers; therefore, presumably USP Lewisburg has finalized coverall selection.




                                                     24 

These types of targeted studies indicate an on-going effort by UNICOR and USP
Lewisburg to continue hazard evaluations and hazard control improvements. UNICOR
should determine whether recommendations from these studies are of sufficient priority
and benefit to worker protection. The type of tracking system described in Section
4.1.3.5, above and in Section 6.0, Recommendations, would provide for acceptance, non­
acceptance, and prioritization of recommendations and corrective actions.

[Note: A third targeted consultant study for non-routine cleaning activities of elevated
surfaces is discussed in Section 4.4 after the presentation of surface contamination results
in Section 4.2 and after a discussion of FOH observations on a related topic in Section
4.3.]

4.1.5   NIOSHIDART Monitoring for Toxic Metals

NIOSHIDART and FOH conducted a field investigation of the USP Lewisburg electronic
equipment recycling facilities to assess worker exposure to toxic metals (see Attachment
1). The investigation included exposure monitoring and other assessments and was
conducted in January 2008 after an initial study was performed in May 2007. Personal
exposure monitoring was conducted for 31 metals. During the two days of sampling, 293
and 258 CRTs were broken. Lead and cadmium were found to be the more significant
exposures, but were maintained below the PELs of the OSHA lead and cadmium
standards for both routine and non-routine activities. Exposure results for other metals
were well below the applicable exposure limits. Exposure monitoring results from the
NIOSHIDART study are summarized below:

   .. 	 Lead and cadmium exposure monitoring results (not including glass breaking)
        were well below the action levels and PELs for lead and cadmium. The highest
        lead exposure on the factory floor was 1.13 llg/m3 over roughly a six hour period
        which equates to about 0.85 llg/m3 as an 8-hour TWA ex~osure. This compares
        to a lead PEL of 50 llg/m3 and an action level of 30 Ilg/m . The highest cadmium
        result was 0.08 llg/m3 for the duration sampled which is well below the PEL of
        5.0 llg/m3 and action level of 2.5 llg/m3. These exposures were for disassembly
        activities. Exposures for the other 29 metals were also well below the PELs.

   • 	 Lead and cadmium exposures during glass breaking were also wen below the
       OSHA action levels and PELs. Lead exposures during routine glass breaking
       ranged up to 4.4 llg/m3 for the duration sampled (i.e., 320 minutes), or about 2.9
       llg/m3 as an 8-hour TWA. Cadmium exposures during routine glass breaking
       ranged up to 0.12 llg/m3 for the duration sampled, which is about 0.08 llg/m3 as
       an 8-hour TWA. These highest exposures are small fractions of the PELs.

   • 	 The non-routine filter cleaning and change-out activity, conducted approximately
       monthly, was the task of greatest potential exposure concern. This activity
       involves changing the LEV HEPA filter, cleaning the system housing the filter,
       and cleaning the general area afterwards. Cadmium exposure during the filter
       change-out activity was 2.94 llg/m3 which calculates as 0.6 llg/m3 as an 8-hour


                                             25 

        TWA. The 8-hour TWA result is below the cadmium action level and PEL as an
        8-hour TWA exposure. Lead exposure was 10.3 J.lglm3 which calculates as 2
        J.lglm3 as an 8-hour TWA. The 8-hour TWA result is also below the lead action
        level and PEL. All other metal exposures were well below the PELs. Inmate
        workers wear PAPRs during this operation with a protection factor of 25;
        therefore, lead and cadmium exposures (via inhalation) are well controlled.

NIOSHIDART detailed the PPE and respiratory protection used during recycling
activities. Respiratory protection and PPE worn by breakers performing glass breaking
inside the glass breaking room included hooded powered air purifying respirators
(PAPRs), Tyvek coveralls, gloves, hand and arm protection against broken glass, and
work boots. During the filter change-out activity, Tyvek coveralls, gloves, and PAPRs
were worn. The PPE and respiratory protection is appropriate for breakers and the
inmate workers performing filter change-outs. The respiratory protection provides a
protection factor of 25, which means that respirators would be effective in controlling
exposures up to 25 times greater than the PELs. As noted above, all metals exposures
were less than the PELs.

In addition to the PPE and respiratory protection evaluation, NIOSHIDART also
conducted an evaluation of the local exhaust ventilation (LEV) system that serves the
glass breaking room. The LEV system consists of two reverse flow horizontal filter
modules (HFMs) located inside the glass breaking area. They have a bank of pre-filters
and a HEPA filter with a 1,200 cubic feet per minute (cfm) fan and one-half horsepower
motor. The control panel has a pressure gauge and variable speed control. Air enters
through the pre-filters in the front of the unit and passes through the HEPA filter. After
filtration, all air is recirculated back into the glass breaking room through a grille at the
back of the unit. Plastic strip curtains provide a partial physical barrier between the
workers and an angle iron grate where breaking occurs. The HFMs are in an area
enclosed by building walls on three sides and a plastic strip curtain on the fourth side.

NIOSHIDART conducted a visual inspection, qualitative testing using smoke, and
quantitative testing for face velocity. Summary results are as follows:

    • 	 NIOSHIDART found that the average face velocity measurement of HFM-l (unit
        to the right when facing from the front) was 160 feet per minute (fpm), with a
        range of 150 - 170 fpm. For HFM -2, NIOSHIDART found that the average face
        velocity was 140 fpm, with a range of 130 - 150 fpm. These values are sufficient
        for the capture of fine dust emissions.

   • 	 Smoke tests performed at the plastic strip curtain wall (the boundary between the
       glass breaking area and the general workplace) showed little air flow into the
       enclosed area from the general work area. Two exhaust fans are placed in the
       ceiling of the enclosed area in an attempt to achieve a negative pressure condition
       with respect to the adjacent general workplace. However, the smoke tests showed
       that exhaust fans designed to achieve a negative pressure differential are not




                                              26 

       sufficient. [Note: In 2008, UNICOR's consultant also recommended that this
       system be redesigned and replaced.]

    • 	 NIOSHJDART found that because the HFMs discharge into the GBO enclosure
        (rather than to the outside of the building, for example) and re-circulate the
        filtered air, the enclosure is not under negative pressure with regard to the rest of
        the glass breaking booth. Recirculation of air from industrial exhaust systems
        into workroom air can result in hazardous air contaminant concentrations in the
        facility if not designed properly [AIHAJANSI 2007]. NIOSHJDART's exposure
        monitoring indicates that the recirculation causes no elevated exposures to
        workers in the glass breaking booth. [Note: The exposure conditions are based
        on the LEV being effectively maintained and operated and suffering no
        malfunctions.] If UNICOR were to redesign the system to exhaust to the outside,
        the system must be redesigned to meet applicable fire, safety, or environmental
        codes that apply to this facility and operations.

NIOSHJDART noted in its FCI Marianna report [NIOSH 2008b] that ANSI and AIHA
[2007] recommend that "under no circumstances shall workroom air consist of 100% re­
circulated air." The USP Lewisburg glass breaking LEV system is similar to the FCI
Marianna system, except that the glass breaking area at USP Lewisburg is located within
a tempered air factory environment and, as noted above, exhaust fans are located in the
booth ceiling in an attempt to introduce general workplace air that contains a component
of fresh air. [Note: Since the NIOSHJDART investigation, air conditioning has been
added to the FCI Marianna's glass breaking area.] However, NIOSHJDART smoke tests
did not show significant air movement from the general workplace into the glass breaking
room. FOH also notes that the OSHA lead and cadmium standards require monitoring of
LEV exhaust air streams when it is re-circulated to the work environment. [Note: OSHA
and the UNICOR consultant also recommended actions to improve ventilation to the
glass breaking room, achieve a negative pressure condition, and/or monitor re-circulated
air.]

UNICOR should further evaluate the glass breaking booth LEV and ventilation system to
ensure adequate fresh air ventilation while maintaining a slight negative pressure within
the booth. Possible methods to improve the LEV system could include re-engineering the
system, with appropriate engineering support, to provide fresh air while maintaining a
negative pressure relative to the general factory area, and improving the monitoring of re­
circulated air from the exhaust streams of the HFMs back to the glass breaking room.
See Section 6.0, Recommendations, for additional information.

The following provides a summary of the NIOSHJDART evaluation for toxic metals
exposure at USP Lewisburg:

   • 	 Inhalation exposures to lead, cadmium, and other metals are minimal for routine
       activities conducted on the general factory floor, as well as for associated
       recycling activities.




                                             27 

      .. 	 Inhalation exposure to metals during glass breaking were also controlled at levels
           well below the OSHA PELs and action levels, plus the use of P APRs reduce these
           exposures even further.

      .. 	 Inhalation exposure to metals during the non-routine filter change-out activity
           were the highest found for the duration sampled; however, these exposures were
           also controlled at levels below the OSHA PELs and actions levels as 8-hour
           TWAs. Worker use of P APRs reduce these exposures even further.

      .. 	 As operating during the time of sampling, the LEV system is effective in
           controlling toxic metals exposures in the glass breaking room; however,
           opportunities exist for improving the system and bringing the system into
           compliance with OSHA and ANSI standards. For instance, the OSHA lead
           standard (29 CFR 1910.1025) requires monitoring of LEV exhaust air streams
           that are re-circulated to the work area (see Section 6.0, Recommendations).

Based on the exposure characterizations and observations described above, USP
Lewisburg glass breaking operations, disassembly operations, and associated activities
are conducted in a manner that maintains exposures at levels less than OSHA PELs and
action levels.

4.2      Surface Wipe and Bulk Dust Sample Results

As part of the OIG investigation, NIOSHJDART and FOH conducted bulk dust and
surface wipe sampling at USP Lewisburg in e-waste recycling areas during the site
evaluations in May 2007 and January 2008. Samples were analyzed for total lead,
cadmium, and other toxic metals. In addition, several bulk dust samples were collected
and analyzed for total toxic metal content or for extractable metals using the Toxic
Characteristic Leaching Procedure (TCLP) to determine whether contamination should
be treated as hazardous waste. Results for these samples are presented in Section 4.2.1
and 4.2.2 below.

Federal standards or other definitive criteria or guidelines have not been developed for
acceptable levels of lead or cadmium surface contamination or dust concentrations in
industrial areas where activities are performed involving lead and/or cadmium bearing
materials. However, several recommendations or guidelines, primarily for lead, provide
points of reference to subjectively evaluate the significance of surface contamination.
Some guidelines are available and are noted below (see the NIOSHJDART FCI Elkton
report for a more detailed discussion of guidelines):

      .. 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
           OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
           can be summarized and/or interpreted as follows: all surfaces shall be maintained
           as 'free as practicable' of accumulations of lead; the employer shall provide clean
           change areas for employees whose airborne exposure to lead is above the PEL;
           and the employer shall assure that lunchroom facilities or eating areas are as free


                                               28 

    as                                               The OSHA Compliance Directive for the
    Interim Standard                 in Construction, CPL 2-2.58 recommends the use of the
    Department of Housing                      Development's (HUD) initially proposed
    decontamination                                   floors in evaluating the cleanliness of
    change areas,                               lunchrooms/eating areas. In situations where
    employees are             contact                                 surfaces, such as working
    surfaces or floors '"'"......1',.... rooms, storage facilities, and lunchroom and eating
    facilities, OSHA has                that             would not expect surfaces to be any
    cleaner than     200

                                                      areas where lead-containing materials
                                              IllOllcaleo that no specific    can be set to
                                                       of lead contamination meets the




                                              oec:omle a source of employee lead exposures.
                                                                end is acceptable. [29 CFR,


•          [2001] ............"".. . . '" 	         of 1,000 Ilglft2          of non-lead 

         commercial "" .............F'>"                            buildings. These 

    proposed                                   on calculations that make a number of 

    intentionally corlsel:V 


• 	 HUD has established                       lead on surfaces after lead abatement.
    [24 CFR              levels           40 to 800       , depending on the type of
    surface. The        of 200      is most             used. These levels, however,
    apply to occupied living areas where children         and are not intended for
    industrial operations.

• 	 Regarding lead in bulk dust or soil samples, the U.S. EPA has proposed standards
    for residential soil-lead                n.d.]  level concern requiring some
    degree of risk reduction is 400 ppm                         requiring permanent
    abatement is 2,000 ppm (mglkg).                levels are residential criteria, rather
    than for industrial "'''''......f":,'''.

• 	 There is no quantitative 5'..................""
    states that surfaces shall                                                         of cadmium,
    all spills and sudden                                                              as soon as
    possible, and that surfaces ..V ........ UllU.....' ..... with cadmium shall be cleaned by
            vacuuming or other methods that minimize the likelihood of cadmium becoming
            airborne. [40 CFR 745.65]

The discussion regarding surface wipe and bulk dust sample results is presented below in
context of these available recommendations and guidelines.

[Note: UNICOR's consultant applied other, more conservative criteria in his analysis of
surface wipe samples. Some of these criteria are from the U.S. EPA World Trade Center
(WTC) working group surface guide (health-based benchmark) that apply to the general
population with a 24-hour exposure. [COPC 2003] The consultant acknowledged that
these criteria are not directly related to the industrial setting and recommended that a
more suitable surface contamination guideline be developed by UNICOR for its recycling
operations. FOR agrees with these statements. Potential surface contamination
guidelines will be further discussed in the OIG final report.]

4.2.1       Surface Wipe and Bulk Dust Results at Current Recycling Facilities

During its January 2008 field investigation, NIOSHIDART collected a limited number of
surface wipe samples from work surfaces in the USP Lewisburg general factory areas. In
addition, surface samples were conected from various component parts of e-waste
equipment. Samples were analyzed for lead and cadmium and other toxic metals.
Summary results for these samples are presented below (see Attachment 1 for complete
results):

   l1li 	   Three surface wipe samples were collected from work surfaces (benches or bench
            mats) outside the glass breaking area. Only one of the three was above the 200
            ~glft2 OSHA criteria for lead that applies to clean or non-work areas, and it was
            279 ~glft2. The cadmium level for this sample was 8 ~glft2.

   l1li 	   Eight surface samples were collected from component parts of e-waste
            equipment. Two of these samples from blades of fans removed from CPUs were
            found to be contaminated with lead at 512 ~glft2 and 7,068 ~glft2. Cadmium was
            present at 14 ~glft2 for these samples. These levels of contamination were likely
            present at the time of UNICOR' s receipt of this equipment. Disassembly or other
            activities could free this dust and result in surface contamination in the facility
            over time and also create potential for worker inhalation and ingestion exposures.
            The FOR investigator reported that glove use was inconsistent during general
            factory operations.

   l1li 	   The remaining six samples from e-waste equipment components ranged up to 36
            ~glft2 for lead and 1 ~glft2 for cadmium.

   l1li 	   All beryllium results for the eight surface samples were less than the analytical
            limit of detection (LOD).




                                                 30 

The higher surface contamination levels on some of the electronic equipment component
parts indicate that if loose dust on the equipment is dislodged during handling and
disassembly it can contribute to facility and working surface contamination. In addition,
this can contribute to the potential for inhalation or ingestion exposure during routine
disassembly, although inhalation exposures have been consistently low during this
activity. This finding highlights the importance for control and management of incoming
materials, effective PPE, rigorous housekeeping and hygiene practices, routine clean-up
practices, and an operations and maintenance (O&M) plan.

In addition to the above-referenced samples, FOH performed more extensive wipe
sampling of various surfaces in the recycling factory and warehouse (see Figures 1-3)
both inside and outside the glass breaking booth, in the general factory area, and
associated areas. These samples were collected during the initial investigation in May
2007 and in the foHow-up investigation in January 2008. Attachment 2 provides tables
with additional details about sample locations and the analytical results. A summary of
results is provided below for samples collected in May 2007:

   II 	   Samples in the glass breaking room and feeder area ranged up to 1,300 Ilglft2 lead
          and 880 Ilglft2 cadmium. As expected, these samples were the highest levels
          found, but are contained within the enclosure and isolated from the factory floor.

   II 	   Samples collected from the "clean" and "dirty" rooms that provide for transition
          from the glass breaking area and allow for PPE donning, doffing, and storage
          were well below the 200 Ilglft2 OSHA criteria for lead that applies to clean areas.
          Cadmium was at 8 Ilglft2 or lower.

   • 	 Of 14 samples collected from surfaces in the general factory, warehouse, and
       associated office areas, aU but one were below the 200 Ilglft2 OSHA criterion for
       lead in clean areas. The one sample above this criterion, at 450 Ilglft2 lead was on
       a shelf above a workbench outside the glass breaking area. As found at other
       UNICOR recycling facilities, elevated surfaces are often found to have higher
       surface contamination than work bench areas, likely because elevated surfaces are
       not subject to as much regular cleaning as working surfaces.

   • 	 For the most part, cadmium levels were significantly lower than lead levels for
       these 14 samples. However, two samples, a (circuit) board separation area table
       mat and disassembly area 7A rubber mat, showed cadmium to be present at higher
       levels than lead. These levels were 300 Ilglft2 and 110 Ilglft2, respectively.

   • 	 A sample inside a Gaylord box had a lead concentration of 1,200 Ilglft2.
       Cadmium was at 38 Ilglft2. These boxes are used to hold e-waste, including CRT
       glass, therefore, higher concentrations of lead are not unexpected but point to the
       need for periodic cleaning of the boxes using HEPA vacuums.

   • 	 Beryllium was below the analytical limit of detection (LOD) for all wipe samples.




                                               31 

In January 2008, FOH also collected surface wipe and bulk dust samples for total lead
and cadmium analysis, as well as bulk and mop water samples for TCLP analysis. The
bulk dust and TCLP results are discussed in Section 4.2.2. Results from six surface wipe
samples are discussed below:

       Surface samples from vacuum hoses/dust pans and plastic curtains inside the ~lass
       breaking room were found to have relatively high levels of lead at 4,000 rg/ft
       and 8,400 IJglft2, respectively. Cadmium was found at levels of 44IJglft and 63
       Ilglft2. These surface dusts are contained inside the enclosed booth where
       workers are protected by PPE and respiratory protection and, therefore, do not
       represent a hazard to the workers on the general factory floor.

       One sample collected from a glass breaker's gloves and another collected from a
       breaker's plastic sleeves were found to have 160 IJglft2 and 170 IJglft2 lead,
       respectively. These results affirm the importance of using PPE during glass
       breaking and using proper PPE doffing practices to avoid contamination of skin
       and inner clothing during the removal process.

   • 	 Two composite samples were collected from window sills in the middle section of
       the recycling factory. Lead was found at 1,100 IJglft2 and 390 IJglft2, with
       cadmium at 27 IJglft2 and 221lglft2. These results were higher than the levels that
       NIOSHIDART found on working surfaces of the factory area and were in the
       range of levels found on a higher shelf and within a Gaylord box. These non­
       working areas such as elevated surfaces, window sills, and others should be
       periodically cleaned as part of an O&M plan (see Section 6.0, Recommendations
       for further information).

In comparing 2007 and 2008 NIOSHIDART and FOH data with 2006 and 2007
UNICOR consultant data, the surface wipe results are generally in a similar range,
although direct comparisons of data are difficult because of differences in sampling
locations, for instance. In reviewing lead data, most surface levels in the general factory
areas (e.g., disassembly) were below the OSHA criterion that applies to clean areas (e.g.,
lunchrooms, change rooms), with an occasional level above this criterion. Glass breaking
surfaces were higher but these areas are confined within the containment room. Lead
levels in Gaylord boxes were also higher, around or above 1,000 IJgltt2. Non-working
surfaces that are not subject to regular cleaning were at higher levels than working
surfaces. As discussed earlier in this report, when evaluating data, the UNICOR
consultant applied more conservative levels than the OSHA criterion or other guidance
discussed in Section 4.0 of this report, but suggested that more applicable guidance be
determined and applied to the recycling work at UNICOR facilities. FOH agrees that
surface contamination criteria for areas where lead materials are processed should be
evaluated and developed.

Regarding beryllium, the consultant found detectable levels of beryllium in various
surface samples, but all were below the DOE CBDPP standard for surface contamination.
The consultant reported that beryllium levels in 2007 were generally lower than in 2006.



                                            32 

NIOSHIDART and FOH found no detectable beryllium levels in surface wipe samples
collected in 2007 and 2008. One bulk sample showed a trace concentration of beryllium
(see Section 4.2.2, below).

Based on existing surface contamination levels relative to surface contamination
guidance, UNICOR and USP Lewisburg should implement an operations and
maintenance (O&M) plan to limit contact with existing lead and cadmium contamination,
limit its accumulation, prevent and/or control any releases of the contamination to the air,
and generally prevent potential for inhalation and ingestion (Le., hand-to-mouth contact)
exposure. The O&M plan should address contamination on elevated surfaces and other
factory surfaces (e.g., window sills) that are not regularly cleaned. It should also address
the cleaning of Gaylord boxes at appropriate intervals and also other surfaces highlighted
by the UNICOR consultant. The O&M plan should include appropriate actions to keep
elevated surface contamination in check, such as the February 2009 activity conducted at
USP Lewisburg to clean elevated surfaces in the warehouse (see Section 4.4). With
proper controls established, the O&M plan could include periodic clean-up of surfaces by
inmate or other workers, such as in the February 2009 clean-up of elevated surfaces
performed by inmate workers (see Section 4.4). Elements of an O&M plan are discussed
in Section 6.0, Recommendations.

[Note: In February 2009, USP Lewisburg initiated activities, with proper controls, to
clean-up elevated warehouse surfaces using inmate workers. This activity is the type of
activity that is conducted as part of an O&M plan. See Section 4.4 for additional details
on this activity.]

Further surface testing should be periodically conducted to ensure that surface
contamination levels do not increase over time, and/or to take preventive and corrective
action should levels start to build up. Surface testing in areas of legacy contamination
such as above the more recently installed factory ceiling (discussed below) should also be
performed. Future surface testing should also include elevated surfaces that are not
subject to routine cleaning (see Section 4.2.2, below for additional data from elevated
surfaces).

4.2.2 TCLP and Bulk Dust Results

In addition to the surface wipe samples, in May 2007 and January 2008, FOH collected
bulk samples for analysis of total lead and cadmium and waste water samples for TCLP
analysis for extractable metals to determine their status relative to hazardous waste
criteria. Table 2 provides TCLP criteria and FOH data are presented in Attachment 2.
Results are as foHows.

   til 	   TCLP results for the two mop water samples collected in May 2007 showed that
           extractable metals were at levels less than the criteria for hazardous waste. Three
           mop water samples collected in January 2008 showed similar results. [EPA n.d.]




                                                33 

    •   One bulk sample taken in May 2007 above the ceiling in the 7B disassembly area
        (above the former glass breaking operation) showed lead to be at 19,000 mglkg,
        which is 1.9%. This sample is high in lead and could be legacy contamination
        from past glass breaking operations. Cadmium was found at only 62 mg/kg.
        Beryllium was detected in this bulk sample, but at a level that was below the
        analytical limit of quantitation (LOQ; a level below which the concentration can
        not be reliably determined; a trace amount).

    •   Two bulk samples taken in January 2008 from ceiling access panels on the north
        and south side of the factory room contained lead at 18,000 mg/kg and 5,800
        mg/kg, respectively. These levels are comparable to the one sample collected
        above the ceiling in May 2007 (see above and Attachment 2).

    •   Two additional bulk dust samples were collected in January 2008. Debris from
        the floor where LEV filters were changed showed lead at 8,000 mg/kg which
        enforces the need for thorough cleaning of this area during and after filter
        changes. A sample from a canister vacuum cleaner in the glass breaking area was
        at 330 mg/kg lead.           .


                                     Table 2
                   Maximum Concentration of Selected Contaminants
                          for the Toxicity Characteristic!

                       Contaminant             TCLP Regulatory Level
                           Arsenic                      5.0 mgIL
                           Barium                     100.0 mgIL
                          Cadmium                       1.0mgIL
                         Chromium                       5.0mgIL
                            Lead                        5.0 mgIL
                          Mercury                       0.2 mgIL
                    [40 CFR 261.24].


Mop water results were less than the Resource Conservation and Recovery Act RCRA
[EPA n.d.] criteria for hazardous waste; however, UNICOR should conduct periodic
TCLP analyses to verify that this non-hazardous waste status consistently prevails. The
bulk dust samples with up to 1.9% lead taken from elevated surfaces emphasizes the need
for additional surface sampling of elevated or other surfaces that are not subject to routine
cleaning, as well as the implementation of an O&M plan to control this contamination
and clean-up specific areas with higher contamination levels.

In 2006 UNICOR submitted a sample from filters for laboratory analysis by the TCLP
procedure. The sample was identified as "Outside #2 Filters". This sample was found to
be below hazardous waste levels for all metals tested. In 2009, UNICOR submitted two



                                             34 

furnace filter samples for analysis by the TCLP procedure. These samples were also
below the regulatory limit for hazardous waste, indicating that these filters do not need to
be disposed of as hazardous waste.

4.3    FOH Observations Regarding Potential Exposure Sources

During its investigations in May 2007 and January 2008, FOH investigators noted two
activities with observed potential for worker exposure to toxic metals, as well as potential
for environmental contamination. Although monitoring of these activities was not
performed, the following observations were made that indicate potential for exposure that
should be further evaluated and appropriately controlled by UNICOR.

The fIrst activity involved the transport of metal components removed from CRTs (i.e.,
metal masking and banding) to a roll-off container in the rear of the building. During this
activity, inmate workers move boxes containing these metal components from the glass
breaking area to an area at the rear of the factory. This activity is conducted by workers
using hand trucks.

A forklift operator picks up the boxes using a forklift truck and moves the box outside of
the factory to a raised position over a roll-off (i.e., approximately two to three feet above
the roll-off, see Image 3) The forklift is used to invert the box and shake the contents into
the roll-off. At times, one or two workers assist in this activity by picking up any debris
that falls to the ground and placing the debris into the roll-off. As observed by FOH and
noted in Figure 3, workers did not wear respiratory protection and did not wear protective
clothing for this activity during the FOH investigations. [Note: The USP Lewisburg
Production Controller stated that currently all factory workers wear protective coveralls
provided by a uniform supplier and that disposable dust masks are available to these
workers.]




             Image 3. Forklift emptying Gaylord boxes containing computer scrap metal
             (ribbing, etc.) into roll-off container behind Camp building.


                                             35 

In observing this activity, FOH investigators noted the release of visible dust and
phosphors. These emissions potentially expose the forklift operator, especially when the
wind is in the direction of the operator, as well as the assistants. As found by UNICOR
consultants and by NIOSHIDART and FOH, Gaylord boxes contain lead and cadmium
dust contamination which indicates that this activity can release contaminated dusts.
Also an FOH bulk sample from the interior of the roll-off was found to exceed the RCRA
extractable lead criteria for hazardous waste (see Section 4.7, Environmental Issues, for
further discussion of this fmding, and see Image 4).




               Image 4. Debris in scrap metal roll-off container (similar to debris constituting
               the sample exhibiting TCLP lead levels above RCRA hazardous waste limit).

UNICOR should further evaluate this activity for exposure to toxic metals and implement
improvements in work practices and any appropriate levels of personal protective
equipment and respiratory protection, if required. Environmental controls could also be
warranted as discussed in Section 4.7. Work practices should be modified to control the
release of dust to the air. See Section 6.0, Recommendations for further information.
[Note: In March 2008 UNICOR's consultant recommended that "uncontrolled" dumping
of Gaylord bins should be discontinued and that cleaning practices for Gaylord boxes be
implemented. ]

A second non-routine activity with potential for personal exposure to toxic metals is any
access made above the factory ceiling that was installed in the disassembly factory during
its refurbishment between mid-2006 and early 2007 (or other elevated surfaces). This
area was shown by FOH bulk and surface sampling to be contaminated with higher levels
of lead and cadmium dust, which could be related to the legacy glass breaking operations
formerly performed in the area (see Section 4.2 for a discussion FOH sampling results in
this area). Activities above the ceiling area could disturb this dust and result in worker
exposure if proper control measures are not taken. UNICOR should implement an O&M
plan to prevent this exposure (see Section 6.0, Recommendations, for further


                                               36 

information). [Note: See Section 4.4, below for a clean-up approach that could also
apply to this area, depending on the degree and extent of contamination, as wen as
worker training, capabilities, and qualifications. Also see Section 6.0,
Recommendations]

It is possible that workers who installed the current factory ceiling and conducted other
refurbishment, such as electrical or HV AC work, in the general factory area were
exposed to this deposited dust (and other contaminated surfaces) if they disturbed these
surfaces. The Production Controller stated that he and five inmate workers performed the
factory refurbishment and that some controls such as dust masks were available.
However, a thorough hazard analysis was not conducted prior to this work, exposure
monitoring was not conducted during the refurbishment process, and the same degree of
safety and health preparation and work performance measures as discussed in Section 4.4
were not applied. Therefore, the degree of potential exposure is uncertain, and the
effectiveness of control measures can not be assured.

4.4      Clean-up Activity for Elevated Surfaces     aa   2009

In February 2009, UNICOR conducted a non-routine activity to clean-up dust
contamination from elevated surfaces in the USP Lewisburg recycling warehouse. This
activity was conducted internally by inmate workers. Prior to and during this work
activity, UNICOR implemented measures to prepare workers to safely and effectively
conduct the work, control potential exposure to toxic metals, evaluate exposures, and
evaluate clean-up effectiveness. These measures included the following.

      • 	 A specific worker training program was developed for the activity and was
          presented to workers by an industrial hygiene professional (UNICOR consultant)
          over parts of two days immediately prior to the activity.

      • 	 Work practices, standardized work procedures, and worker protection measures
          were developed and implemented including such items as cleaning methods
          (HEP A vacuuming and wet methods), and use of PPE including respiratory
          protection. The training program addressed the measures to be implemented
          during the activity.

      • 	 Exposure monitoring was conducted by the UNICOR consultant during the
          activity to determine exposure levels and verify the appropriateness of work
          practices and hazard controls.

      .. 	 Toxic metal clearance sampling (post-activity surface wipe sampling) was also
           conducted after cleaning to verify and document the effectiveness of the cleaning
           activity.

These measures demonstrated effective preparation by UNICOR and USP Lewisburg and
a commitment to worker protection during the cleaning process.




                                              37 

Personal exposure monitoring conducted by the UNICOR consultant showed all
exposures to be below the LOD, which is well below the OSHA PELs and action levels
for all metals analyzed (i.e., arsenic, antimony, cadmium, and lead). Area sampling
results were also less than the toxic metal LODs. These results verified the effectiveness
of work practices and hazard control measures in keeping exposures low. Surface
clearance sampling showed that cleaning methods were effective in reducing surface
contamination to below the LOD and/or well below the surface contamination criteria
applied by the consultant, including the OSHA lead criteria of 200 l1g1ft2 for "clean"
areas.

FOH considers the process and measures taken during preparation for and
implementation of this clean-up activity to be a noteworthy practice. UNICOR should
standardize these types of processes and practices within O&M plans for all of its
recycling facilities. FOH also emphasizes that waste materials generated from these
clean-up processes should be tested using the TCLP procedure to ensure proper disposal
in accordance with U.S. EPA RCRA regulations.

4.5    Investigations for Noise Exposure

As part of its investigation, NIOSHIDART conducted noise dosimetry for various
recycling activities and operations conducted at USP Lewisburg. Dosimetry was
performed to determine personal noise exposures as well exposures in areas of potential
noise hazard where personnel work. Sixteen dosimetry measurements were taken.

NIOSHIDART found that none of the samples collected exceeded the OSHA PEL for
noise of 90 dBA, although several samples exceeded the OSHA action level for noise of
85 dBA. The highest 8-hour TWA noise measurements were in the range of 86 to 89
dBA for several area samples taken on top of the glass, funnel, and panel breaking booth.
These area samples were taken to estimate breaker exposures. Personal samples were not
taken for breakers because the dosimeters could interfere with work, but these area
samples were representative of personal exposure. The highest personal exposures for
general factory operations (other than glass breaking) were for balers conducting
activities in the outer building. These exposures were 84.1 and 85.3 dBA as 8-hour
TWAs. The higher exposures for disassembly workers were 81.7 and 82.5 dBA as 8­
hour TWAs.

Noise exposure at or above the OSHA action level of 85 dBA requires the
implementation of a hearing conservation program that involves worker training,
audiometric testing, hearing protection, monitoring, and other requirements. UNICOR at
USP Lewisburg makes hearing protection available, but has not formally implemented a
hearing conservation program, as would be required based on NIOSHIDART noise
dosimetry results for glass breaking and baling. Based on the recent production increase
in daily CRT breaking, it is possible that current noise levels are higher than those
measured by NIOSHIDART.




                                            38 

In 2006, at the request of the Production Controller, the USP Lewisburg Safety
Department performed noise dosimetry for an inmate performing plastic baling. The
noise exposure was low at 78.1 dBA as a TWA. This result was not consistent with
NIOSWDART findings. UNICOR has not conducted a thorough noise exposure study at
USP Lewisburg as required by OSHA.

The NIOSWDART data indicate the need for UNICOR to conduct a complete noise
survey and implement controls accordingly, including a hearing conservation program.
UNICOR should not presume that NIOSWDART captured the full range of noise
producing activities and should not rely on NIOSWDART data to satisfy its monitoring
requirements. See the NIOSWDART report (Attachment 1)

4.6    Other Occupational Hazards

NIOSWDART observed that certain tasks are conducted in a manner that appeared to be
physically awkward. NIOSWDART suggested that UNICOR evaluate tasks to determine
potential for repetitive stress and determine if modifications in procedures or equipment
would benefit worker protection.

NIOSWDART also suggested that heat exposure be periodically evaluated during hot
weather, fonowed by implementation of any hazard or work practice controls, as
appropriate. OSHA also expressed heat stress concerns based on its April 2007
inspection. UNICOR has developed a Heat Stress Program that calls for such
evaluations. With the installation of factory air conditioning at USP Lewisburg and the
use of "breathable" protective clothing, any heat stress hazard during glass breaking
could already be remediated; however, this determination should be evaluated and
documented. The UNICOR heat stress program will be further reviewed and discussed in
the fmal OIG report.

4.7    Environmental Issues

FOH conducted a limited review of available documents pertaining to environmental
issues associated with the e-waste operations at USP Lewisburg. FOH also tested for
legacy contamination on various building surfaces in proximity to current and former
CRT glass breaking operations and analyzed several samples of waste (e.g., mop water,
debris in roll-off container) using the Toxic Characteristic Leaching Procedure (TCLP).

No information was reviewed that indicated that USP Lewisburg's e-waste operations are
now or have ever been conducted under any special environmental permits associated
with air emissions or wastewater discharges. Some wastes associated with the e-waste
recycling operations (e.g., contaminated disposable coveralls used by glass breakers,
contaminated local exhaust air filters from the glass breaking room, etc.) are currently
managed under hazardous waste management regulations of the Resource Conservation
and Recovery Act (RCRA) and Rules adopted under the State of Pennsylvania
Department of Environmental Protection's (DEP) hazardous waste program. According
to the current UNICOR Production Controller, the DEP is aware of the e-waste recycling



                                           39 

activities that    place at USP                       and representatives are on-site on a regular
basis providing infonnational                          and            parties.

As shown Attachment 2                                 water samples were collected during the
mopping of floors both inside                                breaking room and analyzed via
TCLP methodology for        and '-'...... u.......... Results showed that these wastes would not
be considered hazardous                                               metals established by the
RCRA. [EPA n.d.]

TCLP analyses were also ......."i'n...........r\
uncovered, outdoor
to transport to a local scrap
concentration of 8.8 mgll which is above
Attachment 2).                                                                               of
metal bands and




materials in
applicable conditional ..v,"'......·nt,,"\nc
that the scrap metal wastes deposited in
(covered), that dusts and runoff from the ...vJ.ua" ...... '"
and that any other provisions of the
met. Also, UNICOR should conduct
and the results shared with


5.0       CONCLUSIONS

Conclusions concerning safety, health, and environmental aspects ofUNICOR's e-waste
recycling operations at USP Lewisburg are          below under the following
subsections:

      •   Heavy Metals Exposures;
      •   Noise and Other Hazard
      •   Safety and Health Programs, .t'racm:es,
      •   Health and Safety Regulatory '-"v,.... ..,Ju....
                                                         u .......... 



      •   Environmental Compliance.



the OIG. These conclusions, in       are
reports, and are also supplemented by FOH
assembled and reviewed.       Attachment 1
NIOSHIDART.


                                                      40 

5.1       Heavy Metals Exposures

      1. 	 Based on NIOSHlDART's and a UNICOR consultant's monitoring results in
         2005, 2006, 2007, and 2008, current routine e-waste recycling operations
         conducted in the USP Lewisburg recycling factory (not including glass breaking),
         have minimal inhalation exposure potential to lead, cadmium, and other toxic
         metals. Lead, cadmium, and other metals exposures were consistently low.

      2. 	 During glass breaking, exposure monitoring perfonned by NIOSHJDART and a
           UNICOR consultant in 2005, 2006, 2007, and 2008 showed that all lead,
           cadmium, and other metals exposures were well below the OSHA PELs and
           action levels when calculated as 8-hour TWA exposures.

      3. 	 An OSHA inspection conducted in April 2007 noted inappropriate practices on
           the general factory floor, including dry sweeping and use of pedestal fans that can
           increase airborne concentrations of dusts containing toxic metals. OSHA issued a
           violation of the lead standard to USP Lewisburg. Although OSHA found lead
           exposure to be less than the PEL and action level, the practices cited were
           prohibited by OSHA and could produce exposures that were higher than
           otherwise would prevail. OSHA also found that lead dusts were tracked from the
           glass breaking area into the general factory area. Abatement actions were
           suggested by OSHA. USP Lewisburg implemented corrective actions at the
           recycling factory and infonned OSHA of its corrective actions, which included
           prohibiting dry cleaning, removing fans, and placing tack mats at the entry/exit of
           the glass breaking room. These corrective actions were appropriate at USP
           Lewisburg, but apparently UNICOR did not share this violation and ensure
           corrective action for its other factories, because, for instance, dry sweeping
           continued at FCI Tucson into 2009.

      4. 	 During the non-routine filter change-out activity, exposure monitoring perfonned
           by NIOSHIDART in January 2008 showed that exposures were higher than other
           activities, but still below the OSHA PELs and action levels for lead, cadmium and
           other toxic metals as 8-hour TWAs. In addition, inmate workers are appropriately
           protected by the use of P APRs with a protection factor of 25 and appropriate PPE.

      5. 	 Current lead and cadmium surface contamination in the factory can be controlled
           through existing and/or improved housekeeping practices and implementation of
           an operations and maintenance (O&M) plan to control potential exposure from
           existing contamination and prevent excessive build up over time. An element of
           the O&M plan could include periodic clean-up of surfaces by inmate or other
           workers: however, this would have to be perfonned using proper hazard controls.
           Periodic surface sampling is also an important element to monitor contamination
           levels and direct O&M activities. See the following conclusion for details for a
           non-routine cleaning activity perfonned by USP Lewisburg in early 2009.




                                               41 

6. 	 USP Lewisburg conducted a non-routine cleaning activity perfonned by inmate
     workers for elevated surfaces in the recycling warehouse in early 2009.
     Appropriate work practices and hazard controls were developed and implemented,
     training was provided prior to the work activity, the work was conducted
     effectively and safely, surface level contamination was largely reduced or
     eliminated, and personal exposures were controlled at non-detectable levels of
     toxic metals. FOH considers this activity as prepared for and conducted to be a
     noteworthy practice that UNICOR should implement at all of its facilities within
     the overall context of an O&M plan.

7. 	 Based on FOH data, dust collected from elevated surfaces above the factory
     ceiling and at access panels had high total lead concentrations. Cadmium was
     also present. Workers who engaged in refurbishing the factory and installing the
     current ceiling and other building systems (e.g., electrical service) in this area
     could have been exposed to this contamination. In addition, other surfaces that
     were demolished or disturbed in the refurbishment could have had lead and
     cadmium surface contamination. According to the Production Controller,
     refurbishment was conducted between mid-2006 and early 2007 by five inmate
     workers and the Production Controller. Some hazard controls were available,
     such as dust masks, but a hazard analysis did not precede the work and
     monitoring was not conducted during the work. Therefore, the degree of potential
     exposure is uncertain and the effectiveness of hazard controls can not be assured.
     Future access above the factory ceiling should be made under an O&M plan using
     appropriate control measures based on a hazard analysis. In addition, future
     activities that demolish, refurbish, or significantly disturb contaminated surfaces
     at any UNICOR recycling factory should be preceded by a thorough hazard
     analysis and should then be planned and conducted with proper preparation,
     testing, and control measures (see Section 6.0, Recommendations).

8. 	 Surface contamination found on certain component parts of electronic equipment
     was elevated. This confinns that loose dust can potentially be dislodged from
     equipment during handling and disassembly, contributing to facility surface
     contamination and personal exposure.

9. 	 The glass breaking LEV system is effective in capturing toxic metals dusts and
     maintaining exposures below the OSHA PELs and action levels; however, system
     improvements are warranted. Since 2007, ventilation and LEV improvements
     have been recommended by OSHA, NIOSHIDART, FOH and the UNICOR
     consultant to introduce fresh air to the glass breaking room, achieve a negative
     pressure condition in the room relative to the general factory, improve the ceiling
     vents in the glass breaking room, and monitor LEV re-circulated air streams.
     UNICOR has not acted upon these recommendations.

10. UNICOR's annual monitoring program conducted by its consultants in 2005,
    2006,2007, and 2008 (and planned for June 2009) is of the frequency and quality
    to be considered a noteworthy practice that UNICOR should continue and should



                                         42 

         apply to all of its recycling facilities. Despite this noteworthy annual program.
         UNICOR is not always promptly performing monitoring when changes are made
         that could increase exposure (also see Conclusion 11, below).

      11. UNICOR increased glass breaking production at USP Lewisburg after the 2008
          consultant monitoring to between 450 and 600 CRTs per day of operation
          (production was less than 300 per day during the NIOSHIDART investigation in
          January 2008). UNICOR did not promptly conduct exposure monitoring for this
          change that could potentially increase lead and cadmium exposure, as required by
          the OSHA lead and cadmium standards. The planned June 2009 monitoring will
          serve to document exposures for this production increase. assuming that
          production rates are at the higher levels at the time of sampling; however,
          exposure monitoring for this change should have been conducted more promptly
          after the production increase as required by OSHA lead and cadmium standards.

      12. As observed by FOH, the activity that transfers metal masking and banding
          removed from CRTs to the roll-off containers has potential for worker exposure to
          toxic metals dusts. UNICOR should evaluate this activity for personal exposure
          and improvement in work practices and safety and health practices. UNICOR's
          consultant recommended that "uncontrolled" dumping of Gaylord boxes be
          discontinued and that cleaning of Gaylord boxes be conducted. This type of
          dumping occurred in the FOH activity observed.

      13. UNICOR at USP Lewisburg has implemented a number of important
          improvement actions to control exposure to toxic metals. Examples of
          improvement actions include factory refurbishments, improved glass breaking
          room with change room transition area, use of protective clothing supplier with
          laundering service, improved cleaning and housekeeping practices, safe and
          effective clean-up of elevated warehouse surfaces, and an on-going monitoring
          program. These improvements indicate a commitment to enhance worker
          protection measures and control exposure to toxic metals. However, some other
          recommendations have not been implemented such as the recommendations to
          improve the LEV and ventilation system for the glass breaking room, which were
          recommended by OSHA, NIOSHIDART, FOH, and UNICOR's consultant (see
          Conclusion 9).

5.2      Noise and Other Hazard Exposures

      14. NIOSHIDART found that workers performing glass breaking and some
          performing baling had noise exposures that were above the OSHA action level
          that requires implementation of a hearing conservation program including
          monitoring. audiometric testing, and hearing protection, among other control
          actions. Except for limited sampling by the USP Lewisburg Safety Department,
          UNICOR has not evaluated noise exposures at USP Lewisburg and has not
          implemented a hearing conservation program.




                                             43 

      15. NIOSHIDART found that certain activities such as lifting have the potential to be
          a repetitive stress hazard, and that heat exposure during hot weather periods could
          occur. These hazards should be evaluated by UNICOR.

5.3      Safety and Health Programs, :Plans, and Practices

      16. UNICOR and USP Lewisburg have implemented lead and cadmium controls and
          have various documents that defme controls. These documents and procedures
          can be improved by revising the documents to be consistent with current practices
          and by precisely specifying the PPE and respiratory protection that is used for
          glass breaking, factory and warehouse activities, and non-routine activities.
          Engineering controls, including their testing, maintenance, and verification
          procedures should also be specified.

      17. UNICOR and USP Lewisburg documents such as the ISO 9000 training and
          operational procedures and the Pre-Industrial Manual define various work
          practices and safety and health practices. See Section 6.0 for recommended
          improvements andlor supplements to these documents.

      18. UNICOR has not implemented a hearing conservation program at USP
          Lewisburg. NIOSHIDART found exposures above the OSHA level that triggers
          this requirement.

5.4      Health and Safety Regulatory Compliance

      19. UNICOR is effectively controlling inmate worker inhalation exposure to toxic
          metals at USP Lewisburg. All operations and activities monitored have inhalation
          exposures at levels that are below OSHA PELs and action levels. This includes
          disassembly operations on the factory floor, CRT glass breaking, non-routine
          filter change-out activity, and non-routine clean-up activities for elevated
          surfaces. Data are available in the years 2003, 2005, 2006, 2007, 2008, and 2009
          from UNICOR consultants and NIOSHIDART.

      20. Current USP Lewisburg e-waste recycling activities are in compliance with the
          OSHA lead and cadmium standards regarding control of employee inhalation
          exposure below the PELs.

      21. UNICOR, at USP Lewisburg, does not monitor exhaust/re-circulated air stream
          from the glass breaking room LEV and does not supply ventilation to the glass
          breaking room as stated in ANSI and AIHA standards and as recommended by
          OSHA, NIOSHIDART, and UNICOR's consultant.

      22. UNICOR has not conducted a noise evaluation at USP Lewisburg as
          recommended by the UNICOR consultant in 2007 and as required to ensure
          compliance with 29 CFR 1910.95, Noise. NIOSHIDART monitoring indicated




                                              44 

           the need for a hearing COflservatlon prClgnlm; .........,,,"'u."'... UNICOR                    not
           implemented such a program at uSP

      23. UNICOR has not evaluated eXDIOSllles                                 rep'etll1Ve stress at USP 

          Lewisburg. 


           UNICOR did not conduct eXllOS'ure ...'-'... ~,.J.
           breaking increased. UNICOR also         not                                         monitoring during
                                                                                       \.LJ'"."........
                                                            '"'V•.1.......' ' ' ' .., ••


           the factory refurbishment. These activities                                            increased, or new
           exposures that must be monitored                                                OSHA lead and cadmium
           standards.

      25. Also see Conclusion 3 regarding a past                      violation, which is now corrected.

5.5        Environmental Compliance

      26. TCLP results from mop water samples in the 	       Lewisburg recycling facilities
          showed that this material is not a hazardous waste          to u.s.      RCRA
          regulations.

      27. Waste scrap metal (metal bands and ribbing from 

          dusts and glass particles) is placed uncovered, omao()r 

          prior to transport to a local scrap metal 

          container was found to be hazardous waste and colltamea e:{tnJlctalOle 

          concentrations above 5 mgll RCRA              limit. 



6.0        RECOMMENDATIONS

Recommendations concerning safety,         and en'Vlf()nIlnerltal ast)ects                                       e-

waste           operations at USP Lewisburg are nr",,,,,, 

subdivisions: 


      II   Heavy Metals Exposures; 

      ..   Noise and Other Hazards Exposure; 

      II   Safety and Health Programs, Practices, and Plans; 

      ..   Health and Safety Regulatory Compliance; and 

      II   Environmental Compliance. 


      recommendations relate to the conclusions presented in Section 5.0, above.
recommendations are taken from supporting documents such as the NIOSHIDART report
(Attachment 1). See the NIOSHIDART report for additional recommendations, as
Other recommendations provided below are developed by FOH from the body
and documents reviewed to prepare this report. Various recommendations may
all UNICOR recycling factories where similar e-waste recycling activities are "''''',.1'",.........,.;



                                                    45 

As a global recommendation, BOP and UNICOR should ensure that it has and allocates
the appropriate level of staff, other personnel resources, and material resources to
effectively implement these recommendations and to sustain an effective ES&H program
over time.


6.1       Heavy Metals Exposures

      1. 	 As recommended by NIOSHfDART and UNICOR consultants, UNICOR should
           continue use of P APRs for glass breakers and for workers performing glass
           breaking room cleaning, and filter change-out (see Attachment 1).

      2. 	 UNICOR's annual monitoring in 2005,2006,2007, and 2008 is a noteworthy
           practice that should be continued. UNICOR should continue to periodically
           conduct at least a limited amount of personal exposure monitoring that
           characterizes exposures resulting from current work activities conducted during
           glass breaking, LEV filter change-out, general factory activities, and associated
           activities, such as cleaning, HEPA vacuum filter change-out, and disposal of
           contaminated debris. This monitoring will serve to document continued control
           of the lead and cadmium hazards. Continuation of the annual monitoring program
           conducted since 2005 would be appropriate, but should also include non-routine
           activities. This recommendation goes beyond the requirements of the OSHA lead
           and cadmium standards, but would provide important documentation to verify
           consistently low exposures.

      3. 	 UNICOR should promptly conduct monitoring of any new activities (e.g., non­
           routine or certain O&M activities) and future changes in work operations,
           production rates, work processes/practices, personal protection, and other
           practices. Exposure monitoring is an OSHA requirement when any change is
           made that could result in a new or additional lead or cadmium exposure. An
           example of a production change that should have been monitored more promptly
           is the increase in CRT breakage to between 450 - 600 CRTs per day of
           processing. Monitoring is scheduled for this increased production in June 2009,
           but should have been performed shortly after ramp up. The factory refurbishment
           conducted between rnid-2006 and early 2007 should have also been monitored.
           Conversely, the monitoring performed for the new non-routine activity involving
           clean-up of elevated warehouse surfaces in 2009 is an excellent example of the
           proper way that initial/additional monitoring should be conducted for a
           new/additional exposure.

      4. 	 As part of its monitoring program, UNICOR should periodically conduct
           exposure monitoring for the non-routine LEV filter change-out activity that is
           associated with glass breaking. NIOSHfDART found that this activity produced
           the highest lead and cadmium exposures for the duration of the activity, but these
           levels were still below the action levels and PELs as 8-hour TWAs. UNICOR
           consultants have not performed exposure monitoring for this activity at USP



                                              46 

     Lewisburg. Through periodic monitoring (perhaps part of the annual monitoring
     program), UNICOR should        continued effective control of toxic metals for
     this activity. This                     to all factories where this activity is
     performed.

5.                                             of the activity that involves transfer of
                                             boxes or other containers to roll-ofts.
                                      ePllSOIJeS of exposure monitoring to ensure
     results                                                         conditions. The
     hazard analysis should also     thorough evaluation of the work activity to
     determine improved work         to limit personal and environmental
                     UNICOR consultant 	                that "uncontrolled" dumping
                       be                                            measures should
                                                                          for


6.




7. 	 UNICOR should specifically conduct additional             testing of elevated
     surfaces above the factory                found that bulk dust samples in this area
     had high levels of toxic metals contamination.               on     degree and
     extent of surface contamination, UNICOR should                 appropriate methods
     to control the hazard: that is, through O&M                   access to the area is
     required, surface clean-up by inmate                  to that conducted for
     warehouse elevated surfaces, or remediation
     Recommendations 8 and 9, below).

8. 	 UNICOR should develop and implement an ""...."',.. "t.            amumance (O&M)
     plan to ensure that
     contamination is not          that could
     exposures. This plan should
     USP Lewisburg implemented for "'.""....." ..J".
     Elements of this plan could include:


        maintenance, periodic or nOll-flJur:me "'''.'''''',l''1''. 

        above the factory 

        found, and    U<>,,'11"\11




                                                 47 

    • 	 Processes to identify and control hazards for routine and non-routine activities
        (e.g., job hazard analysis process prior to conducting certain work with
        identification of mitigating actions, such as that implemented for the
        warehouse elevated surface cleaning);

    • 	 Mitigating techniques and procedures during activities of concern (e.g., dust
        suppression and/or clean-up and capture, filter removal and bagging
        processes, and use of PPE and respiratory protection);

    • 	 Training and hazard communication;

    • 	 Disposal of contaminated materials based on testing data such as TCLP tests;
        and

    • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
        appropriate. Exposure monitoring is particularly recommended for activities
        that can disturb surface dust above the factory drop ceiling. [Note: Follow-up
        surface sampling is important to ensure that surface contamination does not
        build up and to take preventive and corrective action, if it does.]

   At UNICOR's discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate or other workers; that is, surfaces that are not subject to
   routine clean-up and housekeeping activities. If this element were adopted,
   however, UNICOR should ensure that practices to control exposures are included
   in the plan and implemented, such as appropriate PPE, respiratory protection,
   exposure monitoring, clean-up methods (e.g., HEPA vacuuming and wet
   methods), waste disposal, hygiene practices, and others deemed appropriate by
   UNICOR. Initial exposure monitoring should be conducted to determine whether
   exposure during clean-up is above the action levels for lead and cadmium. TCLP
   testing should also be conducted on waste materials generated to ensure proper
   disposal. Controls for future clean-up activities should then be based on exposure
   results. Implementation of an O&M plan applies to all UNICOR recycling
   factories.

9. 	 The USP Lewisburg activity for cleaning elevated surfaces in the warehouse can
     serve as a model process for standardizing clean-up activities for elevated or other
     surfaces conducted under an O&M plan for all UNICOR facilities. Noteworthy
     approaches included advance preparation and training, development of task­
     specific safety and health and work practices including worker protection
     measures, safety and health oversight by an industrial hygiene professional,
     exposure monitoring, and clearance testing. Should UNICOR conduct future non­
     routine clean-up activities by inmate workers at USP Lewisburg and/or its other
     factories, as a prerequisite to authorizing the work, UNICOR should ensure that
     the level of worker training, capabilities, and qualifications are appropriate for the




                                          48 

                                    activity (e.g., degree and extent contamination, location of
                                       degree of difficulty, and Dre~seIlce of other safety hazards,
            ...VL......,. . UL. . . .MU,




      10. UNICOR should ensure that any 	                                            remodeling,
          demolition, or similar activity that could disturb contaminated surfaces is
          conducted in a manner that controls worker                    and environmental release.
          Preparation processes for the activity should                hazard analysis with surface
                        work planning, procedure development, worker training, and selection
                                           of hazard controls measures to prevent worker . . ."',Jv"" ......,,,,
          and environmental releases. Appropriate                  oversight, exposure monitoring,
                    waste testing, and other ES&H support should be provided during the
                                    February 2009 clean-up                   in the USP Lewisburg
             .....,... 0.£,,'' ' is an example of a smaller     that incorporated such preparation,
                                and control measures.              of         should be applied to
                                          could disturb                    and create potential
          worker or environmental exposures.

      11.      recommended by OSHA, NIOSHIDART,                  and UNICOR'g consultant,
                           should improve the glass       room LEV and ventilation "",,'."'.,..,
            lmr)ro'/errlen1ts should include providing           with both outside (fresh)
                  \..UJ,I1L\;;U air while maintaining a              in the glass breaking room,
            improving (redesigning/replacing) the           vents in the ceiling of the room to
            include proper HEPA filtration and air           and providing monitoring of
            exhaust/re-circulated air streams to ensure           capture of toxic metals. Any
              odltlcaUC)nS of the LEV and 	                   should be made in consultation
                  a qualified industrial ventilation         In addition, UNICOR should
            investigate the use of an alternative method, such as static pressure drop, to
                           the frequency of filter
            "",",I,,",HULl,''''                                     system.

                       should evaluate the .....,.. » ........ u 

                 component parts during U~'''''''UB 

            COlaW)l of incoming materials, HEPA                                     prone to 

                   disassembly, and other measures. 

            ... '.... UIE,




6.2                          and Other Hazards

      13. UNICOR should conduct a complete                            evaluation for its recycling operations
          at USP Lewisburg. A hearing                 ,",VAL»"'.       program should be implemented
                on test results. NIOSHIDART                           monitoring results found a
          conservation program is required for                       breakers and baler operators.

            UNICOR has prepared a draft                       dated 09/26/08, which will be
                     prior to the completion          investigation. UNICOR should
                          heat hazard         elemems of this program for USP
                  other facilities and implement            controls actions that are
            warranted based on heat exposure        UNICOR has implemented
         controls at USP Lewisburg, including installation of air conditioning in the
         recycling factory and has implementing use of "breathable" PPE to reduce heat
         exposure during glass breaking. However, through appropriate hazard analysis,
         UNICOR should confirm and document that these measures are adequate to
         control the heat hazard.

      15. UNICOR should evaluate operations and activities that could be biomechanically
          taxing such as lifting of loads and repetitive motion associated with disassembly.
          Appropriate controls should be implemented based upon the results of the
          evaluation.

6.3      Safety and Health Programs, Practices, and Plans

      16. UNICOR should implement a formal hearing conservation program based on a
          complete noise evaluation at USP Lewisburg.

      17. UNICOR should improve its documents representing lead and cadmium
          compliance plans by defining glass breaking engineering controls (e.g.,
          containment and LEV system) and revising documents to ensure both consistency
          and more specific details for PPE and respiratory protection. These documents
          include the Pre-Industrial Manual and applicable ISO 9000 procedures. (Also see
          Recommendations 18 and 19, below.)

      18. As a "good practice" approach, UNICOR should prepare a concise written safety
          and health document specifically for its recycling operations at USP Lewisburg as
          well as for each of its other recycling factories that lack such a document. Such a
          document should be developed and implemented and would serve to supplement
          and consolidate ISO 9000 documents that contain safety and health practices and
          other documents with safety and health content. The existing documents are
          vague in some ways and contain some conflicting information that is not
          consistent with actual practices (see Section 3.0 for details). A written safety and
          health document would ensure that practices are consistent with written
          requirements and would benefit verification processes. Additionally, the
          document should prescribe inspection, verification, assessment, and hazard
          analysis processes. This document should address both routine and non-routine
          activities.

      19. UNICOR should clarify to its factories the intended purpose of its ISO 9000
          processes and documentation as they relate to occupational safety and health and
          environmental compliance practices. For instance, it is not cleat whether the ISO
          9000 documents are intended to satisfy the requirements for written safety and
          health programs and plans. Different UNICOR factories have taken different
          approaches regarding the safety and health content of ISO 9000 documentation.




                                               50 

      20. UNICOR should evaluate 	         Pu/,..:h'llra work activities for hazards related to

          lifting and repetitive      and implement any appropriate procedures, training,
          or equipment to address the    _".~.    H   .....




                                                  ImlDlelmeJnt a                         to list, track, and document
          closure of any loe:ntlIl dletl(~lerlClt~S or recommendations, regardless of the
          source. Closure of ...."'."......'..............",      H;;....vUllu~;;.uulaLlvu~ with documentation of

          those           and                                                               with those not accepted or
          pending       why) is                              .......,,~ ....,..v ... If'nn''t"\uprnpnr actions. This
          recommendation applies to all                                                                  This topic will be
          discussed in further                 in the

                                                                                                       of
                                                                                                 "Tn......,'"

          violations and 	                                                                          are found at
          any individual 	                                    a~LJ.~V~   aeInOI1Stl:ate~ at one factory should
          also be        with 	                                                      and              a system to
                                                                                     which could possibly be


      23. BOP and UNICOR should ensure 	                                     resources,
          consulting resources, and material resources to             implement the
          management systems, such as corrective          tracking, information
          disbursement, and assessment             to ensure                  and work
          processes. The need for sufficient resources
          response to assessment, investigation,
          data to ensure prompt corrective

      24. BOP, UNICOR and 	           Lewisburg should ensure that                 and consultants
          conducting ES&H assessments, evaluations,        ...........,..v'..." and monitoring activities
          are qualified for their assigned tasks        by                     or highly qualified
          professionals. One benchmark for                                           industrial hygiene
          activities is to ensure certification in             of industrial                 (Crn) by
          the American Board of Industrial


6.4       Health and Safety Regulatory

      25. USP Lewisburg should conduct actllvltv-I:l!ase~a                                               OHA) for
          new, modified, or non-routine                                                                   conducted.
          The JHA process is intended to identify pOltenUal .u"~J"" ...."
          for the specific work activity prior to
          process should be integral to an em~cu

      26. Also see above rec:oITum:ndatuJns 

          program, glass 





                                                              51 

         monitoring of changes in pro1cesses that       create a new or increased lead or
         cadmium exposure.

6.5      Environmental Compliance

      27. In implementing clean-up methods and          O&M plan, UNICOR should
          periodically evaluate the wastes from
          potentially contaminated         to aet:ennrnle <>I~"", ...t<>
          U.S. EPA

      28. UNICOR should ensure that 	                                in the outside roU­
          offs are          that       and
          the environment,       that any                         conditional exemptions
          for e-wastes are being met. Also, UNICOR should perform additional testing to
          better characterize this waste and share       with the scrap metal vendor
          and the DEP. Modify work                              controls based on
          testing.

      29. UNICOR should develop a list 	 waste                 andlor wastes generated from
          specific activities that should be periodically andlor routinely TCLP tested to
          determine proper disposal methods per               RCRA regulations. This would
          include wastes generated from clean-up                             other O&M
          activities, as well as other wastes                               activities. This
          recommendation applies to all UNICOR




                                              52 

7.0    REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference of Governmental
Industrial Hygienists.

AIHA [2007]. AIHA-ANSI Z9. Health and safety standards for ventilation systems.
Z9 Accredited Standards Committee. Available at:
http://www.aiha.orglContentiInsideAIHAIStandardsIz9.htm

BOP [2007]. Program statement PI600.09. Occupational Safety, Environmental
Compliance, & Fire Protection. Bureau of Prisons, U.S. Department of Justice.

CFR [24 CFR 35]. HUD Lead safe housing rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

CFR. [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR, Part 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR 1910.95]. Occupational Safety and Health Standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR, Part 1960]. Basic program elements for federal employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [29 CFR, Part 1926.62]. Safety and health regulations for construction. Lead. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office of the
Federal Register.

CFR [40 CFR 261.24]. Protection of environment. Identification and listing of hazardous
waste. Toxicity characteristic. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.




                                          53 

DOE [1999a]. Chronic beryllium disease prevention program. 10 CFR Part 850 [Docket
No. EH-RM-98-BRYLM] RIN 1901-AA75. Office of Environment, Safety, and Health.

DOE [1999b]. Final Rule. Federal Register, Vol. 64, No. 235, Wednesday, December 8,
1999, Rules and Regulations, pp. 69954-68914.

e-CFR [40 CFR 745.65]. Lead-based paint poisoning prevention in certain residential
structures . Lead-based paint hazards. Electronic Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

Contaminants of Potential Concern (COPC) Committee of the World Trade Center
Indoor Air Task Force Working Group. [2003]. World Trade Center indoor environment
assessment: Selecting contaminants of potential concern and setting health-based
benchmarks.

EPA [n.d.]. Test methods for evaluating solid waste, physical/chemical methods. SW­
846. Washington, DC: U.S . Environmental Pr~tection Agency. Available at:
http://www.epa.gov/epawastelhazardltestmethods/index.htm

FOH [2008]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at FCI Elkton. U.S. Department of Health
and Human Services, FOH Safety and Health Investigation Team, Program Support
Center, U.S. Public Health Service, Federal Occupational Health Service. October 10,
2008

Lange, JH [2001] . A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-51.

NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati, OH:
U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.

NIOSH [2008a]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Elkton Federal Correctional Institution, Elkton, Ohio. Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH).Publication No. EPHB 326-12a.

NIOSH [2008b]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Marianna Federal Correctional Institution, Marianna, Florida.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) Publication No. EPHB 326-15a.




                                            54 

NIOSH [2009}. Control technology and exposure assessment for electronic recycling
operations, UNICOR, United States Penitentiary, Lewisburg. Lewisburg, Pennsylvania.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) File No. EPHB 326-17a.

OSHA [1970]. Occupational Health and Safety Act of 1970. Public Law 91-596. Sec.
5(a)(1). Washington, DC: U.S. Department of Labor, Occupational Health and Safety
Administration. Available at:
hup://www.osha.gov/pls/oshaweb/owadisp.show document?p table=OSHACT&p id=3
359




                                          55 

Attach:ment 1 

CONTROL   AND EXPOSURE ASSESSMENT FOR
                  OPERATIONS
                    LEWISBURG, PA




                       CSP 

SITES SURVEYED:             UN1COR Recycling Operations
                            Federal Correctional Institution
                            Lewisburg, PA

NAICS:                      562920

SURVEY DATE:                January 28 - 31, 2008

SURVEY CONDUCTED BY:        Dan Almaguer, MS
                            Ed Burroughs, Ph.D., CIH, CSP
                            Dave Marlow




                       2

                                         DISCLAIMER 


Mention of company names or products does not constitute endorsement by the Centers for
Disease Control and Prevention.

The findings and conclusions in this report do not necessarily reflect the views of the National
Institute for Occupational Safety and Health.




"The findings and conclusions in this report have not been formally disseminated by the
National Institute for Occupational Safety and Health and should not be construed to
represent any agency determination or policy. "




                                                 3

                                                                                            CONTENTS 


Executive Summary ...........................................................................                                                                                                 6

I. Introduction..................................................................................                                                                                             8

II. Process Description.................. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . .                                         10 

III. Sampling and Analytical Methods ....... .................... .................... ........                                                                                              12 

IV. Occupational Exposure Limits and Health Effects ........................... .........                                                                                                    14 

 A. Exposure Criteria for Occupational Exposure to Airborne Chemical Substances.                                                                                                             16 

  Barium ..........................................................................................                                                                                          17 

  Beryllium.............................................................................. .........                                                                                          17 

  Cadmium .......................................................................................                                                                                            17 

  Lead .............................................................................................                                                                                         18 

  Nickel. ........... ...... .................... .... ..... .... ................ ..... .... .......... ......                                                                              19 

  Airborne Particulate...........................................................................                                                                                            19 

 B. Surface Contamination Criteria. ......... .......... ....... ............................ ...                                                                                            19 

  Lead .............................................................................................                                                                                         20 

  Beryllium.......................................................................................                                                                                           21 

  Cadmium ... ........ .................. .......... ......... ..................... ...................                                                                                     21 

  Nickel.. ...... ... ...... ......... ... .... ............ ......... ......... ... .................. .......                                                                              21 

  Barium ..........................................................................................                                                                                          21 

C. Noise Exposure Criteria ...... ................ ............ ........... .......................                                                                                          21 

V. Results and Discussion.....................................................................                                                                                               22 

A. Air Sample Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . ..                         22 

B. Surface Wipe Sample Results.............................................................                                                                                                  23 

C. Sound Level Measurements. . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                                     24 

D. Local Exhaust System Measurements .... ..... .. .. ....... .................. .. .. .........                                                                                             24 

VI. Conclusions and Recommendations... ..... .... ...... ...... ........................ .. ....                                                                                             25 

 References. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...   28 





                                                                                                          4

                                       Tables, Appendices and Figures


Table 1 Summary Statistics for Airborne Metal Measurements ............ ".. "...........                   32 

Table 2 Personal Breathing Zone and Area Air Sample Results...........................                     33 

Table 3 Respirable Air Sample Results...................................................... ...            34 

Table 4 Wipe Sample Results... ...............................................................             35 

Table 5 Noise Exposure Measurements.............. .. ....... ............. .............. ... .            36 



Appendix A Occupational Exposure Criteria for Metal/Elements.........................                      38 

Appendix B Personal Breathing Zone and Area Air Sample Results .. "...................                     39 

Appendix C Metallic Respirable Air Sample Results.................... .. .. . . . . . . . . . . . . . ..   42 

Appendix D Wipe Sample Results. ............... ... ................. ........................             44 



Figure I Lewisburg UNICOR Factory Floor Plan, Warehouse 

   and associated areas .........................................................................          45 

Figure II Lewisburg UNICOR Factory Floor Plan, Disassembly 

   and glass breaking areas .....................................................................          46 

Figure III Lewisburg Glass Breaking Area .......... ...... ................... ........... .....           47 

Figure IV Lewisburg Glass Breaking Booth Work Stations ............ ................ ...                   48 





                                                           5

Researchers from the National                                                               (NIOSH) conducted a 

study of the recycling                                                                         facilities (aka, 

UNICOR) in Lewisburg, PA 

occupational hazards, including noise, ...,"v'"',.......'.... 


The electronics recycling operations at               can 

processes: a) receiving and sorting, b) disassembly, c)                 operations, and d) 

packaging and shipping. A         operation,            and maintenance, was also addressed but is 

not considered a production               se. It is known that      (Pb), cadmium (Cd), and other 

metals are used in the manufacturing                              and       a risk to workers 

involved in recycling of            components                    are not adequately controlled or 

the workers are not properly trained                                                  clothing and 

equipment 


Methods used to assess worker                                                   ...",au ..,.. included: personal 


breathing zone sampling for airborne metals                                and surface            sampling to assess 

surface contamination. Samples were                               31 metals with five selected elements (barium, 

beryllium, cadmium, lead and nickel)                                 Noise exposures were determined using 

sound pressure level monitors. 


The results of air sampling conducted during this visit indicated no overexposures of workers to 

metals above the most stringent                          limits. Exposures to airborne metals 

during the filter change-out                              task of primary concern in this 

evaluation) were       well below                    occupational exposure limits. 


Although beryllium is used consumer                    and computer components, such as disk drive 

arms (beryllium-aluminum), electrical contacts, switches, and connector plugs (copper-beryllium) 

and printed wiring boards [Willis              2002, Schmidt 2002], most beryllium "in consumer 

products is used in ways that are not likely to create beryllium exposures during use and 

maintenance" [Willis and Florig 2002].               account for the fact that beryllium in this study 

was not detected at levels                      limit of the analytical method. The removal and 

sorting of components seen                                     activity (components are removed 

from the cases and                                    replaced). Other e-recycling activities that 

include                          as                                       produce higher exposures 

to beryllium                        as a means to destroy memory devices) does not occur at this 

faciHty. 


Samples collected                                                  operations and glass breaking               were 

less than 10% of the                            both Cd and Pb. Unless specified, results 

presented are for the duration                ~"',UIJI'''' and not calculated on an 8 hour time 

average basis. 


Lead was           on                                   in excess of recommended levels, although in 2 

instances it was concluded                                   contamination on materials        into the 



                                                             6

 workplace. Cadmium and other heavy                                            the           wipe and bulk dust
 samples. There are few established ,,,..........,...                   for wipe samples with which to compare
 these data although the samples collected were                       recommended maximum levels which do
 exist. The wipe sample results Fo""""'u",,, 1                           to             the source of the
 contamination. They only estimate                                            ore:sellt at the time the sample was
 collected.

 Eight-hour time weighted 
                                                  this workplace identified several 

 instances where exposure was ...,..,,0,,'1"<.,. 
                            of 85 dBA, although none which 

 exceeded the PEL of 90 


Recommendations resulting from this study
 .. The implementation of a sm:-S[IeCllIlC                                 nrnOt"l7I,m    at                        includes a
     noise reduction ...,...,.,......''>.,...
 .. The respiratory protection ",,...nO',...<>',,,,,,                                evaluated to ensure that it
     complies with                     regulations.
 .. Attention should                          on      to "',.....',,"'"    • ................... ""n.VH   of lead and other
     metals.
 III Management should evaluate the feasibility                                      laundering work clothing for all
     workers in the recycling facility.
 .. Change rooms should be equipped with                                                     for            clothing and for
     street clothes to prevent cross-contamination.
 .. All UNICOR operations should be                                                                           safety and the
     environment in the near future.
 A comprehensive program is needed within                                              to assure both staff and inmates
a safe and healthy workplace.




                                                               7

                                             I. INTRODUCTION 


Researchers from the National Institute for Occupational Safety and Health (N10SH) conducted a
study of exposures to metals and other occupational hazards associated with the recycling of
electronic components at the Federal Prison Industries (aka, UNICOR) in Lewisburg, PA: The
principal objectives of this study were:

1. To measure full-shift, personal breathing zone exposures to metals including barium (Ba),
beryllium (Be), cadmium (Cd), lead (Pb) and nickel (Ni);
2. To evaluate contamination of surfaces in the work areas that could permit skin contact or allow
re-suspension of metals into the air;
3. To identify and describe the control technology and work practices in use in operations
associated with occupational exposures to metals, as well as to determine additional controls,
work practices, substitute materials, or technology that can further reduce occupational
exposures;
4. To evaluate the use of personal protective equipment (PPE) in operations involved in the
recycling of electronic components; and,
5. To determine the size distribution of airborne particles for purposes of toxicity and control.

Other objectives such as a preliminary evaluation of noise exposures and visual observations of
undocumented hazards, were secondary to those listed above but are discussed as appropriate in
this document.

An initial walk-through evaluation was conducted in May 2007 to observe operations at
Lewisburg in order to facilitate subsequent testing. In January 2008 an in-depth evaluation was
conducted during which two full shifts of environmental monitoring were conducted for the
duration of normal plant operations, and monitoring also was conducted during cleaning and
maintenance as described in Section II (Process Description) and Section III (Sampling and
Analytical Methods).

Computers and their components contain a number of hazardous substances. Among these are
"platinum in circuit boards, copper in transformers, Ni and cobalt in disk drives, barium and
cadmium coatings on computer glass, and lead solder on circuit boards and video screens"
[Chepesiuk 1999]. The Environmental Protection Agency (EPA) notes that "In addition to lead,
electronics can contain chromium, cadmium, mercury, beryllium, nickel, zinc, and brominated
flame retardants" [EPA 2008]. Schmidt [2002] linked these and other substances to their use and
location in the "typical" computer: lead used to join metals (solder) and for radiation protection, is
present in the cathode ray tube (CRT) and printed wiring board (PWB). Aluminum, used in
structural components and for its conductivity, is present in the housing, CRT, PWB, and
connectors. Gallium is used in semiconductors; it is present in the PWB. Ni is used in structural



• This report documents the study conducted at Lewisburg, Pennsylvania. Other NIOSH field studies were
conducted at Federal correctional facilities in Elkton, Ohio and Marianna, Florida




                                                          8
components and for its magneticity; it is found in steel housing, CRT and PWB. Vanadium
functions as a red-phosphor emitter; it is used in the CRT. Be, used for its thennal conductivity,
is found in the PWB and in connectors. Chromium, which has decorative and hardening
properties, may be a component of steel used in the housing. Cd, used in Ni-Cad batteries and as
a blue-green phosphor emitter, may be found in the housing, PWB and CRT. Cui and Forssberg
[2003] note that Cd is present in components like SMD chip resistors, semiconductors, and
infrared detectors. Mercury may be present in batteries and switches, thennostats, sensors and
relays [Schmidt 2002, Cui and Forssberg 2003], found in the housing and PWB. Arsenic, which
is used in doping agents in transistors, may be found in the PWB [Schmidt 2002].

Lee et al. [2004] divided the personal computer into three components, the main machine,
monitor, and keyboard. They further divided the CRT of a color monitor into the "(1) panel glass
(faceplate), (2) shadow mask (aperture), (3) electronic gun (mount), (4) funnel glass and (5)
deflection yoke. Lee et al. [2004] note that panel glass has a high Ba concentration (up to 13%)
for radiation protection and a low concentration of Pb oxide. The funnel glass has a higher
amount ofPb oxide (up to 20%) and a lower Ba concentration. They analyzed a 14-in Philips
color monitor by electron dispersive spectroscopy and reported that the panel contained silicon,
oxygen, potassium, Ba and aluminum in concentrations greater than 5% by weight, and titanium,
sodium, cerium, Pb, zinc, yttrium, and sulfur in amounts less than 5% by weight. Analysis of the
funnel glass revealed greater than 5% silicon, oxygen, iron and Pb by weight, and less than 5% by
weight potassium, sodium, Ba, cerium, and carbon. Finally, Lee et al. [2004] noted that the four
coating layers are applied to the inside of the panel glass, including a layer of three fluorescent
colors (red, blue and green phosphors) that contain various metals, and a layer of aluminum film
to enhance brightness.

Gennan investigators [BIA 2001, Berges 2008a] broke 72 cathode-ray tubes using three
techniques (pinching off the pump port, pitching the anode with a sharp item, and knocking off
the cathode) in three experiments perfonned on a test bench designed to measure emissions from
the process. Neither Pb nor Cd was detected in the total dust, with one exception, where Pb was
detected at a concentration of 0.05 mg/cathode ray tube during one experiment wherein the
researchers released the vacuum out of23 TVs by pinching off the pump port [BIA 2001, Berges
2008b]. They described this result as "sufficiently low that a violation of the Gennan
atmospheric limit value of 0.1 mg/m3 need not generally be anticipated" [BIA 200 I]. The
researchers noted that "the working conditions must be organized such that skin contact with and
oral intake of the dust are excluded" [BIA 2001].

However, there are few articles documenting occupational exposures among electronics recycling
workers. Sjodin et al. [2001] and Pettersson-Julander et al. [2004] have reported potential
exposures of electronics recycling workers to flame retardants while they dismantled electronic
products, although no retardants were used in this facility, Recycling operations in the Lewisburg
facility are limited to disassembly and sorting tasks, with the exception of breaking CRTs and
stripping insulation from copper wiring. Disassembly and sorting probably pose less of a potential
hazard from retardants as well as metals for workers than tasks that disrupt the integrity of the
components, such as shredding or de-soldering PWBs.




                                                 9

     process of greatest concern was          breaking operation (described below) that releases
visible emissions into the workroom atnlosphleI Material safety data                and
information on components ofCRTs                      operation listed several metals,       Pb,
        and      In addition, FOH              pvt".t"pqC;Pti a particular interest in




                                    n.               DESCRIPTION

           recycling of electronic                 at the United States Penitentiary (USP)
                   one extended building that is part
V . . . LYUJ."" is composed of three sections:      1) a           and warehousing area
                  and areas where laptop refurbishing is done; 2) a middle or center section most
the disassembly is performed; and 3) a third area where some disassembly is done which also
..v'.... " ...' " the glass breaking operation.            of these work areas are shown in   I and II
with an enlargement of the glass breaking operation in Figure III. These figures provide a I!'>............ .
                 description of the layout of the work          although workers often moved
the various areas in the performance

                  recycling operations can       or)~anized into four production
     sorting, b) disassembly, c)                                and d) packaging and
            cleaning and maintenance will              addressed but is not considered a production
             se.

InCOrnlml! materials to be recycled are received at the warehouse (Figure I) where they are
examined and sorted. During this evaluation it appeared that the bulk of the materials received
were computers, either desktop or notebooks, or related devices such as printers.
notably notebook computers, could be upgraded and resold, and these items were
that task.

      electronic memory devices
            computer central pro!ce~;Sn1lg
tipqtrn'lIPti

               monitors and other np~JI("I>C;:
sent for disassembly and removal of
            contain toner, ink, or other             were segregated and inks and toners were
          in the warehouse prior to being sent to the disassembly area.

In         disassembly process (see                     external cabinets, usually plastic, were
r"'1'lnr"l"'l"1 from all devices and segregated. Valuable materials such as copper wiring and

aluminum framing were removed and                 by        for further treatment
LOmC)On.enlts such as circuit boards or chips             have value or may contain ... t"~'l"1(""'"
                   or silver were removed and         With few exceptions each of the aDl)fO:Kmlatf~l,
                         main factory will                associated with the disassembly
eqlUptnellt into the mentioned                           use of powered and non-powered
(primarily screwdrivers and wrenches), with a           workers collecting the various parts and
placing them into the proper collection bin. Work             included removing screws
                from cabinets, unplugging or                    cables, removing 

          whatever other methods necessary to                         into their component 



                                                     10
 Essentially all of these component parts are sorted and separated, then repackaged and sold for
 some type of recycling.

 Personal protective equipment in these first two operations consisted of safety glasses and gloves
 where needed. Control of dust and surface contamination was accomplished primarily by good
 housekeeping procedures which included brushing dust from work tables and sweeping floors up
 to twice a day. Protective clothing and housekeeping were more stringent in the third operation
 and are described below.

 The third production process to be evaluated was the glass breaking operation where CRTs from
 computer monitors and TVs were sent for processing. This was an area of primary interest in this
 evaluation due to concern from staff, review of process operations and materials involved, and
 observations during an initial walk-through. This was the only process where local exhaust
 ventilation was utilized or where respiratory protection was in universal use. Workers in other
 locations would wear eye protection and occasionally would voluntarily wear a disposable
 respirator. Additional PPE in the glass breaking operation included TyvekTM coveralls, hand and
 arm protection for broken glass, and powered air-purifying respirators (PAPRs). Glass breaking
 was done in an enclosed booth (see Figure III), approximately 25 ft by 14 feet, located as shown
 in Figure II. The local exhaust ventilation system, contained in that booth, consisted of 2 reverse
 flow horizontal filter modules (model HFM24-ST/RDISP, Atmos-Tech Industries, Ocean, NJ),
 for funnel glass and for panel glass. These units were 16 gao galvanized steel with filter faces
 approximately 26 inches high and 51 inches wide. The units were 36 inches deep. Filtration was
 achieved with three 16 inch x 24 inch x 1 inch pleated pre-filters preceding a single 24" x 48" x
 6" high efficiency particulate air (HEPA) filter. Air was exhausted through the HEPA filter back
 into the glass breaking booth. Exhaust fans and air filters were placed on top of the glass
 breaking booth to produce air movement between the booth and the general work area.

Workers in the glass breaking operation wore PAPRs, (MB14-72 PAPR wI Super Top Hood,
Woodsboro, MD, Global Secure Safety), work boots, gloves and coveralls. Of the UNICOR
recycling facilities evaluated to date, Lewisburg has the most adequate arrangement for donning and
doffing personal protective clothing and equipment. A typical work area 'that requires the use of
protective clothing includes: a) an outer change area where workers can remove and store their street
clothing and don their work clothing and personal protective equipment before entering the work area;
b) upon completion of their work, workers exit the work area through a "decon" area (e.g., where they
vacuum the outer surface of their clothes); c) they then enter a separate, "dirty" locker area, where their
soiled work clothes are removed and placed in receptacles for cleaning or disposal. The workers then
pass through a shower area, and then enter the outer change area, where they change into their street
clothes again. In some cases (e.g., asbestos removal), respirators are worn into the shower and not
removed until the exterior surfaces are rinsed.

CRTs that had been removed from their cases were trucked to this process area in large boxes and
were fed into the glass-breaking booth through an opening on the side and placed on a metal grid
for breaking (see Figure IV). As the CRT moved from right to left in the booth the electron gun
was removed by tapping with a hammer to break it free from the tube, then a series of hammer
blows was used to break the funnel glass and allow it to fall through the metal grid into large
Gaylord boxes (cardboard boxes approximately 3 feet tall designed to fit on a standard pallet)
positioned below the grid. This was done at the first (right) station in Figure IV. The CRT was


                                                     11 

moved to the second (left) station where any internal metal framing or lattice was removed before
the panel glass was broken with a hammer and also allowed to fall into a Gaylord box. During
the two days of sampling 551 CRTs were broken (293 on day 1 and 258 on day 2). No count was
made by the survey team regarding the number of color vs monochrome monitors broken.

The final production process, packing and shipping, moved the various materials segregated
during the disassembly and glass breaking processes to the loading dock to be sent to contracted
purchasers of those individual materials. To facilitate shipment some bulky components such as
plastic cabinets or metal frames were placed in a hydraulic bailer to be compacted for easier
shipping. Other materials were boxed and removed for subsequent sale to a recycling operation.

In addition to monitoring routine daily activities in the four production processes described above,
environmental monitoring was conducted to evaluate exposures during the replacement of filters
in the local exhaust ventilation system used for the glass breaking operation. This is a
maintenance operation that occurs at approximately monthly intervals during which the two sets
of filters in this ventilation system are removed and replaced. This operation was of particular
interest because of concern expressed by management and workers, and also because of elevated
exposures documented in similar operations. Two workers in TyvekTM coveralls, gloves and
PAPRs remove both sets of filters, clean the system, and replace the filters. They are assisted by
two additional workers who wear TyvekTM coveralls and gloves while working outside the glass
breaking enclosure. The filter change is a maintenance operation that occurs at approximately
monthly intervals during which the ventilation system is shut down and all filters are removed
and replaced. Initially the exhaust system components, including the accessible surfaces of the
filters, are vacuumed with a HEPA vacuum. Then the filters are removed and bagged for
disposal, and the area inside the filter housing is vacuumed. New filters are inserted to replace
the old ones, the LEV system is reassembled, and any residual dust is removed with a HEP A
vacuum.

                      III. SAMPLING AND ANALYTICAL METHODS

Air sampling techniques
Methods used to assess worker exposures in this workplace evaluation included: personal
breathing zone and area sampling for airborne metals and particulate (total and respirable
fractions); and surface wipe sampling to assess surface contamination. Material safety data sheets
and background information on CRTs and other processes in this operation listed several metals,
including Pb, Cd, Be and Ni. Additionally, FOH personnel expressed specific interest in Ba.
Therefore emphasis is placed on those five analytes in this report.

Personal breathing zone and general area samples were collected and analyzed for total airborne
particulate and metals. Samples were collected for as much of the work shift as possible with
durations (ranging from 20% to 90% of an 8-hour work shift) indicated below in respective tables
of results. Samples were collected at a flow rate of 3 liters/minute (Llmin) using a calibrated
battery-powered sampling pump (Model 224, SKC Inc., Eighty Four, PA) connected via flexible
tubing to a 37-mm diameter filter (0.8 !lm pore-size mixed cellulose ester) in a 3-piece, clear
plastic cassette sealed with a cellulose shrink band. It is possible to determine both airborne
particulate as well as metals on the same sample by using a pre-weighed filter and then post­
weighing that filter to determine weight gain according to NIOSH Method 0500 [NIOSH 1994]


                                                 12 

before subsequent analysis for metals using inductively coupled plasma spectroscopy (ICP)
according to NIOSH Method 7303 [NIOSH 1994] with modifications. This combination of
analytical techniques produces a measure for dust and a measure of 31 elements, including the
five of particular interest mentioned above. Because Method 7303 is an elemental analysis, the
laboratory report describes the amount of the element present in each sample (Jlg/sarnple) as the
element, regardless of the compound in which the element was present in the sample.

Because there is evidence that the presence of an ultrafine component increases the toxicity for
chronic beryllium disease and possibly other toxic effects, information on the aerosol size
distribution was collected to assist in evaluation of the potential exposure [McCawley et a1. 200 1].
A subset of samples was collected using BOI cyclones (BOl Incorporated, Waltham, MA) at a
flow rate of 4.2 lpm and analysis according to NIOSH Methods 0600 and 7303 [NIOSH 1994] to
determine the particulate and metal concentrations, respectively, in the respirable size range.

Bulk sampling and analysis
Unlike the other evaluations conducted in UNICOR facilities, no bulk samples were collected by
NIOSH researchers at Lewisburg, but rather wipe samples were used to determine metallic
composition of settled dust.

Surface contamination technique
Surface wipe samples were collected using Ohost™ Wipes for metals (Environmental Express,
Mt. Pleasant, SC) and Palintest® Dust Wipes for Be (Oateshead, United Kingdom) to evaluate
surface contamination. These wipe samples were collected in accordance with ASTM Method D
6966-03 [ASTM 2002], with a disposable paper template with aIO-cm by lO-cm square opening.
The templates were held in place by hand or taped in place, to prevent movement during
sampling. Wipes were placed in sealable test tube containers for storage until analysis. Ohost
Wipes™ were sent to the laboratory to be analyzed for metals according to NIOSH Method 9102
[NIOSH 1994]. Palintest wipes were analyzed for Be using the Quantech Fluorometer (Model
FM 109515, Barnstead International, Dubuque, Iowa) for spectrofluorometric analysis by NIOSH
Method 9110 [NIOSH 1994].

Local Exhaust Ventilation Characterization Methods
Methods used to evaluate the local exhaust ventilation system included measuring air velocity at
the face of each of the reverse flow horizontal filter modules (HFMs) inside the glass-breaking
area, and observing air flows at the plastic curtains enclosing the glass-breaking operation. A
Velocicalc Plus Model 8388 thermal anemometer (TSI Incorporated, St. Paul, MN) was used to
measure air speeds at the face of each HFM. A Wizard Stick smoke device (Zero Toys, Inc.,
Concord, MA) was used to visualize air flow.

The face velocity tests were performed by dividing the face of the HFM into 12 rectangles of
equal area and measuring the velocity at the center of each square. Face velocities were taken at
each center point averaged over a period of 30 seconds, using a 5-second time averaging setting
on the instrument. The metal grid in front of the pre-filters was used to support the edge of the
probe, and the researcher stood to one side to avoid obstructing air flow. To measure the
velocities achieved by the control at each center point, the anemometer probe was held
perpendicular to the air flow direction at those points. The same measurements were repeated at



                                                 13 

the front edge of the plastic strip curtains enclosing the area immediately in front of each HFM to
determine the capture velocity at that point.

Smoke was released as the strips of plastic curtain enclosing the glass breaking booth were parted
to qualitatively evaluate the air flow patterns and determine areas of concern. By releasing smoke
at these points the path of the smoke, and thus any airborne material potentially released at that
point, could be qualitatively determined.

Sound pressure measurements
An initial assessment of noise levels during various tasks in all operations was made during the
initial walk-through study using a hand held sound level meter. This brief sound-level survey was
used to determine where to target noise dosimetry during the follow-up study. During the foHow­
up study time weighted average noise exposures were determined using personal dosimeters
(Quest Technologies model Q300, Oconomowoc, WI) capable of simultaneously logging sound
pressure levels under three sets of parameters. For this evaluation data are reported using both the
Occupational Safety and Health Administration (OSHA) and NlOSH parameters as follows:
                                 OSHA              NlOSH
         Criteria (dB)            90                 85
         Exchange rate              5                 3
         Threshold                80                  0
         Weight                    A                  A
         Time constant         Slow               Slow
All dosimeters and sound level meters were calibrated on-site prior to use with a 110 dB source
and data were downloaded to a laptop computer.

Observations regarding work practices and use of personal protective equipment were recorded.
Information was obtained from conversations with the workers and management to determine if
the sampling day was a typical workday to help place the sampling results in proper perspective.


        IV.     OCCUPATIONAL EXPOSURE LIMITS AND HEALTH EFFECTS

In evaluating the hazards posed by workplace exposures, NIOSH investigators use mandatory and
recommended occupational exposure limits (OELs) for specific chemical, physical, and biological
agents. Generally, OELs suggest levels of exposure to which most workers may be exposed up to
10 hours per day, 40 hours per week for a working lifetime without experiencing adverse health
effects I. It is, however, important to note that not all workers will be protected from adverse
health effects even though their exposures are maintained below these levels. A small percentage
may experience adverse health effects because of individual susceptibility, a pre-existing medical
condition, andlor hypersensitivity (allergy). In addition, some hazardous substances may act in
combination with other workplace exposures, the general environment, or with medications or


1 On March 20, 1991, the Supreme Court decided the case of International Union, United
Automobile, Aerospace & Agricultural Implement Workers of America, UAW v. Johnson
Controls, Inc., III S. Ct. 1196,55 EPD 40,605. It held that Title VII forbids sex-specific fetal
protection policies. Both men and women must be protected equally by the employer.

                                                 14
personal habits of the worker to produce health effects even if the occupational exposures are
controlled at the level set by the exposure limit. Combined effects are often not considered in the
OEL. Also, some substances can be absorbed by direct contact with the skin and mucous
membranes in addition to being inhaled, thus contributing to the overall exposure. Finally, OELs
may change over the years as new information on the toxic effects of an agent become available.

Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the
average exposure during a normal 8- to I O-hour workday 2 . Some chemical substances and
physical agents have recommended short-term exposure limits (STEL) or ceiling values where
there are health effects from higher exposures over the short-term. Unless otherwise noted, the
STEL is a I5-minute TW A exposure that should not be exceeded at any time during a workday,
and the ceiling limit is an exposure that should not be exceeded at any time, even instantaneously.

In the U.S., OELs have been established by Federal agencies, professional organizations, state
and local governments, and other entities. Some OELs are mandatory, legal limits; others are
recommendations. The U.S. Department of Labor Occupational Safety and Health Administration
(OSHA) Permissible Exposure Limits (PELs) [29 CFR 1910 (general industry); 29 CFR 1926
(construction industry); and 29 CFR 1915, 1917 and 1918 (maritime industry)] are legal limits
that are enforceable in workplaces covered under the Occupational Safety and Health Act and in
Federal workplaces under Executive Order 12196 [NARA 2008]. NIOSH Recommended
Exposure Limits (RELs) are recommendations that are made based on a critical review of the
scientific and technical information available on the prevalence of hazards, health effects data,
and the adequacy of methods to identify and control the hazards. Recommendations made through
1992 are available in a single compendium [NIOSH 1992]; more recent recommendations are
available on the NIOSH Web site (http://www.cdc.gov/niosh). NIOSH also recommends
preventive measures (e.g., engineering controls, safe work practices, personal protective
equipment, and environmental and medical monitoring) for reducing or eliminating the adverse
health effects of these hazards. The NIOSH Recommendations have been developed using a
weight of evidence approach and formal peer review process. Other OELs that are commonly
used and cited in the U.S. include the Threshold Limit Values (TLVs) ® recommended by the
American Conference of Govemmental Industrial Hygienists (ACGIH) ®, a professional
organization [ACGIH 2008]. ACGIH® TLVs® are considered voluntary guidelines for use by
industrial hygienists and others trained in this discipline "to assist in the control of health
hazards." Workplace Environmental Exposure Levels (WEELs) are recommended OELs
developed by the American Industrial Hygiene Association (AIHA), another professional
organization. WEELs have been established for some chemicals "when no other legal or
authoritative limits exist" [AIHA 2007].

Employers should understand that not all hazardous chemicals have specific OSHA PELs and for
many agents, the legal and recommended limits mentioned above may not reflect the most current


2OSHA PELs, unless otherwise noted, are TWA concentrations that must not be exceeded during
any 8-hour workshift of a 40-hour work-week [NIOSH 1997]. NIOSH RELs, unless otherwise
noted, are TWA concentrations for up to a 1O-hour workday during a 40-hour workweek [NIOSH
1997]. ACGIH~ TLVs®, unless otherwise noted, are TWA concentrations for a conventional 8­
hour workday and 40-hour workweek [ACGIH 2008]

                                                 15
ne':UUl-oase:a information. However, an employer is                    by          to protect their employees
                even the absence of a specific                     particular, OSHA requires an employer
to          employees a place of employment that is         from                hazards that are causing or
are likely to cause death or serious physical harm [Occupational             and Health Act of 1970, Public
Law 9           sec.5(a)(l)]. Thus, NIOSH investigators                             to make use of other
              making risk assessment and risk management                  to      protect the health of their
              NIOSH investigators also encourage the use            traditional hierarchy of controls
approach to eliminating or minimizing identified workplace                       includes, in preferential
       the use of: (1) substitution or elimination of the                     (2) engineering controls (e.g.,
                ventilation, process enclosure, dilution ventilation) (3) administrative controls (e.g.,
               of exposure, employee training, work practice                         surveillance), and (4)
          protective equipment (e.g., respiratory                            protection, hearing protection).

         OSHA PELs and ACGIH® TLVs® address the                                     of airborne
eXDCJsurlesto multiple substances [29 CFR 191O.l000(d)(I)(i), n.V'UJ..l.I. 2008]. ACGIH® [2008]
states:

  When two or more hazardous substances have a similar toxicological effect on the same 

                     or system, their combined effect, rather than that ofeither individually, should 

               primary consideration. In the absence ofinformation to 

  sul,stc.rnCj(!!S should be considered as additive where the health 

                     same. That     if the sum of 

                                        +
                                                        en
                                                  + ... -                          I

                                   11        T2         Tn 

                 the threshold limit ofthe mixture should 

             indicates the observed atmospheric concentration and 

  threshold limit ...). 


A. Exposure Criteria for Occupational Exposure to Airborne Chemical Substances

           for the five primary contaminants of interest, in micrograms      cubic meter (Ilg/m\
are              and additional information related to those exposure limits is presented below.


         Occupational Exposure Limits for Five Metals of Primary ll.n,.;. ,.;;n ~ J.l.Jl/m3)
             Ba                         Be                                 Cd        Pb           Ni

                        2 TWA

                        5 (30 minute ceiling)
 PEL   500 TWA                                                 5 TWA             50 TWA   1000 TWA
                        25 (peak exposure never to be
                        exceeded)


                                                               Lowest Feasible
 REL   500 TWA          05 TWA                                                   50 TWA   15TWA
                                                               Concentration




                                                               16 

                                                                                           1500 TWA (elemental)

                         2 TWA                           10 (total) TWA                    100 TWA (soluble
 TLV    500 TWA                                                                 50 TWA     inorganic compounds)
                         10 (STEL)                       2 (respil'llble) TWA
                                                                                           200 TWA (insoluble
                                                                                           inorganic compounds




This subset of five metals                     for consideration through the
                                       ;,o;;;;U;;vU;;U

because their presence was           on MSDSs or other information pel1alnm.g
processes at this facility              and Ni) or due to the interest expressed in
FOH personnel.

The occupational                   of aU 31 metals quantified in this work are listed in Appendix
A. Note that these limits      to      contaminant as the element (e.g., the             and
compounds, as Be; Cd and compounds, as Cd [ACGIH 2008]). Additionally,                    for dust is
presented here to place those air sampling results in perspective.

Occupational Exposure Criteria for Ba
The current OSHA PEL,                            ACGIH'~ TLY® is 0.5 mg/m3 as a TWA
Ba exposures (Ba and ..".".......",conapounCllS,        Ba sulfate, as Ba) [29 CFR 1910.1000,
2005, ACGIH 2008].                            WEEL for Ba [AIHA 2007]. Skin contact
many of its                                             to the eyes, nose,
cause dryness and                                skin burns after prolonged contact

Occupational Exposure Criteria for Be
The OSHA general industry standard sets a            of2 j.!g/m3 for an 8-hour TWA, a "'..        UCIlA;<.
                           3
concentration of5 j.!g/m , not to        30 minutes and a maximum peak concentration
      3
j.!g/m not to be exceeded for any period time [29 CFR 1910.1 000]. The NIOSH
        ,
is 0.5 j.!g/m3 for up to a 10-hour     day, during a 40-hour workweek [NIOSH 2005].
current TL y® is an 8-hr TWA       !!g/m3 , and a STEL of 10 j.!g/m3 [ACGIH 2008].
ACGIH® published a notice of                      for the Be TLy® to 0.05 j.!g/m3 TWA
      3
!!g/m STEL based upon studies                  both chronic beryllium disease and
sensitization [ACGIH 2008].          is no        WEEL for Be [AIHA 2007]. Be has been
designated a known human                by the International Agency for Research on ..... .:UU"o;;;;l
[IARC 1993].

Occupational Exposure Criteria {or
The OSHA PEL for Cd is 5 !!g/m as a                  [29 CFR 1910.1027]. Exposure at or above half
that value, the Action                           TW A,           several actions by
include providing r.,.",nir<.tn."", Drotlectlon reallestl~a [29 CFR 191O.1027(g)(1 )(v)], meCllcal
surveillance if currently              more                 per year [19 10. 1027(l)(l)(i)(A)] ,
surveillance if previously exposed               potential aggregated Cd exposure did not exceea
months [1910.1027(l)(l)(i)(b)].                examinations include a medical                    and


                                                         17 

biological monitoring                    blood (CdB), Cd in urine (CdU), and ..... "'..... "­
urine (~2-M) [29         1910.1027 Appendix A]. An employee whose
during both the initial          follow-up medical examination are elevated above
trigger levels must be 11....,.......,"11), 
removed from exposure to Cd at or                              (I)
CdU level: above 7                               or (2) CdB level: above 10                      blood, or (3) 

M level: above 750                              and (a) CdU exceeds 3 Ilg/g cre:atiIlline or (b)      exceeds 5 

Ilg/liter of whole blood                   2004]. 


The ACGIH® TL Y®        Cd and compounds as Cd is 10 llg/m3 as a TWA, 

the respirable fraction            and compounds, as Cd                                                           also 

published a Biological    .l.JAIJV""'....  recommends that 

below 5        and                     5 Ilg/g creatinine [ACGIH 2008]. 

WEEL for Cd [AIHA 


                                                  to Cd in any form should not
concentration                       as a 1O-hour TWA or a concentration                  200 J.lg/m3
for any IS-minute period, in      to           workers against kidney                    disease. In
1984, NIOSH issued a Current Intelligence Bulletin, which recommended that Cd and its
compounds be regarded as potential occupational carcinogens based upon evidence
among a cohort                      in a smelter [NIOSH 1984]. NIOSH reCOmmeltlOS
exposures be reduced to the lowest feasible concentration [NIOSH 2005]. This
developed using a previous          policy for carcinogens (29 CFR 1990.103).
NIOSH policy                  was adopted in September 1995. Under the ......""u'n''''''
NIOSH usually                                    to carcinogens be limited to
                                                 value. Under the                most
                                            of detection (LOD) achievable when
                                          tandlpOlllt. NIOSH testllmolllY
                                        exposure to Cd noted that, "NIOSH                        that
                                             ""..",,,nt',,,, controls in new                  can
                                               Also, most existing facilities or           can be
                                                          3
                                                J.lg/m through engineering and work practice


Early symptoms                                 mild irritation of the upper
sensation of constriction      throat, a metallic taste andlor cough. Short-term "''''~JV''''''''
of Cd inhalation include               pain, sweating, chills, shortness of breath, and
Short-term exposure                       may include nausea, vomiting, diarrhea,            abdominal
cramps [NIOSH 1989].                exposure effects of Cd may include loss of the sense smell,
ulceration of the nose, emphysema, kidney damage, mild anemia, an increased                        of
the lung, and possibly of the         [NIOSH 1989, Thun et aI. 1991, Goyer 1991].

OccupauonalExposure                         Ph
The OSHA PEL for Pb is 50           (8-hour TWA), which is intended to              IHUl..1<11111 >11"""",,,,..


Pb level (BLL) below 40 Ilg/deciliter
BLL reaches 50           [29   1
mg/m3 ; air COilcentr,atu)ns


                                                        18
mg Pb/lOO g of whole blood [NIOSH 2005]. At BLLs below 40 llg/dL,
effects would not necessarily             by routine physical examinations but reo,resent
stages in the development              In recognition of this, voluntary staln<laros
goals have established                  limits to protect workers and their "'.u...... "'...
TLY® for Pb in air is 50         as an 8-hour TWA, with worker                         to be --_....._."
llg/dL. A national health goal is to           all occupational . . . n.",..,.,,'"'u'"''''
llg/dL [DHHS 2000].           is no                 for Pb [AIHA 2007].


Occupational exposure to Pb occurs via inhalation of Pb-containing dust and            and ingestion
from contact with Pb-contaminated                Symptoms of Pb poisoning include
excessive tiredness, irritability, constipation, anorexia, abdominal discomfort (colic),
and "wrist drop" [Saryan and          1      Landrigan et a1. 1985, Proctor et a1. 199
Overexposure to Pb may                             to the kidneys, anemia, high blood
impotence, and infertility and            sex drive in both genders. In most cases, an individual's
BLL is a good indication of recent              to      current absorption of Pb          1978].

Occupational Exposure Criteria for Ni
   NIOSH REL for Ni 
                                  (as Ni) is 15 ll~m3
                                                2005]. The ACGIH 
 TLV®
                                       ~uU'LA'"'Vl''' fraction). For
                                              fraction). The TLY® for ...........".....,......
                                            \Ull.......'V ......

                                                OSHA          for     is 1,000
1910.1000]. Metallic               cause              contact dermatitis [Proctor et a1. 1
NIOSH considers Ni a potential occupational carcinogen [NIOSH 2005]. There is no
       for Ni [AIHA 2007].

Occupational Exposure Criteria for Airborne Particulate
The maximum allowable             to           particulate not otherwise regulated is "''''':LUll'''''
                      3
by OSHA at 15 mg/m for total and 5                the respirable portion [29 CFR 1910.1000]. A
more stringent recommendation 10             inhalable and 3 mg/m 3 respirable is                   by the
ACGIH:K) which feels that "even biologically inert insoluble or poorly soluble particulate may
have adverse health effects"         2008]. There is no AIHA WEEL
[AIHA 2007].

B. Surface Contamination Criteria
Occupational exposure criteria have
.u....'....... Surface wipe samples can .....".~f1rI""                         in two
"'''''',lv''' dust on a surface can cOIltru:mnlate                               ingested when "<>lnct''''....'>li
           to          and second, if the <!IU'Y<>(""" CC)ntJilmllnallt can be absorbed through the skin
skin is frequent contact with                                               While the OSHA lead standard
mandates that surfaces be maintained as                   of        as practicable, there is currently no
contamination criteria included in                     standards [OSHA 2008].3 The health hazard from


3OSHA has referenced a Department of              and Urban Development (HUD) lead criteria
documents related to its enforcement of the lead standard [Fairfax 2003].

                                                                   19
regulated substances results principally from their inhalation and to a smaner extent from their
ingestion; those substances are by and large "negligibly" absorbed through the skin [Caplan
1993]. NIOSH RELs do not address surface contamination either, nor do ACOIH TL Vs or AIHA
WEELs. Caplan [1993] stated that "There is no general quantitative relationship between surface
contamination and air concentrations ..." He also noted that, "Wipe samples can serve a purpose in
determining if surfaces are as 'clean as practicable'. Ordinary cleanliness would represent totany
insignificant inhalation dose; criteria should be based on surface contamination remaining after
ordinarily thorough cleaning appropriate for the contaminant and the surface." With those
caveats in mind, the following paragraphs present guidelines that help to place the results of the
surface sampling conducted at this facility in perspective.

Surface Contamination Criteria for Five Metals of Primary Interest

Surface Contamination Criteria for Pb
Federal standards have not been adopted that identify an exposure limit for Pb contamination of
surfaces in the industrial workplace. However, in a letter dated January 13,2003 [Fairfax 2003],
OSHA's Directorate of Compliance Programs indicated that the requirements of OSHA's
standard for Pb in the construction workplace [29 CFR 1926.62(h)( 1), 1926.62(i)(2)(i) and
1926(i)(4)(ii)] interpreted the level ofPb-contaminated dust allowable on workplace surfaces as
follows: a) AU surfaces shall be maintained as •free as practicable' of accumulations of Pb, b)
The employer shall provide clean change areas for employees whose airborne exposure to Pb is
above the permissible exposure limit, c) The employer shall assure that lunchroom facilities or
eating areas are as free as practicable from Pb contamination, d) The OSHA Compliance
Directive for the Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of
                                                       2                2
HUD's acceptable decontamination level of200 Jlglft (21.5 JlgllOO cm ) for floors in evaluating
the cleanliness of change areas, storage facilities, and lunchrooms/eating areas, e) In situations
where employees are in direct contact with Pb-contaminated surfaces, such as, working surfaces
or floors in change rooms, storage facilities, lunchroom and eating facilities, OSHA has stated
                                                                               2
that the Agency would not expect surfaces to be any cleaner than the 200 Jlglft level, and f) For
other surfaces, OSHA has indicated that no specific level can be set to define how "clean is clean"
nor what level of Pb contamination meets the definition of "practicable." OSHA notes that "the
term 'practicable' was used in the standard, as each workplace will have to address different
challenges to ensure that Pb-surface contamination is kept to a minimum. It is OSHA's view that
a housekeeping program which is as rigorous as 'practicable' is necessary in many jobs to keep
airborne Pb levels below permissible exposure conditions at a particular site" [Fairfax 2003].
Specifically addressing contaminated surfaces on rafters, OSHA has indicated that they must be
cleaned (or alternative methods used such as sealing the Pb in place), as necessary to mitigate Pb
exposures. OSHA has indicated that the intent of this provision is to ensure that employers
regularly clean and conduct housekeeping activities to prevent avoidable Pb exposure, such as
would potentially be caused by re-entrained Pb dust. Overall, the intent of the "as-free-as­
practicable" requirement is to ensure that accumulation of Pb dust does not become a source of
employee Pb exposures. OSHA has stated that any method that achieves this end is acceptable.

In the United States, standards for final clearance following Pb abatement were established for
public housing and facilities related to children. However, no criteria have been recommended for
other types of buildings, such as commercial facilities. One author has suggested criteria based


                                                20 

upon Pb-Ioading values. Lange [2001]                    a                        1000 llg/ft2 for floors of non­
Pb free buildings and 1100 Ilg/W for Pb-free buildings,                                                  BLL
should occur for adults associated or            within a ('(wnrnpr(,l~
       proposed clearance levels are          on ....« ..........."JU"            ......eu"".... of intentionally

conservative assumptions such as: a) Pb uptake                                             absorption of Pb in
the gastrointestinal system, b) Fingers have a total "touch" area                        and 100% of the entire
           Pb content on aU l O i s
  "'''' ....>A .....' .....                         up,                                   environmental Pb
dose (from 'uncontaminated food/water/air) is 20                     day, d)                of the exposed
person is     kg, and e) Daily Pb excretion is limited to an                          Ilg. Lange [2001] notes
that      of the proposed values would provide a .,.uu....,....           non-child-related premises (e.g.
commercial, industrial, office) ... " but cautions that,                 investigation is warranted to
          exposure and subsequent dose to adults                              "
Surface Contamination Criteria for Be
          guideline is provided by the U.S. Department of                      and its contractors
are required to conduct routine surface sampling to             housekeeping conditions wherever
Be is present in operational areas of DOEINNSA facilities. Those facilities must maintain
removable surface contamination levels that do not exceed 3 1lg/100 cm 2 during non-operational
periods. The DOE also has release criteria that must be met          Be-contaminated equipment or
other items can be released to the general public or released for use in a      area of a DOE
facility.       criteria state that the removable contamination          equipment or      surfaces
does not exceed the higher ofO.21lg/100 cm2 or the level of Be                   area of release.
Removable contamination is defined as "beryllium contamination                          from
surfaces by nondestructive means, such as                                                "

.... UI·,al'p. Contamination Criteria for Cd

Like Pb and Be, Cd poses serious health risks from exposure. Cd is a known carcinogen, is very
          to the kidneys, and can also cause depression.
ACGIH® have not recommended criteria for use in evaluating
standard [29 CFR 1910.1027] mandates that "All
practicable of accumulations of cadmium," that, "aU spills
cOJltainiIllg C,lGnUUlTI shall be cleaned up as soon as v".'.;7"""',
                    shall, wherever possible, be         by
                      caclmlum becoming airborne."

Surface Contamination Criteria for Ni
        OSHA, AIHA and ACGIH® have not established occupational                                 limits for Ni on


Surface Contamination Criteria for Ba
NIOSH, OSHA, AIHA and ACGIHII have not established occupational "'''''~JV''''''' limits for                  on


      Noise Exposure Criteria
The OSHA standard for occupational exposure to noise [29 CFR 1910.95] .,.....'vU,H...,
     of90 dB(A) for a duration of8 hours per day. The regulation, in calculating
5 dB time/intensity trading relationship, or exchange rate. This means that a ....        0 .." "...




                                                       21
exposed to noise levels of 95 dB(A) for no more than 4 hours, to 100 dB(A) for 2 hours, etc.
Conversely, up to 16 hours exposure to 85 dB(A) is allowed by this exchange rate. NIOSH, in its
Criteria for a Recommended Standard, proposed an REL of 85 dB(A) for 8 hours, 5 dB less than
the OSHA standard [NIOSH 1972]. The NIOSH 1972 criteria document also used a 5 dB
time/intensity trading relationship in calculating exposure limits. However, the 1998 revised
criteria recommends a 3 dB exchange rate, noting that it is more firmly supported by scientific
evidence [NIOSH 1998]. The ACGIH® also changed its TL Y® in 1994 to a more protective 85
dB(A) for an 8-hour exposure, with the stipulation that a 3 dB exchange rate be used to calculate
time-varying noise exposures. Thus, a worker can be exposed to 85 dB(A) for 8 hours, but to no
more than 88 dB(A) for 4 hours or 91 dB(A) for 2 hours.

In 1983, a hearing conservation amendment to the OSHA noise standard took effect [29 CFR
1910.95(c)] that requires employers to "administer a continuing, effective hearing conservation
program" whenever employee noise exposures equal or exceed an 8-hour TWA of 85 dBA or,
equivalently, a dose of fifty percent. The requirements include noise monitoring, audiometric
testing. providing hearing protectors, training workers, and recordkeeping.


                              V.      RESULTS AND DISCUSSION

The work described here was conducted in January, 2008 at the USP Lewisburg, UNICOR
recycling factory electronic components recycling operations. During this testing air, surface
wipe, and noise data were collected in locations where the electronics recycling operations were
taking place and measurements were made relating to air flow of the local exhaust ventilation
system. The primary purposes of this evaluation were to estimate the potential exposures of
inmates and staff to toxic substances and noise encountered during the recycling of electronic
components and to recommend remedial measures to reduce exposures if necessary.

A statistical summary of air sampling results is presented in Table 1. Results of personal
breathing zone and area air sampling are shown in Table 2 for total particulate and Table 3 for
particulate <10 !-tm diameter. Surface wipe sample results are contained in Table 4; noise
measurements are shown in Table 5. As mentioned in Section III above, all samples were
analyzed for 31 metals due to the parameters of the analytical method. While the data in these
tables represent the results ofjust the five metals of primary interest in this evaluation, results of
all analyses are contained in the appendices. All data indicate levels well below the OELs, even
when results for combined exposures as calculated by Equation 1 are considered, although the
detection limit for arsenic was not low enough for comparison to the most stringent OEL.
Because arsenic was not found in any wipe or bulk samples either, it was not considered a
potential hazard at this facility.

A. Air Sample Results
Air measurements were collected during both normal and non-routine operations in the areas
identified, including the glass breaking operation. Data presented here and in Table 2 and 3 are
for the duration of the samples rather than for an 8-hour time weighted average since the
concentrations of contaminants are so low. Most personal breathing-zone measurements,
however, were for five hours duration or greater. Measurements made during the filter change
operation are presented at the bottom of Table 2 and discussed separately below since this was not


                                                  22 

                                    operation. The full data set of all 31 metals is             Appendix B.
                                    dust measurements of particle size <1OJ.lm Ola,me:ter                Table 3,
with                            set of all 31 metals in Appendix C.

                          low levels of airborne particulate and metals.
              1U... l ". . ."                                                                  were taken
                  production during the January, 2008 study. These data can          identified by date in
                3, but the magnitudes of the exposures were not                          by date.
Measurements during routine operations revealed that Ba concentrations                   between <0.05
and 2          and were unremarkable. Be levels also were all below            limit of detection, which
                         volume, most being <0.006 ~g/m3. Cd, Pb and Ni,
               ..,.. .A .......' ....                                                    were found at
           ""'11<>":'1<> up to 0.1, 4, and 0.8 ~g/m3, respectively. Pb was the        found highest
quantity, with 13 21 samples above the limit of detection and                      concentration was
approximately 10% of the occupational exposure limits. Airborne total                      concentrations
ranged to 650              (0.1 to 0.7 mg/m\ No distinction could be                              from
                                the UNICOR factory or between                                   to the
high                                              Sample                                             to 7


The                                    the glass breaking area, discussed in the Vt'r.l""","" .....".""".. ~, .. v' ..
(Section     was                of most concern regarding exposures of workers to
observations       not indicate high levels of airborne dust, and measurements
particulate                 these observations. No airborne levels                       were found in excess
of the most              occupational exposure criteria. Ba ranged from <0.07 to 2 ~g/m3. No Be
was detected (LOD of 0.03 ~g/m3). Cd ranged from <0.06 to 3 ~g/m3 with no
                                   Pb was the metal in highest concentration
               .:>"'-U.U"•• " ".Ju..."."'.... during the filter change were approximately 1.5




Airborne total particulate measurements ranged generally between 300 and
sample collected during the filter change operation of 1,1 00 ~g/m3.                         ranged
from 30 to 290        . While no statistical comparison was made because of the dissimilarity of
the sample conditions, a day-by-day comparison of total and respirable particulate and Pb (from
Tables 2 and 3               would suggest that a large portion of the airborne particulate and
metals was in

It should                                 that no shredding or melting of components was           at
            prOiceSises would                         to produce a greater p01tentlal


B. Surface Wipe
The surface wipe                  conected during the visit in the electronic recycling operations at
the USP Lewisburg are                 below and in Table 4 for the metals of interest, and the
surface wipe         data set is contained in Appendix D. Results of spectrofluorometric
for Be' only confirmed      measurements and are not repeated in the tables.

Wipe                      UNICOR electronic recycling factory did not indicate levels of    on
work surfaces at                 as discussed in Section IV above in the surface contamination
subsection. The highest Ba concentration detected was 250 ~g/sq ft. No Be was detected in


                                                               23 

samples from the recycling factory; the limit of detection was 0.1 ).!glsq ft. Surfaces tested for Pb
indicated levels exceeding the OSHA recommended 200 ).!glsq ft. in 3 of 11 instances, although 2
of those samples (LMWW-05 & 06) were from CPU fan blades which were presumably
contaminated prior to arrival. While an argument could be made as to the applicability of this
criterion to these samples, nevertheless it is felt that 200 ).!glsq ft is a useful target value for
judging the effectiveness of a cleanup operation. While there are no criteria for evaluating Cd
surface contamination, the highest Cd measurement was less than 10% of the recommended Pb
level (200 ).!g/sq ft) which arguably could be used as a target for measuring clean-up
effectiveness. Ni surface contamination was less than 70 ).!glsq ft in all samples.

C. Sound Level Measurements
The data collected with noise dosimeters is presented in Table 5 for the 16 sets of data collected.
Four area samples were collected in the glass breaking operation and 12 samples were collected
in other locations in the factory. For each day of sampling, each sample is described, and the start
and stop times are presented along with the sample duration (run time). Following that, the mean
sound pressure level for the duration of the run (TEST AVERAGE DB) and the time weighted
average sound pressure level for an eight hour day (TWA DB) is shown. Sound pressure levels
are in dB, A weighted, slow response and presented for both the OSHA and NlOSH criteria.
Time weighted calculations assume no exposure during the un-sampled time which for 15 of 16
samples was from 1 to 2 hours. Several of the noise samples exceeded the REL and TLV of85
dBA and are highlighted in bold print in Table 5.

While the REL and TL V are more conservative criteria for protecting workers from over
exposure to noise, the OSHA noise standard [29 CFR 1910.95] is legally enforceable. This
standard instructs the employer to calculate the allowable noise dose from more than one sample
as follows:

     When the daily noise exposure is composed oftwo or more periods ofnoise exposure
     ofdifferent levels, their combined effect should be considered, rather than the
     individual effect ofeach. If the sum ofthefollowingfractions: C(l)/T(J) + C(2)/T(2)
     C(n)/T(n) exceeds unity, then, the mixed exposure should be considered to exceed
     the limit value. Cn indicates the total time ofexposure at a specified noise level, and
     Tn indicates the total time ofexposure permitted at that level.

This means that, using the OSHA exchange values, none of the samples collected on these two
days exceeded the allowable dose to document an overexposure to the PEL of 90 dBA, although
measurements above 85 dBA (OSHA criteria) are considered to be an action level which triggers
the requirement for a hearing conservation program.

The maximum 8-hour TWA noise measurement during the Lewisburg evaluation was 88 dBA
(sample LST-03) on top of the glass breaking booth. The highest personal exposures were the
bailers (samples LSW-Ol and -05) which were 85 and 84 dBA 8-hour TWA.

D. Local Exhaust System Measurements
The HFMs were designed and manufactured by Atmos-Tech Industries (model HFM24­
ST/RFISP, Ocean City, NJ). Each unit is equipped with a bank of 35% efficient pleated pre­


                                                 24 

                 a                 a direct-drive 1200 cfm fan with a Y2 nnl~<;:PI'ln'Uupr
                 a minihelic pressure gauge and variable
          in the front of the unit, passes through the HEPA filter, and is
                        at     back of the unit. A frame attached to
                                   on the front and sides. The top is "H'_IV.''''....
            UVIJ.",.", plastic. The pre-filters are held          by a
npl·.nl"'1'Y1~·n on top       an angle-iron grate inside the area enclosed by the
                                 by a building wall on 3 sides and a 

                  ,",11•• 1V",",....


                           IV shows the right HFM, number 1. 


              face velocity measured at HFM-l (the one on the                   them from the
        was 160 feet/minute (fpm), range 150 to 170 fpm; the average   velocity at the side was
                 130 to 150 fpm. The average face velocity measured at         was 140 fpm,
                   fpm; the average air velocity at the side was 120         110 to 130 fpm.




            air circulation between the glass breaking booth and the             workplace, two
                              the ceiling of the glass breaking booth (which is                  5 feet
                                  workplace) to move air         the
                            SUl1nptlon was that air would be pulled from
                          curtains forming the front waH of the glass '-__._1.:_ booth (not visible
        IV) or       openings. Smoke released at the plastic curtain showed little air flow into the
enclosed area indicating that those two exhaust fans placed on top of the                   enclosure
were not sufficient to produce significant flow across the pressure drop caused           plastic
curtain.

                               VI. CONCLUSIONS AND RECOMMENDATIONS

                           of sampling is to determine the extent of employee eXI)OSiUn~S
                                Sampling also permits the employer to evaluate
                     work practice controls and informs the employer H' .... ,O,. .... ,,,.... ajl(UtlOnal ,.."'........n.
need to                    Values that exceed OELs indicate that additional controls are H"'....,"";::.111
     study focused on the evaluation of airborne exposures and noise, with <111'11'111"........ <11
collected on              contamination. The results of air sampling during
found that             and              metals are generated and released during the
                     "AIJV"'"".,,, to                metals or particulate were       that exc:ee<led.
                             """'''''''H~'''''' during normal production or during the monthly
           .....,,""v.uu,.vu....... v,,'" are presented below to assure the continued                                   at
                                             facility.


                                                               25
 Although there was initial concern about Be and literature that pertains to e-waste recycling report
 that Be is present in electronic components, none was detected in air or wipe samples collected at
 this facility. One explanation for this is based on the work of Willis and Florig [2002]. They note
 that Be "in consumer products is used in ways that are not likely to create beryllium exposures
 during use and maintenance." The recycling operations (except the glass breaking operation)
 involve disassembly of electronics and sorting of the components. While some breakage occurs
 during the disassembly process, the components likely to contain Be are not subject to further
 processing that might create the potential for Be exposures.

Of the UNICOR recycling facilities evaluated to date, Lewisburg has the most adequate
arrangement for donning and doffing personal protective clothing and equipment. While some
situations require showers as a part of the decontamination process, this is not considered
necessary for the work conducted at Lewisburg since the levels of contaminant are low. The
arrangement in its present configuration is deemed adequate. Assurance needs to be made,
however, that respirators and clean protective clothing are stored in lockers in the work area,
where they are not at risk of contamination.

While the recommendations presented here address certain areas and issues observed during this
evaluation, there needs to be a site-specific health and safety program at Lewisburg. Based on the
data presented above, the following recommendations are made. These recommendations are
divided into 3 categories, described as programmatic issues, procedural issues, and housekeeping
issues.

Programmatic issues:
    1. 	 The respiratory protection program for this facility should be evaluated for this operation
         in order to ensure that it complies with OSHA regulation 1910.134.
    2. 	 A hearing protection program should be implemented and compliance with all provisions
         of the OSHA standard for occupational exposure to noise [29 CFR 1910.95] should be
         verified.
    3. 	 Training of workers should be scheduled and documented in the use of techniques for dust
         suppression, the proper use of local ventilation, personal protection equipment (e.g.,
         coveralls, respirators, gloves) and hazard communication.
    4. 	 Frequently while conducting the on-site work, NIOSH researchers observed tasks being
         conducted in a manner that appeared to be very awkward. Tasks should be evaluated to
         determine if there are excesses in repetitive stress trauma and if modifications in
         procedures or equipment would provide benefit to this workplace.
    5. 	 Heat stress should be periodically evaluated during hot weather (e.g., the summer
         months).
    6. 	 All UNICOR operations, including but not limited to recycling should be evaluated from
         the perspective of health, safety and the environment in the near future.
    7. 	 A program should be established within the Bureau of Prisons to assure that these issues
         are adequately addressed by competent, trained and certified individuals. While a written
         program to address these issues is necessary at each facility, adequate staffing with safety
         and health professionals is required to ensure its implementation. One indication of
         adequate staffing is provided by the United States Navy, which states "Regions!Activities
         with more than 400 employees shall assign, at a minimum, a full time safety manager and


                                                  26 

        adequate clerical support" [USN 2005]. That document also provides recommended
        hazard-based staffing levels for calculating the "number of professional personnel needed
        to perform minimum functions in the safety organization."
   8. 	 A comprehensive program is needed within the Bureau which provides sufficient
        resources, including professional assistance, to assure each facility the assets needed to
        assure both staff and inmates a safe and healthy workplace.
Procedural issues:
   9. 	 The use ofan alternative method (e.g., static pressure drop) should be investigated to
        determine frequency of filter change. The manufacturer of this system may have
        guidelines in this regard.
   10. Workers performing the filter change operation should continue to utilize respiratory
        protection as part of a comprehensive respiratory protection program. The PAPRs used
        provide adequate protection for the filter change operation.
   11. Because the facility already provides uniforms to its workers, management should
        evaluate the feasibility of providing and laundering work clothing for aU workers in the
        recycling facility, instead of the current practice of providing disposable clothing for glass
        breaking workers only. Contaminated work clothing must be segregated from other
        clothes and laundered in accordance with applicable regulations.
   12. The use of alternative methods to break cathode-ray tubes should be investigated by
        Lewisburg management to determine if further improvements are feasible. Lee et al.
        [2004] present different methods to separate panel glass from funnel glass in CRT
        recycling (sec 2.1) and for removing the coatings from the glass (sec 2.2). The hot wire
        and vacuum suction methods (supplemented with local exhaust ventilation) described by
        Lee et al. may produce fewer airborne particulates than breaking the glass with a hammer.
        The authors [Lee et at 2004] describe a commercially-available method in which an
        electrically-heated wire is either manually or automatically wound around the junction of
        the panel and funnel glass, heating the glass. After heating the glass for the necessary
        time, cool (e.g., room temperature) air is directed at the surface, fracturing the glass-to­
        glass junction using thermal shock. The separated panel and funnel glass can then be
        sorted by hand. They also describe a method wherein a vacuum-suction device is moved
        over the inner surface of the panel glass to remove the loose fluorescent coating [Lee et al.
        2004]. The vacuum used must be equipped with HEPA filtration. Industrial central
        vacuum systems are available; they may cost less in the long run than portable HEPA
        vacuum cleaners. These modifications may also reduce the noise exposure to glass
        breakers.
   13. Because of the noise levels found in the glass breaking operation, engineering controls
        should be designed or selected using noise reduction as a criterion. Until noise in the
        glass breaking operation can be reduced through engineering controls, a hearing
        conservation program including noise monitoring, audiometric testing, providing hearing
        protectors, training workers, and recordkeeping must be implemented for workers in the
        glass breaking operation.
Housekeeping:
   14. Due to the levels of surface contamination ofPb measured in the recycling facility,
        workers should wash their hands before eating, drinking, or smoking.
   15. Given the concentrations of Pb and Cd detected in the surface wipe samples and air
        measurements, periodic industrial hygiene evaluations and facility inspections are



                                                  27 

        recom.mend(~d          to confirm that exposures are                           occupational
                         limits.
        Daily and weekly cleaning of work areas                                 wet mopping should
        be continued, taking care to assure no electrical or                       is introduced. The
        BG/BIA guidelines [2001] recommend daily                           and floors with a type-H
        vacuum cleaner. Type H is the European equivalent of a               vacuum, where the H
        class requires that the filter achieve 99.995% efficiency,         90%           test particles
        are smaller than 1.0 urn and pass the assembled                    99.995% efficiency where
        10% of the particles are smaller than 1.0 urn, 22% below         urn, and 75% below 5.0 urn.
        While some surface contamination was measured in work areas, this would be much
        .......,,1".. if it were not for the good housekeeping
               1"                                                                all locations
        observed. Other practices not observed during the time
        been observed at other facilities should be discouraged;                  the use
        compressed air to clean parts or working               and the consumption of food, beverage
        or tobacco in the workplace.


                                              REFERENCES
        [2008]. Threshold limit values for chemical u",,,,,,,,U,,,",,,,,, and physical agents and
biological exposure indices. Cincinnati, OH: American                                          Industrial


       [2007]. Workplace environmental ext)os'ure 

         Association. 


                        American national standard for                                  industrial process
                           VA: American Industrial Hygiene Association.

        [2002]. Standard practice for collection of settled dust samples                    sampling
                        determination of metals. West '-"v,u",,'vuov""''''......,             InternationaL

        M (Markus.Berges@dguv.de)[2008a]. WG: Project-Nr. BIA3058:                        """""'''1'''' during
          vacuum from cathode-ray tubes. Private e-mail     to
~ill;:&!l~~...gQY) June 16.

           (Markus.Berges@dguv.de)[2008b]. AW: BG.BIA-Empfehlungen zur Uberwachung
translated. Private e-mail message to Alan Echt ~~~=~~J

         [2001]. Recommendations for monitoring work areas - manual disassembly of monitors
    other          equipment.




                                                 HUU,'.:..£!~~!...::!.!:!!~~,   2008.



                                                      28
....,...1-......   KJ [1993]. The significance of wipe                Ind                     J 53:7()-75 .

CFR. Code of Federal regulations. Washington,                         Government                     Office, Office of
the Federal Register.

Chepesiuk R [1999]. Where the chips fall:                                               semiconductor industry.
       Health Perspect. J07:A4S2-A457.

Cui J, Forssberg E [2003]. Mechanical                      of waste                                  equipment: a
         J Hazard Mater. 99:243-263.

DHHS [2000]. Healthy people 2010: Understanding and 

Washington, DC: U.S. Department of Health and Human 

internet at: 1!Y.Y~M!lli!~QYL.M.!ill!l0025&(illUlli!£!!~~~illl.!1lID!l

     (2008]. eCycling. Available on-line at =~~~~~::...:.:..:::.:::..z.~~' Accessed
June 3, 2008.

Fairfax RE [2003). Letter of January 13,2003 from RE Fairfax,            of
Compliance Programs, OSHA, to Frank White, Vice President,
Counselors, Inc. Available at
http://www.osha.gov/pls/oshaweb/owadisp.show document?p table=INTERPRET ATIO
NS&p id=25617. Accessed May 12,200

                     [1991]. Toxic effects of metals. In: Amdur       Doull J, ...........".,'"'..
  '<l<",..",tt     and Doul's Toxicology, pp. 623-680.

       [1993]. IARC monographs on the evaluation
beryllium, cadmium, mercury, and exposures in the
   Lyon, France: World Health Organization, International


                Froines JR, Mahaffeyet KR [1985]. Body lead burden:
ePloermOlVJ<.""'"1 data on   relation to environmental sources and toxic ......,,.t,,
and environmental lead: human health effects. Amsterdam:

               JH [200 I]. A suggested lead surface concentration standard
              in                and industrial buildings. Indoor and Built Environment

                    Chang C-T, Fan K-S, Chang T-C [2004]. An overview of recycling and
treatment             scrap computers. J Hazard Mater. J 14:93-1 00.

McCawley MA, Kent MS, Berakis MT [2001.]. Ultrafine beryllium number concentration
as a possible metric for chronic beryllium disease risk. Appl Occup Environ Hyg. J6:63
638.




                                                          29 

                           Order 196--0ccupational safety and health programs for Federal
employees.           Park, MD:U.S. National Archives and Records Administration. Available
on-line at: http://www .archives. gov/federal-register/codificationlexecutive-order/12196.html.
Accessed June 6, 2008.

NIOSH [1972]. NIOSH        for a recommended standard: occupational noise exposure.
Cincinnati,OH:     Department          and                 Public Health Service, Centers
for        Control                              for Occupational Safety and Health.
DHHS(NIOSH) Publication No.

NIOSH [1978].           recommend~~d standard: occupational exposure to inorganic lead.
Revised criteria                                                        Education, and Welfare,
Public Health     Center             "",v,,,.. ,,,.. National Institute for Occupational Safety and
Health, DHEW (NIOSH) Publication No.

NIOSH [1984].                                                Cadmium. Cincinnati, OH: U.S. Department of
Health and Human "'''''''11'1'''''''               .,,.,r',",,,., Centers for Disease Control, National
                                                                  (NIOSH) Publication No. 84-116.

NIOSH [1989]. Occupational health 1<. ........"'",,"''''
Department of Health and Human ,p'!"v,....,,,..;:                                       ...,,,,"'....,'" Control,
National         for 'U'''''..,UV<U'''''..<4,                              (NIOSH)/DOL (OSHA)
Publication No.8

NIOSH [1990]. NIOSH testimony on                             Occupational       and Health Administration's
proposed    on v"'...·"IJ'...IV...... '"'''''~'V''''...... to cadmium, July 17, 1990, OSHA Docket No. H-057A.
NIOSH policy statements.                                  OH:      Department of Health and Human Services,
Centers   Disease                                                                           Health. p.16.

                                                                              and health, compendium of
                                                                  U.S. Department of Health and Human
                                                                          National Institute for Occupational


NIOSH [1994]. NIOSH Manual of Analytical Methods (NMAM®), 4th ed. Schlecht, P.C. &
O'Connor, P.F. eds. Cincinnati,           Department of Health and Human Services, Centers
for Disease Control and Prevention, National            Occupational Safety and Health, DHHS
(NIOSH) Publication 94-113            1994), 1st           Publication 96-135, 2nd
Supplement Publication 98-119, 3rd

NIOSH [1998]. NIOSH                 a                                     occupational noise exposure.
Revised criteria 1998. Cincinnati, OH:       \""......, .....,""""'nt of Health and Human Services, Public
Health Service, Centers for Disease Control and                          National Institute for Occupational
Safety and Health. DHHS(NIOSH) Publication

NIOSH [2005]. NIOSH pocket guide to '"'.."'...."''''. 1"H1?.:!'!".'i.;: Cincinnati, OH: U.S. Department of
Health and Human Services,                           Control and Prevention, National Institute for


                                                           30 

Occupational Safety and              (NIOSH) Publication No. 2005-                             ..............'" on-line at
http://www.cdc.gov/nioshlnpgl.Ac.cessed June 6, 2008.

Nordberg G, ed. [1998].                    chemical properties 

Stellman, lM, ed. Encyclopedia of occupational health and safety. 41h 

International Labor Office. Pp. 


OSHA [2004]. Cadmium.                DC: U.S. Department of Labor 

Occupational Safety and                      OSHA 3136-06R. Available on-line at: 

http://www.osha.govlPublications/osha3136.pdf. Accessed June 4, 2008. 


Pettersson-Julander A, van                      M, Westberg H [2004]. Personal air         and
analysis of polybrominated diphenyl               other bromine containing           at an
electronic recycling facility in .,u/Pluon J Environ Monit. 6:874-880. Epub 2004 Oct 21.

Proctor NH, Hughes JP, Fischman                      [1991a]. Lead. In: Chemical hazards ofthe
workplace. 3rd ed. Philadelphia,                        Lippincott Company, Philadelphia,

Proctor NH, Hughes JP, Fischman                      [1991 b]. Nickel and inorganic compounds.
Chemical hazards ofthe WU,r'lf.I,JlUc;e.              ed. Philadelphia, PA: J.B. Lippincott C01mpiany
Philadelphia, pp 422-424.

Saryan LA, Zenz C [1994]. Lead                 its compounds. In: Occupational ....O.rlU·'HO
Chicago, IL: Mosby-Year

Schmidt CW [2002].              "''''I-''.V.,,'VU.   Environ Health Perspect. llO:A 188-A194.

Sjodin A, Carlsson H,                                      Bergman A, Ostman C [2001].
indoor air at an electronics                                at other work environments.
35:448-454.

Thun MJ, Elinder CG, Friberg L [1991]. Scientific basis for an occupational standard for
cadmium. Am J Ind Med. 20:629-42.

Willis HH, Florig HK [2002].      I:'otl~ntlal       exposures and risks from beryllium-containing products.
Risk Anal. 22:1019-1033.




                                                             31 

                                                Table 1
                    Summary Statistics for Airborne Metal Measurements* 

                               Collected at USP Lewisburg 

                                                                            3
                                 (Concentration unit for means is   Jlg/m       )




                       Particu
                                                                             Pb              Ni
       15 total particulate samples collected in recycling operations (excluding GBa)
       Ar. Mean             540       0.262         0.004        0.031        0.451           0.157
       Ar. St. Dey          147       0.126         0.001        0.020        0.278           0.109
       Geo Mean             521       0.235         0.003        0.024        0.380           0.130
       GSD                1.378       1.630         1.254        2.315        1.836           1.824

       5 total particulate samples collected in GBa, normal operation
       Ar. Mean              463       1.117       0.003       0.077                 2.427    0.322
       Ar. St. Dey           221       0.642       0.001       0.039                 1.479    0.140
       Geo Mean              373       0.710       0.003       0.067                 1.822    0.298
       GSD                 2.480       4.347       1.192        1.851                2.797    1.570

       4 respirable samples collected in GBa, normal operation
       Ar. Mean            95        0.232       0.003         0.030                 0.518    0.137
       Ar. St. Dey         49        0.166       0.000         0.000                 0.180    0.082
       GeoMean             83        0.159       0.003         0.030                 0.495    0.119
       GSD              1.924        3.381        1.174        1.000                 1.415    1.866

       4 total particulate samples collected during fllter change operation
       Ar. Mean             451        0.621        0.013         0.886              3.096    0.692
       Ar. St. Dey          435        1.078        0.000         1.373              4.792    0.230
       Geo Mean             340        0.149        0.013         0.376              1.370    0,653
       GSD                2.240        7.120        1.000         4.099              3.833    1.519

       4 respirable samples collected during filter change operation
       Ar. Mean           163        0.248          0.010       0.110                0.856    0.349
       Ar. St. Dey         90        0.247          0.002       0.020                0.587    0.125
       Geo Mean           147        0.142          0.010       0.109                0.741    0.334
       GSD              1.672         3.960         1.202       1.183                1.795    1.395

 Ar. Mean = arithmetic mean
>4<

 Ar. St Dev = arithmetic standard deviation
 Geo Mean = geometric mean
 GSD = geometric standard deviation
 All "non-detected" samples were set at half the limit of detection for statistical calculations.




                                                   32 

                                                                                              Table 2
                                                                          II..U'IIVI~.ULIIU   Federal Penitentiary
       Personal              Zone and Area Air              Results for                                                 Ilium Be Cadmium             and Nickel Ni
                                                                                                                 TP         Ba                Cd           Ph         Ni
                                Job Description! Work
                                      Location



                                                                1/2912008              349
  LMTT-03                                                       112912008              320
  LMTT-04                                                       1/29/2008              331
  LMTT-05                                                       1/29/2008              354
  LMWM-05                                                       1130/2008              304
  LMWM-06                                                       1/30/2008              166
  LMWT-OI                                                       1/30/2008              300
  LMWT-03                                                       113012008              308
  LMWT-04
  LMTM-02




                                                                                                                 74         0.05    <0.005   <0.06      0.31          0.16
                                                                                                                 na         0.41    <0.006   <0.05                   <0.18
                                                                                                                 na         0.10             <0.05                   <0.17
                                                                                                                 na         0.28
                                                                                                                 na         0.21
                                                                                                                 na          na
                                                                                                                 na          na
                  On shelfin wire area                                                                           na          na     <0.005    na
                  BZ level on work shelf directly opposite of
                   lass break booth                             1/30/2008                                        324        0.22    <0.006   <0.06
                                                                1/3112008               93                        199      <0.07    <0.025   <0.29
  LMHT-02                                                       1131/2008               91                       202       <0.07    <0.026   <0.29
  LMHT-03         GB booth cleanin                              1/31/2008               96                       1099      2.23     <0.025   2.94
  LMHT-04         Outside
                                                                1/31/2008               95                       303        0.18    <0.025   0.30      <
'" P

                                                                                                 33 

                                                                       Table 3 

                                                           Lewisburg Federal Penitentiary 

    BGI Cyclone Respirable Air Sample Results for Respirable Particulate (RP), Barium (Ba), Beryllium (Be), Cadmium (Cd), Lead (Pb , and Nickel CNi)
                                                                                 Sample                  RP          Ba            Be           Cd           Pb         Ni
    Sample                                                           Sample        Time    Sample    Cone.         Cone.        Cone.        Cone.        Cone.       Cone.
                                                                                                    (!.1 91m 3)                                                  3          3
    Number              Job DeseriptionlWork Location                  Date       (min.)    Type*                 (aJ9/m 3)   (!.1 91m 3)   (!.191m 3)   (!-191m )   hJ9/m )
    LMTR-01     Feeding glass/glass breaking                        1/29/2008       311       P          150        0.43       <0.007         <0.06         0.73       0.17
                             .u.
    I                                    ..'co                      1/29/2008       349       P          110        0.26       <0.007         <0.06         0.37      <0.14
    LMTR-03     Disassembly of CPUs in middle building              1/29/2008       329       P          230        0.22       <0.007         <0.06         0.29       0.23
    LMWR-01     Disassembly of CPUs in middle building              1/30/2008       396       P          132        0.27       <0.003         <0.03         0.27       0.10
                L.
    LMWR-02                                                         1/30/2008       305       P         86.6        0.21       <0.006         <0.06         0.60       0.24
    LMWR-03     Glass breaker/feeding glass                         1/30/2008       325       P         33.0       0.027       <0.005         <0.06         0.37      <0.15
    LMHR-04     Glass breaking booth cleaning and filter changing   1/31/2008        97       P         87.5        0.57       <0.018         <0.20         1.72       0.52
                                                                    1/31/2008        70       P          158        0.30       <0.025         <0.28        <1.40      <0.70
    LMHR-02                                                         1/31/2008        93       A          117       <0.05       <0.018         <0.21        <1.04      <0.52
    LMHR-03     On work shelf opposite glass breaking booth         1/31/2008        92       A          291        0.10       <0.019         <0.21        <1.06      <0.53

*   P personal sample
    A = area sample




                                                                                34 

                                                                   Table 4 

                                                      Lewisburg Federal Penitentiary 

                                     Surface Wipe Sample Results for metals of primary interest, in ll2isq ft 

 Sample                                                              Sample
 Number                        Sample Location                         Date         Ba             Be             Cd        Pb          Ni
LMTW-04   Work bench canvas surface outside glass breaking booth    1I2912008            91             <0.1            8         279        35
LMTW-05   Coated surface from LED plastic screen                    112912008             I             <0.1           <1          <8        <5
LMTW-06   Uncoated surface from LED plastic screen                  1129/2008             3             <0.1           <1          <8        <5
LMTW-07   Coated surface from LED plastic screen                    1I2912008             7             <0.1           <1          33        <5
LMTW-08   Uncoated surface from LED plastic screen                  1129/2008             I             <0.1           <1          19        <5
LMTW-09   Rubberized mat on work bench in middle building           112912008            39             <0.1            5          58        31
LMTW-I0   Metal surface of work ben                                 1/29/2008              6            <0.1            3          20         6
LMWW-05   Fan blades from fan removed from a CPU                    ]/30/2008            250            <0.1           14        7068        89
LMWW-06   Fan blades from fan removed from a CPU                    1/30/2008            101            <0.1           14         512        64
LMWW-07   Inside surface of a CPU case                              113012008              3            <0.1           <I          <8        <5
LMWW-08   Inside surface of a CPU case                              1I30/2008             22            <0.1            1          36        51




                                                                       35 

                                              TableS
                                         Exposure Measurements*
                                          January 29, 2008

       Sample I D                                        LST-09                              LST-03
                                                  Area - on operators
      Description                                 desk near bailer
                                                        5:14:37
     Evaluation
        criteria     OSHA       NIOSH         I      OSHA     NIOSH                  OSHA                      SH
Test       (dB)         87.9       91.2                  77.2   82.5                          90.4               94
   TWA Average
           (dB)          86.2      90.2                    74.2          80.7                  88.7               93

       Sample I D        LST-Ol                          LST-06                              LST-08
                                                  Disassembly worker in               - workbench        memory
      Description                 area            center of middle room
        Run Time                                        6:07:25                              16:18
       Evaluation
          criteria   OSHA       NIOSH                OSHA              NIOSH         OSHA
                                                           ...,"> /'
Test Average (dB)       78.7       85.3                                  87.4                  57.4             74.8
   TWA Average
             (dB)        76.9      84.2                    81.7          86.2                                   73.8

       Sample I D                                                                            LST-OS
                                                  Area - on workbienc~h
                              worker at           outside      breaking         Disassembly UTI".·...."" .. near end
      Description    end of middle room           booth                         of center room
        Run Time      6:09:20                        6:06:20                         6:08:13
       Evaluation
          criteria   OSHA                         OSHA                 NIOSH                           NIOSH
Test Average (dB)       78.6                                             76.1                  84.4             89.7
   TWA Average
             (dB)        76.7                              62.2                                                 88.5
                                        Table 5 (Continued)
                                   Noise Exposure Measurements
                                          January 30, 2008

  Sample I D             LSW-08                             LSW-05

  Description                                                                                         area
    Run Time
   Evaluation
      criteria
 Test Average
         (dB)            88.8        92.2                    Ill. I   I      02               79         84.2
TWA Average
         (dB)                        91.2                    84.1           90.8             77.6        83.3

  Sample I D             LSW-06
                         disassemblying
                               breaking          misc. ""'". ""."                  Area - on
  Description                                    room                              breakin booth
                                                                                       6:20:1
  Evaluation
      criteria                   NIOSH                                    NIOSH    OSHA             NIOSH
Test Average
         (dB)            76.1        81.8                                   84.3                         90.9
TWA Average
         (dB)                        81.2                                   83.5              86         89.9

  Sample I D 

  Description 

    Run Time 
      6:04:43
   Evaluation
       criteria
 Test Average
         (dB)
TWA Average
         (dB)

     "'Numbers in bold          overexposures.




                                                     37 

                                                                Appendix A 

       Occupational Exposure Criteria for MetalJElement 





                             ElEMENTS IICP), METHOD 7300,                                  I~Stre      1. doted        1~   Malch          2~03          ,Pog" 6 of 8

fABLE 2, EXPOSURE LIMITS. CAS #, RTECS



S!~yer{ ..~)                     7-1-10.;;;:-1           VW.150Joo:J             (I,D1 (dl!~, t.H1le,       ""'i1.e1.a!:!   0,01      {:T',~t31, sor.J~!         (',1 [;rv.:1::d)
                                                                                                                                                                 IH!1{3v,"...!OVt!

AhJ."TIirB,w,l{AJ)               742:-),'.).)..5         BC033-Y.lOO             i 5" :,i<t.ai dIJsl",                      1() \Imal       """I                 10     l~w,j)
                                                                                  51""p'o',)                                5 tres?r:,a':l~       f;!m~~         5l:J::JH"".....&rs.   f;j-:-.8J
                                                                                                                            2 (sa..h,       ~rK~.'i)             '2 (sa;:;,     at~~;

A':"5flOC{A7,}                   ',~IO·,"'"2              (:G\:I5CS(YXJ          ·,:;=!;r~!'i.                              C \loXt2, Ca                         (l.o1,Ca
San :"dBa)                       HIO·}")')                008),00'):)            0.5                                        0.5                                  O,5

Be'Y1lr.Jr.1ISo)                 HI0~11·;                 0$ \ 750Q;}.)          O.0JL, C OO~5                              01)0'.15, ;;.                        0.00L, Ca

CaJc:i'-.srn {ClI)               7014()..1().2                                   'fil'"i8i                                  Ifllr,.e:s                           '~a"fi


C21CI':"J\JI"'1 (Cd)             '+10-1:"9                EUUSOOirlJ             J,)j5                                      1000"&St ~~e'b'.e, ::9               O.Oll't>t'I!), ~3
                                                                                                                                                                 O.Oj2 (m:s;:Y!.j. Ci

CC1b:dt!Co)                      nIO·I&'4                 GF97'1.JOOJ            0,1                                        tJ .')[j {c:.rsi, faf'!' tl!         i).02 {IDit.         f:J."T'~)

::::!i/'tY"":r<..lr (Cr)         '+1<)-17·3               QB.I:<)wJO             u.S                                        ;'),.5                               u.!j
CO!Y.lf!r tC!.J)                 '4-!o.,,).8             GL532.UX;O              t td..5t, -'sh;                            " {Jttsl)                             1 (dust. r,js13)
                                                                                 O.   ~   {fWGftj                           0.1 {;U-t6}                          0.2 tk:n~)
1"0, {Fe)                        !4j·)-8().G              OO"'-S(J!Jfih)         10 td:JSt, fWMe)                           ~     i,tr..:>3.!. "u"r'e}           5tf ulil'&)

Pftn.s:3lilm (K~                 '+IO.{";'7               TS"IIJ.XlOO
LW.!r,an'Jm                      '·~:i9·)1·0

L,1f1""'.1:1~\iJ)                7<n'9-~':}-2

Maw.esw. (M-;)                   7·1.3:l·9.';.~           DM21u~00J              f[P      (-~~st)   as ox-d!!                1O {furs.           IH '.It.de;      10    [~,6)        as Or::ide
                                                                                 5{flH;itJl)~)

M3Jg:;.ne:;e tMn)                H39·'JIl.5               00927[<)00             Cfi                                         1;.5TEL.l                            5 (c:JSt)
                                                                                                                                                                  i: ST::L 3 ff..Jr.:e)

~.~o"Y,.derr.J.rn        r..b)   H;~·iI!l·7               Q~"';SOOc)()            5 {SOI..?lit)                              5 (w",b.al                           5 {s-or..ole;
                                                                                 15 (tl,.! tJ1:ia.'u!:i~)                    10i ;;-3'.J'_~.!)                    10''''';'J::Io)
!-h.,,;~,tN)                     ,,140-:<2-;]             OR5!"F.L1CI;)0                                                    :1.115        :::.                   0.1    {so\Jtr~)
                                                                                                                                                                  , (o:iiCfo.D:.a, r,mai)

P,,"';hl""i (p)                  7?"j..1,I..(J            7Hs!;IXf.'iOO          ~'U                                        G.1                                  (U

:..e!l.d{P!.:t)                  7,,:;y..~2~1             OF?5l5o-j(}            ii05                                       0.')5                                (j.vS

A,,,,,,·,or.y,'-')               ;·t-IO-.)6-{J            ~C-lO~O;)              c.,                                        0,['                                 (L~


~*"i:.JM{Sa~                     !76::.. 1'?~2.           \/STJvYJOO              \2                                        \.1.2.                               02
-ifl \Sn:~                       Hif0-31-!J               )(?7J:<irJW

S~~...y;tit..!m   fSn            7·l-1(J·.. 24.f..J
7e·;J~..I~        C"::,,,l       ',,1;"1-<l0-)            '~t~62!:i)J0           0.1                                        0,1                                  0.1
T,1Jrro~ ~Ti)                    1.1·11l-32-6             XR170}JOO

... ..,wM'ur,~ ;TI'              I,HO..·~S..;'J           ~C:;.lc.Y)JfJ          ~)" ~    f ~drl! {So.\.O'e)                0.' {J:<m) l3.0\kl.e:                oJ,l [3,:.\..'"\1

Va'1Jdu~~            1,\/)       i"440..t...2·~           Y012400)()                                                        (: 0.65

  ,J,t;l:Iltn                    7'I'W··:n~7
                                                                                                                             1(;     ;5"'"8.)                     10 ~STEl)
YOl1'"',.!fl"',{Yl               frt<tO--:j5~5            ZG1]&)OJO                                                         fl!A
l"'IC. tZr..,                    7·1·llrBG~               zcacr.DYlO
Llt:<n1f"'1 : Z:)                7+t()..:jl~1             z").Ht', 70'))')                                                   ~.    S-El'O                         5 S-·'



                                                      HIOS~ M~"',ui      ri   ':""Ht)' <""..AI M@t ..c~ ['I.tAM,. F()Ur'!'" 8 1'1:)"1




                                                                                38 

                                                                              Appendix B 

                                                                     Lewisburg Federal Penitentiary 

                                   Personal Breathing Zone and Area Air Sample Results for Total Particulate (TP) and Thirty-one Elements
             TP                  AI          Sb        As       Ba          Be          Cd        Ca        Cr        Co         Cu          Fe          La           Pb          Li
 Sample     Conc.              Conc.      Conc.       Conc
                                                          i   Conc.~.     Conc.      Conc.       Conej ,   Concj ,   Conc],    Cone.      Conc.       Cone.        Conc.       Cone.
 Number    I, ....1.... 3 \   hJg/m 3)   (IJQ/m 3 )           {IJQ/m~1
                                                                               3
                                                                         (IJQ/m )   (iJQ/m3 )    IUO/m I
                                                                                                                                     3
                                                                                                                              (lJg/m )   (IJQ/m )
                                                                                                                                                 3
                                                                                                                                                     (IJQ/m )
                                                                                                                                                             3
                                                                                                                                                                  (IJQ/m )
                                                                                                                                                                          3
                                                                                                                                                                              (lJg/m 3)
 LMTT-01     506                3.25        0.57      <2.87    1.15       <0.007       0.09       44.9      0.24     <0.03      0.15        9.56       <0.02        2.01      <0.004
 LMTT-02      74                0.65       <0.31      <2.33    0.05       <0.005      <0.06       8.55     <0.08     <0.02     <0.04        <1.6       <0.02        0.31      <0.003
 LMTT-03     608                4.71       <0.42      <3.14    1.78       <0.007       0.12       32.5      0.23     <0.03      0.12       10.48        0.04        4.40      <0.004
 LMTT-04     652                3.91        0.46      <3.01    0.42       <0.007       0.08       54.2      0.14     <0.03      0.43       22.07       <0.02        0.75        0.005
 LMTT-05     585                3.68        0.77      <2.83    0.54       <0.007      <0.08       40.6      0.24     <0.03      0.32       29.27       <0.02         1.13     <0.004
LMTM-01       na                 na          na        na       na        <0.013        na         na        na       na         na          na          na           na          na
LMTM-02       na                 na          na        na       na        <0.005        na         na        na       na         na          na          na           na          na
LMTM-03       na                 na          na        na       na        <0.005        na         na        na       na         na          na          na           na          na
LMTM-04       na                 na          na        na       na        <0.006        na         na        na       na         na          na          na           na          na
LMTM-05       na                 na          na        na       na        <0.005        na         na        na       na         na          na          na           na          na
LMTM-06       na                1.62       <0.34      <2.55    0.17       <0.006      <0.06       28.9      0.09     <0.08      0.11        5.96       <0.01        0.62      <0.005
LMTM-07       na                1.70       <0.32      <2.43    0.23       <0.006      <0.05       16.2      0.07     <0.07      0.13        6.98       <0.01        0.41      <0.005
LMTM-08       na                2.45       <0.41      <3.06    0.19       <0.007      <0.06       29.6      0.16     <0.09      0.28        9.39       <0.01        0.81      <0.006
LMTM-09       na                1.28       <0.34      <2.56    0.10       <0.006      <0.05       14.5      0.07     <0.08      0.09        <4.3       <0.01        0.43      <0.005
LMTM-10       na                1.80       <0.33      <2.47    0.29       <0.006      <0.05       19.6      0.09     <0.07      0.18        8.19       <0.01        0.41      <0.005
LMWT-01      534                3.34       <0.44      <3.34    1.33       <0.008       0.10       50.0      0.19     <0.03      0.11       10.34       <0.02        2.56      <0.004
LMWT-02      324                2.27       <0.32      <2.43    0.22       <0.006      <0.06       49.4     <0.08     <0.02      0.11        8.91       <0.02        <0.32     <0.003


                                                                                                           ~.~
LMWT-03      597                4.34       <0.43      <3.26    0.38       <0.008      <0.09       43.4                                                 <0.02        <0.43       0.005
LMWT-04      593                3.71        0.81      <3.18    1.27       <0.007      <0.08       71.0
                                                                                                                                                       ,n n ...    ...
LMWP-02       na                 na          na        na       na        <0.005        na         na        na       na                               na           na          na
LMWP-03       na                 na          na        na       na        <0.005        na         na        na       na        na         na          na           na          na
LMWP-04       na                 na          na        na       na        <0.005        na         na        na       na        na         na          na           na          na
LMWM-01       na                2.49       <0.36      <2.66    0.41       <0.006      <0.05       23.1      0.08     <0.08     0.27       15.09       <0.01        <0.44      0.007
LMWM-02       na               <0.87       <0.35      <2.60    0.10       <0.006      <0.05       13.0      0.07     <0.08     0.07       <4.3        <0.01        <0.43      <0.005
LMWM-03       na                3.36       <0.34      <2.59    0.28       <0.006      <0.05       31.9      0.21     <0.08     0.22       11.20       <0.01        0.46       <0.005
LMWM-04       na
LMWM-05       na
LMWM-06       na               3.64       <0.81       <6.06    0.22      <0.014      <0.12        46.5     0.16      <0.18      0.38      <10.1       <0.02        <1.01      <0.012
LMHT-01       199              1.23        1.84       <10.8   <0.07      <0.025      <0.29        11.6     0.36       0.13     <0.18      <7.2        <0.07        <1.44      <0.015
LMHT-02      202               1.72        2.68       <11.0   <0.07      <0.026      <0.29        16.9     0.48      <0.11     <0.18       <7.3       <0.07        <1.47      <0.015
LMHT-03      1099              6.03       <1.42       <10.6                                                                                8.51       <0.07        10.28      <0.014
LMHT-04      303               2~
                                                                                          39 

                                        Appendix B cont. 

                                  Lewisburg Federal Penitentiary 

Personal Breathing Zone and Area Air Sample Results for Total Particulate (TP) and Thirty-one Elements 

                    Mg       Mn        Mo          Ni        P         K           Sa       Ag         Sr
  Sample          Cone.     Cone.     Cone.      Cone.     Cone.     Cone.      Cone.      Cone.     Cone.
                        3
                            (~g/m3)   (~g/m3)          J
                                                           (~g/m3)   (~g/m3)           3   (~g/m3) .()Jg/m3)
  Number         (pg/m )                        (pg/m )                        (}.Ig/m )
  LMTT-01          2.29      0.15     <0.19       0.42      7.84      1.72      <4.78       <0.03     0.21
  LMTT-02          0.54     <0.04     <0.16       0.16     <5.44      0.46      <3.89       <0.02     0.03
  LMTT-03          2.10      0.10     <0.21       0.26     <7.33      2.20      <5.24       <0.03     0.31
  LMTT-04          3.61      0.22      0.21       0.36     <7.02      2.61      <5.02       <0.03     0.16
  LMTT-OS          2.27      0.53     <0.19       0.37     <6.61      1.42      <4.72       <0.03     0.23
 LMTM-01            na        na        na         na        na        na          na        na        na
 LMTM-02            na        na        na         na        na        na          na        na        na
 LMTM-03            na        na        na         na        na        na          na        na        na
 LMTM-04            na        na        na         na        na        na          na        na        na
 LMTM-05            na        na        na         na        na        na          na        na        na
 LMTM-06           1.28     <0.17     <0.17      <0.17     <4.26      0.85        2.30      <0.03     0.10
 LMTM-07           1.14     <0.16     <0.16      <0.16     <4.06      0.81       <1.62      <0.03     0.07
 LMTM-08           1.74     <0.20     <0.20      <0.20     <5.10      1.43       <2.04      <0.04     0.15
 LMTM-09           0.72     <0.17     <0.17      <0.17     <4,26      0.85        1.88      <0.03     0.05
 LMTM-10           0.21     <0.16     <0.16      <0.16     <4.09      0.98      <1.64       <0.03     0.10
 LMWT-01           2.45      0.11      0.22       0.51     <7.78      2.45      <5.56       <0.03     0.27
 LMWT-02           2.51      0.09     <0.16       0.30     <S.67      1.21        5.02      <0.02     0.13
 LMWT-03           3.15      0.26     <0.22       0.25     <7.60      1.95      <5.43       <0.03     0.17
 LMWT-04           3.50      0.17     <0.21       0.25     <7.42      2.33      <5.30       <0.03     0.28
 LMWP-02            na        na        na         na        na        na          na        na        na
 LMWP-03            na        na        na         na        na        na          na        na        na
 LMWP-04            na        na        na         na        na        na          na        na        na
 LMWM-01           1.78      0.20     <0.18      <0.18     <4.44      1.42       <1.78      <0.04     0.36
 LMWM-02           0.79     <0.17     <0.17      <0.17     <4.34      0.54       <1.74      <0.03     0.04
 LMWM-03           2.24     <0.17     <0.17      <0.17     <4.31      1.S5        4.31      <0.03     0.11
 LMWM-04           0.82     <0.18     <0.18      <0.18     <4.38      0.96       <1.75      <0.04     0.06
 LMWM-OS           0.73     <0.22     <0.22      <0.22     <5,S1     <0.44       <2.21      <0.04     0.03
 LMWM-06           1.98     <0.43     <0.40      <0.40     <10.1     <0.81        5.66      <0.08     0.13
 LMHT-01           1.44     <0.18     <0.72       0.79     <25.7     <0.72       <18.1      <0.11     0.03
 LMHT-02           1.25     <0.18     <0.73       0.77     <25.7      0.73       <18.3      <0.11     0.04
 LMHT-03           1.52     <0.18      0.78       0.8S     <24.8     4.26        <17.7      <0.11     0.60
 LMHT-04           1.67     <0.18     <0.71      <0.71     <24.9     <0.71       <17.8      <0.11     0.10




                                                   40 

                                      Appendix B cont. 

                               Lewisburg Federal Penitentiary 

 Personal Breathing Zone and Area Air Sample Results for Total Particulate (TP) and Thirty-one 

                                         Elements 

                      Te           TI          Sn          Ti          V            Y         Zn          Zr
                    Cone.       Cone.       Cone.        Cone.       Cone.       Cone.      Cone.       Cone.
                          3                                     3                      3   (1J9/m 3)
Sample Number      (lJg/m )   (!-191m 3)   (!-191m 3)   (IJQ/m )    (1J9/m 3)   (lJg/m )               (1J9/ m 3)
   LMTT-01          <0.38       <0.96        <0.96         0.04       0.04        12.4       22.9       <0.19
   LMTI-02           0.42       <0.78        <0.78        <0.02       0.02        0.04       1.55       <0.16
   LMTT-03           0.76       <1.05        <1.05         0.03      <0.03        48.2       72.3       <0.21
   LMTT-04           0.41       <1.00        <1.00        0.08        0.03        0.07       9.13       <0.20
   LMTT-05          <0.38       <0.94        <0.94         0.15       0.04        0.67       6.33       <0.19
  LMTM-01             na          na           na           na         na          na         na          na
  LMTM-02             na          na           na           na         na          na         na          na
  LMTM-03             na          na           na           na         na          na         na          na
  LMTM-04             na          na           na           na         na          na         na          na
  LMTM-05             na          na           na           na         na          na         na          na
  LMTM-06           <0.60       <0.68        <0.68        <0.09      <0.03        0.22       2.47       <0.03
  LMTM-07           <0.57       <0.65        <0.65        <0.08      <0.02      <0.005       0.75       <0.03
  LMTM-08           <0.71       <0.82        <0.82         0.14      <0.03        0.21       5.10       <0.04
  LMTM-09           <0.60       <0.68        <0.68        <0.09      <0.03        0.01       1.28       <0.03
  LMTM-10           <0.57        0.82        <0.57        0.13       <0.02        0.01       0.81       <0.03
  LMWT-01           <0.44       <1.11        <1.11         0.03      <0.03        14.5       24.5       <0.22
  LMWT-02           <0.32       <0.81        <0.81         0.03       0.04        0.25       2.83       <0.16
  LMWT-03           <0.43       <1.09        <1.09         0.11      <0.03        0.09       8.25       <0.22
  LMWT-04            0.66       <1.06        <1.06         0.04       0.03        8.69       17.0       <0.21
  LMWP-02             na          na           na           na         na          na         na          na
  LMWP-03             na          na           na           na         na          na         na          na
  LMWP-04             na          na           na           na         na          na         na          na
  LMWM-01           <0.62        0.82        <0.62         0.33      <0.03        0.01       1.07       <0.04
  LMWM-02           <0.61       <0.70        <0.70        <0.09      <0.03        0.01       1.04       <0.03
  LMWM-03           <0.60       <0.69        <0.69         0.17      <0.03        0.01       3.62        0.04
  LMWM-04           <0.61       <0.70        <0.70         0.13      <0.03      <0.005       0.96        0.04
  LMWM-05           <0.77       <0.88        <0.88        <0.11      <0.03      <0.007       0.55       <0.04
  LMWM-06           <1.42        2.43         1.52        <0.20      <0.06        0.40       13.1       <0.08
  LMHT-01           <1.44       <3.61        <3.61        <0.07      <0.11        0.30       5.06       <0.72
  LMHT-02            2.09       <3.67        <3.67        <0.07      <0.11        0.36       5.87       <0.73
  LMHT-03           <1.42       <3.55        <3.55        <0.07      <0.11        95.7       174        <0.71
  LMHT-04           <1.42       <3.56        <3.56        <0.07      <0.11        4.27       12.8       <0.71




                                                    41 

                                                                           Appendix C
                                                                  Lewisburg Federal Penitentiary
                                BGI Cyclone Respirable Air Sample Results for Respirable Particulate (RP) and Thirty-one Elements
              RP          AI         Sb       As         Ba        Be       Cd        Ca         Cr       Co        Cu         Fe            La          Pb          li
 Sample     Cone.      Cone.       Cone.    Cone.     Cone.     Cone.     Cone.     Cone.     Cone.     Cone.     Cone.      Cone.        Cone.       Cone.       Cone.
 Number   _W9/ mJ)    (jJg/m J) (tJ9 /m3 ) (tJg/m J) (tJg/m 3) (tJg/m 3) (tJ9/mJ) (lJg/m 3) (tJg/m 3) (lJg/m 3 ) (lJg/m 3 ) (lJg/m 3 )   (lJg/m )
                                                                                                                                                 3
                                                                                                                                                     (lJg/m )
                                                                                                                                                             J
                                                                                                                                                                 (!.Ig/m 3)
LMTR-01        117       0.86       0.45    <2.34      0.34     <0.005     <0.06     6.80      <0.08    <0.02      <0.04      <1.6          0.02       0.73       <0.003
LMTR-02          79      0.67       0.34    <2.15       0.19    <0.005     <0.06     4.16      0.07     <0.02      <0.04      <1.4         <0.01       0.37       <0.003
LMTR-03         168      1.53      <0.29    <2.19       0.16    <0.005     <0.06     14.6      0.07     <0.02      0.09        5.8         <0.01        0.29      <0.003
LMWR-01         132      1.11       0.34    <1.28       0.12    <0.003     <0.03     10.7      0.04     <0.01      0.06        6.0         <0.01        0.27      <0.002
LMWR-02          87      1.02      <0.31    <2.36       0.17    <0.006     <0.06     7.32      0.08     <0.02      <0.04       1.8         <0.02       0.60       <0.003
LMWR-03          33      0.34      <0.29     <2.20      0.02    <0.005     <0.06     2.12       0.07    <0.02      <0.04      <1.5         <0.01        0.37      <0.003
LMHR-01         158      2.03       1.44    <10.5       0.30    <0.025     <0.28    <1.75      0.46     <0.11      <0.18      <7.0         <0.07       <1.40      <0.014
LMHR-02         117      1.09      <1.04    <7.77      <0.05    <0.018     <0.21     6.48      0.26     <0.08      <0.13      <5.2         <0.05       <1.04      <0.010
LMHR-03        291       1.37       1.51     <7.93      0.10    <0.019     <0.21     11.9      0.26     <0.08      <0.13      <5.3         <0.05       <1.06      <0.011
LMHR-04          87      2.27      <1.00    <7.50       0.57    <0.018     <0.20     4.00      0.25     <0.07      <0.12      <5.0         <0.05        1.72      <0.010
              Mg          Mn         Mo        Ni         P        K        Se        Ag         Sr
 Sample     Cone.      Cone.       Cone.    Cone.     Cone.     Cone.     Cone.     Cone.     Cone.
                                                                                                     3
                      (!.Ig/m ) (lJg/m ) (!.Ig/m ) (lJg/m ) (lJg/m ) (tJ9/mJ) (tJg/mJ) (tJg/m )
                  J           3          J         3         3         3
 Number    hAg/m )
LMTR-01      0.40       <0.04      <0.16     0.17      <5.48      0.50     <3.91    <0.02       0.16
LMTR-02      0.35       <0.04      <0.14     <0.14     <5.02      0.34     <3.59    <0.02      0.04
LMTR-03      1.09        0.05      <0.15      0.23     <5.10      0.95     <3.64    <0.02       0.05
LMWR-01      0.85        0.05      <0.09     0.10      <2.98      0.64     <2.13    <0.01       0.04
LMWR-02      0.54       <0.04      <0.16     0.24      <5.51      0.43     <3.94    <0.02       0.09
LMWR-03      0.21       <0.04      <0.15    <0.15      <5.13     <0.15     <3.66    <0.02       0.01
LMHR-01     <0.70       <0.18      <0.70    <0.70      <24.5     <0.70     <17.5    <0.11       0.13
LMHR-02      0.62       <0.13      <0.52     <0.52     <18.1     <0.52     <13.0    <0.08      <0.02
LMHR-03      0.95       <0.13      <0.53    <0.53      <18.5     <0.53     <13.2    <0.08       0.04
LMHR-04      0.80       <0.12      <0.50     0.52      <17.5      1.12     <12.5    <0.07       0.20




                                                                                42 

 Sample
 Number
LMTR-01
LMTR-02
LMTR-03
LMWR-01
LMWR-02
LMWR-03
LMHR-01
LMHR-02
LMHR-03
LMHR-04 





            43
                               Surface

Sample
Number
LMTW-04
LMTW-05        0.08    <0.01     <0.1            <0.09   1.1    8.4
LMTW-06   <3    0.32   <0.01     <0.1    0.10    <0.09   0.58   15    <0.03
LMTW-07   <3    0.73   <0.01     <0.1    0.27    <0.09   0.80   31    <0.03                  <0.1
LMTW-08   <3   0.15    <0.01     <0.1    <0.06   <0.09   <0.5         0.041                  <0.1
LMTW-09   <3   4.18    <0.01      0.5     1.60   <0.09    12                                 <0.1
LMTW-10   <3   0.65    <0.01      0.3     0.54   <0.09    2.9
LMWW-OS   <3   26.9    <0.01      1.S    7.30     0.58    52
LMWW-06   <3    10.9              1.5    5.70     0.37    47
LMWW-07   <3   0.33                      0.27    <0.09
LMWW-08   <3   2.38                       5.60    0.10
LMWW-15   <3   0.16                       0.56
LMWW-16   <3   0.085




                                          0.20   <1
                                           1.0   <1
                                         0.16    <1                   <0.04
                                         0.069   <1      <1     <3    <0.04   <0.008   <20
                                                       TRAILER
                                                       AREA
                                                                                         FACTORY ENTRANce




          LAPTOP    PRINTER       MONITOR
          TESTING   TESTING       TESTING
           AREA      AREA          AREA




          CeNTRAL




                                  HARD                    WAREHOUSE 

                                 DRIVE 
                    AREA
                                REMOVAL
                                  AREA


                                                                         FIRE EXT.




                                            •                                        TO BREAKDOWN AREA




                                                eXIT
                              EYEWASH




LEWISBURG WAREHOUSE
DRAWING NOT TO SCALE                                          Figure I


                                                                 45
                                                                                                                                                    1--·
                                                                                                                                                     i RESIDUAL
                                                                                                                                                        WASTE
                                                                                                                                                    !. DUMPSTER   .I
                                                     BREAKDOWN TRAILER STORAGE AREA                                                                 L .. _.. _.. ~

                                                                                    DOCK AREA




                            RAMP



                                                              fIRE HOSE BOX




                                                                                           .,.,

~-------------------------~'-----------------------+1-------------------80'--------------------~
                                    ,­    _   -     -,   ,­       _           -,                                                "",.... PlAS11C
                                    I                ,   I                      I                                              IIAlI!:STOAAGfMtfA
                                          LOOSE                   LOOSE
                                          METAl                   METAl
                                         DUMPSTER               DUMPSTER
                                    L __                 L __                 -.J                   FOR A DETAILED VIEW OF THE AREA MARKED IN
                                                                                                  BRACKETS SEE SKETCH GLASS BREAKING BOOTH




  LEWISBURG RECYCLING FACTORY BREAKDOWN AREA
  DRAWING NOT TO SCALE



                                                                                     Figure II

                                                                                        46 

                                                                                      WINDOW FOR FEEDING CRrS TO
                                                                                      THE GLASS BREAKING BOOTH
              1-----16' ------,1--­   - 1 - - - - - - - 25' - - - - - - - - i
                                                                                         EXIT

                                              EAl:J            EAl:J
                                         GLASS BREAKING
                                             BOOTH
                                                                                14'                          14'
                     RESTROOM
       16'




      1                                                                                                      12' 40'




                                                                                                            14'
       14'


                                                           DISASSEMBLY AREA


                           EXIT




              1--------------------80'------------------------~




GLASS BREAKING BOOTH 

DRAWING NOT TO SCALE 




                                                  Flgure III

                                                      47
                                         FAN




                                     GLASS BREAKING

                                         BOOTH        FILTER                    FILTER   WINDOW FOR FEEDING
                                                                                         CRrs TO THE GLASS
                                                                                         RRI=AKING BOOTH




        14 •

                                                                            15'
                                                                       ROLLER CONV.




GLASS BREAKING BOOTH WORK STATIONS
DRAWING NOT TO SCALE



                                                         Figure IV 


                                                            48 

AttachlDent 2 

                                   Attachment 2a.
                          Wipe/Bulk Sample Data-FOH Samples 

                             Camp Building, USP Lewisburg 





          512312007
          512312007




XLMWG7    512312007   W

XLMWGB    512312007   W

XLMWG9    512312007   W                                                           25

XLMWG10   512312007   W                                                           34

XLMWG11   512312007   W                                                           30
XLMWG12   512312007   W                                                           10
                      W                                                           10
XLMWG14   512312007   W
XLMWG15   512312007   W

XLMWG16   512312007

XLMHG1    512412007   W
                                         Area #7A; rubber mat work surface on
XLMHG2

XLMHG3    512412007   W                                                           97

XLMHG4    512412007   W      Dis         area #76' from     of metal work table   120
                             Hazardous waste storage area; from bottom of cover
XLMHG5    512412007   W      on boxlabled UNICOR H. W.                            25

XLMHG6    512412007

XLMWB3    512312007
                                                       Attachment
                                              TCPL Data Table-FOH Samples
                                              Camp Building. USP Lewisburg




                                             Waste water (from mop bucket) about to be dumped on
     XLMWB1       5/Z3/2fJ07       TCL?      ground.                                               <0.1   <0.01


     XLMWB2       51Z312fJ07       TCL?      Waste water (mop) in GBO.                             0.3    <0.01




                                                       Attachment 2c.
                                          WipelBulk Sample Aesults-FOH
                                                     Building, USP




                                                of vacuum hoses & dust pans in
 FL'TWC4                       W                      area                              0-6'

 F

 FLlWC 7      1/2912008        W

FlWWC -1                       W      From                           breakers
                                      From windowsills in middle section of building
                                     IIOlJlSI(]6 glass breaking area but with within
FlWW2.CLW




              1/3012008        W                                                        -4'



                                                   I in drop ceiling; south side of


                                                    pled on the floor where the glass
 FLWB5                                          filters were           out               (j                       110


 FLWB6        1/3012008                                                 a                (j                       33
                                         Attachment

                            TCLP        Data
                               Camp Building,




                                Mop bocke! water from mopping in
FlT-TQP-1    1/29/2008   TCLP   area                                                      0.78   <0.01

                                                                                   area
FLW-TCLP-1   1/30/2008   TCLP                                                                    0.01


                                Mop bLCket water from south hall area of building
FLW-TCLP-2   1/30/2008   TCLP   (Yklere a-wastes are trans orted to the outside           <0.1   <0.01

                                Debris from steel roll-oif container where scrap
                                metal e-wastes (primarily metal bands and
  FLWB4      1130/2008   TCLP   are collected                                             8.8    0,014
AttachDlent 3 

1. Staff members and inmate emlllm,rees                                                                    bc:\Irera,2e8   in an area with identified toxic
material C01ltaInmabClln                                                                                                                 lDC.luamg but not
                m                      oon~mm~"~~~



2. The                                                                                                                            emnIClIVe!'!!i   is not carried
out in accordance with                                                                                    pro~~ed.    orea)ared.    hlmc1led,      and stored in
such a manner as to be o.rc~tec:te<1
             warehouse from"
     L H " ......... ' ......" ....


                                         1910.

3. 	 1b.e                                            and          areas where                          em.l010"ees work are not
        clean tot he extent that the nature of the work allows. 'The work surfaces are COIltmniIlate:d                     and
             1910.                             air utilized to clean the work surfaces 

          and settle onto                          as well as 
                   the wu'eho,use OOI1WniDltilJIg

4. Staff members and inmate emltJlo"ees eXIlIOSE:Cl to     cadmium and barium are              skin and     irritation.
        have DOt been                          identified in the PPE hazard assessment to ensure protection from the'
Slhlll:n"mt1~n                 contact hazards with the identified chemicals.

5.

6. Staff members and        em.nlclvoe8 have not received ..'H'irc........"A mlformatlon    ttailling on cacIIlDium and barium
utilized in the      war'ehoiuse accordance with 1910.                                   traunng on cad;mium and
                                                                                     '"1n.n"10.'\"'"1'\                     has
occurred.

       meJnben and inmate CIDlllmrees                           asSllgru~ to   UNICOR duties have not been          infc~rmc:xl                    entleruLg into
emnlovment and at least                                                                of 1910.
                                         records covered      this section            data includJing,
                                      eva~ua'te the          of hazardous SUbStaIlCeti:); kllentlticatlc»n
                                               reco,rds: and each eml)lo"ees




                                                                                                                                               OSHA-7(Rev. 7102)
Page 2                                                        Wed Apr 20, 2005 1:53pm
U.S. DEPT OF JUSTICE. USP                                     Complaint NT. 204997704


                            Employer
                            Do NOT reveal my name to the Employer
                            D.Otber




                                                        AM
                                                        I'M




                                    Healtb-Serlous




COMMENTS 




                                                                      OSHA 001555

                                                                       OSHA-7(Rev. 1102)
On April 19,
   alleged haZarC1lous wOlrld.rl2 C()ndJLtloltlS
involves:

                                     lDIIlate   emmnIVef~~   are required to consume
                                                                     contamination in violation
                                                             IruLtelUi
                                                                                                                     not




                                                                            ".Il""-' ............   waren.ow~e       are
                                                                                                       i11U'"1ftft   use
                           o

        6. Staff members and inmate employees have not received effective information
        and training on cadmium. and bariwn utilized in the UNICOR warehouse in
        accordance with 1910. 1200(h)(2) and (3). No training on cadmium and barium
        has occurred.

        7. Staff members and inmate employees assigned to UNICOR duties have not
        been informed upon fIrst entering into employment and at least annually
        thereafter, of the requirements of 1910.1020(g)(l) including on the existence,
        location, and availability of any records covered by this section (sampling data
        including, but not limited to, air sampling and wipe sampling utilized to evaluate
        the presence of hazardous substances); identifIcation of the person responsible for
        maintaining and providing access to the records; and each employees right of
        access to these records. 191O.1020(g)(l).

OSHA has decided not to conduct an inspection in response to this report. However, since
allegations of the violation of standards have been made, you should investigate the alleged
hazards. Department of Labor regulations (29 CPR 1960.28) require that your inspection be
conducted within 3 working days for potentially serious conditions and within 20 working days
for other-thaD-serious hazards. Any necessary correction(s) should be made within 30 calendar
days after completion of the inspection. If correction(s) cannot be made within 30 calendar
days, please provide me with a detailed abatement plan. Your plan should include:

(1) 	   All steps taken and the dates of such action to achieve compliance during the prescribed
        abatement period.

(2) 	   The specific additional abatement time estimated to achieve compliance.

(3) 	   The reasons such additional time is necessary. including the unavailability of professional
        or technical personnel or of materials and equipment, or because necessary construction
        or alteration of facilities cannot be completed by the origina) abatement date.

(4) 	   Interim steps being taken to safeguard the employees against the cited hazard during the
        abatement period.

Since the complainant has requested to remain anonymous, please advise me in writing, within
30 calendar days after completion of inspection, of your finding(s) and of any action you have
taken. Your response should be detailed, stating specifIcally what corrective action(s), if any,
were taken. If it is determined that, based on the report, no hazards exist and an inspection will
not be conducted, please notify me in writing within 15 calendar days of receipt of this letter.
We have notifIed the complainant that the complaint has been forwarded to you for action, and,
if the hazard is not corrected, to notify us. We will forward a copy of your report to the
complainant.



                                                2




                                                                                       OSHA 002004
You should enclose any supporting documentation on the action(s) taken. such as monitoring
results~ new equipment orders, or photograph(s)           condition.

If we do not receive a response from                  ,-,au.,uucu days, indicating that appropriate
action has been taken or that no n~'7~1"rlnn., conditions exist, an OSHA inspection may be
scheduled. In addition, it is OSHA policy to       for an inspection a random sample of cases
where we have received letters from             which indicated satisfactory corrective action.
Such inspections are to verify that the action            has actually been taken.

If you have any questions or                                            please contact our office.

Sincerely.




AJH:lam
enclosure
cc:complaint file (204997704)




                                                3





                                                                                         OSHA 002005
April 26, 2005


Andrew J. Hedesh, Area Director
Occupational Safety and Health Administration
7 North Wilkes-Barre Boulevard, Suite 410
Wilkes-Barre, PA

Dear Mr. Hedesh,

This correspondence is in response to the fax I received on April
22, 2005, an O.S.H.A. complaint, #204997704,regarding allegations
on our Unicor Recycling Factory.

Investigation of these complaints revealed the following.

Allegation #1
Staff members and inmates are required to consume food and/or
beverages in an area with identified toxic material contamination
in violation of 1910.141(g) (2). The Unicor warehouse lunchroom
surfaces, including but not limited to, tables, are contaminated
with lead, cadmium, and barium from work, processes, compressed
air cleaning processes and employee clothing. The lunchroom is
not sealed off from the work area.

Response:
The results of our review indicate that we are not in violation
of 1910.141(g) (2). The Unicor Recycling Factory does not have a
lunchroom. Inmate workers eat lunch at the Federal Prison Camp
Food Service. Unicor staff may eat in the staff dining room,
staff lounge, in their office, or any dining establishment in
close proximity to the institution. The Unicor Recycling
Factory, through good work practices and isolation of the CRT
glass breaking area, keeps the areas clean of cross
contamination. unicor recently purchased a cleaning product,
"D-lead", to improve sanitation in this area. The use of
compressed air to clean work surfaces is forbidden and monitored




                                                                    IEVT0077 I 1 

   the          staff members.




                        lity and operat               food consumed
                    and inmates is not                 accordance
        sound hygienic principles. The                  is not
                      t handled, and scored    such            as to
                against contamination from lead,
               that disperses throughout the
                 , employee clothing and
                             air utili


              ion does not apply to this
              lunchroom located
                             is performed
                        The inmates who
                       1 eye protection,
                      ion of the glass breaking,
                   a HEPA                At no t
                  air or are they allowed to eat
area.


                     triage, production             areas where
              and inmates work are not            to the extent
tpat the nature of the work allows. The work surfaces are
contaminated with lead, cadmium and barium, 1910.141(a) (3) (i).
           air utilized to clean work surfaces               ized
          les where they spread and settle onto the work surface
         well as spread throughout the warehouse contaminating
other areas.


                      factory, through good work      ices and
                            breaking area,
   cross                  Unicor recently
         "D-lead", to         sanitation in this area. The use of
           air to clean work surfaces is forbidden and monitored
               staff members. Note: See attached




                                                                       IEVT007710 

Allegation #4
Staff members                               to lead, cadmium and
barium are                                         They have not
been provided
assessment to ensure
or physical contact

Response:
The Unicor
complaint of
          all                                are completed by our
medical       f                   is            PPE is
provided as                      assessment for this area.  (See
Attached. }

Allegation #5
Staff members and inmates         in             warehouse are
exposed to compressed air utilized for           that exceeds
30 p. s . i . ,   use

Response:
Inmates do not utilize                 when                  area.
Two HEPA vacuums (see attached    cture) are utilized at the CRT
glass breaking station.   Inmates who are            work in the
CRT glass breaking stat     do not have access to   r 1

Allegation #6
Staff members and inmates      not rece      effect    information
and training on cadmium and barium utilized     the Unicor
warehouse in accordance with 1910.1200(h) (2) and (3). No
training on cadmium and        has occurred.

Response:
Hazard Communication training was               the
recycling detail on March 14, 2005.          communication is also
provided upon initial assignment to           1 at the
    itution.       led                           the workers who
perform the CRT                                        22, 2004.
Training packets                                                 the
hazards from the CRT
offered to all the
factory.

Allegation #7




                                                                       IEVT007709 

    f members and                               Unicor duties have
not been informed                                      and at
                                                   1910.1020         (1)

                                                               not
                                                    to evaluate
             of hazardous substances)i identif        of the
person respons                     and           access to the
records; and each                 of access to these records.


                                           1 ensure that staff and
                                             notified of the
                                          any records
                                             data,
                                             of hazardous
                information is                     the inmate
                      issued       s.                               to
                  of         and annual                         a




If   can be of further ass
     I                                                     to
                   feel free                                at 570­
523-1251 1 ext. 136,


s



Warden
Referral Report


ESI:lbli.hmel1l
InformatlOll
                                                                                                                                    119




HAZARDDESCRI PrION:



                           10 Ira\)    melal~, illclwillg lead• .:admlUm and herylhwn fronllhc                       recyclingof cathode ra}
                  I'.""i""".. ;.   n'lllrol~. personal PHllC,;tiv,; equipment. housckeeping, dlld                         n'laY be dcficielll.
                                   repair or mal IlICrlllOCC of lit: systems, may he fXlIclllially cx~d   10 heavy




Eric W011gang· Compliance Safety and Health Officer
      (570) 826·6538, ext #15
FAX (215) 754·4221
e-mail: wolfgang.eric@dd.gov




                                                                                                                                                 IEVT007651 

REFERRAL NARRATIVE 

INSPECTION 310227467 


Tbis inspection was initiated as a        of a referral from the OSl-!A National Office regarding 

cathode ray                                     at the U.S. Penitentiary in Lewisbmg, PA. 

referral alleged           {lrnmaltes} are exposed to heavy metals, including lead. 

beryllium, from the breaking          recycling ofcathode ray tubes (CRT's). The initiation 

this inspection was                   the old recycling building was demolished in 2006 and 

construction ofa new                       completed. This inspection was initiated April 10, 2007. 


                                                       during anyone work period.
Prisons (BOP) has a                 policy which directs no more than 4 homs of daily eXl)OSure
to the breakil!g operation. Historical industrial hygiene surveys have shown that no ____,___                 J


are exposed to                   above the OSHA PELs at this facility. Typically. 

affected employees will               either before or after their lunch ......&""'.... vv".....v.Jl...u.l. 

affected employees may work a short sbift before lunch, as well as, a short shift 


Employees wear full         hooded,           with HEPA filters. Tyvek full body 1'''''''''''''' 

severaIlayers of gloves are worn. Layers include a leatherlkevlar outer glove. kevlar 

and inner layer           oflatex gloves. The kevlar sleeve-lets are to protect 

from the sharp                   cathode ray tubes as they' are being broken 

toed boots with        outer booties are also worn. 


Breaking of the CRT's occurs within an enclosed room. The room has no exhaust ventilation nor
HVAC registers of any kind. Entrance to the room is via a door or through the front wall which
                      plastic        curtain (photo page 6). One small window is on the of the
                 ...."'lPTE>ri with plastic strap curtain.



Within the breaking         two small booths are located side by side. Both booths              plastic
strap curtains which eXllena out from each side and cover the face of the booth.           top of this
                            of these booths haS a recirculating ventilation .","',,"'"" which provides
                         outside, pulls air into the booth             it.                   IS
                          room (photo page 7 and 8). Their "'>.4lo.U,:)"      are equipped with both
                                The secondary filters are REPA

CRT's, both vacuum-intact, and those that may have alreadybeen              transit, are      by
a third           located outside the breaking room. They are manually lifted      passed through
the room's curtained window onto a roller conveyor inside the room (photo        6). This task is
designated as           . Typically a paper 112 mask dust          Wilson CPt 000, is worn by
this employee. This respirator is not HEPA rated, but is a basic     strap dust respirator (also
worn by a             employees throughout the general disassembly areas of the UNICOR
Recycling facility).      BOP did not fit test employees for these            These employees
were                  medical evaluation criteria under 1910.134.

The          are pushed into the first booth, designated as Unit 1                 p.m1nl,,'..,.,...   then reaches



                                                    I.                                                            OSHAQ02134
through the plastic curtain and breaks the funnel and neck of the CRT with a hammer. Once this
is done, the face ofthe CRT is passed to the adjacent enclosure, designated as Unit2B, where the
face glass is broken. The goal6fthe two step breaking process is to separate the funnel and neck
glass from the face glass. Occasionally, an electronic yolk, which.s1¥I'ounds the neck, is removed
during the first breaking operation. This yolk is then handed back to the employee outside of the
room through the curtained window.

As the CRT's are broken. the glass pieces fall through the grated opening of the work surface and
into containers below. When filled, these containers are removed from the breaking room. The
removal is performed by employees who are not in full PPE and do not wear respiratory
protection. These material handlers briefly enter the breaking room to assist with switching of
the full and empty containers. Prior to removing the containers, tbe breaking stops. The sides
and other exposed surface areas of the containers are sprayed with liquid (de-lead) cleaner and
wiped' with cloths. Empty containers are brought in as replacements and the breaking continues
to the end of the work time.

Typically, the two employees rotate between Unit IB and Unit 2B about halfway through the
work shift. The duration of exposure is determined by inventory and available time on that day.
Additionally, as noted earlier, daily exposure for any employee is not to exceed 4 hours. Review
of past task logs and inventories revealed that this practice was being followed. Review of past
logs revealed that the amount of CRT's broken on any particular day varies. This factor is
determined by several inventory parameters. Since CRT's with similar attributes are grouped for
the purpose of end product glass, daily inventory may vary. It was learned that CRT's are sorted
by light color emitted during past operation. For example, monochromatic black and white
CRT's would be separated. Monochromatic amber or green tubes also would be separated.
Color tubes also were segregated.

Observations made during the breaking operation revealed slight visible dust being liberated
from the CRT upon initial shattering. The dust appeared as fine light colored powder. The dust
was quickly pulled into the filtering media of the Unit 1B enclosure. Some'dust was observed
during further breaking of the glass in Unit 2B. In all cases, no dust was observed leaving the
booth enclosures. A review of the CRT manufacturing industries history revealed that the dust
that is generated is generally comprised of the phosphor coating on the glass. Primarily the face
glass is coated glass arid the neck glass mayor may not have similar coating. .The phosphor
coating chemical composition is generally that of metal oxides which exhibit light enhancing
qualities. Given the violent decompression that occurs when the tube is shattered, any loose dust
within the tube is disturbed. Further breaking of the glass disturbs the intact phosphor coating
which, up until that point had remained adhered to the glass.

OSHA personal samples were analyzed for the following: Solder rcp (includes: copper. silver,
beryllium, zinc, lead, cadmium, antimony, and tin). hexavalent chromium, yttrium, and total dust.

No dust was observed leaving the breaking room through the plastic curtain strips. None the
less, it will be recommended that the room be placed under negative pressure with respect to the
overall UNICOR Recycling Center. Some guidance on this control was provided to UNICOR.


                                            '~.
                                                                                           OSHA002135
In addition, HEPA filtration of any                  is highly recommended to prevent contaminants
from being re-entrained.

A review of maintenance on the                      enclosures revealed that any filter changes were
performed by the employees        were                   full PPE as dictated for breaking
operations. Filters were periodically dlSI~ar(1ed into sealed waste containers. As documented by
the manufacturer's literature                          of the enclosure, filter changes are very
easily performed                                                Manometers are mounted on both
units and a                                                      are to be changed. No filter change
was performed during the

There is some potential                  to be transported out of the breaking room on the bottom
of employee ,shoes when                   are removed by the material handlers. A tack mat could
be placed on the floor               outside of the room, so that employees could clean their shoe
bottoms prior to walking to other. areas. The tack mat would also clean the wheel surfaces of the
hand trucks which also           room during receptacle switch. The earlier industrial hygiene
evaluations of such surface dust           that the amounts quantified via wipe samples were
generally not above any              consensus standards. Given that no food is               the
UNICOR recycling          no                                                                     in
the area so that employees can wash

At the end of the breaking operation, employees would clean the exterior of the units,
receptacles, and other horizontal work surfaces. Typically these surfaces were sprayed with the
liquid cleaner (de-lead)           with cloths. A HEPA filtered vacuum was also used for
cleaning of the floor.

After cleaning, the                  w~)Uld exit the area to an adjacent enclosed changing and
washing room. Employees vacuumed offthe exteriors of their PAPR hoods and entire body with
a REPA filtered vacuum.         vacuuming, they removed their PAPR, coveralls, gloves and
booties. The coveralls,        and      gloves were discarded. Their PAPR and leather outer
gloves were cleaned with (de-lead)            which they washed their hands.

     exposed emltHc.yeC:!IS                                         lunch, these two employees worked outside of
the breaking room.                                                         lUnch. A review of the historical task and
inventory records                             ....,....,• .....,. <>(.UJ""""U5 was representative   a typical day.

These two                                      disassembly of television 

the remainder of                                      by llNICOR as "monitor tpl'Ilrnn'Wn' 

"general disassembly",        employee donned a Wilson CP1000 "dust mask", while 

wore no respiratory protection (photo page 10).       employees who perform ...'"'u.....".. +...<>"";1"""" 

as 'well as all other employees the             Center. wear uniforms consisting of cotton 

sleeved              long      Most employees also wear cotton work gloves. These clothing 

articles are worn by the           after leaving the Recycling Center at the end of the workshift. 

The clothing is laundered under         regular procedures. 


                                                   s.
                                                                                                                        36
A review of the OSHA sampling results are as follows:

Hexavalent Chromium = non-detected

Yttrium = non-detected

Barium = non-detected

Total Particulate = 0.87 mgIM3 8 hour TWA or 5.8% of PEL
       (0.39 mgIM3 concentration while in CRT breaking booth)
       (2.14 mgIM3 concentration while in general disassembly area)

Lead = 6.19 !lgIM3 8 hour TWA or 12% of PEL
       (non-detected while in CRT breaking booth)
       (aU exposure incurred while in general disassembly area)

Cadmium = 0.68 ug1M3 8 hour TWA or 14% of PEL
      (non-detected while in CRT breaking booth)
      (all exposure incurred while in general disassembly area)

In evaluating the sample results, it is noted that employees receive a majority of particulate, lead
and cadmium exposure while perfonning general disassembly work and only a small percentage
of dust exposure in the CRT breaking booth. Noticeable dust was observed during general
disassembly when CRT's (television picture tubes) were removed from their cabinetry. The
heavy metal exposures incurred in the General Disassembly area, are from oxides of lead and
cadmium. Visual dust is generated during rigorous handling of the appliances and sub parts.
The source ofthe metal exposure is from the metallic soldered parts and connections, which are
often severely disturbed during disassembly of the televisions, oscilloscopes and other CRT
containing appliances. Since some appliances are 30 years old, oxides have no doubt formed on
exposed solder and metallic surfaces. Once fonned the flaky. dusty oxides are easily made
airborne during handling. No compressed air is used to blowout the appliances during
disassembly. Air hoses are present for the use of air tools. No blowing nozzles are present in the
areas.

An additional source of exposure may be the tracking oHead and cadmium containing dust from
the floor of the CRT breaking room. Employees and wheeled hand trucks enter the CRT
breaking room to retrieve materials on a limited basis. Se~led dust which may be on the floor is
tracked out of the room and into the General Disassembly area. Whereas the floor of the CRT
breaking room is cleaned with HEPA vacuums and D-Lead spray at the end of the shift, no such
interim cleaning takes place. The entry and use of wheeled equipment is necessary throughout the
breaking operation.

Brooms were used for floor cleaning in the General Disassembly area. Brooms are specifically
prohibited in the CRT breaking room. Several floor pedestal fans were noted in the General
Disassembly area. D-Lead cleaning spray and cloths are used to clean bench surfaces and




                                                                                          OSHA002137
                                                                            .­
counter tops. 


A citation will be proposed under the lead and cadmium standards           lack ofappropriate 

housekeeping to control dust which accumulates on             work benches and floors of the General 

Disassembly areas. The use of brooms is not a SatlSIClCt()ry 

exacerbate the lead and ("<Jrln.'llYn .." ...."',,, .....,, 

spray will be recommended for housekeeping. 

any highly dusty appliance interiors upon initial                             vacuums can also be 

used to clean the floor of the General Disassembly area. 


    proposed citation will also address potential .......,....."'1'.,""              cadmium from the CRT
breaking room to the General Disassembly area.               use                     will be recommended for
cleaning the !>ottom of shoes, as an abatement method.                      the small degree of contamination
and exposures below the Action Level (AL).                              is not required to implement feasible
engineering or administrative controls.

A 5(a)(1) letter ofrecommendation will be sent to the employer to address a potential heat stress
hazard. Currently, no air exchange occurs the                 room and workers wear heavy
full body coverings. During hot days, employees                to potential heat stress. The
installation of a HVAC system within     CRT            room can also assist in providing the
room with negative pressure to prevent any potential contamination leakage to the outside.
u. S.    pepartment of L(e- ..                            .
OccupatIonal Safety and Healt11 AdrmmstratlOn

Worksheet 

    JuI 20.2007 4:17pm




29 CFR 1910.1025 (h)(1) All surfaces shall be maintained as free as practicable of accumulations of lead:

        a) UNlCOR Electronics Recycling Center, General Disassembly Area; an individual was exposed to lead
        at an 8 hour time weighted average of 6.19 "g/M 3 and dry sweeping of the    with a push broom was
        observed in the immediate area, April 18, 2007.

        b) UNICOR Electronics Recycling Center, General Disassembly Area; an individual was exposed to lead
        at an 8 hour time weighted average of 6.19 "81M3 and    volume           floor        fans were
        observed in the immediate area, April 18, 2007.

        c) UNICOR Electronics Recycling Center. General lJuI8ss:em.bly 

        at an 8 hour time weighted average of 6.19 "g/M 3 • 
            were observed
        wheeled carts to remove equipment from the CRT Breaking Booth. 
 The shoe soles of .....,1\1""'_
        wheels of equipment were not cleaned prior to         the CRT 
          Booth.
        tracking of settled dust from the floor of the CRT 
       Booth to
        Area. April 18. 2007. 



        ABATEMENT NOTE:.­

        H""«U"~" a) Dry sweeping shall be prohibited in this area. The ..............·.15      tloors                      vacuums and
        the use of D-LEADo, or other suitable liquid. is an acceptable means                1,;1CillUlll.!   the floors.

        Instance b) The pedestal fans shall be removed from this area. _ The high volume of air             by these
        units is capable of blowing dust from the floors and other surfaces into the breathing zones of the
        individuals. The use of slow speed ceiling fans is an acceptable means of providing           venltilation.

        Instance c) The placement of adhesive tack floor mats at the open edge of the CRT Breaking Booth. is an
        acceptable means of control. The placement of additional mats at the two main          of the
        Disassembly area is highly recommended. The manufacturer's replacement and __,,- ___ ,,.,u.....,.......
        followed.




                                                                                                                                OSHA002148
                                                            InslleCtlOn Nr. 31




20. Instance   ~Jcripti(m
                  ~~:Md:s-Q~nitio[uC()ooiltioll-Ac:ctd~t;                        10'.1. ....' ...lll.   in the General
                                                                                                                       Additional
                                                                                                        eQluplnelat wheels
                                                                                         .......,......... ,.. . . U1lsa:sseJmblly area
                                                                                                                   DO'V"en~ floor
                                                                                                             occasilmally used


                                                                                 Di5.ass;embly Area




                                                                                                                               08H,.\002149

                                                                                                                OSHA·1B/IBIHprint(Rev.9193)
Page 3      (e                     Frl Jul20. 2007 4:17pm
         310'",,,,,,467 Citation Nr. 01            001




                                       OSHA002150

                              OSHA·1S/I BlHprim(Rev. 9/93)
u.   S. Department of
Occupational Safety and

Worksheet
Fri luI 20, 2007 4: 17pm




29 CFR 1910.1027 (k)(l) All surfaces shall be maintained as free as practicable of accumulations of cadmium:

       a) UNICOR Electronics Recycling Center, General Disassembly Area; an individual was exposed to
       cadmium at an 8 hour time weighted average of 0.68 J'g/M 1 and dry sweeping of the floor with a push
       broom was observed in the immediate area, April 18, 2007.

       b) UNICOR Electronics Recycling Center, General Disassembly Area; an individual was exposed to
       cadmium at an 8 hour time weighted average of 0.68 J'g/M l and high volume pedestal floor cooling fans
       were observed in the immediate area, April 18, 2007.

       c) UNICOR Electronics Recycling Center, General Disassembly Area; an individual was exposed to
       cadmium at an 8 hour time weighted average of 0.68 J'g/M J • Individuals were observed walking within
       and using wheeled carts to remove equipment from the CRT Breaking Booth. The shoe soles of
       employees and wheels of equipment were not cleaned prior to leaving the CRT Breaking Booth. This
       allowed the tracking of settled dust from the floor of the CRT Breaking Booth to the adjacent General
       Disassembly Area, April 18. 2007.


       ABATEMENT NOTE:

       Instance a) Dry sweeping shall be prohibited in this area. The cleaning of floors via HEP A vacuums and
       the use of D-LEAO°, or other suitable liquid, is an acceptable means of cleaning the floors.
                                                                     -
       Instance b) The pedestal fans shall be removed from this area. The high volume of air generated by these
       units is capable of blowing dust from the floors and other surfaces into the breathing zones of the
       individuals. The use of slow speed ceiling fans is an acceptable means of providing general ventilation.

       Instance c) The placement of adhesive tack floor mats at the open edge of the CRT Breaking Booth. is an
       acceptable means of control. The placement of additional mats at the two main egresses of the General
       Disassembly area is highly recommended. The manufacturer's replacement and disposal schedule shall be
       followed.




                                                                                                        OSHA002151

                                                                                               OSHA-l BII BIHprint(Rev. 9/93)
                                                                                                                  Fri JuI
                                                    IDSlr>eCtJOn Nr.                                   Citation Nr. 01 .....            L ... ' ' - '. . UU, ....




20. Instance Des,cription
                                                                                                             in the General
                                                                                                                     Additional
                                                                                                         eQulpntent wheels which
                                                                                             .........,....... '....   Dlisal~seJnblly area
                                                                                                                                DO'Ii1'Jerc~ floor
                                                                                                                         occasl(maIly used


                                              work floors in the General           V1~lass:em.bly                       Area
                            Di!u\s!!I:embly Area  .
                                  caclm.lllm inhalation exposure
                                                       or




                                                                       ..... >-.<u.....u.L    measures




                                                                                                                                    OSHAO:i2152

                                                                                                                            OSHA· 18/1 BIHprint(Rev. 9/93)
Page 6                  (A                fA                Fri JuI
u.s. DEPT OF JUSTICE, USP Lh~BURG   Nc. 31d-&~67 Citation Nr. 01




                                                                      OSHA002153

                                                           OSHA-I Sf 1BIHprim(Rev. 9/93)
54 

Sun




29 CFR 1910.                      were not made acc,onlm2
               """"F'\i"'lIti'\"1:!                         the manufacturer's recommendations and
                               to be performed.




                                                                             UO.HIro.- .....,   1EIIHprint(:Rev 9193)
     2
                                                                 8, 2007 

U.S. DEPT OF                         Vit.#J...J.".I.J   CitatioD Nr. 01 ..
                                                                         1c,""J..U''LlIlL. ..l.U   001




20. Instance De.,cripti{lD




                                                                     OSHADD2251
                             cease                                    use


                                                                                                   9/93)
Page 3                    • .')                                                       Sun Apr 8, 2007 9:08pm
U.S. DEPT OF JUSTICE, USP   ,iSBURG              Inspection Nr.•   .....125305 Citation Nr. 01 Item/Group 001

      25. Other Employer Infonnation : N/A




                                             o




                                                                                           OSHA002252

                                                                                   OSHA-l 811 BIHprint(Rev. 9/93)
               Fax




WO]rlq)l~ace   on




                     I   reccrrmtJlCrul   some correc1tiVe
    9SHA sampling results. As                       there were no exposures above the OSHA   pernu~iSlbrie J:lx.p()swre
.   Limits.


           JOBllTLE              CONTAMINANT               EXPOSURE         PERMISSIBLE          DETECTION
                                                           LEVEL - 8 hour   EXPOSURE             LI.MlT
                                                           TIme Weighted    LIMIT
                                                           Average
           CRT Breaker           Total Dust                0.87 mgIM3       15 mglM1             0.01 mg

                                 Lead                      6.191l)g1M'      5OCPgIM:l            2.5 (l)g

            CRT Sremr            Cadmium                   0.68 <J>g/Ml     5 CPg/M1             0.25 <;IIg

            CRT Breaker          yttrlwn                   Non·detected     1 mgIM3              5.04>g

            CRT Breaker          'I-f"T~v"l ....t          Non-detected     5 CPg 1M3            O.02¢ig
                                 Chromiwn
            CRT Breaker          Bariwn                    Non-detected     O.5mgIM3             5.0 CPg




    '" mgIM3 == milligrams per cubic meter of air
    '" (l>g 1M3 ==           per cubic meter of air
    '" CPg ==            per


    Respectfully.



    ~
    :ntu~
    cc: Case file 310221467
        Union Local 148




                                                                                                                          157993
                                                            U.S. Department of
                      Justice

                                                            Federal Prison System
                                                            United Slales Penilenliary
 - - - - ­ _-_ ... _--_._­
              ..



Office if/he Warden                           2400 Robert Miller Drive
                                      Lewisburg. Pennsylvania J7837


August 23, 2007


Andrew J. Hedesh, Area Director
Occupational Safety and Health Administration
Wilkes-Barre Area Office        '
7 North Wilkes-Barre Boulevard, Suite 410
Wilkes-Barre, PA 18702-5241

OSHA CASE FILE 310227467
(dated: August 6, 2007)


Dear Mr. Hedesh


This correspondence is in response to your Citation concerning Notice
of Unsafe or Unhealthful Working Conditions at the Federal Prison
Industries, Lewisburg, PAw

The United States Penitentiary Lewisburg, PA, operates a Federal
Prisons Industries (UNICOR) Computer Recycling Program. The Satellite
Prison Camp employs 74 inmates in the UNICOR program.

ONICOR's unique, full-service recycling program is an integrated part
of national e-scrap solution for obsolete electronics. ONICOR's
processing methods begin with receiving, testing, and auditing the
equipment. Equipment is first assessed to determine whether it can be
used for its original purpose. If reuse is not an option, the
equipment is then de-manufactured for recycling. Non-functional
equipment is mined for functional components such as memory, wire,
circuit boards, mice, and Ethernet cards before it is de-manufactured.
Using a method called single-stream recycling, non-functioning
equipment is broken down into residual materials.

If I can provide you with any additional information, please advise.

                                Sincerely,




                                Warden,
Attached is a detail response of your          dated August 6, 2007.

Citation 1. Item 1a:        of Violation: Serious

29 CPR 1910.1025 (h) (1) All surfaces shall be maintained as free as
practicable of accumulations of lead:

8)




RESPONSE:

                   No Dry                    be posted in all
            disassembly areas. Workers will have spray bottles with
            H20 to              the       before sweeping. D-Lead
             (clean       is then used to clean floors and work
            benches.      workers will be given           in Personal
            Hygiene &          Procedures at a Town Hall meeting to
            include an           acknowledgment sheet for the material
            covered.


b)




RESPONSE:

                          tal                      removed from the
                                                     will be used in the
                                                          to be changed
            out of the air                          be sent out to be
            TCLP tested for heavy          Until l it is determined the
            method of                               all personnel
                                                    Personal Protective
            Equipment.
RESPONSE

    Tack mats will be placed at the                                s
             booth. The carts will                          tack mats
    when exiting the booth removing any dust                   will be
    placed at the two egresses for all CRT booth workers to       on
    after removing their booties that are worn in the booth. The tear
    offs from the adhesive tack mats will be          of with the
    hazardous waste.
FCI MARIANNA 

(~            DEPARTMENTOFHEALTII&HUMAN SERVICES                Program Support Center
                                                                u.s. Public Health Service
. . :::l'r                                                      Federal Occupational Health Service




              EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                HEALTH INFORMATION RELATED TO UNICOR 

                  E-WASTE RECYCLING OPERATIONS AT 

                            FCI MARIANNA 


               PREPARED FOR THE UNITED STATES DEPARTMENT OF JUSTICE
                         OFFICE OF THE INSPECTOR GENERAL




             Submitted to:

                               Oversight and Review Division
                               Office ofthe Inspector General
                               U.S. Department of Justice



             Submitted by: 	   Mr. George Bearer, CIH
                               FOH Safety and Health Investigation Team
                               Program Support Center
                               U.S. Public Health Service
                               Federal Occupational Health Service



                                            April 28 , 2010
                                                      Table of Contents


1.0 	 INTRODUCTION ..................................................................................................... 1 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI 

      MARIANNA. ............................................................................................................. 2 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      FCI MARIANNA ...................................................................................................... 7 

      3.1 	 Safety and Health Practices and Procedures to Control Toxic Metals Exposure 

            ........................................................................................................................... 8 

      3.2 	 Safety and Health Practices and Procedures to Control Heat Exposure ........... 9 

      3.3 	 Safety and Health Practices and Procedures to Control Noise Exposure ....... 10 

      3.4 	 Other Safety and Health Practices and Procedures ......................................... 10 

      3.5 	 Environmental Procedures ......................................................... ............. ........ 11 

4.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ..................... ........ 11 

      4.1 Investigations for Exposure to Toxic Metals .................................................. 13 

            4.1.1 	 UNICOR Consultant Monitoring Report for Toxic Metals ................ 13 

            4.1.2 	 OSHA Exposure Monitoring for Toxic Metals and Other Findings .. 14 

            4.1.3 	 NIOSH/DART Monitoring for Toxic Metals ..................................... 15 

      4.2 Surface Wipe and Bulk Dust Sample Results ................................................. 21 

            4.2.1 	 Surface Wipe and Bulk Dust Results at Current Recycling Facilities 23 

            4.2.2 	 Surface Wipe and Bulk Dust Results at Legacy Recycling Areas ...... 25 

      4.3 Assessment of the Medical Surveillance Program.......................................... 26 

      4.4 Investigations for Heat Exposure .................................................................... 28 

            4.4.1 	 FOH and NIOSHIDART Findings and Recommendations for Heat 

                        Exposure ............................................................................................. 28 

            4.4.2 	 FOH Findings and Recommendations on the BOP Documents to 

                        Control Heat Exposure ........................................................................ 29 

      4.5 	 Investigations for Noise Exposure .......... ........................ ......................... ....... 30 

      4.6 	 Environmental Issues .............................. ... ......... ............ ... ......... ............ ........ 32 

5.0 	 CONCLUSIONS .................................. ............ ............ ............ ............ ............ ........ 33 

      5.1 Heavy Metals Exposures ................................................ ... .......... ... ......... ........ 33 

      5.2 Heat Exposure ................................................................. ... ......... ... ......... ........ 35 

      5.3 Safety and Health Programs, Plans, and Practices ......... ......................... ........ 36 

      5.4 Health and Safety Regulatory Compliance ..................................................... 37 

      5.5 Environmental Compliance ................................ ............ ............ ............ ........ 38 

6.0 RECOMMENDATIONS ..................... ... ......... ... ......... ... ......... ... ......... ... ......... ........ 38 

      6.1 Heavy Metals Exposures ................................................. ............ ............ ........ 39 

      6.2 Heat Exposure ................................................................. ........................ ........ 42 

      6.3 Safety and Health Programs, Practices, and Plans .......................................... 42 

      6.4 Health and Safety Regulatory Compliance ..................... ............ ............ ........ 44 

      6.5 Environmental Compliance ................................ ... ......... ... ......... ... ......... ........ 44 

7.0 REFERENCES .................................... ............ ............ ............ ............ ............ ........ 44 

                                      Figures

Figure I:     Marianna FCI UNICOR Factory Floor Plan (a)
Figure 2:     Marianna FCI UNICOR Factory Floor Plan (b)
Figure 3:     Marianna FPC Glass Breaking Area



                                      Tables

Table I:      Occupational Exposure Limits
Table 2:      Maximum Concentration of Selected Contaminants for the Toxicity
              Characteristic



                                      Images

Image I:      Marianna FPC Glass Breaking Booth Work Stations
Image 2:      Marianna FPC Glass Breaking Booth Work Stations



                                   Attachments

Attachment I FCI Marianna Wipe/BulklTCLP Data Table (Collected by FOH)
Attachment 2 FCI Marianna Wipe Data - Blue and Gold Buildings
Attachment 3 FCI Marianna TCLP Results - Blue and Gold Buildings



                                    Enclosures

Enclosure I   NIOSH Report: Control Technology and Exposure Assessment for
              Electronic Recycling Operations, UNICOR Recycling Operations,
              UNICOR, Marianna Federal Correctional Institution, Marianna, Florida,
              2008
Enclosure 2   OSHA Inspection Report, FCI Marianna November 2006
Enclosure 3   NIOSH/HETAB Letter toliliiliiiiiiiii, dated June I, 2009
Enclosure 4   Worker Heat Stress Meas~rianna; Memo from Paul Pryor,
              dated September 21,2007
Enclosure 5   FOH Report: Review of 'Heat Stress Procedures' and 'Operational
              Requirements' Documents Associated with Electronics Recycling
              Operations at FCI Marianna, May 2008
1.0       INTRODUCTION 


At the request of the U.S. Department ofJustice (DOJ) Office ofthe Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistleblower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR). I The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e., e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report 3 consolidates and presents the findings of technical assessments
performed at UNICOR's e-waste recycling operations at the Federal Correctional
Institution in Marianna, Florida (FCI Marianna) by industrial hygienists and other
environmental and safety and health specialists representing federal agencies including
FOH, the Centers for Disease Control and Prevention/National Institute for Occupational
Safety and Health (CDCINIOSH) Division of Applied Research and Technology
(DART), NIOSH Division of Surveillance Hazard Evaluation and Field Studies/Hazard
Evaluations and Technical Assistance Branch (DSHEFS/HETAB), and the Occupational
Safety and Health Administration (OSHA). Reports and field data from these agencies
are presented in the attachments and enclosures to this report (see references for these
reports in Section 7.0). The primary objectives of these assessments were to characterize
current UNICOR operations and working conditions at FCI Marianna in light ofthe
whistleblower allegations and to identify where worker exposures, environmental
contamination/degradation, and violations of governmental regulations and BOP policies
may still exist so that prompt corrective actions may be taken where appropriate. In
addition, this FOH report also relies upon information from documents assembled by the
OIG which were developed by various consultants, regulatory agencies, BOP and
UNICOR staff.

The overall purpose of this report is to characterize current operations and working
conditions at FCI Marianna (i.e., 2003 to present) especially with respect to the potential




           1 FPI, (commonly referred to by its trade name UNICOR) is a wholly-o"Wlled, Government corporation that
operates factories and employs inmates at federal correctional institutions.
           2 E-Waste is defined as a waste type consisting of any broken or unwanted electrical or electronic device or
component.
           3 FOR prepared this report in JlUle 2009 and its findings and conclusions address e--waste recycling
conditions knO\Vll to FOR at that time. FOR provided the report to the OIG, which shared it -..vith the BOP and sought
feedback on it. The BOP and UNICOR later provided their comments to FOR about the report's contents, which
resulted in FOR making limited changes to some text and figures, as reflected herein.
for inmate and staff exposures 4 that may result from present day e-recycling activities as
well as from legacy contamination on building components from e-recycling operations
which took place in the past. This report consolidates findings from those contributing to
the OrG investigation and evaluates additional information assembled regarding BOP and
UNrCOR recycling operations (e.g., consultant reports, programs and procedures, and
various records and documents). Conclusions and recommendations presented in this
report are based on the entire body of available reports, data, documents, interviews, and
other information.

Fcr Marianna is one of eight BOP institutions that have ongoing e-waste recycling
operations for which an assessment report has been or will be prepared by FOR. On
October 10,2008, FOR issued a separate report entitled "Evaluation ofEnvironmental,
Safety, and Health Information Related to Current UNICOR E-Waste Recycling
Operations at FCI Elkton" detailing current exposure conditions at FCr Elkton. The
FOR report for FCr Elkton should be reviewed for a more comprehensive discussion of
the hazardous components found in waste electronics, pertinent regulatory requirements,
and other information that provides additional context to this report on FCr Marianna.
FOR will be preparing assessment reports for the remaining BOP institutions that
perform recycling upon completion oftheir respective ES&R assessments.

Currently, e-waste recycling operations at FCr Marianna involve receipt of waste
electronics from various locations around the country, disassembly and sorting activities
(,breakdown'), and the associated material handling and facilities maintenance required
to support these operations. Although glass breaking was suspended in February 2008,
this report also addresses the glass breaking operation as it was conducted during the field
activities performed by FOR and NrOSRIDART in August 2007. FCr Marianna
recycling facilities and operations are described below in Section 2.0 in greater detail.


2.0 	     UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
          FCI MARIANNA

UNrCOR e-waste recycling operations commenced at FCr Marianna in 1996 as a pilot
project. As the operation grew, it was moved in 1998 to an offsite leased building,
known as the Blue Building. Some UNrCOR staff and inmates reported that computer
monitors were broken in Gaylord boxes in the back of semi-trailers while work was
underway in the Blue Building; however, others disputed this assertion. In approximately
1999, a demilitarization (demil) operation was started at the Federal Prison Camp (FPC)
that involved disassembly and refurbishment of electronics from local military bases.
The demil operation was closed in 2001. Blue Building operations were transitioned to
another offsite leased building known as the Gold Building in mid-200l. Then in August

           4 In this report, the term "exposure" refers to the airborne concentration ofa contaminant (e.g., lead or
cadmium) that is measured in the breathing zone of a worker but outside of any respiratory protection devices used.
Unless otherwise noted, "exposure" should not be confused -with the ingestion, inhalation, absorption, or other bodily
uptake of a contaminant. Concentrations reported and discussed in this report are not adjusted based on respirator
protection factors. However, when reported, it is indicated whether the exposure was -..vithin the protective capacity of
the respirator.
2002, UNrCOR began transitioning and expanding its operations to the FPC and the
FCr's main compound from the Gold Building. Operations began at the FCr in late 2002.
These operations involved computer disassembly and monitor refurbishment, including
sanding of the plastic that encases the monitor. Beginning in late 2005, CRT glass
breaking was performed at the FPC using a glass breaking booth with high efficiency
particulate air (HEPA) filtration under a conditional air permitting exemption issued by
the Florida Department of Environmental Protection. Based on a decision by an FCr
Marianna Associate Warden, glass breaking was suspended in February 2008 and has not
been restarted. Disassembly of computer monitors continues at FCr Marianna, but CRTs
(i.e., the glass tubes) are then shipped whole to a private recycling company. De­
soldering and chip recovery have never been performed at FCr Marianna according to the
Factory Manager.

As part ofthe OrG investigation, FOH and NrOSHIDART performed an on-site
evaluation ofthe recycling workplace in August 2007 to evaluate worker exposures to
toxic metals and other workplace hazards. Glass breaking was routinely performed at the
time of this evaluation. rn its report (see Enclosure I), NrOSHIDART described FCr
Marianna's e-waste recycling facilities and operations. This section summarizes
information from the NrOSH/DART report and other sources, and the information below
represents prevailing conditions and operations in August 2007. See Enclosure I for
more detailed information on FCr Marianna operations.

The recycling of electronic components at FCr Marianna is performed in two separate
buildings: the main factory located within the FCr's main compound, and the FPC
located approximately a quarter mile to the south on the same property. Diagrams of
these work areas are shown in Figures I and 2, respectively, with an enlargement ofthe
glass breaking area shown in Figure 3. These figures also provide the general layout of
the work process, although workers often move throughout the various areas in the
performance oftheir tasks. The UNrCOR FCr recycling facility employs approximately
205 inmate workers while the FPC employs approximately 86.
-III. ,
                     I
                          - -
                          _     Ell

                                         -
                                                I
                                                L
                                                                a
                                                                    t


                I
                I
                                     ­
                                   -:.I
                                    ---    -­
               II,            I I -.1 --
                                 .... I­
                                       1131 . .


                                     _..... "'_.........   ""                       _.._.. ....._. 

                                                                                             K'>"''' ,
Figur e l : M..-ianna FCI UNICOR Factocy Floor Pl an C
                                                     al [NIOSH 2008.b




                                          -
                     ""




                                                           ••           'ii!:.'




                              f PC FACTORY f l Om        P LA"
                                                                                  ..... ..:e"oOi'-,'
                                                                                       ~     . . . .,
                                   WJl COR REC YCLING


Figure2: M.-iann.3 FPCUNICOR Factory Flo(I Plan (b) [NIO SH WOSh ]
          .,.
                       IIlI 

                       IIlI 

          --                                                              ---
                                                                      --
   F' 3Jrt3: Mariaooa FP C GlaM :Br-e.lhlg Area [NIOSH 200<t»

As with other UN1COR &-WasI.e recycling operati ons, the recycling of eiecl£ooic
components at th is facility can be organiz ed inlo four production proc esses: receiving
and sorting, disasserOOly, glass breaking operations (currer.tly oo.spended), and packaging
and shipping. Cleaning and mainten ance in support of these processes are als o
conducted.

locoming m aterials destine d for recychng are received at a warehous e at the FPC where
th ey are examined and sorted Some items, s uch as notebook ComputClll, can be
upgraded and r esold. Th ere -items are soned forthat wI:.. Electroni c memory devi ces
(e.g., hard drives, disks, etc.) are removed and deg auss ed or shredded. Computer central
processing units (CPUs), servers, and similar devi ces aresenl for dis assembly at the F CI.
Monitors and other devices (e.g., televisi ons) that contain CRTs are separated and sent
for disa&lembly and removal of me CRT at another location within the FPC . Printellf,
copy machines, and any other device that could potenti ally contain t oner, ink, or other
expendables are segregated. Inks and tooers are removed before thos e devices are sent 10
th e FO disassembly area.

In the disassembly process, external cabineli! are removed from a ll devices and
segregated. Valuable materi als such as copper wiring and aluminum framing are
removed and sorted by grade fur further treatment (e.g. , s lripping inrulation from copper
wire), if ne cessary. CompooenlS such as circuit boards or chips that may have v alue or
that may contain precious m etals such as gold oc silver are removed an d sorted. With
few exc eptions, each of the w orL:ers in the main factory perfunns all tasks asso ciate d widt
the disa&<;embly of a piece of equipment using power t ools and hand tools. Tasks include
removing screws and other fasteners from cabinets, unplugging or clipping electrical
cab les, removing: circuit bo ards, and otherwise breaking die devices down into their
component parts. Essentially all components currently are sold for some type of
recycling.




Image 1: Marianna FPC Glass Breaking Booth   Image 2: Marianna FPC Glass Breaking Booth
                                             Work Station (plastic curtain pulled to the left to
                                             show first work station)


As observed in August 2007, glass breaking operations (GBO) (indefmitely suspended
since February 2008) involve the breaking of CRT glass from computer monitors and
televisions. Two inmate workers outside the glass breaking room move inventory for
workers conducting glass feeding (feeders) and glass breaking (breakers) activities. The
glass breaking room is equipped with horizontal flow modules (HFMs) which collect and
filter the air and recirculate the filtered air inside the booth. The booth is enclosed on
four sides and on top. There is no mechanical ventilation (i.e., at the time of the
NIOSHIDART field investigation) in the GBO besides the HFMs inside the booth
(Images 1 and 2 above).

Feeders lift the CRTs by hand from Gaylord boxes and place them on a roller conveyor
through an opening on the side of the glass breaking enclosure. The breakers roll the
CRTs onto an angle-iron grate for breaking. Each breaker stands on an elevated platform
facing the grate which is positioned in front of a local exhaust ventilation (LEV) unit
described by the manufacturer as a reverse flow horizontal filter module (HFM). As the
CRTs move from left to right in the booth, the electron gun is removed by tapping with a
hammer to break it free from the tube. Then a series of hammer blows are used to break
the funnel glass and allow it to fall through the grate into large Gaylord boxes (cardboard
boxes approximately 3 feet tall designed to fit on a standard pallet) positioned below the
grate. The CRT is then moved to the right where any internal metal framing or lattice is
removed before the panel glass is broken with a hammer by a second breaker. As the
glass is broken, it is allowed to fall into a Gaylord box. Various sources on-site stated
that "normal production" was approximately 300 CRTs per day. [Note: Also see Section
4.1.3 for addition information on the glass breaking facility that is presented in the
context of personal exposures determined by NIOSHIDART.]

The packaging and shipping processes returned the various materials segregated during
the disassembly and glass breaking processes to the warehouse to be sent to contracted
purchasers ofthose materials. To facilitate shipment, some bulky components such as
plastic cabinets or metal frames are placed in a hydraulic baler and compacted for easier
shipping. Other materials are boxed or containerized and removed for subsequent sale to
a recycling operation.

In addition to the routine daily activities in the four production processes described
above, cleaning and change-out of the LEV's high efficiency particulate air (HEP A) filter
system is performed as a non-routine activity. The two sets of filters in this ventilation
system are removed and replaced. This operation is of particular interest because of its
potential to result in worker exposures to toxic metals, particularly lead and cadmium.
The filter change is a maintenance operation that occurs at approximately monthly
intervals during which the ventilation system is shut down, and all filters are removed
and replaced. Initially, the exhaust system components, including the accessible surfaces
ofthe filters, are vacuumed with a HEPA vacuum. Then the filters are removed and
bagged for disposal. The area inside the filter housing is vacuumed. New filters are
inserted. The LEV system is then reassembled and any residual dust is HEPA vacuumed.

The NIOSH/DART report presents details on personal protective equipment (PPE),
respiratory protection, engineering controls, and work practices used during glass
breaking, filter maintenance, and other recycling activities. These controls are
summarized in Sections 3.0 and 4.0 of this report and detailed in the NIOSH/DART
report, Enclosure 1.


3.0 	   BOP/UNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT FCI MARIANNA

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H policy entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNICOR's compliance with this policy will be evaluated in the OIG's final report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples applicable to UNICOR's e­
waste recycling activities performed at FCI Marianna, particularly for glass breaking
include:

    • 	 29 CFR 1910.1025: Lead requires a written lead compliance plan;
    • 	 29 CFR 1910.1027: Cadmium requires a written cadmium compliance plan;
    • 	 29 CFR 1910.134: Respiratory Protection requires a written respiratory protection
        program; and
    • 	 29 CFR 1910.95: Occupational Noise Exposure requires a written hearing 

        conservation program. 


In addition to the specific OSHA standards listed above, another hazard associated with
FCI Marianna recycling operations is heat exposure, particularly when conducting glass
breaking and associated non-routine operations while wearing PPE and using respiratory
protection. Although OSHA does not have a specific standard for heat exposure, the
potential for heat stress at FCI Marianna warrants a heat stress program. OSHA can
regulate this hazard under its "General Duty Clause" [OSHA 1970] that requires
employers to furnish a workplace that is free from recognized hazards that are causing or
are likely to cause death or serious physical harm to employees.

Even when specific hazards do not meet the exposure threshold for a written standard
specific plan/program, a good practice approach warrants that a general safety and health
plan should be in place to identify workplace hazards and specify appropriate hazard
controls and safe work practices.

UNICOR's ES&H practices and programs associated with the e-waste recycling activities
conducted at FCI Marianna are discussed below.

3.1 	   Safety and Health Practices and Procedures to Control Toxic Metals
        Exposure

UNICOR-FCI Marianna issued a policy/guidance document entitled "Glass Recycling
Operational Requirements" (effective July 21,2006), which specifies requirements for
lead and cadmium biological monitoring, training, engineering controls, exposure
monitoring, PPE, respiratory protection, hygiene practices, housekeeping and cleaning
practices, and others. It also contains information that is required in a lead and/or
cadmium compliance plan.

NIOSH/DART reported on the type ofPPE and respiratory protection that was worn by
breakers and feeders during glass breaking operations. The PPE was consistent with the
requirements of the UNICOR operational requirements. The respiratory protection used
by breakers consisted of hooded powered air purifying respirators (PAPRs), which is
different from the full face-piece air purifying respirators specified in the operational
requirement; however, protection factors are similar for these respirators. UNICOR
should ensure that both its written requirements and current practices are consistent. This
document should be improved to accurately reflect all aspects of glass breaking safety
and health practices, hazard controls, and work practices if glass breaking operations are
resumed.

Since UNICOR at FCI Marianna requires use of respiratory protection during glass
breaking, non-routine maintenance of LEV HEPA filters, and cleaning activities, a
written respiratory protection program is required. FCI Marianna has a written
"Respiratory Program" dated October 7, 2005 and another very similar version with the
same document number dated October 24, 2005 (with pages dated October 24, 2006).
These documents address medical clearance, respirator selection, fit testing, training,
cleaning and maintenance, recordkeeping, and other subject matter. These respiratory
protection documents are for the institution as a whole, are fairly generic in nature, and
do not provide much specific information as it applies to respirators used during glass
breaking, LEV HEP A filter maintenance, or cleaning activities for recycling operations.
However, the "Glass Breaking Operational Requirements" discussed above supplements
the written respirator program with certain specific information on respiratory protection
practices for e-waste recycling. An important deficiency in both the operational
requirements and the respirator program is that neither document mentions the type of
respiratory protection in use: that is, hooded PAPRs. UNICOR should correct these
omissions by including requirements for proper use, cleaning, maintenance and other
requirements for the hooded PAPRs in use.

For general activities conducted on the factory floor (i.e., disassembly and materials
handling), a written safety and health document to define existing workplace hazards and
control measures is not in place for UNICOR recycling conducted specifically at FCI
Marianna. As a "good practice" approach, such a document should be developed and
implemented to concisely define the safety and health practices and requirements specific
to FCI Marianna recycling. The document should address PPE requirements or voluntary
use, hygiene (e.g., hand washing) practices, daily and periodic housekeeping and cleaning
practices, special training requirements for any hazardous equipment use or other hazard
controls, and other practices essential to conduct work safely. Non-routine or periodic
work activities should also be addressed in the document, particularly those that
potentially disturb dusts such as cleaning and handling/disposing of wastes from HEPA
vacuums or containers. The document could also specify requirements for periodic site
assessments, hazard analyses, inspections, monitoring, and regulatory compliance
revIews.

3.2    Safety and Health Practices and Procedures to Control Heat Exposure

During an inspection in November 2006, OSHA raised a concern over possible heat
exposure (see OSHA report, Enclosure 2). While at FCI Marianna in August 2007, FOH
and NIOSH/DART evaluated the potential for heat stress and found that heat exposure
exceeded the guidelines of the American Conference of Governmental Industrial
Hygienists (ACGIH) threshold limit values (TLV s). OSHA can apply these guidelines in
its enforcement of heat exposure controls under the General Duty Clause. [OSHA1970]
This condition places inmate workers at FCI Marianna recycling operations at risk of heat
stress. FOH issued a report on heat exposure at FCI Marianna in September 2007
(Enclosure 4), which called on UNICOR to establish a heat stress program. In addition,
NIOSH/DART presented findings on heat exposure in its report of October 2008 (see
Enclosure 1). Findings ofthese reports are summarized in Section 4.4.1, below.

At the time ofthe FOH and NIOSH/DART investigation, UNICOR and FCI Marianna
did not apply heat related exposure controls and did not have a heat exposure control
program. In response to the FOH report of September 2007, UNICOR developed a
policy document and a procedure addressing heat exposure and provided them to the
OIG. FOH reviewed the UNICOR documents and prepared a second report that
identified various deficiencies in the documents. UNICOR then redrafted the heat
exposure documents. The final written heat stress program will be evaluated prior to the
completion of the OIG investigation. See Section 4.4.2, below for additional information
regarding FOH's review ofthe two initial UNICOR heat stress documents.
3.3    Safety and Health Practices and Procedures to Control Noise Exposure

Noise exposure above the OSHA action level triggers the requirement for a written
hearing conservation program and implementation of associated practices. FCI Marianna
has a written "Hearing Conservation Program" dated October 7,2005. This program
includes audiometric testing, noise level surveys, training, and availability and use of
hearing protection in high noise areas. No information is included in the FCI Marianna
Hearing Conservation Program to indicate recycling activities that may require
implementation of hearing conservation practices. FOH found areas and activities with
noise exposure at levels that requires implementation of a hearing conservation program
(see Section 4.5 for further information). UNICOR should evaluate FCI Marianna
operations to ensure that sound level measurements are taken for potential high noise
areas such as glass breaking and disassembly operations/activities. UNICOR should
ensure that measures as required by the Hearing Conservation Program are implemented.
See Section 4.5 for a discussion of sound level measurements taken by the FCI Marianna
Safety Specialist and FOH, as well as OSHA recommendations that UNICOR perform a
complete noise survey. As discussed in Section 4.5, UNICOR has deficiencies in this
area at FCI Marianna.

3.4    Other Safety and Health Practices and Procedures

FCI Marianna also has other written safety and health programs, such as for confined
space entry and hazard communication. UNICOR should evaluate FCI Marianna
operations to ensure that implementation of written programs is effectively achieved.

UNICOR does not have an effective hazard analysis program in place at FCI Marianna
for its recycling activities. Some hazard analyses have been performed, but the process is
not a fundamental part of a safety and health program and is not adequately performed.
This also applies to many other UNICOR recycling factories. The following information
discusses the hazard analysis issue.

The FCI Marianna Safety Specialist conducted a hazard analysis of glass breaking in
December 2005. OSHA requires that such a hazard analysis be conducted to support the
specification and assignment ofPPE. The documentation ofthis hazard analysis could
include more detailed information, but it demonstrates awareness of OSHA requirements
for use ofPPE and intent to comply with its requirements. This hazard analysis calls for
the use of respiratory protection and the PPE that is in place for glass breaking. Such an
analysis, however, is not evident for filter maintenance activities, although similar PPE
and respiratory protection are used for both glass breaking and filter maintenance.

UNICOR has not conducted a complete noise survey at FCI Marianna. Some noise
monitoring has been performed but the quality ofthe data is suspect. (See Section 4.5 for
details.) In 2006, OSHA recommended that a complete noise survey be performed.

As part of e-waste recycling operations, FCI Marianna refurbished the plastic casing
around laptops. According to written process descriptions and the FCI Marianna Factory
Manager, this refurbishment involved manual sanding ofthe plastic using sandpaper,
sometimes followed by using compressed air to blow off accumulated dusts. This
activity was largely discontinued in 2007 and is now limited to the sanding of the plastic
comprising the outer portion of disk drive components. UNrCOR and FCr Marianna did
not conduct a hazard analysis for this operation to identify hazards and implement
appropriate controls. Hazards associated with this activity include inhalation of fine dust
particles and brominated flame retardants (BFRs), such as polybrominated diphenyl
ethers (PBDEs). BFRs in general and PBDEs in particular are found in televisions and
computers and have caused both scientific and public concern because they have been
found to bioaccumulate in humans. One group that is highly exposed to PBDEs is
workers within electronic recycling facilities. [Pettersson-Julander, et.a!. 2004] Elevated
concentrations ofPBDEs have also been observed in an electronics dismantling plant,
where elevated serum levels ofPBDEs have been documented. [Thuresson 2004]

As part of an overall safety and health program, UNrCOR should develop a thorough
hazard analysis program. This program should include baseline hazard analysis for
current operations and job (activity-specific) hazard analyses for routine activities,
activities performed under an operations and maintenance (O&M) plan, non-routine
activities, and new or modified activities. This applies to all UNrCOR recycling
factories.

3.5      Environmental Procedures

Fcr Marianna has a Hazardous Materials Management policy/guidance document dated
October 7, 2005. This procedure deals with the safe use, storage, and disposal of
hazardous materials at FCr and FPC Marianna. It concerns hazardous materials
associated with general operations and activities ofthe institution, but does not address e­
waste recycling. According to the document, FCr Marianna is classified and permitted
by the Florida Environmental Protection Agency (FL 1151909131) as a Small Quantity
Generator. Environmental issues associated with the e-waste recycling operations are
discussed in Section 4.6.


4.0      FIELD INVESTIGATIONS AND MONITORING RESULTS

Several field investigations ofFCr Marianna e-waste recycling operations have been
conducted since 2003. These investigations are listed below:

      • 	 The FCr Marianna Safety Specialist conducted noise exposure monitoring in
          November and December 2005.

      • 	 rn January 2006, a consulting firm retained by UNrCOR and FCr Marianna
          conducted a field investigation to evaluate surface contamination in the recycling
          areas, determine personal exposures to toxic metals, and evaluate the
          effectiveness ofthe LEV system used as an engineering control for toxic metals
          emissions during glass breaking.
    • 	 At the request ofthe DOJ/OIG, OSHA conducted toxic metals exposure
        monitoring at FCI Marianna in November 2006 and also made observations
        regarding other hazards such as noise and heat (see Enclosure 2 for the OSHA
        report).

    • 	 As part ofthe DOJ OIG investigation, NIOSHIDART and FOH conducted a field
        investigation in August 2007 to determine personal exposures to metals, noise,
        and heat, as well as existing metal surface contamination on various building
        components. NIOSH/DART prepared a report of its study to assess worker
        exposures to metals and other occupational hazards, including heat exposure (see
        Enclosure 1). Separately, FOH prepared a report on heat stress associated with
        FCI Marianna's recycling operations, and this report is provided as Enclosure 4.
        FOH testing data for metals are provided in Attachments 1-3.

    • 	 As requested by the DOJ/OIG, NIOSH/HETAB assessed the existing medical
        surveillance program for lead and cadmium exposures in February 2009 (see
        Enclosure 3 for the NIOSH/HETAB report).

Results of the UNICOR consultant study, OSHA study, the NIOSH/DART and FOH
studies, and the NIOSH/HETAB assessment are summarized and discussed in this
section. 5

Toxic metals of greatest interest for occupational exposures related to e-waste recycling
include lead, cadmium, and barium. Beryllium can also be associated with e-waste
materials and is also of interest because of its adverse health effects and low exposure
limit. These metals were the focus ofthe field investigations. See the FCI Elkton report
referenced in Section 1.0 for details regarding e-waste hazards.

Exposure monitoring results are compared to permissible exposure limits (PELs)
established by OSHA. In addition, non-mandatory ACGIH TLVsand NIOSH
recommended exposure limits (RELs) are also available for reference. Personal exposure
limits are often based on 8-hour time weighted average (TWA) exposures and the TWAs
are applicable to the exposures discussed in this report. Table 1 provides exposure limits
for lead, cadmium, barium, and beryllium. PELs and TLV s for other hazards can be
found in OSHA standards (29 CFR 1910) and the 2009 ACGIH TLVs. [ACGIH 2009]




5 Given the many variables that may impact air sampling and exposure monitoring, testing data and

findings can vary from one period to the next. Also, the findings, interpretations, conclusions and
recommendations in this report may in part be based on representations by others which have not been
independently verified by FOB.
                                                Table 1 

                                      Occupational Exposure Limits 1 


                                               LEAD            CADMIUM              BARIUM           BERYLLIUM
                                                       3                    3                3                   3
                                              (llg/m       )     (llg/m         )   (llglm       )     (llg/m        )

                                                                                                             5
OSHA PEL                                         50                 5.0               500                2
OSHA ACTION LEVEL'                               30                 2.5              N/A                N/A
ACGIH TLV (T otal Exposure)                      50                10.0               500               0.05 4
ACGIH TLV (Respirable Fraction)                 N/A                 2.0              N/A                N/A
                                                                        3
NIOSHREL                                         50                Ca                 500                0.5
Notes:
         1.   All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
               such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TLV 2009 adoption.
         5. 	 OSHA also has 5 Ilg/m 3 ceiling and 25 Ilglm 3 peak exposure limits.



Exposure standards for noise and heat are discussed in the sections below where results
ofthe investigations are presented.

4.1           Investigations for Exposure to Toxic Metals

Given the various materials and components in e-waste, recycling activities have the
potential to result in worker exposure to toxic metals including, in particular, lead and
cadmium. The magnitude and potential health consequences of exposures are dependant
on a number of factors such as workplace ventilation, work practices, protective
equipment utilized (e.g., respirators, protective clothing, gloves, etc.), duration of
exposures, and others. The FOH report for FCr Elkton should be reviewed for a more
comprehensive discussion ofthe hazardous components found in waste electronics, their
relative toxicities, pertinent regulatory requirements, and other information.

Three investigations that included evaluation of toxic metals exposure during FCr
Marianna's e-waste recycling operations are discussed below in chronological order of
the studies. These investigations were conducted by a UNrCOR consultant, OSHA, and
NrOSH/DART.

4.1.1         UNICOR Consultant Monitoring Report for Toxic Metals

A UNrCOR consultant conducted exposure monitoring of FCr Marianna glass breaking
and associated activities on January 19, 2006. This monitoring included both personal
and area air monitoring inside and around the glass breaking room. Four personal
exposure samples were collected on inmate workers performing glass breaking. Two
background area air samples were also collected. In addition, surface wipe and glove
wipe samples were collected. Samples were analyzed for lead, cadmium, barium, and
beryllium. Results are summarized below.

   • 	 All personal breathing zone samples for the four metals analyzed were below the
       action levels and PELs. However, the cadmium detection limit was only 2 /lglm 3
                                                        3
       which is almost at the action level of2.5 /lglm This detection limit does not
       provide enough resolution to determine whether cadmium results were near the
       action level or far below it. Also it is normal for the margin of error to be quite
       large at or near the detection limit.

   • 	 For surface wipe samples, the report stated that one sample was at an elevated
       level for cadmium and several samples were at elevated levels for lead. However,
       commentary concerning the meaning or importance ofthe term "elevated" was
       not provided. Surface levels found in this report were in the range ofthose found
       by NrOSH/DART. See Section 4.2 for the relevancy of surface contamination at
       these levels.

   • 	 Some glove wipe samples were reported by the consulting firm to be at elevated
       levels for lead and cadmium.

The consulting firm concluded that FCr Marianna " ... conducts a clean, efficient, and safe
operation considering the nature ofthe work performed." The consultant recommended
improvements in PPE for glass breaking assistants outside the glass breaking room,
improved glove removal techniques to avoid skin contamination, hand washing, and
additional housekeeping/cleaning practices.

As reported by the UNrCOR Factory Manager at FCr Marianna, this sampling episode is
the only exposure monitoring for toxic metals performed by UNrCOR or its consultants
at FCr Marianna.

4.1.2   OSHA Exposure Monitoring for Toxic Metals and Other Findings

OSHA conducted an inspection of e-waste recycling operations at FCr Marianna on
November 8, 2006, during which it conducted personal air monitoring, area air
monitoring, and surface wipe sampling for the CRT glass breaking operations (see
Enclosure 2 for the OSHA report). Samples were analyzed for lead, cadmium, barium,
and beryllium. Results and recommendations ofthis inspection are summarized below.

   • 	 Five personal exposure monitoring results were below the detection limit for the
       four metals analyzed, with one exception for cadmium which was less than I % of
       the PEL. Although results were low, OSHA strongly encouraged continued use
       ofPAPRs (i.e., respiratory protection).
   • 	 OSHA reported that lead and cadmium contamination was found inside of gloves
       and other PPE barriers. This indicates that PPE was not completely preventing
       exposure to skin and inner clothing and consequently OSHA noted potential for
       an ingestion hazard. These results confirmed similar results reported by the
       UNICOR consultant 10 months prior to the OSHA inspection. OSHA mentioned
       the earlier recommendations made by the UNICOR consultant to prevent this
       exposure, and OSHA reiterated that these recommendations should be
       implemented. OSHA also recommended closing any gaps or open areas ofPPE,
       such as by taping the transition between protective clothing and gloves.

   • 	 OSHA recommended quality assurance checks to verify that contamination is
       being controlled by the PPE improvements. Such checks could include wipe
       samples of skin, clothing, and respirator hoods inside ofthe PPE barrier.
       Likewise, OSHA recommended surface contamination quality assurance checks
       of boxes leaving the glass breaking building.

   • 	 OSHA also provided other recommendations, including methods to remove PPE
       without contaminating protected surfaces and cleaning requirements.

FOH made an inquiry to the UNICOR Factory Manager at FCI Marianna regarding
whether any PPE recommendations were implemented as a result of the UNICOR
consultant's report or OSHA recommendations. He stated that after the consultant's
recommendations, an extra layer of gloves were worn, but that taping was not conducted,
which might account for the continued contamination problem found during the OSHA
inspection. After OSHA's recommendations, the Factory Manager stated that taping was
implemented. Regarding quality assurance checks within the PPE barrier and on boxes
leaving the glass breaking building, the Factory Manager stated that none were
conducted.

In addition to the toxic metals hazard, OSHA also expressed concerns and provided
recommendations regarding heat exposure and noise surveys which are discussed in
Sections 4.4 and 4.5, below.

4.1.3   NIOSHIDART Monitoring for Toxic Metals

NIOSH/DART conducted a field investigation of the FCI Marianna electronic equipment
recycling facilities to assess worker exposure to toxic metals (see Enclosure 1). The
study was conducted in August 2007. During the NIOSH/DART investigation the glass
breaking work shift was abbreviated due to the high environmental temperature on both
days and was further shortened on August 9, 2007 to allow time for the LEV filter
change-out activity. During the two days ofthe NIOSH/DART investigation, 293 and
258 CRTs were broken, which is somewhat less than the normal reported production of
300 CRTs. NIOSH/DART results should be considered in light ofthis somewhat
shortened schedule.
Personal exposure monitoring was conducted for 31 metals. Lead and cadmium were
found to be the more significant exposures, but were maintained below the OSHA lead
and cadmium PELs as 8-hour TWAs for both routine and non-routine activities. On one
day of sampling, however, feeder exposures were at levels that should be reduced (see
discussion below). Exposure results for other metals were well below the applicable
exposure limits. Exposure monitoring results from the NrOSH/DART study are
summarized below:

   • 	 Lead and cadmium exposure monitoring results in the FCr recycling factory (not
       including glass breaking) were well below the action levels and PELs and often
       below the limits of detection (LOD). The highest lead exposure was
       approximately 1% of the OSHA PEL of 50 /lg/m 3, and 12 of 18 personal exposure
       samples collected were below the LOD for lead. The highest cadmium result was
       1.8% of the PEL. All other metal exposures were also well below the PELs.

   • 	 Exposures for FPC recycling operations (not including glass breaking) were
       similarly well below the PELs for all metals, including lead and cadmium. [Note:
       two samples were compromised and these results are excluded from this analysis.]

   • 	 Cadmium exposures for feeders and breakers during routine glass breaking were
                       3
       up to 6.8 /lg/m for the duration sampled (i.e., 143 minutes), with a range ofless
       than the LOD to 6.8 /lg/m 3 The highest two measurements (3.8 /lg/m 3 and 6.8
             3
       /lg/m on August 8, 2007) were for feeders rather than breakers, indicating
       inadequate capture and containment of contaminants by the LEV system and
       enclosure. As an 8-hour TWA, the highest cadmium exposure calculates to 2.0
             3                                              3                     3
       /lg/m , which is below the action level of2.5 /lg/m and PEL of5.0 /lg/m
       (assuming no exposure for the remainder ofthe work shift). Although this highest
       result was below the PEL and action level as an 8-hour TWA, the result was
       above these levels for the 143 minute exposure and was high enough that
       exposures above the action level even as an 8-hour TWA, at times, cannot be
       ruled out. This possibility is further supported by the NrOSH/DART observation
       that the work shift in the GBO was abbreviated on the two sampling days in
       August due to environmental heat and that the shift was further shortened on
       August 9, 2007 to allow for the filter change-out procedure. Additionally,
       exposures above the PEL value, even if for less than an 8-hour shift, demonstrate
       significant release of contaminants to the breathing zone of workers who, in this
       case, are outside of the glass breaking enclosure (also see bullet below for further
       information). FOH considers it important to prevent or reduce this exposure by
       improving engineering controls (i.e., LEV capture and enclosure containment).

   • 	 The highest cadmium exposures, as discussed above, were for the two feeders on
       August 8, 2007. Breakers had much lower cadmium exposures (see Enclosure 1).
       Very importantly, feeders do not wear respiratory protection, whereas breakers do
       wear PAPRs with an assigned protection factor of 25. Therefore, the difference in
       respiratory protection use between breakers and feeders at FCr Marianna is not
       supported by these data (see discussion below for possible reasons for feeder
   exposure). More important than controlling exposure with respirators, this feeder
   cadmium exposure should be reduced/prevented by limiting its release into and
   out ofthe glass breaking enclosure through implementation of improved
   engineering controls (see NIOSH/DART LEV and ventilation findings and
   recommendations as well as FCI Marianna HVAC improvements that are
   discussed in this section below and in Section 6.0, Recommendations).

• 	 Lead exposures during routine glass breaking ranged up to 20 /lg/m 3, for the
    duration sampled, which is less than the 8-hour TWA action level of 30 /lglm 3
    and the PEL of 50 /lglm 3 . When calculated as an 8-hour TWA, this highest result
                                3
    was approximately 5 /lglm which is 10% ofthe PEL. Other metals were well
    below the PELs during routine glass breaking.

• 	 Lead exposures during glass breaking were similar for both breakers and feeders.
    For instance, the highest breaker exposure was 20 /lglm 3 and the highest feeder
                           3
    exposure was 15 /lg/m With breakers wearing respiratory protection and feeders
    not wearing respiratory protection, feeders potentially have higher lead inhalation
    uptake than the breakers. The difference in respiratory protection use between
    breakers and feeders is not supported by these data, but more importantly, feeder
    lead exposure should be reduced/prevented by limiting its release into and out of
    the glass breaking enclosure through implementation of improved engineering
    controls (see NIOSH/DART LEV and ventilation findings and recommendations
    as well as FCI Marianna HVAC improvements that are discussed in this section
    below and in Section 6.0, Recommendations).

• 	 The non-routine filter cleaning and change-out activity, conducted approximately
    monthly, was the task of greatest potential exposure concern. Cadmium
    exposures during the filter change-out activity ranged from 0.74 /lg/m 3 to 12
         3                                  3           3
    /lglm which calculates to 0.069 /lg/m to 1.4 /lglm as an 8-hour TWA. The
    TWA results are below the cadmium action level and PEL. Lead exposures
    ranged from 5.6 /lglm 3 to 105 /lglm 3 which calculates to 0.53 /lglm 3 to 12 /lglm 3
    as an 8-hour TWA. The TWA results are also below the lead action level of 30
         3                      3
    /lglm and PEL of 50 /lglm . All other metal exposures were well below the
    PELs. Inmate workers wear PAPRs during this operation with a protection factor
    of25; therefore, lead and cadmium exposures (via inhalation) are sufficiently
    controlled.

• 	 On the day of non-routine LEV filter cleaning and change-out, the feeders
    assisted in glass breaking (without PAPRs) and filter change-out on the same day
    (with PAPRs). Breakers performed both breaking (with PAPRs) and filter
    change-out (with PAPRs). Therefore, the exposures during glass breaking and
    filter change-out must be added together to calculate the total exposure. If the
    worst case exposures found by NIOSH/DART were added together for these two
    operations, then the highest cadmium exposure would be above the action limit
    but below the PEL as 8-hour TWAs. Also, the highest lead exposure would be
    very near the action level as an 8-hour TWA. [Note: This worst case calculation
       is a hypothetical value based on the highest exposures, whether breaker or feeder,
       on either August 8 or 9,2007, and do not represent actual exposures found on
       August 9, 2007 when filter change-out was conducted. The actual exposures on
       August 9 were less than the lead and cadmium action levels.]

FOH discussed the conditions ofthe glass breaking room (enclosure) and outer area with
the FCI Marianna Factory Manager. As seen in Figure 3 (Section 2.0), the glass breaking
enclosure is located within a separate building that has a bay door. At the time of the
NIOSH/DART investigation in August 2007, neither the glass breaking enclosure nor the
outer room were ventilated or cooled (i.e., no HVAC system). The Factory Manager
stated that the bay door could be either opened or closed during glass breaking. Variables
of weather conditions and bay door positioning could impact air flow patterns between
the enclosure and outer room. Under certain conditions, it could be possible that
contamination could be released from the enclosure toward the feeders. This could
explain why feeders had higher exposures than breakers on August 8, 2007. Since the
NIOSH/DART investigation, an HVAC system and cooling has been added to this
building. Therefore, if glass breaking is resumed, the conditions described above could
have been resolved, but UNICOR should ensure that air flow patterns between the
enclosure and outer area do not result in release of contamination from the enclosure
under variable conditions of weather and bay door positioning (also see NIOSHIDART
LEV and ventilation findings discussed below in this section for additional improvements
needed).

NIOSH/DART detailed the PPE and respiratory protection used during recycling
activities. Respiratory protection and PPE worn by breakers performing glass breaking
inside the glass breaking room included hooded powered air purifying respirators
(P APRs), spun-bonded olefin coveralls over work pants and tee-shirts, shoe covers over
work boots, cloth work gloves, and Kevlar sleeve guards. During the filter change-out
activity, similar coveralls, gloves, and respiratory protection were used. Feeders wore
similar PPE during glass breaking but did not wear respiratory protection, even though
their inhalation exposures were found by NIOSH/DART to be far greater than breakers
on August 8, 2007 for cadmium and similar on both days for lead.

The PPE and respiratory protection is appropriate for breakers and the inmate workers
performing filter change-outs. The respiratory protection provides a protection factor of
25, which means that respirators would be effective in controlling exposures up to 25
times greater than the PEL. However, the feeders should also have worn respiratory
protection during glass breaking under the conditions evaluated by NIOSH/DART,
although the feeder exposure should have been prevented by means discussed above.

In addition to the PPE and respiratory protection evaluation, NIOSH/DART also
conducted an evaluation ofthe LEV system that serves the glass breaking room, as well
as the change rooms and processes used to transition to and from contaminated to clean
areas. NIOSH/DART ventilation and change room findings are summarized below.
The LEV system is described by the manufacturer as reverse flow horizontal filter
modules (HFMs). They have a bank of pre-filters and a HEPA filter with a 1,200 cubic
feet per minute (cfm) fan and one-half horsepower motor. The control panel has a
pressure gauge and variable speed control. Inmate workers stand facing a grate on which
the CRT glass is broken. The HFMs are positioned on the opposite side ofthe grate, and
they draw air from the breaking areal grate and through the pre-filters and HEP A filter.
After filtration, all air is recirculated back into the glass breaking room through a grille at
the back ofthe unit. Plastic strips provide a curtain that serves as a partial physical
barrier between the workers and the grate where breaking occurs.

NIOSH/DART conducted a visual inspection, qualitative testing using smoke, and
quantitative testing for face velocity. Summary results are as follows.

    • 	 NIOSH/DART found that the average face velocity measurement ofHFM-l (unit
       to the left when facing from the front, serial number 11023-1) was in close
       agreement with the manufacturer's initial test report of 130 feet per minute (fjJm),
       although variability across the face was greater during the NIOSH/DART testing.

    • 	 For HFM -2, NIOSHIDART found that the average face velocity was 106 fjJm
        which was lower than the 150 fjJm measured by the manufacturer. Again,
        NIOSH/DART testing showed greater variability across the face than the
        manufacturer.

    • 	 NIOSH/DART found that the face and capture velocities for the HFMs are better
       in the central portions of the work stations, and performance drops off
       considerably outside the center ofthe enclosure. This finding emphasizes the
       importance of consistent work practices to maintain worker and material
       positioning to maximize LEV capture of emissions.

    • 	 Smoke tests showed that the air and contaminants tended to flow into the enclosed
        area in front of each HFM as expected.

    • 	 NIOSH/DART observed some gaps between the pre-filters on both HFMs and a
        gap between HFM-2 and the grate. The pre-filter gaps may shorten the life ofthe
        HEP A filter by allowing more and larger particles to go around the pre-filters and
        instead be trapped by the HEP A filter.

    • 	 NIOSH/DART noted highly regarded, good practice standards such as American
       National Standards Institute, ANSI [AIHA/ANSI 2007] that state that workroom
       air should not consist of 100% recirculated air as is the case for the glass breaking
       room. Also, OSHA requires continuous monitoring of air streams recirculated to
       the working environment when lead or other highly toxic substances are involved.

NIOSH/DART recommended various improvements to the LEV system (see Enclosure 1
and Section 6.0 of this report for details). These recommendations include re-engineering
the system, with appropriate engineering support, to provide fresh air while maintaining a
negative pressure relative to the general factory area, and improving the monitoring of
recirculated air from the exhaust streams ofthe HFMs back to the glass breaking room.

NIOSH/DART also reviewed the processes and facilities for worker transition to/from
clean and contaminated areas. In its report (see Enclosure 1, Section VI and the report's
Figure VII), NIOSH/DART discussed and illustrated a typical staged sequence of areas
for leaving a contaminated work area that includes a decontamination area, "dirty"
locker/change area, and clean locker/change area. This type of system is typically used
for lead abatement, asbestos abatement, hazardous waste cleanup, and similar work with
toxic substances within enclosures, containments, or restricted areas. UNICOR does not
apply this type oftransition facility or process for its glass breaking operations at FCI
Marianna. NIOSH/DART concluded that the UNICOR process has the potential for
toxic metal contamination of inmate uniforms, respirators, and clean protective clothing.
Because worker exposures are less than OSHA PELs, NIOSH/DART points out that this
type of system is not necessarily required, but is a good practice approach given the
UNICOR requirement for PPE and respiratory protection during glass breaking.

The following provides a summary of findings based on the NIOSH/DART evaluation
for lead, cadmium and other metals exposure at FCI Marianna.

   • 	 Inhalation exposures to lead, cadmium, and other metals are minimal for routine
       activities conducted on the general factory floor, as well as for associated
       recycling activities, not including glass breaking.

   • 	 During glass breaking, cadmium inhalation exposures for feeders were far greater
       than breakers on the first sampling day, and lead exposures were similar for
       breakers and feeders on both sampling days. Given that feeders do not wear
       respiratory protection, that exposures varied significantly from day to day, and
       that one exposure was above the PEL value for the duration sampled (but not as
       an 8-hour TWA), the results indicate that feeders, not protected with respirators,
       have greater potential for metal dust inhalation than breakers. Depending on
       production rate, duration of work shift, consistency of work practices, and other
       factors, it is possible that exposures could be greater than those determined by
       NIOSHIDART, possibly above action levels and/or PELs. This is particularly
       possible on days that feeders participate in filter change-out after assisting in the
       glass breaking operations. The data also indicate the importance of a periodic
       exposure monitoring program to ensure consistent control of cadmium exposures.
       Although lower relative to the PEL than cadmium, lead exposure was also at
       levels where periodic monitoring would be beneficial to document the degree of
       effectiveness of exposure controls. All other metals were at levels well below
       PELs. The feeder exposure condition should be remedied through the
       implementation of improvements in engineering controls to prevent release of
       contaminants outside the glass breaking enclosure.

   • 	 For workers wearing PAPRs, respiratory protection was sufficient to protect
       against exposures up to 25 times the PELs. This level of respiratory protection is
         appropriate for both glass breaking operations and filter change-out. Appropriate
         PPE was also used, however, OSHA found certain deficiencies in its use and
         provided recommendations for corrective action (see Section 4.1.3 for OSHA
         findings and recommendations for PPE).

      • 	 Lead and cadmium exposures during the non-routine filter change-out activity
          were below the PELs and action levels as 8-hour TWAs. Respiratory protection
          was sufficient to protect against exposures up to 25 times the PELs. Other
          appropriate PPE was also used.

      • 	 Opportunities exist for improving the LEV system and the transition process from
          the contaminated glass breaking area to cleaner general factory area.

      • 	 Ventilation improvements to the glass breaking area that were implemented after
          the NIOSH/DART investigation could correct the reason for higher feeder
          exposures; however, UNICOR should verify adequate negative pressure and air
          flow patterns if it plans to restart glass breaking. UNICOR should also implement
          the LEV and ventilation improvements detailed by NIOSH/DART in Section 6.0
          and Enclosure 1 if glass breaking is to be resumed.

Based on the exposure characterizations and observations described above, with the
exception of feeder exposures at times, FCI Marianna glass breaking operations and
associated activities are conducted in a manner that provides for worker protection
against toxic metals inhalation exposure. However feeder exposures were found to be
elevated on one sampling day and should be further evaluated and reduced. Feeder
exposures should be reduced by limiting contaminant release outside the glass breaking
enclosure through the implementation of improved engineering controls. If glass
breaking is resumed, both feeders and breakers should wear respiratory protection, until
ventilation improvements or other improved engineering controls have been shown to be
effective in reducing feeder exposure potential. OSHA requires that respirators be made
available to feeders when exposures are above the action level. Additional improvements
in engineering controls should be made to further reduce exposure and limit migration of
contaminated dusts outside the glass breaking enclosure (see Section 6.0,
Recommendations).

4.2      Surface Wipe and Bulk Dust Sample Results

As part ofthe OIG investigation, FOH and NIOSH/DART conducted bulk dust and
surface wipe sampling at FCI Marianna in both areas where e-waste recycling had been
performed in the past as well as where operations are currently performed. Samples were
analyzed for total lead, cadmium, and other toxic metals. In addition, some bulk dust
samples were analyzed using the Toxic Characteristic Leaching Procedure (TCLP) in
order to determine whether contamination should be treated as hazardous waste. Results
for these samples are discussed in Section 4.2.1 and 4.2.2, below for current and legacy
areas and facilities.
Federal standards or other definitive criteria have not been developed for acceptable
levels oflead or cadmium surface contamination or dust concentrations in industrial areas
where activities are performed involving lead and/or cadmium bearing materials.
However, several recommendations or guidelines, primarily for lead, provide points of
reference to subjectively evaluate the significance of surface contamination. Some
guidelines are available and are noted below (see the NIOSH/DART Elkton report for a
more detailed discussion of guidelines):

   • 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
       OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
       can be summarized and/or interpreted as follows: all surfaces shall be maintained
       as 'free as practicable' of accumulations oflead; the employer shall provide clean
       change areas for employees whose airborne exposure to lead is above the PEL;
       and the employer shall assure that lunchroom facilities or eating areas are as free
       as practicable from lead contamination. The OSHA Compliance Directive for the
       Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use ofthe
       Department of Housing and Urban Development' s (HUD) initially proposed
       decontamination guidelines of 200 Ilg/if for floors in evaluating the cleanliness
       of change areas, storage facilities, and lunchrooms/eating areas. In situations
       where employees are in direct contact with lead-contaminated surfaces, such as
       working surfaces or floors in change rooms, storage facilities, and lunchroom and
       eating facilities, OSHA has stated that the Agency would not expect surfaces to be
       any cleaner than the 200 Ilg/ft21evel.

   • 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
       are actively processed), OSHA has indicated that no specific level can be set to
       define how "clean is clean" nor what level oflead contamination meets the
       definition of "practicable." Specifically addressing contaminated surfaces on
       rafters, OSHA has indicated that they must be cleaned (or alternative methods
       used such as sealing the lead in place), as necessary to mitigate lead exposures.
       OSHA has indicated that the intent ofthis provision is to ensure that employers
       regularly clean and conduct housekeeping activities to prevent avoidable lead
       exposure, such as would potentially be caused by re-entrained lead dust. Overall,
       the intent ofthe "as-free-as-practicable" requirement is to ensure that
       accumulation of lead dust does not become a source of employee lead exposures.
       OSHA [29 CFR, Part 1910.1025] has stated that any method that achieves this
       end is acceptable.

   • 	 Lange [2001] proposed a clearance level of 1,000 Ilglif for floors of non-lead
       free commercial buildings and 1,100 Ilg/if for lead-free buildings. These
       proposed clearance levels are based on calculations that make a number of
       intentionally conservative assumptions.

   • 	 HUD [24 CFR 35] has established clearance levels for lead on surfaces after lead
       abatement. These levels range from 40 to 800 Ilglif, depending on the type of
       surface. The level of200 Ilglfr is most commonly used. These levels, however,
        apply to occupied living areas where children reside, and are not intended for
        industrial operations.

   • 	 Regarding lead in bulk dust or soil samples, the U.S. EPA [EPA n.d.] has
       proposed standards for residential soil-lead levels. The level of concern requiring
       some degree of risk reduction is 400 ppm (mg/kg), and the level requiring
       permanent abatement is 2,000 ppm (mglkg). Again, these levels are for
       residential settings, rather than for industrial locations.

   • 	 There is no quantitative guidance for surface cadmium concentrations. OSHA [40
       CFR 745.65]states that surfaces shall be as free as practicable of accumulations of
       cadmium, all spills and sudden releases of cadmium material shall be cleaned as
       soon as possible, and that surfaces contaminated with cadmium shall be cleaned
       by vacuuming or other methods that minimize the likelihood of cadmium
       becoming airborne.

The discussion regarding surface wipe and bulk dust sample results is presented below in
context of these available recommendations and guidelines.

4.2.1   Surface Wipe and Bulk Dust Results at Current Recycling Facilities

During its August 2007 field investigation, NrOSH/DART collected surface wipe and
bulk dust samples from various locations in the FCr Marianna recycling facilities both
inside the glass breaking room and in the general factory and associated areas. Samples
were analyzed for lead and cadmium and other toxic metals. Summary results for these
samples are presented below (see Enclosure 1 for complete results).

   • 	 Five bulk dust samples were collected in the glass breaking room. All were found
       to contain significant concentrations oflead ranging from 2,200 to 35,000 mglkg
       (0.22% to 3.5% lead). Cadmium was found at lower levels ranging from
       approximately 1 mglkg to 260 mglkg. These sample results confirm that lead and
       cadmium dusts are released to the work areas during glass breaking and that
       continued measures to control and/or contain these dust emissions are essential to
       control exposures. The glass breaking enclosure is intended to contain these dusts
       inside the glass breaking room and cleaning procedures help to keep the amounts
       of dust in check. Feeder exposures, as noted in Section 4.1.3, however, indicate
       that contaminants could be released from the enclosure under certain conditions.
       [Note: According to the Factory Manager, since the suspension of glass breaking,
       the glass breaking area has been cleaned. The LEV system remains intact but has
       not been cleaned.]

   • 	 Surface wipe samples were collected in the FCr recycling factory and analyzed
       for lead and cadmium along with other metals. Many surfaces had lead
       concentrations above the OSHA-referenced HUD guideline of21.5 /lgilOO cm2
       (equivalent to 200 /lglft\ Two samples from surfaces in the breakdown area (a
       rubber mat/table top and a rough wood surface) were approximately five and
       seven times this level. This OSHA guideline, however, applies to change areas,
       storage facilities, and lunchrooms/eating areas, rather than active work areas
       where lead-containing equipment is processed. The levels proposed by Lange
       [2001], also for occupied work environments, are 1,000 /lglft2 (the clearance level
       for floors of buildings containing lead) and 1,100 ug/W (for floors oflead-free
       buildings). The level of the two highest surface wipe samples approximates these
       Lange guidelines.

   •   Cadruium surface concentrations in the FCI recycling factory ranged from <0.1
       /lgilOOcm2 to 65 /lgilOO cm2 There is no quantitative guidance for surface
       cadmium concentrations.

   • 	 Surface wipe samples were collected in the FPC. One of these samples produced
       the highest metal contamination levels. Lead was found at 5,1 00 /lgilOO cm2
       (about 50,000 /lg/W). This level is well above surface contamination guidelines
       discussed in Section 4.2 this report. This sample consisted of accumulated dust
       collected on top of an electrical conduit attached to the back wall to the left of
       HFM-l inside the glass breaking booth. The Factory Manager stated that the
       glass breaking room, but not LEV system, has been cleaned since glass breaking
       was stopped. Any decomruissioning of the glass breaking room and LEV system
       should be preceded by additional thorough cleaning followed by surface wipe
       testing to verify surfaces are adequately free of contamination (see Section 6.0 for
       more detail regarding necessary steps for system decomruissioning.).

   • 	 A sample collected in the FPC outside the glass breaking room on top of a
       bookcase was less than the OSHAlHUD guideline for occupied areas. A sample
       from a locker in the glass breaking area was also less than the OSHAlHUD
       guideline.

In addition to the above-referenced samples collected by NIOSH/DART, FOH collected a
liruited number of bulk and wipe samples from various surfaces (e.g., factory floors,
ducts, light fixtures, counter tops, truck trailers) located at or in proximity to the
disassembly and refurbishment areas ofthe FCI as well as the area ofthe FPC's main
warehouse (designated as the location where recycled materials are handled for eventual
distribution via e-bay). Attachment 1 provides a table with additional details about
sample locations and the analytical results. While the majority of these samples did not
reflect the significant presence of lead and cadmium contamination on the sampled
surfaces or in the bulk materials, one sample of dust from floor sweepings in the
disassembly area showed rather high lead and cadmium concentrations (0.37% and
0.067%, respectively). Similarly, a composite bulk sample taken from three existing post
holes which had been placed in the floor ofthe e-bay area of the FPC's main warehouse
showed lead and cadmium concentrations of 0.11 % and 0.039%, respectively. A
duplicate sample ofthis composite material was analyzed via the toxic characteristic
leaching procedure (TCLP) which showed that this material's leachate exceeded the EPA
lead limit by over ten times (and cadmium TCLP limit by two times). According to EPA
regulations the bulk dust would need to be treated as a hazardous waste; however,
UNICOR should perform additional TCLP testing on materials collected during any
clean-up activity to determine proper disposal requirements. Based on this data (and the
ratio between total lead/cadmium concentrations and the TCLP values), it is likely that
the floor sweepings sample collected from the disassembly factory floor would also be
considered hazardous waste; however, UNICOR should also conduct testing ofthis
collected debris to determine proper disposal requirements. Additional samples,
including floor sweepings from a trailer used to transport e-waste to FCI Marianna were
found not to contain elevated lead and cadmium concentrations.

Accumulations of dusts, such as found in the FPC's post holes and from the FCr's floor
sweepings should be tested by UNICOR to determine whether they should be treated as
hazardous waste. In light ofthe presence ofthese lead and cadmium containing dusts, as
well as the Lange guidelines, UNICOR and FCI Marianna should implement procedures
to reduce the risk of exposure to surface dusts and dust accumulations. UNICOR and
FCI Marianna should implement an operations and maintenance (O&M) plan to limit
contact with existing lead and cadmium contamination, limit its accumulation, prevent
and/or control any releases of the contamination to the air, and generally prevent potential
for inhalation and ingestion (i.e., hand-to-mouth contact) exposure. Further surface
testing should be periodically conducted to ensure that surface contamination levels do
not increase over time, and/or to take preventive and corrective action should levels start
to build up. With proper controls established, this O&M plan could include periodic
clean-up of surfaces by inmate or other workers. Elements of an O&M plan are
discussed in Section 6.0, Recommendations.

4.2.2   Surface Wipe and Bulk Dust Results at Legacy Recycling Areas

Legacy contamination was characterized by FOR at two offsite facilities where UNICOR
performed e-waste recycling activities between 1998 and 2002, after which they were
moved to the FCP and FCI factories. These facilities, the 'Blue' and 'Gold' buildings,
were previously leased by the BOP but no longer house BOP recycling operations.
According to the UNICOR e-waste Factory Manager, the Gold building is now leased by
a private company which conducts e-waste recycling (led by a former employee of the
UNICOR operations at FCI Marianna).

A limited number of wipe and bulk samples were collected in various locations inJnear
the Blue and Gold buildings with the objective of screening for legacy contamination on
building surfaces and in the nearby environment (see Attachments 2 and 3). Ofthe 36
wipe samples collected in the Blue and Gold buildings from ducts, I-beams, floors, and
other surfaces, 10 showed residual lead contamination in excess of 1,000 ug/if (all from
the Blue Building), and up to about 3,900 ug/ft2 The concentrations of cadmium in the
samples were found to be a fraction ofthe lead concentration and ranged from 3 to 750
ug/ft2 As such, the surface contamination in at least the Blue Building appears to be
rather elevated in certain places (i.e., based on Lange guidelines). The UNICOR e-waste
Factory Manager stated that FCI Marianna no longer leases these buildings and that the
Gold Building is currently being used as e-waste recycling facilities by a private
company. The current building owner should be informed of the sampling results.
FOH also collected six soil samples from around the Blue Building in locations where
water runoff may have deposited dusts from the e-waste recycling operations. Similarly,
three dust samples were collected from the floor of the Gold building along with one
filter sample from a swamp (i.e., evaporative) cooler (see Attachment 3, "TCLP Results ­
Blue and Gold Buildings"). These nine samples were tested via the Toxic Characteristic
Leaching Procedure (TCLP) to determine whether these materials should be treated as
hazardous waste. None of the samples showed any detectable levels of extractable lead
or cadmium and, therefore, are not considered hazardous waste with respect to these
metals. See Table 2 for TCLP criteria.

                                       Table 2 

                     Maximum Concentration of Selected Contaruinants 

                            for the Toxicity Characteristic! 


                         Contaminant             TCLP Regnlatory Level
                             Arsenic                    5.0 mg/L
                             Barium                    100.0 mg/L
                            Cadmium                     1.0 mg/L
                           Chromium                     5.0 mg/L
                              Lead                      5.0 mg/L
                            Mercury                     0.2 mglL
                   [40 CFR 261.24].

4.3      Assessment of the Medical Surveillance Program

As part ofthe DOJ/OIG investigation, NIOSH/HETAB assessed the existing medical
surveillance program for inmates and staff exposed to lead and cadmium during e-waste
recycling at FCI Marianna. NIOSH/HETAB conducted a site visit on February 17 and
18, 2009 to conduct this assessment. Results are summarized below and are presented in
detail in the NIOSH/HETAB report provided in Attachment 3.

      • 	 Medical surveillance began in late 2005 for inmates performing glass breaking
          operations. It is performed annually and consists of biological monitoring for
          blood lead levels (BLL), blood cadmium (CdB), urine cadmium (CdU), urine
          beta-2-microglobulin (B-2-M), and zinc protoporphyrin (ZPP). Preplacement
          testing is performed on inmates prior to being cleared for glass breaking work.
          The same biological monitoring is performed for UNICOR staff as for inmates.
          In reviewing the biological monitoring results, NIOSH/HETAB found that the
          results for both staff and inmates were unremarkable (see Attachment 3 for the
          results and further discussion).

      • 	 Extensive medical records were reviewed for one former staff member who was
          never assigned to recycling, one current staff member who worked overtime in
          recycling in the past, an inmate who apparently worked in recycling but
       apparently not glass breaking, and a staff member who died in 2008 after being
       medically retired. NIOSH/HETAB found that the records revealed no evidence of
       any health problems related to recycling exposures.

   • 	 NIOSH/HETAB held public meetings with staff and inmates. During these
       meetings and interviews, exposure concerns were discussed and medical problems
       were reported. NIOSH/HETAB found that none ofthe reported health effects are
       related to potential exposures from electronics recycling.

   • 	 NIOSH/HETAB also interviewed 14 staff and 12 inmates onsite, and various
       health effects were discussed in these interviews. NIOSH/HETAB found that
       none ofthe reported health effects can be related to exposure from recycling of
       electronics. In addition, nine people were interviewed offsite by NIOSH/HETAB.
       Two were former UNICOR staff assigned to recycling. One was a FCI staff
       member who did overtime for a brief period in recycling. Four were former staff
       members who did not work in recycling. Two were former inmates, neither of
       whom was assigned to recycling. Again, NIOSH/HETAB found that none ofthe
       reported health effects can be related to exposure from recycling of electronics.

   • 	 NIOSH/HETAB also reviewed the issue of ionizing radiation from radioactive
       materials that could have been associated with a past demilitarization operation
       that was started in the camp in approximately 1999 and closed in 2001. This
       operation involved the disassembly and refurbishment of electronics from military
       bases. Interviews with Eglin Air Force Base personnel indicated that testing and
       segregation methods were in place for any items potentially containing
       radioactive materials and that no radioactive items were supposed to be disposed
       of in any manner (i.e., according to procedure, such items would not have been
       sent to FCI Marianna). Staff, however, alleged exposure to ionizing radiation and
       reported some observations that disputed the assertion that such materials would
       not have been sent to FCI Marianna. Other staff denied these allegations.
       NIOSH/HETAB 's review of medical records revealed no evidence of any health
       problems related to ionizing radiation.

   • 	 NIOSH/HETAB also conducted an industrial hygiene records review. These
       records were the same as those discussed in Section 4.1 and 4.2, above.

NIOSH/HETAB concluded that limited monitoring data for glass breaking suggests that
exposure to metals may have been sufficiently low that the OSHA mandated medical
surveillance under the lead and cadmium standards has not been required, and that
medical surveillance results are unremarkable. NIOSH/HETAB recommended, however,
that if glass breaking is re-started, UNICOR should continue the limited biological
monitoring that is currently in place as an additional safeguard against excessive
exposure, and as a reassurance to staff and inmates. There is no need to perform any
medical surveillance if glass breaking remains stopped. See Attachment 3 and Section
5.0, Conclusions and Section 6.0, Recommendations for further information on the
NIOSH/HETAB medical surveillance assessment.
4.4     Investigations for Heat Exposure

As part ofthe OIG investigation, FOH and NIOSH/DART conducted a heat hazard
evaluation associated with UNICOR's electronics recycling operations at FCI Marianna.
This evaluation was conducted on August 8 and 9,2007, following an assessment by
OSHA in November 2006, that noted concerns with heat stress (see Section 4.1.3, above).
FOH reported results from this evaluation to the OIG in a report entitled "Worker Heat
Stress Measurements - FCI Marianna," on September 21, 2007 (see Enclosure 4 to this
report). This investigation found that inmate workers are at risk from excessive heat.

In its report, FO H provided recommendations for the control of the heat hazard, which
included the enhancement ofUNICOR policies and procedures. In response to FOH
recommendations, the BOP provided two programmatic documents to the OIG: (1) Glass
Recycling Operational Requirements, Document # IP-6400-420, 8/6/07, Revision C and
(2) Heat Stress Procedures, UNICOR-Federal Correctional Institution Marianna
(undated). FOH then evaluated the BOP documents and prepared a follow-up report that
provided a review ofthe revised FCI Marianna programmatic documents (see Enclosure
5). The follow-up report entitled "Review of Heat Stress Procedures and Operational
Requirements Associated with Electronics Recycling Operations at FCI Marianna"
provided general feedback on the overall suitability of the BOP documents as a means to
comply with pertinent safety and health requirements and to furnish meaningful
protection from heat stress.

In addition to the FOH reports, NIOSHIDART also provided an evaluation ofthe heat
hazard in its report to the OIG provided as Enclosure 1. NIOSH/DART evaluated heat
measurements against both the NIOSH recommended exposure limit (REL) and ACGIH
TLV for heat exposure.

A summary ofFOH and NIOSH/DART findings and recommendations is provided
below. This is followed by summary results from the follow-up FOH report on BOP
documents that were prepared to address the heat hazard.

4.4.1   FOH and NIOSHIDART Findings and Recommendations for Heat Exposure

Both FOH and NIOSHIDART prepared reports to address heat exposure at FCI
Marianna's recycling operations. In September 2007, FOH submitted findings and
recommendations to the OIG regarding the evaluation and control of heat exposure at
FCI Marianna (see Enclosure 4). This report was prepared immediately after the work
site analysis to allow BOP and UNICOR to address the heat exposure issue prior to the
next hot weather season.

As part of its overall work site analysis, NIOSH/DART also presented findings and
recommendations for heat stress at FCI Marianna in its comprehensive exposure
assessment report of October 2008 (see Enclosure 1). These reports were based on the
same set of work site heat measurements collected in August 2007 by NIOSH/DART.
Summary findings are provided as follows.
    • 	 Both FOH and NIOSHIDART found that both glass breakers and feeders
        performing glass breaking operations were exposed to heat at levels above the
        ACGIH TLV. NIOSH/DART also concluded that these exposures were above
        the NIOSH REL and found that this exceedance occurred in the first hour of
        work. NIOSH/DART also reported that workers outside the glass breaking room
        also exceeded the TLV when performing moderate work and exceeded the
        action limit when performing light work.

    • 	 FOH found that workers in the FCI who performed work at a moderate rate were
        also exposed above the TLV in most cases. NIOSH/DART reported a similar
        finding and also concluded that these exposures exceeded the NIOSH REL.

    • 	 FOH and NIOSH/DART found that warehouse workers doing light work were
        not exposed above the TLV. However, FOH found that workers unloading
        trucks were exposed above the TLV if their work/rest regimen exceeded 50%
        work and 50% rest.

Based on their finding that many FCI Marianna workers are at risk from heat exposure,
FOH and NIOSH/DART prepared recommendations to control the heat hazard. FOH and
NIOSH/DART emphasized the need for BOP to develop a site specific program to
evaluate and control excessive exposure to heat. Specific elements of such a program
should include engineering controls (if feasible), medical surveillance, PPE measures,
training and acclimation, and work/rest regimens, among others. FOH and
NIOSH/DART specifically recommended that BOP adopt the ACGIH TLV s for heat
exposure as its standard for exposure limits and exposure controls.

4.4.2 	 FOH Findings and Recommendations on the BOP Documents to Control
        Heat Exposure

In response to the FOH recommendations, the BOP provided two programmatic
documents to the OIG: (1) Glass Recycling Operational Requirements, Document # IP­
6400-420,8/6/07, Revision C and (2) Heat Stress Procedures, UNICOR-Federal
Correctional Institution Marianna (undated). FOH evaluated these documents and
submitted a report to the OIG with its findings (see Enclosure 5). NIOSH/DART
performed a peer review of the FOH report. Summary findings and recommendations
provided in this follow-up FOH report are provided below.

   • 	 FOH reiterated that workers performing glass breaking and other activities at FCI
       Mariarma are at risk from heat stress.

   • 	 FOH found that FCI Mariarma Heat Stress Procedures developed by BOP lack
       many ofthe steps, information, and detail necessary to ensure management and
       control of the heat stress hazard.
      • 	 FOH also stated that the heat stress procedures should be rewritten to be
          consistent with the ACGrH-TLVs, Heat Stress and Heat Strain, as well as OSHA­
          Recommended Elements of a Heat Stress Program.

      • 	 Prior to rewriting these procedures, FOH stated that FCr Marianna should proceed
          with the recommendations and guidance offered in the previous FOH report, as
          well as with the ACGIH and OSHA information cited above.

      • 	 Specifically, FOH provided a series of detailed steps and elements for control of
          heat exposure that UNrCOR and FCr Marianna should implement and incorporate
          into a heat control program. FOH provided additional detail for engineering
          controls, workload determinations, heat measurements and protective clothing
          adjustments, work/rest regimens, PPE, administrative controls, and other controls
          and considerations (see Enclosure 4 for this detail).

As a result of the FOH evaluation of the initial heat stress documents, BOP prepared a
new document titled Heat Stress Program, dated 09/26/08. An evaluation of this Heat
Stress Program will be conducted prior to the completion of the OrG investigation.

4.5      Investigations for Noise Exposure

Noise measurements taken by FCr Marianna and FOH are discussed below. In addition,
OSHA inspection recommendations regarding noise are summarized.

For this report, FOH reviewed noise monitoring results measured by the FCr Marianna
Safety Specialist in late 2005. Three measurements were taken using a Quest
Technologies Q300 Noise Logging Dosimeter. All three results were well below the
level that would require implementation of a hearing conservation program. The
"booth/work area" had the highest reported noise measurement at 76.9 dB, which is well
below the OSHA action level of 85 dBA and the PEL of 90 dBA. However, in reviewing
these data, FOH is of the opinion that the reliability of these data are open to question for
several reasons as listed below:

      • 	 Three measurements appear to have been taken in November and December
          2005; however, two of the three had hand written calibration dates for the
          calibrator listed as 12-22-06.

      • 	 The dosimetry measurements are not assigned to an individual. It appears that
          work areas were monitored, and it is not known whether these measurements
          reflect personal exposure. This is important because noise levels at relatively
          short distances from the sources can be much lower than for workers conducting
          activities very near the sources.

      • 	 One result in the UNrCOR disassembly area was very low at 44.1 dBA as a
          TWA. The dosimeter log showed the peak level was about 178 dB, the slow
          maximum level was about 100 dB, and the slow minimum level was about 70 dB.
       rn addition, noise exposures in occupied work areas with minimal noise sources
       would be expected to be higher than 44 dBA.

   • 	 All three measurements taken by the FCr Marianna Safety Specialist were
       significantly lower than comparable data collected by FOH in August 2007 (see
       discussion below).

UNrCOR should not consider the above FCr Marianna noise measurements to be
definitive regarding noise exposures during FCr Marianna recycling operations.

During its inspection in November 2006, OSHA did not perform noise measurements.
However, OSHA indicated a concern regarding noise exposure and recommended that
UNrCOR perform a complete noise survey, identify noise producing processes and
objects, and if needed lower noise levels with engineering controls. OSHA made these
recommendations verbally and in a written report to the FCr Marianna Warden.
UNrCOR and FCr Marianna have not conducted noise monitoring in response to the
OSHA recommendation.

rn August 2007, FOH performed noise measurements as part ofthe OrG investigation.
Measurements were taken using a Quest Technologies NoisePro DLX dosimeter.
Twenty measurements were made. All measurements were below the OSHA PEL of90
dBA, but two ofthe measurements were above the OSHA action level of 85 dBA.
Exposures above the action level trigger the requirement for a hearing conservation
program. The two results above the action level were for a person performing sanding
and another performing copper wire separation in the refurbishment area. Two FOH
samples were collected for breakers performing glass breaking. The breaker exposures
were near but slightly below the OSHA action level. These samples were about 83 dBA
compared to the action level of85 dBA. As reported by NrOSH/DART, glass breaking
on the two sampling days was shortened because of heat and filter change-out activities;
therefore, it is possible that the FOH results for breakers are somewhat lower than what
would be normally expected, creating potential for typical breaker exposure above the
action level. The FOH industrial hygienist who conducted this testing reported that
hearing protection (i.e., ear plugs) was available as an option (voluntary use), but was not
worn during the measurements.

The FOH noise data of August 2007 was consistently higher than the more limited
amount of data taken by the FCr Marianna Safety Specialist in late 2005, and it indicates
the need for certain workers to be placed into a hearing conservation program. Such a
program includes audiometric testing, training, use of hearing protection, and
implementation of other exposure controls, if feasible. The FOH data also emphasizes
the need for UNrCOR to address the OSHA recommendation that it conduct a complete
noise survey and implement controls accordingly. UNrCOR should not presume that
FOH captured the full range of noise producing activities and should not rely on FOH
data to satisfy its monitoring requirements.
4.6    Environmental Issues

FOH conducted a review of available documents pertaining to environmental issues. 

FOH also tested for legacy contamination in the offsite e-waste recycling facilities 

(designated the 'Blue' and 'Gold' buildings) which housed the e-waste operations prior to 

their relocation in 2002 to 2003 to the current facilities within FCI Marianna. 


FCI Marianna submitted qualifications to the Florida Department of Environmental 

Protection (DEP) in December 2001 for registration as a Large Quantity Handler Facility 

for Universal Waste Devices. Based on these qualifications, the DEP's Hazardous Waste 

Management Section found that the FPI (Marianna) met the minimum requirements for a 

"transporter or handler facility for universal waste lamps and devices designated for 

recycling" and provided registration as a "Large Quantity Handler Facility for Universal 

Waste Devices" in 2002. The registration included various expressed limitations (e.g., 

wastes cannot be destined for disposal in a landfill, changes in facilities and procedures 

must be submitted in writing, etc.) and specified that other requirements must be 

followed (e.g., packaging, training, recordkeeping, etc.). The registration expired in 

March 2003 and, according to the Factory Manager, was not renewed because it was no 

longer needed due to significant reductions in the amount of e-waste being processed 

(i.e., down from approximately 25,000 units/month to several thousand). The shutdown 

ofthe e-waste operations for nine months in 2004 was due to hurricane damage, and 

subsequent conditional exemptions issued by DEP (see below). 


In January 2006, the DEP issued a conditional exemption from air permitting for the 

UNICOR Marianna CRT glass processing facility. This allowed the glass breaking room 

equipped with high efficiency air particulate (HEP A) filters to operate based on the 

estimate that the factory processed approximately 300 CRT units per day with an average 

of 12 to 15 pounds of waste per tube. The exemption was contingent on a number of 

conditions including that operations must be conducted in accordance with the FPI CRT 

Processing Procedures; the booth's ventilation/filtration system must be operated in 

accordance with manufacturer recommendations; the CRT glass will not be subjected to 

high temperatures (smelting, burning, etc.); and initial UNICOR air sampling results will 

be submitted to the DEP. DEP's correspondence did not indicate any expiration date for 

the conditional exemption, but did require that it could be revoked if conditions were not 

met or ifthe installation was substantially modified. 


Based on a review of correspondence provided by the DOJ OIG, it is apparent that FPI 

performed periodic internal evaluations of the glass booth and other e-waste recycling 

operations with regard to environmental issues. For example, a trip report from a March 

2006 inspection reflected concerns over, for example, "inmates dumping mop water from 

the glass booth onto the outside lawn" and that this water "must be placed in the proper 

drain system". In addition, the trip report indicated that "a hazardous waste container 

(i.e., a Gaylord box containing used disposable suits from the glass breaking area) was 

not appropriately marked or sealed" and that "staff needs to ensure that such containers 

meet hazardous waste standards and remain closed at all times." 

5.0        CONCLUSIONS

Conclusions concerning safety, health, and environmental aspects ofUNICOR's e-waste
recycling operations at FCI Marianna are provided below under the following
subsections:

      •	   Heavy Metals Exposures;
      •	   Heat Exposure;
      •	   Safety and Health Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

Various conclusions may be applicable to all UNICOR recycling factories with similar
operations and activities. These conclusions are supported by the results, findings, and
analyses presented and discussed in Sections 3.0 and 4.0 ofthis report, as well as the
documents assembled by the OIG. These conclusions, in part, are consolidated from the
various federal agency reports, and are also supplemented by FOH based on the entire
body of information assembled and reviewed. See Enclosures 1 - 5 for additional
conclusions from the individual contributing federal agencies, including NIOSH/DART,
NIOSH/HETAB, OSHA, and FOH.

5.1        Heavy Metals Exposures

      1. 	 Based on NIOSH/DART monitoring results in August 2007, current routine e­
           waste recycling operations conducted in the FCI recycling factory and during FPC
           recycling operations (not including glass breaking), have minimal inhalation
           exposure potential to lead, cadmium, and other metals. Lead, cadmium, and other
           metals exposures were either very low or non-detectable.
      2. 	 During glass breaking, exposure monitoring performed by both OSHA in 2006
           and NIOSH/DART in 2007, showed that lead, cadmium, and other metals
           exposures were below the PELs when calculated as 8-hour TWA exposures.
           However, NIOSH/DART results on one sampling day showed that cadmium
           exposures for feeders approached the cadmium action level as an 8-hour TWA
           and had the potential to be excessive during the period of glass breaking. These
           data showed that exposures can be far higher for feeders who do not wear
           respirators than for breakers who do wear respirators. In addition, lead results for
           breakers and feeders were similar. Feeder results were high enough and data were
           variable enough that the possibility of feeder cadmium exposure above the action
           level on some days cannot be ruled out. This possibility is particularly relevant
           should feeders perform filter change-out on the same day as glass breaking (also
           see Conclusion 3, below). Iffeeders were to use respiratory protection during
           glass breaking (within the context of a fully effective respiratory protection
           program), then their cadmium exposure would be better controlled even if they
           participate in filter change-out on the same day. However, it is essential to reduce
           exposures outside the glass breaking enclosure by improving engineering controls
           (i.e., LEV, ventilation, and enclosure improvements).
3. 	 When performing filter change-out and glass breaking on the same day, worst
     case cadmium exposure could be above the OSHA action level and worst case
     lead exposure could be near the action level. However, use of PAPRs with a
     protection factor of25 should provide effective control of the worst case exposure
     (assuming both feeders and breakers wear PAPRs). [Note: The worst case
     exposure based on NIOSH/DART results is still below the cadmium OSHA PEL,
     regardless of respiratory protection.]

4. 	 Based on NIOSH/DART exposure monitoring data, there is no basis to
     differentiate between breakers and feeders regarding their use of respiratory
     protection. However, feeder exposures should be reduced through improved
     engineering controls that limit contaminant release outside the enclosure. [Note:
     NIOSH/DART exposure data only represent two days of operations. Further
     evaluation is required if glass breaking is resumed.]

5. 	 Since the NIOSH/DART investigation, glass breaking has been stopped and an
     HVAC system with cooling has been added to the glass breaking area. It is
     possible that this could alter any pressure differentials or air flow patterns that
     could have contributed to feeder exposures. If glass breaking is restarted,
     UNICOR should evaluate air flow patterns and feeder exposures to determine if
     potential feeder exposure has been mitigated (also see NIOSH/DART conclusions
     regarding the LEV and ventilation systems for the glass breaking area).

6. 	 A UNICOR consultant performed one episode of exposure monitoring in January
     2006. Lead and cadmium exposures were below the action levels and PELs,
     however, the cadmium detection limit was only slightly below the action level
     which limits the usefulness ofthese data. Exposure monitoring prior to this
     January 2006 episode are not available. This episode is the only exposure
     monitoring conducted by UNICOR since glass breaking was implemented.

7. 	 Monitoring data collected by the various organizations during glass breaking
     showed that exposures vary significantly from day to day. For instance,
                                                                        3
     NIOSH/DART found that cadmium exposures were up to 6.8 /lg/m (for the
     duration sampled) on August 8, 2007 for a feeder, but the highest cadmium result
                                        3
     on the following day was 0.7 /lg/m for a breaker. NIOSHIDART also found that
     lead exposure was as high as 20 /lglm 3 on August 9, 2007, while OSHA found
     that lead was not detectable on November 8, 2006.

8. 	 NIOSH/DART concluded that "the feeders' exposures during routine glass
     breaking operations require further scrutiny to determine the source of their
     airborne exposures" (see Enclosure 1, Section VI). The method to respond to the
     NIOSH/DART conclusion is to conduct exposure monitoring and perform other
     appropriate workplace analyses. This is important to further define the range of
     exposure and ensure adequate controls and work practices. It is also important
     because UNICOR should not presume that NIOSH/DART happened to capture
         the highest possible exposure, as well as because feeders do not wear respiratory
         protection. UNICOR should also evaluate the relative pressure and air flow
         patterns of the glass breaking enclosure and area to determine if ventilation
         improvements have mitigated the condition contributing to feeder exposures (also
         see Conclusion 5, above).

      9. 	 The UNICOR consultant and OSHA noted deficiencies in the PPE barrier during
           glass breaking that contributes to inmate worker skin and clothing contamination.
           Also, glove removal techniques were noted by both the consultant and OSHA as
           requiring improvements to avoid skin contamination. The consultant made
           corrective action recommendations to address these issues in its report of
           February 2006. However, OSHA noted similar deficiencies in its inspection of
           November 2006. OSHA reiterated that the consultant's recommendations should
           be implemented and provided additional recommendations, as well. The FCI
           Marianna Factory Manager stated that further improvements were implemented
           after the OSHA inspection.

      10. Maintenance of existing housekeeping practices and implementation of an
          operations and maintenance (O&M) plan will serve to control potential exposure
          from existing contamination. An element ofthe O&M plan could include
          periodic clean-up of surfaces by inmate workers: however, this would have to be
          performed using proper hazard controls and work practices.

      11. NIOSH/DART found that a surface wipe sample in the FPC glass breaking room
          contained very high levels of lead and cadmium, indicating the need for improved
          cleaning ofthis area, should glass breaking be restarted or should the enclosure
          and LEV system be decommissioned. [Note: The FCI Marianna Factory
          Manager stated that the glass breaking room has been cleaned since glass
          breaking was suspended in 2008, and that the LEV system remains intact, but has
          not been cleaned. Effectiveness of cleaning should be verified through surface
          wipe sampling.]

      12. NIOSH/HETAB concluded that the results of medical surveillance conducted on
          staff and inmates were unremarkable regarding lead and cadruium and that there
          is no evidence to support allegations of exposure to ionizing radiation. Further
          medical surveillance is not required unless the glass breaking operations are
          restarted (see Attachment 3).

      13. Based on interviews of35 staff and inmates at FCI Marianna, NIOSH/HETAB
          concluded that none ofthe reported health effects can be related to exposure from
          recycling of electronics.

5.2      Heat Exposure

      14. Based on the FOH and NIOSH/DART heat exposure investigation, heat
          measurements, and work load estimates, workers performing glass breaking and
         many other recycling activities at FCI Marianna are at risk of excessive heat
         exposure. Heat exposures exceeded the ACGIH-TLVs and the NIOSH RELs (see
         Enclosures 1,4, and 5.). An HVAC system has since been installed in the glass
         breaking building, which could mitigate heat exposure in this area.

      15. After reviewing BOP documents initially developed for heat exposure control in
          response to the heat exposure findings, FOH concluded that FCI Marianna Heat
          Stress Procedures developed by BOP lacked many ofthe steps, information, and
          detail necessary to ensure management and control of the heat stress hazard. FOH
          emphasized the need to develop a heat stress procedure consistent with ACGIH­
          TLVs, Heat Stress and Heat Strain, as well as OSHA-Recommended Elements of
          a Heat Stress Program. In response, UNICOR prepared a document titled Heat
          Stress Program and dated 09/26/08. This latest program will be evaluated by
          FOH prior to the completion ofthe OIG investigation.

5.3      Safety and Health Programs, Plans, and Practices

      16. UNICOR's document entitled "Glass Recycling Operational Requirements"
          specifies requirements for lead and cadmium biological monitoring, training,
          engineering controls, exposure monitoring, PPE, respiratory protection, hygiene
          practices, housekeeping and cleaning practices, and others. This procedure
          contains information that is required in a lead and! or cadmium compliance plan.

      17. NIOSH/DART reported on the type ofPPE and respiratory protection that was
          worn by breakers and feeders during glass breaking operations. The PPE was
          consistent with the requirements of the UNICOR operational requirements.
          However as discussed in Section 5.1, feeders can be exposed to cadmium at
          higher levels than breakers and to lead at similar levels. Therefore, the data do
          not support differences in respiratory protection use between feeders and
          breakers. More importantly, improvements in engineering controls are necessary
          to prevent feeder exposure. Also, a UNICOR consultant and OSHA
          recommended improvements necessary for the PPE barrier and glove removal
          techniques to prevent skin contamination, and these should be implemented and
          verified as effective. If glass breaking is resumed, all improvements should be
          implemented and included in written safety and health documents.

      18. UNICOR-FCI Marianna's respiratory protection documentation and its
          operational requirements do not mention the use of PAPRs, but rather list the use
          of other types of respiratory protection. UNICOR should update its respiratory
          protection documentation and operational requirements to reflect the type of
          respiratory protection in use, as well as the proper use, cleaning, maintenance and
          other requirements for the hooded PAPRs.

      19. For general activities conducted on the factory floor (i.e., disassembly and
          materials handling), a written safety and health document to define existing
          workplace hazards and control measures is not in place for UNICOR recycling
         conducted specifically at FCr Marianna. As a "good practice" approach, such a
         document should be developed and implemented and would serve to concisely
         define the safety and health practices and requirements specific to FCr Marianna
         recycling, such as PPE requirements or voluntary use, hygiene (e.g., hand
         washing) practices, daily and periodic housekeeping and cleaning practices,
         special training requirements for any hazardous equipment use or other hazard
         controls, and other practices essential to conduct work safely. Non-routine or
         periodic work activities should also be addressed in the document, particularly
         those that potentially disturb dusts such as cleaning and handling/disposing of
         wastes from HEP A vacuums or containers. The document could also specify
         requirements for periodic site assessments, hazard analyses, inspections, and
         regulatory compliance reviews.

      20. UNrCOR does not have an adequate hazard analysis program in place at FCr
          Marianna and many of its other factories. Examples of hazards not properly
          identified, evaluated, and controlled include heat, noise, dust and PBRs from
          sanding of laptop plastic casings, and feeder cadmium exposures at times.

5.4      Health and Safety Regulatory Compliance

      21. Current routine FCr Marianna operations conducted in the factory and other
          associated areas (not including glass breaking) are in compliance with the OSHA
          lead and cadmium standards regarding control of employee exposure.

      22. Personal exposures during glass breaking operations were less than the OSHA
          lead and cadmium PELs as 8-hour TWAs. However, feeder cadmium exposure of
          up to 6.8 /lg/m 3 (for the duration sampled of 143 minutes) without benefit of
          respiratory protection should be reduced (see Section 6.0, Recommendations for
          further information). This exposure as an 8-hour TWA is 2 ug/m3 which is nearly
          at the action level of2.5 /lg/m 3 The exposure indicates escape of cadmium dusts
          from the glass breaking enclosure on some days, and this condition should be
          corrected prior to any restart of glass breaking. UNrCOR and FCr Marianna
          should not presume that NrOSH/DART captured the highest possible exposure on
          its two days of sampling.

      23. UNrCOR's "Glass Recycling and Operational Requirements" provide sufficient
          documentation to ensure compliance with the lead and cadmium standards,
          assuming effective implementation. However, if glass breaking is resumed, the
          improvements to prevent feeder exposure and contaminant release outside the
          enclosure should be documented in procedure, implemented, and verified as
          effective.

      24. At the time ofthe August 2007 FOH and NrOSHIDART investigation, UNrCOR
          did not provide for heat exposure controls at FCr Marianna and exposures were
          above ACGIH TLV sand NrOSH RELs for heat. Although OSHA does not have
          a heat exposure standard, it can enforce heat exposure controls under the General
          Duty Clause. UNICOR should implement FOH and NIOSHIDART
          recommendations for heat exposure control (see Section 6.0 and also Enclosures
          1,4, and 5).

      25. UNICOR has not conducted noise monitoring as recommended by OSHA and as
          required to ensure compliance with 29 CFR 1910.95, Noise. UNICORhas not
          conducted quality checks to determine effective control oflead and cadmium
          contamination as recommended by OSHA (see Enclosure 2). This indicates that
          UNICOR is not consistently responsive in correcting safety and health
          deficiencies and responding to findings, conclusions, and recommendations.

      26. Also see Conclusion 19 in Section 5.3 regarding the lack of hazard analysis and
          controls for various hazards.

5.5       Environmental Compliance

      27. TCLP results from various accumulated dust samples in the FCI Marianna
          recycling facilities showed that this material exceeded the TCLP criteria for lead
          and cadmium. UNICOR should perform additional testing to determine if the
          collected material should be treated as a hazardous waste according to U.S. EPA
          regulations.

      28. Bulk dust and surface wipe samples collected from the previously leased 'Blue'
          and 'Gold' buildings show that lead and cadmium contamination is present on
          various surfaces. All soil samples collected outside the Blue building and dust
          samples from the floor of the Gold building were not found to be hazardous waste
          based on TCLP testing for lead and cadmium.


6.0       RECOMMENDATIONS

Recommendations concerning safety, health, and environmental aspects ofUNICOR's e­
waste recycling operations at FCI Marianna are provided below under the following
subdivisions:

      •   Heavy Metals Exposures;
      •   Heat Exposure;
      •   Safety and Health Programs, Practices, and Plans;
      •   Health and Safety Regulatory Compliance; and
      •   Environmental Compliance.

These recommendations relate to the conclusions presented in Section 5.0, above. Some
recommendations are taken from supporting documents such as the NIOSH/DART report
(Enclosure 1), OSHA inspection report (Enclosure 2), NIOSH/HETAB report (Enclosure
3) and FOH reports (Enclosures 4 and 5). See these reports for additional
recommendations. Other recommendations are developed by FOH from the body of data
and documents reviewed to prepare this report. Various recommendations may apply to
all UNICOR recycling factories where similar e-waste recycling activities are performed.

Recommendations are provided for current factory operations as well as glass breaking
operations that were suspended in early 2008. Recommendations that apply to glass
breaking at FCI Marianna are only applicable if glass breaking is resumed there;
however, the recommendations may also be relevant to glass breaking operations
performed at other UNICOR factories.

As a global recommendation, BOP and UNICOR should ensure that it has and allocates
the appropriate level of staff, other personnel resources, and material resources to
effectively implement these recommendations and to sustain an effective ES&H program
over time.

6.1      Heavy Metals Exposures

      1. 	 If glass breaking is to be restarted, UNICOR should evaluate the LEV system,
           ventilation system, relative pressure conditions, and air flow patterns ofthe glass
           breaking enclosure and glass breaking building to ensure that airborne
           contamination is effectively captured by the LEV, contained in the enclosure, and
           not released to the breathing zone of feeders and other areas outside the enclosure.
           Several episodes of feeder monitoring should also be conducted to verify control
           of feeder exposure. Also see NIOSH/DART glass breaking room LEV and
           ventilation recommendations, below.

      2. 	 Feeders should wear respiratory protection during glass breaking operations at
           FCI Marianna, until feeder exposures are verified and documented to be
           controlled at levels well below the lead and cadmium action levels. This
           recommendation is based on feeder exposures for cadmium at levels far higher
           than breakers on some days and feeder exposures for lead at levels similar to
           breakers. UNICOR should also apply this recommendation to other glass
           breaking factories if data collected for those operations indicate similar exposure
           conditions as FCI Marianna.

      3. 	 As recommended by NIOSHIDART, NIOSH/HETAB, and OSHA, UNICOR
           should continue use of PAPRs for breakers and for workers conducting filter
           change-out (see Enclosure 1, Recommendation 9 and Enclosures 2 and 3).

      4. 	 NIOSH/DART recommended that UNICOR further evaluate the feeders'
           exposures during routine glass breaking operations to determine the source of
           their airborne exposures to cadmium and lead (see Enclosure 1, Section VI). This
           evaluation should be performed in the context ofthe improved HVAC system and
           the further NIOSH/DART recommendations for LEV and ventilation
           improvements. As part ofthis evaluation, UNICOR should conduct exposure
           monitoring for feeders and breakers to determine whether the NIOSH/DART lead
           and cadmium exposures for feeders found during the OIG investigation have been
   mitigated. Several sampling episodes should be conducted to determine the level
   of feeder exposure relative to breakers and exposure limits, as well as to
   determine the degree of daily variability in exposure levels. UNICOR could then
   determine future and on-going respiratory protection requirements for feeders and
   any additional engineering and work practice controls based on a substantial and
   conclusive set of data. The evaluation should also gather information such as
   types and volumes of CRTs processed, weather conditions and the positioning of
   the bay door, ventilation performance, work practice consistency, and other
   elements that could contribute to higher or lower exposures.

5. 	 In addition to the exposure monitoring recommended above, UNICOR should
     periodically conduct at least a limited amount of personal exposure monitoring
     that characterizes exposures resulting from current work activities conducted
     during glass breaking, LEV filter change-out, and general factory activities. This
     monitoring will serve to document continued control ofthe lead and cadmium
     hazards. An annual monitoring program would be appropriate. This
     recommendation, which goes beyond the requirements ofthe OSHA lead and
     cadmium standards, would provide important documentation to establish
     consistently low exposures.

6. 	 As required by OSHA lead and cadmium standards, UNICOR should also
     promptly conduct exposure monitoring for any future changes that could result in
     an increased level of exposure, such as changes in work operations, work
     processes/practices, quantities or types of materials processed, new activities, and
     non-routine activities. Periodic monitoring should be conducted to evaluate any
     existing or newly developed engineering controls to make sure that the controls
     are operating at the design parameters.

7. 	 UNICOR should develop and implement an operations and maintenance (O&M)
     plan to ensure that surface contamination is minimized and that existing
     contamination is not released that could result in inhalation or ingestion
     exposures. Elements ofthis plan could include:

   • 	 Identification of activities that could disturb contamination (e.g., HVAC
       maintenance, periodic or non-routine cleaning of elevated or other surfaces,
       access to areas where higher levels of surface contamination are present, and
       various building maintenance functions);

   • 	 Processes to identify and control hazards for routine and non-routine activities
       (e.g., job hazard analysis process prior to conducting certain work with
       identification of mitigating actions);

   • 	 Mitigating techniques and procedures during activities of concern (e.g., dust
       suppression and/or clean-up and capture, filter removal and bagging
       processes, and use of PPE and respiratory protection);
   • 	 Training and hazard communication;

   • 	 Disposal of contaminated materials based on testing data such as TCLP tests;
       and

   • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
       appropriate. Exposure monitoring is particularly recommended for activities
       that can disturb surface dust. [Note: Follow-up surface sampling is important
       to ensure that surface contamination does not build up and to take preventive
       and corrective action, if it does.]

   At UNICOR's discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate or other workers; that is, surfaces that are not subject to
   routine clean-up and housekeeping activities. If this element were adopted,
   however, UNICOR should ensure that practices to control exposures are included
   in the plan and implemented, such as appropriate worker training, PPE,
   respiratory protection, exposure monitoring, clean-up methods (e.g., HEPA
   vacuuming and wet methods), waste disposal, hygiene practices, and others
   deemed appropriate by UNICOR. Initial exposure monitoring should be
   conducted to determine whether exposure during clean-up is above the action
   levels for lead and cadmium. TCLP testing should also be conducted on waste
   materials generated to ensure proper disposal. Controls for future clean-up
   activities should then be based on exposure results. [Note: See FOH report for
   USP Lewisburg [FOH 2009] that describes the preparation, hazard analysis,
   training, controls, work practices, and performance of a clean-up activity
   conducted for warehouse elevated surfaces. This is a noteworthy practice that
   could serve as a model for other activities conducted under an O&M plan.]

8. 	 Should UNICOR decide to permanently stop CRT breaking at FCI Marianna, it
     should decontaminate and decommission the LEV and enclosure systems. If
     performed, this activity should be preceded by proper hazard analysis, training,
     preparation, development and implementation of work practices and hazard
     controls, exposure monitoring, hazardous waste testing and disposal, and
     clearance sampling. Depending upon the hazard analysis results, this could be
     performed by a remediation contractor or inmate workers under an O&M Plan. If
     the latter option is chosen, UNICOR should ensure the preparations described
     above are in place and should ensure that inmate workers are trained and qualified
     to perform this task.

9. 	 UNICOR should evaluate the PPE practices for glass breaking at FCI Marianna
     relative to the UNICOR consultant and OSHA findings and recommendations of
     2006 (Enclosure 2). UNICOR should verify and ensure that these
     recommendations have been implemented and sustained. UNICOR should
     implement the quality checks (i.e., surface, glove, respirator mask, and skin
     contamination sampling) recommended by OSHA to verify contamination
     control.
      10. As recommended by NIOSHIDART, UNICOR should improve the LEV system
          serving the glass breaking room, if glass breaking is to be restarted.
          Improvements should include operating the system with both outside (fresh) and
          recirculated air while maintaining a negative pressure in the glass breaking room,
          and providing continuous monitoring of the exhaust/recirculated air stream to
          ensure effective capture oftoxic metals (see NIOSH/DART report Enclosure 1,
          Section VI for details). Any modifications ofthe LEV system should be made in
          consultation with a qualified industrial ventilation engineer. In addition,
          UNICOR should investigate the use of an alternative method, such as static
          pressure drop, to determine the frequency of filter changes for the LEV system
          (see Enclosure 1, Recommendation 8).

      11. As recommended by NIOSH/HETAB, ifthe glass breaking operations are
          restarted, UNICOR should continue to perform the limited biological monitoring
          that is currently in place as an additional safeguard against excessive exposure
          and to provide reassurance to inmates and staff. There is no need to perform
          medical surveillance if glass breaking remains suspended. For new, modified, or
          non-routine activities, job hazard analysis should be performed and if medical
          surveillance is indicated for these activities, then BOP and UNICOR should
          perform pre-placement evaluations of exposed staff and inmates that are overseen
          by an occupational medical physician (see Attachment 3).

6.2      Heat Exposure

      12. UNICOR has prepared a Heat Stress Program dated 09/26/08, which will be
          evaluated prior to the completion ofthe OIG investigation. UNICOR should
          ensure that the recommended FOH and NIOSH/DART elements of a heat stress
          program as detailed in Enclosures 1,4, and 5 are being implemented. UNICOR
          should apply the ACGIH-TLVs in the context ofa thorough understanding of the
          various protective clothing ensembles available and used in hot weather periods
          and the role that PPE plays on the effects of heat stress.

6.3      Safety and Health Programs, Practices, and Plans

      13. UNICOR should revise its respiratory protection program and operational
          procedures to include use, maintenance, cleaning, training and other requirements
          for PAPRs. UNICOR should ensure that both its written requirements and current
          practices are consistent. NIOSH/DART further recommends that UNICOR
          evaluate FCI Mariauna's operations to ensure compliance with OSHA respiratory
          protection requirements. NIOSH/DART also points out that the PAPRs used at
          FCI Mariauna for glass breaking are manufactured by a company in bankruptcy,
          which could result in PAPR approvals being placed in the "Obsolete" category
          and could limit availability of parts. UNICOR and FCI Marianna should
          determine whether current or alternate PAPRs should be used in the future (see
          Enclosure 1, Recommendation 2). Procedures should be revised accordingly.
   This determination applies to all UNICOR facilities that use this manufacturer of
   PAPRs.

14. As a good practice approach, NIOSH/DART recommends that UNICOR should
    improve its change room and decontamination process to be consistent with
    methods and facilities typically utilized for transitioning from contaminated
    containment areas to general work area. For details, see Enclosure 1, Section VI,
    and Recommendation 11. This recommendation applies to all UNICOR factories
    that perform glass breaking.

15. UNICOR should evaluate FCI Marianna work activities for hazards related to
    lifting and repetitive stress, and implement any appropriate procedures, training,
    or equipment to address the hazards (see Enclosure 1, Recommendation 3).

16. UNICOR should implement hearing conservation practices as indicated by FOH
    noise monitoring results and should prepare a written hearing conservation
    program for the FCI Marianna recycling activities.

17. UNICOR should develop and implement a hazard analysis program that includes
    baseline hazard analysis for current operations and also job (activity-specific)
    hazard analysis (JHA) for both routine and non-routine activities. UNICOR and
    FCI Marianna should conduct JHAs for any new, modified, or non-routine work
    activity prior to the work being conducted. It should also conduct hazard analyses
    of existing processes that have not had such an analysis. The JHA process is
    intended to identify potential hazards and implement controls for the specific
    work activity prior to starting the work. For instance, the JHA process should be
    integral to an effective O&M plan, as described in Section 6.1.

18. BOP, UNICOR and FCI Marianna should ensure that staff and consultants
    conducting ES&H assessments, evaluations, inspections, and monitoring activities
    are qualified for their assigned tasks and led by certified or highly qualified
    professionals. One benchmark for vetting individuals performing industrial
    hygiene services is the ensure certification in the practice of industrial hygiene
    (CIH) by the American Board of Industrial Hygienists (AIHA). Also see the
    NIOSH/HETAB regarding this recommendation.

19. BOP and UNICOR should implement a system to list, track, and document
    closure of any identified deficiencies or recommendations, regardless ofthe
    source. Closure of deficiencies and recommendations with documentation of
    those accepted and implementation details, along with those not accepted or
    pending (and why) is important to document improvement actions. This
    recommendation applies to all UNICOR recycling factories. This topic will be
    discussed in further detail in the final orG report. [Note: Examples ofUNICOR
    failing to implement recommendations at FCI Marianna include the OSHA
    recommendations for noise monitoring and contamination control verification
    testing, among others.]
6.4      Health and Safety Regulatory Compliance

      20. UNICOR should conduct a noise survey as recommended by OSHA in 2006
          (Enclosure 2) to ensure compliance with 29 CFR 1910.95, Noise. Some noise
          monitoring was conducted by a safety representative at FCI Marianna in 2005, but
          this data was questionable (see Section 4.5). UNICOR has not conducted noise
          monitoring in response to the OSHA recommendation ofNovember 2006.
          UNICOR should not rely solely upon the FOH noise monitoring conducted as part
          ofthe OIG investigation. UNICOR should implement a hearing conservation
          program as indicated by its monitoring results and FOH data.

      21. If glass breaking is resumed, UNICOR should correct the conditions causing
          elevated feeder exposure and should ensure the effective containment of toxic
          metal contaminants within the glass breaking enclosure. UNICOR should verify
          through evaluation and monitoring that exposures for feeders and other personnel
          outside the glass breaking enclosure are well controlled.

      22. UNICOR should ensure the evaluation of heat exposures and implement hazard
          controls accordingly.

      23. UNICOR should evaluate and appropriately control ergonomic hazards.

      24. Also see hazard analysis recommendations in Section 6.3.

6.5      Environmental Compliance

      25. Based on TCLP results from accumulated dust samples, UNICOR should treat
          dusts collected from cleaning, sweeping, or other recycling operations in the
          factory and associated facilities as hazardous waste, unless UNICOR performs
          testing that demonstrates otherwise.

      26. The testing results from samples collected at the formerly leased 'Blue' and
          'Gold' buildings should be provided to the building owners.

      27. UNICOR and FCI Marianna should incorporate e-waste recycling requirements in
          the 2005 FCI Marianna Hazardous Materials Management policy/guidance or
          prepare a separate document with such information specifically for UNICOR
          recycling at FCI Marianna.


7.0      REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and
biological exposure indices. Cincinnati, OH: American Conference ofGovemmental
Industrial Hygienists.
AIHA [2007]. AIHA-ANSI Z9. Health and safety standards for ventilation systems.
Z9 Accredited Standards Committee. Available at:
http://www.aiha.orgiContentiInsideAIHAIStandards/z9.htm

BOP [2007]. Program Statement P1600.09. Occupational Safety, Environmental
Compliance, & Fire Protection. U.S. Department of Justice, Bureau of Prisons, October
2007.

CFR [24 CFR 35]. HUD Lead safe housing rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

CFR [29 CFR 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office ofthe Federal Register.

CFR [29 CFR 1910.95]. Occupational safety and health standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office ofthe Federal Register.

CFR [29 CFR, Part 1960]. Basic program elements for Federal employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR, Part 1926.62]. Safety and health regulations for construction. Lead. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [40 CFR 261.24]. Protection of environment. Identification and listing of hazardous
waste. Toxicity characteristic. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office ofthe Federal Register.

DOE [1999]. Chronic beryllium disease prevention program. 10 CFR Part 850 [Docket
No. EH-RM-98-BRYLM] RIN 1901-AA75. Office of Environment, Safety, and Health,
Department of Energy. Final Rule. Federal Register, Vol. 64, No. 235, Wednesday,
December 8, 1999, Rules and Regulations, pp. 69954-68914.
e-CFR [40 CFR 745.65]. Lead-based paint poisoning prevention in certain residential
structures. Lead-based paint hazards. Electronic Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

EPA [n.d.]. Test methods for evaluating solid waste, physicalfchemical methods. SW­
846. Washington, DC: U.S. Environmental Protection Agency. Available at:
http://www.epa.gov/epawasteihazarditestmethods/index.htm

FOH [2007]. Worker heat stress meaSUlYernerrts                        from Capt. Paul
Pryor, Federal Occupational Health Service                       September 17, 2007.

FOH [2008a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at FCI Elkton. U.S. Department of Health
and Human Services, FOH Safety and Health Investigation Team, Program Support
Center, U.S. Public Health Service, Federal Occupational Health Service. October 10,
2008.

FOH [2008b]. Review of 'heat stress procedures ' and 'operational requirements '
documents associated with electronics recycling operations at FCI Marianna, U.S.
Department of Health and Human Services, FOH Safety and Health Investigation Team,
Program Support Center, U.S. Public Health Service, Federal Occupational Health
Service. May 15, 2008.

FOH [2009]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at USP Lewisburg. U.S. Department of
Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service. May 9,
2009.

Lange, JH [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-51.

NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati, OH:
U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.

NIOSH [2008a]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Elkton Federal Correctional Institution, Elkton, Ohio. Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH).Publication No. EPHB 326-12a.

NIOSH [2008b]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Mariarma Federal Correctional Institution, Marianna, Florida.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) Publication No. EPHB 326-15a.

NIOSH [2009]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, United States Penitentiary, Lewisburg. Lewisburg, Pennsylvania.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) File No. EPHB 326-17a.

OSHA [1970]. Occupational Safety and Health Act of 1970. Public Law 91-596. Sec.
5(a)(1). Washington, DC: U.S. Department of Labor, Occupational Safety and Health
Administration. Available at:
http://www.osha.gov/pls/oshaweb/owadisp.show document?p table~OSHACT&p id~3
359

OSHA [2006]. OSHA inspection report no. 310028832, Federal Correctional Institute,
Marianna, FL. Washington, DC: U.S. Department of Labor, Occupational Safety and
Health Administration.

Pettersson-Julander A, van Bavel B, Engwall M, Westberg H [2004]. Personal air
sampling and analysis of polybrominated diphenyl ethers and other bromine containing
compounds at an electronic recycling facility in Sweden. J Environ Monit. 6:874-880.
Epub 2004 Oct 21.

Thuresson, K [2004]. Occupational exposure to brominated flame retardants with
emphasis on polybrominated diphenyl ethers. Doctoral Thesis. Department of
Environmental Chemistry, Stockholm University.
ATTACHMENTS 

                                                           ATTACHMENT 1

                                           FCI Marianna Wipe/BulklTCLP Data Table 

   Samples Collected in E-Waste Recycling Areas of the Fel and Fep Factories (by FOH on 8/8/2007 - 8/9/2007) 

             Sample                              Surface!
Sample #                     Building/Area                      Description                    Lead                         Cadmium
              Type                                Item
             W =Wipe;
             B=Bulk;
           TCLP=Toxic                                                                                   mg'                            mgll
                                                                                   jJg/ff   mglkg                   jJglff mg/kg
           Characteristi c                                                                          (extractable)                  (extractable)
             leaching
            Procedure

                                                             Debris from
   1             B           BreakdoVv11 (Fel      Floor     sv-.eeping                     3700                           670
                             Reburbishment                   Debris from
   2             B               (FCI)             Floor     sv.eepinq                      420                            100
                             Reburbishment
   3             W               (FCIl             Floor     At sandina area       430                               54

                             Reburbishment                   At TV dissasembly
   4             W               (FCI)             Floor     line                  320                               11

                             Reburbishment         Metal      From top of yellow
   5             W               (FCI)            cabinet    cabinet               240                               19
                                                             At East Breakdo'Ml
   6             W           BreakdoVv11 (Fel      Floor     line                  680                               66


   7             W           BreakdoVv11 (Fel      Floor     At East Compactor      76                               27
                                                             Top of safety
                                                             cabinet next to
   8             W           BreakdoVv11 (Fel     Cabinet    West Compactor         93                               26
                                                             At West Breakdo'Ml
   9             W           Breakdo'Ml (FCI       Floor     line                   81                               39
                                                              From floor of
                                                             tractor trailer
                                                  Floor of   supplying bulk e-
   10            W           Breakdo'Ml (FCI      Trailer    wage                  110                               9
              Water          Reburbishment
   11        (TClP)              (FCI)             Floor     Mop rinse                                  0.03                           0.01

                              eBay area in                   Composite of dust
                             Main Warehouse                  from 3 fence post
  12a       B (TClP)              (FPC)            Floor     holes in floor                              58                             26

                              eBay area in                   Composite of dust
                             Main Warehouse                  from 3 fence post
  12b            B                (FPC)            Floor     holes in floor                 1100                           390
                              eBay area in
                             Main Warehouse
   13            W                (FPC)            Metal     Liqht fixture          32                               4
                              eBay area in
                             Main Warehouse                  Ventilation duct in
   14            W                (FPC)            Metal     center of room        490                              150
                              eBay area in
                             Main Warehouse                  Ventilation duct at
   15            W                (FPC)            Metal     north wall            670                              250

                              Camp Loading        Floor of   Truck sv-.eepings
   16       B (TClP)           Dock (FPC)·        Trailer     debris) (TCLP\                            0.09                           0.06

                              Camp Loading        Floor of   Truck sv-.eepings
   17       B (TClP)           Dock (FPC)'        Trailer     deb,;,) (TClP)                            0.07                           0.01
                                 Camp
                               Warehouse                     Sorting & intake
   18            W               (FPC)             Floor     floor                  26                               1
                                 Camp
                               Warehouse                    Top of counter,
   19            W               (FPC)          Counter top laptop refinishing      30                               1
                                 Camp
                               Warehouse                    Top of cabinet at
   20            W               (FPC)          Cabinet top wall storaqe            11                               1
                                ATTACHMENT 2

           FCI Marianna Surface Wipe Data - Blue and Gold Buildings 

                         Samples Collected 08/07/07 


               Building                                                      Lead     Cadmium
Sample #                                     Description
                Name
                                                                             ~oltt'    ~oltt'
MXMTW-1      Gold Building           Top of duct (about 12' High)            750        100

MXMTW-2      Gold Building           Top of beam (about 20' high)            530        59

MXMTW-3      Gold Building                    Top of duct                    740        120

MXMTW-4      Gold Building                    Top of duct                    570        90

MXMTW-5      Gold Building                  I-beam surface                   330        37

MXMTW-6      Gold Building              Floor at base of beam 2               67         3

MXMTW-7      Gold Building              Floor at base of beam 4               69         3
MXMTW-8      Gold Building              Floor at base of beam 6               84         4

MXMTW-9      Gold Building              Floor at base of beam 8               91         6

MXMTW-10     Gold Building                      I-beam                       560        78

MXMTW-11     Gold Building                      l-beam                       310        38
MXMTW-12     Gold Building                       Duct                        660        120
MXMTW-13     Gold Building                    Top of duct                    830        150

MXMTW-14     Gold Building                    Top of duct                    840        150

MXMTW-15     Gold Building                      1- beam                      470        60

MXMTW-16     Gold Building                Ductwork at beam                   760        100

MXMTW-21     Blue Building        On center I-beam (about 20' high)          1400       91

MXMTW-22     Blue Building        On center l-beam (about 20' high)          2200       99

MXMTW-23     Blue Building        On center l-beam (about 20' high)          3900       60

MXMTW-24     Blue Building        On center I-beam (about 20' high)          1500       79

MXMTW-25     Blue Building   Floor - SIW corner, about 24' from each wall     81         4

MXMTW-26     Blue Building    Floor - N/E corner, about 24' from each wall    16         2

MXMTW-27     Blue Building   Floor - NIW corner, about 24' from each wall    110        19

MXMTW-28     Blue Building    Floor - S/E corner, about 24' from each wall   100        13
                             On I-beam, S side of building, between E wall
MXMTW-29     Blue Building                                                   830        74
                                           and center line
MXMTW-30     Blue Building     Top of Dayton heater nearest S/E corner       1700       480

MXMTW-31     Blue Building      Top of Dayton heater, North on E. wall       1300       350

MXMTW-32     Blue Building    Top of Dayton heater, center on East wall      1700       750

MXMTW-33     Blue Building          Support between garage doors             920        230

MXMTW-34     Blue Building                       Beam                        1100       210
                               Upper wall beam along W wall, about 1/3
MXMTW-35     Blue Building                                                   1100       120
                                            toward Send
                               Upper wall beam along W wall, about 2/3
MXMTW-36     Blue Building                                                   1100       130
                                            toward Send
                                  ATTACHMENT 3

             FCI Marianna TCLP Resu~s - Blue and Gold Buildings 

                        Samples Collected 08/07/07 

           Sample                                                   Area
            Type     Building                                       Wiped           Lead         Cadmium
Sample #                        Surface/Hem       Description
           W=Wipe     Name                                                          mgli             rrg/I
                                                                    (Sq. Ft.)
            B=Bulk                                                              (ex1racta~e )   (extractable)

                      Blue                      Testfor lead and
MXMTS-1      W                      Soil                              0.35          <0.1           <0.01
                     Building                    run-off metals

                      Blue                      Testfor lead and
MXBTS-1      W                      Soil                              0.35          <0.1           <0.01
                     Building                    run-off metals

                      Blue                      Testfor lead and
MXMTS-2      W                      Soil                              0.35          <0.1           <0 .01
                     Building                    run-off metals
                      Blue                      Testfor lead and
MXMTS-3      W                      Soil                              0.35          <0.1           <0.01
                     Building                    run-off metals
                      Blue                      Testfor lead and
MXMTS-4      W                      Soil                              0.35          <0.1              0
                     Building                    run-off metals
                      Blue                      Testfor lead and
MXMTS-5      W                      Soil                              0.35          <0.1              0
                     Building                    run-off metals

                      (?QkJ                       Pile nearest
MXMTB-1       B                   Dust pile      garage doors         0.35          <0.1            0.01
                     Building
                                                 -r, ,;th   ;c!A\

                      GokJ                      Pile in center of
MXMTB-2       B                   Dust pile                           0.00          <0.1            0.03
                     Building                        building

                      Gold                      Pile @ north end
MXMTB-3       B                   Dust pile                           0.00          0.14            0.16
                     Building                       of building

                      Gold        Fitter on
MXMTB-4     Fitter                               Pieces of filter     0.00          0.13            0.23
                     Building   swarrp cooler
ENCLOSURES 

ENCLOSURE 1 

CONTROL TECHNOLOGY AND EXPOSURE ASSESSMENT FOR 

    ELECTRONIC RECYCLING OPERATIONS, UNICOR 

   MARIANNA FEDERAL CORRECTIONAL INSTITUTION 

               MARIANNA, FLORIDA 





                       REPORT DATE: 

                        October 2008 





                     REPORT NUMBER: 

                       EPHB 326-l5a 





                  PRINCIPAL AUTHORS: 

                     Dan Almaguer, MS 

             G. Edward Burroughs, PhD, CIH, CSP 

                    Alan Echt, MPH, CIH 





  U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES 

            Centers for Disease Control and Prevention 

       National Institute for Occupational Safety and Health 

          Division of Applied Research and Technology 

                   4676 Columbia Parkway, R5 

                      Cincinnati, Ohio 45226 

SITES SURVEYED:                                     UNICOR Recycling Operations
                                                    Federal Correctional Institution
                                                    Marianna, Florida

NAICS:                                              562920

SURVEY DATE:                                        August 8 - 9, 2007

SURVEY CONDUCTED BY:                                Edward Burroughs, PhD, CIH, CSP
                                                    Alan Echt, MPH, CIH
                                                    Dave Marlow
                                                    Li-Ming Lo




 "The findings and conclusions in this report have not been formally disseminated by the National Institute
for Occupational Safety and Health and should not be construed to represent any agency determination or
policy. "




                                                    11
                                              DISCLAIMER 


Mention of company names or products does not constitute endorsement by the Centers for Disease
Control and Prevention.

The findings and conclusions in this report do not necessarily reflect the views of the National Institute for
Occupational Safety and Health.




                                                      111
                                                                                     TABLE OF CONTENTS 


                                                                                                                                                                                                         Page

Executive Summary. . . . . . . . . . . . . . . . . .. . . . . . . . .. . . . . . . . .. . . . . . . . .. . . . . . . . .. . . . . . . . .. . . . . . . . .. . . . . . . . .. . ... . .                     1

I.     Introduction................................. .. .... ......... ... .. .... ......... ... .. .... ......... ....                                                                                    3

II.    Process Description........................................ ..... . ........... .. .... . ........... .. ..                                                                                         5

III.   Sampling and Analytical Methods........................................................... ...                                                                                                      7

IV.    Occupational Exposure Limits and Health Effects. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                                                                 9

       A. 	 Exposure Criteria for Occupational Exposure to Airborne Chemical Substances...                                                                                                                11 

            Barium..........................................................................................                                                                                              12 

            Beryllium........... . ........ . ........ . ........ . ........ . ........ . ........ . ........ . ........ . ...                                                                            12 

            Cadmium........ . ........ . .... . ... . .... . ... . .... . ... . .... . ... . .... . ... . .... . ... . .... . ... .. ... . .                                                              12 

            Lead.............. .. . ... ... .. . ...... .. . ... ... .. . ...... .. . ... ... .. . ...... .. . ... ... .. . ...... .. . ....                                                              13 

            NickeL.......... .. . ............... ...... ... ......... ...... ... ......... ...... ... ......... ........                                                                                 13 

            Dust...................................... ......... ......... ......... ......... ......... ..........                                                                                       13 

       B. 	 Surface Contamination Criteria.................... . ........ . ........ . ........ . ........ . ....                                                                                         14 

            Lead...................................... ... .. . ...... .. . ... ... .. . ...... .. . ... ... .. . ...... .. . ....                                                                        14 

            Beryllium........... . ........ . ........ . ........ . ........ . ........ . ........ . ........ . ........ . ...                                                                            15 

            Cadmium........... ............ ...... ... ......... ...... ... ......... ...... ... ......... ...... ... .                                                                                   15 

            NickeL................................... .. .... . ........... .. .... . ........... .. .... . ............                                                                                  15 

            Barium.................................. .. .. ..... .. .. ..... .. .. ..... .. .. ..... .. .. ..... .. .. .......                                                                            16 

       C. 	 Heat Stress Evaluation Criteria........... . ... ..... . ........ . ... ..... . ........ . ... ..... . .. ...                                                                                 16 

V.     Results and Discussion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                       18 

       A. 	 Bulk Material Sample Results..... .. .... ...... ... ... .. .... ...... ... ... .. .... ...... ... ... .. ..                                                                                  19 

       B. 	 Surface Wipe Sample Results........ ... ......... ...... ... ......... ...... ... ......... .......                                                                                           19 

       C. 	 Air Sample Results............................. . ........ . ........ . ........ . ........ . ..........                                                                                      20 

       D. 	 Heat Stress Evaluation Results.............. .. . ... . .. .. . .. .. .. .. . ... . .. .. . .. .. .. .. . ... . .. ....                                                                       21 

       E. 	 Local Exhaust System Measurements........ . ........ . ........ . ........ . ........ . ..........                                                                                            23 

VI.    Conclusions and Recommendations........... ... ... .. .... ...... ... ... .. .... ...... ... ... .. .... ...                                                                                       24 

VII.   References. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...    31 





                                                                                                             IV 

                                           Tables, Appendices and Figures

                                                                                                                Page 

Table 1 
       Occupational Exgosure Limits for Five Metals of Primary Interest.""""",                          11 

Table 2 
       Heat Stress TLV s and Action Limit WBGT Values"",,,,,,,,,,,,,,,,,, .. ,, ,.                      17 

Table 3 
       Summary Statistics for Airborne Metal Measurements .. " ..... •, ,, . .. . ,, .. .,,,.           35 

Table 4 
       Airborne Metal Measurements ..... " . " .... " . " .... " . " .... " . " .... " . " .... " ..    36 

Table 5 
       Wipe Sample Results .. " .... "." .... "." .... "." .... "." .... "." .... "." .... ".           38 

Table 6 
       Composition of Bulk Dust Samples from the Glass Breaking Operation .. ".                         39 

Table 7 
       WBGT Measurements, Marianna Federal Correctional Facility .............. .                       40 

Table 8 
       Estimated Work Rates .. " .... "." .... "." .... "." .... "." .... "." ..... .,,, ..... ,        41 

Table 9 
       Air Velocity Measurements for HFM 1 and HFM 2 .. " .... " .. ..... " .. ..... " ..               42 


Appendix A       Occupational Exposure Criteria for Metal/Elements ..............................                43 

Appendix B       Metallic Composition of Bulk Dust Samples from the Glass Breaking 

                        Operation.................................................................... .,         44 

Appendix C       Metallic Composition of Wipe Samples .. "." .... "."" .. " .. ., ............ " .. ..           45 

Appendix D       Metallic Composition of Airborne Dust Samples .. " ... .. .. " ... .. .. .. ... .. .. " ..      47 


Figure I 
    Marianna FCI UNICOR Factory Floor Plan .. "." ..... .,,, .. .. ,,.,, ..... .,,, .. .. .            56 

Figure II 
   Marianna FPC UNICOR Factory Floor Plan .. "." . .. . " .. ., .... .. " . .. . " .. ., ... .        57 

Figure III 
  Marianna FPC Glass Breaking Area.................... , .... , ... " ....... , .... , .... .        58 

Figure IV 
   Mariarma FPC Glass Breaking Booth ..... "." .... "." .... "." .... "." .... " ... ..               59 

Figure V 
    Marianna FPC Glass Breaking Booth Work Stations ............................. .                    60 

Figure VI 
   NIOSH Recommended Heat-Stress Exposure Limits for Heat-Acclimatized 

                     Workers ....................................................................... ..          61 

Figure VII 
 Layout of Typical Facility Where Protective Clothing is Required .. " .. ., ... ..                  62 

Figure VIII 
 Size Distribution of Airborne Particles .. "." .... "." .... "." .... "." .... " .. .. .           63 





                                                              v

                                       EXECUTIVE SUMMARY 


Researchers from the National Institute for Occupational Safety and Health (NIOSH) conducted a study of
the recycling of electronic components at the Federal Prison Industries, Inc. (FPI) facilities (aka,
UNICOR) in Marianna, Florida, in August, 2007 to assess worker exposures to metals and other
occupational hazards, including heat, associated with these operations.

The electronics recycling operations at Marianna can be organized into four production processes: a)
receiving and sorting, b) disassembly, c) glass breaking operations, and d) packaging and shipping. A
fifth operation, cleaning and maintenance, was also addressed but is not considered a production process
per se. It is known that lead, cadmium, and other metals are used in the manufacturing of electronic
components and pose a risk to workers involved in recycling of electronic components ifthe processes are
not adequately controlled or the workers are not properly trained and provided appropriate personal
protective clothing and equipment.

Methods used to assess worker exposures to metals during this evaluation included: personal breathing
zone sampling for airborne metals and particulate; surface wipe sampling to assess surface contamination;
and bulk material samples to determine the composition of settled dust. Samples were analyzed for 31
metals with five selected elements (barium, beryllium, cadmium, lead and nickel) given emphasis. Heat
exposures were determined using wet bulb globe temperature monitors.

The results of air sampling conducted during the August visit indicated no overexposures of workers to
metals above the most stringent occupational exposure limits during the routine and non-routine
operations evaluated during that site visit. The highest exposures to metals (as determined by both
arithmetic and geometric means) occurred to workers in the Federal Prison Camp (FPC) glass breaking
operation while changing filters, while workers in the Federal Prison Camp (FPC) UNICOR factory had
the highest exposure to airborne particulate during routine production operations. The results oftwo of
those samples were affected by unanticipated events. In one instance, a worker touched the inlet of the
cassette with her glove and some lint was sucked onto the filter. In the other, a worker unloading a truck
reported that toner spilled onto her from surplus equipment she was unloading. When those two samples
(which did not exceed allowable limits) are not considered, the particulate concentrations are well below
levels of concern. When those two samples are not included in the analyses, the FPC glass breakers had
the highest particulate exposures. These occurred during the filter change operation.

Exposures to airborne metals during the filter change-out maintenance operation were higher than
exposures during other operations in the FPC but were below the most stringent occupational exposure
limits. Total airborne particulate levels were higher during this operation than elsewhere, when the two
samples described above are disregarded. Total particulate concentrations during routine glass-breaking
operations ranged from <71 /lg/m3 (140 minute sample) for a breaker to 891 /lg/m3 (147 minute sample)
for a feeder. During the filter change operation, they ranged from 4,912 /lg/m3 (57 minute sample) for a
worker working inside the glass-breaking booth to 274 /lg/m3 (45 minute sample) for a worker outside the
booth. All airborne particulate measurements representing potential exposures during routine and non­
routine operations were, however, below applicable occupational exposure limits (e.g., the OSHA PEL of
15 mg/m (15000 /lg/m\ 8-hr TWA for total particulate).

Although beryllium is used in consumer electronics and computer components, such as disk drive arms
(beryllium-aluminum), electrical contacts, switches, and connector plugs (copper-beryllium) and printed
wiring boards [Willis and Florig 2002, Schmidt 2002], beryllium in this study was not detected at levels
                                                     1

above the detection limit of the analytical method. Most of the recycling activities at this facility resemble
typical maintenance activities on consumer products (e.g., personal computers), such as opening cases and
removing components. Willis and Florig [2002] noted that most beryllium "in consumer products is used
in ways that are not likely to create beryllium exposures during use and maintenance." This may account
for the results seen at this facility. Other e-recycling activities that include further processing, such as
shredding ofthe components, may produce higher exposures to beryllium but shredding does not occur at
this facility.

Samples collected during routine daily glass breaking operations showed that the highest exposure was
less than 10% of the OSHA PEL for lead of 50 /lg/m3 8 hr TWA (4.5 /lg/m3 8hr TWA for a 109 minute
sample). The highest lead exposure measured during the filter change operation was 12.5 /lg/m3 8 hr
TWA for a 57 minute sample. The highest cadmium result during routine glass breaking was 2.0 /lg/m3
8hr TWA for a 143 minute sample, less than halfthe OSHA PEL of 5 /lg/m3 8hr TWA. During the filter
change operation, the highest cadmium concentration was 1.4 /lg/m 3, 8hr TWA, for a 57 minute sample.
Samples collected on disassembly workers in the FCr factory area and on workers in the FPC factory area
were well below levels of concern for cadmium, lead and nickel. Unless specified, the results of the
samples presented are for the duration of sample and not calculated on an 8 hour time-weighted average
basis.

Lead, cadmium and other heavy metals were detected in the surface wipe and bulk dust samples. There
are few established standards available for wipe samples with which to compare these data. Some ofthe
surfaces tested for lead indicated levels exceeding the most stringent criteria. The wipe sample results can
not be used to determine when the contamination occurred. They only represent the surface
contamination present at the time the sample was collected.

Environmental heat monitoring and estimates of work rate indicated that some workers in this facility
were exgosed to heat stress (e.g., above the ACGrH® TLV®) or at risk of heat stress (e.g., exceeding the
ACGrH Action Limit) during this survey period. The locations where heat stress was noted included the
glass breaking operation (breakers, feeders, and outside workers) and the warehouse (truck crew), while a
risk of heat stress was noted in the warehouse (other workers), FCr-disassembly and FCr-Refurbish.

Recommendations resulting from this study include:
 • 	 The implementation of a site specific health and safety program at Mariarma that includes a heat stress
     program.
 • 	 The respiratory protection program for this facility should be evaluated to ensure that it complies with
     OSHA regulations.
 • 	 Attention should be focused on practices to prevent accidental ingestion of lead and other metals, such
     as housekeeping to reduce surface contamination and hand washing to prevent hand-to-mouth transfer
     of contaminants.
 • 	 Management should evaluate the feasibility of providing and laundering work clothing for all workers
     in the recycling facility.
 • 	 Change rooms should be equipped with separate storage facilities for work clothing and for street 

     clothes to prevent cross-contamination. 

 • 	 All UNrCOR operations should be evaluated from the perspective of health, safety and the
     environment in the near future. 

 A comprehensive program is needed within the Bureau of Prisons to assure both staff and inmates a safe 

 and healthy workplace. 



                                                      2

I.     INTRODUCTION

Researchers from the National Institute for Occupational Safety and Health (NIOSH) conducted a study of
exposures to metals and other occupational hazards associated with the recycling of electronic components
at the Federal Prison Industries (aka, UNICOR) in Marianna, Florida'. The principal objectives ofthis
study were:

1.    To measure full-shift, personal breathing zone exposures to metals including barium, beryllium,
cadmium, lead and nickel.

2.     To evaluate contamination of surfaces in the work areas that could create dermal exposures or
allow re-entrainment of metals into the air.

3.      To identify and describe the control technology and work practices used in operations associated
with occupational exposures to beryllium, as well as to determine additional controls, work practices,
substitute materials, or technology that can further reduce occupational exposures to beryllium and other
metals.

4.      To evaluate the use of personal protective equipment in operations involved in the recycling of
electronic components.

Other objectives such as a preliminary evaluation of heat exposures and visual observations of
undocumented hazards, were secondary to those listed above but are discussed in this document.

An evaluation was conducted August 8 - 9, 2007, by NIOSH researchers from the Engineering and
Physical Hazards Branch, Division of Applied Research and Technology, Cincinnati, Ohio. During this
evaluation, two full shifts of environmental monitoring were conducted for the duration of routine plant
operations, and monitoring was also conducted during non-routine operations, such as cleaning and
maintenance as described in Section II (Process Description) and Section III (Sampling and Analytical
Methods).

Computers and their components contain a number of hazardous substances. Among these are "platinum
in circuit boards, copper in transformers, nickel and cobalt in disk drives, barium and cadmium coatings
on computer glass, and lead solder on circuit boards and video screens" [Chepesink 1999]. The
Environmental Protection Agency (EPA) notes that "In addition to lead, electronics can contain
chromium, cadmium, mercury, beryllium, nickel, zinc, and brominated flame retardants" [EPA 2008].
Schmidt [2002] linked these and other substances to their use and location in the "typical" computer: lead
used to join metals (solder) and for radiation protection, is present in the cathode ray tube (CRT) and
printed wiring board (PWB). Aluminum, used in structural components and for its conductivity, is present
in the housing, CRT, PWB, and connectors. Gallium is used in semiconductors; it is present in the PWB.
Nickel is used in structural components and for its magnetivity; it is found in steel housing, CRT and
PWB. Vanadium functions as a red-phosphor emitter; it is used in the CRT. Beryllium, used for its
thermal conductivity, is found in the PWB and in connectors. Chromium, which has decorative and
hardening properties, may be a component of steel used in the housing. Cadmium, used in Ni-Cad
batteries and as a blue-green phosphor emitter, may be found in the housing, PWB and CRT. Cui and


 This report documents the study conducted at Marianna, Florida. Other NIOSH DART field studies
were conducted at Federal correctional facilities in Lewisburg, Pennsylvania and Elkton, Ohio.
                                                      3
Forssberg [2003] note that cadmium is present in components like SMD chip resistors, semiconductors,
and infrared detectors. Mercury may be present in batteries and switches, thermostats, sensors and relays
[Schmidt 2002, Cui and Forssberg 2003], found in the housing and PWB. Arsenic, which is used in
doping agents in transistors, may be found in the PWB [Schmidt 2002].

Lee et al. [2004] divided the personal computer into three components, the main machine, monitor, and
keyboard. They further divided the CRT of a color monitor into the "(1) panel glass (faceplate), (2)
shadow mask (aperture), (3) electronic gun (mount), (4) funnel glass and (5) deflection yoke. Lee et al.
[2004] note that panel glass has a high barium concentration (up to 13%) for radiation protection and a
low concentration oflead oxide. The funnel glass has a higher amount oflead oxide (up to 20%) and a
lower barium concentration. They analyzed a 14-in Philips color monitor by electron dispersive
spectroscopy and reported that the panel contained silicon, oxygen, potassium, barium and aluminum in
concentrations greater than 5% by weight, and titanium, sodium, cerium, lead, zinc, yttrium, and sulfur in
amounts less than 5% by weight. Analysis of the funnel glass revealed greater than 5% silicon, oxygen,
iron and lead by weight, and less than 5% by weight potassium, sodium, barium, cerium, and carbon.
Finally, Lee et al. [2004] noted that the four coating layers are applied to the inside of the panel glass,
including a layer ofthree fluorescent colors (red, blue and green phosphors) that contain various metals,
and a layer of aluminum film to enhance brightness.

The reports referenced in the two preceding paragraphs cite the potential hazards of electronic waste by
listing the constituents of electronic components. However, they do not cite any data on emissions or
occupational exposures that resulted from recycling work practices. German investigators [BIA 2001,
Berges 2008a] broke 72 cathode-ray tubes using three techniques (pinching offthe pump port, pitching the
anode with a sharp item, and knocking offthe cathode) in three experiments performed on a test bench
designed to measure emissions from the process. In contrast to the reports of potential hazards cited
above, neither lead nor cadmium was detected in the total dust, with one exception, where lead was
detected at a concentration of 0.05 mg/cathode ray tube during one experiment wherein the researchers
released the vacuum out of23 TVs by pinching off the pump port [BIA 2001, Berges 2008b]. They
described this result as "sufficiently low that a violation ofthe German atmospheric limit value of 0.1
mg/m3 need not generally be anticipated" [BIA 2001]. The researchers noted that "the working conditions
must be organized such that skin contact with and oral intake ofthe dust are excluded" [BIA 2001].

There are very few articles documenting actual occupational exposures among electronics recycling
workers. Sjodin et al. [2001] and Pettersson-Julander et al. [2004] have reported potential exposures of
electronics recycling workers to flame retardants while they dismantled electronic products. Recycling
operations in the Marianna facility are limited to disassembly and sorting tasks, with the exception of
breaking CRTs and stripping insulation from copper wiring. Disassembly and sorting probably poses less
of a potential hazard to workers than tasks that disrupt the integrity ofthe components, such as shredding
or de soldering PWBs.

The process of greatest concern was the glass breaking operation (GBO, described below) that releases
visible emissions into the workroom atmosphere. Material safety data sheets and other information on
components of CRTs broken in this operation listed several metals, including lead, cadmium, beryllium
and nickel. In addition, Federal Occupational Health (FOH) investigators expressed a particular interest in
those metals and barium because of whistleblower allegations that inmate workers and civilian staff
members were being exposed to toxic materials, including lead, cadmium, barium, and beryllium, at
electronics recycling operations overseen by Federal Prison Industries (UNICOR) at a number of BOP
facilities around the country.
                                                     4

Due to the location and time ofthe evaluation at this facility, the potential for heat stress was also
evaluated at the Marianna recycling operation. This information was presented to the Bureau of Prisons
and FOR in an earlier report dated September 26, 2007 and is included as part of this report.


II.    PROCESS DESCRIPTION

The recycling of electronic components at the Marianna Federal Correctional Institution (FCI) is done in
two separate buildings: 1) the main factory located within the FCI main compound; and 2) the Federal
Prison Camp (FPC) located approximately a quarter ruile to the south on the same property. Diagrams of
these work areas are shown in Figures I and II, respectively, with an enlargement ofthe GBO in Figure
III. These figures provide the layout ofthe work process, although workers often moved throughout the
various areas in the performance oftheir tasks. The population of the UNICOR FCI facility was
approximately 205 workers and ofthe FPC approximately 86 workers.

The recycling of electronic components at this facility can be organized into four production processes: a)
receiving and sorting, b) disassembly, c) glass breaking operations, and d) packaging and shipping. A
fifth operation, cleaning and maintenance, will also be addressed but is not considered a production
process per se.

Incoming materials destined for recycling are received at a warehouse where they are examined and
sorted. A truck crew loads and unloads semi-trailers at the loading dock in the warehouse area. They
unloaded two trailers on August 8 and loaded two and unloaded two on August 9. During this evaluation
it appeared that the bulk of the materials received were computers, either desktop or notebooks, or related
devices such as printers. Some items, notably notebook computers, could be upgraded and resold, and
these items were sorted out for that task.

 After electronic memory devices (e.g., hard drives, discs, etc.) were removed and degaussed or shredded,
computer central processing units (CPUs), servers and siruilar devices were sent for disassembly; monitors
and other devices (e.g., televisions) that contain CRTs were separated and sent for disassembly and
removal ofthe CRT. Printers, copy machines and any device that could potentially contain toner, ink, or
other expendables were segregated and inks and toners were removed prior to being sent to the
disassembly area.

In the disassembly process external cabinets, usually plastic, were removed from all devices and
segregated. Valuable materials such as copper wiring and aluruinum framing were removed and sorted by
grade for further treatment if necessary. Components such as circuit boards or chips that may have value
or may contain precious metals such as gold or silver were removed and sorted. With few exceptions each
ofthe workers in the main factory will perform all tasks associated with the disassembly of a piece of
equipment into the mentioned components with the use of powered and un-powered hand tools (primarily
screwdrivers and wrenches), with a few workers collecting the various parts and placing them into the
proper collection bin. Work tasks included removing screws and other fasteners from cabinets,
unplugging or clipping electrical cables, removing circuit boards, and using whatever other methods
necessary to break these devices into their component parts. Essentially all components currently are sold
for some type of recycling.



                                                     5

The third production process to be evaluated was the GBO where CRTs from computer monitors and TVs
were sent for processing. This was an area of primary interest in this evaluation due to concern from staff,
review of process operations and materials involved, and observations during an initial walk-through.
This was the only process where local exhaust ventilation was utilized or where respiratory protection was
in universal use. Workers in other locations would wear eye protection and occasionally would
voluntarily wear a disposable respirator. Workers in the GBO wore personal protective equipment (PPE)
based upon their assigned work.

Two outside workers moved inventory for feeders and breakers. One wore a tee-shirt, work pants and
cloth gloves; the other wore a short-sleeve work shirt, work pants and cloth gloves. Two feeders removed
CRTs from large (Gaylord) boxes and placed them on a roller conveyor for the breakers. Feeders wore
spun-bonded olefin coveralls over tee-shirts and work pants, shoe covers, Kevlar® sleeve guards, and cloth
work gloves with rubberized palms and fingers. Two breakers broke the funnel and panel glass. The
breakers wore loose-fitting hood-type powered air-purifying respirators (PAPRs), (MB14-72 PAPR wi
Super Top Hood, Woodsboro, MD, Global Secure Safety), spun-bonded olefin coveralls over work pants
and tee-shirts, shoe covers over work boots, cloth work gloves over rubber gloves, and Kevlar® sleeve
guards. The PPE is kept in lockers against a wall in the GBO, opposite the glass-breaking booth. When
the breakers are finished breaking glass, they clean the floor, first with brooms and then with a high­
efficiency particulate air (HEPA) vacuum cleaner. The breakers leave the booth in their coveralls and
PAPR, use another HEP A vacuum cleaner on their coveralls before removing them, then remove and
dispose of their coveralls, remove their PAPRs and leave the work area. Shoes are HEPA-vacuumed
before exiting the GBO (visitors are offered shoe covers). Battery chargers for the PAPRs are located on a
bookcase against the wall adjacent to the glass-breaking booth in the staging area.

CRTs that had been removed from their cases were trucked to this process area in large boxes. These are
staged by the outside workers using a pallet jack. The CRTs are lifted by hand from Gaylord boxes by the
feeders and placed on a roller conveyor through an opening on the side of the glass breaking enclosure.
The breakers roll the CRTs onto an angle-iron grate for breaking (see Figure IV). Each breaker stands on
an elevated platform facing the grate, which is positioned in front of the local-exhaust ventilation unit
described by the manufacturer as a reverse flow horizontal filter module (HFM). As the CRT moved from
left to right in the booth the electron gun was removed by tapping with a hammer to break it free from the
tube, then a series of hammer blows was used to break the funnel glass and allow it to fall through the
grate into large Gaylord boxes (cardboard boxes approximately 3 feet tall designed to fit on a standard
pallet) positioned below the grate. This was done at the first (left) station in Figure V. The CRT was
moved to the second (right) station where any internal metal framing or lattice was removed before the
panel glass was broken with a hammer and also allowed to fall into a Gaylord box. During the two days
of sampling 293 and 258 CRTs were broken. Various sources on-site stated that "normal production" was
approximately 300 CRTs per day. The work shift in the GBO was abbreviated due to the environmental
heat on both days, and was further shortened on August 9 to allow time for the filter change procedure.
Given the shortened work schedule, the production rate (number of CRTs broken) on the days of sampling
was not thought to be lower than expected for a typical day. No count was made by the survey team
regarding the number of color vs. monochrome monitors broken.

The HFMs were designed and manufactured by Atmos-Tech Industries (model HFM24-ST/RFISP, Ocean
City, NJ). Each unit is equipped with a bank of 35% efficient pleated pre-filters and a HEPA filter, a
direct-drive 1200 cfrn fan with a Yz horsepower motor, and a control panel with a minihelic pressure gauge
and variable speed control. Air enters through the pre-filters in the front ofthe unit, passes through the
HEP A filter, and is discharged into the room through a grille at the back ofthe unit. A frame attached to
                                                     6

the front of each unit supports 24-in long plastic strip curtains on the front and sides. The top is enclosed
with a sheet of 'I.-inch clear polycarbonate plastic. The prefilters are held in place by a metal grille. Glass
breaking is performed on top of an angle-iron grate inside the area enclosed by the strip curtains. Figure
V shows the left-hand HFM, number 1.

The final production process, packing and shipping, returned the various materials segregated during the
disassembly and glass breaking processes to the warehouse to be sent to contracted purchasers of those
individual materials. To facilitate shipment some bulky components such as plastic cabinets or metal
frames were placed in a hydraulic bailer to be compacted for easier shipping. Other materials were boxed
or containerized and removed for subsequent sale to a recycling operation.

In addition to monitoring routine daily activities in the four production processes described above,
environmental monitoring was conducted to evaluate exposures during the replacement of filters in the
local exhaust ventilation system used for the GBO. This is a maintenance operation that occurs at
approximately monthly intervals during which the two sets of filters in this ventilation system are removed
and replaced. This operation was of particular interest because of concern expressed by management and
workers and also because of elevated exposures documented in previous similar operations. Two workers
in spun-bonded olefin coveralls, gloves and PAPRs remove both sets of filters, clean the system, and
replace the filters. They are assisted by two additional workers who wear spun-bonded olefin coveralls
and gloves while working outside the glass breaking enclosure. The filter change is a maintenance
operation that occurs at approximately monthly intervals during which the ventilation system is shut down
and all filters are removed and replaced. Initially the exhaust system components, including the accessible
surfaces of the filters, are vacuumed with a HEP A vacuum. Then the filters are removed and bagged for
disposal, and the area inside the filter housing is vacuumed. New filters are inserted to replace the old
ones, the LEV system is reassembled, and any residual dust is HEPA vacuumed.


III.   SAMPLING AND ANALYTICAL METHODS

Air sampling techniques
Methods used to assess worker exposures in this workplace evaluation included: personal breathing zone
sampling for airborne metals and total particulate; surface wipe sampling to assess surface contamination;
and bulk material samples to determine the composition of settled dust. Material safety data sheets and
background information on CRTs and other processes in this operation listed several metals, including
lead, cadmium, beryllium and nickel. Additionally, FOH personnel expressed specific interest in barium
due to whistleblower allegations that inmate workers and civilian staff members were being exposed to
toxic materials, including lead, cadmium, barium, and beryllium, at electronics recycling operations
overseen by Federal Prison Industries (UNICOR) at a number of BOP facilities around the country.

Personal breathing zone and general area airborne particulate samples were collected and analyzed for
metals and airborne particulate. Samples were collected for as much of the work shift as possible, at a
flow rate of 3 liters/minute (Llmin) using a calibrated battery-powered sampling pump (Model 224, SKC
Inc., Eighty Four, PA) connected via flexible tubing to a 37-mm diameter filter (0.8 /lm pore-size mixed
cellulose ester filter) in a 3-piece, clear plastic cassette sealed with a cellulose shrink band. These samples
were subsequently analyzed for metals using inductively coupled plasma spectroscopy (ICP) according to
NIOSH Method 7300 [NIOSH 1994] with modifications. It is possible to determine both airborne
particulate as well as metals on the same sample by using a pre-weighed filter (for total particulate
samples) and then post-weighing that filter to determine weight gain before digesting for metals analysis.
                                                       7

This analytical technique produces a measure for dust and a measure of 31 elements, including the five of
particular interest mentioned above, and that information is appended to this report. Because Method
7300 is an elemental analysis, the laboratory report describes the amount ofthe element present in each
sample (/lglsample) as the element. The method does not distinguish among the compounds which may
have contained the element in the sample.

Because there is evidence that the presence of an ultrafine component increases the toxicity for chronic
beryllium disease and possibly other toxic effects, information on the aerosol size distribution was
collected to assist in evaluation ofthe potential exposure [McCawley et al. 2001]. An aerodynamic
particle sizer (APS model 3321, TSI Instruments, Shoreview, MN) was used to collect this information on
a real time basis with data transfer directly to a laptop computer. The number concentration [number of
particles/cubic centimeter (cm3 )] of particles of various sizes was counted over the range from O.S to
20 /lm a using time-of-flight technique. The sampler was placed inside of the glass-breaking enclosure.

Bulk sampling and analysis
Bulk material samples were collected by gathering a few grams of settled dust or material of interest and
transferring this to a glass collection bottle for storage and shipment. These samples were analyzed for
metals using NIOSH Method 7300 [NIOSH 1994] modified for bulk digestion.

Surface contamination technique
Surface wipe samples were collected using Ghost™ Wipes for metals (Environmental Express, Mt.
Pleasant, SC) and Palintest® Dust Wipes for Be (Gateshead, United Kingdom) to evaluate surface
contamination. These wipe samples were collected in accordance with ASTM Method D 6966-03 [ASTM
2002], with a disposable paper template with a 10-cm by 10-cm square opening. The templates were held
in place by hand or taped in place, to prevent movement during sampling. Wipes were placed in sealable
test tube containers for storage until analysis. Ghost Wipes™ were sent to the laboratory to be analyzed
for metals according to NIOSH Method 7303 [NIOSH 1994]. Palintest wipes were analyzed for beryllium
using the Quantech Fluorometer (Model FMI09S1S, Barnstead International, Dubuque, Iowa) for
spectrofluorometric analysis by NIOSH Method 9110 [NIOSH 1994].

Observations regarding work practices and use of personal protective equipment were recorded.
Information was obtained from conversations with the workers and management to determine if the
sampling day was a typical workday to help place the sampling results in proper perspective.

Heat Exposure Measurements
Measurements to determine heat exposure were made with a QUESTempo 34 datalogging thermal
environment monitor (Quest Technologies, Oconomowoc, WI). This device was capable of measuring
wet-bulb, dry-bulb and globe temperatures and calculating the Wet Bulb Globe Temperature Index
(WBGT) out (for solar load, not used for this evaluation), WBGT in (for no solar load), and humidity. The
WBGTin (indoors or outdoors with no solar load) is the sum of 0.7 times the Natural Wet-Bulb (NWB)
Temperature and 0.3 times the Globe Temperature (GT), expressed by the equation:
                                      WBGTin ~ 0.7 NWB + 0.3 GT

Where NWB is measured using a natural (static) wet-bulb thermometer and GT is measured using a black
globe thermometer. Measurements were stored electronically in the instrument and downloaded to a
computer at the end ofthe work day.



                                                     8

Local Exhaust Ventilation Characterization Methods
Several methods were used to evaluate the local exhaust ventilation system. These methods included
measuring air velocity at the face of each ofthe HFMs inside the glass-breaking area, and measuring air
velocities at the plastic curtains enclosing the glass-breaking grate in front of each HFM. In addition, a
smoke tracer was used to confirm the direction of the airflow and effect of secondary airflows on hood
performance. A Velocicalc Plus Model 8388 thermal anemometer (TSI Incorporated, St. Paul, MN) was
used to measure air speeds at the face of each HFM and just inside the enclosing plastic strip curtain. A
Wizard Stick smoke device (Zero Toys, Inc., Concord, MA) was used to visualize air flow.

The face velocity tests were performed by dividing the face of the HFM into 12 rectangles of equal area
and measuring the velocity at the center of each. Face velocities were taken at each center point averaged
over a period of 30 seconds, using a 5-second time averaging setting on the instrument. The metal grid in
front ofthe pre-filters was used to support the edge ofthe probe and the researcher stood to one side to
avoid obstructing air flow. To measure the velocities achieved by the control at each center point, the
anemometer probe was held perpendicular to the air flow direction at those points. The same
measurements were repeated at the front edge ofthe plastic strip curtains enclosing the area immediately
in front of each HFM to determine the capture velocity at that point.

Smoke was released around the periphery of the hood and in the interior ofthe hood to qualitatively
evaluate the capture and determine areas of concern. By releasing smoke at points in and around the
hood, the path ofthe smoke, and thus any airborne material potentially released at that point, could be
qualitatively determined.


IV.    OCCUPATIONAL EXPOSURE LIMITS AND HEALTH EFFECTS

In evaluating the hazards posed by workplace exposures, NIOSH investigators use mandatory and
recommended occupational exposure limits (OELs) for specific chemical, physical, and biological agents.
Generally, OELs suggest levels of exposure to which most workers may be exposed up to 10 hours per
day, 40 hours per week for a working lifetime without experiencing adverse health effects". It is,
however, important to note that not all workers will be protected from adverse health effects even though
their exposures are maintained below these levels. A small percentage may experience adverse health
effects because of individual susceptibility, a pre-existing medical condition, and/or hypersensitivity
(allergy). In addition, some hazardous substances may act in combination with other workplace exposures,
the general environment, or with medications or personal habits ofthe worker to produce health effects
even ifthe occupational exposures are controlled at the level set by the exposure limit. Combined effects
are often not considered in the OEL. Also, some substances can be absorbed by direct contact with the
skin and mucous membranes in addition to being inhaled, thus contributing to the overall exposure.
Finally, OELs may change over the years as new information on the toxic effects of an agent become
available.




 On March 20,1991, the Supreme Court decided the case ofInternational Union, United Automobile,
Aerospace & Agricultural Implement Workers of America, UAW v. Johnson Controls, Inc., 111 S. Ct.
1196,55 EPD 40,605. It held that Title VII forbids sex-specific fetal protection policies. Both men and
women must be protected equally by the employer.
                                                    9
Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the average
exposure during a normal 8- to 1O-hour workday t. Some chemical substances and physical agents have
recommended short-term exposure limits (STEL) or ceiling values where there are health effects from
higher exposures over the short-term. Unless otherwise noted, the STEL is a 15-minute TWA exposure
that should not be exceeded at any time during a workday, and the ceiling limit is an exposure that should
not be exceeded at any time, even instantaneously.

In the U.S., OELs have been established by Federal agencies, professional organizations, state and local
governments, and other entities. Some OELs are mandatory, legal limits; others are recommendations. The
U.S. Department of Labor Occupational Safety and Health Administration (OSHA) Permissible Exposure
Limits (PELs) [29 CFR 1910 (general industry); 29 CFR 1926 (construction industry); and 29 CFR)915,
1917 and)918_(maritime industry)] are legal limits that are enforceable in workplaces covered under the
Occupational Safety and Health Act and in Federal workplaces under Executive Order 12196 [NARA
2008]. NIOSH Recommended Exposure Limits (RELs) are recommendations that are made based on a
critical review ofthe scientific and technical information available on the prevalence of hazards, health
effects data, and the adequacy of methods to identify and control the hazards. Recommendations made
through 1992 are available in a single compendium [NIOSH 1992]; more recent recommendations are
available on the NIOSH Web site (http://www.cdc.gov/niosh). NIOSH also recommends preventive
measures (e.g., engineering controls, safe work practices, personal protective equipment, and
environmental and medical monitoring) for reducing or eliminating the adverse health effects of these
hazards. The NIOSH Recommendations have been developed using a weight of evidence approach and
formal peer review process. Other OELs that are commonly used and cited in the U.S. include the
Threshold Limit Yalues (TLY s) ®recommended by the American Conference of Governmental Industrial
Hygienists (ACGIH) ®, a professional organization [ACGIH 2008]. ACGIH® TLY®s are considered
voluntary guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
control of health hazards." Workplace Environmental Exposure Levels (WEELs) are recommended OELs
developed by the American Industrial Hygiene Association (AIHA), another professional organization.
WEELs have been established for some chemicals "when no other legal or authoritative limits exist"
[AIHA 2007].

Employers should understand that not all hazardous chemicals have specific OSHA PELs and for many
agents, the legal and recommended limits mentioned above may not reflect the most current health-based
information. However, an employer is still required by OSHA to protect their employees from hazards
even in the absence of a specific OSHA PEL. In particular, OSHA requires an employer to furnish
employees a place of employment that is free from recognized hazards that are causing or are likely to
cause death or serious physical harm [Occupational Safety and Health Act of 1970, Public Law 91-596,
sec. 5(a)(1)]. Thus, NIOSH investigators encourage employers to make use of other OELs when making
risk assessment and risk management decisions to best protect the health of their employees. NIOSH
investigators also encourage the use of the traditional hierarchy of controls approach to eliminating or
minimizing identified workplace hazards. This includes, in preferential order, the use of: (1) substitution
or elimination ofthe hazardous agent, (2) engineering controls (e.g., local exhaust ventilation, process
enclosure, dilution ventilation) (3) administrative controls (e.g., limiting time of exposure, employee


t OSHA PELs, unless otherwise noted, are TWA concentrations that must not be exceeded during any 8­
hour workshift of a 40-hour work-week [NIOSH 1997]. NIOSH RELs, unless otherwise noted, are TWA
concentrations for up to a 10-hour workday during a 40-hour workweek [NIOSH 1997]. ACGIH®
TLYs®, unless otherwise noted, are TWA concentrations for a conventiona18-hour workday and 40-hour
workweek [ACGIH 2008]
                                                   10
training, work practice changes, medical surveillance), and (4) personal protective equipment (e.g.,
respiratory protection, gloves, eye protection, hearing protection).

Both the OSHA PELs and ACGIH® TLY®s address the issue of combined effects of airborne exposures to
multiple substances [29 CFR 1910.1000(d)(I)(i), ACGIH 2008]. ACGIH® [2008] states:
When two or more hazardous substances have a similar toxicological effect on the same target organ or
system, their combined effect, rather than that of either individually, should be given primary
consideration. In the absence of information to the contrary, different substances should be considered
as additive where the health effect and target organ or system is the same. That is, ifthe sum of
                            C1   C2       Cn
                            -+-+ ... -                              Eqn.l
                            1:, T2   Tn
exceeds unity, the threshold limit ofthe mixture should be considered as being exceeded (where C 1
indicates the observed atmospheric concentration and Tl is the corresponding threshold limit ...).

A. Exposure Criteria for Occupational Exposure to Airborne Chemical Substances

The OELs for the five primary contaminants of interest, in micrograms per cubic meter (Ilg/m\ are
summarized in Table I and additional information related to those exposure limits is presented below.


                                                                                        3
        Table 1: Occupational Exposure Limits for Five Metals of Primary Interest (IlWm")
        Barium (Ba)      Beryllium (Be)       Cadmium (Cd)      Lead (Pb)        Nickel (Ni)
                                           Lowest Feasible
REL     SOOTWA       O.S TWA                                   SO TWA      IS TWA
                                           Concentration
                     2 TWA
                     S (30 minute ceiling)
PEL     SOOTWA                             STWA                SO TWA      1000 TWA
                     2S (peak exposure
                     never to be exceeded)
                                                                           IS00 TWA (elemental)
                                                                           100 TWA (soluble
TLY®                 2 TWA                 10 (total) TWA
        SOOTWA                                                 SO TWA      inorganic compounds)
                     10 (STEL)             2 (respirable) TWA
                                                                           200 TWA (insoluble
                                                                           inorganic compounds

This subset of five metals has been selected for consideration through the body ofthis report because their
presence was noted on MSDSs or other information pertaining to CRTs and other processes at this facility
(beryllium, cadmium, lead and nickel) or due to the interest expressed in barium exposures by FOH
personnel due to whistleblower allegations that inmate workers and civilian staff members were being
exposed to toxic materials, including lead, cadmium, barium, and beryllium, at electronics recycling
operations overseen by Federal Prison Industries (UNICOR) at a number of BOP facilities around the
country.

The occupational exposure limits of all 31 metals quantified in this work are listed in Appendix A. Note
that these limits refer to the contaminant as the element (e.g., the TLY®s, beryllium and compounds, as
Be; cadmium and compounds, as Cd [ACGIH 2008]). Additionally, the OEL for dust is presented here to
place those air sampling results in perspective.


                                                    11 

Occupational Exposure Criteria for Barium (Ba)
The current OSHA PEL, NIOSH REL, and ACGIH® TLY® is 0.5 mg/m3 as a TWA for airborne barium
exposures (barium and soluble compounds, except barium sulfate, as barium) [29 CFR 1910.1000, NIOSH
2005, ACGIH 2008]. There is no AIHA WEEL for barium [AIHA 2007]. Skin contact with barium, and
many of its compounds, may cause local irritation to the eyes, nose, throat and skin, and may cause
dryness and cracking of the skin and skin bums after prolonged contact [Nordberg 1998].

Occupational Exposure Criteria for Beryllium (Be)
The OSHA general industry standard sets a beryllium PEL of 2 Ilg/m3 for an 8-hour TWA, a ceiling
concentration of 5 Ilg/m3, not to exceed 30 minutes and a maximum peak concentration of 25 Ilg/m3, not
to be exceeded for any period oftime [29 CFR 1910.1000]. The NIOSH REL for beryllium is 0.5 Ilg/m3
for up to a 1O-hour work day, during a 40-hour workweek [NIOSH 2005]. The current TLy® is an 8-hr
TWA of2 Ilg/m3, and a STEL of 10 llg/m3 [ACGIH 2008]. The ACGI~ published a notice of intended
changes for the beryllium TLY® to 0.05 llg/m3 TWA and 0.2 llg/m3 STEL based upon studies
investigating both chronic beryllium disease and beryllium sensitization [ACGIH 2008]. There is no
AIHA WEEL for beryllium [AIHA 2007]. Beryllium has been designated a known human carcinogen by
the International Agency for Research on Cancer [IARC 1993].

Occupational Exposure Criteria for Cadmium (Cd)
The OSHA PEL for cadmium is 5 llg/m3 as a TWA [29 CFR 1910.1027]. Exposure at or above halfthat
value, the Action Level of2.5 Ilg/m3 TWA, requires several actions ofthe employer. These include
providing respiratory protection ifrequested [29 CFR 1910.1027(g)(1)(v)], medical surveillance if
currently exposed more than 30 days per year [1910.1027(1)(1)(i)(A)], and medical surveillance if
previously exposed uuless potential aggregated cadmium exposure did not exceed 60 months
[1910.1027(1)(1)(i)(b)]. Initial examinations include a medical questionnaire and biological monitoring of
cadmium in blood (CdB), cadmium in urine (CdU), and Beta-2-microglobulin in urine (~2-M) [29 CFR
1910.1027 Appendix A]. An employee whose biological testing results during both the initial and follow­
up medical examination are elevated above the following trigger levels must be medically removed from
exposure to cadmium at or above the action level: (1) CdU level: above 7 Ilg/g creatinine, or (2) CdB
level: above 10 Ilg/liter of whole blood, or (3) ~2-M level: above 750 Ilg/g creatinine and (a) CdU exceeds
3 Ilg/g creatinine or (b) CdB exceeds 5 Ilg/liter of whole blood [OSHA 2004].

The ACGIH® TLY® for cadmium and compounds as cadmium is 10 Ilg/m3 as a TWA, and 2 Ilg/m3 TWA
for the respirable fraction of airborne cadmium and compounds, as cadmium [ACGIH 2008]. The
ACGIH® also published a Biological Exposure Index® that recommends that cadmium blood level be
controlled at or below 5 Ilg/L and urine level to be below 5 Ilg/g creatinine [ACGIH 2008]. There is no
AIHA WEEL for cadmium [AIHA 2007].

In 1976, NIOSH recommended that exposures to cadmium in any form should not exceed a concentration
greater than 40 Ilg/m3 as a lO-hour TWA or a concentration greater than 200 Ilg/m3 for any 15-minute
period, in order to protect workers against kidney damage and lung disease. In 1984, NIOSH issued a
Current Intelligence Bulletin, which recommended that cadmium and its compounds be regarded as
potential occupational carcinogens based upon evidence oflung cancer among a cohort of workers
exposed in a smelter [NIOSH 1984]. NIOSH recommends that exposures be reduced to the lowest
feasible concentration [NIOSH 2005]. This NIOSH REL was developed using a previous NIOSH policy
for carcinogens (29 CFR 1990.103). The current NIOSH policy for carcinogens was adopted in September
1995. Under the previous policy, NIOSH usually recommended that exposures to carcinogens be limited
to the "lowest feasible concentration," which was a nonquantitative value. Under the previous policy, most
                                                    12 

quantitative RELs for carcinogens were set at the limit of detection (LOD) achievable when the REL was
originally established. From a practical standpoint, NIOSH testimony provided in 1990 on OSHA's
proposed rule on occupational exposure to cadmium noted that, "NIOSH research suggests that the use of
innovative engineering and work practice controls in new facilities or operations can effectively contain
cadmium to a level of 1 /lg/m3. Also, most existing facilities or operations can be retrofitted to contain
cadmium to a level of 5 /lg/m3 through engineering and work practice controls" [NIOSH 1990].
Early symptoms of cadmium exposure may include mild irritation ofthe upper respiratory tract, a
sensation of constriction of the throat, a metallic taste and/or cough. Short-term exposure effects of
cadmium inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness. Short­
term exposure effects of ingestion may include nausea, vomiting, diarrhea, and abdominal cramps
[NIOSH 1989]. Long-term exposure effects of cadmium may include loss of the sense of smell,
ulceration ofthe nose, emphysema, kidney damage, mild anemia, an increased risk of cancer ofthe lung,
and possibly ofthe prostate [NIOSH 1989, Thun et al. 1991, Goyer 1991].

Occupational Exposure Criteria for Lead (Pb)
The OSHA PEL for lead is 50 /lg/m3 (8-hour TWA), which is intended to maintain worker blood lead 

level (BLL) below 40 /lg/deciliter (dL). Medical removal is required when an employee's BLL reaches 50 

                                                                                          3
/lg/dL [29 CFR 1910.1025]. The NIOSH REL for lead (8-hour TWA) is 0.050 mg/m ; air concentrations 

should be maintained so that worker blood lead remains less than 0.060 mg Pb/IOO g of whole blood 

[NIOSH 2005]. At BLLs below 40 /lg/dL, many of the health effects would not necessarily be evident by 

routine physical examinations but represent early stages in the development of disease. In recognition of 

this, voluntary standards and public health goals have established lower exposure limits to protect workers 

and their children. The ACGIH® TLy® for lead in air is 50 /lg/m3 as an 8-hour TWA, with worker BLLs 

to be controlled to :s 30 /lg/dL. A national health goal is to eliminate all occupational exposures that result 

in BLLs >25 /lg/dL [DHHS 2000]. There is no AIHA WEEL for lead [AIHA 2007]. 


Occupational exposure to lead occurs via inhalation oflead-containing dust and fume and ingestion from 

contact with lead-contaminated surfaces. Symptoms oflead poisoning include weakness, excessive 

tiredness, irritability, constipation, anorexia, abdominal discomfort (colic), fine tremors, and "wrist drop" 

[Saryan and Zenz 1994, Landrigan et al. 1985, Proctor et al. 1991a]. Overexposure to lead may also result 

in damage to the kidneys, anemia, high blood pressure, impotence, and infertility and reduced sex drive in 

both genders. In most cases, an individual's BLL is a good indication of recent exposure to and current 

absorption oflead [NIOSH 1978]. 


Occupational Exposure Criteria for Nickel (Hi) 

The NIOSH REL for nickel metal and other compounds (as nickel) is 15 /lg/m3 based on its designation as 

a potential occupational carcinogen [NIOSH 2005]. The ACGIH® TLY® for insoluble inorganic 

compounds of nickel is 200 /lg/m3 (inhalable fraction). For soluble inorganic nickel compounds the TLY® 

is 100 /lg/m3 (inhalable fraction). The TLY® for elemental nickel is 1,500 /lg/m3 (inhalable fraction) 

[ACGIH 2008]. The OSHA PEL for nickel is 1,000 /lg/m3 TWA [29 CFR 1910.1000]. Metallic nickel 

compounds cause allergic contact dermatitis [Proctor et al. 1991b]. NIOSH considers nickel a potential 

occupational carcinogen [NIOSH 2005]. There is no AIHA WEEL for nickel [AIHA 2007]. 


Occupational Exposure Criteria for Dust
The maximum allowable exposure to airborne particulate not otherwise regulated is established by OSHA
at 15 mg/m3 for total and 5 mg/m3 for the respirable portion [29 CFR 1910.1000]. A more stringent
recommendation of 10 mg/m3 inhalable and 3 mg/m3 respirable is presented by the ACGIH® which feels

                                                       13 

that "even biologically inert insoluble or poorly soluble particulate may have adverse health effects"
[ACGIH 2008]. There is no AIHA WEEL for these substances [AIHA 2007].

B. Surface Contamination Criteria

Occupational exposure criteria have been discussed above for airborne concentrations of several metals.
Surface wipe samples can provide useful information in two circumstances; first, when settled dust on a
surface can contaminate the hands and then be ingested when transferred from hand to mouth; and second,
if the surface contaminant can be absorbed through the skin and the skin is in frequent contact with the
surface [Caplan 1993]. Although some OSHA standards contain housekeeping provisions which address
the issue of surface contamination by mandating that surfaces be maintained as free as practicable of
accumulations of the regulated substances, there are currently no surface contamination criteria included
in OSHA standards [OSHA 2008].1 The health hazard from these regulated substances results principally
from their inhalation and to a smaller extent from their ingestion; those substances are by and large
"negligibly" absorbed through the skin [Caplan 1993]. NIOSH RELs do not address surface
contamination either, nor do ACGIH® TLV®s or AIHA WEELs. Caplan [1993] stated that "There is no
general quantitative relationship between surface contamination and air concentrations ... " He also noted
that, "Wipe samples can serve a purpose in determining if surfaces are as 'clean as practicable'. Ordinary
cleanliness would represent totally insignificant inhalation dose; criteria should be based on surface
contamination remaining after ordinarily thorough cleaning appropriate for the contaminant and the
surface." With those caveats in mind, the following paragraphs present guidelines that help to place the
results of the surface sampling conducted at this facility in perspective.

Surface Contamination Criteria for Five Metals of Primary Interest

Surface Contamination Criteria for Lead
Federal standards have not been adopted that identify an exposure limit for lead contamination of surfaces
in the industrial workplace. However, in a letter dated January 13. 2003 [Fairfax 2003], OSHA's
Directorate of Compliance Programs indicated that the requirements of OSHA's standard for lead in the
construction workplace [29 CFR 1926.62(h)(1), 1926.62(i)(2)(i) and 1926(i)(4)(ii)] interpreted the level of
lead-contaminated dust allowable on workplace surfaces as follows: a) All surfaces shall be maintained as
'free as practicable' of accumulations oflead, b) The employer shall provide clean change areas for
employees whose airborne exposure to lead is above the permissible exposure limit, c) The employer shall
assure that lunchroom facilities or eating areas are as free as practicable from lead contamination, d) The
OSHA Compliance Directive for the Interim Standard for Lead in Construction, CPL 2-2.58 recommends
the use ofHUD's acceptable decontamination level of21.5 flg/IOO cm2 (200 flg/square foot [&])for
floors in evaluating the cleanliness of change areas, storage facilities, and lunchrooms/eating areas, e) In
situations where employees are in direct contact with lead-contaminated surfaces, such as, working
surfaces or floors in change rooms, storage facilities, lunchroom and eating facilities, OSHA has stated
that the Agency would not expect surfaces to be any cleaner than the 21.5 flg/IOO cm2 (200 flg/&) level,
and f) For other surfaces, OSHA has indicated that no specific level can be set to define how "clean is
clean" nor what level oflead contamination meets the definition of "practicable." OSHA notes that "the
term 'practicable' was used in the standard, as each workplace will have to address different challenges to
ensure that lead-surface contamination is kept to a minimum. It is OSHA's view that a housekeeping
program which is as rigorous as 'practicable' is necessary in many jobs to keep airborne lead levels below


:I: OSHA has referenced a Department of Housing and Urban Development (HUD) lead criteria in
documents related to its enforcement of the lead standard [Fairfax 2003].
                                                     14
permissible exposure conditions at a particular site" [Fairfax 2003]. Specifically addressing contaminated
surfaces on rafters, OSHA has indicated that they must be cleaned (or alternative methods used such as
sealing the lead in place), as necessary to mitigate lead exposures. OSHA has indicated that the intent of
this provision is to ensure that employers regularly clean and conduct housekeeping activities to prevent
avoidable lead exposure, such as would potentially be caused by re-entrained lead dust. Overall, the intent
ofthe "as-free-as-practicable" requirement is to ensure that accumulation oflead dust does not become a
source of employee lead exposures. OSHA has stated that any method that achieves this end is acceptable.

In the United States, standards for final clearance following lead abatement were established for public
housing and facilities related to children. However, no criteria have been recommended for other types of
buildings, such as commercial facilities. One author has suggested criteria based upon lead-loading
values. Lange [2001] proposed a clearance level of 108 flgllOO cm2 (1000 flg/if) for floors of non-lead
free buildings and 118 flgllOO cm2 (1100 flglif) for lead-free buildings, and states that "no increase in
BLL should occur for adults associated or exposed within a commercial structure" at the latter level.
These proposed clearance levels are based on calculations that make a number of intentionally
conservative assumptions such as: a) Lead uptake following ingestion is 35% absorption oflead in the
                                                                       2
gastrointestinal system, b) Fingers have a total "touch" area of 10 cm and 100% ofthe entire presumed
lead content on all 10 fingers is taken up, c) The average 'normal' environmental lead dose (from
'uncontaminated food/water/air) is 20 flg per day, d) The weight ofthe exposed person is 70 kg, and e)
Daily lead excretion is limited to an average of 48 flg. Lange [2001] notes that "use ofthe proposed
values would provide a standard for non-child-related premises (e.g. commercial, industrial, office) ..." but
cautions that, "Further investigation is warranted to evaluate exposure and subsequent dose to adults from
surface lead."

Surface Contamination Criteria for Beryllium
A useful guideline is provided by the U.S. Department of Energy, where DOE and its contractors are
required to conduct routine surface sampling to determine housekeeping conditions wherever beryllium is
present in operational areas of DOEINNSA facilities. Those facilities must maintain removable surface
contamination levels that do not exceed 3 flgllOO cm2 during non-operational periods. The DOE also has
release criteria that must be met before beryllium-contaminated equipment or other items can be released
to the general public or released for use in a non-beryllium area of a DOE facility. These criteria state that
the removable contamination level of equipment or item surfaces does not exceed the higher of 0.2 flgllOO
    2
cm or the level of beryllium in the soil in the area of release. Removable contamination is defined as
"beryllium contamination that can be removed from surfaces by nondestructive means, such as casual
contact, wiping, brushing, or washing."

Surface Contamination Criteria for Cadmium
Like lead and beryllium, cadmium poses serious health risks from exposure. Cadmium is a known
carcinogen, is very toxic to the kidneys, and can also cause depression. However, OSHA, NIOSH, AIHA
and ACGIH® have not recommended criteria for use in evaluating wipe samples. The OSHA Cadmium
standard [29 CFR 1910.1027] mandates that "All surfaces shall be maintained as free as practicable of
accumulations of cadmium," that, "all spills and sudden releases of material containing cadmium shall be
cleaned up as soon as possible," and that, "surfaces contaminated with cadmium shall, wherever possible,
be cleaned by vacuuming or other methods that minimize the likelihood of cadmium becoming airborne."

Surface Contamination Criteria for Nickel
NIOSH, OSHA, AIHA and ACGIH® have not established occupational exposure limits for nickel on
surfaces.
                                                      15 

Surface Contamination Criteria for Barium
NIOSH, OSHA, AIHA and ACGIH® have not established occupational exposure limits for barium on
surfaces.

C. Heat Stress Evaluation Criteria

Section 19 ofthe Occupational Safety and Health Act of 1970 (the Act) identifies federal agency safety
program and responsibilities and, through its implementing regulations, requires agency heads to furnish
federal employees places and conditions of employment "that are free from recognized hazards that are
causing or are likely to cause death or serious physical harm" [29 CFR 1960.8]. In addition, Executive
Order 12196 expands on the responsibilities originating from the Act and requires agency heads to
"[a]ssure prompt abatement of unsafe or unhealthy working conditions." In circumstances where such
conditions cannot be abated, the agency must develop a plan that identifies a timetable for abatement and
a summary of interim steps to protect employees. Employees exposed to the conditions also must be
informed of the provisions ofthe plan.

The criteria OSHA uses to determine overexposures to heat stress were developed by the NIOSH and the
ACGIH®. Factors taken into consideration in evaluating heat stress include environmental and metabolic
heat Gudged as the work rate) of the worker; the clothing and personal protective equipment worn; and the
cycle of work and recovery. The assumptions made for the purposes of this report are that all workers
have been acclimatized under heat-stress conditions similar to those anticipated for a minimum of 2 weeks
and that there is adequate water and salt intake.

As described in the ACGIH® Documentation of Threshold Limit Values [ACGIH 2007], Light work is
illustrated as, "Sitting with light manual work with hands or hands and arms and driving. Standing with
some light arm work and occasional walking." The Moderate work cate~ory, considered to be the
predominant rate observed at Marianna, is defined by the ACGIH® TLVas, "Sustained moderate hand
and arm work, moderate arm and leg work, moderate arm and trunk work, or light pushing and pulling.
Normal walking." The example of Heavy work given in the ACGIH® TLV® as, "Intense arm and trunk
work, carrying, shoveling, manual sawing; pushing and pulling heavy loads; and walking at a fast pace."
Very Heavy work is exemplified by, "Very intense activity at fast to maximum pace."

Because the evaporation of sweat from the skin is the predominant heat removal mechanism for workers,
any clothing or PPE that impedes that evaporation needs to be considered in an evaluation of heat stress.
Accepted clothing for heat stress evaluation using the TLY® WBGT criteria is traditional long sleeve work
shirt and pants. This is essentially the level of clothing worn by all workers at the Marianna facility.
Therefore an adjustment for clothing beyond such a summer work uniform; a Clothing Adjustment Factor
- [CAF]), should be made for workers in the GBO, due primarily to their use of spun-bonded olefin
coveralls [ACGIH 2007, Bernard 2005].

NIOSH Recommended Exposure Limits
The NIOSH RELs for Heat Stress for acclimatized workers are shown in Figure VI [NIOSH 1986].
NIOSH recommends controlling total heat exposures so that unprotected, healthy acclimatized workers
are not exposed to combinations of metabolic and environmental heat that exceed the applicable RELs.
The recommended limits are for healthy workers who are physically and medically fit for the level of
activity required by their work and are wearing the traditional one layer work clothing of not more than
long-sleeved work shirts and pants (or equivalent). The limits may not provide adequate protection to
workers wearing clothing with lower air or vapor permeability or insulation values that exceed those of
                                                    16 

traditional work clothing. NIOSH recommends that no worker be exposed to combinations of metabolic
and environmental heat exceeding the applicable ceiling limit unless provided with and properly using
adequate heat-protective clothing.

NIOSH [1986] recommends reducing the REL and RAL by 2 °C (3.8 OF) when the worker is wearing a
two-layer clothing system, and lowering the REL and RAL by 4 °C (7.2 OF) when a "partially air and/or
vapor impermeable ensemble or heat reflective or protective leggings, gauntlets, etc. are worn." However,
the NIOSH document notes that those suggested corrections are scientific judgments that were not
substantiated by controlled experimental studies or prolonged experience in industrial settings.

Threshold Limit Value and Action Level
The above work rate and clothing factors can be used, in combination with the hourly work / rest regimen
of exposed workers, to find the permissible maximum WBGT heat exposure limit (expressed in 0c) from
the table ofTLY®s.

             Table 2: Heat Stress TLY®s and Action Limit WBGT Values [ACGIH 2007]

Allocation of              TLV®(WBGT values in"C)               Action Limit (WBGT values in "C)
Work in a Cycle
of Work and                                         Very                                     Very
Recovery           Light     Moderate   Heavy       Heavy     Light    Moderate    Heavy     Heavy
   75% to 100%     31.0       28.0                            28.0       25.0
   50% to 75%      31.0       29.0       27.5                 28.5       26.0       24.0
    25% to 50%     32.0        30.0      29.0       28.0      29.5       27.0       25.5      24.5
    0% to 25%      32.5       31.5       30.5       30.0      30.0       29.0       28.0      27.0

Assessment of exposures in relation to the stress and strain TLV®s is a step-by-step process, once
exposures and working conditions have been assessed. The first step is to ascertain whether or not a CAF
is available. There is a CAF for polyolefin coveralls of 1.0 °C (1.8 OF) WBGT. The TLV®s note that "the
recommended adjustment factors are based on a worker wearing a single layer coverall over modesty
clothing" (e.g., shorts and tee-shirt, or perhaps the tee-shirts and work pants worn by the workers in the
GBO).

If there is a CAF available, one should determine whether or not the screening criteria for the Action Limit
(above) are exceeded, and if they are, then determine if the screening criteria for the TLV® (above) are
exceeded (ifthe Action Limit criteria are not exceeded, continue to monitor work conditions). If the
screening criteria for the TLV® are exceeded, a detailed analysis is recommended, including obtaining a
task analysis that includes a time-weighted average of the "Effective WBGT" (the environmental WBGT
plus the CAF) and the metabolic rate.

The next step is to review the results ofthe detailed analysis. Ifthe detailed analysis indicates that the
Action Limit is exceeded, but the TLY® is not (or the workers are acclimatized), then general controls
should be implemented and monitoring of conditions continued. General controls include [ACGIH 2007]:

• Provide accurate verbal and written instructions, annual training programs, and other
information about heat stress and strain
• Encourage drinking small volumes (approximately 1 cup) of cool, palatable water (or other
acceptable fluid replacement drink) about every 20 minutes


                                                      17 

• Permit self-limitation of exposures and encourage co-worker observation to detect signs and
symptoms of heat strain in others
• Counsel and monitor those who take medications that may compromise normal cardiovascular,
blood pressure, body temperature regulation, renal, or sweat gland functions; and those who
abuse or are recovering from the abuse of alcohol or other intoxicants
• Encourage healthy life-styles, ideal body weight and electrolyte balance
• Adjust expectations ofthose returning to work after absence from hot exposure situations and
encourage consumption of salty foods (with approval of physician if on a salt-restricted diet)
• Consider preplacement medical screening to identify those susceptible to systemic heat injury
• Monitor the heat stress conditions and reports of heat-related disorders

If the detailed analysis reveals that the "exposure exceeds the limits for acclimatized workers," the
ACGIH® [2007] recommends that physiological monitoring (e.g., core body temperature, heart rate
monitoring) as "the only alternative to demonstrate that adequate protection is provided." Ifphysiological
monitoring indicates that employees are experiencing excessive heat strain (the overall bodily response to
heat stress), then job-specific controls should be implemented. These include [ACGIH 2007}:

• Consider engineering controls that reduce the metabolic rate, provide general air movement,
reduce process heat and water vapor release, and shield radiant heat sources, among others
• Consider administrative controls that set acceptable exposure times, allow sufficient
recovery, and limit physiological strain
• Consider personal protection that is demonstrated effective for the specific work practices
and conditions at the location

Finally, ACGIH® [2007] notes that a program to manage heat stress is required when heat stress levels
exceed the Action Limit or workers utilize clothing ensembles that limit heat loss, and that in either case,
general controls should be utilized to protect workers.


V.     RESULTS AND DISCUSSION

The work described here was conducted in August, 2007 at the Marianna FCI and FPC, UNICOR
Recycling Factory electronic components recycling operations. During this testing air, surface wipe, bulk
dust and heat data were collected in locations where the electronics recycling operations were taking place
or had taken place in the past. The primary purposes ofthis evaluation were to estimate the potential
exposures of inmates and/or staffto toxic substances and heat encountered during the recycling of
electronic components, and to recommend remedial measures to reduce exposures if necessary.

A statistical summary of air sampling results is presented in Table 3, and results of personal breathing
zone and area air sampling are shown in Table 4. Surface wipe sample results are contained in Table 5;
bulk material sample results are presented in Table 6; environmental heat measurements are shown in
Table 7; and estimated work rates and metabolic heat values are given in Table 8. Table 9 provides the
results of the ventilation evaluation in the GBO. As mentioned in Section III above, all samples were
analyzed for 31 metals due to the parameters of the analytical method. While the data in these tables
present the results ofjust the five metals of primary interest in this evaluation, results of all analyses are
contained in the appendices. These data indicate levels well below the OELs of those other metals, even
when results for combined exposures as calculated by Equation 1 are considered.


                                                      18 

A. Bulk Material Sample Results
Five bulk material samples of dust from locations within the GBO were collected in August 2007. These
samples were analyzed for metals, and the results are presented in Table 6 for the metals of primary
interest. The one metal present in all five samples in significant concentration is lead, which ranged from
2,200 to 35,000 mg/kg (0.22% to 3.5%). Nickel was measured at 0.2% in one sample. No beryllium was
detected in these bulk samples. The entire data set (all 31 metals) is presented in Appendix B at the end of
this report.

B. Surface Wipe Sample Results
The surface wipe sample results collected during the visit in the electronic recycling operations at the
Marianna FCI are summarized below and in Table 5, and the entire surface wipe sample data set is
contained in Appendix C. Results of spectrofluorometric analysis for beryllium only confirmed ICP
measurements and are not repeated in the tables.

It is noteworthy that many ofthe cadmium wipe samples collected from work surfaces described as
"rubber" or "mat(t)" have many ofthe highest levels of surface contamination, although the data were not
analyzed for statistical significance since this technique is considered semi-quantitative. As Table 5
indicates, the majority ofthese mats were used as table coverings in the work area. The higher cadmium
levels may indicate that these surfaces are more difficult to clean and retain dust, or they may be indicative
ofthe operations taking place at those work stations. In either case, using cardboard or another disposable
covering on top of the mats and discarding the covering after every shift would address the issue of
contamination ofthese surfaces.

FC! Recycling Factory
Wipe samples taken in the UNICOR electronic recycling factory did not indicate levels of barium on work
surfaces at levels of concern as discussed in Section IV above in the surface contamination subsection.
                                                                2
The highest barium concentration detected was 80 /lg/lOO cm No beryllium was detected in samples
from the recycling factory; the limit of detection was 0.07 /lg/lOO cm2 Many of the surfaces tested for
lead indicated levels exceeding the OSHA-referenced HUD criteria of21.5 /lg/100 cm2 , including two in
the breakdown area that contained 110 and 140 /lg/100 cm2 While there are no criteria for evaluating
                                                                                            2
cadmium surface contamination, 3 of23 ofthe cadmium measurements were 19 /lg/lOO cm or greater,
with a range from less than the limit of detection of 0.1 /lg/lOO cm2 to 65 /lg/100 cm2 The highest level
of nickel surface contamination was 68 /lg/lOO cm2

FPC
Three surfaces were wiped to measure surface metal contamination in the camp (Table 5) and one
                                                                                                  2
produced the highest levels of barium, cadmium and lead seen (320, 360, and 5100 /lg/100 cm
                                           2
respectively) and 52 /lg ofnickelll00 cm This was a sample of accumulated dust collected on top of an
electrical conduit attached to the back wall to the left ofHFM-l inside the containment area. This
indicates insufficient cleaning in this area of airborne dust that escaped capture by the local exhaust
system. It should be noted that the denominator (100 cm2 ) is an approximation for this sample, which was
collected from a rounded surface where a template could not be used. The other two samples here were
well below the suggested maximum levels. However, one was obtained from the door of a locker used to
store PPE, and the other was collected on top of the bookcase used to charge the PAPR battery packs,
indicating that some contamination is present in these clean areas. This is confirmed by the results of the
bulk sample of settled dust collected from on top of a locker in the GBO (Table 6).



                                                     19 

C. Air Sample Results
 Air measurements were collected during both routine and non-routine operations in the areas identified,
including the GBO. Data presented here and in Table 4 are for the duration ofthe samples rather than for
an 8-hour time weighted average since the concentrations of contaminants are so low in most cases.
Measurements made during the filter change operation are presented at the bottom of Table 4 and
discussed separately below since this was not a routine production operation. The full data set of all 31
metals is presented in Appendix D.

FC! Recycling Factory
Eighteen samples were collected in the UNICOR recycling factory for airborne metals during the August,
2007 study. These data can be identified by date in Table 4, but the magnitudes ofthe exposures were not
generally different by date. Measurements during routine operations revealed that barium concentrations
ranged between <0.05 and 0.26 /lg/m3 and were below occupational exposure limits. Beryllium levels
also were all below the limit of detection. The minimal detectable concentration (limit of
detection/sample volume) varied with sample volume, most being <0.03 /lg/m3 Cadmium, lead and
nickel, likewise, were found at low levels ranging up to 0.091, 0.54, and 0.19 /lg/m 3, respectively. Lead
was the metal found in highest quantity, but only 6 samples were above the limit of detection and the
highest was approximately 1% ofthe occupational exposure limits of 50 /lg/m 3 Airborne particulate
concentrations ranged up to 717 /lg/m3 «0.1 to 0.7 mg/m3).

FPC Recycling operations
Airborne metal concentrations in the FPC, in operations other than glass breaking, were generally lower
than those in the FCr. Fourteen samples collected principally in trucking and breakdown operations were
well below the most stringent occupational exposure limit. Two samples in this series were compromised.
In one instance, an employee touched the inlet with her work glove and some lint was captured by the
sampler. In the second, an employee was unloading recyclables and toner spilled on her front; some toner
entered the sampling cassette. Airborne lead levels were all below the limit of detection when those two
samples are excluded. No beryllium was detected in any ofthe samples. Nickel results were also less than
the limit of detection, with the exception of one ofthe compromised samples. Barium and cadmium
ranged up to 0.42 and 0.24 /lg/m3 respectively, when the compromised samples are ignored. Airborne
total particulate concentrations ranged from <60 to 887 /lg/m when the compromised samples are
excluded.

FPC Glass Breaking Room - Routine Production
While exposures in the GBO were of specific interest and anticipated to be higher than in other production
processes, no detectable levels of beryllium or nickel were found in the twelve samples collected at the
Marianna facility during the two days this process was monitored. Airborne levels of barium, cadmium
and lead ranged up to 2.1, 6.8 and 20 /lg/m3, respectively. None of the samples exceeded the relevant
occupational exposure limits as 8-hr TWAs (e.g., 6.8 /lg/m3 of cadmium in a 143 minute sample results in
an 8-hr TWA of 2.0 /lg/m3). This cadmium result approached, but did not exceed, the OSHA Action
Level. Particulate measurements ranged up to 891 /lg/m3. These results indicate that the HFMs do an
effective job in controlling the breakers' exposures to levels below relevant occupational exposure criteria.
The feeders ' exposures indicate that their jobs should be reviewed to determine the source of their
airborne exposures to determine if it originates from material handling or from dust escaping the enclosed
booth area. When the results of sampling conducted during routine operations in the GBO are reviewed,
the reader should recall that the GBO was operating on a shortened schedule due to the hot conditions.



                                                     20 

FPC Glass Breaking Room - Non-Routine Filter Cleaning and Maintenance Operations
The filter change operation in the GBO, discussed in the Process Description (Section II), was the task of
most concern regarding exposures of workers to toxic metals. As noted above, the filter change is a
maintenance operation that occurs at approximately monthly intervals during which the ventilation system
is shut down and all filters are removed and replaced. During this operation, two workers in spun-bonded
olefin coveralls, gloves and PAPRs remove both sets of filters, clean the system, and replace the filters.
They are assisted by two additional workers who wear spun-bonded olefin coveralls and gloves while
working outside the glass breaking enclosure. The exhaust system components, including the accessible
surfaces of the filters, are first HEP A vacuumed. The filters are then removed and bagged for disposal,
and the area inside the filter housing is vacuumed. New filters are inserted to replace the old ones, the
LEV system is reassembled, and any residual dust is HEPA vacuumed.

Air sampling preformed during this operation revealed that barium concentrations ranged from 1.0 to 16
/lg/m3 No beryllium or nickel was detected. Cadmium ranged from 0.74 to 12 /lg/m3 (0.069 to 1.4 /lg/m3
8-hr TWA), and again lead was the metal found in the highest concentration, ranging from 5.6 to 105
/lg/m3 (0.53 to 12 /lg/m3 8-hr TWA). Airborne total particulate measurements ranged from 270 to 5,000
/lg/m3

Results of particle size measurements from the Aerodynamic Particle Sizer inside the enclosed area in the
GBO are presented in Figure VII. These data indicate a low level of particle concentration (particles/cm3)
can be achieved during glass breaking through the use oflocal exhaust ventilation. As one would expect,
the maximum particle number concentration occurred during the filter change operation on August 9. Our
APS data show that the particle concentration during filter changing can reach approximately 325
             3
particles/cm in the 0.6 - 0.7 /lm size range, with the number of particles in the larger particle size near 3
/lm increasing to more than 150 particles/cm3 . Filter changing produced the highest particle counts, while
routine daily cleaning produced higher number concentrations than routine glass-breaking operations.
However, results indicated that none ofthe tasks were especially dusty when compared to other industrial
environments and tasks [Alexander et al. 1999, Kuhlbusch et al. 2004, Evans et al. 2008].

D.       Heat Measurement Results

The heat measurement data collected on August 8 and 9,2007, are presented in Table 7. Measurements of
indoor wet bulb globe temperature (WBGTin) were calculated for one hour increments and are presented
for each of the two days of the testing at that facility. Included are the heat stress data obtained in the
various locations tested in both FCI and FPC. The GBO operation was limited to the morning because of
the summer heat. However, no work-rest regimen was in place at any ofthe Marianna operations.

Having observed work at all Marianna locations evaluated, work rates in the FCI and FPC were
determined as shown in Table 8. The metabolic heat values are taken from the ACGIH® TLY®
documentation [ACGIH 2007]. They represent midpoints in the range of metabolic rates for the
categories of work. Because all workers were not working at the same rate, even though they were
assigned the same jobs, some tasks were given overlapping classifications.

Comparison ofthe Results with the NIOSH REL
Using the plot in Figure 7, entering a Metabolic Heat value of300 Watts (W) and entering a WBGT value
of32.8 °C (adding the NIOSH clothing adjustment of 4°C to the measured WBGT value of28.8 0c) for
the breakers, shows that the REL for continuous work (60 minutes/hour) was exceeded for the breakers
during their first hour of work on August 8. Since that hour represented their minimum measured heat
                                                     21 

exposure, the breakers' exposures exceeded the REL for continuous work for all of the measured periods.
The feeders' estimated metabolic heat equaled or exceeded that ofthe breakers (e.g., they lifted and
carried CRTs, while the breakers slid them and used breaking tools) and they shared the same
environmental heat exposure and wore spun-bonded olefin coveralls over their work clothes. Therefore,
the feeders were also exposed above the REL on both sampling days. Using the plot in Figure 7 and
entering a metabolic heat value of240 W (the average work rate for the outside workers in the GBO) on
the horizontal axis and an unadjusted WBGT value of28.8 °c, shows that the outside workers in the GBO
were at or slightly over the REL for continuous work for that period, and likely exceeded the REL for
continuous work during the period from 9:00 am to 10:00 am on August 9, when the WBGT value was
30.4 °c.

Using the same procedure, entering a metabolic heat value of240 W for all FCr workers and hourly TWA
WBGT values that ranged from 28.3 °c to 29°C on August 8 and from 29.2 °c to 30.4 °c, the FCr
workers' heat exposures approached or exceeded the REL for continuous work for several periods on both
days. Using the plot in Figure 7, the WBGT values in Table 7, and a metabolic heat value of 300 W for the
truck crew shows that their exposures approached or exceeded the REL for continuous work on both days
as well. Only the other warehouse workers experience heat exposures that were below the REL for
continuous work on both days, based on an estimated metabolic heat of 180 Wand a maximum I-hr TWA
of29.4 °c WBGT.

Comparison ofthe Results with the ACGIW TLVV
Adjusting the TLy® and Action Limit values in Table 2 by a CAF reduction of 1°C for workers wearing
spun-bonded olefin coveralls and comparing the results in Table 7 with those values utilizing the work
rates noted above indicates that some of the tasks performed by workers at this facility result in exceeding
recommended heat stress values under the conditions measured on August 8 and 9, 2007.

Specifically, the breakers' measured WBGT values of28.8 °c and 29.7 °c on August 8 and 29.7 °c and
30.4 °c on August 9 exceeded the CAF-adjusted TLY® of27 °c for moderate work performed
continuously (45-60 minutes out of every hour), and it should be noted that the WBGT monitor was
placed outside ofthe plastic enclosure wherein the breakers worked (because 4 of 6 GBO workers work
outside this enclosure). The WBGT value may have been higher inside the enclosure due to heat
generated by the electric motors in the HFMs. The same measured WBGT values represented the feeders'
environmental heat exposures. Their moderate to heavy work also resulted in WBGT exposures in excess
ofthe CAF-adjusted TLY®s of27 °c for continuous moderate work and 26.5 °c for heavy work for a
work cycle of 50% to 75% work in an hour. The filter change operation WBGT measurement of 31.2 °c
on August 9 also exceeded the CAF-adjusted TLY® for continuous light work of30 °c. No CAF
adjustment is required for workers in other tasks, who wore typical summer work clothing.

For the outside workers in the GBO, the measured WBGT values of28.8 °c and 29.7 °c on August 8
and 29.7 °c and 30.4 °c on August 9 and light to moderate work rates result in exposures that exceeded
the TLy® for continuous moderate work and the Action Limit for continuous light work. Reviewing the
WBGT values measured in the Warehouse on August 8 reveals that they ranged from 28.1 °c to 28.5 °c,
while WBGT measurements on August 9 in the Warehouse ranged from 28.6 °c to 29.4 °c. Those values
exceed the Action Limit for continuous light work of28.0 °c. The WBGT monitor in the Warehouse was
placed on the wooden reception counter at the loading dock entrance in an attempt to measure the
exposures of both the warehouse workers and the crew unloading trucks. The truck crew workers
exposures also exceeded the TLY® of28 °c for continuous moderate work. WBGT temperatures
measured in the FCr -Refurbish area ranged from 28.3 °c to 29.1 °c on August 8, and from 29.2 °c to
                                                     22 

30.3 °C on August 9, exceeding the Action Limit for continuous light work. Finally, measured WBGT
values in the FCI-Disassembly area ranged from 28.4 °C to 29.4 °C on August 8, and from 29.3 °C to
30.4 °C on August 9. These measurements exceeded the Action Limit for continuous light work.

E.        Local Exhaust System Measurements
The tests described above were conducted with the variable speed control on both units set at 100%. The
minihelic gauges on the left-hand HFM (sin 11023-1) and on the right-hand HFM (sin 11023-2) read 1.2
and 1.3 inches, respectively. The results ofthe velocity measurements are presented in Table 9. The
average face velocity measured at HFM-l (the one on the left when facing them from the front, sin 11023­
1) was 0.66 meters/second (m/sec) (130 feet/minute [fpm]); the average capture velocity at the edge of the
front curtains was 0.37 m/sec (73 fpm). The average face velocity measurement was in close agreement
with the manufacturer's test report of 0.66 m/sec (130 fpm) measured at the face ofthe HEPA filter with
the fan operating at 100% capacity. However, the manufacturer's readings only varied from 0.64 to 0.68
m/sec (125 to 133 fpm) versus 0.35 to 1.07 m/sec (68 to 210 fpm) measured during this testing. The
average face velocity measured at HFM-2 was 0.54 m/sec (106 fpm); the average capture velocity
measured at the edge of the curtains in front of the unit was 0.40 m/sec (78 fpm). The manufacturer's test
ofthe new unit reported an average face velocity of 0.76 m/sec (150 fpm) at the face ofthe HEPA filter
(range 0.71-0.81 m/sec [140-160 fpm]). There were some gaps visible between the prefilters on both
HFMs and there was a gap between HFM-2 and the angle-iron grate. The gaps between the prefilters may
shorten the service life ofthe HEPA filter by allowing larger particles to reach it. The measurements of
the face and capture velocity show that better capture is achieved in the central portion of both
workstations; performance drops off considerably outside of the center part ofthe enclosure. These gaps
may also account for the distribution of face velocities noted (some of which differed by more than 20%
from the mean value) as air was exhausted through the gaps, flowing around, rather than through, the
pre filters. The gap between the grate and the HFM may decrease the effectiveness of the HFM by
increasing the distance from the face to the glass-breaking operation and may allow broken glass to escape
collection and land on the floor resulting in an additional hazard and a longer clean-up time. Smoke
released showed the air tended to flow into the enclosed area in front of each HFM as expected.

Both HFMs are in an area enclosed by plastic curtains on two sides and a building wall on the other two
sides. The curtain enclosing the front of the area is composed of plastic strips. The side curtain is a
continuous plastic sheet, except for a cut out framed in wood that allows the attending inmates to pass
material to the tube breakers via a roller conveyor. The area in enclosed on top by plastic as well.

The HFMs discharge into the enclosure (rather than to the outside ofthe building, for example)
recirculating the filtered air into the workplace. Since the air is recirculated, the enclosure is not under
negative pressure with regard to the rest of the glass breaking facility. The American National Standards
Institute and the American Industrial Hygiene Association note that recirculation of air from industrial
exhaust systems into workroom air can result in hazardous air contaminant concentrations in the facility if
not designed properly [ANSIIAIHA 2007]. They recommend performing an evaluation of the process and
the toxicity ofthe materials used in the process before recirculating air to the workplace [ANSIIAIHA
2007]. That standard emphatically states "under no circumstances shall workroom air consist of 100%
recirculated air." According to the ANSIIAIHA standard., the recirculation of exhaust air streams that
contain highly toxic substances (as defined by the OSHA Hazard Communication Standard) requires the
use of a continuous monitoring device for the contaminant in the exhaust stream; however a continuous
monitoring of the pressure drop across the redundant filter may be acceptable if filter testing upon
installation reveals the presence of no more than 10% ofthe acceptable concentration ofthe contaminant
in the discharge ductwork [ANSIIAIHA 2007]. There are no continuous monitoring devices installed on
                                                    23 

these HFMs. While the samples collected during this evaluation were not collected in the discharge
ductwork, the measured occupational exposures were very low. Monitoring ofthe pressure drop across
the HEPA filter may be an acceptable means of monitoring filter loading and detecting any leaks. There
are manometers installed on both HFMs.

Exhausting the HFMs to the outside ofthe building could create negative pressure within the glass­
breaking booth with respect to the rest of the building to help contain airborne contaruinants generated by
that operation and eliruinate the recirculation of exhaust air. Addition of tempered make-up air would
cool the workers; the volume of makeup air supplied should be balanced with the exhaust volume to
maintain the desired negative pressure. However, since the HFMs are not designed to exhaust externally,
the manufacturer should be consulted before any modifications are attempted.

The OSHA lead standard includes requirements for the design and evaluation of mechanical exhaust
systems in workplaces where the OSHA PEL of 50 /lg/m3 [29 CFR 1910.1025]. These include a
requirement to perform measurements at least every 3 months (and within 5 days of any change that ruight
impact upon exposure) which demonstrate the effectiveness ofthe system in controlling exposure, such as
capture velocity, duct velocity, or static pressure. Where exhaust air is recirculated into the workplace,
that regulation also requires the use of a high efficiency filter with reliable back-up filter and the use of
controls to monitor the concentration of lead in the return air and to bypass the recirculation system
automatically if it fails. The OSHA cadruium standard includes siruilar requirements and adds a
requirement to utilize procedures to miniruize employee exposure to cadruium when maintenance of
ventilation systems and changing of filters is being conducted. However, none ofthe air samples revealed
lead or cadmium exposures above the OSHA PEL in the GBO, so these requirements do not apply here.


VI.    CONCLUSIONS AND RECOMMENDATIONS

The primary purpose of sampling is to determine the extent of employee exposures and the adequacy of
protection. Sampling also permits the employer to evaluate the effectiveness of engineering and work
practice controls and informs the employer whether additional controls need to be installed. Values that
exceed OELs indicate that additional controls are necessary. This study focused on the evaluation of
airborne exposures and heat stress, with additional data collected on surface contaruination.
Measurements of environmental heat indicate exposures above safe levels for the work loads and work
schedules. The results of air sampling during this August 2007 survey found that lead, cadmium, and
other metals are generated and released during the recycling operations at this facility. No exposures to
airborne metals or particulate were found that exceeded the OSHA Action Level for these substances
during routine production or during non-routine operations, such as the monthly filter change operation.
When the results of sampling conducted during routine operations in the GBO are reviewed, the reader
should remember that the GBO was operating on a shortened schedule due to the hot conditions.

Although the whistleblower was concerned about beryllium and literature that pertains to e-waste
recycling report that beryllium is present in electronic components, none was detected in air, wipe, or bulk
samples collected at this facility. One explanation for this is based on the work of Willis and Florig
[2002]. They note that beryllium "in consumer products is used in ways that are not likely to create
beryllium exposures during use and maintenance." The recycling operations (except the GBO) involve
disassembly of electronics and sorting of the components. While some breakage occurs during the
disassembly process, the components likely to contain beryllium are not subject to further processing that
might create the potential for beryllium exposures.
                                                     24 

Recommendations are presented below to assure the continued safe conditions at Marianna Federal
Correctional facility. While no overexposures were documented in air samples, the feeders' exposures
during routine glass breaking operations require further scrutiny to determine the source oftheir airborne
exposures. Many wipe samples in the FCI revealed levels of concern, notably those that exceeded the
OSHA criteria for lead of21.5 /lg/IOO cm2 , as well as samples for cadmium and nickel that produced
                                        2                             2
results up to 66 /lg of cadmium /l00 cm and 70 /lg ofnickel/lOO cm Modifications can be made to
assure continued exposure control and to improve operations in general.

When reviewing the work practices for the inmates working in the GBO, one is struck by the approaches
taken to worker protection. A typical work area where exposure levels dictate the use of protective
clothing includes an outer change area where workers can remove and store their street clothing and don
their work clothing and personal protective equipment before entering the work area (Figure VII). As
Figure VII illustrates, in a typical facility where protective clothing is required, workers exit the work area
through a "decon" area (e.g., where they vacuum the outer surface of their clothes) upon completion of
their work, and then enter a separate, "dirty" locker area, where their soiled work clothes are removed and
placed in receptacles for cleaning or disposal. The workers then pass through a shower area, and then
enter the clean locker area, where they change into their street clothes again. In some cases (e.g., asbestos
removal), respirators are worn into the shower and not removed until the exterior surfaces are rinsed.

In the Marianna GBO, air sampling revealed that the use of protective clothing, respirators or change
rooms is not required by the OSHA lead or cadmium standards, since the PEL is not exceeded. However,
management has chosen to require the use of respirators and protective clothing. At the time of this
evaluation, the workers wore their prison uniforms into the work area and donned disposable spun-bonded
olefin coveralls on top of them. Thus, their prison uniforms may become contaminated by their work, and
the workers may be at risk of heat illness through their use ofthe outer garments. In addition, respirators
and clean protective clothing are stored in lockers in the work area, where they are at risk of
contamination. Since this facility already provides uniforms; a second set could be provided for workers
in the GBO, collected, segregated and laundered separately and in accordance with good practices and
applicable regulations. Using a different colored uniform for use in the GBO would aid in the segregation
of work uniforms from "street clothes." Using a separate uniform inside the GBO and discontinuing the
use of spun-bonded olefin coveralls over the normal prison uniform would improve heat loss and reduce
the level of heat stress while protecting the workers from the environment.

Heat Stress Recommendations
The following additional recommendations are based on NIOSH, and ACGIH® recognized methods and/or
procedures which can be used to reduce heat stress hazards at the Marianna FCI and FCP workplaces:

BOP should institute measures immediately to ensure compliance with the ACGIH® heat stress criteria in
preparation for next summer. IfUNICOR is not presently able to ensure such compliance, it should
suspend glass breaking operations at Mariarma during hot weather until a heat stress program can be
developed and implemented to offset the potential health problems and/or consequences that may result
from glass breaking activities and the elevated temperatures found during this investigation. If the BOP
has an equally effective alternative to achieving compliance other than the development of a heat stress
plan and the interim suspension of GBO, it should promptly notify the OIG.
1. Based upon the exposures to hot environments documented in this report, the site-specific health and
safety program at Marianna must include a heat stress section, which includes, as a minimum:


                                                      25 

         a. Procedures that will be used to determine environmental and metabolic heat. NIOSH [1986]
         recommends establishing a WBGT or environmental profile for each hot work area during winter
         and summer months to help determine when to implement engineering and/or work practice
         controls. Additional measurements should be made to aid in the implementation decision when the
         profile indicates that excessive heat should be anticipated or if a heat wave is forecast.
         b. Both routine and non-routine work practices should be carefully observed to estimate the
         metabolic heat associated with each job or task. Procedures for obtaining those estimates can be
         found in NIOSH [1986] and ACGIH [2007] publications.
         c. NIOSH [1986] recommends instituting a medical surveillance program for all workers who may
         be exposed to heat stress above recommended limits, including preplacement and periodic
         examinations. The recommended content ofthe examinations and other relevant information can
         be found in that reference.
2. Engineering controls are the preferred method to reduce and/or eliminate occupational stressors in the
workplace; therefore, cooling methods, such as air conditioning systems should be investigated to reduce
the heat load in this work place. Portable air conditioners may be used in the trailers while the trailer
crews are working, if monitoring shows their use is warranted.
3. In lieu of implementing engineering controls, work/rest schedules can be utilized to control worker
exposure to heat stress. Provisions for a work/rest regimen should be established so that exposure time to
high temperatures and/or the work rate is decreased. For example, a measured hourly TWA WBGT of29
°C and a moderate work load dictates a work rest schedule of 30 to 45 minutes work per hour [ACGIH
2008]. In addition, the BOP needs to reassess its current use of PPE (i.e., the use of spun-bonded olefin,
PAPRs, gloves, etc.) and consider adding personal cooling devices, such as, cooling vest or packs for
workers in the GBO.
4. An initial and periodic training program should be implemented, informing employees about the
hazards of heat stress, predisposing factors and how to recognize heat-related illness signs and symptoms,
potential health effects, first aid procedures, precautions for work in hot environments and preventing
heat-induced illnesses, worker responsibilities, and other elements [NIOSH 1986].
5. An acclimation program should be implemented for new employees or employees returning to work
from absences ofthree or more days.
6. Specific procedures should be developed for heat-related emergency situations, including provisions
that first aid be administered immediately to employees displaying symptoms of heat related illness.
7. Workers should be permitted to drink water at liberty.
8. The ACGIH [2007] recommends the following general controls for limiting heat strain. Consult the
documentation ofthe Heat Stress and Strain TLV for further information.
         • Provide accurate verbal and written instructions, annual training programs, and other information
         about heat stress and strain
         • Encourage drinking small volumes (approximately 1 cup) of cool, palatable water (or other
         acceptable fluid replacement drink) about every 20 minutes
         • Permit self-limitation of exposures and encourage co-worker observation to detect signs and
         symptoms of heat strain in others
         • Counsel and monitor those who take medications that may compromise normal cardiovascular,
         blood pressure, body temperature regulation, renal, or sweat gland functions; and those who abuse
         or are recovering from the abuse of alcohol or other intoxicants
         • Encourage healthy life-styles, ideal body weight and electrolyte balance
         • Adjust expectations ofthose returning to work after absence from hot exposure situations and
         encourage consumption of salty foods (with approval of physician if on a salt-restricted diet)
         • Consider preplacement medical screening to identify those susceptible to systemic heat injury
         • Monitor the heat stress conditions and reports of heat-related disorders
                                                    26 

9. If the detailed analysis required by the TLY® reveals that the "exposure exceeds the limits for
acclimatized workers," the ACGIH® [2007] recommends that physiological monitoring (e.g., core body
temperature, heart rate monitoring) as "the only alternative to demonstrate that adequate protection is
provided." If physiological monitoring indicates that employees are experiencing excessive heat strain (the
overall bodily response to heat stress), then job-specific controls should be implemented. These include
[ACGIH 2007]:
         • Consider engineering controls that reduce the metabolic rate, provide general air movement,
         reduce process heat and water vapor release, and shield radiant heat sources, among others
         • Consider administrative controls that set acceptable exposure times, allow sufficient recovery,
         and limit physiological strain
         • Consider personal protection that is demonstrated effective for the specific work practices and
         conditions at the location
10. It is strongly recommended that the current version ofthe documentation of the ACGIH® TLY®s be
referenced to assist in adding additional specific information when preparing a site-specific heat stress
program for the Marianna facilities. Examples would be on a thorough understanding ofthe various
clothing ensembles worn throughout the year ( especially during the warmer seasons) and the role that PPE
(i.e., the use of spun-bonded olefin suits, hoods, gloves, etc.) may play on the effects of heat stress.
Additional emphasis should be placed on the TLY® Guidelines for Limiting Heat Strain and the
Guidelines for Heat Stress Management. It is also recommended that that additional material on heat
stress be investigated, such as OSHA's Heat Stress Card (OSHA Publication 3154). This and other
relevant materials can be found on OSHA's web page (http://www.osha.gov/SLTClheatstress/index.htrnl).

Based on the data presented in this report, the following recommendations are made. These
recommendations are divided into four categories, described as ventilation controls in the GBO,
programmatic issues, procedural issues, and housekeeping issues.

Ventilation controls in the GBO:
    1. 	 The HFM ventilation controls maintain airborne metal and dust exposures in the GBO booth to
         concentrations below allowable limits. Typically, respirators would not be required in an
         environment where occupational exposures are below allowable limits. However, the PAPRs
         probably provide some heat stress relief by blowing air past the workers' heads. Their use should
         be continued.
    2. 	 There is currently no ventilation system supplying air to the GBO. The air in the breaking booth is
         filtered and recirculated by the HFMs. ANSI and AIHA [2007] recommend that "under no
         circumstances shall workroom air consist of 100% recirculated air." Providing tempered and
         filtered outside air would satisfy that recommendation and provide some relief from heat stress.
         However, any air supply system should be designed carefully. Adding a supply of air to the
         breaking booth without any exhaust would create a positive pressure in the booth and spread
         potentially contaminated air to the rest ofthe GBO. Ideally, a tempered air supply to the GBO
         would be balanced with exhaust air to create a slight negative pressure in the breaking booth with
         regard to the rest ofthe G BO. Depending on the source of their exposures, this pressure
         differential could result in lower exposures for the feeders. Consult with a qualified engineer and
         the HFM manufacturer to determine the best way to achieve this using the existing HFMs if
         possible. The addition of a change room should also be taken into account.
    3. 	 According to the ANSI/AIHA [2007] standard, the recirculation of exhaust air streams that contain
         highly toxic substances (as defined by the OSHA Hazard Communication Standard) requires the
         use of a continuous monitoring device for the contaminant in the exhaust stream; however a
         continuous monitoring of the pressure drop across the redundant filter may be acceptable. There
                                                     27 

        are no continuous monitoring devices present on the HFMs. However, there are pressure gauges
        mounted on the side of each unit. Consult with the manufacturer to determine ifthese are installed
        in order to monitor pressure drop across the HEP A filter and to determine what settings should
        lead to filter change (high pressure across the filter) or process shut down (low pressure setting).
        A visual or audio warning device should be added that would signal the worker ifthe HFM stops
        working or ifthe pressure drop across the filter exceeds the manufacturer' s recommended settings.

Programmatic issues:
    1. 	 Training of workers should be scheduled and documented in the use of techniques for dust
         suppression, the proper use oflocal ventilation, personal protection equipment (e.g., coveralls,
         respirators, gloves) and hazard communication, housekeeping and personal hygiene practices.
         Written programs should be prepared and the programs implemented and updated as required to
         ensure that workers receive training in hazard communication, respiratory protection, working in
         hot environments, an the use of personal protective equipment.
    2. 	 The respiratory protection program for this facility should be evaluated for this operation in order
         to ensure that it complies with OSHA regulation 1910.134, especially with regard to cleaning and
         storage practices. BOP should also be aware ofthe fact that the respirator manufacturer Global
         Secure PAPR is going through bankruptcy, and their approvals will likely soon be listed as
         'Obsolete", meaning the manufacturer no longer supports them with replacement parts. If OEM
         replacement parts are needed and can't be purchased, the respirator will no longer be usable as a
         NIOSH approved device.
    3. 	 Frequently while conducting the on-site work, NIOSH researchers observed tasks being conducted
         in a manner which appeared to be biomechanically taxing, such as workers lifting large CRTs from
         Gaylord boxes and placing them on the roller conveyor in the GBO. Tasks should be evaluated to
         determine ifthere are awkward postures or lifting techniques that may result in repetitive stress
         trauma and if modifications in procedures or equipment would provide benefit to this workplace.
    4. 	 Heat stress should be periodically re-evaluated during hot weather (e.g., the summer months).
    5. 	 All UNICOR operations, including but not limited to recycling should be evaluated from the
         perspective of health, safety and the environment in the near future.
    6. 	 A program should be established within the Bureau of Prisons to assure that these issues are
         adequately addressed by competent, trained and certified health and safety professionals. While a
         written program to address these issues is necessary at each facility, adequate staffing with safety
         and health professionals is required to ensure its implementation. One indication of adequate
         staffing is provided by the United States Navy, which states "Regions/Activities with more than
         400 employees shall assign, at a minimum, a full time safety manager and adequate clerical
         support" [USN 2005]. That document also provides recommended hazard-based staffing levels for
         calculating the "number of professional personnel needed to perform minimum functions in the
         safety organization."
    7. 	 A comprehensive program is needed within the Bureau which provides sufficient resources,
         including professional assistance, to assure each facility the assets needed to assure both staff and
         inmates a safe and healthy workplace.

Procedural issues:
   8. 	 The use of an alternative method (e.g., static pressure drop) should be investigated to determine
        frequency of filter change. The manufacturer ofthis system may have guidelines in this regard.
   9. 	 Workers performing the filter change operation should continue to utilize respiratory protection as
        part of a comprehensive respiratory protection program. The PAPRs used provide adequate
        protection for the modified filter change operation.
                                                      28 

    10. Because the facility already provides uniforms to its workers, management should evaluate the
        feasibility of providing and laundering work clothing for all workers in the recycling facility,
        instead ofthe current practice of providing disposable clothing for glass breaking workers only.
        Contaminated work clothing must be segregated from other clothes and laundered in accordance
        with applicable regulations. Use of different colored uniforms for work and "street" clothes would
        aid in the segregation process.
    11. While levels of airborne contaminants were below acceptable limits (e.g., the OSHA PELs for lead
        and cadmium), best practices and the current use of protective clothing in the GBO suggest that
        change rooms should be modified to provide showers and separate storage facilities for protective
        work clothing and equipment and for street clothes that prevent cross-contamination. The use of
        properly constructed change rooms as described above would restrict any contamination to the
        work area and keep it out of residential areas ofthe facility.
    12. The use of alternative methods to break cathode-ray tubes should be investigated by Marianna
        management. Lee et al. [2004] present different methods to separate panel glass from funnel glass
        in CRT recycling (sec 2.1) and for removing the coatings from the glass (sec 2.2). The hot wire
        and vacuum suction methods (supplemented with local exhaust ventilation) described by Lee et al.
        may produce fewer airborne particulates than breaking the glass with a hammer. The authors [Lee
        et al. 2004] describe a commercially-available method in which an electrically-heated wire is
        either manually or automatically wound around the junction ofthe panel and funnel glass, heating
        the glass. After heating the glass for the necessary time, cool (e.g., room temperature) air is
        directed at the surface, fracturing the glass-to-glass junction using thermal shock. The separated
        panel and funnel glass can then be sorted by hand. They also describe a method wherein a
        vacuum-suction device is moved over the inner surface ofthe panel glass to remove the loose
        fluorescent coating [Lee et al. 2004]. The vacuum used must be equipped with HEPA filtration.
        Industrial central vacuum systems are available; they may cost less in the long run than portable
        HEP A vacuum cleaners. These modifications may also reduce the noise exposure to glass
        breakers.
    13. German authorities [BG/BIA 2001] have issued a set of best-practices for dismantling CRTs that
        should be reviewed for their applicability to these operations. Among those is a recommendation
        for the provision of washrooms and rooms with separate storage capabilities for street and work
        clothing.

Housekeeping:
   14. Due to the levels of surface contamination of lead and other metals measured in the recycling
       facility, workers should wash their hands before eating, drinking, or smoking. While not observed
       here, remember that consumption of food, beverage or tobacco in the workplace should be
       prohibited to prevent accidental ingestion of hazardous substances.
   15. Given the concentrations oflead and cadmium detected in the bulk dust samples, surface wipe
       samples, and air measurements, periodic industrial hygiene evaluations and facility inspections are
       recommended to confirm that exposures are maintained below applicable occupational exposure
       limits.
   16. Daily and weekly cleaning of work areas by HEPA-vacuuming and wet mopping should be
       continued, taking care to assure no electrical or other safety hazard is introduced. The BG/BIA
       guidelines [2001] recommend daily cleaning of tables and floors with a type-H vacuum cleaner.
       Type H is the European equivalent of a HEPA vacuum, where the H class requires that the filter
       achieve 99.995% efficiency, where 90% ofthe test particles are smaller than 1.0 /ll11 and pass the
       assembled appliance test, 99.995% efficiency where 10% ofthe particles are smaller than 1.0 /lm,
       22% below 2.0 /lm, and 75% below 5.0 /ll11. High levels oflead surface contamination was
                                                    29 

    measured in some work areas, indicating the need for improved housekeeping practices in effect in
    all locations observed. Other practices not observed during the time ofthis evaluation, but which
    have been observed at other facilities should be discouraged; this includes the use of compressed
    air to clean parts or working surfaces.
17. The use of disposable coverings on work surfaces (e.g., cardboard from excess boxes) may aid
    housekeeping practices. Wipe sampling can be used initially to determine the frequency with
    which the coverings should be discarded. However, Marianna facility management must ensure
    that the contaminated coverings are disposed of properly.




                                               30 

VII.   References

ACGIH [2007]. Documentation of Threshold Limit Values for Chemical Substances and Physical Agents.
Cincinnati, OH: American Conference of Governmental Industrial Hygienists.

ACGIH [2008]. Threshold limit values for chemical substances and physical agents and biological
exposure indices. Cincinnati, OH: American Conference of Governmental Industrial Hygienists.

AIHA [2007]. Workplace environmental exposure levels. Fairfax, VA: American Industrial Hygiene
Association.

Alexander WK, Carpenter RL, Kimmel EC [1999]. Inhalation toxicology session: breathing zone particle
and lead concentration from sanding operations to remove lead based paints. Drug and Chemical
Toxicology 22:41-56.

ANSI/AIHA [2007]. American national standard for recirculation of air from industrial process exhaust
systems. Fairfax, VA: American Industrial Hygiene Association.

ASTM [2002]. Standard practice for collection of settled dust samples using wipe sampling methods for
subsequent determination of metals. West Conshohocken, PA: ASTM International.

Berges M (Markus.Berges@dguv.de)[2008a]. WG: Project-Nr. BIA3058: Dust emission during release of
vacuum from cathode-ray tubes. Private e-mail message to Alan Echt (Aecht@cdc.gov), June 16.

Berges M (Markus.Berges@dguv.de)[2008b]. AW: BG.BIA-Empfehlungen zur Uberwachung translated.
Private e-mail message to Alan Echt (Aecht@cdc.gov), June 27.

Bernard, T.E., Luecke, C.L., Schwartz, S.W., et aI, "WBGT Clothing Adjustments for Four Clothing
Ensembles Under Three Relative Humidity Levels," J Occup Environ Hyg, 5 (251) 2005

BG/BIA [2001]. Recommendations for monitoring work areas - manual disassembly of monitors and
other electrical equipment.

BIA [2001]. Project-Nr. BIA 3058 Dust emission during release of vacuum from cathode- ray tubes.
Berufsgenossenschaftliches Institut fiir Arbeitssicherheit -BIA, Berufsgenossenscheft der Feinmechanik
und Elektrtechnik. Available on-line at http://www.hvbg.de/e/bia/pro/prol/pr3058.html. Accessed June
13,2008.

Caplan KJ [1993]. The significance of wipe samples. Am Ind Hyg Assoc J 53:70-75.

CFR. Code of Federal regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor industry. Environ
Health Perspect. 107:A452-A457.

Cui J, Forssberg E [2003]. Mechanical recycling of waste electric and electronic equipment: a review. J
Hazard Mater. 99:243-263.

                                                   31 

DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2nd ed Washington, DC: U.S.
Department of Health and Human Services. Available on the internet at:
www.health.gov/healthypeople/Document/default.htm

DOD [1987]. Military handbook industrial ventilation systems, MIL-HDBK-I003/17. Washington, DC:
U.S. Department of Defense.

EPA [2008]. Planning for Natural Disaster Debris Guidance. Washington, DC: U.S. Environmental
Protection Agency. EPA530-K-08-001. p.26.


Evans DE, Heitbrink W A, Slavin TJ, Peters TM [2008]. Ultrafine and respirable particles in an
automotive grey iron foundry. Ann. Occup. Hyg, 52:9-21.


Fairfax RE [2003]. Letter ofJanuary 13,2003 from RE Fairfax, Director, Directorate of Compliance
Programs, OSHA, to Frank White, Vice President, Organization Resource Counselors, Inc. Available at
http://www.osha.gov/pls/oshaweb/owadisp.show_document?p_ table~INTERPRETATIONS&p_id~25617
Accessed May 12, 2008.


Goyer RA [1991]. Toxic effects of metals. In: Amdur ML, Doull J, Klaassen CD (eds.) Casarett and
Doul ' s Toxicology, pp. 623-680.


IARC [1993]. IARC monographs on the evaluation of carcinogenic risks to humans: beryllium, cadmium,
mercury, and exposures in the glass manufacturing industry. Vol. 58. Lyon, France: World Health
Organization, International Agency for Research on Cancer.


Kuhlbusch TAJ, Neumann S, Fissan H [2004]. Number size distribution, mass concentration and particle
composition ofPMJ, PM2S , and PM IO in Bag Filling Areas of Carbon Black Production. Journal of
Occupational and Environmental Hygiene. 1:660-671.


Landrigan PJ, Froines JR, Mahaffeyet KR [1985]. Body lead burden: summary of epidemiological data on
its relation to environmental sources and toxic effects. In: Dietary and environmental lead: human health
effects. Amsterdam: Elsevier Science Publishers.


Lange JH [2001]. A suggested lead surface concentration standard for final clearance of floors in
commercial and industrial buildings. Indoor and Built Environment 10:48-51.


Lee C-H, Chang C-T, Fan K-S, Chang T-C [2004]. An overview of recycling and treatment of scrap
computers. J Hazard Mater. 114:93-100.


McCawley MA, Kent MS, Berakis MT [2001]. Ultrafine beryllium number concentration as a possible
metric for chronic beryllium disease risk. Appl Occup Environ Hyg. 16:631-638.

                                                    32 

NARA [2008]. Executive Order 12196--Occupationa1 safety and health programs for Federal employees.
College Park, MD:U.S. National Archives and Records Administration. Available on-line at:
http://www.archives.gov/federa1-register/codificationfexecutive-orderI12196.html. Accessed June 6, 2008.

NIOSH [1978]. Criteria for a recommended standard: occupational exposure to inorganic lead. Revised
criteria - 1978. Cincinnati, OH: U.S. Department of Health, Education, and Welfare, Public Health
Service, Center for Disease Control, National Institute for Occupational Safety and Health, DHEW
(NIOSH) Publication No. 78-158.

NIOSH [1984]. Current intelligence bulletin #42: Cadmium. Cincinnati, OH: U.S. Department of Health
and Human Services, Public Health Service, Centers for Disease Control, National Institute for
Occupational Safety and Health, DHHS (NIOSH) Publication No. 84-116.

NIOSH [1986]. Criteria for a recommended standard: occupational exposure to hot environments.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS (NIOSH) Publication No.
86-113

NIOSH [1989]. Occupational health guidelines for chemical hazards. Cincinnati, OH: U.S. Department of
Health and Human Services, Public Health Service, Centers for Disease Control, National Institute for
Occupational Safety and Health, DHHS (NIOSH)/DOL (OSHA) Publication No. 81-123 and supplements
88-118, 89-104

NIOSH [1990]. NIOSH testimony on the Occupational Safety and Health Administration's proposed rule
on occupational exposure to cadmium, July 17, 1990, OSHA Docket No. H-057A. NIOSH policy
statements. Cincinnati, OH: U.S. Department of Health and Human Services, Centers for Disease
Control, National Institute for Occupational Safety and Health. p.16.

NIOSH [1992]. NIOSH recommendations for occupational safety and health, compendium of policy
documents and statements. Cincinnati,OH: U.S. Department of Health and Human Services, Public
Health Service, Centers for Disease Control, National Institute for Occupational Safety and Health.
DHHS(NIOSH) Publication No. 92-100.

NIOSH [1994]. NIOSH Manual of Analytical Methods (NMAM®), 4th ed. Schlecht, P.C. & O'Connor,
P.F. eds. Cincinnati,OH: U.S. Department of Health and Human Services, Centers for Disease Control
and Prevention, National Institute for Occupational Safety and Health, DHHS (NIOSH) Publication 94­
113 (August, 1994), 1'1 Supplement Publication 96-135, 2nd Supplement Publication 98-119, 3'd
Supplement 2003-154.

NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of Health and
Human Services, Centers for Disease Control and Prevention, National Institute for Occupational Safety
and Health, DHHS (NIOSH) Publication No. 2005-149. Available on-line at
http://www.cdc.gov/nioshinpg/. Accessed June 6, 2008.

Nordberg G, ed. [1998]. Barium. In: Metals: chemical proJ;erties and toxicity. Chapter 63. In: Stellman,
JM, ed. Encyclopedia of occupational health and safety. 4 ed. Vol. 2. Geneva: International Labor
Office. Pp. 63.8-63.9.
                                                    33 

OSHA [2004]. Cadmium. Washington, DC: U.S. Department of Labor 

Occupational Safety and Health Administration OSHA 3136-06R. Available on-line at: 

http://www.osha.gov/Publications/osha3136.pdf. Accessed June 4, 2008. 


Pettersson-Julander A, van Bavel B, Engwall M, Westberg H [2004]. Personal air sampling and analysis 

of polybrominated diphenyl ethers and other bromine containing compounds at an electronic recycling 

facility in Sweden. J Environ Monit. 6:874-880. Epub 2004 Oct 21. 


Proctor NH, Hughes JP, Fischman ML [1991a]. Lead. In: Chemical hazards ofthe workplace. 3rd ed 

Philadelphia, PA: J.B. Lippincott Company, Philadelphia, pp 353-357. 



Proctor NH, Hughes JP, Fischman ML [1991b]. Nickel and inorganic compounds. In: Chemical hazards 

ofthe workplace. 3rd ed Philadelphia, PA: J.B. Lippincott Company, Philadelphia, pp 422-424. 


                                                                                                 rd
Proctor NH, Hughes JP, Fischman ML [1991c]. Yttrium. In: Chemical hazards ofthe workplace. 3 ed 

Philadelphia, PA: J.B. Lippincott Company, Philadelphia, pp 591. 



Saryan LA, Zenz C [1994]. Lead and its compounds. In: Occupational medicine. 3rd ed Chicago, IL: 

Mosby-Year Book, Inc. 

Schmidt CW [2002]. E-Junk explosion. Environ Health Perspect. 110:A188-A194. 


Sjodin A, Carlsson H, Thuresson K, Sjolin S, Bergman A, Ostman C [2001]. Flame retardants in indoor 

air at an electronics recycling plant and at other work environments. Environ Sci Technol. 35:448-454. 


Thun MJ, Elinder CG, Friberg L [1991]. Scientific basis for an occupational standard for cadmium. Am J 

Ind Med. 20:629-42. 


USN [2005] Navy safety and occupational health (soh) program manual, chapter 3. organization and 

staffing. Washington, DC: Department ofthe Navy, Office ofthe Chief of Naval Operations 

OPNAVINST 5100.23G. 30 DEC 2005. Available online at 

http://safetycenter.navy.mil/instructions/osh/510023/5100 _ 23G_Cover_ChI O.pdf 

Accessed May 12, 2008. 


Willis HH, Florig HK [2002]. Potential exposures and risks from beryllium-containing products. Risk 

Anal. 22:1019-1033. 





                                                   34 

                   Table 3: Summary Statistics for Airborne Metal Measurements*
                               (Concentration units for means is fig/m')

                                           Ba               Be       Cd       Pb      Ni      Particulate
   18 samples collected in the FCI UNICOR factory
   Arithmetic Mean (/lg/m3)                0.13             0.025    0.056    0.29    0.22           250
   Arithmetic Standard Deviation (/lg/m3) 0.075             0.013    0.029    0.17    0.15           155
   Geometric Mean (/lglm3)                 0.11             0.022    0.050    0.25    0.19           207
   Geometric Standard Deviation (/lg/m3)     1.9               1.5      1.7    1.8     1.8            1.9

   12 samples collected in the FPC UNICOR factory
   Arithmetic Mean (/lg/m3)                0.09    0.022             0.067  0.22      0.22           234
   Arithmetic Standard Deviation (/lg/m3)  0.11   0.0078             0.058 0.078     0.078           304
                         3
   Geometric Mean (/lglm )                0.067    0.022             0.055  0.22      0.22           140
   Geometric Standard Deviation (/lg/m3)     2.0      1.3               1.8   1.3       1.3          2.6

   12 samples collected in the FPC GBO
   Arithmetic Mean (/lg/m3)                     0.80        0.037      1.1     6.1    0.37           435
   Arithmetic Standard Deviation (/lg/m3)       0.74       0.0078      2.1     6.5   0.078           330
   Geometric Mean (/lglm3)                      0.46        0.037     0.29     3.0    0.37           287
   Geometric Standard Deviation (/lg/m3)         3.4           1.2     4.7     3.9      1.2           2.9

   6 samples collected in the FPC GBO during filter        change
   Arithmetic Mean (/lg/m3)                  4.8            0.092      4.2     30     0.92          1567
   Arithmetic Standard Deviation (/lg/m3)    5.7            0.013      4.2     38     0.13          1737
   Geometric Mean (/lglm )3                 2.9             0.091      2.7      18    0.91           968
   Geometric Standard Deviation (/lg/m3)    2.8                1.1     2.9     2.9     1.1           3.0

Where results were less than the limit of detection (LOD), the value LOD;-V2 was used in calculating these
statistics. These summary statistics exclude two samples collected in the FPC UNICOR factory that were
compromised, MSMHF-9 and MSMHF-l1. The employee who wore sample MSMHF-9 reported that
toner "exploded" (spilled) as she unloaded recyclable components from a truck. This probably accounts
for the high dust loading. The employee who wore sample MSMHF -11 touched the cassette inlet with her
glove at 9:35 am. Some lint was transferred to the filter. This probably accounts for the high dust loading
on this sample as well.




                                                    35 

                                                                 Table 4: Airborne Metal Measurements
                                        Area/                                          Sample        Flow
                 Building     Date                          Sample Description                                    Ba        Be        Cd        Pb         Ni        Particulate
                                       Personal                                       Duration       Rate
 Sample ID                                                                             Minutes     Llmioute     fig/m 3                                                  fig/m 3
The following 18 samples were collected in the FCI UNICOR factory
MCMWF-5            FC!        8/8/07       P       Break down                                251          3.0     0.15     <0.03    (0.052)    (0.54)       (0.19)             717
MCMWF-6            FC!        8/8/07       P       Orderly (moves Materials)                 253          3.0     0.26     <0.03    (0.079)      <0.1       (0.11)             369
MCMWF-7            FC!        8/8/07       P       Bailer                                    253          3.0     0.21     <0.03    (0.047)    (0.17)       (0.13)             277
MCMWF-8            FC!        8/8/07       P       Refurbishiog                              241          3.0    0.077     <0.03     <0.03       <0.1     (0.089)              373
MCMWF-9            FC!        8/8/07       P       Refurbishiog                              245          3.0   (0.063)    <0.03     <0.03     (0.35)       (0.15)             218
MCMWF-10           FC!        8/8/07       P       Dismantling                               239          3.0     0.11     <0.03    (0.052)      <0.1       <0.08              265
MCMHF-1            FC!        8/9/07       P       Orderly                                   217          3.0     0.26     <0.03    (0.091)      <0.3        <0.3              307
MCMHF-2            FC!        8/9/07       P       Bailer                                    207          3.0     0.19     <0.03    (0.069)      <0.3        <0.3              306
MCMHF-3            FC!        8/9/07       P       Separator                                 269          3.0     0.17     <0.02    (0.056)    (0.40)        <0.2              235
MCMHF-4            FC!        8/9/07       P       Orderly refurbish                         123          3.0    <0.05     <0.05       <0.1      <0.5        <0.5              <81
MCMHF-5            FC!        8/9/07       P       Disassembly refurbish                      94          3.0    <0.07     <0.07       <0.1      <0.7        <0.7            <106
MCMHF-6            FC!        8/9/07       P       Disassembly refurbish                     235          3.0     0.14     <0.03     <0.06     (0.37)        <0.3              213
MCMHF-7            FC!        8/9/07       P       Orderly                                   271          3.0     0.12     <0.03     <0.05       <0.2        <0.2              185
MCMHF-8            FC!        8/9/07       P       Disassembler                              275          3.1     0.18     <0.02     <0.05       <0.2        <0.2              282
MCMHF-9            FC!        8/9/07       P       Disassembler                              240          3.0     0.21     <0.03     <0.06     (0.44)        <0.3              333
MCMHF-10           FC!        8/9/07       P       Disassembly refurbish                     237          3.0   (0.055)    <0.03     <0.06       <0.3        <0.3            (122)
MCMHF-11           FC!        8/9/07       P       Orderly refurbish                         250          3.0   (0.039)    <0.03     <0.05       <0.3        <0.3             (76)
MCMHF-12           FC!        8/9/07       P       Disassembly refurbish                      72          3.0    <0.09     <0.09       <0.2      <0.9        <0.9            <140
The following 14 samples were collected in the FPC UNICOR factory
MSMWF-5           Camp        8/8/07       P       Lead truck crew                           220          3.0   (0.055)    <0.03     <0.06       <0.3        <0.3            (102)
MSMWF -6          Camp        8/8/07       P       Dock unload/load                          212          3.1   (0.041)    <0.03     <0.06       <0.3        <0.3            (117)
MSMWF-7           Camp        8/8/07       P       Truck work, sweeping                      105          3.0    <0.06     <0.06       <0.1      <0.6        <0.6             <95
MSMWF-8           Camp        8/8/07       P       Truck crew, sweep/unload                  206          3.0   (0.042)    <0.03     <0.07       <0.3        <0.3              178
MSMWF-11          Camp        8/8/07       P       Breakdown CPUs                            166          3.0     0.42     <0.04     <0.08       <0.4        <0.4              <60
MSMWF-12          Camp        8/8/07       P       Breakdown CPUs                            263          3.0   (0.063)    <0.03     <0.05       <0.3        <0.3            (110)
MSMHF-7         Camp         8/9/07        P        Truck crew                                 256           3.0 (0.049)        <0.03 (0.089)        <0.3         <0.3         872
    < quantity less than the limit of detection. Parentheses indicate quantity between the limit of detection and limit of quantitation. tThe employee who wore sample
    MSMHF-9 reported that toner "exploded" (spilled) as she unloaded recyclable components from a truck. 'The employee who wore sample MSMHF-11 touched the
    cassette inlet with her glove at 9:35 am. Some lint was transferred to the filter. These incidents probably account for the high dust loading on both samples.

                                                                                      36
                                                     Table 4: Airborne Metal Measurements (continued)
                                      Areal                                          Sample        Flow
               Building     Date                      Sample Description                                      Ba         Be          Cd          Pb          Ni          Particulate
                                     Personal                                       Duration       Rate
                                                                                                                    3           3           3           3           3              3
Sample ID                                                                           Minutes      Llminute   fig/m       fig/m       fig/m       fig/m       fig/m          fig/m
MSMHF-S          Camp       S/9/07      P       Truck crew                                 297        3.0   (0.064)      <0.02        0.24        <0.2         <0.2                SS7
MSMHF-9          Camp       S/9/07      P       Truck crew                                 245        3.0     0.20       <0.03        0.49      (0.42)         <0.3          9,524t
MSMHF-10         Camp       S/9/07      P       Fork lift driver                           254        3.0   (0.033)      <0.03       <0.05        <0.3         <0.3            (101)
MSMHF-11         Camp       S/9/07      P       CPU disassembly                            301        3.0       1.6      <0.02        0.14         1.1         0.S4         14,396'
MSMHF-12         Camp       S/9/07      P       CPU disassembly                            251        3.0   (0.060)      <0.03       <0.05        <0.3         <0.3             (62)
MSMHF-13         Camp       S/9/07      P       CPU disassembly                            207        3.0   (0.069)      <0.03       <0.06        <0.3         <0.3            (lOS)
MSMHF-14          Camp      S/9/07        P      CPU disassembly                           269        3.0     0.16       <0.03       <0.05        <0.2         <0.2                161
The following 12 samples were collected in the FPC GBO
MSMWF-1          Camp       S/S/07      P       Feeder                                     143        3.0     0.65       <0.05         6.S         3.7         <0.5                513
MSMWF-2          Camp       S/S/07      P       Feeder                                     140        3.0     0.69       <0.05         3.S         5.2         <0.5                619
MSMWF-3          Camp       S/S/07      P       Outside person                             137        3.0    (0.11)      <0.05      (0.22)        <0.5         <0.5                <73
MSMWF-4          Camp       S/S/07      P       Outside person                             135        3.0   (0.079)      <0.05      (0.21)      (0.57)         <0.5            (116)
MSMWF-9          Camp       S/S/07      P       Breaker, Front Side (left)                  91        3.0       1.5      <0.07        0.59            12       <0.7                S06
MSMWF-10         Camp       S/S/07      P       Breaker, Back Side (right)                  SS        3.0     0.42       <O.OS        <0.2        (2.4)        <O.S            (140)
MSMHF-1          Camp       S/9/07      P       Outside person                             150        3.0     0.49       <0.04       <0.09         3.1         <0.4                311
MSMHF-2          Camp       S/9/07      P       Outside person                             14S        3.0   (0.097)      <0.05       <0.09      (0.6S)         <0.5            (173)
MSMHF-3          Camp       S/9/07      P       Feeder                                     147        2.9       2.1      <0.05      (O.lS)            15       <0.5                S91
MSMHF-4          Camp       S/9/07      P       Feeder                                     144        3.0       1.3      <0.05      (0.13)         S.S         <0.5                694
MSMHF-5          Camp       S/9/07      P       Breaker front side                         109        3.0       2.0      <0.06        0.70            20       <0.6                S56
MSMHF-6          Camp       S/9/07      P       Breaker back side                          140        3.0    (0.13)      <0.05        <0.1        (1.0)        <0.5                <71
The following 6 samples were collected in the FPC GBO during filter change
MSMHF -17        Camp       S/9/07      P       Filter change back, inside booth           45         3.0       5.0       <0.1         5.3            29            <1         1,704
MSMHF-19         Camp       S/9/07      P       Filter change front, inside booth           57        3.0          16     <0.1          12         105              <1        4,912
MSMHF-20         Camp       S/9/07      P       Filter change outside booth                 62        3.0       1.6       <0.1         1.7         9.7              <1             753
MSMHF-21         Camp       S/9/07      P       Filter change outside booth                 5S        2.9       3.6       <0.1         4.4            22            <1         1,427
MSMHF-22         Camp       S/9/07      P       Filter change outside booth                47         3.0       1.3       <0.1         1.1         S.5              <1         (333)
MSMHF-23         Camp       S/9/07      P       Filter change outside booth                45         3.0       1.0       <0.1      (0.74)        (5.6)             <1         (274)




                                                                                    37 

                                                         Table 5: Wipe Sample Results

SAMPLE I.D.      DATE           DESCRIPTION                                                  Ba      Be            Cd            Pb     Ni
                                                                                                      Results in fig/100 cm'
SAMPLES TAKEN FROM THE FCI FACTORY 

MCMWG-1     S/S/07  Cleaning area, table top where workers cleaning monitors                 1.S     <0.07        0.49            5.6    2.7 

MCMWG-2     S/S/07  Table top near repair worker                                            15       <0.07        3.0            35     17 

MCMWG-3     S/S/07  Table top near breakdO\vn worker, laminate surface                       5.1     <0.07        1.1            37      3.9 

MCMWG-4     S/S/07  Table top near breakdO\vn worker, surface is floor-mat material         16       <0.07       65              46     25 

MCMWG-5     S/S/07  Table top near breakdO\vn worker, rough wood surface                     S.9     <0.07        5.1            34     39 

MCMWG-6     S/S/07  Table top near testing worker, vinyl surface                             5.9     <0.07        1.5            11      7.2 

MCMWG-7     S/S/07  Table top near sander, vinyl surface                                    20       <0.07        2.2            23     24 

MCMWG-S     S/S/07  Table top near worker doing copper stripping, Masonite surface           2.0     <0.07        0.73           14      3.7 

MCMWG-9     S/S/07  Table top near breakdO\vn worker, rubber mat surface                     2.6     <0.07        0.91           46      3.7 

MCMHG-1     S/9/07  Table top in breakdO\vn area, rubber matt surface                       IS       <0.07       22             110     2S 

MCMHG-2     S/9/07  Table top in breakdO\vn area, smooth wood surface                        0.60    <0.07        0.S2            3.6    1.5 

MCMHG-3     S/9/07  Inside of Gaylord box containing small boards                            1.0     <0.07        0.60            1.S    2.5 

MCMHG-4     S/9/07  Inside bailer in disassembly area                                        O.3S    <0.07       (0.16)           2.5    1.2 

MCMHG-5     S/9/07  Rubber matt surface in breakdO\vn area                                  21       <0.07        4.1            S5     14 

MCMHG-6     S/9/07  Smooth wood surface in breakdO\vn area                                  15       <0.07        3.0            17      7.3 

MCMHG-7     S/9/07  Smooth wood surface in breakdown area                                   SO       <0.07       19              SS     19 

MCMHG-S     S/9/07  Rough wood surface in breakdO\vn area                                   11       <0.07        1.9            72     11 

MCMHG-9     S/9/07  Rough wood surface in breakdO\vn area                                   62       <0.07        2.9           140     IS 

MCMHG-10    S/9/07  Smooth work surface in copper stripping area                             3.4     <0.07        0.54            9.S    2.7 

MCMHG-11    S/9/07  Top of sanding table in refurbish area, rubber surface                  53       <0.07        3.0            33     6S 

MCMHG-12    S/9/07  Table top for refinbishing large assemblies, very rough wood surface     1.4     <0.07        1.0             5.3    5.1 

MCMHG-13    S/9/07  Inside box containing "Frames with boards"                              (0.16)   <0.07       <0.07            1.1   <0.3 

MCMHG-14    S/9/07  Smooth wood surface, disassembly operation in refurbish area             7.4     <0.07        1.1            36      3.9 


SAMPLES TAKEN FROM THE CAMP FACILITY 

MSMWG-1     S/S/07  Top of bookcase outside breaking area                                    l.3     <0.07       1.2              S.4   (0.75) 

MSMWG-2     S/S/07  Locker in GB area (top, under handle)                                    0.25    <0.07       0.31             2.9   (0.32) 

MSMWG-3     S/S/07  Top of conduit inside containment on interior wall                     320       <0.07     360             5100     52 


< Indicates a value less than the limit of detection. Numbers in parentheses indicate a result between the LOD and LOQ.




                                                                         38 

             Table 6: Composition of Bulk Dust Samples from the Glass Breaking Operation

 SAMPLE I.D.        DATE        SAMPLE DESCRIPTION                    Ba         Be          Cd           Pb           Ni

    MSMWB-l         8/8/07   Bulk from filter in shop vac         1000          <0.2         170               2200   1800 

                             used for general cleaning
    MSMWB-2 8/8/07           Bulk from Nilfisk vac used               890       <0.2          (1.3)        35000          7.7
                              outside containment area
    MSMWB-3         8/8/07   Bulk from Nilfisk vac used                82       <0.2          (0.98)           2300       2.1
                              inside containment area
    MSMWB-4 8/8/07            Settled dust on top of locker           570       <0.2         130            2500       610 

    MSMHB-l 8/9/07           Floor sweeping outside of                470       <0.2         260           10000        31 

                              curtained area during filter change 

                             using broom to sweep floor

All samples were taken from glass breaking room at the camp facility. Concentrations are in mgJkg. < indicates a value less
than the limit of detection. A value in parentheses indicates a result between the limit of detection and limit of quantitation.




                                                                39 

Table 7: Wet Bulb Globe Temperature Measurements, Marianna Federal Correctional Facility

                                   Heat Stress Data - August 8, 2007
                   Location                     Times             Hourly TWA WBGT in "C (OF)
                                       8:52 a.m. to 9:52 a.m.             28.8 (83.8)
          Camp - Glass Breaking Room
                                       9:53 a.m. to 10:45 a.m.            29.7 (85.5)
                                       9:41 a.m. to 10:41 a.m.            28.1 (82.6)
                                       10:42 a.m. to 11:42 a.m.           28.4 (83.1)
              Camp - Warehouse         11:43 a.m. to 12:43 p.m.           28.5 (83.3)
                                       12:44 p.m. to 1:44 p.m.            28.5 (83.3)
                                       1:45 p.m. to 2:45 p.m.             28.2 (82.8)
                                       10:24 a.m. to 11:24 a.m.           28.3 (82.9)
                                       11:25 a.m. to 12:25 p.m.           28.9 (84.0)
                FCI - Refurbish        12:26 p.m. to 1:26 p.m.            29.1 (84.4)
                                       1:27 p.m. to 2:27 p.m.             29.1 (84.4)
                                       2:28 p.m. to 3:28 p.m.             28.8 (83.8)
                                       10:31 a.m. to 11:31 a.m.           28.4 (83.1)
                                       11:32 a.m. to 12:32 p.m.           29.0 (84.2)
              FCI - Disassembly        12:33 p.m. to 1:33 p.m.            29.1 (84.4)
                                       1:34 p.m. to 2:34 p.m.             29.4 (84.9)
                                       2:35 p.m. to 3:35 p.m.             29.2 (84.6)


                                    Heat Stress Data - August 9, 2007
                   Location                      Times             Hourly TWA WBGT in "C (OF)
                                        7:59 a.m. to 8:59 a.m.
          Camp - Glass Breaking Room                                      29.7 (85.5)
                                        9:00 a.m. to 10:00 a.m.           30.4 (86.8)
             Glass Breaking Room
                                        12:35 p.m. to 1:35 p.m.          31.2 (88.2)
             during Filter Change
                                        8:44 a.m. to 9:44 a.m.           28.6 (83.5)
                                        9:45 a.m. to 10:45 a.m.          29.3 (84.8)
               Camp -Warehouse          10:46 a.m. to 11:46 a.m.         29.4 (84.9)
                                        11:47 a.m. to 12:47 p.m.         29.3 (84.7)
                                        12:48 p.m. to 1:48 p.m.          29.2 (84.5)
                                        9:35 a.m. to 10:35 a.m.          29.2 (84.6)
                                        10:36 a.m. to 11:36 a.m.         29.6 (85.2)
                                        11:37 a.m. to 12:37 p.m.         29.7 (85.5)
                FCI - Refurbish
                                        12:38 p.m. to 1:38 p.m.          29.7 (85.5)
                                        1:39 p.m. to 2:39 p.m.           30.1 (86.1)
                                        2:40 p.m. to 3:40 p.m.           30.3 (86.5)
                                        9:04 a.m. to 10:04 a.m.          29.3 (84.7)
                                        10:05 a.m. to 11:05 a.m.         29.6 (85.3)
                                        11:06 a.m. to 12:06 p.m.         29.9 (85.9)
               FCI - Disassembly
                                        12:07 p.m. to 1:07 p.m.          30.0 (86.0)
                                        1:08 p.m. to 2:08 p.m.           30.2 (86.4)
                                        2:09 p.m. to 3:09 p.m.           30.4 (86.8)
          *Tlme weighted average




                                                   40 

                     Table 8' Estimated Work Rates
Location   Task                      Work Rate        Metabolic Heat (Watts)
FCr        All tasks                 Light/moderate   180/300
FPC        Unloading trucks          Moderate         300
           Warehouse work            Light            180
           GBO* helpers              Light/moderate   180/300
           GBO feeders               Moderate/heavy   300/415
           GBO breakers              Moderate         300




                                 41 

      Table 9: Air Velocity Measurements for HFM 1 and HFM 2


                        FACE VELOCITY MEASUREMENTS
  1.07 (210)   0.81(160) 0.79 (155)       0.69 (135) 1.02 (200)   0.76 (150)
  0.71 (140)   0.61 (120) 0.66 (130)      0.53 (105) 0.66 (130)   0.64 (125)
   0.48 (95)   0.76(150) 0.48 (95)         0.30 (60) 0.48 (95)    0.15(30)
   0.46 (90)   0.81(160) 0.35 (68)        0.51 (100) 0.36 (70)    0.36 (70)
               HFM 1                                 HFM 2



                     CAPTURE VELOCITY MEASUREMENTS
  0.19   (38) 0.35 (69) 0.14 (27)         0.17(33) 0.80 (157) 0.27 (53)
  0.18   (35) 0.89 (175) 0.23 (45)        0.18(36) 0.81 (160) 0.25 (50)
  0.43   (85) 0.93(184) 0.11 (21)         0.20 (39) 0.55 (108) 0.24 (47)
  0.15   (30) 0.71 (140) 0.15 (30)       0.64 (125) 0.50 (99) 0.16(31)
              HFM 1                                 HFM 2
Units in meters/second (feet/min)




                                     42 

                                 AppenduA 

              Occupational El:posure Criteria for MetallElements 





                     ELEMENTS ( ICP), METHOO 73010, I...... 3, dated 15 M arch 2003 · P"1!. 6 018




      ,-­
TABLE},       E X~ OS U RE       U MITS. CAS t , RTECS

                                                                               E.".,....• . -, "'i1to' (Co ' ",.."",.."
      (3""",, 1



                                            800030000
                                                                       0_



                                                             '.(.... d""l
                                                             '_-'1                     '0_.",
                                                                                       .(...._
                                                                                                 MOS..




                                                                                               .....,
                                                                                                                  .. ........, 

                                                                                                                  0.'

                                                                                                                  '0(_'
                                                                                                                        ,(
                                                                                                                           "'Gi..
                                                                                                                        (mo~




                                                                                                                  '(P-~""'I
                                                                                       2(.-,"'"                   2(....... ,..,


                         ,-,
                         ,- ,
                          ,,,,,,,,,.,
                                            OO""'!>:Xl
                                            cm:lro<m
                                                             ",no,
                                                             • .•
                                                                                       C O.OOl. Co
                                                                                       0 .'                       ..
                                                                                                                  o.M Co


8 ....... (8.,

Co_(Co1
Co_m(Cd1                  ,...,....
                          ' ....,.1O-l
                                      ~
                                            DS11""""         • .OOl.Coro.

                                                             •••                      ..... 	
                                                                                       ODOO§ , CO 	


                                                                                       I.............., Co 	
                                                                                                                  -­
                                                                                                                  • .OOl. Co 



                                                                                                                  0.0' (" lOll. Co
                                                                                                                  0.OO2(_'·I, Co
""""'(Ccl
""....... (Q]
Co«>o, (Cc1
                                            <H''''OOO

                                            0<''''25000
                                                             0.'

                                                             , (d .... _ ,
                                                                                       ..,(-,
                                                                                       0 .... (...., . . . ., 	   O.!XI(.........., 




                                                                                                                  '(d..o;_,
                                                             0.'_'                     0.' _'                     O · ~( .....I

                          ,.........                                                          ..........,
                                            ."­
                                            00.<'"'500       ,. (0_ Iomol              .(                         'I'omol 

P ..n .... (K)            ,...,-00-,
l _... m                  ' .....' · 0
U ' ''''(U]               ,,,,-1n-2
""'''''...... (Mol
                          ,....os-,         <».t2'00<XXl     "(0_1_0",,"
                                                                                       '°1'0_1 __
                                                             .«o....,Io)
                                            O<Y>:I'!DIXl     CO                        ' :Sm. 3                   ,(-,
                          ,.......,
                                                                                                                  ' :SffL 3 (1u_1
                                            Q.O._OOOO         .(.......,
                                                                                        '(""""1                    .(   ........
                                                                                                                            )

                                                             "(""''''''''''            ' 0 ( _....'
                                                                                       O.015 , Co
                                                                                                                  '0("'........ , 

                                                                                                                  0 .' (........, 

                                                                                                                  ,(""""""       -..~




......... (S.,
                          1<'0" 0
                          1132....   -2 

                                            CC<020000        0 .'                      ..
                                                                                       "'
                                                                                       ••                         ....."
                                                                                                                  "'

                                                                                       ,                          ,
T.. (Sn'
_ m \SrI
ToIu",m(T'1 	
                           .
                          ,"""M
                             ""'..,
                                            WI'OI"'' ' ' '                             .,
T."""(Tll 	
                          ''''....(>0
                          , ..I>.l2..,      ~,-
                                                             0.'
                                                                                                                  "'
ThoI"'(TI1                '''Q-21I..,       """'25OOIl       0.1(_,(.......,           0.'(.... ,(..... 101 



                           .
                          ''''''''-2
                          , "".,            ~-	
                                                             ,	
                                                                                       CO.
                                                                                       ,
                                                                                       'O(STaI
                                                                                                                  ,
                                                                                                                  'O (StEl'

                                                                                       ••
                                                                                       5, SffL '"                 "STR'O




                                                               43 

                                              Appendix B
         Metallic Composition of Bulk Dust Samples from the Glass Breaking Operation
                                      Concentrations are in mg/kg
                         Please see Table 6 for sample dates and descriptions.
<indicates a result less than the limit of detection. Values in parentheses represent results between
                            the limit of detection and limit of quantitation.



                  MSMWB·l      MSMWB·2     MSMWB·3        MSMWB·4     MSMHB·l
         Al                 3900      120        54           5000        410
         Sb                 110       <3         <3           100         (8.3)
         As                 <7        <7         <7           <7          <7
         Ba                 1000      890        82           570         470
         Be                 <0.2      <0.2       <0.2         <0.2        <0.2
         Cd                 170       (1.3)      (0.98)       130         260
         Ca                 18000     770        150          26000       700
         Cr                 53        1.9        2.3          87          23
         Co                 5.2       <0.2       <0.2         18          0.63
         Cu                 210       28         3.5          320         52
         Fe                 9200      1100       800          18000       4300
         La                 <0.1      <0.1       <0.1         2.3         (0.12)
         Pb                 2200      35000      2300         2500        10000
         Li                 (3.2)     (0.14)     <0.09        (15)        0.44
         Mg                 1800      72         16           3800        77
         Mu                 220       290        4.6          370         50
         Mo                 4.2       (1.1)      <0.4         6.0         (0.42)
         Ni                 1800      7.7        2.1          610         31
         P                  790       (33)       <10          2800        57
         K                  2700      190        190          3700        400
         Se                 <20       <20        <20          <20         <20
         Ag                 13        0.30       <0.08        1.8         <0.08
         Sr                 130       32         18           150         140
         Te                 <2        <2         <2           (3.5)       (4.0)
         TI                 <5        (6.8)      (8.5)        (9.7)       <5
         Su                 67        <4         <4           65          (7.9)
         Ti                 44        2.8        1.0          58          3.2
         V                  6.5       (0.10)     <0.1         15          <0.1
         Y                  2100      19         31           2300        5800
         Zu                 5900      4500       390          7700        13000
         Zr                 (2.0)     (20)       <2           (2.6)       (3.8)




                                                44 

                                              Appendix C 

                               Metallic Composition of Wipe Samples 

                                   Concentrations are in flg/lOO cm 2 

                         Please see Table 5 for sample dates and descriptions. 

<indicates a result less than the limit of detection. Values in parentheses represent results between 

                            the limit of detection and limit of quantitation.


         ,...,    M
                   ,      '",    ...,     on,     ~
                                                    ,           ",     QO
                                                                         ,      '",
                                                                                        ,...,    M
                                                                                                    ,               ...,
                                                                                                           '",
         ~       ~       ~       ~        ~       ~             ~      ~        ~       c.:I     c.:I      c.:I     c.:I
         :.:u    :.:u    :.:u    :.:u     :.:u    :.:u          :.:u   :.:u     :.:u    :.:u==   :.:u==    :.:u==   :.:u==
         :.:     :.:     :.:     :.:      :.:     :.:           :.:    :.:      :.:     :.:      :.:       :.:      :.:
As       <2      <2      <2       <2     <2      <2      <2             <2     <2       <2     <2          <2     <2
Ba        1.8    15       5.1     16      8.9     5.9    20              2.0    2.6     18      0.60        1.0    0.38
Be       <0.07 <0.07 <0.07        <0.07 <0.07 <0.07 <0.07               <0.07 <0.07 <0.07 <0.07            <0.07 <0.07
Cd        0.49    3.0     1.1     65      5.1     1.5     2.2            0.73   0.91    22      0.82        0.60 (0.16)
Cr        1.1     6.0     2.7      8.2   12       2.4     4.7            2.3    3.2      9.8   (0.89)      (0.56) (0.56)
Co       (0.18)   2.5    (0.25)    0.98   1.1     0.34    0.79           2.0    1.1      1.2 <0.09         (0.15) (0.10)
Cu        5.1    35      12       68    130      14      36             14     51       83      3.3         3.3    2.2
Fe       58     567     137      667 3197       187     447            267    167     2297     21          49     95
La       <0.05    0.34   (0.077) <0.05    1.3    (0.082) 0.37           (0.14) (0.11)    0.87 <0.05        <0.05 (0.058)
Pb        5.6    35      37       46     34      11      23             14     46      110      3.6         1.8    2.5
Mn        1.8    18       4.4     22    110       7.0    15             35     22       35     (0.35)       1.4    1.8
Mo       <0.2     0.66 <0.2        2.9    2.2    <0.2    (0.34)         (0.22) <0.2      0.71 <0.2         <0.2 <0.2
Ni        2.7    17       3.9     25     39       7.2    24              3.7    3.7     28      1.5         2.5    1.2
P        <6     301      13       22     <6      53      <6             <6     <6       <6     <6          <6     <6
Se       <3      <3      <3       <3     <3      <3      <3             <3     <3       <3     <3          <3     <3
Ag        0.16    0.76    0.29     9.7    5.2     0.28    0.32          (0.10) 0.26      3.7   (0.069)     (0.068)<0.04
Sr        0.50    3.8     2.3      3.4    3.8     1.1     1.7            0.91   0.78     2.7    0.47        0.48 (0.36)
Te       <0.5    (0.72) <0.5      <0.5   (0.51) <0.5     <0.5           <0.5 <0.5       <0.5 <0.5          <0.5 <0.5
TI       <2      <2      <2       <2     <2      <2      <2             <2     <2       <2     <2          <2     <2
Sn       <3      19      32       44     39      (5.4)   13             11     95      190     (3.1)       <3     (3.6)
V        <0.05    0.29   (0.12)   (0.13) (0.14) <0.05 <0.05             <0.05 (0.076) (0.13) <0.05         <0.05 <0.05
Y        (0.065) 1.3      0.91     2.9    0.41    0.20    0.51          (0.11) 0.19      1.4   (0.056)     <0.04 <0.04
Zn      108     638     348      598    728     178     178            138    558      708    218         138     98
Zr      <10     <10    <10      <10     <10     <10     <10            <10    <10      <10   <10          <10    <10




                                                         45 

                                           Appendix C (Continued) 

                                   Metallic Composition of Wipe Samples 

                                       Concentrations are in flg/lOO cm 2 

                             Please see Table 5 for sample dates and descriptions. 

    <indicates a result less than the limit of detection. Values in parentheses represent results between 

                                the limit of detection and limit of quantitation.



             on       ~                                       ,...,
                                                              0               ,...,
                                                                              ,...,    ,...,
                                                                                       N
                                                                                                '",...,,   ...,...,,   ,...,
                                                                                                                          ,    N
                                                                                                                                 ,
                ,        ,     ",       QO
                                           ,       '",           ,               ,        ,
                                                                                                                       c.:I    c.:I
                                                                                                                                      '"c.:I,
             c.:I     c.:I     c.:I     c.:I       c.:I       c.:I            c.:I     c.:I     c.:I       c.:I
                                                                                                                       ~       ~      ~
             :.:u==   :.:u==   :.:u==   :.:u==     :.:u==     :.:u==          :.:u==   :.:u==   :.:u==     :.:u==      :.:
                                                                                                                       00
                                                                                                                               :.:
                                                                                                                               00
                                                                                                                                      :.:
                                                                                                                                      00
             :.:      :.:      :.:      :.:        :.:        :.:             :.:      :.:      :.:        :.:         :.:     :.:    :.:
As         <2       <2      <2      <2             <2         <2      <2      <2      <2      <2      <2     <2     <2
Ba         21       15      80      11             62          3.4    53       1.4    (0.16)   7.4     1.3    0.25 320
Be         <0.07    <0.07 <0.07 <0.07              <0.07      <0.07 <0.07 <0.07 <0.07 <0.07 <0.07 <0.07 <0.07
Cd          4.1      3.0    19       1.9            2.9        0.54    3.0     1.0    <0.07    1.1     1.2    0.31 360
Cr          6.7      2.7     6.5     4.1           10          2.7     9.3     2.1    (0.25)   2.0    (0.33) (0.39) 13
Co         36       (0.14)   1.3     0.87          19         (0.22)   1.5    (0.17) <0.09    (0.098) <0.09  (0.11) 0.59
Cu         94       18      43      19             77         31      95      21       1.3    13       1.5   (0.8) 29
Fe       1897      157     887     501           1897       1797     527     267       7.3   177      10      1.7 1297
La          0.58    (0.055) 0.90     0.29           0.92       0.55    0.24   (0.13) <0.05    (0.071) <0.05 <0.05    1.5
Ph         85       17      88      72            140          9.8    33       5.3     1.1    36       8.4    2.9 5100
Mn         44        3.0    49     110            450        110      24      12       0.51   14      <0.1   <0.1   22
Mo         (0.27)    0.70    2.9    <0.2           <0.2       <0.2    (0.39) (0.28) <0.2      <0.2    <0.2   <0.2   (0.47)
Ni         14        7.3    19      11             18          2.7    68       5.1    <0.3     3.9    (0.75) (0.32) 52
P          <6       <6      12      <6             <6         <6      20      <6      <6      <6      <6     <6     80
Se         <3       <3      <3      <3             <3         <3      <3      <3      <3      <3      <3     <3     <3
Ag          1.1      0.30    1.6     0.58           9.3       (0.066) 0.55     4.3    <0.04    0.58 <0.04 <0.04      1.2
Sr          2.4      1.2     4.7     1.7            2.6        0.94    2.8     0.79   (0.32)   1.8     0.91   0.72 170
Te          3.7     <0.5    <0.5    <0.5           <0.5       <0.5    <0.5    <0.5    <0.5    <0.5    <0.5   <0.5 <0.5
TI         <2       <2      <2      <2             <2         (2.2)   <2      <2      <2      <2      <2     <2     <2
Sn        170       27      62     120            160         (4.1)   19      (4.0)   <3      43      <3     <3     12
V          (0.092)  (0.054) (0.080) 0.21            0.56      <0.05   (0.14) <0.05 <0.05      (0.073) <0.05 <0.05    0.33
Y           0.14    (0.11)   1.1     3.3            2.0       (0.11)   0.45   (0.054) <0.04    0.27    1.0    0.49 810
Zn        628      278     698     488           1298        488     308     148      91.3 378       118    148 3098
Zr        <10      <10     <10     <10            <10        <10     <10    <10      <10     <10     <10    <10    <10




                                                                       46 

                                         Appendix D 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

               MCMWF-5       MCMWF-6       MCMWF-7       MCMWF-S       MCMWF-9       MCMWF-10
Aluminum               2.S           2.6           2.4         (1.S)         (1.5)          (1.3)
Antimony             <0.5          <0.5          <0.5          <0.6          <0.5           <0.6
Arsenic                <1            <1            <1            <1             <1             <1
Barium               0.15          0.26          0.21         0.077       (0.063)            0.11
Beryllium           <0.03         <0.03         <0.03         <0.03         <0.03          <0.03
Cadmium           (0.052)       (0.079)       (0.047)         <0.03         <0.03        (0.052)
Calcium                 17            17            12           9.1           7.S            S.l
Chromium           (0.24)        (0.13)        (O.lS)          <0.1          <0.1         (0.22)
Cobalt              <0.04         <0.04         <0.04         <0.04         <0.04          <0.04
Copper             (0.29)        (0.33)        (0.17)          <0.1           0.53        (0.20)
Iron                   5.4           5.9          6.1            3.5           2.3            4.2
Lanthanum           <0.01         <0.01         <0.01         <0.01         <0.01          <0.01
Lead               (0.54)          <0.1        (0.17)          <0.1        (0.35)           <0.1
Lithium           <0.009        <0.009        <0.009          <0.01         <0.01          <0.01
Magnesium              1.3           1.1         0.96            1.2          0.53           0.67
Manganese            0.15          0.21          0.11       (0.093)        (0.12)         (0.13)
Molybdenum        <0.052          <O.OS         <O.OS         <O.OS         <O.OS          <O.OS
Nickel             (0.19)        (0.11)        (0.13)       (0.OS9)        (0.15)          <O.OS
Phosphorus             <4            <4            <4            <4             <4             <4
Potassium              1.6           1.0         0.S2        (0.33)        (0.40)         (0.39)
Selenium               <3            <3            <3            <3             <3             <3
Silver              <0.03         <0.03         <0.03         <0.03          <0.3       (0.050)
Strontium           0.077         0.066         0.057         0.050         0.039          0.049
Tellurium            <0.4          <0.4          <0.4        (0.44)          <0.4           <0.4
Thallium             <0.5          <0.5          <0.5          <0.5          <0.5           <0.6
Tin                  <0.5          <0.5          <0.5          <0.5          <0.5           <0.6
Titanium          (0.065)         0.076       (0.054)       (0.044)         <0.03        (0.045)
Vanadium            <0.03         <0.03         <0.03         <0.03         <0.03          <0.03
Yttrium           <O.OOS          <0.03         <0.03         <0.01         <0.02          <0.02
Zinc                   7.7           6.1          5.7            5.S           3.4            2.9
Zirconium          (0.20)        (0.16)          <0.1          <0.1          <0.1           <0.1




                                               47 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

                MCMHF-l       MCMHF-2       MCMHF-3       MCMHF-4     MCMHF-5     MCMHF-6
  Aluminum            (2.2)            <1         (1.4)          <2          <2         (1.S)
  Antimony            <0.5          <0.5          <0.4         <O.S          <1         <0.4
  Arsenic                <2            <2            <1          <3          <4            <1
  Barium               0.26          0.19          0.17      <0.05        <0.07          0.14
  Beryllium          <0.03         <0.03         <0.02       <0.05        <0.07        <0.03
  Cadmium          (0.091)       (0.069)       (0.056)         <0.1        <0.1        <0.06
  Calcium                14           9.5            12          <5          <7         (6.5)
  Chromium            <0.2          <0.2          <0.1         <0.3        <0.4         <0.1
  Cobalt             <0.06         <0.06         <0.05         <0.1        <0.1        <0.06
  Copper              <0.3          <0.3          <0.2         <0.5        <0.7         <0.3
  Iron                (4.6)         (3.5)         (4.7)          <5          <7            <3
  Lanthanum          <0.01         <0.01         <0.01       <0.02        <0.03        <0.01
  Lead                <0.3          <0.3        (0.40)         <0.5        <0.7       (0.37)
  Lithium            <0.02         <0.02         <0.01       <0.03        <0.04        <0.01
  Magnesium              <1            <1            <1          <2          <3            <1
  Manganese            0.20       (0.12)           0.16      <O.OS         <0.1       (0.13)
  Molybdenum        (O.IS)          <0.2          <0.1         <0.3        <0.4         <0.1
  Nickel              <0.3          <0.3          <0.2         <0.5        <0.7         <0.3
  Phosphorus             <5            <5            <4          <S        <11             <4
  Potassium             1.0       (0.74)           0.90        <0.3        <0.4       (0.55)
  Selenium               <5            <5            <4          <S        <11             <4
  Silver           (0.022)       (O.OIS)       (0.012)       <0.03        <0.04      (0.017)
  Strontium        (0.052)       (0.042)       (0.042)       <0.03        <0.04      (0.030)
  Tellurium           <0.5          <0.5          <0.4         <O.S          <1         <0.4
  Thallium          (0.77)          <0.6          <0.5           <1          <1         <0.6
  Tin                 <O.S        (0.S2)          <0.6           <1          <2         <0.7
  Titanium         (0.037)       (0.032)       (0.059)        <0.05       <0.07        <0.03
  Vanadium         (0.031)         <0.02         <0.01       <0.03       <0.04       (0.014)
  Yttrium          (0.014)           0.27        <0.01         0.20       <0.03        <0.01
  Zinc                  4.9           5.2           5.6         1.1      (0.74)           6.2
  Zirconium         (O.IS)          <0.2          <0.1         <0.3        <0.4         <0.1




                                               48 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

               MCMHF-7       MCMHF-8       MCMHF-9       MCMHF-10       MCMHF-ll     MCMHF-12
Aluminum             (1.0)         (1.3)         (2.5)            <1          <0.9          <3
Antimony           (0.42)          <0.4          <0.4           <0.4          <0.4          <1
Arsenic                 <1           <1             <1            <1            <1          <5
Barium                0.12         0.18           0.21       (0.055)       (0.039)       <0.09
Beryllium           <0.03         <0.02         <0.03          <0.03         <0.03       <0.09
Cadmium             <0.05         <0.05         <0.06          <0.06         <0.05        <0.2
Calcium                7.1            11            15          (3.0)           <3          <9
Chromium             <0.1          <0.1          <0.1           <0.1          <0.1        <0.5
Cobalt              <0.05         <0.05         <0.06          <0.06         <0.05        <0.2
Copper               <0.2          <0.2          <0.3           <0.3          <0.3        <0.9
Iron                 (3.9)         (2.6)         (6.3)            <3            <3          <9
Lanthanum           <0.01         <0.01         <0.01          <0.01         <0.01       <0.04
Lead                 <0.2          <0.2        (0.44)           <0.3          <0.3        <0.9
Lithium             <0.01         <0.01         <0.01          <0.01         <0.01       <0.05
Magnesium               <1         <0.9             <1            <1            <1          <4
Manganese          (0.11)       (0.086)           0.22       (0.089)       (0.041)        <0.1
Molybdenum           <0.1          <0.1          <0.1           <0.1          <0.1        <0.5
Nickel               <0.2          <0.2          <0.3           <0.3          <0.3        <0.9
Phosphorus              <4           <4             <4            <4            <4         <14
Potassium          (0.43)            1.2           1.5        (0.27)          <0.1        <0.5
Selenium                <4           <4             <4            <4            <4         <14
Silver              <0.01         <0.01         <0.01          <0.01         <0.01       <0.05
Strontium         (0.022)       (0.041)       (0.047)          <0.01         <0.01       <0.05
Tellurium            <0.4          <0.4          <0.4           <0.4          <0.4        (2.1)
Thallium             <0.5          <0.5          <0.6           <0.6          <0.5          <2
Tin                  <0.6          <0.6        (0.75)           <0.7          <0.7          <2
Titanium            <0.03         <0.02       (0.061)          <0.03         <0.03       <0.09
Vanadium            <0.01         <0.01         <0.01          <0.01         <0.01       <0.05
Yttrium             <0.01         0.075         <0.01        (0.066)         <0.01       <0.04
Zinc                   3.4           5.6           7.9            2.5         0.77        <0.4
Zirconium            <0.1          <0.1          <0.1           <0.1          <0.1        <0.5




                                              49 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

                MSMWF-1       MSMWF-2      MSMWF-3      MSMWF-4      MSMWF-5       MSMWF-6
  Aluminum            (2.8)        (4.3)           <2           <2            <1           <1
  Antimony            <0.7          <0.7         <0.7         <0.7         <0.5          <0.5
  Arsenic                <2           <2           <2           <2            <2           <2
  Barium               0.65         0.69       (0.11)      (0.079)      (0.055)       (0.041)
  Beryllium          <0.05        <0.05         <0.05        <0.05        <0.03         <0.03
  Cadmium               6.8          3.8       (0.22)       (0.21)        <0.06         <0.06
  Calcium                28           36           <5           <5         (3.6)         (4.3)
  Chromium            <0.2          <0.2         <0.2         <0.2         <0.2          <0.2
  Cobalt             <0.09          <0.1         <0.1         <0.1        <0.06         <0.06
  Copper              <0.5          <0.5         <0.5         <0.5         <0.3          <0.3
  Iron                (8.2)        (9.8)           <5           <5         (3.9)           <3
  Lanthanum          <0.02        <0.02         <0.02        <0.02        <0.01         <0.01
  Lead                  3.7          5.2         <0.5       (0.57)         <0.3          <0.3
  Lithium            <0.02        <0.02         <0.02        <0.03        <0.02         <0.02
  Magnesium              <2           <2           <2           <2            <1           <1
  Manganese         (0.17)        (0.16)        <0.07        <0.07        <0.05         <0.05
  Molybdenum          <0.2          <0.2         <0.2         <0.2         <0.2          <0.2
  Nickel              <0.5          <0.5         <0.5         <0.5         <0.3          <0.3
  Phosphorus             <7           <7           <7           <7            <5           <5
  Potassium             2.3          3.1         <0.2         <0.2       (0.18)        (0.20)
  Selenium               <7           <7           <7           <7            <5           <5
  Silver           (0.023)        <0.02         <0.02        <0.03        <0.02         <0.02
  Strontium            0.19         0.29      (0.027)        <0.03        <0.02         <0.02
  Tellurium           <0.7        (0.88)         <0.7       (0.94)         <0.5          <0.5
  Thallium            <0.9            <1           <1           <1         <0.6          <0.6
  Tin                    <1        (1.3)           <1           <1         <0.8          <0.8
  Titanium           <0.05        <0.05         <0.05        <0.05        <0.03         <0.03
  Vanadium         <0.002         <0.02         <0.02        <0.03        <0.02         <0.02
  Yttrium               2.1          2.3         0.36         0.17        <0.01         <0.01
  Zinc                   49           36          2.7          2.0          0.70       (0.43)
  Zirconium           <0.2          <0.2         <0.2         <0.2         <0.2          <0.2




                                              50 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

               MSMWF-7      MSMWF-S       MSMWF-9     MSMWF-10      MSMWF-11      MSMWF-12
 Aluminum              <2            <1          <3            <3           <1          <0.9
 Antimony              <1         <0.5           <1            <1         <0.6          <004
 Arsenic               <3            <2          <4            <4           <2            <1
 Barium            <0.06       (0.042)          1.5          0042         0042       (0.063)
 Beryllium         <0.06         <0.03        <0.07       <O.OS          <0.04         <0.03
 Cadmium             <0.1        <0.07         0.59         <0.2         <O.OS         <0.05
 Calcium               <6         (3.6)          23            <S           <4            <3
 Chromium            <0.3         <0.2         <004         <0.4          <0.2          <0.1
 Cobalt              <0.1        <0.07         <0.1         <0.2         <O.OS         <0.05
 Copper              <0.6         <0.3         <0.7         <O.S          <004          <0.3
 Iron                  <6         (3.6)          <7            <S           <4            <3
 Lanthanum         <0.03         <0.02        <0.03       <0.03          <0.02         <0.01
 Lead                <0.6         <0.3           12         (204)         <004          <0.3
 Lithium           <0.03         <0.02        <0.04       <0.04          <0.02         <0.01
 Magnesium             <3            <1          <3            <3           <2            <1
 Manganese           <0.1        <0.05         <0.1         <0.1         <0.06         <0.04
 Molybdenum          <0.3         <0.2         <004         <0.4          <0.2          <0.1
 Nickel              <0.6         <0.3         <0.7         <O.S          <004          <0.3
 Phosphorus          <10             <5        <11           <11            <6            <4
 Potassium           <0.3       (0.23)          304       (0046)        (0.24)          <0.1
 Selenium            <10             <5        <11           <11            <6            <4
 Silver            <0.03         <0.02        <0.04       <0.04          <0.02         <0.01
 Strontium         <0.03         <0.02         0.59       (0.12)       (0.026)         <0.01
 Tellurium             <1         <0.5           <1            <1         <0.6          <004
 Thallium              <1         <0.6           <1            <2         <O.S          <0.5
 Tin                   <2         <O.S           <2            <2           <1          <0.6
 Titanium          <0.06         <0.03        <0.07       <O.OS          <0.04         <0.03
 Vanadium          <0.03         <0.02        <0.04       <0.04          <0.02         <0.01
 Yttrium             0.2S        <0.02           26           7.5           1.2         0.11
 Zinc              (0.S6)          0.63          66            16          3.S          0.96
 Zirconium           <0.3         <0.2         <004         <004          <0.2          <0.1




                                             51 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

                 MSMHF-1       MSMHF-2       MSMHF-3      MSMHF-4     MSMHF-5      MSMHF-6
   Aluminum            (2.7)            <2          8.9       (5.3)        (5.2)           <2
   Antimony            <0.7          <0.7         <0.7         <0.7        <0.9          <0.7
   Arsenic                <2            <2          <2           <2          <3            <2
   Barium               0.49      (0.097)           2.1         1.3          2.0       (0.13)
   Beryllium          <0.04         <0.05        <0.05       <0.05        <0.06         <0.05
   Cadmium            <0.09         <0.09       (0.18)       (0.13)        0.70          <0.1
   Calcium             (9.3)         (5.4)           33          32           19           <5
   Chromium            <0.2          <0.2         <0.2         <0.2        <0.3          <0.2
   Cobalt             <0.09         <0.09        <0.09       <0.09         <0.1          <0.1
   Copper              <0.4          <0.5         <0.5         <0.5        <0.6          <0.5
   Iron                (5.1)            <5           16       (8.3)        (8.9)           <5
   Lanthanum          <0.02         <0.02        <0.02       <0.02        <0.03         <0.02
   Lead                  3.1       (0.68)            15         8.8           20         (1.0)
   Lithium            <0.02         <0.02        <0.02       <0.02       <0.03          <0.02
   Magnesium              <2            <2        (2.3)          <2          <2            <2
   Manganese         (0.10)         <0.07       (0.19)       (0.18)       <0.09         <0.07
   Molybdenum          <0.2          <0.2         <0.2         <0.2        <0.3          <0.2
   Nickel              <0.4          <0.5         <0.5         <0.5        <0.6          <0.5
   Phosphorus             <7            <7          <7           <7          <9            <7
   Potassium             1.4       (0.45)           5.9         3.7          4.3         <0.2
   Selenium               <7            <7          <7           <7          <9            <7
   Silver             <0.02         <0.02        <0.02       <0.02        <0.03         <0.02
   Strontium        (0.067)       (0.025)         0.33         0.23        0.73       (0.055)
   Tellurium           <0.7          <0.7         <0.7        (1.3)        <0.9        (0.86)
   Thallium            <0.9          <0.9         <0.9         <0.9          <1            <1
   Tin                    <1         (1.3)          <1           <1          <2            <1
   Titanium           <0.04         <0.05        <0.05       <0.05        <0.06         <0.05
   Vanadium           <0.02         <0.02       <0.02        <0.02       <0.03          <0.02
   Yttrium               8.0          0.60           52          23           37           1.7
   Zinc                   17           2.0           84          49           80           3.8
   Zirconium           <0.2          <0.2         <0.2         <0.2        <0.3          <0.2




                                               52 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in /lg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation.

                MSMHF-7        MSMHF-8        MSMHF-9       MSMHF-10      MSMHF-ll       MSMHF-12
  Aluminum            (1.0)          (1.7)            3.9         <0.9             27          <0.9
  Antimony            <0.4           <0.3         (0.52)          <0.4        (0.43)           <0.4
  Arsenic                <1             <1             <1            <1            <1            <1
  Barium           (0.049)        (0.064)            0.20      (0.033)             1.6      (0.060)
  Beryllium          <0.03          <0.02          <0.03         <0.03         <0.02          <0.03
  Cadmium          (0.089)           0.24            0.49        <0.05          0.14          <0.05
  Calcium             (4.4)             7.9            16            <3           177            <3
  Chromium             0.19          0.12             5.0         <0.1          0.48           <0.1
  Cobalt             <0.05          <0.05            0.30        <0.05         <0.04          <0.05
  Copper              <0.3           <0.2           <0.3          <0.3            1.7          <0.3
  Iron                  208            168          2449          (3.9)            48            <3
  Lanthanum          0.082          0.081            0.97        <0.01         <0.01          <0.01
  Lead                <0.3           <0.2         (0.42)          <0.3             1.1         <0.3
  Lithium            <0.01          <0.01          <0.01         <0.01         <0.01          <0.01
  Magnesium              <1          (1.1)            9.9            <1             13           <1
  Manganese              2.5           2.8             27      (0.051)           0.91        (0.15)
  Molybdenum          <0.1           <0.1           <0.1          <0.1          <0.1           <0.1
  Nickel              <0.3           <0.2           <0.3          <0.3          0.84           <0.3
  Phosphorus             <4             <3             <4            <4         (8.7)            <4
  Potassium         (0.23)         (0.34)            0.78         <0.1             45          <0.1
  Selenium               <4             <3             <4            <4            <3            <4
  Silver             <0.01          <0.01          <0.01         <0.01         0.099          <0.01
  Strontium          <0.01        (0.039)        (0.054)         <0.01           0.47         <0.01
  Tellurium           <0.4           <0.3         (0.50)          <0.4          <0.3           <0.4
  Thallium            <0.5           <0.4           <0.5          <0.5          <0.4           <0.5
  Tin                 <0.7           <0.6         (0.69)          <0.7          <0.6           <0.7
  Titanium           <0.03          <0.02        (0.050)         <0.03           0.85          <0.3
  Vanadium           <0.01          <0.01          <0.01         <0.01       (0.027)          <0.01
  Yttrium            <0.01            0.32       (0.050)         <0.01         0.097          <0.01
  Zinc                   2.3           3.0             20          0.51            24           1.3
  Zirconium           <0.1           <0.1           <0.1          <0.1          (1.0)          <0.1




                                                  53 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation. 


                           MSMHF-13      MSMHF-14      MSMHF-17      MSMHF-19
             Aluminum              <1          <0.9         (7.1)             30
             Antimony            <0.5          <0.4            <2            <2
             Arsenic               <2             <1           <7            <6
             Barium           (0.069)           0.16          5.0             16
             Beryllium          <0.03         <0.03          <0.1          <0.1
             Cadmium            <0.06         <0.05            5.3            12
             Calcium               <3          (4.6)         <15             47
             Chromium            <0.2         <0.01          <0.7          <0.6
             Cobalt             <0.06         <0.05        (0.36)          0.82
             Copper              <0.3          <0.3            <1            <1
             Iron                  <3          (3.6)         <15             41
             Lanthanum          <0.01         <0.01        <0.07        (0.056)
             Lead                <0.3          <0.2            29           105
             Lithium            <0.02         <0.01        <0.07          <0.06
             Magnesium             <1             <1           <6            <5
             Manganese          <0.05       (0.048)          <0.2        (0.35)
             Molybdenum          <0.2          <0.1          <0.7          <0.6
             Nickel              <0.3          <0.2            <1            <1
             Phosphorus            <5             <4         <22            <18
             Potassium           <0.2        (0.38)            5.6            23
             Selenium              <5             <4         <22            <18
             Silver             <0.02         <0.01        <0.07          <0.06
             Strontium          <0.02       (0.012)            2.1           7.6
             Tellurium           <0.5          <0.4            <2            <2
             Thallium            <0.6          <0.5            <3            <2
             Tin                 <0.8          <0.6            <4            <3
             Titanium           <0.03         <0.03          <0.1        (0.23)
             Vanadium           <0.02         <0.01        <0.07          <0.06
             Yttrium            <0.01         <0.01           200           438
             Zinc                 2.3            3.6         467           1053
             Zirconium           <0.2          <0.1          <0.7          <0.6




                                             54 

                                  Appendix D (Continued) 

                      Metallic Composition of Airborne Dust Samples 

                                 Concentrations are in flg/m3 

         Please see Table 4 for sample dates, description, duration and flow rate. 

<indicates a result less than the limit of detection. Values in parentheses represent results 

                  between the limit of detection and limit of quantitation. 


                           MSMHF-20      MSMHF-21      MSMHF-22     MSMHF-23
             Aluminum              <4         (6.5)            <5           <5
             Antimony              <2            <2            <2           <2
             Arsenic               <5            <6            <7           <7
             Barium                1.6           3.6          1.3          1.0
             Beryllium          <0.1           <0.1         <0.1          <0.1
             Cadmium               1.7          4.4           1.1       (0.74)
             Calcium             <11           (12)          <14          <15
             Chromium           <0.5           <0.6         <0.7          <0.7
             Cobalt             <0.2         (0.24)         <0.3          <0.3
             Copper                <1            <1            <1           <1
             Iron                <11           <12           <14          <15
             Lanthanum         <0.05         <0.05         <0.06        <0.07
             Lead                 9.7             22          8.5        (5.6)
             Lithium           <0.05         <0.06         <0.07        <0.07
             Magnesium             <4            <5            <6           <6
             Manganese          <0.2           <0.2         <0.2          <0.2
             Molybdenum         <0.5           <0.6         <0.7          <0.7
             Nickel                <1            <1            <1           <1
             Phosphorus          <16           <18           <21          <22
             Potassium          (2.5)           4.8         (1.3)        (1.2)
             Selenium            <16           <18           <21          <22
             Silver            <0.05         <0.06         <0.07        <0.07
             Strontium           0.81            1.5         0.57         0.49
             Tellurium             <2            <2            <2           <2
             Thallium              <2            <2            <3           <3
             Tin                   <3            <3            <4           <4
             Titanium           <0.1           <0.1         <0.1          <0.1
             Vanadium          <0.05         <0.06         <0.07        <0.07
             Yttrium               51           131            38           24
             Zinc                 124           333            92           59
             Zirconium          <0.5           <0.6         <0.7          <0.7




                                             55 

Fi2ur. I: Marianna FeI UNICORF acto ry Floor Plan



                                                             1
        I                                                         "
                                                                 ," 

                                                     .., :
                                                     i~§
                                                                 0

                                                                 ,
                                                     •• 	    ,,  >
                                                                 <



                                                     i       ,

                                                             z
                                                    ,, 	     ~
                                                             ~
                                                             ~

                                                             ~

                                                    !	       D
                                                             D
                                                    ,• 	     ~
                                                             ~

                                                     I	
                                                     •	      ~
                                                             ~

                                                    i	       D
                                                             ~
                                                             u
                  --­
                                                    i	       ~
                  -'­
                                                             -
                                                             ~


                                                             U
                                                             ~




   I
   II
               Figure II: Marianna Fl'C UNICOR Fa~tory Floor Plan




                                     .

                                      ,                                                   w
                                                                                          iw
                                                                                          w

                                     I'~         "
                                                 ~~
                                                                                i~~
                                                                                          c
                                                                                          "z
                                                                                ,"!
                                                                                          •
                                                                                          >
                                                                                 ••
                                        - ~~             ,•
                                                                                i         "~

                                                        "
                                                        !~

                                                                           I
                                                                                zQ
,                                                        ,                      ~




                                                                                      -
                                                                                ~
                                                                                      ~
                                                                                      z
.!                                                                              ~
                                                                                D     ~
                                                                                          ~
                                                                                          ~

I!                                      -        ,,
                                                                                D
                                                                                ~
                                                                                ~
                                                                                      u
                                                                                      ~
                                                                                      U
                                                                                      wz
                                                                                          Q


"                                  ••   I                                       r     ~


                                                                                          -
                                                                                          z
\                                  ••
                                             ,,
                                                                                ~
                                                                                D     ~
                                                                                          Q

                                                                                          ~

                                                              l [( ] _
                                                                                ~
                                                                                U
                                                                                4
                                                                                ~

                                                                                u
                                                                                      -
                                                                                      D
                                                                                      U
                                                                                      Z
                                                                                      ~
                                                                                          4
                                                                                          L




     ,,
    , ,,  ,!     "
                 ~~
                                                                         ,­••
                                                                         ,.".
                                                                                ~
                                                                                ~




    , i
     0
                 i~
                                                         •
                                                      '1••
                            'q,'                      "'
                                                              ~"
                                                              "',­
                                             ..,'" ""
                                            ]"
     Fi gu re III: Mariann a FPC CIa ..   Br "akl n ~   Ar ea




                                                                    1

                                                                    "" 

                                                                    0

                                                                    ,"
                                                                    ,
                                                                    >

                                   ,,,,
                                                                    <

                                                         I          "<
                                                 ,
                                                                    0




                                             'I
                                                                -
                                                                ~
                                                                z
                                                                ~
                                                                ~
                                                                W
                                                                ~
                                                                ~

                                                                W
                                                                W
                                                                ~
                                                                ~
                                                                ~

                                                                ~
                                                                Z


                                                                -
                                                                Z
                                                                ~




 ,
   ..                    ,•
                         ,•
                                                                ~
                                                                ~
                                                                L
                                                                U
                                                                ~
                                                                ~




                                            §~
                                            <.
                                            "" <
                              ,,
                              I             .""
                                            ",
•"
                        Figure IV: Marianna FPC Glass Breaking Booth
            (Includes box of CRTs on hand truck below window in plastic curtain)

Worker feeds CRTs from box at left into enclosure where glass is broken. Two horizontal
flow modules (HFMs) are visible in the enclosed area. Those units collect and filter air and
recirculate the filtered air into the enclosure. The booth is enclosed on two sides by concrete
block walls and on two sides by plastic curtains. It is enclosed on top by plastic. There is no
mechanical ventilation in the GBO besides the HFMs




                                             59 

              Figure V: Marianna FPC Glass Breaking Booth Work Stations
                 (plastic curtain pulled to the left to show first work station)

Worker takes CRT from left, removes gun, breaks fullllel glass, and passes to right where
second worker breaks panel glass. The horizontal flow modules (HFMs) collect and filter the
air and recirculate the filtered air inside the booth. The booth is enclosed on four sides and on
top. There is no mechanical ventilation in the GBO besides the HFMs inside the booth.




                                              60 

   Figure VI: NIOSH Recommended Heat-Stress Exposure Limits for Heat-Acclimatized
                             Workers [NIOSH 1986]




                   104 40
         I­
          (!)
          CD
          ~
              I
          ~        95 35
          w
          I
          .....J
                                                                                     C
          ~
          z
          w
          ~
          z
          0
          a:::
          >
          z
          w                                                                                     REL
                                                                                    45min/h.
                   77 25                                                            60min/h.




                   68   20~________________________________________


                            100    200            300             400             50b keal/h.
                         400       800            1200            1600           2000 Btu /h
                         116       233            349             465            580 Watts

                                         METABOLIC HEAT




C = Ceiling Limit 

*for "standard worker" of 70 kg (154 lbs) body weight and 1.8 m 2 (19.4 fe) body surface. 





                                                      61 

    Figure Vll: Recommended Layout of Typical Facility wbere Protective Clotbing is 

                              Required [DOD 1987]. 


Note the arrows showing the movement of the workers to segregate contaminated equipment and
clothing from clean items. Workers shower before re-entering clean locker rooms after
removing contaminated clothing.


                                              t.!en'! Dirty Locker Roam




         t.!echonlca\
                               BrfdQe
                               Crone 

                                                                          =
         Equipment 

            Roam 




                'ooHEPA                            Decon. o         Admln ilirolive   a ~,
                                                                                      locker
                   F1tM
                                                      "'" o               Space       Roome
                Pr.fiIter



                            Hood


        BOQhoUIe                                                          =

                            Women'! Dfrty locker Room




                                               62 

                              Figure VIII: Size Distribution of Airborne Particles


      350


      300


      250
C')
E
" 200
§!
Q.
0
OJ
a     150

-
'0
Z
"0
      100

      50


        0
            0.1                             1                           10           100
                                    Aerodynamic Particle Diameter, Dp (Microns)


                  --­ Breaking_0808                          -B-   Cleaning_0808
                  ......... Breaking_0809                    -+- Cleaning_0809

                  -   FilterChanging_0809




                                                      63 

ENCLOSURE 2 

                  e,f-

u.s. 	   partment of Labor              Occupational Safety and Health Administration
                                        1851 Executive Center Drive, Suite 227
                                        Jacksonville, Florida 32207·2350
                                        Telephone: 904-232-2895
                                        Facsimile: 904-232-1294
                                        Reply to the A.ttentlon of the Area Director

March 8, 2007


         of Prisons
Fede~e Marianna, Florida
Attn:_-Warden
    Fel Road
Marianna, FL 32446


                                OSHA Inspection No. 310028832

Dear

The results of OSHA's personal air monitoring, area monitoring, and wipe sampling
that was performed at your facility on November 8, 2006 for the Cathode Ray Tube
glass breaking operation were as follows:


    November      2006 - Air Monitori     Results
                       CONTAMINANT                                     OSHA
         INMATE                                    RESULTS
                      PHYSICAL AGENT                                       LIMITS

                             Lead                Non Detectable             50.0 jJgJm3

                           Cadmium               Non Detectable              5.0 j./g/m3

                           Beryllium             Non Detectable              2.0 ~g/m3

                             Barium              Non                         0.5 mg/m3

                                                 Non Detectable             50.0 j.Jg/m3

                           Cadmium               Non Detectabre              5.0 J..lg/m 3

                           Beryllium             Non                         2.0 !-Ig/m:)

                             Barium              Non Detectable              0.5 mg/m3

                                                 Non                        50.0 !-191m3

                           Cadmium               Non Detectable              5.0

                                                                                        3
                                                 Non                         2.0 J..lg/m

                             Barium              Non Detectable             0.5


                                                                                             200027 

                   CONTAMINANT                          OSHA EXPOSURE
   INMATE                           RESULTS
                  PHYSICAL AGENT                            LIMITS

                                   Non Detectable            50.0 ~g/mJ

                     Cadmium       0.000637 ~g/m3              5.0 J.Jg/m 3

                      Beryllium    Non Detectable              2.0 IJg/ml

                      Barium                                         mg/mJ

                                   Non Detectable           50.0 j.lg/m3

                      Cadmium      Non Detectable              5.0

                      Beryllium    Non                         2.0 IJg/m3

                       Barium      Non Detectab!e            0.5 mgJm l




 INMATE &                                               OSHA
                                     RESULTS
 LOCATION                                                   LIMITS

                        Lead                  fJ9         Not Established

Inside
                      Cadmium         49.461-1Q          Not
workstation #1

                      Beryllium    Non Detectable         Not Established

                       Barium      Non Detectable        , Not Established

                                      3.33 IJQ           Not

                     Iron Oxide     540.8648 I-IQ         Not Established'

                     Manganese        3A55IJg            Not EstabHshed

                     Zinc Oxide      789.015 J.l9        Not Established



Wrist area
underside of         Cadmium         0.5150 IJQ          Not Established
Coverall Sleeve
Inside outer
Qlove, outSide
                     Zinc Oxide                   IJQ    Not
cotton inner
Qlove

                     Cadmium             1.511Q          Not Established

                     Iron Oxide     119.4596 )Jg         Not Established




                                                                              200028 

                         CONTAMINANT
                                                        RESULTS
                        PHYSICAL AGENT                                               LIMITS

                             Iron Oxide                 136.459 1.l9           Not Established


                                Lead                      29.20 j.J9           Not Established

                             Zinc Oxide                 86.5066 ).19           Not Established

                                                          2.39j.Jg             Not




                             Zinc Oxide                 60.2435 jJ9

                              Cadmium                                          Not Established



 Overhead
                              Iron Oxide                84.35821Jg         I   l'\Jot Established
 door area floor

                                 Lead                     6.25 \.19            Not I::Slabl!Sn!~CI




                                                                                      EXPOSURE
                                                        RESULTS
                                                                                     LIMITS


 Glass breaking
                             Zinc Oxide                0.0955 mg/m3               5.0 mg/m3
 workstation #1
.. mg/m is the abbreviation for milligrams per cubic meter 

 ;, \.19 is the abbreviation for micrograms . 

.. I-Ig 1m3 is the abbreviation for micrograms per cubic meter of air. 


Overall     facility had         reviewed thoroughly by         Marianna.
safety      health plans had been                and put into practice by the
Bureau of Prisons generally, and                 additions were made to the
procedures to fit the facility. The air monitoring results were below OSHA's
permissible exposure limits and action levels. Therefore, the use of the
hooded respirators was not required; 	                       we
ENCOURAGE their continued use.

When working with heavy metals, air concentrations are not    only hazard.
Surface contamination       body contamination             the chance
absorption and ingestion, and that was why wipe samples were collected.
From review of the wipe samples thefoflowing recommendations were
in writing to the Warden when we          the        of our sampling with
him:

1. 	 Open areas in the personal protective eqUipment (PPE), such as the
     wrist area where the coverall sleeve goes       the     glove. and on
     top of     inner glove, should be closed by some means, such as wit,...
                                                                                              ]
                                                                                                     200029
             .-­
              to                     and exposure to cadmium and
          metals

   When wearing the hooded                 ensure that the hood
   covers the neck and             to' prevent inward migration
   contaminated with cadmium         other heavy metals.

   When handling the hooded              contaminated gloves or        or
   other objects should be kept outside of the respirators to ensure their
   cleanliness. Mandatory cleaning should be monitored by the foreman,
   and quality assurance         should be completed to ensure that the
   respirators were                 of heavy metals.

4. 	 A complete noise                  perfonned for the facility     have a
   baseline. Identify      producing processes and objects,       if needed,
   lower the noises       with engineering controls, such as          sliders
   or wheels to the stair
   The facility should            document the proper HEPA
   to be used for Vacuum     With that. establish a change <;):I'"'r\&:>rl
   on technical and analytical       to prevent recirculation of collected
   heavy metals from the vacuum to the work environment

6. 	 Perform quality assurance checks on boxes that are leaving the glass
   breaking building to ensure they are cleaned, and the outside inmate
   population is not

                                                                of possibJe
                                                              are exposing


NOTE: 	 An Industrial Survey that was conducted by KAM Environmental,
        Inc. rKAM") was collected by the CSHO during      inspection (see
        FC!0014).        KAM survey was perfonned      the facility shortly
        after the glass breaking began. The KAM               noted some
        deficiencies,      recommended actions that were           on their
        wipe samples.           CSHO wiped some of the same areas that
        were done during the KAM survey. The CSHO compared his wipe
        samples to five comparable wipe samples that were done during
        the KAM            Only one comparison          concern. One of
        the KAM             (W2) was a wipe taken from a        Breakers
        ungloved hand. Since it is against OSHA              to do this, a
        wipe                       by the CSHO from            of the PPE
        inner glove             inner sleeve that was            skin, and
        then compared        sample W2. Cadmium was detected by thes
        OSHA            it was during the KAM survey),     improvements
        that were mentioned in the KAM survey             other industry
        practices should      taken to eliminate this        This concept

                                                                          200030
                            ·-	                                       •

                      should be implemented for aU 	 IJU,;JI,;:)!UI          exposure
                      areas.
            8. 	 Heat stress should be evaluated for                  future monitoring
                 performed and documented.


         if you have any questions regarding 

         Mark Davis at (904) 232-2895. Thank 

                 facility, and for your 

                         the inmates. 





         ~~?~
f<:R--   JAM     D. BORDERS
         Area Director
ENCLOSURE 3 

     DEP ARTMENT OF HEALTH AND HUMAN SERVICES                                 Public Health Service


                                                                              National Institute for Occupational
                                                                              Safety and Health
                                                                              Robert A. Taft Laboratories
                                                                              4676 Columbia Parkway
                                                                              Cincinnati OH 45226-1998



                                                                                June 1,2009
                                                                             HETA 2008-0055




InvestIgative ounsel
Oversight and Review Division
Office of the Inspector General
United States Department of Justice, Suite 13100
Washington D.C. 20530

Dear_

On November 27,2007, the National Institute for Occupational Safety and Health (NIOSH)
received your request for technical assistance in your health and safety investigation of the
Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OrG) in
assessing the existing medical surveillance program for inmates and staff exposed to lead and
cadmium during electronics recycling, and to make recommendations for future surveillance. In
addition, you asked us to assess past exposures to lead and cadmium, and to investigate the
potential for take home exposure. You later asked us to perfonn a similar evaluation for the BOP
institution in Mariann~ Florida. We conducted a site visit at the Marianna BOP institution on
February 17-18, 2009. This interim letter summarizes our findings and provides
recommendations to improve the safety and health of the inmates and staff at the Federal
Correctional Institution in Mariann~ Florida. These findings will be included in a [mal report
that will swnmarize the evaluations at all four institutions.

Background

The Federal Correctional Institution (FCl) in Marianna, Florida, consists of a medium security
facility housing male inmates, and an adj acent prison camp housing minimwn security female
offenders. Electronics disassembly and refurbislunent began in 1996 as a UNICOR pilot project
and then as a small operation at the camp. Glass breaking was not performed, and televisions and
computer monitors were shipped offsite for recycling. As the operation grew, it was moved to an
offsite leased building (known as the blue building). In approximately 1999, a demilitarization
(demil) operation was started at the camp. This involved disassembly and refurbishment of
electronics from local military bases. UNICOR staff was required to be certified in demil to work
               2

in that area due to security reasons. The demit operation was closed after a couple
                          disassembly
.L...L' ..JVU'-1LI.-I. .... ..,                                     into
               as            gold building) after recycling operations were discontinued at the blue
After the furniture factory                      in the FCI in late 2002,      recycling           was moved into
                                                                 glass                      (GBO)                at
the camp. Prior to beginning this operation, the safety                         conducted a job hazard analysis,
     AL.<J.~'''''~'''''''' were                     to work         area.
biological monitoring and respirator clearance perfonned. The GBO was where cathode ray
tubes (CRTs) frOlll                                    or             were                  GBO          operation
   May                         the time of our visit, onJy refurbishment and "sanitization'~ of computers took
place at                  camp. Sanitization involves checking equipment for contraband prior to sending it to
                                                                        at the     factory
disassembly of computers and other electronics, and manual chip




We                                   following documents:

          ..        Results of biological                            perfonned between 2005 and 2008 (provided     your
                          and      Health . . . co ...." "... ,:>., Adlninistrator).

          ..                                                                 a               who        in
                    2008 after being medically retired from work (provided by the lawyer for her estate).

          ..         Medical records for two staff members and one inmate (provided by you) .

          ..         Work             ....   '-'L~VJ..A..:J   for the GBO and

          •                 for u ...u .........,~..,                                                            by 

                    factory manager).

          ..         DO] interviews with staff and inmates.

          ..        Results of        H H........   ..,W.                                      to 


                                      and 

                     memorandum describing an OSHA inspection of electronics 


          ..         Final report of the industrial hygiene assessment perfonned by the NIOSH Division of


                                                  Health               of
                                                              UI.IU.UVU<..I.,.                                   health
                     information related to electronics recycling at FCr Marianna.

Prior to the NIOSH site visit on February 17-18, 2009, we interviewed the factory manager,
                Administrator,                       of Govenllllent            (AFGE) Local
          3




          u                 d




!   See   u""tnnl'JnJ1fYt   exposure limits and health   in
          4

                                were 12       B-2-Ms, all          were              16
one of which was elevated. The rest were normal. Some inmates had urine lead and zinc levels
performed       tests were not           or               on     inmates'
                        results were normal).

                        Staff

    FCI clinic performs the same biological monitoring for UNICOR staff as for inmates.
       were               seven staff             each of whom was tested ODce.          were
in April 2005 and four in March 2007. The mean BLL was 1.2 )lgldL               0.3-2.7 )lgldL).
    mean CdB                  was                     0-0.5 I-lg/L).   mean
was 0.43 )lglglCr (range:     1.2 jJ.g/g1Cr). There were      B-2-M results, and all were normaL
      were six ZPP          and one was

In sununary, results of biological monitoring of both                                     and inmates were uruemarkable.




Extensive          records were reviewed     one fonner staff men1ber who was never assigned
to recycling, one current staff member who worked overtime in recycling      past,
                        never worked in               but did work
received extensive records on a staff member who died in 2008
                                .....   A~J'VU.• '"''-'   a
two living staff          also document a number of nonoccupational health problems. Both
medical records document that                     their problems to           from electronics
                                                                      U~"""H   do not                    ..U.,i.;)


medical problems to recycling exposures. Both had skin problems: one person~s was documented
      to work              Both sent                 we                   sent to an
dermatologist for review. One had      biopsies done. Neither had skin conditions related to
work in recycling or proximity to            or ionizing radiation.   staff member who
    a                  that was           to any work                   was
documented by the health care providers in the medical or death records relating any health
          to
  '"'UJl'-'U....... 
                            all                       no
health problems to recycling exposures or ionizing


                                                              .-.,."....... ,C'"   with

        our                                                      to                  were
Staff reported that items arrived from military bases and that the uradiation alarms" had gone off
                               on                                   some       were        with
                              staff members reported that         vvere broken on
enclosed semi-trailers in the past, prior to   installation of the GBO. Others denied these
            to us.
                       5

Fourteen                       asked to speak with us after our public meeting with concerned                                staff on
February 18. None                                                                     Some            til at      did pat-downs on
                         who                                 or
Medical problems reported were varied, and included shingles, hypertension, sleep apnea,
                                              v ......... u.;)J.u.u,u..1. sores on                                                  an 

episode of severe flu-like symptoms, non-melanoma skin cancer, pleurisy, cellulitis (skin
                           bronchiolitis                                                                     and insomnia. One
. . . "'.. ."'......... had elevated liver enzymes that resolved without treatment, one had a mildly elevated
blood selenium                         and one had an                            urinary arsenic that was nonnal upon
                                                                             level was not                     of
effects are related to potential exposures from electronics recycling.




                           concern
                                U L U ......      "J..., p'vYn"""C,,,""ri  a           was
accidentally broken. It was stated that this occurred about twice a week. Some inmates reported
                        were not followed
inmate reported always following posted proceduJes. During the NIOSH           visit, no   ~'                          UU1H....    ... O">


reported breaking glass on purpose outside the booth, either cun-ently or in the past.

Twelve inmates at the camp asked to speak with us after our public meeting with concerned
                    U.~''-' on
      ........... .1 ......... JU-H...       18.
                                         I.-U.J.A....   ...   at some       with 

beginning as early as 2000. None had perfonned glass breaking. Several wished to know
should                                             Medical
          included sun u.f.J...ll..H.J.f;'-'
 .u.'''''....
U .             fungal pneumonia)
                    L .• VU.O''>,


                                                                                       are
related to potential exposures from electronics recycling.




Nine people came to the hotel to be interviewed by us. Two were former UNICOR staff assigned
to                 was a                                           a
were fanner staff members who did not work in recycling. Two were fanner inmates, neither of
whom was             to             Reported                included swollen joints, rash at
                        anxiety,          hypertension,
removed, poison ivy, sinus infections, recurrent urinary tract infection, hysterectomy, twitching
                                matter                     on           resonance .u.U.'..... hAA.h'
lesions, stabbing chest pain, organic brain syndrome secondary to a motor vehicle accident,
asthma.        individuals           family            with health problems, including                              ,",,""j..JuV\'J.U



     secondary acute renal failure,           CystItlS,                    cancer. None of
reported health         can    related to            from recycling of electronics.
       6




Both the Radiation Safety Officer and the DRMO representative had been                                   at
    time that electronics recycling began at                                       mid-1990s. They reported that Eglin
           .......... ~ . .". ,.......... , for disposal or        from                     the
States. When items are received in DRMO, they are looked up by stock number. If there is any
                                                                                       are
Safety Officer is notified. The Radiation Safety Officer chooses the appropriate meter for the
      of radiation and                              to DRMO to                    If they are found to radioactive,
they are                                                       proper disposal or sent to
disposal. No radioactive items are supposed to be disposed of in any other manner.




                                  an                                           by
and OSHA documents describing an inspection of the GBO on November 7-8,2006. The KAM
                                                                             a                  on
19, 2006. This                       to be the only site visit conducted by a UNICOR consultant at the
No industrial hygiene reports or sampling data were provided for any electronics recycling
,.,..,..,.,,,..,.,11".,,.,,<,, at         for the               to

                                                         was
                                                   '-'LL.L'l~I..HU.LF.              two                               two
glass breaker             Air samples were analyzed for barium, beryllium, cadmium, and lead
according to Environmental                             method 601 DB. All                    were repolied to be
below the analytical        of detection         this method, which L~J.""".A""'<.J'L""".:J
weighted average exposures were below the action levels (ALs) and pennissible exposure limits
(PELs)               by                                       (3D-minutes, maximum) were not
collected to detelmine if the            ceiling limit     beryllium was exceeded. (Based on
sampling          at other Fels, we             it is unlikely that a hazardous concentration of
                              nrp'C'PT,t at                                           glass              wore rlf'\'luprprI
air-purifying respirators (PAPRs), "disposable sujts," hoods witb face shie1ds, steel-toe boots,
                                                   no                                     how . . . ""..             C"nY\


equipment (PPE) is donned or doffed, nor did the report provide a description of work activities
           sampling

                                       surface wipe samples and four hand wipe samples that were
                                      we                         our       most . . .                   VJ.J.;JU.lLLLLJ.L


other FCls, this report did not clearly describe what the sample results represented. It appears
     two                               were . . . '"'~,.........   u


assistant breaker, and wo samples were obtained from each worker's                       AJ.<.JLJ..! ....... , J .


appear to indicate that lead was not                 on workers' skin, while cadmium was detected on
the hand of one        breaker.                       lead were         on
equipment, including       pallet      booth table, booth floor, and workers' gloves. Cadmium
Page 7

    lead were detected outside the booth on the "outdoor floor or walkway to building" (noted in
the hand-written chain-of-custody sheet).

The KAM consultant concluded that this is a "clean, efficient, and
considering                                 "that                                       were
not              however, wipe samples indicate a need for better control of lead on hands, as
well as housekeeping improvements to

housekeeping.

The OSHA inspection report, which was provided to the warden, and the internal memorandum
from OSHA            4 Administrator Cindy                                                  In
                    monitoring for        beryllium, cadmium,      lead was conducted for two
g]ass breakers, two         and one        With the exception of one cadmium sample,
       of                      were below the Iimit of              results of the
sample were well-b~low the OSI-fA AL for cadmium. Lead and cadmium were detected in wipe
                                                     area, too.

In addition to the sample results,        OSHA inspection report                        that:

    II 	   Glass breakers wore PPE as                     KAM consultant

    ..                                       worn by 

           dust masks. 


    II     "Full compliance with        OSHA respiratory standard was                           OSHA violatio"n
                 not                    at this  "

                 breakers used             sprayers to moisten glass and surfaces to control dust.

    II     High efficiency powered air (HEPA)-filtered vacuum cleaners were used to clean the
                              of                             Me
           colorimetric tests to ascertain the effectiveness   c1eaning were not done. (No violation
                    substantiated at

    ..                      was                                                    to "".. E".....  u ..........


           locations to allow everyone the chance to experience each job duty." (No violation \-vas
           noted.)

    II 	                         were

    ..                    wore                      the 

           vacuums at the end of the work shift or at the end of the day. 


    .. 	 Clean-up/sanitation              were           for GBO ,.. ,A .. lro. .....      rest room with
         and water.
    8




•       cleanlers to remove                              before


          to

          even   LL .......' ........... 
        were




•                        covers




•
               1S                     in Vacuum

•
         9

         cadmium and other           metals were 	                               and bulk dust srunples.

Environmental heat monitoring and           of work rate indicated that some workers in this
        were          to
Industrial Hygienists          threshold limit value or at
the ACGIH AL) during this asseSSlnent.

Recommendations provided by NlOSHJDART include:

    • 	 Implementing a site-specific health and             program at Marianna that includes a heat
        stress n.,..-. rrT',",




    • 	 Evaluating the respiratory protection program to ensure that it cOlnplies with 

        re gu lati ons. 


    •                on           to                                                           as
             housekeeping to reduce surface contamination and hand washing to prevent hand-to­


                                                     and            work                                 the
             recycling facility.

    • 	 Equipping change rooms                              facilities for work clothing and for street
        clothes to

                                                           to health, safety and the

    ..       Providing a comprehensive program within the BOP to assure both staff and               a
                 and

                            contamination at the blue and gold buildings where electronics
          was                        1          August
ductwork in these buildings detected average lead concentrations
                                           o                                         ill
was reported to be 220 J.1g/ft2 in the blue building, and 92 ~glft? in the gold building. Four
                             floor                                  and cadmium "'1"".,.,....,..... "·01'.
were one to two orders of magnitude less at floor level        on          and ductwork. The specific
sources and/or operations that generated this contamination have not been detelTI1ined.




Limited exposure monitoring data suggests that exposures to metals in the FeI GBO may have
                                                                         has not
In addition, the results of medical surveillance conducted on inmates    staff were
                           we         that       GBO           UNICOR should continue to
                      10

perfonn       limited biological monitoring that is
                                             to   reassurance to                          is no    to
perform any medical surveillance if the GBO remains closed. Exposure to metals from
                                                   are              do not    a risk to the health
staff or innlates. There is no evidence to support allegations of exposure to ionizing radiation.
       were conflicting                     about     or not monitors were         broken in the back
                   '.. . r.~.":l"""",.. none         effects         are   to            to
cadmiwn~ or other exposures that would occur from the breaking ofmortitor glass.




The following recommendations are                           to improve the   health of both
         L'~-.> involved with
               UU!,l<....                           recycling at the

1. Although                             work               the current GBO       to
effective control of worker exposure to cadmium         lead based upon review of industrial
hygiene sampling, comply with the recommendations from NIOSHIDART for improvements to
                 if                             to                                           if
similar to breal<ers, additional engineering controls will be necessary.

2. UNICOR         to maintain an ongoing program of environmental monitoring to confirm that
            and work           controls are                   Environmental monitoring
             data         to            which                                and
standards should be applied for the GBO.

3. \Vhile air sampling in the GBO suggests that the level of protection afforded by PAPRs may
not             we                    use                                  this ,. "."~"~""I"o. 

fitting P APRs are comfortable and provide cooling in the potentially hot work environment. 

addition,                          Additional          air sampling should be conducted to help 

ensure that                               below                                                   a



4. Ensure that inmates follow posted procedures for handling accidental breakages of

5..      full             with all
Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027J, the Hazard
Communication                      1910.1200], the Respiratory Protection Standard [29
     1910.134]. This includes
compliance plans, and medical surveillance.

6. Carefully evaluate the qualifications and expeliise of consultants who are hired to assess
\..I..." ....... or environmental health and
                   I-, ........,\..IJ1......... 
          One            benchmark for
individuals who provide industrial hygiene services is         designation of
   ""J... . ~ (Cn-I). Certification by
                       J.J.J. ...        American Board       Industrial Hygiene (ABIH) ensures that
prospective consultants have met                    for yU,.l\."U,~LV.LL,
11­
2   Code   Her-rzila'110J'1S.   See CFR in references.
                   13

for use by industrial hygienists and others       in this discipline "to assist in the control of
health           [ACOrn                    have                  for some                      no
other legal or authoritative       exist" [AIHA 2008].

                       have been established by various agencies and organizations and include
                                         2006,                                 Institut
Arbeitsschutz          Institute  Occupational Safety                              a ....,..u ....,u'u..:"....
  international OELs from European Union member states, Canada (Quebec), Japan,

database contains international limits for over 1250 hazardous substances and is updated
annually.




                     a                                                              cause or are
to cause death or serious physical harm [Occupational Safety and Health Act              1970 (Public
      9        sec, 5(a)(1))].                                                        to       use
             when               assessment and lisk management decisions to best protect the
                             NIOSH                         also            use of     traditional
           of controls           to eliminate or                identified workplace
includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,
(2)
(3) administrative controls (e.g., limiting time
                                       (4) "M""1"cr.n-:'o
protection~ gloves, eye protection, hearing protection). Control banding, a qualitative
assessment       risk               tool, is a                     approach to
that focuses resources on                         by              how a risk       to
[http://www.cdc.gov/nioshitopics/ctrlbanding/].This approach can be applied in situations where
            not                    or can                 to              OELs,




Occupational exposure to inorganic lead occurs via inhalation of lead-containing       and fume
and ingestion of lead           from contact with lead-contaminated           In cases
         "~ AA~.""AA to
.... LLL ..............      (for
                          ......   ......                is not                              or 

eating may represent another route of exposure among workers who handle lead and then
        it to                                                                        with
exposure to lead and lead compounds include smelting and refining, scrap metal recovery,
automobile radiator repair, construction     demolition (including          blasting), and
      operations           2007]. Occupational                  occur                 who
andJor remove lead-based paint or among             who burn or torch-cut metal structures .

                                                                           ....,. ,. . . " ..."" to    over a             of
                                            abdominal pain, fatigue, constipation, and                some cases alteration of
        nervous                                      [Mol                           . Symptoms of
poisoning include headache, joint and muscle aches, weakness~ fatigue, irritability, depression,
constipation, anorexia, and                                             [Moline
            usually do not develop until the blood lead level (BLL) reaches at least 30-40
micrograms per deciliter of whole blood (~g/dL) [Moline and Landrigan 2005]. Psychiatric
                            as                                                    to           to
current lead exposure, while decrements in cognitive function are related to both recent and
cmTIulative                    [Schwartz and                 2007] .
              ....."" .....,',,::u:...... white matter lesion of the       noted on          resonance imaging
(MRI) and tibia lead levels in former organolead workers [Stewart et al. 2006].
                                                 matter          are sex,
history, alcohol consumption, and ApoE genotype [Stewart et al. 2006]. Overexposure to lead
            in damage to                        kidneys,                 blood
         sex                      in both sexes. Studies have shovvn subclinical effects on heme synthesis, renal
function, and cognition at BLLs <10 ~g1dL [ATSDR 2007]. Inorganic                                 IS
             to cause cancer

In most cases, an individual's BLL is a                       recent            to            a
(the time          it takes for the quantity in the body to be reduced by half its initial value) of 1­
2 months [Lauwerys and Hoet 2001; Moline and                    2005; NCEH 2005]. The                of
                 IS            the        with a                    to decades. Bone lead can
measured using I(-shell x-ray fluorescence instru1l1ents, but
     are not widely                                                                                as
an indicator of chronic lead intoxication, however, other factors, such as iron deficiency, can
cause an elevated ZPP level, so the BLL.. is a more            test for            occupational lead


                                                               cubic meter          (~g/mJ) as an 8-hour
                  is                                            is intended to maintain worker
below 40 ~g/dL; medical       removal is required when an employee has a BLL of 60 ~g/dL, or the
               last 3 tests   at 50         or                1910.1                 1                       IS
intended to prevent overt     Sympt01TIS of lead poisoning, but is not sufficient to protect workers
from more subtle              health                                  dysfunction,
                                                                                                            et
                                                                                                      AAAA ............. 




2009]. Adverse effects on the adult reproductive, cardiovascular, and hematologic                         and
on                                                        can occur at        as      as 10 Ilg/dL
[SusseU 1998].         BLLs below 40 ~g/dL, many of the health effects would not necessarily be
         by routine                                                                             of
toxicity,                   of this, voluntary standards and public health goals have established
lower exposure limits to protect workers and their children. The ACGIH                         in air is 50
       as an                                        to              to ::;  /lg/dL            2009],
national health goal is to eliminate all occupational exposures that result in BLLs >25 /lg/dL
          2000]. A          of OV ...... .o1--tC-



                  4""~ to prevent both acute and chronic effects of lead poisoning [Kosnett et
           UA .....,.A ...



2007]. They recommended that an employee be removed from                          a single BLL '-'L\o. ...,'-''-'~...        oJ


30          or if two measurements             over 4                                     should
considered if control measures over an extended period do not decrease BLLs to < 10 IJ.g/dL. The
Page

           recommended quarterly           testing the BLL is between 10-19 ~g/dL,
                    if the BLL is < 10 ~g/dL. Pregnant women should avoid BLLs > 5 Ilg/dl. The
                                ",-",..,.J...UF,



                         on                    to
geometric mean blood lead among non-institutionalized, civilian males in 2001-2002 was 1.78
       [N CEl-I                                                                 from
gasoline in the past led to significant lead exposure among the general population. This
contamination                     1950      the      19705. The         blood lead in Americans
  1                                                                         to     1


OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
                      at or                       which is 30 )lg/m3 as an 8-hour TWA
more than 30 days per year [29 CFR 1910.1025]. Blood lead         ZPP levels IUllst be    at
           6 months, and more                             whose blood leads            n'V","ot:l>rI


levels.  addition, a medical examination mllst be done        to             to the are~
should include detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and
                                            smear, blood urea          (BlTN),           and a
           Additional medical exams and biological monitoring depend upon the
                   blood               a certain


Cadmium

              a            IS    n1any            uses,  as
stabilizers, metal coatings, and television phosphors [ACGIH 2007]. Workers may inhale
                                              or                  alloys or
containing paints [ACGIH 2007]. Exposure to cadmium fume may occur when materials
                             u,~'-'v. to high      J.J. ....                and torching
operations;                            solder    welding   are  sources of
addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of
                                                                                  2007].
   cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of
                                              taste andior           Short-tenn                  of cadmium
                                                 sweating, chills,           of                              et
                                  .L.L~"'...,~..:lI of ingestion may include nausea, vomiting, diarrhea, and
                                                               .....


                           et              1].
of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an
          risk cancer of
.... 1" .. 'O'3CO''''i"1                              possibly of             [ATSDR 1

The OSHA PEL for cadmium 1s 5 ~g/m3 as an 8-hour TWA [29 CFR 1910.1027]. The ACOIH
    a                                       10             TWA),                         blood      to
controUed at or below 5 micrograms per liter ().1g/L)            urine level to be below 5 micrograms
           ""~~,LLl...LJ.J.'-' (J.lg/g/Cr),             of cadmium as a suspected human carcinogen
[ACOrn 2009J. NJOSH                            that cadmium    treated as a
carcinogen and that exposures be reduced to the lowest feasible concentration [NIOSH 1984].
man,
ENCLOSURE 4 

                                                                   September 21, 2007
Memorandum for

                      Investigative Counsel
                      Office of the Inspector General
                      United States Department of Justice

From:                 Captain Paul Pryor
                      Federal Occupational Health Service

Re:                   Worker Heat Stress Measurements - FCI Marianna
The preliminary heat stress information collected by the health and safety technical team during
the survey at the BOP's Marianna, Florida facility on August 8 and 9,2007, are presented for
your review. Included with this information are the heat stress data obtained in the various
locations tested in both the male medium security facility (MSF) and the associated female camp
(collectively the Federal Correctional Institution (FCI» (Note: heat stress information was
calculated as Wet Bulb Globe Temperature - WBGT); the reference standards/criteria used to
determine ifheat stress overexposures occurred during the two day sampling period; preliminary
conclusions regarding these overexposures measured; and recommendations to reduce and/or
eliminate the overexposures found during the investigation period.

The preliminary heat measurement data from FCI Marianna are presented below. Measurements
of indoor WBGT were calculated for one hour increments and are presented for each ofthe two
days ofthe testing at that facility.

                  WBGT MEASUREMENTS - FeI MARIANNA

                             Heat Stress Data - August 8, 2007
                                                                Hourly Time Weighted
           Location                       Times
                                                             Avera,::e (TWA) WBGT in (OF)
                                   8:52 a.m. to 9:52 a.m.                 83.8
Camp Glass Breaking Room
                                  9:53 a.m. to 10:45 a.m.                 85.5
                                  9:41 a.m. to 10:41 a.m.                 82.6
                                  10:42 a.m. to 11:42 a.m.                83.1
      Camp Warehouse              11:43 a.m. to 12:43 p.m.                83.3
                                  12:44 p.m. to 1:44 p.m.                 83.3
                                   1:45 p.m. to 2:45 p.m.                 82.8
                                  10:24 a.m. to 11:24 a.m.                82.9
                                  11:25 a.m. to 12:25 p.m.                84.0
        MSF Refurbish             12:26 p.m. to 1:26 p.m.                 84.4
                                   1:27 p.m. to 2:27 p.m.                 84.4
                                   2:28 p.m. to 3:28 p.m.                 83.8
                                  10:31 a.m. to 11:31 a.m.                83.1
                                  11:32 a.m. to 12:32 p.m.                84.2
      MSF Disassembly             12:33 p.m. to 1:33 p.m.                 84.4
                                   1:34 p.m. to 2:34 p.m.                 84.9
                                   2:35 p.m. to 3:35 p.m.                 84.6
                                                1

                             Heat Stress Data - AU2ust 9, 2007
           Location                       Times              Hourly TWA WBGTin (OF)
                                   7:59 a.m. to 8:59 a.m.
Camp Glass Breaking Room                                                    85.5
                                   9:00 a.m. to 10:00 a.m.                  86.8
Camp Glass Breaking Room
                                   12:35 p.m. to 1:35 p.m.                  88.2
     Filter Chan2e
                                   8:44 a.m. to 9:44 a.m.                   83.5
                                  9:45 a.m. to 10:45 a.m.                   84.8
      Camp Warehouse              10:46 a.m. to 11:46 a.m.                  84.9
                                  11:47 a.m. to 12:47 p.m.                  84.7
                                  12:48 p.m. to 1:48 p.m.                   84.5
                                  9:35 a.m. to 10:35 a.m.                   84.6
                                  10:36 a.m. to 11:36 a.m.                  85.2
                                  11:37 a.m. to 12:37 p.m.                  85.5
       MSF Refurbish
                                  12:38 p.m. to 1:38 p.m.                   85.5
                                   1:39 p.m. to 2:39 p.m.                   86.1
                                   2:40 p.m. to 3:40 p.m.                   86.5
                                  9:04 a.m. to 10:04 a.m.                   84.7
                                  10:05 a.m. to 11:05 a.m.                  85.3
                                  11:06 a.m. to 12:06 p.m.                  85.9
      MSF Disassembly
                                  12:07 p.m. to 1:07 p.m.                   86.0
                                   1:08 p.m. to 2:08 p.m.                   86.4
                                   2:09 p.m. to 3:09 p.m.                   86.8


Heat Stress Standards and Criteria
Section 19 of the Occupational Safety and Health Act of 1970 (the Act) identifies federal agency
safety program and responsibilities and, through its implementing regulations, requires agency
heads to furnish federal employees places and conditions of employment "that are free from
recognized hazards that are causing or are likely to cause death or serious physical harm." 29
CFR 1960.8. In addition, Executive Order 12196 expands on the responsibilities originating
from the Act and requires agency heads to "[aJssure prompt abatement of unsafe or unhealthy
working conditions." In circumstances where such conditions cannot be abated, the agency must
develop a plan that identifies a timetable for abatement and a summary of interim steps to protect
employees. Id. Employees exposed to the conditions also must be informed ofthe provisions of
the plan.

The criteria OSHA uses to deterruine overexposures to heat stress were developed by the
National Institutes for Occupational Safety and Health (NIOSH) and the American Conference
ofIndustrial Hygienists - Threshold Limit Values (ACGIH - TLV's). Factors normally taken
into consideration by NIOSH and the ACGIH in evaluating heat exposure include: the metabolic
rate (judged as the work rate) of the worker; the clothing and personal protective equipment
worn, and the cycle of work and recovery.




                                                2

 Note: For the purposes ofthis presentation, the assumption is made that all workers have been
 acclimatized under heat-stress conditions similar to those anticipated for a minimum of 2 weeks and
 that there is adequate water and salt intake to those federal employees evaluated.

Work Rates
Having observed work at all Marianna locations evaluated, work rates in the MSF and Satellite
Camp were determined as shown below:

Location                  Task                          Work rate
MSF                    All tasks                        light / moderate

Satellite Camp         Unloading trucks                 moderate
                       Warehouse work                   light
                       GBO* helpers                     light / moderate
                       GBO feeders                      moderate / heavy
                       GBO breakers                     moderate

*Glass Breaking Operation
As described by the ACGIH i - TLV's, Light work is illustrated as: sitting or standing to control
machines, performing light hand or arm work. The Moderate work category, considered to be
the predominant rate observed at Marianna, is defined by the ACGIH - TLV's as: Sustained
moderate hand and arm work, moderate arm and leg work, moderate arm and trunk work, or
light pushing andpulling. Normal walking. The example of Heavy work given in the ACGIH -
TLV's is described as: "pick and shovel work".

 Note: Because all workers were not working at the same rate, even though they were assigned the
 same jobs, some tasks were given overlapping classifications.

Clothing and PPE
Because the evaporation of sweat from the skin is the predominant heat removal mechanism for
workers, any clothing or Personal Protective Equipment (PPE) that impedes that evaporation
must to be considered in an evaluation of heat stress. Accepted clothing for heat stress
evaluation using the TLV WBGT criteria is traditional long sleeve work shirt and pants. This is
essentially the level of clothing worn by all workers at the Marianna facility. Therefore an
adjustment for clothing beyond such a summer work uuiform (Note: See TLV's for Clothing
Adjustment Factor - CAFs), should be made for workers in the GBO, due primarily to their use
of Tyvek coveralls and possibly Powered Air Purifying Respirators (PAPRs). Tentatively, this
adjustment is recommended to be a reduction ofthe TLV by 2 of for workers wearing Tyvek
coveralls, and an additional 1 of for workers also wearing PAPRs, gloves, and other skin
          ii
covenng.




                                                   3

ACGIH - Threshold Limit Values
The above work rate and clothing factors can be used, in combination with the hourly work / rest
regimen of exposed workers, to find the permissible maximum WBGT heat exposure limit
(expressed in OF) from the table ofTLVs:

                                          Work rate
                           Light         Moderate       Heavy
Continuous work              86 of        80 of          77 of
75% work -25% rest           87 of        82 of          78 of
50% work -50% rest           89 of        85 of          82 of
25% work -75% rest           90 of        88 of          86 of

Conclusions
Medium Security Facility - All workers observed in the MSF working at a moderate rate were
exposed to WBGT levels above the recommended standard unless the work - rest regimen was
greater than 75% work (i.e., 45 minutes) and 25% rest (i.e., 15 minutes) since the minimum
WBGT measured was 82.9 of. Note: At times during the survey period that regimen needed to
be at least 25% work (i.e., 15 minutes) and 75% rest (or 45 minutes) since WBGT reached as
high as 86.8 of.

Camp Warehouse Facility - Warehouse workers doing light work were not exposed to WBGT
levels above the recommended levels, even if they were working continuously, since the
maximum measurement in that location was 85 of. However, workers unloading trucks and who
where working at a moderate rate would require up to a 50% - 50% work - rest regimen (i.e., 30
minutes work / 30 minutes rest) to stay within recommended levels.

Glass Breaking Operation - Ifthe 2 or 3 of CAF is imposed for the workers in the glass
breaking operation, then the breakers and/or feeders are above the recommended exposure levels
in most instances, and therefore, there are currently no work - rest regimens that can satisfy the
heat stress limits. Also, even the helpers who wear PPE would need to be in a 50 - 50 work­
rest regimen (i.e., 30 minutes work / 30 minutes rest) or better regimen most of the time to stay
within recommended limits.


Recommendations
Due to the elevated heat stress levels measured in the GBO, the technical team recommends that
the BOP institute measures to immediately ensure compliance with the ACGIH heat stress
criteria. IfUNICOR is not presently able to ensure such compliance, it should suspend glass
breaking operations at Marianna until a heat stress program can be developed and implemented
to offset the potential health problems and/or consequences that may result from glass breaking
activities and the elevated temperatures found during this investigation. If the BOP has an
equally effective alternative to achieving compliance other than the development of a heat stress
plan and the interim suspension of GBO, it should promptly notify the OIG and the technical
team.

The following additional general recommendations are based on OSHA, NIOSH, and the
ACGIH recognized methods and procedures which can be used to reduce and/or eliminate

                                                4

potential heat stress hazards at FCI Marianna workplaces. After consultation with OSHA, we
recommend that these include the following:

1. The BOP should develop a site specific heat stress program that accounts for the heat stress
data/information provided in this document, and at a minimum, should incorporate the following:

     a. Engineering controls are the preferred method to reduce and!or eliminate occupational
stressors in the workplace; therefore, cooling methods, such as, air conditioning systems, should
be investigated to reduce the heat load in this work place;

    b. A medical surveillance component should be included in the program with pre­
placement and periodic screening to identify health conditions which may be aggravated by
elevated temperatures;

    c. In lieu of implementing engineering controls, the BOP needs to reassess its current use of
PPE (i.e., the use of Tyvek, PAPR's, gloves, etc.) and consider adding personal cooling devices,
such as, cooling vest or packs for workers in the GBO;

     d. An initial and periodic training program informing employees about the effects of heat
stress, and how to recognize heat-related illness symptoms and prevent heat-induced illnesses;

    e. An acclimation program for new employees or employees returning to work from
absences ofthree or more days;

     f. The development of specific procedures to be followed for heat-related emergency
situations;

    g. Provisions that first aid be administered immediately to employees displaying symptoms
of heat-related illness;

    h. Annual and periodic heat stress monitoring should be performed to reflect seasonal
changes and assist in updating the site specific heat stress program.

2. The BOP should establish provisions for a work/rest regimen so that exposure time to high
temperatures and! or the work rate is decreased;

3.    The BOP should permit workers access to water at liberty; and

4. It is strongly recommended that the current 2007 version of the ACGIH-TLV's be
referenced to assist in adding additional specific information to the Marianna Site Specific Heat
Stress program. Therefore, a thorough understanding ofthe various clothing ensembles worn
throughout the year at Marianna (especially during the warmer seasons) and the role that PPE
(i.e., the use ofTyvek suites, hoods, gloves, etc.) may play on the effects of heat stress.
Additional emphasis should be placed on the TLV's Guidelines for Limiting Heat Strain and the
Guidelines for Heat Stress Management. We also recommend that additional materials on heat
stress be investigated, such as OSHA's Heat Stress Card (OSHA Publication 3154) which can
be found on OSHA's web page http://www.osha.gov/SLTClheatstress/index.htrnl and
http://www.osha.gov/SLTC/heatstress/index.htrnl


i   ACGIH Documentation ofTLVs.

                                                5

 Bernard, T.E., Luecke, C.L., Schwartz, S.W., et aI, "WBGT Clothing Adjustments for Four
ii
Clothing Ensembles Under Three Relative Humidity Levels," J Occup Environ Hyg, 5 (251)
2005.




                                             6

ENCLOSURE 5 

(.d..
 ........
     "

            DEPARTMENTOFHEALTH&HUMANSERVICES             Program Support Center
                                                         U.S. Public Health Service

~~:~~                                                    Federal Occupational Health Service




    Review of 'Heat Stress Procedures' and 'Operational 

        Requirements' Documents Associated with 

     Electronics Recycling Operations at FeI Marianna 


                                    May 15,2008




    Submitted to:

                      Oversight and Review Division
                      Office of the Inspector General
                      U.S. Department of Justice


    Submitted by: 	   Captain Jay TeITa, CIH
                      FOH Safety and Health Investigation Team
                      Program Support Center
                      U.S. Public Health Service
                      Federal Occupational Health Service




                                           1

I. 	 BACKGROUND

An investigation team comprised of safety and health professionals from the Federal
Occupational Health Service (FOH) and the National Institute for Occupational Safety and
Health (NIOSH) conducted heat stress characterizations associated with UNICOR's electronics
recycling operations at the Federal Correctional Institution (FCI) Marianna. This evaluation was
conducted on-site at FCI Marianna on August 8 and 9,2007, following an assessment earlier in
the year by the Occupational Safety and Health Administration (OSHA) that noted concerns with
heat stress. Results from this evaluation were presented in a report entitled "Worker Heat Stress
Measurements - FCI Marianna," from the Federal Occupational Health Service to the Office of
the Inspector General at the United States Department ofJustice (OIG) on September 21, 2007.

The heat stress characterizations indicated that inmates (male and female) involved with
UNICOR's glass breaking operations (both routine and non-routine activities) are at risk from
heat stress during the warmer months (e.g., June through September). This risk was elevated
during performance of strenuous activities while using personal protective equipment (e.g.,
coveralls and respirators) during periods of hot and humid weather conditions. Results from the
September 21, 2007 report are summarized below:

     • 	 Wet Bulb Globe Temperatures (WBGTs) were measured at one hour increments at
         various FCI Marianna locations on August 8 and 9, 2007. WBGT values ranged from
         82.6° F to 88.2° F in the various locations. WBGT values generally increased from
         early morning to mid-afternoon. These WBGT values indicate the presence of a heat
         stress hazard.

     • 	 Work rates (workloads) were also estimated by observing various tasks. All tasks in the
         medium security facility (MSF) were in the light to moderate range. Most tasks in the
         Satellite Camp including glass breaking operations (GBO) were in the light to moderate
         range. The exception was the GBO feeders task and the filter change maintenance task
         which were moderate to heavy.

     • 	 For the GBO, WBGT values combined with work rates and the use of personal
         protective equipment (PPE) and powered air purifying respirators (PAPRs) place
         workers at risk from heat stress. MSF workers were also at risk, although their level of
         PPE does not add to the risk as it does for the GBO. Only the warehouse workers at the
         Camp Warehouse Facility were not at risk.

As a result of these findings, the FOH Safety and Health Investigation Team provided
recommendations to FCI Marianna for the control ofthe heat stress hazard, including ones
calling for the enhancement ofUNICOR policies and procedures. In response to the
recommendations, the Federal Bureau of Prisons (BOP) provided two programmatic documents
to the OIG: (1) Glass Recycling Operational Requirements, Document # IP-6400-420, 8/6/07,




                                                2

Revision C and (2) Heat Stress Procedures, UNICOR-Federal Correctional Institution Marianna
(undated). 1

This report presents the results of the Investigation Team's review of the revised FCI Marianna
programmatic documents. The purpose of this review is to provide general feedback on the
overall suitability ofthe documents as a means to comply with pertinent safety and health
requirements and to furnish meaningful protection from heat stress. The comments and
recommendations provided herein specifically focus on the glass breaking operations at FCI
Marianna, although they would generally apply to any activity with heat stress risk.

This report has been reviewed by NIOSH's Engineering and Physical Hazards Branch of the
Division of Applied Research and Technology and OSHA's Office of Federal Agency Programs.

II. COMMENTS ON HEAT STRESS DOCUMENTS
The FOH Safety and Health Investigation Team performed a general review ofthe above­
referenced documents in light of current government regulations and 'good practice' standards
regarding heat stress. The review was based on the Team's familiarity with the FCI Marianna
electronics recycling operations (i.e., glass breaking) as observed in August 2007.

A. Glass Recycling Operational Requirements (Doc. # IP-6400-420, 8/6/07, Revision C)

FOH interprets the Operational Requirements document as UNICOR's general policy statement
that defines and controls UNICOR safety and health requirements associated with glass breaking
operations at FCI Marianna. As such, we believe that specific reference should be made to
criteria established by OSHA as well as by the American Conference of Governmental Industrial
Hygienists (ACGIH) as it relates to heat stress in the workplace. These OSHA and ACGIH
criteria essentially define the current regulatory and 'good practice ' requirements with which
UNICOR, as an employer, is advised to comply in order to protect its workers.

According to OSHA, a number of feasible and acceptable methods can be used to reduce heat
stress hazards in workplaces and comply with the OSHA requirements. In particular, OSHA
identifies the following nine elements as necessary for a successful heat stress program.

                   OSHA-Recommended Elements of a Heat Stress Program


    1. 	 Permit workers to drink water at liberty (subject, of course, to restrictions resulting from
         work in hazardous materials-regulated areas);
    2. 	 Establish provisions for a work/rest regimen so that exposure time to high temperatures
         and/or the work rate is decreased;



         1 See Attachments to this report for the current Revision Record from the Glass Recycling Operational
Requirements document which was reviewed (as well as an excerpted paragraph) as well as a copy of the Heat
Stress Procedures. The Attachments also contain a listing of OSHA reference materials regarding heat stress along
with several images of the glass breaking operations and facilities at FCI Marianna (taken August 2007).


                                                        3

   3. 	 Institute a training program informing employees about the effects of heat stress, and how
        to recognize heat-related illness symptoms and prevent heat-induced illnesses;
   4. 	 Institute a screening program to identify health conditions aggravated by elevated 

        environmental temperatures; 

   5. 	 Institute an acclimation program for new employees or employees returning to work from
        absences ofthree or more days;
   6. 	 Specify procedures to be followed for heat-related emergency situations;
   7. 	 Implement provisions such that first aid can be effectively administered immediately to
        employees displaying symptoms of heat-related illness;
   8. 	 Develop specific guidelines for investigating whether heat stress conditions are likely
        (e.g., sampling methods, etc.); and
   9. 	 Establish effective site-specific heat stress mitigation techniques using engineering,
        administrative and/or personal protection equipment controls.

Ofthese elements, we determined that all are missing or not adequately addressed in the Glass
Recycling Operational Requirements. At a minimum, the Glass Recycling Operational
Requirements document should clearly reflect UNICOR' s recognition that these nine elements
are salient requirements and must be addressed in detail in lower tier documents (e.g., FCI
Marianna Heat Stress Procedures). This document primarily addresses lead and cadmium
exposures with little reference to other occupational exposures such as heat stress.

In addition to incorporating relevant OSHA requirements and information as discussed above,
the current ACGIH - Threshold Limit Values (TLVs) regarding heat stress should also be
adopted as UNICOR requirements in the FCI Mariana operational requirements and heat stress
procedures. These TLV s provide specific heat stress criteria that should be used to form
decisions about the conditions under which inmates and staff should and should not be required
to work as regards heat stress.

Lastly, we recommend that the Glass Recycling Operational Requirements explicitly reference
other UNICOR FPI controlling documents that relate to heat stress. As indicated on its
coversheet, the Glass Recycling Operational Requirements is apparently a component of an
integrated management system. Yet, no reference was made ofthe UNICOR, FCI Mariana Heat
Stress Procedures or how training requirements, medical/fitness-for-duty monitoring, change
control during unusual or upset conditions, and other such considerations specifically regarding
heat stress are integrated into the overall workflow and operations.

B. Heat Stress Procedures

The UNICORHeat Stress Procedures are very general and lack the technical and operational
specificity necessary to ensure effective management and mitigation ofthe heat stress hazard.
These procedures do not contain the necessary detail or process to implement heat stress
controls.

Examples ofthe procedure's deficiencies are summarized below:

   • 	 Procedure Statement I: "The FPC Glass Breaking Booth's temperature will be 

       maintained below a Wet Bulb Globe Temperature (WBGT) of 77°F." 



                                               4

   Comment: The procedure provides no information on how this is to be achieved. This
   statement might infer that either cooling will be provided or work will not be performed
   if 77°F WBGT is exceeded. If cooling is to be provided, the approach and engineering
   basis should be discussed. In addition, stoppage of work is not a desirable approach if the
   hazard can be appropriately managed and controlled to conduct work safely.

   Comment: The procedure states that if77°F WBGT is exceeded, then a work/rest
   regimen will be implemented. This regimen is an appropriate control action, however, it
   contradicts the statement that the glass breaking booth will be maintained below 77°F
   WBGT. (Also see comment on Procedure Statement 3.)

   Comment: The procedure refers to possible "adjustments" in work schedules. It is
   unclear whether this refers to early morning, evening, or night shifts when the WBGT is
   less than 77°F. If so, this option should be explicitly detailed. (Also see comment on
   Procedure Statement 5.)

• 	 Procedure Statement 2: "The WBGT will be used and the temperatures recorded by the
    detail supervisor or his designee at the beginning and end of each shift or on an as needed
   basis. "

   Comment: Better criteria regarding when testing is to occur would improve this
   statement. For instance, the term "as needed" is vague. It would be an improvement if
   the procedure specified when interim WBGT measurements during the work shift would
   be appropriate. For instance, the procedure could be written to trigger interim
   measurements based on the level of initial readings or on ambient temperature readings
   during the work shift.

• 	 Procedure Statement 3: "Ifthe WBGT exceeds 77°, a Work/ Rest regimen will be
    implemented in accordance with OSHA guidelines."

   Comment: This statement should reference ACGIH-TLV guidelines, not OSHA 

   guidelines. In addition, clear criteria for specifying work/rest regimens should be 

   provided. (See Table 2, ACGIH-TLVs, Heat Stress and Heat Strain.) 


   Note: This comment regarding work/rest regimens also applies to the "Factory Work
   Stations" paragraph ofthe procedure.

• 	 Procedure Statement 4: "An additional training component will be added to the Glass
    Recycling Operational Requirements and the FPC Glass Recycling WorkStation
    Instructions to explicitly address heat stress prevention, symptoms, and treatment."

   Comment: This statement is written as a future action without any details regarding the
   training components. This statement should be written in definitive language that defines
   or references the training course that is required (e.g., curriculum, content, and/or course
   reference). (See current ACGIH TLV's and OSHA-Recommended Elements of a Heat



                                             5

    Stress Program, summarized above.) Training frequency should be defined, for instance,
    upon initial assigmnent with refreshers or reinforcement on some defined periodic basis.
    Training should specifically include 'signs and symptoms' of heat stress.

    Note: This comment regarding detailing the training is also applicable to the "Training"
    paragraph of the procedure.

•   Procedure Statement 5: "Adjustments to the glass breaking booth work schedule may be
    made to ensure both the safety of the workers and an optimal production schedule. "
    Comment: The meaning ofthis statement is unclear, although, it might be inferred that
    altering work shifts to early morning, evening, or night is intended. Otherwise, it may
    refer to the length of the shift. This statement should be clarified and detail should be
    added to define what would trigger the adjustments, what the adjustments could be, and
    how would they be authorized and implemented.

•   Procedure Statement on Work Shift: "Staff will work their full shift rotation as long as
    the prescribed time limit inside the booth does not exceed four hours in an eight-hour
    workday."

    Comment: This statement should be rewritten to be consistent with the statements made
    in Glass Recycling Operational Requirements which appear to limit work to one, two­
    hour shift during the hot months. Alternately, both the operational requirements and the
    heat stress procedures should be rewritten to reflect the daily decisions regarding the
    work/rest regimens.

•   Procedure Statement referencing IP: "A list of personnel authorized to enter the booth
    will be posted outside the Glass-Processing Area. Authorized personnel are those
    individuals assigned to the area that have completed all biological, safety and
    environmental testing, basic first aid training and identifying heat-stress symptoms
    training. See IP-6200-420".

    Comment: Verify the accuracy ofthe document reference; that is, presumably the
    reference should be IP-6400-420.

•   Procedure Statement on Worker Assigmnents: "Additional workers assigned to the Glass
    Recycling WorkStation must be medically cleared and are subject to periodic safety
    training and physical monitoring. See IP-6200-420 FPC Glass Recycling Work Station
    Instructions. "

    Comment: Clarify whether this refers only to the glass breaking operations or the
    broader operations.

•   Procedure Statement on Maintenance: "Air conditioning units will be serviced by a
    qualified technician on a yearly basis."




                                             6

          Comment: Regarding maintenance of air conditioning units, reference should be made
          to controlling possible exposure to toxic metals such as lead, regardless of whether such
          maintenance is conducted by staff or contractors.

   • 	 Heat Stress Procedure Omissions: The FPI Mariana Heat Stress Procedures do not
       address worker acclimation, waterihydration, possible engineering controls, personal
       cooling devices, medical surveillance, and record keeping for heat exposures and
       monitoring. Several of the other general and job-specific controls in Table 5, ACGIH­
       TLVs, Heat Stress and Heat Strain, and the OSHA-Recommended Elements of a Heat
       Stress Program are also not addressed.


III. RECOMMENDATIONS

Recommendations and guidance are provided below to assist FCI Marianna and the BOP to
develop and implement heat stress procedures that will ensure the effective management and
mitigation of heat stress hazards.

In general, considerations for implementing heat stress controls in a workplace are as follows:

   1. 	      Evaluate the feasibility of engineering controls to mitigate heat stress conditions, and
             implement such engineering controls, if feasible;

   2. 	      Establish the work activity level (workload) by using Table 3, ACGIH-TLVs, Heat
             Stress and Heat Strain;

   3. 	      Measure worksite-specific WBGT values for both routine and non-routine activities
             during the warmer weather months;

   4. 	      Apply the appropriate protective clothing adjustment factor (CAF) to the measured
             WBGT values by using Table 1, ACGIH-TLVs, Heat Stress and Heat Strain or other
             documented sources in the literature;

   5. 	      Ifwarranted, establish a work/rest regimen by using the information from steps 1, 2,
             and 3 above and applying that information to Table 2, ACGIH-TLVs, Heat Stress and
             Heat Strain;

   6. 	      Consider personal protection equipment (PPE) such as cooling devices that are
             appropriate and effective for the work activity and location. Also, as feasible, select
             PPE to protect workers from other hazards (such as lead), in consideration of the heat
             stress hazard;

   7. 	      Consider administrative controls that use exposure times, recovery times, work shifts,
             work practices, and other factors to limit physiological strain; and

   8.        Provide other appropriate general controls as delineated in Table 5, ACGIH-TLV,
             Heat Stress and Heat Strain, as well as OSHA-Recommended Elements of a Heat


                                                   7

           Stress Program. This includes providing training and information regarding heat
           stress, water and other fluids, acclimation adjustments, record keeping for exposures
           and monitoring, among others.

We recommend that the FCI Marianna heat stress procedure be rewritten to address the above
items. Specific recommendations and guidance for these general items as they relate to FCI
Marianna are provided below.

A. Engineering Controls

Feasible engineering controls are the favored approach to controlling heat stress. We
recommend that FCI Marianna conduct an engineering evaluation to determine if cooling ofthe
glass breaking work environment is feasible. This engineering evaluation should be conducted
by personnel experienced in industrial ventilation systems designed to control temperature in the
presence oflocal exhaust ventilation systems and hazardous materials. For instance, any cooling
provided to the glass breaking area must be implemented in a manner that maintains the
effectiveness ofthe booth ventilation system and places the area in a negative pressure relative to
other occupied areas.

Implementation of an effective cooling system could eliminate or at least reduce the heat stress
hazard. Lacking these engineering controls (or prior to their implementation), other elements of
a heat stress program should be implemented.

B. Workload Determinations

Workloads for the various activities (both routine and non-routine) at FCI Marianna should be
determined using a job hazard analysis approach and the example metabolic rate categories of
Table 3, ACGIH-TLVs, Heat Stress and Heat Strain. Types of activities should be categorized
and then assigned a workload category (i.e. , rest, light, moderate, heavy, and very heavy).
Assuming that activities are consistent and fairly constant from shift to shift, this determination
could be made once initially and recorded. The determination could then be reconfirmed on
some periodic basis, or when there is a significant change in the activity.

The FOH report of September 21,2007 identified workloads for various FCI Marianna work
activities. Most were in the light to moderate category, including several activities in the glass
breaking operation. The glass breaking operation feeders had a moderate to heavy workload.
FCI Marianna should make these determinations for its activities and implement appropriate heat
stress control actions accordingly.

C. WBGT Measurements and Protective Clothing Adjustment Factor

The FCI Marianna heat stress procedure should address the timing and frequency ofWBGT
monitoring and the conditions when regular or periodic monitoring during the work shift are
warranted. Once the WBGT value is determined, the protective clothing adjustment factor is
added to the value (see Table 1, ACGIH-TLVs, Heat Stress and Heat Strain or other documented
sources).



                                                  8

Adjustment factors are generally not used for fully encapsulating or impermeable PPE. rnstead,
physiological monitoring would likely be necessary.

However, the PPE used at the FCr Marianna glass breaking operations is not impermeable or
fully encapsulating. The adjustment factor for polyolefin coveralls is 1° C or 1.8° F as shown in
Table 1, ACGIH-TLVs, Heat Stress and Heat Strain. Other literature assigns hooded Tyvek
1422A coveralls with an adjustment factor around 2°C or 3.6 of. Other types of coveralls
offering a water barrier, while still being vapor permeable, can range in adjustment factors from
6°C to 8.5°C. (See "Heat Stress and Protective Clothing: an Emerging Approach from the
United States", Thomas E Bernard, Am. Occup. Hyg., Vol 43, No.5, 1999 for these and other
suggested adjustment factors.)

Fcr Marianna should determine and specify the adjustment factors for the types of PPE and
respiratory protection equipment (RPE) that are used. FCr Marianna should confirm that the
PPE used is not considered to be "impermeable."

D. Work/Rest Regimen

The FCr Marianna procedure should detail the process to establish work/rest regimens. Based on
the workload, WBGT measurement, and protective clothing adjustment factor, the work/rest
regimen should be established using Table 2, ACGIH-TLVs, Heat Stress and Heat Strain. The
notes associated with Table 2 should be reviewed and understood.

Work/rest regimens based on the TLV are for the acclimated worker. Work accommodations are
appropriate for the non-acclimated worker. For instance, the action liruits in Table 2 are more
appropriate for the non-acclimated worker. Other accommodations may also be appropriate for
the non-acclimated worker.

During rest periods, it is advisable to provide for a cool down area equipped with waterlfluids.
Worker movement to the cool down area should be through a decontamination area where
workers remove PPE/RPE. The decontamination area should be designed to ensure that toxic
metal contamination is not carried to the cool down area.

E. Personal Protective Equipment

The use ofPPE to reduce heat exposure should be considered and included in the FCr Marianna
heat stress procedure, as appropriate. This equipment could include such items as cooling or
"ice" vests, cooling neck collars, and others. These items are commercially available. It should
be ensured that these devices do not interfere with the effectiveness ofPPE/RPE used to prevent
exposure from hazardous materials.

It may be possible to adjust work/rest regimens if personal cooling devices can be used (i.e.,
somewhat increase the work period over the rest period). Feedback from workers regarding their
condition, comfort, and strain should be sought if this is attempted.




                                                 9

PPE/RPE used to protect workers from hazardous materials should be selected in consideration
ofthe heat stress hazard. For instance, in the case of the glass breaking operation, more
breathable materials for PPE would be preferred as long as they are effective to prevent exposure
to metals dusts and fumes. Manufacturers and vendors should be able to provide information
regarding effectiveness in prevention of metals exposure and heat stress.

This recommendation is NOT intended to imply that the current PPE is not optimum. FCr
Marianna is simply encouraged to verify that PPE selected is an appropriate choice for metals
exposure and heat stress hazards.

F. 	 Administrative Controls

Administrative controls should be considered and addressed in the FCr Marianna heat stress
procedure. Work/rest regimens would, of course, be one example of administrative controls.
Another example would be the adjustment of work shifts from day to early morning, evening, or
night. This example might be alluded to in the current heat stress procedure, but it was not clear.
The length of work shifts is another administrative control.

Basically a modification to the work regime or work practice that would limit physiological
strain while accomplishing the work objective, and while not adversely impacting exposure
controls for other hazards would be an appropriate administrative control.

G. Other Controls and Considerations

Table 5, ACGrH-TLVs, Heat Stress and Heat Strain lists general controls for consideration and
incorporation, as appropriate, into the FCr Marianna heat stress procedure. The OSHA­
Recommended Elements of a Heat Stress Program should also be addressed in the procedure.
Some ofthese as well as other general controls are discussed below, as applicable or not
applicable to the preparation of a revised FCr Marianna heat stress procedure.

   • 	 Water/Fluids: Provision ofwaterlfluids should be addressed in the procedure. As a
       possible example if feasible, water should be made available during rest periods in a cool
       down area (free oftoxic metal exposure).

   • 	 Acclimation of Workers: Approaches to acclimate workers to the hot environment with
       necessary accommodations should be addressed. The ACGrH-TLV Heat Stress and Heat
       Strain section provides some information on this topic. OSHA-Recommended Elements
       of a Heat Stress Program also states that re-acclimation of workers is necessary ifthey
       are away from the job for more than three days.

   • 	 Training: The means of training, its general content, and its periodic reinforcement
       should be addressed in the heat stress procedure.

   • 	 First Aid and Emergency Response: The procedure should address how first aid and
       emergency response will be provided to workers suffering acutely from heat exposure.




                                                10 

   • 	 Record Keeping: Heat stress exposure and monitoring data and information must be
       maintained for staff and inmates involved in the GBO operations.

   • 	 Heat Strain Physiological Monitoring: Physiological monitoring approaches are also
       discussed in ACGIH-TLVs Heat Stress and Heat Strain; however, this monitoring is not a
       desired approach, unless absolutely necessary. Usually this monitoring is reserved for
       cases where impermeable PPE is required. rf FCr Mariauna should require use of
       impermeable PPE, then physiological monitoring may need to be added to the heat stress
       procedure.

IV. CONCLUSIONS

Based on the evaluation ofthe FCr Marianna glass breaking operations, the FOH Safety and
Health Investigation Team offers the following conclusions.

    1. 	 Workers performing glass breaking and other operations at the MSF and Satellite Camp
         at FCr Marianna are at risk from heat stress.

   2. 	 FCr Mariauna Heat Stress Procedures lack many ofthe steps, information, and detail
        necessary to ensure management and control ofthe heat stress hazard.

   3. 	 To ensure effective management and control of the heat stress hazard, FCr Marianna
        needs to rewrite its heat stress procedures to be consistent with ACGrH-TLVs, Heat
        Stress and Heat Strain section, as well as OSHA-Recommended Elements of a Heat
        Stress Program.

   4. 	 The Glass Recycling Operational Requirements also need to be revised to reflect the heat
        stress issues discussed in this report and in the rewritten procedures.

   5. 	 Even prior to the preparation of rewritten procedures, FCr Marianna should proceed with
        the recommendations and guidance offered in this report, as well as with the ACGrH and
        OSHA information previously cited.

The FOH Safety and Health Investigation Team recognizes the recent efforts put into improving 

the safety of its glass breaking operations by FCr Marianna and the BOP, particularly as it relates 

to heat stress. The comments provided in this report should be construed in this light. 

Additional assistance is available upon request. 





                                                 11
                               ATTACHMENTS


Y Revision Record and salient paragraph excerpted from Glass Recycling Operational
  Requirements, Document # rp-6400-420, (8/6/07, Revision C)

Y Heat Stress Procedures,   Fer Marianna

Y OSHA information related to heat stress

Y Selected images of glass breaking operation at Fe] Marianna (Aug. 2007)




                                            12 

[Taken from Glass Recycling Operational Requirements, Document # IP­
6400-420, (8/6/07, Revision C)

                                              REVISION RECORD
Rev.       Date                                    Change Description                             Initials

                                                                                             AW     FM       MR


  A     10\12\06     Newly Issued                                                             -      -       -

  B     6\11\07      Additional Hot weather instructions added.


  C     8\6\07       Specific Hot weather processes added.




3.4 Daily Operations:
Work shifts are to be limited to four hours per day. Therefore. the Glass-Processing Area will require two
shifts for the normal workday. These operations are for the months of October thru May. Due to the
geographical location ofMNRC and the excessive heat during June. July. August and September work in
the inner glass booth is limited to a 2 hour A.M. shift. The WorkStation utilizes 2 person crews in the
inner glass booth. This normally results in a crew rotation where the crews are working in the inner booth
every third day.

Staff may work the full shift as long as their time inside the booth does not exceed four hours in an eight­
hour workday.




                                                                  13 

                      UNICOR
                                                          FEDERAL CORRECTIONAL INSTITUTION
                                                          3625 FCl Road
                                                          Marianna, Florida 32446




Heat Stress Procedures



Work shifts are I imited to four hours per day. Glass-Processing Area will require two sh ifts for
the normal workday.


1. 	 The FPC Glass Breaking Booth's temperature will be maintained below a Wet Bulb Globe
   (WBGT) temperature of 77° .
2. 	 The W BGT w ill be used and t he temperatures recorded by t he detail su pervisor or his
   designee at t he beginning and end of each shift or on an as needed basis.
3. 	 If the WBGT exceeds 71", a Work} Rest regimen will be implemented in accordance with
   OSHA guidelines.
4. 	 An additional t raining component w ill be added tot he G lass Recycling 0 perational
   Requirements and the FPC Glass Recycling WorkStation Instructions to explicitly
   address heat stress prevention, symptoms, and treatment.
5. 	 Adjustments to t he gl ass breaking boot h work sc hedule may be made toe nsure bot h
   the safety of the workers and an optimal production schedule.


Note: During pe riods of su stained hi gh temperatures the frequency       0   f WBGT u se m ay b e
increased.


Staff will work their full sh itt rotation as long as the prescribed time limit inside the booth does
not exceed four hours in an eight-hour workday.


A I ist of pe rsonnel aut horized to ent er t he boot h w ill be post ed outside the Glass-Processing
Area. Authorized personnel are those individuals assigned to the area that have completed all




                                                 14 

biological, safety and env ironmental testing, basic first aid training and identifying heat-stress
symptoms training. See IP-6400-420 Glass Recycling Operational Requirements
Additional workers assigned to the Glass Recycling WorkStation must be medically cleared and
are su bject toper iodic safety t raining and phy sical monitoring. See IP-6200-420 FPC Glass
Recycling WorkStation Instructions.


Factory Work Stations:


A work rest regiment w ill be implemented when temperatures exceed Wet Bulb Globe
temperature as prescribed by OSHA.


Training:


All staff will be required to obtain CPR certification every two years.
Staff will conduct heat stress training to all workers on an annual basis and will conduct heat
stress training with the g lass workers monthly dur ing el evated heat co nditions in co njunction
with monthly safety talks. Staff will train workers on proper hydration techniques in conjunction
with the heat stress training.


Maintenance:


Air conditioning units will be serviced by a qualified technician on a yearly basis.     The Wet
Globe tester will be re-calibrated annually.




                                                  15 

OSHA Information, Technical Manual and Publications
    •	 OSHA Technical Manual, Section III: Chapter 4
    •	 Appendix III: 4-1 Heat Stress - General Workplace Reviews;
    •	 Appendix III: 4-2 Heat Stress- Related Illness/Accident Follow-Up;
    •	 Appendix III: 4-3 Measurement of Wet Bulb Temperatures (Intended to assist industry in
       developing appropriate Heat Stress Programs).
   • 	 OSHA Publication 3154 2002 (Provides additional reference information on implementing heat
       stress programs and "Heat Stress Information Cards Heat Stress Card (OSHA Publication 3154)
       in both English and Spanish.
Additional ou treach materials regarding he at st ress c an be found on OSHA's w eb page at
http://www. osha. gov/SLTClbeatstress/index.htrnl. ]




                                                       16 

Im~ge   1: Glu , ocealcing operation by worl<er. in PAPR. iUld disposabl e wv""all,
Image 3: W0"'''' fepo<itioo1ng   g~yloo:l   box of CRT.
FCI TEXARKANA 

(4
... ... ........

    ' ..-
                      DEPARTMENT OF HEALTH & HUMAN SERVICES             Program Support Center
                                                                        u.S. Public Health Service

',::::i                                                                 Federal Occupational Health Service




                      EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

                        HEALTH INFORMATION RELATED TO UNICOR 

                          E-WASTE RECYCLING OPERATIONS AT 

                                    FCI TEXARKANA 


                      PREPARED FOR THE UNITED STATES DEPARTMENT OF JUSTICE
                                OFFICE OF THE INSPECTOR GENERAL




                    Submitted to:

                                      Oversight and Review Division
                                      Office of the Inspector General
                                      U.S. Department of Justice



                    Submitted by: 	   Mr. George Bearer, CIH
                                      FOH Safety and Health Investigation Team
                                      Program Support Center
                                      U.S. Public Health Service
                                      Federal Occupational Health Service



                                                   April 27, 2010
                                                      Table of Contents

1.0 	 INTRODUCTION ..................................................................................................... 1 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI 

      TEXARKANA ........................................................................................................... 2 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      FCI TEXARKANA ................................................................................................... 7 

      3.1 	 Safety and Health Practices and Procedures to Control Toxic Metals Exposure 

            ........................................................................................................................... 8 

      3.2 	 Safety and Health Practices and Procedures to Control Noise Exposure ....... 10 

      3.3 	 Other Safety and Health Practices and Procedures ......................................... 11 

4.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ............................. 13 

      4.1 Investigations for Exposure to Toxic Metals .................................................. 15 

            4.1.1 UNICOR Consultant Monitoring and Sampling of October 2002 ..... 15 

            4.1.2 Annual UNICOR Consultant Evaluations of2004 through 2007 ...... 16 

                        4.1.2.1 Consultant Evaluation of2004............................................... 16 

                        4.1.2.2 Consultant Evaluation of2005 ........................... .................... 17 

                        4.1.2.3 Consultant Evaluation of2006............... ... ......... ... ......... ........ 18 

                        4.1.2.4 Consultant Evaluation of2007............................................... 19 

                        4.1.2.5 Consultant Evaluation of2009............................................... 20 

                        4.1.2.6 Summary of Annual Consultant Evaluations-2004 through 

                                    2009 ......................................................................................... 22 

            4.1.3 OSHA Inspection of2006................................................................... 22 

            4.1.4 FOH Observations during the 2006 OSHA Inspection............... ........ 23 

            4.1.5 NIOSH/HETAB Exposure Assessment.. .................................... ........ 24 

      4.2 Surface Wipe and Bulk Dust Sample Results ............................ ............ ......... 26 

            4.2.1 Guidance for Evaluating Surface Samples ..................... .................... 26 

            4.2.2 FOH Surface Wipe, Bulk Dust, and TCLP Results ....... ... ......... ......... 28 

      4.3 	 Assessment ofthe Medical Surveillance Program .................................. ........ 31 

      4.4 	 Investigations for Noise Exposure .................................. ... ......... ............. ....... 33 

      4.5 	 Environmental Issues ............................. ............. ............ ............ ............ ........ 35 

5.0 	 CONCLUSIONS .............................................. ... ......... ... ......... ... ......... ... ......... ........ 38 

      5.1 Heavy Metals Exposures ................................................. ... ......... ... ......... ........ 38 

      5.2 Noise Exposure and Other Hazards ............................... ........................ ......... 40 

      5.3 Health and Safety Programs, Plans, and Practices .......................................... 41 

      5.4 Health and Safety Regulatory Compliance ..................... ............ ............ ........ 42 

      5.5 Environmental Compliance ................................ ... ......... ... ......... ... ......... ........ 42 

6.0 RECOMMENDATIONS ................................. ............ ............ ............ ............ ........ 43 

      6.1 Heavy Metals Exposures ................................................. ........................ ........ 43 

      6.2 Noise Exposure and Other Hazards ................................................................ 47 

      6.3 Safety and Health Programs, Practices, and Plans ...................... .................... 47 

      6.4 Health and Safety Regulatory Compliance ..................... ... ......... ... ......... ........ 49 

      6.5 Environmental Compliance ................................ ............ ............ ............ ........ 49 

7.0 REFERENCES .................................... ............ ... ......... ............ ... ......... ............ ........ 49 

                                     Figures

Figure 1:    Texarkana FCI - Camp Glass Breaking Area Floor Plan



                                     Tables

Table 1:     Occupational Exposure Limits
Table 2:     Maximum Concentration of Selected Contaminants for the Toxicity
             Characteristic



                                     Images

Image 1:     Texarkana Glass Breaking Room Work Stations (a)
Image 2:     Texarkana Glass Breaking Room Work Stations (b)
Image 3:     Texarkana Disassembly Area



                                  Attachments 


Attachment 1:    OSHA Inspection Report of2006 

Attachment 2a:   FOH Wipe and Bulk Testing Data of2007
Attachment 2b:   FOH TCLP Testing Data of2007
Attachment 3:    NIOSH/HETAB Letter to _ _, February 9,2009
Attachment 4:    U.S. EPA RCRA Compli~
1.0       INTRODUCTION

At the request ofthe U.S. Department ofJustice (DOJ) Office of the Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistleblower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR). 1 The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e., e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report 3 consolidates and presents the findings oftechnical assessments
performed at UNICOR's e-waste recycling operations at the Federal Correctional
Institution in Texarkana, Texas (FCI Texarkana) by industrial hygienists and other
environmental, safety, and health specialists representing federal agencies including
FOH, the Centers for Disease Control and PreventionlNational Institute for Occupational
Safety and Health (CDCINIOSH) Division of Surveillance Hazard Evaluation and Field
Studies/Hazard Evaluations and Technical Assistance Branch (DSHEFS/HETAB), the
Occupational Safety and Health Administration (OSHA), and the U.S. Environmental
Protection Agency (U.S. EPA). Reports and field data from these agencies are presented
in the attachments to this report (see references for these reports in Section 7.0). The
primary objectives ofthese assessments were to characterize current UNICOR operations
and working conditions at FCI Texarkana in light ofthe whistleblower allegations and to
identify where worker exposures, environmental contamination/degradation, and
violations of governmental regulations and BOP policies may still exist so that prompt
corrective actions may be taken where appropriate. In addition, this FOH report also
relies upon information from documents assembled by the OIG which were developed by
various consultants, regulatory agencies, BOP, and UNICOR staff.

The overall purpose ofthis report is to characterize current operations and working
conditions at Texarkana (i.e., 2003 to present) especially with respect to the potential for




           1 FPI, (commonly referred to by its trade name UNICOR) is a wholly-o\Vlled, Government corporation that

operates factories and employs inmates at federal correctional institutions.
           2 E-waste is defined as a waste type consisting of any broken or unwanted electrical or electronic device or
component.
           3 FOR prepared this report in September 2009 and its findings and conclusions address e-waste recycling
conditions knO\vn to FOR at that time. FOR provided the report to the OIG, which shared it -..vith the BOP and sought
feedback on it. The BOP and UNICOR later provided their comments to FOR about the report's contents, which
resulted in FOR making limited changes to some text and figures, as reflected herein.
inmate and staff exposures 4 that may result from present day e-recycling activities as well
as from legacy contamination on building components from e-recycling operations which
took place in the past. This report consolidates findings from those contributing to the
OrG investigation and evaluates additional information assembled regarding BOP and
UNrCOR recycling operations (e.g., consultant reports, programs and procedures, and
various records and documents). Conclusions and recommendations presented in this
report are based on the entire body of available reports, data, documents, interviews, and
other information.

Fcr Texarkana is one of six BOP institutions for which an assessment report has been
prepared by FOR. On October 10, 2008, FOR issued a separate report entitled
"Evaluation ofEnvironmental, Safety, and Health Information Related to Current
UNICOR E-Waste Recycling Operations at FCI Elkton" [FOR 2008a] detailing current
exposure conditions at FCr Elkton. The FOR report for FCr Elkton should be reviewed
for a more comprehensive discussion ofthe hazardous components found in e-waste
electronics, pertinent regulatory requirements, and other information that provides
additional context to this report on FCr Texarkana. FOR will be preparing assessment
reports for two remaining BOP institutions that perform recycling upon completion of
their respective ES&R assessments.

Currently, e-waste recycling operations at FCr Texarkana involve receipt of waste
electronics from various locations around the country, disassembly and sorting activities
(,breakdown'), and the associated material handling and facilities maintenance required
to support these operations. Although glass breaking operation(s) (GBO) were suspended
UNrCOR-wide in June 2009, this report addresses the Texarkana GBO conducted during
the field activities performed by OSRA and FOR in December 2006, FOR in March
2007, and NrOSR/RETAB in July 2008. The FCr Texarkana Factory Manager stated
that the last GBO at FCr Texarkana was performed on May 29, 2009 and that UNrCOR
will re-evaluate the status of glass breaking at the end of2009. In September 2009, the
UNrCOR General Manager for e-waste recycling disclosed that it is very unlikely GBO
will resume at FCr Texarkana or elsewhere within the BOP system since processing of
CRTs is now, and will likely continue to be, out sourced. FCr Texarkana recycling
facilities and operations are described below in Section 2.0 in greater detail.


2.0 	     UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
          FCITEXARKANA

UNrCOR e-waste recycling operations commenced at FCr Texarkana in 2001. These
past operations were conducted in the basement ofthe UNrCOR factory in the FCr and
included receiving and sorting, disassembly, packaging, and shipping. In late 200 I, glass

           4 In this report, the term "exposure" refers to the airborne concentration ofa contaminant (e.g., lead or
cadmium) that is measured in the breathing zone of a worker but outside of any respiratory protection devices used.
Unless otherwise noted, "exposure" should not be confused with the ingestion, inhalation, absorption, or other bodily
uptake of a contaminant since, in part, concentrations reported and discussed in this report are not adjusted based on
respirator protection factors. However, when reported, it is indicated whether the exposure was within the protective
capacity of the respirator.
breaking operations (GBO) were initiated involving the processing of CRTs from
computer monitors and televisions.

As with other UNICOR e-waste recycling operations, current recycling of electronic
components at this facility involves receiving and sorting, disassembly, GBO (currently
suspended), and packaging and shipping. Cleaning and maintenance in support ofthese
processes are also conducted. See FOH reports for USP Lewisburg and FCI Marianna
for a more detailed description of these activities that generally applies to FCI Texarkana.
[FOH 2009a; FOH 2009b1 Further information on FCI Texarkana operations are
discussed in this section, below.

There currently are two disassembly areas at UNICOR Texarkana: a warehouse in the
camp area outside the perimeter fence of the FCI; and the basement ofthe UNICOR
factory inside the FCr. Printers, scrap computers, cable boxes, VCRs and typewriters are
processed at the UNICOR factory, whereas items including CRTs/monitors, telephonic
equipment, and miscellaneous scrap are processed at the camp warehouse. At each
location, the pieces of equipment are dismantled and components (plastic, wire,
aluminum, glass, etc.) are separated. Some items are baled and others are left in large
boxes. Components are then weighed, inventoried, and sold to vendors. Higher valued
items are placed in a secure area inside the camp warehouse while lower valued items are
sent to the UNICOR factory or to one of two adjacent pole barns. Items in these storage
areas are later sorted and transferred to their assigned areas for testing and, if appropriate,
manual disassembly so that components can be recovered and recycled.

From 200 I to 2004, e-waste recycling operations were performed largely without the
benefit of adequate engineering controls, respiratory protection, medical surveillance, or
industrial hygiene monitoring. Initially, the GBO utilized a retrofitted local exhaust
ventilation (LEV) system that had been used by the FCr's furniture factory. In addition,
large fans were reportedly used for cooling the work area, but also had the effect of
reducing the ability of the LEV system to capture the dust from CRT glass breaking.
This resulted in the dissemination of dust from the GBO throughout the basement. Dust
removed from the LEV was collected in a box and placed in the trash.

In the summer of2002, the GBO was temporarily moved to an old dairy bam at the camp
(the lower security part ofthe FCI) while a containment area was built for the GBO in the
UNICOR factory basement. The containment area in the UNICOR factory consisted of
wooden walls topped by a screen which was designed to decrease airborne migration of
what UNICOR staff and inmates described as "silver floating material" from the GBO.
The GBO was moved back to the basement of the UNICOR factory in the fall of2002.

In May 2004, the GBO was moved to its current location at the UNICOR warehouse at
the camp. Unbroken glass from monitors and televisions (i.e., CRTs) was placed in bins
and sent to the camp's glass breaking area where a glass breaking room was constructed
and put into service. The glass breaking area was divided into seven sections, identified
as zones I through 7 on the enclosed diagram (See Figure I). Except for the inmate
locker area and storage closet which are enclosed by walls, the zones were separated by
vinyl strip curtains suspended from the ceiling.




      2                                                         7
                                                                                       6

                                                          D. D 

                                                              1......,,..... 1 

      1                             4                                              I
                                   ~.
                                                          D D                5     I


   Figure 1 Glass breaking area at the camp, Fer Texarkana.


 The GBO involved moving the CRTs to the room where the glass was broken inside the
containment area and collected in large boxes. Once the box was full, a piece of
cardboard was placed on its top, and it was shrink -wrapped with plastic after which it was
moved outside to the pole barn area. When approximately 37,000 pounds of glass had
been accumulated, it was loaded and shipped to a glass recycler using the vendor's
shipping containers.

The glass breaking room is reported to have undergone various modifications since its
opening in May 2004 but its most recent configuration used two stand-alone high
efficiency particulate air (REPA) filtered ventilation units (LEV systems) to control dust
emissions at the panel and fuunel glass breaking stations. These REP A units re­
circulated filtered air back into the glass breaking room. Plastic strip curtains at the face
(intake) of each REP A unit partially enclosed the CRT while it was manually broken.
Two additional REPA-filtered ventilation systems provided general air filtration to
remove dust from the air in the glass breaking room. One ofthese units was in the feeder
area and the other was along a wall in zone 7. In 2007, air-conditioning was installed in
the GBO, and four large exhaust fans were installed on opposite walls of the factory (two
fans on each wall). The GBO and facilities as they existed in 2007 are shown in Images
1-3 that follow.
                bn,"k,ng , oom    ':~~~~~~mt,,"~
outside the glass breaking enclosure awaiting




air purifying respirator (PAPR)
              Image 3. Disassembly station


The glass breaking process involved two inmate glass breakers, one at each workstation
inside the glass breaking room, who used hammers to break the CRTs. CRTs were
provided to the breakers by two inmate feeders (positioned in Zone 6, see Figure 1), who
placed intact CRTs onto a manual conveyor that allowed CRTs to be rolled into the areas
contained by vinyl strip curtains at each of the two breaking stations (i.e., right side and
left side stations). At the right side breaker station, the breaker reached through the vinyl
strip curtain and broke the fullllel glass, which dropped into a Gaylord box beneath the
conveyor. What was left of the CRT was rolled into the enclosure at the second (left)
station where panel glass was similarly broken by a worker and allowed to drop into a
second Gaylord box. The electron goo and metal components were also removed during
the breaking process and deposited into containers.

As reflected in the NIOSHIHETAB report (see Attachment 3), at the time of their site
visit and according to factory persollllel, the GBO processed 300 to 400 CRTs per day
during two work shifts, which ran for three hours in the morning and two hours after
lunch. 5 From a pool of approximately eight inmates, four were assigned to work as glass
breakers (two work simultaneously) and feeders (two work simultaneously) during each
work shift. Each inmate was allowed to work as a glass breaker for a maximmn of one
shift per day. At the start of morning and afternoon shifts, glass breakers and feeders
took personal protective equipment (PPE) from their lockers and dOlllled the PPE in the
change-out area in zone 4. At the end of the shift, workers returned to zone 4 where they
removed the PPE (see Section 4.1.5 for a description ofPPE practices).



5 In December 2006 while accompanying OSHA during their inspection, FOH observed that CRTs were

processed at a somev:mat lower rate of one per every one and one halfto two minutes.
Movement of workers and equipment in and around the GBO was controlled to reduce
dust carryout on shoes and equipment. Glass breakers were the only workers allowed in
zone 7 during glass breaking, and they remained in zone 7 throughout the work shift. The
pallet jack used in zone 7 never left zone 7. Forklifts entered the glass breaking room no
further than zone 5. Full Gaylord boxes were shrink-wrapped before being moved to the
edge of zone 5, where the boxes were removed with a forklift.

At the end of a shift, the glass breakers and feeders dry-swept the GBO floor, then wet
mopped it with a dilute mixture of Simple Green® and water. A HEP A vacuum cleaner
was used to remove dust from various surfaces in zone 7, and from the face ofthe pre­
filters on the HEP A units at the glass breaking stations. Workers remained in PPE while
performing end-of-shift cleanup. Dry sweeping and shovels were also used to clean the
floor after full Gaylord boxes were removed from the GBO. Pre-filters installed in
HEP A units were changed weekly. The HEPA filter in each unit was changed annually
by inmates wearing PPE. This was accomplished by removing the pre-filter, HEPA
vacuuming accessible surfaces, removing the HEP A filter, and sliding the filter into a
plastic bag which is then double-bagged for disposal. [NIOSH/HETAB 2009]

The NIOSH/HETAB report presents details on PPE, respiratory protection, engineering
controls, and work practices used during glass breaking and other recycling activities.
These controls are summarized in Sections 3.0 and 4.0 ofthis report and detailed in the
NIOSH/HETAB report, Attachment 3.


3.0 	   BOP/UNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT FCI TEXARKANA

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H policy entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNICOR's compliance with this policy will be evaluated in the OIG's final report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples applicable to UNICOR's e­
waste recycling activities performed at FCI Texarkana, particularly for glass breaking,
include:

    • 	 29 CFR 1910.1025: Lead requires a written lead compliance plan;
    • 	 29 CFR 1910.1027: Cadmium requires a written cadmium compliance plan;
    • 	 29 CFR 1910.134: Respiratory Protection requires a written respiratory protection
        program; and
    • 	 29 CFR 1910.95: Occupational Noise Exposure requires a written hearing 

        conservation program. 

In addition to the specific OSHA standards listed above, another hazard that could be
associated with FCI Texarkana recycling operations is heat exposure. Although OSHA
does not have a specific standard for heat exposure, it can regulate this hazard under its
"General Duty Clause" [OSHA 1970] that requires employers to furnish a workplace that
is free from recognized hazards that are causing or are likely to cause death or serious
physical harm to employees.

Even when specific hazards do not meet the exposure threshold for a written
plan/program to comply with a specific standard, a good practice approach warrants that
a general safety and health plan should be in place to identify workplace hazards and
specify appropriate hazard controls and safe work practices.

UNICOR's ES&H practices and programs associated with the e-waste recycling activities
conducted at FCI Texarkana are discussed below.

3.1 	   Safety and Health Practices and Procedures to Control Toxic Metals
        Exposure

UNICOR at FCI Texarkana has several documents that describe safety and health
practices and requirements for e-waste recycling activities. These define measures and
requirements to control toxic metal exposures and include the following:

    •   Work Instruction - Glass Breaking Procedures;
    •   Work Instruction - Cathode Ray Tube (CRT) Processing Procedures;
    •   Cathode Ray Tube (CRT) Lead Compliance Program; and
    •   UNICOR Texarkana Process Descriptions

Each ofthe documents is discussed below. [Note: FCI Texarkana also has a document
entitled Lead Awareness Program; however this document is not related to electronic
recycling and is not discussed in this report.]

The Work Instruction entitled "Glass Breaking Procedures" applies to the breaking of
CRT glass inside the glass breaking room and the area and activities immediately outside
the glass breaking room that support the breaking activities. This document describes
mandatory safety equipment (i.e., PPE); practices for removing PPE; hygiene practices;
end-of-shift clean-up procedures; respirator cleaning, inspection, and storage procedures;
clean-up procedures for accidental CRT breakage; and glass breaking room clean-up
practices. Staff and inmate workers inside the glass breaking room are required to wear a
"reverse air flow hood and HEP A filter system" (presumably powered-air purifying
respirator, PAPR), leather/Kevlar® work gloves, long sleeves, safety boots, and jumpsuit.
The type of , jumpsuit" is not further described. Outside assistants are required to wear
safety glasses, leather/Kevlar® work gloves, safety boots, and jumpsuits. PAPRs or
other respirators are not required for these workers. The use of wet methods and HEPA
vacuums is emphasized for clean-up and PPE/respirator decontamination processes.
Hand washing is also emphasized.
The Work Instruction entitled "Cathode Ray Tube (CRT) Processing Procedures" also
applies to the breaking of CRT glass. This document addresses biological monitoring
requirements; engineering controls; PPE requirements including respiratory protection;
signage; daily operational practices for the work shift; care and use of PPE; exposure
monitoring, surface testing, and ventilation testing requirements; work practices for glass
breaking and handling; and personal hygiene and cleaning procedures. This procedure
contains some information not addressed in the previously described "Glass Breaking
Procedures," such as biological monitoring. In addition, engineering controls are
described in general terms, but the type of LEV system is not addressed. In some ways,
this procedure contradicts or differs from the Glass Breaking Procedures. For instance,
this procedure calls for the use of air purifying respirators (APRs), while the previous
procedure describes PAPRs. The use of 'jumpsuits" by assistants outside the glass
breaking room is not specified in this procedure, while they are required by the Glass
Breaking Procedures. The use oftwo layers ofjumpsuits for breakers is specified in this
procedure but two suits are not specified in the Glass Breaking Procedures. Finally,
hearing protection is specified in this procedure, but not in the Glass Breaking
Procedures. UNICOR should ensure that its procedures are consistent with each other
and with implemented practices.

The Cathode Ray Tube (CRT) Lead Compliance Program states that its purpose " ... is to
describe policy and outline responsibilities to assure a coordinated plan for the safe
handling of the lead containing cathode ray tubes." As a policy and responsibility
document, this program is very general in nature and does not specify the engineering
and work practice controls designed to maintain lead at levels below the OSHA PEL.
The program does not refer to the previously described procedures that do contain certain
exposure control information. The program does call for training to address the lead
hazard, respiratory protection use, PPE use, and hazardous waste handling. It also
mentions housekeeping, hygiene practices, and medical surveillance, but does not
provide much detail. The program requires a semi-annual program evaluation to ensure
compliance with the OSHA lead standard. In FOH discussions with the Factory
Manager, he was unaware ofthis program and stated that FCI Texarkana did not have a
Lead Compliance Program. He stated that semi -annual program evaluations are not
performed. FOH forwarded the written program to the Factory Manager, and he
confirmed that he had not seen this program and stated that the program must be a draft
that was never implemented.

The UNICOR Texarkana Process Descriptions include a section that addresses inmate
PPE requirements (including respiratory protection), medical monitoring requirements,
and exposure monitoring/surface testing, as well as a section that summarizes hygiene
and cleaning procedures. Requirements are similar to those discussed in the work
instructions described above. Respirators are identified as "reverse air flow" with HEPA
filters, and protective clothing is described as a disposable suit.

Regarding the above glass breaking documents, should GBO resume at UNICOR
facilities, UNICOR should consider standardizing work instructions and procedures for
all factories, where possible. Standardized documents could then be refined and tailored
for specific factories should certain factory-specific operations differ in some ways. Any
programs should also be clearly labeled for status; that is, draft, active, expired,
supersedes, etc. UNICOR should develop a document control process to ensure
documents are current, operable, and consistent, as well as to ensure that they are
reviewed and revised, as appropriate.

Since UNICOR at FCI Texarkana requires use of respiratory protection during glass
breaking, non-routine maintenance of LEV HEPA filters, and cleaning activities, a
written respiratory protection program is required by OSHA. FCI Texarkana has a
document entitled "Respiratory Protection Program," TEX-1616.2L, October 19, 2005 to
satisfy this requirement. This document addresses medical evaluation, fit testing,
respirator use and maintenance, training, and other subj ect matter. This program
accurately specifies the use of PAPRs for workers performing glass breaking inside the
glass breaking room. This respiratory protection program, however, covers the institution
as a whole and is fairly generic in nature. For instance, the document specifies PAPRs
for glass breaking, but does not specifically address the use, cleaning, maintenance, and
storage of PAPRs used during glass breaking. To supplement this document, however,
the glass breaking procedures described above do contain this type of content. In its
report presented as Attachment 3, NIOSH/HETAB stated that it reviewed respirator
medical clearance records and observed respirator use and storage. The report indicates
that this program is being implemented, although NIOSH/HETAB made suggestions for
improving respirator practices (see Section 4.1.5 and Attachment 3).

Job orientation and safety training is provided to inmates working in the recycling
factory. However, for general activities conducted on the factory floor (i.e., disassembly
and materials handling), a written safety and health document to define existing
workplace hazards and control measures is not in place for UNICOR recycling conducted
specifically at FCI Texarkana. As a "good practice" approach, such a document should
be developed and implemented to concisely define the safety and health practices and
requirements specific to FCI Texarkana recycling. The document should address PPE
requirements or voluntary use, hygiene (e.g., hand washing) practices, daily and periodic
housekeeping and cleaning practices, special training requirements for any hazardous
equipment use or other hazard controls, and other practices essential to conduct work
safely. Non-routine or periodic work activities should also be addressed in the document,
particularly those that potentially disturb dusts such as cleaning and handling/disposing
of wastes from HEPA vacuums or containers. The approach to evaluate new or modified
processes should be addressed as well. The document could also specify requirements
for periodic site assessments, hazard analyses, inspections, monitoring, actions for new or
changed processes, and regulatory compliance reviews.

3.2    Safety and Health Practices and Procedures to Control Noise Exposure

Noise exposure above the OSHA action level triggers the requirement for a written
hearing conservation program and implementation of associated practices. In 2006, a
UNICOR consultant found that noise levels "may exceed the exposure limits established
by OSHA." Another UNICOR consultant performed a more complete noise survey in
February 2007 and found various areas that have noise exposure at levels that require
implementation of a hearing conservation program and implementation of acoustic
engineering controls and/or hearing protection. In addition, FOH found that noise
exposures inside the glass breaking room during GBO were at levels that require
implementation of a hearing conservation program (see Section 4.4 for further
information).

A written hearing conservation program is available at FCI Texarkana that applies to the
institution as a whole, which would include UNICOR recycling activities. It has a
"reviewed on" date of July 26, 2007. This program calls for baseline and annual
audiometric testing, training, and hearing protection requirements. Section 4.d. of this
program lists "designated high noise areas and activities." Only one area/activity is listed
which is "UNICOR." It does not specify the areas and activities ofUNICOR that require
workers to be enrolled in the hearing conservation program. Some OSHA elements of a
hearing conservation program are not contained in this program, such as a monitoring
program and recordkeeping.

According to the FCI Texarkana Factory Manager and Safety Specialist, this program has
been implemented. Audiometric testing is provided annually and has been done so for
years and applies to all inmate workers. For instance, in 2007, the Factory Manager
stated that 129 workers were tested. Hearing protection is required in all "teardown"
areas, and FOH and NIOSH/HETAB reported that hearing protection was worn.
Training is provided during safety talks and job orientation. In addition, after the 2007
UNICOR consultant noise study, the pallet assembly operations were discontinued to
eliminate this source of noise exposure.

Correspondence dated May 23, 2007 from an Associate Warden to the Warden stated that
the Safety Department reviewed noise survey and hearing conservation implementation
status. The correspondence stated that after a full review of the hearing conservation
program, "all elements ofthe OSHA Hearing Conservation Program have been
implemented." This demonstrates that an implementation review has been performed for
this program.

The written hearing conservation program could be improved for UNICOR recycling by
specifying requirements for hearing protection for the recycling operations, defining the
means of providing training in the hazard and control of noise as well as training content,
specifying requirements for periodic monitoring, and specifying the means for informing
workers of monitoring results and for record keeping. However, UNICOR at FCI
Texarkana has reportedly implemented an on-going hearing conservation program that
includes key elements of the OSHA noise standard. UNICOR should verify the effective
implementation of this program (see Section 4.4).

3.3    Other Safety and Health Practices and Procedures

UNICOR has prepared a document titled "Heat Stress Program" dated 09/26/08. This
latest program will be evaluated by FOH prior to the completion ofthe OIG
investigation. The FCI Texarkana Factory Manager stated that some actions were taken
to reduce heat exposure, such as installation of air conditioning in the glass breaking
room, installation of box fans in roof locations in the general factory area, moving most
outside operations to covered (shaded) areas, and some temperature monitoring.
UNICOR should ensure that a heat exposure assessment is performed at FCI Texarkana
in accordance with the requirements of its recently adopted Heat Stress Program.

As part of e-waste recycling operations, FCI Texarkana refurbished the plastic casing
around computer monitors. According to the FCI Texarkana Factory Manager, this
refurbishment involved sanding ofthe plastic in preparation for painting. This activity
was discontinued in 2006. The Factory Manager stated that workers wore P-IOO
disposable, filter facepiece respirators for this activity, which are approved for toxic dusts
with a protection factor of 10. UNICOR and FCI Texarkana did not conduct a hazard
analysis for this operation prior to implementation. The Factory Manager stated that
sample(s) were submitted for analysis, but records for sample type(s) and result(s) were
not available at the time of this report.

Hazards associated with this activity include inhalation of fine dust particles and
brominated flame retardants (BFRs), such as polybrominated diphenyl ethers (PBDEs).
BFRs in general and PBDEs in particular are found in televisions and computers and
have caused both scientific and public concern because they have been found to
bioaccumulate in humans. One group that is potentially exposed to PBDEs is workers
within electronic recycling facilities. [Pettersson-Julander, et.al. 2004] Elevated
concentrations of PBDEs have also been observed in an electronics dismantling plant,
where elevated serum levels ofPBDEs have been documented. [Thuresson 2004]

Another operation performed at FCI Texarkana involved the removal oflead-containing
solder from circuit boards in computer monitors and CPU components. In an August
2005 memorandum issued by the FCI Texarkana Safety Manager to the BOP Central
Office Industrial Hygienist, details about this operation were provided along with the
results oflaboratory tests performed on the waste generated (i.e., removed solder).
According to the report, the repair operation involved six workers, one of whom was
dedicated full time to solder removal. The report indicated that circuits were heated with
a soldering iron so that the solder could be removed via a 'home-made' vacuum
collection system which drew the solder into a plastic jar located underneath the work
bench. The report also indicated that workers wore approved eye protection, the room air
was circulated using joist-mounted fans, and visible fumes and/or smoke from the
desoldering were not observed during the Safety Manager' s visit. Finally, the report
stated that no air sampling had been conducted in this work area. (Based on a subsequent
OIG interview in 2008, the current Factory Manager indicated that he believed air
sampling was eventually done. However, a report of that sampling could not be located.
The monitor/CPU repair operation was eventually halted due to lack of customers.)

As part of an overall safety and health program, UNICOR should develop a thorough
hazard analysis program. This program should include baseline hazard analysis for
current operations andjob (activity-specific) hazard analyses for routine activities,
activities performed under an operations and maintenance (O&M) plan, non-routine
activities, and new or modified activities. This applies to all UNICOR recycling
factories.


4.0      FIELD INVESTIGATIONS AND MONITORING RESULTS

Several field investigations ofFCI Texarkana e-waste recycling operations have been
conducted since 2002. These investigations are listed below:

      • 	 A UNICOR consulting firm performed personal exposure and area air monitoring
          in October 2002 (see Section 4.1.1).

      • 	 A second consulting firm performed industrial hygiene (IH) evaluations of the
          recycling operations in September 2004, May 2005, May 2006, and December
          2007. These evaluations included personal and area exposure monitoring and
          surface sampling. Some included LEV, ventilation, and noise testing (see Section
          4.1.2).

      • 	 As part ofUNICOR's annual monitoring program for its factories that was
          implemented in 2009, a UNICOR consultant performed exposure monitoring,
          surface testing, ventilation testing, and noise monitoring in April and June 2009
          (see Sections 4.1.2 and 4.4).

      • 	 OSHA conducted an inspection in December 2006. FOH personnel were on-site
          in an observational capacity during the inspection. The OSHA inspection report
          is provided as Attachment 1 to this report (also see Section 4.1.3).

      • 	 As part ofthe DOJ OIG investigation, FOH conducted a field investigation in
          March 2007 to determine the extent of metal surface contamination on various
          building components and to conduct noise monitoring. FOH sampling results and
          observations are provided in this report and Attachments 2a and 2b (also see
          Sections 4.1.3, 4.2.2, and 4.4).

      • 	 As part ofthe DOJ OIG investigation, NIOSH/HETAB conducted an assessment
          ofthe medical surveillance program in July 2008. This assessment also included
          an exposure assessment. The NIOSH/HETAB report is provided as Attachment 3
          (also see Sections 4.1.5 and 4.3).

      • 	 U.S. EPA conducted a Resource Conservation & Recovery Act (RCRA)
          Compliance Evaluation Inspection (CEI) in November 2008. [EPA 2009] This
          report is provided as Attachment 4 (also see Section 4.5).
Results of the UNICOR consultant studies, OSHA inspection, FOH studies,
NIOSH/HETAB medical surveillance and exposure assessment, and U.S. EPA RCRA
                                                               6
CEI are summarized and discussed in this section

Metals of greatest interest for occupational exposures related to e-waste recycling include
lead, cadmium, and barium. Beryllium can also be associated with e-waste materials and
is also of interest because of its adverse health effects and low exposure limit. These
metals were the focus of the field investigations. See the FCI Elkton report referenced in
Section 1.0 for details regarding e-waste hazards.

Exposure monitoring results are compared to the legally enforceable permissible
exposure limits (PELs) and action levels established by OSHA. In addition, non­
mandatory ACGIH TLV sand NIOSH recommended exposure limits (RELs) are also
provided for reference. Personal exposure limits are often based on 8-hour time weighted
average (TWA) exposures and the TWAs are applicable to the exposures discussed in
this report. Table 1 provides exposure limits for lead, cadmium, barium, and beryllium.
PELs, action levels, and TLV s for other hazards can be found in OSHA standards (29
CFR 1910) and the 2009 ACGIH TLVs. [ACGIH 2009]



                                                Table 1 

                                      Occupational Exposure Limits! 


                                               LEAD            CADMIUM              BARIUM           BERYLLIUM
                                                       3                    3                3                  3
                                              (llg/m       )       (llg/m       )   (llg/m       )     (llg/m       )


OSHA PEL                                         50                  5.0              500                2'
OSHA ACTION LEVEL'                               30                  2.5              N/A               N/A
ACGIH TLV (T olal Exposure)                      50                 10.0              500               0.05 4
ACGIH TLV (Respirable Fraction)                 N/A                  2.0              N/A               N/A
NIOSHREL                                         50                  Ca 3             500                0.5
Notes:
         1.   All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
              such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TLV 2009 adoption.
         5. 	 OSHA also has 5 Ilg/m 3 ceiling and 25 Ilg/m 3 peak exposure limits.


6 Given the many variables that may impact air sampling and exposure monitoring, testing data and
findings can vary from one period to the next. Also, the findings, interpretations, conclusions and
recommendations in this report may in part be based on representations by others which have not been
independently verified by FOB.
Exposure standards for noise and heat are discussed in the sections below where results
ofthe investigations are presented.

4.1      Investigations for Exposure to Toxic Metals

Given the various materials and components in e-waste, recycling activities have the
potential to result in worker exposure to toxic metals including, in particular, lead and
cadmium. The magnitude and potential health consequences of exposures are dependent
on a number of factors such as workplace ventilation, work practices, protective
equipment utilized (e.g., respirators, protective clothing, gloves, etc.), duration of
exposures, and others. The FOH report for FCI Elkton should be reviewed for a more
comprehensive discussion ofthe hazardous components found in waste electronics, their
relative toxicities, pertinent regulatory requirements, and other information.

Investigations that included evaluation oftoxic metals exposure during FCI Texarkana's
e-waste recycling operations are discussed below in chronological order ofthe studies.
These investigations were conducted by UNICOR consultants, OSHA, FOH, and
NIOSH/HETAB. As part of the orG investigation both FOH and NIOSH/HETAB
reviewed and evaluated UNICOR consultant reports. Commentary provided on these
reports in Sections 4.1.1 and 4.1.2 consolidates both FOH and NIOSH/HETAB reviews.

4.1.1    UNICOR Consultant Monitoring and Sampling of October 2002

A consulting firm conducted a limited amount of sampling during routine operations at
FCI Texarkana e-waste recycling facilities on October 24, 2002. This sampling included
personal and area exposure monitoring, surface wipe sampling, and bulk dust sampling.
Samples were analyzed for lead and cadmium. This sampling episode would have been
conducted following relocation of the glass breaking area from the dairy bam to the FCI
and prior to the construction ofthe current glass breaking room with LEV systems.
Results are summarized below.

      • 	 Two personal exposure samples showed lead exposure at 23 /lg/m 3 and 9.2 /lg/m 3
          and cadmium at exposure < 2.1 /lg/m 3 . Two area samples showed lead at 8 /lg/m 3
          and 13 /lg/m 3, with cadmium at < 1.7 /lg/m 3 Presumably these samples were
          collected in the glass breaking area, but the location and activity are not clearly
          identified. The lead exposures were below the action level and PEL, but the
          duration ofthe samples was not clear and TWA results were not provided (sample
          volumes were 480 liters). The higher lead result approached the action level if
          this result is an 8-hour TWA, however, the result is likely for a shorter duration.
          The cadmium detection limits were near the action level of2.5 /lg/m 3, which
          limits the data's usefulness to determine whether exposures were low or near
          important levels such as the action level.

      • 	 Six surface wipe samples were collected and analyzed. Surface lead results
          ranged from 8 /lg/sample to 32 /lg/sample. Cadmium ranged from <1 /lg/sample
        to 4.1 /lg/samp1e. Presumably the sampling areas were each 100 cm2 , although
        this is not specified. See Section 4.2 for a discussion of surface contamination
        guidelines and other surface monitoring results.

   • 	 A bulk sample, identified as "CRT Monitor" had a lead concentration of3,810
       mg/kg and cadmium less than the detection limit.

This report was very basic and simply provided sample locations, sample types, and
results. Little discussion of the significance ofthe results was provided. No information
or observations were provided regarding the work practices or hazard controls. No
conclusions were provided regarding the exposures, except the statement that workers
wore respiratory protection; therefore, "the levels detected do not pose an immediate
health threat to personnel working in this operation."

4.1.2   Annual UNICOR Consultant Evaluations of 2004 through 2007

A different consultant conducted annual industrial hygiene evaluations ofFCI Texarkana
e-waste recycling operations in September 2004, May 2005, May 2006, and December
2007. In addition to exposure monitoring and surface sampling, some ofthese studies
included noise and ventilation testing. The usefulness of these studies was limited by a
lack of work practice and hazard control evaluations and lack of substantive
interpretation of results, conclusions, and recommendations. Each of these evaluations is
discussed below.

4.1.2.1 Consultant Evaluation of 2004

In September 2004, the consulting firm conducted an industrial hygiene evaluation.
Personal exposure, area air, and surface wipe samples were collected during glass
breaking and other activities. Samples were analyzed for lead, cadmium, barium, and
beryllium. Results are presented below:

   •    Three personal breathing zone and two area air samples were collected in the
        glass breaking room during GBO. The highest lead exposure was 9.1 /lg/m 3,
        which is less than the PEL of 50 /lg/m 3 and action level of30 /lg/m 3 One ofthe
        personal exposures for cadmium was reported by the consultant to have exceeded
        the PEL and action level. This exposure was 7.4 /lg/m 3, as compared to the PEL
        of 5 /lg/m 3 and action level of2.5 /lg/m3. In reality, this higher cadmium result
        for the three hour sample exceeded the action level but not the PEL when
        calculated as an 8-hour TWA exposure. All other samples were less than the
        cadmium action level.

   • 	 The consultant collected nine wipe samples in the "glass breaking and
       surrounding areas," six of which were from the skin (hands) and clothing of
       inmates working within the glass breaking area. In the narrative report, results are
       reported in "concentrations per square inch," but the report does not define the
       unit of "concentrations." The back-up data summary sheets show the units as /lg,
       but do not define the surface area sampled. The consultant provided no
       discussion ofthe significance of these results.

The consultant reported that one ofthe personal exposures during glass breaking
exceeded the cadmium PEL and action level, but did not provide information regarding
the implications ofthis exposure (in reality this exposure was above the action level but
below the PEL). For instance, actions required under the OSHA cadmium standard to
respond to and reduce this exposure were not discussed, and no recommendations were
made to mitigate exposures. In general, the consultant reported the airborne exposure
results versus the OSHA PELs and action levels, but did not provide any analysis of work
practices or controls and did not offer any recommendations. No analysis of surface
contamination results was provided.

4.1.2.2 Consultant Evaluation of 2005

In May 2005, the same consultant conducted a similar industrial hygiene evaluation as in
September 2004. Results are summarized below.

   • 	 Six personal breathing zone samples were taken in the glass breaking area during
       GBO (three in the morning shift and three in the afternoon shift for breakers and
       feeders). The consultant reported that the highest lead exposure was 9.8 /lg/m 3,
       which was about the same as the highest lead exposure in the September 2004
       monitoring episode. This level is below the lead PEL and action level. The
       highest cadmium personal exposure was 1.4 /lg/m 3 for a two hour sample. These
       exposures appear to be for the duration monitored (i.e., about 2 hours), rather than
       8-hour TWA exposures. The consultant reported that "continued exposure for the
       remainder of an 8-hour shift at this rate would result in an exposure that does not
       exceed the PEL, TLV, or action level."

   • 	 Area air samples taken in disassembly areas showed exposures to be well below
       the lead and cadmium PELs and action levels.

   • 	 Twelve surface wipe samples were collected in the glass breaking and
       surrounding areas. Six ofthese samples were collected from various factory
       surfaces and six were collected from the skin (hands) of inmates in the glass
       breaking area. Surfaces within the factory ranged in lead contamination from
       0.174 /lg/in2 to 3.333 /lg/in2 (25.1 /lg/& to 480 /lg/ft\ Cadmium ranged from
                                                 2
       0.049 /lg/in2 to 0.278 /lg/in2 (7.1 /lg/ft to 40.0 /lg/ft2). The consultant provided
       no interpretation or information regarding the significance ofthese results.

   • 	 One surface wipe sample had detectable beryllium at 0.002 /lg/in2 , which equates
       to about 0.03 /lg/100cm 2 Although detectable, this level is less than the DOE
       Chronic Beryllium Disease Prevention Program (CBDPP) release criteria of 0.2
       /lg/100cm2 Again, the consultant offered no interpretation of this result.
As in 2004, the consultant reported the airborne exposure results versus the OSHA PELs
and action levels, but did not provide any analysis of work practices or controls and did
not offer any recommendations. No analysis of surface contamination results was
provided.

4.1.2.3 Consultant Evaluation of 2006

In May 2006, the same consulting firm that conducted surveys in 2004 and 2005
performed a third industrial hygiene evaluation. This evaluation was more
comprehensive than the previous studies in that in addition to toxic metal airborne and
surface testing, the evaluation included a noise survey, an evaluation of air flow patterns,
and a ventilation survey for the glass breaking area. Results are summarized below.

   • 	 Six personal breathing zone exposure monitoring samples were collected for glass
       breakers and feeders. The highest lead exposure was 17 /lglm 3 for the duration
       sampled (about 2.5 hours), which is less than the lead PEL and action level. The
       consultant reported that two cadmium personal samples for breakers "exceeded
       the current action level for the time frames sampled" (2.9 /lglm 3 and 2.6 /lg/m3
       versus the 2.5 /lg/m3 action level) but that "these samples would not exceed the
       action level as 8-hour TWAs due to the limited work schedules."

   • 	 Area air samples taken outside the glass breaking area on the factory floor where
       disassembly is performed were well below the lead and cadmium PELs and action
       levels.

   • 	 Ten surface wipe samples were collected, six of which were from workers' hands,
       two from areas inside the glass breaking room, and two from areas outside the
       glass breaking room. The narrative report discusses results in units of /lg/cm2,
                                                     2
       while the data table reports results as /lglin The values are not corrected for
       units; therefore, it appears that these data are not properly reported. The
       consultant gave no interpretation regarding the significance ofthese results.

   • 	 The consultant evaluated air flow patterns in the glass breaking area. The
       consultant found that, in general, the air flow direction within the glass breaking
       area was toward the face of one ofthe glass breaking units. The air flow around
       the exterior perimeter (e.g., plastic strip walls) "was generally outward and away
       from the plastic wall ofthe breaking area." The consultant did not provide any
       discussion or interpretation as to the adequacy or inadequacy ofthis condition.
       FOH notes that this result could imply that air flow is out ofthe glass breaking
       room and into the factory at this location. If so, this is not a desirable condition,
       because airborne toxic metals dusts could be released from the glass breaking
       room through the plastic curtain and into the factory area. In the event that glass
       breaking operations resume at FCI Texarkana, UNICOR should further evaluate
       this condition to determine if air flow patterns are acceptable.
   • 	 The consultant also measured face velocities for each of four LEV systems that
       serve the glass breaking operation. The system face velocities were 433 feet per
       minute (fjJm) (feeder ventilation unit outside the glass breaking room), 190 fjJm
       (unit inside the glass breaking room), 133 fjJm (left breaker ventilation unit), and
       83 fjJm (right breaker ventilation unit). The consultant did not provide any
       discussion or interpretation as to the adequacy or inadequacy ofthe individual
       systems or the systems as they operate together.

   • 	 The consultant also performed noise monitoring. The consultant reported that
       some exposures "may" exceed exposure limits established by OSHA. Some
       exposures were above the level that requires the implementation of a hearing
       conservation program, if they are representative of 8-hour TWA exposures. See
       Section 4.4 for a more detailed discussion of the consultant and FOH noise
       surveys.

As in 2004 and 2005, the consultant reported the airborne exposure results versus the
OSHA PELs and action levels, but did not provide any analysis of work practices or
controls and did not offer any recommendations. No analysis of surface contamination
results was provided. Ventilation measurement results were presented, but no
interpretation of the results and no recommendations were provided.

4.1.2.4 Consultant Evaluation of 2007

In December 2007, the same consulting firm performed a fourth industrial hygiene
evaluation. This evaluation included exposure monitoring, surface wipe sampling, and
testing ofthe LEV and ventilation systems. Results are discussed below.

   • 	 Six personal breathing zone exposure monitoring samples were collected for glass
                                                                    3
       breakers and feeders. The highest lead exposure was 20 /lglm for the duration
       sampled (about 2.5 hours), which is less than the lead PEL and action level. The
       highest cadmium exposure was 1.3 /lglm 3 for the duration sampled. As 8-hour
       TWA's, these results were well below the OSHA action levels and PELs. The
       highest lead exposure was comparable to 2006, while the highest cadmium
       exposure was less than half ofthe 2006 exposure.

   • 	 Area air samples taken outside the glass breaking area on the factory floor where
       disassembly is performed were well below the lead and cadmium PELs and action
       levels.

   • 	 Six surface wipe samples were collected from workers' hands and another six
       samples were collected from various areas of the recycling factory. The narrative
       report presents results in micrograms only, without providing a microgram per
       unit of area result that can be compared to surface contamination guidance. This
       requires UNICOR to explore the result tables in the appendices to calculate results
       that it can use. The consultant did report that hand samples collected after hand
       washing showed no detectable lead or cadmium contamination levels. The
       consultant gave no interpretation regarding the significance ofthe area surface
       results.

   • 	 The consultant evaluated air flow patterns in the glass breaking area. As in 2006,
       the consultant found that, in general, the air flow direction within the glass
       breaking area was toward the face of one ofthe glass breaking units. The air flow
       around the exterior perimeter (e.g., plastic strip walls) "was generally outward and
       away from the plastic wall of the breaking area." The consultant did not provide
       any discussion or interpretation as to the adequacy or inadequacy of this
       condition. FOH notes that this result could imply that air flow was out of the
       glass breaking room, through the plastic curtains, and into the factory at this
       location. If so, this was not a desirable condition, because airborne toxic metals
       dusts could have been be released from the glass breaking room through the
       plastic curtain and into the factory area. In the event that glass breaking
       operations resume at FCI Texarkana, UNICOR should further evaluate this
       condition to determine if air flow patterns are acceptable.

   • 	 The consultant also measured face velocities for each of four LEV systems that
       serve the GBO. The system face velocities were 543 feet per minute (fjJm)
       (feeder ventilation unit outside the glass breaking room), 208 fjJm (unit inside the
       glass breaking room), 165 fjJm (left breaker ventilation unit), and 95 fjJm (right
       breaker ventilation unit). The consultant did not provide any discussion or
       interpretation as to the adequacy or inadequacy of the individual systems or the
       systems as they operate together.

As in previous reports, the consultant reported the airborne exposure results versus the
OSHA PELs and action levels, but did not provide any analysis of work practices or
controls and did not offer any substantive recommendations. No analysis of area surface
contamination results was provided. Ventilation measurement results were presented, but
no interpretation ofthe results and no recommendations were provided.

4.1.2.5 Consultant Evaluation of 2009

On April 27-29, 2009, a UNICOR consultant performed air monitoring, surface testing,
and ventilation testing at the FCI disassembly factory. On June 22, 2009, the consultant
performed similar evaluations at the camp disassembly factory. The purpose ofthe air
monitoring was to evaluate worker exposures to lead, cadmium, and beryllium during the
recycling operations underway at the time. This evaluation was conducted as part of
UNICOR's annual monitoring program implemented in 2009 for its factories. This
monitoring did not include glass breaking, because all GBO at UNICOR factories was
suspended in June 2009.

At the FCI, a total of nine personal air samples were collected on workers involved with
various e-waste operations including metal recovery (copper and aluminum), sorting,
disassembly, sweeping, and baling. At the camp, a total of eight area and personal air
samples were collected from locations inside and outside the former glass breaking booth
and on persons working in the sorting area, at disassembly tables, and in the CPU
handling area. For both the FCI and the camp, the consultant' s reports stated that all
measured lead, cadmium, and beryllium air concentrations were well below allowable
OSHA limits.

The UNICOR consultant also tested the air ventilation systems during the site visits. The
consultant reported that both the FCI and camp factories used only exhaust fans and open
doors to ventilate the areas. The consultant provided air flow measurements for the
various exhaust fans being utilized. No conclusions or recommendations concerning the
ventilation testing were provided.

Based on the evaluations performed, the consultant recommended that several types of
disposable dust masks (N-95 or better) be made available to workers based on their
personal preference and that Appendix D ofthe OSHA Respiratory Protection standard
be provided to the workers voluntarily using the masks. The consultant further
recommended that use of the masks should not be made mandatory and advised that the
results of his testing be communicated to the workers monitored within 15 days of
receipt.

The consultant also performed surface wipe and bulk dust sampling in areas where e­
waste recycling is conducted. At the FCI factory, 21 samples were collected of which
five recorded surface lead levels higher than the OSHA guidance level of 200 /lg/if for
clean areas. Ofthese five samples, ranging from 266 to 2,961 /lglft2, four were collected
from work surfaces (tables and floors) while the fifth sample was from overhead
mechanical surfaces (lights, beams, ductwork). At the camp factory, 20 samples were
collected, of which three samples exceeded the OSHA guidance level for lead of 200
/lglif for clean areas. The three samples ranged from 409 to 1,003 /lglft2 One was from
a work surface ("glass breaking booth floor"), while the other two were from elevated
surfaces ("light above former glass breaking booth" and "beam above glass breaking
booth"). For both factories, all cadmium and beryllium wipe sample levels were reported
to be below EPA residential (non-workplace) guidance levels.

In addition to providing the testing results, the consultant's reports indicated that dry
sweeping in the disassembly factories must be limited to the collection oflarger parts and
that floors need to then be HEPA vacuumed and mopped. Similarly, the reports stated
that workstations (e.g., where computers/monitors and similar items are disassembled)
need to be HEP A vacuumed and/or wet wiped more frequently. The camp report also
provided the recommendation to clean the floor in the former glass breaking area "one
more time." No recommendations were provided dealing with the contaruination on the
elevated surfaces.

The consultant did not document PPE or work practices in the reports. In addition,
temperatures during the June evaluation were elevated, but the potential for heat exposure
was not addressed. The consultant did conduct noise monitoring and these results are
reported in Section 4.4.
4.1.2.6 Summary of Annual Consultant Evaluations-2004 through 2009

In summary, the annual UNICOR consultant industrial hygiene evaluations conducted in
2004,2005,2006 and 2007 provided important exposure monitoring data for the FCI
Texarkana recycling operations. However, the usefulness ofthese evaluations was
limited by the lack of analysis and discussion of work practices and hazard controls,
along with the lack of conclusions and recommendations. Discussion ofthe significance
of surface contamination and ventilation results is particularly lacking. NIOSH/HETAB
characterized these evaluations as consisting of "a boilerplate letter with several
appendices containing sampling data" (see Attachment 3). In addition, the consultant did
not monitor non-routine activities (e.g., filter changes, among others).

The 2009 consultant reports did provide certain conclusions and recommendations which
was an improvement over previous evaluations. However, the report did not provide an
interpretation of the ventilation measurements, did not address the potential heat exposure
condition in June, and did not fully document work practices and controls as stated in the
purposes of his report.

UNICOR should ensure that as part of exposure monitoring episodes, its consultants also
evaluate and report on work practices and hazard controls and provide appropriate
conclusions and recommendations related to its findings. Non-routine activities should
also be monitored.

4.1.3   OSHA Inspection of 2006

On December 14, 2006, OSHA performed air sampling for toxic metals at FCI
Texarkana's recycling facilities. OSHA tested for 14 metals including cadmium, lead,
barium, and beryllium. Personal samples for two glass breakers, a feeder, and a
"teardown" (disassembly) worker were collected. All were reported as "ND" (not
detectable). Results for individual metals were not reported, but presumably all 14
metals were ND.

Two surface samples were collected from a soft drink machine and snack machine. All
metals tested were ND.

FOH notes that results from the UNICOR consultant monitoring of2004, 2005, and 2006
showed detectable levels for lead and cadmium during glass breaking. For instance,
cadmium in May 2006 was found by the consultant to be as high as 2.9 /lglm 3 for the
duration sampled, and lead was as high as 17 /lglm 3 for the duration sampled. The
OSHA report did not specify the detection limit for its sampling.

OSHA noted that glass breakers were protected with disposable coveralls, PAPRs, gloves
and booties. Feeders wore disposable coveralls, work gloves, safety glasses, and
particulate masks. Disassembly workers wore safety glasses, work gloves, ear plugs, and
aprons, and some wore disposable particulate respirators voluntarily.
4.1.4   FOH Observations during the 2006 OSHA Inspection

FOH investigators accompanied OSHA during the December 2006 OSHA inspection.
FOH observed OSHA inspectors as they performed their inspections, and participated in
OSHA's entrance/exit briefings and other meetings. FOH also performed on-site
inspections, interviews, and document reviews, independent of OSHA activities. FOH
observations regarding work activities during its December site visit and the OSHA
inspection included the following:

   • 	 CRTs were processed (broken) at a rate of about one every 1.5 to 2 minutes.

   • 	 The OSHA inspection did not include non-routine activities such as
       cleaning/replacing LEV HEPA filters or cleaning debris from accidentally broken
       CRTs.

   • 	 In and around the glass breaking area, dry sweeping occurred throughout the shift
       to keep any dust/debris from accumulating. Overall, the GBO appeared to be
       very clean and the LEV system seemed to be effective. Dry sweeping is
       specifically prohibited by OSHA lead and cadmium standards and resulted in an
       OSHA violation at FCI Lewisburg. OSHA did not issue such a violation at FCI
       Texarkana.

   • 	 At the end ofthe shift, HEPA vacuuming and wet mopping were carefully
       conducted. Water from wet mopping was dumped down the drain. Inmate
       workers sprayed and HEPA vacuumed containers as they were removed from the
       glass breaking area.

   • 	 Inmate workers discarded Tyvek® coveralls, but continued to wear their issued
       clothing that were underneath the Tyvek® coveralls. No special laundering was
       performed.

   • 	 Biological monitoring records were provided to OSHA, with identifiers redacted
       by the medical administrator. Testing is performed initially, annually, and upon
       discharge.

   • 	 FOH reported that hearing protection is required in factory areas, but that all
       elements of a hearing conservation program are not in place, specifically signage
       and a monitoring program including noise dosimetry. During the inspection,
       OSHA verbally suggested completing a noise dosimetry study. A more complete
       noise survey was conducted by a UNICOR consultant in 2007. [Note: As
       discussed in Section 3.2, UNICOR at FCI Texarkana has implemented key
       elements of a hearing conservation program, although improvements can be
       made.]

FOH followed up this site visit with a site evaluation in March 2007. Results for that
study are provided in Section 4.2.2.
4.1.5   NIOSH/HETAB Exposure Assessment

As part of its evaluation ofthe FCI Texarkana medical surveillance program (see Section
4.3), NIOSH/HETAB conducted an exposure assessment ofUNICOR's e-waste
recycling operations on July 16, 2008. A total of eight personal breathing zone samples
were collected during both morning and afternoon glass breaking shifts. Monitoring was
performed for breakers and feeders. Five area samples were collected; one inside the
glass breaking room, one in the change area, and the others in various areas outside the
glass breaking room. In addition, 15 surface wipe and hand wipe samples were collected.
All samples were analyzed for lead and cadmium. Results are summarized below and
presented in detail in the NIOSH/HETAB report in Attachment 3.

   • 	 Personal breathing zone samples for breakers and feeders collected during the
       morning and afternoon shifts were well-below the OSHA action levels and PELs
       for lead and cadmium. Cadmium exposures for breakers ranged from 0.59 /lg!m 3
       to 1.7 /lg/m3 for the duration of exposure. Lead exposures for breakers ranged
       from 3.9 /lg!m 3 to 7.0 /lg!m 3 for the duration of exposure. As 8-hour TWAs, these
       exposures would be about 2.5 to 3.5 times lower than the values reported. Feeder
       exposures were less than breakers with all but one found at "trace" levels, which
       is detectable but less than the minimum quantifiable concentration.

   • 	 Two area air samples collected outside the glass breaking room during glass
       breaking were below the minimum detectable concentration for both lead and
                                                                      3
       cadmium. A sample in the forklift traffic area was 0.13 /lg!m for cadmium and
       1.8 /lg!m 3 for lead. A sample in the change area was 0.25 /lg!m 3 for cadmium and
       1.5 /lfm3 for lead. One area air sample taken on top of an air handler was 0.24
                                      3
       /lg!m cadmium and 1.5 /lg!m lead. These area samples are well below the
       OSHA action levels and PELs.

   • 	 A wipe sample from a locker in the change area had lead at 59 /lg/100cm2 (about
       550 /lg!&). A change-out table in this area had comparable lead levels. Another
                                            2
       locker wipe had lead at 31 /lg!100cm (about 290 /lg!ft2). These levels are above
       the OSHA guideline for clean areas of200 /lg/& and indicate that some lead was
       being transported from the glass breaking area.

   • 	 Wipe samples collected from the floor in and near the forklift traffic areas where
       Gaylord boxes are removed from the glass breaking area were as high as 90
       /lg!100cm2 (about 830 /lg!&). This indicates that some contamination was being
       carried out ofthe glass breaking room despite work practice controls that were
       implemented to prevent/reduce this carry out (see Attachment 3 for details).

   • 	 Hand wipe samples collected at the end ofthe shift after hand washing suggested
       that hand washing removes most, but not all contaminants. Glass breakers should
       be encouraged to wash hands thoroughly to remove contamination.

[Note: See Attachment 3 for additional surface wipe sample results and discussion.]
As part of its study, NIOSH/HETAB also evaluated past industrial hygiene exposure
monitoring and surface sampling conducted by UNICOR consultants, OSHA, and FOH.
These studies were the same as those discussed in Sections 4.1, above and 4.2, below.
NIOSH/HETAB's analyses of the consultant studies are consistent with the FOH review,
and results from both reviews are provided in Section 4.1 of this report. See Attachment
3 for further information regarding NIOSH/HETAB findings for past studies.

NIOSH/HETAB reported on the engineering controls put in place at FCI Texarkana to
control lead and cadmium emissions. Two LEV systems controlled dust emissions at the
panel and funnel glass breaking stations. These were stand-alone HEP A filtered
ventilation units. Plastic strip curtains provided a partial barrier between the worker and
the CRT where it was broken. Two additional HEP A ventilation units provided general
air filtration to remove dust from the glass breaking room. In 2007, air conditioning units
were installed in the glass breaking room, and four exhaust fans were installed on
opposite walls on the factory, outside the glass breaking room. Pre-filters installed in the
HEPA units were changed weekly. Each unit's HEPA filter was changed annually by
inmates wearing PPE. This process involved removing the pre-filter, HEPA vacuuming
accessible surfaces, removing the HEPA filter, and sliding the filter into a plastic bag
which was then double-bagged for disposal. Based on a review of all UNICOR
consultant reports, the filter change-out activities have never been monitored at FCI
Texarkana for lead and cadmium exposures. [Note: As noted by NIOSH/DART in
reports for other UNICOR factories, the frequency of filter change-outs should be based
on pressure drop across the filters rather than on an arbitrary schedule.]

PPE for breakers and feeders included hearing protection, Tyvek® suits, Kevlar®
sleeves, Kevlar® gloves, and steel-toe footwear. In addition, glass breakers wore PAPRs
with HEP A filters. Feeders remained outside of the glass breaking room and did not
wear PAPRs, but wore safety glasses for eye protection instead of the PAPR face shield.

Workers donned PPE in the change-out area. At the end of the shift, workers removed
their PPE in this same area. At the time ofNIOSH/HETAB's site visits workers stored
PAPRs and other PPE in a single locker. After NIOSH/HETAB's July 2008 site visit,
new lockers were installed so that workers could store PAPRs separately from other PPE
to reduce the opportunity for residual dusts from gloves and other PPE to contaminate
PAPRs.

NIOSH/HETAB recommended improvements to the change room, PPE practices, and
decontamination processes. Specifically, NIOSH/HETAB recommended that separate
storage be provided for non-work uniforms and GBO work apparel/PPE. All potentially
contaminated work clothing and PPE should remain in the "dirty" chamber ofthe change
room and non-work clothing should not come in contact with work items. Workers
should be required to wash their hands and any exposed skin after doffing PPE and
before putting on uniforms when exiting the GBO. Work clothes and PPE should never
be worn outside the GBO. Laundry personnel should be made aware of the potential
exposure to lead and cadmium from work clothes and take action to minimize exposure
to themselves.

NIOSH/HETAB concluded in its summary of its exposure assessment for FCI Texarkana
recycling operations as conducted in July 2008, that air samples were well below the
OSHA action levels and PELs for lead and cadmium. NIOSH/HETAB further concluded
that the low airborne concentrations indicated that the HEPA units (i.e., LEV systems in
the glass breaking room) were effective at removing cadmium and lead dusts at the point
of generation and therefore prevented the dusts from entering workers' breathing zones.
Nevertheless, surface contamination deposited in the glass breaking room indicated that
contaminated dusts escaped capture by the LEV systems in sufficient quantities to build
up on surfaces (see Section 4.2.2). Based on surface wipe sampling, NIOSH/HETAB
also concluded that despite existing work practice controls, some levels of lead and
cadmium contamination were being carried out ofthe glass breaking room. Hand wipe
results indicated the need for rigorous hand washing practices. These findings emphasize
the continued importance of vigilant personal hygiene, housekeeping, and cleaning
practices, as well as improved work practices to limit carry-out of contamination.

[Note: See Section 4.3 for results ofthe NIOSH/HETAB evaluation of the medical
surveillance program, as well as conclusions regarding exposures from operations
conducted prior to 2004.]

4.2      Surface Wipe and Bulk Dust Sample Results

As part ofthe OIG investigation, FOH conducted bulk dust and surface wipe sampling at
FCI Texarkana in areas where e-waste recycling is performed. Samples were analyzed
for total lead, cadmium, and other toxic metals. In addition, some bulk dust samples
were analyzed using the Toxic Characteristic Leaching Procedure (TCLP) to determine
whether contamination should be treated as hazardous waste. Available guidance to
evaluate surface sample results are discussed below in Section 4.2.1. Results for the
surface wipe, bulk dust and TCLP samples are discussed in Section 4.2.2, below.

4.2.1    Guidance for Evaluating Surface Samples

Federal standards or other definitive criteria have not been developed for acceptable
levels of lead or cadmium surface contamination or dust concentrations in industrial areas
where activities are performed involving lead and/or cadmium bearing materials.
However, several recommendations or guidelines, primarily for lead, provide points of
reference to subjectively evaluate the significance of surface contamination. Some
guidelines are available and are noted below (see the NIOSH/DART Elkton report for a
more detailed discussion of guidelines):

      • 	 OSHA's Directorate of Compliance Programs indicated that the requirements of
          OSHA's standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
          can be summarized and/or interpreted as follows: all surfaces shall be maintained
          as 'free as practicable' of accumulations oflead; the employer shall provide clean
   change areas for employees whose airborne exposure to lead is above the PEL;
   and the employer shall assure that lunchroom facilities or eating areas are as free
   as practicable from lead contamination. The OSHA Compliance Directive for
   the Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of
   the Department of Housing and Urban Development's (HUD) initially proposed
   decontamination guideline of 200 Ilg/ft2 for floors in evaluating the cleanliness of
   change areas, storage facilities, and lunchrooms/eating areas. In situations where
   employees are in direct contact with lead-contaminated surfaces, such as working
   surfaces or floors in change rooms, storage facilities, and lunchroom and eating
   facilities, OSHA has stated that the Agency would not expect surfaces to be any
   cleaner than the 200 Ilglif level.

• 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
    are actively processed), OSHA has indicated that no specific level can be set to
    define how no "clean is clean" or what level oflead contamination meets the
    definition of "practicable." Specifically addressing contaminated surfaces on
    rafters, OSHA has indicated that they must be cleaned (or alternative methods
    used such as sealing the lead in place), as necessary to mitigate lead exposures.
    OSHA has indicated that the intent ofthis provision is to ensure that employers
    regularly clean and conduct housekeeping activities to prevent avoidable lead
    exposure, such as would potentially be caused by re-entrained lead dust. Overall,
    the intent ofthe "as-free-as-practicable" requirement is to ensure that
    accumulation of lead dust does not become a source of employee lead exposures.
    OSHA [29 CFR, Part 1910.1025] has stated that any method that achieves this
    end is acceptable.

• 	 Lange [2001] proposed a clearance level of 1,000 Ilg/ft2 for floors of non-lead
    free commercial buildings and 1,100 Ilglft2 for lead-free buildings. These
    proposed clearance levels are based on calculations that make a number of
    intentionally conservative assumptions.

• 	 HUD [24 CFR 35] has established clearance levels for lead on surfaces after lead
    abatement. These levels range from 40 to 800 Ilglft2, depending on the type of
    surface. The level of200 Ilglft2 is most commonly used. These levels, however,
    apply to occupied living areas where children reside, and are not intended for
    industrial operations.

• 	 Regarding lead in bulk dust or soil samples, the U.S. EPA [EPA n.d.] has
    proposed standards for residential soil-lead levels. The proposed level of concern
    requiring some degree ofrisk reduction is 400 ppm (mg/kg), and the proposed
    level requiring permanent abatement is 2,000 ppm (mg/kg). Again these levels
    are for residential settings, rather than for industrial settings.

• 	 There is no quantitative guidance for surface cadmium concentrations. OSHA [40
    CFR 745.65]states that surfaces shall be as free as practicable of accumulations of
    cadmium, all spills and sudden releases of cadmium material shall be cleaned as
        soon as possible, and that surfaces contaminated with cadmium shall be cleaned
        by vacuuming or other methods that minimize the likelihood of cadmium
        becoming airborne.

The discussion regarding surface wipe and bulk dust sample results is presented below in
context of these available recommendations and guidelines.

4.2.2   FOH Surface Wipe, Bulk Dust, and TCLP Results

During its March 2007 field investigation, FOH collected surface wipe and bulk dust
samples from various locations in the FCI Texarkana recycling facilities both inside the
glass breaking room and in the general factory and associated areas. Samples were
analyzed for lead and cadmium. Bulk samples were either analyzed for total lead and
cadmium or extractable TCLP lead and cadmium for comparison to hazardous waste
disposal criteria. Summary results for these samples are presented below (see
Attachments 2a and 2b for complete results).

   • 	 Seven surface wipe samples were collected from various locations inside the glass
       breaking room. Five of the samples were from horizontal surfaces, such as the
       top of air handling units (AHUs) and tables. These samples ranged from 2,000
       /lglif to 17,000 /lglfr. The two highest samples were from grooves at the back of
       the AHUs. Cadmium ranged from 220 /lglft to 2,700 /lg/ft2 for these samples.
       The other two samples were from horizontal plastic strips/sheeting and had lead
       concentrations of 50 /lg/ft2 and 220 /lglfr. The five horizontal surface levels are
       elevated but are contained within the glass breaking room. The data indicate,
       however, that lead and cadmium emissions occurring from the GBO were not
       completely captured by the AHUs (LEV systems). The data also confirm the
       importance of continued and vigilant cleaning ofthis area and the importance of
       controlling any potential for carry-out of contamination.

   • 	 Seven surface samples were collected from lockers. These samples ranged from
       170 /lglif to 480 /lg/ft2 for lead and from 7 /lglft2 to 40 /lg/ft2 for cadmium. Five
       ofthe six samples were above the OSHA lead guideline for clean areas of 200
       /lglif and one sample was at this level. These results are comparable to locker
       surface wipe results found by NIOSH/HETAB (see Section 4.1.5). The results
       indicate that some contamination was being carried out from the glass breaking
       room.

   • 	 A surface wipe sample collected from a lift that carries Gaylord boxes into the
       glass breaking room was at 3,900 /lglft2 1ead. This shows elevated contamination
       levels. It is consistent with forklift area samples collected by NIOSH/HETAB
       that showed some contamination is being carried out ofthe glass breaking room.
       This sample emphasizes the need to clean materials and equipment leaving the
       glass breaking room.
• 	 Two floor samples outside the glass breaking room had lead at levels of 13 /lg/ft2
    and 27 /lg/ft2 and cadmium at 1 /lg/ft2 These levels are well below the OSHA
    lead guideline for clean areas of 200 /lg/&. A sample outside the glass breaking
    room on top of a heating, ventilating, and air conditioning (HVAC) system had
    lead at 480 /lg/ft2 and cadmium at 70 /lg/ft2 This sample indicates that elevated
    surfaces outside the glass breaking room are subject to build up of contamination
    because they are not subj ect to the same cleaning regimen as areas such as floors
    and work surfaces.

• 	 Two bulk samples (split samples) were collected from a cable box near the former
    glass breaking area in the basement of the UNICOR factory in the FCr. These
    samples had elevated levels oflead (over 3,000 mg/kg) and cadmium (over 7,000
    mg/kg). Although this dust was contained within the box, these results indicate
    significant release of contamination from former GBO. A tunnel exists in this
    area that runs from the FCI basement to the power plant. Based on the above
    samples, this and other nearby areas could also be contaminated. The FCI Safety
    Specialist believed that this area was cleaned; however, UNICOR should evaluate
    the extent of contamination in these areas and take any necessary actions for
    further clean-up or remediation, based on results.

• 	 A bulk sample of dry sweepings of material around disassembly areas showed
    lead at 2,000 mglkg and cadmium at 160 mg/kg. These levels are significant
    enough that UNICOR should determine proper disposal methods for this material
    per TCLP testing. Dry sweeping should be avoided to prevent creating an
    airborne hazard. Improved cleaning and housekeeping practices should be
    implemented.

• 	 Four bulk and two liquid samples were collected for TCLP analysis to determine
    proper disposal status versus U.S. EPA RCRA regulations for hazardous waste
    (see Table 2 for TCLP criteria). A glove, a waste glass box sample, and two mop
    rinse water samples were found to contain extractable lead and cadmium at levels
    below the TCLP criteria shown in Table 2.

                                      Table 2
                   Maximum Concentration of Selected Contaminants
                         for the Toxicity Characteristic!

                   Contaminant             TCLP Regnlatory Level
                       Arsenic                     5.0 mg/L
                       Barium                     100.0 mg/L
                      Cadmium                      1.0 mg/L
                     Chromium                      5.0 mg/L
                        Lead                       5.0 mg/L
                      Mercury                      0.2 mg/L
            [40 CFR261.24].
   • 	 Two samples from boxes under the AHUs showed differing results. The funnel
       glass box was less than the TCLP criteria for lead and cadmium, but the panel
       glass box showed lead at 55 mg/L which is 11 times greater than the lead TCLP
       criteria, while cadmium was not detectable. It is unclear whether the type of glass
       is the cause of this difference.

FOH surface wipe testing indicates that lead and cadmium contamination was released
inside the glass breaking room and contaminants accumulated on elevated surfaces.
Although the LEV system appeared to be effective in maintaining airborne personal
exposures below the OSHA PEL and action levels, it did not capture all emissions and
surface dust accumulations resulted. This contamination is generally contained within
the glass breaking room, but vigilant cleaning and housekeeping is required to keep levels
in check. FOH surface wipe data in locker areas, on lifts, and on other surfaces outside
the containment area also support the NIOSH/HETAB conclusion that some carry out of
contamination occurred despite work practices that were put in place to limit this event
(see Section 4.1.5 and Attachment 3 for NIOSH/HETAB findings).

UNICOR and FCI Texarkana should implement an operations and maintenance (O&M)
plan to limit contact with existing lead and cadmium contamination, limit its
accumulation (especially ifthe GBO is resumed), prevent and/or control any releases of
the contamination to the air, and generally prevent potential for inhalation and ingestion
(i.e., hand-to-mouth contact) exposure. Further surface testing should be periodically
conducted to ensure that surface contamination levels do not increase over time, and to
take preventive and corrective action should levels start to build up. With proper controls
established, this O&M plan could include periodic clean-up of surfaces not subject to
routine cleaning by inmate or other workers. Elements of an O&M plan are discussed in
Section 6.0, Recommendations.

Should UNICOR permanently discontinue GBO at FCI Texarkana, the glass breaking
room and LEV systems should be fully decontaminated and decommissioned in a manner
that ensures control ofthe lead and cadmium hazards. Any decommissioning of the glass
breaking room and LEV systems should be preceded by additional thorough
cleaning/remediation followed by surface wipe testing to verify surfaces are adequately
free of contamination. These processes should be conducted using appropriate hazard
control and verification measures (see Section 6.0 for more information regarding
necessary steps for system decommissioning).

UNICOR should conduct surface wipe and bulk dust sampling to also evaluate
contamination levels in the areas in and around the former glass breaking area that did
not have the level of engineering and other hazard controls used in the current glass
breaking room. This includes the old dairy bam and the tunnel running from the FCI
basement to the power plant, even though the Safety Specialist thought the latter area had
been cleaned. Clean-up, remediation, O&M, and other appropriate hazard control
measures should be implemented based on results.
4.3      Assessment of the Medical Surveillance Program

As part ofthe DOJ/OIG investigation, NIOSH/HETAB assessed the existing medical
surveillance program for inmates and staff exposed to lead and cadmium during e-waste
recycling at FCI Texarkana. NIOSH/HETAB conducted a site visit in July 2008 to
conduct this assessment. Results are summarized below and are presented in detail in the
NIOSH/HETAB report provided in Attachment 3.

      • 	 Medical surveillance began in late 2003 for inmates performing GBO (about two
          years after the initiation of GBO). It is performed annually by the FCI clinic and
          consists oflimited biological monitoring, a medical and occupational history
          questionnaire, and respirator clearance. Biological monitoring consists of blood
          lead levels (BLL), blood cadmium (CdB), urine cadmium (CdU), urine beta-2­
          microglobulin (B-2-M), and zinc protoporphyrin (ZPP). Preplacement testing is
          performed on inmates prior to being cleared for glass breaking work, with the
          exception of those already breaking glass when surveillance began.

      • 	 Preplacement BLLs for 13 inmates who performed glass breaking ranged from
          1.1 to 5.0 micrograms per deciliter (/lgldL) with one below the limit of detection
          (LOD). Ofthe 17 periodic or termination BLLs, eight were below the LOD and
          the other nine ranged from 1.2 to 2.4 /lg/dL. One inmate who worked in the GBO
          since 2001 had a BLL below the LOD in March 2004. Another had a BLL of 5
          /lgidL in August 2002 which reflects exposure prior to the installation ofthe
          current glass breaking room with LEV which was implemented in May 2004.

      • 	 Of24 preplacement CdB tests, 18 were below the LOD and the remainder ranged
          from 1.1 to 6.6 /lgiL. Two inmates with the highest levels were not cleared to
          perform glass breaking. Of28 periodic or termination CdB tests, 23 were less
          than the LOD and the remainder ranged from 0.5 to 2.5 /lgiL. Two inmates (both
          smokers) who performed glass breaking since 2001 had CdB levels of 1. 8 /lgiL
          and 2.5 /lgiL. Another (a non-smoker who had stopped breaking and then
          restarted) had a CdB level that was less than the LOD. NIOSH/HETAB cannot
          determine ifthe higher levels were due to smoking which is known to increase
          CdB levels. For the inmates as a whole, smokers had on average higher CdB
          levels than non-smokers.

      • 	 Of24 pre-placement CdU tests, the 10 above the LOD ranged from 0.29 to 2.2
          micrograms per gram of creatine (/lglglCr). Of20 periodic or termination CdU
          results, the five above the LOD ranged from 0.3 to 1.3 /lglglCr. The half-life of
          cadmium in urine is years to decades; therefore, the results indicate exposure over
          time. Of the three inmates who performed glass breaking since 2001, the highest
          result was 0.61 /lglglCr. OSHA defines acceptable CdU as less than 3 /lglgICr.

      • 	 All 38 urinary B-2-Ms and all 26 ZPPs were normal.
   • 	 One inmate claimed to have been removed from glass breaking due to abnormal
       test results. In late 2003, his CdB was 6.2 /lglL, CdU and B-2-M were below the
       LOD, and BLL was 4 /lg/dL. OSHA defines acceptable CdB as less than 5 /lg/L.
       His chart noted that tests were to be repeated in six weeks, but this was not done.
       NIOSH/HETAB noted that it was unclear whether the tests represent significant
       exposure to cadmium or laboratory error, given the elevated CdB result, but low
       CdU result. After the NIOSH/HETAB site visit, retests ofthis inmate showed
       that CdB was 1.0 /lgiL and CdU 0.8 was /lglgICr.

   • 	 Questionnaires from 41 inmates revealed no medical complaints that could be
       related to recycling. Medical records for two inmates reported to have serious
       medical problems secondary to work in recycling were reviewed. Causes for their
       medical problems were not related to recycling.

   • 	 Medical surveillance is performed for UNICOR staff by their private physicians
       so their exams are not standardized. Biological monitoring results for staff were
       unremarkable. Two initial or annual questionnaires reviewed did not note any
       medical complaints that could be related to recycling work.

Overall, NIOSH/HETAB found that the results of biological monitoring for both staff
and inmates were generally unremarkable. However, medical staff should follow up on
any abnormal test results in a timely manner. Any abnormal test result that is unexpected
should be repeated. The elevated pre-placement CdB results for more than one inmate
are examples of abnormal tests that should be repeated. If follow up results remain
abnormal, then a cause should be determined.

NIOSH/HETAB concluded that recycling at FCI Texarkana was performed from late
2001 to May 2004 without appropriate engineering controls, respiratory protection,
medical surveillance, and industrial hygiene monitoring. Sparse biological monitoring
and industrial hygiene data during this period precludes quantification of exposures to
lead and cadmium. The glass breaking room in use immediately prior to suspension of
GBO (with LEV system and other hazard controls) was considered a significant
improvement with respect to controlling worker exposure to lead and cadmium.

According to NIOSH/HETAB, since May 2004, employee exposures have been
sufficiently low that OSHA-mandated medical surveillance has not been required. Based
on existing records and current operations, medical surveillance can be discontinued for
inmates and staff performing glass breaking (should GBO be resumed), disassembly, and
other recycling operations. At UNICOR's discretion, it can continue the limited
biological monitoring that is currently in place as an additional safeguard against
excessive exposure, and as a reassurance to staff and inmates.

NIOSH/HETAB also provided recommendations to improve worker protection practices
for staff and inmates. Among others, these recommendations included an ongoing
environmental and exposure monitoring program, continued use of PAPRs for glass
breaking, cleaning and housekeeping improvements, hygiene improvements, PPE use and
storage improvements, and job hazard analysis implementation. See Attachment 3;
Section 4.1.5, NIOSH/HETAB Exposure Assessment; Section 5.0, Conclusions; and
Section 6.0, Recommendations for further information on the NIOSH/HETAB medical
surveillance evaluation and exposure assessment study.

4.4      Investigations for Noise Exposure

For this report, FOH reviewed noise monitoring measurements taken by a UNICOR
consultant in May 2006, another UNICOR consultant in February 2007, and another in
2009. In addition, as part ofthe orG investigation, FOH conducted a limited amount of
noise monitoring during its site visit of March 2007. Results ofthese studies are
presented in this section.

In May 2006, a UNICOR consultant collected area sound level measurements in various
inside and outside locations ofthe FCI Texarkana recycling facility. Measurements were
taken with a sound level meter and were "instantaneous" area measurements and did not
represent personal exposure dosimetry (i.e., 8-hour TWA results). Of the 15
measurements reported (not including peak impact levels), three were above 85 dBA
which is the 8-hour TWA exposure at which OSHA requires implementation of a hearing
conservation program. This program includes audiometric testing, hearing protection,
training, and other protective measures such as engineering or administrative controls
when exposures exceed 90 dBA. The three activities with levels above 85 dBA included
"inside UNICOR downstairs monitor sanding," "inside UNICOR upstairs pallet assembly
area," and "outside UNICOR breaker station." Overall, the consultant found that "based
on this data, personal exposure in some parts of the facility may exceed the exposure
limits established by OSHA." The consultant offered no recommendations to address
these findings, but did state that OSHA required a hearing conservation program when
exposures equal or exceed 85 dBA as an 8-hour TWA.

In February 2007, another UNICOR consultant performed a noise assessment to profile
noise exposures throughout the UNICOR recycling factory. Again, sound level
measurements were taken rather than personal noise dosimetry. Results are summarized
below.

      • 	 In the "Camp Recycling Warehouse," the glass booth and the component
          disassembly area were reported to be "borderline hazardous" for noise. The
          consultant stated that personnel in both ofthese areas need to be enrolled into the
          facility's hearing conservation program. The consultant also recommended
          implementation of acoustic engineering controls, but if not feasible, then hearing
          protection should be utilized.

      • 	 In the "Camp Compactor Shed," the immediate area around the baler was
          reported to be "noise hazardous" while the baler(s) are in operation, and the
          personnel assigned to this area "must" be enrolled in the facility ' s hearing
          conservation program. Again, acoustic engineering controls were recommended,
          but if not feasible, then hearing protection should be utilized.
   • 	 In the "Industrial Building," the entire west half of the building encompassing the
       pallet manufacturing, electronic demanufacturing, and the copper stripping areas
       was reported to be "noise hazardous" when pallet manufacturing is in process.
       The consultant stated that personnel in this area "must" be enrolled into the
       facility's hearing conservation program. Again, acoustic engineering controls
       were recommended, but if not feasible, then hearing protection should be utilized.
       Also in this building, similar findings and recommendations were reported for the
       compactor baler area west of the loading dock when the balers are in operation.

In summary, the consultant found various operations and work areas that require worker
protection in accordance with the OSHA noise standard, 29 CFR 1910.95, Occupational
noise exposure. Protective measures involve the implementation of a hearing
conservation program for exposed workers that includes such elements as audiometric
testing, training, hearing protection, monitoring program, and record keeping. The
consultant recommended enrollment in a hearing conservation program, along with other
controls, but did not discuss the current status of such requirements.

In March 2007, FOH conducted a limited noise survey of the GBO at FCI Texarkana.
Four personal noise dosimetry samples were collected, two for breakers working inside
the containment area and two for feeders working outside the containment area. The two
breakers inside the containment area had noise exposures at about 87 dBA as an 8-TWA,
while the two feeders were at about 73 dBA and 74 dBA. The breaker exposures were
above the OSHA action level for noise. These data are consistent with that found by the
UNICOR consultant in February 2007.

In April 2009 as part ofUNICOR's annual monitoring program, a UNICOR consultant
conducted personal noise dosimetry to evaluate noise exposures during various e-waste
recycling operations taking place at the FCI Texarkana Prison disassembly factory. A
similar evaluation was performed by the consultant at the Camp e-waste disassembly
factory in June 2009.

At the FCI factory, noise doses were obtained from six workers involved in various
activities judged to have the potential to exceed OSHA action levels including working at
e-waste teardown tables, operating a baler, and working at an aluminum recovery work
station. The determined noise exposures ranged from approximately 12 to 52 percent of
the OSHA PEL, with only an employee from the aluminum recovery operation recording
a dose in excess ofthe OSHA hearing conservation action level (i.e., 50 percent of the
PEL or 85 dBA as an 8-hour TWA). The consultant's report recommended that all ofthe
workers in the aluminum recovery area be included in a hearing conservation program
that includes annual training, audiometric testing, and other requirements as defined by
OSHA (see 29 CFR 1910.95).

At the camp factory, noise doses were obtained from five inmates working at e-waste
handling tables, operating a baler, and driving a forklift. With the determined noise
exposures of ranging from approximately 13 to 48 percent ofthe OSHA PEL, none ofthe
workers recorded a dose in excess of the OSHA hearing conservation action level.
However, three ofthe five measurements (i.e., forklift operator and workers at two
tables) approached this limit.

According to the FCr Texarkana Factory Manager and as discussed in Section 3.2, above,
a hearing conservation program is in place at FCr Texarkana. Hearing protection is
required, audiometric testing is performed annually, and training is provided. The
UNrCOR consultants of2006 and 2007 seemed to be unaware of the hearing
conservation program and implementation status based on the comments and
recommendations in their reports. For instance, they did not acknowledge the
implementation ofthe hearing conservation program and did not evaluate its
implementation status. The UNrCOR consultant of2009 recommended that certain
workers be enrolled in a hearing conservation program, but also did not acknowledge the
Factory Manager's claim to FOH that such a program was in place for all factory
workers. UNrCOR should verify that a hearing conservation program is in place at FCr
Texarkana.

4.5    Environmental Issues

FOH conducted a review of available documents pertaining to environmental issues
associated with the current (i.e., from 2003) e-waste recycling operations conducted by
UNrCOR at FCr Texarkana. rn particular, FCr Texarkana' s written Hazardous Waste
Program was reviewed along with a report prepared by the U.S. Environmental
Protection Agency (EPA) summarizing results from a Resource Conservation and
Recovery Act (RCRA) Compliance Evaluation rnspection (CEr) conducted November
18-19,2008.

Fcr Texarkana' s written Hazardous Waste Program has the stated purpose of "providing
a safe and healthy work environment for all staff and inmates and to provide procedures
and guidelines for the disposal of hazardous waste". The document indicates a
'Reviewed On' date of July 26,2007 and references various directives including BOP's
August 16, 1999 Program Statement, Occupational Safety and Environmental Health
Manual (1600.8), along with a number of federal EPA regulations dealing with hazardous
waste, employee alarm systems, and emergency and fire prevention plans. Also included
in the document are procedures for determining whether a solid waste must be classified
as hazardous together with a number of FCr Texarkana processes or activities that have
the potential to produce hazardous waste (e.g., "maintenance of motor vehicles",
"construction, renovation, and maintenance activities", "manufacturing or refinishing
furniture", among others). Additionally, the program states that a department "may
accumulate up to 55 gallons of hazardous waste at satellite accumulation points" and
identifies two such points at FCr Texarkana (i.e., the paint shop and the health services
infectious waste storage closet). No specific mention is made of wastes associated with
e-waste recycling. The Hazardous Waste Program also specifies a number of
requirements dealing with hazardous waste weight determination, accumulation and
storage (containers, labeling, incompatibilities, emergency contingencies, etc.),
transportation, manifesting, record keeping and reporting, and training. It states that the
Facilities Landscape Foreman has been designated as the Hazardous Waste Storage Site
Coordinator (HWSSC) at FCI Texarkana and identifies a number of responsibilities for
this position relating to the above-referenced requirements, some shared with the Safety
Manager.

A review was performed of EPA's RCRA CEI report and associated correspondence.
The CEI was conducted by a team of EPA officials accompanied by representatives of
the DOJ OIG. The purpose of the inspection was to observe and review the facility's
solid and hazardous waste management practices, specifically as they pertain to RCRA.
Included in the scope ofthe inspection were e-waste breakdown and recycling facilities
located in the UNICOR warehouse of the satellite (camp) area and the recycling factory
within the FCr. EPA also inspected other operations at FCI Texarkana including the
filter manufacturing factory, a general vehicle maintenance facility, electrical shop,
machine shop, a municipal trash area, and an on-site power plant.

Based on EPA's CEI, waste streams associated with the e-waste recycling operations
include spent HEP A filters from the air filtration units inside the glass breaking area,
filters and dust collection bags from the portable vacuums used to clean up associated
dusts, and used PPE (e.g., disposable gloves) from workers in the glass breaking area.
Laboratory data provided by FCI Texarkana showed the spent HEP A filters and
disposable gloves to be characteristically hazardous for Lead (D008). Further, EPA
inspectors learned that FCI Texarkana sometimes receives used electronic equipment
containing mercury. At the time ofthe EPA inspection, FCI Texarkana had one 5-gallon
bucket ofmercury/electronic components labeled as universal waste and ready for
shipment. All hazardous and non-hazardous wastes stemming from the e-waste recycling
operations were reportedly collected by Safety-Kleen Systems and transported to a
Safety-Kleen Systems facility for processing.

Several areas of concern were documented in EPA's inspection report. Specifically,
findings indicated that spent filters generated from the GBO had been disposed of in the
past as non-hazardous waste (i.e., prior to FCI Texarkana's submittal of samples to a
laboratory for a Toxicity Characteristic Leaching Procedure (TCLP) analysis which
showed these spent filters to be characteristically hazardous for Lead (D008) and
Chromium (D007». Also, based on inspection of the GBO and related facilities, an open
Gaylord box was observed inside the glass breaking room storing spent filters and PPE
(found to be characteristically hazardous for lead and/or chromium) but lacking the
requisite "hazardous waste" labels and accumulation dates. The EPA cited the following
regulations pertinent to these findings:

    • 	 40 CFR 265. 173(a)-a container holding hazardous waste must always be closed
        during storage, except when necessary to add or remove waste;
    • 	 40 CFR 262.34(a)(2)-a generator may accumulate hazardous waste on-site for
        180 days or less without a permit provided the date upon which each period of
        accumulation begins is clearly marked and visible for inspection on each
        container; and
    • 	 40 CFR 262.34(a)(3)-a generator may accumulate hazardous waste on-site for
        180 days or less without a permit, provided that while being accumulated on-site,
        each container is labeled or marked clearly with the words "hazardous waste".

Also, EPA inspectors observed an unlabeled 30 gallon steel container in the recycling
factory which was reported by FCr Texarkana staff to contain used oil. EPA cited the
following regulation pertinent to this finding:

   • 	 40 CFR 279.22(c)(1)-containers and aboveground tanks used to store used oil at
       generator facilities must be labeled or marked clearly with the words "Used Oil".

The EPA inspection report also provided findings dealing with the non-e-waste recycling
operations at FCr Texarkana. Specifically, the report noted the presence of unlabeled 30­
gallon steel containers storing spent xylene and paint waste in the Facilities Area
generated from paint spray gun cleaning activities. The Texas Commission on
Environmental Quality's (TCEQ) Texas Administrative Code (TAC) section
335.262(c)(2)(F) was cited which requires that such wastes be labeled with the words
"Universal Waste - Paint and Paint Related Waste." Also in the Facilities Area, FCr
Texarkana staff stated than the spent "black beauty" sand from a sand blasting machine
was to be disposed of in the municipal trash without the required testing to determine the
whether it should be handled as a RCRA hazardous waste.

At the time ofthe inspection, EPA determined that the BOP had potentially
mischaracterized the generator status of FCr Texarkana by reporting it as a Conditional
Exempt Small Quantity Generator (CESQG). As a result ofthe inspection, EPA
potentially found FCr Texarkana to be a Small Quantity Generator (SQG) because it was
estimated to generate between 220 and 2,200 pounds of hazardous waste per month,
primarily from e-waste recycling, painting, machining, and general cleaning activities.
EPA also determined that FCr Texarkana generates universal waste from other areas of
the FCr.

Subsequent to the CEr inspection and as a result of supplemental information related to
EPA's inspection findings that included information the BOP provided to EPA on March
23,2009, a response to an EPA RCRA information request on July 30,2009, telephone
discussions with the FCr's waste contractor, Safety-Kleen Systems, and other pertinent
information, a RCRA Enforcement Officer from the Hazardous Waste Enforcement
Branch, EPA Region 6, issued correspondence to FCr Texarkana stating the EPA has
determined that FCr Texarkana, including all UNrCOR operations conducted at the
prison, is currently a CESQG and is therefore exempt from RCRA regulations. The
correspondence letter further noted that should the generator status change the prison
would become subject to RCRA regulations.
5.0        CONCLUSIONS

Conclusions concerning environmental, safety, and health aspects ofUNICOR's e-waste
recycling operations at FCI Texarkana are provided below under the following
subsections:

      •	   Heavy Metals Exposures;
      •	   Noise Exposure and Other Hazards;
      •	   Health and Safety Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

Various conclusions may be applicable to all UNICOR recycling factories with similar
operations and activities. These conclusions are supported by the results, findings, and
analyses presented and discussed in Sections 3.0 and 4.0 ofthis report, as well as the
documents assembled by the OIG. These conclusions, in part, are consolidated from the
various federal agency reports, and are also supplemented by FOH based on the entire
body of information assembled and reviewed. See Attachments 1 through 4 for
additional conclusions from the individual contributing federal agencies OSHA, FOH,
NIOSH/HETAB, and U.S. EPA.

5.1        Heavy Metals Exposures

      1. 	 Based on monitoring results from 2004 through 2007 performed by UNICOR
           consultants, current routine e-waste recycling operations conducted in the general
           factory areas (not including glass breaking) have minimal inhalation exposure
           potential to lead, cadmium, and other metals. Lead and cadmium exposures were
           well below OSHA action levels.

      2. 	 Since 2005, breaker and feeder exposure monitoring during GBO showed that
           lead, cadmium, and other metals exposures were below the OSHA PELs and
           action levels when calculated as 8-hour TWA exposures. Between 2005 and
           2008, exposure monitoring was performed by a UNICOR consultant (2005, 2006,
           and 2007), OSHA (2006), and NIOSH/HETAB (2008). In 2004, a UNICOR
           consultant found that cadmium exposure was above the action level but less than
           the PEL as an 8-hour TWA. This higher exposure has not been reproduced
           during subsequent monitoring events. Also, prior to suspension ofGBO in 2009,
           breakers wore PAPRs during glass breaking with a protection factor of 25 which
           provided for additional exposure control.

      3. 	 Prior to suspension ofGBO in 2009, exposure monitoring had not been conducted
           for the cleaning and change-out of LEV pre-filters (performed weekly), HEP A
           filters (performed annually), and other non-routine activities. These activities had
           potential for higher lead and cadmium exposures, and worker exposure
           monitoring should be conducted should GBO be resumed.
4. The GBO HEP A filter change was conducted on an annual schedule, rather than
   based on pressure drops across the filters.

5. 	 Based on FOH surface wipe samples in the glass breaking room at the UNICOR
     warehouse, elevated levels oflead and cadmium were found to accumulate on
     horizontal surfaces. Although the LEV systems were effective in maintaining
     personal airborne exposures below the action levels, it is apparent that the systems
     did not fully capture contaminants and that significant surface levels accumulated.
     This also indicates continued importance of vigilant cleaning practices, as well as
     improved work practices to reduce potential for carry-out of contamination. If
     glass breaking is not to be resumed, UNICOR should fully decontaminate the
     glass breaking area and LEV systems prior to their decommissioning. The same
     applies to the former LEV system that was used at the FCI before GBO were
     moved to the UNICOR warehouse.

6. 	 Based on NIOSH/HETAB and FOH surface wipe samples in locker areas, forklift
     areas, and on lifts, carry-out of contaminants from the glass breaking room
     occurred despite work practices designed to limit this occurrence. Surface levels
     from lockers, for instance, were well above the OSHA clean area guideline for
     lead contamination of 200 /lglif.

7. 	 Bulk samples from a cable box collected by FOH near the former glass breaking
     area were elevated in lead and cadmium concentrations and indicate the need for
     additional evaluation of surface contamination in this and other nearby areas. The
     old dairy bam was also a past area ofGBO that should be evaluated for
     contamination.

8. 	 In addition to existing and improved housekeeping practices, implementation of
     an operations and maintenance (O&M) plan is needed to control potential
     exposure from existing and recurring contamination. An element ofthe O&M
     plan could include periodic clean-up of surfaces by inmate workers that are not
     subject to routine cleaning; however, this would have to be performed using
     proper hazard controls and work practices.

9. 	 Dry sweeping oflead and cadmium-containing dusts was observed at FCI
     Texarkana by both FOH and NIOSH/HETAB despite the prior OSHA violation
     for dry sweeping issued to the FCI Lewisburg recycling factory in 2006. Dry
     sweeping is explicitly prohibited by the OSHA lead standard.

10. NIOSH/HETAB found that the results of biological monitoring for both staff and
   inmates were generally unremarkable. However, medical staff should follow up
   on any abnormal test results in a timely manner. Any abnormal test result that is
   unexpected should be repeated.

11. NIOSH/HETAB concluded that since May 2004, employee exposures have been
    sufficiently low that OSHA mandated medical surveillance has not been required.
         Based on existing records and current operations, medical surveillance can be
         discontinued for inmates and staff performing glass breaking, disassembly, and
         other recycling operations. At UNICOR's discretion, it can continue the limited
         biological monitoring that is currently in place as an additional safeguard against
         excessive exposure, and as a reassurance to staff and inmates.

      12. NIOSH/HETAB concluded that recycling at FCI Texarkana was performed from
         late 2001 to May 2004 without appropriate engineering controls, respiratory
         protection, medical surveillance, and industrial hygiene monitoring. Sparse
         biological monitoring and industrial hygiene data during this period precludes
         determination ofthe extent of exposure to lead and cadmium. The glass breaking
         room in place when the GBO was suspended (with LEV system and other hazard
         controls) is considered a significant improvement with respect to controlling
         worker exposure to lead and cadmium.

      13. FOH considers the performance of annual exposure monitoring starting in 2004 at
          FCI Texarkana to be important in establishing and ensuring effective hazard
          controls and continuing improvements. FOH encourages continuation of this
          practice. However, in reviewing UNICOR consultant exposure assessment
          reports, both FOH and NIOSH/HETAB found that the reports lacked substantive
          evaluation of work practices and hazard controls. Interpretation, perspective, and
          analysis of results were often lacking. In addition, recommendations were
          generally not provided to validate and/or contribute to continuing improvement of
          work processes and worker protection. This is in contrast to the noteworthy
          practice found to be in place at USP Lewisburg that provided for comprehensive
          annual exposure assessments that included critical review, assessment, and
          recommendations.

5.2      Noise Exposure and Other Hazards

      14. UNICOR consultants and FOH found that noise levels in various factory areas
          were above the OSHA action level that triggers the requirement for
          implementation of a written hearing conservation program. According to 29 CFR
          1910.95, Occupational Noise Exposure, a hearing conservation program consists
          of a monitoring program, employee notification of results, audiometric testing,
          hearing protection, training, and record keeping, among other elements.
          According to the Factory Manager, UNICOR at FCI Texarkana has implemented
          a hearing conservation program including audiometric testing and hearing
          protection. Recommended improvements for this program and verification of its
          implementation are provided in Section 6.0, Recommendations.

      15. Sanding of plastic monitors occurred at FCI Texarkana. According to the Factory
          Manager, P-IOO filtering face masks were used for nuisance dusts, but a hazard
          analysis was not performed to identify and control hazards associated with
          PBDE's. The Factory Manager stated that samples were submitted for some type
          of analysis, but the report was not available. Similarly, it does not appear that a
         comprehensive hazard analysis was performed relating to the de soldering
         operation associated with monitor/CPU repair as described in the Safety
         Manager's 2005 memorandum.

      16. Although according to the Factory Manager, measures have been implemented to
          reduce heat exposure, a heat exposure assessment has not been performed in
          accordance with UNICOR's Heat Stress Program.

      17. Although not specifically reviewed at FCI Texarkana, tasks that are potentially
          biomechanically taxing were observed by NIOSH at other UNICOR e-waste
          recycling factories. Similar tasks are performed at FCI Texarkana.

5.3      Health and Safety Programs, Plans, and Practices

      18. UNICOR's work instructions for glass breaking and CRT processing and its
          process descriptions contain worker protection practices and requirements to
          control lead and cadmium hazards, such as PPE, respiratory protection, and
          cleaning practices, among others. The written documents generally reflect the
          controls and practices implemented during the work processes; however, some
          aspects ofthe worker protection requirements are not consistent between the
          documents and actual work practices. In other cases, the documents do not
          provide specific information on the type ofPPE used, such as for 'jumpsuits"
          (protective clothing). Should GBO be resumed, UNICOR should ensure that
          documents at FCI Texarkana reflect actual practice and are consistent with each
          other in all respects.

      19. NIOSH/HETAB and OSHA reported on the type ofPPE and respiratory
          protection that was worn by breakers and feeders during GBO. PPE (including
          respiratory protection) used during the work was appropriate. However,
          NIOSH/HETAB identified deficiencies and potential improvements in the
          storage, doffing, and other practices associated with PPE (see Section 4.1.5,
          Section 6.0, and Attachment 3).

      20. UNICOR-FCI Texarkana's respiratory protection program identifies PAPRs as
          the respirator to be used during glass breaking. This document, however, does not
          detail use and storage practices for this type of respirator. The work instruction
          for glass breaking does provide information for PAPR cleaning, inspection, and
          storage, but the CRT processing procedure calls for the use of air purifying
          respirators, not PAPRs. Respiratory protection documentation should be revised
          to be consistent.

      21. For general e-waste recycling activities conducted on the factory floor (i.e.,
          disassembly and materials handling), a FCI Texarkana-specific UNICOR safety
          and health document to define existing workplace hazards and control measures is
          not in place.
      22. UNrCOR has not implemented semi-annual assessments of its compliance with
          the OSHA lead standard as stated in the FCr Texarkana Lead Compliance
          Program. The Factory Manager stated that the program was a draft and has not
          been implemented. UNrCOR should ensure that the status of written programs be
          clearly identified on its documents.

      23. UNrCOR does not have an adequate hazard analysis program in place at FCr
          Texarkana and many of its other factories.

5.4      Health and Safety Regulatory Compliance

      24. Current routine FCr Texarkana operations conducted in the factory and other
          associated areas (not including glass breaking) are in compliance with the aspect
          ofthe OSHA lead and cadmium standards regarding control of employee
          exposure to levels below the PELs.

      25. Since September 2004, personal exposures during GBO have been less than the
          OSHA lead and cadmium PELs as 8-hour TWAs; therefore, prior to their
          suspension, FCr Texarkana operations for glass breaking were in compliance with
          the aspect ofthe OSHA lead and cadmium standards regarding control of
          employee exposure below the PELs.

      26. As reported by NrOSH/HETAB, prior to May 2004, UNrCOR recycling
          operations at FCr Texarkana were not in compliance with OSHA lead and
          cadmium standards regarding, engineering controls, PPE requirements, exposure
          monitoring, medical surveillance, and other aspects (see Attachment 3).

      27. As observed by NrOSH/HETAB in July 2008 and FOH in March 2007, dry
          sweeping is conducted at FCr Texarkana recycling operations. This is explicitly
          prohibited by OSHA lead and cadmium standards, and is performed despite the
          OSHA violation issued for dry sweeping to FCr Lewisburg in 2006.

      28. Prior to 2007, UNrCOR had not conducted complete noise monitoring as
          recommended by OSHA and as required to ensure compliance with 29 CFR
          1910.95, Occupational Noise Exposure. Other aspects of a hearing conservation
          program, such as audiometric testing and hearing protection were in place,
          however.

5.5      Environmental Compliance

      29. FCr Texarkana' s Hazardous Waste Program does not address policies and 

          procedures specific to e-waste operations. 


      30. At the time ofthe U.S. EPA's RCRA Compliance Evaluation Inspection
          conducted on November 18-19, 2008, a U.S. EPA Inspector determined that FCr
          Texarkana FCr had disposed of spent HEP A filters characteristically hazardous
           for lead generated from the GBO as non-hazardous waste. Similarly, containers
           of used oil stored in the Recycling Factory were not properly labeled. However,
           FCI Texarkana was determined currently to be a conditionally exempt small
           quantity generator (CESQG) of hazardous waste and therefore exempt at this time
           from RCRA regulations.

      31. Concerns were also expressed by EPA about other operations and conditions (i.e.,
          non-e-waste recycling) at FCI Texarkana including lack of testing of spent sand
          blasting grit and inappropriately labeled containers of waste paint, solvent
          (xylene), and used oil.


6.0        RECOMMENDATIONS

Recommendations concerning environmental, safety, and health aspects ofUNICOR's e­
waste recycling operations at FCI Texarkana are provided below under the following
subdivisions:

      •	   Heavy Metals Exposures;
      •	   Noise Exposure and Other Hazards;
      •	   Health and Safety Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

These recommendations relate to the conclusions presented above in Section 5.0. Some
recommendations are taken from supporting documents such as the NIOSH/HETAB
report (Attachment 3) and U.S. EPA RCRA Compliance Evaluation (Attachment 4). See
these reports for additional recommendations and details. Other recommendations are
developed by FOH from the body of data and documents reviewed to prepare this report.
Various recommendations may apply to all UNICOR recycling factories where similar e­
waste recycling activities are performed.

Recommendations are provided for current factory operations as well as G BO that were
suspended in mid-2009. Recommendations that apply to glass breaking at FCI
Texarkana are only applicable if glass breaking is resumed there; however, the
recommendations may also be relevant to GBO performed at other UNICOR factories.

As a global recommendation, BOP and UNICOR should ensure that it has and allocates
the appropriate level of staff, other personnel resources, and material resources to
effectively implement these recommendations and to sustain an effective ES&H program
over time.

6.1        Heavy Metals Exposures

      1. 	 As recommended by NIOSH/HETAB, should the currently suspended GBO be
           resumed, UNICOR should continue use ofPAPRs for workers conducting glass
   breaking, glass breaking room cleaning, and LEV filter change-out (see 

   Attachment 3, Recommendation 2). 


2. 	 UNICOR should continue its exposure monitoring program that has been
     conducted annually since 2004. This monitoring will serve to document
     continued control ofthe lead and cadmium hazards. This recommendation, which
     goes beyond the requirements of the OSHA lead and cadmium standards, would
     provide important documentation to establish consistently low exposures and
     provide a basis for continued improvements. This recommendation applies to
     recycling activities even if glass breaking remains suspended. This
     recommendation is consistent with NIOSH/HETAB Recommendations I and 2 of
     Attachment 3.

3. 	 UNICOR should ensure that as part of its monitoring program, the practices of
     weekly LEV pre-filter change-out, annual HEPA filter change-outs, and other
     non-routine activities with potential for metals exposure are included in the
     monitoring plan.

4. 	 UNICOR should implement GBO HEP A filter changes based on the pressure
     drop across the filters. A pressure gauge should be installed to determine when
     filter changes are required.

5. 	 As required by OSHA lead and cadmium standards, UNICOR should also
     promptly conduct exposure monitoring for any future changes that could result in
     an increased level of exposure, such as changes in work operations, work
     processes/practices, quantities or types of materials processed, new activities, and
     non-routine activities. Periodic monitoring should be conducted to evaluate any
     existing or newly developed engineering controls to make sure that the controls
     are operating at the design parameters.

6. 	 In addition to personal exposure monitoring, the UNICOR exposure assessment
     program should continue to evaluate surface contamination levels. UNICOR
     should establish a surface contamination guideline that it intends to use to
     evaluate results and plan any clean-up or O&M actions.

7. 	 UNICOR should scope the work activities of its exposure assessment consultants
     to include a critical review and evaluation or work practices and hazard controls.
     The consultants should evaluate exposure results in the context of its evaluation of
     such practices and controls and provide recommendations for continued
     improvements. For example, as consultants provide data and results regarding
     metal exposures, noise exposures, effectiveness of engineering controls, and
     surface contamination levels, they should also offer expert interpretation of results
     with any recommendations for improvements of controls, practices, and systems.
     [Note: Recent consultant reports for USP Lewisburg could serve as an example
     ofthe scope ofthe consultants' evaluations and content of reports.]
8. 	 In the event that GBO are resumed, UNICOR should improve work practices to
     prevent carry-out of glass breaking room contamination into the locker area and
     into the general factory area. Also see NIOSH/HETAB recommendations in
     Attachment 3 and in Section 6.3, below.

9. 	 Based on FOH bulk dust samples from a cable box near the former glass breaking
     area, UNICOR should further evaluate surface contamination in this and nearby
     areas. This evaluation should include the tunnel from the FCI basement to the
     power plant and former LEV system. UNICOR should control any contamination
     found through O&M, clean-up, and/or remediation, depending on sample results.
     The FCI Texarkana Safety Manager stated that he recollected that the tuunel had
     been cleaned. UNICOR should verify this and conduct surface testing to confirm
     the area is adequately clean.

10. As part ofthe surface contamination testing program, UNICOR should also
    evaluate other legacy GBO areas, such as the old dairy bam, for potential legacy
    contamination. UNICOR should clean-up or remediate these areas, if indicated
    by the results.

11. UNICOR should develop and implement an operations and maintenance (O&M)
    plan to ensure that surface contamination is minimized and that existing
    contamination does not result in inhalation or ingestion exposures. Elements of
    this plan could include:

       • 	 Identification of activities that could disturb contamination (e.g., HVAC
           maintenance, periodic or non-routine cleaning of elevated or other
           surfaces, access to areas where higher levels of surface contamination are
           present, and various building maintenance functions);

       • 	 Processes to identify and control hazards for routine and non-routine
           activities (e.g.,job hazard analysis process prior to conducting certain
           work with identification of mitigating actions);

       • 	 Mitigating techniques and procedures during activities of concern (e.g.,
           dust suppression and/or clean-up and capture, filter removal and bagging
           processes, and use of PPE and respiratory protection);

       • 	 Training and hazard communication;

       • 	 Disposal of contaminated materials based on testing data such as TCLP
           tests; and

       • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
           appropriate. Exposure monitoring is particularly recommended for
           activities that can disturb surface dust. [Note: Follow-up surface
           sampling is important to ensure that surface contamination does not build
           up and to take preventive and corrective action, ifit does.]

   At UNICOR's discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate or other workers; that is, surfaces that are not subject to
   routine clean-up and housekeeping activities. If this element were adopted,
   however, UNICOR should ensure that practices to control exposures are included
   in the plan and implemented, such as appropriate worker training, PPE,
   respiratory protection, exposure monitoring, medical surveillance (if required
   based on hazard analysis and monitoring results), clean-up methods (e.g., HEPA
   vacuuming and wet methods), waste disposal, hygiene practices, and others
   deemed appropriate by UNICOR. Initial exposure monitoring should be
   conducted to determine whether exposure during clean-up is above the action
   levels for lead and cadmium. TCLP testing should also be conducted on waste
   materials generated to ensure proper disposal. Controls for future clean-up
   activities should then be based on exposure results. [Note: See FOH report for
   USP Lewisburg [FOH 2009] that describes the preparation, hazard analysis,
   training, controls, work practices, and performance of a clean-up activity
   conducted for warehouse elevated surfaces. This is a noteworthy practice that
   could serve as a model for other activities conducted under an O&M plan.]

12. Should UNICOR decide to permanently stop CRT breaking at FCI Texarkana, it
    should decontaminate and decommission the LEV and enclosure systems. If
    performed, this activity should be preceded by proper hazard analysis, training,
    preparation, development and implementation of safe work practices and hazard
    controls, exposure monitoring, hazardous waste testing and disposal, and
    clearance sampling. Depending upon the hazard analysis results, this could be
    performed by a remediation contractor or inmate workers under an O&M Plan. If
    the latter option is chosen, UNICOR should ensure the preparations described
    above are in place and should ensure that inmate workers are trained and qualified
    to perform this task. FOH emphasizes that based on FOH surface wipe samples
    of March 2007, areas of the containment and LEV systems are contaminated with
    lead and cadmium at levels far above guidelines discussed in Section 4.2.

13. Should glass breaking be resumed, UNICOR should evaluate the current FCI
    Texarkana LEV and ventilation systems relative to recommendations provided by
    NIOSH for other recycling factories (see FOH reports for USP Lewisburg and
    FCI Mariauna with NIOSH reports attached). [FOH 2009a; FOH 2009b].
    UNICOR should ensure that air does not flow from inside the glass breaking
    room to the general factory areas, as a UNICOR consultant report seemed to
    imply.

14. As recommended by NIOSH/HETAB and as prohibited by the OSHA lead and
    cadmium standards, UNICOR should discontinue dry sweeping. NIOSH/HETAB
    recommends the use of a floor squeegee to carefully collect large pieces of debris
    that cannot be effectively HEPA vacuumed from the floor. Dusts should be
         cleaned by HEPA vacuum and wet methods. (See NIOSH/HETAB report,
         Attachment 3, Recommendation 4.)

      15. NIOSH/HETAB concluded that continued medical surveillance is not required
          based on current exposure conditions; however, NIOSH/HETAB states that, at
         UNICOR's discretion, it can continue the limited biological monitoring that is
         currently in place as an additional safeguard against excessive exposure, and as a
         reassurance to staff and inmates.

6.2      Noise Exposure and Other Hazards

      16. UNICOR should improve its hearing conservation program to include all
          elements defined by 29 CFR 1910.95, Occupational noise exposure. The means
          of providing the training component ofthis program should be defined.

      17. UNICOR should perform an assessment to ensure that the hearing conservation
          program is fully implemented as indicated by the Factory Manager and Safety
          Specialist. [Note: Consultants performing noise monitoring in 2006, 2007, and
          2009 did not seem to be unaware that such a program was implemented.]

      18. UNICOR should ensure that FCI Texarkana has implemented heat exposure
          assessments and controls as required by the UNICOR heat stress program.

      19. UNICOR should also ensure that other hazards are evaluated and controlled such
          as tasks that are potentially biomechanically taxing (e.g., lifting and repetitive
          stress).

6.3      Safety and Health Programs, Practices, and Plans

      20. At FCI Texarkana, UNICOR should revise its work instructions, process
          descriptions, respiratory protection program and other documentation to ensure
          consistency in work practice and hazard control content among the documents
          and to ensure all written documents are consistent with actual work practices and
          processes. This recommendation applies to all UNICOR recycling factories.

      21. Based on the above document inconsistencies and the uncertain status ofthe Lead
          Compliance Program, UNICOR should implement a document control system to
          clearly define document status, establish review and revision cycles, and ensure
          that the written documents consistently reflect work practices.

      22. As a "good practice" approach, UNICOR should prepare a concise written safety
          and health document specifically for its e-waste recycling operations at FCI
          Texarkana as well as for each of its other recycling factories that lack such a
          document. Such a document should be developed and implemented to define the
          safety and health requirements and practices for all the various recycling activities
          including general activities conducted on the factory floor (i.e., disassembly and
   materials handling). This document would serve to concisely define the safety
   and health practices and requirements specific to FCI Texarkana recycling, such
   as PPE requirements or voluntary use, hygiene (e.g., hand washing) practices,
   daily and periodic housekeeping and cleaning practices, special training
   requirements for any hazardous equipment use or other hazard controls, and other
   practices essential to conduct work safely. Non-routine or periodic work
   activities should also be addressed in the document, particularly those that
   potentially disturb dusts such as cleaning and handling/disposing of wastes from
   HEP A vacuums or containers. The document could also specify requirements for
   periodic site assessments, hazard analyses, actions for new or changed processes,
   inspections, and regulatory compliance reviews and help to ensure that practices
   are consistent with written requirements. .

23. NIOSH/HETAB recommends that UNICOR improve its change room, PPE
    practices, and decontamination processes. Specifically, NIOSH/HETAB
    recommends that separate storage be provided for non-work uniforms and GBO
    work apparel/PPE. All potentially contaminated work clothing and PPE should
    remain in the "dirty" chamber ofthe change room; non-work clothing should not
    come in contact with work items. Workers should be required to wash hands and
    exposed skin after doffing PPE and before putting on uniforms when exiting the
    GBO. Work clothes and PPE should never be worn outside the GBO. Laundry
    personnel should be made aware of the potential exposure to lead and cadmium
    from work clothes and take action to minimize exposure to themselves. (See
    Attachment 3, Recommendation 5.)

24. UNICOR should develop and implement a hazard analysis program that includes
    baseline hazard analysis for current operations and also job (activity-specific)
    hazard analysis (JHA) for both routine and non-routine activities. UNICOR and
    FCI Texarkana should conduct JHAs for any new, modified, or non-routine work
    activity prior to the work being conducted. It should also conduct hazard analyses
    of existing processes that have not had such an analysis. The JHA process is
    intended to identify potential hazards and implement controls for the specific
    work activity prior to starting the work. For instance, the JHA process should be
    integral to an effective O&M plan, as described in Section 6.1. (Also see
    NIOSH/HETAB report, Attachment 3, Recommendation 7.)

25. BOP, UNICOR, and FCI Texarkana should ensure that staff and consultants
    conducting ES&H assessments, evaluations, inspections, and monitoring activities
    are qualified for their assigned tasks and led by certified or highly qualified
    professionals. One benchmark for vetting individuals performing industrial
    hygiene services is the ensure certification in the practice of industrial hygiene
    (CIH) by the American Board of Industrial Hygienists (AIHA). (Also see the
    NIOSH/HETAB report, Attachment 3, Recommendation 6.)

26. BOP and UNICOR should implement a system to list, track, and document
    closure of any identified deficiencies or recommendations, regardless of the
         source. Closure of deficiencies and recommendations with records ofthose
         accepted (and implementation details), along with those not accepted or pending
         (and why) is important to document improvement actions. This recommendation
         applies to all UNICOR recycling factories. This topic will be discussed in further
         detail in the final orG report.

6.4      Health and Safety Regulatory Compliance

      27. UNICOR should discontinue dry sweeping oflead and cadmium contaminated
          dusts.

      28. UNICOR should ensure the evaluation of heat exposures and implement hazard
          controls accordingly.

      29. UNICOR should evaluate and appropriately control ergonomic hazards.

      30. Also see hazard analysis recommendations in Section 6.3.

6.5      Environmental Compliance

      31. FCI Texarkana's Hazardous Waste Program should be updated to reflect the
          current BOP Program Statement (i.e., 1600.9).

      32. Although its current status as a Conditionally Exempt Small Quantity Generator
          does not subject FCI Texarkana to EPA RCRA regulations, UNICOR and FCI
          Texarkana should consider the concerns or deficiencies identified in the U.S. EPA
          RCRA CEI report (e.g., dealing with labeling containers appropriately and
          characterizing suspect wastes like spent sand blasting grit; see Attachment 4) to
          conduct proper waste management practices. FCI Texarkana should also take
          note of both federal and state universal waste regulations.


7.0    REFERENCES

ACGIH [2009]. Threshold limit values for chemical substances and physical agents and 

biological exposure indices. Cincinnati, OH: American Conference ofGovemmental 

Industrial Hygienists. 


AIHA [2007]. AIHA-ANSI Z9. Health and safety standards for ventilation systems. 

Z9 Accredited Standards Committee. Available at: 

http://www .aiha. orgl Content/InsideAIHAIStandardslz9.htrn 


BOP [2007]. Program Statement P1600.09. Occupational Safety, Environmental 

Compliance, & Fire Protection. U.S. Department of Justice, Bureau of Prisons, October 

2007. 

CFR [24 CFR 35]. HUD Lead safe housing rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office ofthe Federal Register.

CFR [29 CFR 1910.1025]. Occupational safety and health standards. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.1027]. Occupational safety and health standards. Cadmium. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR 1910.134]. Occupational safety and health standards. Respiratory
protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR 1910.95]. Occupational safety and health standards. Occupational noise
exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [29 CFR, 1926.62]. Safety and health regulations for construction. Lead. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [29 CFR, Part 1960]. Basic program elements for Federal employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [40 CFR 261.24]. Protection of environment. Identification and listing of hazardous
waste. Toxicity characteristic. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR [40 CFR 262.34] Standards applicable to generators of hazardous waste.
Accumulation time. Electronic Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR [40 CFR 265.173] Interim status standards for owners and operators of hazardous
waste. Management of containers. Code of Federal Regulations. Washington, DC: U.S.
Government Printing Office, Office of the Federal Register.

CFR [40 CFR 272] Approved state hazardous waste management programs. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [40 CFR 279.22] Standards for the management of used oil. Used oil storage. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.
CFR [40 CFR 745.65]. Lead-based paint poisoning prevention in certain residential
structures. Lead-based paint hazards. Code of Federal Regulations. Washington, DC:
U.S. Government Printing Office, Office ofthe Federal Register.

DOE [1999]. Chronic beryllium disease prevention program. 10 CFR Part 850 [Docket
No. EH-RM-98-BRYLM] RIN 1901-AA75. Office of Environment, Safety, and Health,
Department of Energy. Final Rule. Federal Register, Vol. 64, No. 235, Wednesday,
December 8, 1999, Rules and Regulations, pp. 69954-68914.

EPA [n.d.]. Test methods for evaluating solid waste, physicaVchemical methods. SW­
846. Washington, DC: U.S. Environmental Protection Agency. Available at:
http://www.epa.gov/epawaste/hazarditestmethods/index.htm

EPA [2009]. Resource conservation & recovery act compliance evaluation inspection
report for Texarkana Federal Correctional Institution, Texarkana, TX. U.S.
Environmental Protection Agency. January 23, 2009.

FOH [2007]. Worker heat stress measurements -        Marianna. Memo from Capt. Paul
Pryor, Federal Occupational Health Service                      September 17, 2007.

FOH [2008a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at FCI Elkton. U.S. Department of Health
and Human Services, FOH Safety and Health Investigation Team, Program Support
Center, U.S. Public Health Service, Federal Occupational Health Service. October 10,
2008.

FOH [2008b]. Review of 'heat stress procedures' and 'operational requirements'
documents associated with electronics recycling operations at FCI Marianna, U.S.
Department of Health and Human Services, FOH Safety and Health Investigation Team,
Program Support Center, U.S. Public Health Service, Federal Occupational Health
Service. May 15, 2008.

FOH [2009a]. Evaluation of environmental, safety, and health information related to
current UNICOR e-waste recycling operations at USP Lewisburg. U.S. Department of
Health and Human Services, FOH Safety and Health Investigation Team, Program
Support Center, U.S. Public Health Service, Federal Occupational Health Service. May 9,
2009.

FOH [2009b]. Evaluation of environmental, safety, and health information related to
UNICOR e-waste recycling operations at FCI Marianna. U.S. Department of Health and
Human Services, FOH Safety and Health Investigation Team, Program Support Center,
U.S. Public Health Service, Federal Occupational Health Service. June 2009.

Lange, JH [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-51.
NIOSH [2005]. NIOSH pocket guide to chemical hazards (Appendix A), Cincinnati, OH:
U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.

NIOSH [2008a]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Elkton Federal Correctional Institution, Elkton, Ohio. Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH).Publication No. EPHB 326-12a.

NIOSH [2008b]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Marianna Federal Correctional Institution, Marianna, Florida.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) Publication No. EPHB 326-15a.

NIOSH [2009]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, United States Penitentiary, Lewisburg. Lewisburg, Pennsylvania.
Cincinnati, OH: U.S. Department of Health and Human Services, Public Health Service,
Centers for Disease Control, National Institute for Occupational Safety and Health DHHS
(NIOSH) File No. EPHB 326-17a.

NIOSH/HETAB [2009]. Interim letter to _ _ summarizing findings and
recommendations to improve the safety a~mates and staff at the Federal
Correctional Institution (FCI) in Texarkana, Texas. Cincinnati, OH: U.S. Department of
Health and Human Services, Public Health Service, Centers for Disease Control, National
Institute for Occupational Safety and Health DHHS (NIOSH). February 9, 2009. HETA
2008-0055.

OSHA [1970]. Occupational Safety and Health Act of 1970. Public Law 91-596. Sec.
5(a)(1). Washington, DC: U.S. Department of Labor, Occupational Safety and Health
Administration. Available at:
http://www.osha.gov/pls/oshaweb/owadisp.show document?p table~OSHACT&p id~3
359

OSHA [2006]. OSHA inspection report no. 310028832, Federal Correctional Institute,
Marianna, FL. Washington, DC: U.S. Department of Labor, Occupational Safety and
Health Administration.

Pettersson-Julander A, van Bavel B, Engwall M, Westberg H [2004]. Personal air
sampling and analysis of polybrominated diphenyl ethers and other bromine containing
compounds at an electronic recycling facility in Sweden. J Environ Monit. 6:874-880.
Epub 2004 Oct 21.
Thuresson, K [2004]. Occupational exposure to brominated flame retardants with
emphasis on polybrominated diphenyl ethers. Doctoral Thesis. Department of
Environmental Chemistry, Stockholm University.
ATTACHMENTS 

ATTACHMENT 1 

                              \
                             ~}

 U.   Department of Labor
Occupational Safety and Health Administration




                                 INSPECTION NARRATIVE
                            WORK SITE & EMPLOYER INFORMATION




Inspection Date: December 13-14.2006

Compliance              Kenneatha Clark; Jorge Delucca

                        Frank Fitzpatrick, Project                       for Federal Occupational Health.
          , MD; William BIrd, FOH Dallas

Site management                                            FCI Texarkana W a r d e n ; _                       

Associate Warde                                         Manager;
                                                <>I"'T,n.-"                FC~
Manager;                                           I Union 2459. 


Inspection Location:              (mInimum security) and inside {low 
              UNICOR facilities. Fel 

Texarkana. 


Company Information: P,O. Box 9500,                           TX 75505

Telephone No. : 903-838-4587; FAX: 903-223-4440

Inspection Purpose:
The employer           an OSHA Inspection in response to a                   from the OSHA
National        dated October 4, 2006 that directed that the               Office inspect the
computer recycling operations at FCI Texarkana as          of an Independent study being
conducted        the oversightofthe Department of         Office of the Investigator General.
The purpose of the inspection was to          if inmates working on computer recycling were
exposed above the Permissible Exposure Limits of lead, cadmium, beryllium and

Background Information:
The Federal Bureau of L->"'I,~"I"\C> is a large organization that employs a union workforce
conSisting of                   35,000 employees nationwide.               a trade nama for
         Prison              Inc. There were 1430 inmates at               as of December 1,
               1 inmates at the "Camp" or outside facility,                for a total of 2046
            A total of 181 inmates were involved

Previous OSHA History: Prior to this Inspection,                    Bureau of Prisons had 99 previous
                                          1 of 5



                                                                                            OSHA002022
OSHA inspections              1



Opening Conference:
An opening conference was held wlth Fel Texarkana                         After presenting
credenti~l$ the purpose    scope of the inspection was explained. The scope was a focused
inspection on exposure monitoring to toxic metals during       breaking and computer and
electronic components recycling operations.

Inspection findings:                         that conducted the study at      Texarkana consisted of one
CSHO from OSHA                             a CSHO from OSHA Region                manager from USPHS­
FOH, and a I"'r. ... ~ .. ~~"'''" .. from the FOH Dallas office.

The first day we       ...................,... an opening conference and a walk around of the UNICOR facilities. 


There are two          a filter operation located on the top floor of the «interior facility" and the
recycling facility.          started in October 2001.                 is split into two areas: the
"outside (or Camp Warehouse) facility" which is a minimum               area in a metal building by
the docks and another in the "inside facility" inside the low                facility.

Filter Factory:       operation was located on the top floor        the "inside facility". Hours of
operation are 15 a.m. to 3:45 p.m. It started operation one                  one-half years ago. It
manufactu red filters for aIr conditioners. It consisted of a staff 3 plus      inmates. Operations
include "plasters" that shape 1he filter paper and machines that        the filter paper and chicken
wire together.             is produced by compressed air nozzles          a table saw. A consultant
industria! hygienist had conducted a noise survey of the area           determined that the noise
produced by the                  air was "impactJimpulse noise below the OSHA threshold of 140
dBA". The table saw is             Intermittently. This operation was outside the scope of the
inspection. No industrial hygiene evaluations were conducted In this area by our team. No
health or                were identified.

Outside (Camp Warehouse) Facility: 	                                 computer equipment such
as monitors,              and other                                             is inspected
contraband                 There was a total of 58                      to the outdoor
facility (18 are part-time and work 4 hours/day). A total of 75 inmates are authorized.
inmates are involved in 'tear down work" which involves disassembling electronic components
such as using power tools to unscrew the items,           metai from plastic which was placed
in separate          for shipment to metal and plastic         facilities. This facility does the
glass breaking.

   a. 	 Cathode ray tubes from computer monrtors             teleVision sets are broken inside a
        "Glass Booth" that was locally manufactured.        booth consists of a frame with vertical
        vinyl tablets (the type used for refrigerated areas at food stores). Two inmates
        CRT s           the booth with two other           feeding eRTs onto a conveyor from
        outside the booth. The tlNo "glass              inside      booth are protected with ear
                                                 Page 20f5


                                                                                                     OSHAO02023
   plugs, disposable coveralls, booties, leather gloves, and Powered Air Purifying
   Respirators (PAPR) with loose fitting hoods. The two "glass feeders" are protected with
   ear plugs. disposable coveralls, ,,·...ork gloves, booties, safety glasses and disposable dust
   masks (filtering face pieces). Glass breaking takes place an average of twice per month,
   mornings only.

b. 	 The two glass breakers worked side by side USing hammers. The first one broke funnels
     and the second broke the panel glass. Each breaking operation took approximately 30
     seconds. The glass fell into large cardboard boxes underneath the conveyor. The metal
     panel of the eRTs were disposed into a metal box.

c. 	 There were four exhaust systems for the glass breaking operation, one by the glass
     feeders, and one in front of each of the glass breakers. There was another unit on the
     extreme left side inside the booth. The airflow of the exhaust systems was measured
     using an Alnor, model 9850 air velocity meter. serial number 3735, calibrated at the
     OSHA Cincinnati Technical Center on July 19, 2006. Air flow was measured as i 50 feet
     per minute at the worker pOSitions at the glass feeding locatJon, 200 FPM one foot above
     the conveyor at the funnel breaking location, and 100 FPM one foot above the conveyor
     at the panel glass breaking location. The fourth exhaust system measured 100 to 150
     FPM two feet In front of the system. In case of malfunction of a ventilation system, a
     contractor, Empire Tech, would repair. Fel Texarkana management informed Empire
     Tech of the potential hazard of lead, cadmium, beryllium and barium; Empire Tech is
     responsible for the safety of its employees. Every Friday afternoon, one glass breaker
     replaces pre filters while protected by the coveralls, gloves and PAPR. The HEPA fillers
     are replaced once per year.

d. 	 Each of the two glass breakers and one of the glass feeders wore two air sampling
     pumps, calibrated at 2 liters per minute, with an B micron mixed cellulose filter cassette
     attached to collar. Each worker was monitored for the duration of the operation, between
     181 to 186 minutes. The filter cassettes were analyzed at the OSHA Salt Lake Technical
     Center. One filter cassette of each set was analyzed for ICP metals and the second for
     barium. All results were below detection limits.

e. 	 There is a rest room in the area where inmates can wash their hands. Inmate's uniforms
   are left in a locker room while glass breaking. The glass breakers are prohibited from
   leaving the booth with the potentially contaminated coveralls. Used disposable coveralls
   are disposed into a non-reusable container whIch is disposed by Safety Kleen.

f. 	 At the end of the glass breakfng operation, glass breakers spray Simple Green onto
     surfaces to fix the dust. The area is swept and (HEPA) vacuumed (see photos).

g. 	 Physical exams:

       a. 	 All Inmates that work inside the glass booth receive a respirator medical
            clearance by the Health Services Administrator and respirator training by the
            safety manager. Fit testing is not required for loose fitting hooded PAPR. All
                                        Page 3 of5



                                                                                      OSHA002024
                                  )


                medical                and respirator training are documented.
           b. 	 Biological testing. All inmates and staff involved in           breaking receive
                biological testing for heavy metals. Only personnel medically approved and listed
                in a roster can work as glass breakers or feeders.

Inside Facility: This facility      down computer parts such as CPUs,
printers plus some small electronic appliances such as cable boxes, VCRs,
etc. There are 90             working in this facility out of 115 authorized.

   a. 	 Electronic              ""ruu..n by table (6 tables). The inmates use 


        unscrew the t"nrnnr,n<l:l                     hammers to loosen the metal 

        plastiC. Plastic and          are placed in various metal baskets 

        No CRT               is      ........,.......,y in this area. There is no local 

        Workers use safety las~>es. ear plugs, work gloves and aprons. 


   b. 	 Two inmates that             teardown were monitored for metals.
        air sampling pumps, calibrated at 2 liters per minute with 8 micron mixed
        filter                  to their collars. One pump to sample IC? ..... ""·tl.!al ...
        barium. Air sampling was conducted during the afternoon, for 150-1                   filter
        cassettes were            at the Salt Lake Technical Center. AU results were below
        detection levels.

   c. 	 There is a break area 23      from the teardown tables. The break area is
        there is a soda and a snack vending machine inside the break area, against       wall
        (47 feet from the teardown area). Two swipe samples were obtained from the front
        surfaces and                    machine, one swipe for ICP metals and one for
        The swipes were                the Salt Lake Technical Center. An results were below
       detection levlls.

   d. 	 Fel Texarkana             sampling conducted by industria! hygiene 

       occasions sines              last two             on May 2005 and May 

       samples were below the OSHA           for barium,         cadmium 

       aU consultant reports were 


(See photos            during

            Weather                    of inspection: 

                                                                    Actual 

                                                                    19.5 C - 21 C
                                        f~~!I!.tit .. '.          .'.
                             Hu.~J~!tx ,(Outside facili!Y)          80-84 %
                                                                    23 C
                             ~Insi.~e f~~!I~!XL_.._._...... ",
                            ;ti.~_~i~i.!yj~n2!~~~5?,i~!Yl. __~3!o,. '               ,~,   ... ' :
                             p'recip"jtati<?~                      iNane
                                                           40fS



                                                                                                    aSHA002025
                                                                "\




Measurements:

Dimensions of         systems, Glass   Booth~22"    x 41" 

Temperature and relative humidity were measured with a Vista Scientific Corporation 

psychrometer (dry and wet buib thermometers) 


Closing           An exit conference was conducted by Kennethea Clark on December 14,
2006 with the   management representatives. She explained that a      conference would
be conducted when            of the air sampling was received.

Alleged               No overexposures to toxic metals, including    cadmium, beryllium
or barium were found.




                                       Page 5 or5


                                                                              OSHA002026
ATTACHMENTS 2a and 2b 

                                               ATTACHMENT 2a


                                    Texarkana Wipe and Bulk Data Table
                                    !':,..nnl,,,, Collected 3/27/07 to 3/28/07
             Sample
Field #               Building Name                                 Surface/Item                       Lead            Cadmium
              Type


             ~~:~~:                                                                             ugfft2    mg/kg      ug/ft2   mg/kg

                                              IHVAC AHU #4 outside booth (Middle on
     -01       W                I    , Camp Itop)                                                480                   79
                                            IOutside booth on floor 70" E from SW
     -02       W                I    1 Camp Icorner 10" from curtain                             13                    1
                                            IOutside booth, 1 floor (West) 80" N from
   1-03        W                I    1 Camp Isw corner 10" from curtain                          27                    1

     -04       W                I    1 Came . . . locker bottom Itoo row. 2nd from left)         480                   18

   1-05        W                I    1 Camp   ~ locker (top row, 3rd from left)                  480                   33


     -06       W                I    , Camp ~_OCker                (top row. 5h from left)       390                   21

   1-07        B                I    1 Camp                 I , bulk thumb                                    150              40

     -08       W                I    1 came.OCker 6th from left. bottom                          200                   7
                                     ~ Camp                   locker right column, 5th from
     -09       W                I                                                                520                   12

   1-10        W                I    1 Camp ITop of lockers center                               170                   34

     -11       W                I    1 Camp ITOp of AHU #2 Center, 1st inside booth             2,000                 220
                                              ITOP    ')f   AHl1tt1 Second in line in booth
   1-12        W                I    1 Camp Icenter                                             2,500                 240

     -13       W                I    1 Camo IFrom inside booth near breakino area               7.300                 640
                                            IBack of AHU #1 in booth 3" x 4 8" in groove
     -14       W                I    1 Camp lat bottom behind grille                            7,400               I 2,000
                                            IBack of AHU #2 in booth 3" x48" in groove
   1-15        W                I    1 Camp lat bottom behind grille                            17,000              I 2,700
                       Warehouse            I    flap inside booth 128" N of SW
     -16       W          I 1 Came Icorner metal Post IW side of booth)                          50                    7
                       Warehouse           I    sheeting inside Booth 80" E of
     -17       W          I 1 Camp Isw corner center                                             220                   18
                                              IBUlk sample from broom box, glass dust at
    -20        B                I    , Camp Ibottom of box                                                    120               2
                                              IWi~e sample from floor inside booth under
                       Warehouse       I      Ibeit
                                                funnel Gaylord box and panel
     -21       W          I 1 Camp IGavlord Bar          " from E. wall                          210                   5
                                              l~iP~ s~mple from Lift-Rite that carries
     -23       W
                       "oo,o":~:';"p IGavlord boxes inside booth                                3,900                 500
                                              IDry svveep of material around disassembly
    -25        B                I    1 Camp lareas                                                        2000                 160

                       Warehouse   IStor~ge room/locker room battery changing
   1-26        W          I 1 Camp Ishelf,      "above floor center                              420                   40

     -27       W                I    1 Camp IBlank (Dock 1)                                       2                    0
                       FCI ("si~e           ICable          ~ fence. This is in/near 'old'
    -30- A     B        Fence)              Ilformer) GB area                                             3200                7600
                       FCI ("si~e             ICable          ~ fence. This is in/near 'old'
    -30- B     B        Fence)                Ilformer) GB area                                           3300                7700

    -31        W
                       . . 00   o":~:';"p IDock 2                                                 1                    5
                                                                     disassemble desk (metal,
   1-32        B                I    1 Camp Iplastic bins)                                                    500              180
                                         ATTACHMENT 2b


                                  Texarkana TCLP Data Table 

                               Samples Collected 3127/07 to 3/28/07 

              Sample
    Field #            Building Name                   Surface/Item                    Lead          Cadmium
               Type

                                                                                         mg/l            mg/l
                                                                                   ( extractable)   (extractable)
                         Warehouse       DRMO box under AHU #2 (funnel box
0327078 -18   TCLP     Reevel inQ Camp   Qlass)                                         1.4             0.02
                         Warehouse
032707W -19   TCLP     Reevel inQ Camp   Box under AHU #1, panel qlass box             55.0           <0.001

                         Warehouse       Glove from inside PPE \Nasta box inside
032707W -22   TCLP     Reevel inQ Camp   booth                                         0.19             0.59
                         Warehouse
032707W -24   TCLP     Reevel ina Camo   Waste alass box outside booth                 0.07           <0.001
                         Warehouse       Mop rinse after breaking glass and
032707W -28   TCLP     Reevel ina Camo   moDDina outside and inside booth              0.08           <0.001
                         Warehouse       Mop rinse from mopping outside glass
032707W -29   TCLP     Reevel ina Camo   booth                                        <0.01             0.04
ATTACHMENT 3 

     DEPARTMENT OF HEALTH AND HUMAN SERVICES                                    Public Health Service


                                                                                National Institute for Occupational
                                                                                 Safety and Health
                                                                                Robert A. Taft Laboratories
                                                                                4676 Columbia Parkway
                                                                                Cincinnati OH 45226-1998



                                                                                 February 9, 2009
                                                                                HETA 2008-0055




Oversight and Review Division
Office of the Inspector General
United States Department of Justice, Suite 13100
Washington D.C. 20530

Dear_

On November 27, 2007, the National Institute for Occupational Safety and Health (NIOSH)
received your request for technical assistance in your health and safety investigation of the
Federal Prison Industries (UNICOR) electronics recycling program at Federal Bureau of Prisons
(BOP) institutions in Elkton, Ohio; Texarkana, Texas; and Atwater, California. You asked us to
assist the United States Department of Justice, Office of the Inspector General (USDOJ, OIG) in
assessing the existing medical surveillance program for inmates and staff exposed to lead and
cadrnirun during electronics recycling, and to make recommendations for future surveillance. In
addition, you asked us to assess past exposures to lead and cadmium, and to investigate the
potential for take horne exposure. This interim letter summarizes our findings and provides
recommendations to improve the safety and health of the inmates and staff at the Federal
Correctional Institution (FCI) in Texarkana, Texas. These findings will be included in a final
report that will contain findings from the evaluations at all three institutions identified in your
request.

Background

Information available to us indicates that electronics recycling at FCI Texarkana was performed
from 2001 lllltil May 2004 without appropriate engineering controls, respiratory protection,
medical surveillance, or industrial hygiene monitoring. In late 2001, the glass breaking operation
(GBO) commenced in the basement of the FCL The GBO is where cathode ray tubes (CRTs)
from computer monitors or televisions are processed. As reported to us, the first GBO had been
retrofitted with an exhaust ventilation system that had been used in the FCI' s furniture factory.
Large fans used for cooling the work area reportedly disseminated dust from the GBO
throughout the basement. In the srunrner of2002, the GBO was moved to an old dairy barn at the
camp (the lower security part of the FCI) while a containment area was built for the GBO in the
factory in the basement of the FCL This containment consisted of wooden walls topped by a
Page 2

screen, which was designed to decrease dissemination of "silver floating material" in the air from
the GBO. Managers, employees, and inmates had no knowledge that lead or cadmium exposure
was a potential health hazard. The GBO moved back to the FCr basement in the fall of2002 and
medical surveillance for inmates performing glass breaking and staff in recycling was begun in
mid-late 2003. Recycling moved to its current location at the camp in May 2004, where a glass
breaking booth was constructed. The booth is reported to have undergone various modifications
since its initial construction.

At the time ofthe NrOSH site visits, the GBO reportedly processed 300 to 400 CRTs per day
during two work shifts, which run for three hours in the morning and two hours after lunch.
From a pool of approximately eight inmates, four are assigned to work as glass breakers (2) and
feeders (2) during each work shift. Each inmate is allowed to work as a glass breaker for a
maximum of one shift per day.

Electronics recycling at the camp consists of manual disassembly of computers and other
electronics, manual chip recovery, and glass breaking. The glass breaking booth is divided into
seven areas, identified as zones I through 7 on the enclosed diagram (See Figure I). Except for
the inmate locker area and storage closet which are enclosed by walls, the zones are separated by
vinyl strip curtains suspended from the ceiling.

Two stand-alone high efficiency particulate air (HEPA) filtered ventilation units provide local
exhaust ventilation (LEV) to control dust emissions at the panel and funnel glass breaking
stations in zone 7. Vinyl strip curtains at the face (intake) of each HEPA unit enclose the CRT
while it is manually broken. The HEP A units discharge filtered air into the glass breaking booth.
Two additional HEPA ventilation units provide general air filtration to remove dust from glass
booth air. One of these units is in the feeder area, and the other is along a wall in zone 7. In 2007,
air-conditioning was installed in the GBO, and four large exhaust fans were installed on opposite
walls of the factory (two fans on each wall).

Two inmate glass breakers, one at each workstation, use hammers to break CRTs. CRTs are
provided to the breakers by two inmate feeders, who place intact CRTs onto a manual roller
conveyor that allows CRTs to be rolled into the vinyl strip curtain enclosures at each ofthe
breaking stations. At the right breaker station, the funnel glass breaker reaches through the vinyl
strip curtain and breaks the funnel glass, which drops into a Gaylord box beneath the conveyor.
The panel glass is then rolled into the enclosure at the panel glass station, where the panel glass
breaker breaks the panel glass into pieces that drop into a second Gaylord box. The electron gun,
frit, and metal components are also removed during the breaking process and are deposited into
containers.

At the start of morning and afternoon shifts, glass breakers and feeders take personal protective
equipment (PPE) from their lockers and don the PPE in the change-out area in zone 4. Glass
breakers and feeders wear hearing protection, Tyvek® suits, Kevlar® sleeves, Kevlar® gloves,
and steel-toe footwear. Glass breakers wear hooded powered air-purifying respirators (P APRs)
with HEPA filters as prescribed in the FCr Texarkana Respiratory Protection Program. Feeders
(who remain in zone 6) do not wear respiratory protection, but do wear safety glasses in lieu of
the protective PAPR facepiece. At the end ofthe shift, workers return to zone 4 where they
remove the PPE. At the time of the two site visits, workers stored PAPRs and other PPE in a
Page 3

single locker. Shortly after the July 2008 sampling visit, new lockers were installed so that
workers can store PAPRs separately from other PPE, thereby reducing the chance that residual
dust on gloves and other PPE will contaminate PAPRs.

Movement of workers and equipment within the glass booth, and between the booth and areas
outside the booth, is controlled to reduce dust carryout on shoes and equipment. Glass breakers
are the only workers allowed in zone 7 during glass breaking, and they remain in zone 7
throughout the work shift. The pallet jack that is used in zone 7 never leaves zone 7. Forklifts
enter the booth no further than zone 5. Full Gaylord boxes are shrink-wrapped before being
moved to the edge of zone 5, where the boxes are removed with a forklift.

At the end of a shift, glass breakers and feeders dry-sweep the GBO floor, then wet mop it with a
dilute mixture of Simple Green® and water. A HEP A vacuum cleaner is used to remove dust
from various surfaces in zone 7, and from the face of the pre filters on the HEPA units at the glass
breaking stations. Workers remain in PPE while performing end-of-shift cleanup. Dry sweeping
and shovels are also used to clean the floor after full Gaylord boxes are removed from the GBO.

Prefilters installed in HEPA units are changed weekly. The HEP A filter in each unit is changed
annually by inmates wearing PPE. This is accomplished by removing the prefilter, HEP A
vacuuming accessible surfaces, removing the HEP A filter, and sliding the filter into a plastic bag
which is then double-bagged for disposal.

Assessment

We reviewed the following documents:

   • 	 Results of medical surveillance performed between 2003 and 2007 (provided by your
       office);

   • 	 Medical records for two inmates reported to have serious medical problems secondary to
       work in recycling;

   • 	 Results of biologic monitoring (provided by the medical clinic at FCr Texarkana);

   • 	 Work instructions for the GBO and maintenance;

   • 	 Rosters for inmates working in recycling that provided location and dates of work 

       (provided by the factory manager); 


   • 	 Timelines for recycling operations (provided by you);

   • 	 DOJ interviews with staff and inmates and;

   • 	 Results of industrial hygiene sampling performed by consultants to UNrCOR.
Page 4

We conducted a site visit on June 24-25, 2008 with you. During this site visit we held an opening
conference with FCI and UNICOR management, American Federation of Government
Employees (AFGE) representatives, UNICOR recycling staff, and the health services
administrator and regional medical director. After the conference we toured the former recycling
locations in the basement ofthe FCI and in the dairy bam at the camp, and the current recycling
operation at the camp. We conducted informational meetings with FCI and UNICOR staff, and
inmates. We also met with the safety manager, factory manager, and health services
administrator. We ended the site visit with a closing conference where we presented our initial
findings and recommendations.

We were told that BOP has had an industrial hygienist on staff for several years, and that
UNICOR recently hired one. Neither of these individuals was present during our visit, and it is
unclear what, if any role, they may have had in setting-up or monitoring the electronic recycling
program.

On July 16, 2008, we conducted an industrial hygiene survey to assess worker exposures to
cadmium and lead during glass breaking. Full-shift personal breathing zone (PBZ) air sampling
for cadmium and lead was conducted for each worker who performed glass breaking or feeder
duties on this date. Area air samples were collected inside and outside the glass breaking booth.
Air samples were collected, digested, and analyzed according to NIOSH Method 7303 [NIOSH
2009].

Surface wipe samples were collected in inmate lockers, and from PAPR face shields, the table
where inmates don and doff PPE, the floor where the forklift accesses the glass breaking booth,
and desktops outside the glass breaking booth. These samples were collected by wiping a 100
square centimeter (cm2 ) area (10 cm2 x 10 cm2 ) according to the sampling procedure outlined in
NIOSH Method 9102 [NIOSH 2009]. Hand wipe samples were collected according to the dermal
sampling procedure outlined in NIOSH Method 9105 [NIOSH 2009] Hand wipe samples were
collected after workers had washed their hands at the end of each work shift. All wipe samples
were collected using Ghost Wipes, which were digested and analyzed for elements according to
NIOSH Method 9102 [NIOSH 2009] with modifications for digestion (a nitriclhydrochloric acid
mix was used in place of perchloric acid).

Results and Discussion 1
Medical surveillance

Inmates

Medical surveillance began in late 2003 for inmates in the GBO. It is performed annually by the
FCI clinic and consists oflimited biological monitoring, a medical and occupational history
questionnaire, and respirator clearance. Preplacement testing is performed on inmates prior to
being cleared to work in the GBO, with the exception ofthose already working there when
surveillance began. The inmates are seen by a physician's assistant and their test results are
discussed with them. Biological monitoring consists of blood lead levels (BLL), blood cadmium

1   See Occupational exposure limits and health effects in Appendix.
Page 5

(CdB), urine cadmium (CdU), urine beta-2-microglobulin (B-2-M), and zinc protoporphyrin
(ZPP). Paper copies of test results are maintained in the inmate's personal medical record but not
with UNICOR management. Each inmate's medical records are transferred with them; no
medical records are retained at Texarkana after an inmate is either transferred or released. The
results ofthe available inmate biological monitoring are summarized in the following sections.
Because measurements on individual inmates and staff were sporadic and the number tested
small, we did no group analyses ofthe data.

Biological monitoring results were available for 28 inmates, although not all inmates had all tests
performed. Preplacement BLLs were available for 13 inmates who performed glass breaking.
The laboratory' s limit of detection (LOD) for blood lead was either 1.0 microgram per deciliter
of whole blood (flg/dL) or 3.0 flgldL, depending on the lab used. One ofthe 13 was less than the
LOD of 1.0 flgldL, and the others ranged from 1.1-5.0 flg/dL. Seventeen periodic or termination
BLLs were available: seven were less than the LOD of 3.0 flgldL and one was less than the LOD
of 1.0 flg/dL. The remaining nine ranged from 1.2-2.4 flg/dL. One inmate who worked in the
GBO since 2001 had a BLL in March 2004 that was less than the LOD of3.0 flgldL. Another
inmate had a BLL of 5 flg/dL in August 2002, but his start date in GBO was listed as 2004. He
likely worked in GBO at two separate times. This BLL reflects exposure prior to the installation
ofthe current GBO in May 2004, but the others do not because the half-life oflead in blood is
too short.

Results were available for 24 inmates who had preplacement CdB tests done. The laboratory' s
LOD for CdB was either 0.5 micrograms per liter (flglL) or 1.0 flglL. Seventeen were less than
the LOD of 1.0 flg/L and one was less than the LOD of 0.5 flglL. The remainder ranged from
1.1-6.6 flglL. The two inmates with the highest levels (2.7 and 6.6) were not cleared to work in
GBO. It is unclear ifthey were evaluated to determine why their levels were high. Twenty-eight
periodic or termination CdB tests were available: 20 were less than the LOD of 1.0 flg/L and
three were less than the LOD of 0.5 flg/L. The remainder ranged from 0.5-2.5 flglL. In general,
these CdB results do not reflect exposures prior to the installation ofthe current GBO in 2004
because the half-life of cadmium in blood is too short. However, results were available for three
inmates who had worked in the GBO since 2001, although it appears one ofthem ceased GBO
work for a while, then returned to it. The CdB in the two who apparently continued work from
2001 until the time oftesting in November 2003 were 1.8 flg/L and 2.5 flglL. Both smoked at the
time. The other inmate's November 2003 testing was noted to be preplacement, and was below
the LOD. This inmate was a non-smoker. We caunot determine ifthe higher levels in the
smokers were from exposure to cadmium during glass breaking or from smoking. Smoking is
known to increase CdB levels. For example, 10 inmates who smoked had CdB available; only
one was less than the LOD and the others averaged 2.3 flg/L. Nonsmokers had lower CdB levels.
There were 32 CdB results for nonsmokers, and 30 were less than the LOD.

Twenty-four preplacement CdU test results were available. The LOD was 0.5 flglL and 14
measurements were below this LOD. Ifthe CdU was above the LOD, then it was adjusted to the
urinary concentration of creatinine to control for the variability in urine dilution. The five that
were above the LOD ranged from 0.29 micrograms per gram of creatinine (flglglCr) to 2.2
flg/giCr. There were 20 periodic or termination CdU results available for review. Fifteen were
below the LOD, and the remaining five ranged from 0.3-1.3 flg/g/Cr. These CdU measurements
integrate exposure over time because the half-life of cadmium in urine is years to decades.
Page 6

However, only three of these inmates worked in GBO beginning in 2001; the highest result
among these three was 0.61 flg/giCr.

There were 38 urinary B-2-Ms and 26 ZPPs and all were normal.

One inmate identified himselfto us at the meeting as having been removed from the GBO due to
abnormal test results. We obtained his results from the medical clinic, and noted that his CdB in
late 2003 was 6.2 flglL, while CdU and B-2-M were below the LOD. His BLL was 4 flgldL. His
questionnaire noted he had been working for UNICOR over 1 year at the time ofthese tests.
There was a note in the chart to repeat the tests in 6 weeks, but this was never done. It is unclear
if this represents significant exposure to cadmium or a laboratory error, especially in
consideration of the low CdU result. After our visit, this inmate was retested and his CdB was
1.0 flg/L and CdU was 0.8 flglglCr.

Forty-one initial or annual questionnaires were available for review. None noted any medical
complaints that could be related to recycling work. Medical records were reviewed for the two
inmates reported to have serious medical problems secondary to work in recycling. One died of
causes unrelated to recycling work, and the other inmate's medical issues were clearly not
related to recycling work, either.

UNICOR Staff

UNICOR staff see their private physicians for medical surveillance, which is paid for by
UNICOR, so their exams are not standardized. There are seven staff that work in recycling, a
factory manager, an accountant, and five recycling technicians. Test results were available for
seven staff members, each of whom was tested between one and four times. There were emails
from several staff members to the factory manager, documenting that they chose not to undergo
annual physicals and testing. Sixteen BLL results were available: 14 were below the LOD of 3
flg/dL; one was below the LOD of 1 flgldL, and one was 2.0 flg/dL. Fifteen CdU results were
available: eight were less than the LOD of 0.5 flglL and the remainder ranged from 0.3-0.7
flg/giCr. Fifteen CdB results were available: twelve CdB were less than the LOD of 0.5 flg/L and
the remainder ranged from 0.5-1.4 flglL. The two highest were in a smoker; the rest ofthe staff
were non-smokers. There were 13 ZPP and 15 B-2-M results, and all were normal. Two initial or
annual questionnaires were available for review. Neither noted any medical complaints that
could be related to recycling work.

In summary, results of biological monitoring of both staff and inmates were generally
unremarkable. It is important for medical staff to follow up on abnormal test results in a timely
manner. It is standard medical practice to repeat an abnormal test result that is unexpected, for
example, the elevated pre-placement CdB noted on more than one inmate. Ifthe test result is still
abnormal, then a cause for the abnormality should be sought.
Page 7


Industrial Hygiene

Records Review

The OIG provided five sampling reports prepared by UNICOR consultants, a letter from the
Occupational Safety and Health Administration (OSHA) summarizing OSHA sampling results,
and a chart containing Federal Occupational Health (FOH) wipe sample results. No consultant
reports or sampling data were provided for the first 9-10 months that glass breaking was
reportedly performed in the basement ofthe factory (October 2001 until July or August 2002).

The first consultant report of air and wipe sampling was in October 2002, following relocation of
the GBO from the dairy barn back to the FCI during the previous summer. One ofthe two PBZ
samples collected on October 24, 2002 approached but did not exceed the OSHA action level
(AL) for lead during a 480-minute sampling period. Cadmium was not detected in PBZ or area
air samples. Low concentrations oflead were detected in the two area samples collected in
unidentified locations. Low concentrations of cadmium and lead were detected in wipe samples.
A bulk dust sample, collected from an unidentified location, contained 3810 ppm lead by weight;
cadmium was not detected in the bulk sample. This report provided no description of sampling
locations, the size and duties ofthe workforce, operations performed by workers, housekeeping
procedures, the work area, LEV, other workplace controls, PPE, or housekeeping procedures.
Based on the limited data obtained on this date, the consultant concluded that the air
concentrations did "not pose an immediate health threat to personnel working in this operation,"
and recommended using a HEP A vacuum cleaner and wet methods to clean surfaces before
installing a ventilation system or modifying the work area.

A different consultant conducted air and wipe sampling for barium, beryllium, cadmium, and
lead during I-day site visits in August 2004, May 2005, December 2006, and December 2007.
The report for each of these visits consisted of a boilerplate letter with several appendices
containing sampling data. Ventilation assessments, consisting of face velocity measurements at
HEP A units and smoke tube visualization of air flow, were conducted during the 2006 and 2007
visits; sound level meter readings were obtained in 2006. These reports contain no
recommendations or industrial hygiene guidance, and provide very little descriptive information
beyond sampling results.

Reports for site visits conducted in 2004 through 2006 indicate that all barium results were
below occupational exposure limits (OELs) established by NIOSH, OSHA, and the American
Conference of Governmental Industrial Hygienists (ACGIH®). Beryllium was not detected in
any ofthe samples for this period. Although reported airborne concentrations oflead and
cadmium were below OELs, the OSHA AL for cadmium was exceeded in 2004. (Note: the
consultant incorrectly reported that the cadmium permissible exposure limit (PEL) had been
exceeded in 2004.) It should be noted that NIOSH regards cadmium as a potential occupational
carcinogen; therefore, NIOSH recommends that occupational exposure to cadmium be limited to
the lowest feasible concentration. Low concentrations oflead and cadmium were detected in
most surface wipe samples collected in 2004-2006. Post-shift hand wipe samples collected
before and after hand washing indicate that hand washing reduced the amount of metals on
workers ' hands.
PageS


On December 14, 2006, OSHA conducted air sampling for metals during glass breaking and
teardoWll. The results for all metals, including lead and cadmium, were reported to be below the
LOD. Likewise, no metals were detected in surface wipe samples collected from the front
surfaces and buttons of snack and soda machines in the break area of "the inside facility."

Surface wipe samples collected by FOH in March 2007 detected lead and cadmium on a number
of surfaces in the camp glass breaking area. Wipe samples collected behind and on top ofHEPA
units and "near disassembly tables" indicated lead concentrations of2,000 to 17,000 micrograms
oflead per square foot (llg/ft2). Cadmium concentrations in these locations were 200 llg/ft2 to
2,700 llg/ft2 Lower concentrations were found in other locations, e.g., on top of worker lockers.
Wipe samples collected from a cable box in the former FCr glass breaking area indicated lead
and cadmium concentrations 0[3,300 and 7,700 Ilg/ft2, respectively. Wipe samples collected in
both glass breaking areas indicated the presence oflead and cadmium in dust.


NIOSH Exposure Assessment, July 16, 2008
Airborne concentrations oflead and cadmium are presented in Table 1, on page 11 of this letter.
These concentrations are calculated over the actual sampling periods, i.e., these results are not
reported as 8-hour time-weighted average (8-hr TWA) concentrations.

PBZ samples collected during morning and afternoon shifts on July 16, 2008, indicate that
worker exposures were well-below the OSHA ALs for cadmium and lead. Area air samples,
collected outside the glass breaking booth during glass breaking did not detect lead or cadmium
above the minimum detectable concentrations for either ofthese elements. Air samples indicate
that the HEPA units were effective at removing cadmium- and lead-bearing dust at the point of
generation.

The results of wipe samples collected on July 16, 2008 results are presented in Table 2 on page
12. Wipe samples collected from inmate lockers and the table in the change-out area indicated
concentrations of cadmium and lead ranging up to 0.89 llg/l00 cm2 and up to 59 Ilg/l00 cm2 ,
respectively. Although concentrations inside lockers were generally low, the highest lead
concentrations in locker #9 and on the change-out table indicate that some lead is being
transported from the glass breaking area.

Wipe samples collected from face shields of PAPRs in two lockers (including locker #9)
detected very little contamination. However, it appeared that the potential existed for spreading
contamination from other PPE, such as Kevlar gloves and sleeves, to PAPRs stored in lockers.
As noted above, new lockers for storing PAPRs separately from reuseable PPE were installed
after the NrOSH evaluation.

Wipe samples collected from the floor in and near the forklift traffic area where Gaylord boxes
are removed from the glass breaking booth, indicate that some lead and cadmium contamination
is being carried out ofthe glass breaking booth despite work practice controls, such as restricting
use of the glass breaking booth pallet jack to zone 7 and not allowing the forklift to enter the
booth beyond zone 5. This suggests that although these work practice controls should help limit
Page 9

the amount of carry-out contamination, some lead- and cadmium- containing dust is still being
carried out ofthe glass breaking booth.

Low, but quantifiable concentrations of cadmium and lead were present on the inmate clerk's
desk which is located a few feet from the forklift traffic area. A trace amount oflead was
detected on a desk in the UNICOR staff office. Although these results do not represent a serious
health hazard, they show a need to maintain good housekeeping throughout the glass breaking
area.

Hand wipe samples, collected at the end of each shift after hand washing, suggest that hand
washing removes most, but not all contaminants. Glass breakers should be encouraged to wash
hands carefully to remove as much contamination as possible, especially before going to lunch.

Conclusions

Electronics recycling at FCI Texarkana appears to have been performed from late 2001 until
May 2004 without appropriate engineering controls, respiratory protection, medical surveillance,
or industrial hygiene monitoring. Because of the sparse biological monitoring and industrial
hygiene data, we cannot determine the extent of exposure to lead and cadmium that occurred
during that time. Descriptions of work tasks from staff and inmates indicate that exposures
during that time frame were likely higher than current exposures. Based on information provided
to us, we believe that the current GBO is a significant improvement with respect to controlling
worker exposures to cadmium and lead.

Exposures since May 2004 are sufficiently low that the OSHA mandated medical surveillance
has not been required since that time. In addition, the results of medical surveillance conducted
since 2003 on both inmates and staff were generally uuremarkable. It is not possible to determine
whether the exposures were high enough to trigger the standard prior to that time. Inmates are
advised ofthe results oftheir monitoring and do see the physician's assistant; however, records
of medical surveillance are not maintained by the employer for the appropriate length oftime.
Some staff members have refused to participate in medical surveillance paid for by UNICOR at
their personal physicians

At this time, after careful review of existing records and current operations, we conclude that
medical surveillance can be discontinued for inmates and staff who work in electronics recycling
and GBO. UNICOR may choose to continue to perform the limited biological monitoring that is
currently in place as an additional safeguard against excessive exposure and to provide
reassurance to inmates and staff.

Recommendations

The following recommendations are provided to improve the safety and health of both the staff
and inmates involved with electronics recycling at the FCI Texarkana.:

1. Although engineering controls and work practices in the current GBO appear to provide
reasonably effective control of worker exposure to cadmium and lead, UNICOR needs to
Page 10

maintain an ongoing program of environmental monitoring to confirm that engineering and work
practice controls are sufficiently protective. Environmental monitoring also provides data needed
to determine which provisions ofthe OSHA cadmium and lead standards should be applied for
theGBO.

2. While air sampling in the GBO suggests that the level of protection afforded by PAPRs may
not be needed, we feel that continued use ofPAPRs provides added protection against exposure
to lead- and cadmium- containing dust. Additional periodic air sampling should be conducted to
help ensure that exposures remain consistently below all applicable OELs before considering a
reduction in the level of respiratory protection in the GBO.

3. Ensure full compliance with all applicable OSHA standards, including the General Industry
Lead Standard [29 CFR 1910.1025], the Cadmium Standard [29 CFR 1910.1027], the Hazard
Communication Standard [29 CFR 1910.1200], and the Respiratory Protection Standard [29
CFR 1910.134]. This includes record keeping requirements, communication requirements,
compliance plans, and medical surveillance.

4. Discontinue dry sweeping. Use a floor squeegee to carefully collect large pieces of debris that
cannot be effectively vacuumed from the floor. Whenever possible, use a HEPA-filtered vacuum
cleaner and/or wet methods for removing dust from all other surfaces.

5. Ensure that separate storage is provided for non-work uniforms and GBO work apparel/PPE.
All potentially-contaminated work clothing and PPE should remain in the "dirty" chamber ofthe
change-out room; non-work clothing should never come in contact with work items. As a
minimum requirement, workers should be required to wash hands and all potentially exposed
skin after doffing PPE and before putting on uniforms when exiting the GBO. To minimize
migration of cadmium-and-lead-contaminated dust to other parts ofthe institution, work clothes
and PPE should never be worn outside the GBO. Laundry personnel should be made aware of
the potential exposure to lead and cadmium from work clothes, and take action to minimize
exposure to themselves.

6. Carefully evaluate the qualifications and expertise of consultants who are hired to assess
occupational or environmental health and safety issues. Anyone can present himlherself as an
"industrial hygienist," regardless of education, training, or expertise. One useful benchmark for
vetting individuals who provide industrial hygiene services is the designation of Certified
Industrial Hygienist (CIH). Certification by the American Board ofIndustrial Hygiene (ABIH)
ensures that prospective consultants have met ABIH standards for education, ongoing training,
and experience, and have passed a rigorous ABIH certification examination. The UNICOR
and/or BOP industrial hygienists can assist in the selection of your consultants.

7. Perform a detailed job hazard analysis prior to beginning any new operation or before making
changes to existing operations. This will allow BOP to identify potential hazards prior to
exposing staff or inmates, and to identify appropriate controls and PPE. Involve the BOP and/or
UNICOR industrial hygienists in these job hazard analyses. If medical surveillance is needed
then BOP should perform pre-placement evaluations of exposed staff and inmates. This medical
surveillance should be overseen by an occupational medicine physician.
Page 11

8. Appoint a union safety and health representative. This individual should be a regular
participant on the joint labor-management safety committee that meets quarterly. Since inmates
do not have a mechanism for representation on this committee, ensure that they are informed of
its proceedings and that they have a way to voice their concerns about and ideas for improving
workplace safety and health.

This interim letter will be included in a final report that will include visits to two other BOP
facilities. Please post a copy of this letter for 30 days at or near work areas of affected staff and
inmates. Thank you for your cooperation with this evaluation. If you have any questions, please
do not hesitate to contact us at (513) 841-4382.

                                                Sincerely yours,




                                                Elena H. Page, M.D., M.P.H.
                                                Medical Officer




                                                David Sylvain, M.S., C.I.H.
                                                Industrial Hygienist
                                                Hazard Evaluations and Technical
                                                 Assistance Branch
                                                Division of Surveillance, Hazard
                                                 Evaluations and Field Studies


            Warden, FCI Texarkana 

                 President, AFGE Local 2459 

            l-l."'lM.Ulll Director, UNICOR 

Page12 _ _ _


Figure 1.
Page 13

Tables
Table 1                                                                                HETA 2008-0055
Air sampling, July 16, 2008                                                    Federal Bureau of Prisons
Glass Breaking Area                                                                 Fel Texarkana
                                     Sampling
                                                 Sample Volume           Cadmium                   Lead
             Location                 Period
                                                    (liters)              (~g/m')                 (~g/m')
                                     (minutes)
PBZ* funnel glass breaker, a.m.        174             345                   1.5                    3.9
PBZ panel glass breaker, a.m.          175             350                   1.7                    6.0
PBZ feeder, a.m.                       174             347                 trace,-r                trace
PBZ feeder, a.m.                       173             344                 trace                   trace
PBZ-funnel glass breaker, p.m.         129             256                   1.3                    7.0
PBZ-panel glass breaker, p.m.          127             253                  0.59                    4.0
PBZ-feeder, p.m.                       125             249                 trace                   trace
PBZ-feeder,p.m.                        124             247                 trace                    4.5
Areat-top of air handler #4            397             793                  0.24                    3.0
Area table in change-out area          426             844                  0.25                    1.5
Area forklift traffic area, right
                                       421             838                  0.13                    1.8
side, approx. 5.5' above floor
Area-inmate clerk desk, approx.
                                       414             820                  nd**                    nd
3.5' from forklift entry
Area-approx. 10' from feeder
                                       404             801                   nd                     nd


                         iI




ACGIH TLV®                                                                   10                     50
      * PBZ Personal breathing zone sample
      t   Area-Area sample
      +MDC-Minimum detectable concentration. MDC is determined by the analytical limit of detection (LOD) for an analyte and
      the average sample volume. LOD for cadmium and lead are 0.02 ug/sample and 0.3 ug/sample, respectively. The average
      sample volumes for PBZ and area samples are 299 liters and 819 liters respectively.

      § MQC-Minimum quantifiable concentration. MQC is determined by the analytical limit of quantitation (LOQ) for an analyte
      and the average sample volume. LOQ for cadmium and lead are 0.063 ug/sample and 0.86 ug/sample, respectively.

      ,-r trace-Sample   result is between the MDC and MQC.

      ** nd (not detected}-Sample result is below the MDC.

      tt Ca-NIOSH regards cadmium as a potential occupational carcinogen and that exposures should be reduced to the lowest
      feasible concentration.

      See the Appendix for a discussion of NIOSH recommended exposure limits (RELs), OSHA permissible exposure limits
      (PELs), and ACGIH Threshold Limit Values (TLVs® ).
Page 14


       Table 2                                                                                       HETA 2008-0055
       Surface wipe sampling, July 16, 2008                                                  Federal Bureau of Prisons
       Glass Breaking Area                                                                             Fel Texarkana

               Surface                      Description               Area Wiped          Cadmium                Lead


   I                                                                      em'              ~g/wipe              ~g/wipe

       Inmate "A" locker        bottom surface of locker                  100                0.89                 9.4
       Inmate "B" locker        bottom surface of locker                  1 00               0.44                 31.
       Inmate locker #7         bottom surface of locker #7               1 00               trace                8.9
       Inmate "c" locker #9     bottom surface of locker #9               1 00               0.33                 59.
       Inmate "B" PAPR
       face shield              inside surface                            100               trace*                1.8
       Inmate "C" PAPR
       face shield              inside surface; in locker #9              100                ndt                 trace
       ChanQ8 out table                                                   100                 2.5                 57.
       Floor                    approx. 4' outside forklift entry         100                 1.1                 60.
       Inmate clerk desk        near forklift entry to booth              100                0.43                 6.4
       Floor                    forklift traffic area                     100                 1.6                 90.
       Staff desk               in office                                 100                 nd                 trace
       Inmate "B" hands         feeder (mominQ)                             -                0.41                 4.3
       Inmate "A" hands         panel qlass breaker (morninq)               -                 3.1                 9.5
       Inmate hands             funnel glass breaker(moming}                -                 3.5                 17.
       Inmate hands             feeder (morning)                            -                0.35                 4.1
       Inmate hands             feeder (afternoon)                          -                trace                1.9
       Inmate "A" hands         feeder (afternoon)                          -                0.40                 3.4
       Inmate "C" hands         funnel qlass breaker (afternoon)            -                 2.4                 21.
       Inmate "B" hands          panel glass breaker(afternoon}             -                 1.2                 16.
          Inmates "A, " " B, and "C, are three Individual workers for Vllhom multiple samples were collected.

          trace-Sample result is between the analytical limits of detection and quantitation. The limits of quantitation for cadmium
         I<

         and lead are 0.29 ug/sample and 1.3 ug/sample, respectively.

         t nd (not detected}-Sample result is below the analytical limit of detection. The limits of detection for cadmium and lead
         are 0.09 ug/sample and 0.4 ug/sample, respectively.
Page 15

References

NIOSH [2009]. NIOSH manual of analytical methods (NMAM®). 4th ed. Schlecht PC,
O'Connor PF, eds. Cincinnati, OH: U.S. Department of Health and Human Services, Public
Health Service, Centers for Disease Control and Prevention, National Institute for Occupational
Safety and Health, DHHS (NIOSH) Publication 94-113 (August, 1994); l,j Supplement
Publication 96-135, 2nd Supplement Publication 98-119; 3,d Supplement 2003-154.
[www.cdc.gov/niosh/nmaml].



Appendix
Occupational Exposure Limits and Health effects

In evaluating the hazards posed by workplace exposures, NIOSH investigators use both
mandatory (legally enforceable) and recommended occupational exposure limits (OELs) for
chemical, physical, and biological agents as a guide for making recommendations. OELs have
been developed by Federal agencies and safety and health organizations to prevent the
occurrence of adverse health effects from workplace exposures. Generally, OELs suggest levels
of exposure to which most workers may be exposed up to 10 hours per day, 40 hours per week
for a working lifetime without experiencing adverse health effects. However, not all workers will
be protected from adverse health effects even iftheir exposures are maintained below these
levels. A small percentage may experience adverse health effects because of individual
susceptibility, a pre-existing medical condition, and/or a hypersensitivity (allergy). In addition,
some hazardous substances may act in combination with other workplace exposures, the general
environment, or with medications or personal habits of the worker to produce health effects even
if the occupational exposures are controlled at the level set by the exposure limit. Also, some
substances can be absorbed by direct contact with the skin and mucous membranes in addition to
being inhaled, which contributes to the individual's overall exposure.

Most OELs are expressed as a time-weighted average (TWA) exposure. A TWA refers to the
average exposure during a normal 8- to 1O-hour workday. Some chemical substances and
physical agents have recommended short-term exposure limit (STEL) or ceiling values where
health effects are caused by exposures over a short-period. Unless otherwise noted, the STEL is a
IS-minute TWA exposure that should not be exceeded at any time during a workday, and the
ceiling limit is an exposure that should not be exceeded at any time.

In the U.S., OELs have been established by Federal agencies, professional organizations, state
and local governments, and other entities. Some OELs are legally enforceable limits, while
others are recommendations. The U.S. Department of Labor Occupational Safety and Health
Administration's (OSHA) permissible exposure limits (PELs) (29 CFR2 1910 [general industry];
29 CFR 1926 [construction industry]; and 29 CFR 1917 [maritime industry]) are legal limits
enforceable in workplaces covered under the Occupational Safety and Health Act. NIOSH


2   Code a/Federal Regulations. See CFR in references.
Page 16

recommended exposure levels (RELs) are recommendations based on a critical review ofthe
scientific and technical information available on a given hazard and the adequacy of methods to
identify and control the hazard. NIOSH RELs can be found in the NIOSH Pocket Guide to
Chemical Hazards [NIOSH 2005]. NIOSH also recommends different types of risk management
practices (e.g., engineering controls, safe work practices, worker education/training, personal
protective equipment, and exposure and medical monitoring) to minimize the risk of exposure
and adverse health effects from these hazards. Other OELs that are commonly used and cited in
the U.S. include the threshold limit values (TLV s) recommended by the American conference of
Governmental Industrial Hygienists (ACGIH), a professional organization, and the Workplace
environmental exposure limits (WEELs) recommended by the American Industrial Hygiene
Association, another professional organization. ACGIH TLV s are considered voluntary exposure
guidelines for use by industrial hygienists and others trained in this discipline "to assist in the
control of health hazards" [ACGIH 2008]. WEELs have been established for some chemicals
"when no other legal or authoritative limits exist" [AIHA 2007].

Outside the U.S., OELs have been established by various agencies and organizations and include
both legal and recommended limits. Since 2006, the Berufsgenossenschaftlichen Institut fiir
Arbeitsschutz (German Institute for Occupational Safety and Health) has maintained a database
of international OELs from European Union member states, Canada (Quebec), Japan,
Switzerland, and the U.S. [http://www.hvbg.de/e/bia/gestis/limit_values/index.htrnl]. The
database contains international limits for over 1250 hazardous substances and is updated
annually.

Employers should understand that not all hazardous chemicals have specific OSHA PELs, and
for some agents the legally enforceable and recommended limits may not reflect current health­
based information. However, an employer is still required by OSHA to protect its employees
from hazards even in the absence of a specific OSHA PEL. OSHA requires an employer to
furnish employees a place of employment free from recognized hazards that cause or are likely
to cause death or serious physical harm [Occupational Safety and Health Act of 1970 (Public
Law 91-596, sec. 5(a)(1»]. Thus, NIOSH investigators encourage employers to make use of
other OELs when making risk assessment and risk management decisions to best protect the
health of their employees. NIOSH investigators also encourage the use of the traditional
hierarchy of controls approach to eliminate or minimize identified workplace hazards. This
includes, in order of preference, the use of: (1) substitution or elimination of the hazardous agent,
(2) engineering controls (e.g., local exhaust ventilation, process enclosure, dilution ventilation),
(3) administrative controls (e.g., limiting time of exposure, employee training, work practice
changes, medical surveillance), and (4) personal protective equipment (e.g. , respiratory
protection, gloves, eye protection, hearing protection). Control banding, a qualitative risk
assessment and risk management tool, is a complementary approach to protecting worker health
that focuses resources on exposure controls by describing how a risk needs to be managed
[http://www.cdc.gov/nioshitopics/ctrlbandingl].This approach can be applied in situations where
OELs have not been established or can be used to supplement the OELs, when available.
Page 17


Lead

Occupational exposure to lead occurs via inhalation oflead-containing dust and fume and
ingestion oflead particles from contact with lead-contaminated surfaces. In cases where careful
attention to hygiene (for example, handwashing) is not practiced, smoking cigarettes or eating
may represent another route of exposure among workers who handle lead and then transfer it to
their mouth through hand contamination. Industrial settings associated with exposure to lead and
lead compounds include smelting and refining, scrap metal recovery, automobile radiator repair,
construction and demolition (including abrasive blasting), and firing range operations [ACGIH
2001]. Occupational exposures also occur among workers who apply and/or remove lead-based
paint or among welders who burn or torch-cut metal structures.
Acute lead poisoning, caused by intense occupational exposure to lead over a brief period oftime
can cause a syndrome of abdominal pain, fatigue, constipation, and in some cases alteration of
central nervous system function [Moline and Landrigan 2005]. Symptoms of chronic lead
poisoning include headache, joint and muscle aches, weakness, fatigue, irritability, depression,
constipation, anorexia, and abdominal discomfort [Moline and Landrigan 2005]. These
symptoms usually do not develop until the blood lead level (BLL) reaches 30-40 micrograms per
deciliter of whole blood (flgldL)[Moline and Landrigan 2005]. Overexposure to lead may also
result in damage to the kidneys, anemia, high blood pressure, impotence, and infertility and
reduced sex drive in both sexes. Studies have shown subclinical effects on heme synthesis, renal
function, and cognition at BLLs <10 flgldL [ATSDR 2007]. Inorganic lead is reasonably
anticipated to cause cancer in humans [ATSDR 2007].

In most cases, an individual's BLL is a good indication of recent exposure to lead, with a half-life
(the time interval it takes for the quantity in the body to be reduced by half its initial value) of 1­
2 months [Lauwerys and Hoet 2001; Moline and Landrigan 2005; NCEH 2005;]. The majority of
lead in the body is stored in the bones, with a half-life of years to decades. Bone lead can be
measured using x-ray techniques, but these are primarily research based and are not widely
available. Elevated zinc protoporphyrin (ZPP) levels have also been used as an indicator of
chronic lead intoxication, however, other factors, such as iron deficiency, can cause an elevated
ZPP level, so the BLL is a more specific test for evaluating occupational lead exposure.

In 2000, NIOSH established an REL for inorganic lead of 50 micrograms per cubic meter of air
(flglrn3) as an 8-hour TWA. This REL is consistent with the OSHA PEL, which is intended to
maintain worker BLLs below 40 flgldl; medical removal is required when an employee has a
BLL of 60 flg/dL, or the average ofthe last 3 tests at 50 flgldL or higher [29 CFR 1910.1025; 29
CFR 1962.62]. NIOSH has conducted a literature review ofthe health effects data on inorganic
lead exposure and finds evidence that some ofthe adverse effects on the adult reproductive,
cardiovascular, and hematologic systems, and on the development of children of exposed
workers can occur at BLLs as low as 10 flgldl [Sussell1998]. At BLLs below 40 flgldl, many of
the health effects would not necessarily be evident by routine physical examinations but
represent early stages in the development oflead toxicity. In recognition ofthis, voluntary
standards and public health goals have established lower exposure limits to protect workers and
                                                            3
their children. The ACGIH TLV for lead in air is 50 flglm as an 8-hour TWA, with worker
Page 18

BLLs to be controlled to :s 30 flgldl. A national health goal is to eliminate all occupational
exposures that result in BLLs >25 flgldl [DHHS 2000]. The Third National Report on Human
Exposure to Environmental Chemicals (TNRHEEC) found the geometric mean blood lead
among non-institutionalized, civilian males in 2001-2002 was 1.78 flgldL [NCEH 2005].

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
                                                                     3
concentration of lead at or above the action level, which is 30 flglm as an 8-hour TWA for more
than 30 days per year [29 CFR 1910.1025]. Blood lead and ZPP levels must be done at least
every 6 months, and more frequently for employees whose blood leads exceed certain levels. In
addition, a medical examination must be done prior to assignment to the area, and should include
detailed history, blood pressure measurement, blood lead, ZPP, hemoglobin and hematocrit, red
cell indices, and peripheral smear, blood urea nitrogen (BUN), creatinine, and a urinalysis.
Additional medical exams and biological monitoring depend upon the circumstances, for
example, ifthe blood lead exceeds a certain level.


Cadmium

Cadmium is a metal that has many industrial uses, such as in batteries, pigments, plastic
stabilizers, metal coatings, and television phosphors [ACGIH 2001]. Workers may inhale
cadmium dust when sanding, grinding, or scraping cadmium-metal alloys or cadmium­
containing paints [ACGIH 2001]. Exposure to cadmium fume may occur when materials
containing cadmium are heated to high temperatures, such as during welding and torching
operations; cadmium-containing solder and welding rods are also sources of cadmium fume. In
addition to inhalation, cadmium may be absorbed via ingestion; non-occupational sources of
cadmium exposure include cigarette smoke and dietary intake [ACGIH 2001]. Early symptoms
of cadmium exposure may include mild irritation of the upper respiratory tract, a sensation of
constriction of the throat, a metallic taste and/or cough. Short-term exposure effects of cadmium
inhalation include cough, chest pain, sweating, chills, shortness of breath, and weakness [Thun et
al. 1991]. Short-term exposure effects of ingestion may include nausea, vomiting, diarrhea, and
abdominal cramps [Thun et al. 1991]. Long-term exposure effects of cadmium may include loss
of the sense of smell, ulceration of the nose, emphysema, kidney damage, mild anemia, and an
increased risk of cancer of the lung, and possibly ofthe prostate [ATSDR 1999].

The OSHA PEL for cadmium is 5 flg/m 3 TWA [29 CFR 1910.1027]. The ACGIH has a TLV for
                          3
total cadmium of 10 flglm (8-hour TWA), with worker cadmium blood level to be controlled at
or below 5 flgldL and urine level to be below 5 flglg creatinine, and designation of cadmium as a
suspected human carcinogen [ACGIH 2008]. NIOSH recommends that cadmium be treated as a
potential occupational carcinogen and that exposures be reduced to the lowest feasible
concentration [NIOSH 1984].

Blood cadmium levels measured while exposure is ongoing reflect fairly recent exposure (in the
past few months). The half-life is biphasic, with rapid elimination (half-life approximately 100
days) in the first phase, but much slower elimination in the second phase (half-life of several
years) [Lauwerys and Hoet 2001; Franzblau 2005]. Urinary cadmium levels are reflective of
body burden and have a very long half-life of 10-20 years [Lauwerys and Hoet 2001].
Page 19

OSHA requires medical surveillance on any employee who is or may be exposed to an airborne
concentration of cadmium at or above the action level, which is 2.5 Ilglm3 as an 8-hour TWA for
more than 30 days per year [29 CFR 1910.1027]. A preplacement examination must be provided,
and shall include a detailed history, and biological monitoring for urine cadmium (CdU) and
beta-2-microglobulin (B-2-M), both standardized to grams of creatinine (glCr), and blood
cadmium (CdB), standardized to liters of whole blood (lwb). OSHA defines acceptable CdB
levels as < 5 IlglL, CdU as < 3 IlglglCr, and B-2-M as < 300 Ilg/g/Cr. NHANES III found
geometric mean CdB ofO.4llglL among men in 1999-2000. The geometric mean CdU for men
in 2001-2002 was 0.2 Ilg/giCr. Smokers can have CdB levels double that of nonsmokers
[Lauwerys and Hoet 2001]. Periodic surveillance is also required one year after the initial exam
and at least biennially after that. Periodic surveillance shall include the biological monitoring,
history and physical examination, a chest x-ray (frequency to be determined by the physician
after the initial x-ray), pulmonary function tests, blood tests for BUN, complete blood count
(CBC), and Cr, and a urinalysis. Men over 40 years of age require a prostate examination as
well. The frequency of periodic surveillance is determined by the results of biological monitoring
and medical examinations. Biological monitoring is required annually, either as part ofthe
periodic surveillance or on its own. We recommend that the preplacement examination be
identical to the periodic examinations so that baseline health status may be obtained prior to
exposure. Termination of employment examinations, identical to the periodic examinations, are
also required. The employer is required to provide the employee with a copy ofthe physician's
written opinion from these exams and a copy of biological monitoring results within 2 weeks of
receipt.

Biological monitoring is also required for all employees who may have been exposed at or above
the action level unless the employer can demonstrate that the exposure totaled less than 60
months. In this case it must also be conducted one year after the initial testing. The need for
further monitoring for previously exposed employees is then determined by the results ofthe
biological monitoring.
Page 20

References

ACGIH [2001]. 2001 Documentation ofthe threshold limit values and biological exposure
indices. Cincinnati, OH: American Conference of Governmental Industrial
Hygienists.

ACGIH [2008]. 2008 TLVs® and BEIs®: threshold limit values for chemical substances and
physical agents and biological exposure indices. Cincinnati, OH: American Conference of
Governmental Industrial Hygienists.

AIHA [2008]. 2008 Emergency response planning guidelines (ERPG) & workplace
environmental exposure levels (WEEL) handbook. Fairfax, VA: American Industrial Hygiene
Association.

ATSDR [1999]. Toxicological profile for cadmium. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

ATSDR [2007]. Toxicological profile for Lead. Atlanta, GA: U.S. Department of Health and
Human Services, Public Health Service.

CFR. Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office
ofthe Federal Register.

DHHS [2000]. Healthy people 2010: Understanding and Improving Health. 2nd ed.
Washington, DC: U.S. Department of Health and Human Services. Available on the
internet at: www.health.gov/healthypeop1e/Document/defau1t.htm

Franzb1au A [2005]. Cadruium. Chapter 39.4. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 955-958.

Lauwerys RR, Hoet P [2001]. Chapter 2. Biological monitoring of exposure to inorganic and
organometallic substances. In: Industrial chemical exposure: guidelines for biological
monitoring. 3rd ed. Boca Raton, FL: CRC Press, LLC, pp. 21-180.

Moline JM, Landrigan PJ. [2005]. Lead. Chapter 39.8. In: Textbook of clinical occupational and
environmental medicine, Rosenstock L, Cullen MR, Brodkin CA, and Redlich CA, eds., 2nd ed.
Philadelphia, PA: Elsevier Saunders, pp. 967-979.

NCEH [2005]. Third national report on human exposure to environmental chemicals. Atlanta,
GA: U.S. Department of Health and Human Services, Public Health Service, Centers for Disease
Control and Prevention. NCEH Publication number 05-0570.

NIOSH [1984]. Current Intelligence Bulletin #42: Cadmium. Cincinnati, OH: U.S. Department
of Health and Human Services, Public Health Service, Centers for Disease Control, National
Institute for Occupational Safety and Health, DHHS (NIOSH)/DOL (OSHA) Publication No. 84­
116.
Page 21


NIOSH [2005]. NIOSH pocket guide to chemical hazards. Cincinnati, OH: U.S. Department of
Health and Human Services, Centers for Disease Control and Prevention, National Institute for
Occupational Safety and Health, DHHS (NIOSH) Publication No. 2005-149.
[http://www.cdc.gov/nioshinpgl]. Date accessed: March 2008.

Sussell A [1998]. Protecting workers exposed to lead-based paint hazards: a report to
congress. Cincinnati, OH: U.S. Department of Health and Human Services, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 98-112. January 1998-revised with minor technical
changes.



Thun JM, Elinder C, Friberg L [1991]. Scientific basis for an occupational standard for
cadmium. American Journal ofIndustrial Medicine 20:629-642.
ATTACHMENT 4 

a
                                                                                           1"9"~~... ",...... ,...... ...,.,,~rt   to
                                           Texas.       Texarkana FCr generated
                                             L J ......L L L ' I L l .                                                                  "'-jJ}JJ.v.n..u.Ju.u"'....... 



lbs per              The Texarkana FCI generated about one spent car battery per month.
Documentation reviewed                         showed                 spent car batteries were collected by
Bumper to ~umper Auto parts and Napa Auto Parts located:in Texarkan~ Texas. According to
Texarkana FCI              Spent fluorescent bulbs are collected by CED. At the                           of the inspection,
                    how many
                    \A.U.v..L........... 
       lamps                                    FeI                month.
                                                    (60) ; ; .,. . . . . . v' .........
                                                                                        waste
                                 oil,               and services the                          washers for
                      generates about 11O-gallons of used oil per                              At the time of the
inspection, it was Unclear how much spent solvent is generated per month from the parts
"'f ......,... It was also
             .l.V.l..:>.                much        sand is                              from sand blasting operations.



                                                                               Tour


the          """""".r>A~''''''''''
           jJJ.J..;;JV.u...::o                                                                                                 to        a
site tour of the prison.                                                                           and Texarkana Fel staff left the
conference room and arrived at the                                        't'17<:l,..""hAllC·""    which is located at the satenite camp
outside            prison walls.




                                                           to
        observed several rows of boxed
.Ll.L>.JI-J .........' ...VL 
                  wrapped used electronics (Photograph #1).
The Texarkana FCI staff explained   breakdown process the used electronics to the lead
               According to the Texarkana Fcr     the used electronics are     by




                                                                    glassare     taken to the glass breaking room inside of the
                                                                  provides a site map of the glass breaking room. At the time
                                                    Inspector observed a corner area                     UNICOR warenou~;e
                                                    .;;JLJ.~.~I-JJ..LLI"O. from floor to ceiling.


                           work area
        to                  the broken             is later sold to glass recyclers.      hepavac filters are
utilized to capture dust particulates from the glass breaking activities (photograph #4).                  a
           of lead in the                 ray tubes in funnel glaSs, the hepavac filters were analyzed to be
                                hazardous. At     time of the inspection,            EPA                     a
cardboard Gaylor Box inside of the                         breaking room (Photograph
 AV'"".... Ir'~ ......... FeI                  Box r-n.r'T'.:>"... ""n
      After inspecting the                garage, the
FCl staff arrived at the old prison Milk Bam. 'According to                                                    old prison
Milk Barn was used in            as a dairy      worked by the . . . . . . . . . . . . . ,"'.. . and then as workspace for
                                            old prison Milk Barn is                                                for
                                                       lead EPA . . . . . ..,~J.... v .. '\J$..




      Next, the                             and Texarkana Fer staff arrived at the Recycling
Factory. The Recycling Factory                    directly below the Industrial Filter Factory.
          to Texarkana FCI staff, the Recycling Factory          inmates work          for
            e-wastes for                                                                   no
                 ~
..... '-' ........... .....'"'. . .U . .L'V'.l,UI..,V.L.;JI   are                                                                    are
conducted the glass                                                       Waste generated
activities conducted the Recycling Factory is stored in the hot room. Inside the Recycling
Factory hot room, the    EPA Inspector observed multiple             plastic containers.
                                         (photograph #14).               to


      container with no labels                               #15). According to
staff, the          was currently        used oil.      Recycling Factory also contains a
break room. Texarkana FCl staff stated the         room was formerly used for glass
            The           Inspector observed a hole in the ceiling that was previously used as a
           (photograph #16).




                                                                                 no waste was
                                                                                        .....£1,...,.""..... 1"1,... ...
observed the paint           however,                  staff stated spent paint     generated
from painting operations are disposed of in the municipal trash. Directly adjacent to the paint
booth was     Facilities .Area hot room .. The lead EPA Inspector observed two (2)
                                 markings (photograph # 17).               to




                  The                                                                                                      tour by
3.) During the inspection,     lead EPA Inspector                                                                                               ''''''-'"u''''                          unmarked 3 0­
            container located in the hot room
                   was storing used oil.
                               .......... " .................... 4 





                                                                                                                                                                                                to store


                                                                                                                        Inspector observed two (2) unlabeled and/or unmarked
                                                                                                                    the hot room of the Facilities Area.          FeI
                                                                                                                                        waste .

                                                             Code) Section 335.262(c)(2)(F)­                              .rCl.UJU.1..U.JUS.,.,.."' ..T   •.   ro


        Universal paint Waste -           multiple container package unit, tank., transport vehicle or
                                                                                                VV ....aO"'U"L..u.'..U.


        vessel must be. labeled or marked    the words "Universal Waste - Paint and 

       .Wastes". 


                                                                                                                                                 h.e-"'·nll"';      a
 L<.......   ~·.u..J.F.   .U_U....'''"'LLl'' ........                             beauty is 

                                                            v,J....u ................., .....   "black                                                         FCI staff stated the spent
disposed in the municipal trash and no analytical to determine the presence ofRCRA
hazardous constituents has been performed.           .
     •


     •
D.

     •
     •
     •
      gof




---
                   uS    e:r-"A
          IfI2-­   u.s   J;PA­
     C50t\ ~:5o~   uS            A
                    of               {)
                         &?
                         rP
                     I5-op




,

     #1 





1

2

             STATES



                                     Photo # 3




                 to              glass          from          computer monitor funnel
According to facility personnet the cardboard box ofbroken glass will  sold for recycling.
                                                                   is



                                         3

                                                     Photo # 4




Photographer: Ryan Rosser



                               Correctional Institution
Subject: Close up view of hepavac filter inside of filter box. Note: According to facility personnel, the filter is




                                                          4

     #5 





5

    to




6
STATES ENVIRONMENTAL


                 Photo # 7




                                                  TX 




                                               Bam
                     a                  structure     is not v.u.",..lvu'vu..
        usable parts and recycling. Outgoing electronic parts are sold and



                     7
     #8 





8

     #9 





9

                # 10 





Date: 11/1




             10 

            lTNITED STATES



                                            Photo # 11




Photographer: Ryan Rosser              11/18/2008

City/County: Texarkana, Bowie County                               State: TX



                                                         0.10"",,",,,,,,,,.1"\,,...   components from




                                                11 

12 

Photo #




   13 

#14 





        ! •
                                                       Photo # 16




i
I!   Photographer: Ryan Rosser              Date: 11118/2008        Time:

It11~.
    '-..-ltyIe ounty: T exark an~ B OW1e
                                      . C ounty                     State: TX
I~----------------------------------------------------~------------------------~I
F
Ii
II
 ----------------------------------------------------------------------------------11
                                 ceiling                                        to -~--"--J
                       was        a vent           a
           to the u~ICOR v.,rarehouse (See Photograph #2).



                                                           16 

                IJNITED STATES ENVIRONMENTAL PROTECTION 




                                                   Photo # 17 





I
. Photographer: Ryan Rosser           Date: 11118/2008                     . Time:

    City/County: Texarkana, Bowie County



                        containers with no labels and/or markings located in
                                         ~""U.JL""'.L"" are ""......
                                                      .L .....J.jL ..~               waste.




                                                        17 

                                                                                            FACILITY NAME: 

                                                                                                           ----
                                                                                            EPA ID NUMBER: ______ 


                                        RCRA 	 COMPLIANCE INSPECTION REPORT


NOTE:         On                 part           I   circle those not in

EPA

I.Does the Generator have an EPA I.D. No.?
A.If yes, what is that number?




    .Does the generator generate hazardous waste(s}
                in         D? (261.30 - 261.33   List of
         Hazardous Waste)

    .If            list wastes and            on
                     attachment (Include EPA Hazardous Waste.
                     Number, waste name and

2.Does the generator generate solid waste(s) that
      exhibit hazardous characteristics? (circle those

                                    (261.20 - 261.24 -
          Characteristics of Hazardous Waste),

          a                   wastes and            on
                     attachment (Include EPA Hazardous Waste
                     Number Waste Name and
                             I                         .)

b.Does the
                                                                 of




i.If determined                        did the
                             generator use test methods in Part
                             261,         C (or            ?

                        If              test were methods used,
                             attach copy of .          methods used.

3.Are 	there any other solid wastes deemed non­
       hazardous              the             (i.e.
       process                                      air
                                    water treatment

GENERATORS 	                                                              REVIS~ON--MAY   1992

1
                                                                      FACILITY NAME
                                                                      EPA ID NUMBER

             , etc.)                                             No

      a.If yes, did the           determine non­
            hazardous characteristics            or
                       of




GENERATORS                                            REVISION--MAY 1992

2
                                                                                  FACILITY NAME: 
- - - ­
                                                                                  EPA ID NUMBER

                 i.If determined                did the
                                             methods in Part
                                                           ?                 NO

                 ii.If              test methods were used, 

                         attach copy of            methods used. 


b.List             and            deemed non­
                 hazardous or processes from which non­
                 hazardous wastes were            (Use
                 narrative              sheet)

4.Are any wastes                          or reclaimed 

      on-site? 


           If yes, use narrative       to describe the 

           and          of the waste and the method used 

           for reclamation 


S.Are any wastes               off-site for reclamation?                No

                                   to describe the      and
                                   and its destination. Also
                                                 to

                              of hazardous wastes

-a.Less-than 100

           b.More than 1000

           c.More than 100 but less than 1000                           NO




1.Does the                      hazardous waste off-site?               No

a.If no/ do not fill out Section C and

b. If yes,                        off-site 

                                (Use narrative 

                 sheet) 


2 . Ha's   the                   hazardous waste off-
           site since November 19/ 1980'?

3.IS the generator                 from             because

GENERATORS                                                       REVISION--MAY 1992

3
                                                                      FACILITY NAME: _______
                                                                      EPA ID NUMBER: _______

        of:

Small                         (26;1.5   -



           OR

Produces          non-hazardous solid waste at this
                (261.4 - Exclusions)




GENERATORS                                            REVISION--MAY 1992

4
                                                                                 FACILITY NAME: _______ 

                                                                                 EPA ID NUMBER: _______ 





a.       waste is reclaimed under a contractual
               agreement in which:


                                                   of
                                                  agreement?

               ii The vehicles used
                     waste to the                     and
                     to deliver                       back
                     to the generator is. owned
                              by the reclaimer of the
                     waste?

         b.The generator maintains a copy of the
               reclamation           in his files for a
                      of at least three years after
               termination or            of the agreement?




             yes J     manifest include
              information {262.21 ~


(Circle those        on manifest)

i.Manifest Document No.

ii.Generators Name,         Address,
                  Tele. No.

iii.Generator EPA I.D. No.

iv Tr'an,spior'te!r(s) Name and EPA I.D. No.

v. 	         Name; Address and EPA I.D.
                    No.

vi.DOT               of the waste

vii a.                    or volume)

GENERATORS                                                     REVISION-~MAY   1992

5
                                                      FACILITY NAME: - - - -
                                                      EPA ID NtJlvIBER:
                                                                    ----
b.Containers (type and number)

viii.Emergency Information
                  instructions,
                  Phone No.)

ix.Waste minimization certification




GENERATORS                            REVISION--MAY 1992

6
                                                                                 FACILITY NAM:E: 
- - - ­
                                                                                 EPA ID NUMBER: - - - -

x.Is the                 certification on
                        each manifest form?

                        This    to            that the above


                        marked and labeled and are in proper




6.Does the                 retain         of manifests?                 No

(Check              manifests at random.  Indicate
         how many manifests were            how many
         violations were noted and the type of violation.)

If yes/          a         e. If
      contain more than one item      l   circle those not in


a.i.Did the                      and date all
                        manifests

               ii.Who




         b.    i.       Did the generator obtain handwritten
                                  and date of            from
                        initial

ii.Who              for the t
                        Name:
Title:   ------.~-----~~


I.D. Number:_~~~=-~~~~~

c.Does the                 retain one copy of
                                     generator


d.DO returned
                                                      and date

GENERATORS                                                       REVISION--MAY 1992

7
                                                                     FACILITY NAME: - - - -
                                                                     EPA 'ID NUMBER
                                                                                   ----
             of acceptance?

e.If copy of manifest from           was not
            within 45       did
                              I


            report? (262.42

             i.    If yes, did it contain the
                   information:

                                  copy of manifest




GENERATORS                                           REVISION--MAY 1992

8
                                                                                    FACILITY NAME:
                                                                                                   ----
                                                                                    EPA ID NUMBER: - - - -

                       AND


                             Cover letter
                             generators efforts to locate
                             waste.

       f. 	    Does          the generator retain           for
               3 years?




1. 	   Does the generator                                                     No

       If no,
       If yes,

       Inspect containers           for immediate
       If there are no such containers,             to            8.

2.     Does the generator          waste in accordance
       with 49 CFR 173, 178 1 and 1797  (DOT
       (262.30 -

3.     Are containers
       or

       Use narrative                  sheet to describe 

       containers· and 


4. 	   Does the generator use DOT
       in accordance with 49 CFR 172 when containers are                           :5
       offered for           {262.31 -                                        NO

5. 	   Does the                mark each         in accordance
       with 	49 CFR         when containers are offered for
                      262.3,2                                           Yes   No

6. 	   a.      Is each container                  or less
                                                 when
               marked with the
               containers are offered for
                                                                                   -s
       HAZARDOUS         Federal Law Prohibits Improper

                     found, contact the nearest 

                                  or the U.S. 

       Environmental Protection Agency. 


       Generator's Name and Address

GENERATORS 	                                                       REVISION--MAY 1992

9
                                                                         FACILITY NAME: _______
                                                                         EPA ID NUMBER: - - - -


      Manifest Document

      h.     If other labels exist, list in narrative.

      If there are any vehicles             site
                   hazardous waste,          for
                              Note this instance on
                             sheet.




GENERATORS                                               REVISION--MAY 1992

10
                                                                                     FACILITY NAME: _______
                                                                                     EPA ID NUJI.1BER: - - - -

8. 	   Satellite Accumulation       effective June 20, 1.985)

       a. 	    Does the generator accumulate waste in 

               containers at or near nSatellite" 



               If no,
               If

       b. 	    Are containers             condition?

       c. 	    Is' the waste                  with the containers?

       d. 
    Is wast'e transferred from
               or otherwise 


       e. 	    Are containers                                                             r£
       f. 	    Are containers marked         the words 

                                                                                           \
               Ithazardous waste tt or identification of the 

               contests? 


       g. 	    Has waste accumulation exceeded one {I} 

               quart of                   waste (261.33 e. 

               or 5S         of other hazardous waste? 


               If yes,

               i. 	     Has the container         the excess
                        amount been marked with the date the
                        excess

               ii. 	    Have excess amounts remained in the
                        satellite accumulation area
                        than three ( )

9. 	   Accumulation          (262 34    Accumulation Time for
       Small              Generators)

       a. 	    Is waste                 100                but 

               < 1000 


               If yes, answer rest of                  #9. 

               If no,      to                 #10. 


       b. 	    Is hazardous waste                off site within 

               180 




GENERATORS 	                                                         REVISION--MAY 1992

11
                                                                             FACILITY NAME
                                                                             EPA ID NUMBER

       c. 	    Has the          of waste accumulated on­
               site exceeded 6000

       d. 	                              with the
                                                C, 

                            and Prevention?                     Yes   No 





GENERATORS 	                                               REVISION--MAY 1992

12
                                                                                             FACILITY NAME: 

                                                                                                            ----
                                                                                             EPA ID NUMBER: _______ 


10. 	   Accumulation Time (262.34 - Accumulation Time)

        a.     Is the 	                              status


               If yes,      to Section E, and            and 

               attach the TSD checklist and appropriate 

                            checklists.  If rio, answer r~st 

                           #8. 


        b. 	        hazardous waste          offsite within 

               90                                                           Yes   No 


        c. 	   Is waste stored in containers or tanks?

        d. 	   Is the              date of accumulation time 

                          indicated on each container? 


        e. 	   Is      container or tank marked with the 

               words IlHazardous Waste ll ? 


        f. 	   Complete and attach the 

                            checklists 


        g. 	   If the           accumulates waste on-site 

               for less than 90                RCRA 

               Generators Checklist 



Recordkeeping and Reporting

1. 	    Is the generator         the following reports
        for a minimum of three (3)         (262.40 ­


        a. 	   Manifests and                  from
               facilities?                                                        No

        b.     Biennial reports {or reports as                by                             ,
               state                                                        Yes   No     t'--.J
        c.

        d. 	   Test

2.      Where are records          (at                             ?




GENERATORS 	                                                           REVISION--MAY 1992

13
                                                               FACILITY NAME: -
                                                                              
 --­
                                                             , EPA ID NUMBER:
                                                                            ----

3     Who is in   of       the records?

      Name: __~~~~~~~~~~~~~~~______________
      Title




GENERATORS                                    REVISION--MAY 1992

14
                                                                                FACILITY NAME 

                                                                                EPA ID NUMBER: _______ 





                             received from or              to
       a                    any hazardous waste?
       (262.50 -

       If yes,

       a.      Has a note         filed with the·R.A.?

       b       Is this waste manifested and


       c	      If the generator                wastes out of
               the country has he received confirmation of
               delivered         ?

       d.      Has




GENERATORS 	                                                    REVISION--MAY 1992

15
      Charging Station
                                                                                           HEPAAlR
                                                                                           SYSTEM




                         3




Dressing Area                                                                                        6
                                            after each shift. 'Place '
                                  in disposal box inside of the
                             booth, Ensure PPE is cleaned.               I            I
                                                                         I'           ,I
                                                                         I             I
                                                                                  5   I
                                                                                                 CRT tubes storage area.


FEBRUARY                                                                      -                     only,

                                                                                               TeRC FPC NORTH
                                                                                               GLASS BOOTH (Rev. 4)
                         I                                                                                  qp 6300·B(H}
                                                               _ _ _"""'------:-=_ Bmfng Contaet

                                                              :.....-_ _ _ _ _ _ Pbe.
                                                                                            __--------~--~ FAX




                                                                  _ _ _ _ _ _ Packin: C3roup            _ _ _ _ _ RQ ._ _ _~..",...,.,~,.".
                                                                               Quantity




                            Qf Y!;CrIsed RadlolBltiYeWlUlte              o           Cantainl UHCIICoostituIDli of Conc:mt: Liat in S«ition D"·'
                    Rtplad M.~ica1/1nfectiowl WaD                        o           B1:II:mptW,,*:   !f~ Jistmf. 40CFR

                                                                         o




(
                                                                               E1cmellul CollltitueDflI (ppm):
                                                                                                             Sb              All              BI
                                                                             Be             Cd   _~_         Cr              Pb _ _"_ Hi
                                                                             Ni   ~Se                                        11               V

                                                                             F. PBl'BlCAL CBARAC1".IRJSTICS
                                                                             l1Iqh Point: _ _ _ lip (if <13"F)
                                                                                              a lIXbl41

    "




    Rev: 0211810S
                                         METHOD

     Plasma (ICP) Metals   SW846 6010B   SW846
                                7470A    SW846




(





                                                  1­
                                                                              C!8J290229


                                                                                                                        SAMPLED   SAMP·



K1VJF           001        3418874                                                                                      lO/2B/O~ .10:~9



• ".I'hc ~ re;uI11 oldie ~ ~ IboveIRl ~ oo1befo~paga. 

~ An ~ m pafomH:d bdilre ~ to nol4 1tJl.lIld-ot1 emmJ in ~ mIIllts. 

- R.ead!s n.ou:d aa "ND. 'IIf'C:f4C DOt deii::cII:d lilt or above the IIiCiIIIfI:Id Iimi1. 

M   "l'b.l$ RptI11 mu.a JlCt be ~   ~      in NB. ~ the wtl.u;m ipprow of IiLI ~1')'.          


"R.e:iII.tIti for~ ~~ uc IIIC\'eC rep::11'tICId ODIl dryweifbl bam                 ~. da:I.w:ity~ ~ ~, layem. odot. 

    pmt:filtc'tm. pH, pormlty ~ ~. Ridox ~ IIpId:fic: jp'avity, &pOt tr:m. mI.Ids, r.nWbill1y. b:mp~. ~. aud wc:Jpt.




                                                                                                                                          ,   .~




                                                                                                                                              j
                                                                                                                                              \


                                                                                                                                              !t .
                                                                                                                                              r
                                                                                                                                              I
                                                                                                                                          !
                                                   Lot Nv:mbe:r: 

     ~'eN-K.U~n   SVlHaf'nS. Inc.                  Date Received: 

                                                   Date SimlPlerJ:    1012812008 





                                    101311.2ODf1




(

    THE LEADER IN ENVIRONMENTAl. TEaTING




                                              Sit, Cost::: mn:COR 


                                              Lot 'I: CSJ290233 





(                                                                     Inc
                                                 PO J30x 7813
                                           ocala. FL     34478-7813


                                                                                                           f
                                                                                                           I
                                                                                                           ·f

                                                                                                           I
                                                                                                           t

                                                                                                           t
                                                                                                           t
                                                                                                           t
                                                                                                           I
                                                                                                           t
                                                                                                           t
                                                                                                           !
                                                                                                           t
                                                                                                           f
                                                                                                           i
                                                                                                           t

                                               Bovemher 4" 2008                                            I
                                                                                                           ~
            301       Drive PItt:sbulrah.PA 15238 teI412.963.70S8 fax412.963.2468 www.testBmerl(ainc.(om
Lot #



        one smnoJle on VC1tobM   2008.
            TCLP ­ VOLA 77LES OIJlLY




.o.c. SEA.LS SIGNED, 'DATED( AND'ltfrACTON'A\LL SAMPLES JARS1 •

               < •
                                                                  :rCL..PCOC.xis, 3/30/04
                                                                       _.,..,..,.....,=~   __   Billing Co1f1t1.Ct
                                                                       _ _ _ _ _ _ P/Ions. ________~--__- - FAX




                                                                                                                     _ _ _ _ _ RQ




                                                                                                  Cmrtlina UHCsIConstitumti of Conccm: LW ill JCdion D .
                    Re&u1m:t4 Medicallf.nfectioUl Wasco                                           Exempt Wasm:               40 CFll

                    Waste Subject to Bem:alc NBSHAP regW.atioru



    o
    D. MATERIAL COMPOSmON .                ~Totll.> 01' ::, 100",         or ppm
           G-{o~~                                                       j64.1~
(
          ...                                                                    ,~




                                                                                                                        Sb                               Sa
                                                                                                                                                   _ _ _ fIg _ _
                                                                   -
                                                                                                                                                            v




    '..
                         ..                                                                                                    _ _ _ Vlscasity cps
           o MSDB AUadled                                 Total:   [()t)7~                                                     ...0..:::";;;""'_   % Halogens




    Rev: 02J2BIOS
                              C!:4l'2,g0233




                                              ANALYTICAL    PREPARATION



                          Metals 	            SW846 6010B   SW846
                                              SW846 747M    SW846




"Test Methods for 	~v,a+l~~'-~~~
Methods 1'1, Third
                                                                        C8J2:90233



                                                                                                                             SAMPLED     SAMP
WO   #    SAMPLE#- CLIENT SAMPLE ID

K~VJR           001    3418872                                                                                               10/28/013   lO;~O

IiO'f'B (S) ;
- 'l1Ic ~ ~ of me sampk:iI ~ above Me ~ 00 1be foDowiDa pqe&.
- .\ll alw.,. :t.Rl perfo,rmed before ~ to ~ mmId-01'f c:aon In ~ re:ml:1s..
- ~ noted u "NO- were DOt ~ It or above !he ItIIll!d H.mb.
• TIli! ~ Im1Sit wt be ~.      ~t    mfidl. widlQlJ1 tb.e wri1tea II,Il'PTOftl of tb:: ~ .
• ~ for tile fb1lowiDl ~ are IItm!if n:portted 00. a dry ~ bu.ia: eo1m'. eol:roSMty. ~. ~ ~. 1.aJCU, odor.
 paint filter !at. pH. parm:!lypnsmre. n:tad:Ivtty. 11iIdnx ~ speC::i& PWJ, IIpQt ~ solid.., zolubl1iIy, ~ ~. anti weight.
                                                                                                                                                                           Lot Number.

                                                                                                     inc.                                                                  DI~   Received.:
                               SOLID                                                                                                                                       Date San"Pi.ed:


                                                                                                                           "-   ~-   ~,-   ..   ~   ~~
                                                                                                                                                                      -.
                         M1U'12                                                                                                                                              MdOOcl Refen:nce                  Rmdt
      Qfat~m:                                                                                                     ~N""'"
     EPA                                                                                                                                                                                        mg!L
     ~f                                                                                                                              001
     0004         ~
                                                                                                                                                              11i3t2OOa       SWM88010B          S     <O.SQ
            -----Ei8iIi.iin­    --   ,          _. - - - - - --       __   __ ,        __   _ ....            •   _   .,   •    A'         - -           ..
                                                                                                                                                                                                       <19-9
                                         .~-.
                                                                                  A~                 '.'~·R

                                                                  ~



     0005                                                                                                                                                                     S\Na.o 6010B      100
                                                                                                                                                              11J'312OO8
     0006         Cadmium                                                                                                                                                                        1     0.12
                                                                                                                                                              11r.v.rooe      SW84e 6011,lB

     0007         Chmlrdum                                                                                                                                                    SW846 601 o.a     5      28.2
                                                                                                                                                              11~1.l8

     QOO8         lead                                                                                                                                        111l12OO8       SW848B01OB        5      6.8

     0010         S~                                                                                                                                                                             1     <0.25
                                                                                                                                                              11!Jt?008       ~ao1QI3

     0011         5ftwr                                                                                                                                       11I3l2008       SW8466010B        5      <n.50




(





(

       LIb Name:                                              LotNnmber.
      CHeat Name:                Inc. 	                       Date ReteJved:

                                                              Date SaDIIPled:


         C1Iiad ~_lD; - J4118n            ~N~
                                                                MetbOO"~        RetIJmtt           RuuH

                                                                                       ma1L        ~
       EPA
     WillllllllDf   ~                      001
      00Q9          ~                            101311200e      SW8487470A
                                                                                       0.2    .cO.oOO2O

                                                                                ---I   ...




(





(

                                                             IVE
                                                             PARTMENT
                                                                        TX    75505




                                                             TXD077603371
             Name and pescription


                      NON REGULATED SOLID




15. Special HandUng Instruction and Additional Information




                                                                             109752615 0001   8   -    4
                                    800-468
                                    TO USE                                   343 41038                9, 862 6

                                                             A:   25383 B:               c:       D
     Lab NIlD:Ie;
     CHentName:
                                                                                   10/2~OO8            .

                                                                                        -,   ..
                                                                               Rt!al..baii
                                                                                  mgIL
~   'w. .                                     001
     -0004                                                                         -6              "-ot21i
                                                    11I3l2008

                                                    11J312008     SWM66010B       100                40.4

                                                                                                     ~.50
                                                    11I3l2008     SW&46601GB
    -0Q01 ...-.     Cft~   --- -----_._----                                        5              ---- <0:50


                                                    1113/2008 
                    6                 432

     0010                                           111312008 
                                      <1~

     0011                                                                          5                 <2.5




(
                                                                                                      TX           75505

                                                                                          US EPA 10 Number                 A. Transporters Phone
                                                                                   T. X D 0. 0 () 7 .4 7   ~l:7                    903 757-918'7
                                                                                                                                                        -5840
                                                                                          US EPA ID Number                 C. Facility's Phone


                                                                                   TXD077603371                                    940 483-5200
                                                                                                                                     12. Corltairlers
                                                                                                                                       No.
                       NON REGULATED SOLID
                                                                                                                                                 Cf




15. Special Handling Instruction and Additional Information



                                                                                                                  109752615 0001-9893-84
                                                                                                                                   81681,82739,86256

                                                                                   A:       25383 B:                            c:                       D;




19. Discrepancy Indication Space




"0. Facility Owner or Operator: Certification of receipt of materials covered by this form except as noted in Item 19.


   Printedffyped Name
83   800-669-5740                          DUNS NO. 05-397-6551   FED. 10 NO. 396Q90019       CUSTOMER




                                                                                          TOTAL CHARGE
                                                                                          (FROM ABOVE)

                                                                                           WASTE MIN.
                                                                                          (FROM ABOVE)

                                                                                          TOTAL DUE



                                                                                              [1'100501569
                    IN THE EV'ENT OF AN
                                                                                                  4:  3.(10
                    EMERGENCY' OAI...IJ.
                    1-800+468·1760 (24 Hours>
!




    Rst.1
                                                                                   -
         ..
                                           [                                             -
                                                                                                                        ,/"
       ..
    smD2
            ,


                ~~   _ _ _ _~~~_~_       - ~
                                          '.                                                 ..                    -I.
                                                      \                                                        ~/
                                         ~.
                                                          \. ­                                             /        .
                                                :.
                                                 .....
                                                 II

                                                                \                                  /
                                                                .\          "'1:
                                                                                             .j                               ..

                                                                        \                /. 

                                                                            \       'j
                                                                                   V                                               .'




                                                                                   /\                  ­


                                                                            .f\. -
                                                                           /' \
                                                                        /If      .\. 

                                                                                ..                 \­
                                           -.              -
                                                                    I   .                                      \        ~




                                                                :j                           ..
                                                                                                                    \
                                                               j        -
                                                                                                                        \
                                                          I.                                                            .\,
                                -­

I
\



                                ,    J
                                                                  WarenOlI!'Se Use




                                            FOR: HYBRID MOBILES




COST




C osr Ci!nrer :Ylana~~e~


                   TOOL .-UJTHORlZl..TION




                                   "LOCAL
                                                                                 i

                                                                                 I

                                                                                 !


                                                                         ~. . ~ I
                                                                                                               Wa.re.house Use



                                                  {pLEASE PR..IN1l
            OUA.NTl'!'Y       UNIT       f                           nUN               UNU: J:>ID.(;,l!;         _-t.MUUN1­

               1              EA
                                          I     ..     v   BATTERY                                         ~
                                                                                                                   61 .. 00       I
                                     -
                                                                                   I
                                              FOR: J-l[I4TEX
                          I
                          I

                                                                                   I
                                                                                   1                                          r




                                                                                                 ...
I                                        TOT,u" A..l\{OUl"rr                   !                                61 .. 00


COST




Tooi Room




                                                               AUTHORIZED" 

                                                                                                                                      Warehouse Use



                                                                 [PLEASE PRIN1}
     ~T   '" NI        QUANTl'rr           UNIT                               I !!:..'il J-( IJ:' L.U!!'!           UNlTPRICE          AMOUN1'
                                                                                                                     1J
                          3                EA              12     760CCA BATTERIES                                      57.13          171 .. 39
                                                  ..
                          2                EA              10     6ff.:S€CA:i:BATTERIES                            cf1 11 54.87        109 .. 74
                                                                                                                 ,
                          2                BX              CJ8 SPARK PLUGS                                              13.10           26 .. 20                j


                         2                 BX              3157 TAIL LIGHT BULBS                                        1'1 •. 30       ?A,flO                  i
                                                                                                                1
                         2                 BX              3156 TAIL LIGHT BULBS                                I       18 ..           ':iii.OO                !
                         2                 RIB.            BATTERY TERMINALS                                             8 .. 90        17 .. 80            I
                         1                 BX              112 HOSE CLAMPS                                                               '1 ,70             ,
                                                                                                                                                            t
                                                                                                                                                            I

                                                                                                                                                            I

                         4                 EA              22i   'WIPER ARMS                                             3 .. 99        15.q6               i
                         4             /   EA              19 'WIPER ARMS                                                3 .. 99        15 .. 96
                                                                                                                                                            I
 ~                                 I                                                                        II                                          !


t'                                                     ,                                                    I
                                   I                                                                        !

                                   I                   I                  -                                 !
                                                                                                                                                        j
                                                                                                                                                       ·1

                                   I                                                                        ,                   ...                    !
                  I.               I               I                 ,.

                  J                I               , TO'l_U .-u\10u'1;ll                                    I                                          I
                                                                                                                                                   (
                                                                                                                                         17
COST




 Tool Room




                                            :.t.LOCAL
.' 

  .i. 





           QUANTITY   UNIT
              1        EA
              1        EA
r---------~--------~--------4---~--------------------------~--~----~.   ____
                                                                           .------~




                             TOTAL AMOUNT
                                  ~PlUNT)
:ND.   T -"\1 JA.NTITY­   UNIT                                    UNITPRlCE   , ' A'MOrThlT
                1            EA   r   1011 BATTERY                                          ~5-4   .-50
                                                 :# 11 (FOOD-S)                              "

                                                                                   "




                                                                                       .
                                                                                       .'




                                                                               -

                                                                              -"
                                  TOTAr   A. MOlrNT                                         54.00
·   ....
             1   EA   1211J   L. . . .,.,.,~"
                                                BATTERY                                                               69 .. 00
                      FOR::




COST                                  ______ YREGDOC#:....::-___..:--...:.......:=-......;;::;;....=c....;:;...._ _




                                                                                                                        , '




Tool Ro,om
                                     Warehouse Use




         _ _~_ YREGDOC#:




                 COMPUTER .RELATED




"LOCAL       A
                         Warehouse Use




                            57 .. 95




                                 95




'''LOCAL   AUTHORIZED"
J
J


j
                         2     EA                                           56 .. 00   112.00


                                         FOR: WATER




COST
Card Holder


Cost Center   IVlana~~er:___



                                                       COMPUTER RELA T.ED
 Too) Room




                               tLLOCAL                AUTHORIZED"
                                                                                   Warehouse Use
                                                        PHONE

                                                                                  02-08-06



                                           BATTERY BOOCCA
                         1       EA    OIL DRAIN PLUG




COST CENTER:_ __

Card Holder ;:)Iglllattue:                   ____________DATE: ____________~__~

Cost Center   Mana~~er: _ _--i         ____~____________ DATE____

                  TOOL AUTHORIZATION                    COMPUTER RELATED SUPPLIES/SAFETY
 Tool Room




                                 "LOCAL REPRODUCTION AUTHORIZED"
                                                                                                             Warehouse Use




                                   "
                                                  (pLlf.A."F. PRINT)
    STOCK NO.    QUANTITY   UNIT       I                       11<"'"   '11   U'TIUN            UNIT PRICE     AMOurn

                       2    EA             12 u    RA'I"TfOII Ii:S                                  59 00         118 00
                                           FOR~     r..~An17D:I~1



                            :




                                                                                                               ~:l:8   t}f:}



COST                                                                             YREGDOC#: _ _ __

                                             - - - - -DATE                               ;1
Cost Center                                __________ DATE__~--


                TOOL                                                          COMPUTER RELA'tED SUprLIES/SAFETY
Tool Room




                                "LOCAL                                  AUTHORIZED"
                                                                                                                         Warehouse Use




                                      ~
                                             (pJ .EA..Cat PRlNT)
    STOCK NO.    QUANTITY   UNIT                        I"if< .....   -K!t'    llUf'II              i   Ul~U   PRICE ~     AMJUNI


                       1         EA                                                                                          56.00
                                          FOR: J-.10'iTF.X            (KIICK!!."­        TRUGKJ


                            .­




                                                                                                         /




                                                                        .,..
                                                                                         ....1
                                                                                                  ..l ~5~
                                                                                                                  - -­
                                                                                                               . '1\)
                                                                                                                           ~.



COST




Cost Center


                TOOL                                                      COMPUTER RELAT.ED
Tool Room




                                 "LOCAL                               AUTHORIZED"
                                                                                                                       Warehouse Use




                                  .       (pLT?· A~E PRINT)
    ~                      UNIT                    nit·...' 'Y"UUN                             UNIT PRICE                     A.NfOUNT

                  1        EA           57 SERIES BATTERY                                                                                 II
                                        FOR   rll 10 (PRAMAC S7500)

                           :




                                                                                                                               49 .. 00


COST                                           ____            YREGDOC#=---'--.::...:......;--=--..::.._..;..........~'---_
Card Holder


Cost Center


              TOOL AUTHORIZATION                           COMPUTER RELA'fED SUPPLIES/SAFETY
 Tool Room




                               "LOCAL
                                                                 Warehouse Use




               1
               1         ASSORTED E-CLIPS
               2         VALVE STEM WRENCHES
               1
              1


                             GARAGE




COST CENTER: _ _                 _ _ _ _ YREGDOC#:




Cost Center


                                            COMPUTER RELA T,ED
Tool Room




                   "LOCAL REPRODUCTION AUTHORIZED"
                             B70'-774--5147                            OCR            y    REMIT   ~~YMENT       TO:
                             REF____,__                                                    PO BOX 848033 

                             TnJ~R~'ANA 71354 
                                            DALLAS TX 75284-8033 

                                                                                           -"'-'-----'--'-------=~;.....----------                    '.- ""
                                                                                          , ALL GOODS.'RETUANED MUST BE ACCOMPANIED BY THIS INVOICE

g         1   ACCT. NO_                            SOLD TO                                         'j»AJE
 x ! :I . -­ -. _ ..- ­
~.. ,.8;::::-~~:~ll!..)I:L~O
                                  ,-'   -    I
                                  .-EUEHHL PH SON INDUSTR
y,                   r \        X   s'~.soo
~,
                                                                             0,,,-0
lil I
J;:           ( 12         TEXAf~!-{(~Nr-~,   TX       7550~5'-OOOO
~
I\)
      I       QUANTITY                   PART NUMBER          LlNE
                t"                                            BAT
                 t" (.Ie)       75~')8                        Br:n                                          ,1                                  D
                :[ .. 00·­     7'55.:3                        Bt=l'T                                               ooc            :lO .. OOCFD



                                                             0,,00
                                                         FOR SERVICE CALL            TRANSPORTER                            ,       NUMBER




                                                                                  CORP,
                                                         ~20    DAVIS RD..          4TH FLOOR
                                                                         CONNI~    MCGOWAN-SLS SUPPORT



                                                                                                            PROMO
                                                                                                             NO.




5~~----+-----~--~------~------~--------~----~~----~-4~~~~~--+-~--~--~4--+---+---r--4---+---~+_-----------------
6~+-----~--------~~------~----~~--------+-~--~--------~~-P.~r---~~----~--~-+--r---+---r-~r--;------r------------------
7~+_--~~--~--~~------~----~~------_4----~4_------~~~~r_----+_--~------+_~--~--+_~r__+~---+------------------
8~+_----+_--------~------~~~--~~------~------~~--~~~~~~----~----r_--~~_+--~--_r--~--+_----~-----------------
9~~-----L----__----L---~----~------;_--------_+-------




t~------~--------------------~--------------------__------------4---r--+--~----T-~------~
...
~'~~~------~~------------~------~----------------~------------------------r---r---r---------~--~--------~

).~_=~=_~~~~~~~~~~~~------------------~~~~-----L--~~--~----~~~~=_~~~~~~~~~__~
 INTERMEDIATE FACILlTY,NAME AND ADDRESS                  lS Tf: f'1S',    INC.
                                                             TX 75602

                                                                                                              DO NOT WRITE IN THE AREA BELOW




                                                   IN THE EVENi OF AN
                                                   EMERGENCY' CAla. .
                                                   HnlO-468-1760 (24 hours)
    · .. 1301 Gervais Street - Suite 300                                   DUNS NO. 0.5·397-6551 FED. 10 NO. 75-2178928
                                                                                                                                     REFERENCE
                                                                                                                                      NUMBER




                                                                001-5153-80
                                                                AFETY    EN COHP,
                                                                20 DAVIS RD.. 4TH FLOOR
                                                                TTN~   CONNIE f1CGOWAN-·SLS                   SUPPOn1~




                                           ·OUANTITY   CHARGE




,INTERMEDIATE FACILITY NAME AND ADDR




                                                                                                                            00212.31721

                                                                                                                          0002-2504-68 --I
    (NOT USDOT HAZARDOUS MATERIAL) 


OIL AND WATl';R MIXTURE (NOT USDOT HAZARDOUS MATERIAL)

ANTIFREEZE (NOT USEPA OR        REGULA1:'E D



                                                 INC.




                                                         7

t
    r-~~----~--~--------------------------------:---:-~---------------------
,
,. ~~--------------------------:----------------------------------------------




                                                                                 002 8414 6 


                                                                                                1

                                                           fOR SERVICE CAlL         BRANCH MANAGER   DOC.~P.




                                                                                                                       RELEASE NO.




3~4-   ______~~________+-__________~~~__~~________+-______+-_________
4~4-______~~____~__    +-__________~~____~~________+-______+-~~__~_
5r-4_--------~--------4_------------~------~--~--~4_------;_----~---
6~4_--------~--------~------------~------r_--------4_------~---------




                                                                                                               NOO2.46 593 



                                                     IN THE EVENT Of AN
                                                     EMERC.UENC¥ CALL
                                                     11·800·468·1760   ~24I1ours)
UNIT PRICE                                RELEASE NO. '




             IN J'lHE EVENT OF AN
             EMER(llENC¥ CAl...I...
             '1-800·468·1760 (24 hours)
                       RELEASE NO..




  MIXTURE'

{NOT USEPA




             MOO 3,         91

                      002
CHARGE




         'M0031496
           o   580 

                         43   2

IN THE EVENT OF AN
EMERGENCY CAr....r....
www.safety-kleen.com




                                                    I      DG
                                                   LOOP'




                                                                SIGNATURE




                                                                04    44

                                                                        g   ···1
                       IN THE EVENT OF' AN
                       E.ME.RGE.NC~   CALL
                       1·800-468·1760 (24 nours}
UNIT PRICE




                                                                 05074480
             ,J   i   :; :   "   I:":!   ',.:'   •   J   I   •




                                                                 43   9
          COI1tal!n'''lg "'.....,.." ...." place in   pac:ka~~lng provided by your reeycrer.              Seal all ends of the     pa(:ka~Jlng with
                                                                                                                                  and seal                     Use

       ......,,,.1"\"''" t5a1n:eryul~SJ.   M4!=!fCI]ry   rniernl0s~tat(sJ. or Other
                                                                                                         ONLY if the material has been approved
                                                         Aor::Ul1nUl::1tIc'n Start Date is when the first .....,"''''''.......,
                                                               year from the
                                                               or container. DO
                                                                                          Start Date to .store IJnj1versar
                                                                                             THE UN'IVf:RSiAL
                                                                                                                                             Wc:!St~~.)
                                                              obtain additional     from the COITIO,anv
                                                          may have Your         Ground driver sign




                                                                                                    J-'al~Ka(le Returns I-'fl>arl;!lm.



                                                 ...., ,,"''V'''''':;., Waste pa(:Ka!ges that afe not properly prepared for traI1sp'ort,=ttlo'n.
--------­                             -­       --­         -­ -­ - -----­




  COST

 Card Holder




                                                                                                                    COiV[PUTER RELATED
  Tool Room 0




                                                                                                                                                          Da

                             J. T"'!STRUCTION:
SP £ CLALlEY"IERG'r':'''\.lC'V
                 i!."            ; ,
                                '>;
                                                                         ------:- --_..                      -_  .._ - ­      "'-~-----.-~--.      ­


                                                              "LOCAL REqlJROI)flCTJO!'-?
                                                                         ,     ,_        ,AUTHORIZED!!
                                                                                            ,
                                                                                                                                                            Use



                                                                              (PJJ1';4~R     PRINT)
      STOCK .'iO.            QU.A..NTITY                  UNIT                                DES(8 11)TION                r   UNJTP.RICE          AMOUNT
                                                                                                                           J


                             /                       ' ~C-
                                                                                                  r
                                                                                                        ~~




                    ,                                                     r
                        ..   ,.            .   '.­
                                                     ..
                                                           ,   ..
                                                                    -_.
                                                                    '.                     - ..            ._".                         ....•. j
                                                                                                                                                             .."




                                                                                                                       I                     I

                    I
                    I


 COST

 Card Holder




                                                                                                      COivrpUTER RELA.. TED St]PPLrESfSAFETY
 Tool Room' 0




          _____________________~__.______________._.___________.____________ .D~

SPE CVUJEiVIERGEN CY


                                                     HLOC..:.\.L REPRODUCTJON
                                           PRISON INDUSTRIES        UNICOR

                       .r;:;   C E I P T    S LIP             No. 50 0039721                  1


       JS                      e : 04/0 2008
t...'urrent                      : 04/09 2008


                    TERC
              ion

                    0053976551
Name                SAFETY KLEEN SYSTEMS,              INC;
PO'                 4700324712
Pur.                411                e                                       903-838-4587


Itm     Mat
        Acct.                                                    Rate                  Un
        PO                                                                            ue

0001                                       mercury kit
        K Cl    TERC                                          495.00                1 EA
        0000                                                                      495.00

                                                         GRAND TOTAL:             495.00




                                           S   I   G NAT U R E 

         _,_ord,er Type                    PO Date
.0:55;     SAFElY KLE E1\1 SYSTEMS. INC.
IN ;rftE EV[~~ OF ~f,J       ': '
~M~R~1a~~~ OAtllW    ',: ,: -.'     ,~.
                                                             UP.!




                                                                     Other

                               llct:?




",--,.




         Appearance and Odor    Blue    liquid',. pleasan,t odor 

                                    in ",vater ­
                                                                                                                         -   -~';;:'-;   -~   -   ---   ~   ~



                                                                                                                                                                -"




                                                                                                                        'l               ..   A...--.




                                                  May caUSE burninq ana.      ~~=~t2~ion   af eyes.   Skin contact will
                                                                                                       le::ns.                                s




     derrrati tus._
  fviediczi Conditions Ge.'ler31Iy                          by Exposure   1'171
                                                                          --.""\




                                                                                                                         Yes        L:
                                                                                                                         No




 2. Eyes
      Skin                                                                                                       &.   'Yla ter .


       SP!
 ne-:::e,-"r>6J"IS :0 be Uli:.en In
 H"r..ctI."9 and StOf29D                  S tore in c cool dry-- area".




   materia.l ..



  s t:r e a.!Tl S          or         v.J ate:c




                                                                                                                                                            \
                                                                                                                                                            \



PR EPAHED BY:                            A.   B.    Reed
FCC TUCSON 

(4   ..
 ~" "'.'.~




"',.;::::2
             DEPARTMENT OF HEALTH & HUMAN SERVICES            Program Support Center
                                                              u.s. Public Health Service
                                                              Federal Occupational Health Service




             EVALUATION OF ENVIRONMENTAL, SAFETY, AND 

               HEALTH INFORMATION RELATED TO UNICOR 

                 E-WASTE RECYCLING OPERATIONS AT 

                            FCC TUCSON 


              PREPARED FOR THE UNITED STATES DEPARTMENT OF mSTICE 

                        OFFICE OF THE INSPECTOR GENERAL 





             Submitted to:

                             Oversight and Review Division
                             Office ofthe Inspector General
                             U.S. Department of Justice



             Submitted by:   Mr. George Bearer, CIH
                             FOH Safety and Health Investigation Team
                             Program Support Center
                             U. S. Public Health Service
                             Federal Occupational Health Service



                                        April 27, 2010
                                                   Table of Contents


1.0 	 INTRODUCTION ..................................................................................................... 1 

2.0 	 UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT FCI 

      TUCSON .................................................................................................................... 2 

3.0 	 BOPIUNICOR SAFETY AND HEALTH PROCEDURES AND PRACTICES AT 

      FCI TUCSON ............................................................................................................ 6 

      3.1 	 UNICOR Safety and Health Practices and Procedures to Control Toxic Metals 

            Exposure ........................................................................................................... 7 

      3.2 	 Other UNICOR and FCI Tucson Safety and Health Procedures ...................... 9 

      3.3 	 FCI Tucson Safety Department Concerns .............................................. .......... 9 

      3.4 	 Environmental Procedures .......................................................... ... ......... ........ 10 

4.0 	 FIELD INVESTIGATIONS AND MONITORING RESULTS ............................. 11 

      4.1 Investigations for Exposure to Toxic Metals .................................................. 12 

            4.1.1 OSHA Exposure Monitoring for Toxic Metals and Other Findings .. 13 

            4.1.2 UNICOR Consultant Monitoring Report for Toxic Metals ................ 13 

            4.1.3 NIOSHIDART Surface Wipe and Bulk Dust Sample Results ............ 16 

      4.2 	 Investigations for Noise Exposure .................................................................. 19 

      4.3 	 Heat Exposure and Repetitive Stress ......... ......... ............ ... ......... ............ ........ 19 

      4.4 	 Environmental Issues .............................. ........................................................ 20 

5.0 	 CONCLUSIONS .......................................................... ........................ .................... 20 

      5.1 Heavy Metals Exposures ................................................. ... ......... ... ......... ........ 21 

      5.2 Noise, Heat, and Repetitive Stress Exposure .................. ............ .................... 22 

      5.3 Safety and Health Programs, Plans, and Practices ......... ... .......... ............ ........ 23 

      5.4 Health and Safety Regulatory Compliance ..................... ............. ................... 23 

      5.5 Environmental Compliance ................................ ........................ .................... 24 

6.0 RECOMMENDATIONS ................................. ... ......... ... ......... ... ......... ... ......... ........ 24 

      6.1 Heavy Metals Exposures ................................................. ........................ ........ 24 

      6.2 Noise, Heat, and Repetitive Stress Exposure .................. ... ......... .................... 27 

      6.3 Safety and Health Programs, Practices, and Plans .......... ............ .................... 27 

      6.4 Health and Safety Regulatory Compliance ..................... ... .......... ... ................ 28 

      6.5 Environmental Compliance ................................ ... ......... ... ......... ... ......... ........ 28 

7.0 REFERENCES ................................................ ........................ ........................ ........ 28 

                                       Figures

Figure 1: 	   UNICOR E-Waste Recycling Facility, FCI Tucson



                                        Tables

Table 1: 	    Occupational Exposure Limits



                                        Images

Image 1: 	    UNICOR e-waste disassembly area at FCI Tucson
Image 2: 	    'Inside' warehouse adjacent to disassembly area at FCI Tucson where
              baling of e-wastes is performed



                                     Attachments

Attachment 1 NIOSH [2008]. Control technology and exposure assessment for
             electronic recycling operations, UNICOR, Tucson Federal Correctional
             Institution EPHB 326-18a.

Attachment 2 	 OSHA [2006]. Department of Labor OSHA Inspection Number
               309845071 -- Federal Correction Institution Tucson (FCI Tucson) -­
               04/27/06
1.0       INTRODUCTION 


At the request ofthe U.S. Department ofJustice (DOJ) Office of the Inspector General
(OIG), the Federal Occupational Health Service (FOH) coordinated environmental, safety
and health (ES&H) assessments of electronics equipment recycling operations at a
number of Federal Bureau of Prisons (BOP) facilities around the country. The
assessments were conducted as a result of whistleblower allegations that inmate workers
and civilian staff members were being exposed to toxic materials, including lead,
cadmium, barium, and beryllium at electronics recycling operations overseen by Federal
Prison Industries (UNICOR). 1 The allegations stated that these exposures were occurring
from the breaking of cathode ray tubes (CRTs) and other activities associated with the
handling, disassembly, recovery, and recycling of electronic components found in
equipment such as computers and televisions (i.e. e-waste). 2 It was further alleged that
appropriate corrective actions had not yet been taken by BOP and UNICOR officials and
that significant risks to human health and the environment remained.

This FOH report 3 consolidates and presents the findings of technical assessments
performed at UNICOR' s e-waste recycling operations at the Federal Correctional
Complex 4 in Tucson, Arizona by industrial hygienists and other safety and health
specialists representing federal agencies including FOH, the Centers for Disease Control
and PreventionlNational Institute for Occupational Safety and Health (CDCINIOSH), and
the Occupational Safety and Health Administration (OSHA). Reports from these
agencies are presented in Attachments I and 2 (also see references for these reports in
Section 7.0). The primary objectives of these assessments were to characterize current
UNICOR operations and working conditions at the Tucson Federal Correctional
Institution (FCI Tucson) in light ofthe whistleblower allegations and to identify where
worker exposures, environmental contamination/degradation, and violations of
governmental regulations and BOP policies may still exist so that prompt corrective
actions may be taken where appropriate. In addition, this FOH report also relies upon
information from documents assembled by the OIG which were developed by various
consultants, regulatory agencies, BOP staff, and others.

The overall purpose of this report is to characterize current operations and working
conditions at FCI Tucson especially with respect to the potential for inmate and staff



          1   FPI, (commonly referred to by its trade name UNICOR) is a wholly-owned, government
corporation that operates factories and employs inmates at federal correctional institutions.
         2 E-waste is defined as a waste type consisting of any broken or unwanted electrical or electronic
device or component.
         3 FOH prepared this report in March 2009 and its [mdings and conclusions address e-waste
recycling conditions known to FOH at that time. FOH provided the report to the OIG, which shared it with
the BOP and sought feedback on it. The BOP and UNICOR later provided their comments to FOH about
the report's contents, which resulted in FOH making limited changes to some text and figures, as reflected
herein.
         4 FCC Tucson is comprised of two main facilities: a Federal Correctional Institution (FCI) and a
United States Penitentiary (USP). Since e-waste demanufacturing operations are performed exclusively at
the FCI, henceforth in this report the e-waste facilities will be referred to as being at FCI Tucson.
exposures 5 that may result from present day e-waste recycling activities as well as from
legacy contamination on building components from electronics recycling operations
which took place in the past. Recommendations are provided to address deficiencies
identified in the report and to improve workplace health and safety.

Fcr Tucson is one of eight BOP institutions that have ongoing e-waste recycling
operations for which, to date, an assessment report has been prepared by FOR. On
October 10, 2008, FOR issued a separate report entitled "Evaluation ofEnvironmental,
Safety, and Health Information Related to Current UNICOR E- Waste Recycling
Operations at FCI Elkton" detailing current exposure conditions at FCr Elkton. The
FOR report for FCr Elkton should be reviewed for a more comprehensive discussion of
the hazardous components found in waste electronics, pertinent regulatory requirements,
and other information that provides additional context to this report on FCr Tucson. FOR
will be preparing assessment reports for the remaining BO P institutions that perform
recycling upon completion of their respective environmental, safety, and health (ES&R)
assessments.

Currently, e-waste recycling operations at FCr Tucson involve the receipt of waste
electronics from various locations around the country, disassembly and sorting activities
(otherwise referred to as 'breakdown' or 'demanufacturing'), and the associated material
handling and facilities maintenance required to support these operations. Facilities and
preparations for conducting glass breaking operations were established at FCr Tucson,
but glass breaking operations were never implemented. FCr Tucson recycling facilities
and operations are described below in Section 2.0 in greater detail.


2.0 	    UNICOR E-WASTE RECYCLING FACILITIES AND OPERATIONS AT
         FCITUCSON

UNrcOR e-waste recycling operations commenced at FCr Tucson in February 2005.
These operations included receiving and sorting, disassembly, and packaging and
shipping. Preparations were made to perform glass breaking, but this operation was
never implemented. These operations are conducted at the warehouses, one of which is
adjacent to the institution, and the recycling factory located within the institution.

As part of the orG investigation, NrOSR's Division of Applied Research and
Technology (DART), accompanied by FOR, performed an on-site survey of the recycling
workplace in June 2007 to evaluate hazards and hazard controls. In its report
(Attachment 1), NrOSR/DART described FCr Tucson's e-waste recycling processes.



          5 In this report, the term "exposure" refers to the airborne concentration of a contaminant (e.g.,

lead or cadmium) that is measured in the breathing zone of a worker but outside of any respiratory
protection devices used. Unless otherwise noted, "exposure" should not be confused with the ingestion,
inhalation, absorption, or other bodily uptake of a contaminant. Concentrations reported and discussed in
this report are not adjusted based on respirator protection factors. However, when reported, it is indicated
whether the exposure was within the protective capacity of the respirator.
This seCiion ilummari2.e. infonnati on provided about FCI Tucson's recycling facili tie.
and operation..

The recycling of elcclronic compollenls it perfurmed in a facility lociled whh in die FCI.
A dlagnun of the gcnen.11ayout of the recycling faclOry is provided in f igure 1, below.
The innu.le population of me UNlCOR faCIory was awroximatdy86 in 2001.




                                                                         ",
                                                              0,                  ~E
                                                                              I

                                 [j]60                                                    •
                                                 1
                                                               [j                 8
              ---C                   BALERS
                                                             "                            3




             -
                                              -­              FACTOR Y
                                                                           2          J
                                                                                          B




                                              ..... -.
                      V ARE HD USE


                                                             ,n                   7


                                                         ~       I


                                      ~ .-           \h
                     :-~-
                     ! !
                                                             ,,,l
                                                                     "                l
                                                                                          D

                                                                                          (­
                                                             -       - I
                                                                                      .­
                       EXISTING UNICOR OfFI CE ARE A


     FlgurC1. UNlCOR E-Wu te Recycling Facility, FCr Tuc. on
The recycling of electronic components at the FCI factory currently consists ofthree
production processes: 1) receiving and sorting, 2) disassembly, and 3) packaging and
shipping. Each is discussed below.

Incoming materials are received at a warehouse at a minimum security camp adj acent to
the USP where they are examined and sorted. This camp warehouse is located in a
separate building several hundred yards from the current e-waste disassembly area.
Approximately 25 inmates were assigned to this warehouse in 2007. At the camp
warehouse, interstate trucks drop off all e-waste materials for contraband checks, initial
sorting, and hard drive destruction. Other activities performed here include computer
testing and repairs, toner removal from printers, and some (limited) component removal
from computers for use in the repair of others. A second warehouse is also associated
with e-waste operations at FCI Tucson. It is referred to as the 'inside warehouse' and is
immediately adjacent to the FCI Tucson e-waste disassembly area. This area is no longer
used as a warehouse but is so-designated on building drawings (as shown in Figure 1). In
this area e-waste materials are received from the camp warehouse, unloaded, and staged
for processing in the disassembly area. Also, baling operations of processed materials
take place in the 'inside warehouse ' .

The bulk ofthe materials received are computers, either desktop or notebooks, or related
devices such as printers. Items such as notebook computers that can be upgraded and
resold are sorted for that task.

After electronic memory devices (e.g., hard drives, disks, etc.) are removed and
degaussed or destroyed, central processing units (CPUs), servers, and similar devices are
sent for disassembly. Monitors and other devices (e.g., televisions) that contain cathode
ray tubes (CRTs) are separated and sent for disassembly and removal of the CRT.
Printers, copy machines, and any device that could potentially contain toner, ink, or other
expendables are segregated and these expendables are removed prior to the device being
sent to the disassembly area.

 In the disassembly process, external cabinets, usually plastic, are removed from all
devices and segregated. Valuable materials such as copper wiring and aluminum framing
are removed and sorted by grade for further treatment if necessary. Components such as
circuit boards or chips that may have value or may contain precious metals such as gold
or silver are removed and sorted. With few exceptions each ofthe workers in the main
factory performs all tasks associated with the disassembly of a piece of equipment and
uses the provided powered and un-powered hand tools (primarily screwdrivers and
wrenches). A few workers collect the various parts and place them into the proper
collection bin. Work tasks include removing screws and other fasteners from cabinets,
unplugging or clipping electrical cables, removing circuit boards, and using whatever
other methods are necessary to break these devices into their component parts. Currently,
virtually all components are sold for some type of recycling.
Images of the disassembly area are shown in Images I and 2.




       Image 1. UNICOR e-waste disassembly area at FCI Tucson




       Image 2. 'Inside' warehouse adjacent to disassembly area at FCI Tucson where
       baling of e-wastes is performed.
The final process, packaging and shipping, returns the various materials segregated
during the disassembly steps to the warehouse where they are sent to contracted
purchasers of the various materials. To facilitate shipment, some bulky components such
as plastic cabinets or metal frames are placed in a hydraulic baler to be compacted for
easier shipping. Other materials are boxed or containerized and removed for subsequent
sale.

Glass breaking has not been performed at FCr Tucson, though a glass breaking booth was
previously set-up but disassembled prior to any use. CRTs are shipped, unbroken, from
FCr Tucson to other locations for breaking and recycling.

The NrOSH/DART report presents information on personal protective measures and
work practices used during e-waste recycling activities. These controls are summarized
in Sections 3.0 and 4.0 ofthis report. The NrOSH/DART report, Attachment 1, should
be consulted for additional details.


3.0 	   BOP/UNICOR SAFETY AND HEALTH PROCEDURES AND
        PRACTICES AT FCI TUCSON

Under 29 CFR 1960 each federal agency is obligated to develop a comprehensive and
effective safety and health program. Such programs establish requirements and processes
for controlling occupational hazards and meeting federal occupational safety and health
regulations. The BOP has established an ES&H program entitled Occupational Safety,
Environmental Compliance, and Fire Protection (BOP Program Statement 1600.09).
UNrCOR's compliance with this policy will be evaluated in the orG's final report.

Various OSHA standards require written programs or plans to address occupational
hazards or implement hazard control measures. Examples that could be applicable to
various UNrCOR e-waste recycling factories, particularly for glass breaking include:

    • 	 29 CFR 1910.1025, Lead requires a written lead compliance plan;
    • 	 29 CFR 1910.1027, Cadmium requires a written cadmium compliance plan;
    • 	 29 CFR 1910.134, Respiratory Protection requires a written respiratory protection
        program; and
    • 	 29 CFR 1910.95, Occupational Noise Exposure requires a written hearing 

        conservation program. 


At FCr Tucson, glass breaking, which is associated with higher lead and cadmium
exposures, has never been performed, and current disassembly processes have not been
shown to result in lead and cadmium exposures at levels that would require a written
compliance plan. However, even when specific hazards do not meet the exposure
threshold for a written standard-specific plan/program, a good practice approach warrants
that a general safety and health plan be put in place to identify workplace hazards and
specify appropriate hazard controls and safe work practices. Safety and health practices
for both routine and non-routine work activities should be addressed. Other hazards such
as heat exposure and repetitive stress (e.g., repeated lifting of heavy loads) could also
warrant written programs to ensure appropriate evaluation and control ofthe hazards.
UNICOR's safety and health practices and programs conducted at FCI Tucson are
discussed below for e-waste recycling activities. Environmental compliance programs to
ensure compliance with state and federal regulations are also discussed.

3.1 	      UNICOR Safety and Health Practices and Procedures to Control Toxic
           Metals Exposure

At FCI Tucson, UNICOR has various documents in place that address safety and health
rules, practices, and procedures to control exposures to toxic metals. One ofthese
documents is UNICOR's Quality Management System, section 6.2.2 "Competence,
Awareness, and Training (Procedure)." Elements include the following:

        • 	 A basic 32-hour core curriculum course for staff;

        • 	 A basic job orientation for inmate workers that includes safety instructions,
            hazard communication training, and instruction for the work assignment. Toxic
            metals hazards and controls are addressed in the course outline, including a
            concise procedure for handling the accidental breakage of CRT glass. [Note:
            The document does not specify the duration of this orientation];

        • 	 Safety rules that include mandatory safety shoes and safety glasses, restrictions
            on eating, drinking, chewing, and smoking in the disassembly area, brief hand
            washing requirements, brieflifting precautions, glove requirements, and other
            non-specific PPE instructions; and

        • 	 A training outline for hazardous material recognition and handling, including
            information on toxic metals potentially encountered during e-waste recycling
            activities.

Also as part of the Quality Management System, UNICOR has document "7.S.3(a)
Identification-Step by Step Work Instructions (Procedure)." This document provides
work instructions for the various recycling operations and activities. The instructions do
not specifically address toxic metals exposures or procedures to address these hazards but
do contain general PPE requirements in the "tools" section, such as for use of safety
glasses, gloves, and hearing protection.

NIOSH/DART reported on the type ofPPE and respiratory protection that was either
worn by or available to inmate workers performing recycling operations at FCI Tucson,
such as for the disassembly processes (see NIOSH/DART report, Attachment 1).
NIOSH/DART stated that safety glasses were used in most locations, and that hearing
protection was available where needed, primarily near the baler. [Note: UNICOR's
baler procedure requires hearing protection, as does the crusher procedure.] Disposable
respirators were also available to workers on a voluntary use basis.
UNICOR does not have a written respiratory protection program specific to its recycling
operations at FCI Tucson, although FCI Tucson has a generic respirator program for its
general activities. This document was recently replaced with an updated respiratory
protection plan. The original document, Respiratory Protection TCN 1600.8F5, dated
October 20, 2004, states that "the only nuisance dust mask approved for use is the single
strap which will not require medical approval or fit testing as this is not a tight face to
mask fitting unit." This device is currently in use by UNICOR for its recycling
operations at FCI Tucson. This mask is not tight fitting to the face. As requested by
FOH, the Lead Safety Specialist provided FOH with the current respiratory protection
plan that was updated in January 2009. This most recent plan supersedes the program of
2004. The recent plan calls for the use of a more effective disposable respirator. The
Assistant Warden expressed willingness to make this upgrade, but also expressed
uncertainty regarding requirements for its use; specifically would fit testing be required.
The document initially states that fit testing is required, but later Section 5, Fit Testing
states that fit testing is to be performed when respirator use is "required." UNICOR at
FCI Tucson provides disposable respirators for voluntary use, but does not require their
use.

FOH offers the following information for UNICOR's and FCI Tucson's consideration
regarding the disposable respirator issue. The employer is not required to do medical
qualification or fit testing or have a written respiratory protection program for voluntary
use of dust masks (or for respirators whose only use would be for emergency escape).
Per an OSHA Instruction /Inspection Procedure dated 9/25/1998: "For voluntary use of
filtering facepiece dust masks, the employer needs only ensure that dust masks are not
dirty or contaminated, that their use does not interfere with employee's ability to work
safely, and that a copy of Appendix D is provided to each voluntary wearer. Merely
posting Appendix D is not considered adequate". According to OSHA's enforcement
guidelines, Appendix D (or employer's equivalent) is only required to be issued initially.

Because UNICOR at FCI Tucson does not require use of respirators, a written respiratory
protection program is not required by OSHA. Regardless of the disposable mask
selected, UNICOR should ensure that the limitations ofthe dust mask selected are
addressed with the wearers and that they understand the types of hazards that the
respirator is designed to control. For documentation purposes UNICOR should have
users read and sign Appendix D of29 CFR 1910.134, and UNICOR and FCI Tucson
should maintain the Appendix D signed records. IfUNICOR implements elements of an
operations and maintenance (O&M) plan that would require respiratory protection for
new or non-routine activities, then UNICOR would need to implement a written
respiratory protection program consistent with the types of respirators used (see Section
6.0 for additional information and recommendations).

Although various safety practices and procedures are applied at the FCI Tucson recycling
factory, a written safety and health document to define existing workplace hazards and
control measures is not in place for UNICOR recycling activities conducted specifically
at FCI Tucson. As a "good practice" approach, such a document should be developed
and implemented and would serve to concisely define the safety and health practices and
requirements specific to FCr Tucson recycling, such as PPE requirements or voluntary
use, hygiene (e.g., hand washing) practices, daily and periodic housekeeping practices,
special training requirements for any hazardous equipment use or other hazard controls,
and other practices essential to conduct work safely. Non-routine or periodic work
activities should also be addressed in the document, particularly those that potentially
disturb dusts such as cleaning and handling! disposing of wastes from HEP A vacuums or
containers. The document could specify the safety rules covered in the job orientation
training and could also specify requirements for periodic site assessments, hazard
analyses, and regulatory compliance reviews.

3.2    Other UNICOR and FCI Tucson Safety and Health Procedures

Other than the documents described in Section 3.1 , above, UNrCOR does not have safety
and health procedures specific to its recycling operations at FCr Tucson. However, FCr
Tucson has many written safety procedures that apply to operations for the institution as a
whole. FOH reviewed 15 ofthese procedures that were issued by the Safety Department.
These procedures are not specific to the recycling operations, but as an operation
conducted at FCr Tucson, recycling would be under their umbrella.

These Safety Department procedures address such topics as hearing conservation,
flammable and combustible materials, electrical safety, respiratory protection, safety
shoes, hot work, fire prevention and control, hazard commurucation, confined space
entry, disposal of infectious waste, pest control, personal protective equipment, hearing
conservation, and housekeeping. These procedures are fairly general in content, and do
not specifically address recycling practices. In addition, the FCr Tucson Lead Safety
Specialist stated that these procedures are to some extent obsolete. For example, annual
noise monitoring is not currently performed as specified in the hearing conservation
procedure.

The FCr Tucson hearing conservation program, dated October 7, 2002, states that the
Occupational Safety and Health Environmental Department is to perform annual noise
evaluations throughout the institution to determine which areas have noise levels above
85 dBA. The Lead Safety Specialist stated that this program has not been supported by
BOP or UNrCOR management for years and that no noise monitoring evaluations have
been conducted by UNrCOR or FCr Tucson for the recycling activities. The Assistant
Warden confirmed that noise monitoring has not been conducted.

UNrCOR is in the process of developing a heat stress program. This program will be
evaluated and discussed in the final OrG report. See Section 4.3 for NrOSH/DART and
FOH heat measurements and observations at FCr Tucson.

3.3    FCI Tucson Safety Department Concerns

rn reviewing correspondence from the FCr Tucson Safety Department, FOH noted
several recommendations or deficiencies involving safety and health practices at
UNICOR's FCI Tucson e-waste recycling operations that were raised by Safety
Specialists. Examples include the following.

      • 	 On April 11, 2006, the Lead Safety Specialist identified a need to conduct air and
          surface sampling such that proper PPE could be established to protect workers
          against "harmful dust."

      • 	 On April 13, 2006, the Lead Safety Specialist recommended to the Associate
          Warden of Operations that personal toxic metals monitoring for staff and inmate
          workers should be conducted at the UNICOR recycling operations at FCI Tucson.
          Monitoring was later conducted as reported in Section 4.1.

      • 	 On May 17, 2006, the Lead Safety Specialist notified the Acting Associate
          Warden that staff and inmate workers have not been informed of exposure
          monitoring results as required by OSHA and Bureau policy, and recommended
          that they be informed.

      • 	 On May 17, 2006, the Lead Safety Specialist informed the Acting Associate
          Warden that the staff who work at the rear gate have not received formal training
          on the hazards associated with computer recycling products. He mentioned that
          UNICOR has not determined PPE needs for these personnel. In a recent
          discussion with FOH, the Lead Safety Specialist stated that these personnel enter
          trucks and move and search boxes containing e-waste materials. Additional
          correspondence and a proposed procedure for "rear gate' activities have since
          been submitted, but not acted upon.

These communications indicate that the FCI Tucson Safety Department is actively
engaged to ensure hazard evaluation, communication, and control. Regarding the toxic
metals exposure monitoring issue, management responded by arranging for a UNICOR
consultant to conduct monitoring in June 2006. See Section 4.1 for monitoring results
and information on the effectiveness in responding to the results. Regarding the staff
working at the rear gate, the FCI Tucson Lead Safety Specialist recently stated that this
issue has still not been addressed to date. The UNICOR Industrial Hygienist was ofthe
opinion that this issue should be a BOP action rather than a UNICOR action.

This open "rear gate" safety item points to the need for BOP and UNICOR to list, track,
address, accept or not accept, and close out recommendations from its safety and health
staff, consultants, and others, including from the OIG investigation. Such a system will
be further discussed in the final OIG report. This item is also an example of the need to
clearly delineate responsibilities between BOP and UNICOR for safety and health
ownership and actions.

3.4      Environmental Procedures

FCI Tucson has an Environmental Awareness/Pollution Prevention Program, dated
March 1, 2006. This procedure primarily addresses the recycling of general use materials
associated with general institutional operations and activities, but does not specifically
address UNICOR's e-waste recycling operations.

Debris from cleaning operations and equipment such as HEP A vacuums contain dusts
and debris contaminated with toxic metals. UNICOR and FCI Tucson should define
testing and disposal practices to ensure proper disposal in accordance with U.S. EPA
regulations. See Section 4.5 for a discussion ofthis and other environmental issues.


4.0       FIELD INVESTIGATIONS AND MONITORING RESULTS

Several field investigations ofFCI Tucson's e-waste recycling operations have been
conducted since 2005. These investigations are listed below:

      •   OSHA conducted a lighting survey and limited noise monitoring in May 2005.

      •   OSHA conducted toxic metals exposure monitoring at FCI Tucson in April 2006
          as part of a facility inspection (see OSHA Narrative Report as Attachment 2).

      • 	 In June 2006, a consulting firm retained by UNICOR and FCI Tucson conducted
          a field investigation to evaluate exposure to toxic metals in the recycling areas.

      • 	 As part ofthe DOJ OIG investigation, NIOSH/DART and FOH conducted a
          survey in June 2007 to determine existing toxic metal surface contamination on
          various building components and to generally evaluate the e-waste recycling
          operation, associated hazards, and hazard controls (see NIOSH/DART report as
          Attachment 1).

Results of the OSHA inspections, the consultant' s evaluation, and the FOH and
NIOSH/DART survey are summarized and discussed in this section 6

Toxic metals of greatest interest for e-waste recycling include lead, cadmium, and
barium. Beryllium can also be associated with e-waste materials and is also of interest
because of its high toxicity, adverse health effects, and low exposure limit. These metals
were the focus ofthe field investigations, although 27 other metals were also evaluated.
See the FCI Elkton report referenced in Section 1.0 for details regarding e-waste hazards.

Exposure monitoring results are compared to permissible exposure limits (PELs)
established by OSHA. In addition, non-mandatory American Conference of
Governmental Industrial Hygienist (ACGIH) threshold limit values (TLV s) and NIOSH
recommended exposure limits (RELs) are also available for reference. Personal exposure
limits are often based on 8-hour time weighted average (TWA) exposures and the TWAs

6 Given the many variables that may impact air sampling and exposure monitoring, testing data and
findings can vary from one period to the next. Also, the findings, interpretations, conclusions and
recommendations in this report may in part be based on representations by others which have not been
independently verified by FOB.
are applicable to the exposures discussed in this report. Table 1 provides exposure limits
for lead, cadmium, barium, and beryllium. PELs and TLV s for other hazards can be
found in OSHA standards (29 CFR 1910) and the most recent ACGIH TLV Booklet.


                                                Table 1 

                                      Occupational Exposure Limits! 


                                               LEAD            CADMIUM              BARIUM           BERYLLIUM
                                                       3                    3                3                  3
                                              (llg/m       )     (llg/m         )   (llglm       )     (llg/m       )


OSHA PEL                                         50                 5.0               500                25
OSHA ACTION LEVEL'                               30                 2.5               N/A               N/A
ACGIH TLV (T otal Exposure)                      50                10.0               500               0.05 4
ACGIH TLV (Respirable Fraction)                 N/A                 2.0               N/A               N/A
                                                                        3
NIOSHREL                                         50                Ca                 500                0.5
Notes:
         1.   All limits are based on an 8-hour time weighted average (TWA) exposure. NIOSH RELs are
              based on TWA concentrations of up to a 10-hour workday during a 40-hour workweek.
         2. 	 The action level is an exposure level (often around half of the PEL) that triggers certain actions,
               such as controls, monitoring, and/or medical surveillance under various OSHA standards.
         3. 	 Ca (Potential Occupational Carcinogen). NIOSH RELs for carcinogens are based on lowest
              levels that can be feasibly achieved through the use of engineering controls and measured by
              analytical techniques. [NIOSH 2005]
         4. 	 ACGIH TLV 2009 adoption.
         5. 	 OSHA also has 5 Ilg/m 3 ceiling and 25 Ilg/m 3 peak exposure limits.

Exposure standards for any other hazards evaluated are discussed in the sections below
where results ofthe investigations are presented.

4.1           Investigations for Exposure to Toxic Metals

Given the various materials and components in e-waste, recycling activities have the
potential to result in worker exposure to toxic metals including, in particular, lead and
cadmium. The magnitude and potential health consequences of exposures are dependant
on a number of factors such as workplace engineering controls including ventilation,
work practices, protective equipment utilized (e.g., respirators, protective clothing,
gloves, etc.), duration of exposures, and others. The FOH report for FCr Elkton should
be reviewed for a more comprehensive discussion ofthe hazardous components found in
waste electronics, their relative toxicities, pertinent regulatory requirements, and other
information.

Three investigations that included evaluation oftoxic metals exposure during FCr
Tucson's e-waste recycling operations are discussed below in chronological order of the
studies. These investigations were conducted by OSHA, a UNrCOR consultant, and
NrOSH/DART and FOH.
4.1.1   OSHA Exposure Monitoring for Toxic Metals and Other Findings

OSHA conducted an inspection of e-waste recycling operations at FCI Tucson in April
2006, during which it characterized recycling operations through personal air monitoring,
area air monitoring, and hand wipe sampling (see Attachment 2 for the OSHA report).
Samples were analyzed for lead, cadmium, barium, and beryllium. Results and
recommendations ofthis inspection were provided in a narrative report and are
summarized below.

   • 	 OSHA reported that all exposure results were below the OSHA PELs.

   • 	 OSHA noted that hand wipe sample results indicated the need for continued
       vigilance in keeping hands clean in order to prevent transmission of contaminants
       (i.e., hand-to-mouth ingestion or take home contamination).

   • 	 OSHA noted that UNICOR did not have an industrial hygiene baseline study, but
       stated that UNICOR was in the process of scheduling one. OSHA emphasized
       that this survey should be performed and requested a copy of the results.

   • 	 OSHA also reported that " ... some medical tests were completed ..." in
       preparation for glass breaking, but since glass breaking was never implemented
       these tests are not required.

   • 	 OSHA stated that" ...overall the facility looked very good and no apparent
       violations of OSHA standards were observed." The report praised the MSDS
       program and training documentation. OSHA stated that no citations were to be
       issued.

Regarding the industrial hygiene (IH) baseline survey, such a survey has not been
conducted by UNICOR in response to the OSHA recommendation, even though OSHA
was informed that scheduling for an IH baseline survey was in progress. The FCI Tucson
Lead Safety Specialist confirmed this information. The Assistant Warden cited a
consultant monitoring episode conducted in 2006; however, this monitoring episode,
although useful, cannot be considered an IH baseline survey. For instance, it did not
evaluate the breadth of hazards associated with the recycling operations and did not
appropriately discuss the toxic metals exposure results (see Section 4.1.2, below).

4.1.2   UNICOR Consultant Monitoring Report for Toxic Metals

In written correspondence dated April 13, 2006, from the FCI Tucson Lead Safety
Specialist to the Assistant Warden of Operations, the Safety Specialist requested that
UNICOR conduct personal air quality sampling ofthe staff and inmate workers in the
UNICOR factory and warehouse at FCI Tucson. The Safety Specialist noted that
inspections and walkthroughs ofthe factory and warehouse found occasions where dust
levels were visible to the eye and where dust masks worn by workers had turned black.
[Note: In a recent discussion with FOH, the Safety Specialist stated that visible dust
emissions have since been remedied.] The Lead Safety Specialist further noted that such
dust masks do not protect workers from harmful dusts generated from CRTs and cited
BOP's document 1600.08, Chapter 1, Page 25 requiring a hazard assessment ofPPE use.
Later in April, OSHA conducted exposure monitoring at FCI Tucson (see Section 4.1.1).
UNICOR then retained a consulting firm to conduct its own evaluation which included
exposure monitoring. The consultant's findings are discussed below.

The consultant's evaluation, conducted in June 2006, included monitoring for both
personal exposures and area air levels. Two personal exposure samples were collected
for inmate workers performing disassembly. Three area air samples were also collected
in the recycling areas. In addition, surface wipe samples were collected from surfaces in
various recycling areas. Samples were analyzed for 28 metals including lead, cadmium,
barium, and beryllium. Sampling results and overall findings are summarized below.

   • 	 The five personal and area exposure samples were collected in the disassembly
       and crushinglbaling areas. The consultant reported that all personal and area
       monitoring results were below the OSHA PELs. In reviewing the data tables,
       FOH notes, however, that one area sample showed the cadmium level to be above
       the OSHA action level. Cadmium was found in the "east area" at 3.5 /lg/m 3
                                            3                       3
       versus the action level of2.5 /lg/m and PEL of5.0 /lg/m This level is 70% of
       the PEL; however, the consultant's report did not clearly show whether the result
       as reported was an 8-hour TWA. The consultant made no mention of the
       significance ofthis result in its report. FOH provides a further discussion of the
       implications ofthis result later in this section and also discusses follow-up
       information concerning this result that was obtained by UNICOR in 2008 from
       the consultant.

   • 	 Seven surface samples were collected from work surfaces, equipment, floors, or
       other accessible work areas. The consultant reported that all metal concentrations
       were "low." In reviewing the data tables, FOH notes that all lead results were
       "none detected" (ND), and based on the detection limit reported, this would
       equate to less than 2 /lg/100cm2 or less than about 20 /lg/ft2 These results are
       significantly less than the levels found by the NIOSH/DART and FOH survey
       conducted in June 2007 which ranged from a low of 23 /lg/ft2 to a high of 1,300
       /lg/W. Similarly, the consultant found that cadmium results were ND or very near
       the detection limit, which were also less than results found by NIOSH/DART.
       See Section 4.2 for a discussion ofthe NIOSH/DART and FOH survey results.

   • 	 Using total particulates as a surrogate for carbon black analyses, the consultant
       reported that the carbon black exposures were less than the PEL «0.03 mg/m3
       total dust versus a carbon black PEL of3.5 mg/m3).

   • 	 The consultant found that all work practices and procedures were performed in a
       safe manner and recommended no changes in practices and procedures. The
       consultant found that the facility appeared cleaner than other e-waste recycling
       operations that he had observed.
As noted above, one cadmium area air sample was above the OSHA action level, as
presented in the consultant's report. The consultant did not mention this finding in its
report, even though an exposure above the action level has regulatory implications
defined by the OSHA cadmium standard, assuming the sample is representative ofthe
workers' breathing zone. For instance, initial monitoring above the cadmium action level
requires additional monitoring to be conducted at least every six months and sometimes
more frequently depending on conditions, until levels are consistently found to be below
the action level. Also, medical surveillance and biological monitoring is required if
exposures above the action level can occur for more than 30 days per year. It is
incumbent on the employer to demonstrate that such exposures do not occur for more
than 30 days per year, if medical surveillance is not implemented.

A UNICOR Industrial Hygienist made an inquiry of the consultant regarding this sample
result and the consultant responded by email in January 2008. The consultant reported
that the sample was taken in the middle of a work bench approximately six inches above
the surface where disassembly was being performed, and workers were located on both
sides of the bench. The consultant also confirmed that the sample was an area sample
and not a personal sample. The consultant reported that the sample duration was 383
minutes from which the consultant apparently calculated the 8-hour TWA for this sample
as 0.00199 mgl m 3 (1.99 /lglm 3) and reported that this level does not exceed the cadmium
action level. However, based on a 383 minute sample with an exposure of 3.4 /lg/m3 for
that duration and assuming zero exposure for the rest ofthe 8-hour period, the 8-hour
TWA actually calculates to 2.7 /lglm 3 which is above the cadmium action level of2.5
     3
/lglm.

According to the OSHA cadmium standard, monitoring to determine exposures relative
to the action level are to be "breathing zone" samples. It is not known whether this area
sample is representative ofthe workers' breathing zone; however, the sample was taken
above the work bench where workers are stationed. UNICOR should have considered
that the result was representative ofthe breathing zone, unless it demonstrated otherwise
by conducting sufficient additional monitoring over time or other means. FOH
acknowledges however that recent studies conducted by UNICOR consultants at
UNICOR factories have not found personal exposures during disassembly to be above the
cadmium action level.

Based on this cadmium result, UNICOR should have conducted follow-up breathing zone
monitoring to determine whether this area exposure is a rare or frequent occurrence, to
determine if this area result is representative of the worker's breathing zone, to determine
if it represents a worst case exposure, and to determine and correct contributing factors
for the exposure. FOH also notes, however, that based on the consultant's narrative
report, the consultant did not provide UNICOR with any indication that a cadmium area
exposure result was above the action level, warranting follow-up analysis. The
consultant also did not provide this information in its follow up email correspondence.
4.1.3   NIOSHIDART Surface Wipe and Bulk Dust Sample Results

As part of the orG investigation, in June 2007 FOH and NIOSH/DART conducted bulk
dust and surface wipe sampling in current areas where e-waste recycling is performed at
FCI Tucson. Samples were analyzed for total lead, cadmium, barium, nickel, and other
toxic metals.

Federal standards or other definitive criteria have not been developed for acceptable
levels of lead or cadmium surface contamination or dust concentrations in industrial areas
where activities are performed involving lead and/or cadmium bearing materials.
However, several recommendations or guidelines, primarily for lead, provide points of
reference to subjectively evaluate the significance of surface contamination. Some
guidelines that are available are noted below (see the NIOSHIDART FCI Elkton report
for a more detailed discussion of guidelines):

   • 	 OSHA' s Directorate of Compliance Programs indicated that the requirements of
       OSHA' s standard for lead in the construction workplace (i.e., 29 CFR 1926.62)
       can be summarized and/or interpreted as follows: all surfaces shall be maintained
       as 'free as practicable' of accumulations of lead; the employer shall provide clean
       change areas for employees whose airborne exposure to lead is above the PEL;
       and the employer shall assure that lunchroom facilities or eating areas are as free
       as practicable from lead contamination. The OSHA Compliance Directive for
       the Interim Standard for Lead in Construction, CPL 2-2.58 recommends the use of
       the Department of Housing and Urban Development's (HUD) initially proposed
       decontamination criteria of200 llg/ft2 for floors in evaluating the cleanliness of
       change areas, storage facilities, and lunchrooms/eating areas. In situations where
       employees are in direct contact with lead-contaminated surfaces, such as, working
       surfaces or floors in change rooms, storage facilities, lunchroom and eating
       facilities, OSHA has stated that the Agency would not expect surfaces to be any
       cleaner than the 200 Ilg/W level.

   • 	 For other surfaces (e.g., work surfaces in areas where lead-containing materials
       are actively processed), OSHA has indicated that no specific level can be set to
       define how "clean is clean" nor what level oflead contamination meets the
       definition of "practicable." Specifically addressing contaminated surfaces on
       rafters, OSHA has indicated that they must be cleaned (or alternative methods
       used such as sealing the lead in place), as necessary to mitigate lead exposures.
       OSHA has indicated that the intent ofthis provision is to ensure that employers
       regularly clean and conduct housekeeping activities to prevent avoidable lead
       exposure, such as would potentially be caused by re-entrained lead dust. Overall,
       the intent ofthe "as-free-as-practicable" requirement is to ensure that
       accumulation of lead dust does not become a source of employee lead exposures.
       OSHA has stated that any method that achieves this end is acceptable.

   • 	 Lange [Lange, JH 2001] proposed a clearance level of 1,000 Ilg/fr for floors of
       non-lead free commercial buildings and 1,100 Ilg/W for lead-free buildings.
       These proposed clearance levels are based on calculations that make a number of
       intentionally conservative assumptions.

   • 	 HUD has established clearance levels for lead on surfaces after lead abatement.
       These levels range from 40 to 800 /lg/ft2, depending on the type of surface. The
       level of200 /lg/W is most commonly used. These levels, however, apply to
       occupied living areas where children reside, and are not intended for industrial
       operations.

   • 	 Regarding lead in bulk dust or soil samples, the U.S. EPA has proposed standards
       for residential soil-lead levels. The level of concern requiring some degree of risk
       reduction is 400 ppm (mg/kg), and the level requiring permanent abatement is
       2,000 ppm (mglkg). Again these levels are for residential settings, rather than for
       industrial settings.

   • 	 There is no quantitative guidance for surface cadmium concentrations. OSHA
       states that surfaces shall be as free as practicable of accumulations of cadmium,
       all spills and sudden releases of cadmium material shall be cleaned as soon as
       possible, and that surfaces contaminated with cadmium shall be cleaned by
       vacuuming or other methods that minimize the likelihood of cadmium becoming
       airborne.

During its June 2007 survey, NrOSH/DART collected surface wipe and bulk dust
samples from various locations in the FCr Tucson recycling facilities both inside the
glass breaking room and in the general factory and associated areas. Samples were
analyzed for lead and cadmium and other toxic metals. Summary results for lead and
cadmium levels in these samples are presented below (see Attachment 1 for complete
results for all metals evaluated).

   • 	 Five bulk dust samples were collected in the recycling factory. Lead ranged from
       34 mglkg to 1,000 mg/kg. All levels were below the U.S. EPA soil-lead proposed
       level for permanent abatement, although this proposed level is not directly
       applicable to surface dust in an industrial workplace. Three ofthe five were
       above the U.S. EPA proposed level that suggests some degree of risk reduction.
       Risk reduction involves a program of cleaning and housekeeping, as well as an
       operations and maintenance (O&M) plan to prevent build-up of contamination.
       Wastes collected from cleaning and O&M activities should be tested via the
       TCLP methodology to ensure disposal in accordance with U.S. EPA regulations.

   • 	 Surface wipe samples were collected in the FCr Tucson recycling factory and
       analyzed for lead and cadmium along with other metals. Six of 17 surfaces had
       lead concentrations above the OSHA-referenced guideline of200 /lg/W, with the
                                         2
       highest measurements at 900 /lg/ft and 1,300 /lg/ft2 The two highest results
       were from elevated surfaces (light fixtures) only accessible by ladder. Three
       other samples above 200 /lg/ft2 were also from light fixtures. Only one sample
       above 200 /lg/ft2 was from a work surface to which workers could be routinely
       exposed during daily activities. As stated above, the OSHA guideline does not
       apply to work areas involving lead materials and is not directly applicable to
       recycling work areas. It would apply to clean rooms, lunch areas and similar non­
       work areas that are associated with lead work activities. The level proposed by
       Lange, also for occupied work environments is 1,000 or 1,100 /lglfr, which
       approximates the level of the two highest surface wipe samples.

   • 	 The highest cadmium surface concentration in the FCI Tucson recycling factory
       was 100 /lg/ff with all others below 80 /lglft2

In evaluating these results, FOH notes that the levels oflead surface contamination,
although generally within the range of available guidelines, are significantly higher than
those found by the UNICOR consultant that conducted sampling only 12 months prior to
NIOSH/DART. All consultant samples were less than the lead detection limit which was
about 20 /lglfr, while NIOSHIDART samples were up to 65 times this level and
averaged more than 10 times this level. NIOSH/DART collected samples from both
elevated surfaces and work surfaces. When eliminating elevated surfaces from this
equation, NIOSH/DART results are still up to 10 times higher for work surfaces and
about five times higher on average. Similar differences were noted for cadmium surface
results. [Note: Although direct comparison of results is problematic because of
variability in sample locations and other factors, the levels are different enough to
warrant follow-up evaluation.]

The reason for the differences in surface contamination between 2006 and 2007 is not
known with certainty, but possibilities could include differences in sampling methods,
differences in sampling times relative to surface cleaning, and differences in sampling
locations that do not allow for a direct comparison of results. Consultant monitoring was
conducted approximately 16 months after the start of recycling operations, therefore,
sufficient time should have passed to allow for surfaces to exhibit contamination
representative ofthe recycling operations. Regardless of the reason(s) for the differences
in results, UNICOR should conduct periodic surface testing to determine if surface
contamination is building up over time and to take action to prevent and correct this
condition if it is occurring.

The levels oflead and cadmium contamination found in June 2007 at the FCI Tucson
recycling factory are not widespread throughout the facility. However, based on some
levels near the suggested Lange guidance, UNICOR and FCI Tucson should implement
procedures to reduce the risk of exposure to surface dusts and dust accumulations.
UNICOR and FCI Tucson should implement an operations and maintenance (O&M) plan
to limit contact with existing lead and cadmium contamination, limit its accumulation,
prevent and/or control any releases of the contamination to the air, and generally prevent
potential for inhalation and ingestion (i.e., hand-to-mouth contact) exposure. With proper
controls established, this plan could include periodic clean-up of surfaces by inmate or
other workers using appropriate wet methods and HEPA vacuuming, such as the light
fixtures and other surfaces above the work area where regular cleaning is not conducted
and where dusts can accumulate over time. UNICOR should also conduct periodic
surface sampling (perhaps annually) to ensure that surface contamination levels are kept
in check and are not significantly building up over time, as contrasting data from 2006
and 2007 could suggest. Elements of an O&M plan and suggestions for surface sampling
are discussed in Section 6.0, Recommendations.

In addition, NIOSH/DART observed that cleaning is conducted primarily using brooms
and brushes. This can generate airborne dusts that increase personal exposures and
become re-deposited on other surfaces at various elevations. Brush and similar cleaning
methods are also explicitly prohibited in the OSHA cadmium standard. NIOSHIDART
recommends use of HEP A vacuums and wet methods to clean surfaces of dusts
containing lead, cadmium, and other toxic metals. When using wet methods, care should
be taken to ensure that other safety hazards (such as slips or electrical hazards) are not
introduced into the work area.

4.2    Investigations for Noise Exposure

Noise measurements were taken at various UNICOR recycling locations at FCI Tucson
by OSHA and NIOSH/DART. These results are discussed below.

OSHA conducted noise monitoring on May 4,2005. Operations at a metal baler,
cardboard baler, and station 14 during air gun use were monitored. The report states that
a sound level meter and noise dosimeter were used. Some sound levels above 85 dB
were reported for short periods, but as TWAs, the results were less than 85 dB, which is
the level that triggers the requirement for a hearing conservation program. This
monitoring, although useful for these activities, is limited in its scope and does not
represent a complete noise survey for all recycling operations that could contribute to
nOIse exposures.

NIOSH/DART also conducted a limited amount of noise testing using a hand-held sound
level meter (SLM). No noise dosimetry was performed. NIOSH/DART found peak
levels up to 103 dBA near the plastic baler and 86 dBA near the metal baler. Where hard
disks were being destroyed, peak levels over 100 dBA were common and levels were up
to 112 dBA. The background noise in this area was in the range of 80 to 85 dBA.
NIOSH/DART concluded that the SLM measurements indicated the need for a more
comprehensive noise study.

UNICOR has not conducted a noise evaluation at FCI Tucson. This is a deficiency in
hazard analysis and control.

4.3    Heat Exposure and Repetitive Stress

In June 2007, NIOSHIDART found that indoor temperatures ranged from 71 to 81
degrees F in the factory and up to 91 degrees F in the camp warehouse located across the
street from the FCI recycling factory. Relative humidity ranged from 30% to 60%.
Outdoor temperatures were measured in excess of 100 degrees F. NIOSH/DART
concluded that heat stress (i.e., heat exposure) should be periodically evaluated to ensure
proper precautions are in place to prevent excessive heat exposure. Heat exposure
evaluations should be focused on the camp warehouse and outside or other areas without
air conditioning. Heat exposure in the general factory area and its associated warehouse
during the NIOSH/DART and FOH site visits was not a factor.

As with other UNICOR recycling facilities, NIOSH/DART also observed tasks such as
lifting that could produce repetitive stress. NIOSHIDART recommended that UNICOR
evaluate tasks to determine ifthey are biomechanically taxing and implement
modifications, procedures, training, or equipment to mitigate any identified hazard.

4.4       Environmental Issues

FOH conducted a limited review of available information pertaining to environmental
issues associated with e-waste recycling operations at FCI Tucson. E-mail
correspondence in March 2005 between the Arizona Department of Environmental
Quality (ADEQ) Hazardous Waste Inspections and Compliance Unit and UNICOR at
FCI Tucson reflected that UNICOR had made appropriate up-front inquiries prior to the
initiation of CRT recycling operations and that ADEQ conveyed the position that intact
electronic scrap was not considered a hazardous waste (consistent with the U.S. EPA
proposed rule on CRT management published June 12,2002 that allowed for an
exclusion from the EPA definition of solid waste for used CRTs and glass, including
broken and crushed, provided it was recycled and not disposed). ADEQ and UNICOR
therefore concluded that the e-waste recycling activities at FCI Tucson did not fall under
ADEQ's regulatory oversight so long as e-waste materials (particularly CRTs) were
managed in accordance with the practices outlined in the EPA's proposed rule. The
correspondence outlined a number of requirements should CRT glass breaking
commence, but since this operation never occurred these requirements did not need to be
followed.

According to UNICOR officials at FCI Tucson, e-waste activities at this facility are not
currently subject to any environmental permits associated with hazardous waste, air, or
water/wastewater and none are in place. Cleaning activities such as HEPA vacuuming or
wet mopping/wiping accumulate dusts that potentially contain toxic metals. These dusts
and associated wastes should be tested via the TCLP methodology to determine proper
disposal methods in accordance with U.S. EPA regulations. The Lead Safety Specialist
said that evaluations of HEP A vacuum wastes and mop rinse water were underway or
being planned to determine acceptable disposal methods per U.S. EPA regulations.


5.0       CONCLUSIONS

Conclusions concerning safety, health, and environmental aspects ofUNICOR's e-waste
recycling operations at FCI Tucson are provided below under the following subsections:

      •   Heavy Metals Exposures;
      •   Noise, Heat, and Repetitive Stress Exposure;
      • 	 Safety and Health Programs, Practices, and Plans;
      • 	 Health and Safety Regulatory Compliance; and
      • 	 Environmental Compliance.

These conclusions are supported by the results, findings, and analyses presented and
discussed in Sections 3.0 and 4.0 ofthis report, as well as the documents assembled by
the OIG and reviewed by FOH. These conclusions, in part, are consolidated from the
various federal agency reports, and are also supplemented by FOH based on the entire
body of information assembled and reviewed. See Attachments I and 2 for additional
conclusions from the individual contributing federal agencies, including NIOSH/DART
and OSHA.

5.1      Heavy Metals Exposures

      1. 	 OSHA's and the UNICOR consultant's monitoring results from April and June
           2006 showed that inhalation exposure to lead, cadmium, and other toxic metals
           during FCI Tucson recycling operations are maintained below the OSHA PELs.
           However, one cadmium area result determined by the UNICOR consultant
           showed the cadmium concentration to be above the action level, but below the
           PEL. [Note: FCI Tucson's recycling operations include disassembly and
           associated activities, but do not include CRT glass breaking.]

      2. 	 UNICOR and FCI Tucson did not follow-up with additional monitoring or further
           evaluation to determine the source, cause, or frequency ofthe cadmium result that
           was above the action level. Workers were stationed near this area sample and
           UNICOR should presume that this sample is representative of the workers'
           breathing zone, unless it demonstrates otherwise. Follow-up monitoring is
           required by OSHA when cadmium breathing zone exposure is above the action
           level. Medical surveillance is required by OSHA when the cadmium action level
           is exceeded for 30 days or more per year. In the narrative of its report and later
           follow up email correspondence, the UNICOR consultant did not bring the
           cadmium exposure that was above the action level to the attention ofUNICOR.
           Even though UNICOR should have conducted a follow-up evaluation, FOH
           acknowledges that monitoring of disassembly operations at other UNICOR
           factories has not found cadmium and lead exposures to be above the action level.

      3. 	 Based on surface wipe samples collected by NIOSH/DART in June 2007, lead
           and cadmium surface contamination in the factory can be controlled by
           implementing improved housekeeping and cleaning practices and by
           implementing an operations and maintenance (O&M) plan. An element ofthe
           O&M plan could include periodic clean-up of surfaces by inmate or other
           workers; however, this would have to be performed using proper hazard controls.
           This conclusion, however, is based on the 2007 levels remaining constant and not
           being allowed to increase (see Conclusion 4 for additional information on this
           issue).
      4. 	 In June 2007, NIOSH/DART found that lead surface contamination was
           significantly higher than levels found by a UNICOR consultant in June 2006.
           Similar surface contamination differences were found for cadmium. UNICOR
           should conduct further sampling and analysis to determine if surface levels are
           significantly increasing over time and should take any necessary preventive or
           corrective action based on the results (see Recommendations, Section 6.0 for
           more detailed information on further analyses recommended).

      5. 	 Given that glass breaking has never been performed at FCI Tucson, the source of
           surface dust contamination is not from glass breaking, but is from contamination
           which has been released to the air and re-deposited on surfaces during routine e­
           waste disassembly and handling. Effective cleaning and housekeeping practices,
           proper handling of dusts and debris resulting from cleaning and housekeeping,
           and possibly ongoing cleaning during disassembly are important to keep surface
           contamination in check and limit potential worker exposure during recycling
           operations.

      6. 	 NIOSH/DART observed that cleaning was primarily performed using brooms and
           brushes which can generate airborne dusts that contribute to inhalation exposures
           to toxic dust. Also, dry sweeping can cause dusts to become re-deposited on
           building surfaces, including elevated surfaces (see Attachment 1).

5.2      Noise, Heat, and Repetitive Stress Exposure

      7. 	 Spot noise measurements conducted by NIOSH/DART found noise exposure at
           levels that suggest the need for a more comprehensive noise study (see
           Attachment 1), beyond the limited monitoring conducted by NIOSH/DART. A
           previous noise evaluation conducted by OSHA did not reveal exposures above the
           level that requires implementation of a hearing conservation program, but the
           OSHA study was also of limited scope. UNICOR has not conducted a noise
           evaluation at FCI Tucson.

      8. 	 NIOSHIDART found that ambient outside temperature measurements and camp
           warehouse temperature measurements indicated the need to periodically evaluate
           heat stress potential in these areas and ensure implementation of proper
           precautions, as indicated from the evaluation (see Attachment 1). Heat exposure
           was not a factor in the general recycling factory and associated FCI warehouse on
           the days ofthe FOH and NIOSH/DART study.

      9. 	 NIOSH/DART observed tasks (such as lifting and using screwdrivers) being
           conducted in an awkward mauner which could produce repetitive stress injuries
           (see Attachment 1).
5.3      Safety and Health Programs, Plans, and Practices

      10. UNICOR's Quality Management System, "6.2.2 Competence, Awareness, and
          Training (Procedure)" calls for a basic 32-hour core curriculum course for staff.
          The same document outlines a basic job orientation for inmate workers. It
          includes safety instructions, hazard communications training, and instruction for
          the work assignment. Toxic metals hazards and controls are addressed in the
          course outline, including a concise procedure for handling of accidental breaking
          of CRT glass. The document contains safety rules that include mandatory safety
          shoes and safety glasses, restrictions on eating, drinking, chewing, and smoking in
          the demanufacturing area, brief hand washing requirements, brief lifting
          precautions, glove requirements, and other non-specific PPE instructions.

      11. UNICOR is in the process of providing a different disposable respirator for
          voluntary use to replace the existing single strap unit which is not tight fitting to
          the face. UNICOR and FCI Tucson personnel expressed some concern and/or
          uncertainty regarding requirements for its implementation, such as any
          requirement for fit testing. OSHA' s position is that fit testing is not required for
          voluntary use, but information from Appendix D of29 CFR 1910.134 must be
          provided to workers. See Section 3.1 ofthis report for information on this topic
          that will serve to assist UNICOR in implementation of this disposable respirator.

      12. UNICOR does not have a site-specific safety and health program for FCI Tucson
          recycling operations. Such a program that addresses both routine and non-routine
          activities would be a good practice for all UNICOR recycling facilities that do not
          have this type of program.

5.4      Health and Safety Regulatory Compliance

      13. Based on OSHA's and UNICOR's consultant monitoring performed in 2006,
          current routine FCI Tucson operations conducted in the factory and other
          associated areas (e.g., disassembly) are in compliance with the OSHA lead and
          cadmium standards regarding control of employee exposure at levels below the
          OSHA PEL. However, the one cadmium area sample that was above the action
          level raises concerns over compliance with the OSHA monitoring requirements
          for cadmium and possibly medical surveillance requirements if exposures above
          the action level occur for 30 days or more per year.

      14. The OSHA cadmium standard states that surfaces contaminated with cadmium
          shall be cleaned by vacuuming or other methods that minimize the likelihood of
          cadmium becoming airborne. NIOSH/DART observed that cleaning is primarily
          performed using brooms and brushes which can increase airborne exposures.
          OSHA explicitly restricts use of brushing as employed by UNICOR at FCI
          Tucson (see Attachment 1).
      15. At the time ofthe June 2007 NIOSHIDART and FOH investigation, UNICOR did
          not provide for heat exposure controls at FCI Tucson. Although OSHA does not
          have a heat exposure standard, it can enforce heat exposure controls under the
          General Duty Clause.

      16. UNICOR has not conducted a complete noise monitoring survey to ensure 

          compliance with 29 CFR 1910.95, Noise. 


5.5        Environmental Compliance

      17. No information was obtained that indicated that e-waste activities at FCI Tucson
          are currently subject to any environmental permits dealing with hazardous waste,
          air, or water/wastewater. Based on recent discussions with UNICOR
          representatives at FCI Tucson no such permits are currently in place.


6.0        RECOMMENDATIONS

Recommendations concerning safety, health, and environmental aspects ofUNICOR's e­
waste recycling operations at FCI Tucson are provided below under the following
subdivisions:

      •	   Heavy Metals Exposures;
      •	   Noise, Heat, and Repetitive Stress Exposure;
      •	   Safety and Health Programs, Practices, and Plans;
      •	   Health and Safety Regulatory Compliance; and
      •	   Environmental Compliance.

These recommendations relate to the conclusions presented in Section 5.0, above. Some
recommendations are taken from supporting documents such as the NIOSH/DART report
(Attachment 1) and OSHA inspection report (Attachment 2). See these reports for
additional recommendations, as well. Other recommendations are developed by FOH
from the body of data and documents reviewed to prepare this report. Recommendations
are provided for current factory operations (e.g., disassembly and associated activities).

6.1        Heavy Metals Exposures

      1. 	 UNICOR should conduct follow-up evaluation oflead and cadmium exposures
           including additional personal exposure (breathing zone) monitoring during
           disassembly and associated activities to determine the significance of the one
           cadmium area exposure result that was above the action level, but below the PEL.
           Guidance for further analysis and monitoring is recommended below.

           • 	 The minimum requirement specified in the OSHA cadmium standard is that
               breathing zone samples be taken at least every six months (and possibly more
               often) when any initial or periodic monitoring sample exceeds the action level.
       To justify discontinuation of monitoring for the personnel represented, two
       additional monitoring episodes at least seven days apart must indicate
       exposures to be below the action level. It is recommended that UNICOR
       conduct monitoring beyond the minimum requirement to ensure that
       variability in exposures be evaluated and to ensure that all activities that could
       result in exposure be captured.

   • 	 Additional monitoring should concentrate on the use of breathing zone
       samples, and represent the breadth of activities related to disassembly,
       including both routine and non-routine activities. UNICOR should ensure that
       additional exposure monitoring characterizes the activities and location
       represented by the area sample collected by its consultant in 2006 that
       exceeded the action level. Cleaning and any other activities that could disturb
       existing dust should also be monitored.

   • 	 The follow-up monitoring and analysis should involve more than just
       collecting samples. It should involve an analysis and documentation of the
       operations and activities conducted, their duration, pertinent observations,
       locations, types and quantities of materials processed, and any other
       information that is important to evaluate exposure levels and take preventive
       or corrective action in the future should exposures be elevated.

2. 	 Even if additional monitoring as recommended above shows that monitoring can
     be discontinued, it is recommended that UNICOR periodically conduct at least a
     limited amount of personal exposure monitoring that characterizes exposures
     resulting from current recycling and associated activities. This monitoring will
     serve to document continued control ofthe lead and cadmium hazards. An annual
     monitoring program would be appropriate. This recommendation goes beyond
     the requirements ofthe OSHA lead and cadmium standards, but would provide
     important documentation of consistently low exposures.

3. 	 If consistently low exposures are found over time, then monitoring could be
     limited to any new activities (e.g., non-routine or certain O&M activities) and
     future changes in work operations, work processes/practices, personal protection,
     and other practices. Exposure monitoring is an OSHA requirement when any
     change is made that could result in a new or additional lead or cadmium exposure.

4. 	 Given the higher surface contamination levels oflead and cadmium in 2007 over
     2006, UNICOR should implement an annual surface monitoring program to
     ensure that surface concentrations oflead and cadmium are not building up over
     time. As NIOSHIDART did, UNICOR should conduct sampling for both work
     surfaces and elevated surfaces in the factory and associated areas. The method of
     monitoring should be identical to the NIOSH/DART method to allow proper
     comparisons of data. UNICOR should implement this annual surface monitoring
     program for all recycling facilities to ensure that contamination levels are kept in
     check. This monitoring in combination with an effective O&M plan could avoid
   future costly remediation requirements (also see the O&M recommendation
   below).

5. 	 In conducting hazard evaluations that include exposure monitoring and surface
     sampling, UNICOR should select well qualified contractors, consultants, or
     internal industrial hygiene personnel with appropriate background, training,
     education, and experience for the assigned tasks. Industrial hygienist(s) certified
     by the American Board ofIndustrial Hygiene (ABIH) should provide leadership
     in hazard identification, evaluation, and control. Approved, standardized, and
     consistent methods should be applied. The industrial hygienists should provide a
     thorough evaluation of workplace conditions during monitoring episodes and
     provide a complete narrative discussion ofthe findings, along with conclusions
     and recommendations.

6. 	 UNICOR should develop and implement an operations and maintenance (O&M)
     plan at FCI Tucson to ensure that surface contamination is minimized and that
     existing contamination is not released that could result in inhalation or ingestion
     exposures. Elements of this plan could include:

   • 	 Identification of activities that could disturb contamination (e.g., HVAC
       maintenance, periodic or non-routine cleaning of elevated surfaces, and
       various building maintenance functions);

   • 	 Processes to identify and control hazards for routine and non-routine activities
       (e.g., job hazard analysis process prior to conducting certain work with
       identification of mitigating actions);

   • 	 Mitigating techniques and procedures during activities of concern (e.g., dust
       suppression and/or clean-up and capture, filter removal and bagging
       processes, hygiene and housekeeping practices, and use ofPPE and
       respiratory protection);

   • 	 Training and hazard communication;

   • 	 Disposal of contaminated materials; and

   • 	 Periodic inspection, monitoring and evaluation of existing conditions, as
       appropriate.

   At UNICOR's discretion, the O&M plan could also include periodic clean-up of
   surfaces by inmate or other workers, such as the elevated surfaces that
   NIOSH/DART found to contain the higher contamination levels. If this element
   were adopted, however, UNICOR should ensure that practices to control
   exposures are included in the plan and implemented, such as appropriate PPE,
   respiratory protection, exposure monitoring, clean-up methods (e.g., HEPA
   vacuuming and wet methods), waste disposal, hygiene and housekeeping
         practices, and others deemed appropriate by UNICOR. Initial exposure and/or
         additional monitoring for clean-up under the O&M plan should be conducted to
         determine whether exposure during clean-up is above the action levels and PELs
         for lead and cadmium. Controls for future clean-up activities should then be
         based on exposure results.

6.2      Noise, Heat, and Repetitive Stress Exposure

      7. 	 NIOSHIDART recommends that UNICOR evaluate FCI Tucson work activities
           for hazards related to lifting and other repetitive stress, and implement any
           appropriate procedures, training, or equipment to address the hazards (see
           Attachment 1, Recommendation 2). UNICOR should conduct a noise survey as
           recommended by NIOSH/DART (see Attachment 1, Measurements and
           Observations section) to ensure compliance with 29 CFR 1910.95, Noise.

      8. 	 NIOSH/DART recommends that UNICOR evaluate the heat exposure hazard to
           determine any precautions necessary to prevent heat strain and heat stress (see
           Attachment 1, Recommendation 3.)

6.3      Safety and Health Programs, Practices, and Plans

      9. 	 As a "good practice" approach, UNICOR should prepare a concise written safety
           and health document specifically for its recycling operations at FCI Tucson, as
           well as for each of its other recycling factories that lack such a document. Such a
           document should be developed and implemented and would serve to concisely
           define the safety and health practices and requirements specific to FCI Tucson
           recycling, such as PPE requirements or voluntary use, hygiene (e.g., hand
           washing) practices, daily and periodic housekeeping practices, special training
           requirements for any hazardous equipment use or other hazard controls, and other
           practices essential to conduct work safely. Elements ofthe inmate worker job
           orientation content that addresses safe work rules should be part ofthis document.

      10. Per OSHA requirements regarding voluntary respirator use, UNICOR should
          provide Appendix D of29 CFR 1910.134 to workers and ensure that the workers
          read and understand the information. In addition, UNICOR should ensure that
          workers understand the proper use and limitations of the respirators that UNICOR
          provides. For good practice documentation purposes, UNICOR should have
          inmate workers read and sign Appendix D of29 CFR 1910.134, and UNICOR
          and FCI Tucson should maintain the Appendix D signed records.

      11. BOP and UNICOR should implement a system to list, track, address, accept or
          not accept, and close out recommendations or deficiencies identified by its health
          and safety staff, consultants, and others, including from the OIG investigation.
          This system will also assist in clearly defining responsibility for actions between
          UNICOR and BOP. This recommendation applies to all UNICOR recycling
          factories and will be further discussed in the OIG final report.
6.4      Health and Safety Regulatory Compliance

      12. FCI Tucson should conduct an activity-based job hazard analysis (JHA) for any
          new, modified, or non-routine work activity prior to the work being conducted.
          The JHA process is intended to identify potential hazards and implement controls
          for the specific work activity prior to starting the work. For instance, the JHA
          process should be integral to an effective O&M plan, as described in Section 6.1.

      13. Per OSHA's 2006 recommendation and FCI Tucson's statement that one is to be
          scheduled, UNICOR and FCI Tucson should conduct a baseline industrial
          hygiene survey (see Attachment 2).

      14. As recommended by NIOSH/DART (see Attachment 1, Recommendations 5 and
          6), UNICOR should discontinue broom and brush cleaning of dusts containing
          lead, cadmium, and other toxic metals. Instead, HEPA vacuuming and wet
          methods should be used. Hand washing should be strictly enforced before eating,
          drinking, smoking, and after work shifts are completed. OSHA also
          recommended vigilance in keeping hands clean to avoid transmission of
          contaminants (see Attachment 2).

      15. Based on additional monitoring results recommended in Section 6.1, UNICOR
          should implement any actions that are required under the OSHA lead and
          cadmium standards or that are appropriate to reduce employee exposures, such as
          equipment cleaning prior to or during disassembly, PPE modifications,
          housekeeping practices, and others.

6.5      Environmental Compliance

      16. In implementing clean-up methods, UNICOR should evaluate the wastes from
          HEP A vacuums, mop rinse water, and other potentially contaminated debris to
          determine acceptable disposal methods per U.S. EPA regulations. The FCI
          Tucson Lead Safety Specialist identified this need and indicated that these
          evaluations are planned or currently underway.


7.0      REFERENCES

CFR. [29 CFR 1910.1027]. Occupational Safety and Health Standards. Cadmium. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR. [29 CFR, Part 1910.1025]. Occupational Safety and Health Standards. Lead. Code
of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.
CFR. [29 CFR, Part 1926.62]. Safety and Health Regulations for Construction. Lead.
Code of Federal Regulations. Washington, DC: U.S. Government Printing Office, Office
ofthe Federal Register.

CFR. [29 CFR 1910.134]. Occupational Safety and Health Standards. Respiratory
Protection. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR. [29 CFR 1910.95]. Occupational Safety and Health Standards. Occupational Noise
Exposure. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR. [29 CFR, Part 1960]. Basic Program Elements for Federal Employees. Code of
Federal Regulations. Washington, DC: U.S. Government Printing Office, Office ofthe
Federal Register.

CFR [40 CFR, Part 745]. Lead-based Paint Poisoning Prevention in Certain Residential
Structures. Code of Federal Regulations. Washington, DC: U.S. Government Printing
Office, Office of the Federal Register.

CFR [24 CFR 35, subparts B-R]. Lead Safe Housing Rule. Code of Federal Regulations.
Washington, DC: U.S. Government Printing Office, Office of the Federal Register.

EPA [2002, June 12]. Proposed Rule on Discarded Cathode Ray Tubes and Mercury­
Containing Equipment. Code of Federal Regulations. Washington, DC: U.S. Government
Printing Office, Office ofthe Federal Register.

Lange JH [2001]. A suggested lead surface concentration standard for final clearance of
floors in commercial and industrial buildings. Indoor and Built Environment 10:48-51.

NIOSH [2005]. NIOSH Pocket Guide to Chemical Hazards (Appendix A), Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control and Prevention, National Institute for Occupational Safety and Health,
DHHS (NIOSH) Publication No. 2005-149.

NIOSH [2008]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Elkton Federal Correctional Institution, Elkton, Ohio. Cincinnati,
OH: U.S. Department of Health and Human Services, Public Health Service, Centers for
Disease Control, National Institute for Occupational Safety and Health DHHS (NIOSH)
Publication No. EPHB 326-12a. (Please refer to this documentfor additional citations to
relevant reference documents.)

NIOSH [2008]. Control technology and exposure assessment for electronic recycling
operations, UNICOR, Tucson Federal Correctional Institution EPHB 326-18a.
OSHA [CPL 02-02-058]. OSHA Directive. Lead Exposure in Construction. 29 CFR
1926.62.

OSHA [2006]. Department of Labor OSHA Inspection Number 309845071 -- Federal
Correction Institution Tucson (FCI Tucson) -- 04/27/06
ATTACHMENT 1 

         WALK-THROUGH SURVEY REPORT: 

        ELECTRONIC RECYCLING OPERATION 


                            At 


       FEDERAL CORRECTIONAL INSTITUTION 

               TUCSON, ARIZONA 





                 PRINCIPAL AUTHOR: 

           G. Edward Burroughs, Ph.D., CIH, CSP




                     REPORT DATE: 

                      February 2009 





                        FILENO.: 

                      EPHB 326-l8a 





U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES 

          Centers for Disease Control and Prevention 

     National Institute for Occupational Safety and Health 

        Division of Applied Research and Technology 

                    4676 Columbia Parkway 

                    Cincinnati, Ohio 45226 

SITES SURVEYED:         UNICOR                       Recycling Operations
                                            Federal Correctional Institution
Tucson,                                             AZ

NAICS: 562920

SURVEY DATE:                                June 27 - 28, 2007

SURVEY CONDUCTED BY:                        Edward Burroughs, PhD, CIH, CSP (NIOSR)
  Paul                                         Pryor, MS, CIH (FOR)




"The findings and conclusions in this report have not been formally disseminated by the
National Institute for Occupational Safety and Health and should not be construed to
represent any agency determination or policy. "




                                             2

                                       DISCLAIMER 


Mention of company names or products does not constitute endorsement by the Centers for
Disease Control and Prevention.

The findings and conclusions in this report do not necessarily reflect the views ofthe
National Institute for Occupational Safety and Health.




                                              3

                                     INTRODUCTION 



On June 27 - 28, 2007 a researcher from the National Institute for Occupational Safety and
Health (NIOSH), accompanied by a representative from Federal Occupational Health (FOH),
conducted a walk-through evaluation of exposures to metals and other occupational hazards
associated with the recycling of electronic components at the Federal Prison Industries (aka,
UNICOR) facility in the Federal Correctional Institution (FCI), Tucson, AZ. The principal
objectives of this visit were:
a.      To observe potential exposures to metals including barium (Ba), beryllium (Be),
cadmium (Cd), lead (Pb) and nickel (Ni).
b.      To evaluate contamination of surfaces in the work areas that could create dermal
exposures or allow re-entrainment of metals into the air.
c.      To identify and describe the control technology and work practices used in operations
associated with occupational exposures to toxic substances, and to determine additional
controls, work practices, substitute materials, or technology that can further reduce these
exposures.
d.      To evaluate the use of personal protective equipment in operations involved in the
recycling of electronic components.

PROCESS DESCRIPTION
The recycling of electronic components at this prison is done in a facility located within the
Federal Correctional Institution (FCI). A diagram ofthat facility is shown in Figure I. This
figure provides a general layout of the work process, although workers often moved
throughout their respective areas in the performance of their tasks. The population of the
UNICOR facility was approximately 86 in the FCI factory with an additional 25 in the camp
warehouse.

The recycling of electronic components at this facility can be organized into three production
processes: a) receiving and sorting, b) disassembly, and c) packaging and shipping.
Incoming materials to be recycled are received at a warehouse where they are examined and
sorted. During this evaluation it appeared that the bulk ofthe materials received were
computers, either desktop or notebooks, or related devices such as printers. Some items,
notably notebook computers, could be upgraded and resold, and these items were sorted out
for that task.

 After electronic memory devices (e.g., hard drives, discs, etc.) were removed and degaussed
or destroyed, computers' central processing units (CPUs), servers and similar devices were
sent for disassembly; monitors and other devices (e.g., televisions) that contain cathode ray
tubes (CRTs) were separated and sent for disassembly and removal of the CRT. Printers,
copy machines and any device that could potentially contain toner, ink, or other expendables
were segregated and those expendables were removed prior to the device being sent to the
disassembly area.

In the disassembly process external cabinets, usually plastic, were removed from all devices
and segregated. Valuable materials such as copper wiring and aluminum framing were



                                              4

removed and sorted by grade for further treatment if necessary. Components such as circuit
boards or chips that may have value or may contain precious metals such as gold or silver
were removed and sorted. With few exceptions each of the workers in the main factory will
perform all tasks associated with the disassembly of a piece of equipment into the mentioned
components with the use of powered and un-powered hand tools (primarily screwdrivers and
wrenches), with a few workers collecting the various parts and placing them into the proper
collection bin. Work tasks included removing screws and other fasteners from cabinets,
unplugging or clipping electrical cables, removing circuit boards, and using whatever other
methods necessary to break these devices into their component parts. Essentially all
components currently are sold for some type of recycling.

The final process, packing and shipping, returned the various materials segregated during the
disassembly steps to the warehouse to be sent to contracted purchasers ofthose individual
materials. To facilitate shipment some bulky components such as plastic cabinets or metal
frames were placed in a hydraulic bailer to be compacted for easier shipping. Other materials
were boxed or containerized and removed for subsequent sale.

 A fourth production process, the glass breaking operation where CRTs from computer
monitors and TVs were sent for processing, was not currently being done at Tucson. CRTs
are shipped, unbroken, from Tucson to other locations for breaking and recycling. This
process was observed and evaluated at other UNICOR facilities as part ofthis research and
those reports are available.

POTENTIAL HAZARDS
Computers and their components contain a number of hazardous substances. Among these
are "platinum in circuit boards, copper in transformers, nickel and cobalt in disk drives, Ba
and Cd coatings on computer glass, and Pb solder on circuit boards and video screens"
[Chepesink 1999]. The Environmental Protection Agency (EPA) notes that "In addition to
lead, electronics can contain chromium, cadmium, mercury, beryllium, nickel, zinc, and
brominated flame retardants" [EPA 2008]. Schmidt [2002] linked these and other substances
to their use and location in the "typical" computer: Pb used to join metals (solder) and for
radiation protection, is present in the CRT and printed wiring board (PWB). Aluminum,
used in structural components and for its conductivity, is present in the housing, CRT, PWB,
and connectors. Gallium is used in semiconductors; it is present in the PWB. Ni is used in
structural components and for its magnetivity; it is found in steel housing, CRT and PWB.
Vanadium functions as a red-phosphor emitter; it is used in the CRT. Beryllium, used for its
thermal conductivity, is found in the PWB and in connectors. Chromium, which has
decorative and hardening properties, may be a component of steel used in the housing.
Cadmium, used in Ni-Cad batteries and as a blue-green phosphor emitter, may be found in
the housing, PWB and CRT. Cui and Forssberg [2003] note that Cd is present in components
like SMD chip resistors, semiconductors, and infrared detectors. Mercury may be present in
batteries and switches, thermostats, sensors and relays [Schmidt 2002, Cui and Forssberg
2003], found in the housing and PWB. Arsenic, which is used in doping agents in transistors,
may be found in the PWB [Schmidt 2002].




                                             5

                              EVALUATION TECHNIQUES 


Observations regarding work practices and use of personal protective equipment were
recorded. Information was obtained from conversations with the workers and management
to confirm this was a typical workday to help place conclusions in proper perspective.

Bulk material samples were collected by gathering a few grams of settled dust or material of
interest and transferring this to a glass bottle for storage and shipment. These samples were
analyzed for metals using NIOSH Method 7300 [NIOSH 1994] modified for bulk digestion.

Surface wipe samples were collected using Ghost™ Wipes for metals (Environmental
Express, Mt. Pleasant, SC) to evaluate surface contamination. These wipe samples were
collected in accordance with ASTM Method D 6966-03 [ASTM 2002], using a disposable
paper template with a 12 inch by 12 inch square opening. The templates were held in place
by hand or taped in place to prevent movement during sampling. Wipes were placed in
sealable test tube containers for storage and then sent to the laboratory to be analyzed for
metals according to NIOSH Method 7303 [NIOSH 1994].

An assessment of noise levels in various locations was made using a hand held sound level
meter (Model 2400, Quest Technologies, Oconomowoc, WI) calibrated on-site prior to use
with a 110 dB source. All noise measurements were weighted on an "A" scale, slow
response.

Ambient dry bulb temperature and humidity measurements were made periodically with a
Velocicalc Plus (TSI Inc., Shoreview, MN) air meter.

                       MEASUREMENTS AND OBSERVATIONS

The measurements and observations described here were made in June, 2007 at the UNICOR
recycling operation at FCI Tucson. During this visit, surface wipe and bulk dust samples
were collected in locations where the electronics recycling operations were taking place or
had taken place in the past. Results of surface wipe samples are presented in Table 1 and
bulk material sample results are presented in Table 2 for the metals of primary interest.
Observations are presented below.

The highest measurements for lead by wipe samples were those taken from the top oflight
fixtures in locations accessible only from a ladder. Six of the 17 wipe samples were taken
from these locations, and 5 of these 6 samples were >300 Ilg Pb/sq ft. One ofthese samples
(TFMWW-l) was in excess of the 1,000 Ilg Pb/sq ft concentration recommended by Lange
for final clearance of floors in commercial and industrial buildings (the most applicable
recommendation found). Of the 11 other surfaces tested, all but one were below 200 Ilg
Pb/sq ft, the most stringent recommendation found and a level which OSHA "would not
expect surfaces to be any cleaner than." [Fairfax 2003],. Additionally, the 200 Ilg/sq ft
recommendation applies to clean areas such as lunch areas, change areas, and storage areas,
rather than work areas where lead containing materials are actively processed.




                                              6
The highest Cd surface measurement (TFMWW-4) was 100 Ilg/sq ft., with all others below
80 Ilg/sq ft. Although there are no published criteria for use in evaluating wipe samples, the
OSHA Cadmium standard [29 CFR 1910.1027] mandates that "All surfaces shall be
maintained as free as practicable of accumulations of cadmium," that, "all spills and sudden
releases of material containing cadmium shall be cleaned up as soon as possible," and that,
"surfaces contaminated with cadmium shall, wherever possible, be cleaned by vacuuming or
other methods that minimize the likelihood of cadmium becoming airborne."

Ni surface contamination was highest in samples TFMWW-1 and TFMWW-4 at 780 and 670
Ilg/sq ft, respectively. All other measurements were at or below 460 Ilg/sq ft, and the
maximum work surface measurement was 210 Ilglsq ft. Like Cd, there are no published
criteria for use in evaluating wipe samples for Ni and while the toxicity ofthis metal is
somewhat dependent on species no compound identification was conducted.

Wipe samples did not indicate levels ofBa in any wipe samples at levels of concern, with the
highest Ba concentrations (TFMWW-1 & 4) at 410 and 460 Ilg/sq ft. All other Ba
measurements were 200 Ilglsq ft or below. There are no published criteria for use in
evaluating wipe samples.

No Be was detected in any sample from the Tucson FCr above the limit of detection of 0.06
Ilg/sq ft.

The five bulk samples showed no discernable pattern of contamination in this facility. No Be
was detected in any bulk sample above the limit of detection of 0.3 mg/kg. The highest
metal concentrations were Pb at 1,000 mg/kg and Ni at 880 mg/kg in samples TFMWB-1 and
4, respectively. These two samples were collected from opposite comers ofthe factory area,
as shown on Figure 1.

Operations at the Tucson FCr were similar to procedures observed at other UNrCOR
recycling facilities where personal exposures have been evaluated and at which there were
few significant exposures in the receiving and sorting, disassembly, and packaging and
shipping processes.

No local exhaust ventilation systems were in use at the time ofthis visit nor were any needed.
Work areas were kept reasonably clean, primarily by the use of brooms and brushes which
can be a source of airborne dust, so the use of HEP A vacuums and wet mopping is
recommended in the next section. Care must be taken when using wet methods to assure no
electrical or other safety hazard is introduced.

Safety glasses were used in most operations. Hearing protection was available where needed
(primarily near the bailer) and disposable respirators were available to workers who chose to
use them although respirators were not required at this facility.

Spot measurements of noise made with a hand-held sound pressure meter suggested the need
for a more comprehensive noise study. Peak levels up to 103 dBA near the plastic bailer and
86 dBA near the metal bailer were measured with durations of20 to 40 seconds. rn the area


                                               7

where hard discs were being destroyed by puncturing, shorter duration «2 seconds) peaks
over 100 dBA (up to 112) were common and the background noise level was in the range of
80 to 85 dBA.

Ambient indoor temperatures ranged from 71 to 81°F in the factory and to 91 of in the
warehouse, with relative humidity's from 30 to 60%. Outdoor temperatures in excess of
100°F were measured.

                     CONCLUSIONS AND RECOMMENDATIONS

Based on measurements and observations presented, the following recommendations are
made.
   1. 	 Training of workers should be scheduled and documented in the use of techniques for
        dust suppression, personal protection equipment (e.g., respirators, gloves, etc.) and
        hazard communication. Additional training, recordkeeping and other restrictions
        apply if a formal respiratory protection program is implemented.
   2. 	 Frequently while conducting the on-site work, NIOSH researchers observed tasks
        (such as lifting and using screwdrivers) being conducted in an awkward manner
        which could produce repetitive stress injuries. Tasks should be evaluated to
        determine if they are biomechanically taxing and if modifications in procedures or
        equipment would provide benefit to this workplace.
   3. 	 Ambient temperature measurements indicate that heat stress should be periodically
        evaluated to ensure proper precautions are in place to prevent problems associated
        with a hot environment.
   4. 	 A program should be established within the Bureau of Prisons to assure that all
        UNICOR operations, including but not limited to recycling, should be evaluated from
        the perspective of health, safety and the environment in the near future. This program
        should be overseen by competent, trained and certified individuals.
   5. 	 Due to the levels of surface contamination ofPb measured in the recycling facility,
        workers should wash their hands before eating, drinking, or smoking.
   6. 	 Daily and weekly cleaning of work areas by HEPA-vacuuming and wet mopping
        should be conducted, taking care to assure no electrical or other safety hazard is
        introduced.
   7. 	 A comprehensive noise survey should be conducted focusing on the bailing and disk­
        destroying areas since spot measurements showed these are the most likely areas for
        potential noise problems.




                                              8

                                      REFERENCES 



ASTM [2002]. Standard practice for collection of settled dust samples using wipe sampling
methods for subsequent determination of metals. West Conshohocken, PA: ASTM
International.

CFR. Code of Federal regulations. Washington, DC: U.S. Government Printing Office,
Office of the Federal Register.

Chepesiuk R [1999]. Where the chips fall: environmental health in the semiconductor
industry. Environ Health Perspect. 107:A452-A457.

Cui J, Forssberg E [2003]. Mechanical recycling of waste electric and electronic equipment:
a review. J Hazard Mater. 99:243-263.

EPA [2008]. eCycling. Available on-line at http://www.epa.gov/ecyclingl. Accessed
June 3, 2008.

Fairfax RE [2003]. Letter of January 13,2003 from RE Fairfax, Director, Directorate
of Compliance Programs, OSHA, to Frank White, Vice President, Organization
Resource Counselors, Inc. Available at
http://www.osha.gov/pls/oshaweb/owadisp.show_document?p_ table~INTERPRETA
TIONS&p_id~25617. Accessed May 12,2008

Lange JH [2001]. A suggested lead surface concentration standard for final clearance
of floors in commercial and industrial buildings. Indoor and Built Environment
10:48-51.

Schmidt CW [2002]. e-Junk explosion. Environ Health Perspect. 110:A188-A194.

NIOSH [1994]. NIOSH Manual of Analytical Methods (NMAM®), 4th ed. Schlecht, P.C. &
O'Connor, P.F. eds. Cincinnati,OH: U.S. Department of Health and Human Services,
Centers for Disease Control and Prevention, National Institute for Occupational Safety and
Health, DHHS (NIOSH) Publication 94-113 (August, 1994), 1st Supplement Publication 96­
135, 2nd Supplement Publication 98-119, 3rd Supplement 2003-154.




                                             9

                                                             Table 1.
                                                   TUCSON WIPE SAMPLES

 Sample                                                               Ba          Be         Cd          Pb          Ni 

Location*     Sample ID       Sample Description**               u2/SQ ft       u2/SQ ft   u2lSQ ft    u2/SQ ft    u2/SQ ft 

                              Top of Light Fixture Near Work
    1 TFM          WW-1       Stations 16 & 18                          410       <0.06           76      1,300         780
                              Top of Light Fixture Center of
    2TFM           WW-2       Shop near WS 8 + 25                          69     <0.06           20          83         53
                              Top of Light Fixture Behind W
    3TFM           WW-3       S7                                        290       <0.06           74       290          300
                              Top of Light Fixture Beside W
    4TFM           WW-4       S 19                                      460       <0.06         100        900          670
                              Top of Light Fixture Behind W
    5TFM           WW-5       S 28                                      190       <0.06           47       460          170
                              Top of Light Fixture in Bailing
   6TFM         WW-6          Room Between Bailers                      100       <0.06           74       310          460
   7         TFMWW-7          Work Surface W S 4                         48       <0.06            8        73          170
   8         TFMWW-8          Work Surface W S 10                        37       <0.06           14        58           91
   9         TFMWW-9          Inside trough in front of W S 10           75       <0.06           37        99          210
   10        TFMWW-10         Work Surface W S 15                        49       <0.06           13       210          100
   11        TFMWW-11         Work Surface W S 20                        40       <0.06            6        51          120
   12        TFMWW-12         Trough in Front ofW S 20                   15       <0.06            4        23           43
   13        TFMWW-13         Top of Work Surface W S 26                 10       <0.06            3       150           42
   14        TFMWW-14         Work Surface W S 30                        12       <0.06            4        24           32
   15        TFMWW-15         Work Surface W S 33                        29       <0.06            3        32           43
   16        TFMWW-16         Trough in Front ofW S 33                   54       <0.06            6       110          110
   17        TFMWW-17         Inside Metal (Blue) Bailer                 81       <0.06           14        32          130


* Location identifiers correspond with Figure I
** "W S" indicates work station

                                                                 10
                                                             Table 2. 

                                                  TUCSON BULK SAMPLES 




Diagram                                                                     Ba       Be       Cd         Pb       Ni
location*    Sample ID                    Description**                    mwk2     m2/k2    m2/k2      mwk2     m2/k2
    A        TFMWB-l        Bottom of Trash Can at W S 20                     290     <0.3         52     1000      140

    B         TFMWB-2       Top of Conduit Along Wall, near W S 14            440     <0.3      130        590      310

                            Dirt from Floor of Semi-Trailer used to haul
    C THy        WB-3       product between warehouse & shop                  240     <0.3          5      110       31
    D         TFMWB-4       DustfromHEPA VacNearWS 1                          380     <0.3         42      790     880

    E         TFMWB-5       Dust from HEPA VacNearWS 14                        20     <0.3         14       34         60


* Location identifiers correspond with Figure I
** "W S" indicates work station




                                                                11 

        Figure I        Tucson UNICOR Floor Plan




                                                    "

                                           D               ~'
                                            •          \
                                                                   •
                   [lj'O          L
 C

'l.:'
                      BAlERS
                                      12   0 8,,
                               -­          rACTOR'!'
                                                       ,       ~
~
        IJAR(HlllS(
                               -_.     5
                                            \3
                                                           7


                                            I

                       i'-:   -
        M ~- r"l                                               l
        ! !'" "
                                                                   D


                                                                   (
                                      ":k-J                    ~.

                                           '1
                                                •

        EXlsnflKi UNICOR []FFICE AREA 





                               12 

ATTACHMENT 2 

u.s.   Department of
Occupational Safet;o,' IlJld Health   d
                                      -:
                                           ration

Inspection Report




                                                    Federal Correctional inslil'UtiOD Tucson
                                                                  Site     (520)
                                                                  Phone
                                                                  Mail     (520)
                                                                  Phone




                                                                         Number        Salisfied




                                                                           Ins led
                                                                           NAtes


                     H. Programmed Planned
                     B. Partial Inspection




                                                                                                OSHA 001746

                                                                                               OSF~-l   (Rev. 7/02)
                            ion

Inspection Narrative

MOil May I, 2006 11 :5lam
                                  09845071




                                    OSHA 001747

                                    OSHA-JA(Rev, 6/93)
         Correction lnslltut10n                     Tucson}
8901 South Wilmot Rd.
          A2 85706

CSHO conducted an       '-'1.I'_JILlI   t""""'...,.... on 4-26·06 (wed) and                OSHA
credentials. CSHO                       ........'u,·""'.... cards. Presenl Were production controller,
Associate Warden,                                  Safety manager and Union rep.              indicated
(he nal'ure and scope of                    was a programmed planned                   afthe
Unicor Recycling operations at          facility.         indicated that personal and general
area air sampling would                                      was observed           the walk
around.
      Tucson is a medium              facility which has approximately
       members. The Unicor                consists of four employees and
Unicor operal.ion consists of a                 loealed at the new                          located
a short three minute drive up               The warehouse is
compulers printers and                         in and evaluated and
        for usability and some             IS saJvaged and olhers are              for recycling.
      sorted material is sent to the           by truck for recycling               At the factory
there is a main production area. :to this area there are t\.vo              and severaJ tables in
the rear of the room workSl:ifioos for the                                   a set ofloo1s at the
start of the shift and are           to wear eye protection, foot                 and bave fhe
option of dust masks, and aprons.            and face washing is                      leaving the
racililY for lunch and al tbe                    . There is a Bailing area, where metal, plastic,
and cardboard are baJed employees who operate Ihis equipment                        trained and are
familiar with the hazards associated with lhis work. There is a                         the glass
           area was scheduled to be located but is now used for                There has never
                       of                                                   10 another facility
                                                                                             cage



CSHO conducted personal        samples on the staff members and
pumps in [he inmate work areas.            the sampling one
was nOI feeling well and          to attribute it \0 wearing the
d.isclosed 10 CSHO the        was removed from the employee.
metal scan which will              several metals and includes
berrylium. All         results were below the OSHA PEL
the need for continue           on keeping hands clean in


              documents were rec.eived and reviewed. The            nOl have its own
                            process         or
                                        scbeduling it.              tests were
                                     breaking operation that [lever             and




                                                                                                     OSHA 001148
                                                                    .....
                                                                      )



The Exit conference consisted 0                              )_(asso~
                (production controller)                  safety Manager) and _
(union). CSHO provided a copy of the OSHA 3000 and indicated the employer's rights
and responsibilities following an OSHA inspection. (The union requested a copy of the
pamphlet and it was given to them as well)
CSHO indicated that overall the facility looked very good and no apparent violations of
the OSHA standards were observed. CSHO noted several positive highlights such as the
MSDS program and the monthly safety inspections of the site and the fact that all training
material and other documentation were made readily available. During the visit the
facility received a copy of their ISO certification which is a. prestigious honor in the
recycling field. CSHO did indicate that pending the results of the samples coming back
below the OSHA PEL then no citations would be issued. CSHO also encouraged the
facility to continue with its scheduled industrial hYglene baseline survey plan and to
provide me with a copy oftlle results. CSHO indicated that a final closing conference
would be held d by Phone with the Warden and the Union when Ihe results came in.
CSHO answered questions and comments and exited the sile.

CSHO spoke with BOP National Safety Manager on 5/15/06 Re sample results and
inspection findings.

CSHO spoke with Warden by phone on 5/15/06 and heJd final closing conference. I
indicated that samples were below PEL and no citations were scheduled. I did indicate
that hand washing should be emphasized to the inmates and staff. She indicated that
Union President would be available for a closing call the next day.

CSHO spoke with Union President by phone on 5117/06 and held a final closing
conference. I indicated that samples were below the PEL and no citations would be
issued. ] reemphasize{] the hand washing as well. I infonned President that ifhe had any
additional concerns or questions he could contact me.

Note: During the Inspection there was an issue with the union representation. On the first
day of the inspection Mr. B. was the designated representative. On the next day CSHO
repeatedly requested Mr. B '5 participation and it was discovered that he didn'l come
because Mr. S. was appointed the union representative by the President of the union in an
email to the Warden dated the previous night.Mr. S. did approach CSHO while she was
conducting sampling and requested to be at closing conference. There was a question of
if Mr. S. was a bargaining union employee and was entitled to be the union rep. CSHO
indicated her desire 10 stay out of labor management issues and indicated that there was
no problem WiUl Mr.S. and she ensured that Mr. S. attended the closing as requested.
CSHO also met privately with Mr. S. on the first day of the inspection in his capacity as
"safety officer". The following day in his capacity as "union representative"..CSHO was
very clear with Mr. S. had my card and phone number so he could contact OSHA if there
were any additional issues.




                                                                                       OSHA 001749
